<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2012 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 112-80, Part 1]
[From the U.S. Government Publishing Office]




                                                  S. Hrg. 112-80, Pt. 1

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 1

                            MILITARY POSTURE
        U.S. SPECIAL OPERATIONS COMMAND AND U.S. CENTRAL COMMAND
                         DEPARTMENT OF THE NAVY
                      DEPARTMENT OF THE AIR FORCE
            U.S. EUROPEAN COMMAND AND U.S. STRATEGIC COMMAND
                         DEPARTMENT OF THE ARMY
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
          U.S. TRANSPORTATION COMMAND AND U.S. AFRICA COMMAND
               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
                 THE F-35 JOINT STRIKE FIGHTER PROGRAM

                               __________

   FEBRUARY 17; MARCH 1, 8, 17, 29, 31; APRIL 5, 7, 12; MAY 19, 2011

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/
?

  

                  U.S. GOVERNMENT PRINTING OFFICE
68-084                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                            Military Posture
                           february 17, 2011

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense; Accompanied by 
  Robert F. Hale, Under Secretary of Defense, Comptroller........    15
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....    25

        U.S. Special Operations Command and U.S. Central Command
                             march 1, 2011

Olson, ADM Eric T., USN, Commander, U.S. Special Operations 
  Command........................................................   175
Mattis, Gen. James N., USMC, Commander, U.S. Central Command.....   182

                         Department of the Navy
                             march 8, 2011

Mabus, Hon. Raymond E., Jr., Secretary of the Navy...............   261
Roughead, ADM Gary, USN, Chief of Naval Operations...............   275
Amos, Gen. James F., USMC, Commandant of the Marine Corps........   294

                      Department of the Air Force
                             march 17, 2011

Donley, Hon. Michael B., Secretary of the Air Force..............   433
Schwartz, Gen. Norton A., USAF, Chief of Staff of the Air Force..   456

            U.S. European Command and U.S. Strategic Command
                             march 29, 2011

Stavridis, ADM James G., USN, Commander, U.S. European Command/
  Supreme Allied Commander, Europe...............................   543
Kehler, Gen. C. Robert, USAF, Commander, U.S. Strategic Command..   587

                         Department of the Army
                             march 31, 2011

McHugh, Hon. John M., Secretary of the Army......................   669
Casey, GEN George W., Jr., USA, Chief of Staff of the Army.......   701

            U.S. Northern Command and U.S. Southern Command
                             april 5, 2011

Winnefeld, ADM James A., Jr., USN, Commander, U.S. Northern 
  Command and Commander, North American Aerospace Defense Command   757
Fraser, Gen. Douglas M., USAF, Commander, U.S. Southern Command..   765

          U.S. Transportation Command and U.S. Africa Command
                             april 7, 2011

McNabb, Gen. Duncan J., USAF, Commander, U.S. Transportation 
  Command........................................................   842
Ham, GEN Carter F., USA, Commander, U.S. Africa Command..........   852

               U.S. Pacific Command and U.S. Forces Korea
                             april 12, 2011

Willard, ADM Robert F., USN, Commander, U.S. Pacific Command.....   926
Sharp, GEN Walter L., USA, Commander, United Nations Command/
  Combined Forces Command/U.S. Forces Korea......................   940

                 The F-35 Joint Strike Fighter Program
                              may 19, 2011

Carter, Hon. Ashton B., Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................   999
Fox, Hon. Christine H., Director, Cost Assessment and Program 
  Evaluation, Department of Defense..............................  1009
Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Department of Defense..............................  1012
Van Buren, David M., Principal Deputy Assistant Secretary for the 
  Air Force for Acquisition......................................  1017
Venlet, VADM David J., USN, Program Executive Officer, F-35 
  Lightning II Program...........................................  1053
Burbage, Charles T. ``Tom'', Executive Vice President and General 
  Manager, F-35 Program Integration, Lockheed Martin Aeronautics 
  Company........................................................  1054
Sullivan, Michael J., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................  1057


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:30 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Nelson, Webb, McCaskill, Udall, Hagan, Begich, Manchin, 
Shaheen, Gillibrand, Blumenthal, McCain, Inhofe, Chambliss, 
Wicker, Brown, Portman, Ayotte, Collins, and Graham.
    Committee staff members present: Richard D. DeBobes, staff 
director; Christine E. Cowart, chief clerk; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Gabriella E. Fahrer, counsel; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Gerald J. Leeling, counsel; Jason W. Maroney, counsel; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; Roy F. Phillips, professional staff member; John 
H. Quirk V, professional staff member; Russell L. Shaffer, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Pablo E. Carrillo, minority investigative counsel; Daniel A. 
Lerner, professional staff member; Lucian L. Niemeyer, 
professional staff member; Christopher J. Paul, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: Kathleen A. Kulenkampff, 
Christine G. Lang, Brian F. Sebold, Bradley S. Watson, and 
Breon N. Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Ann 
Premer, assistant to Senator Nelson; Gordon Peterson, assistant 
to Senator Webb; Tressa Guenov, assistant to Senator McCaskill; 
Jennifer Barrett, assistant to Senator Udall; Anthony Lazarski, 
assistant to Senator Inhofe; Lenwood Landrum, assistant to 
Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; and Ryan Kaldahl, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee welcomes this morning Secretary of Defense 
Robert Gates and Chairman of the Joint Chiefs of Staff Admiral 
Michael Mullen for our hearing on the Department of Defense's 
(DOD) fiscal year 2012 budget request, the associated Future 
Years Defense Program (FYDP), and the posture of the U.S. Armed 
Forces. We also recognize Secretary Hale and welcome him here 
this morning as well.
    We are thankful to all of you and your families for your 
dedicated service to this Nation and to the soldiers, sailors, 
airmen, and marines at home and in harm's way around the globe, 
and to their families. Your personal commitment to the welfare 
of our troops and their families shines through all that you 
do. The American people are grateful for that and we are 
grateful and eager to help wherever we can.
    DOD, like all Federal agencies, is currently operating 
under a continuing resolution (CR) that expires on March 4, 
2011. If the current CR is extended for the whole year, then 
DOD's base funding of $526 billion for fiscal year 2011 would 
be $23 billion below the original fiscal year 2011 request of 
$549 billion. Secretary Gates will describe to us this morning 
this situation as a crisis on his doorstep. I hope that we will 
soon, as a committee, be in a position to enact a full year 
appropriation at an appropriate level and that the full Senate 
will adopt such an appropriation.
    At a time when we face a budget deficit in excess of $1 
trillion and many in Congress are convinced that we need steep 
spending cuts to put our fiscal house in order, no part of the 
Government, including DOD, can be exempt from close 
examination. The Secretary of Defense has subjected DOD's 
budget to close examination. He has insisted on efficiencies, 
streamlining, cuts, and cancellations that we are told add up 
to $178 billion over the course of the next 5 years. The fiscal 
year 2012 base budget request of $553 billion is $4 billion 
higher than last year's request but is a reduction in 
inflation-adjusted terms. We will be closely scrutinizing the 
Secretary's efficiencies initiative and will be looking for 
additional efficiencies as we move through the legislative 
process.
    The total defense budget, which includes base funding for 
DOD and additional funding for overseas contingency operations 
(OCO)--that total defense budget declines from $708 billion in 
fiscal year 2011 to $671 billion in fiscal year 2012. That 
decline is due largely from our continued withdrawal from Iraq 
which results in the budget for the OCOs falling from $159 
billion in 2011 to $118 billion in fiscal year 2012.
    Even as the defense budget request reflects difficult 
choices, it rightly requests increased funding for military 
personnel and health care, including funding sufficient to 
continue initiatives supporting wounded and sick 
servicemembers, continued research into traumatic brain injury 
(TBI), post-traumatic stress disorder (PTSD), and psychological 
health, and fully funds a variety of family support programs. 
Notably, the budget request would reduce Active Duty Army and 
Navy end strength by 7,400 soldiers and 3,000 sailors, 
respectively. The Army has announced its plan to reduce its so-
called temporary end strength by 22,000 soldiers over the next 
3 years, followed by an additional reduction of 27,000 soldiers 
between 2015 and 2017. As the Services resize their forces 
according to anticipated demand, we must ensure that any 
reductions avoid unnecessary increased risk or stress on our 
servicemembers.
    The budget request also prioritizes funding for ongoing 
major operations in Afghanistan and Iraq. As Senators Reed, 
Tester, and I heard during our visit to Afghanistan and Iraq 
last month, both of these conflicts are entering critical 
transition periods.
    In Iraq, our forces are implementing the decision by 
President Bush and Prime Minister Maliki, as set forth in the 
2008 security agreement, to withdraw all U.S. forces from Iraq 
by December 31, 2011. As we draw down, our goal is to leave 
behind an Iraq that is stable. Because Iraq will continue to 
need support in meeting its security needs, the budget request 
includes significant funds for starting up the Office of 
Security Cooperation within the U.S. Embassy in Baghdad to make 
our security assistance available to Iraq. The transition from 
a DOD lead to a State Department lead for numerous bilateral 
activities in Iraq can only be successful if the Department of 
State (DOS) and our other civilian agencies receive the 
resources that they need to take on these missions.
    In Afghanistan, July 2011 will mark the date set by 
President Obama a little over a year ago for the Government of 
Afghanistan to take more and more responsibility for Afghan 
security and governance and by July 2011 for the beginning of 
reductions in U.S. forces in Afghanistan. The President's 
decision to set the July 2011 date has increased the urgency, 
as General Caldwell put it, of the efforts of Afghan leaders to 
prepare for this transition. General David Petraeus told us 
that the North Atlantic Treaty Organization (NATO) and Afghan 
officials are preparing to provide President Karzai by the end 
of the month with a recommendation on which provinces and 
districts should be transferred to an Afghan security lead in 
the coming months.
    During our visit to Afghanistan, we saw significant signs 
of progress over the last 6 months, although great challenges 
remain. The Afghan army and police have surged by an additional 
70,000 over the last year and are on track to meet the current 
target of 305,000 Afghan security forces by October of this 
year. President Obama's budget request for fiscal year 2012 
includes substantial resources to continue supporting those 
Afghan forces which will bring closer the day when Afghan 
troops will bear the major responsibility for their nation's 
security, which in my judgment is and always has been key to 
success in Afghanistan.
    On February 15, 2011, in an op-ed that appeared in the 
Chicago Tribune, General Caldwell said that while the 
international community has expended tremendous blood and 
treasure for this just cause, the remarkable story of the surge 
of Afghans, of a people committing themselves to the defense of 
their country, is a reason to hope for a successful long-term 
outcome.
    In an e-mail message to me, General Caldwell, who is in 
charge of training of Afghan forces, followed up that op-ed by 
saying: ``It has become truly the untold story of the last 15 
months. In that time, Afghan men and women have swelled the 
ranks of the Afghan National Security Force (ANSF) to levels 
more than double the U.S. and NATO surge.'' He continued, 
``While the enormous increase in quantity is significant to the 
security of Afghanistan, our focus on the improvement of 
quality is even more important.''
    The op-ed and the e-mail message to me from General 
Caldwell will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. The administration is also considering a 
proposal to grow the Afghan army by 35,000 men and the Afghan 
police by a similar number, which would bring total Afghan 
security force levels of 378,000 by the end of 2012. These 
additional forces would add important enablers, logistics, 
engineering, and intelligence and others, that would reinforce 
and sustain the transition of responsibility for Afghanistan's 
security to the Afghan security forces. I support this proposed 
increase. I know from our conversations that Secretary Gates 
and Admiral Mullen support it as well. I have urged President 
Obama, as recently as last Friday, to approve that request.
    In the field, Afghan security forces are partnered with 
coalition forces and deployed in the key regions of Helmand and 
Kandahar in equal or greater numbers than coalition forces. 
U.S., Afghan, and coalition forces are taking the momentum from 
the insurgency, particularly in former Taliban strongholds in 
the south. The Afghan army is increasingly in the lead in 
planning and executing operations. That is what the Taliban 
fear the most: Afghan security forces, as opposed to foreign 
forces, out in front providing security for the Afghan people. 
As support for the Afghan army and police grows, lower-level 
insurgent fighters are slowly beginning to reintegrate into 
Afghan society.
    Improving Afghan governance remains a major challenge to 
success. The government in Kabul is largely absent from 
Afghans' daily lives and corruption and mismanagement remain 
major obstacles.
    We must ensure that our forces are prepared to address 
other threats in other places besides Iraq and Afghan. We 
obviously must remain attentive to those threats around that 
region and throughout the world. I outline those threats in 
some detail in the balance of my opening statement, but I will 
put that in the record rather than reading it at this time.
    [The prepared statement of Chairman Levin follows:]

                Prepared Statement by Senator Carl Levin

    This morning, the committee welcomes Secretary of Defense Robert 
Gates and Chairman of the Joint Chiefs of Staff, Admiral Michael 
Mullen, for our hearing on the Department of Defenses' fiscal year 2012 
budget request, the associated future years defense program, and the 
posture of the U.S. Armed Forces.
    We are thankful to you and your families for your dedicated service 
to the Nation and to the soldiers, sailors, airmen, and marines at home 
and in harm's way around the globe and to their families. Your personal 
commitment to the welfare of our troops and their families shines 
through all that you do. The American people are grateful for that and 
we are grateful and eager to help wherever we can.
    The Department of Defense, as are all Federal agencies, is 
currently operating under a continuing resolution (CR) that expires on 
March 4, 2011. If the current CR is extended for the whole year, then 
the Departments base funding of $526 billion for fiscal year 2011 would 
be $23 billion below the original fiscal year 2011 request of $549 
billion. Secretary Gates will describe to us this morning this as a 
crisis on his doorstep. I hope that we will soon be in a position to 
enact a full year appropriation at an appropriate level.
    At a time when we face a budget deficit in excess of a trillion 
dollars and many in Congress are convinced that we need steep spending 
cuts to put our fiscal house in order, no part of the government, 
including the Department of Defense, can be exempt from close 
examination. The Secretary has subjected the Departments budget to 
close examination and insisted on efficiencies, streamlining, cuts and 
cancellations that, we are told, add up to $178 billion over the course 
of the next 5 years. The fiscal year 2012 base budget request of $553 
billion is $4 billion higher than last years request but is a reduction 
in inflation-adjusted terms. We will be closely scrutinizing the 
Secretary's efficiencies initiative and will be looking for additional 
efficiencies as we move through the legislative process.
    The total defense budget, which includes base funding for the 
Department of Defense and additional funding for Overseas Contingency 
Operations, declines from $708 billion in fiscal year 2011 to $671 
billion in fiscal year 2012. That decline is due largely from our 
continued withdrawal from Iraq which results in the budget for Overseas 
Contingency Operations falling from $159 billion in fiscal year 2011 to 
$118 billion in fiscal year 2012.
    Even as the Defense budget request reflects difficult choices, it 
rightly requests increased funding for military personnel and health 
care, including funding sufficient to continue initiatives supporting 
wounded and sick service members, continue research into traumatic 
brain injury, post-traumatic stress disorder, and psychological health, 
and fully fund a variety of family support programs. Notably, the 
budget request would reduce active duty Army and Navy end strengths by 
7,400 soldiers and 3,000 sailors, respectively. The Army has announced 
its plan to reduce its so-called temporary end strength by 22,000 
soldiers over the next three years, followed by an additional reduction 
of 27,000 soldiers between 2015 and 2017. As the Services for re-size 
their forces according to anticipated demand, we must ensure that any 
reductions avoid unnecessary increased risk or stress on our 
servicemembers.
    The budget request also prioritizes funding for ongoing major 
operations in Afghanistan and Iraq. As Senators Reed, Tester, and I 
heard during our visit to Afghanistan and Iraq last month, both of 
these conflicts are entering critical transition periods.
    In Iraq, our forces are implementing the decision by President Bush 
and Prime Minister Maliki, as set forth in the 2008 Security Agreement, 
to withdraw all U.S. forces from Iraq by December 31, 2011. As we 
drawdown, our goal is to leave behind an Iraq that is stable. Because 
Iraq will continue to need support in meeting its security needs, the 
budget request includes significant funds for starting up the Office of 
Security Cooperation within the U.S. Embassy in Baghdad to make our 
security assistance available to Iraq. The transition from a DOD lead 
to a State Department lead for numerous bilateral activities in Iraq 
can only be successful if the Department of State and our other 
civilian agencies receive the resources they need to take on these 
missions.
    In Afghanistan, July 2011 will mark the date set by President Obama 
a little over a year ago for the Government of Afghanistan to take more 
and more responsibility for Afghanistans security and governance and 
for the beginning of reductions in U.S forces in Afghanistan. The 
Presidents decision to set the July 2011 date has added urgency, as 
General Caldwell put it, to the efforts of Afghan leaders to prepare 
for this transition. General David Petreaus told us that th North 
Atlantic Treaty Organization (NATO) and Afghan officials are preparing 
to provide President Karzai by the end of the month a recommendation on 
which provinces and districts should be transferred to an Afghan 
security lead in the coming months.
    During our visit to Afghanistan last month, we saw significant 
signs of progress over the last several months, though great challenges 
remain. The Afghan Army and police have surged by an additional 70,000 
over the last year, and are on track to meet the current target of 
305,000 Afghan security forces by October of this year. The Presidents 
budget request for fiscal year 2012 includes substantial resources to 
continue supporting these forces, which will bring closer the day when 
Afghan troops will bear the major responsibility for their nations 
security, which is key to success in Afghanistan.
    On February 15, 2011, in an op-ed that appeared in the Chicago 
Tribune, General Caldwell said, While the international community has 
expended tremendous blood and treasure for this just cause, the 
remarkable story of the surge of Afghans, of a people committing 
themselves to defense their country, is a reason to hope for a 
successful long-term outcome. In an email message to me he followed up 
by saying, It truly has become the Untold Story of the last 15 months. 
In that time, Afghan men and women have swelled the ranks of the Afghan 
National Security Force to levels more than double the U.S. and NATO 
surge. He continued, While the enormous increase in quantity is 
significant to the security of Afghanistan, our focus on the 
improvement of quality is even more important. Without objection, the 
op-ed and General Caldwell's email message to me shall be made a part 
of the record.
    The administration is also considering a proposal to grow the 
Afghan Army by 35,000 and the Afghan police by a similar number, which 
would bring total Afghan security force levels to 378,000 by the end of 
2012. These additional forces will add important enablers logistics, 
engineering and intelligence and others that will reinforce and sustain 
the transition of responsibility for Afghanistans security to the 
Afghan security forces. I support this proposed increase, and I know 
from our conversations that Secretary Gates and Admiral Mullen support 
it as well. I have urged President Obama as recently as last Friday to 
approve this request.
    In the field, Afghan security forces are partnered with coalition 
forces and deployed in the key regions of Helmand and Kandahar in equal 
or greater numbers than coalition forces. U.S., Afghan, and coalition 
forces are taking the momentum from the insurgency, particularly in 
former Taliban strongholds in the south. The Afghan Army is 
increasingly in the lead in planning and executing operations. Thats 
what the Taliban fear most: Afghan security forces, as opposed to 
foreign forces, out in front providing security to the Afghan people. 
As support for the Afghan Army and police grows, lower-level insurgent 
fighters are slowly beginning to reintegrate into Afghan society.
    Improving Afghan governance remains a major challenge to success. 
The Government in Kabul is largely absent from Afghans daily lives and 
corruption and mismanagement remain major obstacles.
    We must ensure our forces are prepared to address other threats in 
other places besides Iraq and Afghanistan. We must remain attentive to 
the threats burgeoning from al Qaeda and its affiliates in places like 
Somalia, Yemen, the Horn of Africa, and West Africa. Al Qaeda in the 
Arabian Peninsula (AQAP) has narrowly failed to strike the U.S. 
Homeland on two occasions these narrow misses, which were planned and 
executed by AQAP operatives in Yemen, have inspired them to develop new 
and creative ways to attack the United States and our interests. It is 
critical that we continue to work with our partners in the region to 
increase the pressure on AQAP and its associated forces. As protests in 
the Middle East continue to unfold, it is also critical that we urge 
our partners to as President Obama said earlier this week get out ahead 
of change. If countries like Yemen fail to do this, transitions could 
create a less favorable outcome for their people, for the region, and 
for the United States.
    Earlier this week, the President spoke of the hunger for freedoms 
among the peoples of the Middle East. The committee looks forward to 
hearing from Secretary Gates and Admiral Mullen on: the current 
situation in Egypt and the broader Middle East; our communications with 
Egyptian military leadership and their confidence in their commitment 
to truly democratic elections; and the future of U.S.-Egyptian military 
relations. The Egyptian people have been denied their democratic rights 
for too long and over the few plus weeks the Egyptian people demanded 
those fundamental rights. It is critical that the United States 
supports transition to democratic governance in the Middle East and the 
world.
    Across the Gulf of Aden, in Somalia and the Horn of Africa more 
broadly commerce continues to be impacted by threat of increasingly 
aggressive pirates, as well as certain elements of al Shabab that have 
expanded their violent attacks to include regional targets, most 
recently in July 2010 in Uganda.
    Iran clearly provides a challenge for the United States and the 
international community. While continuing to profess that its nuclear 
activities are for peaceful purposes, all of Irans actions indicate 
otherwise. Iran continues to violate the directives of the 
International Atomic Energy Agency and the United Nations, and refuses 
to enter into meaningful negotiations with the P-5 plus 1 group of 
nations. The sanctions that have been imposed by the United States and 
most of the international community under the U.N. sanctions 
resolutions, as well as domestic laws, have had an effect.
    In recent days, domestically, Iran has demonstrated yet again its 
total disregard for the fundamental rights of its people when it once 
more violently oppressed the political opposition to its tyrannical 
rule. The Iranian people are demanding that their voices be heard, we 
should stand with them.
    I also wanted to highlight Admiral Mullens Guidance for 2011, which 
states that DOD would continue to plan for a broad range of military 
options should the President decide to use force to prevent Iran from 
acquiring nuclear arms. While not the preferred option, it is important 
that Iran understands that military actions remain on the table.
    The Asia-Pacific region also requires increasing attention from the 
administration, Congress, and the U.S. military. Among the challenges 
we face are the unprovoked aggression from North Korea, questions 
raised by the continuing growth and modernization of Chinas military 
capabilities, and the destabilizing influences of violent extremism in 
South and Southeast Asia. As we confront these challenges, we must work 
closely with partners and allies, and make smart decisions about the 
U.S. military's posture, presence, and capabilities throughout the 
region.
    In the area of missile defense, the budget request is $10.7 
billion, an increase of $450 million from last years request, including 
funds for the Missile Defense Agency and the missile defense programs 
of the Army. There are likely to be two major focal points for missile 
defense this year: implementing the Phased Adaptive Approach (PAA) to 
missile defense in Europe, and taking the steps necessary to make sure 
the Ground-based Midcourse Defense system is on a path to being 
effective, reliable, and sustainable.
    On implementation of the European PAA, the key objective this year 
is to deploy Phase 1, which includes deployment of an Aegis Ballistic 
Missile Defense ship to the Mediterranean, and a forward-based radar in 
southeastern NATO Europe. These deployments will provide near-term 
protection against existing and future Iranian missile threats to NATO. 
Numerous capabilities for future phases of the European PAA are under 
development, particularly the enhanced Aegis missile defense elements 
for deployment on land and at sea.
    It is particularly noteworthy that last November at the Lisbon 
Summit, the NATO alliance agreed unanimously to adopt missile defense 
of its territory and population as a core mission, and NATO fully 
supports the European PAA as the U.S. contribution to NATOs missile 
defense mission.
    One of NATOs key objectives in this decision is to seek cooperation 
with Russia on missile defense, through the NATO-Russia Council. As 
President Obama described in his December 18 letter to the Senate on 
missile defense, such cooperation will not in any way limit United 
States or NATO's missile defense capabilities. I hope our witnesses 
today will describe the types of cooperation they believe would be both 
useful and possible.
    As for the GMD system, I would note that the last two flight tests 
have failed to result in intercepts, and we want to make sure that the 
Department is taking the necessary steps to understand and fix the 
problem, and to ensure that the system will work effectively and 
reliably. It remains essential to test our missile defense programs in 
a realistic manner, and to demonstrate that those systems work properly 
before we deploy them.
    Turning to the readiness of our Armed Forces, the fiscal year 2012 
budget request provides adequate levels of funding and an overall 
increase from fiscal year 2011 levels, including support for ongoing 
operations in Iraq and Afghanistan. However, the war funding request to 
reset and reconstitute equipment has decreased from $21.4 billion in 
fiscal year 2011 to $11.9 billion in fiscal year 2012. We must 
recognize that long term reset requirements must be supported with 
sustained funding for several years after forces have withdrawn from 
Iraq and Afghanistan. As operational tempo increases in Afghanistan, it 
is imperative that the vital readiness accounts are protected and fully 
funded.
    Lastly, I applaud the Department for recognizing the need to 
maintain robust funding for science and technology programs that will 
provide the underpinning for the technological superiority of our 
future military capabilities. These efforts, along with supporting a 
capable acquisition workforce and maintaining a vibrant national 
defense industrial base, will be crucial for the successful and timely 
development and fielding of the next generation of cost-effective and 
reliable weapons systems.
    Secretary Gates, Admiral Mullen, we look forward to your testimony. 
Now I will turn to Senator McCain for any opening remarks he may have.

    Chairman Levin. I will turn now to Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I want to join you 
in welcoming Secretary Gates and Chairman Mullen and Secretary 
Hale to discuss the President's budget request for fiscal year 
2012 and its impact on the FYDP for DOD.
    Secretary Gates, you were asked to return to public service 
at a time when this country was embroiled in the turmoil of an 
unpopular war and another deteriorating war, and Pentagon 
critics were abounding. Your historic tenure has been marked by 
a surge to victory in Iraq, a new strategy to defeat our 
enemies in Afghanistan, and DOD's lead on humanitarian 
responses around the world. Your service will also be noted for 
the substantial reforms for the defense acquisition process and 
your decisive actions to stop wasting taxpayers' funds on 
unneeded and outdated systems. On behalf of my fellow citizens, 
I want to thank you for your outstanding service. I view you as 
one of the greatest public servants that I have ever had the 
opportunity of serving with.
    Today we are faced again with a demand for change. We are 
facing a harsh reality that runaway Federal spending has put 
this country on an unsustainable path. I agree with Admiral 
Mullen who observes in his written statement ``our debt is our 
greatest national security threat.'' The competing demands for 
our resources and the imperative we face to reduce our debt 
requires Congress to provide more leadership than it has shown 
in the past to restore fiscal responsibility.
    I believe we took a step in the right direction in last 
year's National Defense Authorization Act (NDAA) by stripping 
the earmarks from the bill. Since then, both House and Senate 
have imposed moratoriums on earmarks for 2011 and 2012. I 
commend my colleagues in advance for restraining themselves 
from using earmarks, and I know it is tough for some. Mr. 
Secretary, I hope you will reinforce the President's commitment 
made during the State of the Union Address and recommend a veto 
of any 2012 defense bill that contains earmarks.
    I am concerned about the Joint Strike Fighter (JSF). I know 
that you are. We have had many briefings, many discussions, but 
it has been a source of great frustration to you, to me, and to 
members of this committee, but most of all, it has been an 
incredible waste of the taxpayers' dollars. It hurts the 
credibility of our acquisition process and our defense 
industry. It reinforces the view of some of us that the 
military industrial congressional complex that President 
Eisenhower warned us about is alive and well. I hope that you 
can make your position absolutely clear to the Senate today to 
prevent further wasteful action by Congress that will deny DOD 
the resources it really needs but, at the same time, give us 
the kind of assurance that the F-35 can be put on the right 
track. I believe that as we move to try to reduce the deficit 
and the debt, almost everything is going to be on the table.
    Overall the base budget request of $553 billion is $13 
billion less than the amount projected last year. I commend 
your efforts to get out ahead of the cuts by finding ways to 
improve the efficiency of DOD. Your decisions to reduce the 
number of senior military and civilian officials, freeze 
civilian pay, and halt with some exceptions the process of 
expanding the civilian workforce are sound decisions. I worry 
that we might, however, do some things that might cause us to 
see what we saw in the 1970s and the 1980s. Reducing flying 
hours, deferring aircraft maintenance, and postponing needed 
facility repairs are not true savings, and I fear the 
possibility of a return to what we once knew as a hollow Army.
    I have long said DOD does not deserve a special pass from 
spending the American taxpayers' dollars efficiently. But I 
have also said that the savings we identify must be reinvested 
in critical defense priorities. One example of this 
reinvestment is the increased efforts to combat the trafficking 
of drugs and illicit materials through Mexico. This has become 
an issue of national security. I look forward to working with 
you and our allies in Mexico to combat this scourge.
    Yesterday you stated, regarding the U.S. presence in Iraq 
``there is certainly on our part an interest in having an 
additional presence, and the truth of the matter is the Iraqis 
are going to have some problems that they are going to have to 
deal with if we are not there in some numbers.'' I agree. We 
are now scheduled to be completely out by the end of this year. 
I think it is time we engage in active discussions with the 
Iraqis as to their future needs as well as any threats there 
might be to our national security if there is a complete 
withdrawal by the end of this year.
    In addition to Iraq, we will still have 98,000 U.S. forces 
in Afghanistan. I expect our troops will remain there until 
they are no longer needed.
    A couple of weekends ago, I was at Munich and our allies 
came up to me and said, you say you are beginning to withdraw 
in the middle of 2011. Why should we not go to our constituents 
and say we are beginning to withdraw? I think one of the worst 
announcements ever made, as far as the conflict in Afghanistan, 
was the statement that we would be beginning withdrawal in 
2011. I am glad to see that 2014 is now the operative year, but 
it still is very unsettling to our allies and encouraging to 
our enemies.
    Success of our mission in Afghanistan must be assured to 
honor the sacrifices of our brave men and women, as well as 
coalition partners who have fought, died, and been injured 
there.
    Mr. Secretary, Admiral Mullen, Secretary Hale, we face many 
challenges in the year ahead which will require your continued 
skill and tenacity.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    We have a quorum here and in a moment I will ask approval 
of a number of nominations and the committee budget. Before I 
do that, though, I just want to say, Mr. Secretary, I join and 
concur with Senator McCain and his comments about you and your 
tenure here as Secretary of Defense. It has been an 
extraordinary number of years. You have brought great 
capability, objectivity, and thoughtfulness to the job and 
great strength, independence, and courage, and I very much 
commend you for it. I look forward to many more times when you 
will be before this committee, and I am sure that you do too. I 
do not want this to sound kind of like it is anywhere near the 
end of your tenure here. [Laughter.]
    I discussed the matter of the committee budget with Senator 
McCain, and I now would ask the committee to consider and 
approve a Senate resolution authorizing funding for our 
committee from March 1 of this year through February 28, 2013. 
The funding resolution is consistent with the joint majority 
leader and Republican leader's February 3 agreement on 
committee funding and with the funding guidance provided to us 
by the Senate Rules Committee on February 7. This matter is 
time-sensitive. All committees have been asked to report their 
budgets to the Senate by no later than today. So I would now 
entertain a motion to favorably report this resolution.
    Senator McCain. So moved.
    Chairman Levin. Second?
    Senator Lieberman. Second.
    Chairman Levin. All those in favor, say aye. [A chorus of 
ayes.]
    Opposed, nay. [No response.]
    The ayes have it.
    Now, we have some discussion that lies ahead of us on our 
committee rules. I would ask everybody to read those rules 
during the next week, and we will take up the matter of our 
rules on Monday or Tuesday after we return from the recess.
    We also have in front of us 670 pending military 
nominations. All of these nominations have been before the 
committee the required length of time. Is there a motion to 
favorably report those nominations?
    Senator McCain. So moved.
    Chairman Levin. Is there a second?
    Senator Lieberman. Second.
    Chairman Levin. All in favor, say aye. [A chorus of ayes.]
    Chairman Levin. Opposed, nay. [No response.]
    Chairman Levin. The motion carries. Thank you all.
    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on February 17, 
                                 2011.

     1. LTG Eric E. Fiel, USAF, to be lieutenant general and Commander, 
Air Force Special Operations Command (Reference No. 138).
     2. Col. Howard D. Stendahl, USAF to be brigadier general 
(Reference No. 139).
     3. LTG Dennis L. Via, USA to be lieutenant general and Deputy 
Commanding General/Chief of Staff, US Army Materiel Command (Reference 
No. 141).
     4. LTG Mark P. Hertling, USA to be lieutenant general and 
Commanding General, U.S. Army Europe and Seventh Army (Reference No. 
142).
     5. MG Susan S. Lawrence, USA to be lieutenant general and Chief 
Information Officer/G-6, Office of the Secretary of the Army (Reference 
No. 143).
     6. MG John M. Bednarek, USA to be lieutenant general and 
Commanding General, First US Army (Reference No. 144).
     7. MG Francis J. Wiercinski, USA to be lieutenant general and 
Commanding General, US Army Pacific (Reference No. 145).
     8. BG Renaldo Rivera, ARNG to be major general (Reference No. 
147).
     9. BG William M. Buckler, Jr., USAR to be major general (Reference 
No. 148).
    10. BG Mark J. MacCarley, USAR to be major general (Reference No. 
149).
    11. In the Army Reserve, there are eight appointments to the grade 
of colonel (list begins with Marc T. Arellano) (Reference No. 150).
    12. In the Army Reserve, there are six appointments to the grade of 
colonel (list begins with Gregrey C. Bacon) (Reference No. 151).
    13. In the Navy, there are two appointments to the grade of 
commander and below (list begins with John G. Brown) (Reference No. 
153).
    14. Col. Arlen R. Royalty, USAR to be brigadier general (Reference 
No. 167).
    15. In the Marine Corps, there are 11 appointments to the grade of 
major general (list begins with Juan G. Ayala) (Reference No. 168).
    16. In the Air Force Reserve, there are three appointments to the 
grade of colonel (list begins with Erwin Rader Bender, Jr.) (Reference 
No. 171).
    17. In the Air Force, there are six appointments to the grade of 
lieutenant colonel and below (list begins with David M. Crawford) 
(Reference No. 172).
    18. In the Air Force Reserve, there are 175 appointments to the 
grade of colonel (list begins with Richard T. Aldridge) (Reference No. 
173).
    19. In the Army, there is one appointment to the grade of 
lieutenant colonel (Sebastian A. Edwards) (Reference No. 174).
    20. In the Army, there is one appointment to the grade of colonel 
(Gregory R. Ebner) (Reference No. 175).
    21. In the Army Reserve there are 10 appointments to the grade of 
colonel (list begins with Curtis O. Bohlman, Jr.) (Reference No. 176).
    22. In the Marine Corps, there is one appointment to the grade of 
major (Timothy E. Lemaster) (Reference No. 178).
    23. In the Marine Corps, there are two appointments to the grade of 
major (list begins with Dax Hammers) (Reference No. 180).
    24. In the Marine Corps, there are two appointments to the grade of 
major (list begins with Richard Martinez) (Reference No. 181).
    25. In the Marine Corps, there are four appointments to the grade 
of major (list begins with William Frazier, Jr.) (Reference No. 182).
    26. In the Marine Corps, there are four appointments to the grade 
of major (list begins with Douglas R. Cunningham) (Reference No. 183).
    27. In the Marine Corps, there are four appointments to the grade 
of major (list begins with James E. Hardy, Jr.) (Reference No. 184).
    28. In the Marine Corps, there are five appointments to the grade 
of major (list begins with Conrad G. Alston) (Reference No. 185).
    29. In the Marine Corps, there are five appointments to the grade 
of major (list begins with David M. Adams) (Reference No. 186).
    30. In the Marine Corps, there are six appointments to the grade of 
major (list begins with Stefan R. Browning) (Reference No. 187).
    31. In the Marine Corps, there are seven appointment to the grade 
of major (list begins with Joel T. Carpenter) (Reference No. 188).
    32. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Roger N. Rudd) (Reference No. 189).
    33. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Lowell W. Schweickart, Jr.) (Reference No. 190).
    34. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Katrina Gaskill) (Reference No. 191).
    35. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with Sean J. Collins) (Reference No. 
193).
    36. In the Marine Corps, there are three appointments to the grade 
of lieutenant colonel (list begins with William H. Barlow) (Reference 
No. 195).
    37. In the Marine Corps, there is one appointment to the grade of 
major (James H. Glass) (Reference No. 197).
    38. In the Navy, there is one appointment to the grade of captain 
(Richelle L. Kay) (Reference No. 198).
    39. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Chris W. Czaplak) (Reference No. 
201).
    40. In the Navy, there is one appointment to the grade of 
lieutenant commander (Scott D. Scherer) (Reference No. 202).
    41. In the Navy, there are two appointments to the grade of 
commander and below (list begins with Carlos E. Moreyra) (Reference No. 
203).
    42. In the Navy, there are 30 appointments to the grade of 
lieutenant commander (list begins with David Q. Baughier) (Reference 
No. 204).
    43. In the Marine Corps, there are three appointments to the grade 
of major (list begins with Timothy M. Callahan) (Reference No. 206).
    44. MG Ellen M. Pawlikowski, USAF, to be lieutenant general and 
Commander, Space and Missile Systems Center, Air Force Space Command 
(Reference No. 210).
    45. MG Michael J. Basla, USAF, to be lieutenant general and Vice 
Commander, Air Force Space Command (Reference No. 211).
    46. MG Rhett A. Hernandez, USA, to be lieutenant general and 
Commanding General, U.S. Army Forces Cyberspace Command (Reference No. 
212).
    47. Col. Johnny M. Sellers, ARNG, to be brigadier general 
(Reference No. 214).
    48. Col. Janson D. Boyles, ARNG, to be brigadier general (Reference 
No. 215).
    49. In the Air Force, there are three appointments to the grade of 
major (list begins with Stephen L. Buse) (Reference No. 216).
    50. In the Air Force Reserve, there are three appointments to the 
grade of colonel (list begins with Thomas J. Collins) (Reference No. 
217).
    51. In the Air Force Reserve, there are four appointments to the 
grade of colonel (list begins with Phillip M. Armstrong) (Reference No. 
218).
    52. In the Air Force Reserve, there are five appointments to the 
grade of colonel (list begins with Lloyd H. Anseth) (Reference No. 
219).
    53. In the Air Force Reserve, there are seven appointments to the 
grade of major (list begins with Kathleen M. Flarity) (Reference No. 
220).
    54. In the Air Force, there are seven appointments to the grade of 
major (list begins with Melina T. Doan) (Reference No. 221).
    55. In the Air Force, there are 12 appointments to the grade of 
colonel (list begins with Villa L. Guillory) (Reference No. 223).
    56. In the Air Force Reserve, there are 14 appointments to the 
grade of colonel (list begins with Alfred P. Bowles II) (Reference No. 
224).
    57. In the Air Force, there are 49 appointments to the grade of 
colonel (list begins with Brian F. Agee) (Reference No. 225).
    58. In the Air Force Reserve, there are 100 appointments to the 
grade of colonel (list begins with Earl R. Alameida, Jr.) (Reference 
No. 226).
    59. In the Army, there is one appointment to the grade of 
lieutenant colonel (Edward J. Benz III) (Reference No. 227).
    60. In the Army Reserve, there is one appointment to the grade of 
colonel (Charles E. Lynde) (Reference No. 228).
    61. In the Army, there are four appointments to the grade of major 
(list begins with Ozren T. Buntak) (Reference No. 229).
    62. In the Army, there are three appointments to the grade of major 
(list begins with Marcia A. Brimm) (Reference No. 230).
    63. In the Army there are 3 appointments to the grade of lieutenant 
colonel and below (list begins with Dustin C. Frazier) (Reference No. 
231).
    64. In the Army Reserve, there are eight appointments to the grade 
of colonel (list begins with Robert L. Bierenga) (Reference No. 232).
    65. In the Army Reserve, there are 12 appointments to the grade of 
colonel (list begins with Don A. Campbell) (Reference No. 233).
    66. In the Marine Corps Reserve, there are seven appointments to 
the grade of colonel (list begins with Ernest L. Ackiss III) (Reference 
No. 234).
    67. In the Marine Corps Reserve, there are 74 appointments to the 
grade of colonel (list begins with Philip Q. Applegate) (Reference No. 
235).
    68. In the Navy, there is one appointment to the grade of captain 
(Jeffrey K. Hayhurst) (Reference No. 238).
    69. In the Navy, there is one appointment to the grade of 
lieutenant commander (Steven D. Elias) (Reference No. 239).
    70. In the Navy, there are two appointments to the grade of 
commander and below (list begins with Amy R. Gavril) (Reference No. 
241).
    71. In the Air Force Reserve, there are seven appointments to the 
grade of colonel (list begins with Steven L. Argiriou) (Reference No. 
242).
    72. In the Air Force, there are two appointments to the grade of 
major (list begins with Richard C. Ales) (Reference No. 243).
    73. MG Vincent K. Brooks, USA, to be lieutenant general and 
Commanding General, U.S. Army Central Command/Third U.S. Army 
(Reference No. 248).
    Total: 670.

    Chairman Levin. We will now call on you, Mr. Secretary.

   STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE; 
  ACCOMPANIED BY ROBERT F. HALE, UNDER SECRETARY OF DEFENSE, 
                          COMPTROLLER

    Secretary Gates. Chairman Levin, Senator McCain, members of 
the committee, I appreciate the opportunity to appear before 
you to discuss the President's budget request for fiscal year 
2012.
    But first I want to thank the members of this committee for 
your outstanding support of DOD, but especially your support of 
the men and women in uniform serving in a time of war. I know 
you will join me in doing everything to ensure they have all 
they need to accomplish their mission and come home safely.
    The budget request for DOD being presented today includes a 
base budget request of $553 billion and an OCO request of 
$117.8 billion. These budget decisions took place in the 
context of a nearly 2-year effort by DOD to reduce overhead, 
cull troubled and excess programs, and rein in personnel and 
contractor costs, all for the purpose of preserving the global 
reach and fighting strength of America's military at a time of 
fiscal stress for our country.
    In all, these budget requests, if enacted by Congress, will 
continue our efforts to reform the way DOD does business, funds 
modernization programs needed to prepare for future conflicts, 
reaffirms and strengthens our Nation's commitment to care for 
the All-Volunteer Force, and ensure that our troops and 
commanders on the front lines have the resources and support 
they need to accomplish their mission.
    My submitted statement includes more details of this 
request.
    Now I want to take this opportunity to address several 
issues that I know have been a subject of debate and concern 
since I announced the outlines of our budget proposal last 
month: first, the serious damage our military will suffer by 
operating under a CR or receiving a significant funding cut 
during fiscal year 2011; second, the projected slowing and 
eventual flattening of the growth of the defense budget over 
the next 5 years; third, the plan for future reductions in the 
size of the ground forces; and fourth, the proposed reforms and 
savings to the TRICARE program for working age retirees.
    I also would express the hope that the Senate will continue 
to reject the unnecessary extra engine for the F-35 as it did 
the last time the Senate spoke to this issue in 2009.
    I want to start by making it clear that DOD will face a 
crisis if we end up with a year-long CR or a significant 
funding cut for fiscal year 2011. The President's defense 
budget request for 2011 was $549 billion. A full-year CR would 
fund DOD at about $526 billion. That is a cut of $23 billion. 
The damage done across the force from such reductions would be 
further magnified as they would come halfway through the fiscal 
year.
    Let me be clear, operating under a year-long CR or 
significantly reduced funding, with the severe shortfalls that 
entails, would damage procurement and research programs causing 
delays, rising costs, no new program starts, and serious 
disruptions in the production of some of our most high-demand 
assets, such as unmanned aerial vehicles (UAV). Cuts in 
maintenance could force parts of our aircraft fleet to be 
grounded and delay needed facilities improvements. Cuts in 
operations would mean fewer flying hours, fewer steaming days, 
and cutbacks in training for home station forces, all of which 
directly impact readiness.
    Similarly, some of the appropriations proposals under 
debate in Congress contemplate reductions of up to $15 billion 
from the President's original fiscal year 2011 request. I 
recognize that given the current fiscal and political 
environment, it is unlikely that DOD will receive the full 
fiscal year 2011 amount. Based on a number of factors, 
including policy changes that led to lower personnel costs and 
reduced activity forced by the CR, I believe DOD can get by 
with a lower number. However, it is my judgment that DOD needs 
an appropriation of at least $540 billion for fiscal year 2011 
for the U.S. military to properly carry out its mission, 
maintain readiness, and prepare for the future, which brings me 
to the proposed $78 billion reduction in the defense budget top 
line over the next 5 years.
    To begin with, this so-called cut is to the rate of 
predicted growth. The size of the base defense budget is still 
projected to increase in real inflation-adjusted dollars before 
eventually flattening out over this time period.
    More significantly, as a result of the efficiencies and 
reforms undertaken over the past year, we have protected 
programs that support servicemembers, readiness, and 
modernization. These efforts have made it possible for DOD to 
absorb lower projected growth in the defense budget without 
sacrificing real military capabilities. In fact, the savings 
identified by the Services have allowed our military to add 
some $70 billion beyond the program of record toward priority 
needs and new capabilities. Of the $78 billion in proposed 
reductions to the 5-year defense plan, about $68 billion comes 
from a combination of shedding excess overhead, improved 
business practices, reducing personnel costs, and from changes 
to economic assumptions. Only $10 billion of that 5-year total 
is directly related to military combat capability. $4 billion 
comes from restructuring the JSF program, a step driven by the 
program's development and testing schedule that would have 
taken place irrespective of the budget top line. The rest, 
about $6 billion, results from the proposed decrease in end 
strength of the Army and Marine Corps starting in 2015, a 
decision I will address now.
    Just over 4 years ago, one of my first acts as Defense 
Secretary was to increase the permanent end strength of our 
ground forces, the Army by 65,000 to a total of 547,000 and the 
Marine Corps by 27,000 to 202,000. At the time the increase was 
needed to relieve the severe stress on the force from the Iraq 
war as the surge was getting underway. To support the later 
plus-up of troops in Afghanistan, I subsequently authorized a 
further temporary increase in the Army of 22,000, an increase 
always planned to end in 2013. The objective was to reduce 
stress on the force, limit and eventually end the practice of 
stop-loss and to increase troops' home station dwell time.
    As we end the U.S. troop presence in Iraq this year, 
according to our agreement with the Iraqi Government, the 
overall deployment demands on our force are decreasing 
significantly. Just 3 years ago, we had some 190,000 troops 
combined in Iraq and Afghanistan. By the end of this calendar 
year, we expect there to be less than 100,000 troops deployed 
in both of the major post-September 11 combat theaters, 
virtually all of those forces in Afghanistan.
    This is why we believe that beginning in fiscal year 2015, 
the United States can, with minimal risk, begin reducing Army 
Active Duty end strength by 27,000 and the Marine Corps by 
somewhere between 15,000 and 20,000. These projections assume 
that the number of troops in Afghanistan will be significantly 
reduced by the end of 2014 in accordance with both the 
President's and NATO's strategy. If our assumptions prove 
incorrect, there is plenty of time to adjust the size and 
schedule of this change.
    It is important to remember that even after the planned 
reductions, the Active Army end strength would continue to be 
larger by nearly 40,000 soldiers than it was when I became 
Secretary of Defense 4 years ago.
    I should also note that these reductions are supported by 
both the Army and Marine Corps leadership.
    Finally, sharply rising health care costs are consuming an 
even-larger share of DOD's budget, growing from $19 billion in 
2001 to $52.5 billion in this request. Among other reforms, 
this fiscal year 2012 budget includes modest increases to 
TRICARE enrollment fees, later indexed to Medicare premium 
increases for working age retirees, most of whom are employed 
while receiving full pensions. All six members of the Joint 
Chiefs of Staff have strongly endorsed these and other cost-
saving TRICARE reforms in a letter to Congress.
    I understand that any kind of change to these benefits 
prompts vigorous political opposition, but let us be clear. The 
current TRICARE arrangement, one in which fees have not 
increased for 15 years, is simply unsustainable, and if allowed 
to continue, DOD risks the fate of other corporate and 
government bureaucracies that were ultimately crippled by 
personnel costs, in particular, their retiree benefit packages.
    All told, the cumulative effect of DOD's savings and 
reforms, combined with a host of new investments, will make it 
possible to protect the U.S. military's combat power despite 
the declining rate of growth and eventual flattening of the 
defense budget over the next 5 years. As a result of the 
savings identified and reinvested by the Services, our military 
will be able to meet unforeseen expenses, refurbish war-worn 
equipment, buy new ships and fighters, begin development of a 
new long-range bomber, boost our cyber warfare capability, 
strengthen missile defense, and buy more of the most advanced 
UAVs. But I should note this will only be possible if the 
efficiencies, reforms, and savings are followed through to 
completion.
    In closing, I want to address the calls from some quarters 
for deeper cuts in defense spending to address this country's 
fiscal challenges. I would remind them that over the last two 
defense budgets submitted by President Obama, we have curtailed 
or canceled troubled or excess programs that would have cost 
more than $300 billion if seen through to completion. 
Additionally, total defense spending, including war costs, will 
decline further as the U.S. military withdraws from Iraq.
    We still live in a very dangerous and often unstable world. 
Our military must remain strong enough and agile enough to face 
a diverse range of threats from non-state actors attempting to 
acquire and use weapons of mass destruction and sophisticated 
missiles to the more traditional threats of other states 
building up their conventional forces and developing new 
capabilities that target our traditional strengths.
    We shrink from our global security responsibilities at our 
peril. Retrenchment brought about by short-sighted cuts could 
well lead to costlier and more tragic consequences later, 
indeed, as they always have in the past. Surely we should learn 
from our national experience since World War I that drastic 
reductions in the size and strength of the U.S. military make 
armed conflict all the more likely with an unacceptably high 
cost in American blood and treasure.
    Mr. Chairman, I look forward to working through this next 
phase of the President's defense reform effort with you and 
your colleagues in the weeks and months ahead to do what is 
right for our Armed Forces and what is right for our country. 
Thank you.
    [The prepared statement of Secretary Gates follows:]

               Prepared Statement by Hon. Robert M. Gates

    Mr. Chairman, members of the committee.
    I appreciate the opportunity to appear before you to discuss the 
President's budget request for fiscal year 2012. I first want to thank 
the members of this committee for your support of the men and women in 
uniform who have answered the call in a time of war. I know you will 
join me in doing everything to ensure they have all they need to 
accomplish their mission and come home safely.
    The budget request for the Department of Defense (DOD) being 
presented today includes a base budget request of $553 billion and an 
Overseas Contingency Operations (OCO) request for $117.8 billion. These 
budget decisions took place in the context of a nearly 2-year effort by 
DOD to reduce overhead, cull troubled and excess programs, and rein in 
personnel and contractor costs--all for the purpose of preserving the 
fighting strength of America's military at a time of fiscal stress for 
our country. The goal was not only to generate savings that could be 
applied to new capabilities and programs, but for our defense 
institutions to become more agile and effective organizations as a 
result.
    In all, these budget requests, if enacted by Congress, will:

        <bullet> Continue our efforts to reform the way the department 
        does business;
        <bullet> Fund modernization programs needed to prepare for 
        future conflicts;
        <bullet> Reaffirm and strengthen the Nation's commitment to 
        care for the All-Volunteer Force; and
        <bullet> Ensure that our troops and commanders on the front 
        lines have the resources and support they need to accomplish 
        their mission.

    Before I further summarize the elements of the President's budget 
request, I want to address three issues that I know have been a subject 
of debate and concern since I announced the outlines of our budget 
proposal on January 6:

        <bullet> First, the serious damage caused to our military by 
        operating under a continuing resolution or receiving a 
        significant funding cut during fiscal year 2011;
        <bullet> Second, the projected slowing and eventual flattening 
        of growth of the defense budget over the next 5 years; and
        <bullet> Third, the planned future reductions in the size of 
        the ground forces.

    I want to make clear that we face a crisis on our doorstep if DOD 
ends up with a year-long continuing resolution or a significant funding 
cut for fiscal year 2011. The President's defense budget request for 
fiscal year 2011 was $549 billion. A full-year continuing resolution 
would fund the department at about $526 billion. That's a cut of $23 
billion. Similarly, some of the appropriations proposals under debate 
in Congress contemplate reductions of $15 billion and more from what 
the President requested for defense in fiscal year 2011. The damage 
done across the force from such reductions would be magnified as they 
would come halfway through the fiscal year.
    Let me be clear, operating under a year-long continuing resolution 
or substantially reduced funding--with the severe shortfalls that 
entails--would damage procurement and research programs causing delays, 
rising costs, no new program starts and serious disruptions in the 
production of some our most high demand assets, such as Unmanned Aerial 
Vehicles. The reductions would likely fall most heavily on our 
operations and maintenance accounts. Cuts in maintenance could force 
parts of our aircraft fleet to be grounded and delay needed facilities 
improvements. Cuts in operations would mean fewer flying hours, fewer 
steaming days, and cutbacks in training for home-stationed forces--all 
of which directly impacts readiness. That is how you hollow out a 
military--when your best people, your veterans of multiple combat 
deployments, become frustrated and demoralized and, as a result, begin 
leaving military service.
    Consider also that throughout this past decade of conflict, the 
Service Chiefs and Members of Congress have repeatedly voiced concerns 
about the lack of training opportunities for conventional high-end 
combat resulting from the operational demands of Iraq and Afghanistan. 
We are just now beginning to get the kind of dwell-time for our home 
stationed forces to allow that kind of training. If forced to operate 
under a continuing resolution or reduced funding, some of that full-
spectrum training will not happen in fiscal year 2011.
    Mr. Chairman, I recognize that given the current fiscal and 
political environment, it is unlikely that DOD will receive the full 
amount originally requested for fiscal year 2011. Based on a number of 
factors--including policy changes that led to lower personnel costs and 
reduced activity forced by the continuing resolution--I believe the 
department can get by with a lower number. However, it is my judgment 
that DOD needs an appropriation of at least $540 billion for fiscal 
year 2011 for the U.S. military to properly carry out its mission, 
maintain readiness, and prepare for the future.
    Which brings me to the second issue--the proposed $78 billion 
reduction in the defense budget topline over the next 5 years. To begin 
with, this so-called ``cut'' is to the rate of predicted growth. The 
size of the base defense budget is still projected to increase in real, 
inflation-adjusted dollars, before eventually flattening out over this 
time period.
    More significantly, as a result of the efficiencies and reforms 
undertaken over the past year, we have protected programs that support 
military people, readiness, and modernization. These efforts have made 
it possible for DOD to absorb lower projected growth in the defense 
budget without, as Chairman McKeon warned last month, ``leav[ing] our 
military less capable and less able to fight.'' In fact, the savings 
identified by the Services have allowed our military to add some $70 
billion towards priority needs and new capabilities.
    Of the $78 billion in proposed reductions to the 5-year defense 
budget plan, about $68 billion comes from a combination of shedding 
excess overhead, improving business practices, reducing personnel 
costs, and from changes to economic assumptions. Only $10 billion of 
that 5-year total is related directly to military combat capability. $4 
billion comes from restructuring the Joint Strike Fighter (JSF) 
program, a step driven by the program's development and testing 
schedule that would have taken place irrespective of the budget top-
line.
    The rest, about $6 billion, results from the proposed decrease in 
end strength of the Army and Marine Corps starting in fiscal year 2015, 
a decision that I will address now. Just over four years ago, one of my 
first acts as Defense Secretary was to increase the permanent end 
strength of our ground forces--the Army by 65,000 to a total of 547,000 
and the Marine Corps by 27,000 to 202,000. At the time, the increase 
was needed to relieve the severe stress on the force from the Iraq war 
as the surge was getting underway. To support the later plus up of 
troops in Afghanistan, I subsequently authorized a temporary further 
increase in the Army of some 22,000. The objective was to reduce stress 
on the force, limit and eventually end the practice of stop-loss, and 
to increase troops' home station dwell time.
    As we end the U.S. troop presence in Iraq this year, according to 
the agreement with the Iraqi Government, the overall deployment demands 
on our force are decreasing significantly. Just 3 years ago, we had 
some 190,000 troops combined in Iraq and Afghanistan. By the end of 
this calendar year we expect less than 100,000 troops to be deployed in 
both of the major post-September 11 combat theaters, virtually all of 
those forces being in Afghanistan.
    That is why we believe that, beginning in fiscal year 2015, the 
United States can, with minimal risk, begin reducing Army active duty 
end strength by 27,000 and the Marine Corps by somewhere between 15,000 
and 20,000. These projections assume that the number of troops in 
Afghanistan would be significantly reduced by the end of 2014, in 
accordance with the President's strategy. If our assumptions prove 
incorrect, there's plenty of time to adjust the size and schedule of 
this change.
    It is important to remember that even after the planned reductions, 
the active Army end strength would continue to be larger, by nearly 
40,000 soldiers, than it was when I became defense secretary four years 
ago. I should also note that these reductions are supported by both the 
Army and Marine Corps leadership.
    I would note that prior to these budget decisions, the last Marine 
Commandant stated that he believed the Marine Corps was larger than it 
should be for the long term. The current Commandant, General Amos, has 
just completed a comprehensive force structure review for the post-
Afghanistan security environment that is consistent with the out-year 
reductions projected in the President's budget plan.

                          REFORM--EFFICIENCIES

    These budget decisions took place in the context of a nearly 2 year 
effort by DOD to reform the way the Pentagon does business--to change 
how and what we buy, to replace a culture of endless money with one of 
savings and restraint. To not only make every defense dollar count, but 
also become a more agile and effective organization in the process.
    Last spring, we launched a comprehensive effort to reduce DOD's 
overhead expenditures. The goal was--and is--to sustain the U.S. 
military's size and strength over the long-term by reinvesting those 
efficiency savings in force structure and other key combat 
capabilities. This process culminated in my announcement last month 
that summarized the impact of these reforms on the fiscal year 2012 
budget.
    The Military Services conducted a thorough scrub of their 
bureaucratic structures, business practices, modernization programs, 
civilian and military personnel levels, and associated overhead costs. 
They identified potential savings that totaled approximately $100 
billion over 5 years. More than $70 billion is being reinvested in high 
priority needs and capabilities, while about $28 billion is going to 
higher than expected operating costs--``must pay'' bills that would 
otherwise be paid from investment accounts.
    We then looked at reducing costs and deriving savings across the 
department as a whole--with special attention to the substantial 
headquarters and support bureaucracies outside the four Military 
Services--savings that added up to $78 billion over 5 years.
    As I mentioned earlier, $10 billion of that total came from 
restructuring the JSF program and reducing Army and Marine Corps end 
strength starting in fiscal year 2015.
    The rest of the DOD-wide savings came primarily from shedding 
excess overhead, improving business practices, and reducing personnel 
costs. Key examples include:

        <bullet> $13 billion from holding the civilian workforce at 
        fiscal year 2010 levels for 3 years, with limited exceptions 
        such as growth in the acquisition workforce;
        <bullet> $12 billion through the government-wide freeze on 
        civilian salaries;
        <bullet> $8 billion by reforming military health programs to 
        maintain high quality care while slowing cost growth;
        <bullet> $11 billion from resetting missions, priorities, 
        functions for the defense agencies and the Office of the 
        Secretary of Defense.
        <bullet> $6 billion by reducing staff augmentation and service 
        support contracts by 10 percent annually for 3 years;
        <bullet> $2.3 billion by disestablishing Joint Forces Command 
        and the Business Transformation Agency;
        <bullet> $1 billion by eliminating unnecessary studies and 
        internal reports;
        <bullet> $4 billion in changed economic assumptions, such as a 
        lower than expected inflation rate;
        <bullet> $100 million by reducing more than 100 flag officer 
        and about 200 civilian senior executive positions; and
        <bullet> $11 billion in a variety of smaller initiatives across 
        the department.

    To better track how and where taxpayer dollars are spent, the 
department is also reforming its financial management systems and 
practices--with the goal of having auditable financial statements by 
the congressionally mandated date of 2017. We are pursuing a 
streamlined approach that focuses first on the information we most use 
to manage the department.

                  FISCAL YEAR 2012 BASE BUDGET REQUEST

    The President's request for the base defense budget is for $553 
billion, which represents a 3.6 percent real increase over continuing 
resolution levels--and about 1.5 percent real growth over the omnibus 
defense bill marked up by Congress last year. The four major components 
are:

        <bullet> $207.1 billion for operations, maintenance, logistics 
        and training;
        <bullet> $142.8 billion for military pay and benefits;
        <bullet> $188.3 billion for modernization; and
        <bullet> $14.8 billion for military construction and family 
        housing.

                             MODERNIZATION

    In all, the fiscal year 2012 budget request includes $188.3 billion 
for modernization in the form of Procurement, Research, Development, 
Testing and Evaluation. Key modernization initiatives include:

        <bullet> $4.8 billion to enhance intelligence, surveillance, 
        and reconnaissance capabilities and buy more high demand 
        assets, including the MC-12 surveillance aircraft, Predator, 
        Reaper and Global Hawk UAVs--with the aim of achieving 65 
        Predator-class Combat Air Patrols by the end of fiscal year 
        2013;
        <bullet> More than $10 billion to modernize our heavily used 
        rotary wing fleet;
        <bullet> $3.9 billion to upgrade the Army's combat vehicles and 
        communications systems;
        <bullet> $4.8 billion to buy new equipment for the Reserves;
        <bullet> $14.9 billion to buy new fighters and ground attack 
        aircraft;
        <bullet> $24.6 billion to support a realistic, executable 
        shipbuilding and investment portfolio that buys 11 ships in 
        fiscal year 2012 and modernizes existing fleet assets;
        <bullet> $10.5 billion to advance the modernization portion of 
        the administration's approach to ballistic missile defense 
        (BMD)--including $8.4 billion for the Missile Defense Agency; 
        and
        <bullet> $2.3 billion to improve the military's cyber 
        capabilities.

    Questions have been raised about whether we are too focused on 
current conflicts and are devoting too few resources to future possible 
high-end conflicts. This budget should put those questions to rest. The 
fiscal year 2012 base request provides for significant investments at 
the high end of the conflict spectrum, including:

        <bullet> $1 billion ($4.5 billion over the Future Years Defense 
        Program (FYDP)) for a tactical air modernization program that 
        would ensure that the F-22 will continue to be the world's 
        preeminent air-to-air fighter. This effort will leverage radar 
        and electronic protection technologies from the JSF program;
        <bullet> $204 million ($1.6 billion over the FYDP) to modernize 
        the radars of F-15s to keep this key fighter viable well into 
        the future;
        <bullet> $30 million ($491 million over the FYDP) for a follow-
        on to the Advanced Medium-Range Air-to-Air Missile, that would 
        provide greater range, lethality and protection against 
        electronic jamming;
        <bullet> $200 million ($800 million over the FYDP) to invest in 
        technologies to disrupt an opponent's ability to attack our 
        surface ships;
        <bullet> $1.1 billion ($2.2 billion over the FYDP) to buy more 
        EA-18 Growlers than originally planned, plus $1.6 billion over 
        the FYDP to develop a new jamming system, expanding our 
        electronic warfare capabilities;
        <bullet> $2.1 billion ($14 billion over the FYDP) to fund 
        Aegis-equipped ships to further defend the fleet from aircraft 
        and missile attack and provide theater-wide tactical BMD; and
        <bullet> To improve anti-submarine capabilities, $2.4 billion 
        for P-8 Poseidon aircraft ($19.6 billion over the FYDP) and 
        $4.8 billion for procurement of Virginia-class attack 
        submarines ($27.6 billion over the FYDP).

    The fiscal year 2012 budget also supports a long-range strike 
family of systems, which must be a high priority for future defense 
investment given the anti-access challenges our military faces. A key 
component of this joint portfolio will be a new long-range, nuclear-
capable, penetrating Air Force bomber, designed and developed using 
proven technologies and with an option for remote piloting. It is 
important that we begin this project now to ensure that a new bomber 
can be ready before the current aging fleet goes out of service.
    The budget request includes $10.6 billion to maintain U.S. 
supremacy in space, in keeping with the recently released National 
Security Space Strategy. This new strategy will help bring order to the 
congested space domain, strengthen international partnerships, increase 
resiliency so our troops can fight in a degraded space environment, and 
improve our acquisition processes and reform export controls to 
energize the space industrial base.
    As the Military Services were digging deep for excess overhead, 
they were also taking a hard look at their modernization portfolio for 
weapons that were having major development problems, unsustainable cost 
growth, or had grown less relevant to real world needs.
    The JSF program received special scrutiny given its substantial 
cost and its central place in ensuring that we have a large inventory 
of the most advanced fifth generation stealth fighters to sustain U.S. 
air superiority well into the future. The fiscal year 2012 budget 
reflects the proposed restructuring of the F-35 JSF program to 
stabilize its schedule and cost. The department has adjusted F-35 
procurement quantities based on new data on costs, on likely orders 
from our foreign nation partners, and on realigned development and test 
schedules.
    The proposed restructuring adds over $4 billion for additional 
testing through 2016. It holds F-35 procurement in fiscal year 2012 at 
32 aircraft and reduces buys by 124 aircraft compared with last year's 
plans. Even after these changes, procurement ramps up sharply to 108 
aircraft by fiscal year 2016. This is the fastest that future 
procurement can prudently be increased.
    The F-35 restructuring places the Marine's short takeoff and 
vertical landing variant on the equivalent of a two year probation. If 
we cannot fix this variant during this timeframe and get it back on 
track in terms of performance, cost and schedule, then I believe it 
should be canceled. To compensate for any delays in F-35 deliveries, we 
propose buying 41 more F/A-18s between fiscal year 2012 to 2014.
    I also want to reiterate the President's and my firm opposition to 
buying an extra engine for the F-35--a position echoed by the Air 
Force, Navy, and Marine Corps leadership. We consider it an unnecessary 
and extravagant expense, particularly during this period of fiscal 
contraction. The Congress has not spoken with one voice on this matter 
and DOD has been operating this fiscal year under ambiguous guidance at 
best. Given the situation, I decided to continue to fund the JSF extra 
engine effort during this interim period to give Congress the 
opportunity to resolve this matter as part of its ongoing debate on the 
budget.
    However, this also means that the American taxpayers are spending 
$28 million a month for an excess and unjustified program that is 
slated for termination. The President, the military services and I 
continue to oppose this extra engine and, when the current CR expires, 
I will look at all available legal options to close down this program. 
It would be a waste of nearly $3 billion in a time of economic distress 
and the money is needed for higher priority defense efforts.
    This budget proposes cancelling the Expeditionary Fighting Vehicle 
(EFV) and reallocating funds to existing Marine ground combat 
requirements, a decision based on the recommendation of the Secretary 
of the Navy and the Commandant of the Marine Corps.
    Ultimately, the Navy and Marine Corps leadership based their 
recommendations on two main principles: affordability and balance. The 
EFV, a program originally conceived in the 1980s, has already consumed 
more than $3 billion to develop and will cost another $12 billion to 
build. The EFV as designed would have cost many times more than the 
system it would replace, with much higher maintenance and service 
costs. If continued over the next two decades, the EFV program would 
consume fully half of all Marine Corps procurement dollars while 
swallowing virtually the Corps' entire ground vehicle budget--
procurement, operations, and maintenance--with all the risk to 
readiness that entails.
    To be sure, the EFV would, if pursued to completion without regard 
to time or cost, be an enormously capable vehicle. But as with several 
other high end programs completed or cancelled in recent years--the F-
22, the Army Future Combat Systems, or the Navy's DDG-1000 destroyer--
the mounting cost of acquiring this specialized capability must be 
judged against other priorities and needs.
    Let there be no doubt--we are committed to sustaining the Marine 
Corps amphibious mission. This fiscal year 2012 request proposes that 
the $2.8 billion previously budgeted to the EFV for the next 5 years 
instead be reinvested towards an integrated new vehicle program for the 
Marine Corps, including:

        <bullet> New armor, weaponry and engines, plus a life-extension 
        program for the existing amphibious assault vehicles:
        <bullet> The development of a new, more affordable, sustainable 
        and survivable amphibious vehicle;
        <bullet> Accelerated procurement of new personnel carriers; and
        <bullet> Enhancement of existing Marine vehicles such as the 
        Abrams tank and Light Armored Vehicle.

    Throughout this process, we will harness the lessons learned--in 
terms of engineering, design, and testing--from the development of the 
EFV.

                               PERSONNEL

    The fiscal year 2012 budget request includes $142.8 billion for 
military pay and benefits and continues our strong support for troops 
and their families. This includes funding for wounded, ill and injured 
care, enhancing the military health care system and supporting military 
families under stress. Examples in this request include:

        <bullet> $2.3 billion to provide care for our Wounded Warriors 
        and their families; and
        <bullet> $8.3 billion for supporting families, including child 
        care and school programs; and

    While the department continues to insist on and pay for the highest 
quality health care, we are also mindful of sharply rising health 
costs--which have risen over the last decade from $19 billion in 2001 
to $52.5 billion in this budget request. The department has taken a 
comprehensive look at all facets of the military health care model--
emphasizing the need to balance the number one priority of continuing 
to provide the highest care and service, while ensuring fiscally 
responsible management.
    One area we have identified are benefits provided to working-age 
retirees under the TRICARE program. Many of these beneficiaries are 
employed full time while receiving full pensions, often forgoing their 
employer's health plan to remain with TRICARE. This should come as no 
surprise, given that the current TRICARE enrollment fee was set in 1995 
at $460 a year for the basic family plan and has not been raised since. 
By comparison, the fees for a comparable health insurance program for 
Federal workers total roughly $5,000 per year.
    Accordingly, we propose a modest increase to TRICARE Prime 
enrollment fees for working age retirees: $2.50 per month for 
individuals and $5.00 per month for families in fiscal year 2012, and 
then indexed to Medicare premium increases in future years.
    We are proposing other health care initiatives such as efficiencies 
in pharmacy co-pays designed to provide incentives to make greater use 
of generic prescriptions and those ordered by mail. We also seek to 
phase out, over several years, special subsidies offered to a small 
group of hospitals that treat military families and retirees. 
Additionally, we are proposing providing TRICARE-for-Life to all 
Medicare-eligible retirees aged 65 and over, including future enrollees 
in the Uniformed Services Family Health Plan. It is important to note 
that none of these changes would affect health care benefits for 
active-duty personnel.

                       SECURITY ASSISTANCE REFORM

    The fiscal year 2012 request includes funding and authorization for 
a key step forward in a critical policy area: helping other countries 
to protect and defend themselves. The Pentagon and the State Department 
have agreed to a 3-year pilot pooled fund--called the Global Security 
Contingency Fund--that will be used to build partner capacity, prevent 
conflicts, and prepare for emerging threats. The proposed fund would 
incentivize interagency collaboration through a new business model. It 
would provide a more agile and cost effective way to reduce the risk of 
future conflicts by allowing our government to respond to unforeseen 
needs and take advantage of emerging opportunities to help partners 
secure their own territories and regions.
    The request is modest, an initial $50 million State Department 
appropriation, along with a request for authority to transfer an 
additional $450 million into the fund from either department if needed. 
DOD intends to make significant contributions from its own resources 
into this pooled fund. We will be requesting in parallel an 
authorization for this initiative in the National Defense Authorization 
Act for Fiscal Year 2012.

                    OVERSEAS CONTINGENCY OPERATIONS

    Finally, this budget request includes $117.8 billion in fiscal year 
2012 to support OCOs, primarily in Afghanistan, and to wind down our 
operations in Iraq--this is a significant reduction from the $159 
billion request for OCO in fiscal year 2011. The request, which fully 
funds our wartime requirements, includes:

        <bullet> $86.4 billion for wartime operations and related 
        costs;
        <bullet> $425 million for the Commander's Emergency Response 
        Fund;
        <bullet> $475 million for the Afghan Infrastructure Fund;
        <bullet> $2.6 billion to support counter-IED efforts;
        <bullet> $3.2 billion for mine-resistant ambush protected 
        (MRAP) vehicles, including the MRAP All Terrain Vehicles 
        developed for Afghanistan; and
        <bullet> $11.9 billion to replace and restore worn, damaged, or 
        destroyed equipment.
        <bullet> $12.8 billion for training and equipping of the Afghan 
        security forces.

                               CONCLUSION

    All told, the cumulative effect of the department's savings and 
reforms, combined with a host of new investments, will make it possible 
to protect the U.S. military's global reach and fighting strength 
despite the declining rate of growth, and eventual flattening, of the 
defense budget over the next 5 years. As a result of the savings 
identified by the Services and reinvested, our military will be able to 
meet unforeseen expenses, refurbish war worn equipment, buy new ships 
and fighters, begin development of a new long-range bomber, boost our 
cyber-warfare capability, missile defense, and buy more of the most 
advanced UAVs. But, I should note, this will only be possible if the 
efficiencies reforms and savings are followed through to completion.
    Before closing, I want to address the calls from some quarters for 
deeper cuts in defense spending to address this country's fiscal 
challenges. I would remind them that over the last two defense budgets 
submitted by President Obama, we have reformed and rebalanced the 
department's spending habits and priorities, curtailing or canceling 
troubled or excess programs that would have cost more than $300 billion 
if seen through to completion. Additionally, total defense spending--
including war costs--will decline further as the U.S. military 
withdraws from Iraq.
    We still live in a very dangerous and often unstable world. Our 
military must remain strong and agile enough to face a diverse range of 
threats--from non-state actors attempting to acquire and use weapons of 
mass destruction and sophisticated missiles, to the more traditional 
threats of other states both building up their conventional forces and 
developing new capabilities that target our traditional strengths.
    We shrink from our global security responsibilities at our peril. 
Retrenchment brought about by short-sighted cuts could well lead to 
costlier and more tragic consequences later--indeed as they always have 
in the past. Surely we should learn from our national experience, since 
World War I, that drastic reductions in the size and strength of the 
U.S. military make armed conflict all the more likely--with an 
unacceptably high cost in American blood and treasure.
    Today, I ask your support for a leaner, more efficient Pentagon and 
continued sustainable, robust investments in our troops and future 
capabilities. Our troops have done more than their part, now it is time 
for us in Washington to do ours.
    Mr. Chairman, I look forward to working through this next phase of 
the President's defense reform effort with you in the weeks and months 
ahead--to do what's right for our Armed Forces and what's right for our 
country.

    Chairman Levin. Thank you very much, Mr. Secretary.
    Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Thank you, Mr. Chairman, Senator McCain, 
and distinguished members of this committee, I am honored to 
appear before you today to discuss the President's fiscal year 
2012 defense budget.
    Before I do, however, let me just echo Secretary Gates' 
comments about the very real dangers inherent in failing to 
pass this year's budget. The fiscal year 2011 CR, if carried 
forward, would not only reduce our account by $23 billion, it 
would deprive us of the flexibility we need to support our 
troops and their families.
    The Services have already taken disruptive and, in some 
cases, irreversible steps to live within the confines of the 
current CR. Steps that ultimately make us less effective at 
what we are supposed to do for the Nation. The Navy did not 
procure Government-furnished equipment for another Arleigh 
Burke class destroyer. The Army and the Marine Corps have 
curtailed or altogether frozen civilian hiring. All the 
Services are now prevented from issuing contracts for new major 
military construction projects. Some programs may take years to 
recover if the CR is extended through the end of September.
    So I urge you to pass the fiscal year 2011 defense bill 
immediately. Even at a reduced top line, it will provide us the 
tools we need to accomplish the bulk of the missions we have 
been assigned.
    Accomplishing those missions into the future demands as 
well support for the President's fiscal year 2012 proposal. As 
the Secretary has laid out, this budget, combined with the 
efficiency effort he led, provides for the wellbeing of our 
troops and families, fully funds current operations in 
Afghanistan and Iraq, and helps balance global risk through 
streamlined organization, smarter acquisition, and prudent 
modernization.
    The Army, for instance, will cancel procurement of a 
surface-to-air missile and the non-line-of-sight launch system, 
but it will continue production of the joint light tactical 
vehicle and spearhead the development of a whole new family of 
armored vehicles. The Navy will give up its second fleet 
headquarters, reduce its manpower ashore, and increase its use 
of multiyear procurement for ships and aircraft, allowing it to 
continue development of the next generation of ballistic 
missile submarine, purchase 40 new F/A-18s, and 4 littoral 
combat ships and another LPD-17. The Marines will cancel the 
Expeditionary Fighting Vehicle and like the Army, reduce their 
end strength starting in 2015. But they will reinvest these 
savings to sustain and modernize the amphibious assault vehicle 
and the light armored vehicle, even as they advance a new 
concept of operations and restore much of their naval 
expeditionary skills. The Air Force will be able to continue 
development of the next tanker, a new bomber, and modernize its 
aging fleet of F-15 fighters, all the while finding savings of 
more than $33 billion through reorganization, consolidation, 
and reduced facilities requirements.
    None of this balancing will come on the backs of our 
deployed troops. We are asking for more than $84 billion for 
readiness and training, nearly $5 billion for increased 
intelligence, surveillance, and reconnaissance (ISR) 
capabilities, and more than $10 billion to recapitalize our 
rotary aircraft fleet. These funds plus those we are requesting 
to help build partner capacity in places like Afghanistan, 
Pakistan, Iraq, and Yemen all speak to the emphasis we are 
placing on giving our troops and their partners in the field 
everything they need to do the difficult jobs we have asked of 
them.
    We must also give them and their families everything they 
need to cope with the stress and the strain of 10 years at war. 
That is why I am so pleased with the funds devoted in this 
proposal, almost three-quarters as much as the $200 billion 
budgeted for operations and maintenance (O&M), to personnel 
housing and health care issues. The chiefs and I penned a rare 
24-star letter to Congress this week expressing our unqualified 
support for the military health care program changes included 
in this budget. We sought equity across all health care 
programs with beneficiaries and health care delivery providers 
having the same benefits and equivalent payment systems 
regardless of where they live or work.
    That, in turn, led us to propose increases in TRICARE 
enrollment fees for working age retirees. These increases are 
modest and manageable and leave fees well below the inflation-
adjusted, out-of-pocket costs set in 1995 when the current fees 
were established. We sincerely hope you will see fit to pass 
these increases.
    Please know that we will continue to invest wisely in 
critical care areas to include research, diagnosis and 
treatment of mental health issues and TBI, enhanced access to 
health services, and new battlefield technologies. We 
understand that changes to health care benefits cause concern 
among the people we serve and the communities from which we 
receive care, but we also understand and hold sacred our 
obligation to care completely for those who have born the brunt 
of these wars, as well as those for whom the war never ends.
    I am convinced that we have not begun to understand the 
toll in dollars and in dreams that war extracts from our 
people. As the grandsons and granddaughters of World War II 
vets still struggle to comprehend the full scope of the horror 
those men yet conceal, so too will our grandchildren have to 
come to grips with the wounds unseen and the grief unspoken 
unless, of course, we get it right. I believe the investments 
we are making in wounded care and family readiness will pay off 
in that regard, but it will take time and patience and money, 
three things we seem so rarely to possess in this town.
    That brings me back to this particular budget request. With 
limited resources and two wars in progress, we should be 
prudent in defining our priorities in controlling costs and in 
slaking our thirst for more and better systems.
    We should also be clear about what the joint force can and 
cannot do, just as we should be clear about what we expect from 
our interagency and international partners. Our global 
commitments have not shrunk. If anything, they continue to 
grow, and the world is a lot less predictable now than we could 
have ever imagined. You need look no further than Tahrir Square 
to see the truth in that. Foolhardy would it be for us to make 
hasty judgments about the benefits, tangible and intangible, 
that are to be derived from forging strong military 
relationships overseas such as the one we enjoy with Egypt. 
Changes to those relationships in either aid or assistance 
ought to be considered only with an abundance of caution and a 
thorough appreciation for the long view, rather than the flush 
of public passion and the urgency to save a buck. The $1.3 
billion we provide the Egyptian military each year has helped 
them become the capable professional force they are and, in 
that regard, has been of incalculable value.
    Of equal or greater value is increased appropriations for 
DOS and our request in this budget for the Global Security 
Contingency Fund, a 3-year pooled fund between DOD and DOS, 
that will be used to build partner capacity, prevent conflicts, 
and prepare for emerging threats. The request is modest, an 
initial $50 million appropriation, along with a request for 
authority to reprogram an additional $450 million if needed. 
But what it will buy us is an agile and cost effective way to 
better respond to unforeseen needs and take advantage of 
emerging opportunities for partners to secure their own 
territories and regions.
    We must get more efficient, yes, but we must also get more 
pragmatic about the world we live in. We can no longer afford 
bloated programs or unnecessary organizations without 
sacrificing fighting power, and we can no longer afford to put 
off investments in future capabilities or relationships that 
preserve that power across a spectrum of conflict. I have long 
said we must not be exempt in DOD from belt-tightening, but in 
truth, there is little discretionary about the security we 
provide our fellow citizens. Cuts can reasonably only go so far 
without hollowing the force. In my view then, this proposed 
budget builds on the balance we started to achieve last year 
and represents the best of both fiscal responsibility and sound 
national security.
    I would be remiss, indeed, if I did not close by lauding 
the incredible effort of our troops overseas and their families 
as they finish one war in Iraq and begin to turn corners in 
Afghanistan. I know you share my pride in them and their 
families and your support has been superb. I know you will keep 
them foremost in mind as you consider the elements of this 
proposal. I thank you for your continued longstanding support 
of our men and women in uniform and their families, and I look 
forward to your questions.
    [The prepared statement of Admiral Mullen follows:]

            Prepared Statement by ADM Michael G. Mullen, USN

    Chairman Levin, Senator McCain, and distinguished members of the 
committee, it is my privilege to report on the posture of the U.S. 
Armed Forces.
    We remain a military at war. Yet, in the face of daunting 
challenges, our Armed Forces have successfully carried out their far-
ranging missions over the past year. They have disrupted al Qaeda, 
improved security in Afghanistan, continued on a path to soon end the 
war in Iraq, promoted stability in the Pacific Rim, and provided 
humanitarian assistance when disasters struck. However, the cumulative 
stress of 9 years of war is growing and substantial. We will need your 
sustained support, even in the midst of fiscal difficulties, to reset 
the Joint Force needed to protect the American people.
    Our country is fortunate to be served by the best Armed Forces I 
have seen in over 42 years of wearing the uniform. Despite continuous 
deployments and combat operations, our men and women in uniform and 
their families have been resilient beyond all expectations. They are 
patriots who care deeply for this country and serve under very trying 
conditions. They are the most combat experienced and capable force we 
have ever had, and they continue to learn and adapt in ways that are 
truly remarkable. I am continuously humbled as I visit them around the 
country and the world. Time and again, these men and women and their 
families have proven that our All-Volunteer Force is the Nation's 
greatest strategic asset.
    This Force cannot thrive without the support of the American 
people. Everything we are and everything we do comes from them. I am 
grateful for Congress' and the American people's constant reminders 
that the service, heroism, and sacrifices of our servicemembers and 
their families are valued. However, I am concerned that because our 
military hails from a shrinking percentage of the population, some day 
the American people may no longer know us. We cannot allow this to 
happen. We will endeavor to stay connected and to maintain a strong and 
open relationship.
    As we look to our military's posture and budget, we recognize that 
our country is still reeling from a grave and global economic downturn 
and is maintaining nearly historic fiscal deficits and national debt. 
Indeed, I believe that our debt is the greatest threat to our national 
security. If we as a country do not address our fiscal imbalances in 
the near-term, our national power will erode, and the costs to our 
ability to maintain and sustain influence could be great. To do its 
part, the Department of Defense (DOD) must and will become more 
efficient and disciplined, while improving our effectiveness. We must 
carefully and deliberately balance the imperatives of a constrained 
budget environment with the requirements we place on our military in 
sustaining and enhancing our security.
    Going forward our fundamental resourcing problem will be 
identifying where we can reduce spending while minimizing the 
additional risk we will have to take on. For too much of the past 
decade we have not been forced to be disciplined with our choices. This 
must change, and it already has. We have identified a number of 
efficiencies in our budget and have reduced spending, while also 
retaining the combat readiness, force structure, essential 
modernization, and personnel programs we need. We are proud of what we 
have done so far, identifying $100 billion in efficiency savings over 
the next 5 years. But we need to do more.
    Under the Secretary's leadership, DOD has conducted two 
comprehensive reviews of our requirements. First, the Quadrennial 
Defense Review surveyed the strategic environment, identified the 
strategy for the Joint Force, and determined what we need to execute 
that strategy. Second, we reviewed our spending to ensure we can 
achieve the maximum security benefit for every defense dollar. We must 
be careful to not cut defense beyond prudent levels, below which U.S. 
Armed Forces would be unable to execute our defense strategy at 
acceptable risk. Given the challenges and complexity of the security 
environment and the breadth of our national security interest, the 
defense strategy is necessarily global, wide-ranging, and highly 
responsive. This is why it is expensive.
    At about 4.5 percent of GDP, the return on U.S. defense spending 
has been immense and historic: preventing world war between great 
powers, securing the global commons and the free flow of international 
trade and natural resources, combating terrorism across the globe, and 
protecting the American people and our allies. However, our operations 
have come with stresses and strains as well as costs to our readiness. 
For this reason, if we are to continue to execute the missions set out 
by our strategy, we must recognize that returning from war and 
resetting the force is costly and will require several years of 
continued investment. Congressional support is required for our forces, 
their families, their equipment and training, and our military 
infrastructure to ensure the success of our ongoing efforts and for us 
to be ready to respond to new and emerging security challenges.
    The President's National Security Strategy, the recently released 
National Military Strategy, and the President's Strategy for 
Afghanistan and Pakistan describe our military approaches and ongoing 
operations in great detail. This posture statement will focus on the 
strategic priorities for the military and the Congressional support we 
need. My priorities remain defending our vital interests in the broader 
Middle East and South Central Asia, improving the Health-of-the-Force, 
and balancing global strategic risk.

 DEFENDING OUR VITAL NATIONAL INTERESTS IN THE BROADER MIDDLE EAST AND 
                           SOUTH CENTRAL ASIA

    Over the past year, our Armed Forces have continued to shoulder a 
heavy burden, particularly in the Middle East and South Central Asia. 
The balance of this burden and our wartime focus has shifted, however, 
from Iraq to Afghanistan. This was made possible by drawing down 
military forces in Iraq and transitioning security responsibilities to 
the Iraqis. Meanwhile, we committed additional forces and resources to 
Afghanistan and Pakistan. We have made steady, albeit uneven, progress 
toward disrupting, dismantling, and ultimately defeating al Qaeda in 
the region, while remaining ready to address other challenges around 
the world.
    As a result of our operations with our Coalition, Afghan, and 
Pakistani partners, and extensive cooperation with other partners, al 
Qaeda's senior leadership in Pakistan is weaker and under greater 
pressure than at any other time since being forced out of Afghanistan 
in late 2001. They have suffered the losses of numerous senior leaders 
and face significant challenges to coordinating operations, maintaining 
safe havens, and acquiring funding. Despite this operational progress, 
al Qaeda retains the intent and capability to attack the United States 
and other Western countries. The movement's leaders continue to operate 
in the Afghanistan-Pakistan border region, planning operations and 
guiding the efforts of al Qaeda networks operating out of the Arabian 
Peninsula, Africa, and even Europe. We, in turn, remain committed to 
our deepening and broadening partnerships in the region and to our goal 
of ultimately defeating al Qaeda and creating the conditions to prevent 
their return to Afghanistan and Pakistan.
    We continue to implement our national strategy for Afghanistan and 
Pakistan with great urgency. This past November, we completed the 
deployment of the 30,000 additional U.S. forces, and we are beginning 
to see signs of improvements on the ground. These forces have allowed 
us to go on the offensive with our Afghan partners, force the Taliban 
out of safe havens in its heartland of Kandahar and Helmand, protect 
the Afghan population, and reduce civilian casualties. Our 
counterinsurgency operations, conducted in close partnership with 
Afghan forces, have reduced the Taliban's influence, reversed the 
insurgency's momentum in key areas of the country, and forced many 
Taliban leaders to flee across the border. Our forces will consolidate 
recent gains in Helmand and Kandahar Provinces and further expand 
security in other critical parts of the country.
    This success against the Taliban and other insurgent groups is 
essential to prevent the return of al Qaeda, gain time to build the 
Afghan National Security Forces (ANSF), and force insurgents to 
reconcile with the Afghan Government on acceptable terms. We expect the 
violence coming in 2011 to be greater than last year. The fighting will 
be tough and often costly, but it is necessary to sustain and even 
increase the pressure we have been placing on the insurgent groups. We 
cannot allow the Taliban to reorganize and reconstitute as they did in 
2004 and 2005, regain their oppressive influence over the Afghan 
people, and once again provide safe haven to al Qaeda.
    For the success of our military operations to be enduring, it is 
critical that the ANSF be able to provide security for the Afghan 
people. Our greatest success story this past year has been the growth 
and development of the ANSF. With the help of additional NATO trainers, 
the ANSF added 49,000 soldiers and 21,000 policemen to their ranks--an 
astonishing growth of 36 percent. The ANSF also continue to improve on 
the battlefield and increasingly contribute to the war effort. They are 
fighting beside us and have grown in their ability to plan and conduct 
complex operations. In fact, their expanding capabilities and presence 
have already allowed ISAF forces to ``thin out'' in some parts of 
central Helmand and Kabul Province. We are on track to begin the 
transition of security responsibilities and drawdown of our forces in 
July 2011. In the coming year, while continuing to grow the ANSF in 
size, we will place greater emphasis on improving its quality, 
professionalism, and self-sufficiency, to ensure that they remain on 
track to assume the overall lead for security in 2014. To this end, the 
Afghan Security Forces Fund remains critical to the building of the 
ANSF's capabilities and to the ANSF's eventual assumption of security 
responsibilities.
    Despite our successes, numerous other challenges remain. Achieving 
sustainable security requires developing Afghan governing capacity, 
cultivating the conditions needed for conflict resolution, neutralizing 
insurgent sanctuaries in Pakistan, and countering corruption. Absent 
these conditions, we will not succeed. Despite a dramatic increase in 
our civilian presence in Afghanistan this past year, improvements in 
subnational governance and reconstruction have not kept pace with 
progress in improving security. This has impeded our ability to 
``hold,'' ``build,'' and ``transfer.'' For this reason, the Commander's 
Emergency Response Program remains the most responsive means for 
addressing a local community's needs and is often the only tool our 
commanders have to address pressing requirements in areas where 
security is challenged. Along with development projects, we believe 
that new transparency and anti-corruption efforts may counter the 
deleterious effects of Afghanistan's criminal patronage networks, 
mitigate the distortive effects of international aid and development 
programs, and ultimately improve the confidence the Afghan people have 
in their government and their governing officials. To complement this 
``bottom-up'' development, we will support the Afghan Government's 
reconciliation and reintegration efforts in order to achieve the 
political solution that is an imperative to sustainable peace. 
Successful military and security gains cannot be sustained unless we 
meet this challenge.
    Though our operational efforts are focused on Afghanistan, our 
diplomatic efforts have increasingly focused on Pakistan, a country 
critical to our strategy in the region. We must overcome years of 
mistrust and continue to lay the foundation for a true partnership with 
Pakistan. We made progress this past year by holding a third, 
productive round of Strategic Dialogues in October and by improving 
high- and mid-level coordination on security operations in the vicinity 
of the Afghanistan-Pakistan border. Equally important, we responded to 
last summer's devastating floods with timely aid and humanitarian 
relief. Our assistance eased some of the burden of the Pakistani 
military and demonstrated our enduring commitment to the Pakistani 
people.
    A key component of our partnership is to help enable the Pakistani 
Military's counterterror and counterinsurgency operations. The series 
of offensive operations undertaken by the Pakistani Military in the 
tribal areas expanded dramatically in 2009. Since then, the Pakistanis 
have fought bravely and sacrificed much--losing thousands of soldiers 
in the process. We have faithfully supported them in a variety of ways, 
primarily in the development of the counterinsurgency capabilities of 
Pakistan's security forces. This development and the military's 
operations have kept pressure on al Qaeda's senior leadership and the 
militant groups threatening Pakistan and Afghanistan. However, 
insurgent groups such as the Quetta Shura and the Haqqani network 
operate unhindered from sanctuaries in Pakistan, posing a significant 
threat to NATO and Afghan forces. The aftermath of devastating flooding 
continues to place a high demand on the military. Our efforts to enable 
the Pakistani Military depend on several critical programs, such as the 
Pakistan Counterinsurgency Fund and Pakistan Counterinsurgency 
Capability Fund and the Multi-Year Security Assistance Commitment 
announced by Secretary Clinton last fall. It is also important that 
through exchange programs, such as the International Military Education 
and Training (IMET) program, we establish relationships with the 
generation of Pakistani officers with whom we had cut ties. In 
addition, because we so heavily depend on Pakistan as a supply route 
supporting our efforts in Afghanistan, Coalition Support Funds remain 
critical to reimbursing the Pakistanis for their assistance.
    In terms of our broader engagement with Pakistan and the region, 
reducing some of the long-standing enmity and mistrust between India 
and Pakistan would greatly contribute to our efforts. As neighbors, it 
is in both India and Pakistan's interests to reduce the tension between 
them and strengthen their political, security, and economic ties. While 
we acknowledge the sovereign right of India and Pakistan to pursue 
their own foreign policies, we must demonstrate our desire for 
continued and long-term partnership with each, and offer our help to 
improve confidence and understanding between them in a manner that 
builds long-term stability across the wider region of South Asia.
    Another increasingly important aspect of our engagement in South 
Central Asia is the development of the Northern Distribution Network. 
This line of communication has proven critical to maintaining 
flexibility in our logistical support to our efforts in Afghanistan. We 
will continue to work with our partners to ensure access and sustain 
the viability of redundant supply routes for our forces.
    We have ended our combat mission in Iraq, Operation Iraqi Freedom, 
and started a new chapter in our partnership, Operation New Dawn. We 
successfully transferred lead for security responsibilities to the 
Iraqi security forces (ISF) on August 31, 2010. Iraq's military and 
political leaders are responding vigorously and professionally to the 
residual, but still lethal, threat from al Qaeda. As a result, and 
despite a drawn-out government formation process, the security 
situation there continues to improve, and the Iraqi people are 
increasingly able to focus on jobs and development. Beyond this 
security transition, the State Department has taken the lead for U.S. 
efforts in Iraq, and our diplomats and other civilians are increasingly 
the face of our partnership with the Iraqi people and their government. 
Sustained funding for our civilian efforts, commensurate with the State 
Department's growing responsibilities--particularly our development 
assistance and police training programs--is needed to ensure we are 
able to successfully turn our military accomplishments into political 
ones.
    However, the end of the war in Iraq will not mean the end of our 
commitment to the Iraqi people or to our strategic partnership. We must 
focus on the future to help Iraq defend itself against external threats 
and consolidate a successful, inclusive democracy in the heart of the 
Middle East. As we continue to draw down forces through December 31, 
2011, in accordance with the U.S.-Iraqi Security Agreement, we will 
transition to a more typical military-to-military relationship. We will 
shift the focus of our assistance from Iraq's internal domestic 
security to its external national defense, keeping in consideration the 
interests and sensitivities of all Iraqis as well as Iraq's neighbors. 
While ISFs have made great improvements, they will require external 
assistance for years to come. The cornerstone of our future security 
partnership with the Iraqis will be a robust Office of Security 
Cooperation as part of the U.S. Embassy in Iraq. Key to our assistance 
and not squandering our hard won gains will be continued support to the 
ISF fund through fiscal year 2011, equipment transfer provisions, IMET 
and other traditional security assistance programs, as well as section 
1234 authority to transfer equipment from DOD stocks.
    Despite the energy we commit to defeating al Qaeda and to 
stabilizing the situations in Afghanistan, Pakistan, and Iraq, we 
remain vigilant against other security challenges and sources of 
aggression and proliferation throughout this critical region. The 
Iranian regime continues to be the region's greatest state-level threat 
to stability. Despite growing isolation from the international 
community and a fourth round of increasingly costly U.N. sanctions, the 
regime has neither ceased providing arms and other support to 
Hezbollah, Hamas, and other terrorist groups nor accepted a verifiable 
end to its pursuit of nuclear weapons. Many of the potential 
flashpoints in the Levant and the Gulf region bear Iran's signature, 
commanding the region's and the world's attention. That said, strong 
social, economic, and political tensions pull on the region and its 
people--as evidenced by the turmoil we have recently witnessed in 
Egypt, Tunisia, and elsewhere. Volatility in regional affairs can often 
follow volatility in domestic affairs. However, strong military-to-
military relationships can help reduce and mitigate the risks of 
instability.
    We will continue to help counter terrorist threats, deter Iranian 
aggression, and protect our partners from coercive influence. To do 
this we will continue to build the capabilities of our partners. More 
important, we will nurture the development of a regional security 
architecture based on multi-lateral partnerships that address a wide 
range of security issues including counter-proliferation, maritime 
security, counter-terrorism, air and missile defense, and emergency 
response. As with our other partnerships across the globe, our security 
assistance programs form the keystone of our relationships. In 
particular, our section 1206 and 1208 programs provide a unique and 
necessary flexibility and responsiveness to combatant commander 
requirements that we cannot currently get with our Foreign Military 
Funding (FMF) programs.

                   IMPROVING THE HEALTH-OF-THE-FORCE

    The back end of war--the continued care of our veterans and their 
families and the resetting of our force--cannot be an afterthought, and 
getting it right will be expensive. Moreover, because of the duration 
of these conflicts, we have begun to reset our units even in the midst 
of conflict. The stress of nine years of constant warfare has come at a 
great cost to the Force and its ability to continue to conduct 
operations and respond to other emergent crises. We must care for our 
people and their families and reset and reconstitute our weapon systems 
to restore our readiness, capabilities, and wartime effectiveness. This 
will require a sustained commitment of at least 3 to 5 years, and could 
continue well beyond the end of our involvement in Iraq and 
Afghanistan.

Care for our People
    Our foremost focus is on our service men and women, their families, 
and their supporting communities--the bedrock of our Armed Forces. They 
each play unique and growing roles in our national security fabric, but 
they have been under great, often unrecognized, stress for the past 9 
years. Hundreds of thousands of our servicemembers have deployed to 
fight overseas. Some have served multiple grueling tours, a great 
number have suffered significant injuries, and thousands have 
sacrificed their lives. Even those serving stateside enjoy only short 
respites between deployments. We have asked a great deal from our 
people, and we must invest in them and their families--through 
appropriate pay, health care, family care, education, and employment 
opportunities--as they are the single greatest guarantee of a strong 
military. And they become our best recruiters.
    The many accomplishments of our All-Volunteer Force over the past 9 
years of continuous combat operations have been unprecedented. That we 
remain competitive in attracting the country's best talent during this 
period is simply extraordinary. All of our Services in the active Duty, 
Reserve, and National Guard components continue to have exceptional 
recruiting and retention rates. Ninety-six percent of our accessions 
have earned at least a high school diploma, which helps explain why 
this is one of the finest forces we have ever fielded. Competitive 
compensation and selective bonuses are critical to our ability to 
recruit and retain talent, as are other ``people programs,'' such as 
the new GI Bill, improvements in housing, access to quality schooling 
for military children, mental health counseling, adequate child care, 
and attractive family support centers. All of these programs make the 
harsh burdens of military life easier to bear. I ask for Congress' 
continued support for them in order to sustain the Force while our 
overseas operations continue.
    I also urge Congress to continue funding the programs that will 
create a continuum of health care for our veterans and their families 
that seamlessly spans active duty and veteran status. With a focus on 
our enduring commitment, we must continue to improve our active and 
veteran care services, with special emphasis on Wounded Warrior 
Support. We will expand our public and private partnerships and tap 
into the ``sea of goodwill'' towards our veterans found in our Nation's 
communities and civic organizations. That will be important, but it is 
not sufficient. Long term fiscal support for the Department of Veterans 
Affairs will serve the growing number of veterans requiring care.
    One issue that demands acute national attention is the challenge of 
Traumatic Brain Injury (TBI). The Improvised Explosive Device (IED) is 
the signature weapon of the conflicts in Iraq and Afghanistan and is 
directly responsible for many of these injuries. Many of our heroes 
suffer from severe TBI and have had their lives dramatically changed in 
ways we do not yet fully understand, and over 150,000 others have been 
exposed to events that may have caused moderate TBI. As such, we need 
to aggressively identify the victims of TBI, both within the serving 
force and among our veterans, and the treatment and rehabilitation they 
need and deserve. The effects of these efforts will pay dividends for 
some time, because we can expect to face IEDs in future conflicts as 
well.
    In addition, suicides and the many other stresses and social health 
costs that lag behind war--divorce, domestic violence, post-traumatic 
stress, depression, and even homelessness--are becoming alarmingly 
evident. Suicide rates remain unacceptably high, although programs such 
as the Department's Suicide Prevention Task Force and our improved 
leadership efforts have helped to lower the rates this past year in 
three of our four Services. Leaders must remain focused on this issue, 
as we work to improve our systematic understanding of the problem's 
scope, warning signs, and at-risk populations. As a society we must 
work to end the stigma that prevents our servicemembers, veterans, and 
families from seeking early help.
    By more effectively leveraging public-private partnerships, we can 
pursue solutions and treatment for all of these health issues 
afflicting the Force with great urgency and compassion and honor the 
sacred trust our Nation has with all of our combat veterans.

Reset and Reconstitute
    The grueling pace of deployments has not allowed for the training 
needed to keep our forces ready along the entire spectrum of military 
operations and, as a result, our readiness in some mission areas has 
atrophied over the past decade. There are some modest reasons for hope, 
though. The Army now has fewer soldiers deployed than it has had at any 
time since the invasion of Iraq. In addition, this past year we 
completed the increases in the Army and Marine Corps end strengths 
authorized in 2007. As a result, we are beginning to see some 
stabilizing deployment rates and modestly improving dwell times. We 
appreciate the Congressional support to our wartime manning needs that 
has enabled this. However, our overseas contingency operations do 
continue to demand significant numbers of ground and special operations 
forces and low-density, high-demand specialties. For our Army combat 
units, we do not expect to begin to reach our interim goal of 1:2 
deploy-to-dwell ratios until 2012. After reset and reconstitution 
activities and as demand decreases, we expect to begin off-ramping some 
of our recent force level increases.
    However, my concerns about the health of our force go beyond our 
people and training--we must also restore the readiness of our combat 
systems and capabilities, which have similarly been under extraordinary 
stress. In the back end of previous conflicts, we were able to contract 
our equipment inventory by shedding our oldest capital assets, thereby 
reducing the average age of our systems. We cannot do this today, 
because the high pace and duration of combat operations have consumed 
the equipment of all our Services much faster than our peacetime 
programs can recapitalize them. We must actually recapitalize our 
systems to restore our readiness and avoid becoming a hollow force. All 
of this will force us to be more efficient and disciplined in our 
choices.
    We must focus resources where they matter most, and we will reset 
and reconstitute by prioritizing people, readiness, capabilities, and 
essential modernization to maintain a technological edge. In the short-
term, we will continue previous efforts to reconstitute and expand our 
rotary wing and tilt-rotor capacity in our Combat Aviation units and to 
convert one heavy Brigade Combat Team to a Stryker Brigade. However, 
over a period of years, we will modernize our battle fleet of ground 
combat vehicles, including replacing the Bradley Fighting Vehicle. We 
require enhancements to our manned and unmanned Intelligence, 
Surveillance, and Reconnaissance (ISR) assets, a new bomber program, 
extending the service life of a portion of our F-16 fleet, and 
continuing improvements in our missile defense and electronic  warfare  
systems.  We  hope  to  modernize  and  extend  the  service  life  of  
our  F/A-18 fleet and invest in additional P-8A aircraft and tankers. 
Lastly, we ask for full resourcing of the Air and Missile Defense 
Radar, the Next-Generation Jammer, and communications and integrated 
fire control systems designed for operating in contested environments. 
These investments are, without question, costly, but they are 
critically demanded by our current and likely future challenges. Your 
support is particularly important this year as we adjust to the impact 
of recent Continuing Resolutions on program starts and growth rates and 
to the $17.9 billion difference between the amount authorized by the 
resolutions and our fiscal year 2011 budget request--$23 billion if 
this becomes a year-long resolution.
    Just as important as the reconstitution of these combat systems are 
the acquisition processes and production capacities underlying them. 
Our procurement systems remain complex and in need of streamlining to 
help us acquire needed capabilities faster and more affordably. Last 
year we committed to adding 20,000 experts to our acquisition corps by 
2015. In doing so, we seek to improve stability in our programs, 
conduct more comprehensive design reviews, improve cost estimates, 
utilize more mature technology, and increase competition in order to 
make the entire process more responsive.
    In addition, as I stated last year, I am concerned about the 
capabilities of our defense industrial base, particularly in ship 
building and space. Our ability to produce and support advanced 
technology systems for future weapon systems may be degraded by 
decreasing modernization budgets as well as mergers and acquisitions. 
Left unchecked, this trend will impact our future warfighting 
readiness. Although we are properly focusing on near-term reset 
requirements, DOD, our industry leaders, and Congress need to begin 
considering how to equip and sustain the military we require after our 
contemporary wars come to an end.

                    BALANCING GLOBAL STRATEGIC RISK

    Balancing global risk requires maintaining a ready and forward 
presence with available forces that, overall, can meet the full scope 
of our security commitments. To meet these requirements, we must reset, 
sustain, and properly posture a force that includes both our Active 
Force and our National Guard and Reserve components. But we must also 
make prudent investments and continuously evolve the force so as a 
whole it can meet the challenges of an increasingly complex global 
security environment.
    For many decades, our overmatch in our general purpose forces has 
underwritten our National security and our prosperity, as well as that 
of our many allies and partners. This credible strength has deterred 
aggression and reduced the likelihood of interstate conflict like those 
of the 19th and early 20th centuries. With these capabilities, we have 
stood side by side with our allies in the face of belligerent 
aggression, helped secure access and responsible use of increasingly 
contested domains, and provided timely humanitarian assistance in 
response to natural disasters across the globe. However, our recent 
experience reminds us that we must continue to adapt some of our 
systems and tactics to counter anti-access and area-denial strategies, 
which may involve both the most advanced and simplest technologies.
    This year I will publish my ``Joint Force 2030,'' which will lay 
out the operating concepts and capabilities of our future force. But we 
already know some of the contours of what that force will need to do. 
We know that, in addition to the current array of aggressive states and 
transnational terrorists we face, we must adjust to a changing global 
environment impacted by the rise of China and other emerging powers as 
well as the growing worldwide use and capabilities of cyber space. Such 
a world requires an agile, adaptive, and expeditionary force. It must 
ensure access, protect freedom of maneuver, and project power globally. 
It should retain decisive overmatch with air, land, sea, and special 
operations forces and be able to operate in degraded space and cyber 
environments. As such, transitioning to this future force will likely 
involve a greater emphasis on ISR, command and control, long range 
strike, area denial, undersea warfare, missile defense, and cyber 
capabilities. This transition will also involve further developing 
flexible leaders, operators, and technicians who are highly proficient 
and able to fully integrate our efforts with our partners from other 
agencies and other countries.
    Beyond maintaining our regular and irregular warfare capabilities, 
we will also continue to rely on secure and stable nuclear deterrence. 
It is also important that we maintain the safety and surety of our 
nuclear forces, even as we seek to reduce them in accordance with the 
Nuclear Posture Review and implement the recently ratified New 
Strategic Arms Reduction Treaty. We need to modernize our nuclear force 
and its supporting infrastructure to ensure that a smaller force is 
nonetheless safe, secure, and effective. Lastly, our missile defense 
systems should support the stability of our deterrence architectures.
    And while we work to reduce, safeguard, and provide confidence in 
our nuclear force and those of treaty signatories, we acknowledge that 
the proliferation of nuclear technology and other weapons of mass 
destruction by state and non-state actors remains one of the most 
significant and urgent worldwide threats. Effectively countering 
proliferation requires strong international partnerships, new 
surveillance technologies, and layered defenses. These are supported by 
ongoing expansion of the Cooperative Threat Reduction Program, 
establishment of a standing joint headquarters for weapons of mass 
destruction elimination, and investments in nuclear forensics 
technology and programs. These relatively small programs can have a 
disproportionately large positive impact on our security.
    Balancing global strategic risk also requires improving our 
capabilities in cyberspace. Today we face a range of threats to our 
computer systems from other states, mercenaries, and even civilian 
hackers, and their ability to wreak havoc cannot be understated. Lower 
grade cyber threats conducted by organized criminals and talented 
individuals do not necessarily put the Nation at serious risk. But the 
effects of a well-coordinated, state-sponsored cyber attack against our 
financial, transportation, communications, and energy systems would be 
catastrophic. We have made headway by standing up U.S. Cyber Command 
(CYBERCOM) and by developing constructs for cyberspace operations, but 
more work is needed. Critical to CYBERCOM's future success will be our 
ability to recruit, train, and most importantly, retain the right 
people. We must devote the same time and attention to cultivating this 
nation's cadre of future cyber warriors as we do to our combat 
specialists. We must also empower CYBERCOM and the combatant commands 
by working with the Executive Office of the President and other 
agencies to develop appropriate cyber authorities and by refining our 
cyber doctrine, tactics, and procedures. Lastly, we need to actively 
foster public discussion about international observance of cyber space 
norms.
    Balancing global strategic risk requires strong military-to-
military engagement programs. These collaborative efforts engender 
mutual responsibility and include ongoing combined operations, multi-
lateral training exercises, individual exchanges, and security 
assistance. They help demonstrate the United States' responsible 
military leadership in critical regions, reassure our allies, and 
strengthen the international norms that serve the interests of all 
nations. They also foster connections with other governments that 
reinforce our diplomatic channels and have proven critical during times 
of crisis.
    We currently benefit from numerous strong and well appreciated 
military partnerships. For example, at the November NATO Summit in 
Lisbon, we and our allies recommitted to our alliance, ongoing 
operations, and a new Strategic Concept for the next decade. NATO is 
also poised to release its Alliance Maritime Strategy. In Asia, though 
still underpinned by U.S. bilateral alliances, the region's security 
architecture is becoming a more complex mixture of multi-level 
multilateralism and expanded bilateral security ties among states. As 
the region's military capability and capacity increases, we seek new 
ways to catalyze greater regional security cooperation.
    Unfortunately, the global economic downturn is placing pressure on 
the resources of partner nations' security forces. We foresee no 
decrease in the commitment of our partners to us or to any of our 
mutual security efforts, but we must face the reality of less spending 
by our partners on our combined security and stability efforts. Any 
measures we take to strengthen our partnerships, such as the 
administration's Export Control Reform effort, can only improve our 
collective security.
    We should not engage only with like-minded allies. Military-to-
military engagement, in coordination with other diplomatic efforts, can 
help foster cooperation in areas of mutual interest between nations 
with varying levels of amity. We have seen the fruits of our engagement 
programs in strengthening cooperation in the Middle East, countering 
piracy in the Red Sea and the Straits of Malacca, and countering 
proliferation across the globe. We will seek out military-to-military 
relations even where they have not existed before because sound 
relations can prevent miscommunication and miscalculation that could 
lead to crisis or conflict. In particular, increased engagement with 
China could increase understanding and cooperation on a multitude of 
issues, including encouraging North Korea to refrain from further 
provocation and ensuring access to and equitable use of the global 
commons.
    A significant component of our engagement program is the security 
sector assistance we provide to build the capabilities of our partner 
nations' security forces. These cost-effective programs properly place 
security responsibilities in the hands of other sovereign governments 
and reduce the tactical strain on our own forces by helping to prevent 
conflicts and instability. In many places, across the range of U.S. 
interests, investments in capacity building result in strong 
foundations for the future. These investments are often small but, if 
persistent, can yield a high return. I urge your continued support for 
Theater Security Cooperation programs, Global Train and Equip 
initiatives (under 1206 authorities), funding for special operations to 
combat terrorism (under 1208 authorities), as well as the many security 
assistance programs managed by the Department of State (DOS), including 
FMF and IMET programs.
    However, just as these programs require full funding, they also 
need wholesale reform. Our security assistance structures are designed 
for another era--our authorities are inflexible, and our processes are 
too cumbersome to effectively address today's security challenges in a 
timely manner. I urge your assistance in modifying the laws and 
regulations surrounding security cooperation and assistance to create a 
better coordinated, pooled-resource approach that make resources more 
fungible across departments and programs and better integrates our 
defense, diplomacy, development, and intelligence efforts. We should 
not allow bureaucratic resistance to trump operational effectiveness 
when security sector assistance is essential to our national strategy 
of helping others secure and defend themselves.
    On this last point of interagency cooperation, I want to reiterate 
our commitment to comprehensive approaches to our security challenges 
that employ all elements of national, and international, power in 
coordination. Our future security concerns require a whole-of-
government effort, not just a military one, and we serve best when we 
serve hand-in-hand with all of our partners and support, rather than 
lead, foreign policy. As such, we will work closely with DOS and the 
U.S. Agency for International Development (USAID) to support their 
implementation of the Quadrennial Diplomacy and Development Review, 
particularly in the areas of conflict prevention and response. To this 
end, I reiterate my unequivocal support to Secretary Clinton and her 
efforts to fully resource DOS's and USAID's activities and an expansion 
of its diplomacy and development capabilities, particularly in Iraq to 
support the transition from a military to a civilian-led mission. In 
addition, I support interagency cooperation programs and work to expand 
the number of exchanges between DOD and other executive agencies.

                               CONCLUSION

    In the upcoming year, our Armed Forces will build on the past 
year's achievements and continue to provide the common defense our 
Constitution directs with distinct honor and effectiveness. We will 
advance our ongoing efforts and maintain the credibility of our forces 
while learning, adapting, and preparing for new security challenges. We 
know that the military's role in national security will remain 
substantial, and the demands on our service men and women will be high. 
However, we also know that we can never let our actions move us away 
from the American people, and that the quality of our work and our 
personal conduct will say far more about who we are and what we stand 
for than anything else we do. In all of our efforts, we will maintain a 
strength of character and professionalism, at the individual and 
institutional levels, that is beyond reproach and continues to be a 
source of pride for our Nation.
    As we move forward, I remain thankful to Congress for doing its 
part this year to better guarantee our Nations' security. You have 
reminded us of your important role as a steward of our Armed Forces and 
of our mutual respect for our Nation's security, values, and 
servicemembers by approving the Strategic Arms Reduction Treaty and 
repealing the Don't Ask, Don't Tell policy. I am encouraged that the 
repeal of Don't Ask, Don't Tell will enhance the connection between the 
military and the American public, particularly in our relationships 
with some of America's premier universities. We look forward to working 
with you as we implement these initiatives and as you consider other 
pending security agreements, such as the Comprehensive Test Ban Treaty 
and the United Nations Convention on the Law of the Sea. Ratification 
of these two agreements would greatly benefit our national security.
    Again, on behalf of all our men and women under arms, I thank this 
committee, and the entire Congress, for your unwavering support for our 
troops in the field and their families at home during this time of war 
and for our efforts to maintain a strong, agile, well-trained, and 
well-equipped military that can prevail in our current conflicts and 
remain poised to deter or respond to new challenges.

    Chairman Levin. Thank you so much, Admiral Mullen, for your 
eloquent statement and for your great service. Secretary Hale, 
do you have anything to add before we begin?
    Mr. Hale. No, thank you.
    Chairman Levin. We will have a 7-minute first round. Mr. 
Secretary, you indicated that we are on track to end the 
presence of our combat troops in Iraq by the end of this year 
as decided upon by President Bush. Do you continue to support 
that decision?
    Secretary Gates. Yes, I do.
    Chairman Levin. Are you planning to begin reductions of our 
troops in Afghanistan by July of this year as ordered by 
President Obama with the pace to be determined by conditions on 
the ground? Do you support that decision?
    Secretary Gates. Yes, sir.
    Chairman Levin. Can you tell us why?
    Secretary Gates. Frankly, this was the most difficult part 
of the Afghan strategy, going forward, for me to support. I 
steadfastly, as some on this committee will remember--
steadfastly--opposed any deadlines in Iraq and so came to this 
with a certain skepticism.
    But I also realized that there is a difference between Iraq 
and Afghanistan in this respect. The truth of the matter is the 
Iraqis want us out of the country as quickly as possible. On 
the other hand, the Afghans, at least a certain number of them, 
would like us to stay forever. They live in a very dangerous 
neighborhood and having U.S. forces there to support them and 
help them often in the place of their own troops is something 
that they would like to see.
    So it seemed to me that we needed to do something that 
would grab the attention of the Afghan leadership and bring a 
sense of urgency to them of the need for them to step up to the 
plate to take ownership of the war and to recruit their own 
young men to fight. I think that the comments that you quoted 
earlier from General Caldwell has illustrated that over the 
last year or so the Afghans have, in fact, done this to a 
considerable degree, particularly in terms of their own troops.
    I must say I was very pleased to have--and I recognize the 
risk of the message we were also sending to our adversaries, to 
the Taliban. However, it seemed to me that if the Taliban was 
messaging to all of their people that we were all leaving, that 
our troops were all leaving in July, that they would be in for 
a very big surprise come August, September, and October when we 
are still hunting them down in very large numbers.
    So on balance--and I will say it was a close call for me, 
but I came to believe that it was the right thing to do.
    I must say I very much support and applaud NATO's decision 
to accept the idea of a full turnover of security 
responsibilities to the Afghans by 2014 because I think that 
bookends the July 11th statement and lets everybody know that 
we are not leaving precipitously. We are going to do this based 
on conditions on the ground, and we will continue to carry the 
fight to the Taliban.
    Chairman Levin. Thank you.
    Admiral Mullen, do you want to add anything to that? Do you 
agree basically with what the Secretary said, or do you have a 
different view?
    Admiral Mullen. No, no. I agree with that. I would say 
again a very tough part of the whole decision process. 
Certainly not the signal that we are not staying is one that is 
of great concern in that part of the region for a long time, 
and at the same time sending the message that we, in fact, are 
going to get to a point where we turn this over to them I think 
was very important. I have seen the effects of that in their 
leadership in the military and the police. It has given them a 
sense of urgency that they did not have before the decision was 
made.
    I also think, with respect to the Taliban specifically, 
with where we are right now, they have a lot more things to 
worry about in terms of just how well they are doing because 
they are not doing very well, and they know we are going to be 
there beyond July. They had a really bad year. That does not 
mean this year will not be tough. It will. It will be very 
difficult on both sides. But we have made a lot of progress 
because we have committed the resources to get this right.
    Chairman Levin. Relative to the size of the Afghan security 
forces, there is a proposal currently under consideration 
within the administration to increase the size of the ANSF by 
around 70,000 personnel. That would raise the target end 
strength for the security personnel of the Afghans to about 
378,000. Now, those forces, as I indicated, would include some 
key enablers, including intelligence and logistics.
    As I also indicated, I spoke to the President now twice on 
this subject and very strongly support the increase that is 
being considered for the reasons which you have just talked 
about and which I talked about in my opening statement in terms 
of the importance of the Afghan security forces taking 
responsibility for security. They are very much supported by 
the Afghan people and they are targeting an enemy that is 
detested by the Afghan people, to wit, the Taliban.
    Our partnering with the security forces has really improved 
many more partnerships between our forces. The training is 
intense and very successful. The operations are joint. We 
witnessed that when we were down in Kandahar.
    So my question to both of you, Secretary Gates and Admiral 
Mullen, is do you support the proposal to increase the size of 
the ANSFs as is being considered?
    Secretary Gates. First of all, I would say that we have all 
recognized from the beginning that being able to turn security 
over to Afghan forces to deal with a degraded Taliban was our 
ticket out of Afghanistan and to accomplish our goal of making 
sure we are not attacked out of there again.
    I think the issue is under discussion within the 
administration. We do have a request from the commander. The 
issue is under discussion in no small part because of the 
question of sustainability. How big an army can we afford? Let 
us not kid ourselves. Nobody else is contributing to this in 
any significant way. We have in our OCO budget for fiscal year 
2012 $12.8 billion to pay for the ANSFs. So the question is how 
long can we afford to do that, and you cannot do that 
indefinitely. So then can you look at an increased number of 
Afghan forces in the same terms as you look at our surge as 
something that is temporary until this problem gets solved, and 
then those numbers begin to go back down again. So this is one 
of the big issues that we are discussing and I expect a 
decision in the fairly near future. But this is really the core 
issue that I think is under discussion.
    Chairman Levin. Admiral Mullen, do you support that?
    Admiral Mullen. I think, Mr. Chairman, you know that the 
recommendation was teed up from somewhere between 352,000 to 
378,000. That is the range. I certainly share the concern the 
Secretary has spoken of in terms of the sustainability of this.
    You also characterized in your opening statement a specific 
recommendation from me. We are still very much in discussion 
inside the administration on where this comes out. As the 
Secretary said, I think in the near future we will have that. 
There are a lot of issues at play here.
    None of us disagree with your assertion or your statement 
about the importance of this part of the mission, training them 
and turning it over to them. It has gone incredibly well over 
the course of the last year. So how fast we can move, how much 
more there should be is still very much in discussion and the 
comprehensiveness of the issues that are associated with this 
are being reviewed as we speak, and I think it will be resolved 
here in the near future.
    Chairman Levin. The bottom part of that range you mentioned 
would represent an increase from the current goal. Is that 
correct?
    Admiral Mullen. Right. We are at 305,000 at the end of this 
year, and 352,000 would be a range from 352,000 to 378,000.
    Chairman Levin. So even if the approval were at the bottom 
of the range, that would represent about a 45,000 increase. Is 
that correct?
    Admiral Mullen. Yes, sir.
    Chairman Levin. So we save a lot of money having their 
forces there trained and equipped rather than our forces in 
terms of relative costs. I think you both would agree to that.
    Admiral Mullen. Yes, sir.
    Secretary Gates. Absolutely.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Secretary Gates, 
did you recommend to the President the date of July 2011 as a 
date to begin withdrawal?
    Secretary Gates. No, sir, I did not.
    Senator McCain. Did you, Admiral Mullen?
    Admiral Mullen. No, sir, I did not.
    Senator McCain. On the issue of our continued presence in 
Iraq, obviously the casualties have been reduced dramatically, 
but I think it is also obvious that the Iraqi military does not 
have a lot of the technological capability that they need to 
combat this kind of insurgency that is still out there. But 
also, if they want to have an air force, it seems to me they 
need that kind of technical assistance, a number of other areas 
of modernization of their forces. It is necessary. We are not 
talking about continued combat operations on the part of the 
United States, but they do need the kind of technical 
assistance that they will need to maintain their security. Do 
you agree with that?
    Admiral Mullen. Yes, sir.
    Secretary Gates. Yes, sir.
    Senator McCain. So is there any discussion that you know of 
going on with the Iraqi Government concerning the future role 
of the United States in Iraq besides the fact that we are now 
scheduled to leave by the end of the year?
    Secretary Gates. There have been a number of informal 
conversations with the Iraqis about this.
    Our concern, as I indicated yesterday, is principally in 
three areas: intelligence fusion, logistics and maintenance, 
and in air cover in providing the ability to protect their own 
air space. Right now, under current circumstances, as of the 
1st of January, we will have 157 DOD military and civilians, 
along with several hundred contractors, basically processing 
foreign military sales, and that would be it.
    As I have indicated, I think this government is very open 
to a continuing presence that would be larger where we could 
help the Iraqis for a period of time. I am not actually 
concerned about the stability of the country, but I am 
concerned about their ability to address these three issues in 
particular.
    But the fact is we have a signed agreement that President 
Bush signed with the Iraqi Government, and the initiative for 
this needs to come from the Iraqis. My hope is that once they 
sort out who their new defense minister is going to be, which 
has been a problem in putting together their government, that 
then we will be able to move forward with this dialogue with 
the Iraqis. I think it is little bit, frankly, in Iraq like the 
strategic agreement itself in the sense that our presence is 
not popular in Iraq. So the politicians, I think, the leaders 
understand the need for this kind of help, but no one wants to 
be the first one out there supporting it, very much like the 
security agreement itself. So we will continue that dialogue, 
but at the end of the day, the initiative has to come from the 
Iraqis. They have to ask for it.
    Senator McCain. I take it you were pleased with the House's 
decision yesterday on the--what did you call it--the additional 
engine?
    Secretary Gates. The extra engine.
    Senator McCain. Extra. Excuse me. Yes, extra engine. I take 
it you would support efforts over here to do the same.
    Secretary Gates. Absolutely.
    Senator McCain. I share your optimism about our success in 
Afghanistan, which has confounded many of the critics. I also 
share your view that there is a long way to go.
    But do you share that same optimism about Pakistan? There 
have been some very serious disruptions, obviously, with this 
American citizen who is now being held in prison, the whole 
role of private contractors, the continued allegations of 
relationships between Interservices Intelligence (ISI) and the 
Taliban. I am deeply concerned about the situation in Pakistan, 
which obviously is vital to the sustained and long-term success 
in Afghanistan.
    Secretary Gates. Let me just say a word or two and then 
turn to the chairman because he has spent a lot more time in 
Pakistan in the last few years than I have.
    I worry a lot about Pakistan. It has huge economic 
problems. Those problems were significantly aggravated by the 
terrible flooding last year. They have a serious internal 
terrorism threat that is seeking to destabilize Pakistan 
itself. I worry that some of those terrorists might try and 
provoke a conflict between Pakistan and India. So I think that 
there is a lot to be concerned about with Pakistan.
    Senator McCain. There are still sanctuaries in Pakistan.
    Secretary Gates. That said, there are still the 
sanctuaries.
    But I will say the Pakistanis have 140,000 troops on that 
border. These things improve step by step, but not as quickly 
as we would like, but we get to a better place over time. If 
you had asked me 2 years ago if the Pakistanis would withdraw 
six divisions from the Indian border and put them in the west, 
I would have said, impossible. If you would have asked me if we 
would begin coordinating operations on both sides of the border 
with Afghan and ISAF forces on the one side and the Pakistanis 
on the other, I would have said, that is very unlikely.
    They are chipping away at some of these sanctuaries. It is 
very important what they have done in south Waziristan and 
SWAT, but it is a mixed picture, and it is something we just 
need to keep working at. The chairman has worked at it about as 
hard as anybody.
    Admiral Mullen. On the military side, Senator McCain, I am 
more optimistic than I have been. I mean, the Secretary talked 
about the cross-border coordination, the work that we have done 
with them. But on the political side, the economic side, at 
least from my perspective, it looks worse than it has in a long 
time.
    So I share your concern. The vector is going in the wrong 
direction overall for the country. We are very unpopular there. 
You have seen that. It gets highlighted in each crisis. We 
provided extraordinary support for the floods last year--we, 
the military. Then that registers in a popular way shortly. You 
have an incident like the one we are going through right now, 
and our popularity is back down in very small numbers.
    So I do think we have to stay at it. It is where lots of 
terrorist organizations head, not just al Qaeda. They are more 
combined in their efforts than they have ever been. So I do 
think we have to continue to work at it, but I am concerned as 
I have ever been.
    Senator McCain. Thank you.
    Mr. Chairman, just briefly. Anything more on the Wikileaks 
investigation?
    Secretary Gates. Sir, after our last hearing, I went back 
and I had been told that I had to keep my hands off of it 
because of the criminal investigation. But I have been able to 
narrow an area that I have asked the Secretary of the Army to 
investigate in terms of procedures and the command climate and 
so on that has nothing to do with the accused individual, but 
to see what lapses there were where somebody perhaps should be 
held accountable.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks, Secretary 
and Chairman, for your service, for your leadership, for your 
testimony today.
    I believe that the President's budget for DOD is a budget 
that recognizes the times of economic stress we are going 
through particularly with regard to our national deficits and 
debt but also meets our defense needs. I appreciate, Mr. 
Secretary, your advocacy of the budget but also your warning 
that we have to be very careful about cutting too deeply into 
our defense budget.
    I have noticed some change of terminology around here which 
concerns me, which traditionally, as we have discussed the 
various components of the Federal budget, when we get to 
discretionary spending, we distinguish between defense and non-
defense spending. The defense spending had a more protected 
status, if you will, and I think it was for a good reason, 
which I believe I know you and all of us on the committee 
believe, which is that we have no greater responsibility in our 
national government than to protect our security. It is the 
underpinning of our freedom and our prosperity. So we have to 
be very cautious about cutting below a level that we can 
continue to fulfill that--well, it is really a constitutional 
responsibility to provide for the common defense.
    I have noticed now the difference between defense and non-
defense discretionary spending in terminology seems to be 
fading, and I think we do that at our peril. So it does not 
mean, obviously, that what everybody at the Pentagon wants we 
are going to say yes to or that we can tolerate wasteful 
spending. I know the two of you have been very aggressive about 
that in the programs you have set forward.
    But I hope as we go forward in these very difficult 
economic times with a lot of stress politically on everybody 
here, that we keep that primary responsibility we have for the 
national security in mind.
    Frankly, without going any further on it, I think for those 
of us who are committed to doing everything we can to continue 
to give you the resources and the men and women in uniform to 
protect our security, it compels us to look much more directly 
and act more boldly on the most expanding part of our national 
deficit and debt, which is the entitlement programs that are 
non-defense.
    So with that invocation, I just want to pick up on what 
Senator McCain said earlier about the input we got at the 
Munich security conference this year. It was quite significant 
to me on Afghanistan.
    The first was I thought there was a real change in opinion 
from our European colleagues, that we really are making 
progress in Afghanistan, and they feel good about it. Normally 
we have been concerned that they would leave the fight before 
we did. They turned the tables on us this time, and they said 
we are committed now through NATO to the 2014 exit date from 
Afghanistan. We are worried that you in America are going to 
begin to leave earlier, and they still have in mind, 
notwithstanding all the transition to 2014, this July 2011 
date. So I would ask you if you would care to respond to that, 
and of course, part of that is just to urge that whatever we do 
in July 2011, be mindful of the effect it will have not only on 
the Afghans and the region but on our European allies.
    Secretary Gates. I would just make two comments.
    First, I had a NATO defense ministers meeting last December 
and it was really quite extraordinary because I do not think I 
have ever seen so many ministers so optimistic about how things 
were going in Afghanistan. I did not encounter a single one who 
was pessimistic or who felt that the effort was for naught and 
that we were not headed in the right direction. So there was a 
level not just of sort of grudging support but a general 
feeling of cautious optimism that we finally had all the parts 
right in this thing, the civilian strategy, the military 
strategy, had the resources there.
    When I took this job there were 12,000-13,000 Europeans or 
other partners in Afghanistan. There are now 50,000. They have 
really stepped up to the plate. Now, we are carrying the bulk 
of the burden, but they are doing a lot as well.
    By the same token, one of my missions in next month's 
defense ministers meeting is to ensure that in fact whatever we 
do in July does not start a rush for the exits on the part of 
our allies, and I would say particularly those who have the 
largest contingents there. There are a lot of countries that 
are making a real contribution, but they have fairly limited 
numbers of people there. I think that our principal allies and 
those who are the principal contributors are probably okay, but 
I need to be able to reassure them that this is going to be 
conditions-based and that it will be gradual.
    The other point I will make to them is it should not be 
mathematical. If we take out 1 percent or 2 percent of our 
troops, or whatever the number is, that does not mean everybody 
gets 2 percent because in some of them 2 percent--when you have 
only 10 guys there, you have a problem. So I think that we need 
to ensure that their forces are taken out on a conditions-based 
arrangement as well. I think this is the challenge for General 
Petraeus.
    The way I think he is thinking about it is that when we 
turn over security responsibility, sort of three things will 
happen to the foreign troops that are there. A few will stay to 
continue to provide a strategic overwatch and safety net, if 
you will. Some will be reinvested in the neighboring district 
where the security is not as good yet, and then some portion 
would be allowed to come home. So I think that that is the 
approach that he is taking, and frankly I have not seen from 
the defense ministers, at least, signs of nervousness or a 
feeling that they would be compelled to make significant 
withdrawals themselves before the timing that they have already 
announced.
    Senator Lieberman. I appreciate that reassurance. What you 
found at the defense ministers meeting is exactly what we found 
in terms of the cautious optimism at the Munich conference.
    I appreciate it. I think you are right on target in your 
focus for the next meeting coming up because it sounded to me 
as if they need that reassurance. I will just tell you that one 
of the people high up in one of our major NATO allies' foreign 
ministry said that they were worried that if we withdrew a 
small proportion of our troops in July, that there would be a 
tendency of their political community to take it in absolute 
mathematical numbers. So for us it is only 1 percent, but let 
us say it is 1,000. They are worried that at home their 
parliament is going to say, well, how about taking out 1,000 of 
our troops as a result.
    Secretary Gates. The interesting thing about particularly 
the Europeans who are in Afghanistan--most of them are in 
coalition governments and most of their publics are opposed to 
their participation.
    Senator Lieberman. Right.
    Secretary Gates. I think it needs to be said these 
governments have shown some real political courage in being 
willing to commit to the alliance and to Afghanistan the forces 
that they have in the absence of political support at home.
    Senator Lieberman. I could not agree with you more.
    Final word. My time is up. But the other thing that I found 
very heartening is that our NATO allies, particularly following 
the meetings you have referred to, have stepped back and 
understand not just that we are doing better in Afghanistan, 
but this is the first time NATO has gone to war. A failure in 
this first time at war, interestingly outside of the geographic 
area of NATO, would have terrible consequences for NATO's 
credibility, and NATO's credibility at this uncertain, 
dangerous time in the world is critically important to the 
stability and security of a lot of other places far from the 
United States, Europe, and Afghanistan. So I think we are at a 
point where the alliance is really moving together in a very 
positive way.
    I thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was glad to hear that statement, Secretary Gates, what 
you said about the 17,000 to 50,000. Somehow I had missed that. 
But I am glad to know that more are coming to the table.
    Senator Hagan and I spent New Year's Eve with the troops in 
Afghanistan and had a chance to spend a little time to get out 
to the training area. When we talk about what is going to 
happen in reduction and so forth, a lot of that is going to be 
dependent on the success and the training of the Afghan 
National Army and how they are coming. I was very pleased.
    Senator Hagan and I were both surprised at the Kabul 
military training center, the segregation of infantry and 
artillery and how they are doing that on two sides of the 
mountain. We are used to seeing how we do it in this country. I 
was most impressed with their training.
    To accommodate some of these potential discussions on 
withdrawal, I would just like to know your opinion as to how we 
are coming with that training. Is it ahead of where you thought 
it would be, or are you as impressed as we were when we went 
over and witnessed it?
    Secretary Gates. I think we both should address that 
briefly.
    But I would say that what General Caldwell has done in the 
last year or so I would characterize as nearly a miracle. It is 
not just the numbers. A year ago 35 percent of the recruits or 
the new soldiers, Afghan soldiers, qualified on marksmanship. 
It is now in the 90s. They have a literacy program going for 
officers, for noncomissioned officers (NCO), and even for some 
junior enlisted that is going to make a huge long-term 
difference in Afghanistan. So I think that the quality of what 
they have been doing and the speed with which they have been 
doing it and the ability to accommodate the significant 
increase in the numbers being trained and getting quality 
training has just been really quite extraordinary and I think 
has played a big part in the progress that we have had over the 
last year.
    Admiral Mullen. I would say very briefly, sir, I think the 
number I saw the other day was 24,000 trainees in training 
right now. That number was minimal a year to 2 years ago, I 
mean, literally in the hundreds because all you did was you 
recruit and place a soldier or a policeman in the field.
    What also gets lost here is that there has been an 
extraordinary jump on the police side as well behind the 
military, as it was in Iraq. So we are making a lot of progress 
there.
    I would just commend General Caldwell and all his people 
because they put in the structure. You have seen for yourself 
the kind of training. It has really been an exceptional effort 
over a very short period of time.
    Senator Inhofe. Yes. We even had an opportunity to talk to 
some of the ones who are being trained to be trainers. They are 
excited. They are looking at careers. I was very shocked and 
very pleased.
    As you know from previous meetings, I always bring up the 
1206, 1207, 1208, Commander's Emergency Response Program and 
Combatant Command Initiatives Fund. These are programs that I 
have been very enthusiastic about and I think have been very 
successful. I was pleased that the 1206 funding was increased 
in this budget request from $350 million to $500 million.
    The thing that I am confused about, because I am not sure 
what it means, is this pooled funding. When I first read about 
this, I thought is this returning back to what we were trying 
to get away from, in other words, having more of the 
concentrated commanders in the field, having greater authority, 
and this type of thing. How does the pooled funding work? Would 
either one of you like to share that with me?
    Admiral Mullen. This is actually a $50 million 
appropriation, should it be approved, initially DOS money, with 
an opportunity to reprogram upwards of $450 million between us. 
So there is no specificity that says how much DOS would 
reprogram at this point or how much DOD would.
    What is really critical here--and this goes back to your 
support of 1206, 1207, and 1208--is it gives us the flexibility 
and the ability to meet an emergent sort of this year maybe 
even this month need which, heretofore, we just have not been 
able to do. We see it year after year in country after country. 
So it actually is very consistent with what has happened in 
1206, 1207, and 1208 in terms of the strategic thrust, although 
some of the mechanisms will be a little different.
    Senator Inhofe. That is good. I am glad to hear that 
because I did not want to dilute that program that I think has 
been very, very successful.
    Recently we have heard more and more about China and Russia 
and how much further advanced they are on the fifth generation 
of fighters, the T-50, J-20, or whatever that is over there. 
The decision that we had made to move backwards a little bit or 
move the 124 F-35s out of this 5-year period or delay them--was 
that decision made before we realized that they were perhaps a 
little further along in developing fifth generation fighters in 
other countries that might be sold eventually to people who 
could be our enemies?
    Secretary Gates. I think that, first of all, the way I have 
characterized it, Senator, is that when I was in China, 
President Hu rolled out the red carpet and the People's 
Liberation Army rolled out the J-20.
    They may have flight-tested it a half a year, a year or so 
before our intelligence estimated they would, but the truth is 
it will be quite a while before they have any numbers. The 
latest estimates on the Chinese side would be that by 2020 they 
might have 50 deployed and by 2025 maybe a couple hundred. We 
will have 325 F-35s by the end of 2016, even under the revised 
program, which with the F-22s gives us over 500 fifth 
generation aircraft. We will have 850 F-35s by 2020 or fifth 
generation aircraft by 2020 and about 1,500 by 2025. So there 
is still a huge disparity in terms of these aircraft.
    Frankly--and I do not want to get into it too much in an 
open hearing--this is their first low-observable aircraft. 
Given the challenges that we have had--and we have been at this 
now better than 20 years, frankly, I think they have a long 
road in front of them before this becomes a serious operational 
aircraft in any numbers.
    Senator Inhofe. I am glad to hear that.
    My time is expired but I want to ask a question for the 
record, and it might be more appropriate to respond to it for 
the record. You commented about your visit to the Far East, and 
at that time you were saying North Korea will have developed an 
Intercontinental Ballistic Missile within 5 years. We hear 
about our intelligence estimate talking about Iran's 
capabilities in 2015. I would like to have an update on those 
estimates for the record, if you would do that.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    The Defense Intelligence Agency (DIA) is coordinating with Senator 
Inhofe's staff to provide the Senate with a briefing on the latest DIA 
and National Air and Space Intelligence Center threat assessments.

    Admiral Mullen. Mr. Chairman, if I could. Back to just a 
specific on the F-35, the Secretary's decision to move those 
aircraft to the right--those are short takeoff and vertical 
landing aircraft. I actually think----
    Senator Inhofe. Those are the Marine version?
    Admiral Mullen. Yes. That actually puts us in a better 
position to deliver the Navy and the Air Force version sooner 
because those two versions are actually doing pretty well in 
testing and development. So I thought it was a wise decision 
and to give the Marine Corps, give us--give the Navy an 
opportunity to work on this airplane for the next 2 years. It 
was at the front of the queue and actually it was holding up 
the development of the other two airplanes.
    Secretary Gates. I would just say that the first Air Force 
variant of the F-35 will go to Eglin in May and others will 
flow through September to begin training, and the Navy variant 
will be at Eglin in fiscal year 2012.
    Senator Inhofe. That is very helpful. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ben Nelson.
    Senator Nelson. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service to our country.
    Secretary Gates, for the past several years, the need for a 
new U.S. Strategic Command (STRATCOM) headquarters has been 
under consideration. It has been apparent and identified as a 
requirement. So I have been extremely pleased with the progress 
made toward addressing this vital need. The existing facility's 
shortcomings and problems have put STRATCOM's mission and its 
personnel at some risk. STRATCOM's existing headquarters was 
built in 1957 and it has weathered 5 decades with little 
renovation.
    So for any combatant command, of course, these problems 
would be challenging if they continue to have electrical 
service and cooling water and other problems, but for STRATCOM, 
these facility maintenance matters are just untenable and they 
stand in the way of some of the most important national 
security missions.
    General Chilton, the retiring commander of STRATCOM, said 
it best, that the STRATCOM headquarters is the nuclear command 
and control mode for the United States and that we must make 
the appropriate investments.
    So I am very pleased that this budget represents that and 
wonder if you might have any comments on it and, as well, 
Admiral Mullen.
    Secretary Gates. I just have one comment and that is 
Admiral Mullen and I were there a couple of weeks ago for the 
change of command at STRATCOM, and the building looks a lot 
like it did when I walked in as a 2nd lieutenant in 1967.
    Senator Nelson. The electrical systems are probably the 
same as well. But thank you very, very much. In addition to the 
concerns that have been raised about continuing our 
relationships in the Middle East right now, the fiscal year 
2012 budget presumes that the military, in terms of Iraq, will 
depart on December's plan. We have had a lot of discussions 
here about whether or not it is important to do that or 
appropriate to do that and what kind of assistance and advice 
will we continue to provide the Iraqis. But as we are looking 
at our budget and trying to find ways to economize in DOD, is 
there a plan to have the Iraqis pick up more of the costs of 
any retention that we might have of our personnel there to 
provide the advice and the training that will be required?
    Secretary Gates. Not at this point, Senator. To tell you 
the truth, we have not really done much in the way of the 
budget looking beyond the 31st of December because we are 
assuming that we will come to December 31 and that will be it. 
So we would have to revisit that issue.
    I think we would have to take a look at whether the Iraqis 
could do that. They are running about--even with the price of 
oil where it is, they are devoting about 14 percent of their 
gross domestic product (GDP) to security, and they are running, 
I think, a $15 billion or thereabouts--$10 billion to $15 
billion deficit this year. We should be so lucky. But we really 
have not gone down that road yet.
    Senator Nelson. But if we are in a position to where we are 
requested and we make the decision to continue some 
relationship there, would it be possible to look at that from 
the standpoint of the budget? It is not that I want to drive 
their budget into the ditch any more than I want ours to 
continue to be there. We have to find a way to balance it for 
them and for ourselves as well.
    Secretary Gates. I understand, and we will certainly take 
that into account.
    Senator Nelson. I appreciate that.
    In terms of ISR assets, DOD has put forth spending about 
$4.8 billion on procuring another 110 airframes for the budget. 
Can you speak about what the infrastructure and personnel will 
cost? Maybe this is for Admiral Mullen. The personnel costs and 
the infrastructure costs for adding these additional ISR 
assets.
    Admiral Mullen. I would have to get back to you with a 
detailed response.
    Senator Nelson. Sure.
    [The information referred to follows:]

    Increasing our intelligence, surveillance, and reconnaissance (ISR) 
capabilities in support of combat operations continues to be one of our 
highest priorities. The fiscal year 2012 budget continues development, 
integration, and expansion of ISR enhancements to unmanned platforms to 
deliver critical command/control, persistent ISR, and firepower to U.S. 
and coalition forces. These systems cover the full spectrum of 
capabilities from high-altitude, long-endurance capabilities to hand-
launched, tactical systems.
    The fiscal year 2012 budget requests $4.8 billion to invest in the 
following ISR capabilities:

        <bullet> Procure additional Global Hawks (RQ-4)

                <bullet> Three aircraft/$1.7 billion

        <bullet> Maximum Reaper (MQ-9) production

                <bullet> 48 aircraft/$1.4 billion

        <bullet> Maximum Gray Eagle (MQ-1) production

                <bullet> 36 aircraft/$1.0 billion

        <bullet> Accelerate unmanned maritime unmanned aerial vehicle 
        (UAV) (MQ-8 Fire Scout)

                <bullet> 12 aircraft/$0.3 billion

        <bullet> Other UAVs: Shadow, Raven, Small Tactical Unmanned Air 
        System

                <bullet> $0.3 billion

        <bullet> Procure/sustain MC-12

                <bullet> 12 aircraft/$0.3 billion

    Each of these investments apply to current programs of record and 
are either in-line with current acquisition strategies or an 
acceleration of existing plans. Each system fits into a planned 
architecture to meet commitments to our warfighters and the Services 
have incorporated the necessary infrastructure and personnel costs to 
support their integration into operations.
    Based on contracting and production schedules, the fiscal year 2012 
investments listed above will deliver and field approximately 1 to 2 
years after receipt of funding. The personnel and infrastructure costs 
will be incurred over several fiscal years as soldiers, sailors, 
airmen, and marines are trained and assigned to maintain and operate 
these systems.
    To match the growth in capacity, balanced investments in operations 
and support (O&S) include:

        <bullet> An increase in RQ-4 Global Hawk personnel and O&S 
        funds by 21 percent in fiscal year 2014 from the fiscal year 
        2012 level.
        <bullet> An increase in MQ-9 Reaper personnel and O&S funds by 
        55 percent in fiscal year 2014 from the fiscal year 2012 level.
        <bullet> An increase in MQ-8 Fire Scout O&S funds by 101 
        percent in fiscal year 2014 from the fiscal year 2012 level. 
        These funds include contractors operating in conjunction with 
        on-board military personnel.
        <bullet> An increase in ``Other'' UAV personnel and O&S funds 
        by 15 percent in fiscal year 2014 from the fiscal year 2012 
        level.
        <bullet> The MQ-1C Gray Eagle is integrated into the Army Force 
        Generation Equipping Strategy. Overall, the Military 
        Construction costs to field the entire complement of systems 
        (not only the fiscal year 2012 systems) totals $522 million.

    Admiral Mullen. Certainly the infrastructure and personnel 
costs are incorporated into the budget and that is how the 
services actually bring it forward. It has become more and more 
significant.
    But I would also say, Senator Nelson, it has just become 
such a critical part not of just what we are doing now but what 
we are going to do in the future. We oftentimes think about the 
future sort of out there by itself, what is going to happen in 
5 or 10 years. One of the things that has happened in these 
wars is there are a lot of capabilities that we have developed, 
rapidly field that will be every bit as relevant in a few years 
as they are right now. ISR probably leads the pack with respect 
to that.
    Senator Nelson. In that regard, we are living the future 
right now as we see it develop around us, and I hope that as we 
do that, we will continue to find a way to do it, obviously, as 
efficiently and as cost effectively as possible but not be 
short on personnel simply because we may end up with fewer 
pilots, but the piloting is obviously done a different way. So 
I hope that you will consider that.
    Also, Secretary Gates, in growing the forces and the 
capacity of the ANSFs, we have talked about the numbers 
increasing and you mentioned sustainability of the numbers and 
the range from the lower and we are adding 40,000 and looking 
at a higher range of 378,000. Can we establish what we think 
would be a sustainable number as we look forward? Because, 
obviously, that is a pretty sizable percent of the population. 
Now, it is good to have people working. There is no question 
about it--fully employed. But do we have some idea of what the 
Afghans can support and sustain into their future? Secretary 
Gates?
    Secretary Gates. The sustainability issue, at least for the 
next number of years, is more what the United States can 
sustain because the Afghans' ability to sustain a military 
force would be a fraction of the size of what they already 
have, much less what they may increase to, which is why I think 
of the size of their force more in terms of a surge like ours 
so that once we have defeated the Taliban or degraded them to a 
point that a smaller Afghan force can keep control where it is 
almost like the Afghan local police or smaller numbers of the 
Army can manage to keep the Taliban or others inside the 
country down to the point where they are not a threat to the 
stability of the government or to the people of Afghanistan. 
They cannot afford a force the size that they already have. So 
I think the only way we can think of it or the way we ought to 
think of it is something that we would be willing to support 
for a few years.
    Senator Nelson. In the short term?
    Secretary Gates. Yes, for a few years. But then it seems to 
me, particularly if there is a political solution to this war, 
as we all believe there needs to be ultimately, that they could 
get by with a significantly smaller force. We probably would 
have to help them even then, but it would be a dramatically 
smaller bill than it is now. If it is a smaller bill, we may be 
able to get other countries to help us as well.
    Senator Nelson. Hopefully, the NATO support would extend to 
providing help for the sustainability into the future because 
until we secure the country, a political solution is going to 
be very difficult.
    Secretary Gates. Just as an example, I mean, the Japanese 
basically pay the salaries for the Afghan national police. That 
is their contribution. They do not have troops there, but that 
is not a small thing that they are doing.
    Senator Nelson. Thank you. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson. Senator Ayotte?
    Senator Ayotte. Secretary Gates and Admiral Mullen, I want 
to thank you for being here today and commend both of you for 
your long and distinguished service to our country.
    Before I ask any questions, I just want to say that I 
believe our Government's most important responsibility is to 
protect the American people. This is a deeply held personal 
belief for me. I am from a military family. My husband is in 
the Guard and is a veteran of the Iraq war. So I applaud your 
efforts to ensure that our brave men and women in uniform have 
everything that they need to fight and win our wars. Supporting 
our men and women in uniform is certainly a solemn and sacred 
responsibility that we have.
    As we draw down in Iraq and our country confronts a fiscal 
crisis, I think it would be a mistake to drastically cut the 
size of our military or our readiness.
    That said, you appreciate--and I know based on Admiral 
Mullen's comments--that we face a fiscal crisis in this country 
and that we face great challenges in balancing the need to 
protect our country and to make sure that we serve and provide 
for our troops with the need to cut back in all areas. I want 
to commend Secretary Gates for proactively going forward to 
look for efficiencies and billions of dollars in savings. As a 
new member of this committee, I want you to know that I look 
forward to working with DOD to bring reforms forward and 
efficiencies to fruition and also to look for additional cost 
savings.
    I have a question based on having the appearance of 
Secretary Vickers the other day for his nomination, and that is 
that he testified that 25 percent of the detainees that are 
being released from Guantanamo are going back into theater and 
engaging in hostilities again. I wanted to ask Secretary Gates 
whether that is an accurate figure and how that is informing 
our release decisions from Guantanamo.
    Secretary Gates. That is about the right figure based on 
the latest information that I have.
    I would say that we have been very selective in terms of 
returning people. One of the things we have discovered over 
time is that we are not particularly good at predicting which 
returnee will be a recidivist. Some of those that we have 
considered the most dangerous and who have been released or who 
we considered dangerous and potentially going back into the 
fight have not, and some that we evaluated as not being much of 
a danger or much of a risk we have discovered in the fight.
    Then I would say that the NDAA of Fiscal Year 2011 imposes 
some additional restrictions on who we can release, and 
Congress put me in the uncomfortable position of having to 
certify people who get returned, that they are no longer a 
danger. So I will tell you that that raises the bar very high 
as far as I am concerned.
    Senator Ayotte. One of the concerns that I think this 
raises as well is if we are able to capture a high-value target 
in an area where we may not currently be engaged in a direct 
conflict, where are we going to put these individuals if the 
President still goes forward to attempt to close Guantanamo?
    Secretary Gates. I think the honest answer to that question 
is we do not know if we capture them outside of the areas where 
we are at war and are not covered by the existing war 
authorizations. One possibility is for such a person to be put 
in the custody of their home government. Another possibility is 
that we bring them to the United States. After all, we have 
brought a variety of terrorists to the United States and put 
them on trial in Article III courts here over the years, but it 
will be a challenge.
    Senator Ayotte. Would that cause you to make a different 
recommendation to the President on closing Guantanamo given the 
challenges that it presents?
    Secretary Gates. I think we are in the position, frankly, 
that the prospects for closing Guantanamo, as best I can tell, 
are very, very low given very broad opposition to doing that 
here in Congress.
    Senator Ayotte. But we also are not using it to add 
additional detainees there that might be appropriate for 
holding at Guantanamo either, are we?
    Secretary Gates. Not at this point.
    Senator Ayotte. I wanted to ask you about the reset 
equipment for combat within the budget. I am concerned about 
the lower funding levels proposed in fiscal year 2012 to reset 
equipment for combat units returning from deployments. I wanted 
to get your thoughts on that part of the budget.
    On September 11, 2010, the New Hampshire National Guard 
deployed the largest number of guardsmen and women since World 
War II for our State, and these troops will be returning in the 
second half of this year. I know that reset is more than just 
buying equipment. It includes manning time and time to train. 
So restoring readiness levels takes time. But I also know that 
the National Guard units have historically been at the end of 
the food chain in getting new equipment and resources for 
training. This can impact their readiness for Federal missions 
but also can impact their responsiveness to State emergencies.
    So with this in mind, how confident are you in that the 
amounts included in the fiscal year 2012 budget for the 
services for reset will allow all units in the Active and 
Reserve components to be able to address the critical readiness 
needs that we have going forward?
    Secretary Gates. One of the things that has happened over 
the past 4 years that I am very proud of is that when I assumed 
this position, the historic equipment on hand percentage across 
the board for the National Guard was about 70 percent, and when 
I took this job, it was at about 40 percent. It is now on a 
national basis at about 77 percent. What has changed now 
compared with the past, just to your point about the food 
chain, is the Guard now is getting the same kind of equipment 
that the Active Force has. So they are getting much higher 
quality equipment. At the same time, they are getting more 
equipment.
    How fast we can do this for units that are coming back from 
conflict is going to be a challenge because it is a lot of 
money. One of the concerns that I have about the CR is that 
there is some reset money in there, and it is going to be very 
difficult for us to execute. One of the things that we will 
have to do, if we get a year-long CR, we will have to get 
pretty close to shut down the recapitalization of the humvees 
at Red River and Letterkenny depots. So all of these things are 
tied together, but it is going to be a challenge. Until a year 
or 2 ago, we would have testified to you that we will need 
reset money for at least a couple of years after the conflict 
ends, and we think that is probably now a longer period of 
time, longer than 2 years.
    The problem is that when the conflicts end, that reset 
money for the most part has come out of these OCO budgets, and 
finding the dollars for a significant reset after the end of 
the conflict, if we are not getting any OCO funding, I think 
will be a big challenge for us.
    Senator Ayotte. I know that my time is up.
    I thank you very much, Secretary Gates and Admiral Mullen. 
I appreciate it.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Aloha, Secretary Gates and Admiral Mullen and Secretary 
Hale. I want to thank you all for your leadership and service. 
Secretary Gates, if this is your final budget testimony before 
this committee, I would like to say that I appreciate the 
excellent job that you have done leading our military. I want 
to also thank the brave men and women of our armed forces and 
their families for their service.
    Secretary Gates and Admiral Mullen, I applaud the steps 
taken to care for our servicemembers' mental well-being. I 
believe that taking care of those defending our Nation is a 
responsibility and not a choice. I also believe that the 
healing process should also account for families as well.
    I am interested in hearing your thoughts on the progress 
DOD is making in helping families as a whole as they work 
through the challenges of PTSD, TBI, and other stress-inducing 
situations for families.
    Admiral Mullen. Thanks, Senator Akaka. I know that you have 
focused on these issues, and all of us greatly appreciate that. 
I think we are in a much better position than we were a few 
years ago, but we also have a much better understanding of the 
size of the problem.
    I will speak specifically to families first. While early on 
there was a great deal of focus on spouses, in terms of the 
stress that they have undergone, what I have seen certainly 
over the course of the last couple years is an increasing 
awareness and understanding of the need to address the whole 
family, including the kids, as they have been stressed. I mean, 
if you are in a high-end, high-rotation unit and you were 10 
years old when these wars started, and you had mostly your dad, 
but mom and dad, on their fourth or fifth deployment, you just 
went off to college and you basically almost have not seen your 
dad. There are issues associated with that that I think we are 
going to have to deal with in the long run. A 15-year-old in 
one of these military families--their whole life has been at 
war. That is something a lot of us have never been through.
    So there has been an extraordinary amount of effort placed 
in terms of prioritizing inside each of the Services to get at 
the major issues. It is not just the stress and the mental 
stress. We are short health care providers, although we are up 
dramatically from where we were in 2001. We were in the 1,000 
range in 2001. We are over 7,000 now. We have TRICARE health 
providers that are almost 50,000, but we are still short. The 
country is short, and we have to figure out a better way to 
break through, to join with the VA, another committee I know 
that is near and dear to your heart as chairman, and work 
together with the VA and, quite frankly, with communities 
throughout the country to get at this.
    The last thing I would say is the initiative that the First 
Lady has undertaken and announced with the President about a 
month ago, an extraordinarily important issue focused on 
military families across a number of issues to include this--it 
is wellness. It is education. It is employment. It is child 
care--signed up by all the Secretaries from every department, 
16 of them, is a huge step forward in terms of giving this 
visibility in a way that we just have not had before.
    So I am more optimistic than I have been, but we have some 
substantial steps that need to be taken.
    Secretary Gates. I would like to just mention two things, 
Senator. One is one of the significant changes, I think, we 
have made in the last 3 years or so--we have moved virtually--
we used to pay for--most of these family programs associated 
with those who are deployed and the challenges that they have 
been facing have been in the supplementals and in the OCO 
funding. We have over the last 3 years moved virtually all of 
that money into the base budget so that long after the war 
funding ends, we will be able to sustain these family-oriented 
programs. This year, I think we have $8.3 billion in the budget 
for these programs, and that is about a $200 million increase 
over fiscal year 2011.
    Senator Akaka. I know your concern goes back also to the 
TRICARE program probably needing more resources than they have 
had before.
    Secretary Gates, I believe that an electronic medical 
record system would be very beneficial to current and former 
military families and members, as well as the health care 
providers. Mr. Secretary, can you provide an update on where 
DOD is on electronic health records?
    Secretary Gates. We will get you an answer for the record 
that has the details.

    Military Health System (MHS) medical facilities use the Armed 
Forces Health Longitudinal Technology Application (AHLTA), the 
Department of Defense's (DOD) current electronic health record (EHR) 
capability, as part of a family of systems. AHLTA generates, maintains, 
stores and provides secure online access to comprehensive outpatient 
records. The current DOD EHR family of systems forms one of the largest 
ambulatory EHRs in the world, with documentation of an average of 
145,000 clinical encounters each day. The MHS is currently executing a 
plan to improve system speed, operational availability and the user 
interface to enhance provider satisfaction until interagency EHR (iEHR) 
capabilities are delivered. Executing this plan allows MHS to meet 
providers' near term needs, while better preparing our applications and 
supporting infrastructure for the EHR Way Ahead.
    The DOD EHR Way Ahead Analysis of Alternatives (AoA) is ongoing. 
Because DOD and the Department of Veterans Affairs (VA) are engaged in 
concurrent EHR modernization efforts, significant opportunities for 
collaboration exist. To achieve common objectives, a DOD-VA EHR Senior 
Coordinating Group has been established. The group, which consists of 
representatives from DOD, VA, and the White House, is charged with 
reaching agreement on a proposed approach to a DOD-VA iEHR.
    The Senior Coordinating Group established six teams to reach 
agreements on proposed courses of action. The six teams are the 
Enterprise Architecture, Data Interoperability, Business Process, 
Systems Capabilities Presentation Layer, and Mission Requirements and 
Performance Outcomes Teams. The agreements reached by the group will 
form the basis for a proposed DOD-VA iEHR approach.
    On February 12, 2011, a high-level common data and architecture 
approach was presented to and subsequently endorsed by the Deputy 
Secretaries of DOD and VA and the Vice Chairman of the Joint Chiefs of 
Staff. Regardless of the alternative selected as a result of the DOD 
AoA, the agreements made by the Departments will apply to the iEHR. 
Additional meetings between Secretary Shinseki and I will occur to 
further define high level plans for the iEHR.

    Secretary Gates. I will tell you we have made a lot of 
progress, but it is not fast enough as far as Secretary 
Shinseki and I are concerned. He and I met, just the two of us, 
about 2 weeks ago to try and accelerate this effort. So he and 
I will meet again with our staffs in the middle of March to 
assess where we are and what needs to be done to move this 
forward and get it done. Then we will have a follow-up meeting 
at the end of April.
    I have found, unfortunately, with these huge bureaucracies, 
whether it is Veterans Affairs or DOD, that things like this 
that are big projects do not move very fast if they do not get 
high-level attention. So Secretary Shinseki and I are both 
committed to making as-fast-as-possible progress on this.
    Senator Akaka. Thank you very much.
    Chairman Levin. Thank you very much, Senator Akaka.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Secretary Gates, 
Admiral Mullen, I very much appreciate the fact that you opened 
your testimony with highlighting the damaging effects of a 
year-long CR on DOD. I am very concerned about these impacts. 
Senator Bill Nelson and I recently wrote to our leaders 
suggesting that we should be working on the defense 
appropriations bill right now. I made a similar suggestion to 
our leaders last fall, advice that unfortunately they did not 
take.
    But I will say to my colleagues that it is inconceivable to 
me that we have spent the past 10 days debating the Federal 
Aviation Administration reauthorization, not to say that that 
is not important, but it pales in comparison to the urgency of 
acting on the defense appropriations bill.
    So I hope our Senate leaders heard you loud and clear today 
and that we will return next week and make that our first order 
of business. Certainly the impact that you have outlined is a 
disaster, and there is just no need for us to be debating a 
bill that is not urgent when we should be doing a high priority 
bill and certainly the passage of the defense appropriations 
bill is the highest priority. So thank you for your testimony 
on that.
    Admiral Mullen, in your testimony you stated that one of 
the greatest success stories this year has been the growth and 
development of the ANSFs. You went on to say that that has gone 
incredibly well. I understand that that is going well 
generally, and I also understand how imperative it is that we 
build up those forces so that we can eventually leave 
Afghanistan.
    But I want you to know that I am concerned that the focus 
on so rapidly increasing the number of Afghan security forces 
is shortchanging the vetting of those recruits. Recently six 
U.S. military personnel, including Private 1st Class Buddy 
McClain of Maine, were killed by an Afghan border police 
officer. The press have reported that in the past 13 months, 
Afghan personnel have attacked our military personnel or our 
coalition partners six times.
    What are we doing to better vet those Afghan recruits to 
ensure that tragic incidents and attacks like this do not 
occur?
    Admiral Mullen. Certainly it is, Senator Collins, each one 
of them, a tragedy.
    To go to the overall structure, when I go back 12 months or 
15 months with General Caldwell and what we had then versus 
what we have now, we have moved incredibly quickly. But we have 
also focused on the quality of the move, and by that I mean the 
quality of the instructors, the quality of the infrastructure, 
a substantial training program that was virtually nonexistent 
there before. The Secretary talked earlier about the 
improvement in literacy. We are now focused very much on the 
need to both train in specific skill sets, and all of this 
while we are obviously fighting a war, moving pretty quickly, 
moving very quickly to ensure, as best we can, that nothing 
like that in the security forces, the military or the police, 
occurs. I would assure you there is a tremendous amount of 
focus on this with respect to the leadership.
    That said, tragically these things do occur on occasion. 
They did in Iraq. They do in Afghanistan. While we will do 
everything we can to eliminate them, I would not sit here and 
tell you that we will be 100 percent successful with respect to 
that.
    Every one of these is investigated thoroughly. Every one of 
them. In fact, the one to which you refer--I went through this 
with General Caldwell specifically. What happened? What do we 
know about this guy? What was the background? There was not a 
lot there with respect to his background that would have led 
him to specifically take that action to kill our six troops. So 
we take that. We investigate it. We certainly integrate that 
back into what we are doing, but it is a big challenge.
    Senator Collins. Secretary Gates, I applaud you for holding 
accountable both military and civilian personnel who have 
failed to perform adequately. On Tuesday, Senator Lieberman and 
I met with one of the victims of the Fort Hood massacre, 
Sergeant Alonzo Lunsford. He was accompanied by friends and 
family members, as well as other family members who had lost 
loved ones in this attack. The very first question that they 
asked Senator Lieberman and me and the one that I pose to you 
today is when will the supervisors that filed such misleading 
officer evaluation reports regarding Major Hassan be held 
accountable.
    These evaluation reports ignored his increasingly erratic 
behavior, his poor performance as a physician. We know from our 
investigation that one of his commanding officers told the 
people at Fort Hood you are getting our worst, and yet when you 
read the officer performance evaluations, they are glowing by 
and large. So this attack occurred 15 months ago, and what the 
victims and their family members are asking us is when will 
these individuals be held accountable.
    Secretary Gates. At my request, the Secretary of the Army 
has undertaken an investigation to address this specifically, 
and the latest information that I have is that he is nearing 
decisions on this. So I do not have a precise timeline, but I 
think in the very near future he will be reaching his 
conclusions and taking whatever actions he deems appropriate.
    Senator Collins. Thank you.
    My time has expired. I am going to submit some questions 
for the record.
    Admiral Mullen, I do want to mention to you that I am very 
concerned about the increase in suicides among the National 
Guard. I recently had the honor to welcome back a company of 
Maine National Guard men and women who have spent a year in 
Afghanistan. It seems to me we are doing a better job in 
helping the Active-Duty Force which has those resources more 
readily available, but I am really concerned about whether we 
are providing that same kind of support to the Guard and 
Reserve.
    Admiral Mullen. I said this many times. We would be nowhere 
close to where we are in these wars without the extraordinary 
performance of the Guard and Reserve, and they deserve every 
bit the attention that everybody else has gotten.
    Certainly on the suicide issue, it is a huge concern to all 
of us. The Services are working it and, in particular, the 
surge in that over the last year on the Guard side. So there is 
a great deal of effort to try to, first of all, understand it 
and then address it, as we have in the Services as well.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    I think Senator Collins speaks for all of us on that issue 
of suicide. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Let me begin by associating myself with the remarks of 
Chairman Levin and Senator McCain and others about your 
extraordinary service, Mr. Secretary, to the Nation throughout 
your tenure in difficult times and making difficult judgments. 
Thank you for what you have done and we continue to wish you 
well as you continue to serve.
    Admiral Mullen, I know in October you will finish your 
tour, and I will add that commendation to you for your 
extraordinary service of 43 years in uniform in the U.S. Navy 
and to all your colleagues at DOD.
    Let me emphasize what you all have emphasized. It is 
absolutely critical to fund the defense budget going forward 
not in an ad hoc, every 60 days basis, but over a long period 
of time to provide certainty for programs, certainty for 
strategy.
    But there is another aspect of our national strategy that 
is increasingly important and that is the role the DOS will 
play in Iraq and Afghanistan. Mr. Secretary, I would assume 
that you would stress with the same urgency the need to fund 
those types of DOS programs in Iraq and Afghanistan because 
otherwise what you have accomplished and, more specifically, 
what young men and women in our military forces have 
accomplished could be severely jeopardized and our national 
security severely threatened if we do not follow through.
    A concern that many of us have is that you are able to 
summon an almost reflexive response by the American people when 
you talk about helping men and women in uniform. That same 
response is not elicited when people start criticizing foreign 
aid which this could be labeled. I just think it would be 
helpful if you would comment on this issue of the need also to 
support that effort.
    Secretary Gates. First of all, I would say that for the 
entire time I have been in this job, I have been an advocate 
for more money for the DOS. Actually this dates back to my days 
in the Central Intelligence Agency (CIA) when we had case 
officers collecting information that any good political officer 
in the Foreign Service could get, but there were not enough. So 
it has been a concern of mine all along.
    I would say that right now it is a critically urgent 
concern because if DOS does not get the money that they have 
requested for the transition in Iraq, we are really going to be 
in the soup. We have spent probably close to $800 billion or 
$900 billion, perhaps more importantly, more than 4,000 lives, 
and here we are at the end game and it reminds me of the final 
scene in ``Charlie Wilson's War.'' We have spent billions to 
drive the Soviets out of Afghanistan, and we could not get a 
million dollars to build schools in Afghanistan in 1989 and 
1990.
    The same thing is going to happen in Iraq. If we cannot 
have a transition to DOS and the police training function, if 
they do not have a presence in various places throughout Iraq, 
much of the investment that we have made in trying to get the 
Iraqis to the place they are is at risk in my view. The 
chairman mentioned the need for DOS funding in his opening 
statement. But you would find, I think, extraordinary support 
across the entire DOD for their budget, but more importantly 
our real worry that all that we have gained is potentially at 
risk if we do not have the kind of DOS presence and DOS 
activities in Iraq.
    Here is the other piece of the problem and it goes to the 
CR. DOS cannot spend the money to get ready right now. This is 
getting toward the end of February. There are facilities to be 
built. There are people to be hired, and they cannot do any of 
that. So we are going to run out of time in terms of being able 
to get this accomplished.
    So I hope that the passion in this reflects just how 
strongly we feel about this. This is really, really important.
    Admiral Mullen. Senator Reed, just quickly, you talk about 
Iraq and Afghanistan. This is a global issue. This is not a lot 
of money invested in places around the world that prevent 
conflicts. The military does this. We have to do it with our 
partners in DOS, otherwise we are going back for a lot more 
investment and a lot more casualties.
    Senator Reed. Mr. Hale, please.
    Mr. Hale. Let me just offer a brief additional point. For 
the first time, in fiscal year 2012, State will request a 
budget under the OCO fund. It will be very important for 
Congress to enact that and isolate the money that is associated 
with these operations, so I hope that's favorably received.
    Senator Reed. That's an excellent point, Mr. Secretary.
    Just, with Afghanistan, too, you mention ``Charlie Wilson's 
War.'' We learned a very expensive lesson about not spending 
the million dollars in September 11, 2001, attacks. Frankly, 
particularly with Afghanistan, where at a point we might have 
to relearn that lesson, because the threats that are being 
organized against the United States and our allies are still 
emanating from border regions of Afghanistan and Pakistan, 
unless I'm mistaken. Is that a fair judgment, Mr. Secretary?
    Secretary Gates. Absolutely. The chairman refers to it as 
the epicenter of world terrorism. While al Qaeda has 
metastasized and has branches in Yemen and North Africa and 
elsewhere, the reality is, that border area with Afghanistan 
and Pakistan is still the heart of the problem.
    Senator Reed. Let me make one follow up point about 
Afghanistan, because as the chairman mentioned, we were there 
recently. We are building an increasingly credible force there, 
but it's a force that the government of Afghanistan cannot 
afford indefinitely. It's much cheaper than our troops. But 
this is not just a 2- to 3-year commitment. This has to be a 
multi-year commitment to support their forces in the field. Not 
singly the United States, but the international community. We 
have to start now and build that in. Is, I think, is that 
another point you would agree with?
    Secretary Gates. I made the point earlier. I mean, I think 
that the international community and Afghanistan cannot afford 
a force of 375,000 Afghan National Security Fund (ANSF) 
indefinitely. We have to think of this, I think, more as a 
surge for the Afghans. With a political settlement and with the 
degrading of the Taliban, perhaps the size of the ANSF can come 
down to a point where it's more affordable for us and for 
everybody else. But we have, just as an example, I mean, our 
fiscal year 2012 budget has in the OCO $12.8 billion to support 
the ANSF for 1 fiscal year. We can't sustain that for many 
years. So, a lot depends on being successful by 2014 in getting 
the transition to the Afghans. Even if we have to support it 
for a little after that, if we have most of our troops out of 
there, it's still going to be a lot less money for the American 
taxpayers.
    Senator Reed. Thank you very much. Thank you.
    Chairman Levin. Thank you, Senator Reed. When you go to 
your NATO meeting, I hope that you would also see what support 
we might be able to get for the continuing cost of an Afghan 
army from some of our NATO allies. In that regard it would be 
helpful as well.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Any chance you'll 
reconsider leaving, Secretary Gates?
    Secretary Gates. No, sir.
    Senator Graham. I didn't think so. I just can't thank you 
enough for what you've done for the country. Admiral Mullen. I 
just want to say something about the administration here. I 
know we have our differences. But when it comes to Iraq and 
Afghanistan, I think the policies you've created, the policies 
the President has supported, have been very sound. We're about 
to reap the benefits of operations that have been tough, 
difficult, sometimes mismanaged, but that's the nature of war. 
We're very close in Iraq. So, I just want to build on what 
Senator Reed said. I'm going to be the ranking member of the 
Foreign Operations Accounts on Appropriations. I'd like for you 
to put in writing to me and Senator Leahy what you said about 
this account.
    Let's give a real world example. What did it mean in terms 
of the Egyptian crisis to have a good dialogue with the 
Egyptian military, Admiral Mullen?
    Admiral Mullen. It was huge. It was the benefits of 30 
years of investment of the interaction that we've had with 
thousands of them in our schools, the values that have rubbed 
off over time with them, the ability to sustain those contacts, 
and then see them act in such a responsible way.
    Senator Graham. I think that's a real world example of 
where 30 years of investment really paid off. This account has 
been reduced to $45 billion in the House. I do share my House 
colleagues' desire to reduce spending, and no account is above 
scrutiny. But the $5 billion that is flowing to Pakistan, Iraq, 
and Afghanistan on the civilian side of the OCO account, what, 
are you telling us that, basically, that should be seen sort of 
as emergency spending and not counted against our baseline?
    Admiral Mullen. I think, I mean, certainly some of it is 
tied to the military. But I think the Kerry-Lugar-Berman piece, 
that's a 5-year program at a billion and a half a year. That 
isn't military, and that's what we were taking about earlier. 
Sustaining that is going to be critical, not just now, but in 
the long term.
    Senator Graham. I guess the point I'm making, we're surging 
on the civilian side as we draw down our troops. The civilian-
military partnership is essential to holding and building.
    Admiral Mullen. Right.
    Senator Graham. There are funds going to Pakistan, Iraq, 
and Afghanistan on the civilian side that I think will be just 
as important as any brigade, and I would like to treat those 
funds as a national security asset. I will do everything I can 
on the Republican side in the Senate to make sure that we 
protect those funds that you can't hold and build without.
    Admiral Mullen. Sure.
    Senator Graham. Now, here's what a waste the American 
people--we're talking about fiscal austerity at home. What is 
the percentage of GDP spending on defense when you count all 
appropriations?
    Secretary Gates. Well, two facts. First, the base budget 
alone----
    Senator Graham. Right.
    Secretary Gates.--is 3.7 percent of GDP. If you take all 
the war funding for fiscal year 2011, plus the base budget, 
it's about 4.9 percent of GDP.
    Senator Graham. Historically----
    Secretary Gates. But there's another fact that's worth 
noting----
    Senator Graham. Okay.
    Secretary Gates.--and that is that as a percentage of 
Federal outlays----
    Senator Graham. Right.
    Secretary Gates.--with the exception of the late 1990s and 
early 2000s, at 18.9 percent it is the lowest level of Federal 
percentage of outlays since before World War II.
    Senator Graham. Okay. Now, we need to understand that as a 
Congress here, the Secretary of Defense has just told us, and, 
since World War II terms, we're on the very low end, at a time 
when I think the threats to our Nation are growing 
exponentially. Now, as we pull down in Iraq, it is your belief, 
if the Iraqi Government would ask for American troops to be 
left behind to perform the three functions you suggested, it 
would be in our national security interest to say yes?
    Secretary Gates. Yes, sir. I believe that.
    Senator Graham. Now, there's a fourth component--security 
for those who are going to be in the lead. DOS, the Department 
of Justice, Agriculture Department, the police trainers. My 
concern is, if we don't have a sufficient military footprint, 
then DOS literally has to build its own security apparatus, 
which will be in excess of $5 billion. Do you think, all things 
being equal, it would be better for the U.S. military to be 
able to continue to provide security?
    Secretary Gates. Yes, sir, I do. I'm, partly because we 
would also have the helicopters and things like that. The 
private security contractors that State's going to have to hire 
to perform that role will not have some of the, quote, unquote, 
enablers that we have.
    Senator Graham. Well, see, this is the dilemma. We need to 
know this soon. Because DOS needs to build capacity. Do they 
buy helicopters? Do they buy 54 MRAMs? Is it wise to hire a 
private contractor army to replace the American military if the 
Iraqis will allow the American military to perform that 
function. So, the sooner we know the answer to that question, 
the more likely we are to be successful. Because I have grave 
concerns about building a DOS army. So, that's must my 2 cents 
worth.
    Detainees. Admiral Mullen, our special operators are all 
over the world as I speak, is that correct?
    Admiral Mullen. Yes, sir.
    Senator Graham. The threat from terrorism is just not 
confined to Iraq and Afghanistan.
    Admiral Mullen. It is not.
    Senator Graham. What would we do as a nation if we were 
able to capture a high level al Qaeda operative in any country 
outside of Iraq or Afghanistan, let's say, Somalia, Yemen, as 
examples. What would we do with that detainee?
    Admiral Mullen. We don't have an answer to that question.
    Senator Graham. See, now, this is a big deal to me. We're 
in a war, and capturing people is part of a intelligence 
gathering. It's an essential component of this war. Do you 
agree with that, Admiral Mullen?
    Admiral Mullen. Right.
    Senator Graham. It is better to capture someone than it is 
to kill them in a lot of cases, is that correct?
    Admiral Mullen. It is.
    Senator Graham. It's hard to capture someone if you don't 
have a jail to put them. All those on the other side who want 
to stop renditions, we need to come up with an American jail, 
because we're in, the only alternative is to kill them or go to 
renditions. I hope, Mr. Chairman, that sometimes this year 
Republicans and Democrats can have a breakthrough on this issue 
to help our men and women fighting this war, because it is a 
very spot to put the special, a tough spot to put the special 
operators in. Our CIA doesn't interrogate terror suspects any 
longer. These are things we need to talk about and get an 
answer to.
    Afghanistan. Not only is it miraculous what General 
Caldwell has done. It's stunning to me that we're in 2009 and 
10, and 30 percent of the NCO corps in Afghanistan could read. 
When he took over, he tested the Afghanistan army for literacy, 
and on paper, every NCO should read at the 3rd grade level. 
When they tested the NCO corps, 70 percent could not read at 
the 3rd grade level, and he is going about fixing that. So, 
you're dead right. But, we need to know, after 8 years of 
involvement, 90 percent of the Afghan army could not shoot to 
NATO standards 18 months ago. So, after all these years we're 
just finally getting it right. In many ways, we've been in 
Afghanistan with the right formulation for about 18 months. Is 
that a fair statement?
    Admiral Mullen. That's a fair statement, and it's a very 
difficult discussion to have because it was 10 years ago when 
this started.
    Senator Graham. I just want the American people to know 
that we've made mistakes, but we're finally getting it right.
    One last thought. When 2014 comes, I am very optimistic 
that there will be a better Afghan police and army than we have 
today, that we can transition. But I've been discussing among 
my colleagues and others about what an enduring relationship 
with Afghanistan would look like. It is my belief, Mr. 
Chairman, that a political economic and military alliance with 
the Afghan people, at their request, would be incredibly 
beneficial to our long-term national security interest and 
could be a game-changer in the region.
    To both of you, what do you believe the effect of an 
enduring military relationship would be on the future security 
of Afghanistan and the region as a whole if the Afghans 
requested of us to have joint airbases past 2015? Would that be 
something you think it would be wise for us to talk about and 
consider?
    Secretary Gates. Absolutely, Senator. I think that, to go 
to, Admiral Mullen's comments about Pakistan a little while 
ago, there is a big question in the whole region whether we 
will stick around. It's in Afghanistan, it's in Pakistan, it's 
all over the area. A security agreement with Afghanistan that 
provided for a continuing relationship and some kind of joint 
facilities and so on for training, for counterterrorism and so 
on beyond 2014, I think would be very much in our interest. I 
think that it would serve as a barrier to Iranian influence 
coming from the West. I think it would serve as a barrier to a 
reconstitution of the Taliban and others coming from the border 
areas in Pakistan. So, I think it would be a stabilizing, have 
a stabilizing effect, not just in Afghanistan, but in the 
region.
    Senator Graham. Would you also agree that it would give an 
edge to the Afghan security forces in perpetuity over the 
Taliban, and you might, with that kind of a relationship, get 
by with a somewhat smaller army?
    Secretary Gates. Absolutely.
    Chairman Levin. Thank you, Senator Graham.
    Senator Hagan is next.
    We have a vote now on the Senate's schedule for 12:10. 
We're going to try to work around that vote and to work through 
that vote. I'm going to turn the gavel over now to Senator 
Udall, because I have to leave for a few minutes as well. But, 
we're going to try to keep going right through that vote the 
best we can.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. I will actually cut 
my own questions short, because I have to preside over the 
capsule that's on the Senate floor at noon. But, I do want to 
say to all three of the individuals here, thank you so much for 
your service and your testimony, and the excellent work that 
you do for our country. I did want to agree with Senator Reed 
and Senator Graham on the concern, and Secretary Gates and 
Admiral Mullen, your concern about the funding for DOS and the 
foreign aid. I think that is critically important. As you both 
said, it certainly was evident as to what has taken place just 
recently in Egypt.
    I did want to talk a little bit about the health of the 
Special Operations Forces (SOF). Admiral Mullen, in your 
prepared remarks you acknowledged the continued stress on the 
force from 9 years of constant conflict. Last week Admiral 
Olson, Commander of the U.S. Special Operation Command (SOCOM), 
told an industry group that difficult and repeated deployments 
of Special Operations personnel are causing some fraying around 
the edges of the force. Admiral Olson also made the point that 
demand for SOF will continue to outstrip supply for the 
foreseeable future.
    Given the demand for these SOFs, not only in U.S. Central 
Command (CENTCOM), but also in other parts of the world, for 
partnership and capacity-building activities, how does DOD 
intend to address the readiness issues identified by Admiral 
Olson? Admiral Mullen and Secretary Gates?
    Admiral Mullen. I think, actually, the force has expanded, 
I think, from, when these wars started, around 30,000 to on a 
way to upwards of 56,000. I think there are insatiable 
appetites and requirements for Special Forces. The vast 
majority of them are in CENTCOM. That said, they actually are 
in many, many countries around the world, and they're making 
investments for the future so that we don't have to go to war 
in other parts of the world. I think his statement about 
fraying around the edges is right. They've been on, had a 
significant number of deployments. I think in Iraq, actually, 
in Iraq and Afghanistan they'll typically be the last forces 
out. So, the pressure is going to continue there.
    We've worked very, very hard both increasing size to 
increased dwell time. But as we do that, quite frankly, 
Petraeus asked for more, because they have such an impact. So, 
we're on a very, we're on a knife edge there with respect to 
this. They're extraordinary in their performance and their 
execution. I consider the Care Coalition, which is the group 
that takes care of wounded families, families of the fallen, to 
be the Gold Standard in our military with respect to how we 
approach that. That said, they're pushed very, very hard.
    From a readiness standpoint, as they come back and dwell 
time will increase, I think we'll be fine in terms of giving 
them the time, and then to be able to disperse them to other 
parts of the world, which we have not been able to do in the 
kinds of numbers and requests, because they've been so tied to 
CENTCOM. So, I think we will be able to meet that. But it's 
going to be awhile until we get on the down side of both these 
conflicts.
    Secretary Gates. I would just add that with the increase in 
SOCOM and their higher level of activity, another one of the 
things that we've tried to do is move a lot of the SOCOM money, 
a lot of the Special Forces money, into the base budget, so 
that once these wars end we are able to sustain the larger 
Special Forces that we have, and properly equip them.
    Senator Hagan. Thank you. The international security 
environment, particularly in cyberspace, continues to evolve. 
Cyber threats to our electrical grid, telecommunications, 
military networks, critical infrastructure, and the financial 
system pose serious concerns to our national security.
    Secretary Gates and Admiral Mullen, what is DOD's strategy 
to recruit, train, and retain cyber specialists, and what is 
the way forward to centralize the military cyberspace 
operations and U.S. Cyber Command (CYBERCOM), and to 
synchronize the defense networks?
    Secretary Gates. I think we've made a lot of progress in 
this area. The creation of CYBERCOM was in important step. I 
directed the Service Secretaries about a year ago to consider 
training in the, in cyber, to be their, one of their highest 
priorities and to ensure that all the spaces that we have in 
our schools for teaching cyber skills be filled at a priority 
level. I think they've made a lot of headway. We have a lot of 
money in this area. This budget for fiscal year 2012 has a half 
a billion dollars for cyber research at the Defense Advanced 
Research Projects Agency (DARPA). So, and I think we're in 
pretty good shape in terms of protecting the dot-mil world. 
This last summer, Secretary Napolitano and I signed a 
memorandum of understanding that give, that begins to move us 
in a direction where we can begin to do better at protecting 
dot-gov and dot-com. The reality is, there was a big debate, 
and it went on in the Bush administration, and it continued in 
this administration, of people who did not, for, did not want 
to make use of the National Security Agency (NSA) in domestic 
cyber protection because of civil liberties and privacy 
concerns. What Secretary Napolitano and I did was arrive at an 
agreement where Department of Homeland Security senior 
officials are now integrated into NSA senior leadership. They 
have their own General Counsel, their own firewalls, their own 
protections, so that they can exploit and task NSA to begin to 
get coverage in the dot-gov and dot-com worlds. This is really 
important. I think it's a start. But we still have a long way 
to go.
    Senator Hagan. Thank you.
    Admiral Mullen, anything to add to that?
    Admiral Mullen. No. Ditto. I mean, it's a huge concern.
    Senator Hagan. Yes.
    Admiral Mullen. A growing threat. A lot has been done. 
Schools are filled. But we have a long way to go.
    Senator Hagan. I think it's good that the schools are 
filled, it's positive. Thank you. Thank you, Mr. Chairman.
    Senator Udall [presiding]. Thank you, Senator Hagan.
    Senator Chambliss is next.
    Senator Chambliss. Thanks very much, Mr. Chairman.
    Gentlemen, I don't know what all this conversation is 
about, about saying great things about you because you're 
leaving. We're planning on you being, both being around here 
for awhile longer to help us make some very critical decisions. 
Whether it's voluntary in your case, Secretary Gates, or your 
time is up, whatever, Admiral Mullen, to both of you, you 
provided a very valuable service to our country over this last 
short term. I'm not even counting the years and years and years 
that both of you have given. So, thank you very much for that 
service. Whether we've agreed or disagreed, you've always 
responded to me in a very professional way. I'm very 
appreciative of that relationship.
    I want to echo what Senator Graham said about this 
detention and interrogation issue. I mean, guys, we have a real 
problem there that needs to be addressed in the short term. I'm 
sure you've probably seen what, the way in which Director 
Panetta responded yesterday to a question I asked him about if 
we did capture bin Laden or Zawahiri. That just highlights the 
fact that we don't have a plan, and we really do have to figure 
out something here. We thought Baghram might be the answer. But 
it looks like it's obviously not long-term. So, we look forward 
to working with you on that.
    I continue to have, Secretary Gates, a TACAIR issue that 
just really bothers me with respect to where we are now. The 
further we get into the F-35, the more I'm concerned about 
this.
    In May 2009, just to go back a little bit, General 
Schwartz, Chief of Staff of the Air Force, testified that the 
military requirement for the F-22 was 240, or 60 more than DOD 
was willing to purchase. That summer there was a concerted 
effort made to strip funding for seven additional F-22s out of 
the NDAA for Fiscal Year 2010. Ultimately, obviously, and 
you've taken a lot of credit for the fact in your budget that 
the F-22 has been terminated and there's a huge savings out 
there.
    First, there was an argument that the F-35 would be more 
affordable than the F-22. Secretary Gates, on July 16, 2009, in 
a speech in Chicago you personally stated that the F-35 would 
be less than half the total cost of the F-22. Since that time, 
the F-35 experienced a Nunn-McCurdy breach due to cost 
increases, and DOD has recently restructured the program again, 
delaying deliveries and again driving up the cost.
    Last month your own Cost Assessment and Program Evaluation 
Office established that the unit cost of a JSF average over 
variance has doubled since the program began to approximately 
$116 million per copy in fiscal year 2010 dollars. Things may 
even get worse. Of note, the price per copy for the last F-22s 
purchased was $130 million.
    Second, regarding the threats the United States may face in 
the future and our ability to maintain air supremacy, you 
downplayed the threat and stated again on July 16, Mr. 
Secretary, of 2009 in that Chicago speech that, and I quote, 
``China is projected to have no 5th generation aircraft by 
2020.'' Well, I heard what you said earlier in response to 
Senator Inhofe, but the fact is that last month China flew 
their first 5th generation fighter, the J-20, which your own 
intelligence experts predict will reach Initial Operating 
Capability (IOC) with 20 aircraft, a 20-aircraft squadron well 
before 2020. Also, over a year ago Russia flew their 5th 
generation fighter, the PAC FA, which, again, your own 
intelligence experts predict will have an IOC date well before 
2020.
    Third, Mr. Secretary, a year ago in this very room, when 
DOD was in the process of notifying Congress of an F-35 Nunn-
McCurdy breach, you had just fired the F-35 program manager, 
and I asked you if you were going to revisit the issue of 
additional F-22 production. You responded, and I quote, ``No, 
sir, because the IOCs, based on information that I was given in 
preparation for this hearing, the IOCs for the Services, for 
the arrival of the training squadron at Eglin all remain pretty 
much on track.''
    Even though we do have a plane you say that's on schedule 
going to Eglin in May, and additional planes going in 
September, those are all test airplanes. A few months after you 
made that statement, the IOC date for the Air Force version 
slipped from 2013 to 2016, the IOC date for the Navy version 
slipped from 2014 to 2016, and the Marine Corps version has 
gone from a projected IOC date of 2012, or next year, to being 
on a 1-year probation and not even having an IOC date.
    In light of all these developments, I hope you can 
understand why I am extremely concerned as we go into this 
budget about where we're headed, gentlemen. In light of General 
Schwartz's stated military requirement I need to ask you one 
more time, Mr. Secretary, is DOD considering the purchase of 
any additional F-22s?
    Secretary Gates. No, sir. We are not.
    Senator Chambliss. DOD is spending billions of dollars to 
buy hundreds more 4th generation fighters, F-18s. DOD has 
linked at least some of these additional F-18 purchases 
directly to delays in the F-35 program. I can understand that. 
Can you explain why it makes sense to invest billions of 
taxpayer dollars in buying 4th generation F-18s, which are 
basically useless whenever there's contested airspace, rather 
than buying additional F-22s, which can fly anywhere, anytime, 
in any airspace?
    Secretary Gates. Sir, first of all, let me say about the F-
35 that the new program manager, Admiral David Venlet, probably 
the best acquisition person we have in uniform, has completed a 
comprehensive tactical baseline review. I think we have, now, 
it, he took several months to do this. I think we have greater 
understanding and granularity in terms of progress on the F-35. 
The reality is, both the Navy and Air Force variants have made 
substantial progress over the last year. The Air Force version 
flew twice as many flight tests as had been originally planned.
    It is training aircraft that are going to Eglin, and both 
for the Air Force and the Navy. We are investing money in 
upgrades to the F-22. There's, there are hundreds of millions 
of dollars in the fiscal year 2012 budget to upgrade the F-22. 
Some of the lessons learned from the F-35 and the F-22 are 
being put into upgrades for our existing 4th generation 
aircraft that our people believe with those upgrades can take 
on the adversary's best aircraft.
    I finally would say that this is China's and Russia's first 
low observable aircraft. We've been at this 20 years. I think 
that they are likely to run into a number of the same 
challenges we did early in our stealth programs. I think that 
our tactical air situation will be in good shape.
    In addition, the Air Force has realized that they can 
upgrade some of their 400 F-16s to give them additional 
capability and sustainment, as well as the early block F-16s, 
and they're upgrading the most recent blocks of F-16s. So, I 
think that combining all these different programs that we have 
in modernizing TACAIR, plus getting on with the F-35, now under 
new management and new leadership, I think that we're in 
reasonably good shape.
    I would finally say, the last procurement that is, has been 
negotiated with Lockheed Martin, the Low-Rate Initial 
Production 4, actually has resulted in a fairly substantial 
decrease in the price of the F-35 for that particular buy, and 
we hope that we can continue that trend.
    Senator Chambliss. There's no question but that you're 
increasing the risk, Mr. Secretary, and I hope that we don't 
get down the road and realize that was too far a reach for us 
from a risk standpoint.
    I have a question that I'd like to ask Admiral Mullen for 
the record, and it's on a little bit different tack. Admiral 
Mullen, we're struggling with this issue of the deficit as well 
as debt reduction long-term. I have quoted you several times, 
as have a number of us, in saying that the number one national 
security interest of the United States is the long-term debt 
that we face. Would you mind just sending us a written 
statement amplifying on that record? Because your opinion, I 
can tell you, resonates around the world with respect to that 
issue. I'm thankful that you stood forward and you made that 
comment. I'd just like you to amplify it for the record.
    Admiral Mullen. I've tried to stay out of trouble in doing 
that. But it really in its simplest form focuses on what I 
believe would be a shrinking national security budget. We are 
now involved in, as we should be, looking at ways to save money 
and do it more efficiently and effectively. But at some point 
in time, the size of our budget could have a dramatic effect on 
the size of our force structure. That's the danger that's 
there, given the national security requirements, which seem to 
be growing, not reducing, not getting smaller.
    [The information referred to follows:]

    The ties between the strength of our economy and our Nation's 
security are inseparable and incontrovertible. We need a vibrant, 
growing economy to exert influence internationally and to provide for 
our military and other defense capabilities. In turn, we need the 
security provided by our national defenses to underwrite our economic 
endeavors and our livelihoods. But today we find both our economy and 
our security threatened by our burgeoning national debt.
    The U.S. national debt is projected to quickly reach levels with 
few precedents for a nation not fully mobilized for war. Continued 
future budgetary pressures could make it extremely difficult for us to 
maintain the size and readiness of our military forces and to promote 
the technological innovation (in all areas not just defense) needed to 
preserve an advantage over our competitors. This could threaten our 
ability to maintain a credible deterrent against potential adversaries 
and to respond to security contingencies--large or small.
    In many ways, these budgetary pressures are a present reality, and 
we in the military have already started tightening our belts and 
working to become a more fiscally responsible Pentagon.
    How we should deal with the looming threat of our national debt is 
a historically necessary conversation. It will involve tough decisions 
with significant trade-offs, opportunity costs, and strategic risks. 
What we do, or don't do, will shape our Nation for decades to come.

    Senator Chambliss. Thank you.
    Senator Udall. Thank you, Senator Chambliss, and thank you, 
Senator Chambliss, for your work with Senator Warner on this 
very important challenge related to our annual deficits and our 
long-term debt. I know there are many senators who are eager to 
work with you in this important mission. Thank you.
    Senator Blumenthal, you're recognized.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I join the chairman, ranking member, and others on the 
committee in thanking you for your extraordinary service, 
Admiral Mullen and Secretary Gates. In particular, for your 
continued commitment to the JSF and the single-engine, and the 
submarine building program, which I know was reiterated as 
recently as yesterday in remarks in Florida. So, I assume that 
will continue. I want to express my thanks. In particular, I'd 
like to focus on one area of your prepared testimony, Admiral 
Mullen, relating to the injuries of many of these young men and 
women returning from these conflicts in Iraq and Afghanistan. 
Specifically, TBIs that are new in their magnitude and number, 
and ask you perhaps to describe more specifically what is being 
done in terms of the treatment, both in-service and veterans. 
Also, what can be done to enlist the growing number of private 
efforts, for example, the Woodruff Foundation, which you may be 
familiar with, that could provide resources.
    Admiral Mullen. One of the areas we've struggled in 
throughout these wars is the stigma issue, will I raise my hand 
and ask for help. On my most recent trip into Afghanistan, 
which was December, I was with the Command Sergeant Major there 
for the 101st, and he relayed to me an extraordinary statistic, 
which essentially had those that were in concussive events, 
essentially they were returning to duty at about 98 percent.
    We have put in place procedures, if you are in a concussive 
event, within 50 meters, et cetera, you get pulled out of the 
fight. One of the reasons that the return to duty rate is so 
high is because we're treating them well literally in the 
battlefield, as fast as possible. If they're asked, they're 
willing, because they're not going to get sent home, they're 
willing to raise their hand and say, I need some help.
    Now, we have a long way to go on stigma, in post-traumatic 
stress, et cetera, in families with the same challenges. But we 
actually have made some progress there. We have, at the same 
time, I have been struck, in the TBI, the difficult ones are 
the mild ones. The most serious are ones that become very 
obvious. But it is the mild ones oftentimes that your, you 
don't see your symptoms for months, or you don't admit you have 
them. It is those who obviously are in the military, those who 
transfer then, who transfer out of the military back to 
communities throughout the country.
    I've also been struck, I'm going to use a comparison, when 
you look at Walter Reed or Balboa, or the Intrepid Center for 
the amputees, and where we are, we're, I would argue, leading 
the world with respect to that. That's just not the case in TBI 
because there's a lot of newness to this that surprised me. We 
know a lot about the brain, but we don't know a lot about how 
these injuries affect the brain. So, we've tried to reach out, 
not just, not to reach and understand it just inside the 
military, but reach experts throughout the country who are 
contributing in ways--there's a Brain Center at UCLA, for 
instance, which has contributed significantly--and to get the 
best minds that we can across, throughout the country to help 
us work our way through this. But, I'm struck that we're in the 
nascent stages of this even at, even in this year, in so many 
ways.
    Senator Blumenthal. Is there a specific command or a 
structure within either the Pentagon or dealing through the VA 
that is coordinating this effort?
    Admiral Mullen. There is, there's not a single point of 
contact. There's, obviously, a significant effort inside the 
Pentagon. We have taken steps to try to work with the VA, and 
then also understand the capabilities that are out in the 
country as we've engaged for those who've transferred back 
home. But there's an awful lot we still have to do to make 
those connections so we're all working it together, which is 
going, which I think would be the most effective. We're just 
not there yet.
    Senator Blumenthal. To take a related subject, I'm sure you 
are familiar with reports about the danger of a combination of 
different pharmaceutic drugs----
    Admiral Mullen. Yes.
    Senator Blumenthal.--in treatment of post-traumatic stress 
and similar kinds of phenomenon. I wonder if you or Secretary 
Gates could describe efforts being made to address those 
dangers.
    Admiral Mullen. Sometimes we're slow to need because we've 
gone through a time where we have, in too many cases, over-
medicated, too many prescriptions. Not just in the battlefield 
or back here when they get back, but also in the VA. What, in 
particular, the Army has done recently is put in place a much 
more aggressive multifaceted treatment regime which expands 
beyond drugs to yoga, to acupuncture, to other forms which have 
proven positive to support those who've been through the kind 
of combat that they've been through. So, I'm actually 
encouraged by that significant effort put forward now to try to 
back off of that over-medication. That's not in, that's going 
to take us awhile. But, certainly it's a concern we all have.
    Secretary Gates. I'd say there are two additional problems 
here that we have to deal with. One is servicemembers 
stockpiling prescriptions. The second is, the frequency with 
which servicemembers will go outside the military healthcare 
system and get prescriptions. We don't have any visibility into 
that in terms of just how much medication they're taking, or 
how those drugs all interact with one another. So, these are 
all areas that we're aware of and trying to work on. But we 
still have a ways to go.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Blumenthal.
    Senator Shaheen.
    Senator Shaheen. Mr. Chairman. Thank you all for being 
here.
    I want to add my concern to those that have been expressed 
already about the JSF and what is happening with that program. 
I appreciated your comments about the efforts to get the 
program back on track, and I certainly hope that that is 
correct and the program will go forward and it will be 
effective with those efforts to readjust it.
    I also want to commend DOD on your decision to cancel the 
planned purchase and production of the Medium Extended Air 
Defense System (MEADS) program. I'm new here, so I'm still 
getting the acronyms down. But, I think it's important, as DOD 
found, that we can't afford to purchase MEADS and make the 
critical investments that we need to make in the Patriot over 
the next two decades. So, I certainly hope Congress will 
support your decision and press for the continued Patriot 
modernization.
    Admiral Mullen, during the House hearing yesterday you 
touched on something that you just referenced a little bit just 
now in your exchange with Senator Blumenthal, and that is about 
research into what we need to know about brain injuries. You 
talked about the importance of consistent and sustained support 
for research and development in our military budgets. Can you 
talk about whether you feel like the budget that's been 
submitted adequately addresses that to prepare us for the 
future? What have been the most cost-effective efforts that the 
military's used to leverage research and development (R&D) in 
the budget?
    Admiral Mullen. I'll be very specific to focus on Secretary 
Gates because, and he spoke earlier, his frustration that if 
you're a leader of one of these bureaucracies, there are things 
that, if you really want to get it done you're going to have to 
focus on it personally. This is another area, probably 2 years 
ago, 3 years ago, that he made a priority to ensure that we 
actually were growing in science and technology (S&T) and R&D. 
What's happened over the course of the last 2 decades is many 
of the programs we've talked about--I'll use JSF--has R&D 
money, but what it's really become program money, and it's not 
true R&D. So, I think for, particularly as budgets tighten and 
we look to capabilities in the future, we can't buy it all, we 
can't protect against everything. But having a robust S&T base, 
6.1 through 6.5 and 6.6, is really important in terms of being 
ready for things in the future. So, even in these times where 
there's an extraordinary amount of pressure on the budget, and 
I think that will increase, I think we have to continue to get 
that right.
    You talk about most effective. I think the investment--and 
this is not an uncontroversial, sometimes an uncontroversial 
investment--but I've watched DARPA over the many years work, 
and they really reach at some of the, to get at some of the 
most difficult problems. I think we need to be mindful of 
sustaining that investment as well, for example. One other 
comment is, the S&T or the R&D investment in the medical field 
to get at brain research, and that, as I understand this 
budget, that actually is in pretty good shape as well.
    Secretary Gates. I would just amplify that by saying that 
in this budget there is $1.1 billion for and TBI and PTSD 
research.
    Senator Shaheen. Thank you. In New Hampshire we have a very 
significant defense industry that has been doing a lot of 
cutting edge research, and I know that DARPA's role has been 
very important in promoting that research.
    The National Guard and Reserves, as you all have said, has 
played a huge role in allowing us to be effective in Iraq and 
Afghanistan. In New Hampshire, as Senator Ayotte pointed out, 
we've seen the largest deployment of our Guard since World War 
II. I appreciated everyone's expressed commitment, again, to 
the health and well-being of all the servicemen and women and 
their families.
    One of the things that we have done--and Admiral Mullen, 
again, I think you've been briefed personally on the Full Cycle 
Deployment program that we have in New Hampshire, that is a 
model to help families both as they're preparing for deployment 
and when they return, as well as the member who's being 
deployed. This program has been supported by congressionally-
directed spending--earmarks--which are not likely to continue. 
So, are there, are you looking at models like this as you think 
about developing ways to be most effective in supporting Guard 
and Reserves who are deploying? Are there ways in which, as the 
congressionally-directed spending ends, that we can continue to 
support these kinds of programs that have been so effective?
    Admiral Mullen. Senator, when you speak to this, and as you 
have spoken to the, and the way you've spoken to it, I'm 
immediately reminded of the need to be, build resilience in our 
people and families, literally from the first day they come 
into the Guard, Reserve, or on active duty in all Services. 
We've come to understand that. We've actually made some 
significant progress there, but we still have a long way to go. 
We've built more of it in our members than we have in our 
families, and we need to build it in the families as well.
    I would need to get back to you with a more specific answer 
on, because I want to know more about the, where your program, 
where the New Hampshire program is. Because what we do try to 
do is canvas the field and look at the best programs that are 
out there, and then inspire others to grab those. So, in 
particular, I'd be happy to do that and get back to you. As I 
speak, I really don't know where there resourcing side of it is 
with respect to that kind of, with respect to the program in 
New Hampshire.
    Senator Shaheen. I withdrawal very much appreciate your 
getting back to me. Thank you. My time has expired.
    [The information referred to follows:]

    The New Hampshire Deployment Cycle Support Program (NH DCSP) has 
generated promising results by establishing a support system that 
starts as soon as deployments are identified and directly engaging the 
individual servicemember and his or her family in their community. The 
prevention-based approach allows for assessing risks and resiliencies, 
early action to mitigate those risks, and ongoing support throughout 
the deployment cycle.
    Compared to non-participating New Hampshire Army National Guard 
members, those accessing DCSP have shown to have been more favorably 
impacted across a number of areas: suicides, resiliency, mental health, 
family fitness, readiness to deploy, retention, unemployment, and 
homelessness. Among the prominent outcomes are:

        <bullet> Of 30 at risk of suicide (28 servicemembers and 2 
        spouses), all are using NH DCSP in active prevention with a 
        licensed clinician and support team
        <bullet> Of 77 servicemembers deemed ``at risk'' of not 
        deploying due to mental health issues, DCSP intervention 
        enabled more than half of those (43) to deploy
        <bullet> Over a 2-year period, the percentage of DCSP SMs 
        choosing to remain in service was four times higher

    Being a publicly- and privately-funded service delivery system that 
includes utilization of social service capacities in all 234 New 
Hampshire communities presents a useful model which warrants emulation. 
As fiscal limitations become more pronounced, the Department of Defense 
will have to weigh support of NH DCSP against other competing 
priorities.

    Senator Udall. Thank you, Senator Shaheen.
    Senator McCaskill is recognized.
    Senator McCaskill. Thank you, as always, for being here.
    I want to say, Secretary Gates, that I know the President 
has an awful lot of hard decisions to make this year. I think 
one of the hardest decisions he has is how he's going to 
replace you.
    Let me start with a topic that is very difficult, I think, 
for you all to get your arms around, and that is the incredibly 
serious allegations that have been made about sexual assault 
within the military. I'm not assuming that the allegations that 
are contained in a lawsuit that was recently filed are true. 
But if we take them as factual, then we have a real serious 
problem, that a woman in our military was raped by more than 
one member of the military, and the video shared around the 
unit of this rape that had occurred. A woman raped and who goes 
to the chaplain, and the chaplain tells her that she needed to 
go to church more, if she would attend church more.
    The rape kits are only kept for a year. I can't think of a 
police department in the country that would only hold onto a 
rape kit for a year.
    I just think that we have to look at this problem in a 
systemic way in terms of, do these women have a safe place they 
can go? Are we gathering the evidence quickly? Or, do we have 
experts available in terms of prosecuting these cases?
    But if someone rapes a woman and the evidence is there, and 
that person doesn't end up in prison, then we have failed. I 
know that you all feel probably as strongly about this as I do. 
But I'd like you to address this and tell me what, who I should 
deal with within the military structure to follow up and make 
sure that we make some obviously very important changes that 
are needed.
    Secretary Gates. Senator, it is a problem. It's a serious 
problem. I have zero tolerance for any kind of sexual assault, 
as do the leaders of all of the Services. I've worked with 
Admiral Mullen and the Service Chiefs and Service Secretaries 
to ensure that we're doing all we can to respond to sexual 
assaults.
    I've engaged, had a number of meetings myself with the 
senior leadership of DOD. I've focused on four areas--reducing 
the stigma associated with reporting, ensuring sufficient 
commander training, ensuring investigator training and 
resourcing, and ensuring trial counsel training and resourcing. 
We've made some progress. We've hired dozens more 
investigators, field instructors, and prosecutors, and lab 
examiners. We've spent almost $2 million over the past 2 years 
training our prosecutors better. Generally, the defendants go 
to somebody who's specialized in this kind of allegation or 
crime, and our prosecutors tend to be generalists, and so we 
don't do very well in the court, and so we've spent this money 
to try and make our prosecutors effective.
    More victims are stepping forward. We have had improvement, 
or, an increase in the number of court-martials. We've gone 
from about 30 percent of alleged violators being court-
martialed to about 52 percent now. So, at least it's headed in 
the right direction.
    We've expanded the Sexual Assault Response Coordinator and 
Victim Advocate Program ten-fold, from about 300 to 3,000. We 
now have an advocate at every base and installation around the 
world, including in Iraq and Afghanistan.
    I heard some suggestions and comments yesterday in the 
House hearing that I take very seriously and would like to 
pursue. One of them is ensuring the confidentiality of the 
relationship between the victim advocate and a victim, 
ensuring, or, providing a military lawyer for victims. 
Commanders have the authority to move somebody out of a unit. 
I'm worried by the press accounts that that hasn't happened, 
and so they're considering over on the House side legislation 
that would create this as a right for somebody who's been a 
victim so they can get out of a unit where the person who 
attacked them is in the same unit, and so on. So, I think there 
are some ideas that I heard in that hearing yesterday that I 
think are definitely worth pursuing. So, we do take it 
seriously.
    I've taken this seriously, frankly, because sexual assault 
is a problem on university campuses.
    Senator McCaskill. Right.
    Secretary Gates. Texas A&M, just like every big public 
university in America has a problem with this. One of the 
suggestions that I've made to our folks working on this is to 
get in touch with some of the universities that have the best 
prevention programs in the country, to see if we can learn 
something from these universities.
    So, I think we have a broad program to try and tackle this. 
But there is no question that there's more to do. I just invite 
Admiral Mullen to comment.
    Admiral Mullen. I testified over here in 2004. I was a vice 
chief of the Navy on this subject. There was a lot of work that 
needed to be done. It was very obvious in all the Services. I 
testified with my three Vice Service Chiefs. So, I agree with 
what the Secretary said in terms of our having made progress. 
It's not enough. It's completely intolerable. It has to be 
answered, I think, on the sort of the skill side, as well as 
the leadership side. I still hear too many anecdotal stories 
where it's ongoing, including in theater.
    With my wife, we visit VA hospitals, and females talk about 
trying, having come in the military, previously sexually 
assaulted before they came in, coming into the military, 
looking for a safe haven, and finding out that it isn't. It's 
almost, it's an intensity that certainly is not expected.
    This is, Senator, a vastly under-reported offense. So, we 
can see the statistics we have, but it's the ones that we don't 
have that we have to get after as well.
    Senator McCaskill. I guarantee that----
    Admiral Mullen. While we've made a lot of progress, there's 
a lot left to do.
    Senator McCaskill. I guarantee that it's more under-
reported in the military than it is even on a university campus 
or in the civilian population at large.
    I would just make one suggestion. Having spent many, many, 
many, many hours and days in courtrooms prosecuting sexual 
assault cases as a young prosecutor, I relied heavily on people 
who had specialized in prosecuting those crimes for my 
training. I relied heavily on the victim advocacy network that 
we had on, in terms of rape victims.
    In the civilian sector in any major city you're going to 
have a large group of people with great expertise. I know they 
would volunteer their time to help train and mentor people that 
you need to have this expertise, whether it's people at the 
emergency rooms that are gathering rape kits, having a victim 
advocate with the victim at the hospital when the rape kit, or 
the medical facility, where the rape kit is gathered, whether 
it's victim advocacy. I think you could find, and I've 
mentioned to General Quantock at Fort Leonard Wood that I would 
be happy to assist him getting in touch with this expertise 
that exists out there. I think that these people that do this, 
they aren't rape prosecutors and sexual assault prosecutors 
because they're making big money. They're very much true 
believers and want to help in this regard. The same thing is 
true of the victim advocacy organizations. I think this is one 
where you might be able to get a lot of free training and get 
you guys up to the point where the civilian population has 
gotten over the last 20 or 30 years.
    Thank you for your interest in this. I'll continue to 
follow up. I just want to let you know, two questions that I 
want to do for the record. One, obviously, is continuing, the 
problem we're having auditing the Pentagon. I cannot see how we 
can continue to give you what you ask for if we can't see the 
measurable progress in terms of auditing the Pentagon. I will 
have a series of questions about the financial management 
system that's in place.
    The last thing is pointing out for the record and questions 
for you for the record, that I know the GDP of Afghanistan is 
not large enough to pay for the military we're building. I 
think it's time that we be very, very honest with the American 
people that we're building the Afghan military for the nation. 
It costs what, $12 billion a year? Their GDP isn't even that 
high. So, once we're gone, I think we're going to be on the 
hook to help pay for this military for a long time--cheaper 
than our folks being there. But I think we need to begin to 
talk about the responsibility for paying for this military down 
the line. Because clearly Afghanistan can't afford the army 
we're building.
    Thank you.
    Secretary Gates. Senator, the contact person that you asked 
for is Dr. Clifford Stanley, who is the Under Secretary for 
Personnel and Readiness.
    Senator McCaskill. Thank you very much, Secretary Gates. 
Thank you all for being here.
    Senator Udall. Thank you, Senator McCaskill. Before Senator 
McCaskill leaves, I think we would both agree, Mr. Secretary, 
that you could take one of those difficult decisions off the 
President's desk if you would reenlist for a year or 2 more. 
But we'll leave that decision to you, as it properly should be.
    But I, too, want to thank both of you and Secretary Hale 
for your leadership, and for the courageous decisions that you 
continue to make, and for telling the Senate of the United 
States the truth as you see it.
    I did want to follow up on what Senator McCaskill also just 
mentioned about the GDP in Afghanistan. I think you both know 
that the NDAA for Fiscal Year 2011 required the President, 
through the offices of the Pentagon and DOS, to provide an 
economic strategy for Afghanistan. Could you speak to where we 
are with that process, and how important you think such a 
strategy would be to the overall success? Then, specifically, 
we have the Task Force for Business and Stability Operations, 
and what further role would you see for that particular task 
force?
    Secretary Gates. I'll take the second part of your question 
first.
    This task force is one of those things that creates 
incredible antibodies in the bureaucracy, because it doesn't 
fit anyplace, and, both in DOD and in DOS. I think it's an 
honest answer to say that without in effect the protection of 
the Secretary of Defense, this operation would not, could not 
be sustained.
    My belief is that Paul Brinkley and his team have made a 
huge contribution, both in Iraq and in Afghanistan. It was Paul 
that took the team to Afghanistan, of private sector 
geoscientists and others, and were able to do the estimates of 
the extraordinary mineral wealth that exists in Afghanistan, if 
only there were the security to exploit it. So, I think they've 
made a real contribution, and I hope they will continue to do 
that. But, I think it's fair to say that they face a lot of 
bureaucratic resistance in doing that.
    We talked earlier about the cost of the Afghan security 
forces. That's why I believe--and we've talked about it before 
in this hearing--that we essentially need to look at the size 
of their force as a surge as well, and that once they have a 
political settlement inside Afghanistan, and the Taliban is 
degraded in terms of their capabilities, the need for the 
Afghans to have a smaller military than they have now. Because 
we can't sustain $12.8 billion a year for very long.
    The economic strategy for Afghanistan is, and the task 
force, really go hand-in-hand. I think there's a significant 
effort at the Embassy in terms of trying to entice private 
sector individuals, as well as foreign investors, to invest in 
Afghanistan. But I have to admit that where the economic 
strategy for the country stands, I'm just not certain. I'll 
have to get back to you.
    [The information referred to follows:]

    An economic strategy is an essential component of the overall 
success of the Afghan civil-military campaign plan, by focusing efforts 
and resources in ways that maximize the effects of U.S. assistance in 
Afghanistan, while helping the Afghans become more self-sufficient. 
Such a strategy will build on the good work that the Director of the 
Task Force for Business and Stability Operations, Paul Brinkley, and 
his team have already started in key sectors and provide overall 
direction for developing Afghanistan's capacity for self-sustainment.
    The Department of Defense, the Department of State, and the U.S. 
Agency for International Development have participated in discussions, 
led by the National Security Staff, on the process by which the 
economic strategy report will be produced. The Department of State and 
the U.S. Agency for International Development will play a central role 
in the drafting process, and they will require support from Congress in 
carrying out the important roles they will have in implementing the 
strategy. The Department of Defense will also participate in the 
drafting of the report, as directed by the Executive Office of the 
President, and will pay particular attention to elements of economic 
strategy that support the counterinsurgency campaign in Afghanistan, 
promote economic stabilization, and enhance the establishment of 
sustainable institutions. We plan to complete this report, as required, 
in early July 2011.

    Senator Udall. Admiral Mullen, do you have any comments to 
add?
    Admiral Mullen. I would add only that, again, what Paul 
Brinkley and his team have done has truly been extraordinary in 
both countries, and under incredibly difficult circumstances in 
the countries. Although the circumstances back here may have 
been more difficult. So, how to sustain that is actually an 
open question. I think we do need to do that.
    Senator Udall. Yes.
    Admiral Mullen. That becomes the heart of, I think, sort 
of, the longer-term investment there, not just nationally, but 
internationally.
    Senator Udall. Yes. I, too, would like to add my 
compliments to Mr. Brinkley. I've heard many stories about how 
effective he is, how dedicated he is. So, I hope he understands 
that many of us here on the Hill, Mr. Secretary, know what 
accomplishments he's had.
    Secretary Gates. Well, and to Admiral Mullen's point about 
the conditions in which they have worked, several members of 
Brinkley's team, including Brinkley, have been wounded in 
attacks. So, they've been really out there on the front lines 
trying to work these problems.
    Senator Udall. Could I move to a question about the popular 
uprisings in the Middle East that we're seeing in Algeria, 
Bahrain, Yemen, Libya, and elsewhere? The people are coming out 
on the streets for a variety of reasons. How do you analyze 
those countries' leaders' ability to command their security 
services?
    Secretary Gates. Well, I think it varies from country to 
country. We talked at the beginning of the hearing about the 
discipline and the professionalism of the Egyptian military, 
and the restraint that they exercised under some fairly 
difficult circumstances. In Tunisia, the military also stood 
aside and, basically, did not defend Ben Ali. So, I think in 
each of these countries, though, the circumstances are going to 
be different.
    But the one thing that these armies seem to have in 
common--certainly in Egypt and in Tunisia--is a sense that they 
are a national institution, and even though somebody may have 
been in power for a long time, they see themselves as having a 
special relationship with their people. I know in my 
conversations with Minister Tantawi, we talked often about the 
relationship that the Egyptian army had with the Egyptian 
people, and that it would protect it's people because they were 
the people. He delivered, I think, in an exemplary fashion.
    Just to defend our intelligence folks a little bit, I think 
that they'd done a pretty good job of describing the rising 
temperature in a number of these countries, and the economic 
and social pressures that were building in a number of these 
countries, particularly related to the youth bulge, the 15- to 
29-year-olds who have educations and can't get a job. The petty 
corruption and nepotism makes life difficult for ordinary 
people. Clearly, Ben Ali was quite surprised by what happened 
in Tunisia. He didn't expect to, in 2 weeks to be pushed out of 
power. I think that President Mubarak was in the same 
situation.
    I think that the United States, there's been a lot of to-
ing and fro-ing about how we've handled this. But the truth is, 
I think the United States has pretty consistently, primarily 
privately but also publicly, encouraged these regimes for years 
to undertake political and economic reform because these 
pressures were building. Now they need to move on with it, and 
there is an urgency to this.
    Events move very quickly. We were talking at one point, if 
Mubarak had given his first speech when he declined to run for 
office again in September, when he changed the government, when 
he promised constitutional reform--if he had given that speech 
3 weeks before, he'd probably still be the president of Egypt. 
So, being able to latch onto the speed with which these events 
are moving, and have people who have seen, relatively, perceive 
a static situation in their countries, to appreciate that it's 
not static, that these pressures are building and they do need 
to get out in front of it, is, I think, what we've been trying 
to do.
    Senator Udall. Yes. Our advice and encouragement may hold 
more weight in this region and other regions of the world, as 
those leaders and those countries look at the example of Egypt 
and Tunisia, perhaps others.
    I have to wonder, Admiral Mullen, Secretary Gates, 
Secretary Hale, what the British intelligence services were 
generating in 1776. I think there are these tipping points that 
you talk about that can't be predicted.
    Thank you again for your service.
    Chairman Levin [presiding]. Thank you very much, Senator 
Udall.
    I just have one additional point and then we'll close it, 
because I know that you folks are running late on your 
schedule. That has to do with the size of the Afghanistan army.
    I want to give you some statistics about comparing the Iraq 
army and the Afghanistan army. I know the situations are 
different. But I still want to give you these statistics.
    Iraq has fewer people than Afghanistan. The Afghan 
population is about 30 million; Iraq about 27 million. But in 
Iraq you have 665,000 Iraqi security forces. In Afghanistan you 
have a goal, 378,000 would be the new target if it was 
accepted. So, it would still be about half the size of the 
Iraqi security force, with more people to secure.
    So, I would, first of all, I think, probably based on that, 
but some other things, not agree that the increase, the 
proposal for the increase would be more than they would need, 
even if over time there would be a lesser need for security. 
Hopefully there will be a lesser need and, obviously, if there 
is you could reduce it. But I wouldn't necessarily plan on 
there being a need for less than 378,000.
    Second, when you describe a surge force, in your mind, Mr. 
Secretary, I would hope that the surge force that you believe 
it should be looked at, as, would be a, that the surge force 
would be the 378, and not the current level. So that it would 
be the additional 70 that would be viewed as the surge, and not 
the current level, which I believe you spoke at, as a surge 
force.
    Secretary Gates. I would tell you, Mr. Chairman, the budget 
that we have submitted would accommodate the additional growth.
    Chairman Levin. All right. That's reassuring.
    Finally, I totally agree, both the need for an objective, 
an honest view about the cost. I think that is essential. 
That's what you pointed to, and rightly so. But I would just 
reiterate my hope that when you meet with your colleagues at a 
NATO ministerial that you really would drive home the fact that 
there's going to be an ongoing need, whether it's at 305,000 or 
whether or not it's at 378,000, that there really needs to be a 
sharing of that burden among our NATO allies. We cannot carry 
the 12 billion alone, I agree with you. But just they way they 
have not, it's been kind of spotty, frankly, in terms of NATO 
support, on the trainer side, not nearly still what we had 
hoped for. But, you're properly giving good grades to those who 
have come through. A lot of our NATO allies really have. Some 
of them have taken greater losses proportionally than we have, 
and we should recognize that.
    But, I really would hope that you would reinforce that they 
are going to need a significant military and a security force, 
that that is the ticket to success, as well as to an exit. Or, 
at least, a significantly reduced number of foreign troops 
which, in turn, is part of success. That they should come 
through financially with some ongoing expected support for the 
Afghanistan security forces. That would be my summary. Admiral 
Mullen?
    Admiral Mullen. Sir, just one quick comment. I've been 
working NATO pretty hard since 2004. I've never seen them more 
together than they have become over the last couple of years in 
this mission. Your comment earlier about, out of area--or, 
maybe it was Senator Lieberman. But I really do think success 
here bodes well for the future of NATO, and not succeeding does 
the opposite.
    Then, second, we've talked a lot about NATO here. Well, 
there are 49 countries total that are providing forces right 
now. So, there are an awful lot of non-NATO contributing 
countries who've made a difference as well, and are very 
focused on sustaining that for a period of time. Some of them 
very small numbers. I understand that. But, they've really made 
a difference, and we appreciate their contributions as well.
    Chairman Levin. Yes. I think, I made the mistake of saying 
NATO when I should have said NATO and other coalition forces. 
You're absolutely right. A number of those non-NATO countries 
have made contributions also way out of proportion to their 
population, way out of proportion to their financial ability. I 
think we should recognize that, and their losses sometimes have 
been out of proportion as well. We do appreciate that.
    We want to thank all of you for coming. Again, we're 
grateful for your service.
    We hope to see a lot more of you than you expect, Secretary 
Gates.
    Admiral Mullen, we always love to have you here, and know 
that you want have too many more visits. But again, we hope, 
know that all of them will be as helpful as this one was this 
morning.
    Secretary Hale, thank you.
    We'll stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

            HEALTH AND STATUS OF OUR DEFENSE INDUSTRIAL BASE

    1. Senator Levin. Admiral Mullen, in your posture statement, you 
expressed concern over the capabilities of our Defense Industrial Base 
(DIB) and the ability to produce and support advanced technology 
systems for future weapon systems. What is the Department of Defense 
(DOD) doing to mitigate these concerns?
    Admiral Mullen. In order for the defense industry to remain a 
source of strategic advantage well into the future, DOD and our Nation 
require a consistent, realistic, and long-term strategy for shaping the 
structure and capabilities of the DIB. For example, the fiscal year 
2012 budget request contains resources for two providers of the 
Littoral Combat Ship (LCS), a result enabled by establishing a 
competitive environment in which two competitors have offered 
affordable alternatives. Additionally, the Navy continues to pursue the 
work share agreement on the Virginia class submarine program. Looking 
ahead, the Deputy Secretary of Defense has directed the Under Secretary 
of Defense for Acquisition, Technology, and Logistics (USD(AT&L)) to 
undertake a sector-by-sector, tier-by-tier assessment of the DIB that 
will include space and shipbuilding. This effort will be accomplished 
in full partnership with the Military Services. The results of this 
analysis will allow us to improve our acquisition strategies and 
influence DOD's program and budget review, beginning with the fiscal 
year 2013 cycle. Once completed, DOD will continue to map and assess 
the industrial base on an ongoing basis. Additionally, as the DIB 
evolves through mergers and acquisitions, DOD participates in reviews 
conducted by antitrust agencies and in reviews conducted by the 
interagency Committee on Foreign Investment in the United States to 
mitigate consolidation and ownership concerns. The affects of the 
continuing resolution on program execution and the resultant impacts on 
defense sector production lines remain a concern. What these industrial 
bases need more than anything else is a plan and investment strategy 
with a certainty and predictability that has here to fore been very 
elusive.
    DOD is committed to being more forward leaning in its ongoing 
assessments of the industrial base--refocusing our efforts on our 
future needs, working much more closely with the Services to foster an 
integrated approach to the overall industrial base, and placing 
transparency and dialogue with industry at the forefront of our agenda.

                         ACQUISITION WORKFORCE

    2. Senator Levin. Secretary Gates, while much of the attention in 
the personnel sector has been rightfully focused on deployed 
warfighters and their families, the success of our military largely 
depends upon the effectiveness and reliability of high-technology 
weapon systems that give the U.S. military its premier technological 
advantage. Fundamental to developing and fielding these weapons systems 
is a community of highly trained science and technology (S&T) and 
acquisition personnel in DOD. What will you do to ensure that DOD can 
continue to attract and retain a highly skilled S&T and acquisition 
workforce--especially in today's competitive environment where at the 
national level there is a limited pool of skilled scientists and 
engineers facing competition from industry, academia, and other Federal 
agencies?
    Secretary Gates. DOD continues its initiative to grow the 
acquisition workforce through fiscal year 2015. Significant emphasis 
and progress has been made hiring and supporting the growth of the 
technical workforce, but there is much more work to do in this area. 
For example, the Science, Mathematics, and Research for Transformation 
Scholarship-for-Service program supported 900 students with majors in 
DOD relevant science and engineering disciplines. Three hundred of 
these students transitioned into the DOD workforce. Another 230 are 
expected to transition into the workforce in 2011.

                             AFGHAN TALIBAN

    3. Senator Levin. Secretary Gates, in a recent interview, General 
Petraeus discussed growing friction between local Taliban fighters 
living in Afghanistan and the Afghan Taliban leadership, who are 
phoning in orders that the local insurgents should continue to fight 
against Afghan and coalition forces through the winter, while the 
Afghan leadership remains in the safety of sanctuaries in Quetta and 
elsewhere in Pakistan. He said we are seeing a degree of discord among 
Afghan Taliban leaders and among the lower-level fighters that we've 
not seen in the past. Do you agree with General Petraeus' assessment 
that there is friction and discord between local Taliban fighters in 
Afghanistan and the Taliban leadership in Quetta, Pakistan, as that 
leadership phones in orders for the lower-level fighters to keep up the 
fight through the winter?
    Secretary Gates. I agree there is tension between Taliban leaders 
in Pakistan and the fighters and commanders who remain in Afghanistan. 
I do not believe current frustration levels are sufficient to degrade 
insurgent capacity or create exploitable fissures. For example, 
increased violence levels this winter indicate that this tension did 
not undermine the insurgents' desire or ability to conduct attacks.

    4. Senator Levin. Secretary Gates, is this level of friction 
something that we've not seen in the past?
    Secretary Gates. Every winter since 2002, DOD observed tension 
between Taliban leaders in Pakistan and the fighters and commanders who 
remain in Afghanistan. This also occurred during the 1980s mujahedeen 
resistance against the Soviets. The tone of reporting this winter 
indicates a heightened level of frustration; however, the multi-faceted 
nature of this issue makes it difficult to make a qualitative 
comparison to previous years.

    5. Senator Levin. Secretary Gates, are we seeing this friction 
contributing to a slow increase in the number of lower-level insurgents 
seeking to reintegrate into Afghan society?
    Secretary Gates. I do not see evidence that tension with Quetta-
based leaders is eroding local insurgents' motivation to fight or 
increasing lower-level insurgents' willingness to reintegrate. Most 
insurgents are locals fighting for local issues and not necessarily in 
support of Taliban senior leadership; therefore, they are likely to 
sustain their efforts regardless of any frustration with Quetta-based 
leaders. Emergence of a reintegration program that addresses local 
concerns, provides protection for fighters and their families, and 
delivers on promises will make reintegration a more viable option.

                    GLOBAL SECURITY CONTINGENCY FUND

    6. Senator Levin. Secretary Gates and Admiral Mullen, in Admiral 
Mullen's opening statement he made reference to a proposal for a pooled 
Department of State (DOS)-DOD security sector assistance initiative, 
called the Global Security Contingency Fund (GSCF). At the hearing, he 
indicated this initiative would include $50 million from DOS and an 
authority for DOD to transfer up to $450 million into this initiative. 
Are you confident that DOS is committed to making this initiative work 
jointly beyond the tenures of both of you and Secretary Clinton?
    Secretary Gates and Admiral Mullen. Yes. Although I cannot speak 
for our counterparts at DOS or future leadership of either department, 
DOD and DOS are working collaboratively on the development of the GSCF. 
This pilot program is designed to demonstrate the ability of both 
Departments to respond to emerging requirements rapidly (within the 
budget cycle) and in a collaborative manner. The benefit of this 
limited pilot is that it allows future senior leaders to evaluate the 
GSCF's effectiveness and determine if it should be extended beyond its 
initial 3-year term.

    7. Senator Levin. Secretary Gates and Admiral Mullen, do either of 
you have concerns that the joint arrangement will prove too unwieldy?
    Secretary Gates and Admiral Mullen. No. I am aware of this concern 
and would work to address it with the processes and procedures we 
establish. We are applying lessons learned from Section 1206 and other 
programs in developing the notional processes and procedures. At this 
point, we plan to have the GSCF be administered by a small combined 
DOS-DOD fund staff that will provide joint program formulation, 
decisionmaking, and implementation. That staff would bring in relevant 
staff augmentation depending on the expertise needed to meet each 
requirement. Throughout the pilot, I expect the GSCF to undergo 
continual process improvements as it matures.

    8. Senator Levin. Secretary Gates and Admiral Mullen, do either of 
you have any concern that this type of initiative is too much of a 
militarization of foreign policy?
    Secretary Gates and Admiral Mullen. Not at all. The GSCF is 
designed to enable DOD and DOS to respond to a variety of emerging 
global challenges in a collaborative manner. Program formulation for 
military and other security forces would be joint, while programs for 
justice sector, rule of law, and stabilization assistance would be 
formulated by the Secretary of State in consultation with the Secretary 
of Defense. This ensures that the appropriate Departments retain 
primary responsibility for missions within their respective core 
competencies, while benefiting from the cooperation the GSCF structure 
fosters. This is a force-multiplying authority that maintains DOS 
primacy in non-military missions.

    9. Senator Levin. Secretary Gates and Admiral Mullen, does the 
proposal envision that funds transferred into GSCF would be subject to 
the standard reprogramming processes?
    Secretary Gates. Not at all. The GSCF is designed to enable DOS and 
DOD to respond to a variety of emerging global challenges in a 
collaborative manner. Program formulation for military and other 
security forces would be joint, while programs for justice sector, rule 
of law, and stabilization assistance would be formulated by the 
Secretary of State in consultation with the Secretary of Defense. This 
ensures that the appropriate Departments retain primary responsibility 
for missions within their respective core competencies, while 
benefiting from the cooperation the GSCF structure fosters. This is a 
force-multiplying authority that maintains DOS primacy in non-military 
missions.
    Admiral Mullen. The reprogramming of funds into the GSCF would be 
conducted in accordance with the legislative proposal that states that 
this authority to transfer is in addition to any other transfer 
authority available to DOS and DOD. Jointly, the Secretaries of State 
and Defense would provide a quarterly report to the specified 
congressional committees on obligations of funds or transfers into the 
Fund made during the preceding quarter, to include the Committee on 
Armed Services, the Committee on Foreign Affairs, and the Committee on 
Appropriations of the House of Representatives; and the Committee on 
Armed Services, the Committee on Foreign Relations, and the Committee 
on Appropriations of the Senate.

                MISSILE DEFENSE COOPERATION WITH RUSSIA

    10. Senator Levin. Secretary Gates and Admiral Mullen, you each 
lead a bilateral channel of discussion with your respective Russian 
counterparts in which you are exploring the possibilities for 
cooperation on missile defense. These discussions are consistent with 
similar North Atlantic Treaty Organization (NATO) efforts. Please 
describe why you believe missile defense cooperation with Russia is in 
our interest and what kinds of cooperation you believe are both 
desirable and possible.
    Secretary Gates. The United States seeks to responsibly sustain a 
stable relationship with the Russian Federation as the pace of 
military-technical innovation increases and the global security 
environment evolves. DOD also hopes to enlist Russia's help in 
addressing emerging security challenges from regional actors seeking 
illicit capabilities.
    DOD has made clear that the system it intends to pursue with Russia 
will not be a ``dual-key'' system, and it will not in any way limit 
U.S. or NATO missile defense capabilities. The U.S. concept for missile 
defense cooperation stems from the conviction that NATO must be 
responsible for defense of NATO territory and that Russia should be 
responsible for defense of Russian territory. The United States and 
Russia would operate their missile defense systems independently, but 
cooperatively, including sharing sensor data that may improve the 
ability of both systems to defeat missile attacks. I believe that 
Russian radars could provide data that would improve the capabilities 
of U.S. and NATO missile defense systems, and that U.S. sensors could 
improve the capability of Russia's missile defense systems. Further 
analysis would help to understand how U.S. and Russian interceptor 
systems could be mutually supportive in defending our respective 
territories.
    It is important to note that this process will take time, but I 
believe that meaningful cooperation is possible--cooperation that can 
strengthen the security of the United States and our NATO Allies as 
well as Russia.
    Admiral Mullen. The Military Cooperation Working Group is the 
military-to-military line of communication between me and the Russian 
Chief of Defense. The Missile Defense Sub-Group is the military-to-
military forum that enables bilateral discussion of missile defense 
cooperation activities, such as joint exercises. These discussions 
correspond to the ones we conduct at the policy and strategic levels, 
as well as in multinational NATO-Russia forums. Although attention is 
presently focused on the European region, Russia and the United States 
share concerns about global ballistic missile threats, such as those in 
Northeast Asia. Our bilateral engagement on missile defense issues is 
intended to shape awareness of these threats and develop cooperative 
long-term responses to them. We have a clear directive to reset our 
bilateral relationship with Russia. While missile defense cooperation 
between Russia and NATO continues to develop, there will remain a clear 
need for the United States and Russia to maintain bilateral dialog on 
critical issues and concerns unique to our two countries.

                AFGHANISTAN COUNTERTERRORISM OPERATIONS

    11. Senator Levin. Secretary Gates, according to published reports, 
the tempo of counterterrorism operations in Afghanistan by U.S. and 
Afghan Special Operations Forces (SOF) has increased dramatically in 
the last 6 months and demonstrated significant results. Lieutenant 
General Rodriguez stated recently that the Afghan people are playing an 
increasingly important role in the success of these operations by 
``helping to provide significantly more tips because they see Afghan 
Security Forces out among them more than they ever had because of the 
increase in the number [of Afghan Forces].'' Reportedly, 85 percent of 
counterterrorism operations take place without a shot being fired.
    Do you agree with Lieutenant General Rodriguez that the increased 
presence of Afghan Security Forces has resulted in better intelligence 
because the population is more likely to come forward with information?
    Secretary Gates. Counterterrorism network targeting operations 
increased in the past 6 months, complementing the additional U.S. and 
partner nation forces deployed to Afghanistan during this period. 
Almost all of these operations are conducted jointly with Afghan 
National Security Forces (ANSF). I agree with Lieutenant General 
Rodriguez that partnered operations with the ANSF in all 
counterinsurgency activities result in increased reporting by the local 
population and better intelligence.

    12. Senator Levin. Secretary Gates, what has been the impact of 
this intelligence on the success of counterterrorism operations?
    Secretary Gates. The increased trust and confidence the Afghan 
people have in the ANSFs, especially in the Afghan National Army (ANA) 
and the Afghan Special Forces, has had a significant positive impact on 
the success of counterterrorism (CT) network targeting operations. 
Afghan civilians feel safer and are more likely to provide information 
about insurgent activities when they witness a competent and impartial 
ANSF playing a prominent role in protecting the population and 
degrading the insurgency. This cooperation enables a higher degree of 
success in CT operations, greater precision during the execution of 
these operations, and an increased likelihood of receiving information 
that can be used to plan future operations.

    13. Senator Levin. Secretary Gates, are news reports accurate that 
85 percent of SOF's counterterrorism operations are conducted 
successfully without a shot being fired?
    Secretary Gates. Yes. During the period from February 1, 2010 to 
January 31, 2011, 85 percent of counterterrorism network targeting 
operations were conducted without shots being fired. The quality of 
intelligence that shapes these operations, the careful and deliberate 
planning that precedes each operation, and the unmatched skill of our 
operators with their Afghan partners allows us to successfully capture 
many terrorists without the use of force.

           CONTINUED PRESENCE OF U.S. MILITARY FORCES IN IRAQ

    14. Senator Levin. Admiral Mullen, in your personal and 
professional military view, and from a purely military perspective, if 
the Government of Iraq requested the continued presence of U.S. 
military forces, including combat forces, would you recommend the 
approval of such a request?
    Admiral Mullen. I cannot answer that question without knowing 
exactly what type of presence or mission the Iraqis would like us to 
do. Then, I would have to consider variables like risk to our troops, 
our enduring national interests, our long-term strategic partnership 
with Iraq, our worldwide military commitments, and Iraq's ability to do 
that mission on their own before making a recommendation to the 
President. In the meantime, we remain focused on executing a 
responsible drawdown of our military forces according to our security 
agreement with the Government of Iraq.

                 VIOLENCE AGAINST RELIGIOUS MINORITIES

    15. Senator Levin. Secretary Gates, during my trip to Iraq in 
January, I met with leaders of Iraq's Christian religious minorities 
who expressed their desire to preserve the Christian communities within 
Iraq and the need for greater security so Christians can stay in their 
communities without fearing for their lives. What is your assessment of 
the Iraqi Government's efforts to ensure the safety of its many 
religious minorities?
    Secretary Gates. The Iraqi Government took positive steps to 
protect religious minorities more effectively, particularly since the 
October 31, 2010 bombing of Our Lady of Salvation Church in Baghdad. 
The Iraqi Government increased security at virtually all churches and 
police patrols in minority-dominated areas. The Iraqi police force 
arrested 12 individuals suspected of carrying out the attack on Our 
Lady of Salvation Church, including an al Qaeda operative. The Iraqi 
security forces (ISF) have endeavored to fortify minority religious 
sites and increase check points in minority neighborhoods. This must be 
done with the concurrence of minority populations because some of these 
communities believe increased security may serve to identify their 
facilities as targets. U.S. Forces-Iraq continues to advise, train, 
assist, and equip the ISF to enable them to conduct more effective 
security operations against violent extremist organizations seeking to 
attack minority religious communities. Al Qaeda in Iraq remains the 
most enduring threat to Christians and other minorities because it 
characterizes churches as legitimate targets of jihadist efforts to rid 
the region of western influence, ideology, and theology.

    16. Senator Levin. Secretary Gates, in your view, what more should 
they be doing to improve that protection?
    Secretary Gates. In the process of establishing a professional, 
reliable security service, the Iraqi Government should also improve 
Iraqi rule-of-law institutions, and particularly ensure that the 
property rights of Christians and other minorities are protected by 
these institutions. The Iraqi Government must also continue to 
modernize and professionalize the ISF to ensure that they protect all 
Iraqis impartially. Examples include recruiting and training more 
minority police, and reliably implementing the process of restoring 
property rights to Christians, as well as other minorities, whose lands 
were illegally confiscated when they fled their traditional homelands 
due to sectarian and other anti-minority violence. Since many 
minorities choose resettlement within Iraq, other impediments to 
protection and reintegration include lack of adequate educational and 
economic opportunities in areas to which minorities are moving and 
congregating (such as the Ninewa Plain). These are longer-term 
challenges that supplement, rather than replace, improved police 
interaction with minorities and the equitable administration of 
justice.

    17. Senator Levin. Secretary Gates, are the Iraqis recruiting and 
training any police units that are comprised exclusively of religious 
minorities and, if so, are they deployed exclusively to the areas where 
their respective communities reside?
    Secretary Gates. Iraqis are recruiting and training police cadets 
from the minority communities, which improves police visibility within 
those communities and builds trust between police and minority Iraqis. 
However, as with most national police forces, Iraq does not create 
police units segregated by religious affiliation, which could imply 
uneven standards, complicate overall force integration, and limit the 
ability to deploy such units or individuals to where they may be needed 
to address security concerns elsewhere in Iraq. Matching ISF 
individuals or units to minority-dominated areas is further complicated 
by the fact that minority demographics are in flux and groups within, 
for example, the Christian community, are subdivided among numerous 
denominations (Assyrian, Armenian Orthodox, Chaldean, Jacobite, Arab, 
and so forth) which do not necessarily share objectives.

                         SPACE SYSTEMS FUNDING

    18. Senator Levin. Secretary Gates, the Air Force has proposed to 
incrementally fund the acquisition of two large and critical satellite 
programs, using multi-year, fixed-prices contracting authority that 
will require advanced appropriations. In your view, why is this 
authority needed for these two satellite programs?
    Secretary Gates. DOD requires authority to use advance 
appropriations to fully fund the block buy of Advanced Extremely High 
Frequency (AEHF) satellites 5 and 6 during fiscal year 2012. After 
careful review, DOD determined multiyear procurement authorization is 
not required for this acquisition. For AEHF 5 and 6, the Air Force is 
procuring two satellites, in a block buy, in a single year. The Air 
Force worked closely with the DOD Cost Assessment and Program 
Evaluation (CAPE) office and, based on CAPE independent estimates, 
expects to realize unit cost savings from the bulk buy of piece parts, 
electronic components, and sub assemblies, as well as from a more 
efficient assembly and test process. In order to achieve savings, DOD 
needs to order these satellites in blocks of two. However, fully 
funding both satellites in a single year is not practically achievable 
in today's budget environment. Therefore, I propose a modified approach 
whereby DOD fully funds the satellite block buy over a fixed number of 
years using advance appropriations.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                  REPEAL OF ``DON'T ASK, DON'T TELL''

    19. Senator Akaka. Secretary Gates, on December 22, 2010, the 
President signed legislation that will lead to the eventual repeal of 
``Don't Ask, Don't Tell''. The Services were directed to provide a plan 
by February 4, 2011, indicating how they will prepare their respective 
Services for the implementation of the repeal. In your opinion, what 
are the biggest challenges the Services face as they prepare for this 
change?
    Secretary Gates. The biggest challenge will be training those 
members who are not co-located with their units or who serve 
intermittently. This is why DOD is moving forward in an extremely 
deliberate and purposeful manner to develop and deploy our training and 
education.

    20. Senator Akaka. Secretary Gates, how are these challenges being 
addressed, and what is the current timeline for certification as you 
see it?
    Secretary Gates. There is no set date for certification. I am 
working closely with the Services to develop multiple ways to train the 
Force. Among various approaches, DOD identified that the most preferred 
approach is with leadership driven face-to-face training. When that is 
not feasible, computer-based training will also be available.
    I continue to work purposefully and responsibly toward 
certification.

                        SOCIAL SECURITY NUMBERS

    21. Senator Akaka. Secretary Gates, on November 5, 2010, the Under 
Secretary for Defense for Personnel and Readiness, Mr. Clifford 
Stanley, sent a Memorandum For Record (MFR) titled, ``Updated Plan for 
the Removal of Social Security Numbers (SSN) from DOD Identification 
(ID) Cards.'' The MFR states that SSNs may not be removed as previously 
indicated in 2009 based on concerns raised by DOD stakeholders. What is 
DOD's position on the removal of SSNs from ID cards issued to retired 
personnel, dependents, and those currently serving?
    Secretary Gates. DOD recognizes the ongoing risks and dangers 
associated with identity theft and the need to protect Personally 
Identifiable Information, such as the SSN.
    In 2007, DOD implemented a three-phase plan to remove SSNs from DOD 
ID Cards. In a November 5, 2010 Under Secretary of Defense for 
Personnel and Readiness Memorandum, DOD updated its implementation 
plan. This was due to concern over interruptions to benefits provided 
to servicemembers, retirees and their families, and it was due to 
adverse impacts to DOD contingency operations. This updated 
implementation plan is, as follows:

        <bullet> Phase One--The act of removing the printed dependent 
        SSNs from all Dependent ID Cards continues, as initiated in 
        2008 under the original plan. This phase will be completed by 
        the end of 2012. The standard Dependent ID card life cycle 
        requires replacement every 4 years.
        <bullet> Phase Two--The act of removing the SSN from all ID 
        cards and replacing it with a DOD ID Number will be implemented 
        in June 2011.
        <bullet> Phase Three--The act of removing all SSNs from 
        barcodes on the ID cards remains on schedule, with 
        implementation expected in 2012.

    22. Senator Akaka. Secretary Gates, what are the leading 
alternative identifiers which are being considered to replace SSNs?
    Secretary Gates. The SSN will be replaced on DOD ID cards by the 
DOD ID Number. The DOD ID number is a unique, 10-digit identifier 
created upon initial enrollment of the individual into the Defense 
Eligibility Enrollment Reporting System database. The DOD ID Number is 
permanently fixed--it will not change over time or be contingent on 
one's role (e.g. dependent, civilian).
    All individuals eligible to receive DOD benefits--such as 
commissary, exchange, Morale, Welfare and Recreation or TRICARE 
purchased care--will also receive a DOD Benefits Number. The DOD 
Benefits number is an 11-digit number. The first nine digits are common 
to the sponsor. The last two digits indicate the card holder's 
relationship to the sponsor. The DOD Benefits Number has been agreed to 
by the TRICARE Management Activity (TMA) as an acceptable substitute 
for the SSN for management of benefits with no interruption of 
services. Similar to the DOD ID number, the DOD Benefits Number will 
not change over time.

                           LITERACY EDUCATION

    23. Senator Akaka. Secretary Gates, with a 14 percent literacy rate 
among new Afghan recruits, every Afghan soldier and police recruit now 
undertakes mandatory literacy education. By October 2011, 128,000 
Afghan soldiers are projected to be literate to at least the first-
grade level, further enabling security forces to become self-
sustaining. What are the overall goals of this program and how is it 
progressing against the baseline plan?
    Secretary Gates. In parallel with DOD's instruction programs for 
ANSF recruits is a drive to educate the ``legacy illiterate'' (i.e., 
those serving in the ANA who have not had the benefit of literacy 
training). The goal of the literacy program is to bring all ANSF 
personnel up to a basic level of literacy (third grade-level). The 
program employs 1,800 teachers and provides new recruits with 64 hours 
of basic literacy training and an additional 248 hours after they 
complete basic training. As of February 2011, approximately 66,600 ANSF 
personnel have received literacy training; approximately 34,950 ANSF 
personnel have completed first grade-level literacy training, which is 
on track toward achieving the goal of 100,000 personnel completing 
first grade-level literacy training by October 2011; and approximately 
10,187 ANSF personnel have completed third grade-level literacy 
training, with the goal of having 14,028 personnel complete third 
grade-level training by October 2011.
    Literacy remains a major challenge to the development of the ANSF, 
as about 86 percent of new recruits entering the force are totally 
illiterate. NATO Training Mission-Afghanistan (NTM-A) instituted a 
mandatory literacy program in April 2010, and continues to work with 
the Afghan Ministry of Defense and Ministry of Interior to increase the 
literacy of the force.

    24. Senator Akaka. Secretary Gates, please describe the importance 
of this program to the future ability of the Afghan Government to 
succeed.
    Secretary Gates. Literacy education is a key component in the 
development of the Afghanistan National Security Forces (ANSF). Basic 
literacy skills allow Afghan military and police personnel to perform 
their duties, including reading maps, writing reports, and calling for 
military support in the field. Illiteracy can cost lives in combat and 
renders the police ineffective in providing basic public security 
functions. Literacy training is also a major incentive for enlistment 
and retention and increases the comparative advantage that the ANSF has 
over the Taliban in terms of drawing new personnel. Literacy also 
contributes to the overall ability of the Afghan government to succeed 
by strengthening the professionalism of the ANSF and instituting 
longer-term capacity for self-sustainment.

                          ARMY TROOP REDUCTION

    25. Senator Akaka. Secretary Gates, in January, you announced that 
in fiscal year 2015, the Army would decrease its permanently authorized 
end strength by 27,000 soldiers. In addition, the Army will also shed 
22,000 positions by fiscal year 2013, reducing the temporary surge 
numbers. This total reduction of 49,000 is very significant. How will 
this reduction affect the ability of the force to meet future demands?
    Secretary Gates. Two factors will determine how the end-strength 
reduction will impact on the Army's ability to meet future demands: the 
future demand level and the Army's end-strength reduction 
implementation plan. With regard to the demand level, I cannot predict 
with certainty when and where contingencies may occur that will require 
Army forces. I do believe that Army forces will continue to be required 
for a variety of missions, but that near-term demands will not reach 
the high level of commitment seen in recent years. As long as this 
assumption is valid, the Army will be able to implement the planned 
end-strength reductions while meeting demands and improving readiness 
and strategic depth. The Army is continuing to ensure accomplishment of 
its assigned missions, improve operational readiness to meet future 
demands and care for the well-being of its soldiers and their families.

    26. Senator Akaka. Secretary Gates, will this result in a potential 
realignment of combat forces to better support such demands?
    Secretary Gates. The Army is developing options to implement 
directed manpower reductions, while satisfying near-term demands and 
increasing readiness for unforeseen contingencies. The Army will plan 
and implement its end-strength reduction and any associated structure 
adjustments in a deliberate fashion with the intent of achieving a 
balanced and capable force. The Army is continuing to ensure 
accomplishment of its assigned missions, improve operational readiness 
to meet future demands and care for the well-being of its soldiers and 
their families.

    27. Senator Akaka. Secretary Gates, how will it affect our reliance 
on Guard and Reserve Forces?
    Secretary Gates. The Army depends on access to its Reserve 
component to accomplish its assigned missions. The planned Army Active 
component end-strength reductions will have modest impacts on Army 
Reserve component forces needed to support current and anticipated 
operational demand. The Army is developing options to implement the 
reductions, while satisfying near-term demands and increasing its 
readiness for unforeseen contingencies. The Army is continuing to 
ensure accomplishment of its assigned missions, improve operational 
readiness to meet future demands and care for the well-being of its 
soldiers and their families.

                    READINESS IN THE PACIFIC REGION

    28. Senator Akaka. Secretary Gates, the North Korean shelling of 
Yeonpyeong Island, the sinking of the Cheonan, and China's growing 
military capability continue to remind us of the importance of our 
military engagement in the Asia-Pacific region. Given the many demands 
on the defense budget and the recently announced reductions, how does 
the fiscal year 2012 budget impact our military readiness in the 
Pacific region?
    Secretary Gates. America's forward presence in the region played a 
key role in ensuring decades of stability in Asia. The United States 
continues to be globally postured in order to secure the homeland and 
its citizens from direct attack and to advance American interests 
around the world. While there are many demands on U.S. forces in the 
Asia Pacific, the fiscal year 2012 defense budget ensures that DOD 
remains prepared to meet the challenges and fulfill security 
commitments in the region.
    The fiscal year 2012 budget makes a number of investments that 
enhance the ability of U.S. forces to project power into the Asia-
Pacific region and elsewhere. Chief among these are the commencement of 
a new long-range bomber program and increased procurement of 
conventional cruise missiles across the Future Years Defense Program 
(FYDP).
    At the same time, DOD has worked, and will continue to work, with 
U.S. allies and partners to maintain peace and ensure stability 
throughout Asia. With the fiscal year 2012 budget, DOD intends to 
enhance its forward military presence in the Pacific, invest in base 
resiliency to protect critical infrastructure, and develop new concepts 
of operation for how the United States will project power when 
challenged with emerging capabilities in the future.
    DOD will continue working with Japan to implement the bilateral 
Realignment Roadmap agreement and relocate 8,000 marines from Okinawa 
to Guam in order to offer strategic flexibility, enhance contingency 
response capabilities, and improve peacetime engagement. DOD requested 
$181 million in the fiscal year 2012 budget to support military 
construction to meet the requirements for the Marine Corps relocation 
to Guam.
    DOD will enhance the readiness of our forces in Korea with Tour 
Normalization. This initiative will further the long-term commitment to 
provide greater stability for forward stationed servicemembers and 
their families. For fiscal year 2012, the Army allocated $106 million 
for Tour Normalization, while the other services have not identified 
their allocation amount. DOD will also continue transitioning wartime 
operational control to South Korea by December 2015.
    Finally, DOD also intends to exercise regularly with our allies and 
partners. Examples of these exercises include the annual Ulchi Freedom 
Guardian and Foal Eagle/Key Resolve exercises in the Republic of Korea, 
the Keen Edge/Keen Sword and Annualex exercises in Japan, Talisman 
Sabre with Australia, and the U.S.-Thailand-hosted Cobra Gold which 
attracts partners from across the region. The United States continues 
to be engaged throughout the region. The earthquake, tsunami, and 
nuclear crisis response efforts in Japan are the latest examples, once 
again demonstrating the value of being able to work in close 
partnership in times of critical need.

                FUTURE ISSUES FOR SECRETARIES OF DEFENSE

    29. Senator Akaka. Secretary Gates, you mentioned that this would 
most likely be your last defense budget hearing before this committee. 
If you were to compile a list of items that ``keep you up at night'', 
what would this list look like? In other words, from your perspective 
as our 22nd Secretary of Defense, what should your successor be told to 
watch out for?
    Secretary Gates. As I previously testified to the House Armed 
Services Committee, thinking about the future, two issues that worry me 
are the defense budget and jurisdictional lines in Congress.
    First, I see a growing disconnect between the missions given to the 
military and the discussion of the defense budget. It is true that, as 
the biggest part of the discretionary Federal budget, DOD cannot 
presume to exempt itself from the scrutiny and pressure faced by the 
rest of our government. It is imperative to eliminate wasteful, 
excessive, and unneeded spending.
    Nevertheless, drastic and ill-conceived cuts to the overall defense 
budget would be operationally catastrophic, and would have little 
impact on the Nation's $1.6 trillion deficit. DOD needs a budget 
baseline with a steady, sustainable, and predictable rate of growth 
that avoids extreme peaks and valleys in defense spending that can be 
enormously harmful to readiness, planning, and financial management. 
Only then can DOD have the right balance between winning the wars of 
today and being prepared for likely future threats. We shrink from our 
global security responsibilities at our peril, as retrenchment brought 
about by short-sighted cuts could well lead to costlier and more tragic 
consequences later--indeed as they always have in the past. The best 
way to support our military personnel is to ensure that they have the 
tools and training they need to prevail against present and future 
adversaries.
    Second, I worry that the increasing integration of national 
security policy and execution in the executive branch are not 
paralleled by the legislative branch of the government. Jurisdictional 
lines in Congress prevent congressional leadership from seeing the 
overall national security picture that the executive branch sees, and 
these lines risk splintering coherent whole-of-government efforts into 
multiple lines of authority and disparate agency budget accounts. It is 
my hope that efforts to achieve needed integration in Congress can 
reinforce our resolve on critical national security policies.
    Third, I am concerned that DOS and the U.S. Agency for 
International Development (USAID) do not have the resources necessary 
to contribute to a more integrated, coherent, and successful civil-
military strategy. Ensuring support for whole-of-government efforts, 
especially in Iraq and Afghanistan, is critical to creating and 
maintaining secure environments in key regions of the world.

               LANGUAGE SKILLS AND CULTURAL UNDERSTANDING

    30. Senator Akaka. Secretary Gates, I have long-supported efforts 
to improve the language skills and cultural understanding of our 
military and Federal workforce. The United States must have the 
language skills and cultural understanding to successfully engage in 
this world. Please discuss how DOD's fiscal year 2012 budget ensures 
that our military and civilian workers have the language skills 
necessary to meet its mission.
    Secretary Gates. Baseline funding of $792 million is projected in 
fiscal year 2012 to support language and culture instruction to achieve 
higher proficiencies.
    Programs include the following: increasing pre-accession training, 
education and immersion opportunities at the Service Academies and 
Reserve Officer Training Corps (ROTC); continuing the ROTC Skill 
Proficiency Bonus; providing pre-deployment training for general 
purpose forces; continuing Language Training Detachments to provide and 
sustain commanders' needs for language; regional and cultural training 
for the general purpose forces; continuing support to the Afghanistan/
Pakistan Hands program; and enhancing English language training for 
partner nation personnel.
    DOD is moving ahead to develop strategic direction, to create 
effective policies and to refine processes for generating language, 
regional and cultural capabilities.

                            ADDICTION ISSUES

    31. Senator Akaka. Admiral Mullen, the Army Inspector General (IG) 
report released in January indicates that between 25 and 35 percent of 
patients assigned to special wounded-care companies or battalions are 
addicted to or dependent on drugs, particularly prescription narcotic 
pain relievers. What steps are being taken to address the issue of 
potential overmedication or addiction within Wounded Transition Units 
(WTU)?
    Admiral Mullen. After receiving multiple briefings from scientists 
and line leaders with a growing concern about drugs, I have come to the 
conclusion that reducing the use of illicit drugs, unprescribed 
pharmaceuticals, and excess alcohol requires an integrated approach. 
Drug abuse is a systems problem that requires a coordinated medical and 
line leadership approach.
    The Army Surgeon General LTG Eric B. Schoomaker established an 
aggressive program to minimize dependence on narcotics to treat pain 
through implementation of the recommendations of the Pain Management 
Task Force. The Task Force membership included a variety of medical 
specialties and disciplines from the Army, as well as representatives 
from the Navy, Air Force, TMA, and Veterans Health Administration 
(VHA). Between October 2009 and January 2010 this task force conducted 
28 site visits at Army, Navy, and Air Force Medical Centers, Hospitals 
and Health Clinics, as well as VHA and civilian hospitals. During site 
visits, leadership and staff were asked to assess pain management 
capabilities, strengths, weaknesses, and best practices at their 
respective facilities.
    The task force developed 109 recommendations that lead to a 
comprehensive pain management strategy that utilizes state-of-the-art/
science modalities and technologies, and provides optimal quality of 
life for soldiers with acute and chronic pain. Medical providers are 
now informed and encouraged to utilize alternative means of pain 
management wherever possible. Such techniques include development and 
integration into clinical practice of a common Pain Assessment Tool, 
establishing acute pain medicine services across the continuum of care, 
implementing a drug abuse assessment strategy in the primary care 
setting, providing appropriate pain management and clinical pharmacy 
oversight in Warrior Transition Units (WTU), incorporation of pain 
related questions into the WTU Satisfaction Survey, and establishing a 
tiered pain management approach leveraging techniques such as 
osteopathic manipulation, acupuncture, and yoga.
    U.S. Army Medical Command (MEDCOM) has established a number of 
policies that also address this issue, including:

    1.  OTSG/MEDCOM Policy 09-022, WTU High Risk Medication Review and 
Sole Provider Program. This has proven to be a highly successful 
medication reconciliation policy that has reduced adverse events in 
warriors. Providers perform medication reconciliation with each Warrior 
within 24 hours of assignment. Clinical pharmacists monitor and support 
safe and effective medication treatment and review medication profiles 
weekly. Case managers periodically perform clinical risk assessment and 
when assigned. Warriors identified as high risk are closely monitored, 
dispensed smaller quantities of medications, and are assigned to one 
provider and pharmacy.
    2.  OTSG/MEDCOM Policy 09-064, Use of Opioid Medications in Pain 
Management. This policy educates providers regarding the proper 
selection of patients and appropriate treatment with opioid analgesics. 
Primary Care Managers (PCM) will assess patients face-to-face before 
initiating opioid therapy for risk factors and meet with patients every 
60-90 days to monitor clinical response and potential adverse effects.
    3.  MEDCOM published OPORD 10-76, Comprehensive Pain Management 
Campaign Plan (CPMCP) in September 2010, a phased operationalization of 
Pain Task Force recommendations including:

       a.  4.4.1. Establish Regional Medical Commands (RMC) Integrative 
Pain Management Centers and expansion/standardization of non-medication 
pain management modalities.
       b.  4.2.1. Incorporate integrative and alternative therapeutic 
modalities into a patient centered plan of care. Standards are being 
developed in order to expand/establish standards for alternative 
medicine programs (acupuncture, bio-feedback, yoga, osteopathic 
manipulation, and mind-body techniques).

    Additionally, Dr. Stanley and I have had several discussions 
regarding this issue. One outcome of these discussions was a Memorandum 
on ``A Systems Approach to Drug Demand Reduction in the Force.'' In 
this memorandum I made several recommendations that I believe will 
further reduce drug demand. These recommendations included:

        <bullet> Subsume all DOD drug testing efforts under Readiness 
        and fully fund the program
        <bullet> Fund the expansion of drug testing to include the most 
        commonly abused prescription drugs
        <bullet> Complete the Prescription Drug Verification Portal to 
        allow testing labs to instantly verify narcotics prescriptions 
        in the TRICARE database

    As recommended, the Drug Demand Reduction Office is now under the 
Deputy Under Secretary for Readiness and has been fully funded, 
including funding to complete the Prescription Drug Verification 
Portal. As of March 2011 the portal was undergoing connectivity testing 
and was scheduled to begin beta testing before the end of the month. 
Additionally, a testing method for benzodiazepines is under development 
and expected to be implemented during the second quarter of 2012.
    It is important, however, to keep in mind that addiction is not the 
same as being prescribed narcotics or controlled substances even over a 
long period of time. Addiction refers to behaviors as a result of using 
or seeking drugs (narcotics) including active behaviors to obtain, 
abuse, and persist in a pattern of abuse in spite of adverse 
consequences. Tolerance and withdrawal may result after 6-8 weeks of 
daily use or years of intermittent use, however this does not equate to 
addiction. Consensus among addiction physicians shows development of 
narcotic dependence when treating pain in the absence of other risk 
factors is rare. Risk factors for addition include:

    1.  Personal history of addiction to opioids or other mood-altering 
substances (i.e. alcohol)
    2.  Family history of substance use disorders
    3.  History of poor medication compliance or abuse
    4.  Co-morbid psychopathology (depression, anxiety, etc) which may 
motivate a patient to self-medicate psychological pain.

    Returning to the importance of line leadership involvement, I am 
also moving forward with a doctrinal change called ``Total Force 
Fitness'' which calls upon line leaders to take a proactive role in 
setting the conditions for healthy lifestyles in the force.
    While the few specific examples I provided represent true progress, 
much more is being done. Task forces continue to study the many related 
issues and researchers continue to explore alternate pain management 
techniques. There will, of course, always be room for improvement, but 
we have made significant strides.

    32. Senator Akaka. Admiral Mullen, what is your overall assessment 
of the effectiveness of these WTUs?
    Admiral Mullen. The WTUs have been effective in helping ensure that 
our most seriously wounded soldiers are receiving the care they require 
and deserve. To some extent, however, WTUs have become victims of their 
own success. While intended to focus on our most seriously injured, the 
WTUs have become the default unit for our less injured soldiers also. 
The Warrior Care and Transition Program (WCTP), overseen by the Army's 
Warrior Transition Command, a Major Subordinate Command of the MEDCOM, 
currently provides care, support, and advocacy for some 17,000 soldiers 
and veterans. This represents a dramatic increase in scope and impact 
compared to what preceded the establishment of the WCTP. WTU plays a 
central role in the management of the care provided to wounded, ill, 
and injured soldiers.
    Although a remarkable amount has been accomplished, the WCTP 
continues to mature and improve through a coordinated medical and line 
leadership effort. Through a vigorous program of organizational 
inspections and assistance visits, the Army's Warrior Transition 
Command continues to identify areas of the program that can be 
improved, as well as best practices that can be implemented across all 
WTUs. Additionally, through the Department of the Army's Inspector 
General Program, Army leadership recently identified 56 recommendations 
for improving the WCTP. The Army, under the leadership of BG Darryl 
Williams, Commander of Warrior Transition Command, is currently in the 
process of implementing these recommendations as part of a program of 
continuous refinement and improvement.
    Additionally, the Army's Warrior Transition Command continues to 
respond to the requirements and recommendations of the ongoing DOD 
Inspector General's review of WTUs. Also, I am aware that the 
Congressionally mandated Recovering Warrior Task Force recently 
received an entire day of testimony from Brigadier General Williams and 
the staff of the Warrior Transition Command on the various aspects of 
WTUs and the WCTP and is now conducting site visits at WTU locations. I 
look forward to the findings and recommendations of the Task Force and 
I am confident Army leadership will continue its commitment both to 
transparency and responsiveness to the findings and recommendations of 
the Recovering Warrior Task Force.
    I commend Army Chief of Staff, General George Casey for his 
leadership in ensuring that the care of wounded, ill, and injured 
soldiers continues to improve and flourish. As Secretary of Defense 
Gates and I have repeatedly stated, after the war itself, we have no 
greater responsibility than to care for those who have been wounded, 
become ill, or been injured in service to their country.

                  PSYCHOLOGICAL EVALUATIONS OF TROOPS

    33. Senator Akaka. Admiral Mullen, upon completing deployments and 
prior to returning to the civilian world, Guard and Reserve members are 
required to undergo a demobilization process to evaluate each member's 
overall health and wellbeing. Oftentimes, mental health issues do not 
surface immediately, but rather after the soldier returns to civilian 
life. What changes do you plan to make in how these men and women are 
evaluated upon return from deployment to better account for their 
psychological wellbeing?
    Admiral Mullen. It is DOD policy that all returning servicemembers 
will receive a Post-Deployment Health Assessment within 30 days of 
their return from deployment with the participation of health care 
providers. In addition, they should receive a Post-Deployment Health 
Reassessment 3 to 6 months following their return. Both of these 
assessments have significant portions focusing on the evaluation of 
psychological well-being, and both of these assessments are required 
for returning Reserve component members.
    In addition, DOD is implementing mental health assessments, 
described below, which will be required for Guard and Reserve members. 
The purpose of the mental health assessment is to identify mental 
health conditions including posttraumatic stress disorder, suicidal 
tendencies, and other behavioral health conditions that require 
referral for additional care and treatment.
    On July 19, 2010, the Assistant Secretary of Defense for Health 
Affairs (ASD(HA)) issued a policy memorandum to the military 
departments to implement the mandatory mental health assessments 
following deployment. The Services have requested that the DOD Reserve 
Health Readiness Program (RHRP) support their Reserve and Guard 
Components by conducting the mental health assessments according to the 
HA policy guidance. RHRP has modified its contract to address the 
requirement telephonically. RHRP providers will use the DOD mental 
health assessment training program and become certified to conduct 
mental health assessments for the Reserve components as specified in 
the ASD(HA) guidance. The Air Force Reserve component expects to be in 
full compliance with the policy no later than April 2011. The other 
Service components are currently working with the RHRP to implement the 
mandatory mental health assessments in their Reserve components as 
quickly as possible.

             NATIONAL GUARD AND RESERVE SUICIDE PREVENTION

    34. Senator Akaka. Admiral Mullen, DOD appears to be doing a better 
job preventing suicides within our Active-Duty Forces than in the past. 
At the same time, the suicide rates for National Guard and Reserve 
units have increased. Please discuss actions that are being considered 
or implemented to help our Guard and Reserve members in this area.
    Admiral Mullen. The resilience and suicide prevention programs that 
the Services have implemented are also being tailored to fit the unique 
needs of the National Guard and Reserve members and their families. The 
National Guard in each State has programs that are unique to the state, 
which incorporate such approaches as peer support, call centers, or 
embedded mental health providers. For Reserve members and their 
families who have entered the deployment cycle, the Yellow Ribbon 
Reintegration Program provides information and referrals that support 
their health and well-being.
    DOD also has other tools, such as the online Real Warrior Campaign, 
Service-produced video messaging, Military Pathways self-assessment 
tools and the National Resource Directory that can enable remote access 
to support. This is particularly useful to Reserve component members 
and their families since they are dispersed throughout communities 
nationwide and not centrally located at an installation.
    The following are some examples of ongoing National Guard and 
Reserve efforts being made to help members in this area:

        <bullet> The Air National Guard Psychological Health Program 
        has embedded Wing Directors of Psychological Health (WDPHs) to 
        provide consultation, information, referral, and case 
        management for Airmen and their families. WDPHs work with State 
        Directors of Psychological Health, Joint Family Support 
        Assistance Program and Military and Family Life Consultants, 
        serving as consultants to medical personnel conducting pre- and 
        post-deployment assessments of airmen and provide further 
        screening, referral and case management as appropriate.

                <bullet> The Army National Guard (ARNG) has distributed 
                the Resilience and Risk Reduction Campaign Plan, and 
                the ARNG ``Leader's Guide to Soldier Resilience'' to 
                State leaders to promote the mental, physical, and 
                spiritual health of soldiers and families. These guides 
                complement peer-to-peer support programs, aimed at 
                building a support network for soldiers in between 
                traditional drill periods.
                <bullet> The Navy Reserve sponsors a Psychological 
                Health Outreach Program where counselors provide 
                education, referrals, and resources to Navy and Marine 
                Corps reservists and their families, to include those 
                who may be considered suicide risks. This proactive 
                outreach to every corner of the country occurs during 
                the deployment cycle and continues throughout the 
                reintegration period in a variety of venues.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall

             PRESIDENT'S ECONOMIC STRATEGY FOR AFGHANISTAN

    35. Senator Udall. Secretary Gates and Admiral Mullen, the National 
Defense Authorization Act (NDAA) for Fiscal Year 2011 requires the 
President to provide an economic strategy for Afghanistan, one that 
supports the counterinsurgency campaign and helps create sustainable 
Afghan institutions--but also one that will help the Afghan Government 
eventually be able to pay for its own security. When can we expect to 
see this strategy, and how important do you believe an economic 
strategy is to the success of the overall campaign?
    Secretary Gates. An economic strategy will contribute to the 
overall success of the civil-military campaign plan by helping USAID 
focus its efforts and resources in ways that maximize the effects of 
U.S. assistance in Afghanistan. We have participated in discussions, 
led by the National Security Staff, on the process by which the report 
will be produced. DOS and USAID are part of this process. DOD will 
participate in drafting of the report, as directed by the Executive 
Office of the President, and will pay particular attention to elements 
of economic strategy that support the U.S. counterinsurgency campaign 
in Afghanistan, promote economic stabilization, and enhance the 
establishment of sustainable institutions. DOD will work, as directed, 
to help complete this report as expeditiously as possible, noting the 
complexity and difficulty of the task.
    Admiral Mullen. An economic strategy is a key element of our whole-
of-government approach to the campaign in Afghanistan in the short and 
medium term. Economic development addresses the drivers of instability 
in key population areas by providing equitable access to basic 
services. A economic strategy is also important to the longer-term 
sustainability of the Afghan state by enhancing the government revenue 
base and building a robust private sector that underpins job creation, 
economic growth and long-term fiscal sustainability.
    In a coordinated interagency effort, DOS, USAID, and DOD are 
working to develop a U.S. strategy to strengthen Afghanistan's economy. 
Other departments and agencies across the U.S. Government, such as the 
Department of Treasury, will also be able to provide useful input to 
the strategy.

    36. Senator Udall. Secretary Gates and Admiral Mullen, what are 
likely to be the basic tenets of that economic strategy--the minimum 
objectives it should meet in order to complement and support the 
overall campaign?
    Secretary Gates. DOD plays a supporting role to DOS and USAID in 
terms of an economic strategy for Afghanistan. I believe that it is 
important, at a minimum, for the economic strategy to address the need 
to expand employment opportunities for Afghanistan's bourgeoning 
population of young people and increase government revenue, giving hope 
that Afghanistan will in the future be able to provide for its own 
security with minimum outside assistance.
    To reach fiscal sustainability and increase economic growth, 
Afghanistan must establish a transparent and accountable regulatory 
regime for managing public resources, including those generated by its 
natural resource base. The economic strategy should also account for 
agricultural growth, which contributes to food security. Finally, an 
economic strategy should make the maximum use of the resources that 
build towards an economic structure which benefits the majority of 
Afghans and does not facilitate the empowerment of a few elites.
    Admiral Mullen. While we would defer to DOS and USAID, who have the 
real expertise on this area, from DOD view it is important that at a 
minimum the economic strategy address the need to provide jobs for 
Afghanistan's bourgeoning population of young people. Additionally, 
this strategy should chart a way forward that gives hope that 
Afghanistan will in the future be able to provide for its own security 
with minimum outside assistance to ensure that Afghanistan is never 
again a safe haven for extremist to attack the United States. The 
strategy should make maximum use of the resources influx we now have to 
build towards an economic structure that benefits the majority of 
Afghans and does not facilitate the empowerment of exploitive elite.
    An economic strategy will be an important element of developing 
Afghanistan's long term fiscal sustainability. It will emphasize the 
need to move from donor dependency to export-led growth.

    37. Senator Udall. Secretary Gates and Admiral Mullen, from a DOD 
perspective, what should be the further trajectory of engagement and 
commitment by the USAID and other elements of the U.S. Government that 
provide civilian assistance?
    Secretary Gates. The U.S. strategy should take into account both 
near-term activities that help stabilize cleared areas, as well as 
longer-term considerations that are more typical of traditional 
development programs. To that end, the U.S. Embassy in Kabul and U.S. 
Forces-Afghanistan recently revised the joint civil-military campaign 
plan, which spells out the integrated civilian and military efforts 
required for our strategy in Afghanistan to succeed. DOS and USAID 
contributed additional personnel through the civilian surge, allowing 
civilians to partner and share expertise with U.S. military units at 
every level of the chain of command, from the national level down to 
the district level. I strongly support USAID's continued assistance to 
the Afghan Government to build effective governance structures and 
effectively deliver services to the Afghan people. Given the importance 
of agriculture to the Afghan economy, USAID agricultural experts along 
with U.S. Department of Agriculture experts have an important role in 
advising Afghans on ways to increase the productivity and income of 
Afghan farmers, and in helping to build the capacity of the Ministry of 
Agriculture, Irrigation, and Livestock.
    Admiral Mullen. USAID and its civilian partners play a critical 
role in Afghanistan, and need more resources to continue to perform the 
challenging task of rebuilding Afghanistan. In areas that are more 
stable, USAID has demonstrated its value by providing longer-term 
economic development projects. We see significant need to preserve and 
expand the programs and activities currently undertaken by USAID to 
support the stabilization effort, build capacity of the government and 
civil society, encourage economic growth, and further the social 
development of Afghanistan. As we continue our efforts to develop 
Afghanistan's economy, we will consider how best to ensure the unique 
capabilities that USAID provides are sustained.
    As we begin to thin out our military presence in areas that we 
transition to ANSFs, we will rely on our civilian partners to take a 
lead role in engaging with Afghan counterparts. The sustainment of 
civilian assistance in Afghanistan will be critical to our strategic 
partnership with the Afghans, and as Secretary Gates recently observed: 
``Economic development is a lot cheaper than sending soldiers''.
    Note: General Petraeus's testimony on March 15, 2011:

          ``I am concerned that levels of funding for our DOS and USAID 
        partners will not sufficiently enable them to build on the 
        hard-fought security achievements of our men and women in 
        uniform. Inadequate resourcing of our civilian partners could, 
        in fact, jeopardize accomplishment of the overall mission. I 
        offer that assessment, noting that we have just completed a 
        joint civil-military campaign plan between U.S. Forces 
        Afghanistan and the U.S. Embassy which emphasizes the critical 
        integration of civilian and military efforts in an endeavor 
        such as that in Afghanistan.''

            TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS

    38. Senator Udall. Secretary Gates and Admiral Mullen, what further 
role in Afghanistan do you envisage for the Task Force for Business and 
Stability Operations (TFBSO)?
    Secretary Gates. TFBSO is an invaluable element of the United 
States' comprehensive civil-military effort in Afghanistan. TFBSO's 
mission--generating economic growth in conflict areas, specifically in 
Afghanistan, including through the mobilization of private investment--
is one that no other part of the U.S. Government is currently able to 
perform. I understand the view of some that DOD is not the appropriate 
fit for such a mission, but it is important to note that this work is 
not currently being carried out by any other U.S. department or agency.
    Moreover, senior Afghan officials requested that TFBSO continue its 
activities in Afghanistan, and senior U.S. military and civilian 
leaders in Afghanistan expressed strong support for TFBSO's activities. 
While DOD works to provide options to Congress for the continuation of 
TFBSO's mission, I request your support in continuing the TFBSO program 
so that it may continue performing its vital role.
    Admiral Mullen. The TFBSO has fulfilled an important role in 
Afghanistan. There is a large institutional gap in U.S. capability 
regarding economic development operations in conflict zones. TFBSO has 
demonstrated value to DOD field commanders and U.S. Ambassadors--both 
in Iraq and Afghanistan--as filling a vital need for initiating longer-
term economic development projects while the countries are, or were, in 
ongoing operations. Specifically, it helps fill the gap between initial 
stabilization and longer-term economic development. We see significant 
need to preserve the programs and activities currently undertaken by 
the TFBSO to support economic stabilization operations in Afghanistan. 
As we continue our efforts to develop Afghanistan's economy, we will 
consider how best to ensure the unique capabilities the TFBSO provides 
are sustained.

    39. Senator Udall. Secretary Gates, please share your views on the 
requirement in the NDAA to provide a plan for transferring TFBSO's 
activities to USAID, whether you would support such a transfer in 
fiscal year 2012, and whether you have any concerns regarding the 
potential transfer of the TFBSO's activities to USAID.
    Secretary Gates. The TFBSO proved to be an invaluable element of 
the United States' comprehensive civil-military effort in Afghanistan. 
TFBSO's mission--generating economic growth in conflict areas, 
specifically in Afghanistan, including through the mobilization of 
private investment--is one that no other part of the U.S. Government is 
currently able to perform. I understand the view of some that DOD is 
not the appropriate fit for such a mission, but it is important to note 
that this work is not currently being carried out by any other U.S. 
department or agency.
    Moreover, senior Afghan officials requested that TFBSO continue its 
activities in Afghanistan, and senior U.S. military and civilian 
leaders in Afghanistan expressed strong support for TFBSO's activities. 
While DOD works to provide options to Congress for the continuation of 
TFBSO's mission, I request your support in continuing the TFBSO program 
so that it may continue performing its vital role.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin

                         MEDICATION MANAGEMENT

    40. Senator Manchin. Secretary Gates, last week the New York Times 
reported on servicemembers that come home from battle caught in a web 
of misuse and overuse of prescription drugs--in fact, a young man from 
my home State was featured as an example of how the misuse of 
medications can lead to disaster. We send our men and women to war on 
multiple deployments and give them medications to keep them awake, to 
help them sleep, and to help ease the physical and psychological pain 
of being in a stressful environment. As a result, many are coming home 
broken, not healed. We are finding out that the stories behind many 
suicides and unexpected deaths are often complicated by dangerous 
cocktails of drugs.
    It's been nearly 2 years since the Pentagon was directed in Section 
715 of the NDAA for Fiscal Year 2010 to study how medications are being 
used, and misused, to treat the physical and mental wounds of our 
warfighters, and how to decrease the risks to our troops. The study is 
now overdue by almost a year. This problem is costing lives and money. 
When can we expect to receive this critical study on the management of 
medications for physically and psychologically wounded members of the 
Armed Forces?
    Secretary Gates. I appreciate the sensitivity of this issue and 
your concern for a solid prevention strategy. As was indicated in the 
interim report, DOD pinpointed certain effective methodologies that 
identify dangerous combinations of medications. The scope of this study 
is complex and multi-layered, however. It includes both inpatient and 
outpatient care at military treatment facilities, service specific 
WTUs, community-based WTUs, and private sector care.
    Additionally, this protocol must be approved by the Institutional 
Review Board (IRB) that oversees the contractor with whom the 
Department is engaged in for the study. Likewise, DOD needs approval by 
the IRBs of the six multi-Service sites where the contractor would 
conduct focus groups and a review of medication practices.
    The overall IRB process may take up to a year. At this time, DOD 
obtained all of the necessary IRB approvals.
    The site visits are scheduled to take place no later than March 31, 
2011. These site visits are instrumental in formulating a gap analysis 
between current and best practices and in developing policies and 
procedures that will carry out the intent of the legislation. DOD 
anticipates completion of the final report by November 2011.
    Thank you for your continued patience as we develop a comprehensive 
report that is thoroughly responsive to the legislative requirements.

    41. Senator Manchin. Admiral Mullen, please provide more 
information about the growing problem of over-medicating and self-
medicating soldiers and what resources in the fiscal year 2012 budget 
are being directed toward this problem.
    Admiral Mullen. Increased medication use is a societal problem and 
DOD medicine mirrors civilian practice. This problem has been of 
increasing concern to Dr. Stanley and me. Our ongoing discussions lead 
me to believe that drug abuse represents both a symptom and a problem 
that fuels the worsening of other conditions. Senior military leaders 
have been aware of the acute need to gain better controls on the 
inappropriate use of drugs. However, until recently, we have been 
unaware of the hurdles faced by their subordinate commanders and by the 
DOD drug testing community. We realize that drug demand reduction 
operates within a larger system of readiness and is therefore of great 
importance to the Chiefs.
    Despite growing concerns among commanders that drug use is a 
problem within the ranks, the DOD drug testing programs have remained 
at budget flat line for the past several years and are facing an 
estimated $11 million shortfall. While the abuse of prescription drugs 
has grown substantially since the beginning of the wars, we have only 
been capable of testing a fraction of these compounds. Until recently, 
the main DOD drug testing program was positioned under the TMA while 
its budget was under the Office of the Secretary of Defense (OSD) 
Policy (DASD Counternarcotics and Global Threats) within the 
Counternarcotics Central Transfer Account. This created a dual loyalty 
conflict.
    Compared to the 1980s, when highly effective drug testing in the 
DOD was first launched, there has been a substantial reduction in 
commanders' willingness to take urinalysis positive individuals to 
adjudication. This was certainly a concern heard by VCSA Chiarelli 
during his visits to installations for a suicide prevention task force 
review. Commanders indicated the competing demands of filling ranks for 
deployment and removing drug-using troops made random urinalysis 
untenable for many. Furthermore, the adjudication process is often long 
and is perceived to distract leaders from deployment-specific tasks. 
Rising rates of legal narcotics prescriptions without a seamless 
capability to quickly verify the prescription means that these actually 
cloak the real extent of the problem.
    To help alleviate these problems, I recommended that Dr. Stanley 
take the following actions:

        <bullet> Subsume the DOD drug testing efforts directly under 
        Readiness and fully fund the program to the required levels.
        <bullet> Complete the Prescription Drug Verification Portal 
        (the portal that would allow drug testing labs to instantly 
        verify narcotics prescriptions in the TRICARE database).
        <bullet> Make drug prosecution statistics part of regular unit 
        readiness reporting.
        <bullet> Designate several independent drug testing teams 
        (similar to the approach used by the UK MOD) as mobile units 
        that can independently obtain specimens at random. This 
        encourages commanders to remain compliant and introduces a new 
        variable that is likely to improve deterrence.
        <bullet> Fund the expansion of drug testing to include the most 
        common prescription drugs of abuse (particularly 
        benzodiazepines e.g. Valium, this is estimated by the Drug 
        Demand Reduction Program Office to be a $20 million shortfall).
        <bullet> Preface these changes with an announcement to the 
        force encouraging drug counseling and treatment 90 days prior 
        to any launch of a new testing regimen. The objective of the 
        program should be to drive inappropriate drug use to their 
        lowest possible levels.
        <bullet> Regularly exchange information between the DOD Drug 
        Demand Reduction Program and the ongoing suicide prevention 
        programs and the DOD Joint Pain Task Force.

    As previously stated, several of these recommendations have already 
been implemented and others are in progress.
    In addition to the initiatives above, the Army's new policies and 
procedures for identifying and mitigating polypharmacy have reduced the 
risk of over-medication and self-medication. These include:

        <bullet> OTSG/MEDCOM Policy 10-076, Guide for Enhancing Patient 
        Safety and Reducing Risk via the Prevention and Management of 
        Polypharmacy Involving Psychotropic Medications and Central 
        Nervous System Depressants: Implementation of this policy has 
        resulted in improved communication by involving the patient in 
        the treatment plan. The provider will review medications at 
        each encounter and refer to a clinical pharmacist for a 
        comprehensive medication review when the patient is on four or 
        more medications with at least one a psychotropic or Central 
        Nervous System depressant.
        <bullet> Revision of MEDCOM Regulation 40-51, Medical Review 
        Officers and Review of Positive Urinalysis Drug Testing 
        Results: This revision will limit the authorized use of 
        controlled substances and clarify the timeframe for determining 
        legitimate use of controlled substances.
    Note: As of the date and time of submission. This response does not 
address specific resources included in the fiscal year 2012 budget 
request. A revised response will be provided once granularity on this 
subject is obtained.

                         EFFICIENCY INITIATIVES

    42. Senator Manchin. Secretary Gates, I want to applaud your 
efforts to, as you've said, ``reform the way the Pentagon does 
business--to not only make every defense dollar count, but also to 
become a more . . . effective organization.'' The American taxpayers 
want us to start making the hard choices--to root out every 
inefficiency, cut every bit of waste, and most importantly, change the 
culture of endless money.
    I am still concerned that we do not have the full audit of DOD. 
What are the obstacles preventing this commonsense practice from 
occurring, and what can we do to make it happen sooner?
    Secretary Gates. DOD's massive size and complexity make it 
extremely difficult to achieve full auditability. In addition, DOD 
financial processes were established and ingrained in systems long ago. 
These processes and systems were designed for budgetary accounting--not 
proprietary or commercial accounting called for in the Chief Financial 
Officers (CFO) Act. To meet the commercial accounting standards called 
for in the CFO Act, there is a substantial amount of work to be done, 
including efforts to address the most difficult challenges:

        <bullet> DOD systems are not integrated--breaking the audit 
        trail
        <bullet> Systems do not collect data at the transaction level
        <bullet> Many diverse functional organizations must work 
        together in end-to-end processes
        <bullet> Earlier focus was on information of limited value to 
        management and was not supported throughout DOD

    Meeting these challenges and improving DOD's business processes 
receive more attention than ever before. DOD is addressing them by 
changing the way it does business. To realize success, DOD is using a 
streamlined approach that focuses on improving and auditing the 
information we most use to manage. Improving the budgetary and mission 
critical asset information used to manage the DOD will allow commanders 
and other leaders to better meet mission needs with available 
resources. I believe this alignment of operational and financial 
objectives is the most effective incentive to improve financial 
management.
    DOD also established long- and short-term goals, set up a 
governance process, and provided funding to the Military Services to 
make process and system improvements. These system improvements, 
primarily made by deploying Enterprise Resource Planning Systems 
(ERPS), have broad operational improvement goals which include 
improving business processes in a way to support audited financial 
statements. DOD also implemented other effective measures such as 
including audit related actions and objectives in Senior Executive 
performance plans. Preparing DOD for financial statement audits is a 
monumental task, but with leadership focus, accountability, and our 
streamlined approach, I believe it can succeed. With this streamlined 
approach I believe that DOD can achieve its goal of meeting this 
objective by 2017.

                                 CHINA

    43. Senator Manchin. Secretary Gates, during the next 5 to 10 
years, how do you see the defense budget changing as a result of 
China's predicted rise as a worldwide provider of strategic minerals, 
consumer goods, and weapons?
    Secretary Gates. The rise of China as a regional political, 
economic, and military power with global ambitions is one of the 
defining elements of the international strategic and security 
environment.
    The primary focus of China's military modernization appears to 
remain on preparing for contingencies in the Taiwan Strait. However, 
China's military is also exploring missions beyond Taiwan. DOD is 
watching carefully, for example, China's development and acquisition of 
weapon systems and capabilities that would classify as intended for 
anti-access and area denial missions. The 2010 Quadrennial Defense 
Review examined operating in an anti-access/area denial environment and 
recommended that the United States pursue effective, affordable, and 
sustainable U.S. defense posture based on a broad portfolio of military 
capabilities with maximum versatility across the widest possible 
spectrum of conflict.
    The President's budget proposal for fiscal year 2012 includes $113 
billion for DOD to procure the capabilities needed to protect the 
United States and its interests in the Asia-Pacific region. Included in 
this amount are funds to invest in new programs, as well as 
modernization efforts for existing equipment. Two specific items of 
note are investments in a new bomber for the Air Force and five 
additional ships for the Navy.
    These investments will enable the United States to sustain our 
forward presence in the Western Pacific and to operate in contested 
areas in the future.

    44. Senator Manchin. Secretary Gates, what does DOD now spend on 
goods from China?
    Secretary Gates. In fiscal year 2010, the DOD purchased a total of 
$123,560 in unspecified miscellaneous commercial, industrial, and 
professional goods and services directly from Chinese industry. DOD 
expects to issue its annual report to Congress on purchases from 
foreign entities shortly, presenting in greater detail DOD purchase of 
goods and services from all foreign countries, including China.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand

                              AFGHANISTAN

    45. Senator Gillibrand. Secretary Gates, in December 2010 President 
Obama, while discussing the results of his Afghanistan-Pakistan review 
policy, said ``the United States is on track to achieve its goals in 
the war against terrorism against al Qaeda in the Afghanistan-Pakistan 
region.'' The review also stated ``as a result of our integrated 
efforts in 2010, we are setting the conditions . . . to begin a 
responsible, conditions-based U.S. troop reduction in July 2011.'' Now 
that we are about 135 days away from that July 2011 objective, how many 
troops do you think conditions on the ground will allow us to bring 
home this year?
    Secretary Gates. General Petraeus will provide options and make a 
recommendation for the drawdown of U.S. surge forces in the coming 
months. This timing will allow him to take into account important on-
the-ground considerations, including progress in provinces and 
districts that are being transitioned to Afghan-security lead. This 
analytical process will allow the time needed to provide the President 
the best information to inform his ultimate decision on this matter. 
Until that time, it is too early to say how many U.S. forces will 
redeploy.

    46. Senator Gillibrand. Secretary Gates, you have budgeted in 
fiscal year 2012 for 98,000 troops in Afghanistan--the same force level 
you have today. I understand that you wish to leave yourself wiggle 
room in case conditions on the ground do not permit a timely 
withdrawal, but the American people want to see execution of the 
promise to begin withdrawal this summer. At some point we need to 
reduce our troop presence and turn security over to the Afghan security 
forces. Why could you not have assumed a lower number of troops in 
building your fiscal year 2012 budget?
    Secretary Gates. There is every indication that conditions will 
permit the United States to begin withdrawing forces in July 2011. 
General Petraeus will provide options and make a recommendation for the 
commencement of the drawdown of U.S. surge forces. General Petraeus may 
also recommend, as the transition process continues and the 
responsibility for security in selected regions is transitioned to 
Afghan security forces, that some U.S. forces be reinvested in other 
areas.
    DOD's budget request is driven by numerous factors, including 
assumptions that may need to be reassessed as conditions evolve in a 
dynamic environment. General Petraeus and I continue to assess the 
conditions on the ground so that we may provide options and a 
recommendation to the President, but I believe that it is premature to 
attempt to forecast a budget based on lower U.S. force levels at this 
point in time.

    47. Senator Gillibrand. Secretary Gates, as I assess the situation, 
it seems that 135 days out you are still not confident about conditions 
on the ground. When will you be confident?
    Secretary Gates. I am confident that we are making steady progress 
on the ground. I recently returned from my 13th trip to Afghanistan as 
Secretary of Defense and the progress made by our forces exceeds my 
expectations.
    The President and I trust the judgment of General Petraeus, who 
will provide us options and make a recommendation in the coming months 
for the commencement of the drawdown of U.S. surge forces in July 2011.

    48. Senator Gillibrand. Secretary Gates, if your assumptions are 
ultimately too high, where will the extra funding go?
    Secretary Gates. I will consult with Congress to determine the best 
course of action.

    49. Senator Gillibrand. Secretary Gates, are you planning a similar 
model in Afghanistan that we executed in Iraq--changing composition of 
the forces deployed in Afghanistan, over time, to an ``advise and 
assist mission'' in support of Afghan forces?
    Secretary Gates. The short answer is yes. As the United States 
moves toward transferring lead responsibility for security to the 
Afghan security forces in 2014, I expect to continue to conduct 
training, advising, and assisting activities and joint counterterrorism 
operations, at the request of the Government of Afghanistan, to help 
secure U.S. and Afghan mutual national interests. This is particularly 
helpful in ensuring that Afghanistan is never again a safe haven from 
which terrorists attack the United States. An enduring strategic 
partnership with Afghanistan is important to demonstrate to the Afghans 
and others in the region that the United States is committed to this 
goal.

    50. Senator Gillibrand. Secretary Gates, how much of that progress 
do you expect to accomplish in fiscal year 2012?
    Secretary Gates. The situation in Afghanistan is very fluid. 
Progress is significant but still fragile and reversible. Based upon 
the progress in recent months, however, I am increasingly confident 
that alongside our Afghan and international partners, and with 
Congressional support, the United States will continue to solidify 
security gains and transition lead responsibility for security for 
additional geographic areas to Afghan security forces throughout fiscal 
year 2012. Concurrently, Afghan security forces will continue to 
develop their fighting and support capabilities. I believe that our 
strategic partnership with the Government of Afghanistan, including our 
willingness to train, advise, assist, and equip the ANSF, and to carry 
out joint counterterrorism operations through 2014 and beyond, will 
change the strategic calculus of the Taliban and other actors. Combined 
with our relentless pursuit of mid-level Taliban commanders, the 
increasing competency and professionalism of ANSF will encourage 
greater numbers of fighters to reconcile with the Government of 
Afghanistan and reintegrate into Afghan society.

    51. Senator Gillibrand. Admiral Mullen, in the recently published 
National Military Strategy (NMS) you stated ``we must continue to 
support and facilitate whole-of-nation approaches . . . military power 
complements economic development, governance, and the rule of law.'' 
Yet you just said that improvements in Afghanistan's governance and 
reconstruction have not kept pace with improving security. Given the 
Karzai Government's extensive corruption, including the looming 
collapse of the Kabul Bank that pays Afghan military salaries, how do 
you hope to sustain the erosion of al Qaeda and the Taliban's support 
among the Afghan people no matter what successes our troops obtain?
    Admiral Mullen. We will sustain the erosion of al Qaeda and the 
Taliban's support among the people by capitalizing on our successes and 
momentum gained through the winter 2010 campaign. The new Civilian-
Military Campaign Plan is closely aligned with the Government of 
Afghanistan's National Development Strategy and the Joint Afghan NATO 
Inteqal Board (JANIB) transition plan. Our objectives are oriented 
towards the goals of the Lisbon Conference and transitioning the lead 
for security to Afghan security forces by the end of 2014. There is a 
greater emphasis on interagency coordination and support to our 
civilian partners on provincial and district governance, trade, 
transportation, infrastructure; counter-narcotics programs; customs and 
border-capacity development and sustainable private-sector development. 
There will be an emphasis on civilian and diplomatic efforts throughout 
transition but we now have the right inputs to make the strategy 
successful.

    52. Senator Gillibrand. Admiral Mullen, when I traveled to 
Afghanistan and Pakistan a few months ago I heard repeatedly from our 
commanders on the ground that our mission in Afghanistan is 
inextricably linked to Pakistan's harboring of al Qaeda, Taliban, and 
aligned organizations. U.S.-Pakistani relations have chafed greatly 
over the past year. How are we going to execute a redeployment strategy 
in Afghanistan if Pakistan does not go after the insurgency within its 
borders?
    Admiral Mullen. Our commanders on the ground accurately 
characterize the inextricable linkage of security and counterinsurgency 
operations in Afghanistan and Pakistan. Peace in the region, and our 
mission success, depend on securing populations and denying safe havens 
for terrorist groups on both sides of the border. Given the difficult 
terrain and sophisticated threats in the border area, observers not in 
contact with the Pakistan military may conclude that they are not 
pursuing insurgents on their side of the border.
    The situation on the ground in Pakistan is complex. The Pakistan 
military has made unprecedented progress over the past 2 years in clear 
and hold operations against militants in Khyber-Pakhtunkhwa and the 
Federally Administered Tribal Areas (FATA). In the course of those 
operations, they have lost roughly 3,000 dead and 8,000 wounded among 
security forces fighting militants, with thousands of civilian 
casualties as well. While it is true that the Pakistan military has not 
gone after Afghanistan-focused insurgents to the same degree it has 
taken on those groups targeting their own government this is a function 
both of Pakistan's perceptions about the specific threats and the 
capabilities of the Pakistan military, which are already stretched by 
the need to continue holding areas previously cleared.
    Although our bilateral relations with Pakistan have had difficult 
moments in the past year, there have also been noteworthy positive 
developments such as cooperation between our forces in flood relief 
operations and the development of more formal, robust defense planning 
ties and security assistance. We have also greatly improved operational 
cooperation between our forces in the border regions, reducing safe 
havens in both Afghanistan and Pakistan.
    DOD continues to plan force level reductions in Afghanistan based 
on the increasing capabilities of ANSFs and conditions on the ground. 
As our cooperation and coordination with Pakistan in the border area 
grows and develops, the greater the conditions will be to secure the 
population.

                               TERRORISM

    53. Senator Gillibrand. Admiral Mullen, in the NMS it states ``the 
intersection between states, state sponsored, and non-state adversaries 
is most dangerous in the area of weapons of mass destruction 
proliferation and nuclear terrorism.'' And then it goes on to say ``the 
prospect of multiple nuclear armed regimes in the Middle East with 
nascent security and command and control mechanisms amplifies the 
threat of conflict, and significantly increases the probability of 
miscalculation or the loss of control of a nuclear weapon to non-state 
actors.'' How confident are you that al Qaeda or associated insurgent 
groups could not acquire or steal a nuclear weapon or nuclear materials 
from Pakistan, that they could in turn use in a nuclear September 11 
scenario?
    Admiral Mullen. The prospect of unsecure nuclear weapons or 
materials, and their acquisition and use by al Qaeda or an affiliate, 
is a serious threat that DOD addresses in the NMS as well as in our 
operational planning efforts. This scenario presents a formidable 
challenge for developing prevention and response strategies; however, 
as preventing nuclear-armed terrorism is a top presidential priority, 
we have a number of initiatives in place to broadly address this 
threat.
    With regard to Pakistan specifically, as the Secretary has said 
before, we are confident in the security of Pakistan's nuclear arsenal.

    54. Senator Gillibrand. Admiral Mullen, how are the growing U.S.-
Pakistan tensions impacting our ability to protect against that 
scenario?
    Admiral Mullen. The U.S.-Pakistan relationship has endured periods 
of tension as well as periods of cooperative growth in recent years. 
While street protests and negative media coverage frequently complicate 
our work in Pakistan, they do not prevent the cooperative efforts that 
we and our Pakistan military counterparts see as critical to mutual 
security. Compared to 10 years ago, when bilateral relations were 
nearly frozen due to sanctions we have far more robust mechanisms for 
cooperation and dialogue today. The bilateral relationship reflects a 
slow, difficult process of deepening trust and cooperation. Full 
transparency may require years to develop. Progress depends on our 
ability to identify and build upon areas of mutual concern and mutual 
interest; those areas become a platform for effectively preventing 
worst case scenarios from materializing in Pakistan.

    55. Senator Gillibrand. Admiral Mullen, I am very concerned about 
the growing risk of Yemen's collapse, given the recent protests, the 
historical conflicts within and across Yemen's boundaries, and the 
country's dire poverty. A year ago, a bomb attempt conceived in Yemen 
threatened our Homeland. Last year I asked Secretary Gates why we ought 
to focus so many resources on Afghanistan when we face a similar threat 
of an unstable state with Al Qaeda or related elements in Yemen. We 
seem to be addressing Yemen with a target counter-terrorism mission, 
rather than a larger counterinsurgency footprint as in Afghanistan. 
Please explain the strategic difference. Which do you think is more 
effective?
    Admiral Mullen. The largest difference between our strategies in 
these two countries lies in the scope and scale of our efforts. Unique 
threat contexts in each of these countries have shaped our responses. 
We invaded Afghanistan to fight the Islamist Taliban militia and its 
terrorist affiliate, al Qaeda, who held control of most of the country. 
Our efforts in Yemen, on the other hand, are limited to the cooperative 
counter-terrorism assistance we can provide that respects Yemen's 
sovereignty. While the scale and scope of the threat is larger in 
Afghanistan, our significant military presence allows us to conduct 
full-scale military operations. We do not have that liberty in Yemen, 
because we cannot operate within the country without Yemeni permission. 
Instead, the U.S. military seeks to build Yemeni counter-terrorism 
capacity. We have a viable threat in Yemen, and the growing instability 
there may allow for greater terrorist activity, but our ability to 
combat AQAP is confined to our cooperative arrangements with the 
Yemenis. Both our counter-insurgency and counter-terror strategies can 
be effective depending on how and where they are applied. In each of 
these countries, we are working within our resource and legal 
constraints to develop comprehensive approaches to ending terrorism. 
Counter-insurgency efforts in Afghanistan are engaging with communities 
to target enemy insurgents while improving security. In Yemen, we are 
training counter-terrorism forces while pursuing a range of development 
initiatives to reduce the systemic causes of terrorist recruitment.

                               CYBERSPACE

    56. Senator Gillibrand. Admiral Mullen, the NMS states, ``the 
United States faces persistent, widespread, and growing threats from 
state and non-state actors in space and cyberspace. Should a large-
scale cyber intrusion or debilitating cyber attack occur, we must 
provide a broad range of options to ensure our access and use of the 
cyberspace domain and hold malicious actors accountable. We must seek 
executive and congressional action to provide new authorities to enable 
effective action in cyberspace''. What are the specific authorities you 
need to support cyberspace operations?
    Admiral Mullen. Foremost, we need to clearly specify the military's 
functions and authorities with respect to both offensive and defensive 
activities in cyberspace, both to protect DOD networks and in support 
of broader national security interests. In the past, network protection 
was reactive, limited to implementing ``fixes'' to network 
vulnerabilities that had already been exploited by threat actors. Such 
a posture is insufficient and cannot be characterized as a effective 
``defense'' in a domain where offensive action has clear advantage. In 
cyberspace, static defenses are quickly subverted, overwhelmed, and 
defeated. DOD is developing a dynamic, agile, active, and informed 
defensive capability. I am confident that this approach will result in 
more secure, hardened, and resilient DOD networks. Extending similar 
capability to the Nation's critical infrastructure and government 
functions, as called for in the Comprehensive National Cybersecurity 
Initiative, will require an integrated whole-of-government approach.

    57. Senator Gillibrand. Admiral Mullen, in the strategy you state 
that the United States faces growing threats from state and non-state 
actors in cyberspace. Are you saying that you are seeing evidence of 
terrorist groups gaining the capability of launching a cyber attack or 
simply using the Internet for recruitment, motivation, or fundraising?
    Admiral Mullen. Yes. Al Qaeda and associated Violent Extremist 
Organizations (VEOs) aggressively use the Internet to disseminate their 
ideology and propaganda; to radicalize, recruit, and mobilize new 
members; to coordinate operations; and, to generate and distribute 
funds. A VEO's ability to exploit the Internet complicates our 
military's efforts in Iraq and Afghanistan, while posing challenges to 
our domestic law enforcement and Homeland Security initiatives. 
Additionally, I am concerned that these VEOs may eventually acquire and 
use sophisticated cyber tools developed by nation-states, criminal 
organizations, or disaffected cyber specialists whom they may recruit. 
If this occurs, the U.S. Government will not have the luxury of time 
and distance to separate ourselves from the adversary.

    58. Senator Gillibrand. Admiral Mullen, the fiscal year 2012 budget 
requests have $2.3 billion for cyber security. Can you explain the 
components of that number and how it compares to the last 3 years?
    Admiral Mullen. The fiscal year 2012 budget request for cyber 
security of $2.32 billion is made up of core information assurance (IA) 
activities [$2.00 billion], the cyber security/DIB initiative [$0.20 
billion], and Cyber Command (CYBERCOM) headquarters operations [$0.12 
billion] programs. The core IA program includes the following program 
elements: Public Key Infrastructure, Key Management Initiative, and 
Information System Security Program. DOD must protect and defend 
information, information-based processes, and information systems on 
the Global Information Grid at all security levels to meet its 
strategic goals.
    The Department is also working to identify and mature the 
capabilities required to support cyber operations and the stand-up of 
CYBERCOM. The fiscal year 2012 President's budget request for cyber 
security continues to address computer network defense; cyber identity 
and access management; engineering and deployment controls; 
cryptographic key production and management; cross domain capabilities; 
workforce development; and operational resiliency. The fiscal year 2012 
request also initiates the design and construction of a Joint 
Operations Center for CYBERCOM; adds resources to monitor and secure 
classified networks and information; increases manpower to assess cyber 
threats and develop countermeasures; sustains cyber schoolhouses; and 
supports evolution of DIB cyber security activities.
    The enacted fiscal year 2009 and fiscal year 2010 budgets for cyber 
security were for $2.32 billion and $2.35 billion, respectively. The 
fiscal year 2011 budget request was for $2.50 billion. Cost reductions 
in fiscal year 2012 are due to operational changes to include the 
removal of initial/one-time facility and equipment costs for 
establishing CYBERCOM at Fort Meade in fiscal year 2011, and cyber 
security funding transfers into DISA's Working Capital Fund.

                 HOMELAND DEFENSE SECURITY PREPAREDNESS

    59. Senator Gillibrand. Secretary Gates, the NMS states that ``we 
will continue to dedicate, fund, and train a portion of the National 
Guard for homeland defense and defense support of civil authorities. 
Working with Canada and Mexico, we will remain prepared to deter and 
defeat direct threats to our North American homeland.'' What is your 
assessment of the terrorist infiltration threat along our northern 
border and what specific steps are you taking to counter it?
    Secretary Gates. This question is best answered by the Department 
of Homeland Security (DHS), which is responsible for preventing 
terrorist attacks within the United States (6 U.S.C. Sec. &A(b)(1)(A)); 
preventing the entry of terrorists and the instruments of terrorism 
into the United States (6 U.S.C. Sec. 202(1)); and securing the 
borders, territorial waters, ports, terminals, waterways, and air, 
land, and sea transportation systems of the United States (6 U.S.C. 
Sec. 202(2)).
                                 ______
                                 
               Questions Submitted by Senator John McCain

               RISKS ASSOCIATED WITH WITHDRAWAL FROM IRAQ

    60. Senator McCain. Secretary Gates and Admiral Mullen, U.S. troops 
are currently deployed with ISFs and Kurdish peshmerga fighters along 
the disputed internal boundaries between Arab and Kurdish communities. 
These ``Combined Security Mechanisms'' are easing tensions between 
Arabs and Kurds, while contributing to the integration of peshmerga 
units into the ISFs. How risky and potentially dangerous is it for 
these peacekeeping mechanisms to go away at the end of this year, as 
they must under the current security agreement?
    Secretary Gates. The U.S. Government continues to implement the 
U.S.-Iraq Security Agreement fully, including completing the drawdown 
of U.S. forces from Iraq by December 31, 2011. As part of the drawdown, 
U.S. Forces-Iraq (USF-I) is taking steps to mitigate the potential for 
conflict by building confidence at the local, provincial, and national 
levels between security forces and political leaders. USF-I is also 
working closely with DOS to transition the U.S. military's role as a 
mediator and honest broker in northern Iraq to the post-2011 civilian-
led mission.
    The Combined Security Mechanism (CSM) consists of a series of 
trilateral (U.S. military, ISF, and Kurdish Security Forces (KSF)) 
coordination centers and checkpoints to facilitate confidence-building 
and coordination at the local and national levels in areas of northern 
Iraq with Disputed Internal Boundaries. At the same time, Prime 
Minister Maliki's 2009 designation of some KSF units as ``Regional 
Guard Brigades'' allowed USF-I to advise, train, and assist these 
forces so that they are able to integrate into the ISF. USF-I developed 
drawdown plans for ending U.S. participation in the CSMs by engaging 
with Iraqi and Kurdish military leaders to transition this trilateral 
mechanism to a bilateral forum. ISF and KSF modernization efforts also 
increased stability, improved communication, and built confidence among 
leaders in DIBs areas. These efforts will mitigate the impact of U.S. 
forces' drawdown from the CSMs.
    DOS plans to establish temporary Embassy Branch Offices in the DIBs 
to address local and provincial ethno-sectarian tensions. Even so, 
DOS's ability to successfully lead the mediator and honest broker 
missions in northern Iraq depends on full funding of its fiscal year 
2012 budget request. Without full funding, the achievement of the U.S. 
goal to facilitate peaceful, political processes for resolving 
outstanding issues in northern Iraq is at risk.
    Admiral Mullen. Unresolved Arab-Kurd issues, including the 
resolution of Article 140, agreement on a hydrocarbon law, revenue 
sharing, and the status of Kirkuk, remain a primary concern. Tensions 
are elevated within disputed areas and will remain so until these 
issues are resolved. Dialogue among Arab and Kurdish leaders with 
international mediation has been helpful but it is highly unlikely 
issues will be resolved before U.S. military forces leave Iraq at the 
end of the year.
    In the short term, the Combined Security Mechanism is an effective 
stop gap until these broader issues are resolved and provides a 
confidence building measure between the Government of Iraq and the 
Kurdish Regional Government. In coordination with the State Department, 
we have developed plans to mitigate the risk of U.S. forces leaving the 
disputed areas at the end of the year by significantly increasing our 
diplomatic presence in the north. We believe this increased diplomatic 
presence, if fully funded, will help address Arab-Kurd tensions. The 
risk of violent confrontation will increase without an adequately 
resourced replacement for the current U.S. military presence.

    61. Senator McCain. Secretary Gates and Admiral Mullen, please 
explain what comparable civilian arrangement will take over the 
peacekeeping role now played by U.S. troops operating along the Arab-
Kurd fault lines in Iraq.
    Secretary Gates. DOS's plan for its 2012 civilian-led mission 
prioritizes engagement in northern Iraqi areas with Disputed Internal 
Boundaries by providing for the establishment of Embassy Branch Offices 
(EBOs) in Ninewa and Kirkuk Provinces. The EBOs will be staffed by 
diplomats, development specialists, and representatives from other U.S. 
agencies, such as the Departments of Justice, Agriculture, and 
Treasury, in order to bring a whole-of-government approach to conflict 
prevention and peace building in northern Iraq. The location of the 
EBOs along the Arab-Kurd ethnic fault line reflects the concern that 
Arab-Kurd tensions remain a leading source of instability in Iraq. 
DOS's ability to play a mediating and honest broker role in northern 
Iraq depends on full funding of its fiscal year 2012 budget request.
    Admiral Mullen. As part of the U.S. military drawdown in Iraq, we 
have planned for and are actively transitioning enduring programs to 
the State Department and the Government of Iraq. This includes the U.S. 
role in the trilateral security relationship we share with the ISF and 
the Peshmerga along Arab-Kurd fault lines. While different from the 
military's current role, the State Department will utilize the 
diplomatic tools inherent to its capabilities in mitigating tensions 
between Arabs and Kurds. I am concerned the State Department will 
assume increased risk in this very important role if their funding is 
further decreased.

                             IRANIAN INTENT

    62. Senator McCain. Secretary Gates, would you agree that the 
highest priority of the Iranian government during this year is to 
prevent any changes to the security agreement with Iraq so as to ensure 
that no U.S. troops will remain in Iraq by January 1, 2012?
    Secretary Gates. Iran would almost certainly oppose a continued 
U.S. troop presence after 2011. I remain troubled by Iran's continued 
support to, and training of, militant groups that target both Iraqi and 
U.S. personnel. The United States encourages Iran to maintain 
constructive and peaceful relations with its neighbor Iraq, with which 
it shares a long history of cultural, religious, and economic ties. 
Iran can be a better neighbor by respecting Iraqi sovereignty, and by 
ending its support to those who support terrorism in Iraq.

                NUCLEAR WEAPONS STOCKPILE MODERNIZATION

    63. Senator McCain. Secretary Gates, in their proposal to fund the 
remainder of fiscal year 2011, House appropriators cut $300 million 
from the President's request for nuclear weapons modernization. Do you 
agree that it is critical that Congress fund the $624 million increase 
in fiscal year 2011 and that a long-term commitment to the funding 
proposal set forth in connection to the New START treaty, commonly 
referred to as the 1251 report, is of the upmost importance to national 
security and the viability of our nuclear deterrent?
    Secretary Gates. Yes, it is critical that Congress fund the entire 
$624 million fiscal year 2011 increase for the National Nuclear 
Security Administration (NNSA) and sustain the long-term funding 
requirements as laid out in the 1251 Report to Congress, which serves 
as a roadmap to implementing the Nuclear Posture Review (NPR) and New 
START treaty. The treaty is buttressed by credible modernization plans 
and long-term funding for the U.S. nuclear weapons stockpile and the 
infrastructure that supports it. This administration proposes 
significant investments over the next decade to rebuild and sustain 
America's aging nuclear infrastructure--especially the national labs, 
and the science, technology, and engineering base. This funding not 
only begins with a commitment to the long overdue modernization of the 
nuclear weapons infrastructure, it continues ongoing activities and 
starts the studies necessary to sustain and life-extend the nuclear 
deterrent so it remains in a safe, secure, and effective status. In 
addition, the funding augments NNSA activities required to sustain the 
personnel with key critical skills to continue to sustain our nuclear 
arsenal.

                       BALLISTIC MISSILE DEFENSE

    64. Senator McCain. Secretary Gates, while the fiscal year 2012 
budget includes a $200 million increase over the President's fiscal 
year 2011 level, overall FYDP funding is cut by $2.6 billion. Given the 
President's commitment to missile defense as reaffirmed during our 
debate on the New START treaty just a few months ago, how does DOD 
justify significant out-year decreases for missile defense?
    Secretary Gates. The Missile Defense Agency (MDA) budget for 2011 
through 2015 is based on the missile defense priorities set forth in 
the Ballistic Missile Defense Review (BMDR). The MDA budget strategy in 
fiscal year 2012 identified efficiencies and balanced personnel, 
budgetary and management resources within and across its components. In 
instituting efficiency initiatives, the MDA will make greater use of 
competition across its acquisition programs and realize savings through 
a refined approach to contracting for services.

        EVOLUTIONARY ACQUISITION FOR SPACE EFFICIENCY INITIATIVE

    65. Senator McCain. Secretary Gates, while I appreciate the stated 
goals of the Evolutionary Acquisition for Space Efficiency initiative 
for procuring satellite systems, I remained concerned with the overall 
track record of cost overruns and schedule delays for space systems. 
Does DOD intend to follow the requirements set forth by this committee 
on multiyear procurements, to include:

        <bullet> A certification that the use of such a contract will 
        result in substantial savings;
        <bullet> That the minimum need for the property to be purchased 
        is expected to remain substantially unchanged during the 
        contemplated contract period;
        <bullet> That the head of the agency will request funding for 
        the contract at the level required to avoid contract 
        cancellation;
        <bullet> That there is a stable design for the property to be 
        acquired and that the technical risks associated with such 
        property are not excessive; and
        <bullet> That the estimates of both the cost of the contract 
        and that anticipated cost avoidance through the use of a 
        multiyear contract are realistic.

    Secretary Gates. The DOD discussed the multiyear procurement 
provisions at length with the White House and congressional staffs. As 
a result of these discussions, DOD determined that multiyear 
procurement authorization is not required for this space system. 
Therefore, the model DOD is implementing is not multiyear procurement. 
The Air Force is procuring two satellites in a block in a single year. 
However, full funding for both satellites in a single year is just not 
practically achievable in today's budget environment.
    I share your concern with the past performance of space programs. I 
am bringing the block buy approach forward to address specific root 
causes of some of those difficulties. The stability that comes with 
buying in quantity, even in quantities of two, will help the prime 
contractors, subcontractors, and parts and supplies vendors. These 
satellites have thousands of often sophisticated components, tens of 
thousands of complex integrated circuits, and many dozens of unique 
designs only found in U.S. factories. The people who design and 
manufacture these parts and subparts are highly talented but small in 
number, and DOD wants to keep them working for its needs. Further, the 
government will realize lower unit costs by buying in quantity and by 
minimizing production line stops and restarts.

    66. Senator McCain. Secretary Gates, in pursing this contracting 
strategy, what sort of accountability does DOD intend to place on the 
prime contractor of these satellite systems?
    Secretary Gates. The best approach for accountability under the 
acquisition strategy for the AEHF communications satellites is the 
fixed-price, incentive fee contract. Government liability is 
constrained if the contractor experiences problems directly related to 
contractor responsibilities within the scope of the contract. Contract 
penalties for unmet milestones or premature failure in on-orbit 
performance will also apply. Along with these provisions, DOD plans to 
bring improved industrial base stability that should help avoid some of 
the conditions that contributed to past cost overruns.
    In addition, designating block buys as subprograms will provide 
congressional insight into actual space vehicle block costs. The 
resulting visibility ensures Air Force and DOD accountability for the 
costs and funding requirements to which they committed at the block 
Milestone Decision.

    67. Senator McCain. Secretary Gates, do you share my concern about 
using these sorts of contracts for these sorts of programs?
    Secretary Gates. While I share your general concern regarding 
accountability and space acquisition management in particular, I think 
there is merit to the block buy approach for AEHF. The AEHF satellite 
program, the first program with which DOD seeks to implement this 
approach, is now a well-defined acquisition program with plenty of 
execution data around which to design a stable production program. The 
operational requirements are well validated; all derived system-level 
specifications are clear; and the experienced government/contractor 
team is in place. Additionally, one satellite has launched, one is in 
storage awaiting launch, and two more are in various stages of 
production. I anticipate the block buy of satellites 5 and 6 to be a 
smooth continuation of the production line. To support these 
contracting efforts, DOD is implementing ``should cost'' analyses to 
gain a much more detailed and thorough understanding of the cost 
structure for AEHF and other space programs. I believe maturity and 
stability lend well to a fixed-price contracting strategy.

    68. Senator McCain. Secretary Gates, how do you intend to ensure 
that these types of contracts are used appropriately and judiciously 
for these programs?
    Secretary Gates. DOD put a great deal of thought into this overall 
approach to include the contracting strategy, focusing on mature 
programs that have reached the production phases of their life cycles. 
Because development is complete, I do not expect unplanned design or 
manufacturing changes. However, an important element of this approach 
is sound obsolescence management. The contractor team will have an on-
going effort to identify components set to be discontinued or 
superseded. As they identify these parts, their engineers can make 
smart adaptations to the assembly or test before the update affects the 
production flow. On our end, DOD is ensuring the performance 
requirements levied upon these systems do not change, which is critical 
over the duration of the block build. In summary, these conditions go 
hand-in-hand with a fixed-price contracting approach.

                      NUCLEAR TRIAD MODERNIZATION

    69. Senator McCain. Secretary Gates, when released last year, the 
NPR set forth a broad vision that must not be viewed outside of the 
realm of affordability. The cost alone for modernizing both the nuclear 
weapons complex and the triad are substantial, and as we move to reduce 
the size of our nuclear stockpile, this modernization effort becomes 
all the more important. Factoring in the cost of missile defense and 
prompt global strike--both essential and critical, but also costly, 
programs--the overall budget outlook seems to suggest steady increases 
for the foreseeable future. The same defense budget which you recently 
stated will experience at most long-term growth of 1 percent a year 
after inflation. What is the near-term and long-term affordability of 
implementing the NPR?
    Secretary Gates. The 2010 NPR concluded that a Triad of strategic 
forces best maintains strategic stability at reasonable cost, while 
hedging against potential technical problems or geopolitical surprise. 
The 10-year estimate for sustaining the nuclear deterrent 
(approximately $214 billion) was identified in the fiscal year 2012 
Annual Update to the report pursuant to section 1251 of the NDAA for 
Fiscal Year 2010. These costs are larger than the planned overall 
growth of 1 percent per year after inflation. This results from the 
need to begin the activities necessary to replace or sustain all three 
legs of our nuclear Triad over the next 2 to 3 decades. This cost 
projection is considered essential to maintaining our nuclear deterrent 
and is in accordance with the NPR.
    DOD will continue to assess the force size required for an 
effective deterrent. While we work to maintain a safe, secure, and 
effective arsenal, a wide range of efficiency measures also are being 
explored, including a research and development program, which was noted 
in the NPR. This program was initiated to focus on commonality between 
the military departments' requirements and joint, scalable flight-test 
demonstrations. DOD is committed to sustaining and modernizing the 
Triad in an efficient and cost-effective manner while maintaining 
strategic stability and deterrent capability.

    70. Senator McCain. Secretary Gates, the fiscal year 2012 budget 
provides funding for a next generation long-range bomber and the next 
generation ballistic missile submarine; however, little has been said 
about the next generation intercontinental ballistic missile (ICBM) 
which is needed by 2030. When does DOD intend to provide details on the 
funding requirements and timeline for the development, production, and 
deployment of a new ICBM?
    Secretary Gates. The administration plans to sustain the Minuteman 
III ICBM through 2030, as required by section 139 of the NDAA for 
Fiscal Year 2007. Sustainment programs include ICBM Fuze Refurbishment 
for the Mk12A and Mk21 reentry vehicles, Joint Fuze Development on the 
Mk21 and Mk12A replacement, the ICBM Cryptography Upgrade II for 
nuclear surety, the Safety Enhanced Reentry Vehicle program, the 
Propulsion System Rocket Engine Refurbishment Life Extension Program, 
the Environmental Control System Replacement Program, the ICBM Security 
Modernization Program, and the Minuteman Minimum Essential Emergency 
Communications Network Program Upgrade. Other sustainment programs may 
be necessary, and weapon system requirements are being reviewed to 
ensure the viability of the Minuteman III ICBM through 2030.
    The preparatory analysis for a follow-on ICBM capability fielded in 
the 2030 timeframe began in 2011. The Ground-Based Strategic Deterrent 
(GBSD) Analysis of Alternatives (AoA) will assess potential materiel 
solutions including sustaining the current Minuteman III ICBM weapon 
system and supporting infrastructure. During the GBSD AoA review, 
concepts will be evaluated for effectiveness, cost, schedule, concepts 
of operations, and overall risk in meeting operational requirements. 
DOD will recommend a specific way-ahead to the budget for an ICBM 
follow-on in fiscal year 2014.

    71. Senator McCain. Secretary Gates, what about a replacement 
nuclear capable air-launched cruise missile (ALCM)?
    Secretary Gates. The ALCM will be maintained in the inventory until 
the Long-Range Standoff (LRSO) missile capability is fielded. The ALCM 
will undergo multiple service life-extension programs to ensure the 
viability of the propulsion systems, guidance and flight control 
systems, and warhead arming components. DOD intends to field an 
advanced penetrating LRSO missile to replace the ALCM, and the Air 
Force has programmed $0.9 billion for research, development, test, and 
evaluation (RDT&E) over the next 5 years for the development of the 
LRSO.

    72. Senator McCain. Secretary Gates, when should budgets begin to 
reflect the steady increases suggested in the NPR?
    Secretary Gates. In fiscal year 2012, DOD will begin to see more 
substantial progress with NPR-driven modernization recommendations. 
These include:

    (1)  Investments in research, development, and test and evaluation 
of Conventional Prompt Global Strike capabilities;
    (2)  Construction of the Navy's West Coast Explosive Handling Wharf 
to ensure safe missile and warhead off/on loading operations and 
maintenance for Pacific SSBN operations; and
    (3)  The Air Force initiation, as directed, of a program for a new 
long-range, nuclear-capable penetrating bomber.

    The President's fiscal year 2011 and fiscal year 2012 budgets 
include funding of NPR initiatives. The February 2011 update to the 
report submitted pursuant to section 1251 of the NDAA for Fiscal Year 
2010 provides a summary of spending for delivery systems and weapon-
related activities of the NNSA, which total approximately $214 billion 
from fiscal year 2012-fiscal year 2021.

    73. Senator McCain. Secretary Gates, what are the implications for 
the strategic deterrent if we don't modernize the triad or find we 
cannot afford to?
    Secretary Gates. The United States will sustain a safe, secure, and 
effective nuclear arsenal as long as nuclear weapons exist. The NPR 
calls for making investments in nuclear delivery systems to ensure that 
existing capabilities are adequately sustained with essential upgrades 
and modifications. Such investments, and the NPR's strategy for 
continued delivery system capability, represent a credible 
modernization plan necessary to sustain and support our Nation's 
deterrent.

                   2005 BASE REALIGNMENT AND CLOSURE

    74. Senator McCain. Secretary Gates, as you may know, DOD is 
required by law to complete base realignment and closure (BRAC) 
resulting from the 2005 BRAC round by September 15, 2011. Is DOD on 
track to meet this deadline? If not, why not?
    Secretary Gates. While the Department faces scheduling challenges 
in a few cases, it is working diligently to ensure we satisfy our BRAC 
legal obligations.

    75. Senator McCain. Secretary Gates, in meeting the deadline, will 
you have construction completed on all facilities and infrastructure 
directly and indirectly required to support the BRAC moves?
    Secretary Gates. There are a limited number of direct and indirect 
infrastructure projects on which some elements of construction will 
continue after September 15. The Department is working diligently to 
ensure it satisfies the BRAC legal obligations, even if some 
construction continues past the deadline.

    76. Senator McCain. Secretary Gates, what are the costs incurred by 
DOD to complete all 2005 BRAC actions and any unobligated balances you 
may have?
    Secretary Gates. The overall cost to implement BRAC 2005 is $35.1 
billion. I do not anticipate that the Department will have any 
significant unobligated balances at the end of the BRAC 2005 
implementation period.

    77. Senator McCain. Secretary Gates, in your opinion, should DOD 
conduct another round of BRAC to reduce excess infrastructure? If so, 
when should DOD conduct the next round?
    Secretary Gates. DOD is not currently seeking authority to 
undertake another round of closures and realignments under the Defense 
BRAC Act of 1990, as amended. The Department is currently focused on 
completing implementation of the 2005 BRAC round.

                      STATUS OF THE NATO ALLIANCE

    78. Senator McCain. Secretary Gates, at the NATO Munich Security 
Conference that I attended last month, it was clear that the intent for 
European members of the alliance is to address fiscal constraints by 
slashing their defense budgets, ending drafts, sharing resources, and 
increasing their reliance on American military capabilities. How are 
you addressing concerns the changes could burden the United States by 
reducing the number of European troops available for NATO missions and 
other military efforts around the world?
    Secretary Gates. Over the past 10 years, most European Allies 
increased their deployable and sustainable forces and capabilities, in 
spite of steady declines in defense spending. They accomplished this by 
reducing the size of forces designed primarily for territorial defense, 
and by investing in more capable expeditionary forces. But there are 
obviously limits to how long those Allies can rely on reinvesting the 
savings from force structure reductions to sustain this type of 
transformation. I am now generally urging senior European Ally 
officials to avoid reducing force structure as they consider decisions 
about how to allocate scarce defense resources, and instead to seek 
efficiencies through multinational cooperation and sharing resources. 
Most European Allies have told me that they are not planning to make 
defense cuts that will affect current operational commitments. Of 
course, the realities of the fiscal crisis in Europe and the required 
reductions in defense spending are such that preserving force structure 
and sustaining the current high operating tempo will probably result in 
less investment in future capabilities. As a result, I intend to ask my 
Defense counterparts to commit to increasing defense investment once 
their military operating tempo decreases after the successful 
transition of security responsibility to the Afghan Government.
    I do not believe that Europe has descended into an irreversible 
fiscal crisis. At their next meeting in March, NATO Defense Ministers 
will be asked to agree to Political Guidance for Allied defense 
planners. This planning guidance looks forward 10 years. I intend to 
push hard for no decrease in NATO's level of ambition, continued 
increases in the deployability and sustainability of NATO forces, and a 
long-term recommitment to the benchmarks of 2 percent GDP devoted to 
defense spending and 20 percent of defense expenditures allocated to 
investment in future capabilities.

    79. Senator McCain. Secretary Gates, how is the dynamic nature of 
fiscal decisions by members of the alliance affecting U.S. military 
planning?
    Secretary Gates. DOD must consider the availability and capability 
of NATO forces in its planning process. DOD always seeks to mitigate 
the risks of assumptions in its contingency plans (including 
assumptions about partner participation) by developing multiple options 
for plan execution. DOD is also engaged in regular bilateral dialogue 
with our Allies (particularly with the United Kingdom, Canada, and 
Australia), and in multilateral discussions to clarify planning 
assumptions.
    The NATO Alliance has a particularly well-developed defense 
planning process to assist Allies in identifying NATO needs. This 
process is focused not only on ensuring that Allied military forces 
prevail in current operations, but also on ensuring that NATO can 
implement the November 2010 Strategic Concept, including the ability to 
address 21st century security challenges. This planning process and 
these multilateral discussions inform our national decisions on defense 
planning and resourcing.

    80. Senator McCain. Secretary Gates, will the reduction of forces 
and resources available from other alliance members force the United 
States to have to make adjustments in order to meet treaty obligations?
    Secretary Gates. The reduction of forces and resources available 
from other Alliance members will not force the United States to make 
adjustments in order to meet its obligations under the North Atlantic 
Treaty. In keeping with Article 3 of the Treaty, DOD will continue to 
work with America's Allies through the NATO Defense Planning Process to 
determine the correct mix of forces and capabilities needed to maintain 
and develop our individual and collective capacity to resist armed 
attack, and to maintain the security of the North Atlantic area. In 
addition to treaty obligations, Allied partners agreed in the NATO 
Strategic Concept and other strategic-level guidance that NATO must 
also have the capability to conduct non-Article 5 crisis response 
operations. In the current and projected security environment, meeting 
NATO's level of ambition for crisis response operations and security 
cooperation with partners is likely to require a much greater share of 
Allies' national defense resources than honoring treaty obligations.

    81. Senator McCain. Secretary Gates, the current plan for U.S. Army 
force structure in Europe since 2004 has been to drawn down from four 
to two Brigades Combat Teams (BCT) by 2014 and to close military bases 
at Bamberg and Schweinfurt. This would reduce the Army force posture in 
Europe by 8,000 troops, leaving approximately 36,000 Army forces 
available in theater for missions and training. You are in the process 
of evaluating a request by the Commander of European Command (EUCOM) to 
leave the four BCTs in place. In light of the actions of other European 
nations to reduce their military resources and forces, why would it be 
in the best interest of the United States to reverse our planned 
reductions, reverse base closures, and to maintain additional forces in 
Europe?
    Secretary Gates. As part of a broader review of global defense 
posture, the United States is reexamining our capabilities and force 
structure in Europe ensuring that our country is well positioned to 
support Allies and partners in a 21st century security environment. 
NATO's new Strategic Concept reaffirmed NATO's core commitment to 
Article 5 of the North Atlantic Treaty, as well as its commitment to 
crisis management and cooperative security. Allies must be prepared to 
meet a broad range of 21st century challenges through work in new 
areas, such as missile defense and cyber security, and through 
modernizing traditional capabilities. The United States is committed to 
a defense posture in Europe that meets its enduring commitment to 
NATO's Article 5, ensures a credible deterrent against all forms of 
aggression, and maintains a robust capacity to build Allied and partner 
capacity for coalition operations. The President is making his decision 
about U.S. Army force structure in Europe based on that information.

    82. Senator McCain. Secretary Gates, what does EUCOM gain by having 
44,000 Army personnel in Europe vice 36,000 troops assigned and 
available for theater security cooperation efforts, particularly given 
the realization that the Commanders of Africa Command (AFRICOM), 
Southern Command (SOUTHCOM), or Central Command (CENTCOM) have very 
little or no forces assigned to their commands?
    Secretary Gates. U.S. Army force posture in Europe not only enables 
theater security cooperation, but it also assures our allies; it is the 
cornerstone of NATO; and it supports global requirements, including 
those for operations in Iraq and Afghanistan. Over the past 10 years, 
EUCOM-assigned Army brigade combat teams (BCTs) in particular have 
rotated consistently into the CENTCOM area of responsibility. Forward-
based forces provide significant flexibility in force management, and 
often are more efficient than U.S.-based forces, as demonstrated most 
recently by the rapid manner in which EUCOM-assigned forces were 
allocated to AFRICOM for Operation Odyssey Dawn. Moreover, CENTCOM 
routinely receives forces assigned outside its area of operations, 
including from EUCOM.

    83. Senator McCain. Secretary Gates, would this decision actually 
validate the intent of the NATO alliance members to increase reliance 
on the U.S. forces and capabilities for their regional security 
requirements?
    Secretary Gates. Almost all of the forces and capabilities 
available to NATO, other than the headquarters that are part of the 
NATO command structure, are provided by member nations and funded 
through their national defense budgets. The principal external 
influences on national defense budget decisions are the NATO defense 
planning process and bilateral consultations. The NATO defense planning 
process allocates force planning targets to nations based on the 
principles of burden sharing and reasonable challenge. When a nation 
fails to achieve its force planning targets due to insufficient defense 
spending, those targets are not reallocated to another nation unless 
other Allies determine that the original allocation posed an 
unreasonable challenge (the challenge is considered reasonable as long 
as it does not require the Nation to spend more than 2 percent of its 
GDP on defense).
    Although nations may use many excuses for not allocating sufficient 
resources to meet NATO objectives, it is unlikely that U.S. decisions 
to support our security commitments will prompt other Allies not to 
support their commitments. In fact, the opposite is normally true. In 
the multilateral reviews of each member's defense plans that occur at 
NATO, peer pressure makes it more difficult for nations to reduce their 
commitment to NATO further, and the most intense pressure comes from 
those nations that are setting an example by meeting their commitments. 
The fact that no Allies have pressed to reduce the NATO level of 
ambition upon which defense requirements are based, nor the goal of 
spending 2 percent of GDP on defense, indicates that they want that 
peer pressure to continue. Although I am never happy when European 
Allies decide to reduce defense spending, I firmly believe that without 
the example set by U.S. leadership within the Alliance, European 
Allies' defense spending would be even lower.

                    COMPETITION AND LIFECYCLE COSTS

    84. Senator McCain. Secretary Gates, both the Weapon System 
Acquisition Reform Act (WSARA) of 2009 and DOD's efficiency initiatives 
espouse guiding principles of increasing competition to lower lifecycle 
costs. While these are commendable goals given the current budget 
crisis, I am concerned with the pace and extent of implementation, 
particularly given recent DOD data that of $366 billion in total DOD 
contract obligations in fiscal year 2010, $188 billion was identified 
as not competed or receiving only one bid. Please provide examples from 
each of the military departments where competition has been used to 
lower lifecycle costs.
    Secretary Gates. Life-cycle cost can be defined as the total cost 
to the government of a program over its full life, including costs for 
research and development; testing; production; facilities; operations; 
maintenance; personnel; environmental compliance; energy; and disposal. 
Competition can be used to reduce costs in each of the individual 
stages but is most effective in reducing procurement/acquisition and 
sustainment costs. The following are some examples of competition 
reducing cost in these areas:

        <bullet> In the Army, within the Joint Tactical Radio System 
        (JTRS) portfolio, the Multifunctional Distribution Information 
        System-Low Volume Terminal (MIDS-LVT) radio program is an 
        example of how competition has resulted in procurement cost 
        savings. During the production phase of the MIDS-LVT program, 
        competition has resulted in approximately 60 percent cost 
        savings. The initial production cost of the radio was $435,000 
        per unit and, through ongoing competition between the two 
        approved vendor production sources, the cost per unit has 
        steadily decreased to $181,000 per unit. With over 2,600 MIDS-
        LVT units purchased to date, the program has achieved hundreds 
        of millions of dollars in procurement savings through the 
        successful MIDS-LVT competitive acquisition strategy.
        <bullet> For the Air Force, the MQ-1 Predator Organizational-
        level maintenance contract is a good example of how competition 
        produced acquisition cost savings. The initial contract, issued 
        in March 2005, was a sole source award to the Original 
        Equipment Manufacturer (OEM), General Atomics Aeronautical 
        Systems. This decision not to compete the Organization-level 
        maintenance contract was primarily driven by the lack of 
        published technical orders. When those technical orders became 
        available, the contract was recompeted 1 year ahead of schedule 
        and awarded to Battle Space Flight Services. This competition 
        resulted in a savings of $102 million. Because of increased and 
        accelerated wartime demand, the Air Force is anticipating 
        additional savings over the life of the contract. The ability 
        to compete between the OEM and the current supplier in the 
        future will continue to enable cost savings.
        <bullet> For the Navy, the most visible example is the LCS 
        Program. After receiving proposals from Lockheed Martin and 
        Austal USA in early 2010 that were deemed unaffordable, the 
        Navy changed its acquisition strategy to an all-or-nothing 
        competitive contract award and encouraged the companies to 
        establish leaner teaming arrangements. After proposals were 
        submitted, the Navy realized they could achieve competitive 
        prices, and the requirement was re-solicited for a 10-ship 
        contract award to each company. In December 2010, Lockheed 
        Martin and Austal USA were each awarded fixed-price incentive 
        contracts for the design and construction of 10 ships from 
        fiscal year 2010 through fiscal year 2015. The benefits of 
        competition; serial production; employment of mature 
        technologies; design stability; fixed-price contracting; 
        commonality; and economies of scale contributed to reduced life 
        cycle costs and a highly affordable ship construction program. 
        The approach, self-financed within the program budget by re-
        investing a portion of the greater than $2 billion in total 
        savings through the FYDP, enabled the addition of a year of 
        ship procurements. The approach also enables the DoN to 
        efficiently produce the ships at an increased rate to meet 
        operational requirements sooner.

    85. Senator McCain. Secretary Gates, have you found areas where DOD 
can leverage commercial investment in technology, manufacturing, and 
service capability to decrease expenses for lifecycle support 
requirements?
    Secretary Gates. DOD is leveraging commercial technology, 
manufacturing, and service capabilities in many ways to reduce weapons 
system life cycle costs. Since 1998, the USD(AT&L) Commercial 
Technologies for Maintenance Activities (CTMA) program has been 
steadily improving maintenance efficiency and effectiveness by 
integrating proven commercial maintenance technologies into DOD 
maintenance activities. The Military Departments are undertaking a 
variety of initiatives leveraging commercial investments through the 
CTMA program. For example:

        <bullet> The Department of Air Force implemented a commercially 
        developed capability, which replaced legacy pin-to-pin 
        continuity procedures with the Enhanced Wiring Integrity System 
        (EWIS). The EWIS gives maintainers the ability to check the 
        integrity of entire wire bundles within seconds and not only 
        detects a fault, but also isolates the fault to within inches 
        of its origin to assist the maintainer in rapidly repairing the 
        wire. The EWIS is widespread across the Air Force, and it is 
        transitioning to the U.S. Navy and Army aviation, as well as to 
        the Marine Corps land systems.
        <bullet> The Department of Navy utilized commercial technology 
        employed by airports to detect trace amounts of explosives on 
        passengers and luggage to detect contaminate in lubricants and 
        hydraulic fluids used across the DOD. The resultant capability 
        is being employed on Military Sealift Command vessels where 
        this hand-held tool can assess contamination, viscosity, and 
        other critical fluid parameters in under a minute per test. 
        This capability is in transition to the Army, Navy, and Air 
        Force for diesel oils used in ground vehicles and support 
        equipment.
        <bullet> The Department of Army is leading the transition of a 
        commercial technology developed for the automotive maintenance 
        industry and widely used for commercial airline maintenance. 
        This capability, the Automated Process and Inspection Guide 
        (AP&IG), provides accurate point of maintenance technical data 
        and collects standard inspection and maintenance data. AP&IG 
        has: reduced inspection times by 40 percent; reduced repair 
        turn times; and improved overall maintenance quality.

    Performance Based Logistics (PBL) is a strategy that has been 
successful in leveraging company investment in technology and services 
throughout commercial industry. This support strategy has transferred 
to many applications across the DOD for Weapon System Sustainment. PBL 
incentivizes the provider to deliver a guaranteed outcome at a fixed 
price. What have traditionally been revenue centers in transactional 
relationships between government and industry become cost centers under 
PBL. PBL strategies can improve both product reliability and processes 
to drive down costs. Industry makes up front investments to lower costs 
by improving the product and streamlining sustainment processes. PBL 
strategies support the warfighter through increased availability, 
reduced logistics footprint, and lower life cycle costs.

    86. Senator McCain. Secretary Gates, how specifically is DOD better 
incentivizing and empowering program managers to bring competition into 
otherwise previously sole-sourced lifecycle programs, whether termed as 
maintenance, repair, and overhaul (MRO); or contractor logistics 
support (CLS); or PBL?
    Secretary Gates. The USD(AT&L) November 3, 2010 memo to the 
Military Departments and Defense Agencies directed immediate action to 
increase competition. The acquisition community is addressing this in 
the development of Weapon System Acquisition Strategies. Specifically, 
the Secretaries of the Military Departments and Defense Agency 
Directors were directed to implement the following:

        <bullet> Present a competitive acquisition strategy at each 
        program milestone: Provide a one-page competitive strategy for 
        each Acquisition Category (ACAT) 1D program at each milestone 
        as part of the overall acquisition strategy.
        <bullet> Report to USD(AT&L) in fiscal year 2011 on how their 
        military department or agency intends to reduce single-bid 
        competitions--negotiations when only one offer is received. At 
        a minimum, the report will address market research, restricted 
        specifications, and adequate time for proposal preparation.
        <bullet> Achieve a 2 percent reduction in single-bid 
        competitive contracts in fiscal year 2011, with continuing 
        reductions thereafter.
        <bullet> Remove obstacles to competition: ensure contracting 
        officers conduct negotiations with all single-bid offerors, 
        unless this requirement is specifically waived by the Head of 
        Contracting Activity or Military Department Secretary. The 
        basis of these negotiations will be cost or price analysis, as 
        the case may be, using either certified or non-certified cost 
        or pricing data, as appropriate.
        <bullet> Have their component or agency competition advocate 
        develop a plan to improve both the overall rate of competition 
        and the rate of effective competition. These plans establish an 
        improvement rate of at least 2 percent per year for overall 
        competition and an improvement rate of at least 10 percent per 
        year for effective competition.
        <bullet> Require open systems architectures and set rules for 
        acquisition of technical data rights: Program managers are to 
        conduct a business case analysis in concert with the 
        engineering tradeoff analysis presented at Milestone B. The 
        business case analysis outlines the open systems architecture 
        approach, combined with technical data rights the Government 
        pursues in order to ensure a lifetime consideration of 
        competition in the acquisition of weapon systems. The results 
        of this analysis will be reported in the Acquisition Strategy 
        Report and in the competition strategy.
        <bullet> Increase the dynamic small business role in the 
        defense marketplace competition: All competitive and non-
        competitive procurement actions will seek to increase small 
        business participation through weighting factors in past 
        performance and fee construct.

    These actions apply to all contracts, including MRO, CLS, and PBL 
contracts. The result will be program executive officers and program 
managers developing a competitive strategy early in acquisition that 
spans the program's life and improves the ability to compete MRO, CLS, 
and PBL contracts in sustainment. For example, the Navy undertook a 
specific initiative to engage each program executive officer, program 
manager, and Product Support Manager (PSM) to emphasize real 
competition at every stage of acquisition and sustainment.

        <bullet> The Navy directed the program executive officers/
        program managers/PSMs to establish a competitive environment 
        throughout the life cycle of their programs, and to enable 
        better competitive opportunities in the sustainment phase. 
        Additionally, program executive officers and program managers 
        are reviewing their existing portfolios in pursuit of increased 
        competitive opportunities, including consideration of breakout 
        opportunities, and expanding open architecture solutions and 
        small business opportunities that fosters additional 
        competition.
        <bullet> The Army is emphasizing the conduct of logistics 
        analyses early to baseline costs and develop technical data 
        requirements that facilitate competition in sustainment 
        contracts.
        <bullet> The Air Force is also taking proactive steps to ensure 
        program managers and PSMs correctly identify and pursue data 
        rights in their contract negotiations to facilitate competition 
        in sustainment. The outcome will be required warfighting 
        capability at a reduced cost to the Government.

    87. Senator McCain. Secretary Gates, the committee spearheaded 
legislation which became Section 805 of the NDAA for Fiscal Year 2010 
regarding Lifecycle Management and Product Support, calling for PSMs to 
maximize competition and make the best possible use of available DOD 
and industry resources at the system, subsystem, and component levels. 
Section 805 was implemented through Under Secretary Carter's Directive-
Type Memorandum on October 6, 2010. Since then, how has competition at 
subsystem and component levels been pursued to reduce lifecycle costs?
    Secretary Gates. Since the issuance of the DTM, the military 
departments continue to implement section 805 and have made significant 
progress identifying PSMs for ACAT I and II programs and issuing the 
guidance. One of the PSM's major duties is to promote opportunities to 
maximize competition while meeting the objective of best-value, long-
term outcomes for the warfighter.
    To this end, the Defense Acquisition University developed and 
fielded DOD Life Cycle Management and PSM Rapid Deployment training 
with strong attendance across the DOD and the industry acquisition 
community, which specifically addresses increased competition.
    Additionally, the military departments are undertaking a variety of 
initiatives to increase competition. For example:

        <bullet> The Navy engaged each Program Executive Office (PEO) 
        and program manager to establish a solid foundation for a 
        competitive environment throughout the life cycle. Therefore, 
        the PEOs and program managers are reviewing existing portfolios 
        in pursuit of increased competition opportunities, including 
        consideration of breakout opportunities at the subsystem and 
        component levels to reduce lifecycle costs.
        <bullet> The Air Force published regulations and guidebooks 
        that detail the importance of competition. The Air Force is 
        specifically focusing on sole-source contracts for software 
        maintenance, as well as engine repairs and parts, to increase 
        competition.
        <bullet> The Army plans to review and refine internal practices 
        and processes over the course of the next year that empower the 
        PSM to promote competitive opportunities.

                  COST-SHARING FOR MILITARY HEALTHCARE

    88. Senator McCain. Secretary Gates, regarding the administration's 
healthcare reform proposals, I received a letter signed by the Joint 
Chiefs of Staff (JCS) endorsing the administration's reform proposal 
and request that this letter be included in the record. I know that we 
will hear from many other interested stakeholders, and we must consider 
those views as well. Do you agree that we must always remain committed 
to ensuring that the quality of healthcare for our military 
servicemembers, their families, and veterans is never compromised, even 
in tough economic times?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Gates. Yes. The performance and the quality of care 
delivered by the Military Health System (MHS) in austere, combat 
environments continue to exceed anything ever witnessed and recorded in 
battlefield medicine. For example, increased survival rates from wounds 
and decreased loss of personnel from disease and non-battle injuries 
are two areas where our medical system established itself as world-
class.
    Here at home, our MHS is also among the best in terms of quality 
and outcome throughout the Nation.
    I stand proudly and strongly by DOD's commitment to military 
healthcare quality and excellence and will never compromise or waver 
from this standard. This proven commitment to high performance is 
separate and distinct from any potential minor changes in TRICARE 
enrollment fees or copayments. Our MHS rests on a core principle of 
trust with the people DOD serves, and that trust must never be broken.

    89. Senator McCain. Secretary Gates, please explain how the health 
reform proposals that you have put forth fulfill this obligation, and 
most especially for our wounded warriors?
    Secretary Gates. The overall health budget for fiscal year 2012 
represents an increase in the fiscal year 2011 request, as DOD 
continues to invest in initiatives that strengthen the military 
healthcare system for today and into the future.
    DOD continues increasing financial investment in medical research 
and development for its wounded warriors, particularly in the areas of 
traumatic brain injury, psychological health, extremity injuries, 
amputee care, and regenerative medicine. Additionally, DOD is modifying 
significantly the Disability Evaluation System to oversee the 
disability evaluation process in a manner that best meets the needs of 
each servicemember.
    These health reform proposals are intended to secure the long-term 
financial security of the MHS. By introducing this set of reform 
proposals now--reforms that establish internal efficiencies, reforms 
that standardize reimbursement policies to civilian network providers 
and reforms to beneficiary out-of-pocket costs--DOD continues providing 
a comprehensive health benefit for DOD beneficiaries.

    90. Senator McCain. Secretary Gates, what medical index rate would 
DOD plan to use for TRICARE fees and why?
    Secretary Gates. A final decision on the exact medical index has 
not been made. DOD is in ongoing discussions with various stakeholders 
on what might serve as the most appropriate index. The aim is to select 
an index that is transparent, based on actual market costs, relevant to 
the retired population and demographics at issue, clear and 
understandable, and one that reflects foreseeable growth in health care 
costs.

           UNAUTHORIZED DISCLOSURES OF CLASSIFIED INFORMATION

    91. Senator McCain. Secretary Gates, in regard to unauthorized 
disclosures of classified information, do you believe that changes to 
DOD policy (particularly policies governing access to classified 
systems) would be sufficient to prevent another Wikileaks event? If 
not, what other changes would you recommend?
    Secretary Gates. I share your concern regarding the unauthorized 
disclosure of classified information and DOD is reviewing policies to 
mitigate the risk of future disclosures. As DOD continues efforts to 
improve its policies and information sharing capabilities, it will 
strive to implement the mechanisms necessary to protect intelligence 
information without reverting back to pre-September 11 stovepipes. One 
of the major contributing factors in the WikiLeaks incident was the 
large amount of data that was accessible with little or no access 
controls. Broad access to information can be combined with access 
controls to mitigate this vulnerability, without overly restricting 
users from obtaining the information they need.
    One example of an access control mechanism that DOD has begun is to 
issue a Public Key Infrastructure (PKI)-based identity credential on a 
hardened smart card. This is very similar to the Common Access Card 
(CAC) used on the unclassified network. DOD will complete issuing 
500,000 cards to SIPRNet users, along with card readers and software, 
by the end of 2012. This will provide very strong identification of the 
person accessing the network and requesting data. It will both deter 
bad behavior and require absolute identification of who is accessing 
data and managing that access.
    In conjunction with this effort, all DOD organizations will 
configure SIPRNet-based systems to use the PKI credentials to strongly 
authenticate end-users who are accessing information in the system. 
This provides the link between end users and the specific data they can 
access--not just network access. DOD's goal is that by 2013, following 
completion of credential issuance, all SIPRNet users will log into 
their local computers with their SIPRNet PKI/smart card credential.

    92. Senator McCain. Secretary Gates, do you plan to conduct or 
oversee a damage assessment on the Wikileaks disclosures?
    Secretary Gates. DOD conducted an assessment of the disclosed DOD 
information to determine what actions must be taken to mitigate the 
disclosures' effect on U.S. forces, the coalition, and host nation 
partners. At my direction, the Intelligence Review Task Force (IRTF), 
established under the purview of the Defense Intelligence Agency (DIA), 
reviewed every line of the disclosed information and worked with our 
foreign partners and the combatant commands (COCOM) to warn of 
potential danger and mitigate the degree of risk or threat resulting 
from the compromise.
    The IRTF did not conduct a full damage assessment due to the 
interagency nature of the disclosed material and of the risk incurred. 
The Office of the National Counterintelligence Executive in the Office 
of the Director of National Intelligence (DNI) has the mandate to 
conduct damage assessments in these circumstances and is in the process 
of doing so.

    93. Senator McCain. Secretary Gates, what changes need to be made 
in the way that DOD conducts background investigations for security 
clearances?
    Secretary Gates. DOD investigative service provider is the Office 
of Personnel Management (OPM) which conducts 95 percent of all 
background investigations for security clearances across the Federal 
Government, including the majority of DOD investigations. The 
background investigations are conducted utilizing requirements set 
forth in the 1997 Federal Investigative Standards for Background 
Investigations for Access to Classified Information, which are 
promulgated at the national level.
    The Federal Investigative Standards are currently being rewritten 
by a working group composed of representatives from the Intelligence 
Community, DOD, and other executive branch departments and agencies. 
The new Federal Investigative Standards will apply 21st century 
technology using an enterprise-wide approach. These technologies will 
enable more cost-effective and timely case management and information 
sharing.

    94. Senator McCain. Secretary Gates, do you see the need for 
increased counterintelligence scrutiny or investigations of cleared DOD 
personnel?
    Secretary Gates. DOD investigative service provider is the OPM that 
conducts 95 percent of all background investigations for security 
clearances across the Federal Government, including the majority of DOD 
investigations. The background investigations are conducted utilizing 
requirements set forth in the 1997 Federal Investigative Standards for 
Background Investigations for Access to Classified Information, which 
are promulgated at the national level.
    Since DOD investigations are conducted in accordance with the 
Federal investigative standards, we do not believe additional 
investigations are warranted beyond what is required by existing 
policies. When the current personnel security investigation develops 
indicators requiring security, law enforcement, or counterintelligence 
follow-up actions, the information is referred to the appropriate 
organization. DOD policies and legal guidelines concerning law 
enforcement, security, and counterintelligence investigations identify 
what circumstances require investigations.
    DOD policy directs that when counterintelligence, security, or 
other types of investigations are completed on, or derogatory 
information is received regarding personnel with a security clearance, 
the information must be provided to the individual's Commander/
Director. Finally, DOD is a champion of the Joint Reform Effort, and 
key members of DOD are participating in the development of new 
national-level personnel security procedures, which will integrate 
counterintelligence and security equities into procedures regarding the 
development of derogatory or suspicious information.

    95. Senator McCain. Admiral Mullen, do believe that the Joint 
Worldwide Intelligence Communications System (JWICS) is as vulnerable 
to a Wikileaks-type scenario as the SIPRNET has proven to be?
    Admiral Mullen. Yes, if the threat results from an individual in a 
position of trust who opts to violate applicable U.S. military 
regulations, DOD policy, and Federal law. JWICS does have slightly 
greater security controls than SIPRNET, but there remains a possibility 
that its contents could also be exploited for unauthorized and illicit 
purposes.

    96. Senator McCain. Secretary Gates, if you decide to more tightly 
restrict access to classified data on DOD computer systems, how will 
you make sure that the right people are still getting the information 
they need?
    Secretary Gates. DOD is working to improve intelligence information 
sharing, while ensuring the appropriate protections and safeguards are 
in place. A more resilient information sharing environment can be 
achieved through both technological solutions and comprehensive 
policies.
    Immediately following the first release of documents by WikiLeaks, 
I commissioned two internal DOD studies. The first study, led by the 
Under Secretary of Defense for Intelligence, directed a review of DOD 
information security policy. The second study, led by the Joint Staff, 
focused on procedures for handling classified information in forward 
deployed areas.
    The information security policies that were in place at the time of 
the WikiLeaks disclosures were determined to be adequate. However, 
adherence to and implementation of those policies were found to need 
improvement. Since then, DOD combined five separate policies into a 
single updated version of DOD's Information Security Program policy, 
and the Defense Security Service is developing web-enabled information 
security training that will become part of the mandatory information 
assurance training conducted annually across DOD.
    Results of the Joint Staff study showed that forward deployed units 
maintained an over-reliance on removable electronic storage media, and 
also revealed a limited capability to detect and monitor anomalous 
behavior on classified computer networks.

       EFFICIENCIES INITIATIVES RELATED TO INTELLIGENCE FUNCTIONS

    97. Senator McCain. Secretary Gates, in an August 9, 2010 speech, 
you announced an immediate 10 percent reduction in funding for 
intelligence advisory and assistance contracts. What effect has this 
reduction in intelligence contractors had on the defense intelligence 
enterprise?
    Secretary Gates. Last August, DOD considered an immediate reduction 
in funding for intelligence advisory and assistance contracts, but have 
since conducted a DOD-wide review of our reliance on contractors. As 
the result of this review, funding used to acquire service support 
contracts was reduced 10 percent per year over the next 3 years from 
their reported fiscal year 2010 level. Based on the DOD components' 
allocation of the efficiency achieved by this action, the Military 
Intelligence Program (MIP) was assessed a portion of this reduction. 
Contractor funding reductions in the MIP were absorbed by realizing 
process efficiencies and moving away from higher-priced contractor 
services. The MIP significantly reduced its reliance on contractor 
support. Compared to fiscal year 2010 actuals, MIP contractor reliance 
declined approximately 19 percent.

    98. Senator McCain. Secretary Gates, in a subsequent January 6, 
2011, statement, you mentioned a review of DOD intelligence 
organizations conducted in conjunction with the Office of the DNI. 
Please provide details on the results of that review for the record.
    Secretary Gates. The review of intelligence organizations was an 
integrated effort between DOD and DNI. The analysis team consisted of 
DOD and DNI members and this partnership was critical for success. The 
group reviewed baseline resources across the Intelligence Community, 
identifying areas of major investment and significant recent growth and 
focusing on analytic organizations.
    The decisions made as a result of the review are the following:

    1.  Resize the Geographic COCOM Joint Intelligence Operations 
Centers (JIOCs) for Phase 0/1 operations only.
    2.  Establish a rotational model for DIA support to the COCOMs.
    3.  Disestablish the Defense Intelligence Operations Coordination 
Center (DIOCC) and the Joint Functional Component Command for 
Intelligence, Surveillance, and Reconnaissance (JFCC-ISR).
    4.  Consolidate selected DOD Counterterrorism (CT) functions under 
the Joint Intelligence Task Force for Combating Terrorism (JITF-CT).
    5.  Consolidate selected DOD Counter Threat Finance (CTF) elements 
under a new Joint Intelligence Task Force for CTF (JITF-CTF).
    6.  Track emerging intelligence organizations and develop plans to 
harvest them as they redeploy from theater.

    99. Senator McCain. Secretary Gates, do you agree with the review's 
overall assessment that many new defense intelligence organizations, 
created after September 11, have grown too large and have largely 
duplicated work done elsewhere?
    Secretary Gates. The number of defense intelligence organizations 
has increased since 2001. In the defense arena, large and well-staffed 
intelligence structures now exist in the military departments, in the 
defense agencies, in the COCOMs, and in the theaters.
    The Intelligence Review Study Group (IRSG) identified areas of 
major investment and focused on the analytic organizations within the 
IC. Although the IRSG findings identified areas where efficiencies can 
be gained by consolidating select functions, such as counterterrorism 
and CTF, DOD continues to look for areas to increase efficiency and 
eliminate redundancy. Several efforts are underway to identify Defense 
Intelligence efficiencies and evaluate the impact on intelligence 
support to combat operations, if efforts are reduced or eliminated. 
Ongoing efficiency efforts within DOD include a working group that is 
tracking and reviewing intelligence organizations formed to support 
operations in Afghanistan and Iraq, and to identify which of these 
would be retained as combat operations draw to a close.

    100. Senator McCain. Secretary Gates, you have approved 
recommendations to roll up various defense intelligence organizations 
that focus on counter-terrorism and terrorism finance into two separate 
task forces housed at the DIA. Could these organizations simply be done 
away with?
    Secretary Gates. No, because they provide different specialized 
intelligence that is critical to the current fight in Afghanistan and 
U.S. forces deployed in every theater.
    My efficiency recommendation regarding JITF-CT at DIA focused on 
consolidating analytic functions in one organization to use our 
resources more effectively against adversaries that continue to 
reinvent themselves and reemerge as threats to U.S. forces around the 
world, as recently seen with the attacks on the airmen in Germany. Over 
the past 9 years, JITF-CT provided exceptional support to operational 
forces in Iraq and Afghanistan. The leadership, tradecraft, and 
efficiencies gained by consolidating smaller analytic elements with 
JITF-CT will enhance overall Defense Intelligence capabilities as well 
as DOD contributions to the national counter-terrorism mission.
    Although the Treasury Department has the lead for the overall U.S. 
Government CTF effort, our efficiency studies identified a requirement 
for a focal point within DOD to coordinate and lead the disparate CTF 
efforts that were already in place. Intelligence support to CTF remains 
a core analytic function. Because illicit finance does not exist as an 
end in and of itself, the focused work of DIA analysts in Washington 
and in Afghanistan will continue to assist commanders in the field in 
understanding how adversaries sustain their efforts and help identify 
vulnerabilities.
    By consolidating the CTF mission within DIA, DOD is improving the 
efficiency and efficacy of the Defense Intelligence Enterprise. DIA 
will streamline the CTF mission by consolidating and realigning DOD 
components into a single organization to support both the warfighter 
and the policymaker more effectively.

    101. Senator McCain. Secretary Gates, what organizations within the 
defense intelligence enterprise would you recommend significantly 
reducing or abolishing and what would be the savings to the taxpayer of 
these cuts?
    Secretary Gates. As part of the Reform Agenda, DOD formed an ISRG 
to conduct an extensive examination of the DOD and IC apparatus. The 
ISRG identified the DIOCC and JFCC-ISR as redundant organizations that 
can be eliminated in fiscal year 2012. The ISRG also recommended that 
the AFRICOM, EUCOM, and SOUTHCOM's JIOCs be ``right-sized,'' 
commensurate with their current responsibilities for Phase 0/1 
operations. These efficiency initiatives will save DOD approximately 
$32 million in fiscal year 2012.
    I continue to look for areas of redundancy within Defense 
Intelligence. A working group is reviewing existing organizations 
providing intelligence support to counterterrorism and CTF with the 
goal of consolidating those functions under the DIA. I am also 
reviewing intelligence and intelligence-like organizations that have 
formed to support combat operations to identify which of these 
organizations should be retained as combat operations draw down. None 
of these efforts have identified any savings, but savings are possible 
as additional efficiencies are identified.

    102. Senator McCain. Secretary Gates, could further reductions be 
made without harming intelligence support to warfighters in Iraq and 
Afghanistan?
    Secretary Gates. I continue to look for areas in Defense 
Intelligence where we can increase efficiency and eliminate redundancy. 
Several efforts are underway to identify Defense Intelligence 
efficiencies and evaluate the impact on intelligence support to combat 
operations, if efforts are reduced or eliminated. Ongoing efficiency 
efforts within DOD include a working group that is tracking and 
reviewing intelligence and intelligence-like organizations formed to 
support operations in Afghanistan and Iraq, in order to identify which 
of these organizations should be retained as combat operations draw to 
a close.
    I am also reviewing existing organizations providing intelligence 
support to counterterrorism and CTF, with the goal of consolidating 
those functions under the DIA. All Defense Intelligence efficiency 
efforts will ensure that intelligence support to forces conducting 
combat operations will continue as long as that support is required.

                        FORT HOOD INVESTIGATION

    103. Senator McCain. Secretary Gates, the Senate Homeland Security 
and Government Affairs Committee recently issued a report on Fort Hood 
claiming that ``DOD and FBI collectively had sufficient information 
necessary to have detected Hasan's radicalization . . . [but failed] to 
act on it.'' Do you agree with that conclusion?
    Secretary Gates. No. DOD was not notified or otherwise made aware 
of Major Hasan's contact with extremists until after the incident. In 
terms of Major Hasan's professional behavior, the Army is conducting an 
accountability review which will appropriately address what supervisors 
knew about his job performance and whether they acted according to Army 
policies and procedures. That report is being reviewed by the Secretary 
of the Army and should be released in the near future.

    104. Senator McCain. Secretary Gates, do you believe that the 
defense intelligence enterprise has devoted sufficient resources to 
understanding and countering the threat from homegrown violent Islamic 
extremists like Hasan?
    Secretary Gates. Yes. DOD devotes significant resources to 
understanding and countering violent extremism among its military 
personnel. DOD continues to examine how to address the threat 
originating from disaffected individuals within the U.S. Armed Forces 
who may commit violent acts, and best apply the resources available. 
Specifically, the Defense Intelligence Enterprise details personnel to 
the Federal Bureau of Investigation (FBI) Joint Terrorism Task Forces 
(JTTFs) to broaden the understanding of the overall threat within the 
United States to our military forces. DOD also completed a full 
assessment of newly identified JTTF requirements based on the Fort Hood 
incident, and is in the process of resourcing those needs.

    105. Senator McCain. Secretary Gates, do you believe that defense 
intelligence organizations are adequately represented on the FBI's 
JTTF? If not, do you plan to increase that participation?
    Secretary Gates. Today, yes. In the aftermath of the shootings at 
Fort Hood, I determined that DOD's commitment to the JTTFs and guidance 
for sharing force protection information were inadequate. I directed 
the Under Secretary of Defense for Policy to lead oversight of DOD's 
contributions to JTTFs by providing policy guidance, and by developing 
DOD-wide goals and objectives for DOD's JTTF participation. This has 
led to an increase in the Department's contributions to JTTFs through 
the DIA's Joint Intelligence Task Force-Combating Terrorism. This 
enhancement in analytical capabilities and information sharing plays a 
critical role in better understanding the terrorist threat to the 
United States.

    106. Senator McCain. Secretary Gates, what other steps do you plan 
to take to ensure that radicals like Hasan are detected before another 
tragedy like Fort Hood occurs?
    Secretary Gates. On August 18, 2010, I approved Department-wide 
guidance to familiarize leaders with behaviors that may indicate 
radicalization or precipitate violence. I also reinforced to commanders 
that they are expected to exercise sound judgment and consider the full 
range of disciplinary actions when addressing personnel whose behavior 
adversely affects good order, discipline, or unit safety.
    Current DOD policy prohibits behavior that creates a clear danger 
to the loyalty, discipline, or morale of military personnel. The Under 
Secretary of Defense for Personnel and Readiness is revising DOD 
Instruction 1325.06, Handling Dissident and Protest Activities among 
members of the Armed Forces, to ensure it effectively prohibits 
behavior that materially interferes with the accomplishment of the 
military mission or is incompatible with military service. This policy 
authorizes commanders to employ a range of administrative and 
disciplinary actions to stop behavior that is incompatible with 
military service, regardless of the underlying cause.
    DOD made several important steps to improve information sharing and 
its ability to ``connect the dots.'' DOD has drafted a new, 
consolidated information sharing agreement with the FBI. This new 
agreement creates a mechanism for DOD to provide force protection 
threat information requirements to the FBI, ensures threat information 
is reported to senior defense leadership, and reaffirms the already 
excellent working relationships between DOD Provost Marshals and local 
FBI JTTFs and Field Offices to ensure that threat information gets to 
the defense installation that is threatened. Additionally, DOD and the 
FBI established a formal notification process whereby information on 
all counterterrorism investigations with a DOD nexus is forwarded 
appropriately. DOD also utilizes FBI's eGuardian suspicious activity 
reporting system. This secure, unclassified capability enables 
information sharing across DOD, as well as with Federal, State, local, 
and tribal law enforcement partners. This system provides information 
to the FBI's JTTFs.
    In the future, DOD will establish the Law Enforcement Defense Data 
Exchange (D-DEx) in order to allow our Military Criminal Investigative 
Organizations to post, query, retrieve, and share criminal 
investigation and other law enforcement data in one database. Another 
important step is to supplement military personnel health screenings to 
include ``violence risk assessments'' before deployment and three times 
after deployment. These ``violence risk assessments'' are conducted 
person-to-person by a medical provider trained and certified to conduct 
in-depth evaluations. Finally, I have directed the Military Services 
and Investigative Agencies to collaborate with Defense intelligence 
organizations, facilitating access to investigative information on DOD-
related counterterrorism cases. To most effectively pool DOD's 
resources against this threat, the government must overcome information 
sharing and cultural challenges between investigative and intelligence 
analysis organizations. The combination of enhanced information sharing 
and analytic presence in JTTFs plays a critical role in understanding 
the ``homegrown'' threat to DOD.

                 DOD SUPPORT TO COUNTERDRUG ACTIVITIES

    107. Senator McCain. Secretary Gates and Admiral Mullen, the budget 
submission calls for an increased emphasis on DOD support to Mexico in 
its counterdrug activities--a decision I support fully. What's your 
assessment of the Mexican Government's current capability to confront 
the drug cartels and associated illicit organizations?
    Secretary Gates. In recent years, Mexico significantly increased 
its willingness to confront transnational criminal organizations (TCOs) 
and strengthened capabilities to do so through law enforcement, 
judicialand military support, and by other means. Mexico also launched 
initiatives to promote legitimate economic opportunity that help 
diminish illegal activity. The U.S. Government provides significant 
support to Mexico through training, equipment, information exchange, 
and related cooperation, but Mexican authorities' own efforts have 
achieved most of these improvements. In confronting TCOs, the Mexican 
people suffer grievously from escalating violence, and I support 
Mexico's steadfast resolve to further strengthen the rule of law.
    Although Mexico's capability to disrupt TCOs is increasing, TCOs 
adapt quickly by escalating violence, dispersing geographically, and 
diversifying their criminal activities. As a result, Mexican 
authorities activated the Mexican Armed Forces to help disrupt TCOs, 
and buy time for the civilian agencies to build capacity. Mexico is 
building rule of law capacity through police vetting and training, as 
well as anti-money laundering, judicial, penal, statutory, anti-
corruption and related reforms.
    Mexico efforts have produced notable successes, including the 
arrest or killing of several TCO leaders as well as key members from 
all seven of Mexico's major drug organizations, while at the same time 
disrupting the TCOs' business environment. Unfortunately, this led to 
increased violence, as the criminals fight for territory. As the 
illegal drug business is disrupted, TCOs are also diversifying into 
other criminal activities and dispersing geographically, including into 
Central America.
    Despite the Mexican authorities' efforts, the country remains the 
primary transit route into the United States for illegal drugs of 
foreign origin, as well as a major supplier of heroin, 
methamphetamines, and marijuana. Mexico is also the primary destination 
for weapons and bulk cash smuggled illegally out of the United States. 
Mexico's sustained interdiction efforts made great progress in reducing 
cocaine movement directly into Mexico from South America to low levels. 
Most cocaine now reaches Central America by air or sea, then transits 
Mexico primarily hidden in private vehicles into the United States over 
land.
    Admiral Mullen. Mexico has identified TCOs as the principal 
security challenge we face in the Western Hemisphere. The United States 
and Mexico understand this is both a shared challenge and 
responsibility between our nations. In recognition of this need, Mexico 
has made great strides in its understanding of TCOs and its capability 
to counter them. However, much work remains as Mexico is yet able to 
overcome the TCOs' grip on Mexico's citizenry, public security and 
economy.
    In collaboration with Mexico, we continue to work toward improved 
information sharing which has enabled the Mexico effort. This has 
manifested itself through the Mexican apprehension of key several TCO 
senior leaders. Mexican armed forces are making strides with their 
public security forces to assume the lead role. These short-term gains 
have not come without a cost; drug-related murders have grown to an 
annual rate of 15,233--a 61 percent increase from 2009 due largely to 
TCO-on-TCO violence. As Mexico's armed and public security forces 
follow and exploit these successes we could very well see violence 
levels continue to increase as TCOs are forced to operate at greater 
risk in an environment increasingly inhospitable to organized crime.
    As Mexico consolidates its successes in establishing the rule of 
law, we must continue to support them as they deal with the TCOs' 
culture of impunity--namely violent intimidation and corruption. In our 
daily interactions, we continually stress the importance that Mexico 
forces integrity must be above reproach. It is these forces that 
represent the government's legitimacy and garner the trust of the 
citizens.
    Mexico has made progress in its capability to confront TCOs but 
will require expansion and deepening of their capabilities and 
institutions as it is anticipated violent intimidation and coercion 
will worsen.

    108. Senator McCain. Secretary Gates and Admiral Mullen, what 
priorities have you identified for DOD to pursue regarding support to 
Mexico?
    Secretary Gates. U.S.-Mexico relations deepened significantly in 
recent years, including with respect to security cooperation on matters 
of mutual concern such as countering TCOs. DOD provides support for 
cooperation under the State Department-led Merida Initiative (MI) 
carrying out programs requested by Mexican authorities. DOD executes 
$415.5 million in MI Foreign Military Financing (FMF) appropriated in 
fiscal years 2008-2009, including provision of helicopters, maritime 
surveillance aircraft, handheld drug and explosives ion scanners, and 
other equipment.
    The DOD counternarcotics (CN) program also compliments MI with 
training, equipment, and information sharing in support of Mexican 
military and law enforcement forces. The DOD CN program also provides 
logistical, analytic, radar, communications and other support to U.S. 
law enforcement agencies' activities. In recent years, DOD's CN support 
to Mexico has concentrated on helping Mexican forces improve tactical 
and operational proficiency, as well as their air mobility, maritime 
law enforcement, communications, and reconnaissance capacities. DOD 
training and information exchanges emphasize interagency-coordinated 
operations, and safeguarding human rights. The DOD CN program allocated 
$51 million in fiscal year 2011 to support Mexico (up from about $3 
million per year before 2009), and is working to reinforce this effort. 
DOD also works with other U.S. agencies and foreign partners to 
integrate cooperation throughout the Americas, recognizing that TCOs 
present challenges to all countries in the region.
    Admiral Mullen. DOD conducts programs as agreed upon by both United 
States' and Mexico's Governments as found in the ``Beyond Merida'' 
construct. Principally we seek to support Mexico's efforts to directly 
confront TCOs and disrupt TCOs' capability to conduct organized 
criminal activities, thereby helping Mexico to strengthen the 
capabilities necessary to exploit TCO weaknesses while working to help 
reduce Mexico's security forces susceptibility to TCO intimidation and 
corruption.
    To expand Mexico's capabilities, DOD will focus on accelerating 
Merida Initiative equipment in coordination with DOS as we move beyond 
equipping to truly partnering with our Mexican counterparts to develop 
a clear strategy of military support to law enforcement activities.
    In addition to provision of equipment, DOD will focus on providing 
Mexico with more information sharing thereby helping them develop the 
analytical capacity to exploit TCO network vulnerabilities. We 
recognize that our bilateral efforts with Mexico must be part of a 
wider collaboration with law enforcement agencies as well as diplomatic 
efforts.
    Beyond these immediate priorities we are simultaneously supporting 
the sustainment of our coordinated efforts and building partner 
capacity in all pertinent areas. Our military-to-military efforts must 
maintain a coherent doctrine, conduct coordinated operations with an 
interoperable force, and ensure both adequate and appropriate training 
for the forces committed to the defense of Mexican national 
sovereignty. Personnel and leader development programs are essential to 
ensuring that Mexican initiatives are carefully managed and maintained. 
This type of attention is necessary if we are to capitalize on earlier 
gains in galvanizing public security institutions' credibility and 
longevity in what must be a long-term effort to partner with Mexico to 
defeat transnational organized crime.

    109. Senator McCain. Secretary Gates and Admiral Mullen, drug 
cartels operating from Central and South America have shown an 
increasing ability to adapt and continue their operations. For example, 
the Ecuadorians and most recently the Colombians have apprehended fully 
submersible ``narco-subs.'' Colonel Manuel Hurtado, chief of staff of 
Colombia's Pacific Command, told the Associated Press that he estimated 
the captured narco-sub could hold 8 tons of drugs and has the capacity 
to sail totally underwater and travel to the coast of Mexico without 
surfacing. What trends are you seeing in the region and what priorities 
have you identified for DOD to pursue with regards to its counterdrug 
activities and assistance?
    Secretary Gates. Ecuadoran and Colombian authorities seized 
submersible vessels under construction in Pacific coast jungle areas in 
July 2010 and February 2011, respectively. These authorities cooperated 
fully with U.S. counterparts in studying the vessels, which appear 
intended for fully-submerged operations.
    TCOs continue to rely principally on ``go-fast'' boats to smuggle 
most cocaine from South to North America. Over the last 10 years, 
however, drug traffickers experimented with self-propelled semi-
submersible (SPSS) vessels, also known as low-profile vessels. SPSS 
vessels achieve considerable stealth by moving very low in the water, 
but cannot actually submerge entirely. The recent emergence of the 
self-propelled fully submersible (SPFS) drug-smuggling threat appears 
to represent a significant evolutionary step.
    DOD and other U.S. Government agencies are refining ways to detect, 
monitor, and interdict SPFS and SPSS craft more effectively. United 
States authorities are also working with Colombian authorities and 
those of other countries to locate the sites where the vessels are 
built, loaded, and launched, as well as to identify the logistical, 
financial, and associated networks that support them. Likewise, 
security cooperation programs with South and Central American 
countries, as well as with Mexico, are critical in strengthening those 
countries' surveillance and interdiction capabilities and their 
capacity to cooperate with U.S. counterparts and with one another.
    Admiral Mullen. Ecuadoran and Colombian authorities seized narco-
subs in Pacific coast jungle areas in July 2010 and February 2011, 
respectively. Ecuadoran and Colombian authorities have cooperated fully 
with U.S. counterparts in studying the narco-subs, which appear to have 
been intended for limited fully-submerged operations. Drug Trafficking 
Organizations continue to rely principally on ``go-fast'' boats to 
carry over half of all U.S.-bound cocaine. However, the recent 
emergence of the Self-Propelled Fully Submersible (SPFS) drug-smuggling 
vessels represents a significant evolutionary step and demonstrates the 
trafficking organizations' adaptability, resources, and persistence.
    As the lead agency of the Federal Government for detection and 
monitoring of aerial and maritime transit of illegal drugs into the 
Unites States, DOD continues to refine its technology, tactics, 
techniques and procedures to adapt to the law enforcement threat narco-
subs pose to the United States. Additionally, U.S. authorities are 
working with Colombian authorities and those of other partner nations 
to locate where the narco-subs are built, loaded and launched, domains 
which are much more conducive to intercept. We also partner with like-
minded countries to identify the logistical, financial and associated 
networks which support such illicit activities. Likewise, U.S. security 
cooperation programs with South and Central American countries, as well 
as with Mexico, are critical in strengthening those countries' 
surveillance and interdiction capabilities, including their capacity to 
cooperate with U.S. counterparts and with each other in the Central 
American region.

                       COMPETITION IN CONTRACTING

    110. Senator McCain. Secretary Gates, I am concerned about what I 
see as a movement by DOD away from competition. The most egregious 
recent example is the Navy's decision to award contracts to both 
bidders in the LCS program--a decision I still believe was ill-advised. 
But, there are numerous others--outside the context major systems.
    In fact, the Congressional Quarterly recently reported that 
``according to newly available DOD data . . . more than half the 
Pentagon's total budget obligations for contracting last year were 
spent without effective competition or with no competition at all.'' 
Are you aware of this report?
    Secretary Gates. DOD actually employed a very effective competitive 
procurement strategy in the case of the LCS. The effects of head-to-
head competition resulted in competitive pricing from both offerors 
that had not occurred with any previous strategy. This strategy 
promotes competition for DOD by establishing multiple options for 
conducting future competitions. While I have not read the specific 
``Congressional Quarterly'' report, Dr. Ashton Carter, the USD(AT&L), 
is aware of the issue and made promoting real competition a major 
component of his Better Buying Power Initiative. As part of this 
effort, guidance was issued on November 24, 2010 on ``Improving 
Competition in Defense Procurements.''

    111. Senator McCain. Secretary Gates, how concerned are you about 
this development and how do you intend to address it?
    Secretary Gates. I am concerned about this development and have 
undertaken a major reform agenda in DOD to improve business processes 
and change the way it acquires goods and services to generate greater 
efficiencies and savings. Aspects of this initiative are being 
implemented in the USD(AT&L)'s September 14, 2010 memorandum for 
``Better Buying Power: Guidance for Obtaining Greater Efficiency and 
Productivity in Defense Spending.'' The goal of this initiative is to 
achieve more efficient, effective, and affordable ways of conducting 
DOD business. Promoting real competition is a focus area within the 
initiative that requires the Military Departments and Defense Agencies 
to develop plans to improve overall and effective competition by: 
reducing the number of single-bid contracts; negotiating better prices 
on single-bid contracts and task and delivery orders; and reducing the 
dollar value of sole-source contracts and task and delivery orders. On 
November 24, 2010 the Director of Defense Procurement and Acquisition 
Policy issued guidance on improving competition in Defense procurement.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    112. Senator McCain. Secretary Gates, since this data was taken 
from DOD sources and should have been available to your staff, why 
wouldn't increasing completion be the cornerstone of any efficiency 
initiative announced by DOD to date?
    Secretary Gates. Competition is the cornerstone of the acquisition 
process and its benefits are well understood. Competition was re-
emphasized when the USD(AT&L) issued his June 2010 memorandum, ``Better 
Buying Power: Mandate for Restoring Affordability and Productivity in 
Defense Spending'' to underscore the importance of competition. In July 
2010, the Director of Defense Procurement and Acquisition Policy 
established Subcommittee 13 under the Panel on Contracting Integrity to 
address opportunities for more effective competition. In September 
2010, the USD(AT&L) followed his June memorandum with the ``Better 
Buying Power: Guidance for Obtaining Greater Efficiency and 
Productivity in Defense Spending'' to promote real competition, which 
was followed by his November 2010 Implementation Directive that 
requires Military Departments and Defense Agencies to improve the 
overall rate of competition by 2 percent and the rate of effective 
competition by 10 percent. Further direction was provided by the 
Director of Defense Procurement and Acquisition Policy's November 2010 
memorandum ``Improving Competition in Defense Procurements,'' which 
instructs contracting officers to resolicit any solicitation that was 
open for less than 30 days, and if only one offer is received in the 
resolicitation, the contracting officer must conduct negotiations to 
achieve the best value for the DOD.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                          JOINT STRIKE FIGHTER

    113. Senator McCain. Secretary Gates, soon after you announced that 
you wanted to restructure the Joint Strike Fighter (JSF) program again, 
Pentagon officials reportedly said that the program could be delayed by 
1 to 3 more years and cost another $5 billion. Is that true?
    Secretary Gates. Yes. Following the breach of the Nunn-McCurdy 
critical thresholds, rescission of the original October 26, 2001 
Milestone B decision, and program recertification in June 2010, DOD set 
out to reestablish a firm foundation for the JSF program. The new F-35 
PEO conducted an extensive bottom-up Technical Baseline Review (TBR) 
involving more than 120 tactical aircraft experts from both the 
military Services and DOD to evaluate every aspect of the System 
Development and Demonstration (SDD) phase of the program. The TBR 
identified the need for an additional $4.6 billion in resources and 
schedule duration for execution of the SDD phase. In addition to the 
TBR, the PEO will perform a schedule risk assessment this summer, will 
conduct an integrated baseline review, and will prepare the integrated 
master schedule for the program this fall.

    114. Senator McCain. Secretary Gates, what are the new estimates on 
how much the program and each plane will cost?
    Secretary Gates. DOD is currently finalizing its estimates on how 
much the program and each aircraft will cost. These estimates are being 
prepared in support of the planned Defense Acquisition Board (DAB) 
Milestone B recertification review scheduled for May 2011. The cost 
figures resulting from this review will be reflected in an update to 
the Selected Acquisition Report which will be provided to Congress this 
summer, subsequent to the DAB review.

    115. Senator McCain. Secretary Gates, will there be another Nunn-
McCurdy breach on the program this year?
    Secretary Gates. No, there will not be another Nunn-McCurdy breach 
this year. Although DOD added another $4.6 billion to the development 
program, and the short-term aircraft price will increase resulting from 
the reduction of 124 aircraft within the FYDP, I remain committed to 
procuring 2,443 aircraft in total. I believe that the changes to the 
development program, together with DOD's long-term commitment to 
procurement quantities, provide a reasonable baseline and strong 
foundation for program execution going forward. These changes will not 
result in a Nunn-McCurdy breach.

    116. Senator McCain. Secretary Gates, under your restructure 
proposal, what is the current estimate for the additional time required 
to complete developing the aircraft?
    Secretary Gates. The development phase of the SDD phase ends with 
the completion of development testing, now estimated to be completed in 
fiscal year 2016. This estimate was based on the independent Technical 
Baseline Review involving 120 tactical aircraft experts from the 
Military Services and DOD over a period of months.

    117. Senator McCain. Secretary Gates, you suspended the Marine 
Corps version of the JSF, the F-35B, putting the program in a 2-year 
probationary period--necessary to get the program back on track. At the 
time you stated if cost, development, and schedule overruns could not 
be rectified in that 2-year timeframe, you would cancel the program.
    However, the PEO of the JSF program, Vice Admiral Venlet, 
reportedly said, ``There is no black and white checklist to weigh the 
program's performance against.'' Admiral Venlet reportedly said the 
future of the Marine Corps version of the JSF will not be judged 
against a checklist of hard milestones, but rather by a loose-knit 
series of requirements--ranging from the aircraft's weight, propulsion 
ratios, its ability to operate in a maritime environment, etc. Do you 
agree with Admiral Venlet's assertion? If so, please explain, exactly 
what does probation mean for the Marine Corps version of the aircraft?
    Secretary Gates. ``Probation'' is not a suspension; ``probation'' 
is linked to both production and development. First, DOD reduced the 
production of the F-35B Short Take Off and Vertical Landing (STOVL) 
variant to three aircraft in fiscal year 2011, six aircraft in fiscal 
year 2012, and six aircraft in fiscal year 2013. These aircraft numbers 
are the minimum numbers required to sustain the F-35B production and 
engineering workforce, as well as to sustain the supplier base of 
STOVL-unique parts. The F-35A Conventional Take Off and Landing and F-
35C Carrier Variant (CV) aircraft are not dependent on the F-35B 
development and flight test to complete their development.
    Cost, schedule, and development progress must balance against 
warfighter utility. The Commandant of the Marine Corps reviews the F-
35B STOVL progress monthly and separately from the monthly Service 
Acquisition Executive (SAE) reviews of the F-35 program as a whole. 
These reviews assess metrics ranging from affordability, weight growth, 
key STOVL performance requirements, technical performance measures, 
flight test status, and risk burn-down plans. These metrics provide a 
holistic view of the F-35B progress. None of them provide ``black and 
white'' decision criteria. These metrics, taken as a whole, will inform 
the Commandant of the Marine Corps and DOD on the continued F-35B 
progress at the end of the ``probation'' period.

    118. Senator McCain. Secretary Gates, what is success and what is 
failure that warrants termination?
    Secretary Gates. Termination is not a ``black and white'' decision. 
It must be viewed from a holistic viewpoint by assessing cost, 
schedule, warfighter utility in performance being delivered, and risk. 
The goal of any acquisition program is an affordable system that 
provides the desired warfighter utility. Warfighter utility is a 
combination of capability delivered in a desirable timeframe. It is 
DOD's job to accomplish this at a reasonable level of risk.
    The Technical Baseline Review conducted by the new F-35 PEO 
establishes a more realistic expectation for the F-35 development 
program. The program is continuing its restructure activities for the 
SDD phase, production activities, and operations and support. The 
program will be assessed monthly by the service acquisition executives, 
the warfighters, and DOD leadership to determine that the balance of 
cost, schedule, and performance goals do not exceed acceptable risk 
levels.

    119. Senator McCain. Secretary Gates, it appears the program office 
has not taken any additional steps to refine the criteria on those key 
goals, or established any further metrics on what needs to be done to 
remedy the F-35B's serious issues to save it from cancellation, if that 
is the right thing to do. As those steps are being taken, it seems to 
me that there should be transparent, clear, and measurable milestones 
against which performance can be measured against plan. Is that your 
vision for determining whether the Marine Corps version of the aircraft 
passes probation?
    Secretary Gates. DOD is providing individual attention to the F-35B 
STOVL variant specific issues to ensure cost and schedule milestones 
are achieved in delivering required warfighter capabilities.
    Specifically, Navy and the Air Force established a battle rhythm of 
monthly Service Acquisition Executive (SAE) reviews with the F-35 PEO 
to assess the overall F-35 program, with additional emphasis on F-35B 
STOVL variant. These monthly SAE reviews examine the F-35 airframe and 
propulsion SDD, production, and sustainment programs with particular 
emphasis on cost/affordability, risk, and schedule. In addition, the 
Commandant of the Marine Corps established a monthly F-35 review 
focused solely on the STOVL variant. This review is also led by the 
Navy SAE. The topics and metrics that are assessed include, but are not 
limited to, the following:

        <bullet> Cost/Affordability/Earned Value Management (EVM): A 
        review of Acquisition Procurement Unit Cost, Program 
        Acquisition Unit Cost, Operations and Support costs, and EVM 
        cost/schedule indices.
        <bullet> Risk: Monthly assessment of `Program Risk' with 
        explanations about each risk item, their interactions, and risk 
        burn-down plans. Assessments include a review of the 
        assumptions and environment used to determine the risk 
        evaluations.
        <bullet> F-35B weight/weight growth: weight assessments track 
        each pound added to the airframe with an understanding of the 
        underlying reasons for the growth. If there are trades that 
        need to be made to mitigate weight growth, DoN senior 
        leadership/warfighters are to be consulted.
        <bullet> Key Performance Parameters (KPPs): review of F-35B 
        KPPs with a tracking/trending methodology and monthly 
        discussions of considerations for a Concept of Operations that 
        might help facilitate achievement of F-35 KPPs and program 
        goals.
        <bullet> Airframe Technical Performance Measurements: 
        Assessments of reliability, maintainability, combat radius, and 
        gross weight (with metrics that indicate the desired value(s), 
        the current status, margin, and trends).
        <bullet> F-35B Flight Test: review of F-35B flight test data, 
        to include planned/scheduled test points to be flown versus 
        achieved test points flown; scheduled test flights flown versus 
        actual test flights flown (delineated by STOVL variant); and 
        Clean-Wing Flight Envelope coverage (to assess the progress on 
        the envelope cleared for flight as a result of Developmental 
        Test and alignment with software delivery).

    As these monthly reviews mature, the Navy will refine key F-35B 
metrics to ensure this essential capability is delivered to the Marine 
Corps warfighters and to enable the Department to make a decision on 
the F-35B STOVL variant probation status.

                              SHIPBUILDING

    120. Senator McCain. Secretary Gates and Admiral Mullen, another 
area of the Navy's budget that I am very concerned about is the amount 
of funding needed for ship construction going forward. With about half 
of the construction and development dollars being needed to build 
extraordinarily expensive nuclear submarines (for example, right now, 
Ohio class replacement nuclear ballistic submarines are estimated to 
cost at least $7 billion), I am concerned that our commitment to 
building new submarines may be crowding out funding needed to modernize 
the surface fleet. Do you share that concern? If so, how do you intend 
to address it?
    Secretary Gates. DOD recognizes that building the required force 
structure will largely depend on controlling shipbuilding costs 
(including combat systems) within an affordable range. I continue to 
look for further affordability and efficiency opportunities as DOD goes 
forward with the shipbuilding plan, such as revising the acquisition 
strategy for the LCS to maximize the advantage of the competitive 
pricing received and gain a ship within the FYDP. Additionally, prior 
to Milestone A approval for the Ohio replacement submarine, DOD 
evaluated numerous capability trades to reduce costs. As a result, the 
Navy made trades in the number of ballistic missile tubes, the diameter 
of those tubes, the number of torpedoes to be carried, acoustic 
sensors, and other defensive features throughout the design. These 
trades made the submarine more affordable, while maintaining the 
necessary level of capability, resulting in a reduction of the 
projected cost to a target cost of $4.9 billion (fiscal year 2010 
dollars) for the follow on hulls 2-12. These initiatives support DOD's 
ability to provide the capability and flexibility for meeting the 
myriad of missions that the Navy is called upon to execute throughout 
the world every day.
    Admiral Mullen. We developed the shipbuilding plan and this budget 
based on averages of about $15.9 billion per year for the early years 
of the plan, and then about $2 billion more on average for the years in 
the plan when the Ohio replacement submarine is being constructed. This 
will support a force structure of about 313 battle force ships, 
enabling the Navy to meet its global commitments and to support 
contingency operations. We will continue to look for efficiency 
opportunities as we go forward with the shipbuilding plan. This will 
involve decisions such as we have already made by truncating the DDG-
1000 program to three ships and restarting the DDG 51 production line, 
taking advantage of the aggressive pricing we received on LCS to gain a 
ship within the FYDP, and pursuing a lower cost alternative for the 
Mobile Landing Platform.
    Prior to Milestone A approval for the Ohio replacement submarine, 
numerous capability trades were evaluated to reduce costs. As a result, 
the Navy made trades in the number of ballistic missile tubes, the 
diameter of those tubes, the number of torpedoes to be carried, 
acoustic sensors, and other defensive features throughout the design. 
These trades made the submarine more affordable while maintaining the 
necessary level of capability, resulting in a reduction of the 
projected cost from $7 billion to about $5 billion per boat.

              FINANCIAL MANAGEMENT AND THE NEED FOR AUDITS

    121. Senator McCain. Secretary Gates, please explain to me how you 
can demand fiscal savings and efficiencies across every sector of 
operations in DOD without the ability to track expenditures in 
financial statements that can be audited?
    Secretary Gates. DOD records and reports expenditures associated 
with budgeted amounts. While not sufficient to meet audit standards, 
this longstanding approach proved to be an effective means of 
responsibly managing public funds entrusted to DOD. There are thousands 
of well-trained financial management professionals in DOD dedicated to 
and motivated by their role in providing the resources to warfighters 
necessary to meet the national security mission of the country. These 
financial managers know DOD missions cannot be executed without timely 
and sufficient resources so are able to track expenditures and report 
to managers with an accurate status. Because of this capability, I feel 
DOD can demand and track savings from specific operations.
    This does not mean that DOD does not take the financial statement 
audit requirement seriously. Financial statement audits are also a key 
indicator to the public that we have reliable financial management 
information. While it is not the intent of financial statement audits 
they are a signal to the public that DOD manages funds legally, 
effectively, and efficiently. I am dedicated to having fully auditable 
financial statements by 2017, the deadline established by Congress.

    122. Senator McCain. Secretary Gates, why is this not your highest 
and most critical efficiency initiative?
    Secretary Gates. The highest priority for DOD's business enterprise 
is to meet the needs of the warfighters executing the national security 
mission. Due to potential budgetary constraints, I directed DOD to 
eliminate or reduce overhead tasks and transfer the related resources 
to meet urgent warfigher needs. In other words, transfer resources from 
tail to tooth. This initiative to improve financial management is part 
of that effort. Improved financial management information will help DOD 
better identify overhead costs and ensure reductions are realized.

    123. Senator McCain. Secretary Gates, how can DOD ensure that 
taxpayer dollars are not being wasted, stolen, or otherwise abused 
without an audit?
    Secretary Gates. I believe that even though DOD cannot currently 
meet commercial audit standards, the public can have confidence that it 
is spending dollars responsibly. That is a primary task of DOD's 
financial management workforce, and DOD has an extensive training 
program to ensure financial managers know the proper rules and 
processes. In addition, there are thousands of auditors reviewing 
programs and payments. These audits find far fewer improper payments 
and appropriation law violations in DOD than in other Federal agencies, 
after adjusting for the size of the budgets. This is true even though 
most other Federal agencies have auditable financial statements.
    As mentioned in an earlier question, this does not mean DOD is not 
fully committed to achieving full financial statement auditability. 
This demonstrated progress will further reinforce confidence in the 
positive financial outcomes we already achieve.

    124. Senator McCain. Secretary Gates, how will you ensure that the 
savings you have proposed will be achieved?
    Secretary Gates. DOD effectively manages operations by tracking 
obligations and expenditures against budgeted amounts. The primary 
control the Department uses to implement savings efforts is to include 
them in the President's budget request. The efficiencies that DOD 
defined in response to my initiative have been included in the 
President's 2012 budget request. DOD has several management controls, 
including regular reviews of obligation rates and detailed program 
budget reviews, to ensure it is executing according to the budget. 
Through these means DOD will ensure that proposed overhead reductions 
are realized.

    125. Senator McCain. Secretary Gates, over the last few years, 
Congress has pushed DOD to reform its financial management practices, 
most recently the NDAA for Fiscal Year 2010, requiring DOD to achieve a 
full, unqualified audit by 2017. The law also requires you to submit to 
Congress semiannual reports that lay out milestones describing progress 
over time. Are you on track to comply with this statutory requirement?
    Secretary Gates. As you recognize, preparing DOD for financial 
statement audits is a monumental task, but with leadership focus, 
accountability, and a streamlined approach, I believe it will succeed. 
To realize success, DOD is using a streamlined approach that focuses on 
improving and auditing the information most used to manage. DOD 
established long- and short-term goals, set up a governance process, 
and provided funding to the Military Services to make process and 
system improvements. These system improvements, primarily deploying 
ERPS, have broad operational improvement goals which include improving 
business processes in a way to support audited financial statements.
    I am dedicated to having fully auditable financial statements by 
2017, the deadline established by Congress. The goal is in our 
Strategic Management Plan and is one of eight high priority items DOD 
committed to the Office of Management and Budget (OMB) to achieve. 
While it is still early to definitively predict success, I believe DOD 
is on track to comply and look forward to reporting progress in the 
semi-annual reports.

    126. Senator McCain. Secretary Gates, given the push for savings, 
can you achieve the audit earlier than 2017? If so, what additional 
resources would you need?
    Secretary Gates. Achieving auditable financial statements is a 
massive undertaking requiring changes to the capabilities of our 
people, processes and systems. Like any major change management effort 
changes take time and a great deal of resources. The extreme size of 
DOD complicates change further and requires more time and resources. 
DOD is already investing significant amounts in improving its financial 
management systems by implementing and integrating ERPS as well as 
investing over $200 million a year in improving people and processes. I 
feel that the resources allocated are appropriate and the significant 
dependency on systems modernization makes achieving the audit earlier 
than 2017 impractical.

                            C-17 GLOBEMASTER

    127. Senator McCain. Secretary Gates, under the continuing 
resolution enacted late last year, has DOD been funding the continued 
production of C-17 cargo-lift aircraft?
    Secretary Gates. No, DOD did not fund the continued production of 
new C-17 aircraft beyond the 10 aircraft appropriated in fiscal year 
2010 by Congress. However, in accordance with Continuing Resolution 
Authority (CRA) guidelines, DOD funded a total of $12.7895 million in 
fiscal year 2011 CRA to support transition to sustainment in 
preparation for shutdown activities.

    128. Senator McCain. Secretary Gates, what are DOD's plans for this 
program in the future under the various appropriations scenarios for 
fiscal year 2011?
    Secretary Gates. DOD determined that the C-17 aircraft already 
procured are more than sufficient to satisfy airlift requirements. As I 
have previously testified, I do not support the addition of more C-17s.

    129. Senator McCain. Secretary Gates, what is your position on the 
inclusion of any funding for continued production of C-17s in the 2012 
defense bill?
    Secretary Gates. Since 2001, DOD conducted four major mobility 
studies, all of which support the conclusion that the C-17 and C-5 
airlift fleet capacity is more than sufficient to meet current and 
foreseeable demands.

    1.  Mobility Requirements Study-05 (MRS-05) (completed in 2001)
    2.  Mobility Capabilities Study (MCS) (completed in 2005)
    3.  Institute for Defense Analyses (IDA) study conducted in 2009 as 
required by Section 1046 of the NDAA for Fiscal Year 2008 (Public Law 
110-181)
    4.  Mobility Capabilities and Requirements Study-2016 (MCRS-16) 
(completed in 2010)

    The most recent study, the MCRS-16, identified the requirement for 
organic airlift as 32.7 million ton miles per day (MTM/D). This level 
of airlift capacity meets the most demanding scenario consistent with 
the Defense Strategy. The current programmed strategic airlift fleet of 
223 C-17s, and 111 C-5s, provides a capacity of 35.9 million ton-miles 
per day. The difference (35.9 MTM/D vs. 32.7 MTM/D) is the equivalent 
of 25 C-17s or 30 C-5As. The MCRS-16 and the aforementioned studies 
clearly show that the Department has more strategic airlift fleet 
capacity than needed. Therefore, I believe that it is not in the 
national interest to include any funds for continued production of C-
17s in the 2012 defense bill.
    President Obama's comments on releasing his administration's fiscal 
year 2011 budget request included the following statement:

          ``We save money by eliminating unnecessary defense programs 
        that do nothing to keep us safe. One example is the $2.5 
        billion that we're spending to build C-17 transport aircraft. 
        Four years ago, DOD decided to cease production because it had 
        acquired the number requested--180. Yet every year since, 
        Congress had provided unrequested money for more C-17s that the 
        Pentagon doesn't want or need. It's waste, pure and simple.''

    In testimony before the Senate Armed Services Committee, I echoed 
the President, saying that I would not support the addition of more C-
17s. My position today remains unchanged.

                  SAVINGS-AND-EFFICIENCIES INITIATIVES

    130. Senator McCain. Secretary Gates, given how inherently 
unreliable and defective DOD's financial management processes are, I 
have serious questions about the projected savings of many of the 
efficiencies initiatives. While I certainly commend your attempt to 
find $78 billion in cuts over the next 5 years, I have to question how 
likely is it that DOD will actually realize the savings it says it will 
get.
    What is your assessment of how much of the $78 billion in cuts will 
result in deferment of bills that must eventually be paid, in contrast 
to actual savings from an elimination or a reduction in requirements?
    Secretary Gates. The $78 billion reduction to DOD's projected 
budget over the next 5 years is achievable and will be closely 
monitored and assessed by DOD to ensure savings are fully realized. The 
efficiency initiatives include actions to reduce overall requirements 
commensurate with the lower rate of growth after the $78 billion cut. I 
remain strongly committed to meeting these goals and finding new ways 
to improve how DOD conducts business thereby better using the country's 
scarce resources.

    131. Senator McCain. Secretary Gates, which of the elements of 
savings and efficiencies that you have identified carry the most risk 
of not being realized? Please explain your answer.
    Secretary Gates. Experience tells me that some of these initiatives 
may not proceed entirely according to plan. DOD has no choice but to 
strictly monitor and enforce these efficiencies and make adjustments as 
needed with the understanding that it cannot afford to return to past 
behavior. At this point, there are no elements that I believe are 
especially risky.

    132. Senator McCain. Secretary Gates, please explain what cost-
based analytical processes and methodologies (such as performance-
based, mission-based, staffing-profile-based government, military, 
contractor, etc.) are the efficiencies proposals based on?
    Secretary Gates. The majority of these proposals were function or 
mission-based. The intent was to focus scarce resources on functions/
missions associated with the provision of military capability. DOD took 
an ``unsparing'' look at reducing functions (and costs) associated with 
overhead and administrative positions. Even the reductions in contract 
costs were motivated and enforced with this principle in mind.

    133. Senator McCain. Secretary Gates, I understand that the COCOMs 
and the IC were asked to submit zero-based assessments with 
accompanying recommendations for gaining 10 percent efficiencies. 
Exactly how did OSD review assessments or analyses of those 
submissions?
    Secretary Gates. The entire fourth Estate (OSD, the Defense 
Agencies, Field Activities, and COCOMs), including the IC, conducted a 
zero-based review to identify opportunities to perform more 
efficiently, eliminate unnecessary functions, and reduce costs. My 
Efficiencies Task Force reviewed each of the zero-based submissions 
with a two-fold purpose:

        <bullet> Develop a baseline of each organization's missions, 
        priorities, and resource allocation
        <bullet> Using this baseline, rebalance resources within and 
        across components so that they align better with the most 
        critical challenges and priorities within DOD.

    These submissions included a detailed profile of each 
organization's missions, functions, and resources. The rebalancing 
process involved the critical review, analytical assessment and 
evaluation of:

    (1)  baseline data,
    (2)  mission and manpower priorities, and
    (3)  recommendations for organizational restructuring and 
reallocation of resources.

    This process was conducted by members of the Efficiencies Task 
Force, subject matter experts and analysts from responding 
organizations, and was reviewed by program, comptroller, and manpower 
experts.

    134. Senator McCain. Secretary Gates, was a broader portfolio 
review or trade-off analysis performed to understand and balance cost-
savings with mission performance? If so, please explain.
    Secretary Gates. Yes, this year's program and budget review process 
focused on preserving critical capabilities by making very targeted 
resource allocation decisions. During this cycle, DOD used a series of 
front end assessments to address a variety of portfolio-type reviews 
such as airborne ISR, long-range strike, global posture and tactical 
aviation to better understand the range of options in each area. These 
analyses guided investment decisions, while the efficiencies 
initiatives focused on trading administrative and overhead expenses for 
operational capability--this was a prudent trade.

    135. Senator McCain. Secretary Gates, additionally, how were the 
COCOMs' and the IC's overall annual budget evaluated and compared to 
their unique ongoing mission requirements--to devise an accurate 
estimate of actual expected savings versus annual budget?
    Secretary Gates. Each of these organizations submitted its own 
detailed accounting of personnel and missions in priority order. These 
submissions explicitly considered the organizations' unique and ongoing 
mission requirements. Additionally, every organization also submitted 
its own ideas for how it could operate more effectively and 
efficiently. In some cases it nominated new and better ways of 
performing critical functions. In other cases, it nominated functions 
that were of minimal value for either elimination or downgrading. Such 
missions were typically either redundant or overhead functions. COCOMs 
estimated savings in coordination with OSD budgeting, programming, and 
manpower experts. The IC followed a similar process and considered 
input from both a supply perspective (analysts from intelligence 
organizations) and a demand perspective (combatant commanders).

                       MANAGING FORCE REDUCTIONS

    136. Senator McCain. Secretary Gates, reductions in end strength 
for all the Active-Duty Forces, not just the Army and Marine Corps, 
appear inevitable due to the declining budgets and the rising cost of 
personnel. Next month, the Army will begin a year-long plan to cut 
7,000 soldiers, and from 2013 through 2014, an additional 14,000. And 
that's just the beginning. Cuts of 27,000 in the Army and 15,000 in the 
Marine Corps have been forecast to commence in 2015.
    During the force drawdown in the 1990s, the availability of force-
shaping authorities, such as early retirement authority and financial 
incentives for those voluntarily retiring or resigning, were essential 
tools in equitably achieving force reduction goals. In the current 
economy, with retention at very high levels, it appears that such 
incentives will be necessary. Do you plan to submit legislative 
proposals that will facilitate the kinds of force cuts that are being 
planned for?
    Secretary Gates. Yes. DOD is carefully examining the authorities 
required to achieve the legislated end strength, while maintaining 
transparency with regard to future requirements. My goal is to submit 
legislative authorities that allow targeted reductions and maximum 
flexibility.
    Leadership is the key to ensuring each individual understands the 
needs of DOD so they can make informed choices. This will be no easy 
task. But I assure you, DOD will continue to recognize the 
contributions of the men and women who served throughout numerous 
conflicts, while ensuring that the military departments and the COCOMs 
meet their missions in an ever-changing global environment.

    137. Senator McCain. Secretary Gates, other than force cuts, and 
putting aside the Defense Health Program momentarily, do you see any 
feasible way to control the costs of personnel as a share of the DOD 
budget?
    Secretary Gates. Yes. In order to control total personnel costs 
across DOD, improvements to the Total Force management of our Active/
Reserve military, government civilians and contracts for services must 
be considered. This is critical to control personnel costs as a share 
of the budget. To this end, DOD is changing how it strategically views 
the Total Force--both as it executes the mission and plans across the 
FYDP. DOD is scrutinizing the meaning of the ``demand'' for manpower, 
rigorously determining which should be funded and how (e.g., Active/
Reserve military, civilians, or contracts).
    Total Force Management requires a holistic analysis and 
prioritization of work, and the identification and investment in the 
most effective and efficient component of the workforce to best 
accomplish a specific task. I believe that our military should not be 
considered a ``free'' source of labor by organizations within DOD, 
while the military services alone ``finance'' their recruitment, 
training and development. The true cost of military, government 
civilians and/or contractors depends greatly on individual facts and 
circumstances. DOD must do more to objectively analyze not only the 
demands for manpower but, where appropriate, the best ``Total Force 
solution.'' The separate decisions that affect each component of the 
Total Force must be better synchronized to achieve the desired outcomes 
and to balance operational, fiscal and acquisition risks.
    The solution must not only include the development and promulgation 
of policies, but also ensure that DOD provides managers with the tools, 
resources, training and information necessary to achieve the desired 
outcomes. Finally, current business processes must be better 
synchronized to achieve a more appropriate balance in the workforce, 
aligning inherently governmental activities to military and civilian 
workforces, and commercial activities to the most cost effective 
service provider--be that military, civilian, or contracted support.

                         NATIONAL GUARD BUREAU

    138. Senator McCain. Admiral Mullen, under your leadership, 
significant changes have been made in the way the National Guard and 
all the Reserve components contribute to the decisionmaking process. 
Designating the Guard Bureau as a joint activity and elevating the rank 
of the Chief of the Guard Bureau to a four-star general are just two 
examples of the recognition that the Army National Guard and Air 
National Guard are vital parts of the Army and the Air Force. Despite 
this, we continue to see proposals that the Chief of the Guard Bureau 
be made one of the JCS. What are your views about the proposal to make 
the Chief of the National Guard Bureau (CNGB) a member of the Joint 
Chiefs?
    Admiral Mullen. Over the last 10 years, the National Guard has 
provided crucial elements to our Joint Force and their execution of 
Army and Air Force missions has been stellar. They are appropriately 
represented on the JCS by the respective Army and Air Force Chiefs of 
Staff, so I and the other JCS members unanimously do not support the 
CNGB being made a member of the JCS. Since the CNGB was elevated to the 
four-star rank in 2009, we have included him in our meetings and he has 
contributed valuable perspectives regarding the National Guard, 
particularly its critical, non-federalized homeland defense mission and 
forces. This is congruent with the 2008 NDAA promulgating the CNGB 
fulfilling a statutory role and responsibilities as the principal 
advisor to the Secretary of Defense through me on these unique matters.

    139. Senator McCain. Admiral Mullen, do you think such a change 
would be harmful? Why or why not?
    Admiral Mullen. Adding the CNGB as a member of the JCS would be 
redundant and harmful. Like the other Service Chiefs (the JCS members), 
the Army and Air Force Chiefs of Staff organize, train, and equip their 
Total Force, including their respective National Guard, to present an 
integrated Joint Force to the combatant commanders. They maintain the 
independent departmental authorities and budget with which to do so. 
Adding CNGB to the JCS would disrupt those lines of authority and 
introduce representation inconsistencies. Since the CNGB's 
responsibilities are administrative in nature, making him a member 
would also create the harmful impression that the National Guard is a 
separate Military Service.

                                EARMARKS

    140. Senator McCain. Secretary Gates, with the recent pledge for 
both chambers to enforce a moratorium on earmarks over the next 2 
years, there is a renewed concern that Members of Congress with special 
interests will go underground to pressure program managers within DOD 
in phonecalls and meetings to steer funds toward their pet projects. 
What processes do you have in place to protect DOD program managers 
from this kind of pressure?
    Secretary Gates. Program managers and contracting officials' 
compliance with the United States Code, the Federal Acquisition 
Regulations, and the President's March 2009 Memorandum for the Heads of 
Executive Departments and Agencies on Government Contracting all serve 
to safeguard the acquisition process from underground earmarks and 
congressional pressure--through requiring competition and transparency.
    Compliance with the many requirements in the acquisition process 
protects program managers from being forced to award contracts 
noncompetitively or under the table. Furthermore, the Department 
demands ethical behavior from its program managers and would expect the 
same of those it deals with in the legislative branch.

    141. Senator McCain. Secretary Gates, what can be done to ensure 
taxpayer funds provided to DOD go to the most critical priorities and 
are not used to satisfy a specific Member interest?
    Secretary Gates. Several actions would provide DOD flexibility to 
ensure that its appropriations go to the military's most critical needs 
or can be realigned to fund unforeseen emergent requirements.

        <bullet> Eliminate section 8006 in Appropriations bills. That 
        section is aimed at ensuring that DOD executes the exact 
        funding for specific programs, projects, and activities--as 
        listed in the tables in the Explanatory Statement (or Committee 
        Print or Conference Report) accompanying a bill.
        <bullet> Eliminate bill language or General Provisions that 
        specify funding for specific programs, projects, or activities.
        <bullet> Approve the transfer authority requested in each 
        President's budget to give DOD enough flexibility to reprogram 
        funds to its most critical needs.
        <bullet> Omit legislative direction that restricts DOD 
        reprogramming, such as prohibiting the reprogramming of funds 
        added by Congress.
        <bullet> Reform the process by which congressional oversight 
        committees review reprogrammings to facilitate timely 
        approval--such as initiating a time limit for review.
        <bullet> Increase the amount of funds that can be reprogrammed 
        below threshold within an appropriations.

    142. Senator McCain. Secretary Gates, is there an opportunity to 
make public the specific requests by Members of Congress made to 
representatives of DOD on issues related to contracts, acquisitions, 
and fiscal obligations?
    Secretary Gates. I believe that would be a counter-productive 
effort and detracts from executing the mission. For the majority of 
earmarks, DOD does not place each earmark on a funding document by 
itself. Most earmarks are incorporated into the funding document for 
activities related to it. DOD funding is executed at the field activity 
level, and requiring these activities to collect information related to 
earmarks would impose a wasteful burden and detract them from focusing 
on efficient management of funds.

    143. Senator McCain. Secretary Gates, in recent years, there has 
been a proliferation of funding grants and other large amounts 
appropriated to DOD for vague requirements (to preclude being called an 
earmark) like $300 million for medical transportation infrastructure in 
the National Capitol Region, $50 million for private museum 
construction, $250 million for repairs to local community schools, and 
$500 million for civilian infrastructure projects on Guam. None of 
these amounts are included in DOD budget requests, nor are they 
considered firm DOD requirements. All of them are added as a result of 
decreases to other DOD accounts. So, it would seem logical that in 
these times of fiscal austerity where DOD is making hard decisions 
about savings and efficiencies, there would be strong opposition to 
congressional efforts to fund them from DOD accounts. But there isn't. 
What is DOD's position on the use of DOD funds for non-DOD requirements 
which are not included in a budget request?
    Secretary Gates. DOD's position is that the President's Budget 
requests what is required to meet our mission requirements each year. 
Upon enactment of an Appropriations Act the Department executes the 
enacted programs, complying with reprogramming and transfer 
authorities.
Background
    In DOD appropriations bills, Section 8006 and general provisions 
specifying funding for specific items do not give DOD the flexibility 
to decide whether congressional adds are the best use of appropriated 
funds. Congressional adds can only be reduced if they are for Federally 
Funded Research Development Centers, economic assumptions, or excess 
cash balances of the Defense Working Capital Funds, by their 
proportionate share. All other reductions in the DOD appropriations 
bill result in the President's budget baseline taking those reductions, 
thus diverting funding from mission requirements.

    144. Senator McCain. Secretary Gates, if you are presented a 
request for a formal position on a particular spending item of this 
nature, can I expect a firm and unequivocal position from you stating 
why you either oppose or support the spending?
    Secretary Gates. Yes, DOD leaders and I are always prepared to 
state opposition to unrequested changes to the President's budget 
because these changes divert funding from DOD's most pressing 
requirements, as detailed in the budget.
    Beyond this straightforward opposition to changes to the 
President's budget, however, comments on specific congressional adds, 
or any other legislative positions, are the purview of the White House 
and OMB, and DOD follows their lead, and does not provide a position on 
its own.

                            OKINAWA AND GUAM

    145. Senator McCain. Secretary Gates, the road to a reduced U.S. 
presence on the Island of Okinawa has been paved with quite a few speed 
bumps. Not only do we have an irate contingent on Okinawa that has 
already ushered out one prime minister, but the folks on Guam aren't 
exactly excited about the current plan either. I notice that you have 
scaled back the request for funds by almost $300 million for Guam 
construction for fiscal year 2012 from what you had planned last year. 
This is in addition to the $320 million we have deferred in fiscal year 
2011 for a host of reasons.
    You mentioned that you expect to see a decision in the spring of 
2011 on the final location for the Futenma Replacement Facility (FRF) 
on Okinawa. Will this decision be considered the tangible progress 
required by the formal agreement between our Government and the 
Government of Japan? If not, when do you expect Japan to demonstrate 
tangible progress towards completion of the FRF?
    Secretary Gates. I see tangible progress on the FRF, not as a 
single specific event, but rather as a series of steps taken roughly in 
parallel between Japan and the United States, as spelled out in our 
bilateral understandings on realignment. As Japan makes progress on the 
FRF, the United States will take associated steps to move forward on 
Guam. There are a number of different indicators of this progress, 
starting with the decision on the runway configuration that is expected 
at the upcoming two-plus-two meeting with Japan, the issuance of the 
landfill permit, the construction of the sea wall, and progress on the 
landfill itself.
    An essential point of our realignment understanding with Japan is 
that preparations for facilities on Guam need to begin well in advance 
of the actual construction of the replacement facility at Camp Schwab. 
It is necessary to ensure that when the U.S. is satisfied with the 
progress Japan has made on the FRF, suitable facilities will be 
available on Guam allowing the phased relocation of Marines from 
Okinawa, such that any relocation can be sequenced to maintain unit 
cohesion and operational readiness.

    146. Senator McCain. Secretary Gates, in your view, should the 
movement of marines to Guam take place without the demonstration of 
tangible progress regarding Futenma?
    Secretary Gates. The realignment of marines to Guam is dependent on 
tangible progress towards completion of the FRF at Camp Schwab.
    An essential point of our realignment understanding with Japan is 
that preparations for facilities on Guam need to begin well in advance 
of the actual construction of the replacement facility at Camp Schwab. 
It is necessary to ensure that when the United States is satisfied with 
the progress Japan has made on the FRF, suitable facilities will be 
available on Guam allowing the phased relocation of marines from 
Okinawa, such that any relocation can be sequenced to maintain unit 
cohesion and operational readiness.

    147. Senator McCain. Secretary Gates, the Navy's Record of Decision 
related to the environmental impact on Guam released last fall 
conveniently punted on two major issues--potential damage to coral 
reefs in the Apra Harbor and the impact to cultural resources from the 
acquisition of private land for Marine Corps training ranges. Both 
issues, as well as the adequacy of Guam's civilian infrastructure, are 
of significant concern to Guam residents and should be of equal concern 
to DOD. Shouldn't we resolve these issues completely before we continue 
to invest hundreds of millions of dollars in the construction of a new 
Marine Corps base on the island?
    Secretary Gates. These three issues--the impact to coral reefs 
associated with dredging for a proposed nuclear powered aircraft 
carrier transient wharf, the management of cultural resources through a 
Programmatic Agreement, and the adequacy of Guam's civilian 
infrastructure--are of significant concern not only to the Guam 
community but also to DOD. DOD is actively working to address all of 
these issues, but complete resolution will be an ongoing effort 
throughout the buildup process and is not required prior to beginning 
military construction.
    The Navy recently completed additional surveys of the marine 
biology in the alternative sites proposed for the proposed wharf for a 
transient nuclear aircraft carrier. It is anticipated the results of 
these surveys will be outlined in a report due in November 2011, 
allowing for a full assessment of impacts for coral reef resources.
    As to the management of cultural resources, DOD and relevant 
Federal and local regulatory authorities reached agreement on a 
Programmatic Agreement under the National Historic Preservation Act. 
This Programmatic Agreement guides how DOD handles impacts to historic 
properties as the build-up effort moves forward. DOD is requesting $11 
million in PB-12 to fund the development of a repository used to meet 
DOD's commitments for preserving artifacts unearthed during military 
construction.
    Addressing Guam's infrastructure capacity is a priority, as it 
directly affects the construction program and DOD is taking steps to 
address this issue. With the application of Japanese-provided 
financing, Guam's wastewater and power systems will be improved to 
support the relocating marines, the influx of off-island workers needed 
for the ramp-up of military construction, and Guam's long-term 
population growth. DOD contributed $50 million to the Port of Guam and 
$116 million in Defense Access Road funding ($49 million appropriated 
in fiscal year 2010 and $67 million authorized for appropriation in 
fiscal year 2011), both of which contribute to improving infrastructure 
off-base to address construction capacity requirements. In the longer 
term, an interagency effort, led by the Economic Adjustment Committee, 
will continue working with Guam to assess off-base needs and identify 
potential Federal funding solutions.

    148. Senator McCain. Secretary Gates, what is DOD's plan to rectify 
these issues with Guam?
    Secretary Gates. As for the potential impacts to coral, the Navy 
recently completed additional marine biology surveys regarding the 
alternative sites for a transient nuclear aircraft carrier proposed 
wharf. It is anticipated that the results of these surveys will be 
outlined in a report due in November 2011, allowing for a full 
assessment of impacts to coral reef resources.
    Following significant public comments, discussions with Guam's 
leaders, and 3 years of consultations with the Guam State Historic 
Preservation Officer (SHPO), I understand and appreciate the concerns 
regarding cultural resources, and in particular, the potential impact 
to Pagat village and cave from the preferred alternative site for a 
live fire training range complex discussed in the Final Environmental 
Impact Statement. On March 14, 2011 DOD, Guam SHPO, and Advisory 
Council on Historic Preservation successfully reached agreement on the 
Programmatic Agreement that will guide how DOD deals with impacts to 
historic properties as the build-up effort moves forward. As part of 
the Programmatic Agreement, DOD committed that access to Pagat village 
and cave will remain unfettered and that these sites would not be 
within the footprint of the live fire training range complex, should 
the Navy select the Route 15 site in a forthcoming Record of Decision 
for training on Guam. DOD is requesting $11 million in PB-12 to fund 
the development of a repository used to meet the Department's 
commitments for preserving artifacts unearthed during military 
construction. As the military build-up continues, DOD will remain 
engaged with these stakeholders to avoid, protect, and mitigate impacts 
to cultural resources.
    Improvements to Guam's infrastructure are necessary to support the 
relocating Marines, off-island workers needed to ramp up the 
construction program, and Guam's long-term civilian population growth. 
Japan-provided financing will be applied to make improvements to off-
base power and wastewater systems, and to the Navy's water system on-
base. In its fiscal year 2011 budget, Japan requested $415 million of 
its required $740 million contribution in utilities financing. The 
projects funded by the fiscal year 2011 financing include upgrades to 
the Northern District and Hagatna wastewater treatment plants, and 
water production, treatment and transmission on-base. In the meantime, 
efforts to address improvements to Guam's roadways and port are 
underway. Through the Defense Access Road program, DOD will fund 
improvements to Guam's public roadways ($49 million appropriated in 
fiscal year 2010 and $67 million authorized for appropriation in fiscal 
year 2011). DOD also contributed $50 million to the Port of Guam, 
which, when coupled with $54 million in financing from the U.S. 
Department of Agriculture, will improve the port's capacity to support 
the needs of the buildup. DOD continues to work with other Federal 
agencies through the Economic Adjustment Committee to identify and 
assess Guam's needs and look for Federal funding solutions to address 
the island's infrastructure issues.

    149. Senator McCain. Secretary Gates, we have been asking DOD for a 
master plan of the details of construction projects and total costs for 
3 years, to no avail. Can we get that masterplan, a revised timeline, 
and a total estimate cost to complete the move of 7,000 marines and 
their families to Guam?
    Secretary Gates. I understand Congress's concerns regarding the 
total cost of the Guam realignment and DOD is committed to providing an 
accurate picture of current costs. DOD is currently working to develop 
an updated estimate, and this estimate will be provided to committee 
staff prior to mark-up.

                                 KOREA

    150. Senator McCain. Secretary Gates, on September 23, 2010, you 
directed U.S. Forces Korea and the Services to proceed with full tour 
normalization for Korea, as affordable, but not according to any 
specific timeline. You stated that ``full tour normalization in Korea 
will further our long-term commitment to support our forward stationed 
troops and their family members.'' Do you have an estimate of the total 
costs required to implement this decision? If so, please provide it.
    Secretary Gates. I understand the importance of tour normalization 
from an operational and quality of life perspective and DOD is working 
to better understand the costs of tour normalization. As the costs come 
into better focus, DOD will determine the timing for moving forward.

    151. Senator McCain. Secretary Gates, is DOD on track to provide a 
plan by March 31, 2011, detailing schedules and costs?
    Secretary Gates. Yes.

    152. Senator McCain. Secretary Gates, on November 23, 2010, an 
unprovoked and premeditated artillery barrage by North Korea on a South 
Korean island killed two South Korean marines, wounded at least 19 
other people, and set buildings and forests ablaze, the first time in 
years that North Korea has trained the firepower of its 1.1 million-
strong military on South Korea's civilian population. This attack, 
coupled with a new revelation about the North Korean nuclear program, 
prompted one media outlet to call Korea ``a massive strategic challenge 
in one of the most dangerous corners of the world.'' Given the increase 
in uncertainty surrounding the security environment on the peninsula, 
are you still committed to stationing U.S. military family members in 
Korea?
    Secretary Gates. DOD is committed to stationing U.S. military 
family members in Korea under the Tour Normalization Initiative. DOD 
intends to proceed as affordable, but not according to any specific 
timeline. Tour Normalization in Korea will further DOD's long-term 
commitment to provide greater stability for forward stationed 
servicemembers and their families. U.S. Forces Korea, in coordination 
with U.S. Pacific Command, the military departments, CAPE, and other 
relevant OSD organizations, are working to provide a feasible, 
affordable and secure plan to continue toward full Tour Normalization.

    153. Senator McCain. Secretary Gates, would families have the 
option of not being stationed in Korea? If so, would they incur any 
personal expense?
    Secretary Gates. If Korea Tour Normalization is fully implemented, 
the assignment tour length for a majority of the locations will be 36-
months accompanied and 24-months unaccompanied. Military families will 
still have the option of not accompanying their sponsor to Korea. In 
this case, the family can remain where they currently reside, or move 
to a place they designate in the United States at government expense. 
If the family does not reside in government housing and is entitled to 
housing allowance, their housing allowance will be as authorized for 
the locality where they have chosen to reside.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown

                         NATIONAL GUARD BUREAU

    154. Senator Brown. Secretary Gates and Admiral Mullen, what are 
your thoughts on providing to General McKinley, CNGB, a three-star 
position to serve as his deputy?
    Secretary Gates. This matter will be under review until the fall 
2011.
    Admiral Mullen. I fully support re-establishing the Vice CNGB at 
the rank of lieutenant general. Doing so would enable the CNGB to 
better administer his diverse duties and expansive portfolio that 
includes the unique non-federalized homeland defense equities of the 
National Guard. This action would be more purposeful to the National 
Guard than making CNGB a member of the JCS.

                       CYBERSECURITY CAPABILITIES

    155. Senator Brown. Secretary Gates, you have proposed $2.3 billion 
to support improved cybersecurity capabilities within DOD and greater 
joint planning efforts between the military and DHS. Are we dangerously 
vulnerable to cyber intrusions and cyber attacks as a result of our 
dependence on critical infrastructure?
    Secretary Gates. The United States is vulnerable to cyber 
intrusions and potential cyber attacks on its critical infrastructure. 
The capabilities of state and non-state actors to exploit, disrupt, or 
even destroy our critical information systems are increasing.
    Almost every aspect of civilian life depends on access to the 
Internet and other data-transmission networks. With our reliance on 
cyberspace comes vulnerability. Because so many of our civilian and 
military functions depend on computer networks, any large-scale 
interference with our networks represents a potentially significant 
threat to national security.
    DOD has invested heavily in information technology--$38.4 billion 
requested for fiscal year 2012--because information technology is a 
force multiplier for military, intelligence, and business operations. 
DOD has more than 15,000 networks and seven million computing devices, 
across hundreds of installations in dozens of countries around the 
globe. Our networks are attacked thousands of times each day, and 
scanned for vulnerabilities millions of times each day. We know that 
more than one hundred foreign intelligence agencies are attempting to 
get into DOD's networks.
    The departments and agencies of the public sector, as well as the 
private sector, rely upon cyberspace to accomplish their missions 
successfully. Because of the cross-cutting nature of the cyber threat, 
U.S. Government departments and agencies must work together to protect 
U.S. networks and systems. Our cybersecurity initiatives and 
investments will enable DOD to protect its networks more effectively 
and to support DHS and other agencies in achieving their cybersecurity 
missions. (As a point of clarification, when we consider the full range 
of DOD's cybersecurity investments, including CYBERCOM, the Defense 
Cyber Crime Center, and the $2.3 billion requested for information 
assurance, our comprehensive request for fiscal year 2012 is $3.2 
billion.)
    Cybersecurity is a top-tier national security issue for the United 
States. We have made progress in strengthening our cybersecurity, but 
more must be done. DOD looks forward to working with DHS and other 
interagency partners, and with Congress, to improve the protection of 
U.S. networks and systems.

    156. Senator Brown. Secretary Gates, if the United States is hit by 
a catastrophic cyber attack--as Central Intelligence Agency (CIA) 
Director Panetta described as the next Pearl Harbor--are we prepared to 
respond?
    Secretary Gates. DOD is prepared to protect defense critical 
infrastructure/key resources from a catastrophic cyber attack and to 
respond should such an attack occur. As described in the 2010 
Quadrennial Defense Review Report, DOD is taking several steps to 
strengthen capabilities in cyberspace, including:

    (1)  developing a more comprehensive approach to DOD operations in 
cyberspace;
    (2)  developing greater cyber expertise and awareness;
    (3)  centralizing command of DOD cyber operations; and
    (4)  enhancing partnerships with other agencies and governments.

    Pursuant to Homeland Security Presidential Directive-7 (Critical 
Infrastructure Identification, Prioritization, and Protection), DOD is 
working with its private sector partners in the DIB to facilitate 
vulnerability assessments and to encourage risk management strategies 
to protect against and mitigate the effects of attacks.
    DOD is also working closely with its Federal partners to assist in 
ensuring the protection of critical infrastructure and the preparedness 
of the national cyberspace response system to deal effectively with 
cyber attacks. DHS developed a National Cyber Incident Response Plan, 
in which DOD is a key partner, to help ensure resiliency in the face of 
changing threats and associated technologies. In general, DOD defers to 
the DHS to evaluate the current preparedness of the national cyberspace 
response system.

    157. Senator Brown. Secretary Gates, from your perspective, do we 
have the necessary resources to prevent such an attack and who would be 
in charge of such a response?
    Secretary Gates. The United States possesses capabilities to help 
prevent a major cyber attack, but they must be enhanced significantly 
to cope with a rapidly advancing threat from both state and non-state 
actors. DOD continues to work with DHS and others in the U.S. 
Government to leverage existing authorities and develop new interagency 
processes and capabilities to prevent a cyber attack. DOD is also 
working with DHS and other agencies to identify additional authorities 
that may be needed to defend the Nation against cybersecurity threats 
most effectively.
    In the event of an attack, the President has emergency authorities 
to direct a unified, national response. Outside of emergency 
Presidential authorities, DHS is responsible for coordinating the 
national effort to improve the cybersecurity of U.S. critical 
infrastructure. DOD is responsible for the security of its networks, is 
assigned additional responsibilities for all national security systems, 
and is the Federal agency responsible for coordinating with the DIB to 
identify and defend against cybersecurity threats. If directed by the 
President, DOD can use its capabilities to support DHS and to protect 
U.S. Government systems, as well as the private sector systems on which 
the U.S. Government relies.

                       IRANIAN NUCLEAR CAPABILITY

    158. Senator Brown. Secretary Gates, today Iran is producing higher 
enriched uranium and is moving closer to possessing the weapons-grade 
uranium needed for a nuclear weapon. What is your assessment of Iran's 
nuclear intentions?
    Secretary Gates. The Iranian nuclear program and Iran's intentions 
remain issues of paramount interest and concern, and we continue to 
watch them very closely. At this time, DOD believes that Iran is not 
nuclear weapons capable. DOD also assesses that Iran is keeping open 
the option to develop nuclear weapons, in part by developing various 
nuclear capabilities that bring it closer to being able to produce such 
weapons, should it choose to do so. We do not know, however, if Iran 
will eventually decide to build nuclear weapons. As new information 
becomes available, and as the Iranian nuclear program evolves, we will 
reevaluate and reassess Iran's ultimate intentions and potential 
capabilities.

    159. Senator Brown. Secretary Gates, do you agree that a nuclear-
armed Iran poses an unacceptable risk to the United States?
    Secretary Gates. A nuclear-armed Iran is unacceptable. I remain 
committed to preventing Iran from acquiring a nuclear weapon. A 
nuclear-armed Iran would be highly destabilizing to the Middle East, 
and could have significant implications for U.S. interests. However, no 
one can say with certainty how the situation might unfold. A nuclear-
armed Iran could provide other States in the Middle East with the 
impetus to pursue nuclear programs. Iran also could become more 
emboldened in its actions throughout the region, most notably by 
expanding its support for proxies. A nuclear-armed Iran could also 
cause strategic instability that could eventually lead to a regional 
conflict.
                                 ______
                                 
               Questions Submitted by Senator Rob Portman

                            ALTERNATE ENGINE

    160. Senator Portman. Secretary Gates, with the recent vote against 
funding the JSF second engine, the House moved a step closer to 
awarding one company a sole source contract for $100 billion lasting 30 
years. This seems remarkably shortsighted and this fight for a 
competitive process is not over. The Government Accountability Office 
(GAO) has stated that: ``DOD experience with other aircraft engine 
programs, including the F-16 fighter in the 1980s, has shown 
competitive pressures can generate financial benefits of up to 20 
percent during the life cycle of an engine program and/or improved 
quality and other benefits.'' In other words, by funding the JSF 
competitive engine, we have the chance to save about $20 billion over 
time. I am concerned that the short-term financial benefits of 
terminating the alternative engine will be dwarfed by the long-term 
costs of a sole-source contract for an engine that is 50 percent over 
budget.
    I believe the F-35 will replace five aircraft currently in the Navy 
and Air Force fighter fleet (F-16, F/A-18, AV-8, A-10, and F-117). It 
is my understanding that by 2030, the F-35 will make up about 90 
percent of the U.S. tactical fighter force. Would you please comment on 
whether or not there is historical precedent for being so dependent on 
one aircraft?
    Secretary Gates. Being a tri-service program with eight 
international partners, the scope of the JSF program is without 
precedent. While the scope and number of tactical aircraft the JSF 
program represents is large, having a single type model series aircraft 
to fulfill a mission requirement is not without precedent.
    For example, the Air Force will gradually replace the legacy fleet 
of F-16s and A-10s as it transitions to a predominantly 5th Generation 
fleet. In the 2030 timeframe, the Air Force will still operate a 
significant number of legacy tactical assets. Assuming the Air Force 
maintains its current fighter force levels, only 58 percent of the Air 
Force tactical fighter force will be F-35As in 2030; combined with the 
F-22 fleet, 63 percent of the Air Force fighter inventory will be 5th 
Generation platforms. The Air Force continues to assess its fighter 
force structure and will evaluate alternatives to replace additional 
legacy platforms as they reach the end of their service lives.
    The Navy's mission of airborne command and control is fulfilled 
solely by E-2D/E-2C while search and rescue, anti-submarine, and anti-
surface warfare are fulfilled by MH-60 variants. The Navy's tactical 
aviation projected aircraft inventory in 2030 will be comprised of six 
Type Model Series (TMS) aircraft: F/A-18E/F, F-35C, F-35B, EA-18G, the 
next generation air dominance aircraft, and the replacement for the EA-
18G. Of these aircraft, F-35s are expected to comprise roughly 65 
percent of the Navy tactical aircraft inventory.

    161. Senator Portman. Secretary Gates, given our future dependence 
on the F-35, does the failure to have a back-up engine present a risk 
to our forces?
    Secretary Gates. I believe that the interests of the taxpayer, the 
military, our partner nations, and the resource integrity of the 
overall F-35 program are best served by not pursuing a second engine. 
The benefits which might accrue with a second engine are offset by 
additional cost. Additionally, logistics complexity will divert 
precious modernization funds from more pressing developmental 
priorities.
    The F135 engine program completed over 12,000 hours of engine 
ground testing, more than 4,300 hours of engine specific flight 
testing, and over 850 hours of aircraft flight tests on three variants. 
As in any development program, there were technical challenges and 
those that have arisen are understood and modifications are in 
progress. Throughout SDD, the engine continues to be monitored and any 
necessary modifications to ensure safety, reliability, and 
specification deficiencies will be made. Dedicated F135 flight testing 
will demonstrate performance throughout the flight envelope.
    Continued funding for the F136 engine carries cost penalties to 
both the F135 and F136 engines in the form of significant upfront 
investment cost, reduced production line learning curves, and less 
efficient economic order quantities. DOD concluded that maintaining a 
single engine supplier provides the best balance of cost and risk. I 
believe the financial risks associated with a single source engine 
supplier are manageable, and are less than the investment required to 
fund a competitive alternate engine.

    162. Senator Portman. Secretary Gates, in your testimony you state 
that in regard to funding the second engine, ``the Department has been 
operating this fiscal year under ambiguous guidance at best.'' And that 
given the situation you ``decided to continue to fund the JSF extra 
engine effort during this interim period to give Congress the 
opportunity to resolve this matter as part of its ongoing debate on the 
budget.'' But isn't it the case that OMB concluded that the F-35 
alternate engine funding must be funded in fiscal year 2011 even under 
the temporary continuing resolution?
    Secretary Gates. On December 21, 2010, OMB Director Lew did inform 
Senator Brown of Ohio that the then in-effect CR ``would continue 
fiscal year 2010 funding, terms, and conditions for the entire Federal 
Government.'' Subsequent CRs also continued extending the funding, 
terms, and conditions of the 2010 appropriations. However, consistent 
with standing OMB guidance on the point, Director Lew also indicated 
that DOD was expected to not impinge on congressional full-year funding 
prerogatives for fiscal year 2011. Because funding need not be made 
available in the course of any single period covered by a continuing 
resolution if sufficient opportunity to fully execute would be 
available upon the enactment of an appropriation act at the end of a CR 
period, the protection of the Congress's fiscal prerogatives does not 
require funding in any single CR.

    163. Senator Portman. Secretary Gates, do you believe that you have 
a choice as to whether or not to fund the alternate engine under a 
continuing resolution?
    Secretary Gates. During the period of the existing CR, I believe 
that DOD has the discretion to issue a stop work order on the alternate 
engine program, and given the circumstances the department may 
determine that it should issue a stop work order. A stop work order is 
temporary in nature and may not exceed 90 days unless extended by 
agreement between the government and the contractor.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                  U.S. FAMILY HEALTH PLAN RESTRICTIONS

    164. Senator Collins. Secretary Gates, the President's budget 
request precludes enrollment in the U.S. Family Health Plan (USFHP) for 
beneficiaries who reach 65 years of age. According to the transcript I 
saw and the budget briefing, it is my understanding that DOD is 
committed to working with the impacted hospitals on this issue to 
ensure that the quality of care is not impacted. I also understand that 
no current enrollee in this plan would be affected in terms of their 
quality of care or health care costs. Are these accurate 
characterizations of DOD's position?
    Secretary Gates. Yes. Current enrollees are not affected by this 
change.
    The Department continues working with the six health plans to 
ensure that quality of care is not affected for current or future 
enrollees. Upon reaching age 65, USFHP enrollees may opt to enroll in 
Medicare Part B and receive the TRICARE for Life (TFL) benefit as a 
supplement to their Medicare coverage. The proposal does not result in 
a beneficiary's loss of provider access, as long as the USFHP providers 
continue to accept Medicare patients. This proposal provides equitable 
treatment for all Medicare-eligible retirees by offering a nationwide 
uniform plan. Most retirees do not live in one of the USFHP service 
areas, and their only option for health care is Medicare and TFL 
(requiring payment of their Medicare Part B premium). They and all 
others enrolled in USFHP will be taken care of.

                      SHIPBUILDING INDUSTRIAL BASE

    165. Senator Collins. Admiral Mullen, separate from the concerns 
about the continuing resolution in the short-term, I noticed in your 
written testimony that you raised concerns about maintaining the 
capability of the shipbuilding industrial base in the long-term. 
Clearly, stability in requirements, procurement plans, and buying ships 
at cost-efficient rates go a long way to achieving the necessary force 
structure and save money. I am also encouraged that a second DDG-51 
ship was included in the fiscal year 2014 budget as I had recommended 
to sustain a DDG-51 procurement rate of at least two ships per year, 
which should be closer to three ships per year. DDG-1000's construction 
is also proceeding very well at Bath Iron Works, and I look forward to 
Admiral Roughead's visit on the 23rd of February to see first-hand the 
ship's and yard's progress. Please elaborate on the specific concerns 
you have for the shipbuilding industrial base.
    Admiral Mullen. As I stated last year, I am concerned about the 
capabilities of our DIB, particularly in shipbuilding and space. Our 
ability to produce and support advanced technology systems for future 
weapon systems may be degraded by decreasing modernization budgets as 
well as mergers and acquisitions. Left unchecked, this trend will 
impact our future warfighting readiness. To ensure that DOD can 
continue to rely on a dynamic defense market to meet shifting 
requirements, robust competition is vital for producing high quality, 
affordable, and innovative products.
    My other concern regarding the shipbuilding industrial base has to 
do with ship design and production. Six major U.S. shipyards build 
nearly all of the Navy's warships, and while they consistently build 
extremely capable ships, their production rate pales in comparison with 
production rates of leading international shipyards. This places U.S. 
shipyards at somewhat of a disadvantage because serial design and 
stable production are critical factors to the incorporation of leading 
shipyard technologies and decreased cost for DOD. The Virginia class 
submarine and the T-AKE auxiliary program show the benefit these 
factors can have on shipbuilding cost. Both programs enjoyed 
significant cost reductions and improved production schedules as a 
result of serial production and a stable design.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                         INSTABILITY IN MEXICO

    166. Senator Cornyn. Secretary Gates, last month, General Michael 
Hayden, a former CIA Director, described the crisis next door in Mexico 
as one of six national security challenges that would ``keep him awake 
at night'' if he were still in government. At this time, the U.S. 
Government does not seem to have a coherent, meaningful strategy in 
place to help the Mexican Government regain control over its country 
and defeat the drug cartels. What do you see as the risks to our own 
national security if the Mexican drug cartels are not defeated?
    Secretary Gates. In 2008, the U.S. Government began coordinating 
assistance to Mexico under the Merida Initiative with the goal of 
supporting Mexico's efforts to build capacity to combat TCOs, 
strengthen the rule of law and respect for human rights, reduce 
violence, and stem the flow of drugs north and arms and illicit money 
south. We recognize that, moving forward, U.S. efforts should:

    (1)  reinforce progress made in disrupting cartels;
    (2)  begin institutionalizing Mexican capacity to act on public 
safety and security issues;
    (3)  help Mexico meet the challenges of securing its borders while 
facilitating trade and travel; and
    (4)  promote respect for human rights, the rule of law, and a 
culture of lawfulness. Although none of these are easy, we know we are 
making slow but steady progress.

    I admire President Calderon's government for the brave stand taken 
against TCOs that seek to operate with impunity inside Mexico. Although 
Mexico increased efforts to counter the TCOs, TCOs responded with 
increased violence as they fight for turf and attempt to intimidate law 
enforcement officers and the Mexican public. Although I am concerned 
about the escalating violence in Mexico, I am confident that Mexico's 
democracy is strong and that the government maintains control over its 
territory.
    As DHS Secretary Napolitano noted recently, we do not have evidence 
that TCO violence is spilling across the border into the United States. 
Still, these dangerous organizations have linkages to illicit groups 
operating inside the United States, including drug traffickers and 
gangs that pose health, law enforcement, economic, and security 
challenges to cities and towns throughout our Nation. Although Mexico 
called upon its armed forces to support Mexican law enforcement efforts 
to combat TCOs, it continues to see the problem as a law enforcement 
issue, as do I. DOD, along with interagency partners, is working 
closely with Mexican counterparts to support its efforts to dismantle 
TCOs, and DOD will continue to provide assistance as requested by 
Mexico.

    167. Senator Cornyn. Secretary Gates, the Mexican government 
reports that over 34,600 people have been killed in drug-related 
violence in Mexico since December 2006, including 15,000 deaths in 2010 
alone--representing a 60 percent increase over 2009. What common 
threads do you see between the cartel-driven unrest in Mexico and the 
insurgency-driven violence in Iraq and Afghanistan, which our troops 
have been battling for most of the past decade?
    Secretary Gates. The challenges facing Mexico are quite different 
from those confronting Iraq and Afghanistan. Specifically, the TCOs 
operating in Mexico are not attempting to overthrow the Mexican 
Government, but instead are fighting for turf and to create a space in 
which to carry out their illicit activities. As such, Mexico is dealing 
with a law enforcement challenge; DOD is providing support to Mexico as 
well as U.S. law enforcement entities in their unprecedented efforts to 
confront this challenge, but is not directly engaged in the fight.

    168. Senator Cornyn. Secretary Gates, in your opinion, how can the 
U.S. Government, and in particular DOD, better support our Mexican 
partners?
    Secretary Gates. Under President Calderon's leadership, Mexico is 
bravely confronting the grave security threats posed by TCOs operating 
within Mexican territory. At Mexico's request, through the Merida 
Initiative and complementary programs, the U.S. Government, including 
DOD, is providing support to Mexico to face these challenges.
    Under Merida and other cooperative programs, DOD provides training, 
information sharing, and operational support to Mexican military and 
other security forces, as well as to U.S. law enforcement agencies' 
activities with regard to Mexico. DOD is working with Mexican partners 
to find areas in which to increase cooperation. In recent years, DOD 
concentrated on assisting Mexican forces to improve tactical and 
operational proficiency, as well as air mobility, maritime law 
enforcement, communications, and reconnaissance capacities. DOD 
provided non-intrusive inspection equipment for mobile checkpoints and 
eight Bell 412 transport helicopters for the Secretaria de la Defensa 
Nacional. Also, DOD is working to deliver three UH-60M Blackhawks and 
four Construcciones Aeronauticas SA (CASA 235) maritime surveillance 
aircraft. DOD support focused on helping Mexican security forces learn 
to mount intelligence-driven and interagency-coordinated operations, as 
well as on safeguarding human rights in the context of military 
operations in support to law enforcement.
    Moving forward, I believe the Department can best support our 
Mexican partners by preparing to respond quickly to requests for 
continued assistance from Mexico. Domestically, the United States must 
also commit to confronting issues on our side of the border that 
contribute to the challenges facing Mexico--namely the illicit 
trafficking of arms from the United States into Mexico and our 
country's demand for illegal drugs. The United States and Mexico have a 
shared responsibility in the fight against TCOs, and our success will 
depend on our continued partnership.

             INTERAGENCY COORDINATION ON NATIONAL SECURITY

    169. Senator Cornyn. Admiral Mullen, in your written testimony, you 
asked for Congress's help in modifying the laws and regulations 
surrounding security cooperation to create an approach that better 
integrates our defense, diplomacy, development, and intelligence 
efforts. In terms of geographic organization, DOS has six regional 
bureaus and DOD has six different regional COCOMs, which are not 
demarcated along the same lines on the map. At the same time, the IC 
defines world regions utilizing a third set of lines on the map. In 
your opinion, does this lack of common demarcation of the world's 
regions by these Federal agencies hamper effective interagency 
cooperation and coordination on national security?
    Admiral Mullen. It is true that there is not a common demarcation 
of the world's regions among Federal agencies. Many of these 
differences are the result of historic ties and relationships, and the 
unique focus of each agency. While these differences may create some 
challenges, they do not hamper effective interagency cooperation and 
coordination on national security. In some cases, the different 
regional demarcations are beneficial to interagency cooperation and 
coordination. Whenever lines of demarcation are created or utilized on 
a map, issues may be created or exist that affect both regions, but are 
missed due to their cross-boundary nature. By utilizing differing lines 
of demarcation between the agencies, the impact of these seams within 
an organization is minimized by working with other agencies to 
formulate a cohesive foreign policy.
    Additionally, I have a statutory responsibility under Title 10 
U.S.C. 161 to review the Unified Command Plan (UCP), which includes the 
COCOM areas of responsibility, not less than every 2 years, and 
recommend any changes to the President through the Secretary of 
Defense. This is a thorough review that includes inputs from Office of 
Secretary of Defense, combatant commanders, and the Services. The draft 
UCP is then reviewed by the interagency via the National Security Staff 
prior to receiving Presidential approval. In this process, I have not 
received any indication that I should recommend a change to the 
President to more closely align our regional designations with that of 
other Federal agencies or that such a realignment would overcome any 
existing shortfalls in interagency coordination.

                         INDIA AND AFGHANISTAN

    170. Senator Cornyn. Secretary Gates and Admiral Mullen, India has 
committed some $1.3 billion and 3,500 Indian personnel to relief and 
reconstruction efforts in Afghanistan to date, in recognition of the 
fact that stability in Afghanistan is crucial to its own security. As 
noted in Admiral Mullen's testimony, the enduring success of our 
military operations in Afghanistan is dependent on the ANSF being able 
to provide security to the Afghan people. However, reports indicate 
that NATO still faces a shortage of 740 trainers needed by this summer 
in order for the ANSF to be ready to take the lead by 2014. Given the 
clear and immediate demand for more trainers and training options in 
Afghanistan, as well as India's willingness to provide substantial 
support to stability and security efforts in the region, should we 
encourage India to expand its role and help train the Afghan security 
forces?
    Secretary Gates. The United States and India have shared interests 
in a stable and prosperous South Asia region and in preventing 
Afghanistan from again becoming a safe haven for terrorists.
    In the past, India provided scholarships for ANSFs personnel to 
study in India, and is currently exploring options to train Afghan 
women police in India.
    I welcome these efforts, and encourage India to consider further 
assistance in Afghanistan through priority infrastructure projects, 
additional training and education assistance, and technical assistance 
to the agriculture sector. I also encourage India to continue to engage 
the Afghan government to identify further areas of cooperation.
    During President Obama's visit to India in November 2010, he and 
Prime Minister Singh committed to intensify consultation, cooperation, 
and coordination to promote a stable, prosperous, and independent 
Afghanistan. They agreed to collaboratively assist the people of 
Afghanistan by identifying opportunities to leverage our relative 
strengths, experience, and resources, including joint projects on 
agriculture and women's economic development. Eighty-five percent of 
Afghans derive their income from agriculture, and Afghan women continue 
to lack economic, social, and political opportunities.
    The shortfall of 740 trainers currently identified by the NATO NTM-
A for filling the NATO's Combined Joint Statement of Requirements 
includes a number of specific capabilities that only certain allies and 
partners possess. DOD is currently working to match these specific 
capacities with the NTM-A requirements.
    Admiral Mullen. India already plays a role in training the ANSF. 
They have provided training in India to over 400 ANA personnel, are 
currently training 90, and have offered training for another 192 this 
year. Expansion of further training efforts must be closely coordinated 
with NTM-A and Afghanistan to ensure it meets the needs of the ANSF. 
Regional political military considerations should be carefully weighed 
when considering any expansion of an increased role for the Indian 
military in the development of the ANSF, especially the introduction of 
Indian Trainers to Afghanistan.

                       F-35 JOINT STRIKE FIGHTER

    171. Senator Cornyn. Secretary Gates, the fiscal year 2012 DOD 
budget request includes a major restructuring of the F-35 program that 
cuts 124 aircraft from the FYDP, postponing production of these 
aircraft until after 2016. I am concerned with the resulting impact to 
unit cost to the remaining aircraft in the FYDP, and I believe this 
poses the most immediate problem to our Services and our international 
partners. What actions will you take to ensure that the restructuring 
of this critical fifth-generation fighter program does not itself lead 
to a substantial spike in unit cost?
    Secretary Gates. In the short-term, I acknowledge there will be an 
increase in unit costs as a result of the reduction of 124 aircraft 
within the FYDP. DOD is currently assessing the magnitude of this 
increase in support of the DAB review scheduled for May 2011, and will 
report these figures as part of an update to the Selected Acquisition 
Report this summer following completion of the DAB review. Despite the 
reduction of aircraft within the FYDP, DOD remains committed to 
procuring 2,443 aircraft in total, and this commitment will serve to 
lessen the short-term spikes in unit procurement costs. The reduction 
of aircraft procurement within the FYDP is prudent given the extension 
of the development program, and the need to properly manage the risks 
of concurrent development and procurement.

    172. Senator Cornyn. Secretary Gates, were our international 
partners consulted on the announcement surrounding the restructuring of 
the F-35 program? If so, what has been the reaction of our allied 
partners, and do you believe this decision will impact when or how many 
F-35 aircraft our international partners will ultimately buy?
    Secretary Gates. The international partners in the JSF F-35 Program 
are integral to our collective effort and were consulted prior to the 
announcement regarding the restructuring of the program. The partners' 
reaction to the announcement was positive. They appreciated the fact 
senior leadership in DOD took the time to contact them ahead of the 
formal announcement. There is no indication at this time that the 
decision to restructure the JSF F-35 Program will affect the number of 
aircraft the partners will ultimately buy or when the buys will occur.

                               B-1 FLEET

    173. Senator Cornyn. Secretary Gates, how are your fiscal year 2012 
proposed budget cuts to the B-1 bomber fleet consistent with your 
message about the need to sustain the current military force structure 
during a time of war?
    Secretary Gates. The B-1 fleet faces potential grounding due to 
diminishing manufacturing sources and other sustainability issues. 
Taking a minimal reduction in fleet size garners savings to increase B-
1 fleet viability through modernization efforts.
    The Air Force conducted a review of current bomber force structure, 
existing capabilities, and future power projection requirements in 
determining the risk associated with a B-1 fleet reduction. The results 
of this review, combined with high-fidelity modeling and simulation 
analysis conducted by Air Force Studies and Analysis, indicate a 
reduction of six B-1 aircraft leaves a more capable fleet that meets 
the requirements in currently approved OSD analytic agenda scenarios.
    A modest B-1 reduction, while modernizing the remaining fleet, is a 
wise reinvestment strategy providing a capabilities-based bridge to the 
future long range strike platform.

    174. Senator Cornyn. Secretary Gates, how much of the savings 
obtained from this cut will be reinvested in sustaining and improving 
the current B-1 fleet, to include enhancements such as a new radar 
system?
    Secretary Gates. The retirement of six B-1s provides a total 
savings of $61.9 million in fiscal year 2012 and $357.3 million over 
the FYDP in procurement and sustainment funding. Of these savings, the 
Air Force is reinvesting $32.9 million in fiscal year 2012 and $125.4 
million over the FYDP, into critical B-1 sustainment and modernization 
programs to ensure the health of the remaining fleet. These programs 
include procurement and installation of Vertical Situation Display 
Upgrade and Central Integrated Test System sustainment efforts, Fully 
Integrated Data Link capability upgrade and procurement of critical 
initial spares for these modifications.
    The ongoing Radar Maintainability and Improvement Program will 
replace two unsupportable Line Replaceable Units within the current 
radar system. The Air Force is assessing the remaining components of 
the B-1 radar with consideration to both supportability and 
performance. DOD applied the remainder of the savings from the B-1 
reduction to other Air Force and DOD priorities to include continuing 
to strengthen the nuclear enterprise and investing in Building 
Partnerships capacity.

    175. Senator Cornyn. Secretary Gates, the B-1 bomber has repeatedly 
been cited by senior U.S. military commanders as the premier bomber in 
Afghanistan. General David Petraeus has emphasized that, ``The B-1 is a 
great platform in at least two respects. First, it carries a heck of a 
lot of bombs, substantial ordnance. Second, it has very good 
intelligence, surveillance, and reconnaissance capabilities. And it can 
loiter for a good time, when it's not being used to drop bombs . . . '' 
How will the proposed cuts to the B-1 fleet impact B-1 operations in 
Afghanistan in the years to come?
    Secretary Gates. There will be no negative impact to operations in 
the Afghanistan theater. The fiscal year 2012 budget request reduces 
the B-1B force structure by six primary aircraft authorizations leaving 
60 B-1Bs in the Air Force inventory. This provides additional funds to 
improve the existing B-1B fleet, including the central integrated test 
system, fully integrated data link, and vertical situation display 
unit. These initiatives will help bridge the gap until the next 
generation strike aircraft is operational. However, investing in a new 
penetrating bomber is critical to maintaining our long-range strike 
capability in the face of increasing risk associated with anti-access 
and area-denied environments.

    176. Senator Cornyn. Secretary Gates, why was the B-52 fleet, which 
currently numbers 76 aircraft and does not provide nearly the utility 
of the B-1 in current operations in Afghanistan, not similarly reduced?
    Secretary Gates. The answer is two-fold. First, the dual missions 
of conventional and nuclear capabilities of the B-52 provide the 
flexibility to meet COCOM requirements that the conventional-only B-1 
does not provide. Second, the B-52 fleet maintains better maintenance 
statistics and requires fewer operational upgrades than the B-1; 
therefore, the Air Force was able to provide those upgrades without 
sacrificing force structure to pay for sustainment and upgrades.

                           LONG-RANGE STRIKE

    177. Senator Cornyn. Secretary Gates, the fiscal year 2012 DOD 
budget request includes $197 million in Air Force RDT&E funding to 
begin development of a new long-range bomber (Long-Range Strike) that 
we are told would be penetrating, carry precision-guided conventional 
weapons, and be nuclear-capable. Yet last month, Secretary of the Air 
Force Michael Donley told reporters that while the new bomber would be 
able to carry nuclear weapons, it would not be immediately certified 
for nuclear missions.Why will the new bomber not be certified at the 
outset to carry nuclear weapons?
    Secretary Gates. The new bomber will be nuclear capable. The Air 
Force will design and build the system to balance capability priorities 
with the need to responsibly and affordably mature a new system. 
Detailed timelines for certification will be developed as the program 
matures.

    178. Senator Cornyn. Secretary Gates, what plans, if any, are being 
made to enable the B-2 to be certified to deliver a nuclear ALCM?
    Secretary Gates. The Air Force is planning to integrate the LRSO 
weapon, which will replace the current nuclear ALCM, on the B-2.

                 GROUND-BASED MIDCOURSE DEFENSE SYSTEM

    179. Senator Cornyn. Secretary Gates, there are now 30 Ground-Based 
Interceptors (GBI) deployed in Alaska and California to defend against 
Iran and North Korea, but the administration has purchased only 52 GBI 
missiles. Following the last two Ground-based Midcourse Defense (GMD) 
system flight test failures, the MDA is down to only 20 GBI missiles, 
which is not enough to continue development and improvement of the GMD 
system, to conduct annual reliability flight testing, and to maintain 
spare missiles for emergency deployment. Yet the fiscal year 2012 
budget includes a reduction of $186 million to the GMD system from 
fiscal year 2011 levels, while the proposed 5-year funding for GMD is 
$1 billion less than that proposed in the fiscal year 2011 budget 
request. Given the administration's commitment to continue development 
and improving this important capability, how are these reductions 
justified when additional testing and GBI missiles are needed?
    Secretary Gates. The change from fiscal year 2011 to fiscal year 
2012 in the President's 2012 budget of $185 million reflects 
efficiencies introduced by the Department and the MDA. One of the focus 
areas of the efficiencies is cost savings through contract competition 
in the Ground-Based Midcourse Defense program. Another key efficiency 
was the consolidation of test events to achieve stated test objectives 
with fewer events. These efficiencies execute the same program scope 
with fewer program dollars, while continuing to meet the strategic 
goals and timelines laid out in the BMDR to ensure the United States 
has a reliable and proven system for homeland defense.

                            IRAQI AIR FORCE

    180. Senator Cornyn. Secretary Gates, in your testimony, you cited 
the Iraqi Air Force's ability to protect its own air space as one of 
three primary areas of U.S. concern with Iraqi military capabilities as 
DOD prepares to withdraw the last U.S. troops at the end of 2011. What 
steps have you taken to enable the Iraqi Air Force to take over this 
key mission, including training and equipping efforts?
    Secretary Gates. The Iraqi Air Force is on track to achieve minimal 
essential capabilities by the end of 2011 in all mission categories 
except airspace control; intelligence surveillance and reconnaissance; 
and fixed-wing airlift. With continued support from U.S. advisors and 
adequate resourcing from Iraq, improvements in accessions, airlift, 
flying and technical training, air staff effectiveness, combat support, 
and command and control should demonstrably contribute to internal 
security while setting the stage for contributing to external defense 
as well.
    Iraq funded several Foreign Military Sales (FMS) cases that provide 
both fixed and rotary wing pilot and ground crew training, including 
training to prepare pilots for a fourth generation fighter aircraft. 
Additionally, Iraq funded FMS cases that are currently providing 
aircraft as well as air surveillance radars.

    181. Senator Cornyn. Secretary Gates, the Iraqi Government had 
clearly been preparing to purchase 18 American-made F-16s until this 
week, when they announced they would postpone their planned purchase in 
order to shift funding to other non-military priorities. What steps are 
you taking to complete this critical F-16 purchase to help bring the 
Iraqi Air Force's air defense capability to proficiency?
    Secretary Gates. GoI requested the purchase of 18 F-16s. However, 
due to a number of competing priorities that must fit into a limited 
Iraqi budget, the Iraqis were not able appropriate funds for an F-16 
procurement program in the 2011 budget that was recently approved by 
the Council of Representatives. Funds initially earmarked in the 2011 
budget request to buy F-16s were shifted to provide critical human 
services in the final Council of Representatives approved budget.
    The most recent F-16 Letter of Offer and Acceptance tailored to 
meet Iraqi funding constraints expired on January 31. USF-I leadership 
continues to engage in discussions with Iraqi leadership on the details 
of a possible F-16 sale. This continues to remain a top U.S. Government 
and Iraq priority.

                             NATIONAL DEBT

    182. Senator Cornyn. Admiral Mullen, in your written testimony, you 
state: ``I believe that our debt is the greatest threat to our national 
security.'' Reckless fiscal policy is not the typical focus of our 
military's threat analyses but, frankly, I could not agree more with 
your assessment. Last Congress, I introduced a bill called the Foreign-
Held Debt Transparency and Threat Assessment Act, which would have 
required regular assessments from the GAO on the national security 
risks of the ballooning national debt. In addition to the sheer size of 
our national debt (now more than $14 trillion), I am also deeply 
concerned about our clear dependence on foreign governments such as 
China to fund our deficit spending, so my bill would also require the 
President to report quarterly to Congress on the national security 
risks posed specifically by foreign holdings. Do you agree that having 
this type of analysis is critical to both our fiscal and national 
security policies?
    Admiral Mullen. The ties between the strength of our economy and 
our Nation's security are inseparable and incontrovertible. We need a 
vibrant, growing economy to exert influence internationally and to 
provide for our military and other defense capabilities. In turn, we 
need the security provided by our national defenses to underwrite our 
economic endeavors and our livelihoods. But today we find both our 
economy and our security threatened by our burgeoning national debt.
    In my position, my concerns about our debt stem from its long-term 
effects on our Nation's fiscal standing and the difficult trade-offs 
associated with restoring our fiscal health, rather than the holders of 
our debt. As such, I have taken no position on the nature of the 
holders of this debt.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                         MISSILE DEFENSE BUDGET

    183. Senator Vitter. Secretary Gates, on February 16, 2011, you 
testified before the House Armed Service Committee: ``I do know that 
the overall budget for missile defense is going from $10.2 billion to 
$10.7 billion, so we're putting another $500 million into it. And there 
is money for more--more Aegis ships, more of the transportable radars 
like we have in Egypt--like we have in Israel and Japan right now, 
and--and then there are also continuing investments in the Ground Based 
Interceptor system.''
    Of the $500 million increase for missile defense, only $219 million 
is going to the MDA, whose budget increases from $8.4 billion in fiscal 
year 2011 to $8.6 billion for fiscal year 2012. Despite the $200 
million increase for MDA, 5-year funding for MDA declines by $2.6 
billion between fiscal year 2011 and fiscal year 2015, as compared to 
last year's budget request. Funding for the GMD in fiscal year 2012 is 
reduced by about $185 million, as compared to fiscal year 2011. Funding 
for the GMD program over fiscal years 2012 to 2015 is reduced by 
approximately $590 million, as compared to last year's budget request. 
Why does the MDA budget decline by $2.6 billion between fiscal years 
2011 and 2015?
    Secretary Gates. The MDA budget for 2011 through 2015 is based on 
the missile defense priorities set forth in the BMDR. The MDA budget 
strategy in fiscal year 2012 identified efficiencies and balanced 
personnel, budgetary and management resources within and across its 
components. In instituting efficiency initiatives MDA will make greater 
use of competition across its acquisition programs and will realize 
savings through a refined approach to service contracting.

    184. Senator Vitter. Secretary Gates, why does the GMD budget 
decline by $185 million in fiscal year 2012 and by $2.6 billion between 
fiscal years 2011 and 2015?
    Secretary Gates. The change from fiscal year 2011 to fiscal year 
2012 in the PB12 budget of $185 million is reflective of efficiencies 
introduced by the Department and MDA. One of the efficiencies focus 
areas is cost savings through contract competition in the GMD program. 
Another key efficiency was the consolidation of test events, achieving 
stated test objectives with fewer events. These efficiencies execute 
the same program scope with fewer program dollars, while continuing to 
meet the strategic goals and timelines laid out in the BMDR to ensure 
the United States has a reliable and proven system for homeland 
defense.
    The $2.6 billion change between fiscal years 2011 and 2015 reflects 
the change in funding for MDA as a whole, not GMD specifically.
    The MDA budget for 2011 through 2015 is based on the missile 
defense priorities set forth in the BMDR. The MDA budget strategy in 
fiscal year 2012 identified efficiencies and balanced personnel, 
budgetary and management resources within and across its components. In 
instituting efficiency initiatives MDA will make greater use of 
competition across its acquisition programs and will realize savings 
through a refined approach to service contracting.

                  MEADS AIR AND MISSILE DEFENSE SYSTEM

    185. Senator Vitter. Secretary Gates, I applaud you for your 
decision not to proceed to procurement of the Medium Extended Air 
Defense System (MEADS) air and missile defense system. As noted in the 
DOD memo, the program is substantially over budget and behind schedule; 
and it would take an extra $974 million to $1.16 billion just to 
complete the design and development. But I understand that the decision 
is to still proceed to spend approximately $804 million to implement a 
proof-of-concept effort. I am concerned that this would mean spending 
hundreds of millions of limited dollars on a system that we will not 
procure. What is the basis for continued funding on a program that DOD 
will ultimately not procure?
    Secretary Gates. Although the DOD has decided not to procure MEADS, 
the Department determined the technology being developed in the program 
will be useful for other DOD programs. The DOD explored viable 
potential courses of action, including:

    (1)  Terminating the program immediately, if the DOD could obtain 
the required consent of the other Participants in the MEADS program 
under the legally binding Memorandum of Understanding (MOU) among the 
Federal Ministry of Defense of the Federal Republic of Germany, the 
Ministry of Defense of the Republic of Italy, and the Secretary of 
Defense of the United States of America on behalf of DOD concerning 
Cooperation on a Project for Design and Development (D&D) of a MEADS 
(D&D MOU);
    (2)  Working with the other D&D MOU Participants to continue MEADS 
development within the agreed funding limits set forth in the D&D MOU; 
or
    (3)  Working with the other MEADS D&D MOU Participants to complete 
the planned D&D phase by amending the D&D MOU to add the additional 
funding and time required to develop and test the system fully for 
production and fielding.

    The DOD decided that the best option available under the MOU is to 
continue to participate in the D&D phase within the funding limits set 
forth in the D&D MOU. This decision ensures the DOD: will fulfill its 
obligations under the D&D MOU; will avoid a situation where the DOD may 
be viewed as reneging on its international obligations; will avoid 
requiring the DOD to pay termination costs we expect would be 
comparable to the cost of completing the ``proof of concept'' effort 
under the D&D MOU; and, will facilitate the maturation of key 
technologies useful to the DOD in other programs.

    186. Senator Vitter. Secretary Gates, I applaud you for your 
decision not to proceed to procurement of the MEADS missile defense 
system. As noted in the DOD memo, the program is substantially over 
budget and behind schedule. It would take an additional $974 million 
just to complete the design and development of the program. It does not 
make sense to continue to waste $800 million on a system we are not 
going to procure. Will DOD go back to the drawing board and try to find 
a way to ring out some additional savings out of this $800 million for 
MEADS?
    Secretary Gates. The DOD will continue to explore opportunities to 
minimize cost. The Department explored viable potential courses of 
action, including:

    (1)  Terminating the program immediately, if the DOD could obtain 
the required consent of the other MEADS partners under the MOU among 
the Federal Ministry of Defense of the Federal Republic of Germany, the 
Ministry of Defense of the Republic of Italy, and the Secretary of 
Defense of the United States of America on behalf of DOD concerning 
Cooperation on a D&D Project of a MEADS (D&D MOU);
    (2)  Working with the other D&D MOU Participants to continue 
development of MEADS within the agreed funding limits set forth in the 
D&D MOU; or
    (3)  Working with the other MEADS D&D MOU Participants to complete 
the planned D&D phase by amending the D&D MOU to add the additional 
funding and time required to develop and test the system fully for 
production and fielding.

    The DOD decided to continue to participate in the D&D phase within 
the funding limits set forth in the D&D MOU. This decision ensures the 
DOD: will fulfill its obligations under the D&D MO; will avoid a 
situation where the DOD may be viewed as reneging on its international 
obligations; will avoid requiring the DOD to pay termination costs we 
expect would be comparable to the cost of completing the ``proof of 
concept'' effort under the D&D MOU; and, importantly, will facilitate 
the maturation of key technologies useful to the DOD in other programs.

    187. Senator Vitter. Secretary Gates, DOD's memo indicates that it 
will be necessary to allocate funds for Patriot upgrades. At a minimum, 
will DOD work to reallocate funds for design and development for 
upgrades to the Patriot system?
    Secretary Gates. Yes. The Army is working to determine specific 
actions to mitigate the loss of MEADS. The Army will then reallocate 
funds originally programmed for MEADS beginning in fiscal year 2014 to 
improving the Patriot system.

    188. Senator Vitter. Secretary Gates, in the memo accompanying your 
recent decision not to proceed to procurement of MEADS, you 
specifically highlighted the Army's inability to afford to procure 
MEADS and make required Patriot upgrades as rationale for the decision. 
In light of your decision, can you provide your assurance that DOD will 
accelerate Patriot modernization efforts?
    Secretary Gates. Yes. The Army is working to determine specific 
actions to mitigate the loss of MEADS. The Army will then reallocate 
funds originally programmed for MEADS beginning in fiscal year 2014 to 
efforts accelerating improvements to the Patriot system.

                   CONVENTIONAL PROMPT GLOBAL STRIKE

    189. Senator Vitter. Admiral Mullen, you recently stated, ``U.S. 
senior military leaders monitored very closely all provisions related 
to conventional prompt global strike (CPGS) throughout the recent START 
treaty negotiation process''. Do you believe there is a current clear 
commitment to deployment that allows for adequate U.S. missile 
defenses?
    Admiral Mullen. Yes. The START treaty allows for deployment and 
further development of conventional strike weapons, which are designed 
to hit targets any place in the world in 60 minutes or less. Any 
warhead--nuclear, high explosive, or high speed kinetic--on an ICBM or 
submarine-launched ballistic missile (SLBM) would be counted under the 
New START treaty central limits. However, deployment of CPGS does not 
impede our ability to provide for adequate U.S. missile defenses.

    190. Senator Vitter. Admiral Mullen, additionally, condition 6 of 
the New START Resolution of Ratification called on the President to 
clarify its planning and intent in developing future conventionally-
armed, strategic-range weapons systems (aka, CPGS). The February 2, 
2011, report on CPGS, pursuant to Condition 6, lists three efforts 
under development (hypersonic technology vehicle (HTV), advanced 
hypersonic weapon (AHW), and conventional strike missile CSM)), at a 
cost of some $2 billion between now and 2016 for research and 
development. Is it still the policy of the administration, as per the 
2010 NPR, to develop and field CPGS capabilities? If so, is it the 
intent of the administration to make a deployment decision anytime 
soon?
    Admiral Mullen. Our plan is to continue to strengthen our 
conventional capabilities as we reduce the role of nuclear weapons in 
deterring non-nuclear attacks. We are continuing to plan for and 
develop contributions by non-nuclear systems to U.S. regional 
deterrence while preserving reassurance goals by avoiding limitations 
on missile defenses and maintaining options for using heavy bombers or 
long-range missile systems in conventional roles. The success of a CPGS 
fielded capability will be dependent on progress made through the 
continued RDT&E of critical technologies, formal establishment of 
follow-on Service acquisition programs, and a concurrent effort to 
improve the Nation's ISR capabilities.

    191. Senator Vitter. Admiral Mullen, the February 2 report states 
that ``conventionally armed SLBM and conventionally armed ICBM concepts 
with traditional ballistic trajectories are not currently being 
pursued,'' and that ``DOD at present has no plans to develop and field 
these systems.'' Given that these are the most mature technologies, why 
isn't the administration pursuing conventionally armed SLBMs and ICBMs 
as a near-term CPGS option?
    Admiral Mullen. While CPGS capabilities are currently limited, the 
current RDT&E approach is consistent with the department's vision of 
developing enhanced conventional technologies and capabilities that 
will minimize political and operational risks associated with fielding 
and employment in the future. The HTV -2 and AHW technology experiments 
along with the CSM demonstration are expected to provide more flexible 
operational characteristics that will not count (New START treaty) 
against a smaller triad of strategic nuclear capabilities. It will also 
be important to discriminate these capabilities from current ICBM or 
SLBM employment.

    [Whereupon, at 12:42 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MARCH 1, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

        U.S. SPECIAL OPERATIONS COMMAND AND U.S. CENTRAL COMMAND

    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Nelson, Webb, Udall, Hagan, Manchin, Shaheen, Blumenthal, 
McCain, Inhofe, Wicker, Portman, Ayotte, and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Jessica L. Kingston, research assistant; Michael J. Kuiken, 
professional staff member; Jason W. Maroney, Counsel; William 
G.P. Monahan, counsel; Michael J. Noblet, professional staff 
member; and William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; and Lucian L. 
Niemeyer, professional staff member.
    Staff assistants present: Christine G. Lang, Hannah I. 
Lloyd, and Brian F. Sebold.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Ann Premer, assistant to Senator Nelson; Gordon 
Peterson, assistant to Senator Webb; Jennifer Barrett and Casey 
Howard, assistants to Senator Udall; Roger Pena, assistant to 
Senator Hagan; Lindsay Kavanaugh, assistant to Senator Begich; 
Joanne McLaughlin, assistant to Senator Manchin; Ethan Saxon, 
assistant to Senator Blumenthal; Anthony Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Clyde Taylor IV, assistant to Senator Chambliss; Joseph Lai, 
assistant to Senator Wicker; Charles Prosch, assistant to 
Senator Brown; Gordon Gray, assistant to Senator Portman; Adam 
Hechavarria, assistant to Senator Ayotte; Ryan Kaldahl, 
assistant to Senator Collins; and Dave Hanke, assistant to 
Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to receive testimony from 
Admiral Eric Olson, Commander, U.S. Special Operations Command 
(SOCOM), and General James Mattis, Commander, U.S. Central 
Command (CENTCOM).
    Today's hearing continues the committee's review of the 
missions and operational requirements of our combatant 
commanders in light of the priorities set out in the 
President's fiscal year 2012 budget request.
    Nowhere will the President's budget priorities have a 
greater impact than with the soldiers, sailors, airmen, and 
Marines in the CENTCOM area of responsibility (AOR). The men 
and women of CENTCOM and SOCOM have been engaged in major 
military operations for nearly a decade. Yet, in Afghanistan 
and Iraq, our troops' morale is high. They are dedicated to 
their mission and serving with courage and distinction.
    We have asked so much of them. They have done everything we 
have asked and more. That includes not just the servicemembers 
themselves, but the families who have served our Nation at home 
while their loved ones serve overseas. Admiral Olson and 
General Mattis, on behalf of this committee, please pass along 
our gratitude to the troops serving under your commands.
    Admiral Olson, it is my understanding that you plan to 
retire this year after an exceptional career in which, among 
other things, you became the first Navy SEAL to attain the rank 
of four-star admiral, and you have led SOCOM with great 
distinction. Thank you for your outstanding service and that of 
your family.
    The Department of Defense (DOD), as are all Federal 
agencies, is currently operating under a Continuing Resolution 
(CR) that expires in a few days. Last week, Secretary Gates 
described this as a crisis on his doorstep.
    I hope that we will soon be in a position to enact a full-
year appropriation at an appropriate level. I hope, General 
Mattis and Admiral Olson, that you will help the committee 
better understand the impact of proceeding by CR on the forces 
operating under your command.
    In Iraq, CENTCOM is continuing to oversee the drawdown of 
U.S. forces, as agreed upon by President Bush and Prime 
Minister Maliki in the 2008 security agreement, which requires 
all U.S. forces to be withdrawn from Iraq by December 31st of 
this year. Because of the ongoing reduction of our general-
purpose forces in Iraq, the importance of the role performed by 
our Special Operations Forces (SOF) as a force multiplier, 
continuing to build the capacity of Iraqi counterterrorism 
forces and enabling their operations against al Qaeda in Iraq 
and other terrorist groups, is even more important.
    As we reduce our presence, we must make sure that our 
special operators receive adequate support, including 
intelligence, medical evacuation, and quick-reaction forces. 
The transition in Iraq also means that the State Department 
will take over the lead for numerous activities in Iraq 
previously implemented by DOD, including training the Iraqi 
police.
    We would be interested in hearing from our witnesses this 
morning your views on the importance of providing adequate 
resources to the State Department and other civilian agencies 
to the success of that transition.
    In Afghanistan, it is essential that President Obama holds 
to his decision to set July 2011 as the date for the beginning 
of reductions in U.S. forces in Afghanistan.
    Secretary Gates told this committee a few weeks ago that he 
supported the decision to set the July 2011 date because it was 
necessary to ``grab the attention of the Afghan leadership and 
bring a sense of urgency to them of the need for them to step 
up to the plate to take ownership of the war and to recruit 
their own young men to fight.''
    Admiral Mullen said at the same hearing that the July 2011 
date ``has given the Afghans a sense of urgency that they 
didn't have before the decision was made.''
    The Afghan National Army (ANA) and Afghan National Police 
(ANP) have added 70,000 Afghan National Security Forces (ANSF) 
over the last year and will meet the current target of 305,000 
ANSF by October of this year. A large, capable, effective 
Afghan security presence is what the Taliban fears the most 
because it would demonstrate that--contrary to the Taliban's 
propaganda, the war against the Taliban and al Qaeda is a war 
the Afghan people believe in and it is being fought by an 
Afghan security force that they believe in, rather than a war 
waged by foreign occupiers, as Taliban propaganda would have 
it.
    The administration is now considering a request to grow the 
ANA and ANP by between 45,000 and 70,000 people, which would 
bring the total ANSF levels to a range of 352,000 to 378,000 by 
the end of 2012. I have twice recently urged President Obama to 
approve this request for additional Afghan troops.
    It is a key to the success of our mission and to faster 
reductions of U.S. troops. It is also far less costly in terms 
of U.S. casualties and taxpayer dollars than keeping large 
numbers of U.S. forces in Afghanistan. I hope our witnesses 
this morning will tell us whether they support the request to 
build the ANSF by up to an additional 70,000 personnel.
    The presence of safe havens for terrorists across the 
Afghanistan border in Pakistan continues to pose a security 
threat to Afghanistan and to the region. While U.S.-Pakistan 
military cooperation has improved in some respects, the 
Pakistani army has not yet gone after the sanctuaries for the 
Haqqani network in North Waziristan or the Afghan Taliban in 
and around Quetta, Pakistan.
    Over the past month, the status quo in the CENTCOM AOR has 
changed dramatically, and this change appears to be ongoing. 
The protests in Egypt, Bahrain, Jordan, Iran, Yemen, and other 
countries are examples of what President Obama has correctly 
called a ``hunger for freedom.''
    Many in the Middle East have been denied their democratic 
and human rights for too long, and the past month is a clear 
demonstration of the people there demanding those rights. The 
United States needs to make constantly clear it supports those 
seeking to exercise their fundamental rights in the Middle East 
and around the world.
    The committee looks forward to hearing from General Mattis 
on his assessment and views on these protest movements, how our 
security, how our counterterrorism operations, and how our 
strategic goals are impacted by the events in the Middle East, 
and how, if at all, the nature of our military-to-military 
relationships might change in the region as a result of these 
events.
    In the waters off the coast of Somalia, the flow of 
international commerce continues to be impacted by the threat 
of increasingly aggressive pirates. Just last week, four 
Americans were murdered at the hands of more than a dozen 
pirates bent on extracting ransoms in exchange for their lives. 
The committee looks forward to hearing from our witnesses about 
their assessment of this threat and about ongoing U.S. anti-
piracy operations.
    Iran provides the greatest challenge to the United States 
and the international community. While continuing to profess 
that its nuclear activities are for peaceful purposes, its 
actions indicate otherwise. The sanctions that have been 
imposed by the United States and most of the international 
community under the United Nations (U.N.) sanctions resolutions 
as well as domestic laws seem to be having some effect, but 
they need to be maintained and ratcheted up.
    Admiral Mullen's guidance for 2011, which states that DOD 
would ``continue to plan for a broad range of military options 
should the President decide to use force to prevent Iran from 
acquiring nuclear arms,'' needs to be reiterated. While not the 
preferred option, it is important that Iran understand that 
military actions remain on the table.
    I am concerned about the fraying of our SOF, as you have 
put it, Admiral Olson. While our SOF have seen rapid growth 
over the past decade, the demand for such forces and their 
unique skills will continue to outpace supply for the 
foreseeable future.
    This committee stands prepared to support SOCOM's efforts 
to provide the best-trained and best-equipped special operators 
to our combatant commands, and we look forward to hearing from 
you on this matter.
    Thank you again, both of you, for your testimony today.
    Let me now turn this over to Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank our witnesses for joining us this morning.
    Admiral Olson, thank you for your many years of courageous 
and outstanding service to the United States Navy and to the 
Nation.
    General Mattis, as always, we look forward to your straight 
talk and candid views on the issues that are so important to 
us.
    This hearing couldn't come at a more important time. 
Senator Lieberman and I have spent the past several days 
visiting some key countries within the CENTCOM AOR, including 
Lebanon, Jordan, and Egypt, as well as some equally critical 
countries that influence events within the AOR, such as 
Morocco, Tunisia, and Israel.
    In addition, we are all, obviously, focused on the tectonic 
changes that are shaking countries and governments in Yemen, 
Bahrain, Iran, and, of course, Libya. That is to say nothing of 
Iraq, Afghanistan, and Pakistan, which remain the focus of our 
military and diplomatic efforts.
    Not since the fall of the Soviet Union have we seen a wave 
of change destabilize more critical countries all at once than 
we are now witnessing. Indeed, the old bargains that have 
defined regional order in the Middle East for the past several 
decades are now collapsing in front of us.
    This is, of course, deeply unsettling, but it is also an 
unprecedented opportunity to support the people of the Middle 
East in shaping a new regional order that is all at once 
reflective of their aspirations, conducive to our interests, 
and consistent with our values. The people of the Middle East 
are playing the leading role in this historic endeavor, but 
America's Armed Forces are playing an indispensable role, 
strengthening and defending our friends while deterring and 
defeating our enemies.
    2011 will be a consequential year for CENTCOM and SOCOM. 
Among the vital strategic issues that were in play this year, 
we face the beginning of the North Atlantic Treaty 
Organization's (NATO) transition of responsibility for security 
in Afghanistan to local and national Afghan forces amid 
strained and even deteriorating U.S.-Pakistani relations.
    We face hard choices about the future of U.S. defense 
assistance to Lebanon after Hezbollah's use of coercion to 
become the dominant actor in the government. We face the 
Iranian regime's desires to develop a nuclear weapons 
capability and to exploit the current regional instability to 
expand its hegemonic ambitions.
    We face the destabilization of critical counterterrorism 
partners like Egypt, Jordan, Yemen, and Bahrain, where the 
headquarters of U.S. Fifth Fleet is now caught up in the 
broader debate over the people of Bahrain's political future. 
Of course, we face the prospect of a complete withdrawal of all 
U.S. troops from Iraq by the end of the year, despite 
increasing evidence and recent testimony by the Secretary of 
Defense suggesting that such a plan is not consistent with 
Iraq's continuing security needs or our enduring interests at 
this time.
    Amid these and other challenges, this year will also 
require increased vigilance on the part of our SOCOM, for the 
changes sweeping across North Africa, the Middle East, and 
South and Central Asia may open up new ungoverned spaces that 
could be exploited by our enemies. While our special operators 
continue to perform with remarkable resilience and success, the 
effects of nearly 10 years of sustained operations and repeated 
deployments appear to be straining this elite force.
    Admiral Olson, as the chairman has said, we are concerned 
by your recent comment that our SOF are showing signs of 
``fraying around the edges.'' It is important that you lay out 
today what steps are being taken or need to be taken to 
mitigate this strain. We are also interested in SOCOM's 
progress in meeting growth targets mandated by the Quadrennial 
Defense Review, as well as any associated issues, such as 
training or facility constraints that you are facing.
    We continue to see al Qaeda and affiliated movements 
attempting to expand their reach through the Maghreb, the Horn 
of Africa, the Arabian Peninsula, Central Asia, and beyond. We 
are all eager for the assessments of both our distinguished 
witnesses about the capabilities of these groups to threaten 
America's friends, allies, interests, and Homeland.
    What is critical to note is that the historic changes now 
reshaping the broader Middle East are a direct repudiation of 
al Qaeda and its terrorist allies. The people of this dynamic 
and crucial region are rising up to change the character of 
their governments, but the revolutions they are making are 
largely defined not by violence, but by peaceful protests.
    They are inspired not by intolerant and extremist 
ideologies, but rather by demands for greater freedom, 
democracy, opportunity, and justice. More than any weapon of 
war with which this committee must concern itself, it is these 
principles and the changes they are inspiring that will 
ultimately defeat our terrorist enemies.
    If only for that reason alone, these universal values and 
those now struggling for them deserve our full support.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement by Senator John McCain

    Thank you, Mr. Chairman. Let me thank our distinguished witnesses 
for joining us this morning. General Mattis, Admiral Olson, thank you 
for your many decades of faithful service to our Nation, and on behalf 
of our entire committee, please convey to the brave men and women you 
lead how grateful we are for their sacrifice, and that of their 
families.
    This posture hearing could not come at a more important time. I 
have spent the past several days visiting some key countries within the 
U.S. Central Command (CENTCOM) area of responsibility, including 
Lebanon, Jordan, and Egypt--as well as some equally critical countries 
that influence events within the AOR, such as Morocco, Tunisia, and 
Israel. In addition, we are all obviously focused on the tectonic 
changes that are shaking countries and governments in Yemen, Bahrain, 
Iran, and of course Libya. That is to say nothing of Iraq, Afghanistan, 
and Pakistan, which remain the focus of our military and diplomatic 
efforts.
    Not since the fall of the Soviet Union have we seen a wave of 
change destabilize more critical countries all at once than what we are 
now witnessing. Indeed, the old bargains that have defined regional 
order in the Middle East for the past several decades are now 
collapsing in front of us. This is of course deeply unsettling, but it 
is also an unprecedented opportunity to support the peoples of the 
Middle East in shaping a new regional order that is, all at once, 
reflective of their aspirations, conducive to our interests, and 
consistent with our values. The people of the Middle East are playing 
the leading role in this historic endeavor, but America's Armed Forces 
are playing an indispensable role--strengthening and defending our 
friends, while deterring and defeating our enemies.
    2011 will be a consequential year for CENTCOM and Special 
Operations Command (SOCOM). Among the vital strategic issues that are 
in play this year, we face the beginning of the North Atlantic Treaty 
Organization's transition of responsibility for security in Afghanistan 
to local and national Afghan forces, amid strained and even 
deteriorating U.S.-Pakistani relations.
    We face hard choices about the future of U.S. defense assistance to 
Lebanon after Hezbollah's use of coercion to become the dominant actor 
in the government.
    We face the Iranian regime's desire to develop a nuclear weapons 
capability and to exploit the current regional instability to expand 
its hegemonic ambitions.
    We face the destabilization of critical counterterrorism partners 
like Egypt, Jordan, Yemen, and Bahrain, where the headquarters of U.S. 
Fifth Fleet is now caught up in the broader debate over the people of 
Bahrain's political future.
    Of course, we face the prospect of a complete withdrawal of all 
U.S. troops from Iraq by the end of the year, despite increasing 
evidence and recent testimony by the Secretary of Defense suggesting 
that such a plan is not consistent with Iraq's continuing security 
needs or our enduring interests at this time.
    Amid these and other challenges, this year will also require 
increased vigilance on the part of our special operations command--for 
the changes sweeping across North Africa, the Middle East, and South 
and Central Asia may open up new ungoverned spaces that could be 
exploited by our enemies.
    While our special operators continue to perform with remarkable 
resilience and success, the effects of nearly 10 years of sustained 
operations and repeated deployments appear to be straining this elite 
force. Admiral Olson, I am concerned by your recent comment that our 
Special Operations Forces are showing signs of ``fraying around the 
edges.'' It is important that you lay out today what steps are being 
taken to mitigate this strain. We are also interested in SOCOM's 
progress in meeting growth targets mandated by the Quadrennial Defense 
Review, as well as any associated issues such as training or facility 
constraints that you are facing.
    We continue to see al Qaeda and affiliated movements attempting to 
expand their reach through the Maghreb, the Horn of Africa, the Arabian 
Peninsula, Central Asia, and beyond. We are all eager for the 
assessments of both our distinguished witnesses about the capabilities 
of these groups to threaten America's friends, allies, interests, and 
Homeland.
    What is critical to note, however, is that the historic changes now 
reshaping the broader Middle East are a direct repudiation of al Qaeda 
and its terrorist allies. The people of this dynamic and crucial region 
are rising up to change the character of their governments, but the 
revolutions they are making are largely defined not by violence, but by 
peaceful protests. They are inspired not by intolerant and extremist 
ideologies, but rather by demands for greater freedom, democracy, 
opportunity, and justice. More than any weapon of war with which this 
committee must concern itself, it is these principles, and the changes 
they are inspiring, that will ultimately defeat our terrorist enemies, 
and if only for that reason alone, these universal values and those now 
struggling for them deserve our full support.

    Chairman Levin. Thank you very much, Senator McCain.
    Admiral Olson, let us start with you.

 STATEMENT OF ADM ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Good morning, Chairman Levin, Senator 
McCain, and other distinguished members of the committee.
    I do thank you for this opportunity to appear before you to 
present the current posture of SOCOM.
    We, at SOCOM, recognize that we were created by Congress 
and that our ability to meet our Nation's high expectations is 
due, in large part, to this committee's continued strong 
support.
    I am especially pleased to share this hearing with my 
friend and teammate, General Jim Mattis. General Mattis' 
headquarters and mine are coincidentally located on the same 
base in Tampa, and we and our staffs work together quite 
closely.
    With your permission, I will submit my written posture 
statement for the record and open with some brief remarks.
    Chairman Levin. It will be made part of the record in full.
    Admiral Olson. The lingering threat of violence in Iraq, 
the fragility of the progress in Afghanistan, the complexity of 
our relations with Pakistan, the decentralization of al Qaeda's 
network, the revolutionary activity across the Maghreb and into 
the Middle East, the various destabilizing elements in Latin 
America, Africa, and Southeast Asia, the increased intertwining 
of violent extremism and criminality, and the persistence of 
piracy are all among the many daily reminders that we live in a 
world that poses many security challenges and some 
opportunities.
    The SOF are universally recognized as key to our Nation's 
ability to address all of these and others. As the Commander of 
SOCOM, I am responsible and accountable for the readiness of 
all Army, Navy, Air Force, and Marine Corps SOF.
    With a dedicated budget and through my component 
commanders, I select, organize, train, equip, and deploy these 
forces to serve all of the Geographic Combatant Commanders. 
Though with 85 percent of our deployed forces currently in the 
CENTCOM area of operations, my colleague to my left is, by far, 
the largest customer of our product.
    We include many forces of legend: Green Berets, SEALs, 
Rangers, Air Force Air Commandos, Army Night Stalker Aviators, 
Combat Controllers, Pararescue Jumpers, Combatant-craft 
Crewmen--today's version of Marine Raiders--and others. The 
active duty practitioners of Civil Affairs operations and 
Military Information Support Operations are also in our ranks. 
These are special operations careerists.
    But they are backed by a magnificent assortment of 
administrative, intelligence, communications, engineering, 
logistics, and other specialists who serve in special 
operations units on a less permanent basis. At our various 
headquarters, we also include over 300 representatives from at 
least 15 other agencies within and beyond DOD, providing a 
senior-level counsel and staff-level expertise that 
significantly broadens and deepens us.
    I am convinced that the forces we provide to the Geographic 
Combatant Commanders are the most culturally attuned partners, 
most lethal hunter/killers, and most responsive, agile, 
innovative, and efficiently effective advisers, trainers, 
problemsolvers, and warriors that any nation has to offer. In 
fact, we have become the model for many others.
    Our value comes from both our high level of skills and our 
nontraditional methods of applying them, which is to say that 
our principal asset is the quality of our people. Whether they 
are conducting a precision raid, organizing a village police 
force, arranging for a new school or clinic, or partnering with 
counterpart forces, they do so in a manner that has impressive 
effects.
    In Afghanistan and Iraq especially, it is undeniable that 
they have had impact far above their relatively small numbers. 
They are in dozens of other countries every day, contributing 
to regional stability by training and advising counterpart 
forces. This balance of direct and indirect operations must be 
carefully managed. But because SOF live in both of these 
worlds, we become the force of first choice for many missions. 
As Admiral Mullen said a couple of weeks ago, SOF are typically 
first in and last out.
    I am very proud of these forces, as we all should be. But I 
also acknowledge there are challenges. Key among them is how to 
meet the increasing global requirement for their capabilities.
    We can't grow them more than a very few percent per year, 
but the demand is outpacing the supply. Since September 11, our 
manpower has roughly doubled, our budget has roughly tripled, 
and our overseas deployments have quadrupled.
    I have said that this great force is beginning to fray 
around the edges. The fabric is strong. The weave is tight. It 
is not unraveling, but it is showing signs of wear.
    Partial solutions include finding a process that will 
habitually assign units from the Services to train and deploy 
with SOF, ensuring that our needs for local training ranges are 
fully met, providing buildings and facilities at the standard 
that our force needs and deserves, investing more broadly in 
the types of enabling capabilities that will relieve SOF from 
sending our own people to perform functions that could be 
performed by others, and expanding the Services' inventory of 
specific assets that are so essential to today's complex and 
irregular warfare.
    We must ensure that our force has the specialized equipment 
and advanced training that they need to survive and succeed in 
the complex, ambiguous, and often violent environments in which 
we ask them to serve.
    Underlying all of it is the need to look after our people 
and their families. We must rehabilitate and return to duty 
those of our wounded who can, care for those of our wounded who 
can't, along with their families and caregivers, and provide 
enduring support to the families of those who have died in 
action.
    I ask for your action to approve a defense budget for 
fiscal year 2011 and for your support for the fiscal year 2012 
budget proposal. I also ask that you fully fund the special 
operations budget, particularly as conventional forces begin to 
draw down from major operations, because our forces will most 
likely be reallocated at the same levels to areas with pent-up 
demand for our unique capabilities.
    Thank you for the opportunity to appear before you today. 
You have reason to take great pride in what the men and women 
of SOF are accomplishing around the world, today and every day.
    I remain humbled by my opportunity to command this 
formidable force and to provide it to answer our Nation's most 
daunting security needs. As I appear before you in this 
capacity for the fourth and very likely the last time, I thank 
you for affording me the profound honor of serving my country 
in this way.
    I stand ready for your questions.
    [The prepared statement of Admiral Olson follows:]

              Prepared Statement by ADM Eric T. Olson, USN

    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to provide an update on the U.S. Special 
Operations Command (SOCOM). Our Special Operations Forces (SOF) give us 
much cause for great pride and it is my deep privilege to represent 
them to you, and especially to do so for the fourth time as their 
commander.
    My intent today is to describe the current status, activities and 
requirements of SOF. I'll begin by briefly describing SOCOM and its 
assigned SOF.
    As many of you know, SOCOM is a creation of Congress, legislated 
into being in 1986. A relatively small number of Army, Navy, and Air 
Forces units designated as SOF were assigned to SOCOM, with Marine 
Corps forces joining the Command just over 5 years ago.
    Before the establishment of SOCOM, the Nation's SOF had generally 
not been treated as a top priority. They now thrive under the focused 
attention of a single headquarters and a dedicated budget. In the 24 
years since SOCOM was established, SOF have repeatedly proven their 
value, often under extraordinarily demanding conditions.
    In many ways, SOCOM is a microcosm of the Department of Defense 
(DOD), with ground, air and maritime components, a global presence, and 
authorities and responsibilities that mirror the Military Departments, 
Military Services, and Defense Agencies. We take pride in the diversity 
of our people and our mission.
    One of our headquarter's functions is to synchronize DOD planning 
against terrorists and their networks globally. This is complex work 
that connects us across DOD and into other U.S. Government departments 
and other nations' military forces. The effects of this are manifested 
in a series of planning documents that guide specific actions by the 
Services and combatant commands.
    Primarily, SOCOM organizes, trains and equips SOF and provides 
those forces to the Geographic Combatant Commanders under whose 
operational control they serve. The Command also develops special 
operations strategy, doctrine and procedures for SOF employment and 
develops and procures specialized equipment for the force.
    Our key subordinate commands are U.S. Army Special Operations 
Command, Naval Special Warfare Command, U.S. Air Force Special 
Operations Command, Marine Corps Forces Special Operations Command, and 
Joint Special Operations Command. Within these commands are the 
legendary Special Forces or Green Berets, SEALs, Air Commandos, 
Rangers, Night Stalker helicopter crews, and the modern version of 
yesterday's Marine Raiders. Our force also includes the active duty 
practitioners of Civil Affairs Operations and Military Information 
Support Operations, and all of the instructors, logisticians, 
administrators, analysts, planners, communicators, doctrine writers, 
and other specialists who are key to our ability to meet our Nation's 
needs. Most are active duty military, but we depend heavily on our 
Guard and Reserve units and the government civilians and contractors 
who perform duties that don't require a uniformed servicemember.
    We now total close to 60,000 people, about a third of whom are 
career members of SOF, meaning those who have been selected, trained, 
and qualified to earn the Military Occupational Specialty or skill code 
identifier of a SOF operator.
    The activities of the force are as varied as its character. From 
high-risk, high-intensity counterterrorist raids; to meticulous 
intelligence analysis; to providing first response during a natural 
disaster; to launching from submerged submarines; to training and 
accompanying foreign counterparts; to working with local leaders to 
determine what will bring value to their village; to providing 
supporting precision fires to fighting troops from orbiting aircraft--
SOF personnel are in vital roles, in key places, performing essential 
tasks.
    Our presence is generally small and agile, inherently joint and 
persistent. Our formations normally include an array of attached 
capabilities that are necessary to optimize the force--including female 
Cultural Support Teams, Tactical Air Controllers, Military Working 
Dogs, interpreters, maintenance and repair personnel, Explosive 
Ordnance Disposal technicians and others. SOF rarely dominate an area 
with their mass, so they must work with indigenous forces and the local 
civilian population to accomplish their missions. This is often 
complicated, demanding and high-risk.
    Each of the Geographic Combatant Commanders who will appear before 
you is well served by the SOF that are deployed to his region, although 
the balance is heavily weighted towards U.S. Central Command (CENTCOM). 
In fact, about 85 percent of deployed SOF are directly engaged in 
Operations New Dawn and Enduring Freedom. I will defer to the regional 
commanders to highlight the contributions of SOF in their theaters. I 
will just say here that, although the precision counterterrorism 
missions certainly receive the most attention, SOF are conducting a 
wide range of activities in dozens of countries around the world on any 
given day--at the request of the host government, with the approval of 
the U.S. Ambassador and under the operational control of the U.S. 
Geographic Combatant Commander.
    To support these forces and activities, SOCOM invested in many 
specialized programs and equipment. As the commander responsible for 
the preparation and readiness of SOF, I focus on developing and 
sustaining operational skills and capabilities, training and 
maintaining the quality of the force, caring for its families, and 
ensuring that our people have the right equipment in sufficient 
quantity. I also carefully monitor global military and political trends 
in my role as the senior advisor on the employment of SOF.
    Among SOCOM's most important functions is the management of Major 
Force Program-11 (MFP-11). MFP-11 is provided to the Commander of SOCOM 
to address requirements that are ``SOF-peculiar'' in nature, and it is 
the essential fuel that enables SOF to meet the Nation's needs. It 
provides for the conduct of advanced and unique training, the timely 
and flexible fielding of equipment, and the capability to rapidly and 
effectively project our force. In fiscal year 2012, the request for 
MFP-11 funds totals $10.5 billion in baseline and Overseas Contingency 
Operations (OCO) funding. This is an increase of 7 percent over the 
fiscal year 2011 request, and every dollar is necessary to meet the 
ever-increasing demands placed on our SOF.
    At the forefront of budget discussions is the acknowledgment that 
many of the current expenditures funded by OCO are, in fact, part of 
SOCOM's baseline requirement in the ``new normal.'' This was 
highlighted by the Department last year when a commitment was made to 
eventually move funding required to execute OCOs into the baseline as 
part of the Secretary of Defense's initiative to ``rebalance'' the 
force. However, SOCOM will continue to rely on OCO funding over the 
next few years as the phased transfer to the base budget occurs. For 
example, in the fiscal year 2012 budget submission 34 percent of the 
total MFP-11 request is OCO funding. For some higher intensity SOF 
elements, the OCO percentage is greater than 75 percent. SOCOM will 
carefully prioritize and manage the OCO to base transition. Overall, we 
are in a fiscally satisfactory condition, but the force requires 
continued support. The President's budget request for fiscal year 2012, 
if approved, is an essential step towards meeting the growing demand on 
our force by providing SOCOM the resources required to sustain critical 
programs and initiatives. Now, I would like to highlight some of these 
key efforts.

                                PROGRAMS

    SOCOM continues to expand and recapitalize its rotary and fixed-
wing aviation fleets. This year we began modification of the last of 
the originally planned 61 MH-47G helicopters, while starting 
procurement of 8 additional MH-47Gs. We are also fielding the first of 
72 planned MH-60M helicopters as part of our recapitalization of MH-60 
K/L platforms. The tilt-rotor CV-22, having demonstrated its 
capabilities on multiple deployments, must remain on plan to ensure 
enhanced future mobility capabilities for SOF. SOCOM's MC-130Ws, 
rapidly modified with a Precision Strike Package utilizing SOF's Joint 
Acquisition Task Force (JATF), are providing armed overwatch and 
mobility to deployed SOF as an interim augmentation to our Vietnam-era 
AC-130 gunship fleet. We are on a path to ultimately recapitalize the 
gunships with AC-130J models. The MC-130J program is on track to 
replace our aging MC-130Es and MC-130Ps. Our Non-Standard Aviation 
Program is delivering a variety of smaller aircraft to provide intra-
theater airlift capacity and we continue to grow our aviation foreign 
training capability in support of the Geographic Combatant Commanders' 
engagement plans.
    SOCOM is also modernizing its maritime mobility systems. We will 
award competitive prototype contracts later this year for Combatant 
Craft-Medium as replacements for the Naval Special Warfare Rigid Hull 
Inflatable Boat. We have realigned resources from the Advanced SEAL 
Delivery System and the Joint Multi-Mission Submersible to fund the 
development of a family of Dry Submersibles as part of our undersea 
mobility strategy. These will be launched from surface ships or Dry 
Deck Shelter-equipped submarines. As part of this modernization 
program, we will explore expansive and flexible approaches that are 
supportive of the Secretary of Defense's intent to streamline 
acquisition processes and accelerate delivery times.
    SOF continue to rely on a wide range of ground mobility vehicles, 
often leveraging Service and Department investments. Modified to meet 
the wide variety of SOF mission sets and provide enhanced crew 
protection, vehicles such as the MRAP have been essential to SOF teams 
operating in dispersed and rugged terrain throughout the CENTCOM area 
of responsibility (AOR). These vehicles, as well as our other ground 
mobility systems, will remain relevant well into the future as we 
synchronize our long-term sustainment strategy with the Services.
    We continue to invest in airborne manned and unmanned Intelligence, 
Surveillance, and Reconnaissance (ISR) programs, relying heavily on the 
Services to expand capabilities and capacity that benefit DOD across 
the board. SOCOM is moving toward a relatively small number of manned 
and unmanned ISR systems; essential processing, exploitation, and 
dissemination (PED) capabilities; and supporting communications 
architectures.
    One of the most noteworthy improvements within special operations 
over the last few years has been the growth of advanced communications 
and networking capabilities through our expeditionary SOF Information 
Enterprise (SIE). As our portion of the Department's Global Information 
Grid, the SIE provides network independence while maintaining 
connectivity into the global interface, and links SOF across the globe 
into a common network. This connectivity shortens the decision cycle 
for SOF operators worldwide and allows more rapid information sharing. 
The research and rapid development of these types of technologies is an 
inherent strength of special operations.
    SOCOM, inherently joint in all it does, is in a unique position to 
leverage and apply Service and Department Science and Technology (S&T) 
efforts to rapidly field new technologies on the battlefield. SOCOM's 
``Rapid Exploitation of Innovative Technologies for SOF'' program, 
enables innovative new capabilities to be developed and inserted 
quickly into the battlefield-advanced ''talk and jam'' capabilities for 
SOF vehicles; mobile repair and maintenance ``shops in a box''; to 
solar panel energy technology that supports SOF in remote locations. 
SOCOM also seeks to expand its biomedical research and development 
activities. To date, SOCOM has pushed ``state-of-the-art'' combat 
medicine with modest resources through the Tactical Combat Casualty 
Care program. However, we also have great need to explore innovative 
methods of treating our wounded members so that they may be 
reintegrated and returned to duty as rapidly as possible.
    As a force that operates from the tropics to the Arctic regions, 
from under water to high elevations, and from peaceful areas to violent 
combat zones, SOF serve as an ideal ``control group'' for Service R&D 
investments that can result in significant benefits across DOD.
    SOCOM's development of the JATF concept enabled accelerated 
acquisition and fielding of urgent SOF capabilities. First demonstrated 
on the MC-130W Dragon Spear program, SOCOM expanded use of the JATF 
concept to address many emerging requirements of SOF warfighters. 
Innovative approaches such as the JATF, coupled with a professionally 
trained and certified SOF acquisition corps that stays in close and 
frequent contact with the operators, continue to ensure that SOCOM 
remains as a vanguard of rapid acquisition within DOD.
    SOCOM's acquisition planning, collaboration, and continuing 
dialogue with the Services continues to improve as we become more 
efficiently effective while rapidly moving capabilities to the 
warfighter. SOCOM, in conjunction with the Under Secretary of Defense 
for Acquisition, Technology, and Logistics initiated a series of 
Acquisition Summits with the Military Department Acquisition Executives 
to minimize programmatic disconnects and to better align requirements, 
co-sponsorship opportunities, funding efficiencies, and contracting 
actions among MFP-11 programs and Service-related/dependent programs. 
These periodic meetings offer a level of transparency among all our 
accounts that enables us to seek common solutions for Service-wide 
requirements and to better invest in SOF-peculiar modifications or 
special capabilities. This forum identified several opportunities, 
which if supported by Congress, would enable more efficient execution 
of SOF unique acquisitions.
    SOCOM is making a significant investment in Military Construction 
(MILCON) to address shortfalls resulting from fielding new 
capabilities, a growing force structure and aging infrastructure that 
was inherited without a future recapitalization budget. To address the 
shortfall, the Command's 2012 budget submission is based on a MILCON 
roadmap that identifies over 300 prioritized requirements valued at 
more than $5 billion between 2012 and 2025. Specifically, our fiscal 
year 2012 submission includes 33 of these projects, valued at $631 
million across 8 States and representing 9 percent of the Command's 
projected base budget request--a near record level. This investment 
demonstrates a commitment to addressing our critical infrastructure 
needs. To continue this effort, the Command's new Strategic Planning 
and Programming Guidance raised the MILCON funding minimum from 4 to 6 
percent to support this priority in future budgets.
    A congressional action that enhanced the effectiveness of our force 
is our Section 1208 authority. This authority to reallocate limited 
MFP-11 funds remains a key tool used by widely dispersed SOF to 
leverage indigenous forces in support of counterterrorism operations. 
SOCOM is appreciative of the increase to $45 million provided by 
Congress in the National Defense Authorization Act for Fiscal Year 
2011, as it provides us the ability to support ongoing operations with 
a measure of flexibility should a contingency arise. Continuation of 
Section 1208 authority provides enhanced effectiveness to our force 
both strategically and tactically.

                              INITIATIVES

    Our primary challenge is the need to carefully manage the growth of 
SOF, even in these periods of high demand, in order to ensure the 
continued quality the Nation expects. I have stated in my last three 
posture hearings that SOF's organic manpower growth should be in the 
range of 3-5 percent per year. That is the pace we have sustained to 
great effect over the past several years and our fiscal year 2012 
budget submission continues this pace. But 3-5 percent growth within 
SOCOM will not answer the increasing demand for our force unless it is 
matched by the Military Services' commitment to attach supporting and 
enabling forces at a commensurate rate. SOF units must include a 
limited amount of these enabling forces to ensure rapid response to 
emerging requirements, but we were designed and intended to rely on the 
Services to meet most of our combat support and combat service support 
requirements. In order to establish a predictable demand signal for 
these Service-provided capabilities, SOCOM is proposing changes to the 
way we build, train, deploy, and sustain a fully enabled force.
    To better build the SOF team, we are developing a force generation 
system that engages the existing Service systems. In 2011, SOCOM will 
strive to create a SOF Force Generation system that will be 
synchronized with the Services, matching their capabilities with our 
Special Operations core units in time to provide fully optimized force 
packages to the Geographic Combatant Commanders. For elements organic 
to SOF, such as our Civil Affairs and Military Information Support 
Operations, we will expand their capacities to meet the increasing 
demand for their capabilities.
    Another challenge we face is how to effectively prepare and train 
the force to achieve enhanced interoperability with the General Purpose 
Forces (GPF). Currently in the CENTCOM AOR, SOF is executing the 
counterterrorist strike mission and the Village Stability Operations 
mission; two of the primary lines of operation underpinning the 
Afghanistan strategy. SOF's key role in both is creating opportunities 
for enhanced interoperability with the GPF such as the deployment of 
the 1ST Battalion, 16TH Infantry, now assigned to the Combined Joint 
Special Operations Task Force-Afghanistan; a sea change in SOF-GPF 
relations. Currently, we are developing initiatives that will increase 
inter-operational effectiveness prior to the deployment phase of the 
operation.
    In 2011, we will continue to review and coordinate changes to 
Service personnel policies to further incentivize language pay for key 
languages such as Pashto, Dari, and Arabic. We will work to develop 
courses of action that allow SOF reliable and predictable access to 
Service resources such as training ranges for our ground and aviation 
elements. The shortage of readily available, local ranges currently 
hampers SOF's ability to meet deployment training timelines and causes 
our operators to ``travel to train,'' further increasing their already 
excessive time away from home.
    Understanding the operational context of the environments in which 
we operate is a hallmark of SOF. Developing this knowledge and 
experience within our force, and understanding the value of ``micro-
regional'' expertise allows SOF to conduct its activities with more 
predictable outcomes. While immersion opportunities enhance our 
regional sophistication, our training can never develop the level of 
nuanced understanding possessed by indigenous populations. To gain this 
high level of cultural knowledge, SOCOM will continue to strongly 
support DOD's Military Accessions Vital to the National Interest and 
the Army's Intermediate and Advanced Language Programs to recruit and 
access the requisite expertise provided by native speakers. 
Additionally, our attached female Cultural Support Teams (CSTs) allow 
us to reach key elements of the population in some environments which 
was not previously possible. This concept of attaching females to SOF 
units is effective and long overdue; we are urging the Services to 
recognize the capabilities of CSTs as essential military skills.
    Finally, our efforts to become more innovative include studying the 
best practices of other organizations. For example, we are inspired by 
the ability of the World War II's Office of Strategic Services to 
rapidly recruit specialized talent, develop and acquire new 
technologies and conduct effective global operations within the period 
of its relatively brief existence.
    To further our engagement with our international allies and 
partners, and within the U.S. interagency community, SOCOM will 
continue to expand the Special Operations Liaison Officer (SOLO) and 
Special Operations Support Team programs. Both of these outreach 
efforts provide SOF experts to support and enhance their host 
organizations while serving as SOF liaisons. Our priority is to assign 
SOLO officers wherever a foreign partner has, or is planning to 
establish, a SOCOM-like headquarters.
    Joint operations and special operations are two growing trends in 
many of our partner nation military forces. One manifestation is the 
recent establishment of the NATO SOF Headquarters. In accordance with 
the 2010 National Defense Authorization Act, the Secretary of Defense 
designated SOCOM as the lead component for this Headquarters--a role we 
will embrace and expand in an effort to advise and assist an 
interoperable network of global SOF.
    Importantly, we remain committed to caring for our servicemembers 
and their families. I am concerned about the effects of 9 years of 
focus on combat operations on the well-being of our extended special 
operations community. To support the wounded and injured and their 
caregivers, the Command remains committed to our Special Operations 
Care Coalition and the Tactical Human Optimization, Rapid 
Rehabilitation and Reconditioning Program. Both programs are focused on 
long term care, rehabilitation and reintegration of our warriors. In an 
additional effort to be predictive and preventive, I established a 
``Pressure on the Force'' Task Force to survey and analyze the effects 
of repetitive combat deployments over nearly a decade. Necessarily 
relying on soft data, collective experiences and commanders' instincts, 
it will try to determine what initiatives might help ease the strain 
and contribute to long-term retention and force stability. I expect to 
receive the recommendations from this team within 90 days.
    In conclusion, I will reinforce what I believe are the top 
challenges to the Command. As the Chairman of the Joint Chiefs of Staff 
recently stated, `` . . . the first forces in are typically Special 
Forces. The last ones out are going to be Special Forces.'' As we 
expect to remain the force of first choice for many military 
operations, SOCOM must:

    1. Carefully and deliberately meet the ever-increasing demand for 
SOF.
    2. Improve and expand our tactical and operational level skills, 
equipment and systems.
    3. Preserve our proposed budget levels and authorities.
    4. Find better structures and processes to obtain Service-provided 
capabilities.
    5. Continue to improve our acquisition speed and agility.
    6. Better understand the people and conditions in the places we go, 
whether to assist or fight.
    7. As our most solemn duty, look after the health and well-being of 
this magnificent force from whom we ask so much.

    Today's SOF are the most capable, best prepared SOF in history. 
Their ingenuity, perseverance, spirit and skill continue to inspire and 
amaze. In significant ways, they have emerged from the shadows to make 
visible and dramatic impacts of great magnitude. It is my honor to have 
served within SOF for the last 37 years and to represent this 
extraordinary force today before this committee.
    As always, our success is only possible because of your continued 
support and advocacy. Your approval of the President's budget request 
will help ensure our continued ability to address some of our Nation's 
most daunting security challenges.

    Chairman Levin. Thank you so much, Admiral.
    We, again, are grateful to you, the men and women you 
command, for all that you and they do. We have that pride, 
which you made reference to at the end of your statement, in 
them and in you.
    General Mattis.

   STATEMENT OF GEN. JAMES N. MATTIS, USMC, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Mattis. Thank you, Mr. Chairman, Senator McCain, 
distinguished members of the committee.
    I appreciate the opportunity to discuss the posture and 
priorities of CENTCOM, testifying alongside a friend and 
shipmate of many years, Admiral Eric Olson, Commander of SOCOM.
    I have submitted a written statement and request it be 
accepted into the record.
    Chairman Levin. It will be made part of the record.
    General Mattis. Thank you for supporting our troops and 
their families who carry the brunt of the physical and the 
emotional burden in this 10th year of war. Our forces today are 
among the most dedicated and skilled professionals I have 
served alongside in my 39 years in uniform, and they constitute 
a national treasure.
    I also recognize the commitment and sacrifices of our 
international partners, who operate with us from the waters off 
Somalia to the mountains of Afghanistan, where the largest 
warfighting coalition in recent history is engaged with troops 
from 49 nations united in the fight against our common enemy.
    The strategic landscape of the broader Middle East has been 
altered by recent events in Tunisia, Egypt, Libya, and 
elsewhere. We see pressure on government institutions from the 
aspirations of people seeking improved economic and social 
conditions. Young people born in the information age are 
exchanging ideas in real time.
    While the long-term impact of this unrest is unknown, it 
presents as many opportunities as it does challenges. The 
changes that we are seeing will manifest differently in each 
country. People are seeking their rights and, for the most 
part, doing so peacefully and bravely.
    It is too early to say how it will all turn out. It is 
important that we work today with the people and the 
governments throughout the region. We don't want to see this 
change slide into a new form of authoritarianism.
    So while there is both opportunity and danger, it requires 
unrelenting engagement by our Nation. The central challenge for 
us, I believe, is how to make common cause with our friends 
throughout the region.
    There is one clear lesson we can draw from the dramatic 
changes underway. Now, more than ever, we must remain 
relentlessly engaged with our military partners in this region. 
While we know each country is different, we remain committed to 
strengthening our military bonds and advancing our mutual 
interests in peace and opportunity for all.
    Notably in Egypt, we have clearly seen the benefit of 
mature military-to-military relationships. The Egyptian armed 
forces continue to demonstrate exceptional discipline and 
restraint under trying circumstances.
    As Admiral Mullen recently noted, our assistance has helped 
the Egyptian military become the professional force that it is 
today, just as our military has learned a great deal from our 
Egyptian counterparts, who have contributed a stabilizing 
influence in this time of transition.
    Of course, we cannot achieve our broader objectives in the 
region through military means alone. Our efforts require 
coordination and a spirit of collaboration between highly 
integrated civilian military teams. Our civilian colleagues 
need your full support, even in this difficult fiscal 
environment, to undertake their essential role in today's 
complex environment.
    Robust resourcing for the State Department's mission is one 
of the best investments for reducing the need for military 
forces to be employed. Together, our military leaders and our 
diplomats not only represent a symbol of America's enduring 
commitment to the region, but they also build trust through 
partnerships that have an important stabilizing effect when 
trouble looms.
    CENTCOM's main effort is in Afghanistan, where, along with 
our Afghan and coalition partners, we are making undeniable 
progress, though some of our gains at this time remain fragile 
and yet reversible. Al Qaeda in the border region between 
Afghanistan and Pakistan is under the most pressure they have 
experienced since 2001. Over the past year, our enemies have 
lost leaders, battle space, maneuver room, and the initiative.
    The enemy's strategy has been undercut by the clear 
commitment of the international community and the Afghan 
Government to begin this summer a process of fully transiting 
responsibility to Afghan lead by 2014. I support the ongoing 
analysis for further growth for the ANSF, the greatest success 
of our last year their quantifiable and qualifiable growth in 
capability.
    The range of growth being considered is from 45,000 to 
70,000. With the improving quality in combat performance by the 
ANSF, we are seeing the enemy's worst nightmare coming of age.
    The transition process will start with a limited 
conditions-based withdrawal this year. Our overall campaign is 
on track in Afghanistan. Our successes, as General Petraeus has 
stated, entailed hard fighting and tough losses. I am sure that 
there will be tough fighting ahead as the enemy tries to regain 
the initiative.
    Finally, we must also redouble our efforts to address 
challenges in the areas of governance and development in 
Afghanistan.
    Turning now to Pakistan, we are strengthening and deepening 
our security partnership with Islamabad, even as we work to 
overcome years of mistrust and misunderstanding on both sides. 
The Pakistanis have shifted a quarter of their army, 140,000 
troops, to their western border, and we are now conducting 
hammer and anvil operations in close coordination with them on 
opposite sides of the border.
    Pakistan's military has conducted significant 
counterinsurgency operations in the past decade and especially 
the past 2 years, and they have suffered 2,757 troops killed 
and 8,549 wounded while also responding to urgent humanitarian 
needs following devastating floods in 2010.
    In Iraq, we are helping a new, more stable country emerge 
in a turbulent region. Our commitment there is transitioning 
from a military to a civilian-led effort. I will note that the 
transition underway in Iraq has been enabled in large part 
thanks to the vital commitment and support of Congress for our 
troops on the ground, and I want to personally offer my thanks 
to you.
    As we transition to civilian lead in Iraq, it is essential 
that the State Department be sufficiently resourced to solidify 
relationships between the United States and Iraq for the 
future. At CENTCOM, we need congressional authorities that 
enable us to continue advising, training, and equipping our 
Iraqi partners through the new Office of Security Cooperation-
Iraq.
    Looking ahead, we will redeploy our military forces from 
Iraq this year, unless asked to stay by the Iraqi Government 
and the U.S. Government concurs. I anticipate al Qaeda in Iraq 
and Iranian-sponsored proxies will attempt to attack us and 
detract from this milestone by executing sensational attacks in 
the coming months.
    Next, Iran. The greatest threat to long-term regional 
security is a defiant Iran in its current state. We are 
countering the malign activities of the regime while bolstering 
relationships with our partners.
    Iran continues to rebuff international efforts for 
engagement. It continues to coerce its own population and 
pursue activities disruptive to regional peace and stability, 
including supplying arms to militant proxies in Iraq and 
Afghanistan and supporting Hezbollah in Lebanon.
    But for the vibrant people of Iran, the regime is no giant. 
The regime's actions have thrown the economy into disarray, 
destroyed rapport with the bulk of the world, and spread hate 
and discontent across the region, steadily eroding any 
international support the regime could once muster.
    Despite the shrinking nature of the regime, I have no 
reason for optimism about Iran's pursuit of nuclear weapons 
capability, its growing ballistic missile arsenal, and present 
destabilizing course.
    Across the region, we are disrupting al Qaeda and other 
violent extremist organizations. We are actively focused on the 
threat of extremism in Yemen, especially al Qaeda in the 
Arabian Peninsula (AQAP), the group that has twice attempted to 
attack our Homeland in recent years.
    With our international partners, our SOF are putting our 
most violent enemies and related networks under increasingly 
intense pressure. At the same time, the populist-inspired 
changes that are taking place across the region undercut the 
message of al Qaeda and other extremist groups, highlighting 
the bankrupt philosophies of terrorists who use violence and 
contribute nothing but mayhem to the innocent.
    As Senator McCain just noted, the populist-inspired changes 
are a direct repudiation of the violent extremists because 
these young folks today have achieved more change in 10 weeks 
than 10 years of al Qaeda's murderous campaign.
    That is a snapshot of our major ongoing operations. We are 
focused on a number of other important mission areas to include 
countering piracy. There can be no more stark reminder about 
the need for more proactive diplomatic, legal, and military 
efforts against pirates than the brutal murder of four 
Americans by pirates last week.
    This is a defining moment for the people of the region and, 
by extension, a critical moment for CENTCOM to remain engaged 
with our partners and to clear away obstacles to peace and 
prosperity. On that note, while Israel and the Palestinian 
territories are not in my assigned theater, lack of progress 
toward a comprehensive Middle East peace affects U.S. and 
CENTCOM security interests in the region.
    I believe the only reliable path to lasting peace in this 
region is a viable two-state solution between Israel and 
Palestine. This issue is one of many that is exploited by our 
adversaries in the region, and it is used as a recruiting tool 
for extremist groups.
    The lack of progress also creates friction with regional 
partners and creates political challenges for advancing our 
interests by marginalizing moderate voices in the region. By 
contrast, substantive progress on the peace process would 
improve CENTCOM's opportunity to work with our regional 
partners and to support multilateral security efforts.
    We recognize you face tough decisions in this constrained 
fiscal environment. In all of our activities at CENTCOM, we 
honor the obligation to be the best stewards possible of our 
Nation's monetary resources. CENTCOM has established stringent 
control mechanisms to execute our fiscal authorities and to 
apply increasingly effective oversight of all programs.
    Finally, Mr. Chairman, Senators, we must never forget the 
families of those who gave their last full measure in defense 
of liberty.
    Thank you once again for your support of our men and women 
serving in the CENTCOM AOR, and I am prepared to answer 
questions.
    [The prepared statement of General Mattis follows:]

            Prepared Statement by Gen. James N. Mattis, USMC

                              INTRODUCTION

A Command at War
    U.S. Central Command (CENTCOM) oversees operations alongside our 
allies, partners, and friends in a critically important region of the 
world. CENTCOM is engaged throughout the greater Middle East and South 
Central Asia across the full spectrum of warfare, standing against 
violent aggression and the tyranny of militant extremists, while 
contributing to the broader conditions for peace, stability, and 
prosperity.
Recognizing our Troops, Civilians, and Partners
    Our troops and their families carry the brunt of physical and 
emotional burdens in this 10th year of war. Today, over 200,000 
American troops and tens of thousands of civilians are deployed to the 
CENTCOM area of responsibility (AOR). These men and women--all 
volunteers, no less--defend our freedoms with great courage in the face 
of a murderous enemy on harsh terrain. Our troops stand together with 
tens of thousands of our international partners, conducting coalition 
operations from the waters off Somalia to the mountains of Afghanistan, 
where the largest warfighting coalition in recent history is engaged.
Operating in a Dynamic Region
    The CENTCOM AOR is more dynamic than I have seen it since first 
serving there in 1979. Across our theater, we are required to maintain 
a degree of military flexibility such as we have seldom seen before. At 
the same time, given the financial realities in Washington, we require 
ourselves to exercise the utmost degree of stewardship over every penny 
we spend. To operate in this context successfully, we seek to build 
strong military-to-military relationships with our partners, 
recognizing that CENTCOM's actions represent a tangible signal of 
America's continued, long-term commitment to the security and 
prosperity of this area.
    Throughout the region, we see institutions of government responding 
to the aspirations of youthful populations. As the people in the region 
have made their voices heard, regional militaries have so far 
demonstrated their professionalism, exercising a capability that did 
not arise by accident or overnight. The strong security relationship 
between the United States and our partners is decades in the making and 
has helped them become the professional forces they are today--and in 
the process made our forces better as well. While we seek to understand 
the unique circumstances that our partners confront, CENTCOM remains 
committed to supporting the efforts of our military counterparts and to 
strengthening the security partnerships that have proven critical 
during this period of political unrest. We do this first by listening, 
learning, and understanding, and continue by engaging with our partners 
based on mutual respect and shared interests.
Our Mission
    Overall, amidst these conditions, we remain committed to carry out 
our mission:

          With our national and international partners, CENTCOM 
        promotes security cooperation among nations; responds to 
        crises; deters or defeats state and non-state aggression; 
        supports development and, when necessary, reconstruction in 
        order to establish the conditions for regional security, 
        stability, and prosperity.

Snapshot of Operations
    Our main effort is Afghanistan--and progress there is indisputable, 
even if some of our success is fragile and reversible. We and our North 
Atlantic Treaty Organization (NATO) and coalition partners are 
conducting a comprehensive yet focused counterinsurgency campaign to 
ensure Afghanistan does not once again become a sanctuary for 
transnational extremists. Our forces are part of a 49-nation 
international coalition, led by the NATO International Security 
Assistance Force (ISAF), and united behind President Karzai's goal of 
transitioning the lead of security tasks from the international 
community to Afghan security forces by the end of 2014. In full 
partnership with the Afghan Government, we are inflicting unprecedented 
damage on al Qaeda (AQ) and associated extremist groups--a reality 
recently affirmed by President Obama's Afghanistan-Pakistan Annual 
Review. Moreover, we confound our enemies by demonstrating our 
unambiguous commitment to our long-term strategic partnership with 
Afghanistan.
    Meanwhile, in Pakistan, we continue supporting Pakistan's military 
efforts against extremists operating from and threatening that country 
and Afghanistan, while contributing to the broader U.S. goal of growing 
our strategic partnership with Islamabad. The recent U.S.-Pakistan 
Strategic Dialogue and a number of development assistance programs 
sponsored by the Department of State are good examples of how the 
United States is attempting to build trust with the Pakistani people 
and government.
    In Iraq, following 7 years of hard fought gains, we are drawing 
down our troops as we transition full security responsibilities to our 
Iraqi partners. The enemy in Iraq is capable of dramatic attacks but 
has proven unable to muster a significant threat to the Iraqi 
Government. In coordination with the U.S. Department of State, CENTCOM 
is standing up the Office of Security Cooperation-Iraq to conduct 
sustained security assistance and cooperation activities with the 
Government of Iraq. We are planning an organization manned and 
positioned to support the long-term U.S. objectives in Iraq as 
determined by the Iraqi and American Governments, in order to best 
advance our civilian-led relationship for the future.
    In the broader CENTCOM region, our forces are conducting a theater-
wide campaign alongside our partners in pursuit of AQ and its extremist 
allies. Meanwhile, we remain continuously poised and postured to 
respond to crises and to conduct contingency operations, while 
continuing to forge partnerships in the region and increase the 
security capacity of our partners. We continue to rely on our capable 
and flexible amphibious forces. For example, over a 36 hour period last 
September, the 15th Marine Expeditionary Unit delivered aid to the 
flood-ravaged people of Pakistan, provided close air support from the 
skies over Afghanistan, and rescued pirated crews in the Gulf of Aden. 
Three months later, two-thirds of our Marines Expeditionary Unit 
deployed to Afghanistan on 3 day's notice.

                      OVERVIEW OF THE CENTCOM AOR

Nature of the AOR
    The CENTCOM AOR is comprised of 20 countries spanning over 4 
million square miles in 3 diverse subregions from Egypt and the Levant, 
to the Arabian Peninsula (including the Gulf nations), and Central and 
South Asia. These regions are home to a half-billion people practicing 
all of the world's major religions and speaking more than 18 major 
languages. Several countries with economic challenges have burgeoning 
populations--184 million people in Pakistan, 80 million in Egypt, and 
77 million in Iran. In 12 of the 20 countries in the region, 30 or more 
percent of the population is between the ages of 15 and 24 (at 39 
percent, Yemen ranks at the top in this category). In most of those 
countries, another 30 percent of the overall population is under 15. 
This youth bulge represents tomorrow's future leadership and the 
region's greatest challenge in terms of education, employment and 
expectations.
    The CENTCOM AOR is a region of rich history, distinct culture, and 
great potential, encompassing the proud traditions of a wide variety of 
ethnic groups, including: Arab, Azeri, Baluch, Gilaki, Hazara, Kurd, 
Lur, Mazandarani, Qashqai, Pashtun, Persian, Talysh, Turkmen, and 
Uzbek, among others. The AOR contains more than half of the world's 
proven oil reserves and nearly half of its natural gas. As a result, 
the region contains some of the world's busiest trading routes linking 
Europe, Africa, and East Asia to the Gulf. This trade is essential to 
continued global economic prosperity and growth. The region's trading 
routes contain three of the world's major maritime choke points, 
including the Strait of Hormuz, the Suez Canal, and the Bab al Mandeb 
Strait joining the Red Sea to the Gulf of Aden. But while the region 
contains abundant energy resources, supplies of water and the 
availability of arable land are limited and increasingly scarce.

External Influences on the CENTCOM AOR
    The region retains its historical tradition as a social, economic, 
and cultural crossroads, attracting nations and non-state actors 
seeking to advance their interests and influence regional events. Among 
a host of external influences on the CENTCOM AOR, the most significant 
include:

        <bullet> Middle East Peace: Lack of progress in achieving 
        comprehensive Middle East peace affects U.S. and CENTCOM 
        security interests in the region. It is one of many issues that 
        is exploited by our adversaries in the region and is used as a 
        recruiting tool for extremist groups. The lack of progress also 
        creates friction with regional partners and creates political 
        challenges for advancing our interests by marginalizing 
        moderate voices in the region. As Secretary Gates noted in July 
        2010, ``the lack of progress in the peace process has provided 
        political ammunition to our adversaries in the Middle East and 
        in the region, and . . . progress in this arena will enable us 
        not only to perhaps get others to support the peace process, 
        but also support us in our efforts to try and impose effective 
        sanctions against Iran.'' In December 2010, Secretary Clinton 
        observed ``the conflict between Israel and Palestine and 
        between Israel and its Arab neighbors is a source of tension 
        and an obstacle to prosperity and opportunity for all of the 
        people in the region.'' By contrast, substantive progress on 
        Middle East peace would improve CENTCOM's opportunities to work 
        with our regional partners and support multilateral security 
        efforts. Speaking about the need for Middle East peace at the 
        Manama Dialogue in December 2010, King Abdullah of Jordan 
        observed ``Our region will not enjoy security and stability 
        unless we solve the Palestinian-Israeli conflict, and Arabs and 
        Israelis find peace. The stakes are high. As a solution 
        continues to elude us, faith in negotiations, as the only path 
        to peace and justice, is eroding. If hope is killed, radical 
        forces will prevail. The region will sink into more vicious 
        warfare and instability . . . threatening security far beyond 
        the borders of the Middle East.''
        <bullet> Bordering Powers. China, Russia, Turkey, and India--
        each of which lie outside but border the CENTCOM region--
        represent four great gravitational forces influencing various 
        countries in the AOR. China pursues its many energy-related 
        interests throughout the region, extending influence from its 
        traditional partnership with Pakistan, to a $3.5 billion 
        investment in Afghanistan's Aynak Copper Mine, to building 
        pipelines for oil and gas from Kazakhstan to Turkmenistan. 
        Chinese activities in the region may begin to compete with the 
        regional interests of Russia, which maintains a network of 
        security, economic, and social ties with Central Asian nations 
        and beyond. India's influence impacts the strategic 
        calculations of Pakistan and, to some extent, virtually every 
        other country in the CENTCOM AOR. Turkey increasingly asserts 
        its interests in the region in keeping with its emergence as a 
        considerable force within the international community. All four 
        of these nations have unique relations with Iran, affecting the 
        international approach to the Iranian situation. We remain 
        attentive to these dynamics as we seek to ensure that we work 
        effectively across U.S. Government and combatant command seams 
        to improve our unity of effort.
        <bullet> Somalia. State failure in Somalia has enabled 
        extremist and criminal elements to proliferate and spread 
        northward into the Horn of Africa and Yemen and other areas of 
        the CENTCOM AOR. At the same time, widespread poverty in 
        Somalia creates incentives for young men to pursue the 
        lucrative enterprise of piracy. Additionally, lack of 
        governance permits extremists to freely migrate to Yemen, 
        providing opportunities to al Qaeda in the Arabian Peninsula 
        (AQAP). In the past year, the Somalia-based terrorist group al-
        Shabaab successfully maintained control of most of southern 
        Somalia and radicalized factions of this group have sought 
        alignment with AQ in the Arabian Peninsula and in Pakistan.

U.S. Interests in the Region
    Given the centrality and volatility of the CENTCOM AOR, the United 
States and nations around the world retain significant interests in the 
region. Among others, significant U.S. interests in the region include:

        <bullet> Security of U.S. citizens and the U.S. Homeland
        <bullet> Regional stability
        <bullet> Promotion of effective and legitimate governance, 
        human rights, the rule of law, and sustained economic growth 
        and opportunity, and
        <bullet> Free flow of commerce and trade within the region, 
        through strategic maritime chokepoints, and via land-based 
        trade routes to international markets

Threats to U.S. Interests in the Region
    Violence, instability, and underdevelopment represent the primary 
threats to U.S. interests in the region. Some areas face uneven or even 
dismal economic development, often coupled with endemic corruption. 
Social and economic friction have led to or exacerbated a number of 
deep-rooted and longstanding disputes over territory, resources, and 
power, many of which remain unresolved due to a lack of adequate 
security arrangements on the local or national level. Some areas will 
face increasing competition for food, water, mineral deposits, oil, and 
other natural resources. The region is also defined by tensions and 
sectarian rivalries between many ethnic, tribal, and religious groups. 
Such conditions create the potential for broader violence, particularly 
in the absence of effective governance and indigenous security forces, 
ultimately giving rise to violent extremist organizations that have 
attacked us and our friends. We have seen the dangers present within a 
security vacuum, where institutions fail to facilitate mediation, 
partnership-building, and open dialogue between feuding groups, or to 
put down violent extremists.

Connecting Our Strategic Challenges
    The challenges of the CENTCOM AOR are inextricably linked and 
mutually reinforcing--and thus cannot be treated separately. We have 
seen a symbiosis, for example, between extremist groups and other 
factions that, in aggregate, tend to strengthen each other and which, 
if left unchecked, tend to threaten wider areas of territory and the 
stability of civilian governments. Areas in the CENTCOM region, 
especially those with a rapidly expanding population of youth, are left 
vulnerable to (and often become the victim of) a worsening spiral of 
conditions, whereby young people forego meager, but legitimate 
opportunities for employment and turn, instead, to a range of criminal 
activities, including piracy, arms smuggling, human trafficking, and 
narcotics--fueling violent extremist organizations bent on destroying 
the lives of innocent people. State and non-state actors operating with 
malign intent can readily exploit such conditions, with the most 
dangerous scenarios involving a mix of insufficient governance, weapons 
proliferation--especially Weapons of Mass Destruction (WMD)--the 
influence of hostile states, and the free flow of extremist elements 
across national borders as well as free range in cyberspace. In some 
cases, disenchantment with globalization's efforts coupled with a 
desire to belong to a movement with a clarion call of purpose can 
provide the excitement for young men (and increasingly women) to take 
on a violent role in an extremist organization.

                            PRINCIPAL TASKS

    In light of these many challenges, we continuously assess our 
strategic and operational approaches in order to achieve our desired 
national interests of security, stability, and prosperity in the 
CENTCOM AOR. CENTCOM is focused on the following tasks:

        <bullet> Supporting the Mission in Afghanistan
        <bullet> Partnering with Pakistan
        <bullet> Countering the Destabilizing Activities of Iran
        <bullet> Enabling Transition in Iraq
        <bullet> Strengthening Partnerships in Central Asia
        <bullet> Building Partner Capacity and Pursuing Cooperative 
        Activities
        <bullet> Disrupting Violent Extremist Organizations
        <bullet> Combating Weapons of Mass Destruction
        <bullet> Countering Piracy

Supporting the Mission in Afghanistan
    Instability in Afghanistan and Pakistan
    Afghanistan and Pakistan are inextricably linked, connected by a 
porous border region historically providing free movement and safe 
haven to groups traversing the Durand Line. The senior leadership of AQ 
and associated extremists groups--groups that are intent on carrying 
out attacks on innocent civilians worldwide--plan, prepare, and direct 
operations from this region, making it of critical interest to the 
security of the United States and our allies. Currently AQ in the 
border region is under the most intense pressure they have experienced 
since 2001.
    A Clear Objective and a Sound Strategy
    With our NATO and coalition partners, we are working to achieve our 
core goal of preventing Afghanistan from once again becoming a 
sanctuary for al Qaeda and associated transnational extremist groups. 
President Obama's Afghanistan-Pakistan Annual Review affirmed the core 
elements of our strategy in Afghanistan, the first imperative of which 
is to improve the overall security environment and to reduce violence 
levels in Afghanistan. After regaining the initiative from the enemy, 
our forces act as a bulwark behind which the Afghan National Security 
Forces (ANSF) and the roots of Afghan governance can grow.
    Aiming Toward a Common Strategic Vision
    Our military objectives and strategy in Afghanistan support the 
developing strategic vision between the political leadership of the 
United States and Afghanistan, as reflected in Vice President Biden's 
comments alongside President Karzai in January: ``It is not our 
intention to govern or to nation-build. As President Karzai often 
points out, this is the responsibility of the Afghan people, and they 
are fully capable of it. We stand ready to help you in that effort. We 
will continue to stand ready to help you in that effort after 2014.'' 
Success in Afghanistan is an Afghan security force able to protect the 
people with a government that meets the needs of the people and 
prevents safe haven for international terrorists.
    The Campaign Plan
    We have increased efforts in virtually every facet of the 
comprehensive yet focused civil-military campaign in Afghanistan. As 
one part of that effort, we have executed an unprecedented pace of 
counterterrorist operations to capture or kill insurgents using 
enhanced intelligence largely enabled by conventional ground forces. 
Our efforts range from major combat operations (in Helmand and 
elsewhere, for example), special mission unit operations allowing no 
safe haven to the enemy, and concurrent bottom-up and top-down 
initiatives (exemplified by expanding Village Stability Operations).
    The breadth of our current operations squelches the enemy's ability 
to recuperate and threaten the Afghan people. Our forces have partnered 
with the Afghan security forces to increase their capabilities; to 
expand border security; to conduct robust detainee operations and rule 
of law activities; to address and counter corruption by working with 
the Afghan Government to target criminal patronage networks; and to 
interdict the flow of illegal weapons and narcotics to deny criminals 
and insurgent groups a critical source of their operational revenue. We 
are capitalizing on our expanded security footprint in the winter 
months to retain the initiative, suffocate the enemy, and increase 
momentum into the start of the traditional fighting season. Ultimately, 
we are working to create an Afghanistan that is hostile to our enemies 
and denies them the support of the population, making it untenable for 
insurgents to return from their winter safe havens. This is the essence 
of counterinsurgency operations. While we will face tough fighting this 
spring, the enemy's situation continues to worsen day-by-day.
    The Right Inputs
    The overall international effort in Afghanistan has transformed 
from an economy of force mission 3 years ago to a focused and 
reinforced civil-military counterinsurgency campaign, largely assuming 
its full strength in September 2010. U.S., coalition, and partner 
nations have worked hard to apply the right mix of organizations, 
approach, and resources in Afghanistan. Last year at this time, we had 
less than 270,000 American, coalition and Afghan forces on the ground 
in Afghanistan. This year, we have more than 370,000 total security 
forces (American, coalition and Afghan) in the fight, and 109,000 
Afghan security forces are projected to be added by this time next 
year. Beyond the additional organizations put in place on the ground in 
Afghanistan, the Pentagon's Joint Staff Pakistan Afghanistan 
Coordination Cell and CENTCOM's Afghanistan Pakistan Center of 
Excellence are better organizing our resources at home and providing 
mission-critical reach-back support to deployed forces. The CENTCOM 
Center of Excellence will provide the cadre of regional experts for the 
long haul as we transfer to Afghan lead in 2014 and commit to a long-
term partnership with Afghanistan and Pakistan.
    Enemy Violence and Coalition Progress
    Despite the enemy's efforts to disrupt progress in Afghanistan, we 
have achieved the major military objectives we set out to accomplish in 
2010 and made considerable progress with respect to governance and 
development. As Secretary Gates noted after his December 2010 trip to 
Afghanistan: ``The bottom line is that in the last 12 months, we have 
come a long way. Frankly, progress--even in the last few months--has 
exceeded my expectations.'' We recognize, however, that progress and 
violence coexist in this type of war. Our enemies continue to conduct 
attacks heavily focused on non-combatants and to intimidate the 
population and maintain relevancy, albeit decreasing, in newly-cleared 
areas. Enemy-initiated violence is increasingly localized. From 
November 2010 until 31 January 2011, 57 percent of the violence in 
Afghanistan has been concentrated in 12 of 401 districts. Notably, the 
key districts of Maiwand in Kandahar Province and Lashkar Gah in 
Helmand Province--which are critical to our efforts to link the Helmand 
and Kandahar security bubbles--are no longer among the top-12 most 
violent districts. The elevated levels of violence is less a reflection 
of increased insurgent capability and more the result of increased 
Afghan and ISAF operations in areas previously considered insurgent 
strongholds. The enemy is not adapting well to this development. While 
we make progress, our enemies continue to make grievous mistakes, to 
include: purposefully killing innocent Afghans; leaders fleeing into 
Pakistan and leaving subordinates to fight; and killing nearly 5,000 
Afghans in the first 10 months of 2010 (more than three quarters of all 
civilian casualties in that period). We highlight the ruthless actions 
of the enemy, and in recent months Afghan leaders and human rights 
groups have stepped forward to condemn insurgent-initiated violence.
    Road to Transition in 2014
    We and our North Atlantic Treaty Organization (NATO) and other 
Coalition and ANSF partners are improving security for the Afghan 
population, increasing the size and quality of the ANSF, and supporting 
efforts to improve governance and development throughout Afghanistan. 
At last November's NATO Summit in Lisbon, we undercut a key pillar of 
the Taliban's strategy by affirming the long-term resolve of the United 
States and international community to accomplish the mission in 
Afghanistan. We are united in support of President Karzai's goal of 
Afghan forces assuming security responsibilities from the international 
community by the end of 2014. In partnership with the Afghan 
Government, we are working toward President Obama's goal of beginning a 
drawdown of U.S. forces from Afghanistan beginning in July of this year 
at a pace determined by conditions on the ground. The process for 
identifying, assessing, and transitioning areas of Afghanistan is based 
on recommendations from the Joint Afghan-NATO Inteqal (Transition) 
Board (JANIB) to the Government of Afghanistan. ISAF is working closely 
with JANIB as we begin the process of transition and methodically move 
forward in our campaign.
    ANSF Support
    Most importantly in the security arena, our investment in the ANSF 
is working and the growth of the force is on track. The remarkable 
quantity growth of ANSF (rising by an unprecedented 70,000 personnel 
while facing a determined enemy) is now being matched by quality 
improvements in the force. NATO Training Mission-Afghanistan is 
supporting the efforts of the Afghan Government to build leaders at all 
levels, to increase literacy, and to improve capability and training 
capacity. Combined, these programs increase the quality of the force, 
ultimately helping to reduce attrition, enhance recruitment, and 
contribute to sustainability. Meanwhile, we are helping the ANSF to 
overcome remaining challenges in the recruitment of medical staff and 
other enablers, as well as increasing the participation of females and 
recruiting more southern Pashtuns. In league with Admiral Stavridis 
(Commander, U.S. European Command and Supreme Allied Commander Europe), 
we are trying to reduce our shortage of trainers.
    ANSF in the Lead
    The ANSF is increasingly in the lead of operations in many areas of 
Afghanistan. In southern Afghanistan, the ANSF took the lead in mid-
2010 for an operation in Malajat, Kandahar City--with support from ISAF 
for additional combat power, close air support and other enablers--
resulting in the capture or killing of several dozen insurgents and the 
establishment of a new model for Afghan-led operations. The ANSF also 
provided well over half of the combat power for the latter phases of 
Operation Hamkari, clearing the insurgency's most vital safe havens in 
southern Afghanistan. In northern Afghanistan, Afghan National Army and 
Police conducted joint operations throughout December 2010 with ISAF 
forces in northern Balkh Province, and Afghan National Police have 
demonstrated considerable capacity by capturing insurgents and 
discovering caches of weapons in U.S.-Afghan partnered operations in 
Kunduz Province. Additionally, ANSF now leads security efforts in 14 of 
15 of Kabul's districts, and have executed coordinated security plans 
for several events, including the June Consultative Peace Jirga, the 
July Kabul conference, August Independence Day events and the January 
seating of the Parliament all without incident, at odds with the 
insurgents' claims that it would seek to disrupt them.
    Local Security Initiatives
    Beyond national level security efforts, the Afghan Government has 
steadily expanded the local security initiatives designed to squeeze 
extremist elements from their traditional safe havens and cut off their 
lines of communication. Clearing operations in key terrain districts 
have shifted operational-level momentum and altered village-level 
calculus in remote areas. Local elders in dozens of villages throughout 
Afghanistan have conducted jirgas to assume increased responsibility 
for their own security, and U.S. and coalition forces have supported 
the Ministry of Interior's efforts to fortify Afghan villages. The 
Afghan Local Police (ALP) program represents one of the most promising 
endeavors to wrest local areas from insurgent influence. The ALP and 
other Village Stability Operation initiatives work from the bottom-up 
and the top-down, connecting the support of local communities with the 
capacity of the central government and coalition partnerships. The 
Taliban has revealed their concerns that the ALP represents a direct 
threat to their existence and operational ability. Today, there are a 
total of 63 ALP sites--24 of which the Ministry of Interior has site 
validated--and approximately 4,000 ALP are now assigned. These local 
efforts buttress security in areas with limited ANSF presence, 
complementing the progress made elsewhere (and in ALP locations) by 
conventional ISAF and ANSF. Given the initial success of the ALP 
program, the Ministry of Interior wants to increase the program beyond 
the current projected number of 10,000 with our reinforced special 
operations forces providing oversight and mentoring.
    Popular Support
    Since 2003, AQ and the Taliban have tried with some success to 
expand their strength and influence in much of the country. In 2010, 
coalition and Afghan forces applied additional resources in all aspects 
of the campaign to change the security landscape in much of the 
country. As security improves in key areas and we are better able to 
protect the people, Afghanistan's population has increasingly supported 
efforts to bring development and basic services to their areas. In 
recent months, in particular, Afghan security forces have assumed more 
of the load in the fight, village elders have encouraged young men to 
join the Afghan police, and insurgents in several areas have begun to 
put down their weapons and integrate into society. Reintegration 
efforts are bearing fruit due to the concerted effort of the Afghan 
Government both at the local and national level and the support of 
coalition forces (aided, of course, by the momentum in our campaign). 
In terms of reconciliation, the process is led by Afghans, with ISAF 
partnering with ANSF to set security conditions and dash the enemy's 
hopes of victory. These are progressive steps toward building 
irreversible momentum in our overall campaign.
    Rule of Law Progress
    Unlike our enemies, we continue to support the legitimate efforts 
of the Afghan Government to improve the Rule of Law for Afghanistan's 
more than 29 million inhabitants. U.S. Forces-Afghanistan's Joint Task 
Force/Combined Interagency Task Force 435 and our Afghan partners have 
achieved considerable progress in the last year: transferring detainees 
to the state-of-the-art detention facility in Parwan; implementing 
transparent and robust internment processes; strengthening judicial 
guarantees for detainees; and expanding robust reintegration programs 
that include literacy and vocational training. Moreover, we have 
established robust efforts to combat corruption at all levels, even as 
we implement best practices to reduce the challenge of corruption in 
contracting and in every aspect of our campaign.
    Infrastructure Initiatives
    We are also pursuing infrastructure initiatives--for example, 
building roads, rail, and installing electrical grids and transmission 
lines--to capitalize on Afghanistan's potential as a Central Asian 
economic hub. A regional transport network facilitates the creation of 
private sector jobs and provides additional incentives for reconcilable 
elements of the insurgency to abandon the fight. Ultimately, such 
economic development reduces the need for U.S. forces and underpins 
long-term transition activities and is fundamental to a sound 
counterinsurgency campaign.
    Congressional Support
    Congressional leadership continues to play a critical role in 
enabling our efforts in Afghanistan, including the Afghanistan Security 
Forces Fund (ASFF), the Commander's Emergency Response Program (CERP), 
the authorization of an infrastructure program, and the Afghanistan 
Reintegration Program (ARP). Above all, we rely on the ASFF to enable 
the eventual full transition of security tasks to a robust, trained 
ANSF capable of preventing the resurgence of insurgent safe havens in 
Afghanistan. In terms of the CERP, our Commanders on the ground 
continually comment that the CERP funds are invaluable in carrying out 
operations toward our strategic objectives in Afghanistan, undercutting 
the enemy's information operations and legitimacy. In 2010, CERP funded 
more than 8,300 projects, including, for example, transportation 
initiatives to improve freedom of movement throughout Afghanistan; 
agriculture production across Afghanistan involving the repair and 
improvement of irrigation canals and wells and providing farmers with 
higher-quality seeds and fertilizers; education projects such as the 
services of more than 200 local Afghan education outreach coordinators; 
and water and sanitation projects to install three high-production 
groundwater wells that will increase the accessibility of potable water 
to over 850,000 Afghans in Kandahar City. Apart from CERP, the new 
Afghanistan infrastructure program enables us to work together with the 
U.S. State Department to undertake high-priority infrastructure 
projects to address critical needs for Afghan security, governance, and 
development. The Afghanistan Infrastructure Fund will be the vehicle 
for the Defense Department's contribution to this integrated program. 
To enable our reintegration efforts, we continue to execute the ARP 
using funds in support for the Government of Afghanistan's Peace and 
Reintegration Program.
    Challenges Ahead
    Much work remains to achieve our goals in Afghanistan. We face a 
resilient and determined enemy. The United States and the international 
community are positioned to favorably influence reform and synchronize 
Rule of Law development to counter corruption within the Afghan 
Government. Despite considerable progress in many areas in 2010, we 
recognize that there will be hard work ahead as we continue to fight 
along with our Afghan partners. But, by progressively and steadily 
executing our sound and validated strategy, I believe we can set the 
conditions to succeed in Afghanistan.

Partnering with Pakistan
    Strategic Partnership
    We recognize, of course, that any solution in Afghanistan must 
address the regional context. CENTCOM supports President Obama's goal 
of strengthening the U.S.-Pakistan strategic partnership through 
nascent yet improving military-to-military cooperation with Pakistan. 
As Secretary Clinton and other leadership has noted, we must 
concentrate on the efforts Pakistan is taking. They have made very 
significant moves for going after the terrorist within their own 
country.
    Over the past year, CENTCOM has strengthened and deepened our 
security cooperation with Pakistan by supporting our counterparts 
through CENTCOM's Office of Defense Representative-Pakistan (ODRP). 
ODRP is focused on assisting Pakistan's counterinsurgency efforts and 
this past year, led the U.S. interagency effort to provide disaster 
relief and Humanitarian Assistance to areas affected by the flooding. 
Additionally, in support of our long-term partnership with Pakistan, 
the CENTCOM Center of Excellence continues to deploy subject matter 
experts and provide unique reach-back support to ODRP and Special 
Operations Command-Pakistan (Forward) in order to deepen analysis and 
to provide greater interagency fidelity on critical issues.
    Threats in Pakistan
    The potential for instability in Pakistan and the free movement of 
extremists in the Afghanistan-Pakistan border region continue to pose a 
serious threat to regional and global security. Pakistan's tribal areas 
remain the principal sanctuary for al Qaeda and a safe haven for other 
extremist groups, enabling them to threaten the population and 
coalition forces in Afghanistan, the people and government in Pakistan, 
and U.S. and Western interests globally. The Afghanistan-Pakistan 
region also faces significant humanitarian concerns, including refugees 
and Internally Displaced Persons (IDPs) from decades of conflict. 
Additionally, roughly three million Afghan refugees still live in 
Pakistan, having been displaced by the Russian invasion into 
Afghanistan 30 years ago.
    U.S. Humanitarian Assistance
    Last summer's historic flooding in Pakistan was devastating--
effectively equivalent in scope to flooding the entire East Coast of 
the United States. The United States responded to the floods by 
providing historic levels of Humanitarian Assistance. In all, U.S. 
rotary and fixed wing aircraft transported more than 40,000 displaced 
persons and delivered more than 26 million pounds of aid supplies to 
the people of Pakistan. U.S. helicopters flew more than 5,000 flight 
hours during the relief operation. The U.S. Government provided Zodiac 
boat kits to the Pakistan Military for use in rescue operations, and 
provided eight 50 meter bridges to replace bridges swept away by the 
floods.
    U.S. Support to Pakistan Military
    On the security front, continued U.S. assistance is critical to 
enabling Pakistan to conduct effective counterinsurgency operations. 
Our forces carry out important partnership and engagement activities in 
support of the Pakistan military's improving counterinsurgency 
capabilities. As one important example, ODRP supports Pakistan's 
Frontier Scouts by providing training support and enabling further 
counterinsurgency operations. U.S. personnel also assist in the 
procurement of materials and equipment needed to build infrastructure 
in support of education, power, and food.
    Pakistan Operations and Sacrifice
    Pakistan's military has made impressive strides in combating 
militants in the FATA, while dealing with the effects of large-scale 
flooding that devastated much of the country. Over the last year, the 
enemy has lost battlespace to the Pakistan military's sustained efforts 
to move against the enemy strongholds. Pakistan's military has suffered 
more than 2,500 casualties (enduring more than 500 personnel killed in 
action and more than 2,000 wounded in action) since the start of 
offensive operations against extremist elements in the Khyber 
Pashtunkhwa and the FATA. Since June 2009, the Pakistan Military has 
been involved in nearly continuous operations against militants in the 
Khyber Pashtunkhwa and the FATA. In total, the Pakistan Military has 
deployed upwards of 140,000 troops along Pakistan's western border with 
Afghanistan, a significant portion of which were drawn from Pakistan's 
border with India.
    Regional Context
    Our efforts to support Pakistan fit well within the broader 
regional context. We recognize that Pakistan's longstanding tensions 
with India are an important part of Pakistan's strategic decisionmaking 
calculus and military force posture. However, the presence of extremist 
sanctuaries in Pakistan significantly impacts our progress in 
Afghanistan, and with the Pakistan military's help we are taking 
important steps to improve cross-border operations. To address existing 
challenges along the Afghanistan-Pakistan border, coordination between 
ISAF, Afghan security forces, and the Pakistan Military continues to 
improve, especially in the area of Intelligence, Surveillance and 
Reconnaissance (ISR). In Regional Command East, we are planning 
coordinated operations with the Pakistan Military. The Pakistan 
Military recently began clearing insurgent safe havens in Mohmand 
Agency across the border from Kunar Province--where insurgents have 
initiated a number of attacks to undermine recent security gains in 
Afghanistan. While Pakistan's operations are acting as the ``hammer'' 
on their side of the border, combined Afghan and ISAF forces are poised 
to defeat displaced insurgents, acting as the ``anvil.'' Afghan Border 
Police and other combined security forces are manning outposts along 
the border and armed drones and close combat aviation are monitoring 
previously-identified mountain passes that insurgents will likely use 
as they seek sanctuary in Afghanistan.
    Congressional Support
    Multi-year security assistance is critical to our efforts in 
Pakistan. We appreciate continued congressional support for the 
Pakistan Counterinsurgency Capabilities Fund, which serves as a key 
enabler of the Pakistan's military operations against extremists. The 
fund also provides for a range of partnership activities with 
potentially transformational long-term effects on our relationship with 
Pakistan if they can be sustained.

Countering Iran's Destabilizing Activities
    Iran's Destabilizing Activities
    In view of Iran's destabilizing behavior and its persistent pursuit 
of a nuclear weapons capability, the Iranian regime's current stance 
represents the greatest long-term threat to the region. Iran continues 
to rebuff efforts for engagement, further alienating and isolating 
itself from much of the rest of the region and from much of the 
international community. The actions of Iran's leadership squander the 
potential of its own educated populace and sacrifice the free exchange 
of ideas for the short-sighted interest of preserving an increasingly 
harsh and oppressive regime. Recently, Tehran equated the Egyptian 
protests to the 1979 Islamic Revolution in Iran, making a fanciful and 
wholly false connection.
    The Iranian regime relies on the Islamic Revolutionary Guard Corps-
Qods Force (IRGC-QF) to extend influence and create instability across 
the region through persuasion, coercion, aggression, and targeted 
messaging. In fact, Iran continues to fund, arm, train, and equip a 
network of agents, surrogates, and proxies in Iraq, Lebanon, Syria, 
Gaza, Afghanistan and elsewhere across the region. In the pivotal 
region of the Levant, Iran seeks to expand its influence, in part by 
enabling Lebanese Hezbollah and Hamas in order to weaken legitimate 
governance, limit economic development, and undermine security 
partnerships. Additionally, Iran delivers weapons and provides military 
training to surrogates in an effort to target Israel (a nation Iran's 
leadership have vowed to destroy) and undercut the Middle East Peace 
Process. Of urgent concern, the IRGC-QF continues to equip militants in 
Iraq and Afghanistan that attack U.S. and coalition forces and 
undermine stability and governance in each of these countries. The 
recent January 2011 large caliber Improvised Rocket Assisted Mortar 
(IRAM) attack against U.S. forces in Iraq demonstrated Iran's malicious 
intent, and ability to escalate violence when they desire.
    Iran's Pursuit of Nuclear and Ballistic Missile Weapons
    In spite of a fourth round of United Nations sponsored sanctions, 
Iran appears determined to mature its nuclear weapons program--an 
ambition that could lead to the proliferation of illicit nuclear 
materials and spark a nuclear arms race in the region. Admiral Mullen 
reinforced this point in December 2010, observing: ``I see Iran 
continuing on this path to develop nuclear weapons, and I believe that 
developing and achieving that goal would be very destabilizing to the 
region.'' Iran also continues to expand and improve its arsenal of over 
2,200 ballistic missiles and long-range rockets, and of approximately 
225 fixed and mobile launchers, making it the largest ballistic missile 
and long-range rocket force in the Middle East. Iran can use these 
ballistic missiles and rockets, combined with increasing naval 
capabilities, to threaten global commerce.
    Countering Destabilizing Iranian Activities and Keeping Peace with 
        our Partners
    Firmly nested within the broader approach of the U. S. Government 
toward Iran, CENTCOM is committed to countering Iran's destabilizing 
and coercive activities by building confidence with our partners in the 
region. As one example, we are working together with our Gulf 
Cooperation Council partners and other nations to advance Integrated 
Air and Missile Defense. We also conduct activities to reassure our 
friends in the region that we are with them, preclude conflict, and 
deter Iran's destabilizing activities, while at the same time standing 
ready to conduct contingency operations.

Enabling Transition in Iraq
    Looking Ahead in Iraq
    The year ahead in Iraq presents a significant opportunity for the 
United States to solidify our long-term support to this keystone of 
regional stability. Our continued investment in Iraq is critical at 
this juncture, especially given the significant commitment we have made 
in lives and treasure. Now is not the time to be penny wise and pound 
foolish with respect to our mission in Iraq. Nested firmly inside the 
State Department's vision for an enduring U.S.-Iraq strategic 
partnership, CENTCOM is setting conditions to build on the shared 
sacrifices between our countries.
    The Situation in Iraq
    Iraq faces lingering ethnic and sectarian mistrust, tensions 
between political parties, and strained governmental capacity to 
provide basic services. Al Qaeda in Iraq (AQI) remains committed to 
undermining the Iraqi Government and is capable of carrying out 
orchestrated, high profile attacks. Likewise, Iranian-inspired and 
equipped proxies continue to be a threat to Iraqi security and 
governance. While the security situation in Iraq is vastly improved 
since the peak of sectarian violence there in mid-2007 (violence is 
currently at all-time lowest levels since 2003), Iraq continues to face 
significant political, economic, and security challenges. Over the 
coming year, several factors will determine Iraq's strategic direction, 
including the continuing development of Iraqi Security Forces (ISF), 
the effectiveness of the nascent governing coalition, and the degree to 
which the country is influenced by Iran and threatened by AQI and Shi'a 
militia elements.
    U.S. Forces-Iraq
    From now until the end of this year, U.S. Forces-Iraq (USF-I) is 
continuing to partner with ISF during this historic period of 
transition. USF-I is undertaking a range of activities, foremost among 
these strengthening the ISF, transitioning security-related activities 
to Iraq and the U.S. interagency, and contributing to border management 
and ministerial development.
    Establishing the Office of Security Cooperation-Iraq
    Through USF-I and in partnership with the Embassy country team, we 
are planning the initial stand-up of the Office of Security 
Cooperation-Iraq (OSC-I) in June of this year and expect it to be fully 
operational by this October. OSC-I is the cornerstone of our long-term 
mission to build partner capacity with the ISF. Additionally, the OSC-I 
will ensure the continuation of the military-to-military relationships 
that advise, train, and assist Iraqi Security Forces.
    Iraq's Regional Integration: Iraq is now at a crossroads, poised to 
emerge as a positive force for the region after posing security 
challenges for its neighbors in past decades. Baghdad's selection as 
the location to host the Arab League Summit is a significant testament 
to Iraq's re-emergence in the region. Iraq also accepted Egypt's 
invitation to participate as an observer in CENTCOM's largest exercise, 
Bright Star. Jordan has also exerted considerable positive influence in 
Iraq, training over 1,500 Iraqi Army officers, a number of Iraqi Air 
Force pilots, and posting a Jordanian defense attache in Baghdad, in 
addition to hosting a program to provide extensive training to Iraqi 
police. Additionally, Jordan, Saudi Arabia, and Kuwait have aided the 
economic reintegration of Iraq into commercial activity and regularly 
scheduled transportation networks. Finally, the United Arab Emirates 
have trained Iraqi police officers in a joint program with Japan and 
Germany.
    Iraq's constructive integration into the region will also help 
blunt destabilizing Iranian influence. If left vulnerable to Tehran's 
meddling, Iraq's sovereign future would be imperiled. At the same time 
that Iran reconstructs shrines, provides electrical power, and 
constructs schools and clinics in Iraq, Iran also undermines Iraqi 
political processes, facilitates violence against innocent Iraqi 
civilians, and provides lethal support to extremist groups targeting 
U.S. forces. For the United States and the international community, a 
sovereign Iraq under a stable and inclusive government is fundamental 
to regional stability.
    Congressional Support
    The support of Congress is critical to facilitating an effective 
transition in Iraq and in setting the conditions for an enduring U.S.-
Iraq partnership. We seek congressional support in obtaining the 
appropriate authorities in fiscal year 2011 to begin immediate facility 
and site work for the OSC-I to reach full operating capability by 
October 2011. This is an area of critical need as we work to meet our 
aggressive timelines. The Iraqi Security Forces Fund (ISFF) critically 
enables Iraq to set a foundation for its internal and external defense 
capabilities and provides Iraqi Minister of Interior police forces the 
training and equipment necessary to maintain internal security without 
assistance from the Ministry of Defense. Additionally, the ISFF enables 
Iraqi Army counterinsurgency capabilities and enhances cooperation 
between the government of Iraq and Kurdish police forces to ensure the 
consistency of police training and equipment standards throughout Iraq.

Strengthening Central Asian Partnerships
    In Central Asia, CENTCOM is committed to strengthening 
relationships based on those shared interests and goals that we have in 
common with the Central Asian States of Kazakhstan, Kyrgyzstan, 
Tajikistan, Turkmenistan, and Uzbekistan. While our nations seek to 
improve broader economic conditions, CENTCOM is working with our 
partners to address the migration of extremists in certain areas of 
Central Asia and to counter the trade of illicit narcotics and human 
trafficking. Often these activities are interrelated.
    Northern Distribution Network: Over the past 2 years, the 
development of a robust transportation network has been the most 
expansive area of cooperation with our Central Asian partners. Our 
collective agreements with Kyrgyzstan, Kazakhstan, Uzbekistan, and 
Tajikistan together constitute a logistical system termed the Northern 
Distribution Network (NDN) used to supply coalition operations in 
Afghanistan and taking pressure off the Pakistan lines of supply. This 
diverse network supports the transit of about half of all sustainment 
cargo to Afghanistan using a variety of sea, air, and land routes. The 
remaining supplies are flown directly into Afghanistan, trans-shipped 
from sealift to airlift, or arrive via surface routes through Pakistan. 
Ultimately, the development and expansion of the NDN and its associated 
infrastructure will facilitate long-term economic growth in the region, 
representing a new opportunity for export of Central and South Asia raw 
materials and exchange of goods in the international marketplace.
    Enhancing the Northern Distribution Network
    Future NDN efforts are centered on partnering with certain 
countries to permit two-way flow of all types of wheeled vehicles and 
associated repair parts, and to increase shipment of cargo already 
permitted on the NDN (such as building materials). In terms of airlift, 
Manas Transit Center in Kyrgyzstan is a key Central Asian location that 
supports aerial refueling and passenger transit missions.

Building Partner Capacity and Pursuing Cooperative Activities
    Cooperation Based on Shared Interests
    The investment we make in our military-to-military engagement to 
build the capabilities of our partner nation security forces is a 
critical component of the whole-of-government efforts in the region. 
These cost-effective efforts properly place security responsibilities 
in the hands of other sovereign governments and help to prevent 
conflicts and instability. With a long-term perspective, CENTCOM 
carries out partnership activities designed to build strong security 
capacity and relationships with our friends in the region.
    Training
    CENTCOM's training and exchanges with our partners are critical to 
our regional cooperation. CENTCOM has spearheaded the establishment of 
several Training Centers of Excellence hosted in partner nations, 
providing world-class mission-specific training for our allies and 
partners. Existing Centers of Excellence include an Air Warfare Center 
and an Integrated Air and Missile Defense Center in the United Arab 
Emirates (UAE); the King Abdullah Special Operations Training Center in 
Jordan; a NATO Partnership for Peace Combat Engineering and INTERPOL 
Counter Narcotics Center hosted in Kazakhstan; and an extensive array 
of associations with the other countries' Professional Military 
Education programs. Developing Centers include a U.S. Naval Forces 
Central Command (NAVCENT) Maritime Center hosted in Bahrain; a new 
Explosives Ordinance Disposal school with future Center of Excellence 
in Saudi Arabia; a proposed Near East South Asia (NESA) branch Center 
of Excellence in Bahrain; and the Gulf Region Communications, Computer, 
Command, and Control (C4) Center of Excellence hosted by the Bahraini 
Minister of Communications.
    Exchanges
    CENTCOM manages and conducts focused engagement programs with 
specific partner nations located throughout the AOR in support of the 
CENTCOM Theater Security Cooperation Plan. The objective is to 
understand our friend's views and to strengthen relationships and 
regional organizations to defeat violent extremist networks or 
situations that threaten the security interests of the region and the 
United States. This includes capacity building. Additionally, CENTCOM 
Headquarters in Tampa, FL is host to over 193 coalition partners from 
58 allied nations who make significant contributions to our efforts, 
and receive invaluable experience interacting with both U.S. forces and 
our allies.
    Equipping
    We also provide equipment and security assistance to our regional 
partners. These activities are among the most important practical steps 
we can take to demonstrate CENTCOM's enduring commitment to our 
partners--and to enable interoperable forces in the fight. I ask for 
continued congressional support of these efforts, including Global 
Train and Equip, as well as the many security assistance programs 
managed by the Department of State, including Foreign Military 
Financing, Foreign Military Sales, and International Military Education 
and Training Program. As Admiral Mullen noted in his testimony, our 
security assistance authorities are inflexible, and process are too 
cumbersome to effectively address today's security challenges in a 
timely manner. We encourage ongoing efforts to streamline the Foreign 
Military Financing process in order to cement training and sustainment 
relations with our critical partners. Accomplishing our mission at 
CENTCOM requires that we demonstrate our responsiveness to the requests 
of our partners when we alone should not carry the increasing costs of 
defending the international order.
    Exercises
    The final pillar of CENTCOM's partnership activities is our 
military exercise program. Exercises bolster interoperability between 
our forces and those of our partners. Each year, our component commands 
conducts more than 50 exercises with our partner nations in the region, 
including 5 overseen by CENTCOM component commands.
    The Long-Term Value of our Exercise Program
    The Combatant Commanders Exercise and Engagement program provides 
critical support to CENTCOM joint training support, exercise and 
engagement requirements in support of national-level strategic 
priorities, readiness, and building partnerships within the AOR. Since 
the beginning of our operations in Afghanistan in 2001, CENTCOM has 
seen reductions in our exercise program due to ongoing combat 
operations within the AOR. As combat operations are completed or 
reduced, restoring sufficient funding levels is critical to support 
engagement activities with our partners. Without restored funding 
levels, CENTCOM could lose the advantages gained from a robust exercise 
engagement program, affecting future access and presence within the AOR 
and our Theater Security Cooperation Plan. In the interim, we will work 
imaginatively to make the best use of our exercise budget.

Disrupting Violent Extremist Organizations across the Region
    Terrorists in False Religious Garb
    The CENTCOM AOR is home to numerous Violent Extremist Organizations 
(VEO) comprising a network that, in its own right, represents a 
considerable threat to the U.S. Homeland, U.S. and Western interests, 
and our allies in the region. The most significant of these is AQ. AQ 
seeks to impose its morally bankrupt ideology worldwide, and has 
regional affiliates across the Arabian Peninsula, in Iraq, the Maghreb, 
and in Somalia (al-Shabaab), with associates including Tehrik-e Taliban 
Pakistan (TTP), the Afghanistan Taliban, and Lashkar-e-Tayyiba (LeT). 
The growing cross-organizational cooperation between VEOs replicates 
mafia syndicates. The organizational success of VEOs is frequently 
abetted by operating with near impunity in cyberspace.
    Attacking VEOs
    Along with our interagency and regional partners, CENTCOM continues 
to develop and implement theater-wide responses in the cyber and 
physical domains to disrupt and degrade militant networks. Over the 
past year, interagency efforts have resulted in designating al Qaeda in 
the Arabian Peninsula (AQAP) and TTP as foreign terrorist 
organizations, obtaining a number of Treasury designations, Justice 
Department arrest warrants, Interpol notices, and placing over 100 
individuals and entities on the U.S. Department of Commerce Denial 
List. Thanks to Congressional funding, the Defense Department Rewards 
Program has been used by commanders in Iraq and Afghanistan in fiscal 
year 2010 to capture more than 700 high-value individuals, insurgents 
and terrorists.
    Preventing Security Vacuums
    In the long-term, CENTCOM is working as a part of an integrated 
civil-military effort to prevent security vacuums that foment extremism 
and provide sanctuary to VEOs.
    In Yemen, we have forged a tight bond between CENTCOM and our 
Embassy team in Sana'a to address the heightened threat of AQAP through 
long-term counterterrorism capacity-building. AQAP cemented its role as 
a viable and enduring threat to the U.S. Homeland by following-up the 
failed attempt to bomb Northwest Airlines flight 253 on 25 December 
2009 with the ``printer cartridge'' parcel bomb plot in late October 
2010. Radical cleric Anwar al-Aulaqi publicly spearheads AQAP's 
campaign against the West, most notably by creating Inspire magazine in 
an effort to encourage Western-based Muslims and enable ``lone wolf'' 
style attacks.
    In Lebanon, the Lebanese Armed Forces (LAF) has had to navigate a 
challenging environment in which it does not yet have the monopoly of 
violence in much of the country. Our assistance has had substantive 
impact on the ground to include helping the LAF deploy four brigades to 
the south since 2006 in support of United Nations Security Council 
Resolution (UNSCR) 1701--taking up space where Hezbollah had been. 
Additionally we have increased the capacity of the LAF Special 
Operations Forces that won a hard fought battle in 2007 against the al 
Qaeda affiliated Fatah al-Islam movement in the Nahr al-Bared 
Palestinian refugee camp in Northern Lebanon. The LAF sustained almost 
200 killed and 2,000 wounded in this operation. We value our close 
relationship with the LAF officer corps based on mutual respect and 
confidence. We continue to monitor the government formation process in 
Lebanon and will need to examine the final composition, policies, and 
behaviors of the next government before making any decisions regarding 
our relationship, including security assistance, while recognizing that 
continued engagement with the LAF is an important step in securing its 
status as an apolitical, non-sectarian, and professional organization.
    In Syria, the regime's continuing support for terrorist 
organizations prevents CENTCOM from developing a military-to-military 
relationship and limits the scope of U.S. engagement. Consequently, we 
view the recent return of a U.S. Ambassador to Damascus as a vital 
piece of our regional security architecture. We stand ready to support 
Ambassador Ford's diplomatic efforts to produce a more constructive 
relationship with Syria however we can, and we urge the Senate to 
confirm his nomination so that he may continue his important work 
beyond 2011.
    Across the region, Theater Security Cooperation activities work 
against the ability of Iran and extremist elements to destabilize the 
region. Absent these programs, there is an increasing potential for 
security vacuums to arise and open the door to greater influence from 
Iran or violent actors. Our cooperative efforts with regional partners 
are essential to the long-term effort to address these threats.
    Countering the Enemy's Use of the Information Environment
    Our enemies are using every available lever of the information 
environment to promulgate and reinforce their ideology--and, in league 
with our interagency partners, CENTCOM is committed to countering the 
efforts of our adversaries. Our enemies operate within cyberspace (and 
its associated relevant physical infrastructure) to plan, coordinate, 
recruit, train, equip, execute and garner support for operations 
against the United States, its allies, and interests. The recruitment 
of Umar Farouk Abdullmutallab, the unsuccessful Christmas Day Bomber, 
demonstrates our adversaries' ability to reach across borders, promote 
their narrative, and defy traditional military constructs to achieve 
their objectives. Clearly, in the information age, our military must 
adapt to this new domain of warfare. We ask for the support of Congress 
to fund our programs that attempt to counter the enemy in the 
information domain, just as we need funding to disrupt violent 
extremists in the physical domain.
    CENTCOM Activities in the Information Environment
    Consistent with the guidance provided by Secretary Gates last 
December, we conduct Operation Earnest Voice (OEV), which synchronizes 
and oversees all of our Information Operations activities. OEV seeks to 
disrupt recruitment and training of suicide bombers; deny safe havens 
for our adversaries; and counter extremist ideology and propaganda. 
Full funding of OEV supports all activities associated with degrading 
the enemy narrative, including web engagement and web-based product 
distribution capabilities. The effective engagement of our enemies in 
cyberspace requires the ability for us to conduct a full-spectrum of 
traditional military activities against them in that domain, including 
all aspects of Information Operations and Strategic Communication. We 
coordinate with the Joint Staff, the Interagency, the Intelligence 
Community, and our coalition partners to examine the adversary's use of 
cyberspace and identify techniques, tactics and procedures we can use 
to counter the adversary in the cyber domain.

Combating Weapons of Mass Destruction
    Risk of Weapons of Mass Destruction
    At CENTCOM, we recognize the serious risk and potentially 
devastating ramifications of a terrorist group, violent extremist 
organization, or state actor acquiring, proliferating, or using Weapons 
of Mass Destruction (WMD). The nexus between extremist groups, malign 
state actors, and WMD remains a critical concern throughout the AOR and 
presents a clear danger to our partners, allies, and the U.S. Homeland. 
CENTCOM remains vigilant in executing the nonproliferation, counter 
proliferation, and foreign consequence management pillars of America's 
National Strategy for Combating WMD.
    Countering Proliferation and Combating Weapons of Mass Destruction
    Countering the proliferation of WMD-related material is a 
fundamental aspect of CENTCOM's overall efforts to combat WMD. In 
concert with our regional partners, CENTCOM is involved with the 
interagency effort to curtail the ability of adversaries to finance the 
acquisition of WMD-related items and to deny malign actors the ability 
to transport suspect dual-use materials across national borders. To 
this end, CENTCOM plays a key role in containing Iran's evident drive 
for nuclear weapons in violation of the Nuclear Non Proliferation 
Treaty by actively enforcing United Nations Security Council 
Resolutions that sanction the Iranian regime. CENTCOM also supports the 
interdiction and counter proliferation framework under the 
Proliferation Security Initiative (PSI). CENTCOM's mainstay program for 
Combating WMD engagement is the Cooperative Defense Program (CDP). The 
CDP provides a series of bilateral and multilateral engagement 
activities to improve U.S. and partner nation interoperability while 
strengthening partner nations' combating WMD capabilities.

Countering Piracy
    The Real and Growing Threat of Piracy
    Somali-based pirates continue to prey upon international shipping 
in the Gulf of Aden, Red Sea, and on the high seas well into the Indian 
Ocean. Pirates are using previously captured vessels as mother ships to 
conduct successful attacks as far as 1,400 nautical miles from the 
Somali coast. The number of successful pirate attacks has risen from 42 
in 2008, to 51 in 2009, to 68 in 2010. Pirates now hold nearly 700 
hostages for ransom. Multi-million dollar per ship ransoms ensure 
piracy remains lucrative for pirates and others involved in this 
criminal enterprise.
    A Model for International Cooperation
    CENTCOM works with international partners to help patrol the region 
and to work with interagency partners to gain the prosecution of 
captured pirates (though we currently lack an international legal 
framework to detain and prosecute pirates). Piracy is a threat to all, 
and has promoted international military cooperation that serves as a 
model for cooperation in other areas. We acknowledge, however, that 
military action is only one part of the solution, but an essential 
element nonetheless. NAVCENT coordinates the efforts of over 25 
contributing nations to combat piracy at sea and coordinates with 
European Union (EU) Task Force Atalanta and NATO Standing Naval 
Maritime Group in Operation Ocean Shield. Pakistan is currently in 
command of Combined Task Force 151, the international coalition to 
combat piracy. NAVCENT also hosts a monthly Shared Awareness and De-
confliction (SHADE) conference in Bahrain to foster multi-national 
cooperation and to encourage maritime industry to adopt best practices 
to defend vessels against piracy. In addition to Coalition, NATO, and 
EU representation, the conferences also include civilian maritime 
organizations, and delegates from China, Russia, Japan, and India.

                           STRATEGIC APPROACH

    Many of our challenges are interconnected and require comprehensive 
long-term solutions, prompting us to adopt an overall approach that is 
cooperative, integrated, and enduring. As we undertake a diverse range 
of operations and activities, three principles guide our efforts:
    Adopting Cooperative Approaches by Partnering Based on Shared 
        Interests
    First, we must adopt cooperative approaches to solving shared 
challenges. America's strength and security depends on our ability to 
help our friends in the region defend themselves, underscoring the 
importance of CENTCOM's initiatives to build partner capacity and 
pursue bilateral and multilateral initiatives. Starting from our shared 
interests, we must capitalize on the comparative advantages of all 
participating nations--for instance, by taking advantage of unique 
geography or specialized capability. Ideally, such efforts would 
combine the political, economic, and security spheres of those who 
choose to participate, strengthening the whole to be greater than the 
sum of the parts. Our efforts to develop effective solutions for 
Integrated Air and Missile Defense in the Gulf Region represent a 
significant example of the kind of cooperative efforts that are 
necessary to deter and defeat our common threats. As mentioned above, 
the international coalition to counter piracy in the Somali Basin is a 
model for multilateral cooperation in the region that not only 
addresses piracy but also offers opportunities for engagement in other 
areas.
    Our ability to cooperate with our partners depends to a great 
extent on trust. As a consequence of the confidential diplomatic and 
military reporting made public by Wikileaks, we must patiently 
strengthen trust with our partners over time. We are up front with our 
partners about this episode--which has informed our enemies about 
supportive leaders as well as our tactics, techniques, and procedures. 
We remain committed, as ever, to forthright communication in pursuit of 
our shared objectives. We are reinforcing our efforts to ensure the 
security of our communications and focusing on enhancing mutually 
reinforcing objectives with allies and partners.
    Integrating Our Efforts by Implementing Civil-Military Solutions
    Second, the wars we are fighting today require intensively 
integrated, comprehensive approaches from the highest to the lowest 
levels, embracing diplomatic, information, military and economics in an 
interwoven effort that builds synergy. Promoting security and stability 
in the CENTCOM AOR cannot be achieved through military means alone. We 
must therefore look beyond just the traditional application of military 
power and integrate all elements of national power to address our many 
challenges. CENTCOM's experience has shown that military might alone is 
not sufficient to deal with the challenges we confront along with our 
partners. Diplomacy and Development are just as vital as Defense in 
securing our national interests. CENTCOM support efforts to address the 
underlying conditions of instability that fuel current conflicts. 
Successful application of these instruments of national power, in turn, 
depends on our ability to achieve harmony within our civil-military 
relationships. As such, it is a security concern for us when diplomatic 
posts go unfilled in the region.
    The overlapping forces at work in the CENTCOM AOR--those 
originating from within and outside the region--require exceptional 
cross-combatant command cooperation and coordination. We have achieved 
progress across AOR geographic seams, exemplified by cooperation with 
PACOM on matters dealing with China and India and cooperation with 
European Command on Russia, Turkey, and the Middle East Peace Process. 
CENTCOM, and PACOM regularly synchronize efforts to combat mutual 
challenges such as piracy, proliferation of WMD, and support to 
countering VEOs. Additionally, we continue to work closely with U.S. 
Africa Command to address the state-failure in Somalia, as well as 
share critical assets to meet time-critical force requirements. 
Together we have established a counter-piracy Joint Operating Area in 
the Somali Basin. We team with U.S. Cyber Command to support global 
relationships in cyberspace and U.S. Northern Command to protect U.S. 
borders and domestic security. In all, the cross-combatant command 
effort is going very well.
    Supporting Enduring Solutions by Demonstrating Long-term Commitment
    Finally, our approach to the region must be enduring. Following 
through with our long-term commitments in the AOR improves the depth, 
breadth and quality of our relationships in the region and increases 
the likelihood of cooperation at the outset. In this region of the 
world, we are judged by our actions, not words. Individual instances of 
demonstrated trustworthiness on our part resonate throughout the region 
for decades. Enduring solutions to the problems that we face also 
depend on stability, steady economic growth and development in 
governance. To that end, CENTCOM supports our partners' long-term 
efforts to grow economically and to develop effective and legitimate 
institutions of government.

                          RESOURCING THE FIGHT

    Beyond the critical funding authorities highlighted above, 
accomplishing our mission requires that we fully and efficiently 
resource the following critical enablers. We appreciate Congressional 
support to provide our warfighters on the battlefront with the tools 
they need to accomplish their challenging missions. As we adapt to a 
thinking adversary, we recognize the need to accelerate our acquisition 
processes to enable us to out-maneuver our enemies. We also recognize 
the obligation to be good stewards of our nation's monetary resources. 
CENTCOM has established stringent control mechanisms to execute our 
fiscal authorities and to apply the most effective oversight possible 
of all of our programs.
Intelligence, Surveillance, and Reconnaissance
    An Indispensable Tool
    There is a considerable and justifiable appetite for ISR 
capabilities in the CENTCOM AOR. In Afghanistan, persistent ISR 
capabilities represent one of the most important and effective force 
multipliers and contribute directly to protecting our troops from the 
threat of improvised explosive devices through ISR. In cooperation with 
the ISR Task Force, we have augmented ISAF forces with a greatly 
increased capability to counter the Taliban and understand the 
environment in which we operate. Additionally, as we drawdown our 
forces from Iraq, we are adjusting the apportionment of ISR in a 
measured way to ensure that we retain adequate capability to support 
our force in Iraq while we provide the necessary resources to 
Afghanistan and elsewhere. We continue to refine our ability to fully 
integrate U.S. and coalition ISR to deny transnational extremist 
organizations safe haven, training bases, or staging areas to conduct 
attacks.
    Enhancing ISR Capabilities
    We greatly appreciate the support of Congress and the Under 
Secretary of Defense for Acquisitions and Technology in meeting the 
ongoing demand for more rapidly delivered ISR collection, exploitation, 
and dissemination capabilities. Interrelated with our ISR needs, we 
recognize a need to further enhance integration and synergy between 
aviation and ground elements that is critical to Combat Air Support and 
counterinsurgency doctrine. We support a limited objective experiment 
to refine the requirement for a manned, armed ISR asset attuned to the 
unique challenges of counterinsurgency in Afghanistan. Continued 
investments in ISR technology, infrastructure, architecture, tools, and 
personnel (particularly trained ISR managers) help us to build on the 
significant gains we have achieved in the CENTCOM AOR--and enable us to 
use the arsenal of ISR capabilities currently in the field.
    Critical Intelligence Capabilities
    Human intelligence and counterintelligence are just as important as 
technical solutions to remotely gather intelligence, especially in the 
conduct of operations in wars among the people. Such intelligence 
activities are inherently government functions that require a long lead 
time to develop. CENTCOM is posturing for sustained application of our 
human intelligence capabilities to afford us insights into adversary 
plans and intentions. CENTCOM is posturing for sustained application of 
our human intelligence capabilities to afford us insights into 
adversary plans and intentions. We are also reshaping our 
counterintelligence forces to face threats from hostile foreign 
intelligence services and VEOs that employ sophisticated cyber 
techniques and trusted insiders to penetrate our networks and 
compromise our operations.

Improving Force Protection and Countering Improvised Explosive Devices
    The Enemy's Weapon of Choice
    Now and for the foreseeable future, the enemy is using Improvised 
Explosive Devices (IED) to kill and maim our troops. These devices 
remain the greatest risk facing U.S. and coalition forces deployed to 
Afghanistan and Iraq, as well as a threat to U.S. interests and 
regional stability throughout the CENTCOM AOR. In Afghanistan, IED 
attacks account for more than 60 percent of the U.S. and coalition 
force casualties, though IED casualties have steadily decreased over 
the past 6 months. The flow of lethal aid, migration of IED technology 
and materials, and development of new tactics techniques and procedures 
represents a global threat. Homemade explosives, which now account for 
an estimated 85 percent of all IEDs, coupled with the proliferation of 
commercially available IED materials and commercial grade explosives 
make them relatively cheap and easy to build and employ.
    Ongoing Interagency C-IED Efforts
    CENTCOM counters the threat of IEDs by working together with all 
Services and the Joint IED Defeat Organization (JIEDDO). The Services 
continue to equip U.S. and coalition forces with the latest technology 
to mitigate and defeat IEDs. Thanks to Congress and the Department of 
Defense, CENTCOM and our national and international partners have 
delivered and fielded an unprecedented number of Mine Resistant Ambush 
Protected family of vehicles throughout Afghanistan. These vehicles 
have proven critical to safeguarding the tactical mobility of our 
warriors in harm's way. CENTCOM, in conjunction with the C-IED Senior 
Integration Group, and JIEDDO have recently fielded a variety of C-IED 
enablers that have proven to save lives on the battlefield. As a 
result, we are finding and clearing more IEDs in Iraq and Afghanistan--
at a rate above 60 percent for the last 12 months and 70 percent over 
the last quarter of 2010. These improvements are due in part to more 
tips from the population, better tactics, and additional enablers, 
including the effective use of additional ISR provided by the Services 
to counter this threat.
    Attacking the Network
    We are going after the entire IED network and insurgent supply 
lines. Many of our recent successes have come in the use of persistent 
systems emplaced throughout significant threat areas to help develop 
insights into the local area. We are concurrently protecting the force 
using trained dogs, mine rollers, jammers, and handheld devices; the 
Marines in southern Afghanistan now employ nearly one dog per squad, 
and soon we will have more than 200 working dogs in Afghanistan. Along 
with the Services, JIEDDO, and academia we will continue to do 
everything in our power to ensure our servicemembers and coalition 
partners have the best technology and training available to defeat the 
IED threat.
    Supporting Additional C-IED Efforts
    We continue to call on the defense industry to provide innovative 
solutions to counter the threat of IEDs. Critical airlift and airdrop 
sorties dramatically reduce the number of servicemembers exposed to the 
IED threat. In fact, the number of pounds of supplies airdropped in 
Afghanistan has doubled every year since 2005, with an astonishing 
recovery rate of better than 98 percent. Not all critical movements can 
be completed by air however. We ask that Congress continue to fund 
those organizations that provide research and development for the 
evolution of new and existing counter-IED systems and technologies, 
especially in areas of predetonation, IED stand-off detection, and non-
lethal weapons to deny the enemy the ability to deliver or emplace 
IEDs. We also ask that Congress provide the flexibility to rapidly and 
proactively counter new, emerging, and future threats that are either 
present on the battle field or potential threats that represent 
vulnerability and would be difficult to counter.

Unity of Command and Control of C5 Networks
    Coalition, Command, Control, Communications, and Computer (C5) 
networks that meet the challenging demands of our troops in theater are 
essential to CENTCOM. Currently, the command and control of networks 
available to our deployed forces is divided among Services, agencies, 
and combatant commands, resulting in degraded and delayed actions that 
have allowed our adversaries to exploit this fundamental cyber 
shortfall for too long. One bright network spot, however, is the Afghan 
Mission Network, which enables U.S. and coalition forces and civilians 
to remain connected and synchronized on the battlefield and linked to 
supporting assets throughout the world. We seek congressional support 
to enable effective integration and extension of networks to wherever 
we fight, from maritime environments to the aerial layer and over 
rugged mountainous terrain.

                               CONCLUSION

    In closing, we greatly appreciate the support of Congress on behalf 
of America's military personnel serving in the CENTCOM region. The 
stalwart Americans in today's force have been fighting two wars for 
nearly 10 years in the CENTCOM AOR. With remarkable spirit, they look 
beyond the ambiguity and longevity of today's complex, demanding 
operations and answer their country's call. Their courage, character 
and commitment in the face of repeated deployments are inspiring. As 
their commander, I am proud to serve alongside them. Thank you very 
much for your unflagging support of our troops in harm's way and their 
families here at home.

    Chairman Levin. Thank you very much, General Mattis.
    We will try a 7-minute first round for questions.
    General, you made reference to Pakistan and noted that 
they, indeed, have gone after some terrorist groups, and they 
have suffered losses in that process. What you did not make 
reference to, though, is what troubles us a great deal. What 
troubles you, I am sure, too, and our leadership, is the 
failure of the Pakistanis to go after terrorist groups in North 
Waziristan and in Quetta, and those are the groups that cross 
the border and attack our force, coalition forces, and the 
Afghan people.
    Why is it, in your judgment, that Pakistan is not going 
after those terrorist groups, including the Haqqani network in 
North Waziristan and the Quetta Shura?
    General Mattis. Mr. Chairman, there have been disconnects 
where we have not always seen eye-to-eye with Pakistan. Part of 
the reason these groups exist is, together with Pakistan, we 
helped create some of them.
    Any attempt to look at Pakistan's security interests must 
include their difficult relationship with India. Over the 
years, I believe that Pakistan got into a position where the 
very groups that, in some cases, we helped to give birth to, 
became part of the landscape, the Kalashnikov culture, for 
example.
    In many cases, they have moved against these areas, and not 
all of it has been cost-free. As I noted, they have lost 
thousands of troops, killed and wounded. Especially telling is 
the number of junior officers they have lost, indicating an 
aggressive effort against these areas.
    I think, too, it is the most difficult terrain I have ever 
operated in, in my 39 years in uniform. The Pakistan military's 
movement against these folks is continuing. We are now into our 
24th month of unrelenting campaign against them.
    Chairman Levin. But the Pakistanis have not gone after the 
two groups that are giving us the most trouble in Afghanistan. 
Have you pressed on the Pakistan military the importance of 
going after those groups?
    General Mattis. Yes, sir, I have.
    Chairman Levin. There has been a request, as you have 
indicated, to increase the size of the ANSF. You made a 
reference to the request that is under consideration to be an 
increase between 45,000 to 70,000 above the goal set for 
October of this year, which will be met. That target of 305,000 
is already met or will be met easily by October.
    Now when you made reference, when you say you support 
further growth of ANSF, did I understand you then to support 
the growth beyond the October 2011 target of 305,000 and 
somewhere between 45,000 and 70,000 personnel is the target 
that you support?
    General Mattis. Yes, sir, I do. I think, though, we have to 
look at whether or not we can sustain it. I believe that 
President Karzai last week came out of his National Security 
Council and said that he now supports it, and that 
recommendation, of course, will have to be considered by the 
NATO Council.
    Chairman Levin. Right. Now I made reference repeatedly to 
the importance of the July 2011 date for the beginning of 
reductions of American forces in Afghanistan. We heard, as I 
indicated in my opening remarks, from Secretary Gates and 
Admiral Mullen a week or 2 ago that they support the reduction 
beginning in July 2011 of U.S. forces with the pace to be 
determined by conditions on the ground.
    General Mattis, do you support the decision to set the July 
2011 date as the beginning point of reductions in U.S. forces 
in Afghanistan?
    General Mattis. Mr. Chairman, I do support it. I would like 
to say that I support it because it undercuts the enemy's 
narrative. When they say we are there to occupy Afghanistan, 
this helps to deny the enemy that moral victory. I think, too, 
that because it is a conditions-based drawdown that begins this 
year, I am comfortable with it from a military point of view.
    Chairman Levin. Thank you.
    Admiral Olson, do you support that date as the beginning of 
U.S. reductions?
    Admiral Olson. Mr. Chairman, I do. As a beginning to thin 
out the force in order to accomplish a full transition 
eventually.
    Chairman Levin. Admiral, what has been the effect of the 
Afghan Local Police (ALP) effort that the special ops folks are 
so deeply involved in, in the villages of Afghanistan where 
you, working with the Afghans' military and police, are working 
at the local village level to create these local police units? 
Can you tell us about these programs?
    How successful are they? What is the partnership 
arrangement with the Afghans in the operations between our 
special operations people and the ALP?
    Admiral Olson. Mr. Chairman, that is a matter, of course, 
under General Mattis's operational control, but I was just able 
to visit a couple of these ALP sites last week, and my sense is 
that this is having real value at a micro regional level. This 
is an Afghan Government program that is administered within the 
Ministry of the Interior. It is at the local level under the 
district governors, and it is local leaders who recruit and 
select those who will be members of the ALP forces.
    The role of SOF in this is to move to these remote regions 
in small numbers, establish the personal relationships that are 
so important to gain credibility as an advising force, and then 
provide some training and mentorship to these ALP as they gain 
the ability to defend their villages.
    In my opinion, this has had quite a powerful effect 
locally. These are not roaming armies by any means. These are 
certainly locals who have organized themselves under local 
leadership to protect their own neighborhoods.
    Chairman Levin. The partnering issue?
    Admiral Olson. Sir, the partnering is in that there is a 
small team of U.S. forces in a village that is then the 
naturally partnered force with the ALP in that village. They 
stay for months at a time there, and so this becomes a very 
strong partnership. But again, it is an Afghan Government-
administered program with the U.S. forces strongly supporting 
it.
    Chairman Levin. Are Afghans with us in any operation that 
we are involved in?
    Admiral Olson. Sir, in all of the operations that are 
conducted in Afghanistan, there are Afghans involved.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Well, thank you Mr. Chairman.
    As a follow-up to the chairman's question, does it concern 
you, General Mattis, that the defense ministers of various 
allies who have troops and commitments in Afghanistan have said 
to me that, ``Well, if you are going to begin to withdraw, we 
will begin to withdraw as well.'' Is that of concern to you?
    General Mattis. It would be, sir. It is why we have to 
engage with them.
    Senator McCain. So we expect them to stay, while we 
withdraw?
    General Mattis. I think what we want them to do is, as we 
look at the transition process, Senator McCain, we make certain 
in their area that we follow the transition guidelines, and in 
some cases, that may mean withdrawal. In some, it may mean that 
they reinvest the people that they have achieved some success 
with into another area. Maybe that they go into training, that 
sort of thing.
    But there is no misunderstanding that the Americans are 
carrying the bulk of this fight, over 100,000 troops, and I 
think that our commitment is pretty straightforward, both 
fiscally and troop wise.
    Senator McCain. I know Libya is not within your AOR, but 
would you venture an opinion as to the difficulty of 
establishing a no-fly zone?
    General Mattis. My military opinion is, sir, it would be 
challenging. You would have to remove the air defense 
capability in order to establish the no-fly zone.
    So no illusions here. It would be a military operation. It 
wouldn't simply be telling people not to fly airplanes.
    Senator McCain. Declaration of a no-fly zone to the enemy 
would have a significant deterring effect on their desire to 
fly. I think we know that to be the case.
    General Mattis. Yes, sir.
    Senator McCain. Obviously, the events in Bahrain are of 
great concern to you and all of us. How much Iranian 
involvement have you seen in these? I fully understand this is 
a popular uprising, but isn't it into some respects a proxy 
conflict between Saudi Arabia and Iran?
    General Mattis. I think the current Tehran regime is 
incapable of trying to let other nations just take care of 
their own issues. They have to meddle and create mischief.
    The Bahrain situation I think is a legitimate popular 
effort. But I am under no illusions that the Iranians would not 
try to take advantage of this issue or any other, whether it be 
in Lebanon or anywhere else in the region.
    Senator McCain. The loss of the Fifth Fleet headquarters 
would be a significant setback?
    General Mattis. It would be. But right now, sir, from even 
the opposition, our sailors who live out in town, driving to 
and from work, have encountered zero anti-Americanism. I was 
just there about a week ago, and there is no hostility directed 
towards Americans right now--obviously not from the government 
with whom we have been very good friends for 40, 50, 60 years, 
but not from the opposition either.
    It has been heartening, actually. The DOD school has been 
open every day. We are on about the 12th day with no violence. 
So it is not right now something that concerns me.
    Senator McCain. Given the long-term needs of Iraq, how are 
the deficiencies of the Iraqi Security Forces--such as 
maintenance, readiness, intelligence fusion, and particularly 
the building of an air force--going to be addressed absent U.S. 
troops?
    General Mattis. You hit the three points that we are 
concerned with. Under logistics, it is maintenance as well, how 
they keep their gear going. The intelligence fusion and the air 
sovereignty are critical.
    I think right now there are going to be loose ends unless 
the Iraqis ask us to stay and work on these issues. Those loose 
ends would be difficult for them to overcome on their own, sir.
    Senator McCain. Hezbollah is now the dominant actor in the 
government of Lebanon. Do you think the United States should 
continue providing military assistance to the Lebanese air 
forces, armed forces, or is it something we should wait and 
see? What is your view of that situation?
    General Mattis. Well, we saw Hezbollah use threats of 
violence to undercut the government. We are all very much aware 
of that. The new government is still in formation, and we will 
have to take a very close look at how it is organized and how 
it is formed to deal with Lebanon's future.
    I think that an inclusive government is the only option 
that works with the various confessional groups that try to 
share power there. But I believe right now, if we look at the 
example of Egypt, and we look at what happened where we were 
able to maintain, under some criticism that Congress came under 
for giving us the amount of money that we gave to the Egyptian 
military, but we were able to maintain a relationship there 
that paid off, I think, when it came time to see them either 
ethically use their position to help the people of the country 
or what we see in Libya.
    So as we look at Lebanon, where they have never lost track 
of any of the equipment that we have given to them yet--the 
equipment given to the Lebanese armed forces, I think we should 
look at the quality of the government as it is put together, 
recognize that the military can actually be a bulwark against 
malign influence, and act in our best interest once we have 
made that analysis.
    Senator McCain. Have you seen the news reports that a 
number of people were arrested in Iraq as a result of 
demonstrations?
    General Mattis. I have. Yes, sir. The ones on, I think, the 
26th? Yes, sir.
    Senator McCain. So it is of concern that they would be 
arresting demonstrators in a country we expect them to allow 
demonstrations?
    General Mattis. Sir, the demonstrations were not as large 
as we expected, but they were spread all over the country. The 
demonstrations, by and large, were peaceful. The Iraqi Security 
Forces were out, and al Qaeda did not take advantage. I don't 
think they could take advantage of this opportunity to kill 
more innocent people.
    In the midst of that, there were some people who did things 
like stone troops. There were about as many people injured on 
the Iraqi Security Force side, around 50, as there were injured 
total and killed, unfortunately, on the demonstrators' side. 
Those appear to be contained in each case where government 
buildings were stormed. Prime Minister Maliki has said that he 
will investigate each death, each injury, and make certain they 
know what happened in each case.
    So I think right now what we saw was, by and large, a very 
restrained use of force by the Iraqi Security Forces in regards 
to the demonstrators. There was no opening fire on them. It was 
a much more restrained effort. I don't know what all the 
investigations are going to show yet, Senator, but I would like 
to get back to you once I see what we can find through our 
intel sources.
    [The information referred to follows:]

    In coordination with U.S. Forces Iraq, we have determined the 
protests drew approximately 27,000 Iraqi citizens to 43 demonstrations 
across the country. Protestors directed many of their grievances at 
provincial governments. The largest demonstrations were in the cities 
of Baghdad, Mosul, Basrah, and Fallujah. Individual demonstrations 
ranged from a few hundred up to 8,000 protestors. While the protests 
were largely peaceful, 14 of 43 turned violent, usually after the 
demonstrators attempted to enter or damage government buildings. 
Current reporting has determined that 119 Iraqis and 4 journalists were 
detained across Iraq on the day of 25 February. At this time, I do not 
know the specifics of each arrest.
    In several cases, security forces responded to violent 
demonstrators with small arms fire. Prime Minister Maliki has initiated 
investigations to determine what happened in these instances. In total, 
11 Iraqi citizens were killed; 72 citizens were injured, and 45 members 
of the Iraqi Security Forces were wounded.

    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to both of you. General Mattis, thanks for your 
service. Admiral Olson, also let me join those who are thanking 
you for your extraordinary career of service to our country and 
the time particularly in which you have been the leader of 
SOCOM, and through you really to thank everyone who serves 
under you in that command.
    This is a remarkable group of Americans who I have had the 
privilege to meet as I have traveled around, particularly to 
battle zones. Honestly, every day they are performing critical 
and dangerous missions with a remarkable degree of skill, 
bravery, and I would say patriotism, and also, of course, 
effect.
    A lot of that has grown and developed under your watch. I 
can't thank you enough for that, and thank all of them.
    Let me just give you an opportunity to develop a little 
more your metaphor that the fabric is strong, but around the 
edges there may be a little fraying of the SOF. What are the 
specific shortfalls that you would like to see us address to 
make sure that the whole fabric is as strong as you and we want 
it to be?
    Admiral Olson. Thank you, sir.
    I got an email not too long ago from an operational 
commander forward who said, ``Sir, the good news is that the 
demand for SOF is higher than ever. The bad news is the demand 
is higher than ever.''
    As 100,000 U.S. troops came out of Iraq, only fewer than 
1,000 were from SOF. At the same time, we saw a requirement to 
move more than 1,500 into Afghanistan. This is the force that, 
as you said, has earned its way to real importance in terms of 
executing strategies in those conflicts.
    It is at the point where for some elements of our force, 
time at home with their families has become the abnormal 
condition. They have to adjust to being home rather than adjust 
to being away. It is those elements of the force that I am 
seeking to provide some relief for in terms of 1,000 programs.
    There is no magic answer to this. It is gaining a greater 
understanding of what the real issues are. It is shaving where 
we can the number of days that they are away from home for 
training when they are not forward deployed. It is putting more 
predictability into their lives. It is relieving every special 
operations member of any job that can be performed by anybody 
else.
    I do believe that the Services--Army, Navy, Air Force, and 
Marine Corps--could invest in capabilities that would provide 
more habitual, more timely support to SOF. We are in those 
discussions with each of the Services.
    I do believe that the quality of the training, the 
equipment, and the facilities that we provide them is certainly 
a factor in ensuring that this force, in which we have invested 
so heavily for 10 years, will still be with us 10 years hence.
    Senator Lieberman. Well, I appreciate that answer, and I am 
sure the members of the committee look forward to working with 
you and your staff to see if we can help you with some of 
those.
    General Mattis, as Senator McCain said, we had the 
opportunity to travel through some of the Arab world last week 
where these remarkable changes are occurring. My own feeling is 
that while you are right, there is both opportunity and 
challenge, that the opportunity here is greater.
    It is really remarkable to see these peaceful revolutions 
occur, which have to make both the leaders of al Qaeda up in 
the mountains feel that history may be passing them by, but 
also represent a real direct threat to Iran, which I think you 
correctly and characteristically bluntly identify as our 
greatest long-term threat in the region.
    I want to just come back to Libya briefly because I was 
interested that in some of our visits with young people and 
others in Tunisia, Egypt, where these revolutions have 
succeeded, they are watching how the world responds to 
Gaddafi's brutality to his own people. Because they are taking 
it as a sign of if Gaddafi can survive, they worry that other 
leaders in the Arab world will similarly try to repress 
revolutions.
    I know the administration is considering a range of options 
now with regard to Gaddafi. I know Senator McCain asked you 
about the no-fly zone. Have you, in your CENTCOM role, been 
asked to prepare for any activities relating to Libya, 
including, for instance, the provision of humanitarian 
assistance, medical supplies, food, to people in the liberated 
areas of Libya?
    General Mattis. Senator, as you understand, this comes 
under Africa Command's (AFRICOM) AOR.
    Senator Lieberman. Yes, sir.
    General Mattis. I have dispatched ships under the order of 
the Secretary of Defense that could provide options to the 
President. Yes, sir.
    Senator Lieberman. That is reassuring to hear. I know it is 
the AFRICOM. But obviously, you have a lot of assets in the 
region, and I am encouraged to hear that they are moving to be 
available.
    Going back to Iran, for some period of time, there was a 
certain uncertainty, if I can put it that way, about the extent 
to which the Iranians were assisting the terrorists and 
extremists in Afghanistan against us. It was clear that they 
were assisting the Shia extremists in Iraq and, unfortunately, 
have a lot of American blood on their hands as a result.
    Could you tell us a little more now about the state of our 
conclusions about what the Iranians are doing to help the 
Taliban or other anti-government, anti-American forces in 
Afghanistan?
    General Mattis. I can give you an incomplete answer, 
Senator. They have given low levels of ammunition, money, that 
sort of support, improvised explosive device components, to our 
enemies in Afghanistan. At one point, the Taliban and Iran were 
very much at odds with each other, to include the Taliban 
killing a number of Iranian diplomats there in northern 
Afghanistan.
    But the reason I say I am giving you an incomplete answer 
is we are keeping a very sharp eye on some recent information 
we have to see if they are, in fact, elevating their support, 
which would be very, very unwise for them to do.
    Senator Lieberman. Thank you, sir. My time is up.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Again, we would all echo the remarks about your service, 
Admiral Olson. You certainly will be missed.
    When we are talking about the withdrawal of troops in 
Afghanistan, occasionally the President talks about conditions 
on the ground. I am not sure just what is going to happen, what 
these timetables are.
    But I would say this. I have had the opportunity, going all 
the way back to the fall of 2003 when it happened to be the 
Oklahoma 45th over in Afghanistan helping the ANA to train 
themselves, and they were doing really a great job. But each 
year when, we go back and see it, we see this improvement in 
training. I think this really has to be recognized.
    I don't see Senator Hagan here now, but she and I were 
there spending New Year's Eve in Afghanistan and had a chance 
to go down to the Kabul military training center. It is almost 
like looking at a training center here in the United States. I 
am talking about the separation between artillery and infantry, 
how they are doing it.
    We had individual interviews, with interpreters, where just 
at random we would select people, and we saw the enthusiasm 
they have for their quality of training. So I see really great 
improvements in the quality of training over there, and that 
was my personal observation.
    General Mattis, are you as excited about that as I am?
    General Mattis. Sir, the success of this last year, 
especially as we see the Afghan forces coming of age, very much 
is depending upon the training, the superb training, and it is 
going exactly as you say. We now have metrics in place where we 
measure them. Then we are seeing the improved capability in the 
field. It has to be the enemy's worst nightmare.
    Senator Inhofe. Yes, I would say that is true. When we talk 
to these individuals, they want this to be a career.
    When I saw the position that the Egyptian military is going 
to be in during this new transition or whatever we are going 
into right now, I was somewhat pleased with it. One reason is 
that I have been a staunch supporter up here, probably the most 
staunch supporter, of the International Military Education and 
Training (IMET) program and what it has meant. With Egypt, it 
even goes further because we are talking about 3 decades now 
that they have done this.
    My feeling was that one of the great benefits of the IMET 
program is that it develops a relationship between the military 
of other countries. I have seen this throughout Africa and 
elsewhere, which is why we have been wanting to expand it. So I 
felt pretty good about that.
    I noticed that in 2010, our Egypt IMET program was at about 
$2 million and dropped down to about $1.5 million in 2011. I am 
trying to get the figure now as to what is requested for 2012.
    I would like just to get you on the record on your feelings 
about the IMET program and how much that has benefited us, 
particularly with the situation right now as it is in Egypt.
    General Mattis. Senator, I think the IMET program is a 
strategic asset to us, where we bring those officers to our 
country. They go through training and education here. We then 
go on joint exchanges with them back in their country, 
exercises and all, and we see it pay off there.
    But there is a longer-term payoff, and that payoff is when 
I walk into a room as a brigadier general back in 2001, and the 
first discussion I have with a half dozen officers is them 
telling me the best year of their life was in Maxwell Air Force 
Base or in Fort Leavenworth--and we immediately start from a 
position of common understanding. I think this is a strategic 
asset to us that we should certainly maintain full support for.
    Senator Inhofe. All right. I appreciate that.
    Do you echo those sentiments, Admiral Olson?
    Admiral Olson. Absolutely, sir. You can sign me up as a 
member of the IMET fan club. I was in a position long ago, a 
part of the implementation team of IMET in Tunisia, and that 
country was particularly well served by IMET.
    Senator Inhofe. Yes. We were just a couple of days ago with 
Prime Minister Netanyahu. He was referring to the earthquake 
that is taking place right now. When Senator Lieberman was 
talking about the commands, it occurred to me that when we were 
in Stuttgart, we were with European Command, AFRICOM, and 
CENTCOM. You have three commands, really, right now that are 
dealing with this problem.
    Are you guys all talking to each other? Do you feel there 
is no problem in that you are dealing with an earthquake that 
has taken place in three commands?
    General Mattis. Sir, we have a very close working 
relationship, and there is strong collaboration between us.
    Senator Inhofe. Yes.
    Admiral Olson, we also had the opportunity of spending some 
time in Djibouti, and Admiral Losey, I guess it was, spent 
quite a bit of time with us. I was certainly impressed with 
what they are doing there.
    When I look at your statement, it says, ``We now total 
close to 60,000, about a third of whom are career members of 
SOF, meaning that they have been selected, trained, and 
qualified to earn the military occupational specialty or skill 
code identifier of the SOF.''
    Now that would be a third of the 60,000. Tell me a little 
bit about the other two-thirds that are not included in this 
category.
    Admiral Olson. Yes, sir. They are the full range of 
enabling, technical, supportive capabilities--engineers, 
logisticians, administrators, intelligence analysts, 
maintenance crews, and the like--that make the rest of it all 
possible. We are a broadly capable force. We do have our own 
airplanes, our own helicopters, our own boats, our own mini 
submarines. So, this requires a supporting crew that has to be 
quite expert as well.
    Senator Inhofe. Well, we are concerned about your 
resources, that you have them, because we know what your 
mission is and what you have been able to do. Is everything 
going all right in terms of retention and recruiting?
    Admiral Olson. Sir, the recruiting is good. The recruiting 
has been pretty consistent over the last decade, even 
consistent across the 9/11 attacks. Retention has been pretty 
good. It has been above the service averages in almost every 
category.
    Senator Inhofe. Which is very good, too.
    Admiral Olson. Yes, sir.
    Senator Inhofe. Yes.
    Admiral Olson. We are beginning to see at the mid-grade 
level, sort of the 8 to 10 years of service point, a slight 
leveling off of the retention.
    Senator Inhofe. All right. Thank you.
    My time has expired. But if you, maybe for the record, 
could elaborate a little bit on your numbers that you have 
right now as you look into the future and how this--whether the 
60,000 is going to be--increasing it, if that is going to be 
adequate, for the record.
    Admiral Olson. Sir, for the record, in my opinion, it is 
adequate. I believe that the key to special operations 
capability beyond our current numbers is mostly in terms of 
supporting special operations from the much broader range of 
capabilities within the department, with habitually assigned 
units that are timely in their response, that understand what 
special operations is and how to support special operations 
requirements.
    I am calling this the ``special operations force generation 
concept'' and working with each of the services on how they can 
contribute to that and how we can contribute to their force 
generation cycles, as that is appropriate.
    The specific answer to your numbers question is that--and I 
am on record before this committee now in 3 previous years as 
saying we should not, we ought not grow more than 3 to 5 
percent per year in our manpower because of the quality that we 
need to maintain as we do that. We are projected to do that for 
the next 3 or 4 years.
    Senator Inhofe. That is good. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Also let me add my appreciation, Admiral Olson, for your 
service and best wishes for your future.
    IMET is a very important part of what I would hope to be 
our outreach to the world in a way that makes good sense. I 
have had military officials from Egypt in my office before who 
have been here getting the IMET training, and I have been 
impressed with their appreciation and their understanding of 
what kind of military--or what the military should do in 
connection with government.
    My question would be do you think that the difference 
between the way the military has behaved in Libya and the way 
military behaved in Egypt is, at least in part, due to their 
IMET training?
    General Mattis?
    General Mattis. I think there is no doubt it has 
contributed, sir. Each nation has its own history, its own 
culture. But I think the ethical performance by the Egyptian 
military was impacted by their time spent in our schools over 
these last decades.
    Senator Nelson. The same would be true in the case of 
Tunisia as well?
    General Mattis. Yes, sir.
    Senator Nelson. Do we have any plans to try to expand the 
program? I know resources are tight right now. But one of the 
best ways of avoiding future expenditures is to have ethical 
military operatives in other countries. Are there any plans 
that you are aware of to expand this to perhaps some other 
countries where there is an interest?
    General Mattis. I am not aware of plans to expand it. Of 
course, the Secretary of Defense can open the door to different 
countries at different times, give them more school seats, that 
sort of thing. I think it would be a resourcing issue. You 
would have to have more instructors, more classrooms, this sort 
of thing. I think it is worth looking at, but I am not aware of 
any plans right now to do so, Senator.
    Senator Nelson. Well, we will try to take this up with the 
Secretary. I appreciate, though, your response.
    General Mattis, I have been a strong proponent of 
benchmarks with metric measurements for Afghanistan and 
Pakistan. I had support for those in Iraq as well, and I am 
interested in your evaluation of the benchmarks.
    The last report was in November 2010, and it is my 
understanding the next report will be provided in April of this 
year. So perhaps I am a little ahead of the report progress. I 
would like to know whether or not the report in November stated 
that the assessment of governance in focus districts showed 
that 38 percent of the population lived in the areas rated as 
having emerging or full-authority Afghan governance.
    It reflects no change through March 2010. I wonder are we 
trending up, or are we flat-lined, or are we trending down at 
this point? I am talking about both Pakistan and Afghanistan. 
There may be a difference in each of the countries.
    General Mattis. Oh, there is significant difference, sir. 
Let me address Afghanistan, where General Petraeus and 
Ambassador Eikenberry lead our effort in supporting the Afghan 
governance. I will tell you that this is receiving a lot of 
attention. We are making progress.
    I believe it is lagging behind the security effort. I think 
that is somewhat understandable. You don't get governance in 
until you get enough security that people can, without concern, 
carry out the governmental functions.
    At the same time, we are dealing with a country that 
probably took several hundred billion dollars' worth of damage 
during decades of war, according to the International Monetary 
Fund. When you translate that into the human damage and the 
damage to the people, the education system, this sort of thing, 
it is a long, hard slog to create the kind of governmental 
organizations and the right people who can then create the kind 
of progress that will reflect in those metrics, sir.
    The Pakistan military is where I have most of my 
connections. But from what I read, I have concerns about 
Pakistan's governance and their ability to meet the needs of 
their people. I believe right now that President Karzai may 
actually be in a better position on this than the political 
leadership in Pakistan.
    Senator Nelson. Both Afghanistan and we depend on the 
Pakistani military and the Pakistani Government to be able to 
take care of those largely isolated areas--I guess Swat and the 
particular areas there--where there are safe havens for al 
Qaeda, the Taliban, and other hostile operatives. That makes it 
much more difficult for us to be able to contain and degrade 
and defeat that enemy. Is that fair?
    General Mattis. It is very fair, sir. Again, it is the 
Federally Administered Tribal Area (FATA), which 
constitutionally is under a different sort of governance even 
within Pakistan.
    Further, I think the impact of the floods this year--we 
served alongside the Pakistan military that performed very well 
providing relief and life-saving efforts. But those floods, 
which were enormous in their impact--the worst in a hundred 
years--I don't know that once the Pakistan military had done 
what they could do in terms of saving the people from those 
floods, that there was a sufficiently robust governmental 
response then to help those people put their lives back 
together.
    Senator Nelson. So the attitude towards the government may 
not be as strong as it could be if the government had a strong 
follow-up response?
    General Mattis. I believe you are right. I don't have the 
data. I haven't looked at it specifically. But I believe you 
are correct, Senator.
    Senator Nelson. Okay. My final question, General, is that 
as we trend out of Iraq and we come upon December 31, there is 
some concern that maybe the Iraqi Government will ask us to 
remain. I don't have any indication of that, but just a general 
concern that perhaps their security is not sufficient for them 
to be able to self-govern.
    If that is the case--and I asked this of Secretary Gates 
recently. If that is the case and we are in a position where we 
might make the decision to stay, I would hope that we would do 
so, recognizing that from that point forward, that we would 
expect the Iraqi Government to pick up a bigger share of the 
cost that we would incur.
    It is my understanding they are dealing with a deficit 
there, just as we are here. But it only adds to our deficit. If 
I have to choose between mine and theirs, you know what I am 
going to choose. If that happens, I would hope that we would be 
thinking about how we can make certain that the Iraqi 
Government picks up a bigger share of any costs that we would 
incur going forward.
    That is less a question more than a wish. In that regard, I 
hope that you will keep that in mind because, obviously, it 
will come indirectly under your jurisdiction. Have you had any 
thoughts about that? Should we be asked to stay?
    General Mattis. I haven't looked specifically at your 
point. However, there is clearly an increasing sense of 
responsibility by the Iraqi Government toward resourcing their 
own security forces. I think that would be a natural part of 
the negotiations between the two governments if we were asked 
to stay.
    Senator Nelson. Yes, I would hope that we would make that a 
part of the negotiations because that is what we would have to 
do. We can't just assess it. We would have to have a common 
agreement.
    General Mattis. I have it, sir. Thank you.
    Senator Nelson. Well, thank you, General Mattis, and thank 
you for your service and all the men and women under your 
command. We appreciate their continued sacrifice and service, 
and their families as well. Thanks.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I also want to commend Admiral Olson and General Mattis for 
your distinguished service to our country. Please express our 
gratitude to all the troops that serve underneath you for all 
that they are doing to protect our country.
    In recent hearings, Secretary Gates as well as Secretary 
Vickers have testified that approximately one out of four 
detainees who have been released from Guantanamo have gotten 
back into the fight. Admiral Olson or General Mattis, could you 
tell us a little more about what are the details regarding some 
of these detainees who are joining the fight?
    Have there been examples where some of these detainees have 
actually injured or killed American troops that have been 
returned back into the fight?
    General Mattis. Senator, the best data we have would show 
approximately 25 percent have either returned, and we can 
confirm it, or we strongly suspect they have returned.
    Twenty-five percent is a concern to all of us involved in 
this war because it reinforces the enemy. It gives people some 
degree of credibility because they have been in our hands. They 
have gotten out.
    So, yes, ma'am, it is a big concern.
    Senator Ayotte. Have there been examples where some of 
these detainees who have returned to the fight have actually 
injured our soldiers or killed our soldiers?
    General Mattis. I don't have a specific example of that. 
However, for example, we know one of them is the number two 
person in AQAP. Clearly, he is engaged in trying to do so. If 
he hasn't, it is just because he hasn't been successful yet, 
but his intent is exactly what you are suggesting.
    Senator Ayotte. He is obviously directing members of al 
Qaeda to kill American troops. That is a deep concern, given 
that we released him from our detention facility.
    I am deeply concerned about our policy toward detainees and 
release back into theater, and I think that the least we can do 
for our troops is to hold those who are dangerous and not allow 
them to get back into theater to harm our troops. It is 
certainly something that I look forward to continuing to work 
with others in the Senate to make sure that we have a sensible 
detention policy that doesn't allow these terrorists to get 
back into theater.
     General Mattis, I know that we have emphasized that, of 
course, Libya is not directly in your responsibility. However, 
you mentioned that recently you have dispatched ships to 
provide options and assets in the region itself.
    Last week, there were many nations who were sending 
military aircraft and ships to Libya in order to evacuate their 
own citizens that were in Libya. As I understand it, we sent 
and chartered a civilian ferry to try to take the civilians 
that were in Libya, U.S. citizens, to get them out of Libya. 
Yet that ferry actually couldn't depart port for 2 days due to 
high winds and waves.
    Are you aware whether certain nations, including Germany 
and Great Britian, actually sent military assets to be able to 
get its citizens out of Libya?
    General Mattis. Senator, I am not aware of the specifics 
here. As you will understand, I have been a little busy in my 
own theater. But I think what you are saying is about right, 
but I can't confirm it.
    Senator Ayotte. Do you know if we had wanted to, whether we 
could have sent military assets to be able to get our civilians 
out of Libya, as other countries did?
    General Mattis. Ma'am, again, I don't keep the 
Mediterranean picture. I am not current on it. So I don't know 
what ships or aircraft were available at what time and where 
they were and what airfields were open. I really can't give you 
a good answer on that.
    Senator Ayotte. Okay. But you are now, of course, sending 
some of our CENTCOM assets over to assist in that area, as you 
testified earlier?
    General Mattis. Yes, ma'am. We have. Those were to give 
whether it be humanitarian or whatever options the President 
may want. Those assets have been sent through the Suez Canal.
    Senator Ayotte. Had you been asked to do that last week, is 
that something you would have been able to do earlier last 
week, as opposed to where we are now?
    General Mattis. Yes. Well, ma'am, the way it comes to me is 
not as a request, frankly. I get orders. But, yes, ma'am, we 
can do it on order. Obviously, I have my own requirements in 
the theater. It is always a balancing act that the Secretary 
has to go through between different combatant commanders.
    Senator Ayotte. General, you would have certainly had the 
capability of doing it last week, as opposed to where we are 
right now?
    General Mattis. Yes, ma'am.
    Senator Ayotte. Thank you very much. I appreciate both of 
you testifying before the committee today.
    Admiral Olson and General Mattis, thank you so much for 
your distinguished service to our country.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, Admiral, greetings. I am hoping that you can help 
provide us a little bit of focus in terms of how we are going 
to approach similar situations in the future.
    Not long after September 11, a coalition of Afghan forces, 
assisted by a handful of special operators, Forward Air 
Controllers, kicked out the Taliban in a matter of a few weeks. 
We were the enablers, for lack of a better term, not the 
instruments or the creators, of societal change in that 
evolution.
    We took a different approach in Iraq. We are taking a 
different approach today in Afghanistan. We have undertaken a 
duty, I understand, what I would call the concept of negligence 
in the law. Once you undertake a duty, if you don't see it all 
the way through, you are guilty of negligence. At the same 
time, we need to really start looking at the future in terms of 
how we are going to use our military.
    Secretary Gates made a speech at West Point recently, 
indicating that, in his view, this troop-heavy concept read 
pretty much nation building is not a model that should be 
applied in the future with respect to issues of international 
terrorism. At the same time, General Casey, over the past day 
or 2, mentioned that he wouldn't be surprised to see 100,000 
Army soldiers deployed in these types of operations 10 years 
from now.
    I would like to hear your thoughts on where should we be 
moving here in terms of the use of our ground troops in issues 
of combating international terrorism? General?
    General Mattis. Senator, I think, as we look toward the 
future, I have been a horrible prophet. I have never fought 
anywhere I expected to in all my years.
    I believe that we have to take each situation on its own, 
and we have to define the problem to a Jesuit's level of 
acceptability. It has to be defined to a point that the 
solution is very clear in terms of what is the strategy we must 
adopt. The strategy, of course, is what are the ends, and what 
are the means to get there?
    The one caution I would give, having studied this problem, 
is that we cannot marry one preclusive view of war and preclude 
other types and say we just won't do that because the very 
nature of war is the enemy will gravitate toward our perceived 
weakness. We are going to have to have a force that has a 
built-in shock absorber, basically can go anywhere and do 
anything, at the same time have a moderating impact on our own 
strategy, so we don't try to go anywhere and do everything.
    It has to be a vital national interest, and we have to make 
sure we have a force that is a general-purpose force that does 
not allow the enemy to think that we are leaving some form of 
warfare uncovered and then works against us in that direction.
    Senator Webb. I wouldn't disagree with you on that at all. 
At the same time, I can recall having written a piece the day 
after September 11, discussing how to deal with international 
terrorism, and two of the concepts in that--you build your 
strategy off of operational concepts and the enemy that you are 
facing.
    Two of the clear concepts in that was, number one, you have 
to maintain your maneuverability, and, number two, when you are 
fighting a mobile enemy, you are at risk whenever you occupy 
territory and then have to defend the territory that you are 
occupying. I think that those are the decision points moving 
toward the future.
    Admiral, do you have any thoughts on that?
    Admiral Olson. Sir, I think when the enemy is a ponderous, 
state-sponsored, uniformed, organized fighting force, it may 
require a similar force to defeat it. But I think that is less 
likely in the future. I agree with Secretary Gates on that.
    We are much more likely to see the less regular kinds of 
warfare--the cyber warfare, the terrorist warfare, the non-
state sponsored warfare--to which the best solution is often 
enabling another country's forces to deal with it in that 
region and being, as you said, the supporting force, not the 
supported force in that fight.
    Senator Webb. Again, clearly, in terms of international 
terrorism, the whole operational concept is to not align 
themselves with a state.
    By the way, I would not in any way disagree with what 
General Mattis just said about keeping all your options on the 
table. But it just seems to me with the variety of threats that 
face us right now, the type of response that we have made over 
the past 8 or 9 years is not a workable model. It concerns me a 
good bit.
    General, I want to ask you a question about Pakistan. I 
have raised a number of questions over the past 2 years about 
the transparency of our funding in terms of assistance to 
Pakistan. Are you comfortable with the transparency of the 
money that is going into Pakistan, and that you know where it 
is going?
    General Mattis. I am, Senator; they don't do it by 
computer. So it is all written out by hand, and we track it 
right down to the end user.
    I have some of the most aggressive colonels and majors you 
can imagine in Islamabad working under my vice admiral there 
who track this, and we routinely reject requests from them for 
reimbursement.
    I know it is not where they just walk in with a bill and we 
pay it. Sometimes the ones we want more evidence of outweigh 
the numbers that we just accept and say, ``Yes, we know you did 
these things. So we are going to pay you.'' For example, fuel 
for our forces and that sort of thing that comes in.
    So, yes, I think we do have a very good feel for whether or 
not we are reimbursing real costs vice any fraudulent costs.
    Senator Webb. We have seen news reports that Pakistan has 
doubled its nuclear arsenal in recent years, as we have been 
providing assistance in other areas. Do you have any worries 
that our assistance to Pakistan has allowed them to fund 
programs such as their nuclear program?
    General Mattis. I am confident there is no direct funding 
going to their nuclear program because of my confidence in 
tracking the costs we are reimbursing them for now. Obviously, 
they have their own funding, and whether or not they would 
spend some of that elsewhere, if we weren't reimbursing----
    Senator Webb. Right. I understand that direct money would 
not be going over there. The concern that I have is that if we 
are funding programs that they otherwise would be funding and 
they are able to take that money in order to increase their 
nuclear arsenal, it is not a healthy situation for the region 
and for us, in my view.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    General Mattis, let me follow up on a line of questioning 
Senator McCain began. I was not in the room at the time, but I 
understand that he got a brief answer to this so-called day of 
rage in Iraq.
    Let me see if I could explore this a little further. In 
particular, I would point out a Washington Post Foreign Service 
story that appeared on Saturday, February 26, in which it is 
reported that Iraqi Security Forces detained hundreds of 
people, including prominent journalists, artists, and 
intellectuals, in demonstrations that brought thousands of 
Iraqis to the streets and ended with soldiers shooting into 
crowds.
    It goes on to say that this involved more than a dozen 
demonstrations across the country that killed at least 29 
people, as crowds stormed provincial buildings, forced local 
officials to resign, freed prisoners, and otherwise demanded 
more from a government they only recently had a chance to 
elect.
    Is this, in your judgment, General, an isolated incident? 
Or is it an example of the contagion that is sweeping the 
entire region? What does it say about the popular support of a 
government which recently was subject to election?
    I understand the complications after the elections of the 
government being formed in a very fragile manner without a 
clear consensus. How accurate is this depiction? How worried 
should we be that this country, where we have invested so much 
of our blood and treasure, might be just as unstable as some 
other regimes?
    General Mattis. Senator, I can't comment directly on the 
accuracy of the story because the word that I have is there 
were dozens of demonstrations. But I take that as a positive 
sign. Those did not happen 15 years ago under Saddam.
    It is a nascent democracy. It is the one that has been 
through a very violent era. A critical part of our training of 
the Iraqi Security Forces has been the ethical use of force. 
They are also still operating against a very capable terrorist 
enemy.
    For example, the minister of defense of al Qaeda in Iraq 
was killed on that day--I believe it was on that day--by Iraqi 
Security Forces. It was a very good event for us.
    Senator Wicker. Was he part of the protests?
    General Mattis. He was not. But my point is that the enemy 
operates in this country, even as the people are trying to 
exercise their freedom to protest. I believe, from what I am 
told, that the number of Iraqi Security Forces injured and the 
number of demonstrators injured and killed is about the same.
    The reason I bring that up is that that is oftentimes an 
indicator of whether or not a military just opened fire on a 
crowd. You open fire on a crowd with an automatic weapon, and 
the casualties are going to be significantly higher than the 
ones reported either by the government or by the newspaper 
article.
    Frankly, I wasn't ready for your question. I need to go 
back and check and see if I missed something in our assessment 
of what happened that day. I need to get back to you, Senator, 
because the numbers you are citing are higher than what I was 
told.
    Senator Wicker. I see.
    General Mattis. In most cases, it was when a government 
building was attacked, and most of the injured soldiers were in 
place, were injured by rock throwing. So that is the kind of 
the framework I am looking at it through.
    Senator Wicker. So I can expect you to supplement your 
answer on the record, and I appreciate that.
    [The information referred to follows:]

    In coordination with U.S. Forces Iraq, we have determined the 
protests drew approximately 27,000 Iraqi citizens to 43 demonstrations 
across the country. Protestors directed many of their grievances at 
provincial governments. The largest demonstrations were in the cities 
of Baghdad, Mosul, Basrah, and Fallujah. Individual demonstrations 
ranged from a few hundred up to 8,000 protestors. While the protests 
were largely peaceful, 14 of 43 turned violent, usually after the 
demonstrators attempted to enter or damage government buildings. 
Current reporting has determined that 119 Iraqis and 4 journalists were 
detained across Iraq on the day of 25 February. At this time, I do not 
know the specifics of each arrest.
    In several cases, security forces responded to violent 
demonstrators with small arms fire. Prime Minister Maliki has initiated 
investigations to determine what happened in these instances. In total, 
11 Iraqi citizens were killed; 72 citizens were injured, and 45 members 
of the Iraqi Security Forces were wounded.

    Senator Wicker. As to the larger question, though, sir, of 
whether we need to be concerned about this government falling, 
much as governments in the region have toppled and are toppling 
one by one, what is your informed judgment as to the larger 
question?
    General Mattis. Well, the election was very close. It took 
months--I think 8, 9 months--to actually get a government 
formed. In close elections in a parliamentary system, that is 
understandable. I think it is still a work in progress.
    The performance of the Iraqi Security Forces during that 
long period, when there was just basically a caretaker 
government at work, gives me some degree of confidence that the 
security forces can protect this nascent democracy as it grows 
its roots. But one or two elections doesn't make a democracy, 
as we all know, and there is a lot of work that still has to be 
done. Right now, I do not think that it is in danger of 
falling.
    Senator Wicker. To what extent are the supporters of Mr. 
Allawi supportive of the government as it finally emerged?
    General Mattis. I think that is still a work in progress as 
well, as we see where Mr. Allawi falls out in the organization 
of the government. I spoke with him about 2 months ago in 
Baghdad, and he was still relatively positive at that time that 
he was going to have a meaningful role. That would bring the 
people you are referring to onboard with him.
    Since then, it has been difficult to see progress, but I 
think it is always slower than we want to see. I think there is 
still progress along those lines, but I don't know where it is 
going to fall out right now. I think it is still too early to 
say.
    Senator Wicker. Finally, to what extent do we need to be 
concerned about Iran attempting to influence the foreign policy 
of Iraq?
    General Mattis. I have no doubt that Iran will attempt to 
influence the foreign policy and domestic policy of Iraq.
    Senator Wicker. Is this a serious problem or simply one of 
the many concerns that we have?
    General Mattis. I think Iran is going to be left behind by 
this contagion, as you described it, sweeping across the 
region, as they find that people are not interested in 
exchanging one authoritarian for one like in Tehran. So I think 
they have as much to worry about from this contagion.
    Actually, I think, in many cases, the Iraqi people are 
quite capable of making up their own mind without Iranian help, 
and that will continue to manifest. I am not naive about Iran's 
intent here.
    Senator Wicker. I hope you are correct. Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I certainly want to thank Admiral Olson and General Mattis 
for your excellent service to our country. Thank you so much.
    The Marine Corps Forces Special Operations Command (MARSOC) 
was established in 2005 and is headquartered at Camp Lejeune in 
North Carolina. Some have suggested that MARSOC personnel 
should be special operations for life, rather than rotating 
through the command on a rotational basis as they are currently 
doing.
    They argue that this would help SOCOM create and retain 
personnel within the special cultural and language skills that 
are critical for success in irregular warfare and the foreign 
internal defense missions.
    Admiral Olson, what is your assessment of the progress made 
in standing up and growing MARSOC, and how are they unique 
within the SOF? Could you also give me your thoughts on whether 
the Marine operators should be special operations just for 
life, just as in the Army?
    Admiral Olson. Thank you, ma'am.
    First, I would say we can be very, very proud of the way 
that MARSOC has been established. It did just celebrate its 
fifth birthday last month, and they have made tremendous 
progress.
    They have been deployed at the battalion level now for over 
a year with tremendous effects in western Afghanistan and 
earning an awful lot of respect from the forces with which they 
serve. It has been a very close partnership between SOCOM and 
the U.S. Marine Corps in building the MARSOC to the extent that 
it has so far.
    The Commandant of the Marine Corps has recently approved a 
military occupation specialty for those who have been through 
selection and advanced training to be members of the MARSOC, 
which will help us track and retain selected members of that 
community. I do believe that SOF for life is a concept that 
ought to be limited, that there is great value to circulation, 
that it is good for SOCOM to circulate people through its 
community back out into the big services and to bring people 
from the big services into our community so that we are not 
guilty of spinning a cocoon too tightly around ourselves in the 
special operations community.
    I am quite comfortable with the way it is going now. Even 
those who are in for sort of one tour in the MARSOC, that is 
now at least a 4-year tour and in some cases 5 years, which 
goes beyond some of the other services in many cases.
    Senator Hagan. Thank you.
    On February 17, Secretary Gates indicated during his 
testimony before this committee that it is unsustainable for 
the United States to fund a sizable ANSF indefinitely. He 
suggested that perhaps the United States could temporarily fund 
the ANSF as a sort of surge in security assistance and then 
reduce that as conditions in Afghanistan improve and as the 
ANSF becomes more capable.
    General Mattis, can you elaborate on what Secretary Gates 
discussed on February 17?
    General Mattis. I can, Senator. If you look at what has 
happened with the Taliban, beaten down badly in 2001, was able 
to regain its balance and come back strongly, and then over 
this last year or 2, we have reversed their successes.
    So we have surged our own military. NATO has surged. The 
troop-contributing nations have--about 100,000 United States, 
about 50,000 non-U.S. coalition. We have about double that on 
the part of the Afghans.
    What you are seeing is we are going into a critical time, 
and we are going to have to fight it out. As the enemy loses--
and they will lose--we will succeed. Then there is going to 
come a point where you don't need as many international troops 
and eventually, perhaps, not as many Afghan troops and police 
because the enemy has been taken down. So the idea that 
Secretary Gates explained about a surge right now shows the 
normal ebb and flow that could result as a result of this kind 
of war, as the enemy's fortunes start going backwards.
    Senator Hagan. You said that you thought the ANSF could 
also, at some point, reduce its numbers?
    General Mattis. Well, I believe that at some point after 
the country gets more mature, it has more opportunity for young 
people. So there is not the breeding ground there for young 
guys to go join the extremists. Then the demand, the 
requirement for the size of those forces could well drop off.
    Senator Hagan. Thank you.
    Admiral Mullen has indicated that the longstanding U.S. 
military-to-military relationship has contributed to the 
professionalism of the Egyptian military. Experts have 
indicated that it is important to sustain Egypt's annual 
military aid because regardless of how events unfold in Egypt, 
the military will likely preserve its unique position within 
the governing system.
    They have also argued that freezing military aid to Egypt 
undermines the leverage that our Government has to promote an 
effective transition and to persuade the Egyptian armed forces 
to abide by the peace treaty with Israel.
    General Mattis, what is your position on the future of the 
U.S.-Egyptian military-to-military relationship? How might 
restructuring the foreign military financing allocation to 
Egypt impact our strategic objectives in the country, as well 
as the Egyptian-Israeli peace treaty?
    General Mattis. Senator, I believe that we should remain 
relentlessly engaged with the region. This is not the time to 
pull back.
    I am on the phone, for example, with General Anan, the 
chief of defense of the Egyptian military, on a routine basis. 
I have seen him in Egypt. There is a degree of professional 
respect there that allows us to have very candid discussions.
    He has been very proud of the fact that they are a 
caretaker military government. They are going to move quickly 
toward elections. I don't think you can disconnect that from 
the experiences of his officers, who have spent years in our 
country going through schools. I think that right now the 
military-to-military relationship and the ethical performance 
of the Egyptian military are very tightly tied together.
    This has to do with regional peace. This has to do with 
Middle East peace, as you know so well from decades of peace 
between Egypt and Israel. I endorse what we are doing right 
now, and I think we should continue.
    Senator Hagan. As far as the treaties, do you feel 
confident that they will abide by these treaties?
    General Mattis. Yes, ma'am, I do. It is in Egypt's best 
interest as well. But I am hesitant to get into the political 
arena and start forecasting things.
    Without a doubt, our military-to-military relationship, I 
think, is helpful in terms of being a stabilizing force and, I 
might add, with a force that used its authority in an ethical 
manner when a crisis came.
    Senator Hagan. They did. Thank you.
    My time has expired.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I join in thanking both of you, Admiral Olson and General 
Mattis, for your service and the service of the courageous and 
dedicated men and women under your command. I want to ask a 
couple of questions about those men and women who are serving 
and sacrificing so courageously.
    Admiral Olson, last year, I believe you testified that the 
SOCOM's Care Coalition was supporting 2,800 wounded SOF 
officers through a clearinghouse that works to increase the 
likelihood of their returning to service or having lives 
afterward. I think that clearinghouse exemplifies one of the 
SOF truths, which is that humans are more valuable than 
hardware, an emphasis that I certainly appreciate.
    I wonder if you could share with the committee an update on 
what SOCOM is doing to manage the kind of care, medical care, 
counseling, and other kinds of care that are necessary for 
these wounded warriors?
    Admiral Olson. Thank you, Senator.
    I thank you for highlighting the Care Coalition. It was 
actually mentioned by Admiral Mullen as the gold standard for 
DOD, and we are quite proud of it.
    Part of the true value of the Care Coalition is that the 
population with which it works is small enough that the 
relationships are personal. So that when somebody calls the 
Care Coalition for some help, a wounded or a family member, 
they are known to the Care Coalition. It is difficult to scale 
this up too much, but so far, it is within a manageable level 
that has been quite effective.
    What they do is serve as advocates for the wounded and 
their families. They connect those who have need with those who 
are willing to provide for needs. So your term ``brokering'' 
and ``broker house'' is an accurate one.
    In addition to that, we are investing more heavily than in 
the past in rehabilitation facilities, in physical therapy 
experts, and technicians at the unit level so that those who 
need that frequent assistance have access to it on a daily 
basis. That has been hugely effective in accelerating the 
ability of our people to return to duty.
    It is reality that the instinct of virtually all of our 
wounded is to ask ``How soon can I get back to my unit?'' So, 
providing them accelerated opportunity to do that has become 
very important.
    Senator Blumenthal. Admiral Mullen testified not long ago 
before this committee about the difficulty of identifying some 
of the wounds, particularly when they involve traumatic brain 
injury or post traumatic stress. Can you give the committee 
your assessment of how adequate, how effective the means are to 
diagnose and identify those kinds of problems?
    Admiral Olson. Senator, frankly, I think we are very 
inadequate. I think the data does not collect in a meaningful 
way the information that we need to not only be responsive but, 
perhaps more importantly, to be proactive and preventive in 
dealing with those who have suffered psychological trauma as 
well as physical trauma.
    I have established what I call the ``pressure on the force 
task force.'' This is a tiger team that is going from unit to 
unit now. I will get a report back from them in about 90 days. 
What I have asked them to do is ignore the data and do sensing, 
rely on leaders, intuition, on the experience of teammates, and 
spend real time with the families, to include the children, to 
gain an understanding of what really is happening in the force.
    I don't want to get out ahead of that because I don't want 
to taint the responses to the surveys. But I do look forward 
very much to receiving the recommendations from that team.
    Senator Blumenthal. Your testimony speaks very powerfully 
to the potential of new developments actually on the 
battlefield as well as afterward in medical advances, potential 
research and development, and technology and so forth. Can you 
elaborate on that and also give us your assessment on whether 
the resources in the 2012 budget are adequate for that purpose?
    Admiral Olson. Sir, I would ask that the 2012 budget be 
supported. I don't have a strong sense of the adequacy 
precisely, but I believe that there is enough request in the 
budget to give us room to move with respect to that.
    In terms of medical advances, I do believe that biomedical 
research is a very important undertaking for the military, that 
we have experiences that are unlike civilian medicine and that 
any investment in military biomedical research is a good 
investment.
    Senator Blumenthal. Thank you.
    General Mattis, in light of what we are seeing in the world 
today, the recent transit through the Suez Canal of Iranian 
naval vessels, the ongoing attacks by Somali pirates, and other 
developments that affect our lines of communication and 
transport at sea, I wonder if you could share your views on the 
adequacy of the Navy's funding request with respect to 
submarine operations and undersea warfare for this fiscal year 
and the next.
    General Mattis. Senator, I have not looked at the Navy's 
request because, as a combatant commander, I only look at 
whether or not they are filling my requests with those ships 
they have today. I am somewhat in the current fight. I will 
tell you that I get what I need when I ask for it.
    But clearly--CENTCOM's future will be an increasingly naval 
future. It will not be one in which we have significant numbers 
of ground troops on the ground in various locations. So, how do 
we maintain a Navy that has the reach and can sustain our 
influence, reassure our friends, and temper any mischief by our 
enemies, make certain that they realize there is a cost? I 
think that is critical in the CENTCOM future.
    Senator Blumenthal. Thank you very much. My time has 
expired, but I just want to thank both of you.
    Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    I want to thank both of you. I just returned from 
Afghanistan and Pakistan. I can't tell you how impressed I was 
at the quality of people that we have--our men and women, all 
of you who are leading them, and the job they are doing.
    With that being said, I am going to ask some questions. We 
will try to keep the answers as brief as possible to try to get 
through these.
    First of all, I will ask both of you, are we fighting a war 
on terror, or are we nation building? I will start, Admiral, 
with you.
    Admiral Olson. My responsibility is in both arenas. We 
present the SOF in two flavors. One is simply the strike 
flavor, the man hunting, the hunting aspect of 
counterterrorism. But at the same time, we are out in the 
villages and remote areas, working with locals to develop their 
own resources and look after their own neighborhoods.
    Senator Manchin. General?
    General Mattis. Sir, we are fighting a war that is unlike 
conventional war. It requires both counterterrorism and 
counterinsurgency efforts. Part of that would be seen as nation 
building, but you have seen it in action over there. Whatever 
it is called, it checkmates the enemy's designs.
    Senator Manchin. The other thing I would ask is the size. 
Can you all identify the size of our enemy and how much our 
enemy is being funded by--their cost of their operation against 
us?
    General Mattis. Identify the size of the enemy?
    Senator Manchin. Is there 10,000 of them versus 100,000 of 
us? Are they getting $100 million, and we are spending $100 
billion?
    General Mattis. I will have to take the question for the 
record, sir. There is a syndicate of organizations. Al Qaeda 
has been--pretty much been pushed down, beaten down. They are 
in a kind of hang-on up in the FATA right now.
    Haqqani network is still robust, kind of their special 
forces. They are linked to the Taliban in Afghanistan, who are 
also linked to the Taliban in Pakistan. It is a syndicate. It 
comes together. It goes apart. It fights each other. It fights 
us. It is hard to get an exact count. It will take me a little 
time, but I will get you our best estimate on each of those 
groups in that syndicate.
    [The information referred to follows:]

    [Deleted.]

    General Mattis. As far as the cost, I think it is very 
difficult to evaluate the cost. But clearly, I think we have to 
look in the future to how do we become cost imposing, use cost-
imposing strategies on an enemy, rather than being in the 
position that you just described.
    [The information referred to follows:]

    In coordination with the AF/PAK Center of Excellence at U.S. 
Central Command, the U.S. Special Operations Command Joint Intelligence 
Center Special Operations Command estimates that the Taliban and 
insurgent forces inside of Afghanistan is between 22,000 to 32,000 
fighters.

    Senator Manchin. Let me just say, if I can, the best I 
could decipher from what we were getting information is I think 
it is fair to say that we have about 10 to 1 of the troops 
superior. We have about 10 troops for their 1 identified. We 
spend about $10 for their $1. It looks like money is not going 
to win this war. Is that a fair statement, Admiral?
    Admiral Olson. Sir, I would have to take, for the record, 
your numbers to confirm or deny that. I do believe that the 
presence in a variety of capacities and the whole of nation 
approach to Afghanistan is very important. I do believe that it 
is less expensive to fund an insurgency than a 
counterinsurgency, certainly.
    Senator Manchin. If I may ask this question, and this will 
be to you, Admiral. I was so impressed with special ops. We 
were privileged to go through a briefing and watch how they 
operate.
    With that being said, do you believe that you all are able 
to identify the Haqqanis and Quetta Shura tribes, if you will, 
and their location within Pakistan and your inability to go get 
them or them to assist you in getting them? Is there any break 
in that whatsoever?
    Admiral Olson. Sir, I would say that Pakistan is a 
sovereign nation and will, as sovereign nations do, act in its 
own best interests first. It does not see itself as threatened 
by those groups, as our forces feel they are threatened by 
those groups. We are willing to assist Pakistan at the rate 
that they are willing to accept our assistance, sir.
    Senator Manchin. So, basically, we have an ally who truly 
is not acting as an ally. This is just from an outsider's 
opinion and looking at the operation of our people being at 
risk, knowing where the enemy is, and we can't do anything 
about it.
    Admiral Olson. Sir, I would say that in many ways Pakistan 
is behaving as a great ally and taking much risk upon 
themselves. But there is perhaps more that can be done. I think 
that the senior-level dialogues that are taking place are very 
productive in this regard.
    Senator Manchin. To both of you, do you know if the 
literacy rate in Afghanistan has improved at all over 10 years?
    General Mattis. Yes, it has. I would have to get you the 
numbers, sir. It is also one of the primary recruiting tools 
for the Afghan army. But today, we have significantly higher 
education. I will get you the numbers that can verify this.
    Senator Manchin. The numbers that I received show that 
literacy in Afghanistan is still only 28 percent.
    General Mattis. Sir, well, considering that during the 
Taliban's control, they didn't build a single school and they 
have been trying to blow up the ones we are building, it has 
been difficult. But we are making progress, sir. I will get you 
the numbers.
    [The information referred to follows:]

    Afghan literacy rates have indeed improved and are currently 
trending upward under International Security Assistance Force (ISAF)-
led development efforts. In 2008, the Department of State estimated the 
adult (over 15 years old) Afghan literacy rate at 43 percent for males 
and at 12 percent for females. In September 2009, an ISAF assessment 
estimated the adult Afghan literacy rate had climbed to 50 percent (+7 
percent) for males and 14 percent (+2 percent) for females.
    Based on the October 2010 Congressional Report on Progress Toward 
Security and Stability in Afghanistan, most literate Afghans are 
concentrated in the cities. In rural areas, 90 percent of women and 
more than 60 percent of men remain illiterate. Under the Taliban regime 
girls were not allowed to go to school and fewer than 900,000 boys were 
enrolled. During the same period, university enrollment was only 7,881 
students. In stark contrast, nearly 7,000,000 students are now enrolled 
in primary and secondary education facilities (with 37 percent of them 
being female) and university enrollment has grown to 62,000.

    Senator Manchin. I would ask both of you this question, 
too. Do you believe that al Qaeda still poses a threat to the 
United States of America? If that is still correct, since they 
are not a presence in Afghanistan, with all of our resources 
and so much of our money has been dedicated to that arena, 
where are they now, and what are we doing to be able--are we 
capable of taking the fight to them, wherever it may be?
    Admiral Olson. Sir, I think al Qaeda is struggling. I think 
that its leadership is less experienced. I think its ranks are 
more fractured than any time in the last decade, and they 
certainly have distributed. There is AQAP, al Qaeda in the 
Maghreb, al Qaeda in Iraq, and other al Qaeda associated groups 
in the region. So there is a requirement to continue taking the 
fight to where they are, sir.
    Senator Manchin. General?
    General Mattis. They are a threat. They are under terrible 
pressure right now. They have gone to ground in the epicenter 
of this effort, which is up in the FATA, but they have also 
distributed down into AQAP. They have been hit hard in Iraq, 
but they are still a threat to the Iraqi Government. We see 
links going down into Somalia with al-Shabaab.
    Senator Manchin. With the tremendous budget concerns we 
have within our own nation, if changes are made or adjustments 
are made to the operation as we know it in Afghanistan today, 
do you think it will affect the outcome at all, if we reduce 
the funding?
    General Mattis. Absolutely, it will, sir. It must. I mean, 
right now, we have, just in the last year and a half, gotten 
the resources, personnel, training, Commander's Emergency 
Response Program (CERP) funds, that sort of thing correct. We 
are right now approaching the time when we are going to see the 
results of all that.
    We are already seeing the results, but they are going to be 
very telling shortly.
    Senator Manchin. Admiral?
    Admiral Olson. Sir, Afghanistan SOF are operating at the 
edge of their people and at the edge of their budget. Any 
reduction in either would be detrimental to the effect, sir.
    Senator Manchin. Thank you.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for your patience and, 
of course, for your service.
    I would like to pursue further discussion about the 
sanctuaries in Pakistan with this lead-in. General Mattis, I 
was in Malajat last October. I know you spoke to, in your 
testimony, what had happened there and the positive 
developments. Fort Carson troops were there from my home State 
of Colorado. So it was particularly special to be there, and it 
was very impressive.
    My fear is that it is only a matter of time before 
insurgents reappear. Their refuge in that part of Pakistan is 
only about 4 hours from Kandahar. It is just my sense is as 
long as the enemy has sanctuaries, we are fighting with an arm 
tied behind our back.
    General, you have spoken to why Pakistan isn't doing more 
to eliminate the sanctuaries. If they can't or won't address 
them, do you believe that the International Security Assistance 
Force (ISAF) and Afghan forces working together can make enough 
progress on the security front to overcome the challenges 
presented by the sanctuaries?
    Admiral Olson, I would welcome your thoughts as well after 
the General has spoken to this.
    General Mattis. Sir, the area the troops from your State 
were operating in is, obviously, close to the border area. It 
is subject to being impacted by the enemy coming out of safe 
havens.
    It is not that the Pakistanis have done nothing here. They 
have lost thousands of troops. They have had almost 30,000 of 
their civilians murdered by these enemies, and they are 
probably in a position of saying, ``I don't want to create more 
enemies right now than I already have.'' They are engaged in 
years of the longest campaign and the most costly campaign that 
they have faced.
    I think that, while it is not perfect, we have to remind 
ourselves that the only thing more difficult than fighting with 
allies is fighting without allies. Thank God, we have the 49 
nations alongside us, fighting in Afghanistan right now.
    With Pakistan, I think we have to look at both what they 
are doing and continue to try and close the gap in our 
understanding with what they are not doing. We are very candid 
in our discussions with the Pakistani leadership about this, 
and we will continue to work it.
    However, in the area that you are referring to, that kind 
of open ground coming from Kandahar over towards the border, 
General Petraeus, thanks to the increase that the President 
authorized, now has a surveillance brigade from the Army that 
is watching over that area.
    In other words, it is not just a thoroughfare. The enemy is 
going to have a very difficult time come spring when they try 
to reintroduce their troops back into the areas of Helmand and 
Kandahar, where they have lost the initiative.
    We are aware of the situation. We are adapting to it, and 
the Pakistanis are doing a lot. There is more they could do, 
but there is more we could be doing as well. This is the normal 
give-and-take of war, sir.
    Senator Udall. Admiral Olson?
    Admiral Olson. Sir, we wish they would do more. Perhaps 
they could do more. But I don't pretend to understand the 
internal dynamics within Pakistan, certainly the strategic 
implications of their decision-making process, to be too 
critical of them.
    Senator Udall. Yes, they do have their hands full. I do 
know there is a school of thought that counterinsurgencies have 
never been successfully completed if the insurgents have 
sanctuaries, and we need to continue to worry that concept.
    If I might, General, Admiral, I would like to talk about 
some of the analysis that right now we are in a strategic 
stalemate in Afghanistan. That is a better situation, some 
would argue, than we had a year or 2 or 3 ago. By that, I mean 
neither side can achieve its aims through the use of arms 
alone.
    A follow-on thought is that we will have difficulty 
preserving our gains just because we are visitors, if you will, 
to the area, without entering into some sort of negotiations. I 
know there are still disagreements among many in Afghanistan, 
both in the Afghan community and in ISAF, what those 
negotiations look like, how quickly they should happen, and 
what they might accomplish.
    My opinion is--and I have heard this from the military 
leadership in our country and the civilian leadership--that the 
way home is through a political process and political solution, 
ultimately. How do we incentivize the process further and make 
reconciliation and reintegration move more quickly?
    General Mattis. Senator, I do not think we are in a 
strategic stalemate right now. If I was before you a year ago, 
I probably would have accepted that. I think that the enemy is 
now in a worsening situation. What we are doing is our strategy 
is that we have a military component. You have seen that. 
Everyone knows what that is--reinforced, well-trained troops, 
better strategy. I can go on. Then you have a civilian 
component. Those two are married together into a combined 
civilian-military effort.
    Additionally, there is a diplomatic effort to end the war. 
Taliban are going to have to say we will abide by the 
constitution, break with al Qaeda and stop using violence. They 
are welcome back in.
    The reconciliation process has to be a process that is 
owned by the Afghans because they are the ones who have to 
reconcile. We can support it. We should support it. The 
international community is supporting it.
    Reintegration is the bottom up, reconciliation being the 
top down. Reintegration is where we are getting young fellows 
to come over to our side, and there is a process to bring them 
onboard.
    So you are seeing right now a strategy of how do you 
incentivize it? First point, make certain the enemy doesn't 
think they are going to win. That is what we have had to 
reverse in the last year. Then the diplomats have more of a 
chance to get these other efforts--reconciliation, 
reintegration--going. I hope that answers your question.
    Senator Udall. Admiral Olson, do you have any additional 
thoughts?
    Admiral Olson. Sir, I certainly agree with what General 
Mattis said. I would say that I do think we are on a path to 
being able to negotiate from a position of strength. I do 
believe that negotiation can accelerate the termination of a 
conflict, but you have to be able to do it from a position of 
strength.
    Senator Udall. Speaking of negotiations, General, India and 
Pakistan are reportedly negotiating again over such tough 
topics as Kashmir and economic integration. I assume you and 
Admiral Willard share perspectives and are working together.
    Would you comment on the opportunity there? My opinion, if 
India and Pakistan could reach the point at which they had a 
little warmer relationship, it would help our efforts in 
Afghanistan.
    General Mattis. I completely concur with you. Admiral 
Willard and I are in routine contact with one another, as we 
make certain that seam between the two combatant commands does 
not become a gap in our efforts to work together.
    At the same time, this India-Pakistan reconciliation has to 
be something that they take responsibility for. So we are more 
in a mode of making certain that what we are doing militarily 
is never seen as contrary to that trend.
    Senator Udall. My time has expired. Two brief comments. I 
met with some returning civilian and military leaders from 
Afghanistan. Interesting ideas taking shape, which is that the 
Afghan civilian sector ought to surge into the Afghan rural 
communities. That is not a new idea to you, but I wanted to 
continue to acknowledge. I know the chairman has really pushed 
on that front as well.
    Then, second, listening to you, I was reminded of President 
Lincoln's great comment that it always seemed like in war the 
best generals were working for the newspapers. Listening to you 
two today, I think the best generals and admirals are working 
for the American people. So, thank you.
    Chairman Levin. Thank you very much, Senator Udall.
    I just have a couple questions for a second round, and then 
we are going to adjourn over to the Capitol Visitor Center, 
room 217, for a closed session. There has been a request by at 
least one Senator for that. We should start there, hopefully, 5 
minutes to 12:00, if no one else has any additional questions 
here.
    I just have two questions. One, General, is the question of 
whether or not you expect that President Karzai will be 
announcing later this month the first phase of provinces and 
districts for transition to Afghan security responsibility 
based on the joint recommendations of ISAF and Afghan 
officials. That is what Defense Minister Wardak told me was 
likely to happen, when he met with me in my office. Is that 
your understanding?
    General Mattis. It is, Mr. Chairman. I believe it will be 
on March 21.
    Chairman Levin. All right. The other question relates to 
the camp in Iraq, Camp Ashraf, where there are Iranian 
dissidents who are being continually harassed in various forms 
by agents of Iran and also by some of Maliki's people as well.
    Now, one of the issues there are the loudspeakers, 
apparently large numbers of loudspeakers, which blare 
propaganda into that area. I am wondering whether you have 
taken this issue up, General, with Prime Minister Maliki and 
whether we are pressing this issue because that kind of 
psychological abuse is unacceptable. Have you raised this with 
Prime Minister Maliki?
    General Mattis. I will raise it with him, sir.
    Chairman Levin. Has it been raised before, do you know?
    General Mattis. I don't know.
    Chairman Levin. Okay. Will you make sure that it is raised?
    General Mattis. I will.
    Chairman Levin. Any other questions? If not, we are going 
to adjourn right away to that classified session.
    We thank both of you again for your service. We will see 
you over at the Capitol Visitor Center.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

            VILLAGE STABILITY OPERATIONS/AFGHAN LOCAL POLICE

    1. Senator Levin. Admiral Olson and General Mattis, General 
Petraeus and others have emphasized the importance of the Village 
Stability Operations (VSO) and Afghan Local Police (ALP) programs to 
the strategy in Afghanistan. Under the ALP, Special Operations Forces 
(SOF) are working with local villagers to empower communities to create 
their own protection force answerable to the local elders and under the 
oversight of the Ministry of Interior. General Petraeus has discussed 
the possibility of dramatically increasing the size of both programs to 
more effectively undercut Taliban influence in rural areas while also 
better connecting these areas to the central government. What has been 
the effect of these programs on rural Afghan populations and what has 
been the response from the Taliban?
    Admiral Olson. VSO and the associated ALP program have offered the 
Afghan Government its first steps toward legitimacy in key rural areas. 
By contributing to local governance, VSO provides the mechanism by 
which the Government of the Islamic Republic of Afghanistan is able to 
address security, economic, judicial and developmental grievances. This 
has improved popular confidence in the Afghan Government and the 
various Afghan Security Forces. It has significantly impacted Taliban 
safehavens, freedom of movement, recruiting and operational 
effectiveness in the micro-regions where it has been implemented. As a 
result, the Taliban are increasing their efforts to intimidate 
communities and individuals participating in the VSO and ALP programs.
    General Mattis. [Deleted.]

    2. Senator Levin. Admiral Olson and General Mattis, do you believe 
the availability of U.S. Special Operations teams is a limiting factor 
in expanding these programs to a point where they can have a strategic 
impact in Afghanistan?
    Admiral Olson. The SOF teams have a strategic impact even in small 
numbers, but the demand is outpacing the supply.
    General Mattis. No. While the VSO/ALP mission initially required 
SOF's unique capabilities, the program is now mature enough for 
conventional forces to conduct with SOF oversight.

                AFGHANISTAN COUNTERTERRORISM OPERATIONS

    3. Senator Levin. Admiral Olson and General Mattis, according to 
published reports, the tempo of counterterrorism operations in 
Afghanistan by U.S. and Afghan SOF has increased dramatically in the 
last 6 months and demonstrated significant results. Lieutenant General 
Rodriguez stated recently that the Afghan people are playing an 
increasingly important role in the success of these operations by 
``helping to provide significantly more tips because they see Afghan 
Security Forces out among them more than they ever had because of the 
increase in the number [of Afghan Forces].'' Reportedly, 85 percent of 
counterterrorism operations take place without a shot being fired. Do 
you agree with Lieutenant General Rodriguez that the increased presence 
of Afghan Security Forces has resulted in better intelligence because 
the population is more likely to come forward with information?
    Admiral Olson. Yes. This is one of the reasons that SOF operations 
are partner led and U.S./Coalition missions are no longer unilateral.
    General Mattis. Yes. Locally provided intelligence has increased 
based on the growth of both Afghan National Security Forces (ANSF) and 
International Security Assistance Forces. A more secure environment has 
reduced the threat of retribution and allowed for the establishment of 
numerous community-based self-defense programs, multiple ``tip lines'' 
to harvest indigenous information, and 74 new local police sites that 
collectively provide actionable intelligence.

    4. Senator Levin. Admiral Olson and General Mattis, what has been 
the impact of this intelligence on the success of counterterrorism 
operations?
    Admiral Olson. Further deployment of ANSF has led to better 
intelligence collection. Not only is the local population more likely 
to report information to the ANSF, the pairing of ANSF and coalition 
partners can greatly assist in guiding collection focus and methods. 
Specifically, the partnership of Afghan National Army (ANA) Special 
Forces with U.S. Special Forces teams has greatly increased the 
Operational Detachment Alpha's ability to understand the human terrain 
and socio-cultural dynamics at the village and district level. 
Similarly, Afghan National Civil Order Police has seen success in 
manning checkpoints throughout southern Afghanistan. Their lasting 
presence along major roadways helps the Conventional Forces to better 
understand local populations and have demonstrated an ability to 
support counter IED initiatives in southern Afghanistan.
    General Mattis. These operations have facilitated Coalition and 
Government of Afghanistan efforts to secure the Afghan populace. The 
enhanced security environment has paid great dividends and fostered 
popular support and trust in the ANSF, leading to more intelligence 
tips from the people.

    5. Senator Levin. Admiral Olson and General Mattis, are news 
reports accurate that 85 percent of SOF counterterrorism operations are 
conducted successfully without a shot being fired?
    Admiral Olson. Our data for 2010 indicates that, of about 2,000 
counterterrorism operations, 86 percent did not include gunfire.
    General Mattis. [Deleted.]

             AIRLIFT SUPPORT FOR SPECIAL OPERATIONS FORCES

    6. Senator Levin. Admiral Olson, one of the most frequent concerns 
related to deployed SOF is the lack of rotary wing airlift to support 
their missions, especially in Afghanistan. The two primary concerns are 
that U.S. Special Operations Command (SOCOM) uses its organic rotary 
wing airlift almost exclusively to support kill/capture 
counterterrorism missions and that airlift support from the General 
Purpose Forces is rarely available. This leaves special operations 
personnel performing counterinsurgency missions with very little direct 
support. The 2010 Quadrennial Defense Review (QDR) mandates some action 
on this issue by increasing SOCOM's organic capabilities and by 
dedicating a limited number of Navy helicopters to support of SOF. Do 
you believe the actions directed by the QDR will address SOCOM's 
airlift needs?
    Admiral Olson. The actions directed by the QDR adequately addressed 
SOCOM's longer term organic helicopter needs. Surge operations still 
require allocation of General Purpose Force helicopters to support SOF 
operations. Further, foreign training requirements may place an 
additional demand on SOF rotary wing capabilities.

    7. Senator Levin. Admiral Olson, do you believe additional 
capabilities should be grown within SOCOM or provided by the General 
Purpose Forces?
    Admiral Olson. SOCOM's programs of record, and those we have 
planned across the Future Years Defense Program (FYDP), combined with 
General Purpose Forces provided by the Service Departments, are 
adequate to fulfill the current and anticipated airlift support 
requirements.

              INTELLIGENCE SUPPORT FOR INDIRECT ACTIVITIES

    8. Senator Levin. Admiral Olson and General Mattis, some observers 
contend that the National intelligence agencies focus their assistance 
to the Department of Defense (DOD) in Afghanistan on special operators 
engaged in direct action operations against the Taliban. As a 
consequence, it is alleged, General Purpose Forces and SOF engaged in 
indirect activities, including VSOs and population security, receive 
less intelligence support. Do you believe SOF performing primarily 
indirect missions in Afghanistan receive adequate intelligence support?
    Admiral Olson. Yes, intelligence support is generally adequate and 
responsive.
    General Mattis. Yes. All general purpose and SOF are provided the 
intelligence support required to accomplish their assigned missions.

    9. Senator Levin. Admiral Olson, how is SOCOM working to build its 
organic intelligence gathering and exploitation capabilities?
    Admiral Olson. SOCOM is focused on developing an organic airborne 
Intelligence, Surveillance, and Reconnaissance (ISR) capability with a 
corresponding Processing, Exploitation & Dissemination (PED) capacity. 
The SOCOM J2 (Intelligence) and J6 (Communications) have teamed to 
design and build a robust Special Operations Information Enterprise 
(SIE) that will facilitate the movement, sharing, and coordination of 
information across theaters of operations, from tactical users to 
strategic decisionmakers. The intent is to fully integrate with the 
Service developed Distributed Common Ground Station (DCGS) family of 
networks, which will enable the rapid sharing of critical information 
in a joint-combined operating environment.
    SOCOM leads DOD in the employment of Identity Intelligence tools, 
tactics, techniques and procedures. Partnering with the Biometric 
Identity Management Agency and the ISR Task Force, we received $79.9 
million the past 2 years and developed a $26 million (FYDP) training 
program at Fort Bragg, NC, resulting in the fielding of 1,426 biometric 
systems that led to 2,686 tiered Watchlisted and IED associated persons 
of interest. Our Sensitive Site Exploitation (SSE) program leverages 
biometrics, forensics and document/media exploitation as mission 
enablers to defeat terrorists and their networks. SOCOM is also a 
leader in tagging, tracking, and locating technology, as well as in 
providing SOF with a world-class reconnaissance, surveillance, and 
target acquisition capability that includes still/video, sensor trigger 
and unattended ground sensors/unattended maritime sensors (UGS/UMS).

                SPECIAL OPERATIONS PERSONNEL MANAGEMENT

    10. Senator Levin. Admiral Olson, some have argued that you, as the 
Commander of SOCOM, should have greater influence on personnel 
management issues which are generally within the purview of the 
Services, but which directly impact the assignment, promotion, 
compensation, and retention of SOF. Do you believe you are adequately 
empowered to influence the personnel management decisions of the 
Services as they apply to SOF?
    Admiral Olson. Until recently, no. However, DOD Directive 5100.01, 
Functions of DOD and its major components, approved by the Secretary of 
Defense on 21 December 2010, requires the Services to ``coordinate'' 
personnel policies with SOCOM, and this has the potential to improve 
SOCOM's influence in this regard.

                       UNDERSEA MOBILITY STRATEGY

    11. Senator Levin. Admiral Olson, last July, SOCOM cancelled the 
Joint Multi-Mission Submersible program and announced a new Undersea 
Mobility acquisition strategy focused on the development and fielding 
of a family of wet and dry combat submersibles to meet the requirements 
of SOF. These actions follow the extremely costly development and 
fielding of the Advanced SEAL Delivery System, which was ultimately 
rendered inoperable by a November 2008 battery fire. Please describe 
the decisionmaking process that led to the change in acquisition 
strategy.
    Admiral Olson. In the programming and budgeting process for fiscal 
year 2012, the Department conducted a detailed review of the JMMS 
program. Based on the review, it was determined that the planned 
program to develop and field a fleet of JMMS was unaffordable due to 
current and expected future competing priorities for SOCOM resources. 
In addition, during the JMMS material solutions analysis, another 
feasible alternative had been identified to develop and field a fleet 
of smaller, less-capable dry combat submersibles that could operate 
from Dry Deck Shelter equipped submarines and surface ships. 
Simultaneously, SOCOM has been looking at alternate commercial 
submersible concepts and experimenting with a commercial-off-the-shelf 
submersible that showed promising results at reduced cost.
    Accordingly, SOCOM revised its undersea mobility acquisition 
strategy to use the funds originally programmed for JMMS to develop a 
fleet of affordable Dry Combat Submersibles (based on commercial 
technologies and practices) and the necessary Dry Deck Shelter and 
submarine modifications to support them. This enables SOCOM to field a 
larger number of undersea vehicles sooner than the original JMMS 
approach.

    12. Senator Levin. Admiral Olson, how would you characterize the 
technological, cost, and schedule risks associated with development of 
a new family of dry combat submersibles?
    Admiral Olson. Technical risk is medium to simultaneously meet the 
``iron triangle'' of payload, speed, and range requirements due to 
current battery technology. Commercial off-the-shelf and Government 
off-the-shelf silver-zinc battery technologies are rated at Technology 
Readiness Levels 7-9, so they should be reliable. However, they have 
not demonstrated the power required for our ideal submersible in a 
realistic environment. Our Dry Combat Submersible program is focused on 
identifying what is affordable and achievable within current budgets 
and technologies.
    Cost and schedule risk are both assessed as medium level risk based 
primarily upon the risk associated with safety certification. SOCOM is 
using commercial design standards and processes (e.g. American Bureau 
of Shipping) wherever possible to help reduce these risks through a 
more determinant certification process. SOCOM is also working closely 
with the U.S. Navy to properly scope any certifications they require 
for operations associated with nuclear submarine.

    13. Senator Levin. Admiral Olson, how does SOCOM intend to avoid 
the costly development and reliability issues that plagued the 
development and operation of the Advanced SEAL Delivery System?
    Admiral Olson. SOCOM intends to leverage commercial submersible 
design, fabrication, and safety certification methodology to provide 
timely, reliable, and cost-effective capabilities. Design studies are 
also planned to cultivate the submersible industrial base. SOCOM 
intends to use American Bureau of Shipping classed competitive 
prototypes to affirm speed, range, and payload thresholds prior to 
ordering the Dry Combat Submersible-Light lead ship. Additional 
economies will accrue from using proven sonar systems and communication 
systems from our wet SEAL Delivery Vehicles.

    14. Senator Levin. Admiral Olson, what is the appropriate role for 
the Naval Sea Systems Command in the development and acquisition of 
SOCOM's undersea mobility platforms?
    Admiral Olson. SOCOM will use the engineering expertise of Naval 
Sea Systems Command (NAVSEA), its shipyards, and laboratories to 
support the Dry Combat Submersible (DCS) programs, especially in the 
areas of engineering and safety certification. We are working with 
NAVSEA to identify experts and define roles such as the subsea 
engineering found at Naval Surface Warfare Centers. NAVSEA will perform 
system safety certification of all submersibles that will operate from 
submarines. SOCOM will perform system safety certification of any DCS 
submersibles (including prototypes) that will not operate from 
submarines. SOCOM is also using the expertise of commercial engineering 
and safety certification agencies such as American Bureau of Shipping 
(ABS) to provide independent review and classification services for DCS 
programs. ABS has certified 47 submersibles that operate for extended 
periods every day, carrying civilian and non-DOD government personnel 
for research, tourism, and the oil industry.

                MILITARY INFORMATION SUPPORT OPERATIONS

    15. Senator Levin. Admiral Olson, DOD recently announced that it 
was discontinuing use of the term ``psychological operations'' in favor 
of the term ``Military Information Support Operations.'' Why do you 
believe such a change was necessary?
    Admiral Olson. The U.S. Armed Forces have long recognized the vital 
importance of conveying truthful information to influence foreign 
governments, organizations, groups, and individuals. Military 
information activities in both wartime and peacetime have been 
described as ``psychological warfare'', ``psychological operations'' 
and PSYOP.
    In recent years, the term ``psychological operations'' became 
anachronistic and misunderstood. Although PSYOP activities relied on 
truthful information credibly conveyed, to some people PSYOP connoted 
propaganda, brainwashing, manipulation and deceit. In some cases, the 
negative connotations of the term discouraged commanders and our 
civilian interagency partners from making use of military PSYOP 
capabilities to advance national objectives.
    To overcome the stigma of the name and allow DOD to better utilize 
these military information capabilities in an interagency environment, 
the Chief of Staff of the Army, General Casey, and I recommended to the 
Secretary of Defense that we replace the term ``psychological 
operations'' or PSYOP with Military Information Support Operations 
(MISO) to more accurately convey the nature of the activities. The 
Secretary directed DOD to implement the change this fiscal year.

    16. Senator Levin. Admiral Olson, what operational and doctrinal 
impacts do you believe such a change will have?
    Admiral Olson. The change will have no operational or doctrinal 
impacts. It is only an administrative terminology change. The 
definition and all policy, legal, organization, and doctrinal guidance 
previously applied to PSYOP remain in effect for MISO.

                      SPECIAL OPERATIONS MISSIONS

    17. Senator Levin. Admiral Olson, in recent years, SOF have taken 
on an expanded role in a number of areas important to countering 
violent extremist organizations, including those related to information 
and military intelligence operations. Some have advocated significant 
changes to SOCOM's Title 10 missions to make them better reflect the 
activities SOF are carrying out around the world. What changes, if any, 
would you recommend to SOCOM's Title 10 missions?
    Admiral Olson. Over the past year, SOCOM has reviewed the set of 
special operations activities listed in Title 10 through the Strategic 
Capabilities Guidance process. We have identified a set of operations 
and activities that better reflect how SOF supports national 
strategies, global campaign plans, and theater plans. We have also come 
to realize that operations-counterterrorism, counterinsurgency, foreign 
internal defense, and others-often blend in today's complex 
environment. It is now much more difficult to neatly categorize a 
specific operation as one type versus another. Therefore, we see the 
need to differentiate between operations and activities.
    To provide clarity in how SOF executes its missions, we have 
developed a framework for SOF Core Operations and Activities. Core 
Operations are the operational contexts within which SOF operate, often 
in concert with conventional forces and interagency partners. Core 
Activities, however, are unique capabilities that SOF apply in 
different combinations tailored for an operational context. A core 
special operation activity is a stand-alone, operationally significant, 
military capability that SOF can apply independently or in combination 
as part of a global, Geographic Combatant Command, or joint force 
commander's campaign or operation. I will be reviewing the revised list 
of operations and activities over the next few months with SOF senior 
leaders. The revised list, which could possibly become the basis for a 
Title 10 legislative proposal, includes the following:
Core Operations:
        Combating Weapons of Mass Destruction
        Counterinsurgency
        Counterterrorism
        Foreign Internal Defense
        Stability Operations
        Support to Major Combat Operations and Campaigns
        Unconventional Warfare
Core Activities:
        Advise and Assist
        Civil Affairs Operations
        Hostage Rescue and Recovery
        Intelligence Preparation of the Environment
        Interdiction and Offensive Weapons of Mass Destruction 
        Operations
        Military Information Support Operations
        Operational Preparation of the Environment
        Reconnaissance and Surveillance
        SOF Combat Support and Combat Service Support
        Strikes and Raids
        Support to Insurgency

                     COUNTERING RADICAL IDEOLOGIES

    18. Senator Levin. Admiral Olson, in 2005, Ayman al-Zawahiri, al 
Qaeda's second-in-command, declared that ``We are in a battle, and more 
than half of it is taking place in the battlefield of the media.'' The 
new National Military Strategy lists ``countering violent extremism'' 
as the first National Military Objective and stresses the importance of 
long-term ``whole of nation'' approaches to countering extremism beyond 
short-term activities of killing and capturing extremists. However, 
earlier this year, a non-partisan study highlighted the lack of a U.S. 
strategy to counter radical ideologies that foment violence (e.g. 
Islamism or Salafist-Jihadism). What is SOCOM's role in supporting 
efforts by the geographic combatant commands to counter the spread of 
violent extremist ideology and the radicalization of vulnerable 
populations?
    Admiral Olson. SOF, specifically MISO support the geographic 
combatant commands in countering VEO ideologies and radicalization of 
vulnerable populations through several means. SOCOM Military 
Information Support units have been deployed in direct support of U.S. 
military operations in Afghanistan (OEF), Iraq (New Dawn), and the 
Philippines (OEF-Philippines) from the onset of those operations, often 
in collaboration with coalition forces and other U.S. Government 
Agencies.
    Outside the areas of conflict, SOCOM deploys Military Information 
Support Teams (MISTs) to countries supporting military objectives to 
erode support for extremist ideologies and deter tacit and active 
support for VEOs. Deployed at the request of both the GCC and the 
respective U.S. Ambassador, MISTs provide the GCCs with a direct 
engagement tool to improve partner nation capabilities to combat VEOs 
and resist the spread of their associated ideologies.
    SOCOM also resources and manages two effective trans-regional 
military information support programs: the Trans-Regional Web 
Initiative (TRWI), and the Regional Magazine Initiative (RMI). Both 
programs provide the GCCs a capability to conduct influence operations 
to directly address VEO ideology, facilitation, and radicalization 
without putting boots on the ground.
    In addition to forces provided and programs executed, SOCOM also 
supports the GCCs by providing direct planning support.

    19. Senator Levin. Admiral Olson, to what degree does SOCOM draw 
upon research conducted by DOD's Minerva and Human Social Cultural 
Behavioral Modeling programs?
    Admiral Olson.
Minerva Research Initiative (MRI)
    MRI is a DOD-sponsored, university based social science program 
initiated by the SECDEF in 2008. The program's goal is to improve DOD's 
basic understanding of the social, cultural, behavioral, and political 
forces that shape regions of the world of strategic importance to the 
US. SOCOM has been an integral part of two of the five projects: (1) 
`Finding Allies for the War of Words: Mapping the Diffusion and 
Influence of Counter-Radical Muslim Discourse' and (2) `Terrorism, 
Governance, and Development'
    SOCOM has fostered multiple relationships between DOD project 
managers; academics; and SOCOM planners, analysts, and interagency 
personnel.
Human Social Culture Behavior (HSCB) Modeling Program
    In 2008, OSD established the HCSB modeling program. The mission of 
the 6-year program is to research, develop, and transition 
technologies, tools, and systems to help planners, intelligence 
analysts, operations analysts, and others represent, understand, and 
forecast sociocultural behavior at the strategic, operational, and 
tactical levels. SOCOM representatives have been in close collaboration 
with HCSB project managers to garner better insights regarding 
objectives, identify those projects that are of importance to SOCOM, 
and engage with appropriate academics to ensure they understand our 
interests.
    SOCOM received funding to write a program called ANTHRO ANALYST 
(AA) FOR J2 SOCPAS. AA is an advanced application allowing a user to 
quickly input elevation, population density, and intelligence 
information to generate and predict human terrain as well as habitable 
areas.
    SOCOM attends the Air Force Office of Scientific Research annual 
program reviews and provides updates to appropriate offices and 
directorates within the command. SOCOM continues to leverage the 
projects' findings and to incorporate appropriate information into 
efforts across the command.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

                              CAMP ASHRAF

    20. Senator McCaskill. General Mattis, in recent Senate Armed 
Services Committee hearings on U.S. policy in Iraq, as well as during 
this hearing before the committee, the plight of residents of Camp 
Ashraf in Iraq was discussed. In addition, prominent former government 
officials have recently raised concerns about the welfare of the 
residents at Ashraf, including former Energy Secretary Bill Richardson, 
General Peter Pace (Ret.), and former Attorney General Michael Mukasey. 
The approximately 4,000 Iranian dissidents and their advocates continue 
to allege abuses and harassment by members of the Iraqi security 
services. The harassment includes tactics such as continuous exposure 
to loudspeakers, as Chairman Levin remarked, and up to and including 
serious physical harm against camp residents. To what extent do U.S. 
military forces have contact with the residents of Camp Ashraf?
    General Mattis. U.S. military forces had limited contact regarding 
Camp Ashraf since Government of Iraq has taken over responsibility. In 
the wake of the incident on 8 April that led to a number of deaths and 
injuries, we have requested access to Camp Ashraf but so far have been 
refused by the Iraqi Government. We have been told the Iraqi Government 
is undertaking an investigation on events there, and the U.S. 
Ambassador in Baghdad and General Austin are making clear U.S. policy 
and the way forward with the Iraqi Government

    21. Senator McCaskill. General Mattis, has any U.S. military 
equipment provided to the Iraqi military or security forces been used 
to harass or endanger the residents of Camp Ashraf?
    General Mattis. It is possible that any given Iraqi unit which 
operated in the vicinity of Camp Ashraf may have had some U.S.-provided 
equipment in its inventory, particularly vehicles. Since 2003, the 
United States has provided millions of dollars worth of defense 
equipment to the Government of Iraq which is widely distributed across 
the Iraqi Security Forces.
    Overhead photographs taken during the 8 April 2011 events at Camp 
Ashraf appear to include images of High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs) among the vehicles employed by Iraqi forces. The 
HMMWV, which has been supplied in large numbers to the Government of 
Iraq, is a characteristic U.S. military vehicle. It is possible that 
some at Camp Ashraf on 8 April are among the many which have been 
delivered to Iraq by the United States over the course of the past 8 
years.

    22. Senator McCaskill. General Mattis, what is your opinion of the 
Government of Iraq's willingness and ability to protect the residents 
of Camp Ashraf?
    General Mattis. The events of 8 April that led to a number of 
deaths and injuries are of serious concern. In the wake of that 
incident, we have requested access to Camp Ashraf but so far have been 
refused by the Iraqi Government. Most important is the assurance that 
residents will NOT be forcibly transferred to a country where there are 
grounds for believing the residents would be persecuted, tortured, or 
unfairly put on trial based on their political or religious beliefs. 
The Government of Iraq (GoI) has also publicly committed to undertake 
an investigation as to what exactly happened on April 8 that led to a 
number of deaths and injuries. We continue to urge restraint and 
nonviolence as means to facilitate an appropriate solution to the 
situation. I respectfully defer to the Department of State (DOS) for 
any details concerning specific issues.

    23. Senator McCaskill. General Mattis, what is your assessment of 
Prime Minister al-Maliki's long-term plans for Camp Ashraf?
    General Mattis. The Government of Iraq's stated policy is that the 
People's Mujahideen Organization of Iran must leave Iraq by the end of 
2011 with the cooperation of the United Nations and international 
organizations. DOS is working to find a negotiated settlement to the 
situation. I respectfully defer to DOS for any details concerning 
specific issues.

                    AFGHAN NATIONAL SECURITY FORCES

    24. Senator McCaskill. General Mattis, during his testimony on 
DOD's 2012 budget request, Secretary Gates stated that he was still 
uncertain how the United States was going to continue to train and fund 
the ANSF once U.S. forces have withdrawn or been reduced. I believe 
that investing in ANSF is extremely important to long-term stability in 
Afghanistan. However, I also have concerns that the U.S. Government may 
not have adequately come to grips with just how expensive it will be to 
sustain ANSF over the long term ($12.8 billon is requested for next 
year). The total gross domestic product (GDP) of Afghanistan is about 
$29.8 billion a year, so it is unrealistic to expect the Afghans to pay 
for full ANSF costs anytime soon. What long-term branch plans are being 
developed to sustain the training and funding of the ANSF beyond 2014?
    General Mattis. The international community has acknowledged that 
while the transition of lead security responsibility will be completed 
by December 2014, financial support of the ANSF and other parts of the 
Afghan economy will be necessary past 2014. Senior Civilian 
Representative Sedwell, as recently as February, commented that the 
ANSF will need some level of funding through 2025. U.S. Central Command 
(CENTCOM), in collaboration with other U.S. Government agencies, is 
developing economic initiatives to enable more coordinated and 
effective international community assistance. This effort will help 
transition Afghanistan from an aid based economy to more of a self-
sufficient, trade based economy putting the Government of Afghanistan 
on a path to meeting the expenditures of a robust ANSF.

    25. Senator McCaskill. General Mattis, what checks and balances do 
you have in place to ensure that U.S. weapons and equipment provided to 
the ANSF are accounted for and do not end up in the hands of the 
Taliban or other terrorist groups?
    General Mattis. In March 2009, the Combined Security Transition 
Command in Afghanistan established a functional organization within its 
command to register and monitor the transfer of equipment to 
Afghanistan. This organization carries out the requirements of Section 
1225 of the 2010 National Defense Authorization Act, which requires the 
Secretary of Defense to certify that a program of registration and 
monitoring is in place in Afghanistan.

    26. Senator McCaskill. General Mattis, given the repeated and 
frequent requests by the United States on the NATO members for 
increasing troop and equipment contributions for ANSF trainers, what do 
you think is an equitable and reasonable cost-sharing for ANSF training 
in terms of manpower and funding?
    General Mattis. The North Atlantic Council has agreed to expand the 
NATO ANA Trust Fund to include funding for sustainment costs. Timely 
provision of these funds will represent a welcome, tangible 
demonstration of fiscal cost sharing. We continue to make a concerted 
effort to increase NATO and other international partner fiscal 
contributions.
    Our coalition partners have made good faith efforts to fill manning 
requirements for ANSF trainers within their capabilities and national 
interests. We will continue to work with our coalition partners, NATO 
and others, to meet the needs of NATO Training Mission-Afghanistan 
(NTM-A).

                     IMPACTS OF MIDDLE EAST TURMOIL

    27. Senator McCaskill. General Mattis, the political upheaval in 
Egypt, Libya, Tunisia, Yemen, and elsewhere in CENTCOM's area of 
responsibility (AOR) is of great concern. Given the rapidity of the 
change and the subsequent fragility of the geo-political status quo, 
there seem to be numerous potential impacts on CENTCOM operations. 
What, if any, impact do you assess the turmoil in the Middle East could 
have on the function of Northern Distribution Network and on the 
logistical tail needed to support coalition operations in the region, 
especially related to fuel and the cost to transport it?
    General Mattis. The current situation in the Middle East is 
expected to have minimal impact on fuels operations supported through 
the Northern Distribution Network since these fuel sources, both crude 
and refined products, originate from Southeastern Europe, Caucasus 
Region, Central Asian States, and Russia.

    28. Senator McCaskill. General Mattis, what is your opinion of the 
effects of the turmoil on some of the more autocratic Central Asian 
leaders, including and especially Islam Karimov of Uzbekistan? Do you 
anticipate any impact on our air or rail transit agreements as they 
stand?
    General Mattis. I view the influence of the changes in the Middle 
East on Central Asian leaders as minimal in the short term due to the 
deep entrenchment of leaders among the social, political and economic 
elite, the existence of little political opposition, and the lack of a 
coordinated social network capability to organize and implement a 
challenge. I consider Uzbekistan to be at low risk for instability 
leading to a change in government. I do not anticipate any impacts to 
our air or rail agreements as they stand.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich

                    RELIANCE ON FOREIGN FUEL SOURCES

    29. Senator Begich. General Mattis, as you noted in your testimony, 
countries in your AOR contain more than half of the world's proven oil 
reserves and nearly half of its natural gas. As a result, this area 
also has some of the world's busiest trade routes. It's also one of the 
world's most volatile regions. I am extremely concerned with the 
national security implications of relying on foreign sources for fossil 
fuels when we have significant reserves in the United States, 
specifically in the State of Alaska. I know DOD buys most of its fuel 
from local refineries in proximity to Iraq and Afghanistan for the vast 
majority of our requirements in the area. In which countries are those 
refineries located?
    General Mattis. Our contracted suppliers that move fuel through the 
various ground lines of communication report that fuel is sourced from 
refineries in Pakistan, Azerbaijan, Russia, Turkmenistan, Bahrain, 
Kuwait, United Arab Emirates, Oman, Iraq, and various European 
countries.

    30. Senator Begich. General Mattis, what would be the impact to 
operations in Iraq and Afghanistan if those refineries no longer could 
meet our needs?
    General Mattis. To mitigate supply chain disruptions, CENTCOM has 
developed redundant and complementary fuel supply capability to satisfy 
fuel demand in both Iraq and Afghanistan. Should supply be reduced 
because of the loss of a refinery or refineries, our supply chain 
managers have the ability to shift fuel orders to alternate sources. 
CENTCOM has established minimum storage requirements at current 
operating and intermediate storage locations to enable us to continue 
operations until alternate means of supply can be implemented. 
Additionally, CENTCOM can implement fuel conservation measures, 
relocate aircraft, and reduce certain operations in order to mitigate 
the effect of reduced fuel availability.

    31. Senator Begich. General Mattis, what would the impact be of a 
Suez Canal or other trade route disruption on operations in CENTCOM's 
AOR?
    General Mattis. The Suez Canal is an important trade route and any 
interruption to current commercial transit through the Suez could have 
an impact on global resupply, as transit times without the use of the 
Suez Canal would increase by approximately 10 days. However, temporary 
closure of the Suez and ensuing disruption to the transit lanes would 
have little to no impact on operations in the CENTCOM AOR. Adequate 
stores of fuel are on hand that would provide a buffer until alternate 
supply routes are established.

    32. Senator Begich. General Mattis, what role do these energy 
resources play in regional and internal instability in your area of 
operations?
    General Mattis. Energy resource problems are prominent in our 
region, particularly in States where meeting growing domestic demand 
for electricity has become more challenging. For some governments, the 
energy resource supply and demand imbalance, and subsequent populace 
discontent, come as States continue converting traditional crude oil-
based energy industries to those based on more efficient natural gas. 
In other countries, inadequate energy resources and infrastructure 
could have a more lasting destabilizing impact.
    Competition over shared hydrocarbon resources also has the 
potential to undermine regional stability, as challenges to poorly 
defined territorial borders where shared energy resources exist can 
quickly turn historic accommodation to more volatile, intrusive demands 
over ownership.

    33. Senator Begich. General Mattis, in your opinion, does U.S. 
consumption of oil and natural gas from these countries perpetuate 
instability?
    General Mattis. No. In my opinion, just the opposite is true. U.S. 
consumption boosts economic stability in these countries, as this is a 
fundamental exercise of international commerce providing economic 
benefit to a lengthy supply and consumer chain.

    34. Senator Begich. General Mattis, in your opinion, how do recent 
protests, uprisings, and calls for reform in many of the countries in 
your AOR potentially impact availability of energy resources to the 
United States?
    General Mattis. The wave of unrest is currently confined to nations 
that are relatively small oil and gas producers. If the wave migrates 
to larger energy producing regions, energy resource availability could 
be more significantly impacted.

    35. Senator Begich. General Mattis, how would potential disruptions 
impact operations in CENTCOM?
    General Mattis. CENTCOM is well postured to endure an array of 
possible disruptions that may occur. We have ample storage at current 
operating and intermediate storage locations, fuel conservation 
measures, plus the redundant and complimentary fuel supply chain 
capabilities that have been developed.
                                 ______
                                 
           Questions Submitted by Senator Kirsten Gillibrand

                          MIDDLE EAST TENSIONS

    36. Senator Gillibrand. Admiral Olson and General Mattis, in 
response to the major uprising against the Qadhafi regime, how would 
you rate the risk that a post-Qaddafi Libya turns chaotic and provides 
a safe haven for al Qaeda and associated groups to exploit?
    Admiral Olson. SOCOM respectfully defers this question to AFRICOM 
as Libya is under their area of concern.
    General Mattis. [Deleted.]

                                  IRAN

    37. Senator Gillibrand. General Mattis, I am concerned, as I know 
you are, with Iran's continuing deployment of hundreds of short- and 
medium-range ballistic missiles that can reach our forces and our 
allies throughout the region. Do you believe you have sufficient 
ballistic missile defense (BMD) capability to defend against this 
threat now and in the future?
    General Mattis. [Deleted.]

    38. Senator Gillibrand. General Mattis, I am concerned with Iran's 
mix of conventional and asymmetric warfare capabilities and the threat 
they pose to U.S. interests in the Gulf. If Iran threatened to close 
the Strait of Hormuz, which as you know would drastically affect the 
flow of petroleum to the world economy, do you have everything you need 
to deter and defeat this threat?
    General Mattis. [Deleted.]

    39. Senator Gillibrand. General Mattis, do we have sufficient 
support from allies to achieve our goals?
    General Mattis. Yes. Our regional partners, in particular the Gulf 
Cooperation Council nations, increasingly recognize the threat posed by 
Iran. We have a shared interest with these partners to counter Iran's 
destabilizing activities, and we have seen an increased level of 
cooperation in that regard. At the same time, we recognize the 
territorial integrity of our partners, continue to act in concert with 
them, and relentlessly engage to support mutually reinforcing 
objectives.

    40. Senator Gillibrand. General Mattis, two Iranian Navy ships were 
permitted by Egypt to sail through the Suez Canal this month. The 
Iranians have said they are traveling to Syria for a training mission. 
While other military ships have travelled through the Canal, since 1979 
no Iranian military ship has done so. What do you think is the reason 
for Iran's activity?
    General Mattis. Iran increasingly asserts its military capability 
across the region in order to expand its influence and to assume the 
role of regional hegemon. Iran's regular navy deployed the two ships 
through the Canal and to the Mediterranean Sea and Syria as part of 
their semi-annual cadet training cruise. These cadet cruises have a 
two-fold mission of training the next generation of naval officers and 
showing the Iranian flag. The cruises included foreign port visits, 
which support Iran's strategic effort to portray itself as a regional 
military power.

    41. Senator Gillibrand. General Mattis, what actions are we taking, 
if any, in response to Iran's activity?
    General Mattis. With respect to Iranian naval vessels transiting 
the Suez Canal, we have not responded with any operational actions, 
though CENTCOM continues to closely monitor such activity. CENTCOM 
maritime operations are clearly observable by Iranian vessels, sending 
a clear message of U.S. presence and readiness, but also a sign of 
commitment to our partners.

                                 PIRACY

    42. Senator Gillibrand. Admiral Olson and General Mattis, last 
week, as you know, Somali pirates killed four Americans on a yacht they 
had captured. Admiral Mullen said in discussing the incident that more 
than 30 warships are involved in the anti-piracy drive underscoring the 
``significance of the challenge [of piracy] and also the priority in 
terms of focus.'' Despite this presence, Somali pirates continue to 
hijack vessels, and last year they seized 53 ships and took 1,181 
hostages. Admiral Mullen further stated that hunting down the sea 
bandits in such vast waters was like searching for a ``needle in a 
haystack.'' How are you adapting your tactics to deal with what is now 
a more lethal threat to U.S. citizens?
    Admiral Olson. I defer to General Mattis on questions concerning 
how forces under his operational control are employed. SOCOM is 
responsible for equipping SOF and providing the Geographic Combatant 
Commands with fully trained SOF. For counter piracy activities, SOF 
elements are trained to respond to hostage scenarios in a maritime 
environment in a manner that best protects U.S interests and the lives 
of U.S. citizens. SOF is generally not brought in unless there exists a 
lethal threat to U.S. citizens. I believe our current tactics, 
techniques, and procedures, or TTPs, are sound and we have made no 
recent significant changes. However, SOCOM will continue to assess the 
threat and modify our TTP's appropriately.
    General Mattis. We continue to adapt our tactics, as do the 
pirates. The scope and scale of the piracy enterprise has expanded 
considerably in recent years, and represents a challenge to both 
commercial and military elements of the international maritime 
community. Working with our Coalition, European, and NATO partners we 
have established three Naval Task Forces in the region that have placed 
up to 30 military vessels at any given time in key locations to deter 
attempted pirate attacks. Our CENTCOM Maritime Component Commander also 
hosts a bi-monthly Shared Awareness and Deconfliction (SHADE) 
conference in Bahrain to ensure multi-national deconfliction of 
activity and cooperation among all counter piracy activities in the 
region. In addition to Coalition, NATO, and European representation, 
the conferences also include civilian international maritime 
organizations and delegates from non-affiliated countries such as 
China, Russia, Japan, and India.
    In addition to these international military efforts, we continue to 
coordinate closely with the maritime industry on communicating to 
merchant vessels the importance of adhering to the International 
Maritime Organization's Best Management Practices. Statistics indicate 
that the employment of these practices, to include well-trained 
embarked security teams, is a significant deterrent against pirates.

    43. Senator Gillibrand. Admiral Olson and General Mattis, 
considering that this is essentially an international criminal issue, 
do you have the authority to respond?
    Admiral Olson. SOCOM respectfully defers this question to CENTCOM 
and the other combatant commanders as they are responsible for military 
operations within their area of control.
    General Mattis. Yes, we have several counter-piracy authorities. 
Legally speaking, the use of military assets to conduct counter-piracy 
operations is permitted under both domestic and international law. U.S. 
counter-piracy operations in the CENTCOM AOR are conducted pursuant to 
the Counter-Piracy Execute Order and in accordance with the Law of the 
Sea and U.N. Security Council Resolutions pertaining to suppressing 
piracy in the Horn of Africa Region.
    Suppressing piracy has been a traditional maritime military 
activity dating back hundreds of years. Counter-piracy operations are 
conducted to preserve freedom of navigation on the high seas, ensure 
the free flow of commerce, and protect the sea lines of communication. 
Criminal prosecution, albeit an effective tool to keep captured pirates 
from returning to their activities and deterring other would-be 
pirates, is a means to accomplish the military mission of preserving 
freedom of navigation.

    44. Senator Gillibrand. Admiral Olson and General Mattis, the root 
cause of piracy is often a failed state. What do you need from 
diplomatic and developmental resources to address piracy?
    Admiral Olson. SOCOM respectfully defers this question to AFRICOM 
as they are working with Department of State on how to deal with the 
root causes of piracy emanating from Somalia.
    General Mattis. While we can inhibit piracy on the sea with 
military action, ultimately the solution to the problem of piracy lies 
ashore, with stable governments that can control their sovereign 
territory. I fully support ample funding for diplomatic and 
developmental resources as part of an integrated civilian-military 
effort to maintain international support and unity of effort in 
combating issues of mutual concern such as piracy.

    45. Senator Gillibrand. Admiral Olson and General Mattis, what 
steps should the private sector take to protect itself from piracy?
    Admiral Olson. I expect they will follow all Legal options 
available. SOCOM is not in a position to speak about what the private 
sector should or should not do in order to protect itself from piracy.
    General Mattis. The most effective deterrent against pirates is to 
adhere to the International Maritime Organization's Best Management 
Practices. These practices include the use of professional, well-
trained embarked security teams, adherence to established security 
routes through the region, notification of sailing intentions to the 
United Kingdom Maritime Trade Operations (UKMTO), employing speed and 
evasive maneuvering when approached, and construction of onboard 
fortified citadels.

    46. Senator Gillibrand. Admiral Olson and General Mattis, are you 
concerned that companies may take overly aggressive measures in 
response to piracy?
    Admiral Olson. SOCOM is not in a position to comment on what 
measures the private sector may take or how those measures could impact 
Combatant Command Counter-Piracy efforts.
    General Mattis. No. CENTCOM continues to advocate the importance of 
adhering to the International Maritime Organization's Best Management 
Practices. Statistics indicate that employing these practices, to 
include well-trained embarked security teams, provides a deterrent 
against piracy. The next iteration of Best Management Practices will 
recommend the practice of embarking armed security teams in order to 
prevent ship crew members from performing this function.

                      TERRORISM AND PROLIFERATION

    47. Senator Gillibrand. Admiral Olson and General Mattis, I am 
concerned with reports that Iran is acting as an intermediary with 
North Korea to supply Syria with various forms of weapons of mass 
destruction (WMD) and missile technology. In April 2010, the Obama 
administration called in Syria's ambassador to ask about reports that 
Syria had transferred Scud and Fateh 110 missiles to Hezbollah. With 
the longer-range Scuds and more accurate Fatah 110s, how do you see 
this affecting the strategic balance in the region?
    Admiral Olson. [Deleted].
    General Mattis. I do not believe Hezballah's acquisition of SCUDs 
and Fateh 110s will significantly alter the regional balance of power. 
These new weapons enable Hezbollah to strike deeper into Israeli 
territory and enhance the group's power projection, but Israel already 
defends against comparable missile threats from Syria by maintaining a 
high defensive posture and employing modern air defense and offensive 
systems.

    48. Senator Gillibrand. Admiral Olson and General Mattis, this 
year's National Military Strategy (NMS) states: ``the intersection 
between states, state-sponsored, and non-state adversaries is most 
dangerous in the area of WMD proliferation and nuclear terrorism. And 
then it goes on to say the prospect of multiple nuclear armed regimes 
in the Middle East with nascent security and command and control 
mechanisms amplifies the threat of conflict, and significantly 
increases the probability of miscalculation or the loss of control of a 
nuclear weapon to non-state actors.'' How confident are you that al 
Qaeda or associated insurgent groups could not acquire or steal a 
nuclear weapon or nuclear materials from Pakistan that they could then 
in turn use in a nuclear September 11 scenario?
    Admiral Olson. [Deleted.]
    General Mattis. The nexus of Violent Extremist Organizations and 
WMD proliferation is among my most pressing concerns. CENTCOM, along 
with our interagency partners, conducts a range of activities to combat 
WMD proliferation. With respect to Pakistan, I know Islamabad regards 
its nuclear program as the country's most important strategic asset and 
continues to place highest priority on nuclear security. Its nuclear 
security program is well established and we remain confident in 
Pakistan's ability to safeguard its nuclear weapons and stockpile.

    49. Senator Gillibrand. Admiral Olson and General Mattis, how are 
the growing U.S.-Pakistan tensions impacting our ability to protect 
against that scenario?
    Admiral Olson. [Deleted.]
    General Mattis. At this time, I do not believe the present tensions 
between the United States and Pakistan will significantly impact the 
security of Pakistan's nuclear program. However, continuing tensions 
between the United States and Pakistan could undermine the 
effectiveness of long-term U.S. support to the Pakistan Army, which 
could in turn indirectly impact Pakistan's nuclear program security. 
But at this point such connectivity is spectulative and not based on 
concrete facts.

                              AFGHANISTAN

    50. Senator Gillibrand. Admiral Olson and General Mattis, when I 
traveled to Afghanistan and Pakistan a few months ago I heard 
repeatedly from our commanders on the ground that our mission in 
Afghanistan is inextricably linked to Pakistan's harboring of al Qaeda, 
Taliban, and aligned organizations. U.S.-Pakistan relations have chafed 
greatly over the past year, particularly recently, and while Pakistani 
military has indeed suffered casualties in their fight against 
insurgency groups, our assessment remains that insurgents enjoy a 
relative safe haven in Pakistan. How are we going to execute a 
redeployment strategy in Afghanistan if Pakistan does not go after the 
insurgency within its borders?
    Admiral Olson. I defer this question to the combatant commander 
since he has operational responsibility for that area.
    General Mattis. Insurgent sanctuaries in Pakistan somewhat limit 
our ability to accomplish the mission in Afghanistan. Despite this 
considerable challenge, we continue to make significant progress in our 
campaign. It is important to note that Pakistan has taken a number of 
difficult steps and has suffered over 30,000 casualties in the fight 
against insurgents in their Northwest.
    Our intent is to simultaneously degrade the enemy's capacity while 
we enhance the capacity of our Afghan and Pakistani partners to a point 
that they can pursue this effort without direct U.S. intervention. Such 
efforts are adversely affected by Pakistani requests that we reduce our 
footprint. Despite the challenges we currently face in Pakistan, we are 
committed to our long-term strategic relationship with them. We will 
continue to transfer the lead for security and governance to our 
partners in accordance with ISAF objectives, the Afghan-led transition 
process, and U.S. national strategy regarding both Afghanistan and 
Pakistan.

                                LEBANON

    51. Senator Gillibrand. General Mattis, you state that you value 
the relationship with the Lebanese Armed Forces (LAF), and that you 
would like to see how the government develops before making a decision 
regarding continuing U.S. aid to the LAF, despite Hezbollah's role in 
the new government. What factors will you look for with respect to the 
new government in Lebanon and the LAF in order to shape your strategic 
outlook with respect to Lebanon or the LAF, and particularly the 
advisability of continued aid or military-to-military transactions?
    General Mattis. [Deleted.]

                              CENTRAL ASIA

    52. Senator Gillibrand. Admiral Olson and General Mattis, 
Kyrgyzstan has been a major refueling station for U.S. Forces in 
Afghanistan. The Northern Distribution Network with the other central 
Asian republics has provided us with important logistical support. How 
solid are the military relationships in Central Asia for the United 
States?
    Admiral Olson. All of our SOF military relationships with the 
Central Asian countries fall under the purview of CENTCOM. SOF elements 
under U.S. Special Operations Command-Central Command have established 
good tactical level military relationships with Kyrgyzstan, Kazakhstan 
and Tajikistan through Counter-Narcotics Training (CNT) programs.
    General Mattis. Our military to military relationships in Central 
Asia are generally good and improving, despite being comparatively new. 
I have been encouraged by the support of our Central Asian partners. We 
have made strides in further developing the Northern Distribution 
Network (NDN) over the last year in particular. Of course, our Central 
Asian partners offer support in accordance with domestic concerns. We 
have seen Russia accommodate our NDN efforts, which has helped to allay 
a significant concern among our partners. Central Asian states are at 
times reluctant to provide public or direct support of our efforts 
because of their Soviet-era Afghanistan experiences as well as concerns 
about provoking violent extremist organizations. Continued support for 
our military-to-military programs, IMET, and exercises is critical to 
continuing to improve these relationships. We are committed to 
conducting all military-to-military activities in concert with broader 
DOS strategy and policy within the Central Asian region.

    53. Senator Gillibrand. Admiral Olson and General Mattis, does 
Russia remain neutral with respect to these relationships or does it 
attempt to disrupt them?
    Admiral Olson. [Deleted.]
    General Mattis. Russia's influence is a significant factor in the 
strategic calculus of Central Asian states, but has so far not 
significantly disrupted U.S. policies in the region. Russia supports 
efforts in Afghanistan, most notably by enabling recent enhancements to 
the NDN.
    Russia is concerned about the growth of violent extremism as well 
as the flow of narcotics and other illicit cargo through Central Asia 
into Russia. At the same time, Russia is sensitive to the potential 
expansion of U.S. influence and the prospects of permanent U.S. bases 
in the region, and engages in information operations to counter and 
contain U.S. influence. As Central Asia's most influential trading 
partner, Russia has substantial influence over most of the Central 
Asian nations.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                 COOPERATIVE SECURITY LOCATIONS IN IRAQ

    54. Senator McCain. General Mattis, I have a question about the 
establishment of cooperative security locations in CENTCOM as a vital 
tool for your theater security plans. Assuming the current plan for 
U.S. forces to withdraw from Iraq by December 2011 is carried out, we 
should still want to maintain a positive collaborative relationship 
with the Government of Iraq in a very strategic location of the region 
for our national interests. Is there value to you and the United States 
to establish forward operating sites and cooperative security locations 
in Iraq for future operations?
    General Mattis. While there is potential value to establishing 
security assistance sites and cooperative security locations in the 
CENTCOM region, the establishment must be balanced against many 
factors, to include host nation support, operational need, and possible 
future U.S. funding to develop and sustain these locations.

    55. Senator McCain. General Mattis, would the establishment of 
these locations have an impact on your withdrawal plans?
    General Mattis. The establishment of cooperative security locations 
would not be consistent with the current U.S.-Iraq Security Agreement 
or current U.S. policy for departure of U.S. forces.

    56. Senator McCain. General Mattis, what impediments, if any, 
preclude you from establishing the agreements necessary to establish 
these locations?
    General Mattis. The establishment of cooperative security locations 
is not consistent with the current U.S.-Iraq security agreement, which 
calls for the full withdrawal of U.S. forces by end 2011, and is 
consistent with current U.S. policy. It is also worth noting that the 
current U.S.-Iraq security agreement, which has authorized the U.S. 
military presence in Iraq from January 1, 2009 to December 31, 2011, 
stipulates that ``Iraqi land, sea, and air shall not be used as a 
launching or transit point for attacks against other countries.''

                      THEATER SECURITY COOPERATION

    57. Senator McCain. General Mattis, on the issues of theater 
security cooperation plans, I am aware that you have very few forces 
assigned to you during peacetime. Any exercises or collaborative 
training you plan to accomplish with other nations in your region must 
be supported by rotational U.S. forces sourced from the Services. 
Realizing that it has been some time since you were able to devote any 
significant resources to theater security cooperation in a peaceful 
region, are you comfortable with the arrangement to rely on rotational 
forces for the overwhelming majority of your security cooperation 
requirements? If, not, what changes would you propose?
    General Mattis. Yes. I am satisfied we are meeting our theater 
security cooperation objectives through a robust program of exercises, 
events, and activities across our AOR. The engagements include 
individual training utilizing subject matter experts, fielding 
equipment through Foreign Military Sales and direct commercial sales, 
increasing interoperability via mil-to-mil engagements, and executing 
bi-lateral and multi-lateral training exercises to develop partner 
capability and capacity.
    One area that does present a problem is the need for sufficient and 
sustained Foreign Military Financing and a more responsive Foreign 
Military Sales (FMS) system that delivers urgent operational 
capabilities to meet our partner requirements. Too often, we are not 
able to meet their requirements in a timely manner due to an overly 
complicated foreign military sales system. I strongly support the 
recent initiatives of the Secretary of Defense directed Security 
Cooperation Reform Task Force and believe it is a definitive step in 
the right direction.

                       AFGHANISTAN RECONSTRUCTION

    58. Senator McCain. General Mattis, the Office of the Special 
Inspector General for Afghanistan Reconstruction recently published a 
report questioning the U.S. plan to invest $11.7 billion to construct 
facilities for over 300,000 ANSF. Are you aware of that report?
    General Mattis. Yes. I am aware of the Special Inspector General 
for Afghanistan Reconstruction Audit released on January 26, 2011.

    59. Senator McCain. General Mattis, what are you doing to address 
the concerns raised in the report?
    General Mattis. We are working with the Combined Security 
Transition Command in Afghanistan (CSTC-A) to incorporate the majority 
of the report's recommendations to extend our planning horizon and 
develop long-range operations and maintenance plans. CSTC-A is 
currently updating their guidance documents to incorporate the planning 
principles referenced in the report which should improve the 
identification of future projects and better document their priorities.

    60. Senator McCain. General Mattis, can you provide a long-range 
construction plan to meet the facility requirements for Afghan forces 
with the funds that Congress has provided?
    General Mattis. Afghan National Security Force generation drives 
the timeline for the construction planning and execution. Fiscal year 
2011 and fiscal year 2012 are significant program years for 
construction, with $2.9 billion in fiscal year 2011 and $2.4 billion in 
fiscal year 2012 from the Afghan Security Forces Fund (ASFF). This ASFF 
funded infrastructure must support the diverse requirements of over 
305,000 ANA and Afghan National Police personnel at locations 
throughout Afghanistan.

                          BAHRAIN NAVAL BASES

    61. Senator McCain. General Mattis, given the uncertainty in the 
region, including Bahrain, as well as the crisis we are facing here at 
home with deep deficits, in your opinion, should taxpayer funds 
exceeding $370 million continue to be expended this fiscal year on the 
complete revitalization of our navy base at Manama, Bahrain, and our 
base at Isa, or would a pause be prudent to allow for further 
assessment of our requirements in the region?
    General Mattis. The CENTCOM AOR presents limited opportunity for 
U.S. basing options. Bahrain remains one of our staunchest allies and 
provides us an optimum location. Current and future contingency 
operations in the region dictate the need to spend military 
construction (MILCON) funds now to address shortfalls. The current 
MILCON augments ship berthing space due to severe degradation of pier 
facilities, and provides critical ammunition storage for current and 
future operations. The MILCON program also includes quality of life 
improvements to alleviate overcrowding and provide acceptable living 
standards. Continued execution of MILCON funds in Bahrain is an 
essential CENTCOM mission support requirement and integral to CENTCOM 
Global Defense Posture initiatives. Reduced expenditure of MILCON funds 
in Bahrain will significantly impact operations now and in the future.

    62. Senator McCain. General Mattis, from an operational 
perspective, do you currently have an alternative port to Manama for 
support of 5th fleet? If not, do you believe it would be wise to use 
MILCON funds to develop one?
    General Mattis. No. The U.S. relationship with Bahrain remains 
strong and we do not currently see the need for an alternative port to 
Manama, Bahrain. In the event the situation dramatically changes with 
respect to either the bilateral relationship or U.S. policy, we will 
present options to DOD and Congress.

                      SOCOM MAJOR WEAPONS PROGRAMS

    63. Senator McCain. Admiral Olson, SOCOM has historically relied on 
the modification of service common equipment with SOF-peculiar 
technology as the basis of its equipping strategy--a strategy that has 
proven enormously successful in a number of areas. However, over the 
last several years, the command has undertaken efforts internally to 
develop major weapons programs, some at significant cost, such as the 
Advanced SEAL Delivery System (ASDS), the Joint Multi-Mission 
Submersible (JMMS), and the Special Operations Combat Assault Rifle 
(SCAR). While the specific issues and outcomes associated with the 
development of these three particular programs differ, they have 
brought attention to the ability of SOCOM to develop and ultimately 
field major weapon systems, particularly in an increasingly resource 
constrained environment. Do you believe SOCOM is properly structured to 
successfully undertake the development and fielding of major weapons 
systems?
    Admiral Olson. The structure of the Special Operations Research, 
Development and Acquisition Center (SORDAC) is not staffed or intended 
to be staffed, to support Major Defense Acquisition Programs. For 
programs such as the ASDS or JMMS, SORDAC enters into agreements with 
Service component acquisition offices to support our efforts. 
Traditionally SOCOM relies on the Services to develop major programs 
(e.g. ASDS) so that SORDAC can focus organic capabilities on the 
integration of new technologies, modifying service platforms, and 
developing new capabilities that the Services are not well positioned 
to do. SORDAC has had success in using the Joint Acquisition Task Force 
model to rapidly field new capability by integrating teams from the 
various service offices to meet urgent needs.

    64. Senator McCain. Admiral Olson, what lessons has SOCOM learned, 
not just from the aforementioned programs, but as a whole, in its 
efforts to develop and field systems to satisfy its requirements?
    Admiral Olson. SOCOM has developed its acquisition approach around 
the following four key principles which have enabled the successful 
acquisition of SOF unique equipment: deliver capability to the user 
expeditiously, exploit proven techniques and methods, keep warfighters 
involved throughout the process, and take and manage risks. SOCOM has 
shown that a dedicated corps of SOF acquirers is essential to rapidly, 
agilely, and successfully field SOF unique capability. SOCOM has been 
working closely with the Services to improve the synergy of Service and 
SOCOM acquisition activities through biannual acquisition summits co-
chaired by the OUSD/AT&L and the SOCOM Commander.

    65. Senator McCain. Admiral Olson, to what degree is SOCOM looking 
to leverage commercially available and proven technology in the 
development of solutions to satisfy SOF-peculiar requirements?
    Admiral Olson. The SORDAC, the SOCOM acquisition arm, balances the 
need for advanced technology with rapid fielding of needed capability. 
In an effort to provide Special Operations deployed forces with 
required assets, SORDAC Program Executive Offices (PEOs), constantly 
evaluate existing technology, service available, and off the shelf 
solutions (commercial off-the-shelf and government off-the-shelf). 
There are a number of venues that provide direct insight into 
technology currently available or technology that will be available in 
the near term. The Technology and Industry Liaison Office (TILO) serves 
as the interface to industry, providing a venue for open dialogue and 
market research in support of the command. SOCOM utilizes the TILO as a 
conduit for industry to present products and services to the command 
for evaluation. Additionally, SORDAC's Science and Technology (S&T) 
Directorate, constantly evaluates technology with a near term potential 
to mature into fielded capability. SORDAC S&T initiated the Rapid 
Exploitation of Innovative Technology for SOF (REITS) program in 2010 
to expedite technology which had the potential to rapidly transition to 
the field. Examples of current technology being evaluated in a Special 
Operations environment through the REITS program are; vehicle shock 
mitigation systems and mobile solar power generating systems. SORDAC 
S&T also sponsors an open experimentation venue which provides an 
opportunity for industry to demonstrate emerging technologies and 
capabilities which could support SOF. Experimentation creates synergy 
among industry partners and connects SOF operators to developers during 
concept assessments. The PEOs continually evaluate existing standalone 
equipment and package them to provide an enhanced capability to meet a 
new capability gap. For example, the Austere Location Force Protection 
Commodity Procurement Project packages off-the-shelf equipment to 
provide an integrated force protection system to support remotely 
deployed SOF Teams. Off-the-shelf equipment is a critical aspect of 
SORDAC's strategy to balance capability that will save lives today with 
the need to provide a technological leap that will provide SOF 
Operators with a significant tactical advantage in the field tomorrow.

                    TRAINING REQUIREMENTS SHORTFALLS

    66. Senator McCain. Admiral Olson, does SOCOM have any shortfalls 
in the availability of training resources, particularly ranges and 
facilities that are affecting the ability of your forces to prepare and 
train for specific deployments and missions? If so, please describe in 
detail these shortfalls and the effect they have on the ability of your 
forces to adequately train for specific deployments and missions.
    Admiral Olson. Many SOF units are unable to conduct all of their 
training requirements at or within close proximity of their home 
stations. Some training requirements, including long-range, full-
mission profile validation exercises for example, require SOF to train 
at other installations. It is difficult to conduct training missions 
that accurately replicate operations routinely conducted by the 
Combined Joint Special Operations Task Forces in Afghanistan, and 
previously Iraq. These long-range live-fire exercises generally include 
mounted and dismounted ground elements supported by helicopters and 
tactical aircraft. Additionally, SOF units may conduct training with 
SOF-unique weapons systems that require larger Surface Danger Zones 
than weapons systems employed by conventional forces.
    Ever increasing competition with conventional ground and aviation 
units for limited training range resources is adversely impacting SOF 
access to Service-owned ranges. For example, there are a very limited 
number of ground tactical ranges on U.S. Navy installations for Navy 
SOF to train. The majority of ground tactical ranges within the 
Department of the Navy are located on U.S. Marine Corps installations. 
This has challenged Navy and Marine Corps leadership to balance the 
training requirements of Navy SOF with those of Marine Corps units 
vying for use of the same ranges and training areas.
    Unmanned Aircraft Systems (UAS) training continues to be hampered 
by the lack of adequate restricted airspace for SOF to execute fully 
integrated training events in which the full range of ``shoot, move, 
and communicate'' skills are rehearsed with UAS ISR support. Federal 
Aviation Administration Certificates of Waiver and Authorization allow 
limited access to the National Airspace System; however, the 
restrictions placed on UAS flights in these areas do not allow for 
adequate training for SOF.

    67. Senator McCain. Admiral Olson, what is planned to address these 
shortfalls?
    Admiral Olson. SOF is working closely with the Services to develop 
courses of action that allow SOF reliable and predictable access to 
resources such as training ranges for ground and aviation elements.
    SOCOM is currently conducting a range study to examine the specific 
problems SOF is encountering with respect to ranges and training areas. 
The analysis will include SOF range access shortfalls, range saturation 
levels at home station, as well as adequacy of master range plans and 
existing agreements with the Services. Additionally, the study will 
determine if SOCOM components currently have adequate access to 
simulators and range simulation devices that could mitigate their 
requirements for range access. Findings and recommendations from this 
study will be staffed and presented to the SOCOM Commander.
    SOCOM is addressing range and training area issues with each 
Service during scheduled warfighter talks. SOCOM is also hosting 
periodic range conferences and working groups with representatives from 
our components as well as the Services. The intent of these conferences 
is to exchange ideas, information, and seek solutions to any range 
issues identified.
    The Navy has established a range working group with Marine Corps, 
Naval Special Warfare Command, and SOCOM participation to coordinate 
resolution of a request from Navy SOF for increased access to ranges 
and training areas on the west coast.
    U.S. Army SOCOM is working with the Army to determine the 
feasibility of establishing SOF training centers at select ranges on 
Army installations. The Army G3/5/7 is analyzing and modeling Army SOF 
requirements (specifically, long-range mobility full mission profile 
validation exercises) to determine supportability on identified Army 
installations.
    SOCOM and its components are working in numerous areas to bolster 
and support mission training requirements. These include: investment of 
MPF-11 dollars to fund SOF-peculiar modifications of existing ranges 
and facilities; expanded use of nontraditional training areas such as 
contracted facilities; and development of plans for SOF-managed 
training areas.

    68. Senator McCain. Admiral Olson, what can Congress do to help you 
address and improve the specific training requirements for SOF?
    Admiral Olson. DOD faces an increasing challenge from the 
cumulative effect of continuing urbanization and the increasing 
application of environmental requirements to military readiness 
activities--sometimes through novel or overly broad interpretation of 
law. Congress will have to balance the two public goods--military 
readiness and environmental protection. Some issues may require 
congressional action, while others can be relieved by changes within 
the regulatory agencies.
    Under Title 10, U.S.C., ownership of real property--to include 
ranges--is a responsibility of the Services. The Commander, SOCOM 
cannot own real property. SOF units are tenants on installations and do 
not own the ranges on which they operate and train.
    It is therefore critical that Congress adequately fund SOCOM to 
continue using home station, as well as other Service installation 
ranges and training support. Having sufficient resources also allows 
SOCOM to fund range enhancements and improvements, where appropriate, 
to meet SOF-unique training requirements.
    SOF access to Service ranges can be adversely impacted by 
challenges associated with land withdrawal agreements, National 
Environmental Policy Act actions, aviation airspace issues, and 
civilian encroachment on Federal lands. As Service initiatives 
addressing these challenges move forward, congressional advocacy, as 
appropriate, may be warranted.
                                 ______
                                 
               Questions Submitted by Senator Scott Brown

                        IRANIAN NUCLEAR WEAPONS

    69. Senator Brown. General Mattis, today Iran is producing higher 
enriched uranium and is moving closer to possessing the weapons-grade 
uranium needed for a nuclear weapon. Neither economic sanctions nor 
diplomacy have worked to diminish Iran's goal to enrich uranium. The 
President has stated that he intends to ``use all elements of American 
power to prevent Iran from developing a nuclear weapon.'' What is your 
assessment of Iran's role in the CENTCOM AOR?
    General Mattis. Iran's persistent destabilizing behavior runs 
counter to the United States, and more importantly, regional country 
interests. Likewise, Iran uses its Islamic Revolutionary Guards Corp-
Qods Force to expand soft power influence across the region and beyond 
via religious, cultural and humanitarian outreach, while at the same 
time executing destabilizing activities. Iran's nuclear program is a 
serious, destabilizing factor in the region and is widely believed to 
be part of the regime's broader effort to expand its influence.

    70. Senator Brown. General Mattis, what would it mean for the 
neighbors of Iran and the entire Middle East if Iran were to secure a 
nuclear weapon?
    General Mattis. A nuclear armed Iran would dramatically shift the 
balance of power between Iran and key regional nations. This shift and 
perceived failure of the international community in allowing Iran to 
develop nuclear weapons, would likely spark a regional arms race as 
Iran's neighbors would be apt to redress the balance. In the short 
term, the development of an Iranian nuclear weapon will place 
tremendous pressure on other countries to follow suit. The effects of 
these developments would rapidly extend beyond our region. A nuclear-
armed Iran would most likely be more assertive and more aggressive with 
regional states, leading to less stability in an already unstable 
region. Possession of a nuclear weapon would likely embolden Iran to 
engage in ``saber rattling'' to intimidate or coerce its neighbors and 
enhance or increase Iran's perceived status as a leader in the Gulf 
region. Iran might not provide nuclear technology or weapons to its 
surrogates, due to concerns over control, accountability, and 
international repercussions. However, those surrogates, with a nuclear-
armed sponsor, may be emboldened to act more aggressively, though not 
necessarily under Iran's control or on Iran's behalf.

    71. Senator Brown. General Mattis, do you agree that a nuclear-
armed Iran poses an unacceptable risk to the United States?
    General Mattis. Yes. Iran remains the most significant threat to 
regional stability. Although the United Nations Security Council has 
spoken out against Iranian actions through additional sanctions, the 
regime continues its destabilizing activities globally. A nuclear armed 
Iran would significantly impede our global priorities of preventing WMD 
proliferation, retaining strategic access and ensuring the security and 
free flow of global commerce, especially energy resources. This would 
create a significantly more complex problem for our national security 
team and for the U.S. economy. Also, we could see other countries in 
the region finding it necessary to develop nuclear weapons or 
significantly increase conventional weapons to deter a nuclear armed 
Iran. We should endeavor with our international partners to take strong 
measures to prevent Iran from developing nuclear weapons.

                           TRANSITION IN IRAQ

    72. Senator Brown. General Mattis, do we have a contingency plan in 
place if Iraq security forces are not making progress by the end of 
this year?
    General Mattis. We are currently on track to remove U.S. security 
forces from Iraq by 1 January 2012 and will be ready to support U.S. 
Government led efforts through the Office of Security Cooperation-Iraq. 
If the Government of Iraq requests U.S. forces remain to assist Iraqi 
Security Forces after December 31, 2011, and the U.S. Government agrees 
to such a request, the U.S. military has the capability to assist.

    73. Senator Brown. General Mattis, during the transition in Iraq 
how do we prevent a mass exodus of institutional knowledge from 
occurring as a result of DOS taking over too abruptly?
    General Mattis. The same military personnel with institutional 
knowledge assigned to the Office of Security Cooperation-Iraq are 
currently working closely with our partners in DOS to support a smooth 
transition. We share a common objective for continuity and stability 
during the transition in Iraq. Preparations have been underway for some 
time and began with a comprehensive assessment of what was necessary to 
ensure a successful transition. A plan was developed and went into 
execution in the summer of 2010, including the identification of a 
multitude of tasks that will transition from U.S. Forces-Iraq to the 
U.S. Embassy-Iraq, CENTCOM, and the Government of Iraq, or be 
discontinued altogether.

    74. Senator Brown. General Mattis, what is the psychological 
dimension of the transition in Iraq?
    General Mattis. The psychological impact of the transition in Iraq 
varies. The American public may view the transition as positive. For 
the majority of the Iraqi people, the transition will be a positive 
experience that marks the re-emergence of Iraq in a regional and 
international context. Iraqi nationalism and the emergence of a 
representative government are all positive trends towards a new and 
prosperous future for Iraq. The future security and prosperity of Iraq 
now rests with its citizens. At the same time, some citizens in Iraq 
may view the transition with angst and uncertainty as the U.S. 
transitions from a Defense Department led effort.

    75. Senator Brown. General Mattis, will our Iraqi military partners 
have the confidence and incentives necessary to keep security tight 
after we are gone?
    General Mattis. Current assessments project some gaps in the 
Government of Iraq security capabilities will continue to exist. The 
Iraq Security Forces Fund combined with Foreign Military Sales cases 
directly address required equipment and training to deal with 
capability requirements. With these efforts, some shortfalls such as an 
air sovereignty capability requiring much longer timelines to put in 
place will continue to exist. Our primary strategic objective remains 
assisting the Government of Iraq in building and forging a 
professional, self-reliant, and effective security force capable of 
maintaining internal security and deterring external threats.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                U.S. FINANCIAL COMMITMENT TO AFGHANISTAN

    76. Senator Brown. General Mattis, I understand the number of ANSF 
has increased dramatically in the past year. Pending the funding level 
provided for 2011, we have committed about $20 billion towards training 
and equipping the ANSF in 2010 and 2011. We provided roughly the same 
amount in the preceding 7 years. It is unclear to me that Afghanistan 
has the budget to sustain these forces once we drawdown in Afghanistan 
in 2014 or sometime between now and then. Unlike Iraq, which has 
significant oil revenue, Afghanistan's total GDP is about $30 
billion.\1\ Are we establishing a long-term U.S. financial commitment 
with the Afghan Security Forces Fund, or is there a transition plan 
that ensures Afghanistan sustains their security forces once we have 
trained and equipped them?
---------------------------------------------------------------------------
    \1\ CIA World Fact Book.
---------------------------------------------------------------------------
    General Mattis. The international community has acknowledged that 
while the transition of lead security responsibility will be completed 
by December 2014, financial support of the ANSF and other parts of the 
Afghan economy will be necessary past 2014. CENTCOM, in collaboration 
with other U.S. Government agencies, is developing economic initiatives 
to enable more coordinated and effective international community 
assistance. This will move Afghanistan from an aid based economy to a 
more self-sufficient trade based economy that will put Government of 
Afghanistan revenues on a path to eventually meet the expenditures of a 
robust ANSF which is capable of both meeting Afghanistan's security 
requirements and achieving U.S. strategic objectives in Afghanistan.

                        SAFE HAVENS IN PAKISTAN

    77. Senator Brown. General Mattis, last week, Admiral Mullen stated 
in his written testimony before this committee that one of the 
necessary conditions to succeed in achieving sustainable security in 
Afghanistan and Pakistan requires neutralizing insurgent sanctuaries in 
Pakistan.\2\ On the next page he testified that ``Insurgent groups such 
as the Quetta Shura and the Haqqani network operate unhindered from 
sanctuaries in Pakistan.'' \3\ Putting these two comments together, it 
leaves me with the impression we are not on a path to success unless 
these safe havens in Pakistan are addressed. How confident are you that 
coalition or Pakistani forces will neutralize these sanctuaries--
including those sanctuaries utilized by the Haqqani and Quetta Shura 
groups--in the next 12 months?
---------------------------------------------------------------------------
    \2\ Mullen Testimony, SASC Hearing, February 23, 2010: Page 6 
``Achieving sustainable security requires developing Afghan governing 
capacity, cultivating the conditions needed for conflict resolution, 
neutralizing insurgent sanctuaries in Pakistan, and countering 
corruption. Absent these conditions, we will not succeed.''
    \3\ Mullen Testimony, SASC Hearing, February 23, 2010: Page 7.
---------------------------------------------------------------------------
    General Mattis. I don't believe Pakistan will reverse its current 
policy within the next 12 months and eliminate sanctuaries enjoyed by 
the Quetta Shura Taliban and Haqqani Network. However, satisfactory 
end-states are attainable in Afghanistan even if the sanctuaries 
persist. Combined counterinsurgency operations beginning in late 2009 
succeeded in ejecting the Taliban from key districts in southern 
Afghanistan despite Taliban sanctuary across the Pakistani border. 
Continued security gains and Afghanistan Government progress in 
security, governance, and development over the next several years have 
the potential to neutralize the Taliban as a strategic threat, even if 
sanctuaries in Pakistan allow insurgents to maintain influence in 
outlying areas and sustain a certain level of violence throughout 
Afghanistan.

                        IRANIAN NUCLEAR PROGRAM

    78. Senator Brown. General Mattis, last month, the quarterly report 
issued by the International Atomic Energy Agency reiterated concern 
about undisclosed nuclear-related activities that Iran has undertaken 
since 2004 related to the development of a nuclear payload for a 
ballistic missile. Will you update the committee on the latest 
estimates for when Iran could develop a nuclear weapon and when it 
could launch an Intercontinental Ballistic Missile?
    General Mattis. The Iranian regime continues to flout U.N. Security 
Council resolutions on its nuclear and missile programs. Iran is 
keeping open the option to develop nuclear weapons in part by 
developing various nuclear capabilities that better position it to 
produce such weapons, should it choose to do so. Iran is technically 
capable of producing enough highly enriched uranium for a weapon in the 
next few years, if it chooses to do so. Iran would likely choose 
missile delivery as its preferred method of delivering a nuclear 
weapon. It continues to expand the scale, reach, and sophistication of 
its ballistic missile forces, many of which are inherently capable of 
carrying a nuclear payload.

                             PIRACY ATTACKS

    79. Senator Brown. General Mattis, I am alarmed at the sharp rise 
in piracy attacks on the high seas in the last 4 years. According to 
the International Maritime Bureau, the number of pirate attacks against 
ships has risen every year for the last 4 years, and ships reported 445 
attacks in 2010, up 10 percent from 2009. The number of crew members 
taken hostage has increased from 188 in 2006, to nearly 1,200 crew 
members in 2010. The recent killing of four Americans traveling on a 
sailing yacht demonstrates that the pirates threaten the safety of our 
citizens in international waters. In addition, the freedom to safely 
travel on the open ocean enables trade, which is the lifeblood for many 
American jobs. I certainly can appreciate that anti-piracy missions 
require significant resources and present many legal issues because 
most of these instances occur in international waters, but what needs 
to be done to reverse the increasing trend in piracy attacks?
    General Mattis. While we can inhibit piracy on the sea with 
military action, ultimately the problem of piracy must be solved on 
shore, primarily in Somalia with a stable government which can enforce 
the rule of law over its sovereign territory.

                       BALLISTIC MISSILE DEFENSE

    80. Senator Brown. General Mattis, many of us are concerned about 
the number of missiles and ships required to deploy an adequate BMD for 
our Nation and for our allies. The challenge is that in addition to 
protecting the U.S. Homeland, we need to protect our forward based 
troops and our allies. As a result, there are likely going to be a 
demand for BMD assets in European Command, Pacific Command, and 
CENTCOM--which is your AOR. Has CENTCOM established present and future 
requirements for both missiles and launchers regarding BMD in your AOR?
    General Mattis. Yes. We have identified BMD requirements for the 
CENTCOM AOR and they are based on our assessment of potential threats, 
present and future.

    81. Senator Brown. General Mattis, do you expect that the CENTCOM 
requirements for these assets will be fully satisfied now and in the 
future?
    General Mattis. No, I do not. There simply are not enough assets to 
deal with the global threat. As our adversaries improve their 
capability both in quality and quantity, the threat becomes ever more 
challenging and we must continuously re-examine the gap. Hence, we 
advocate for more interceptors now and additional systems as they 
become available. However, we are taking other steps to deal with the 
growing threat. We have engaged our partners and encouraged them to 
invest in their own BMD.
    Our adversaries will likely continue to outpace us in terms of 
sheer numbers of ballistic missiles compared to our interceptor 
inventory. However, we don't need to match them one for one. We believe 
we can establish a credible deterrent by establishing an integrated, 
interoperable, collective defense with our regional partners. 
Therefore, in order to adequately defend against the missile threat in 
our region, we must maximize production capacity, to not only close our 
own capability gaps, but also to enable rapid delivery of these 
critical systems to our partners once they commit to procuring them.

           SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION

    82. Senator Brown. Admiral Olson and General Mattis, the 
information and oversight the Special Inspector General for Iraq 
Reconstruction (SIGIR) has provided over the last several years has 
been invaluable to my colleagues and I to evaluate the U.S. mission in 
Iraq. The most recent SIGIR quarterly report suggests SIGIR has 
experienced some challenge in obtaining detailed information from DOD 
in the course of fulfilling its congressionally mandated 
requirements.\4\ Will you each commit to be forthcoming in providing 
information to SIGIR for adequate reporting of the transition during 
this year?
---------------------------------------------------------------------------
    \4\  SIGIR Quarterly Report and Semiannual Report to Congress. 
Pages 5 and 16.
---------------------------------------------------------------------------
    Admiral Olson. Yes.
    General Mattis. Yes. CENTCOM has always, and will continue to fully 
support SIGIR to the very best of our ability by providing the detailed 
information they require to execute their oversight functions.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

             ROLE OF U.S. GROUND FORCES IN FUTURE CONFLICTS

    83. Senator Cornyn. General Mattis, on February 25, 2011, Secretary 
Gates made the following comment regarding the force structure that 
will be needed in the years ahead: ``The Army also must confront the 
reality that the most plausible, high-end scenarios for the U.S. 
military are primarily naval and air engagements--whether in Asia, the 
Persian Gulf, or elsewhere . . . But in my opinion, any future defense 
secretary who advises the President to again send a big American land 
army into Asia or into the Middle East or Africa should `have his head 
examined'.'' This past week, we had the 20th anniversary of coalition 
forces driving Saddam Hussein's Army out of Kuwait. Clearly, land 
forces played a huge role in Operations Desert Shield and Desert Storm. 
Remarkably, 150,000 coalition ground troops and 1,500 tanks were able 
to push the Iraqi Army out of Kuwait in just 100 hours. Is that type of 
military operation truly a thing of the past?
    General Mattis. I agree with the Secretary that the most plausible 
scenarios for military intervention involve naval and air engagements. 
These forces are particularly well suited to conducting short-notice, 
reactive and expeditionary actions to counter threats to our national 
interests. However, there remain plausible scenarios today where a U.S. 
ally or interests are so threatened by a force that only a joint force 
including robust, integrated land forces would be able to defend our 
partners and U.S. interests, as we saw in Operation Desert Storm. I 
expect this reality will continue to be a dominant feature of my 
Command's AOR and for that reason we must always be able to rely on our 
Army's core land force capabilities.

    84. Senator Cornyn. General Mattis, if such a scenario arose again 
in the near future, would it be possible to drive the enemy out through 
primarily naval and air engagements?
    General Mattis. A combination of air, land, and sea engagements is 
critical in influencing enemy courses of action and their will as an 
opposing force. An example illuminating the limitation of an air power 
only campaign includes the NATO air campaigns over Bosnia in 1995. 
Successful engagements are derived by concurrent balance of forces that 
offer the greatest strategic flexibility while building on momentum to 
create opportunities for rapid achievement of objectives.

    85. Senator Cornyn. General Mattis, would it have been possible to 
conduct the initial phases of Operation Enduring Freedom--in which we 
invaded Afghanistan, inflicted severe damage on the Taliban and al 
Qaeda, and held key ground in Afghanistan--using primarily naval and 
air forces?
    General Mattis. No. During the early phases of combat operation in 
Afghanistan in October 2001, naval and air forces were largely focused 
on disrupting the Taliban and al Qaeda and preventing their use of 
terrorism training camps. However, CENTCOM assessed that the indigenous 
ground forces could not prevail without U.S. and allied assistance on 
the ground.

                       U.S. WITHDRAWAL FROM IRAQ

    86. Senator Cornyn. General Mattis, several startling recent events 
in Iraq call into question the Iraqi Security Forces' ability to 
maintain peace, including violent protests and the bombing of the Baiji 
Oil Refinery--the largest in Iraq. During your testimony, you alluded 
to the possibility that terrorist organizations such as al Qaeda are 
behind this recent unrest. How concerned are you that al Qaeda or its 
affiliates will return to Iraq and take root again following the 
departure of U.S. forces?
    General Mattis. The Al Qaeda in Iraq (AQI) network continues to 
suffer setbacks. AQI efforts to reinvigorate a Sunni support base will 
likely fall short of achieving its objective. The majority of Sunnis in 
Iraq strongly oppose the al Qaeda network for the harsh tactics the 
group imposes. The transition to Iraqi-led counterterrorism operations 
has already taken place and the Iraqi Security Forces have demonstrated 
the ability to aggressively and accurately pursue AQI entities. Iraq 
will undoubtedly face challenges long after the departure of U.S. 
forces; however, the Government of Iraq and its security forces are 
demonstrating the ability to prevent AQI from advancing.

    87. Senator Cornyn. General Mattis, several military and civilian 
leaders have expressed serious concern about the Iraqi Air Force's 
ability to protect its own air space once U.S. forces redeploy home. 
The Iraqis had aggressively pushed to purchase 18 American-made F-16s, 
but they announced postponement of the planned purchase in order to 
shift that funding to domestic priorities. In light of this unfortunate 
delay, what steps have you taken to enable Iraq to adequately defend 
its airspace following the U.S. withdrawal?
    General Mattis. While current intelligence assessments describe the 
threat to Iraqi air sovereignty as minimal, shared contingency planning 
addresses any potential threats and provides a framework for mitigation 
procedures. Iraq has taken the initial steps towards self-reliance in 
air defense with the objective of acquiring two long-range radar 
systems that will provide them a capable early warning system. This is 
the first piece in the development of a sustainable air sovereignty 
posture, of which the F-16 case was to be the next essential step. 
These radar systems, one to be provided through Iraqi Security Forces 
Funding and the other through an FMS case, will provide a foundational 
capability in air defense. We are working with them to have the radar 
capability installed and operational by the end of 2011. CENTCOM also 
intends to conduct military-to-military bilateral contingency planning 
with GoI. The GoI will still need to acquire a capable air defense 
weapon system in the future, whether it is the F-16 or another 
platform. While the GoI will investigate all options, including a like-
capability from other countries, CENTCOM will continue to encourage a 
U.S. manufactured solution as we believe this will provide the best 
sustainable capability for Iraqi air defense.

                                 PIRACY

    88. Senator Cornyn. General Mattis and Admiral Olson, Somali 
pirates are a lingering threat off the Horn of Africa and now even in 
the Indian Ocean. The February 22 murder of four Americans on a 
private, hijacked vessel near Oman served as a wake-up call. This year 
alone, Somali pirates have mounted over 50 attacks, hijacked several 
ships, and have taken over 200 crewmembers hostage. It appears that 
piracy is increasing in numbers, reach, and determination, despite the 
growing number of U.S. and international assets committed to protecting 
the maritime commons. In your mind, what is the most effective strategy 
to guard against piracy and secure the use of maritime routes off the 
east coast of Africa and throughout the Arabian Sea and Indian Ocean?
    Admiral Olson. SOCOM provides specially trained and equipped forces 
to support the counter-piracy strategies of the geographic combatant 
commanders.
    General Mattis. While we can inhibit piracy on the sea with 
military action, ultimately the problem of piracy must be solved on 
shore, primarily in Somalia with a stable government that can enforce 
the rule of law over its sovereign territory.

                             SOCOM FUNDING

    89. Senator Cornyn. Admiral Olson, in January, Secretary Gates 
announced several ``efficiency'' cuts, including $2.3 billion from the 
SOCOM budget. At the same time, our Nation asks more than ever of our 
SOF. Recently, you stated ``We are doing more with more, but the more 
we're doing it with doesn't match the more we've been asked to do . . . 
we are beginning to show fraying around the edges.'' You have also 
stated that deployment frequency for SOF is exceedingly high, while 
SOCOM lacks the resources to meet the current demand. Will losing this 
$2.3 billion detrimentally impact SOCOM operations? If so, why?
    Admiral Olson. Senator Cornyn, thank you for affording me the 
opportunity to answer this extremely important question. Secretary 
Gates has directed cost consideration in all we do, and a ``culture of 
savings'' to ensure that we optimize the resources entrusted to us. His 
direction for improving DOD business operations last summer was clear; 
identify our savings and efficiencies initiatives over the next 5 years 
under the notion that those savings would be reinvested. The 
Department's stated goal was to significantly reduce excess overhead 
costs and apply savings to force structure and modernization--not a 
reduction of the DOD topline through efficiency cuts.
    CDR SOCOM's efforts in resourcing tactical units, divesting of 
obsolete and redundant capabilities, and leveraging Service common 
capabilities are consistent with the Secretary of Defense efficiency 
focus. Realigning the $2.3 billion across the FYDP did not have a 
negative impact on SOCOM. In fact, it allowed us to address growing 
capability gaps and improve battlefield performance by invigorating our 
acquisition agenda. SOCOM was able to realign funding towards Undersea 
Mobility and AC-130J Gunship recapitalization. Additionally, we were 
able to realign funding to improve SOF operational readiness and 
improve our human capital strategy. Key efforts such as Foreign 
Language Proficiency Pay, Marine Corps Forces Special Operations 
Command sustainment, flying hours funding, and Warrior Rehabilitation 
were enhanced.

             INTERAGENCY COORDINATION ON NATIONAL SECURITY

    90. Senator Cornyn. General Mattis, in recent years, our troops in 
Iraq and Afghanistan are increasingly operating in areas outside their 
traditional competencies. We have seen examples of combat commanders 
standing up agricultural unions, dealing with veterinary issues, water 
issues, health issues, human services issues, and conducting elections 
in their areas of operations. While most of these tasks have been 
executed successfully, due in part to the sheer tenacity and 
determination of our military, many have been completed without the 
support and expertise of the relevant U.S. Government agencies. Could 
you comment on what legislative modifications you think are necessary 
in order to improve interagency security cooperation?
    General Mattis. Transitioning our military forces out of Iraq and 
Afghanistan will become more difficult if we cannot maintain assistance 
in the economic and governance areas on the civilian side. Robust 
resourcing for the State Department, the U.S. Agency for International 
Development, and other agency and department missions are some of the 
best investments for reducing the need for military forces to be 
employed.

    91. Senator Cornyn. General Mattis, do you see the need for a more 
comprehensive review or possible reorganization of some government 
agencies to better support our expeditionary military?
    General Mattis. Improved interagency coordination begins with an 
adequate level of resources available to our civilian interagency 
associates and partners. It is vitally important to support and fully 
fund the requests made by these departments and agencies in the 2011 
and 2012 budget requests that address and build the capabilities and 
capacity required for the future success of the National Security 
Strategy. The Quadrennial Diplomacy and Development Review offers 
important contributions to both improving efficiencies and allowing us 
all to better understand how our partners operate.

    92. Senator Cornyn. General Mattis, under current DOD organization, 
Iraq and Afghanistan fall within CENTCOM's AOR. However, within the DOS 
organizational structure, they fall under two separate regional 
bureaus. Similarly, Pakistan and India fall under the same DOS regional 
bureau, but under two different DOD unified combatant commands. These 
problems are not limited to the DOD and DOS maps. It would seem that 
this misalignment of geographic regions between Federal agencies would 
cause inherent challenges in the area of interagency coordination. In 
your opinion, does this lack of common demarcation of the world's 
regions hamper effective interagency cooperation and coordination on 
national security?
    General Mattis. No. Differences in the Areas of Responsibility 
geographic demarcations do not restrict accomplishment of assigned 
missions among COCOMs and civilian leaders across the Federal 
Government, to include diplomatic coordination, interagency 
cooperation, advancing U.S. interests, and protecting U.S. national 
security.

                      IRANIAN INTERFERENCE IN IRAQ

    93. Senator Cornyn. General Mattis, you noted in your testimony 
that Iran's Islamic Revolutionary Guard Corps-Qods Force (IRGC-QF) is 
equipping militants in Iraq and Afghanistan who have attacked U.S. and 
coalition forces, undermining stability and governance in both nations. 
Through these actions, Iran has essentially been waging a proxy war 
against U.S. troops. Your testimony also highlights a recent January 
2011 large-caliber improvised rocket-assisted mortar attack against 
U.S. forces in Iraq that, in your words, ``demonstrated Iran's 
malicious intent and ability to escalate violence when they desire.'' 
What concerns do you have regarding the potential for the Iranian 
regime to obtain a greater, destabilizing influence in Iraq following 
the planned withdrawal of U.S. troops in December 2011?
    General Mattis. IRGC-QF will likely continue to support Shia 
militant groups in Iraq after U.S. forces withdraw, just as IRGC-QF 
continued to support Lebanese Hizballah after the withdrawal of Israeli 
forces from Lebanon in 2000. IRGC-QF will likely attempt to replicate 
the Hizballah model in Iraq via Shia militia groups such as Kata'ib 
Hizballah, Asaib Ahl al-Haqq and Muqtada al Sadr's Promise Day Brigade. 
Their intent is to have a loyal proxy with legitimate seats in the 
Iraqi Government and a capable, responsive militia. These militia 
groups, backed by IRGC-QF and Lebanese Hizballah, could collectively 
destabilize the security gains made in Iraq should Iran and these 
militias believe increased violence would benefit their interests and 
increase their influence.

    94. Senator Cornyn. General Mattis, in your view, what is the best 
strategy, short of contingency operations, that the United States can 
employ to deter Iran's destabilizing activities in the region?
    General Mattis. I believe the most effective strategy is one that 
mobilizes the international community to implement sufficient 
diplomatic and economic pressure to further isolate Iran forcing the 
regime to change its destabilizing behavior. In the meantime, CENTCOM 
will continue to work through institutions, alliances, and coalitions 
to dissuade Iran from developing a nuclear weapon. To this end, we will 
continue to pursue security cooperation with our allies and regional 
partners while helping to strengthen their defensive capabilities. We 
will also continue to support interagency efforts that blend economic, 
diplomatic, informational, and military tools to deter Iran.

                              B-1 BOMBERS

    95. Senator Cornyn. General Mattis, the B-1 bomber has been 
operating over Afghanistan in support of our troops on the ground and 
has proven itself a critical component of our long-range strike 
operations overseas. Senior U.S. military leaders have consistently 
acknowledged that the B-1 fleet is doing an outstanding job. In a 
recent confirmation hearing, General David Petraeus stated that the B-1 
is a ``great platform'' and a ``very capable bomber.'' In your view, 
what role has the B-1 fleet played within CENTCOM's AOR, and what 
unique capabilities has it brought to the table, as compared to other 
platforms?
    General Mattis. The B-1 is a very capable combat aircraft that 
combines precision targeting and guided munitions. The B-1 can deliver 
up to 48,000 pounds of munitions and can loiter for 7 hours before 
needing aerial refueling. During the first 6 months of OEF, the B-1 
dropped 38 percent of all weapons delivered while flying only 5 percent 
of the overall sorties. In addition, the bomber dropped twice as many 
precision munitions as the coalition partners combined. In Operation 
Iraqi Freedom, the aircraft flew less than 1 percent of the combat 
missions while delivering approximately 43 percent of the precision 
munitions.

    [Whereupon, at 11:47 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MARCH 8, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                         DEPARTMENT OF THE NAVY

    The committee met, pursuant to notice, at 9:48 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Webb, McCaskill, Hagan, Manchin, Shaheen, Blumenthal, McCain, 
Inhofe, Wicker, Brown, Ayotte, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Creighton Greene, professional staff member; Jessica L. 
Kingston, research assistant; Gerald J. Leeling, counsel; Jason 
W. Maroney, counsel; Thomas K. McConnell, professional staff 
member; William G.P. Monahan, counsel; John H. Quirk V, 
professional staff member; and Russell L. Shaffer, counsel.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Daniel A. Lerner, professional staff member; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; and Michael J. Sistak, research 
assistant.
    Staff assistants present: Kathleen A. Kulenkampff, Brian F. 
Sebold, and Breon N. Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Gordon I. 
Peterson, assistant to Senator Webb; Tressa Guenov, assistant 
to Senator McCaskill; Roger Pena, assistant to Senator Hagan; 
Patrick Hayes and Joanne McLaughlin, assistants to Senator 
Manchin; Chad Kreikemeier, assistant to Senator Shaheen; Ethan 
Saxon, assistant to Senator Blumenthal; Anthony J. Lazarski, 
assistant to Senator Inhofe; Joseph Lai, assistant to Senator 
Wicker; Charles Prosch, assistant to Senator Brown; Ryan 
Kaldahl, assistant to Senator Collins; and Taylor Andreae, 
assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. I want to welcome 
Secretary Mabus, Admiral Roughead, and General Amos to the 
committee this morning to testify on the plans and programs of 
the Department of the Navy in our review of the fiscal year 
2012 annual budget and Overseas Contingency Operations (OCO) 
request of the administration. We are pleased to welcome 
General Amos to his first posture hearing as Commandant and to 
welcome Admiral Roughead for what will probably be his last 
posture hearing before the committee as Chief of Naval 
Operations (CNO).
    We are grateful to each of you for your great service to 
our Nation and for the valorous and truly professional service 
of the men and women under your command, and we're grateful to 
their families for the vital role families play in the success 
of careers and missions of our Armed Forces.
    As we discuss the budget issues here at home, our eyes are 
principally focused on places far from here. Nearly 20,000 
marines are partnered with an equal number of Afghan security 
forces (ASF) in Helmand Province, in the effort to bring 
security and stability to the people of southern Afghanistan. 
The marines have seen some tough fighting in clearing those 
areas of Taliban. They have also performed brilliantly in 
working with ASFs and local Afghan leaders to keep these 
communities free of insurgent control and to help the Afghan 
people build a better future. These efforts are showing 
progress, with villages secured in the central Helmand River 
Valley, market bazaars are reopening, and children are 
returning to school.
    The marines are also helping to establish community watch 
groups throughout Helmand Province, which are enabling local 
villagers to provide for their own security and to prevent a 
return of the Taliban.
    When we met for the Navy posture hearing last year, the 
Marine Corps was completing its drawdown of forces in Iraq and 
was in the midst of its redeployment to Afghanistan. The Navy 
has also been contributing directly to the war effort in U.S. 
Central Command (CENTCOM) as well and has 14,000 Active and 
Reserve sailors on the ground and another 10,000 at sea in 
CENTCOM, including ongoing individual augmentee support to 
operations in Iraq and Afghanistan.
    New challenges have emerged in recent days. Two ships with 
a Marine Expeditionary Unit (MEU) of over 1,000 marines aboard 
are in the Mediterranean. Missile-launching ships are available 
should the President choose to use them to strike Libyan 
targets, including military aircraft, air defenses, airstrips, 
command centers, and bases.
    Before exercising any use of force option, the President is 
appropriately seeking support from the international community, 
in particular the support of other countries in the Arab and 
Muslim worlds and in the region. It has been reported that some 
Arab states are apparently considering coordinating with the 
African Union in support of imposing a no-fly zone over Libya. 
Also, France and the United Kingdom are drafting a resolution 
for possible use at the United Nations (U.N.). Meanwhile, 
discussions are ongoing at the North Atlantic Treaty 
Organization (NATO) headquarters in advance of a defense 
ministerial meeting on March 10 and 11.
    Under the War Powers Act, the administration would need to 
consult with Congress before exercising a military option 
involving the use of force and to notify Congress promptly if a 
decision were made to use force.
    The use and possible use of our forces overseas makes it 
even more important that our budget provides for their success 
and their wellbeing. Our witnesses this morning are faced with 
a number of critical issues that confront the Department of the 
Navy and the budget, such as balancing modernization needs 
against the costs of supporting ongoing operations. We also 
know that you are facing serious complications due to the fact 
that the Department of Defense (DOD) does not have a full year 
budget for the current fiscal year.
    Many of the ongoing challenges facing the Department of the 
Navy (DON) center on acquisition programs. For instance, we 
have had great concerns about cost problems in the shipbuilding 
arena, including the Littoral Combat Ship (LCS) program. Since 
last year, we approved a revised acquisition strategy for LCS 
that will result in $2.9 billion in savings compared to the 
previous shipbuilding plan and has also contributed, at least 
in part, to the fact the Navy is buying additional ships in 
this budget and has added purchases of additional 41 F-18 
aircraft to help address a potential shortfall in tactical 
aviation.
    We will be monitoring closely to ensure that the DON 
actually achieves these savings and gets costs under control in 
other acquisition programs. The Navy has made modest progress 
in achieving the goal of a 313-ship fleet by increasing the 
size of the Navy fleet, and that has increased from a low of 
274 ships in March 2007 to a planned level of 288 during fiscal 
year 2012.
    We need to see more success stories, such as the savings 
from the LCS program or the savings from more efficient 
production of the Virginia-class submarine or the savings from 
the F-18 multi-year program if the Navy is going to make 
continued progress in building the size of the fleet. The 
future strength of the Navy depends on holding firm on these 
cost reduction efforts and expanding them across the whole 
acquisition portfolio.
    The Marine Corps has announced their intention to cancel 
the Expeditionary Fighting Vehicle (EFV) program. DON 
acknowledges the importance of the Marine Corps' amphibious 
assault mission and of the continuing relevance of that mission 
and capability to the Nation's defense. This mission in turn 
depends on an ability to move ashore from 20 to 30 miles out to 
sea with armored vehicles. That has been the purpose of the EFV 
program. So we need to hear this morning on the status of the 
alternatives to the EFV to achieve that mission.
    The Weapons Systems Acquisition Reform Act of 2009 has 
dictated that DOD make significant changes in its regulations 
and procedures governing the acquisition system. While I'm 
certain that this legislation will help correct past problems, 
I also know that we will succeed only through concerted efforts 
within the executive branch to implement that legislation and 
improve past behavior within DOD. We look forward to hearing 
this morning how the Navy is proceeding to implement the 
provisions of that act.
    Another concern surrounds future ship and aircraft force 
levels. As I have previously mentioned, the Navy budget would 
buy an additional 41 F-18 aircraft, but the budget would buy 
fewer Marine Corps and Navy versions of the F-35 Joint Strike 
Fighter (JSF). Additionally, the Navy is planning to conduct a 
Service Life Extension Program (SLEP) on some 150 F-18 aircraft 
already in our inventory. We need to understand the net effect 
of all these changes and how that alters the prospect of having 
empty carrier air wings later in this decade.
    Readiness continues to be a major concern for our 
committee. Without a final fiscal year 2011 appropriations act 
to match this committee's 2011 authorization of additional 
resources for readiness, the Navy readiness posture is in great 
jeopardy. Specifically, the funding needed in this fiscal year, 
in addition to the original budget request, is roughly $60 
million for aircraft depot maintenance and $34 million for ship 
depot maintenance.
    During last year's budget review cycle, this committee 
authorized those additional resources to meet the CNO's 
identified unfunded priorities for fixing shortfalls in the 
Navy aircraft and ship depot maintenance accounts in the fiscal 
year 2011 budget. While the Senate Appropriations Committee 
matched that additional funding, there has been no final 
appropriations act. Delaying the final appropriations act for 
fiscal year 2011 has already had a negative effect on 
readiness. The Navy has cancelled five ship availabilities. 
Further delay on appropriations will result in additional 
cancellations.
    The fiscal year 2012 budget continues an inadequate request 
for ship and aircraft depot maintenance, as I mentioned. For 
these two areas, the Navy budget request is short some $367 
million, which would only exacerbate an already stressed state 
of naval readiness.
    Turning to operational energy issues, I want to commend 
Secretary Mabus for his foresight and aggressive goals and his 
successful testing of alternative fuels from renewable sources. 
The sooner we can free ourselves from the shackles of fossil 
fuels, the better off our Armed Forces will be along with the 
Nation.
    I understand that last year one Marine company deployed to 
Afghanistan with renewable power systems to recharge batteries 
and laptops and energy-efficient lighting for tents, among 
other items. Since then, fuel use has decreased 90 percent and 
two patrol bases now operate entirely upon that renewable 
energy. I congratulate you, Secretary Mabus and the Marines, 
for that initiative.
    I also want to commend Secretary Mabus on his recent 
announcement that DOD will take new steps to enhance 
cooperation on clean energy and energy security by furthering 
last year's Memorandum of Understanding between DOD and the 
Department of Energy.
    Last year's committee report on the National Defense 
Authorization Act for Fiscal Year 2011 contained language 
expressing this committee's concerns with the planned 
relocation of 8,000 marines and their families from Okinawa to 
Guam. We recommended a reduction of $320 million from the 
request for construction of aircraft parking, site preparation, 
and utilities on Guam, since we concluded that these funds were 
budgeted ahead of need. The committee also recommended that 
authorization for the construction of future projects be 
deferred until we were provided with essential and relevant 
information. To date, the committee has not received that 
information on any of these six items that we requested.
    This year's budget request contains $181 million in similar 
projects. DOD has not yet shown that tangible progress has been 
made to implement a final decision on the replacement facility 
that meets the operational requirements for the marines on 
Okinawa, and we should not proceed with such an important, 
costly endeavor until we have complete, detailed information 
and realistic plans. To do otherwise would risk billions in 
taxpayers' dollars and could potentially put our strategic 
posture in a crucial region in jeopardy.
    So we look forward to hearing testimony this morning from 
our witnesses on these and other issues that are facing the 
Navy, and again we strongly commend you on your great service 
to the Nation and on the initiatives that you have taken.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses for being here today and I thank them 
for their service to the country. They join us in interesting 
times. There are a lot of issues that are now before us and the 
President and the Joint Chiefs and also our military leadership 
have to handle various situations that are unfolding in the 
world, some of it on a day-to-day basis. So, I'm very 
interested in hearing General Amos' and Admiral Roughead's 
assessments of some of these situations.
    I remain concerned--by the way, in case--I know that our 
witnesses didn't miss it, but the Chinese announced a 12 
percent or 12.5 percent increase in their defense budget. We 
all know that that is not a true reflection of their defense 
spending, and a lot of their recent behavior in my view has 
emphasized the need for a naval presence in that part of the 
world, a very significant one, which may in future years turn 
our attention again to our overall maritime strategy.
    The JSF is an issue that we have been over and over and 
over again both in hearings and with the witnesses. General 
Amos, I would really appreciate it if you would keep us 
informed almost on a monthly basis. Secretary Gates has said, 
as we all know, that the Marine Corps version of the F-35 is on 
``probation.'' This has really been a--I hate to keep throwing 
around the word ``disgraceful,'' but the cost overruns and 
delays have been unfortunately characteristic of a lot of our 
acquisition problems and challenges over the past several 
years.
    I know, General Amos, that you will keep us informed. But 
we don't want to be surprised about anything that happens with 
the F-35. In these tough fiscal times, we do have an obligation 
to our citizens to make sure that--we always have that 
responsibility, but now in these tough times, that 
responsibility has even been increased.
    General Amos, I appreciate your decision concerning the 
EFV. I know it was a tough one for you and I'll be very 
interested in hearing your views on what we will do instead of 
the EFV in the future, particularly in light of my opening 
comments. Our whole shipbuilding costs are really something 
which is disturbing us. Secretary Mabus, how you're going to 
fit the submarines as well as our other shipbuilding 
requirements all into a very tight budget, I would be very 
interested in hearing how you're going to approach that.
    Finally, on the LCS, I would just quote not my own views, 
but from Norman Polmar. Over the years we learn to respect the 
views of certain individuals who are experts and I would quote 
from an article that Norman Polmar wrote called ``A Crisis in 
Leadership'' in January. He basically said: ``And more 
recently, the Navy has again changed course on the LCS program. 
The program began a decade ago when the Navy awarded contracts 
to two industry teams to develop and build competitive LCS 
designs `at the speed of light.' As successive CNO and surface 
warfare flag officers attested, each team was to build up to 
two ships.'' At the last hearing I went through the numbers of 
the ships that were begun and cancelled, at huge costs.
    ``After competitive evaluation, the Navy would select one 
design to fulfill the requirement for a total LCS force of 
about 55 ships.''
    I go on to quote Norman Polmar: ``Into 2010, the Navy 
continued to praise this approach to the LCS program, even 
though both designs have been late and far above planned costs. 
The design selection also was delayed with the penultimate 
declaration by the Navy's leadership being that the winning 
design would be chosen in November 2010.
    ``Then, without warning, in November the Navy announced a 
`split decision.' The leadership now wants to buy 10 additional 
ships from each builder. The claim is made that the existing 
competition had driven down costs for both designs.
    ``That is a questionable claim in view of the more than 
doubling of the costs of prototypes of both designs, major 
problems in development and producing their mission modules, 
and increased costs of supporting a large number of both LCS 
configurations in the fleet. The two LCS designs have different 
sensors, computers, software, tactical displays, propulsion 
systems, et cetera. Those will cause increased maintenance and 
support costs, increased personnel training costs, and restrict 
flexibility in personnel assignment, an important factor in 
view of the small LCS crew size. The different combat systems 
of the two LCS designs will create problems related to 
operating the mission modules. Developing a new common combat 
system for both designs could cost up to $1.8 billion, 
according to the Congressional Research Service. Adapting one 
of the combat systems to the other design would cost just under 
$1 billion.''
    That's Norman Polmar's view, and we'll see, Mr. Secretary. 
We'll find out. I'll be here for a few more years, and we'll 
see whether your decision was correct, or whether Norman Polmar 
and I were correct, when you made a snap decision in November 
that we had to approve two different shipyards to do the job 
that for years you told Congress and the American people that 
you were going to select one.
    This kind of thing erodes, enormously erodes, the 
credibility of the Navy's plans and programs, at least for this 
member.
    I look forward to hearing from the witnesses and I thank 
them for their service to their country.
    Chairman Levin. Thank you, Senator McCain.
    Secretary Mabus, let me call on you first.
    Secretary Mabus.

 STATEMENT OF HON. RAYMOND E. MABUS, JR., SECRETARY OF THE NAVY

    Mr. Mabus. Mr. Chairman, Senator McCain, members of the 
committee: I have the honor of appearing here today 
representing the sailors, marines, civilians, and their 
families that make up our Department of the Navy. Today the 
Navy and Marine Corps are conducting missions across a full 
range of military operations. They remain the most formidable 
expeditionary fighting force the world has ever known and, 
thanks to your support, they will continue to meet the 
multitude of missions entrusted to them by our Nation.
    As the chairman pointed out in his opening statement, today 
we face an immediate crisis, the absence of a defense 
appropriations bill and the increasingly serious problems of 
operating under a continuing resolution (CR). The pressure of 
the CR has already significantly impacted procurement and 
reduced the resources available to maintain readiness. If the 
CR continues for the entire year, we will be forced to reduce 
aircraft flight hours and ship steaming days, cancel up to 29 
of 85 surface ship availabilities, defer maintenance on as many 
as 70 aircraft and 290 engines, and defer up to 140 maintenance 
and construction projects across the country.
    In addition, lack of legislative action will prevent the 
construction of two Arleigh Burke destroyers, one Virginia-
class submarine, and one mobile landing platform, prevent 
procurement of two nuclear reactor cores, and delay increased 
funding for the Ohio-class replacement, reduce Marine Corps 
procurement by a third after the Marine Corps rebalances its 
manpower accounts, create a $4.6 billion shortfall in 
operations and maintenance accounts, and create a nearly $600 
million shortfall in combined Navy and Marine Corps manpower 
accounts.
    These measures not only place additional stress on the 
force and on our families; they will weaken the industrial base 
and affect over 10,000 private sector jobs. The disruption to 
our fleet and shore maintenance and modernization schedules may 
take years to recover from and will come at a much greater 
cost. We strongly request congressional action to address the 
implications of the CR.
    This is particularly important when considering that 
submission of the fiscal year 2012 budget was based on the 
fiscal year 2011 request.
    The fiscal year 2012 President's budget request for the 
Navy of $161 billion, an increase of only one-half of 1 percent 
from fiscal year 2011, includes funds this year for 10 ships 
and 223 aircraft. It maintains our commitment to take care of 
our people, build a strong research and development and 
industrial base, and to grow the fleet.
    The $15 billion request for OCO, which represents a drop of 
$3.5 billion from fiscal year 2011, includes funds to sustain 
operations, manpower, infrastructure, as well as procure 
equipment to support operations in Afghanistan.
    During the budget development, we were keenly aware of the 
fiscal position of the country and the necessity to be 
responsible stewards of taxpayers' dollars. The resulting 
request is a strategy-driven document, informed by fiscal 
realities. I think it balances competing requirements and does 
what is best for the country, the Navy and Marine Corps, and 
our sailors and marines.
    We began this budget cycle by examining every aspect of 
what we do and how we do it. Consequently, $42 billion in the 
Navy efficiencies were identified over the 5 years. As a result 
of these efficiencies, we have been able to add one Aegis 
destroyer, three T-AOX fleet oilers, and one T-AGOS ocean 
surveillance ship to our shipbuilding plan. With our dual-block 
LCS strategy, this increases the total number of ships in the 
Future Years Defense Program (FYDP) from 50 to 56, including 
one Joint High-Speed Vessel to be built for the Army.
    The savings allow us to buy additional F/A-18s, extend the 
service life of up to 150 aircraft as a hedge against delays in 
the deployment of the F-35B, and allow us to continue investing 
in unmanned systems, which are becoming increasingly important 
on the battlefield.
    The upcoming year will see the deployment of Fire Scout to 
Afghanistan and continuing testing of the UCAS-D, the 
forerunner of an integrated carrier-based system.
    In 2010, one of the most important efforts was the decision 
endorsed by Congress to pursue the new LCS through a dual-block 
buy procurement strategy. At an average cost of less than $440 
million per ship and with the cost reductions we have seen on 
LCS-3 and -4, the new strategy will save taxpayers $2.9 
billion. This plan is one that's good for the Navy, good for 
taxpayers, good for the country, and demonstrates what can be 
accomplished when sound acquisition principles are followed and 
enforced.
    We heard the message from Congress very clearly. We need 
more ships, but they have to be affordable. The LCS strategy 
supports the industrial base by keeping workers employed at two 
shipyards and is indicative of DOD's push to ensure acquisition 
excellence. The fixed-price contracts used for LCS, I hope, 
will be a model. They are the result of effective competition, 
give the government full ownership of the technical data 
package used in construction, and afford greater congressional 
oversight. With the new strategy, we get more ships, more 
quickly, and more affordably.
    As was pointed out, significant additional savings were 
also achieved through termination of the EFV. It's important to 
emphasize that this decision in no way changes our Nation's 
commitment to amphibious warfare. We have to maintain an 
amphibious assault capability that will put marines ashore 
ready for the fight.
    But the EFV is simply not the vehicle to do this. Conceived 
in the 1980s, the EFV is a two-decade-old solution to a 
tactical problem that has since fundamentally changed. Its cost 
per unit would have consumed half the Marine Corps' total 
procurement from fiscal year 2018 to fiscal year 2025 and 90 
percent of its vehicle-related operation and maintenance 
account.
    In aviation programs, we, as you, are closely monitoring 
the JSF, particularly the Marine Corps variant, the F-35B. 
After a 2-year period of focused scrutiny, we'll be able to 
make an informed recommendation about resolving the technical 
and cost issues.
    Ashore, we continue to confront rising health care costs 
caused by an increasing number of beneficiaries, expanded 
benefits, and increased utilization. To deal with these trends, 
we have to implement systematic efficiencies and specific 
initiatives to improve quality of care and customer 
satisfaction, but at the same time more responsibly manage 
costs. We concur with the recommendations made by the Secretary 
of Defense to ensure fiscal solvency and benefit equity for our 
retirees.
    Finally, we are continuing efforts to invest in and develop 
alternative energy. The latest headlines from around the world 
reinforce the basic point: Energy is first and foremost an 
issue of national security. We cannot allow volatile regions of 
the world to control the price and affect the supply of the 
fuel we use.
    Last year, the Navy and Marine Corps took huge steps 
forward, including, again as was pointed out earlier, flying an 
F-18 Hornet on biofuel, conducting a large expansion of solar 
power, and beginning expeditionary energy initiatives in 
Afghanistan. The Third Battalion, Fifth Marines, was the outfit 
that you talked about, Mr. Chairman, and in the middle of some 
of the heaviest fighting in Helmand Province they have 
demonstrated not only the ability to reduce their use of fossil 
fuels, but also to make them better fighters. One foot patrol 
saves 700 pounds of batteries that they don't have to lug 
through the battlefield, simply by using some of these 
renewable energy devices.
    What we're doing there is already saving lives. We will 
continue these investments this year and will continue to move 
toward our goal of at least 50 percent alternative energy use 
by 2020.
    In closing, I want to thank you again for your support. 
Thank you for always looking out for our sailors, our marines, 
their families, and for your support of efforts to make the 
Navy and the Marine Corps better, stronger, and better able to 
defend our great Nation. It's a solemn privilege to lead the 
naval services during an era of protracted war and of national 
challenge. I have been profoundly moved by the sacrifice and 
devotion that I have witnessed daily in the sailors and marines 
who defend us. The Navy and Marine Corps are and will remain 
ready to do any mission America gives them.
    Thank you.
    [The prepared statement of Mr. Mabus follows:]

            Prepared Statement by Hon. Raymond E. Mabus, Jr.

    Chairman Levin and Ranking Member McCain, I have the honor of 
appearing here today on behalf of the nearly 900,000 sailors, marines, 
and civilians that make up the Department of the Navy. I have appeared 
before this committee on a number of occasions, and I am happy to be 
here again, along with the Chief of Naval Operations (CNO) and the 
Commandant of the Marine Corps, to report on the readiness, posture, 
progress, and budgetary requests of the Department. We consider 
ourselves privileged to lead the dedicated men and women of the 
Department who are selflessly serving the United States all around the 
world.
    Today, your Navy and Marine Corps are conducting missions across 
the full range of military operations. They are engaged in combat in 
Afghanistan, stability operations in Iraq, deterrence and ballistic 
missile defense (BMD) in the Pacific, Arabian Gulf, and the 
Mediterranean, as well as humanitarian assistance and disaster relief 
operations across the globe. Our unmatched global reach, endurance, and 
presence continue to allow the Navy and Marine Corps--in partnership 
with our sister Services--to secure and advance America's interests 
wherever challenges or crises have arisen, as well as operate forward 
to prevent crises from occurring. We remain the most formidable 
expeditionary fighting force the world has ever known, and with your 
continued support, the Navy and Marine Corps will continue to meet the 
multiplicity of threats that endanger international peace and security.
    But today we are very concerned about the absence of a Defense 
Appropriations Bill for fiscal year 2011 and the negative effects of 
operating under a continuing resolution for the remainder of the year. 
We are equally concerned about passage of a bill that reduces the 
topline from the level requested in the fiscal year 2011 President's 
budget. Either course of action significantly impacts the resources 
available to grow the fleet and jeopardizes recent efforts to restore 
and maintain readiness levels commensurate with the standards expected 
of the Navy and Marine Corps.
    Without legislative action, limiting fiscal year 2011 procurement 
accounts to fiscal year 2010 levels will:

        <bullet> Prevent start of construction of one Virginia-class 
        submarine to be built in Groton and Newport News which will 
        break the existing multi-year contract.
        <bullet> Prevent start of construction of one Mobile Landing 
        Platform to be built in San Diego.
        <bullet> Prevent start of construction of one or possibly both 
        programmed Arleigh Burke-class destroyers to be built in Bath 
        and Pascagoula due to DDG-1000/DDG-51 swap language that 
        prevents award of either ship unless both are authorized and 
        appropriated.
        <bullet> Preclude fourth and final increment of full funding 
        for construction of CVN-78 (USS Gerald R. Ford) and advance 
        procurement for CVN-79.
        <bullet> Prevent procurement of two nuclear reactor cores for 
        refueling of one aircraft carrier and one ballistic missile 
        submarine, as well as delay increased funding for research and 
        development of the Ohio-class replacement and replacement of 
        two Moored Training Ships that provide half of the force's 
        nuclear training capability.
        <bullet> Prevent completion of one Arleigh Burke-class 
        modernization.
        <bullet> Reduce Marine Corps procurement by $563 million. This 
        would add to equipment shortfalls generated by 9 years of 
        conflict and prevent equipment replacement or purchase of four 
        H-1 helicopters, numerous LAVs, MTVRs, LVSRs; tech upgrades to 
        counter IED jammers; communication and intelligence equipment; 
        tactical fuel systems to power our vehicles and generators; 
        engineering equipment to move ammo, gear and supplies; air 
        conditioners and heaters to take care of marines and sensitive 
        gear; and EOD improvements to protect them.

    Reductions to expected procurement levels will create additional 
stress on the force, as units in service pick up additional commitments 
to cover the seams created by fewer available platforms.
    Likewise, fixing fiscal year 2011 operations to fiscal year 2010 
levels has created a $4.6 billion shortfall in Navy and Marine Corps 
operations, maintenance, and training accounts. Faced with this 
prospect, the Department began efforts in January to mitigate the 
impacts of operating under the continuing resolution, which over the 
course of the fiscal year will cause us to:

        <bullet> Reduce aircraft flight hours and ship steaming days, 
        including a reduction of four non-deployed air wings' flight 
        hours to minimal flight-safety levels.
        <bullet> Cancel up to 29 of 85 surface ship availabilities.
        <bullet> Defer maintenance on 70 aircraft and 290 aircraft 
        engines, bringing the combined backlog of aviation maintenance 
        close to 1-year redlines.
        <bullet> Defer 41 facilities maintenance projects and 89 new 
        construction projects in Arizona, California, Florida, Georgia, 
        Hawaii, Louisiana, Maryland, North Carolina, Rhode Island, 
        South Carolina, Virginia, and Guam. These cuts equal an 
        approximate 50 percent reduction and will eliminate, among many 
        projects, dry dock certifications, bachelor quarters 
        maintenance projects, repairs to explosive handling wharves at 
        Bangor and Kings Bay that support ballistic missile operations, 
        and modernization projects to support introduction of new 
        training aircraft.

    The combined effects of the continuing resolution will directly 
impact the strength of the industrial base and over 10,000 private 
sector jobs at shipyards, factories, and Navy and Marine Corps 
facilities across the country. The degradation or loss of perishable 
skill-sets within our workforce, including many nuclear workers, and 
the disruption to both our fleet and shore maintenance and 
modernization schedules will take 3 years to recover based on 
rotational schedules alone--and only at significantly greater cost than 
requested in the fiscal year 2011 President's Budget.
    Finally, there is almost a $600 million shortfall in Navy and 
Marine Corps manpower accounts. As a result of this shortfall, the 
Services must raid other accounts in order to meet payroll for the 
duration of the year. We are currently living within funding 
constraints by limiting or conducting short-notice permanent change of 
station moves; however, this tactic places significant hardship on our 
military families and is not sustainable over the entire fiscal year.
    We strongly request congressional action to address the 
implications of the Continuing Resolution on our forces and our people 
by taking action to enact the fiscal year 2011 President's Budget.

                        DEPARTMENTAL PRIORITIES

    As I testified last year, there are four imperatives I believe the 
Department of the Navy must address to maintain preeminence as a 
fighting force and successfully meet the challenges of the future. They 
are:

    (1)  Taking care of our sailors, marines, civilians, and their 
families
    (2)  Treating energy as a strategic national security issue
    (3)  Creating acquisition excellence
    (4)  Continuing development and deployment of unmanned systems

    These priorities underpin every action of the Department, from 
supporting current operations to developing the current year's budget 
request, finding efficiencies within the Department, and preparing our 
Navy and Marine Corps for the future.
    Fundamentally, it comes down to a question of resources, of 
ensuring that our people have what they need to do their jobs, ensuring 
the Nation that the Navy and Marine Corps uses our fiscal and energy 
resources wisely, and ensuring that seapower, as a resource, remains 
readily available to meet the Nation's policy requirements and the 
orders of the Commander in Chief.

                 SEAPOWER: A CRITICAL STRATEGIC ENABLER

    It is clear that we live in a time of sweeping change and an era of 
strategic realignment. The President has stated that we ``must pursue a 
strategy of national renewal and global leadership--a strategy that 
rebuilds the foundation of American strength and influence.'' Seapower 
has always been a part of that foundation and will continue to be an 
indispensible asset to American leadership and economic strength in the 
global community of nations. American seapower, as it has done for 
generations, continues to guarantee freedom of navigation and 
international maritime trade, underpinning global economic stability 
and facilitating continued global economic growth. No other component 
of American military power is as flexible or adaptable as seapower. I 
see one of my primary responsibilities as Secretary to be ensuring 
continuation of this responsiveness, flexibility, and adaptability 
through the policies we adopt and in the ships, aircraft, and weapons 
systems that we build.
    Maritime nations have many inherent strategic advantages. Naval 
forces operating in the open ocean provide an effective conventional 
deterrent to those who threaten regional stability or promote 
extremism. Strong expeditionary forces can swiftly respond to crises 
and make potential adversaries pause before committing hostile actions. 
But should deterrence fail, our combat ready naval forces must be 
prepared to conduct sustained combat operations.
    The Navy and Marine Corps are America's ``Away Team.'' They exist 
primarily to protect our Nation far from home and respond quickly to 
crises wherever and whenever they occur. Exploiting their inherent 
mobility and maneuverability at sea, naval forces gather information, 
perform surveillance of seaborne and airborne threats, defend regional 
partners, deter prospective adversaries, interdict weapons of mass 
destruction, disrupt terrorist networks, conduct humanitarian 
assistance and disaster relief, and support the work of American 
diplomacy. This variety of capabilities is a primary feature of 
seapower, and it provides the President and our Nation with unmatched 
flexibility to deter conflict and, if necessary, project power from the 
sea to defend U.S. national security interests. The ability to 
accomplish these tasks without placing a large presence ashore and 
absent concerns of sovereignty is absolutely critical in our world of 
increasingly sophisticated threats and growing geopolitical complexity.
    It is for these reasons, and in order to improve global force 
projection capabilities that the Navy, Marine Corps, and Air Force are 
working on an Air Sea Battle concept to improve joint capabilities and 
cooperation in addressing anti-access/area-denial challenges.
    Unique in history, the blanket of maritime security and stability 
provided by American maritime power is the first to be used for the 
good of the whole world. But in order to ensure continued American 
leadership in issues of maritime policy and security, we strongly 
recommend accession of the United States to the Convention on the Law 
of the Sea, an action that has been similarly and repeatedly 
recommended by multiple Secretaries of the Navy and Chiefs of Naval 
Operation. Accession by the United States would enhance stability of 
the navigational rights inherent to the Convention and would strengthen 
our bargaining position in international discussions of Arctic Policy 
and access to resources and sea lines of communication.

                           CURRENT OPERATIONS

    Over the past year, our forces have successfully navigated the 
world's growing complexity and have consistently demonstrated the 
utility, effectiveness, and flexibility of seapower and maritime 
forces.
    Following completion of the Marines Corps' mission in Iraq, the 
primary operational focus of the Department has been supporting the war 
effort in Afghanistan. Over 30,000 marines and sailors are committed to 
the fight there, working all across the country, with the largest 
concentration operating as Regional Command-Southwest along the Helmand 
River Valley.
    In my visits to the marines on the ground throughout the year, I 
had the opportunity to look firsthand at the progress made by our 
increased presence in Helmand. In December, I visited three Forward 
Operating Bases (FOBs) with increasing levels of stability in three 
separate districts of Helmand: Sangin, Marjah, and Nawa--or as the 
marines put it, I went to look at where the fight is, where the fight 
was, and where there is no fight.
    In Nawa, I saw a strong partnership between the local government, 
Afghan National Police, the Afghan National Army, and our Marines--who 
have built the capacity of their partners so that they may shortly 
assume responsibility for their own security. The district is very 
safe, and because of the success of the counter-insurgency effort, Nawa 
is growing in both political strength and economic activity.
    In Marjah, after successful operations to clear it last spring, the 
markets are open, schools are being built, and a local government is 
working to build capacity. In my visit just 3 months ago, I personally 
walked the streets of Marjah to witness the progress, something that 
even in the summer of 2010 would have been unthinkable. Then, just 
stepping outside the gates of our FOB would have generated a pitched 
battle. Now, it brought out street vendors and men on motorbikes.
    I also went to Sangin District near the Kajaki Dam in Northern 
Helmand, which has been a Taliban stronghold for years and for the past 
few months has been the main effort of the fight in Helmand. Our 
marines in Sangin have been conducting intensive combat and security 
missions in support of the counterinsurgency strategy, and 
concurrently--even in the midst of the fight, have been testing new 
solar energy equipment to expand their operational reach. Together with 
their partners from the Afghan National Security Forces, they have 
taken the fight to the Taliban and are facilitating the Afghan 
Government's reestablishment of local control.
    Elsewhere across Central Command, the Navy has over 14,000 sailors 
on the ground supporting joint and coalition efforts and another 10,000 
sailors at sea supporting combat operations, including from our 
carriers operating in the Indian Ocean, where we are launching 
approximately 30 percent of the strike or close air support missions 
that watch over our marines and soldiers on the ground in Afghanistan.
    In addition to combat operations, the Navy and Marine Corps remain 
globally engaged in a host of other security and stability operations. 
On any given day, more than 72,000 sailors and marines are deployed and 
almost half of our 286 ships are underway, ready to respond where 
needed.
    It was the Navy and Marine Corps that were the first on scene after 
both the devastating earthquake in Haiti and the summer's catastrophic 
floods in Pakistan. Within hours of the January 12th earthquake, both 
Navy and Marine Corps assets were en route to Haiti. A total of over 
10,000 sailors and marines and 23 ships, including the carrier USS Carl 
Vinson, the Bataan and Nassau Amphibious Ready Groups, and the hospital 
ship USNS Comfort ultimately participated in Operation Unified 
Response.
    Halfway around the world, after Pakistan was struck by devastating 
August floods that impacted nearly a fifth of its population, 
helicopters from the USS Peleliu and the 15th Marine Expeditionary Unit 
supported the Government of Pakistan through delivery of 2,000 tons of 
relief supplies and by contributing to the rescue of over 10,000 
people. Later, the ships of the Kearsarge Amphibious Ready Group 
deployed early to provide a continuous U.S. humanitarian presence.
    In response to the administration's strategic direction, the Navy 
is scaling up our BMD force and their deployments to enhance our 
deterrent posture, especially in the defense of Europe. Our multi-
mission, BMD-capable, Aegis cruisers and destroyers now routinely 
deploy to the Mediterranean and the Arabian Gulf, as well as the 
Western Pacific to extend our deterrent umbrella for our allies. I had 
the opportunity a few months ago to visit the destroyer USS Ramage 
after she completed her first BMD deployment, and I can assure you that 
the sailors on these ships are some of the most professional and 
dedicated men and women in the country, and they are incredibly excited 
about their work. We appreciate Congress' continued support of the 
destroyer and cruiser modernization programs that are bringing 
additional BMD capability to the fleet.
    Our growing BMD capability is complemented by our traditional sea-
based, strategic nuclear deterrent centered upon our globally deployed 
and proficient ballistic missile submarine force.
    In the Western Pacific, as an integral part of U.S. diplomatic 
actions, several times last year the USS George Washington sortied to 
the South China Sea and the Sea of Japan in response to territorial 
disputes with North Korea and open North Korean provocation. In late 
November, after the North Korean artillery attacks on Yeonpyeong Island 
west of Inchon, the George Washington strike group conducted a training 
exercise with the South Korean Navy in order to demonstrate the 
continuing value and strength of our alliance.
    We are also working to build regional capacity and resolve security 
issues of common international concern.
    In support of our Maritime Strategy, both the Navy and Marine Corps 
routinely engage with nations all around the world to build capacity 
and forge stronger maritime partnerships. In the ``Rim of the Pacific'' 
or RIMPAC exercise, 32 ships, 5 submarines, and more than 170 aircraft 
from 14 nations participated in the world's largest multinational 
maritime exercise encompassing every aspect of traditional naval 
warfare.
    Global Partnership Stations in Africa, South America, and the 
Pacific are training hundreds of sailors, marines, and coastguardsmen 
from dozens of nations and are bringing advanced medical and civil 
engineering assistance to those in need. The Africa Partnership Station 
alone has trained with 32 African and European partners since 2007. 
Between them, Pacific Partnership 2010--conducted by the USNS Mercy--
and Continuing Promise 2010--conducted by the USS Iwo Jima--treated 
over 100,000 patients and conducted over 20 civil engineering projects.
    In the Caribbean and South America, we continue to work with the 
Coast Guard-led Joint Interagency Task Force-South to synchronize 
forces from 13 nations and interdict the flow of illegal narcotics into 
the United States. In 2010 naval forces contributed to the seizure of 
over 133.2 tons of cocaine, 3.2 tons of marijuana, 92 boats and 
aircraft, and $2.7 billion in drug revenue.
    In the Gulf of Aden and western Indian Ocean, the Navy remains 
committed to counter-piracy efforts with approximately 16 partner 
nations. Combined Task Force 151, in cooperation with forces from the 
EU, NATO, and other nations deploying individual units or task groups, 
is operating off of Yemen and in the Somali Basin to protect the safe 
passage of maritime commerce. Where our forces are located, pirate 
activity has fallen, but the areas involved are huge, and as Secretary 
of State Clinton said in April 2009, the solution to Somalia piracy 
lies largely with Somalia, through building its capacity to police 
itself and offering young pirates viable alternatives to that way of 
life. We are treating the symptoms of piracy, rather than its 
fundamental cause: Somalia's failure as a state. Despite the 
international community's commitment, piracy has both continued to 
increase and move further offshore, a measure of pirate resiliency and 
the strong economic incentives that underpin it. Nine of 10 pirates 
captured are ultimately freed as there is often insufficient evidence 
or political will to prosecute them, or to incarcerate them after 
conviction. We strongly endorse additional international efforts to 
address these concerns.

                   FISCAL YEAR 2012 BUDGET SUBMISSION

    Over the past year, I have visited with thousands of sailors and 
marines stationed with our forward operating forces at sea and our 
combat forces in Afghanistan. I can report, based on both the direct 
observations I mentioned and from personal inputs from Joint and 
Combined commanders, that the quality of our sailors and marines is 
superb and we are continuing to protect America's interests abroad. But 
while we are prevailing today, we must also build the foundation for 
the Navy and Marine Corps of tomorrow.
    During the development of the President's fiscal year 2012 budget 
submission our Navy and Marine Corps leadership team made numerous 
difficult tradeoffs to preserve current readiness while better 
posturing the Navy and Marine Corps for the challenges of the future. I 
believe that the result provides a balanced approach that will enable 
the Services we lead to successfully perform our assigned missions, 
even while setting a course for future success. It is important, 
however, to reiterate that the fiscal year 2012 budget was developed 
based upon ultimate passage of the President's fiscal year 2011 budget. 
If the continuing resolution now in place remains the de facto budget 
for the year, or if a Defense Appropriations Bill is passed that 
reduces the amounts requested in the fiscal year 2011 President's 
budget, the proposed fiscal year 2012 budget will not be sufficient to 
recover from delays, cancellations, and mitigations we have been forced 
to put in place this year.
    Over the past year, we have examined every aspect of what we do and 
how we do it in order to eliminate waste and move every resource 
possible toward operations and successfully executing our missions now, 
and in the future. At the direction of the Secretary of Defense, in 
June 2010, the Services were formally asked to continue this process 
through an efficiencies review, which we developed through three 
complementary approaches; buying smarter, streamlining our organization 
and operations, and being more efficient in the way we use, produce, 
and acquire energy. This effort has had a substantial impact on our 
overall budget, allowing us to invest more in our core warfighting 
missions and enhance our acquisition plans. Savings were also derived 
from the Office of the Secretary of Defense (OSD)-mandated, Defense-
wide efficiencies.
    Since the review began, the Department of the Navy has identified 
approximately $35 billion in self-generated efficiencies over the next 
5 years. When DOD-wide efficiencies are factored in we will achieve $42 
billion in savings. These savings will facilitate adding one guided-
missile Aegis destroyer, three T-AO(X) fleet oilers, and one T-AGOS 
ocean surveillance ship to our shipbuilding plan, which with our dual-
block LCS strategy will increase the total number of ships in the 
Future Years Defense Program (FYDP) from 50 to 56, including one joint 
high speed vehicle to be built for the Army, an average of more than 11 
ships per year. We were also able to accelerate a Mobile Landing 
Platform from fiscal year 2015 to fiscal year 2012 and increase R&D 
funding to support the accelerated procurement of the T-AO(X), and the 
development of the next amphibious dock-landing ship (LSD(X)).
    The savings allowed additional investments in the Next Generation 
Jammer to provide greater protection for tactical aircraft, electronic 
warfare systems, ballistic missile sets, and the new air and missile 
defense radar that will equip our DDG-51 Flight III destroyers. The 
savings allowed increased funding for a new generation of sea-borne 
unmanned strike and surveillance aircraft; and gave us the ability to 
buy additional F/A-18s and extend the service life of 150 aircraft as a 
hedge against more delays in the deployment of the F-35B, the Short 
Take-Off and Vertical Landing (STOVL) variant of the Joint Strike 
Fighter.
    We addressed Marine Corps needs by increasing equipment funding for 
units in dwell and for repair and refurbishment of Marine equipment 
used in Iraq and Afghanistan. Based on heavy usage rates, we requested 
$2.5 billion for Marine reset in the fiscal year 2012 OCO request, and 
estimate a $5 billion reset liability upon termination of the conflict 
in Afghanistan. We also added funding for fire and maneuver platforms, 
command and control capabilities, and intelligence, surveillance, and 
reconnaissance.
    We found the $35 billion through a close and systematic review of 
our programs and by cutting excess capacity in our support 
establishment. Over the FYDP, with congressional support we will reduce 
Navy manpower ashore and reassign over 6,000 personnel to operational 
missions at sea; use multi-year procurement and production efficiencies 
to save more than $1.1 billion on the purchase of new airborne 
surveillance, jamming, and fighter aircraft; and disestablish both 
Second Fleet and excess staffs for submarine, patrol aircraft, and 
destroyer squadrons plus one carrier strike group staff.
    Programmatically, one of the most important efficiency efforts was 
the decision endorsed by Congress to pursue the new Littoral Combat 
Ship (LCS) through a dual-block buy procurement strategy. Over the past 
years the message from Congress has been clear, we must build more 
battle force ships as affordably as we can, consistent with the 
statutory requirements laid out in the Weapons System Acquisition 
Reform Act of 2009. We heard that message clearly, and are grateful to 
the administration for its support and to the many Members of Congress 
who worked with the Navy to make the LCS program an example of what can 
be done right when strict acquisition standards are laid out and 
enforced.
    With an average cost of $440 million per ship, and with the cost 
reductions we have seen demonstrated on LCS-3 and -4, the Navy will 
save taxpayers approximately $1.9 billion in fiscal year 2012 to fiscal 
year 2016. More importantly, the fact that prices were so dramatically 
reduced from the initial bids in 2009 will allow us to save an 
additional $1 billion--for a total of $2.9 billion--through the dual 
award of a 10-ship contract to each bidder. This plan is truly one that 
is good for the Navy, good for taxpayers, and good for the country.
    At the recommendation of both the Commandant and myself, 
significant additional savings were also achieved by the Department of 
Defense through termination of the Expeditionary Fighting Vehicle (EFV) 
program. The nation absolutely must retain and rebuild an amphibious 
assault capability that will get marines from ship to shore in a 
protected amphibious tracked vehicle ready for the fight. This is a 
core capability the Marine Corps must have. But the EFV is not the 
vehicle to do this. Conceived in the 1980s, the EFV was the previous 
generation's solution to a tactical problem that has since 
fundamentally changed. Just as importantly, the EFV's cost per unit 
would have eaten up over half of the Corps' total procurement account 
and 90 percent of the Corps' vehicle-related operation and maintenance 
account; the requirements levied on the vehicle outstripped what could 
affordably be achieved.
    We are committed to developing and fielding an effective, 
survivable and affordable amphibious capability that will meet the 
Corps' amphibious requirements. This will be done through upgrading 
existing vehicles, through service-life extensions, and by working with 
OSD and industry to go as fast as possible in the acquisition and 
contracting process to develop a successor program to the EFV, one that 
will meet today's requirements for this critical Marine Corps 
capability.
    We are also closely overseeing the Joint Strike Fighter program. In 
particular, we are providing additional focused attention on the Marine 
Corps variant, the F-35B, which the Secretary of Defense has placed on 
a 2-year probation. During this time, solutions to the unique F-35B 
technical issues will be engineered and assessed while production will 
be held to a minimum sustaining production rate of six aircraft per 
year in fiscal year 2012 and fiscal year 2013. This low-production rate 
is required to ensure continuity in the engineering workforce involved 
in the design and assembly of the F-35B at the prime contractor and key 
vendors without a loss in learning and to sustain the supplier base of 
F-35B unique parts. After this 2-year period of focused F-35B scrutiny, 
an informed decision will be made about how to proceed with development 
and production of this variant, to include the potential for program 
cancellation.
    I want to point out that it is only the F-35B (STOVL) variant that 
is on probation. The F-35C variant, which will be flown off of our 
aircraft carriers, is doing satisfactorily and will be procured by both 
the Navy and the Marine Corps.
    The President's budget request of $161 billion will maintain our 
commitment to take care of our people, build a strong R&D and 
industrial base, and grow a fleet capable of sustaining our preeminence 
as the world's most formidable expeditionary force. The fiscal year 
2012 request of $15 billion for contingency operations includes 
incremental costs to sustain operations, manpower, equipment and 
infrastructure repair as well as equipment replacement to support our 
operations in Afghanistan and elsewhere.
    The fiscal year 2012 President's budget request includes funds for 
10 Navy battleforce ships, including:

        <bullet> two Virginia-class submarines,
        <bullet> one Arleigh Burke-class destroyer,
        <bullet> one Mobile Landing Platform ship,
        <bullet> one Joint High Speed Vessel,
        <bullet> one Amphibious Transport Dock Ship, and
        <bullet> four Littoral Combat Ships.

    In aviation, we have requested 223 aircraft in the fiscal year 2012 
baseline budget, including:

        <bullet> 13 F-35 Joint Strike Fighters for both the Navy and 
        Marine Corps,
        <bullet> 24 MH-60R and
        <bullet> 11 P-8As to replace the aging current ASW and maritime 
        patrol squadrons,
        <bullet> 18 MH-60S for logistics support,
        <bullet> one KC-130J,
        <bullet> 25 H-1 variant helicopters,
        <bullet> 30 MV-22 tilt-rotor aircraft,
        <bullet> 28 F/A-18E/F fighter/attack planes,
        <bullet> 12 EA-18G to continue replacing the veteran EA-6B,
        <bullet> five E-2D Advanced Hawkeyes,
        <bullet> 36 Joint Primary Aircraft Trainers for our student 
        aviators, and
        <bullet> 20 Unmanned Aircraft.

    The fiscal year 2012 President's budget request also contains 
funding for the Navy Unmanned Combat Aerial System demonstration and 
continues development of the Broad Area Maritime Surveillance (BAMS) 
unmanned system.
    The individual efficiency initiatives the Department has put in 
place will continue to further streamline our organizations and 
operations, will reshape and reduce both capacity and personnel 
associated with the Department's ``tail,'' and will contribute to the 
dramatic transformation already underway in how the Department does its 
business. More importantly, they will sharpen the operating ``tooth,'' 
free up critical resources for maintaining and accelerating our 
shipbuilding and aviation acquisition plan, maximize fleet 
capabilities, and help preserve a strong industrial base.

     TAKING CARE OF SAILORS, MARINES, CIVILIANS, AND THEIR FAMILIES

    The Navy and Marine Corps have continued to recruit and retain the 
high quality men and women we brought into the Services in the past 
years, and 2010 was no exception. Both the Navy and Marine Corps met or 
exceeded their mission quotas and quality standards.
    We recognize that quality of life programs are important for morale 
and the military mission. We recruit sailors and marines, but we retain 
families. We continue to provide a wide array of readiness programs, 
including deployment support services, morale and welfare services, and 
child and teen programs. These award winning career management, 
training, and life-work balance programs are nationally recognized for 
their excellence not only by respected national human resource 
organizations, but even more by the marines and sailors that benefit 
directly from them.
    Medical care for our Wounded Warriors, already outstanding, 
continued to get better throughout the year. Since Operations Enduring 
Freedom and Iraqi Freedom began, over 12,000 marines and sailors have 
been wounded in action. Their service and sacrifice mandates that we 
provide quality care for those who have given so much for our country. 
Our medical community continues to meet this challenge and make 
advances in dealing with the signature wounds of the current wars: 
traumatic brain injuries, mental health issues, amputation, and 
disfiguring injuries, and Navy Medicine continues to reach out to its 
colleagues in both civilian and Veterans Affairs hospitals to improve 
our understanding and improve overall care for our people.
    But care for our Wounded Warriors does not end in the hospital. We 
have undertaken a commitment to bring our Veterans back into the 
workforce of the Department of the Navy through several Wounded Warrior 
outreach programs and hiring conferences. We are not there yet, but we 
are moving towards the goal of being able to say to every Wounded 
Warrior--if you want a job, we have one for you. As a representative 
example, in the past year alone, the Naval Sea Systems Command hired 
200 Wounded Warriors. In 2011 we will continue to make employment 
opportunities for Wounded Warriors a priority for the Department.
    It is important to note that rising health care costs within the 
Military Health System continue to present a fiscal challenge for the 
Department. Like the Secretary of Defense, both I and Departmental 
leadership are particularly concerned that the rate at which health 
care costs are increasing and the relative proportion of the 
Department's resources devoted to health care cannot be sustained; the 
Military Health System is not immune to the pressure of inflation and 
market forces evident in the civilian health care sector.
    The military faces a growing number of eligible beneficiaries, 
expanded benefits, and increased utilization throughout the military 
health care system. As a Department, we must be resolute in our 
commitment to implement systemic efficiencies and specific initiatives 
which will improve quality of care and customer satisfaction but will 
at the same time more responsibly manage cost. We have made progress, 
but there is more to do. We concur with the recommendations made by the 
Office of the Secretary of Defense; we must create incentives such as 
the Home Delivery Pharmacy Program and implement modest fee increases, 
where appropriate, to both ensure the fiscal position of the system and 
ensure equity in benefits for our retirees.
    Taking care of sailors and marines also means aggressively 
addressing the issues of sexual assault prevention and response. Last 
year, you supported the establishment of a new Office of Sexual Assault 
Prevention and Response (SAPRO) reporting directly to me to focus 
attention on the issue, develop effective training, and coordinate 
prevention and response programs across the Navy and Marine Corps. 
However, it is clear through sexual assault surveys that this crime 
remains a significant problem in the Services, and within some 
populations we have seen a negative trend of an increased number of 
assaults. But I can assure you that we are not accepting this trend, 
and we will not rest while any cases of this awful crime continue to 
occur.
    In 2010, the Department moved forward on expanding the 
opportunities for women in the Navy. We established a comprehensive 
plan to integrate women into the submarine force, beginning with our 
ballistic missile and guided missile Ohio-class submarines. This 
summer, the first 21 women officers were selected for nuclear 
training--and they have begun their approximately 15-month training 
pipeline. The first of these officers will get to their boats beginning 
in November 2011.
    We are preparing to move forward with successfully implementing 
Congressional guidance with respect to repeal of ``Don't Ask, Don't 
Tell'' in 2011.
    Overall, the fiscal year 2012 budget reflects a carefully crafted 
request for the fiscal support and resources necessary to sustain the 
force in light of the ongoing demands on our people and their families. 
Thank you for your continuing support.

                     ENERGY SECURITY AND LEADERSHIP

    Energy consumption in the Navy and Marine Corps has become a 
strategic vulnerability, an operational Achilles' heel, and a readiness 
challenge. This has made our energy usage a national security issue of 
rising importance. As a Department, we rely too much on fossil fuels, 
making our forces susceptible to fluctuations in both price and supply. 
Dramatic shifts in cost and availability can be caused by a host of 
manmade or natural events in volatile areas of the world. Those 
potential shocks could have, in turn, strategic, operational, and 
tactical effects upon our forces. A survey of headlines around the 
world today demonstrates exactly the point we are trying to make--
energy is first and foremost an issue of national security.
    Without sustainable and reliable sources of energy and increased 
efficiency in our platforms, we may find ourselves paying an exorbitant 
price for operating our fleet, training our aviation and ground forces, 
and running our installations that support them. The ability to train 
and prepare forces for deployment could be curtailed. Worse still, our 
naval forces may find that future adversaries target our operational 
dependence on petroleum, as we see in attacks on fuel convoys in 
Afghanistan today. Our dependence on a fragile fuel distribution 
network increases our footprint, drains resources from the tip of the 
spear to supporting logistics lines, and ties up combat forces for 
security. Thus, energy diversity and efficiency are essential to 
maintain our warfighting capabilities and enhance our combat 
effectiveness.
    This is a topic I have spoken on a great deal, in front of this 
committee last year, around the world in speeches to industry and 
military audiences, and in conversations with international leaders. 
Through these events and discussions, it has become clear that energy 
security is not just an American issue--it is an issue that affects 
both our allies and potential adversaries alike. History has taught us 
that competition for resources has been one of the fundamental causes 
of conflict for centuries, and today, competition for energy still 
provides one of the most inflammatory sources of potential conflict.
    Energy, or more specifically denial of energy, could affect many of 
our NATO partners in Europe and indeed the strength of the alliance 
itself. Many of our partners are dependent upon external sources for 
their energy, so for them--denial of energy is a weapon, one just as 
real as the threat of tanks or airplanes.
    For all these reasons, and in order to improve our long-term 
strategic position and enhance the future operational effectiveness of 
our forces, I have charged the Navy and Marine Corps with accelerating 
the exploration and exploitation of new ways to procure, produce, and 
use energy.
    This effort began in October 2009, when I issued my five energy 
goals for the Department, the most important of which commits the Navy 
and Marine Corps to generate at least 50 percent of all the energy we 
use from alternative sources no later than 2020. Alternative sources 
include all renewable forms of energy such as solar, wind, geothermal, 
and ocean energy, as well as biofuels and nuclear energy.
    We are on track to meet all our goals, and throughout 2010, we 
demonstrated progress through many energy programs, partnerships, and 
initiatives. Throughout the year, we successfully conducted both ground 
and airborne tests of an F/A-18 Hornet and MH-60 Seahawk helicopter, 
and ran a Riverine Command Boat (experimental) on renewable biofuel 
blends made from either camelina or algae. Recently, we also completed 
testing of a marine gas turbine engine that will enable us to certify 
our frigates, destroyers and cruisers for biofuel operations. In each 
case, there was no impact on performance and no degradation to engine 
reliability. Together, these tests represent critical milestones for 
the Department's goal of demonstrating the Great Green Fleet in 2012 
and its planned deployment in 2016. In late 2010, the Navy conducted 
concurrent but unrelated tests of a more efficient F/A-18 engine in 
order to generate an increase in the aircraft's range.
    Afloat, as I discussed last year, the USS Makin Island is using a 
hybrid-electric drive to dramatically lower its fuel usage at slow 
speeds, which we estimate will generate life-cycle savings of up to 
$250 million at today's fuel prices. Over the next few years, we will 
continue to move forward with installation of a similar system on new 
construction DDGs and look at the feasibility of retrofitting the fleet 
with these systems in the course of routine shipyard availabilities.
    The Marine Corps is also aggressively exploring energy efficiency 
solutions in its operating forces in theater and in the supporting 
establishment. The Marines realize that energy as a resource influences 
a Commander's operational freedom of maneuver, and its conservation and 
wise use can save lives on the battlefield. Reduced logistics support 
and fewer convoys for expeditionary forces would free up resources and 
limit the exposure of marines to ambush and IEDs. Energy efficiency 
equals better combat effectiveness.
    At home, the Marine Corps demonstrated their traditional spirit of 
innovation by scouring the commercial world for rugged solutions, 
building two Experimental Forward Operating Bases (ExFOB) at Quantico 
and Twentynine Palms. New alternative energy technologies tested at the 
ExFOB deployed this fall with the Third Battalion, Fifth Marines (3/5), 
posted to Sangin District in the north of Helmand Province. Immediately 
upon arrival, they began evaluating expeditionary solar power 
generators at their FOBs and combat outposts to supplement or replace 
fossil fuels. They have done this even while engaged in near constant 
combat against a determined enemy in one of the most hotly contested 
districts of the war.
    When I visited Sangin, I heard first-hand from a Marine First 
Lieutenant about what worked, what did not, and how his marines in 
India Company of 3/5 were using the equipment. Two patrol bases are 
operating entirely on renewable energy, and another with a 90 percent 
reduction. One of the team-portable systems, called GREENS (Ground 
Renewable Expeditionary Energy Network System), is being used to 
provide power for the Operations Center, small radios, and small 
electronic equipment. Across the battalion's operating area, 
manportable SPACES (Solar Portable Alternative Communications Energy 
System) are being used by individual squads to recharge their radios 
and other combat electronics. This capability made it possible for a 
foot patrol to operate for 3 weeks without battery resupply, reducing 
their burden by 700 pounds and saving more than $40,000.
    By deploying these renewable solar energy technologies the marines 
in Sangin have been able to expand their operational reach, eliminate 
or minimize their need for fossil fuels in their generators, and 
dramatically reduce the need for often dangerous logistic support.
    At Camp Leatherneck, the marines have likewise begun a small bio-
fuel pilot project for Helmand Province, purchasing locally produced 
cotton oil from an Afghan facility to mix with their own fuel. At 
Leatherneck, a standard generator is producing power from a 20-80 mix 
of cotton oil to fuel, yielding a 20 percent reduction in demand for 
fuel, while simultaneously demonstrating to Afghan farmers that there 
are alternatives to opium, and demonstrating to Afghan leaders that 
they can power their own economy from within Afghanistan. I am 
monitoring its progress closely.
    As the ExFOB gets all this feedback from returning marines, our 
expeditionary energy systems and programs will continue to improve and 
we will move even further down the road of energy efficient, combat 
effective forces.
    In addition to these tactical and platform applications, we have 
implemented a number of energy projects at our facilities ashore. We 
are actively exploring for new geothermal resources to augment our 
existing 270 MW geothermal power plant at China Lake. Last year we 
established the Nation's first grid-connected wave buoy at MCB Kaneohe 
Bay, HI. Last December the marines completed a 1.5 MW solar 
installation situated atop six acres of a landfill. The installation 
was unique because the equipment foundations were designed not to 
perforate the membrane covering the garbage below. Our budget request 
asks for continued support of these and similar projects in order to 
enhance our efficiency and maximize our move to greater independence 
and more resilient infrastructure.
    Finally, throughout the year we developed partnerships with a 
number of Federal agencies, states, academic institutions, and industry 
partners including the Departments of Energy and Agriculture, NASA, and 
the Small Business Administration.
    It is precisely because of the spirit of innovation that these 
partnerships embody that our Nation remains a world leader in its 
unrivaled capacity to stimulate and exploit cutting-edge ideas and new 
technologies. The U.S. Navy has always been a technological leader and 
has excelled at embracing change, particularly in propulsion systems 
and energy sources. We moved from wind to coal in the 19th century, 
from coal to oil early in the 20th century, and added nuclear power 60 
years ago. In every transition there were opponents to change, but in 
every case these changes increased our combat effectiveness by an order 
of magnitude.
    I have tasked the Navy and the Marine Corps to once again pioneer 
technological change through alternative energy sources. I am pleased 
with the progress to date, and expect it to sharply enhance the long-
term strategic agility of our operating forces, as well as better 
posture the Department for an age of fiscal austerity and potential 
energy volatility. I want to stress, however, that every action and 
program we undertake is focused on generating improved warfighting 
capability and strategic flexibility, it is not just change for 
change's sake.

                    CREATING ACQUISITION EXCELLENCE

    Our future combat readiness is dependent upon the design, 
development and acquisition of weapons, platforms, and information 
technology. The current ships and aircraft of the Navy and Marine Corps 
provide decisive advantages over today's threats. But that edge must be 
constantly sharpened and modernized against constantly evolving 
technologies. We must continue to invest in intelligence, precision 
missiles and munitions, networked command systems, stealth technology, 
unmanned vehicles and ground fighting systems.
    To retain our advantage across multiple warfighting areas, we rely 
heavily upon both our dedicated personnel and the expertise resident in 
America's private sector. Throughout my tenure, I have taken the 
opportunity to visit shipyards, aircraft plants, vehicle factories, 
maintenance facilities, and warfare centers for detailed briefings and 
a firsthand look at the people responsible for designing and building 
our fleet and equipping our sailors and marines with vital weapon 
systems and technologies necessary to do their jobs. One cannot fail to 
recognize the creativity, dedication, and skills of our Nation's 
workforce.
    Yet, with government spending increasingly constrained, 
affordability, cost containment and total ownership costs are more 
important than ever. Because acquisition costs are rising faster than 
our top-line and because replacement systems can be more expensive than 
the platforms or weapon systems being replaced, we are putting 
tomorrow's force at risk.
    Both on our own and as a result of Secretary Gates' guidance, the 
Department has devoted considerable effort to finding efficiencies, 
reducing support costs, and scrubbing our acquisition process to 
mitigate this impact. In accordance with the Weapons System Acquisition 
Reform Act passed by Congress in 2009, we have made the requirements 
and acquisition processes more rigorous in order to better manage the 
resources entrusted to us by the American taxpayer, and we are working 
with OSD to develop a streamlined process for acquiring information 
technology in a more responsive manner to better equip the warfighter 
with emerging technologies and ward off the cyber threat.
    This requires constant examination of every single one of our 
policies, practices, priorities, and organizations, with a clear focus 
on controlling cost. Our acquisition community has been extensively 
engaged with industry and the Services to streamline processes, and 
they are ruthlessly evaluating both requirements and the supporting 
analyses in order to get more value out of the overall acquisition 
system.
    The Navy and Marine Corps will continue initiatives already in 
place to improve processes and to instill discipline in procurement. In 
2010, we strengthened our cost estimating group and met statutory 
requirements to obtain independent cost estimates, and we have 
incorporated Defense-wide best practices in the formulation of all our 
major programs. We have made our cost estimates more realistic and are 
using these improved cost and schedule plans to make necessary 
capability tradeoffs and difficult investment decisions at the front 
end of the requirements process rather than during design or 
construction.
    A professional acquisition workforce is a key element in our 
overall acquisition excellence initiative and a driver in our strategy 
to preserve our fighting edge at an affordable cost. Accordingly, and 
with your strong support, we are rebuilding the acquisition workforce 
within government to fulfill Federal oversight of the acquisition 
process and ensure that accountability to taxpayers is the foremost 
concern of our employees. In the last year, the Department has added 
nearly 1,300 acquisition professionals towards the goal of increasing 
the community by 5,090 over the FYDP.
    Our acquisition strategies have been shaped to expand the use of 
fixed-price contracts, leverage competition, and tighten up on the use 
of incentive and award fees to ensure quality systems are consistently 
delivered on budget and on schedule. The new acquisition plan for the 
LCS epitomizes this strategy, and is indicative of the type of fixed-
price contracts that will be the model for the future. The LCS block-
buy contracts are the result of effective competition and give the 
government full ownership of the technical data package used in 
construction. This will ensure our ability to pursue competitive 
strategies for LCS Seaframe requirements in fiscal year 2016 and beyond 
and affords greater congressional oversight of the program. With the 
new LCS strategy, we get more ships, at a faster rate, and at less 
cost.
    The LCS dual-block procurement strategy also contributes to meeting 
another acquisition goal of both this Committee and the Navy through 
its strong support of the industrial shipbuilding base. Modernizing 
today's force and recapitalizing the fleet affordably cannot be 
accomplished without a healthy industrial base and strong performance 
by our industry partners. We have worked hard to procure our ships, 
aircraft, and weapon systems at a rate intended to bring stability to 
the industrial base and enable efficient production. The Navy's 
shipbuilding and aviation plans were developed with particular regard 
to maintaining the unique characteristics and strength of the 
industrial base and our efforts have promoted increased competition, 
greater innovation, and better capacity within the base.
    Over the FYDP, we will continue to build upon our progress to date 
and we will work with our shipyards, aircraft manufacturers, weapon 
systems providers and systems integrators to build the best possible 
fleet for the future.

             DEVELOPMENT AND DEPLOYMENT OF UNMANNED SYSTEMS

    The complex nature of today's security environment, as well as 
current and future anti-access/area-denial threats faced by the United 
States, require that the Navy and Marine Corps continue to advance in 
unmanned systems and exploit the contributions they make to warfighting 
capability. Unmanned systems are unobtrusive, versatile, persistent, 
and they reduce the exposure of our sailors and marines to unnecessary 
threats or dangerous environments. They can perform a vast array of 
tasks such as intelligence, surveillance and reconnaissance, 
hydrographic monitoring, mine detection, targeting, and precision 
strike.
    Navy and Marine Corps unmanned systems have already made key 
contributions to operations in Iraq and Afghanistan. In Operation Iraqi 
Freedom and Operation Enduring Freedom, unmanned aircraft systems have 
flown thousands of flight hours, enhancing the effectiveness of our 
combat operations and undoubtedly saving lives. Unmanned ground 
vehicles employed by the Marine Corps have conducted thousands of 
missions detecting and/or neutralizing improvised explosive devices. 
Off the Horn of Africa, unmanned systems contribute to surveillance and 
tracking of suspected or confirmed pirate vessels.
    The range of tasks that these capabilities may fulfill will grow 
substantially over time. I am determined to ensure that your Navy and 
Marine Corps are at the cutting edge of this military capability.
    Our vision for the future will exploit unmanned systems in every 
domain of our operating environment (sea, air, and land) while 
maintaining an affordable price. The Department's Unmanned Systems will 
move from adjunct capabilities supporting manned systems and platforms 
to providing autonomous, networked, and interoperable independent 
capabilities--much as naval aviation matured from an adjunct to the 
Battle Fleet to a combat capability in its own right in the first half 
of the 20th century.
    We will field unmanned systems in the near term to:

        <bullet> Provide sensing, influence and effects where manned 
        systems are limited by range, endurance or risk.
        <bullet> Shift from relying primarily on manned platforms to 
        accomplish missions to combinations of manned platforms, 
        robots, augmented human performance, and remotely operated and 
        unmanned systems that make operational sense.
        <bullet> Increase the combat effectiveness of sailors and 
        marines, their platforms and combat organizations to better 
        operate against multiple types of threats.

    In implementing this vision, we will embrace Unmanned Systems as 
critical tools in our warfighting quiver of capabilities. We will 
integrate them into everything we do across the full range of military 
operations to enhance our combat effectiveness and efficiency. We will 
invest in the infrastructure to ensure we have the capabilities and 
capacity to properly task, collect, process, exploit and disseminate 
the information so the intelligence data gets to the decision makers 
and warfighters. The initiatives and investments contained in the 
fiscal year 2012 budget request will continue moving us along this 
desired track. I look forward to reporting our progress toward this 
vision throughout the year.

                               CONCLUSION

    Today I have laid out our strategic posture as well as the goals 
and priorities that guide the Department's investment portfolio and 
future direction. These goals and programs will significantly influence 
our future capabilities and ensure we remain ready to deter regional 
conflict or respond rapidly and decisively to emerging crises. Our 
specific requests are reflected in the President's fiscal year 2012 
budget submission.
    In order to retain a ready and agile force capable of conducting 
the full range of military operations, we must carefully weigh risks 
and apply our available resources efficiently and carefully. This 
year's request reflects our strategy-driven priorities and the 
disciplined trade-offs that you and the American taxpayer expect of us. 
The Department's efficiency efforts have been beneficial in terms of 
enhancing our ability to invest in the future even while preserving and 
extending our force structure.
    This is not a one-time event, as we will continuously work to 
increase efficiencies in every project, program, and operation, afloat 
and ashore. The budget request ensures that we will retain the world's 
most powerful and agile expeditionary force. The CNO, Commandant, and 
myself are committed to that aim and to being effective stewards of the 
Nation's resources.
    As Secretary, I have seen firsthand the selfless courage of our 
young marines and sailors in Helmand; the dedication of our medical 
community caring for our wounded; the professionalism of our surface, 
submarine and aviation sailors; and the incredible technical skills of 
the maintenance crews that sustain them. I have also borne witness to 
the sacrifices of our personnel in hospitals in theater and at the 
National Naval Medical Center. A single visit to Bethesda will make you 
marvel at the resilience of the human spirit and the unflagging 
patriotism of our American service men and women.
    Your Navy and Marine Corps are performing at a high operational 
tempo, at unparalleled levels of skill and dedication, and with 
remarkable results afloat, at depth, aloft, in cyberspace, and ashore. 
Thanks to your support, this level of performance has been sustained 
with the modern platforms, weapons systems, and training necessary to 
underwrite our readiness. Your continued support recognizes and 
sustains the sacrifice of our sailors, marines, civilians, and their 
families. The support of this committee for our key programs and our 
people has been instrumental to operational success of the Navy and 
Marine Corps and maintenance of the world's most flexible instrument of 
national policy--a modernized and ready naval expeditionary force.
    It is a solemn privilege to lead the Naval Services during an era 
of protracted war and national challenge. I have been honored by the 
trust the President and Congress have placed in me, and even more 
honored by the sacrifice and sterling devotion I have witnessed by 
those sailors and marine who go forward into harm's way to defend us. 
Preserving our values and our way of life is ultimately dependent upon 
our being prepared to use decisive force against those who threaten 
them. The Navy and Marines have been ready to do so for 235 years, and 
will continue to be ready. You can count on it.
    Thank you again for your support. Godspeed.

    Chairman Levin. Thank you, Mr. Secretary.
    Admiral Roughead.

 STATEMENT OF ADM GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Thank you, sir. Chairman Levin, Senator 
McCain, members of the committee: It's my honor to appear 
before you in my 4th year as the CNO, representing more than 
600,000 sailors, Navy civilians, and families who operate and 
live globally. I appreciate your continued support for them as 
they continue to carry out our maritime strategy.
    Our Navy continues to meet operational commitments and 
respond to crises as they emerge. We're engaged in Afghanistan 
and in Iraq, with, as you mentioned, 14,000 sailors on the 
ground in those countries and with 2 aircraft carriers now in 
the CENTCOM area of operations, 14,000 at sea. From the 
carrier, we provide about 30 percent of the fixed wing air 
sorties that fly in support of our troops in Afghanistan.
    Our presence in the Middle East also gives us the 
flexibility to respond to the sweeping changes that we see 
taking place there. But our interests extend beyond that, and 
so do our operations. Today we have about 65,000 sailors and 
about 40 percent of our force deployed. They're globally 
present and they're persistently engaged. They provide 
deterrence in northeast Asia and presence in the western 
Pacific. They conduct counter-piracy operations in the Indian 
Ocean and they're building maritime partnerships in Africa, 
South American, and the Pacific.
    The demand continues to grow for the offshore option our 
Navy and our Marine Corps team provides the Nation. We assume 
the lead for the first phase of the Phased Adaptive Approach 
for ballistic missile defense in Europe and we're working with 
the Missile Defense Agency (MDA) on providing that same 
capability ashore.
    We created the new Information Dominance Directorate on my 
staff, which has enabled us to make better decisions and 
investments in countering anti-access and area denial 
strategies. We recently established the Tenth Fleet, our cyber 
fleet, which has demonstrated its expertise by conducting joint 
and naval operations in the cyber network cryptology and space 
arenas.
    To deliver the above, we've been pushing the fleet hard. We 
have 288 ships today. That's the smallest that we have been 
since 1916, when our interests and our responsibilities were 
nowhere near what they are today. That's why 313 ships remains 
the floor of our future force and why sustaining fleet capacity 
is essential to reaching that floor.
    Since I've become CNO, I've focused on ensuring the Navy is 
ready, that our quality of work and quality of life are 
fulfilling to the men and women of our Navy, and that we place 
underperforming programs back on track. We've introduced 
stability, affordability, and capacity into our shipbuilding 
and aviation plans, and with the assistance of Congress, we 
have advanced capabilities to meet the most likely evolving 
threats.
    We've secured a fixed-price dual award for 20 LCSs. We've 
addressed the strike fighter capacity with a multi-year F-18 
procurement, and pending resolution of the CR, we will build 
two Virginia-class submarines per year, another DDG-51, start 
the Mobile Landing Platform, construct and refuel our aircraft 
carriers as planned, and continue the design of our replacement 
strategic deterrent submarine.
    I'm pleased with our accomplishments and I thank Congress 
for their continued support of our acquisition strategy.
    Our fiscal year 2012 budget request is a balanced approach 
to increasing fleet capacity, maintaining warfighting 
readiness, and developing and enhancing our Navy total force. 
This budget goes beyond ships and aircraft. It enhances 
electronic warfare, information dominance, integrated air and 
missile defense, and anti-submarine warfare capabilities for 
evolving challenges.
    It continues to develop a family of unmanned systems that 
will work in concert with our manned systems to secure access 
and establish maritime superiority when and where we choose. It 
continues our effort over the last 2 years to reduce total 
ownership costs and leverages the opportunity presented by the 
Secretary of Defense's efficiencies to reduce excess overhead, 
improve readiness, and reinvest in warfighting capability and 
capacity that improves the long-term sustainability of our 
force.
    Importantly, it supports the Secretary of Defense's health 
care initiatives included in the President's budget, which 
continue our efforts in health care to improve internal 
efficiency, incentivize behavior, ensure all our beneficiaries 
are treated equitably, and enhance our ability to deliver high-
quality health care for years to come.
    You can be exceptionally proud of our sailors and Navy 
civilians, who they are and what they do. Today's sailors are 
the best with whom I have ever served. I ask you for your 
strong support of our fiscal year 2012 budget request. I thank 
you for all you do to support the men and women of the U.S. 
Navy, our enduring global force for good.
    Thank you.
    [The prepared statement of Admiral Roughead follows:]

              Prepared Statement by ADM Gary Roughead, USN

    Chairman Levin, Senator McCain, and members of the committee, it is 
my honor and pleasure to appear before you, in my 4th year as Chief of 
Naval Operations (CNO), representing the more than 600,000 sailors and 
civilians of the U.S. Navy. As we have done for more than 235 years, 
our Navy is forward-deployed around the world protecting our national 
security and prosperity. Today, our dedicated Navy men and women are 
operating globally at sea, on land, in the air, and in space and 
cyberspace. I appreciate your continued support for them and their 
families.
    As the demand for our Navy continues to grow, our Maritime 
Strategy, which I issued more than 3 years ago with the Commandants of 
the Marine Corps and the Coast Guard, continues to guide our Navy's 
operations and investments. Its core tenets are enduring and our Navy 
is executing daily the six core capabilities it articulates for our sea 
Services: forward presence, deterrence, sea control, power projection, 
maritime security, and humanitarian assistance and disaster response.
    With your support, since becoming CNO, our Navy has placed 
underperforming programs back on track; we have introduced stability, 
affordability, and capacity into our shipbuilding and aviation plans; 
and we have advanced capabilities to meet the most likely evolving 
threats. We improved the performance of several programs, most notably 
the Littoral Combat Ship. After cancelling the LCS ships we had planned 
for 2007 because of unacceptable costs, last year we were able to 
secure a price for 20 ships through a dual award strategy that will add 
new and needed capabilities to our Fleet, bring important stability to 
the industrial base, and get us closer to the minimum of 313 ships our 
Navy needs. I thank Congress for their support of this strategy. We 
delivered five new ships in 2010, including one Virginia-class 
submarine, two Arleigh Burke destroyers, and two T-AKE logistics ships. 
We commenced testing and low-rate initial production of the P-8A 
Poseidon Multi-Mission Maritime Aircraft and continued testing and low-
rate initial production of the E-2D Advanced Hawkeye. Through multi-
year procurement contracts for F/A-18E/F and EA-18G, and Virginia-class 
submarines, and planned multi-year procurements for the MH-60R/S and E-
2D, we are introducing affordability in our aviation and shipbuilding 
plans and realizing significant savings. For example, on the Virginia-
class Multi-Year Procurement alone, the savings has been $3.2 billion. 
We are advancing capability to meet emerging threats, particularly in 
Ballistic Missile Defense (BMD) and information dominance. In BMD, we 
assumed lead for the first phase of the President's Phased Adaptive 
Approach (PAA) for BMD of Europe and we are working with the Missile 
Defense Agency on providing Aegis Ashore capability to support the 
second phase of the PAA. Our newly-established Fleet Cyber Command/U.S. 
10th Fleet demonstrated its expertise conducting joint and naval 
exercises and operations in the cyber, network, cryptology, signals 
intelligence, information warfare, electronic warfare, and space 
arenas. We also achieved the early operational deployment of the MQ-8B 
Fire Scout Vertical Takeoff and Landing Tactical Unmanned Air Vehicle, 
the first successful flight of our Navy Unmanned Combat Air System 
demonstrator, and a memorandum of agreement with the Air Force to 
pursue increased commonality between the Global Hawk and Broad Area 
Maritime Surveillance programs.
    Our Navy continues to meet planned operational commitments and 
respond to crises as they emerge globally. We remain engaged in 
operations in Afghanistan and in Iraq. Our Navy has more than 14,000 
Active and Reserve sailors on the ground and another 10,000 at sea in 
Central Command, including ongoing Individual Augmentee support to both 
operations. Our aircraft carriers provide about 30 percent of the close 
air support for troops on the ground in Afghanistan and our Navy and 
Marine Corps pilots fly an even greater percentage of electronic attack 
missions there.
    Because our national interests extend beyond Iraq and Afghanistan, 
so do the operations of our Navy. More than 40 percent of our Navy is 
underway daily; globally present and persistently engaged. Last year, 
our Navy provided deterrence against North Korea; conducted counter-
piracy operations in the Indian Ocean with a coalition of several 
nations; trained local forces in maritime security as part of our 
Global Maritime Partnership initiatives in Africa and the Pacific; 
responded with humanitarian assistance and disaster relief to the 
earthquake in Haiti and the flood in Pakistan; and conducted the 
world's largest maritime exercise, which brought together 14 nations 
and more than 20,000 military personnel, to improve coordination and 
trust in multi-national operations in the Pacific. Navy sealift 
continues to deliver the lion's share of heavy war and humanitarian 
equipment in the Central Command and Pacific Command areas of 
responsibility, while Navy logisticians operate the seaport and airport 
facilities that ensure this vital materiel arrives on time. Our sailors 
remain forward throughout the world, projecting U.S. influence, 
responding to contingencies, and building international relationships 
that enable the safe, secure, and free flow of commerce that underpins 
our economic prosperity.
    Our Navy's global presence guarantees our access and freedom of 
action on and under the sea. We are developing with the Air Force and 
Marine Corps the Air Sea Battle concept that will identify the 
doctrine, organization, training, procedures, and equipment needed for 
our Navy to counter growing military threats to our freedom of action. 
This joint effort will inform the conceptual, institutional, and 
material actions needed to employ integrated forces that support U.S. 
operations to project power and influence, protect allies and partners, 
and secure our national objectives in peace and war.
    I remain committed to supporting our Active and Reserve sailors, 
Navy civilians, and their families. Our Navy continues to be recognized 
as a highly-ranked place to work as a result of its workforce planning, 
life-work integration, diversity, and training opportunities. We met or 
exceeded overall officer and enlisted active recruiting goals last year 
and we are accessing a force of extreme high quality. We continue to 
move forward on assigning women into our submarine force, with the 
first women submariners on track to report aboard SSBNs and SSGNs by 
the end of this year. We remain committed to performance as a criterion 
for promotion in our Navy, and have successfully transitioned the 
majority of our civilian personnel out of the National Security 
Personnel System (NSPS). Our remaining NSPS employees are scheduled to 
convert by the end of this year. I appreciate the support of Congress 
for our Fleet and the dedicated sailors, Navy civilians, and their 
families that serve our Nation every day.
    My priorities for the Navy remain unchanged: to build tomorrow's 
Navy, to remain ready to fight today, and to develop and support our 
sailors, Navy civilians, and their families. We continue to advance our 
Navy in each of these areas thanks to your support.
    Our Navy remains the most capable maritime force in the world; 
however, we are stretching our force to meet combatant commander 
demands. Since 2000, our Navy's ship-underway days have increased by 
approximately 15 percent, yet we have about 10 percent fewer ships in 
our Fleet. Greater demand for our forces has led to longer deployments 
and shorter dwell, or turnaround times, which increase stress on our 
sailors and drive up maintenance requirements for our ships and 
aircraft. We are implementing force management measures in the near 
term to stretch the capacity of our 286-ship force to meet increasing 
global requirements while providing the necessary maintenance our Fleet 
needs to reach its expected service life. Our Navy is different from 
other Services in that we reset our force ``in stride''; that is, we 
rely upon regular maintenance of our ships and aircraft, and training 
and certification of our crews between deployments, to sustain our 
force. I thank Congress for their support of our fiscal year 2011 
Operation and Maintenance (O&M) request, which would enable our Navy's 
continuous reset and translate into decades of service for each ship 
and aircraft, a significant return on investment.
    Regrettably, the continuing resolution (CR) for fiscal year 2011 
prevents us from applying the increased fiscal year 2011 O&M funding to 
improve our readiness, and it negatively impacts our ability to procure 
our future Navy and support our sailors, Navy civilians, and their 
families. It has forced us to take mitigation measures that include: 
reducing operations, limiting numerous contracts for base operating 
support, slowing civilian hiring, reducing Permanent Change of Station 
notifications for our sailors from about 6 months lead time to less 
than 2 months, not initiating the Small Business Innovative Research 
program, and delaying procurement contracts for new capabilities and 
existing production lines. Starting this month, we will cancel or scale 
back ship maintenance availabilities in Norfolk, Mayport, and San 
Diego, and cancel more than a dozen Military Construction (MILCON) 
projects in several States. If the CR lasts all year, we will have no 
choice but to make permanent these mitigations and others, 
significantly reducing our operations, maintenance, and training. We 
will be forced to further reduce facilities sustainment, cancel 
training events and additional surface ship availabilities, and defer 
maintenance on our aircraft, which would result in almost a 1-year 
backlog in aviation maintenance. The impact of these actions will 
jeopardize the efforts we made in recent years to restore Fleet 
readiness. Without relief, we will procure only one Virginia-class 
submarine and break the multiyear contract. Agreements made with our 
surface combatant builders, as a result of the DDG-1000/DDG-51 swap, 
precludes us from awarding any DDG-51s in fiscal year 2011 unless both 
ships are appropriated. In addition, without relief, we will delay the 
new start Mobile Landing Platform; we will constrain aircraft carrier 
construction and refueling, negatively impacting operational 
availability, increasing costs, and delaying CVN-79 delivery by up to 1 
year; and we will limit aviation and weapons procurement to fiscal year 
2010 quantities, impacting E-2D and Standard Missile production. A 
full-year CR will also defer essential research and development in 
unmanned aerial systems and significantly delay the design of our 
replacement strategic deterrent submarine and the recapitalization of 
our nuclear operator training infrastructure. It will eliminate our 
ability to source out-of-cycle overseas contingency operations demands 
for increased Fleet presence and activated Navy Reserve sailors. 
Operating under a continuing resolution for a full year at the fiscal 
year 2010 level would have negative effects on our Fleet, on the ship 
and aviation industrial base, and on the many workers who support naval 
facilities. Your support in addressing this critical current and long 
term readiness issue is appreciated greatly.
    Our fiscal year 2012 budget submission achieves the optimal balance 
among my priorities, but it is based on our funding request for fiscal 
year 2011. If the CR lasts all year, we will need to revisit our fiscal 
year 2012 request to properly balance our Navy for today and in the 
future. Our fiscal year 2012 budget request continues to rely on a 
combination of base budget and overseas contingency operations (OCO) 
funding, but it reduces the extent to which we rely on OCO funding for 
enduring missions. Our fiscal year 2012 request continues the effort we 
started 2 years ago to reduce the cost to own and operate our Fleet. We 
leveraged the opportunity presented by the Secretary of Defense to 
significantly reduce excess overhead costs, and apply the savings to 
warfighting capability and capacity, by executing a deliberate, 
thoughtful, and integrated approach to finding efficiencies that 
improve the long-term sustainability of our force. We are taking steps 
to buy smarter, streamline our organizations and operations, realign 
manpower, and pursue energy efficiencies. Through these efforts, and 
with your support, we will improve readiness and warfighting 
capabilities and optimize organizations and operations, including 
increasing the number of ships and aircraft in our procurement plans 
and enhancing or accelerating anti-access capabilities, unmanned 
systems, and energy initiatives.
    Our fiscal year 2012 budget request supports our Maritime Strategy 
and continues to support our forces, take care of our people, rebalance 
our force to meet current and future challenges, and reform how and 
what we buy. Highlights follow.

                         BUILD TOMORROW'S NAVY

    Since the release of our Maritime Strategy, I have stated our Navy 
requires a minimum of 313 ships to meet operational requirements 
globally. This minimum remains valid; however, we continue to examine 
this requirement to address increased operational demands and expanding 
requirements for BMD, intra-theater lift, and forces capable of 
confronting irregular challenges. Our fiscal year 2012 submission funds 
10 ships, including 2 Virginia-class fast attack submarines, 1 Joint 
High Speed Vessel (JHSV), 1 LPD-17, 1 Mobile Landing Platform (MLP), 1 
DDG-51, and 4 Littoral Combat Ships (LCS), which reflects our new LCS 
procurement plan under the dual award strategy. Our submission also 
supports the acquisition of an oceanographic ship. I thank Congress for 
their support of our LCS acquisition strategy and for our shipbuilding 
program. With your support over the last 3 years, we have been able to 
improve the balance among capability, capacity, affordability, and 
executabilty in our shipbuilding plan.
    As I reported last year, I remain concerned about the capacity of 
our Fleet in the future. Starting in the 2020s, many of our existing 
cruisers, destroyers, and submarines will reach the end of their 
service lives. During this period, it will be particularly critical to 
procure sufficient new ships to offset these decommissionings to avoid 
a rapid decline in force structure. In the same timeframe, we will 
begin to procure the replacement for our Ohio-class ballistic missile 
submarine, the most survivable leg of our Nation's nuclear deterrent 
triad. While we have reduced the cost of that submarine substantially, 
our total shipbuilding budget will be pressurized in that decade as we 
seek to recapitalize our surface and submarine forces while sustaining 
warfighting readiness and supporting our people. I am confident our 
near-term force structure plans provide the capability and capacity we 
need to meet demands today, but in this decade we must address how to 
best resource the shipbuilding programs required in the 2020s.
    Our fiscal year 2012 program funds 203 manned aircraft. We have 
increased our procurement of P-8A Poseidon Maritime Patrol Aircraft to 
provide needed anti-submarine warfare capacity to our Fleet and 
facilitate a successful transition from our legacy P-3 Orion aircraft. 
Our fiscal year 2012 submission also procures 28 F/A-18 E/F aircraft, 
extending the F/A-18 procurement through fiscal year 2014 and 
purchasing 41 more aircraft than requested in last year's budget 
submission. I remain committed to the F-35 Joint Strike Fighter (JSF), 
and was pleased to see the first flight of the F-35C last year. The 
timely delivery of the F-35C remains critical to our future carrier 
airwing strike fighter capacity; however, we are procuring additional 
F/A-18 Super Hornets to address the decrease in strike fighter capacity 
we have identified. I thank Congress for their continued support of the 
F-35 program and our overall strike fighter fleet.
    Our Navy is also looking beyond our ships and aircraft and 
investing in information capabilities that span space, cyberspace, and 
the electromagnetic spectrum. We moved boldly last year with the 
establishment of U.S. 10th Fleet and the Deputy CNO for Information 
Dominance. That restructuring has enabled us to focus on enhancing our 
electronic warfare, information dominance, integrated air and missile 
defense, and anti-submarine warfare capabilities. I request Congress' 
support for these programs as they position our Navy to successfully 
conduct operations in an evolving anti-access environment today and in 
the future.
    A viable, highly technical, and specialized industrial base is 
essential to sustaining the capability and capacity of our future Navy. 
Our shipbuilding and aviation industrial base is a strategic national 
asset and a significant contributor to our Nation's economic 
prosperity, employing more than 97,000 uniquely-skilled Americans while 
indirectly supporting thousands more through second- and third-tier 
suppliers. The highly specialized skills in our shipbuilding base take 
years to develop; and, if lost, cannot be easily or quickly 
reconstituted. A viable shipbuilding industrial base, underpinned by 
predictable, level-loaded ship procurement, is essential to meet our 
Nation's naval requirements.
    I remain committed to delivering a balanced and capable Fleet that 
will meet our national security requirements. I seek your support for 
the following initiatives and programs:

                           AVIATION PROGRAMS

Aircraft Carrier Force Structure
    Our nuclear-powered aircraft carrier fleet is capable of flexibly 
employing capabilities that span from power projection and deterrence 
to humanitarian assistance and disaster response. Our 11-carrier force 
structure is based on worldwide presence and surge requirements, while 
also taking into account training and maintenance requirements. Our 
Navy has put in place measures to minimize the impact of the 10-carrier 
period between the inactivation of USS Enterprise (CVN-65) and 
commissioning of USS Gerald R. Ford (CVN-78). After the delivery of 
CVN-78, we will maintain an 11-carrier force by continuing the 
refueling program for Nimitz-class ships and delivering our Ford-class 
carriers at 5-year intervals starting in 2020.
    CVN-78, which is approximately 20 percent complete, is the lead 
ship of our first new class of aircraft carriers in nearly 40 years. 
These new carriers incorporate an innovative flight deck design that 
provides greater operational flexibility, a nuclear propulsion plant 
that generates more than 50 percent greater energy while decreasing 
maintenance requirements, and a combination of measures that reduce 
manning by more than 1,200 sailors. Among the new technologies being 
integrated in these ships are the Dual-Band Radar, the Electromagnetic 
Aircraft Launch System (EMALS), and the Advanced Arresting Gear (AAG), 
which will enable the carrier to increase its sortie generation rate by 
25 percent and lower total ownership costs. AAG is currently undergoing 
commissioning testing at our land-based testing facility and, in 
December, EMALS successfully launched an F/A-18 aircraft. Both systems 
are on schedule to support delivery of CVN-78 in September 2015.

Strike Fighter Capacity
    I remain committed to the F-35 JSF program. The timely delivery of 
the F-35C carrier variant is critical to our future carrier airwing 
strike fighter capability and capacity. As a result of delays in the F-
35 program, we are closely managing our strike fighter inventory to 
address the decrease in strike fighter capacity that is projected to 
peak in 2018 as our F/A-18A-D aircraft reach the end of their service 
life. Our actions include managing the service life of our A-D 
aircraft, extending the service life of our A-D aircraft, buying new F/
A-18E/F Super Hornet aircraft, and maintaining wholeness in the F-35C 
program. With these measures, we can manage our current strike fighter 
inventory to meet TACAIR requirements.
    F-35 Lightning II Joint Strike Fighter
    The F-35 program gives us the advanced sensor, precision strike, 
firepower, and stealth capabilities our Fleet needs. I continue to base 
our Initial Operating Capability (IOC) timeline for the F-35C on the 
level of capability delivered at the completion of Initial Operational 
Test and Evaluation of the F-35C equipped with Block 3 software. We are 
reviewing the results of the in-depth Technical Baseline Review and 
restructuring of the System Development and Demonstration (SDD) phase 
to determine our IOC. While the overall system demonstration and 
development schedule has slipped, we have not reduced the total number 
of airplanes we plan to buy. Our fiscal year 2012 request procures 
seven F-35C aircraft. We are monitoring the program closely and 
managing our existing strike fighter capacity to meet power projection 
demands until the F-35C is delivered. Procurement of an alternate 
engine for the F-35 increases our risk in this program. The Navy does 
not have a requirement for an alternate engine; indeed, we would only 
take one model to sea. Its additional costs threaten our ability to 
fund currently planned aircraft procurement quantities, which would 
exacerbate our anticipated decrease in strike fighter capacity 
throughout the remainder of this decade.
    F/A-18A-D Hornet and F/A-18E/F Super Hornet
    Our F/A-18A-D Hornet aircraft were originally designed for a 
service life of 6,000 flight hours. Through a life assessment program 
and High Flight Hour (HFH) inspections, which have been in place for 3 
years, we have been able to extend the service life of our legacy F/A-
18A-D aircraft to 8,600 flight hours. Our fiscal year 2012 budget 
requests funding to pursue a Service Life Extension Program (SLEP) for 
150 F/A-18A-D aircraft, commencing in fiscal year 2012 at a rate of 
about 40 per year, that would further extend the service life of these 
aircraft to 10,000 flight hours. We are also conducting a life 
assessment program for our Super Hornet aircraft to extend their 
original 6,000-hour service life design to 9,000 hours. The F/A-18A-D 
HFH and SLEP are necessary measures to address our strike fighter 
inventory while preserving our investment in F-35C. To further reduce 
risk, we are accelerating the transition of 10 legacy F/A-18C squadrons 
to F/A-18 E/F Super Hornets, and our fiscal year 2012 budget requests 
funding to procure more F/A-18E/F Super Hornets than we requested last 
year. I thank Congress for their support of the F/A-18 program as we 
introduce F-35C into our Fleet.

EA-18G Growler
    The Navy has been a leader in Airborne Electronic Attack (AEA) for 
more than half a century and AEA is in high demand. AEA provides one of 
the most flexible offensive capabilities available to the joint 
warfighter and is becoming increasingly important as technology capable 
of manipulating the electromagnetic spectrum matures. We are leveraging 
the mature and proven F/A-18E/F Super Hornet airframe to recapitalize 
our AEA capability with the EA-18G Growler. Although the EA-18G 
currently utilizes the same ALQ-99 Tactical Jamming System as the EA-
6B, we are developing a new system, the Next Generation Jammer, as a 
replacement for the aging ALQ-99. The Next Generation Jammer will 
incorporate a Modular Open System Architecture and improved reliability 
and maintainability to provide a robust, flexible jamming capability 
that can evolve to address emerging threats. The EA-18G is in full rate 
production and we have accepted delivery of 43 aircraft. We have 
transitioned three EA-6B Prowler squadrons to EA-18G Growlers and two 
more squadrons are currently in transition. Our first EA-18G squadron 
deployed in November to Iraq. Our program of record will buy 114 total 
EA-18G aircraft, recapitalizing 10 carrier-based EA-6B squadrons and 4 
expeditionary squadrons, all to be stationed at NAS Whidbey Island. The 
program continues to deliver on schedule and our fiscal year 2012 
budget requests funding for 12 EA-18Gs.

P-3C Orion and P-8A Poseidon Multi-Mission Maritime Aircraft
    Our P-3C Orion aircraft remain in high demand today across a range 
of missions including Anti-Submarine Warfare, Anti-Surface Warfare, and 
time-critical Intelligence, Surveillance and Reconnaissance. Our 
Maritime Patrol Aircraft (MPA) force is a direct enabler for troops on 
the ground in Central Command while also ensuring access and 
battlespace awareness at sea. Because we are operating our P-3Cs at a 
high rate, about 100 P-3 aircraft have been grounded since February 
2005 for fatigue life and we anticipate continued groundings through 
the remainder of the P-3 program. Through significant Congressional 
support for P-3C wing repairs and sustainment, as of February, we have 
a current inventory of 84 mission aircraft; a 58 percent increase since 
last year. Our fiscal year 2012 budget requests about $100 million to 
continue our P-3C sustainment program. Continued investment in this 
program and in the modernization of our P-3s is critical to ensure we 
retain sufficient capacity to conduct maritime battlespace awareness 
and support to land forces in Central Command, while successfully 
transitioning to the P-8A.
    The P-8A Poseidon Multi-Mission Maritime Aircraft is ideally suited 
for regional and littoral operations, and is our pre-eminent airborne 
capability against submarine threats. Procurement of P-8A will deliver 
needed capacity for these missions. The P-8A is scheduled to reach 
initial operating capability and will begin replacing our aging P-3 
Fleet in 2013. The current delivery schedule enables transition of two 
squadrons per year. Our fiscal year 2012 budget requests funding for 11 
P-8A aircraft. I request Congress' support for the P-8A program 
schedule and for our P-3 sustainment and modernization program, the 
combination of which is essential to our transition to the next 
generation of MPA capability while avoiding future gaps in our MPA 
force.

E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft, will replace the E-2C and 
represents a two-generation leap in airborne radar surveillance 
capability. The E-2D will improve nearly every facet of tactical air 
operations and add overland and littoral surveillance to support 
theater Integrated Air and Missile Defense (IAMD) against air threats 
in high clutter, complex electro-magnetic and jamming environments. The 
airborne radar on the E-2D, with its improved surveillance capability, 
is a key pillar of the Navy Integrated Fire Control-Counter Air (NIFC-
CA) concept. Four test aircraft have been delivered to the Navy and we 
will commence operational test and evaluation in late 2011. The first 
Fleet squadron transition is planned for 2013, with an IOC scheduled 
for late 2014. Our fiscal year 2012 budget requests six E-2D aircraft. 
We plan to procure 75 aircraft, with the final aircraft procurement in 
2019 and Full Operational Capability (FOC) in 2022.

MH-60R/S Multi-Mission Helicopter
    The MH-60R and MH-60S are in full rate production. The MH-60R 
multi-mission helicopter replaces the surface combatant-based SH-60B 
and carrier-based SH-60F with a newly manufactured airframe and 
enhanced mission systems. With these systems, the MH-60R provides 
focused surface warfare and anti-submarine warfare capabilities for our 
strike groups and individual ships. The MH-60S supports surface 
warfare, combat logistics, vertical replenishment, search and rescue, 
air ambulance, airborne mine counter-measures, and naval special 
warfare mission areas. We have delivered 85 MH-60R and 187 MH-60S to 
our Fleet and our fiscal year 2012 budget requests funding for 24 MH-
60R and 18 MH-60S helicopters.

                         SURFACE SHIP PROGRAMS

Littoral Combat Ship (LCS)
    LCS is a fast, agile, networked surface combatant optimized to 
support naval and joint force operations in the littorals with 
capability to support open-ocean operations. It will operate with 
focused-mission packages to counter mine, small boat, and submarine 
threats in the littorals. The modular design and open architecture of 
the seaframe and mission modules provide the inherent flexibility to 
add or adapt capabilities as new technologies mature or to counter 
threats that emerge beyond the Mine Countermeasures, Surface Warfare, 
and Anti-Submarine missions currently planned for LCS. These ships will 
employ a combination of manned helicopters and unmanned aerial, 
surface, and undersea vehicles.
    USS Freedom (LCS-1) completed her first operational deployment to 
the Southern and Pacific Commands in April 2010, 2 years early. While 
deployed, USS Freedom successfully conducted counter-drug missions and 
validated its open ocean capability, allowing us to learn valuable 
lessons from these real-world operations. USS Independence (LCS-2) was 
commissioned in January 2010 and is currently in Norfolk undergoing 
post-delivery tests and trials. We are seeing demonstrated performance 
and stability in the construction of LCS-3 and LCS-4 that captures 
lessons learned from the first ships. PCU Fort Worth (LCS-3) was 
launched and christened in December and is completing final 
construction. PCU Coronado (LCS-4) is almost 50 percent complete and is 
scheduled to be launched and christened later this year. Both LCS-3 and 
LCS-4 are experiencing minimal change and are scheduled to be delivered 
to the Navy in 2012 on cost and on schedule.
    I thank Congress for approving the Navy's dual award strategy in 
December 2010. This strategy enables the Navy to save over $2 billion 
in acquisition costs and acquire these ships well below the 
congressionally-mandated $480 million cost cap set in 2009. It allows 
our Navy to acquire an additional Littoral Combat ship, increasing 
needed capacity in our Fleet. I am impressed and satisfied with the 
capabilities of both LCS designs and remain committed to procuring 55 
of these ships. Consistent with the dual award strategy, our fiscal 
year 2012 budget requests four LCS seaframes at a total cost of $1.8 
billion. The budget also requests two mission packages in fiscal year 
2012. These packages provide the vital center for LCS's combat 
capability and we have aligned LCS mission module procurement with that 
of our LCS seaframes. I request your continued support as we continue 
to acquire the future capacity and capability the Fleet requires.

Ballistic Missile Defense
    The Navy's mature and proven maritime BMD capability will play a 
primary role in the first phase of our Nation's Phased Adaptive 
Approach (PAA) for the missile defense of our NATO Allies in Europe. 
Our fiscal year 2012 budget requests funding to increase our current 
BMD ship capacity from 21 ships (5 cruisers and 16 destroyers) to 41 
BMD capable ships by 2016. This planned capacity expansion will 
eventually include all of the Navy's Arleigh Burke-class destroyers and 
nine Ticonderoga-class cruisers. Until we grow our BMD ship capacity, 
our existing BMD ships may experience longer deployment lengths and 
less time between deployments as we stretch our existing capacity to 
meet growing demands.
    As part of the PAA, we are working with the Missile Defense Agency 
to adapt Navy's proven and flexible Aegis BMD capability for use in an 
ashore configuration by repackaging components of the afloat Aegis 
Weapons System into modular containers for deployment to pre-prepared 
forward sites. The Aegis Ashore Missile Defense Test Complex is 
currently under development, with fabrication to begin in Kauai, HI, in 
2013. This complex is a key enabler of the Aegis Ashore capability, 
which will be tested prior to shore placement overseas in 2015. This 
phased approach provides needed technology and capacity to pace the 
threat; it serves as a conventional counter to trends in global 
ballistic missile technology; and it allows for technological 
maturation through 2020.

DDG-51 Flight IIA and Flight III
    To keep pace with the evolving air and missile defense threats, we 
restarted the DDG-51 Flight IIA production line in the fiscal year 2010 
and fiscal year 2011 budgets with advanced procurement buys for DDG-
113, -114, and -115. The restarted DDG-51 Flight IIA destroyers provide 
Navy with a proven multi-mission combatant that fills critical 
warfighting needs across the spectrum, and is the first warship built 
from the keel up to conduct maritime BMD. They will be the first Aegis 
ships to be built with the Open Architecture Advanced Capability Build 
(ACB)-12 Aegis Combat System. ACB-12 will allow these surface 
combatants to be updated and maintained with commercial off-the-shelf 
(COTS) technology, yielding reduced Total Ownership Cost and enhancing 
the ability to adapt to future military threats. Our fiscal year 2012 
budget requests funding for the construction of DDG-116 as part of our 
plan to build seven more of the Flight IIA class over the FYDP (an 
increase of one DDG-51 over last year's budget). We also request just 
over $75 million to support research and development for ACB-12, which 
will support the integration of this critical system on DDG-113 and our 
development of Aegis Ashore.
    The follow-on to DDG-51 Flight IIA is the DDG-51 Flight III, which 
will commence with the construction of DDG-123. Flight III ships will 
be tailored for Integrated Air and Missile Defense (IAMD) and include 
the Air and Missile Defense Radar (AMDR), upgraded command and control 
software and hardware, and enhanced electrical power and cooling. Our 
fiscal year 2012 budget requests funding for a total of eight DDG-51 
Class ships, including funding for the first Flight III ship in fiscal 
year 2016.

Modernization
    To counter emerging threats, we continue to make significant 
investments in cruiser and destroyer modernization to sustain our 
combat effectiveness and to achieve the 35 year service life of our 
Aegis fleet. Our destroyer and cruiser modernization program includes 
Hull, Mechanical, and Electrical (HM&E) upgrades, as well as advances 
in warfighting capability and open architecture to reduce total 
ownership costs and expand mission capability for current and future 
combat capabilities. In addition to HM&E upgrades, key aspects of our 
destroyer and cruiser modernization programs include the installation 
or upgrade of the Aegis weapons system to include an open architecture 
computing environment, addition of the Evolved Sea Sparrow Missile 
(ESSM), an upgraded SQQ-89A(V)15 anti-submarine warfare system, and 
improved air dominance with processing upgrades and Naval Integrated 
Fire Control-Counter Air capability. Our destroyers also receive 
integration of the SM-6 missile, while our cruisers receive 
installation of the AN/SPQ-9B radar and an upgrade to Close-In Weapon 
System (CIWS) Block 1B. Maintaining the stability of the cruiser and 
destroyer modernization program is critical to our ability to provide 
relevant capability and capacity in our future Fleet. Our fiscal year 
2012 budget requests funding for the modernization of four cruisers 
(three Combat Systems and one HM&E) and three destroyers (one Combat 
System and two HM&E).

DDG-1000
    The DDG-1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant optimized for long-range 
precision land attack. In addition to providing offensive, distributed 
and precision fires in support of forces ashore, these ships will serve 
as test-beds for advanced technology, such as integrated power systems, 
a sophisticated X-Band radar, and advanced survivability features, 
which can inform future ship designs. Following a Nunn-McCurdy breach 
due to the reduction in procurement to three ships, we restructured the 
DDG-1000 program to remove the highest risk technology, the Volume 
Search Radar, from integration into the platform. DDG-1000 is more than 
37 percent complete and is scheduled to deliver in fiscal year 2014 
with an initial operating capability in fiscal year 2016.
Joint High Speed Vessel
    The JHSV will deliver a new level of organic logistic and maneuver 
flexibility for combatant commanders. JHSV is a high speed, shallow 
draft ship. Its unique design allows the ship to transport medium 
payloads of cargo and/or personnel to austere ports without reliance on 
port infrastructure. JHSV-1 and -2 are currently under construction by 
Austal USA in Mobile, AL and are scheduled to be delivered in fiscal 
year 2012 and 2013. Our fiscal year 2012 budget requests funding for 
the construction of the third JHSV. We are currently developing a 
Memorandum of Agreement with the Army that would transfer programmatic 
oversight and responsibility for the entire JHSV program, including 
operations and maintenance, to the Navy. Upon the signing of the 
agreement, all JHSVs when delivered would be operated by the Navy's 
Military Sealift Command and manned by civilian or contract mariners.

                           SUBMARINE PROGRAMS

Virginia-class SSN
    The Virginia-class submarine is a multi-mission submarine designed 
to dominate the undersea domain in the littorals, access denied 
environments, and the open ocean. Now in its 14th year of construction, 
the Virginia program is demonstrating its continued ability to deliver 
this critical undersea asset affordably and on time. The Navy continues 
to realize a return on investment in the Virginia cost reduction 
program and construction process improvements through enhanced 
shipbuilder performance on each successive ship. A majority of the 
submarines contracted via multiyear procurement have delivered under 
budget and ahead of schedule, and their performance continues to exceed 
expectations with every ship delivered. I am pleased with the 
accomplishments of the combined Navy-Industry team and anticipate 
additional improvements as we ramp up production to two submarines per 
year, as requested in our fiscal year 2011 and 2012 budget submissions.

SSBN and Ohio Replacement
    The Navy remains committed to recapitalizing the Nation's sea-based 
strategic deterrent, the most survivable leg of our nuclear triad. With 
a fleet of 14 Ohio-class ballistic missile submarines (SSBN), we have 
been able to meet the strategic needs of the Nation since 1980. This 
class will begin retirement after more than 40 years of service in 
2027.
    The 2010 Nuclear Posture Review reaffirmed that our Nation will 
continue to rely on a reliable and survivable sea-based strategic 
deterrent for the foreseeable future. To ensure the Navy is able to 
meet the Nation's demand in this critical capability, our fiscal year 
2012 budget requests research and development funds for the design of 
the Ohio-class replacement, enabling construction of the class 
beginning in 2019. The Ohio replacement will possess the endurance and 
stealth required for continuous, survivable strategic deterrence for 
decades to come. Appropriate R&D investment is essential to design a 
reliable and survivable submarine capable of deterring all potential 
adversaries. Over the past year, the Ohio replacement program has been 
thoroughly reviewed and all aspects of the program were aggressively 
challenged to drive down engineering and construction costs. Our fiscal 
year 2012 request represents best balance of needed warfighting 
capabilities with cost. The Ohio replacement program will leverage the 
many successes of the Virginia SSN program to achieve acquisition and 
total ownership cost goals. These efficiencies and a record of 
acquisition excellence are critical to minimize risk to our total force 
structure while recapitalizing sea-based strategic deterrence between 
fiscal year 2019 and fiscal year 2033.

                        AMPHIBIOUS WARFARE SHIPS

LPD-17 Class Amphibious Warfare Ship
    The San Antonio-class LPD (LPD-17) amphibious warfare ships provide 
the Navy and Marine Corps the ability to embark, transport, control, 
insert, sustain, and extract combat marines and sailors on missions 
that range from forcible entry to forward deployed crisis response. 
These ships have a 40-year expected service life and will replace four 
classes of older ships: the LKA, LST, LSD-36, and the LPD-4. Of the 11 
ships in our program of record, 5 ships have been delivered, 3 have 
completed their initial deployments, and 4 are under construction. We 
continue to resolve material reliability concerns with the class and 
apply the lessons learned during initial operation of the early ships 
to those under construction. Quality continues to improve with each 
ship delivered as we work closely with the shipbuilder to address cost, 
schedule, and performance issues. Our fiscal year 2012 budget requests 
funding to procure the final ship in the program.

LHA Replacement (LHA(R))
    LHA(R) is the replacement for our aging Tarawa-class ships, which 
will reach the end of their extended service life between 2011-2015. 
LHA(R) will provide flexible, multi-mission amphibious capabilities by 
leveraging the LHD-8 design. The America (LHA-6) is now more than 30 
percent complete and on schedule for delivery in fiscal year 2014. 
Beginning with LHA-8, the Navy will reintegrate the well deck into the 
large deck amphibious assault ships. Our fiscal year 2012 budget 
requests funding for research and development to support reintegration 
of the well deck into the design of the large deck amphibious ship and 
the construction of LHA-8 in fiscal year 2016.

Mobile Landing Platform
    Based on commercial technology, the Mobile Landing Platform (MLP) 
will enable the transfer of equipment, personnel, and sustainment at-
sea, and delivery ashore in support of a wide range of contingency 
operations. Our fiscal year 2012 budget requests funding for one MLP 
and we intend to procure a total of three MLPs. We expect the first 
ship to deliver in fiscal year 2013 and project initial operating 
capability and incorporation into the Maritime Prepositioning Force 
(MPF) for 2015. In the Maritime Preposition Force, each of our existing 
Maritime Preposition Squadrons will be augmented by one MLP, one T-AKE 
combat logistics ship, and a Large Medium-Speed Roll-on/Roll-off cargo 
ship. The three T-AKE are all under contract with projected delivery 
dates beginning this year and going through fiscal year 2013.

                     INFORMATION DOMINANCE PROGRAMS

Unmanned Systems
    Our Navy is developing a ``family'' of unmanned systems over, on, 
and under the sea to provide unique capability, in concert with our 
manned platforms, to rapidly secure access and establish maritime 
superiority at the time and place of our choosing. We are developing 
information architecture that will allow us to rapidly assimilate data 
into information for our commanders, enabling shorter decision cycles 
that will give us an advantage in joint and maritime operations.
    Unmanned Aircraft Systems (UAS)
    Our unmanned aircraft family of systems includes the Broad Area 
Maritime Surveillance (BAMS) UAS, which will enhance our situational 
awareness and shorten the sensor-to-shooter kill chain by providing 
persistent, multiple-sensor capabilities to Fleet and Joint Commanders. 
Through our recent memorandum of agreement with the Air Force, we are 
pursuing greater commonality and interoperability between BAMS and the 
Air Force's Global Hawk UAV. Our Vertical Take-off and Landing Tactical 
Unmanned Air Vehicle (VTUAV) is on its second deployment aboard the USS 
Halyburton (FFG-40) and will deploy in an expeditionary role to support 
combat operations in Afghanistan later this year. Our fiscal year 2012 
budget includes about $12 million in research and development funding 
to facilitate development of a weapons-capable VTUAV ready for 
deployment in late fiscal year 2012. Our fiscal year 2012 request also 
includes funding to develop a medium range maritime-based UAS and a 
Small Tactical Unmanned Aerial System that will support a variety of 
ships, Naval Special Warfare and Navy Expeditionary Combat Command 
units, and Marine Corps elements.
    The Navy Unmanned Combat Aircraft System Demonstration (NUCAS-D) 
will prove carrier suitability of an autonomous, unmanned, low-
observable, carrier-based aircraft. This effort includes maturing 
technologies for aircraft carrier catapult launches and arrested 
landings, as well as integration into carrier-controlled airspace. 
Initial flight tests to demonstrate carrier suitability are scheduled 
to start next year and autonomous aerial refueling demonstrations are 
planned for 2014. We will leverage the lessons learned from operating 
the demonstrator in developing a low-observable unmanned carrier-
launched airborne surveillance and strike system (UCLASS). The UCLASS 
program will shorten the timeline to find, fix, track, target, engage, 
and assess time sensitive targets. UCLASS will integrate with the 
carrier air wings and increase the flexibility, versatility, and 
capability of the carrier force. We are currently developing the UCLASS 
acquisition strategy with OSD.
    Unmanned Underwater Vehicles
    Unmanned Underwater Vehicles (UUV) provide an innovative 
technological solution to augment manned platforms. Our Navy has logged 
more than 85,000 hours of UUV operations to improve battlespace 
awareness. Our small-body Littoral Battlespace Sensing (LBS) 
oceanographic autonomous undersea gliders have demonstrated the ability 
to conduct 6-month long autonomous operations and will achieve Initial 
Operating Capability this year. Our fiscal year 2012 budget requests 
about $13million for research, development, and procurement of the LBS 
glider. We are also developing Large Diameter UUVs (LDUUV) with the 
capability to autonomously deploy and manage a variety of sensors and 
payloads. The development of these highly capable vehicles will require 
investment in commercially and militarily beneficial alternative energy 
technologies, including refinement of fuel cell technology and cutting 
edge battery technologies. Our fiscal year 2012 budget requests about 
$47 million to develop an LDUUV, and I remain committed to conduct 
fully independent UUV missions with durations of 2 months by 2017. This 
capability will allow full scale employment and deployment of LDUUV 
squadrons in the 2020s.
    Mobile User Objective System
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability that can support the command and 
control requirements of highly mobile and distributed U.S. and 
coalition forces. Satellite communications give deployed forces a 
decisive military advantage and often offer the only communication 
means to support ongoing operations. Rapidly expanding joint demand for 
more access at ever-higher data rates requires moving beyond our 
current legacy Ultra High Frequency (UHF) satellite capabilities. The 
Mobile User Objective System (MUOS) will help satisfy those demands 
when initial operational capability is reached in fiscal year 2012. The 
first satellite in our planned constellation of five is scheduled for 
on-orbit capability in May 2012. Our fiscal year 2012 budget submission 
continues our investment in MUOS to replace the aging UHF Follow-On 
(UFO) constellation. I request your continued support of MUOS and the 
critical narrowband communication capability it will provide to the 
joint warfighter.

Next Generation Enterprise Network
    The Next Generation Enterprise Network (NGEN) is a Department of 
the Navy enterprise network that will provide secure, net-centric data 
and services to Navy and Marine Corps personnel after the current Navy-
Marine Corps Intranet (NMCI) network stands down. In July, Navy awarded 
Hewlett Packard Enterprise Services with the NMCI continuity of 
services contract to transition the Navy out of NMCI and into NGEN. 
NGEN will sustain the services currently provided by NMCI, while 
increasing government command and control of our network and enabling 
secure, reliable, and adaptable global information exchange. The 
initial NGEN contracts are expected to be awarded in the first quarter 
of fiscal year 2012. Our fiscal year 2012 budget requests an additional 
$22 million to support government command and control of our networks 
and improve our network situational awareness and defense.

Remain Ready to Fight Today
    Our Navy continues to experience a high tempo of global operations 
which I expect to continue even as combat forces draw down in 
Afghanistan. Global trends in economics, demographics, resources, and 
climate change portend an increased demand for maritime power and 
influence. America's prosperity depends upon the seas: 90 percent of 
world trade moves on the world's oceans and underwater 
telecommunications cables facilitate about $3.2 trillion of commerce 
each year. As new trade patterns emerge, such as those that will result 
from the expansion of the Panama Canal and the opening of the Arctic, 
and as disruption and disorder persist in our security environment, 
maritime activity will evolve and expand. Seapower allows our Nation to 
maintain U.S. presence and influence globally and, when necessary, 
project power without a costly, sizeable, or permanent footprint 
ashore. We will continue to maintain a forward-deployed presence around 
the world to prevent conflict, increase interoperability with our 
allies, enhance the maritime security and capacity of our traditional 
and emerging partners, confront irregular challenges, and respond to 
crises.
    High operational demand for our force over the last decade has led 
to longer deployments, lower dwell time, and reduced maintenance time 
for our surface ships. If these trends continue, our force will be less 
ready and less available than it is today because of increased stress 
on our sailors and a reduction in our Fleet capacity as ships fail to 
reach their expected service lives. We have initiatives currently 
underway to address these trends. We are moving approximately 1,900 
sailors from shore billets onto our ships to meet operational demands 
while maintaining acceptable Fleet readiness levels and sailor dwell 
time. To enhance the material readiness of our Fleet, we are improving 
our ability to plan and execute maintenance by increasing manning at 
our Regional Maintenance Centers (RMCs), and by institutionalizing our 
engineered approach to surface ship maintenance, converting the 
successes of our Surface Ship Lifecycle Maintenance initiative I began 
2 years ago into the Surface Maintenance Engineering Planning Program 
Activity. I remain focused on ensuring our Navy has a force that is 
maintained and trained to provide the capability and forward presence 
required in the two areas of interest identified in our Maritime 
Strategy, the Western Pacific and the Arabian Gulf, while preserving 
our ability to immediately swing from those regions and our Fleet 
concentration areas in the United States to respond to contingencies 
globally.
    Our fiscal year 2012 base budget and Overseas Contingency 
Operations (OCO) funding requests balance the need to meet increasing 
operational requirements, sustain our sailors' proficiency, and conduct 
the maintenance required to ensure our ships and aircraft reach their 
full service lives. It does not address the potential impacts of a 
full-year continuing resolution on our ongoing operations and 
maintenance afloat and ashore. Highlights follow of initiatives that 
ensure our Navy remains ready to fight today.

Depot Level Maintenance
    Our ships and aircraft are valuable capital assets that operate in 
unforgiving environments. Keeping these assets in acceptable operating 
condition is vital to their ability to accomplish assigned missions and 
reach their expected service lives. Timely depot level maintenance, 
based on an engineered assessment of expected material durability and 
scoped by actual physical condition, will preserve our existing force 
structure. Continued investment in depot level maintenance is essential 
in achieving and sustaining the force structure required to implement 
our Maritime Strategy. Our combined fiscal year 2012 base budget and 
OCO funding requests fulfill 94 percent of the projected ship depot 
maintenance requirements necessary to sustain our Navy's global 
presence and 95 percent of our aviation depot maintenance requirements, 
servicing 742 airframes and 2,577 engines. The actual extent of our 
depot maintenance requirements will be determined by the final funding 
levels for fiscal year 2011. I request that you fully support our 
baseline and contingency funding requests for operations and 
maintenance to ensure the effectiveness of our force, safety of our 
sailors, and longevity of our ships and aircraft.

Shore Readiness
    Our shore infrastructure enables our operational and combat 
readiness, and is essential to the quality of life and quality of work 
for our sailors, Navy civilians, and their families. High operational 
demands, rising manpower costs, and an aging fleet of ships and 
aircraft cause us to take deliberate risk in shore readiness, 
specifically in sustaining our shore infrastructure. We have focused 
our facilities sustainment, restoration, and modernization funds on 
improving our housing for unaccompanied sailors and investing in energy 
efficient building modifications. To source these enhancements, we have 
temporarily cancelled our demolition program and reduced our facilities 
sustainment posture to 80 percent of the modeled requirement. We have 
targeted our shore readiness investments in areas that have the 
greatest impact on achieving our strategic and operational objectives. 
These areas include support to our warfighting missions and 
capabilities, nuclear weapons security, quality of life for our sailors 
and their families, and energy enhancements. We remain on track in our 
Homeport Ashore initiative to provide sufficient accommodations to our 
junior single sailors by 2016, and we continue our support for family 
services. We plan to complete an expansion of 7,000 child care spaces 
in fiscal year 2011, allowing us to meet OSD's mandate of providing 
child care for 80 percent of the potential need in fiscal year 2012.

Training Readiness
    Our Navy is leveraging modeling and simulation (M&S) extensively 
across the Fleet training continuum to reduce at-sea training 
requirements and associated operating costs and energy use. These 
virtual environments stress critical command and control warfare skills 
and fine tune basic warfighting competencies without going to sea. They 
provide synthetic events that are scalable and repeatable, including 
the ability to train multiple strike groups simultaneously. Synthetic 
training provides a complex, multi-faceted threat environment that 
cannot be efficiently recreated at sea on a routine basis. Ship command 
and control simulations, in conjunction with the Fleet Synthetic 
Training (FST) program, support unit level and integrated pre-
deployment training and certification, including Joint Task Force 
Exercises, Ballistic Missile Defense Exercises, and LCS qualification 
and certification training. In fiscal year 2012, our Navy's use of 
simulators will reduce steaming days by 603 days for a savings of $30 
million, and flying hours by 5,400 hours, for a savings of $35 million. 
The Fleet has placed FST as a top training priority with the objective 
to increase simulator use and synthetic training to reduce Fleet 
operating costs.
    Although we are maximizing our use of synthetic training, it cannot 
completely replace our need to conduct live training. Simulators cannot 
replicate the physical environment, risks, stress, or experiences that 
live training provides. Naval units must be able to practice and hone 
their skills in the air and at sea. Having the right facilities and the 
ability to practice skill sets in a live operating environment are 
necessary for the proficiency and safety of our sailors and for the 
warfighting effectiveness of our Fleet.
    The proliferation of advanced, stealthy submarines continues to 
challenge our Navy's ability to guarantee the access and sustainment of 
joint forces. Robust anti-submarine warfare (ASW) training with active 
sonar systems is vital for our Navy to effectively address this threat. 
The Navy remains a world leader in marine mammal research and we will 
continue our investment in this research in fiscal year 2012 and 
beyond. Through such efforts, and in full consultation and cooperation 
with other Federal agencies, we have developed effective measures that 
protect marine mammals and the ocean environment from adverse impacts 
of mid-frequency active (MFA) sonar while not precluding critical Navy 
training. We continue to work closely with our interagency partners to 
further refine our protective measures as scientific knowledge evolves. 
It is vitally important that any such measures ensure the continued 
flexibility necessary to respond to future national security 
requirements.
    In January, we announced our plan to initially focus JSF homebasing 
on the west coast in accordance with 2010 Quadrennial Defense Review 
direction and the JSF Transition Plan. We also announced that we are 
suspending work on the Outlying Landing Field (OLF) draft environmental 
impact statement (EIS) planned for the East Coast until at least 2014. 
At that time, we will re-evaluate the requirement for an OLF based on 
our east coast JSF basing and training requirements. We continue to 
experience capacity shortfalls at our current East Coast field carrier 
landing practice sites that present challenges to meeting our current 
training requirements under both routine and surge conditions for 
existing Navy aircraft. We will continue to ensure we meet all our 
training requirements by implementing the measures necessary to use all 
available facilities.

Energy and Climate Change
    The Secretary of the Navy and I are committed to advancing our 
energy security. I consider energy an operational imperative and I 
established the Navy's Task Force Energy more than 2 years ago to 
improve combat capability, assure mobility, and green our footprint. We 
will achieve these goals through energy efficiency improvements, 
consumption reduction initiatives, and the aggressive adoption of 
alternative energy and fuels. Reducing our reliance on fossil fuels 
will improve our combat capability by increasing time on station, 
reducing time spent alongside replenishment ships, and producing more 
effective and powerful future weapons.
    Our tactical energy efforts fall into two categories: technical and 
behavioral changes that use energy more efficiently, and testing/
certification of alternative fuels. We are making good progress on our 
efficiency initiatives. The USS Makin Island (LHD-8) uses hybrid 
propulsion and we are installing the same system on LHA-6 and LHA-7. We 
are developing a hybrid electric drive system for the DDG-51 class and 
I anticipate a land-based test as early as this summer. We continue to 
introduce advanced hull and propeller coatings and solid state lighting 
in our ships, and we are developing the Smart Voyage Planning Decision 
Aid to achieve more efficient ship routing. We are also implementing 
policies that encourage sailors to reduce their personal energy usage. 
These incremental initiatives add up to significant efficiency 
improvements.
    Our alternative energy programs are progressing. We are 
aggressively certifying elements of our operational force for biofuel 
use. To date we have operated the ``Green Hornet'' F/A-18 and MH-60S on 
camelina-based JP-5 fuel and the RCB-X riverine craft on algal-based F-
76 fuel. Operational testing of energy efficiency upgrades to the 
Allison 501k engine completed last month and is a key milestone toward 
certification of our Navy combatants with marine gas turbine engines.
    We have reduced our energy use ashore by more than 14 percent since 
2003, as a result of our energy efficiency efforts, including energy 
efficiency building upgrades, energy management systems, procurement of 
alternative fuel vehicles, and achievement of sustainable building 
standards for all new construction and major renovation projects. Our 
continued investments in advanced metering and energy audits will help 
identify further opportunities for efficiency gains and alternative 
energy use. Our approach remains focused on integrating the right 
technology at the right time in the right place while transforming Navy 
culture and behavior for long term sustainability.
    Since establishing Task Force Climate Change in 2009, our Navy has 
taken several actions to better understand and address the potential 
impacts of climate change on our Navy. We have increased our 
operational engagement in the Arctic, participating this past summer in 
Operation Nanook/Natsiq with Canada. We are re-assessing regional 
security cooperation, through our African, Southern, and Pacific 
Partnership station missions to include consideration of climate change 
adaptation, especially with respect to improving water security. We are 
also participating with the National Oceanographic and Atmospheric 
Administration and other Federal agencies to survey in the Arctic and 
improve our environmental observation and prediction capability 
worldwide. Scientific observations indicate that current changes to the 
climate are occurring on a decadal scale, giving our Navy enough time 
to conduct the studies and assessments necessary to inform future 
investment decisions.

Second East Coast Carrier-Capable Homeport
    The Navy continues to focus on achieving the 2010 Quadrennial 
Defense Review direction to upgrade the carrier port of Mayport. Much 
like the dispersal of west coast aircraft carriers between California 
and Washington, a second homeport on the east coast to maintain 
aircraft carriers is prudent in the event of a natural or man-made 
disaster in Hampton Roads. The dredging project funded in fiscal year 
2010 is underway and will ensure unimpeded access to Mayport. Our 
fiscal year 2012 budget requests funding for the Massey Avenue corridor 
improvement projects. We plan to request funding for the Wharf F 
recapitalization in fiscal year 2013, and the remaining projects within 
the FYDP, to establish Naval Station Mayport as a nuclear carrier-
capable homeport by 2019.

United Nations Convention on the Law of the Sea
    The Navy has consistently supported a comprehensive and stable 
legal regime for the exercise of navigational rights and other 
traditional uses of the oceans. The Law of the Sea Convention provides 
such a regime with robust global mobility rules. I believe it essential 
that the United States become a full Party to the treaty. The 
Convention promotes our strategic goal of free access to and public 
order on the oceans under the rule of law. It also has strategic 
effects for global maritime partnerships and American maritime 
leadership and influence. Creating partnerships that are in the 
strategic interests of our Nation must be based on relationships of 
mutual respect, understanding, and trust. For the 160 nations who are 
parties to the Law of the Sea Convention, a basis for trust and mutual 
understanding is codified in that document. The treaty provides a solid 
foundation for the United States to assert its sovereign rights to the 
natural resources of the sea floor out to 200 nautical miles and on the 
extended continental shelf beyond 200 nautical miles, which in the 
Arctic Ocean is likely to extend at least 600 nautical miles north of 
Alaska. As a non-Party to the treaty, the United States undermines its 
ability to influence the future direction of the law of the sea. As the 
only permanent member of the U.N. Security Council outside the 
Convention, and one of the few nations still remaining outside one of 
the most widely subscribed international agreements, our non-Party 
status hinders our ability to lead in this important area and could, 
over time, reduce the United States' influence in shaping global 
maritime law and policy. The Law of the Sea Convention provides the 
norms our sailors need to do their jobs around the world every day. It 
is in the best interest of our Nation and our Navy to ratify the Law of 
the Sea Convention. We must demonstrate leadership and provide to the 
men and women who serve in our Navy the most solid legal footing 
possible to carry out the missions that our Nation requires of them.

  DEVELOP AND SUPPORT OUR SAILORS, NAVY CIVILIANS, AND THEIR FAMILIES

    Our sailors, Navy civilians, and their families are the backbone of 
our Maritime Strategy. They make us who we are. Their skill, 
innovation, and dedication turn our ships, aircraft, weapons and 
systems into global capabilities that prevent conflict, build 
partnerships, and, when necessary, project combat power to prevail in 
war. Our investment in our sailors, Navy civilians, and their families 
ensures our Navy's continued maritime dominance today and in the 
future.
    Our fiscal year 2012 budget requests authorization and funding for 
325,700 Active and 66,200 Reserve end strength. This request includes 
the migration of more than 1,800 military billets from shore and staff 
activities into the Fleet to man new ships and squadrons, restore 
optimal manning cuts, add needed information technology and nuclear 
operators to our force, and restore billets for fiscal year 2013 to 
extend USS Peleliu in commission. This migration will enhance our 
forces afloat; however, the transition will present challenges to our 
ability to maintain sea-shore flow for some of our enlisted sailors and 
sustain manning levels across the force. We are aware of these 
challenges and believe the transition is manageable. Our fiscal year 
2012 end strength request also begins to move end strength previously 
supported by OCO funding, namely our Navy Individual Augmentees (IAs), 
into our baseline program. We will execute a phased draw down of our 
OCO end strength as we project a gradual reduction of IA demands in 
Iraq and Afghanistan. Should IA demand remain at current levels, or 
increase over time, we will be challenged to meet manning requirements 
for our Fleet. Our Navy continues to size, shape, and stabilize our 
force through a series of performance-based measures designed to retain 
the skills, pay grades, and experience mix necessary to meet current 
and future requirements.
    Our fiscal year 2012 end strength reflects efficiencies in our 
manpower account that reduce excess overhead by disestablishing several 
staffs, but not their associated ships and aircraft, for submarine, 
patrol aircraft, and destroyer squadrons, as well as one Carrier Strike 
Group staff. We are disestablishing the headquarters of Second Fleet 
and transferring responsibility for its mission to U.S. Fleet Forces 
Command. These efficiencies streamline our organizations and allow us 
to reinvest the savings into warfighting capability and capacity.
    I would like to touch briefly on the issue of changes to the health 
care benefit. Navy Medicine has been a leader in implementing pilot 
testing for the Department in a new concept called the Patient-Centered 
Medical Home. Beneficiaries have welcomed Navy Medicine's Medical Home 
Port initiative and it shows in their satisfaction scores. I am 
convinced that our beneficiaries will readily accept very modest 
changes to copayments as long as we continue to invest in these 
transformational approaches to delivering high quality health care. The 
proposals in the President's budget are consistent with our efforts 
over the last several years: a focus on internal efficiency, 
incentivizing the health behaviors we want, and ensuring all of our 
beneficiaries are treated equitably. I request you support these timely 
and appropriate efforts.
    The tone of our force continues to be positive. In 2010, we 
conducted the Navy Total Force Survey, which was the first of its kind 
to assess the work-related attitudes and experiences of Active and 
Reserve sailors and Navy civilians. The survey reported that Navy 
personnel are, overall, satisfied with the quality of their leadership, 
benefits, compensation, and opportunities within the Navy for personal 
growth and development. The survey results reaffirmed what more than 20 
national awards have recognized: that our Navy is a ``Top 50'' 
organization and an employer of choice among today's workforce.
    Our fiscal year 2012 budget request represents a balanced approach 
to supporting our sailors and their families, sustaining the high tempo 
of current operations, and preserving Fleet and family readiness. 
Highlights follow of our efforts to develop and support our sailors, 
Navy civilians, and their families.

Recruiting and Retention
    Our Navy has enjoyed strong recruiting success over the past 3 
years, and we expect this trend to continue through fiscal year 2011. 
Fiscal year 2010 marked the third consecutive year Navy met or exceeded 
its overall enlisted recruiting goals in both the Active and Reserve 
components and we continue to exceed Department of Defense quality 
standards in all recruit categories. We accessed the highest quality 
enlisted force in history last year, with more than 97 percent having 
traditional high school diplomas. Active officer recruiting for fiscal 
year 2010 also exceeded our overall goals. Reserve officer recruiting 
exceeded our fiscal year 2009 levels, but achieved only 95 percent of 
our fiscal year 2010 goal. Reserve medical officer recruiting continues 
to be our greatest challenge as the requirement for medical officers 
has increased by more than 100 percent since fiscal year 2008. We 
continue to explore new avenues for recruiting, including expanding our 
social media engagement to maintain a dialogue with potential 
applicants and influencers nationwide.
    Navy will remain competitive in the employment market through the 
disciplined use of monetary and non-monetary incentives. Using a 
targeted approach, we will continue our recruiting and retention 
initiatives to attract and retain our best sailors, especially those 
within high-demand, critical skill areas that remain insulated from 
economic conditions. We are taking advantage of current high retention 
rates and success in accessions by reevaluating all special and 
incentive pays and bonuses and reducing them where possible. Judicious 
use of special and incentive pays remains essential to recruiting and 
retaining skilled professionals in the current economic environment, 
and will increase in importance as the economic recovery continues. Our 
goal remains to maintain a balanced force, in which seniority, 
experience, and skills are matched to requirements.
    To ensure we stay within our congressionally-authorized end 
strength, we are executing force stabilization measures that include 
Perform-to-Serve (PTS) for enlisted sailors and a series of Selective 
Early Retirement (SER) boards for Unrestricted Line (URL) captains and 
commanders. PTS considers the manning levels in each enlisted rating 
and reviews the record of sailors eligible for reenlistment to 
determine if the sailor should remain in the rating, convert to an 
undermanned specialty, transition to the Reserves, or separate from the 
Navy. The SER boards will address the excess inventory of Active 
component captain (O6) and commander (O5) URL officers in our Navy to 
ensure sufficient senior officers are available at the right time in 
their careers to serve in critical fleet billets. We project 
approximately 100 URL captains and 100 URL commanders will be selected 
for early retirement through this process. With these performance-based 
measures, we expect to meet our fiscal year 2011 authorized Active end 
strength of 328,700 and Reserve end strength of 65,500 by the end of 
the fiscal year. We will be challenged to meet our Active and Reserve 
end strength targets in fiscal year 2012 using existing force shaping 
measures. As a result of continued high retention and low attrition 
across the force, we are facing increasing pressure to use involuntary 
force shaping measures to remain within our authorized end strength.

Diversity
    Demographic projections estimate that today's minorities will make 
up more than one third of our Nation's workforce by 2020; by 2050, that 
projection increases to about half of our workforce. Our ability to 
access and retain the talents of every component group in our society 
is critical to our mission success. Recruiting and retaining a diverse 
workforce, reflective of the Nation's demographics at all levels of the 
chain of command, remains a strategic imperative and a focus area for 
leaders throughout our Navy. To foster a Navy Total Force composition 
that reflects America's diversity, we are focusing our efforts on 
outreach, mentoring, leadership accountability, training, and 
communication. Our diversity outreach efforts have contributed to our 
2014 U.S. Naval Academy and Naval Reserve Officers Training Corps 
classes being the most diverse student bodies in our history. We have 
increased diverse accessions through targeted recruiting in diverse 
markets, developing relationships with key influencers in the top 
diverse metropolitan markets, and aligning Navy assets and 
organizations to maximize our connection with educators, business 
leaders and government officials to increase our influencer base. We 
continue to expand our relationships with key influencers and science, 
technology, engineering, and mathematics-based affinity groups to 
inform our Nation's youth about the unique opportunities available in 
our Navy. We are also building and sustaining a continuum of mentorship 
opportunities that includes the chain of command, individual 
communities, social networking, peer-to-peer relationships, and 
affinity groups. We will continue to ensure that all sailors are 
provided with opportunities to develop personally and professionally.

Women on Submarines
    After notifying Congress last year of our intent to assign women to 
submarines, the Secretary of the Navy and I have authorized female 
officers to serve aboard Ohio-class SSBN and SSGN submarines. This will 
enable our submarine force to leverage the tremendous talent and 
potential of the women serving in our Navy. The first 18 female 
submarine officers commenced the standard 15-month nuclear and 
submarine training pipeline in 2010, and will begin arriving at their 
submarines at the end of this year. These officers will be assigned to 
two ballistic missile (SSBN) and two guided missile (SSGN) submarines 
which have the space to accommodate female officers without structural 
modification. The plan also integrates female supply corps officers 
onto SSBNs and SSGNs at the department head level. In December, the 
Secretary of Defense notified Congress of Navy's intent to expend funds 
to commence design and study efforts regarding reconfiguration of 
existing submarines to accommodate female crew members, as well as to 
design the Ohio replacement SSBN with the flexibility to accommodate 
female crew members.

Don't Ask, Don't Tell
    I am pleased Congress voted to repeal section 654 of title 10, 
U.S.C., commonly referred to as the ``Don't Ask, Don't Tell'' (DADT) 
statute. Legislative repeal affords us the time and structured process 
needed to effectively implement this significant change within our 
Armed Forces. As I testified in December, we will be able to implement 
a repeal of DADT in our Navy. I assess the risk to readiness, 
effectiveness, and cohesion of the Navy to be low. Our implementation 
process will be thorough, but timely. We are preparing the necessary 
policies and regulations to implement this change in law and training 
sailors and leaders at all levels to ensure they understand what repeal 
means to them, their families, and the Navy. Before repeal can occur, 
the President, Secretary of Defense, and Chairman of the Joint Chiefs 
must certify that the change can be made in a manner consistent with 
the standards of military readiness, military effectiveness, unit 
cohesion, and recruiting and retention of the Armed Forces. I will 
provide Navy's input to the certification process and I remain 
personally engaged in this process.

Sailor and Family Continuum of Care
    We remain committed to providing our sailors and their families a 
comprehensive continuum of care that addresses all aspects of medical, 
physical, psychological, and family readiness. Our fiscal year 2012 
budget request expands this network of services and caregivers to 
ensure that all sailors and their families receive the highest quality 
healthcare available.
    Navy Safe Harbor is at the forefront in Navy's non-medical care for 
all seriously wounded, ill, and injured sailors, coastguardsmen, and 
their families. We have expanded our network of Recovery Care 
Coordinators and non-medical Care Managers to 12 locations across the 
country. Safe Harbor continues to provide exceptional, individually 
tailored assistance to a growing enrolled population of more than 600 
individuals. Over 116,000 sailors and their spouses have participated 
in Operational Stress Control (OSC) training, which actively promotes 
the psychological health of sailors and their families by encouraging 
them to seek help for stress reactions early, before they become 
problems. The Warrior Transition Program (WTP) and Returning Warrior 
Workshops (RWW) are essential to post-deployment reintegration efforts. 
The WTP offers an opportunity for IA sailors redeploying from a combat 
zone to decompress, turn in their gear, and receive tools that will 
help them ease their transition back to their home and families. The 
RWW is designed to address personal stress that may be generated by 
deployment activities and it supports and facilitates the reintegration 
of the deployed sailor with his/her spouse and family. The RWW also 
provides a safe, relaxed atmosphere in which to identify and address 
potential issues that may arise during post-deployment reintegration.

Stress on the Force
    While the overall tone of our force remains positive, current 
trends suggest that high operational tempo, increasing mission demands, 
lean manning, force shaping, and economic conditions are placing 
increased stress on our Navy personnel. Our fiscal year 2012 budget 
requests increased funding to improve our program manager-level support 
of our suicide prevention and stress control programs.
    Suicide dramatically affects individuals, commands and families. 
Over the last year, we expanded our approach to preventing suicides 
from historic suicide surveillance and annual awareness training to 
include more comprehensive resilience building and tailored suicide 
prevention training, peer intervention, research and analysis. We saw a 
reduction in our number of suicides from 46 in calendar year 2009 to 38 
in calendar year 2010. Our calendar year suicide rate also decreased 
from 13.3 per 100,000 sailors in 2009 to 10.9 per 100,000 sailors in 
2010. Our 2010 suicide rate is below the national rate of 19.0 per 
100,000 individuals for the same age and gender demographic; however, 
any loss of life as a result of suicide is unacceptable. Suicide 
prevention is an ``all hands, all the time'' effort involving our 
sailors, families, peers, and leaders. We continue to work towards a 
greater understanding of the issues surrounding suicide to ensure that 
our policies, training, interventions, and communications are meeting 
intended objectives.
    We are integrating our suicide prevention efforts into the broader 
array of programs we offer to improve the resilience of our force. 
These programs, aimed at reducing individual stress, address issues, 
such as substance abuse prevention, financial management, positive 
family relationships, physical readiness, and family support.
    We continue our efforts to eliminate sexual assault by fostering a 
culture of prevention, victim response and offender accountability. 
Sexual assault is incompatible with our Navy core values, high 
standards of professionalism, and personal discipline. We have 
organized our efforts in this critical area under the Navy Sexual 
Assault Prevention and Response (SAPR) program. The SAPR program and 
the Naval Safety Center and Alcohol and Drug Prevention Program are 
currently developing an integrated approach to sexual assault 
prevention that includes clear leadership communication, bystander 
intervention training for sailors to help them recognize and interrupt 
risky situations, and training for military investigators and lawyers 
on issues specific to sexual assault investigation and prosecution.

Learning and Development
    Education and training are strategic investments that give us an 
asymmetric advantage over adversaries. To develop the highly-skilled, 
combat-ready force necessary to meet the demands of the Maritime 
Strategy and the Joint Force, we have 15 learning centers around the 
country providing top-notch training to our sailors, Navy civilians and 
members of the other Services. In fiscal year 2010, we completed 
learning and development roadmaps for all enlisted ratings, providing 
sailors with detailed information about the required training, 
education, qualifications and assignments they need to succeed in their 
career fields. We continue to leverage a blended training approach, 
integrating experienced instructors, advanced technology, and state-of-
the-art delivery systems with modularized content in order to provide 
the right training at the right time in a sailor's career. We are 
balancing existing education and training requirements with growth in 
important mission areas such as cyber defense, missile defense, and 
anti-submarine warfare. Cultural, historical, and linguistic expertise 
remain essential to successfully accomplishing the Navy's global 
mission, and our budget request supports our Language, Regional 
Expertise, and Culture (LREC) program as well as the Afghanistan-
Pakistan Hands Program sponsored by the Joint Staff. Last year the LREC 
program provided language and cultural training to more than 120,000 
sailors en route to overseas assignments. We recognize the importance 
of providing our people meaningful and relevant education, particularly 
Joint Professional Military Education (JPME), which develops leaders 
who are strategically-minded, capable of critical thinking, and adept 
in naval and joint warfare. Our resident courses at Naval War College, 
non-resident courses at Naval Postgraduate School and in the Fleet 
Seminar program, and distance offerings provide ample opportunity for 
achievement of this vital education.

                               CONCLUSION

    You can be exceptionally proud of our sailors. They are our 
Nation's preeminent force at sea, on land, and in air, space, and 
cyberspace. While the future is not without challenges, I am optimistic 
about our future and the global opportunities our Navy provides our 
Nation. Our fiscal year 2012 budget request represents a balanced 
approach to increasing Fleet capacity, maintaining our warfighting 
readiness, and developing and enhancing our Navy Total Force. I ask for 
your strong support of our fiscal year 2012 budget request and my 
identified priorities. Thank you for your unwavering commitment to our 
sailors, Navy civilians, and their families, and for all you do to make 
our U.S. Navy an effective and enduring global force for good.

    Chairman Levin. Thank you so much, Admiral, and again, 
thank you for your extraordinary service over the decades.
    General Amos.

STATEMENT OF GEN. JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                             CORPS

    General Amos. Chairman Levin, Ranking Member McCain, and 
members of the committee: It is indeed my honor to appear 
before you today for the very first time as the Commandant of 
the Marine Corps to articulate the posture of your Corps. Today 
the Corps serves as America's expeditionary force in readiness, 
a balanced air, ground, logistics team of 202,000 Active, 
39,000 Reserve, and 35,000 civilian marines. Our ability to 
serve as our Nation's principal crisis response force is due in 
large part to this committee's and Congress' continued strong 
support. Thank you for that.
    Today, there are over 32,000 marines forward-deployed 
around the world. As we sit here, it's half past 7 in the 
evening in Afghanistan. The rainy season has hit. The evenings 
remain cold and damp in this nation, where 20,000 of our young 
men and women are engaged in full-spectrum combat and 
counterinsurgency operations.
    I'm encouraged by the significant progress they have made 
in the Helmand Province and you have my assurance that this 
effort remains my top priority. Sergeant Major Kent and I spent 
Christmas with our marines and sailors in Afghanistan and I am 
happy to report that their morale is high and their belief in 
their mission is strong.
    Partnered with the U.S. Navy, we are forward deployed and 
forward engaged. This past year alone, our afloat forces 
conducted humanitarian assistance operations in Pakistan, 
Haiti, and the Philippines. They recaptured the pirated ship 
Magellan Star, rescuing its crew from Somali pirates, and 
partnered with allied forces in engagement missions in the 
Pacific Rim, Latin America, Africa, and Eastern Europe.
    Right now over 400 marines from the First Battalion, Second 
Marine Regiment, who deployed last week from Camp Lejeune, NC, 
within 20 hours of notification, are embarked aboard two 
amphibious vessels with a full complement of fixed and rotary 
wing assets. These marines are poised in the Mediterranean, 
prepared to do our Nation's bidding.
    Our role as America's crisis response force necessitates 
that we maintain a high state of readiness. You're either ready 
to respond to today's crisis with today's force today or you 
risk being late and thus irrelevant.
    I am keenly aware of the fiscal realities confronting our 
Nation. During these times of constrained resources, the Marine 
Corps remains committed to being the best stewards of scarce 
public funds. We maintain a longstanding tradition with 
Congress as DOD's penny-pinchers. Our institutionalized culture 
of frugality positions us as the best value for the defense 
dollar. For approximately 8.5 percent of the annual defense 
budget, the Marine Corps provides the Nation 31 percent of its 
ground operating forces, 12 percent of its fixed wing tactical 
aircraft, and 19 percent of its attack helicopters.
    This year's budget submission was framed by my four 
service-level priorities. We will: number one, continue to 
provide the best trained and equipped marines in Afghanistan; 
number two, rebalance our core and posture it for the future; 
number three, better educate and train our marines to succeed 
in increasingly complex environments; and lastly, number four, 
we will keep faith with our marines, our sailors, and our 
families.
    While these priorities will guide our long-term plan for 
the Marine Corps, there are pressing issues facing our Corps 
today that concern me, issues for which I ask Congress' 
continued assistance in solving. Our equipment abroad and at 
home stations has been heavily taxed in the nearly 10 years of 
constant combat operations. The price tag for reset is $10.6 
billion, of which $3.1 billion has been requested in fiscal 
year 2011 and $2.5 billion is being sought in fiscal year 2012. 
The remaining $5 billion will be needed upon the completion of 
our mission in Afghanistan.
    The F-35B Short Takeoff and Vertical Landing (STOVL) JSF is 
vital to our ability to conduct expeditionary operations. 
Continued funding and support from Congress for this program is 
of utmost importance. During the next 2 years of F-35B 
scrutiny, I will be personally involved with the program and 
closely supervising it.
    Both the Secretary of Defense and the Secretary of the Navy 
have reaffirmed the necessity of the Marine Corps' amphibious 
assault mission. We must develop an affordable and capable 
amphibious combat vehicle to project marines from sea to land 
in permissive, uncertain, and in hostile environments. I ask 
for your continued support to reach this goal.
    To ensure the Marine Corps remains a relevant force with a 
capacity and capability to respond to the demands of future 
security environments, we recently conducted a detailed 
internally-driven force structure review. The results of this 
effort provide America a strategically mobile, middleweight 
force, optimized for forward presence, and rapid crisis 
response.
    As we look to the future, the Marine Corps is committed to 
finding ways to be more energy efficient. Since 2009, we have 
aggressively pursued energy-efficient capabilities that will 
make marine units more energy self-sufficient, increase our 
combat effectiveness, and protect the lives of our young men 
and women. Two weeks ago, I signed our new bases to battlefield 
energy planning guidance, with such goals, metrics, and a plan 
for implementation.
    Finally, I would like to comment on the impact of the 
current CR as it has impacted our operations and our programs. 
As of today, $567 million in military construction (MILCON) 
contracts have not been awarded. $2.4 billion of MILCON is at 
risk for the remainder of this year. These projects impact the 
lives of marines, the local economies of the communities around 
our bases and stations, and are projected to generate over 
63,000 jobs from the Carolinas to Hawaii.
    If the CR extends through the entire fiscal year, 13 
bachelor enlisted quarters (BEQ) totaling 5,000 affected spaces 
will not be built, thus stymieing our BEQ modernization 
efforts. These 13 BEQs will allow 8 infantry battalions to move 
out of 50-year-old Cold War barracks.
    Finally, the CR could prove catastrophic to our procurement 
accounts, resulting in the loss of almost one-third of our 
procurement budget capabilities.
    Lastly, you have my promise that in these challenging times 
ahead, the Marine Corps will only ask for what it needs, not 
what it might want. We will make the hard decisions before 
coming to Congress and we will redouble our efforts toward our 
traditional culture of frugality.
    As has been the case for over 235 years, your Marine Corps 
stands ready to respond whenever the Nation calls, wherever the 
President may direct.
    Once again, I thank each of you for your continued support. 
I'm prepared to answer your questions.
    [The prepared statement of General Amos follows:]

             Prepared Statement by Gen. James F. Amos, USMC

               AMERICA'S EXPEDITIONARY FORCE IN READINESS

    The Marine Corps is America's Expeditionary Force in Readiness--a 
balanced air-ground-logistics team. We are forward-deployed and 
forward-engaged: shaping, training, deterring, and responding to all 
manner of crises and contingencies. We create options and decision 
space for our Nation's leaders. Alert and ready, we respond to today's 
crisis, with today's force . . . TODAY. Responsive and scalable, we 
team with other Services, allies and interagency partners. We enable 
and participate in joint and combined operations of any magnitude. A 
middleweight force, we are light enough to get there quickly, but heavy 
enough to carry the day upon arrival, and capable of operating 
independent of local infrastructure. We operate throughout the spectrum 
of threats--irregular, hybrid, conventional--or the shady areas where 
they overlap. Marines are ready to respond whenever the Nation calls . 
. . wherever the President may direct.

                                       --General James F. Amos

America's Expeditionary Force in Readiness
    Today, your U.S. Marine Corps is foremost America's Expeditionary 
Force in Readiness. Established originally by an act of the Second 
Continental Congress on November 10, 1775, your Marine Corps has 
evolved over 235 years into a balanced air-ground-logistics team that 
is forward deployed and forward engaged: shaping, training, deterring, 
and responding to all manner of crises and contingencies.
    Through the ongoing support of Congress and the American people, 
your Marine Corps is a cohesive force of 202,100 Active Duty marines; 
39,600 Selected Reserve marines; and 35,000 civilian marines. At any 
given time, approximately 30,000 marines are forward deployed in 
operations supporting our Nation's defense.\1\ This year, as our Nation 
recognizes a decade since the tragic events of September 11, your 
Marine Corps has been conducting Overseas Contingency Operations for an 
equal amount of time. From Task Force 58 with 4,400 marines launching 
from 6 amphibious ships to secure critical lodgments in Afghanistan in 
late 2001 to our counterinsurgency efforts in the Al Anbar province of 
Iraq and to our current operations in the Helmand River Valley of 
Afghanistan, your marines have been forward deployed in the Service of 
our Nation.
---------------------------------------------------------------------------
    \1\ As of December 2010, there were approximately 20,700 marines in 
Afghanistan including marines serving in external billets (e.g. 
transition teams and joint/interagency support, et cetera); 6,200 at 
sea on Marine Expeditionary Units; and 1,600 marines engaged in various 
other missions, operations and exercises. The 30,000 statistic excludes 
over 18,000 marines assigned to garrison locations outside the 
continental United States such as in Europe, the Pacific, et cetera.
---------------------------------------------------------------------------
    Yet, during this time the Marine Corps has not been confined solely 
to major combat operations and campaigns. From our rapid response 
aiding fellow Americans and enabling joint and interagency relief 
efforts following Hurricane Katrina's floods, to our noncombatant 
evacuation operation of 14,000 American citizens from Lebanon in 2006, 
to our numerous and ongoing security cooperation missions with nations 
of Africa, Eastern Europe, the Pacific Rim, and Latin America, the U.S. 
Marine Corps continues to demonstrate the agility and flexibility 
expected of America's principal crisis response force. Over the course 
of the past year alone, your brave men and women who wear the Marine 
uniform and who bring a diversity of talent in service to our Nation, 
have simultaneously:

        <bullet> Waged an aggressive full-spectrum counterinsurgency 
        operation in Afghanistan while concurrently increasing combat 
        power nearly two-fold (i.e. from 10,600 to 19,400) in 
        accordance with the President's December 2009 Afghanistan-
        Pakistan strategy;
        <bullet> Successfully completed our mission in Iraq, bringing 
        stability to Al Anbar province. This achievement was not 
        without sacrifice and suffering in that 1,022 \2\ marines gave 
        their lives and 8,626 marines were wounded in action;
---------------------------------------------------------------------------
    \2\ 1022 deaths = 851 killed in action (hostile) and 171 deceased 
(non-hostile).
---------------------------------------------------------------------------
        <bullet> Partnered with allied forces in engagement missions 
        throughout every Geographic Combatant Commander's Area of 
        Responsibility;
        <bullet> Conducted foreign humanitarian assistance and disaster 
        relief missions in Pakistan, Haiti, and the Philippines;
        <bullet> Participated in maritime security operations to ensure 
        freedom of navigation along vital sea lines of communication, 
        to include the recapture of the vessel Magellan Star and rescue 
        of its crew from Somali pirates; and
        <bullet> Rapidly reinforced U.S. Embassies in Port au Prince, 
        Haiti; Conakry, Guinea; Bishkek, Kyrgyzstan; and most recently 
        Cairo, Egypt to assist and protect diplomatic personnel amidst 
        crises in these foreign capitals.

    Their actions align with the functions of our Corps as seen in the 
new Department of Defense (DOD) Directive 5100.01, Functions of the 
Department of Defense and Its Major Components, and are a critical link 
to the continued prosperity and security of our Nation and the survival 
of our friends, allies, and partners. The performance of your marines 
on the global stage adds to our storied legacy of sacrifice and 
success--under even the most adverse conditions--inspiring a sense of 
pride and confidence in the American public that their marines are able 
to respond quickly, ensuring the Nation's interests will be protected.

Future Security Environment
    Public law, defense policy, our doctrine and operating concepts, 
and the future security environment shape how we organize, train, and 
equip our forces. As we look ahead, we see a world of increasing 
instability, failed or failing states, and conflict characterized by:

        <bullet> Poverty, unemployment, urbanization, overpopulation, 
        and extremism;
        <bullet> Competition for scarce natural resources; and
        <bullet> Rapid proliferation of new technologies to include 
        capabilities to disrupt cyber networks, advanced precision 
        weaponry, and weapons of mass destruction.

    These troubling socio-economic and geopolitical trends converge in 
the littorals--regions along the world's coastline where the sea joins 
with the land. The majority of the world's population lives near the 
sea. The trend towards accelerated birth rates in the developing world, 
coupled with ongoing migration from rural to urban landscapes, results 
in hyper-populated coastal regions, burdened by the cumulative 
stressors of criminality, extremism, and violence.
    Littoral cities increasingly may assume what some have called feral 
qualities, raising the potential for conflict, providing a measure of 
sanctuary for our adversaries, and posing challenges to governmental 
sovereignty and regional security. It is in this complex environment 
that your U.S. Marine Corps will operate. We stand optimally postured 
to conduct a range of operations for Joint Force commanders, bridging 
the gap between operations at sea and on land.
    Nonetheless, we are committed to the prevention of conflict as we 
are to responding to it. Indeed, 21st century security challenges 
require expansion of global engagement--facilitated through persistent 
forward naval presence--to promote collective approaches to addressing 
common security concerns. Accordingly, forward deployed Marine forces 
will increasingly conduct theater security cooperation activities and 
will build partnership capacity through security force assistance 
missions with our allies and partners around the globe. The goal of our 
engagement initiatives is to minimize conditions for conflict and 
enable host nation forces to effectively address instability as it 
occurs.

Role of the Marine Corps
    The United States is a maritime nation with global 
responsibilities. With a naval tradition as the foundation of our 
existence, we remain firmly partnered with the U.S. Navy. Forward 
deployed, we retain the ability to come from the sea rapidly to conduct 
missions across the range of military operations. Our persistent 
forward presence and multi-mission capability present an unparalleled 
ability to rapidly project U.S. power across the global commons--land, 
sea, air, space, and cyber.
    Amphibious forces with robust and organic logistical sustainment 
provide a maritime Super Power significant advantages, including the 
ability to overcome the tyranny of distance and to project power where 
there is no basing or infrastructure--a strong deterrent capability for 
our Nation. To Marines, `expeditionary' is a state of mind that drives 
the way we organize our forces, train, develop and procure equipment. 
By definition, our role as America's crisis response force necessitates 
a high state of unit readiness and an ability to sustain ourselves 
logistically. We must be ready to deploy today and begin operating upon 
arrival, even in the most austere environments. The U.S. Marine Corps 
affords the following three strategic advantages for our Nation:

        <bullet> A versatile ``middleweight'' capability to respond 
        across the range of military operations. We fill the gap in our 
        Nation's defense as an agile force capable of operating at the 
        high and low ends of the threat spectrum or the indistinct 
        areas in between.
        <bullet> An inherent speed and agility that buys time for 
        national leaders. Our flexibility and rapid response capability 
        present unique opportunities to develop strategic options, 
        shape the environment, and set conditions to deploy the full 
        capabilities of the Joint Force and other elements of national 
        power.
        <bullet> An enabling and partnering capability in joint and 
        combined operations. Our unique forward posture aboard 
        amphibious ships, manned by well-trained, uniformed sailors, 
        positions us to be the `first to fight.'

USMC Priorities
    My four service level priorities informed this year's budget 
submission. These priorities were influenced by and derived from a 
number of factors to include our understanding of the 21st century 
battlefield based on lessons learned over nearly a decade at war, our 
examination of the future security environment, our doctrine and 
operating concepts, and our current and future budgetary and 
programmatic requirements.
    These priorities are aligned with the principal recommendations of 
the 2010 Quadrennial Defense Review, meeting its end state of ensuring 
that the Marine Corps is able to ``prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the All-Volunteer 
Force.'' My priorities also support America's four enduring strategic 
interests as identified in the 2010 National Security Strategy.\3\ To 
that end, we will:
---------------------------------------------------------------------------
    \3\ (1) Security of the United States, its citizens, and U.S. 
allies and partners; (2) A strong, innovative, and growing U.S. economy 
in an open international economic system that promotes opportunity and 
prosperity; (3) respect for universal values at home and around the 
world; and (4) an international order advanced by U.S. leadership that 
promotes peace, security, and opportunity through stronger cooperation 
to meet global challenges. 2010 National Security Strategy Pg, 7.

        <bullet> Continue to provide the best trained and equipped 
        Marine units to Afghanistan;
        <bullet> Rebalance our Corps, posture it for the future, and 
        aggressively experiment with and implement new capabilities and 
        organizations;
        <bullet> Better educate and train our marines to succeed in 
        distributed operations and increasingly complex environments; 
        and
        <bullet> Keep faith with our marines, our sailors, and our 
        families.

    The above priorities guide my long-term plan for the Marine Corps; 
however, there are pressing issues facing our Corps today that give 
cause for concern.

        <bullet> Equipment: Our equipment abroad and at home station 
        has been ``heavily taxed'' in the nearly 10 years of constant 
        combat operations. We require funding to reset equipment being 
        utilized overseas and to reconstitute home-station equipment 
        and modernize for the future. This is critical to maintaining 
        readiness throughout the Corps.
        <bullet> The Short Take-Off and Vertical Landing F-35B Joint 
        Strike Fighter: The F-35B is vital to our ability to conduct 
        combined arms operations in expeditionary environments. 
        Continued funding and support from Congress for this program is 
        of utmost importance.
        <bullet> Amphibious Combat Vehicle: We will begin the 
        development of an affordable and capable amphibious combat 
        vehicle to replace the recently-cancelled Expeditionary 
        Fighting Vehicle program. The capability inherent in a ship-to-
        shore connector is critical to our expeditionary nature, as 
        affirmed by the Secretary of Defense.
        <bullet> End Strength: The drawdown of our Active component 
        from 202,100 to 186,800 must be conditions-based, and only 
        after completion of our mission in Afghanistan. We must keep 
        faith with our Marine Corps family by allowing appropriate time 
        and support for those departing the force and to ensure the 
        resiliency of our units still engaged in war.
        <bullet> Family Readiness Programs: Like our equipment, marines 
        and their families have been ``heavily taxed'' since September 
        11. We will continue to fund family readiness and family 
        support programs that are vital to the health and welfare of 
        our entire Marine Corps family.
        <bullet> Amphibious Ships: The Navy and Marine Corps have 
        determined a minimum force of 33 ships represents the limit of 
        acceptable risk in meeting the 38-ship amphibious force 
        requirement for the Assault Echelon. Marines are best postured 
        to engage and respond to the Nation's security interests from 
        amphibious ships.

    The Marine Corps needs the continued support of Congress in 
confronting these critical issues and the many others discussed below. 
My promise to Congress is that we will do our part by continuing to be 
good stewards of our taxpayers' dollars.

Fiscal Year 2012 Budgetary Submission
    The Marine Corps maintains a longstanding tradition in DOD as being 
``Penny Pinchers.'' A prime example of our many noteworthy cost-saving 
measures is our practice of units deploying to Afghanistan utilizing 
equipment sets maintained and repaired in country--a measure saving 
significant funds annually on costs associated with the cycle of 
deployment and redeployment. Our institutionalized culture of 
frugality, streamlined business practices, lean structure, and multi-
mission capability, position us as the ``best value'' for the defense 
dollar. This fiscal year we are seeking over $40 billion \4\ to fund 
ongoing operations, provide quality resources for our marines, sailors, 
and their families, conduct reset of equipment stressed from nearly 10 
years at war, and prepare our forces for future missions. For 
approximately 8.5 percent \5\ of the annual Defense budget, the Marine 
Corps provides the Nation approximately 31 percent of its ground 
operating forces (Combat, Combat Support and Combat Service Support), 
12 percent of its fixed wing tactical aircraft, and 19 percent of its 
attack helicopters.
---------------------------------------------------------------------------
    \4\ This sum includes both ``Blue in Support of Green'' funding, 
Overseas Contingency Operation funding, and other Navy funding for USMC 
needs (e.g. chaplains, medical personnel, amphibious ships, et cetera.)
    \5\ Based on provisions of the National Defense Authorization and 
Appropriation Acts for Fiscal Year 2010.
---------------------------------------------------------------------------
    During these times of constrained resources, the Marine Corps 
remains committed to streamlining operations, identifying efficiencies, 
and reinvesting savings to conserve scarce public funds. At the 
direction of the Secretary of Defense in June 2010, the Services 
conducted an efficiencies review and our fiscal year 2012 budget is the 
result of a thorough study of all of our business activities. Already 
one of the most economical of the Military Services, we achieved our 
DOD efficiency goal. We captured overhead efficiency savings by 
focusing on three main efforts:

        <bullet> Buying smarter through acquiring platforms more 
        intelligently
        <bullet> Streamlining our operations
        <bullet> Being more efficient in the way we use, produce, and 
        acquire energy

    This effort has had a marked impact on our overall budget, allowing 
us to invest more in our core warfighting missions and enhancing our 
acquisition plans. The efficiency initiative drove adjustments to our 
programs and ensured restoration of funding in areas where needed most. 
Additionally, we used funds realized from efficiencies to support 
programs originally not funded. We reinvested savings into critical 
warfighting programs to enhance readiness. We anticipate unit equipment 
readiness to increase by fiscal year 2014 through the purchase of 
additional equipment beginning in fiscal year 2012. This readiness 
increase will allow the Marine Corps to equip, train, and prepare units 
earlier in the pre-deployment cycle. Other expansions that we were able 
to address include enhancing funding for facilities with direct 
operational impact, energy and water investments at bases and 
installations, command and control and logistics programs, and 
equipment modernization.
    In addition to our frugality and aggressive pursuit of finding 
efficiencies to enhance our warfighting capacity inherent in our budget 
request, your Marine Corps remains the first and only military Service 
whose financial statements have been deemed audit ready. We are 
continually striving to be good stewards of the public trust and know 
the ongoing financial audit will serve to both strengthen our financial 
management practices and give us actionable business intelligence to 
support our decisionmaking process in supporting our operational forces 
at home, abroad, and in harm's way.

PRIORITY #1: CONTINUE TO PROVIDE THE BEST TRAINED AND EQUIPPED UNITS TO 
                              AFGHANISTAN

Operation Enduring Freedom
    We have made great progress in Afghanistan; this effort remains our 
number one priority until we attain our national objectives. At present 
over 20,000 marines are deployed in Afghanistan. This mission 
ultimately involves almost 60,000 marines, or just under one-third of 
our Active-Duty Force, factoring in deployment, redeployment, training 
cycles and other direct support. We will continue providing forces in 
Afghanistan capable of full-spectrum combat and counterinsurgency 
operations, while balancing our capabilities to perform what the Nation 
will likely ask of us in the future. We will ensure that marines, 
sailors, and the units in which they serve, receive the best possible 
training and equipment to succeed in the many types of missions we are 
conducting in this complex, dynamic environment.
    Our successes within Helmand Province are paving the way for 
economic development and governance. Marine commanders on the ground 
and Afghan officials indicate that freedom of movement for the local 
populace has improved. Bazaars and markets are flourishing; critical 
infrastructure projects are underway. Today, 10 of 13 districts in 
Helmand Province are under the control of the Afghan central 
government. Daily, 135,000 children attend school, which is more than a 
60 percent increase from 2008 levels. Formerly dangerous places like 
Marjah, Now Zad, and Garmsir, untrafficable due to improvised explosive 
devices just 1 year ago, now have significant activity occurring in 
commercial centers. Yet, other challenges remain as we now seek to 
capitalize on our 2010 successes. We are currently expanding battle-
space northward into other hostile locations such as the district of 
Sangin, where our forces are going ``head-to-head'' with Taliban 
resistance.
    As America's Expeditionary Force in Readiness, we are ready to 
execute any mission assigned in support of crisis and contingency 
response. In addition to our Afghanistan commitment, we continue to 
source forward-based and deployed forces to meet Geographic Combatant 
Commander requirements. In light of our operational demands, and 
through the support of Congress in authorizing our end strength of 
202,100 Active-Duty Forces, our combat units are beginning to realize 
an approximate 1:2 dwell time.\6\ Other units vary at more favorable 
dwell-time levels depending on their mission. We anticipate the 1:2 
dwell ratio for combat units to remain relatively stable provided 
current deployed force levels are not increased; however, increased 
operational demands in Afghanistan or elsewhere may result in dwell 
times inconsistent with fostering a resilient Total Force.
---------------------------------------------------------------------------
    \6\ Infantry battalions will continue to remain just below 1:2 
dwell time due to relief in place/transfer of authority requirements.
---------------------------------------------------------------------------
    Some marines in select military occupational specialties continue 
to fall into what is known as a high-demand, low-density status. This 
is a key indicator that the combat demand for Marines with these skills 
does not match, or exceeds, the current manpower requirement and/or 
inventory. In addition, there are currently 14 of 211 occupational 
specialties where the on-hand number of marines is less than 90 percent 
of what is required.\7\ Our recently completed force structure review 
addressed all these concerns. We are working actively to recruit, 
promote, and retain the right number of Marines in the right 
occupational specialties thus promoting resiliency of our Total Force.
---------------------------------------------------------------------------
    \7\ Our most stressed occupational specialties based on percentage 
of marines beyond a 1:2 dwell are: (1) Geographic Intelligence 
Specialist, (2) Imaging Analyst/Specialists, (3) Signals Collection 
Operator/Analyst, (4) Unmanned Aerial Systems Operator/Mechanic, and 
(5) European, Middle East, and Asia-Pacific Cryptologic Linguists.
---------------------------------------------------------------------------
Training for Full Spectrum Counterinsurgency Operations
    Our comprehensive training program conducted at our premiere desert 
training base in Twentynine Palms, CA, has been credited by leaders 
throughout the Corps with providing a dynamic environment that 
replicates the many tasks, challenges, and requirements required of 
units in a counterinsurgency setting. Our newly-instituted Infantry 
Immersion Trainers are realistic, reconfigurable, and provide 
comprehensive training environments that develop small unit tactics and 
individual skills for deploying infantry squads. The Infantry Immersion 
Trainer supports essential training such as control of supporting arms, 
language, improvised explosive device recognition and defeat measures, 
human terrain understanding and close quarters battle. Introducing 
battlefield effects simulators, culturally appropriate role players, 
and interactive avatars at the Infantry Immersive Trainers teaches 
marines to make legally, morally, ethically, and tactically sound 
decisions under situations of great stress. It also contributes to 
reducing the effects of combat stress. I view this training program to 
be of vital importance to our Operating Forces.

Equipping for the Afghan Effort
    Marine units are operating in Afghanistan with high rates of ground 
equipment readiness. Through the generosity of Congress, we have 
received funds for the rapid fielding of urgent need items in support 
of our Afghanistan effort. The Mine-Resistant Ambush-Protected (MRAP) 
vehicle program continues to meet urgent requirements while we actively 
pursue vehicle upgrades to outpace emerging threats, enhance mobility, 
and improve vehicle performance. We can accomplish this goal through 
engineering changes and capability insertions in current production, 
planned orders, and fielded vehicles. We have a requirement for 3,362 
vehicles in the family of MRAP vehicles, including 1,454 MRAP All-
Terrain Vehicles. To date, we have fielded 1,214 MRAP All-Terrain 
Vehicles to our units in Afghanistan and have met the theater 
requirement.
    To date, we have fielded 34 Assault Breacher Vehicles, 5 of which 
are in Afghanistan, to enhance the mobility of the Marine Air Ground 
Task Force (MAGTF). We plan to field a total of 52 Assault Breacher 
Vehicles. Production of the remaining 18 vehicles remains on schedule 
and is fully funded with final delivery scheduled for the second 
quarter of fiscal year 2012.
    In our continuing efforts to find improvised explosive devices by 
all possible means, we are tripling our successful Improvised Explosive 
Device Dog Detection program and are also undertaking a research and 
development effort to train dogs with improved detection capabilities 
with fielding expected this fall. This year, we will have fielded 647 
specially trained Labrador retrievers who work off-leash, supporting 
our infantry units in ground combat operations. We also have fielded a 
wide array of intelligence collection sensors and analytic and 
processing systems to include the Multimedia Archival Analysis System, 
the Ground Based Observational Surveillance System, the Tactical Remote 
Sensor System, the Communication Emitter Sensing and Attacking System, 
and improvements to the Tactical Exploitation Group, to name a few.
    Lastly, in December 2010, we deployed a reinforced company of 17 
M1A1 Main Battle Tanks to join our efforts in Regional Command 
SouthWest to provide increased force protection and firepower. Today, 
these tanks are fully integrated with our forces operating in our most 
highly-contested regions, and are rapidly proving their utility in this 
environment by enabling our marines to increase operational tempo. They 
also demonstrate the commitment of Coalition Forces to the security of 
Southern Afghanistan.

     PRIORITY #2: REBALANCE THE CORPS, POSTURE FOR THE FUTURE, AND 
    AGGRESSIVELY EXPERIMENT WITH AND IMPLEMENT NEW CAPABILITIES AND 
                             ORGANIZATIONS

Posture for the Future and Force Structure Review
    The Marine Corps has deployed MAGTFs in support of irregular 
warfare missions such as our counterinsurgency effort in Afghanistan, 
humanitarian assistance and disaster relief efforts in Pakistan, Haiti, 
and the Philippines, and engagement missions such as our theater 
security cooperation exercises in support of every Geographic Combatant 
Commander.
    Despite these and many other operational successes over the past 
decade, new challenges await us requiring the same spirit of innovation 
and institutional flexibility that have been the bedrock of our Corps 
for 235 years. The 2010 Quadrennial Defense Review highlights an 
expanding need over the next two decades for military forces skilled at 
countering irregular threats,\8\ and the 2010 National Security 
Strategy signals a need for increased engagement activities. Both of 
these thrusts necessitate marines who are not only fighters, but also 
trainers, mentors, and advisors. The 2011 National Military Strategy 
advances the idea that ``strengthening international and regional 
security requires that our forces be globally available, yet regionally 
focused.'' \9\ Likewise, Geographic Combatant Commanders have continued 
to register their growing need for forward-postured amphibious forces 
capable of conducting security cooperation, regional deterrence, and 
crisis response.\10\
---------------------------------------------------------------------------
    \8\ ``The wars we are fighting today and assessments of the future 
security environment together demand that the United States retain and 
enhance a whole-of-government capability to succeed in large-scale 
counterinsurgency, stability, and counterterrorism operations in 
environments ranging from densely populated urban areas and mega-
cities, to remote mountains, deserts, jungles, and littoral regions.'' 
2010 Quadrennial Defense Review Report, Pg. 20.
    \9\ 2011 National Military Strategy of the United States, pg. 10.
    \10\ In the past 20 years, U.S. amphibious forces have responded to 
crises and contingencies 114 times--a response rate double that during 
the Cold War.
---------------------------------------------------------------------------
    This past fall, we conducted a detailed force structure review to 
develop the optimum mix of capabilities for our role as America's 
Expeditionary Force in Readiness in the post-Afghanistan security 
environment. The force structure review addressed 21st century 
challenges confronting our Nation and its Marine Corps, aiming to build 
on our historic role as the Nation's crisis response force. The review 
sought to provide the ``best value'' in terms of capability, cost, and 
readiness relative to the operational requirements of our forward-
engaged Geographic Combatant Commanders. The results of that effort 
provide for a strategically mobile, ``middleweight'' force optimized 
for forward-presence and rapid crisis response. We will be light enough 
to leverage the flexibility and capacity of amphibious ships, yet heavy 
enough to accomplish the mission when we get there. Sea-based forces, 
in particular, will be invaluable for discreet engagement activities, 
rapid crisis response, and sustainable power projection.
    Our review also aimed for a force structure that provides 
capability and capacity across the range of military operations, while 
simultaneously providing for resiliency in our Total Force. With likely 
reductions in forward basing and strategic transportation, the 
importance of regionally-focused headquarters and forces, both forward-
postured and immediately deployable with a minimum of strategic lift, 
is paramount. We have thus built a Joint Task Force-capable 
headquarters at several Geographic Combatant Command locations. As we 
aim to implement signature outcomes of the force structure review, 
marines on a day-to-day basis will be forward-deployed and engaged, 
working closely with our joint and allied partners. When crises or 
contingencies arise, these same marines will respond--locally, 
regionally, or globally if necessary--to accomplish whatever mission 
the Nation asks of us.
    To best meet Geographic Combatant Commander needs and ensure 
optimal configuration as America's Expeditionary Force in Readiness, we 
require Congressional support to reset our equipment, develop new 
organizational structures, and begin implementing initiatives from our 
force structure review. These measures ultimately will improve our 
ability to function within the Joint Force, execute distributed 
operations, command and control in complex environments, and conduct 
persistent engagement missions. As we are entrusted with the resources 
and funding to posture ourselves for the future, we will continue to 
conduct responsible examination required of a disciplined force to 
ensure that we implement every refinement--from the smallest to the 
most sweeping--in a manner that provides the Nation with a lean force, 
capable of rapidly projecting the Nation's power and strategic 
influence.

                               EQUIPPING

    Reset of the Total Force. Resetting the Marine Corps for the future 
after nearly a decade at war is my number one equipping priority. This 
past year, we completed our mission in Iraq, effecting the retrograde 
of more than 25,000 marines,\11\ 382,000 items of equipment, 10,800 
short tons of aviation support equipment, and nearly 11,000 containers 
from Al Anbar province via Jordan and Kuwait to the U.S. and elsewhere. 
This drawdown of equipment over the course of 1 year was a significant 
logistical and operational achievement. We also accomplished the rapid 
shift of critical equipment from Iraq to Afghanistan in support of the 
deployment of the 2d Marine Expeditionary Brigade. This shift of 
materiel within a theater of operation became one of the largest 
redeployments in U.S. history, both in terms of equipment moved and 
distances involved.
---------------------------------------------------------------------------
    \11\ At present, approximately 100 marines remain in Iraq serving 
in individual augment, transition team and other miscellaneous billets.
---------------------------------------------------------------------------
    The Marine Corps is currently sourcing highly-trained and ready 
forces to meet global combatant commander requirements.

        <bullet> Approximately 98 percent of deployed units report the 
        highest levels of readiness for their assigned mission.

    However, high deployed-unit readiness has come at the expense of 
home-station, nondeployed units, which have sourced organic equipment 
and personnel to meet the needs of our deployed forces.

        <bullet> Approximately 68 percent of nondeployed units report 
        degraded levels of readiness. The largest contributing factor 
        is equipment; approximately 37 percent of nondeployed forces 
        report degraded levels of equipment supply. This lack of 
        equipment impacts the ability of nondeployed forces to respond 
        rapidly to other potential contingencies and represents lost 
        core training opportunities early in the deployment cycle in 
        preparation for Overseas Contingency Operations.

    The equipment redeployed from Iraq to Afghanistan in support of the 
2009 surge included most of our deployed medium tactical fleet, the 
majority of our fleet of MRAP vehicles, light armored reconnaissance 
vehicles, other hard-to-move equipment, and theater-specific items. 
While shifting this equipment directly to Afghanistan enabled the 
Marine Corps to meet critical operational timelines, it resulted in the 
deferment of previously-planned post-Operation Iraqi Freedom reset 
actions. These same assets comprise a significant portion of the Marine 
Corps' total reset liability and depot maintenance costs. Thus, a 
consequence of delaying reset actions on this equipment is the 
acceptance of considerable risk in the long-term readiness and future 
availability of our ground equipment. In addition, increased usage 
rates of our ground equipment and harsh operating environments over 
these many years at war have resulted in our ground equipment far 
exceeding planned peacetime usage rates by a factor of six.
    It is vital that we reset our equipment from nearly 10 years at war 
to maintain the necessary levels of readiness to posture ourselves for 
the future.

        <bullet> We estimate the cost of reset for the Marine Corps to 
        be $10.6 billion. $3.1 billion has been requested in fiscal 
        year 2011 to reduce this liability, leaving a $7.5 billion 
        deficit. $5 billion of the $7.5 billion reset liability will be 
        incurred upon termination of the conflict in Afghanistan. 
        (Note: $2.5 billion has been requested for reset in fiscal year 
        2012. These estimates assume no reset generation beyond fiscal 
        year 2012 and thus do not include any reset requirements for 
        fiscal year 2013 and fiscal year 2014.)

    This funding will support the depot-level maintenance of our 
Operation Enduring Freedom equipment, procurement of combat vehicles 
and major weapons systems, engineering equipment, ammunition 
expenditures, and combat losses. The reset estimate is based on current 
circumstances and will change as operational requirements are re-
evaluated. Moreover, as long as the war continues, our costs for reset 
will grow accordingly.

Reconstitution of Equipment
    Our experiences in combat operations over the past decade have 
shown us that our legacy 20th century tables of equipment are 
inadequate with regard to the demands of the modern battlefield. As we 
move towards finalizing our force structure review by conducting a 
thorough Doctrine, Organization, Training, Materiel, Leadership and 
Education, Personnel, and Facilities assessment, we will finalize 
determination on the costs associated with modernization of equipment 
sets necessary to support our future operations.

        <bullet> However, at this time, our initial estimate of 
        reconstituting our tables of equipment is $5 billion, which is 
        an amount entirely separate from our reset costs. We have begun 
        to address our reconstitution shortfall by requesting $253 
        million in fiscal year 2012 for equipment procurement.

    As our force structure review is implemented, we will continue with 
deliberate assessments of the modernization requirements for equipment 
that optimizes our post-Afghanistan posture while simultaneously 
reinforcing our frugal and responsible roots. Our Service 
Reconstitution Equipment Strategy will guide the identification of 
emerging requirements for refining the capabilities of our status as a 
middleweight force, our support to the Geographic Combatant Commanders, 
our service level prioritization, and resource allocation.

Marine Aviation
    We are transitioning our entire inventory of fixed and rotary wing 
aircraft to support our future force and require ongoing support from 
Congress for this comprehensive aviation modernization effort. The 
continued development and fielding of the short take-off and vertical 
landing (STOVL) F-35B Joint Strike Fighter remains the centerpiece of 
this effort. The capability inherent in a STOVL jet facilitates our 
maneuver warfare doctrine and fills our need for close air support in 
the many austere conditions and locations where we will likely operate 
in the future. Around the world, there are 10 times as many 3,000-foot 
runways capable of handling a STOVL jet as there are 8,000-foot runways 
required of conventional fighter aircraft. Additionally, we maintain 
the organic ability to build an expeditionary 3,000-foot runway in a 
matter of days in support of aviation operations. The capabilities of 
the STOVL F-35B enable the Marine Corps to replace three legacy 
aircraft types--F/A-18, EA-6B, and AV-8B--which once fielded will save 
DOD approximately $1 billion per year in operations and maintenance 
costs. The F-35B program has made significant progress to date 
including 22 successful vertical landings so far this year which is 
more than double that achieved all last year. I am confident that we 
will field this aircraft in accordance with responsible timelines. This 
matter has my unwavering attention, and I am personally overseeing this 
program. With a fully-fielded fleet of F-35Bs, the Nation will maintain 
22 capital ships--11 carrier and 11 amphibious assault--with fifth 
generation strike assets aboard--a significant deterrent and response 
capability for our Nation.
    Our legacy aircraft supporting operational missions are consuming 
service life at a rate up to three times faster than scheduled. 
Averaged across our complete fleet, we are consuming aircraft service 
life at a rate 1.85 times faster than planned. This reality results in 
compressed timelines between re-work events and in earlier retirement 
of aircraft than originally programmed. The majority of our legacy 
platforms are nearing the end of their service lives, and most 
production lines are closed. New aircraft with low average ages and 
robust service life projections are the future of our aviation force 
and its support of Marine Corps and joint operations. As we transition 
to these new capabilities, we are mindful of the need to ensure a 
fully-integrated and networked force to provide Marine aviation to the 
MAGTF and the Joint Force.
    We are exploring the viability of transformational platforms such 
as the Cargo Unmanned Aircraft System. The Cargo UAS will facilitate 
the delivery of logistics to remote locations when weather or threat 
systems preclude manned aviation sorties or overland resupply convoys.
    Our new aircraft will provide increased range, speed, standoff, 
time on station, lift capability, and will be critical to tomorrow's 
MAGTF. By 2020, we will transition more than 50 percent of our aviation 
squadrons to new aircraft and complete fielding of the tilt-rotor MV-22 
Osprey assault support aircraft and the upgraded UH-1Y Huey utility 
helicopter. We will field new close air support platforms such as the 
AH-1Z attack helicopter and the STOVL F-35B. We also will have new 
platforms for intelligence, surveillance and reconnaissance and an 
entirely new family of Unmanned Aircraft Systems. Lastly, we will 
introduce greater lifting power to the MAGTF with a new model of the 
heavy-lift CH-53 cargo helicopter.

Ground Combat and Tactical Vehicle Strategy
    The priority for our Ground Combat Element is our ship-to-shore 
tactical mobility. The seamless transition of our Operating Forces from 
the sea to conduct sustained operations ashore, in particular to 
support three balanced Marine Expeditionary Brigades (i.e. two sea-
based Joint Forcible Entry Marine Expeditionary Brigades reinforced by 
a third Maritime Prepositioning Force-based Marine Expeditionary 
Brigade) as well as for conducting irregular warfare missions, 
necessitates an appropriate mix of ground combat vehicles. We are 
focusing our efforts on developing and fielding a family of vehicles 
with a balance of performance, protection, payload, transportability, 
fuel efficiency, and affordability that supports the rapid 
concentration and dispersion of combat power, supports strategic 
deployment concepts and meets our worldwide operational commitments.
    Our Ground Combat and Tactical Vehicle Strategy is currently in its 
third phase of development. Its overall goal is to field a ground 
combat vehicle portfolio structured to support the ground combat 
element. Vehicles in this portfolio include the Joint Light Tactical 
Vehicle, the Marine Personnel Carrier, and a new amphibious combat 
vehicle.
    In the complex future security environment, the execution of 
amphibious operations requires the use of the sea as maneuver space. An 
amphibious combat vehicle is essential to our ability to conduct 
surface littoral maneuver and seamlessly project ready-to-fight Marine 
units from sea to land in permissive, uncertain, and hostile 
environments. As the Secretary of Defense affirmed earlier this year, 
the cancellation of the Expeditionary Fighting Vehicle (EFV) is by no 
means a rejection of the Marine Corps amphibious assault mission.
    The standing, validated requirement for, and development of, an 
amphibious combat vehicle will ensure we continue to develop the right 
platform--at the right price--to support rapid ship-to-shore movement. 
To that end, we are now pursuing an integrated new vehicle program with 
three components, crafted from inception for affordability and 
leveraging the investment made in the EFV. We intend to mitigate risks 
associated with a new vehicle program and to maximize value by use of 
an integrated acquisition portfolio approach. This approach will have 
three synchronized efforts:

        <bullet> Acceleration of the procurement of Marine Personnel 
        Carriers
        <bullet> Investment in a service life extension program and 
        upgrades for a portion of the existing amphibious assault 
        vehicles
        <bullet> Development of a new amphibious combat vehicle

    We intend to manage these complementary capabilities, requirements 
and acquisitions from a portfolio perspective.

                              NAVY SUPPORT

    The Navy Marine Corps Team. As part of the Joint Force, the Marine 
Corps and the Navy partner to leverage the significant advantages 
provided by amphibious forces--a point reinforced by joint 
doctrine.\12\ The Navy and Marine Corps team will be postured and 
engaged forward to be most operationally relevant to the needs of our 
Nation. Together, we provide the capability for massing potent forces 
close to a foreign shore while maintain a diplomatically sensitive 
profile. When needed, we are able to project this power ashore across 
the range of military operations at a time of our Nation's choosing, 
collectively demonstrating the essence of naval deterrence.
---------------------------------------------------------------------------
    \12\ ``Timely response to crisis situations is critical to U.S. 
deterrent and warfighting capabilities. The timeliness of U.S. response 
is a function of U.S. forward deployed forces and prepositioned forces 
with adequate organic movement capability . . . .'' Joint Publication 
3-35, Joint Deployment and Redeployment Operations, 7 May 2007, pg I-8.
---------------------------------------------------------------------------
Amphibious Shipping
    The Marine Corps' requirement to deploy globally, rapidly respond 
regionally, and train locally necessitates a combination of tactical 
airlift, high-speed vessels, amphibious ships, maritime preposition 
shipping, organic tactical aviation, and strategic airlift. The 
inherent flexibility and utility of amphibious ships is not widely 
understood, as evidenced by the frequent--and erroneous--assumption 
that ``forcible entry capabilities'' alone define the requirement for 
amphibious ships. The same capabilities that allow an amphibious task 
force to deliver and support a landing force on a hostile shore enables 
it to support forward engagement and crisis response. In fact the most 
frequent employment of amphibious forces is for steady state engagement 
and crisis response. The Geographic Combatant Commanders have increased 
demand for forward-postured amphibious forces capable of conducting 
security cooperation, regional deterrence, and crisis response 
reflecting the operational value of amphibious forces for missions 
across the range of military operations.\13\ In an era of declining 
access and strategic uncertainty, I anticipate that this upward demand 
trend will continue.
---------------------------------------------------------------------------
    \13\ Since September 11, U.S. amphibious forces have responded to 
crises and contingencies at least 50 times, a response rate more than 
double that of the Cold War.
---------------------------------------------------------------------------
    Our principal contribution to U.S. Global Defense Posture is our 
``rotationally responsive'' forces aboard amphibious ships. These 
forces combine the advantages of an immediate, yet temporary, presence, 
graduated visibility, and tailored, scalable force packages structured 
around the MAGTF. Rotational Amphibious Ready Groups/Marine 
Expeditionary Units forward deployed in three Geographic Combatant 
Command areas of responsibility, not only provide the capability for 
crisis response, but also present a means for day-to-day engagement 
with partner nations. Rotational forces also offer additional 
flexibility for decisionmakers in the event that forces are required to 
rapidly re-deploy across divergent regions and conflicts.
    In January 2009, the Navy and Marine Corps agreed that the force 
structure requirement to support a 2.0 Marine Expeditionary Brigade 
lift is 38 total amphibious assault ships. In light of the fiscal 
constraints, the Department of the Navy agreed to sustain a minimum of 
33 total amphibious ships in the assault echelon. This number gives a 
capability needed for steady state operations and represents the 
minimum number of ships needed to provide the Nation with a sea based 
power projection capability for full spectrum amphibious operations--
including the amphibious assault echelon of two Marine Expeditionary 
Brigades.
    The Marine Corps is committed to the spiral development of the 
America Class LHA (R), which is 27 percent complete. We expect the Navy 
to take delivery of LHA-6 in fiscal year 2014 with availability to 
deploy beginning in fiscal year 2017. In terms of LHA-7, we anticipate 
the contract award in late fiscal year 2011 with fabrication commencing 
the following year. These two ships are maximized for aviation, and I 
believe it is essential that a well-deck be reintroduced in LHA-8 as 
currently planned. The ongoing procurement and commissioning of the 
final two of our planned 11 San Antonio-class LPD-17 ``Common Hull 
Forms'' is critical to providing the lift capacities and operational 
capabilities to support the full range of military operations up to and 
including forcible entry.

Maritime Prepositioning Assets
    The Maritime Prepositioning Force (MPF) program exists to enable 
the rapid deployment and engagement of a Marine Air Ground Task Force 
anywhere in the world in support of our National Military Strategy. The 
current MPF, which has been employed 55 times since 1985, is composed 
of a fleet of 16 ships divided into 3 Maritime Prepositioning Ships 
Squadrons located in the Mediterranean Sea, Indian Ocean (Diego 
Garcia), and Pacific Ocean (Guam and Saipan). With the restructure of 
the Maritime Prepositioning Force-Future, the Marine Corps and Navy 
have focused on an interim solution to enhance current MPF with three 
new ships to enable future sea-basing concepts. The addition of three 
Mobile Landing Platforms (MLP) and three T-AKE auxiliary dry cargo 
ships to the Maritime Prepositioning Ship Squadrons, coupled with 
existing Large, Medium-Speed, Roll-On, Roll-Off (LMSR) cargo ships, 
will enable the MPS squadrons to conduct at-sea, sea-state three, 
selective offload of vehicles, personnel, and equipment without 
complete reliance on fixed ports ashore. The introduction of MLPs, T-
AKEs, and LMSRs provide the Navy and Marine Corps team a substantial 
step in enhancing our current sea-basing capabilities.
    The Department of the Navy is currently funding the full MPF 
program of 16 ships through fiscal year 2012; however, the DoN POM-13 
places one Maritime Prepositioning Squadron (6 ships) in a Reduced 
Operational Status beginning in fiscal year 2013. We will continue to 
optimize the MPF program to remain responsive and relevant to 
Geographic Combatant Commander requirements.

Naval Surface Fire Support
    The Marine Corps has an enduring requirement for fire support from 
naval vessels in the range of 41-63 nautical miles to support 
amphibious operations in the littorals. These fires are needed by 
tactical commanders to maneuver towards battlefield objectives once 
ashore, contributing to joint doctrine for assured access. They serve 
as a component of the balanced and complementary joint triad of fires. 
Yet, unlike tactical aviation and ground fire systems, naval surface 
fires are unique and vital for their volume, lethality, accuracy, and 
all-weather capability.
    Planned reductions in the procurement of certain naval ships along 
with cancellation of specific weapons programs over the past few years 
have led to a deficiency in systems available for naval surface fires. 
Completed in 2009, the Joint Expeditionary Fires Analysis of 
Alternatives identified the optimum U.S. Navy programs to support 
Marine Corps naval surface fire support requirements. This study 
established the baseline capabilities of the current naval surface fire 
support program of record (13nm projectile of the 5-inch gun and the 
Advance Gun System of the DDG-1000) to be insufficient in mitigating 
fire support gaps. The study determined that extended range 5-inch 
munitions would serve as a complementary alternative to the three DDG-
1000s. Dramatic improvements in 5-inch projectiles can extend the naval 
surface fire support maximum range, across the 106 guns in the surface 
fleet, from 13 to 52 nautical miles with precision, high angle attack 
for use in operations in urban terrain, and potential effectiveness 
against moving targets. We also support ongoing research and 
development of transformational technologies like the electromagnetic 
rail gun with its potential to revolutionize the reach, coverage, and 
responsiveness of ship-based naval gunfire to ranges in excess of 200 
nautical miles.

Assured Access
    We remain vigilant of burgeoning anti-access/area denial threats 
proliferating around the globe, particularly in the Pacific Rim. The 
family of guided rockets, artillery, mortars, missiles and subsurface 
systems like mines and quiet submarines, pose a challenge to the power 
projection capability of seaborne expeditionary forces and threatens 
DOD's ability to prevent and deter conflicts and prepare for a wide 
range of contingencies.
    Marine Air Ground Task Forces ashore and aboard amphibious shipping 
will support operations to ensure the freedom of action of U.S. and 
Allied forces by establishing expeditionary bases and airfields or 
defending advance bases. Marine Short Take-off and Vertical Landing 
aviation assets will be of particular value in overcoming adversary 
anti-access and area denial capabilities since they can operate from 
short or degraded airfields, can be rapidly dispersed, and can utilize 
both large carriers and amphibious ships for attack, maintenance, force 
protection, and dispersal purposes. The Joint Force Commander can 
leverage these unique capabilities to ensure the sea control necessary 
for the conduct of subsequent joint operations, whether they be power 
projection, forcible entry, or freedom of navigation.
    In this regard, we are partnered with the joint community to 
develop an overarching concept to attain operational access. This year, 
we will employ our wargaming capability in Expeditionary Warrior 2011 
to examine operations designed to overcome anti-access challenges. We 
are partners with the U.S. Navy and the U.S. Air Force in the 
development of the Air-Sea Battle Concept aimed at integrating 
capabilities to defeat these advanced weapon systems in maritime areas 
of strategic interest. We also continue to participate in the U.S. 
Army's Joint Forcible Entry Warfighting Experiment, examining 
capabilities to conduct airborne and amphibious forcible entry 
operations.

                PERSONNEL AND ORGANIZATONAL INITIATIVES

    People. Today's Marine Corps represents less than 1/10 of 1 percent 
of the U.S. population, and the individual Marine remains our most 
valuable asset. Our 202,100 Active Duty and 39,600 Selected Reserve end 
strength allow us to meet current operational commitments while 
promoting resiliency throughout our Total Force. In fiscal year 2010 
Marine Corps Recruiting Command accessed 1,703 officers (100.18 percent 
of the 1,700 officer goal). Our fiscal year 2011 accession mission is 
1,650 active duty officer accessions with the same goal projected in 
fiscal year 2012. In terms of enlisted accessions, we are exceeding our 
internal quality standards of 95 percent enlisted recruits entering the 
Marine Corps possessing a high school diploma and 63 percent qualifying 
in the DOD I-IIIA mental group categories (DOD quality standards are 90 
percent and 60 percent respectively). We will achieve our mission of 
31,500 enlisted Active component non-prior service recruits in fiscal 
year 2011. Enlistment Bonuses remain vital to meeting the continuing 
requirement for high demand skills. We are continuing to experience 
unprecedented retention in both first-term and career marines.
    We will continue to shape our Total Force to provide the ideal 
grade and military occupational specialty mix needed for sustainment. 
Our force structure review developed ways to increase unit readiness 
within our operating forces to ensure 99 percent manning of enlisted 
billets and 95 percent manning of officer billets. At the close of the 
Future Years Defense Program, we will work with the Secretary of 
Defense on a responsible drawdown of our end strength that is aligned 
with the future mission demands of a post-Operation Enduring Freedom 
security environment. I am determined to ``keep faith'' with our 
marines and their families by designing and executing a responsible 
drawdown from our current 202,100 end strength such that we avoid 
reduction-in-force actions and early retirement boards.
    The Marine Corps is committed to making concerted efforts to 
attract, mentor, and retain the most talented men and women who bring a 
diversity of background, culture and skill in service to our Nation. 
Our diversity effort is structured with the understanding that the 
objective of diversity is not merely to achieve representational 
parity, but to raise total capability through leveraging the strengths 
and talents of each and every marine. The success of our pioneering 
Female Engagement Team program in Afghanistan, which is an offshoot of 
a similar effort we employed in Iraq, is one way that the Marine Corps 
utilizes diversity within our ranks for operational benefit.
    We are currently developing a comprehensive, Service-wide strategy 
on diversity, an effort facilitated through our standing Diversity 
Review Board and a Diversity Executive Steering Committee chartered to 
establish the foundations for diversity success in the Total Force. The 
Marine Corps has established minority officer recruiting and mentoring 
as the highest priority in our recruiting efforts. Along with the other 
Services, we have provided timely input to the congressionally-
sanctioned Military Leadership Diversity Commission and look forward to 
release of the Commission's final report scheduled for March 2011.

Marine Air Ground Task Force Enhancements
    To further posture ourselves for the future, we are evaluating the 
internal workings of our MAGTFs to account for the distributed 
operations, decentralized command and control, dispersed forces and 
diffuse threats inherent on the modern battlefield. We are implementing 
a diverse suite of command and control systems within all elements of 
the MAGTF. We continue to work to build the capacity of new 
organizations like the Marine Corps Information Operations Center to 
achieve non-lethal effects in today's irregular and complex 
environments. We are ensuring the rapid analysis, fusion, and 
dissemination of intelligence down to the tactical level by continuing 
implementation of the Marine Corps Intelligence, Surveillance, and 
Reconnaissance Enterprise. We also aim to reorganize our intelligence 
collection and exploitation capabilities, increasing the ratio of 
resources to users. We will also capitalize on the capabilities of 
unmanned aircraft systems via an increase in capacity.
    We are developing regionally-focused Marine Expeditionary Brigade 
command elements that are joint task force capable, with habitually 
aligned subordinate elements, to improve Geographic Combatant Commander 
effectiveness and speed of response. We have recently stood up one such 
element in Bahrain in support of U.S. Central Command. To better 
standardize operations and training for units and staff in our ground 
combat element, we established the Marine Corps Tactics and Operations 
Group, which reached full operational capability in May 2010. Among 
other measures, this organization's mission is to support the 
refinement of our doctrine, including how our infantry companies will 
fight in the future. Building on the successes of the Marine Corps 
Tactics and Operations Group for the ground combat element, we are also 
developing and establishing a Marine Corps Logistics Operations Group 
capability for the Logistics Combat Element along with reorganizing 
Marine Logistics Groups to establish standing Combat Logistics 
Battalions habitually aligned to specific Marine Expeditionary Units 
and infantry regiments.
    Over the past decade, we have become more reliant on equipment sets 
resulting from the emergence of new threats, perhaps most notably the 
improvised explosive device. This trend has resulted in the acquisition 
of some resources that are incompatible with the ethos of an agile, 
expeditionary force. To that end, we have begun an effort known as 
``Lightening the MAGTF,'' a measure aimed at reducing the size, weight, 
and energy expenditure of our forces from the individual rifleman to 
wholesale components of the MAGTF.
    Sustained combat operations and worldwide theater security 
cooperation and training commitments over the last decade point towards 
an essential requirement for the Marine Corps Reserve to continue 
focusing at the operational, rather than strategic level of warfare. 
Since September 11, our Marine Corps Reserve has engaged continuously 
in combat operations as well as in regional security cooperation and 
crisis prevention activities in support of the Geographical Combatant 
Commanders. This operational tempo has built a momentum among our 
warfighters and a depth of experience throughout the ranks that is 
unprecedented in generations of Marine Corps reservists. In fact, 
today's Marine Corps Reserve is more highly trained, capable, and 
battle-tested than at any time since the Korean War.
    The transition in utilization of the Marine Corps Reserve from a 
strategic to operational Reserve, as affirmed by our force structure 
review, expands our ability to perform as America's Expeditionary Force 
in Readiness. Sharing the culture of deployment and expeditionary 
mindset that has dominated Marine Corps culture, ethos and thinking 
since our beginning more than 2 centuries ago, the Marine Corps Reserve 
is optimally organized, equipped, and trained to perform as an 
Operational Reserve.

Institutions for Irregular Warfare
    Irregular operations (e.g. Counterinsurgency, Stability Operations, 
Foreign Internal Defense, Unconventional Warfare and Counterterrorism) 
often occur in response to crisis and are executed in austere 
conditions--situations often entailing employment of marines. Our 
experiences countering irregular threats in ``Small Wars'' is a result 
of responding to complex crises involving a mix of security, economic, 
political, and social issues--usually under austere physical 
conditions. Our approach to irregular warfare is based on the 
understanding that people, ideas and organizations--not platforms and 
advanced technology--are the keys to success in operating in complex 
and irregular warfare environments. Naval forces conducting theater 
security operations and security force assistance to build partnership 
capacity also provide the Nation the potential for immediate crisis 
response capability and options for escalation or de-escalation. 
Building on our lessons learned in Iraq and Afghanistan, we are 
developing options to re-organize, consolidate, and strengthen our 
institutions that emphasize our irregular warfare and multi-mission 
capability such as the Center for Advanced Operational Culture and 
Learning, the Security Cooperation Training and Education Center, and 
the Center for Irregular Warfare. The objective is to gain unity of 
effort, increase effectiveness and efficiency, and reduce redundant 
capacity.
    We established the Marine Corps Training and Advisory Group (MCTAG) 
within the past 5 years to train, equip, and deploy Marines for 
Security Force Assistance missions in support of Geographic Combatant 
Commander theater security cooperation plans. The MCTAG provides 
conventional training and advisor support to Host Nation Security 
Forces. This organization also offers planning assistance to Marine 
regional component commands in developing and executing partner nation 
training programs. The MCTAG is scheduled to reach full operating 
capability in September 2011 and to date has directly trained more than 
180 marines and sailors and assisted in the training of more than 600 
marines and sailors, who themselves have conducted in excess of 150 
deployments to more than 50 countries worldwide. The MCTAG has also 
developed programs of instruction to train joint service advisors/
trainers deploying on theater security cooperation missions as well as 
programs of instruction to train light infantry battalions from the 
Republic of Georgia in executing combat operations in Afghanistan.
    Because the Marine Corps functions in an integrated fashion 
throughout all traditional domains--land, sea, air, and space--it is a 
logical step forward for us to be optimally organized, trained and 
equipped to operate synergistically on the modern battlefield, which 
now includes the cyber domain. As U.S. Cyber Command matures and 
sponsors initiatives to increase cyber operational capacity, we are 
taking deliberate steps to build additional Marine Corps cyber 
capability and capacity to meet joint and service-level demands.
    We see the continued development of organic cyber capabilities, 
capacities, and awareness as a critical element to retain speed, 
precision, and lethality across the entire spectrum of operations. We 
are working to incorporate scenarios into our exercises to increase 
opportunities for marines to leverage cyber capabilities while also 
training marines to operate where cyber-enabled warfighting capability 
may be degraded and/or contested. Additionally, we are integrating 
tailored cyber education into our officer and enlisted professional 
education programs. We are continuing to examine our options for 
recruiting, training and retaining our cyber workforce. This is 
especially challenging given the highly specialized skill sets and the 
competition for such in both the Federal and Private sectors.
    Formed in 2006, Marine Special Operations Command (MARSOC) is 
currently conducting an internal reorganization into three mirrored 
battalions. Upon completion of this reorganization in fiscal year 2014, 
MARSOC will have one regiment consisting of 3 battalions, 12 companies, 
and 48 Marine Special Operations Teams. Since December 2009, MARSOC has 
maintained an enduring battalion-level Special Operations Task Force 
headquarters and 2 companies in Afghanistan along with persistent 
Marine Special Operations Team engagements in other high priority 
regions.
    Since its inception, the Marine Corps has resourced MARSOC with 
significant investments in military construction for training 
facilities, barracks and headquarters. In the near term, MARSOC will 
have 2,678 personnel. Our force structure review recently evaluated 
ways to increase the number of combat support and combat service 
support marines (e.g. logisticians, intelligence personnel, et cetera) 
enabling MARSOC's operations. I intend to add 1,001 marines to MARSOC, 
which will increase its capacity by 44 percent. These marines, who are 
above and beyond the planned fiscal year 2014 personnel increase, will 
better enable it for effective special operations.
    The Marine Corps serves as the DOD Non-Lethal Weapons Executive 
Agent responsible for developing program recommendations and 
stimulating non-lethal weapons requirements. Non-lethal effects are 
part of the DOD portfolio of capabilities that enhance the Joint Force 
Commander's ability to act in a timely manner to detect, deter, 
prevent, defeat, or, if necessary, mitigate the effects of an attack. 
Non-lethal capabilities provide the Joint Force the ability to 
selectively target hostile threats, covered or concealed by civilian 
assets, while avoiding collateral damage. Geographic Combatant Commands 
are registering increased demand for non-lethal weapons options to 
include items such as arresting nets, dazzler lasers, acoustic hailing 
devices, electric stun guns, blunt impact munitions, and non-lethal 
warning munitions. The Joint Non-Lethal Weapons Program continues to 
support joint and combined non-lethal weapons research, development, 
training and exercises in support of all Geographic Combatant Commands.

Expeditionary Energy
    The Marine Corps is leading the development of expeditionary energy 
solutions for DOD and the Department of the Navy--reducing energy 
demand in our platforms and systems, increasing the use of renewable 
energy, and instilling an ethos of energy and water efficiency in every 
marine. Our priority is force protection--saving lives by reducing the 
number of marines at risk on the road hauling fuel and water. We also 
aim to help marines travel lighter and move faster through the 
reduction in size and amount of equipment and the dependence on bulk 
supplies.
    In February 2011, we issued a ``Bases to Battlefield'' 
Expeditionary Energy Strategy Implementation Planning Guidance, which 
sets goals, performance metrics, and a plan for implementation by 2025. 
This strategy supports congressional and Department of the Navy goals 
to increase energy security through the use of alternative fuels and 
energy efficiency. Since 2009 we have aggressively pursued renewable 
energy and energy efficient capabilities that will make Marine units 
more energy self-sufficient, and ultimately increase our combat 
effectiveness.
    Within a year, we stood up an Experimental Forward Operating Base, 
sourced commercial and government technologies, trained an infantry 
company with renewable energy technology, and deployed them to 
Afghanistan in the winter of 2010 where they operated two patrol bases 
entirely on renewable energy. As a result, our forces required less 
fuel and batteries, reducing risk to marines and saving money. This 
year, the Experimental Forward Operating Base will focus on the 
requirements of a major battlefield energy user--the Command Operations 
Center and the Command Element--and will evaluate a second round of 
energy technologies to support expeditionary operations.
    In fiscal year 2012 we are devoting more resources--in current 
programs and new areas--to build a foundation to achieve our goals for 
increased energy efficiency and renewable energy by 2025. As a starting 
point, we anticipate savings of petroleum over the Future Years Defense 
Program in our Overseas Contingency Operations of 100,000 to 150,000 
barrels. For example this year, we are procuring mobile electric power 
sources to achieve 17 percent fuel efficiency using U.S. Army-funded 
development and Marine Corps-funded procurement monies. We are also 
fielding Enhanced Efficiency Environmental Control Units to achieve 15-
30 percent power efficiency improvements.

Installation Energy
    We are also devoting more resources to our Energy Investment 
Program than ever before. These funds will be used to implement the 
results of recent and ongoing energy audits at our installations; 
install more efficient systems and reduce overall energy consumption. 
Additionally, new facilities will continue to incorporate the latest 
energy sustainability and efficiency features. This effort aboard our 
installations complements our Corps-wide initiative to develop an 
energy ethos and culture of conservation.

                                TRAINING

    Training MAGTFs. We are utilizing our Marine Corps Service Campaign 
Plan as a roadmap to strengthen and maintain our core competencies and 
to ensure we remain America's Expeditionary Force in Readiness well 
into the future. This effort also will also help synchronize our 
Service level security cooperation activities in support of national 
strategy and guide the type of training and exercises we must conduct, 
in particular at the Marine Expeditionary Brigade level.
    Our amphibious core competency figures prominently in our Service 
Campaign Plan, and as a result we have undertaken an array of exercise 
planning in this critical skill area. We will soon be conducting a 
MAGTF large scale exercise that will refine our capability to conduct 
amphibious power projection and sustained operations ashore in a joint 
and interagency environment. In late-2010 we conducted Exercise Bold 
Alligator 2011, the first large-scale amphibious training exercise with 
the Navy on the east coast in almost 10 years. This synthetic training 
event practiced planning for forcible entry operations against 
conventional and asymmetric threats and a large scale non-combatant 
evacuation operation. We will take lessons learned from this exercise 
and build upon them for the next iteration of this important exercise 
with the U.S. Navy scheduled in the coming year.
    We are reviewing the core functions of our organizations and, where 
appropriate, adding irregular warfare capabilities to reflect the full 
spectrum of possible employment options as a core task set for the 
Marine Expeditionary Brigade. We view integration with other government 
agencies and coordination with nongovernment organizations as essential 
to our success in irregular warfare and have significantly increased 
interagency participation in numerous exercises and training venues 
such as Expeditionary Warrior-09/10, Emerald Express, Joint Urban 
Warrior-09, and Joint Irregular Warrior-10. We aim to capitalize on our 
current theater security cooperation and partnership capacity building 
activities with our allies and partners in all operational environments 
providing our national leaders with strategic options to shape 
outcomes, prevent and deter conflicts, strengthen ``at risk'' states, 
and deny enemy safe-havens.

    PRIORITY #3: BETTER EDUCATE AND TRAIN OUR MARINES TO SUCCEED IN 
      DISTRIBUTED OPERATIONS AND INCREASINGLY COMPLEX ENVIRONMENTS

Professional Military Education and Small Unit Leader Development
    We are planning more investments in the education of our 
noncommissioned officers and junior officers, as they have assumed 
vastly greater responsibilities in both combat and garrison. This focus 
on education will better train them for decisionmaking during 
distributed operations against more diffused threats over broader areas 
of the battlefield. The primary initiative to address this priority is 
to increase markedly their opportunities to attend resident 
professional military education. We are currently evaluating ways to 
increase throughput at resident professional military education courses 
with options for both constrained and unconstrained manpower and 
resource increases. We are evaluating traditional paradigms relative to 
course lengths and instructional methodology, with the specific 
objectives of tripling throughput at the Expeditionary Warfare School 
(career level) and doubling resident Command and Staff College 
(intermediate level) throughput.
    These key leaders also impact unit cohesion and our overall 
effectiveness in combat. Introducing these leaders into a unit at the 
right time and stabilizing them in a life cycle continuum of a unit 
positively impacts a unit's effective training, performance and 
resiliency during pre-deployment training and post combat. These 
leaders are in the best position to influence our cultural ethos with 
its emphasis on intangible qualities such as esprit de corps, 
integrity, and ``service to country during time of war.'' We are 
currently reviewing manpower policies and models and will ensure these 
key leaders are present and able to lead a cohesive unit throughout its 
life-cycle continuum, including rigorous predeployment training and 
post-deployment actions. This effort will ready our units for any 
fight, whether irregular or combat.
    We also intend to infuse Values Based Training, rooted in our core 
values of Honor, Courage and Commitment, at all levels of professional 
development to foster resilience and to enable effective operations, 
especially in complex irregular environments. Our overall goal is to 
institutionalize efforts to develop more mature, educated, and capable 
non-commissioned officers and maneuver unit squad leaders. As these 
concepts mature, there will be costs in terms of military instruction 
and facilities for which we will require congressional support.

Regionalization and Specialization
    The increased call for engagement, as seen in our force structure 
review and in strategic guidance, requires marines with improved 
cultural and language skills and formal education. To develop better 
specialization for anticipated future missions and operating 
environments, we will expand our Foreign Area Officer and Regional 
Affairs Officer programs, as well as opportunities to send more 
officers through graduate level training, fellowships and research 
opportunities--ideas supported by findings and recommendations of the 
2010 Quadrennial Defense Review and the 2010 Quadrennial Defense Review 
Independent Panel Report.\14\ This effort will extend to our ``Whole of 
Government'' approach toward irregular warfare as we seek greater 
exchanges and fellowships with the elements of the Interagency.
---------------------------------------------------------------------------
    \14\ 2010 Quadrennial Defense Review Report, pg 54; 2010 QDR 
Independent Panel Report, pgs 75-77.
---------------------------------------------------------------------------
Marine Corps University
    We are continuing to implement recommendations of our 2006 Officer 
Professional Military Education Study (the Wilhelm Report) and are 
making significant strides in terms of resources and facilities 
enhancing the campus of the Marine Corps University (MCU). We have 
programmed approximately $125 million in Military Construction between 
fiscal year 2011 to fiscal year 2012 for new academic facilities for 
the Marine Corps War College, Command and Staff College, and the School 
of Advanced Warfighting. In addition, we will expand the Staff 
Noncommissioned Officer Academy at the main campus in Quantico. These 
funds represent only a down payment on a larger commitment to double 
the size of the University campus and to upgrade our enlisted academies 
worldwide. Completion of the MCU master plan will require the 
demolition and relocation of tenant units aboard the campus. Detailed 
documentation of costs associated is ongoing; however, we estimate over 
$400 million is needed to complete the master plan. Our ultimate goal 
is to develop the MCU into a premier institution with world-class 
faculty, facilities, students, and curricula; we will require the 
assistance of Congress in this goal.
 priority #4: keep faith with our marines, our sailors and our families

Keeping Faith
    We expect and demand extraordinary loyalty from our marines--a 
loyalty to Country, family, and Corps. Our Nation has been at war for a 
decade, placing unprecedented burdens on marines, sailors, families, 
wounded warriors, and the families of the fallen. They have all made 
tremendous sacrifices in the face of danger. We owe them all a 
reciprocal level of loyalty. Our approach to caring for their needs is 
based on the same unwavering faithfulness they have demonstrated to the 
Marine Corps. We will ensure their needs are met during times of 
deployment and in garrison by providing the services, facilities, and 
programs to develop the strength and skills to thrive on the challenges 
of operational tempo. When needed, we will restore them to health. We 
will also transition them back to civilian life, and in the cases of 
our fallen marines, we will support and protect their surviving spouses 
and dependents. We will do this by focusing on several areas this 
fiscal year.

Combat Stress, Resiliency, Medical, and Mental Health Care
    We continue to advocate for the highest quality medical care and 
facilities for our servicemembers, retirees, and their families. To 
ensure the Department can continue to provide the finest health care 
benefits in the country to our beneficiaries, we fully support the 
medical efficiencies and adjustments in TRICARE included in the 
President's budget proposal.
    The evolving security environment requires a physically and 
mentally resilient marine able to endure extended exposure to 
ambiguous, stressful, and ever-changing situations. Young leaders find 
themselves on the vanguard of a protracted war, adapting to a variety 
of situations and scenarios. To improve their resilience, we are 
working aggressively and creatively to build a training continuum that 
better prepares them for the inevitable stress of combat operations and 
to equip them with the necessary skills required to cope with the 
challenges of life as a marine.
    Instruction founded and focused on our core values helps provide 
some of this resilience, especially in irregular warfare and complex 
environments. A program combining the ``best practices'' of mental, 
emotional and physical fitness will best instill in our marines the 
resiliency needed to endure the stressors of combat and enhance their 
ability to perform effectively across the range of military operations. 
We are developing a comprehensive program to improve the resiliency of 
our marines both in garrison and in combat.
    We are partnered with the Navy to address the Nation-wide dearth of 
qualified mental health care providers, which challenges our ability to 
provide care at some of our bases and stations and, in some cases, to 
our reservists in remote locations. During calendar year 2010, we saw a 
nearly 30 percent decrease in the number of suicides within our Total 
Force.\15\ We are too early in our suicide studies to identify what 
specific initiative(s) have resulted in this dramatic turnaround. 
However, we have implemented a number of measures on multiple fronts. 
Some of these include the following:
---------------------------------------------------------------------------
    \15\ Calendar year 2010 suicides = 37 whereas calendar year 2009 
suicides = 52.

        <bullet> Evocative Peer-led Training Program: ``Never Leave a 
        Marine Behind'' suicide prevention program for noncommissioned 
        officers and junior marines. We are expanding this training to 
        include staff noncommissioned officers and commissioned 
        officers this year.
        <bullet> DSTRESS Line Pilot Program with TRICARE West: ``By 
        Marines--For Marines'' call center designed to assist with 
        problems at an early stage. The call center is staffed by 
        veteran marines, providing anonymous service to all current 
        marines, veteran marines, their families, and loved ones.
        <bullet> Combat and Operational Stress Control and Operational 
        Stress Control and Readiness Teams: Utilizing unique training 
        programs across the Total Force and ensuring the presence of 
        mental health professionals in front-line units as a primary 
        prevention tool to help Marines identify and mitigate stress.
        <bullet> Marine Resilience Study to Assess Risk and Resilience: 
        We are participating in a longitudinal research study that will 
        examine risk across three domains: biological, psychological 
        and social. The outcome of this study will inform our future 
        work in the area of building and maintain resiliency across the 
        Corps.

    We will continue advocating to the medical community for better 
diagnostic and increased treatment options for marines with severe 
injuries including post-traumatic stress and traumatic brain injury. In 
collaboration with the other Services, we developed a set of events-
based parameters, mandating that our leaders search out marines who 
have experienced a concussive event. This measure no longer relies on 
identification of impacted servicemembers solely on their willingness 
to seek help on their own initiative. These protocols are in place now 
in Afghanistan, and we are already seeing a culture change in the 
attitude of marines about being treated early for a traumatic brain 
injury.
    We have established an in-theater Restoration Center that brings 
comprehensive concussion diagnosis and management as close to the front 
lines as possible to ensure that appropriate care is available as 
quickly as possible. We are currently developing policy and 
applications to track traumatic brain injury from ``point of injury'' 
to ``return to full duty'' separately but in parallel with medical 
documentation. These measures will empower commanders with the 
information they need to monitor the health of a marine who has 
suffered a concussive event and intervene appropriately for the 
duration of a marine's career and long after the initial injury.''

Transition Assistance
    We believe transition assistance should be a process not an event. 
We have established a goal to make the Marine Corps Transition 
Assistance Management Program more value added for our departing 
marines. From 2009 to 2010, we conducted functionality assessments of 
the Transition Assistance Management Program and the Lifelong Learning 
Program and noted many deficiencies. In response, we established two 
Transition Assistance Operational Planning Teams in 2010 to assess 
existing programs. We have developed an ``end-to-end'' process 
improvement plan that will begin at the point of initial accession into 
the Marine Corps and continue through post separation. We are 
initiating actions and integrating existing capabilities that will most 
directly improve the quality of support provided to marines within 6 
months prior to separation and those who have been separated at least 6 
months.
    Marines have expressed a desire for assistance navigating 
Department of Veterans Affairs benefit processes such as in cases of 
enrollment for and access to education benefits. We will modify 
existing websites to improve access and enhance opportunity for 
separating marines to speak directly to Marine Corps support personnel 
who are trained to remove administrative benefit processing barriers. 
We will improve networking opportunities to help marines find 
meaningful employment and are adapting our current job fairs to support 
increased networking opportunities that will allow them to meet mentors 
and employers.
    Marines have asked for an opportunity to connect with employers and 
learn how to translate their intangible and tangible attributes. Our 
transition workshops will be overhauled to address these needs. Marines 
are also seeking help to simplify enrollment processes for the Post-9/
11 Montgomery GI bill and to gain access to academic institutions that 
will provide the quality and level of business education and skills 
private industry demands. We have initiated a Leader-Scholar Program, 
which includes academic institutions who value marines' service 
commitment and pledge special enrollment consideration. While the 
support varies from school to school, we now have 75 participating 
institutions with the goal of an additional 25 by the end of this year. 
As we gain momentum, we will continue to change the transition 
assistance program from its current event focus to that of a process 
that reintegrates marines into the civilian sector with the knowledge, 
skills, and abilities to leverage and communicate their Marine Corps 
time and experience.

Family Readiness Programs
    We increased baseline funding for family support programs beginning 
in fiscal year 2010 to ensure appropriate wartime footing. Programs 
benefitting from this measure include the Unit, Personal and Family 
Readiness Program; Marine Corps Family Team Building Program; 
Exceptional Family Member Program; School Liaison Program; and other 
miscellaneous Marine Corps Community Services Programs supporting 
remote and isolated commands, deployed marines, and independent duty 
marines and families. We are currently conducting a complete review to 
ensure effectiveness and efficiency of these programs. Our goal is to 
determine where expansion may be needed to further assist our families 
and where programs can be streamlined to reduce redundancy.

Wounded Warrior Care
    Marines continue to suffer numerous wounds, trauma, and injuries 
during operations in combat and during training missions. Many of these 
brave heroes with significant injuries are convalescing at military 
treatment facilities here in the National Capital Region and across our 
Nation at other major military treatment facilities. Our Wounded 
Warrior Regiment provides non-medical care management services to 
wounded, ill, and injured marines and their families. The Wounded 
Warrior Regiment continues to improve existing programs and add new 
support mechanisms. We have increased support to wounded, injured, and 
ill Reserve marines through additional Recovery Care Coordinators, 
enhanced family support at military treatment facilities, and one-on-
one orientation sessions. We also provide Integrated Disability 
Evaluation System Support through Regional Limited Duty Coordinators 
and Wounded Warrior Attorneys. We have also initiated a mandatory 
Warrior Athlete Reconditioning Program. Outreach is an important aspect 
of the Regiment's nonmedical care delivery and management. The Sergeant 
Merlin German Wounded Warrior Call Center extends support to marines 
and families through advocacy, resource identification and referral, 
information distribution, and care coordination, 24 hours a day, 7 days 
per week.
    The comprehensive care coordination provided by the Wounded Warrior 
Regiment throughout the phases of recovery has been highly successful. 
The results of internal assessments have substantiated that creation of 
the Wounded Warrior Regiment has had a positive impact on the support 
offered wounded, injured, and ill marines and families. The Marine 
Corps will continue to honor the commitment to our Wounded Warriors and 
to help them return to full duty or successfully reintegrate into their 
communities.

Behavioral Health Integration
    Behavioral health needs since September 11 have become increasingly 
complex with individuals often requiring assistance in a number of 
areas at one time. Marines with more than two deployments have been 
identified as a higher risk population. According to the Joint Mental 
Health Assessment Team, psychological health problems remain steady at 
11 percent of marines for the first and second deployments, but 
increase to 22 percent for those who have deployed three or more times. 
Sixty-five percent of marines are under 25 years old. Associated with 
this young force are high-risk factors that include communication and 
coping skills, isolation, combat-related wounds and substance abuse. 
Drawdown of end strength following Operation Enduring Freedom and 
return to garrison life will likely result in additional behavioral 
healthcare requirements as marines redeploy and adjust to the garrison 
environment. We continue to move forward with our integration of 
prevention and intervention programs initiated in 2009. We have 
established a Behavioral Health Branch at our headquarters for Manpower 
and Reserve Affairs. Headquarters Marine Corps Health Services also has 
created and filled a new billet for a Director of Psychological Health.

Military Construction
    The Marine Corps maintains its commitment to facilities and 
infrastructure supporting both operations and quality of life. Our 
military construction and family programs are important to success in 
achieving and sustaining our force structure and maintaining readiness. 
For many years, we funded only our most critical facility needs. As a 
result, our installations were challenged to properly house and operate 
the additional forces required to meet our planned end strength 
increase. Between fiscal year 2007 and fiscal year 2010, we received 
$6.9 billion in new construction and design. With this funding, we are 
providing new quality of life facilities, improved operational and 
training facilities, and more modern utility infrastructure systems.
    Our fiscal year 2012 military construction budget request is $1.4 
billion. With these requested funds, we will provide bachelor enlisted 
quarters, aviation support facilities, and improvements to quality of 
life, utilities and infrastructure, and professional military education 
facilities. Additional family housing efforts in fiscal year 2012 
include improvements to existing housing units and funding for the 
operations, maintenance, and leasing of 1,100 units worldwide and 
oversight of 22,000 privatized units.

                               CONCLUSION

    The U.S. Marine Corps remains the Nation's crisis response force-
of-choice. Our continued success in Afghanistan and throughout the 
globe is made possible by the loyal sacrifice of our incredible men and 
women in uniform, civilian marines, and our Marine Corps family. The 
personnel, equipment, and training that have given us success over the 
nearly past 10 years at war has come through the ongoing support of 
Congress and the American people. I promise that your Marine Corps 
understands the value of each dollar provided and will continue to 
provide maximum return for every dollar spent.
    In the coming year, we will begin a deliberate transformation into 
a force optimized for the likely threats of the next 2 decades. We 
understand and appreciate the contribution that each marine has made 
for this great Nation, and we recognize the heavy burden it has placed 
on their loved ones. We remain ``Always Faithful'' to our Marine Corps 
family, to Congress, to our chain of command, and to the American 
people.

    Chairman Levin. Thank you so much, General Amos.
    Let's start with a 7-minute first round.
    General, over the weekend there was reported, and it's been 
reaffirmed here today, that 400 marines from Camp Lejeune have 
arrived in Greece. Have they now joined the 1,300 marines of 
the 26th MEU on those two amphibious ships? I know they went to 
Greece, but are they on board those two ships now?
    General Amos. Yes, sir, they're on board and the ships are 
at sea.
    Chairman Levin. Thank you.
    The newspapers reported yesterday--and this goes to both 
you, Admiral Roughead and General Amos--that some of the 
capabilities of the two amphibious assault ships as follows: 
Harrier jump jets that can engage in air-to-ground and air-to-
air combat, as well as maintain surveillance on ground 
positions. They have attack helicopters on board; transport 
aircraft, including cargo helicopters and the V-22 Osprey, so 
you have a capability there for long-range transport; as well 
as landing craft capable of reaching the Libyan coast.
    Are there any other capabilities, major capabilities, that 
I've left out, and is what I have just described accurate? 
Admiral Roughead, why don't we start with you.
    Admiral Roughead. Yes, sir, those are accurate 
capabilities, and I would say that in addition to that on board 
the large amphibious ships there is a medical team with 
operating room capabilities. So there's significant capacity 
there, and also they're quite well loaded with humanitarian 
assistance items as well.
    Chairman Levin. Thank you.
    General?
    General Amos. Chairman, that's an accurate portrayal of the 
physical equipment and those capabilities therein. That force 
is capable of performing a variety of missions. They're 
trained. They can do everything from a raid to an amphibious 
assault, to a noncombatant evacuation, forcible entry, trap 
mission, those kinds of things. So there's a lot of capability 
that resides in those two vessels.
    Chairman Levin. Thank you.
    Admiral, is it also correct that, in addition to those two 
ships, we have in the Mediterranean ships that are currently 
available that have missile-launching capability against land 
targets?
    Admiral Roughead. Yes, sir, that's correct.
    Chairman Levin. General, let me switch to Afghanistan. Can 
you give us your assessment of what's called the Interim 
Security for Critical Infrastructure, which is a separate 
program I understand from the Afghan local police program? Can 
you tell us about that program, the Interim Security for 
Critical Infrastructure? Is that a name which resonates at all 
with you?
    General Amos. Sir, it does not. I'm going to have to take 
that for the record and get back to you, Mr. Chairman.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. It didn't resonate with me either, and we 
read about it and I was curious about it. But if you could get 
us that for the record that would be helpful.
    Secretary Mabus, can you tell us where we are in the 
process of moving marines from Okinawa to Guam, and how we are 
going to complete the program given the strong opposition to it 
in Okinawa?
    Mr. Mabus. Yes, sir. To echo what the Secretary of Defense 
said earlier, we are waiting for substantive movement on the 
Futenma replacement facility by the Japanese before taking any 
major substantive steps of our own. But in the interim we have 
signed the record of decision on the environmental impact 
statement. We held a lot of hearings. We had a lot of 
interaction with the people of Guam.
    My under secretary has been to Guam numerous times to meet 
with the Government of Guam and with the people of Guam, and he 
has identified four overarching goals for Guam.
    First, is a one Guam and one U.S. Government response to 
Guam. Second, is that whatever resources are put there should 
be renewable type energy projects, or a green Guam. Third, is 
that we will be sensitive to cultural matters, such as Pagat 
Cave and Pagat Village, the Guam cultural items that have been 
identified as crucial. Fourth, is that at the end of the day 
that there will be a net negative footprint, so that we will 
use less land for military purposes than we are using today.
    But again, before we take substantive moves to implement 
the road map that was agreed to several years ago we are 
awaiting Japanese Government moves on the Futenma replacement 
facility.
    The last thing I will say is that the Japanese Government 
has deposited the amounts of money that it had committed to 
into our Treasury up until this point.
    Chairman Levin. Now, the Japanese Government moves that you 
refer to include a signature on a document, is that correct?
    Mr. Mabus. Yes, sir, and also something substantive in 
terms of beginning the construction of a replacement facility 
for our Futenma Air Base.
    Chairman Levin. That is what the opposition in Okinawa 
strongly opposes, is that signature on that document, as I 
understand.
    Mr. Mabus. I understand there's opposition to that in 
Okinawa. I also understand there's opposition to Futenma in 
Okinawa.
    Chairman Levin. Right, both. The opposition is so strong--I 
think it was unanimous in the Okinawa legislative body. The 
prospects it seems to me are not great that this is going to 
happen this fiscal year. Can you comment on the likelihood that 
we're going to get the Japanese sign-off on both the 
replacement facility and on the signature for that document?
    Mr. Mabus. I will simply quote what Secretary Gates said in 
previous hearings, which he said that he was hopeful that 
progress would be made soon, and I believe by ``soon'' he meant 
in this fiscal year.
    Chairman Levin. Hopeful, but not necessarily optimistic; is 
that fair?
    Mr. Mabus. I believe his word was ``hopeful.'' I don't want 
to put words in his mouth. But he expressed that he was--I 
can't think of a different word than ``hopeful''--to go 
forward.
    Chairman Levin. All right. Are you personally optimistic 
it's going to happen this year?
    Mr. Mabus. I believe that the Japanese Government 
understands what our position is and that, absent movement, 
that we cannot go forward. So they understand the urgency.
    Chairman Levin. Thank you very much, Mr. Secretary.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Amos, have you had a chance to look at the air 
capabilities that the Libyans have now as far as fixed wing and 
helicopters?
    General Amos. Senator, yes, sir. I've looked at what they 
have.
    Senator McCain. What has been your assessment?
    General Amos. I think it's modest. I think their greatest 
threat is their helicopter-type forces. That's just my 
assessment standing from afar.
    Senator McCain. Their air defenses?
    General Amos. They have air defenses, sir. I'm unfamiliar 
with the depth of those air defenses, but they have some.
    Senator McCain. But my information--I wonder if you have 
the same thing--they are Soviet-style, somewhat older versions 
of surface-to-air missile capability.
    General Amos. Yes, sir, I believe that's correct.
    Senator McCain. Isn't it true that the air assets are 
concentrated in about four air bases right around Tripoli?
    General Amos. I believe that's correct, Senator.
    Senator McCain. So the air assets, both fixed wing and 
helicopter, are going out of a relatively small area around 
Tripoli, operating out of those areas; is that true?
    General Amos. Yes, sir, predominantly. I believe that's 
correct.
    Senator McCain. Do you have any assessment of the numbers 
of aircraft that they have, both fixed wing and helicopter?
    General Amos. Senator, I just know the general 
capabilities. I've not spent time looking at the precise 
numbers.
    Senator McCain. Has it been your experience in combat that 
if the enemy controls the air above, particularly in terrain 
like Libya, it gives them an enormous advantage?
    General Amos. Sir, I think there are several things that 
will give the enemy an enormous advantage. One is the ground 
movement of forces, vehicles, military on the ground. I think 
it's a very complex environment, where the Gaddafi forces are 
predominantly located. So I think it's more than just aviation. 
I think it's very complex.
    Senator McCain. But you have very little doubt that control 
of the air above, particularly in an untrained enemy, gives you 
an enormous advantage in any conflict? True?
    General Amos. Sir, I would say it would give you an 
advantage. I'm not sure about his air force.
    Senator McCain. Have you heard that Gaddafi is still flying 
in mercenaries in to Tripoli from other countries?
    General Amos. No, sir, I have not heard that.
    Senator McCain. Did you hear that he has two Airbuses that 
are shuttling back and forth?
    General Amos. No, sir, I have not heard that.
    Senator McCain. You have been getting regular briefings?
    General Amos. We do, sir.
    Senator McCain. The ships that are offshore, the Harriers, 
they also have surveillance pod capability?
    General Amos. They do, sir. The Harriers are carrying an 
ISR pod.
    Senator McCain. Do they have jamming capability?
    General Amos. Yes, sir, they do.
    Senator McCain. So we could jam Gaddafi's communications, 
including television?
    General Amos. Sir, excuse me. I misunderstood you. I 
thought you said camera capability. You're talking jamming 
capability?
    Senator McCain. Yes.
    General Amos. They do not.
    Senator McCain. What assets would have those, the jamming 
capability? Airborne Warning and Control System?
    General Amos. Sir, it would be that, and I'd have to refer 
to the CNO, but it would probably be aircraft, EA-6Bs off the 
carrier.
    Senator McCain. Admiral?
    Admiral Roughead. Yes, sir, the jamming that would be 
required, whether for communications or for their air defense 
system, I believe you would require EA-6Bs or the Growlers that 
we're now introducing to the fleet.
    Senator McCain. How far away are those?
    Admiral Roughead. The aircraft carrier USS Enterprise is 
the closest capability. The USS Enterprise is currently in the 
Red Sea.
    Senator McCain. Are there plans to move it?
    Admiral Roughead. At the present time, plans are for her to 
remain in the CENTCOM area of operations, sir.
    Senator McCain. Not move into the Mediterranean?
    Admiral Roughead. There has been no order issued to do 
that, no, sir.
    Senator McCain. General Amos, in the withdrawal from Iraq 
is it your personal opinion that Iraq will be able to take over 
logistics, intelligence, and air sovereignty missions that the 
United States has been carrying out?
    General Amos. Senator, I've always believed that--I can't 
speak to the degree of where they are today because the marines 
are out of there and we're focused primarily in Afghanistan and 
other parts of the world. But we were certainly on a glide 
slope to make that happen.
    Senator McCain. Admiral?
    Admiral Roughead. I believe we are on that path, yes, sir.
    Senator McCain. So you're not concerned about a complete 
withdrawal of U.S. troops from Iraq as far as logistics, 
intelligence, and training of an air force, or a navy? None of 
that is of concern?
    Admiral Roughead. As of my most recent visit there, 
Senator, where I focused primarily on the navy, I see very good 
progress. In addition to that, because that navy will operate 
offshore, our Fifth Fleet that operates in the Arabian Gulf, 
and I believe it will be a very supportive relationship, 
addressing the needs of Iraq from the naval perspective.
    Senator McCain. So they need no other assistance?
    Admiral Roughead. I believe that assistance will continue 
through the way that we interact with all navies in the region 
with our Fifth Fleet headquarters and the ships that deploy 
there, the exercise programs that we have. That will continue 
on with the Iraqi navy, and not have to have people ashore.
    Senator McCain. General Amos, have you been requested to 
identify any drawdown from Afghanistan, to begin the middle of 
July of this year?
    General Amos. Senator, no, we have not been asked to 
identify any forces.
    Senator McCain. So we really have no plans yet that you 
have been made aware of of the beginning of our drawdown in 
Afghanistan?
    General Amos. Senator, all I'm aware of is that there will 
be a drawdown. The President has announced it, beginning in 
July of some forces. The Secretary of Defense spoke about that 
yesterday in Afghanistan. I can't tell you whether it'll be 
marine forces. I would have to defer to General Mattis and 
General Petraeus.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the three of you for your service and for your 
testimony today. Before I get to my questions, I just want to 
begin by thanking the three of you for the leadership role that 
you're playing in the implementation of the repeal of Don't 
Ask, Don't Tell. Admiral Roughead and General Amos, I recently 
watched the opening portions of training videos that you have 
filmed for sailors and marines, and I just want to express my 
gratitude for the leadership that you display there.
    As you indicate in those videos, this is all about values, 
values that are deep and inherent in your Services, values of 
leadership, discipline, professionalism, and respect. I think--
and I really thank you, based on looking at these videos, for 
leading your Services, as the two of you have throughout your 
career, by example. I appreciate that very much.
    I want to get to a couple of questions about Libya. I just 
want to pick up from something Senator McCain asked and the 
inference from it, which is, no one's saying that a no-fly zone 
is uncomplicated, but the fact is that we have some experience 
doing this and, though people have said Libya is a large 
country, it is of course a large country, but the activity here 
is mostly along a strip of land along the coast. So if there's 
a decision to do this--and I appreciate what Secretary Gates 
said in his testimony, though it's the part that's less quoted, 
which was that, if asked to implement, hopefully with our 
allies and others, a no-fly zone, we're perfectly capable of 
doing it.
    But the point I want to make from what Senator McCain asked 
is that the air defense systems of the Libyans are modest and 
air capabilities are modest, and the activity, though the 
country is large, is happening mostly along the strip along the 
north of the country, along the coast.
    The question I wanted to ask is this. The chairman and 
Senator McCain have asked about our resources in the region. 
We're all following this very closely. I was interested that 
our Ambassador to NATO, Ivo Daalder, said--has been quoted as 
saying that ``The United States has been conducting round-the-
clock air and ground surveillance in Libya.''
    I wanted to ask you, Admiral, and you, General, whether you 
have any knowledge about that, and toward what end are we 
conducting that surveillance? Admiral?
    Admiral Roughead. Senator, the ability to monitor the level 
of activity, the disposition of the forces, is something that 
is within our capabilities to do and we have been following the 
fighting that's been taking place through a variety of means 
that we have. So we have some insight into what's going on 
there.
    Senator Lieberman. General, do you have anything to add to 
that?
    General Amos. Sir, I don't. I know that, just as we do in 
many other places around the world where there's hostile action 
taking place, we pay very close attention through a variety of 
means and capabilities.
    Senator Lieberman. Right.
    General Amos. Some national and some organic.
    Senator Lieberman. Admiral, based on what we know or what 
you know, do you think this is now settling into a kind of 
stalemate situation? I know it's always hard to predict--where 
we may end up but, unless something surprising happens, we may 
end up with a long-term civil war type conflict in Libya.
    Admiral Roughead. Having spent some time in the Middle 
East, to include actually living in Libya, I am always hesitant 
to predict what the future may be there. I think it's still a 
very uncertain period that bears watching. Then as some of the 
thoughts are discussed and debated, I believe, at least from a 
military perspective, that looking at what some of those 
details may be ahead of time is very important, issues such as 
a no-fly zone, restrictions on use of force, and what basing 
and access that might be required.
    I think all of those need to be sorted through.
    Senator Lieberman. Understood.
    I understand that, and it's, I believe, been publicly 
acknowledged, that the State Department at least has opened up 
channels of communications with the Temporary National Council 
or provisional anti-Gaddafi Government, which is headquartered 
in Benghazi. As far as you know, is there any military-to-
military contact going on through DOD with the military 
leadership of the anti-Gaddafi forces?
    Admiral Roughead. I'm not aware of any, sir.
    Senator Lieberman. General, do you know?
    General Amos. No.
    Senator Lieberman. Good enough.
    Let me go to something--Secretary Mabus, I noted in the 
statement you made in your prepared testimony that the F-35C 
variant of the JSF will be procured for both the Navy and the 
Marine Corps. I think it's been the general understanding that 
the Marine Corps would want to see produced and would procure a 
pure F-35B STOVL fleet variant of the F-35, and that in fact is 
the plan that's reflected in the current FYDP.
    Did I read this correctly in your prepared statement, and 
could you speak therefore to the future mix, if that is the 
correct interpretation, of the F-35B and the F-35C in the 
Marine Corps inventory?
    Mr. Mabus. Yes, sir. It has always been true that the F-35B 
was solely a Marine aircraft.
    Senator Lieberman. Right.
    Mr. Mabus. But it's also been true that the C version, the 
carrier version, the naval version, was going to have marines 
flying those as well. Today we have three Marine squadrons 
aboard carriers and we are currently undergoing a tactical air 
integration look across the Navy and the Marine Corps to see 
what the proper mix is of Cs for the Navy and Marine Corps, to 
make sure that we continue that integration and make sure that 
marines continue to fly off carriers in strike fighters, as 
well as in vertical takeoff and landing aircraft.
    Senator Lieberman. General, could you give me your reaction 
to this? Is that mix at this point acceptable to the Marine 
Corps? Am I wrong that you had originally hoped for a pure 
STOVL variant fleet?
    General Amos. Senator, you are correct that that was the 
initial plan. Let me back up just a little bit. We have always 
been fans of tactical air (TACAIR) integration. As the 
Secretary said, we have Marine squadrons right now on Navy 
carriers. On the USS Enterprise right now, we have Marine F-
18s. So we do that. We like that. It's good for both our 
Services and the naval force.
    But when we set the requirement in for STOVL aircraft, our 
hope was we would be able to some day fly those versions off of 
CVNs, naval aircraft carriers. That's yet to be seen, whether 
that will be possible. So in the meantime, it would seem 
prudent that we would buy some number of C variants, even early 
on, so that we can begin to transition our force there. But it 
will be a proportional number in the overall buy of the STOVL. 
The STOVL is still our primary focus.
    Senator Lieberman. Okay, good enough.
    My time is up. Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Wicker.
    Senator Wicker. Thank you.
    Admiral Roughead, let me follow up on Senator McCain and 
Senator Lieberman. Given the testimony that we've received 
today that Libya's air capabilities are relatively modest, that 
their air defenses are concentrated in a relatively small area, 
what would General Gaddafi's options be if the United States 
imposed a no-fly zone? Why would we not expect it to be 
completely successful?
    Admiral Roughead. I think the first question, Senator, is, 
as a precursor, you would be entering into combat operations 
there.
    Senator Wicker. We would be entering into air combat 
operations?
    Admiral Roughead. I think that in addressing a no-fly zone 
you want to suppress or destroy any of the air defense systems 
that could put friendly forces at risk. So that's the first 
element, I believe, of entering into a no-fly zone, is likely 
combat operations on Libya.
    So I think in talking about a no-fly zone there are some 
precursor steps that have to be taken.
    Senator Wicker. What would General Gaddafi's options be?
    Admiral Roughead. To try to defend against that would be 
the primary options. But the fact is that that would be the 
first step that would have to be taken.
    Then it's also the issue of, what forces would be used, 
where are they postured, what are the basing and the overflight 
issues. I think all of those have to be sorted through. We've 
done no-fly zones before and there is a significant 
infrastructure that backs them up, whether it's naval or land-
based.
    Senator Wicker. That infrastructure is available to us and 
to our allies, is that not correct?
    Admiral Roughead. I think that's a function of the 
countries that would be involved, to make that decision.
    Senator Wicker. Are you involved in the discussions with 
the Secretary of Defense as to whether we proceed with a no-fly 
zone?
    Admiral Roughead. We have had discussions on Libya in the 
tank among the Joint Chiefs, and we are involved in positioning 
our forces to support the efforts that are currently being 
undertaken in Libya. We're looking at the situation there on a 
daily basis.
    Senator Wicker. Thank you very much for getting further 
into the details about that.
    Let me shift gears to Navy Week and mention to both Admiral 
Roughead and to Secretary Mabus how much we appreciate being 
able to host Navy Week in the State of Mississippi during the 
week of March 19 through 27.
    As both of you know, 2012 will mark the 60th anniversary of 
the founding of the Seabees and their presence in Gulfport, MS, 
with our four naval construction battalions based in Gulfport. 
Let me start with Admiral Roughead. What is the past, current, 
and future contribution of the Seabees? What role do you see 
the Seabees playing in your vision of the future of the Navy?
    Admiral Roughead. Sir, as a matter of fact, I was in 
Gulfport last Friday meeting with about 3,000 Seabees. If that 
doesn't energize you, nothing does.
    But the Seabees I think in the Navy are legendary, and I 
would even say, beyond that within the military, for their 
combat engineering skills, their ability to go into unimproved 
areas and provide the facilities that forces need to operate. I 
know they're linked very closely to the Marine Corps in that 
regard. They've been very busy over the past few years, 
particularly in Iraq and in Afghanistan. In fact, we currently 
have as many Seabees deployed now as we did during the Vietnam 
War. So they are extraordinarily busy.
    But they also function in a humanitarian role, where they 
will go into countries and develop infrastructure, train some 
of the indigenous forces that are there. So that's what they 
have been doing, and I see Seabees doing that well into the 
future.
    Senator Wicker. Do you see their role diminishing in the 
future or increasing in the future?
    Admiral Roughead. I think the skills and the talent and the 
competence of the Seabees will prevail. It will be a question 
of how much usage the combatant commanders demand with regard 
to Seabees, combat engineers. Clearly, I would predict that as 
we eventually bring the level of forces down in Afghanistan, of 
course, Seabees are part of that, so they'll be coming out. So 
they're probably at a fairly high level right now. But I think 
the future is yet to be borne out.
    Senator Wicker. Secretary Mabus?
    Mr. Mabus. I concur with everything the CNO said. I visited 
with Seabees in Afghanistan and I've joked with them that if 
you give them a piece of plywood and a Skilsaw they can build 
anything, maybe even our fleet.
    But I do think that the skills that they have for the 
missions that are coming in the future, whether it's combat 
missions or whether, as the CNO pointed out, humanitarian 
assistance mission, partnership-building sorts of things, that 
those skills will be in demand and will be needed.
    Senator Wicker. Thank you very much.
    In the few seconds I have remaining, Secretary Mabus, in 
your verbal testimony and also in prepared testimony, I wanted 
to make sure that we understand precisely what you're saying 
about the effect of a year-long CR. You say it will prevent 
procurement of two nuclear reactor cores. Will it delay it or 
will it prevent it? And prevent completion of one Arleigh 
Burke-class modernization. Are you being precise that it will 
block these two advances?
    Mr. Mabus. If a year-long CR occurs, we cannot spend any 
money on either those nuclear reactors or either of the new 
start Arleigh Burke destroyers.
    Senator Wicker. It will in effect be a delay, would it not?
    Mr. Mabus. That assumes that at some point we are allowed 
to begin spending that money. Under a year-long CR for the 
remainder of the fiscal year, we would not be able to do that.
    Senator Wicker. I understand. I would simply observe there 
are concerns about spending, but I don't see why on a 
bipartisan basis and a bicameral basis we can't decide as a 
Congress to fund the military capabilities of this Nation on a 
permanent basis and then deal with the rest of the 
discretionary budget at a later time. I don't see a reason why 
we shouldn't go forward this week or next week with a full 
defense appropriation aspect of our funding and deal with the 
other aspects of it later on.
    So thank you very much, and thank you all for your service.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I can't help but follow up my colleague from Mississippi 
and the ranking member of the Seapower Subcommittee by 
commending the Seabees. They were organized in Rhode Island in 
1942 and one of their signature contributions to construction 
was the Quonset hut, named after Quonset, RI. So thank you, 
Senator. I'm glad we could help out the Gulf Coast.
    First, Admiral Roughead and Secretary Mabus, one of the 
critical issues, but it doesn't get a lot of attention, is 
maintenance of the fleet. Could you comment upon the stress 
that you're under now in terms of maintenance? We have seen 
reports that there's an increasing number of failures in the 
Bureau of Inspection Survey, up dramatically from about 3 
percent in the mid-1990s to now 13 percent in terms of ships 
that are coming in and being inspected, and that the life of 
the ships, the DDGs especially, is now 25 to 27 years, not 30 
or perhaps even 40.
    Admiral Roughead, you might start and then, Mr. Secretary, 
your comments.
    Admiral Roughead. Yes, sir. Looking at that when I came 
into this position, I looked at the whole approach to 
maintenance, how are we maintaining our ships. We did several 
things. We reintroduced the engineered based maintenance cycle 
for our ships, put resources to the teams that do that work. 
We're beginning to see the benefit of that now.
    We also are putting more sailors back on the ships. We had 
taken them off. With the generosity of Congress, we were able 
to increase our operation and maintenance funding, so we were 
able to build that up to the point where we're spending 
hundreds of millions of dollars now more on maintenance than we 
were just a couple of years ago. We've taken sailors and put 
them back into our intermediate maintenance activities, so that 
more maintenance can be done proximate to the ships in the 
piers.
    So I think all of that adds into improving the maintenance 
of the ships. We've seen some positive trends in our inspection 
and survey reports and results. So I think we're doing 
substantive things. We're investing the money in the right 
place to improve that ship maintenance.
    Senator Reed. Mr. Secretary?
    Mr. Mabus. Senator, everything, the details that the CNO 
just said, have been put in place and, as he said, we're 
beginning to see some improvements. The Navy, unlike other 
Services, maintenance is our reset. We reset in stride. So if 
we're going to get to the fleet that we need to get to, if 
we're going to get the numbers of ships that we need to get to, 
we simply have to make them get to the end of their normal or 
extended service lives.
    It's one of the things that the CNO has focused on the most 
closely. It's one of the things that I watch most closely. I do 
believe that with some of these efforts, putting more 
intermediate maintenance on the pier, putting more sailors on 
ships, 2,200 more on our ships, with the specific goal of doing 
preventative maintenance, so that when a ship comes in for a 
maintenance period it is more ready and the maintenance will 
mean more.
    Finally, I do want to reiterate one thing that I said about 
the CR. The chairman pointed out that we've already cancelled 
five availabilities. We face having to cancel up to 29 ship 
availabilities, and these, to go to what Senator Wicker said, 
are not postponements. These are cancellations, because we have 
other ships in queue waiting behind them.
    Senator Reed. Thank you, Mr. Secretary.
    Again let me address a question first to General Amos and 
if the Secretary would like to comment. That's on the F-35B. 
It's slipped in terms of its timeframe. There are some 
technical challenges. I had the chance to go down to Pax River 
and talk to your very impressive group of test pilots and 
program managers.
    What is the probability that this is the last major 
schedule change and that we're finally on track? I know that's 
a judgment call, but any advice, since you're an aviator and 
you have great expertise, Commandant? Please comment.
    General Amos. Thank you, sir. Obviously, with that 
introduction, you know I pay very close attention to it. This, 
as I said in my opening statement, is critical to our 
expeditionary capability, and we've talked about that before. 
My sense right now is that the program management has 
absolutely the right guy in there with Admiral Venlet running 
it. I think the oversight at OSD is appropriate. Certainly the 
oversight in the Department of the Navy is appropriate. I will 
promise you, as you and I have talked before, the oversight at 
the headquarters Marine Corps level and at my desk is very 
appropriate.
    So my sense where we are now is that, with the generosity 
of both Congress and the wisdom of Secretary Gates, putting 
more money back into this, trading some tails so that we could 
get this program back on track, things are lined up now for 
success. I'll give you an example of what I'm talking about. 
Right now the STOVL variant, which is the one that everybody 
refers to, has flown 140 percent of its scheduled test flights 
since January 1. So in the last 70 days, the airplane has flown 
40 percent more of its scheduled test flights. It's flown about 
another 200 percent of its scheduled test points. Within each 
flight it's designed to get five or six specific points of 
flight test.
    So it's performing better there. It's already flown I think 
something like four or five times the number of vertical 
landings just this year than it did all last year. I took a 
brief yesterday on the structural issues, the bulkheads, the 
weight gain. These things are progressing well.
    So from my perspective as I look at it, I'm going to pay 
attention to the aircraft performance, how it's doing in 
flight, both in vertical and horizontal flight, the weight 
growth in the airplane, which in a vertical landing airplane is 
very critical. Right now we're on a good glide slope in the 
weight growth, and we're not going to add a pound that I'm not 
aware of to that airplane. We have to talk about it.
    Then, finally, the engineering challenges and the test 
performance. So my sense is I'm optimistic. We are on a 2-year 
watch. It's my hope that we can get off that well before 2 
years, and it's my intent to some time this spring offer to the 
Secretary of Defense a set of metrics that he might consider as 
the threshold for getting the airplane off of probation and 
getting it back into the regular mindset of production.
    Senator Reed. Any comments, Mr. Secretary?
    Mr. Mabus. I can't improve on that answer, Senator.
    Senator Reed. That's why you're such a good Secretary and a 
good lawyer.
    A final question to Admiral Roughead and the Secretary, the 
Ohio replacement program. I know this is a major issue. It not 
only touches the fleet, but also our strategic posture, 
particularly after the recent START Treaty. It's the future of 
deterrence, nuclear deterrence for the Nation. It's the most 
survivable aspect of nuclear deterrence.
    I think you have made significant progress in ensuring that 
we design a ship that is not only capable, but affordable. But 
there's still this issue of sharing the costs, because this 
program is a Navy program, but it has huge, huge implications 
for the overall strategic posture of the United States, 
particularly the deterrence posture with nuclear weapons. So 
why don't you comment on any efforts to provide support, as 
we've done on other programs like the missile defense program 
from DOD, not just from the Navy.
    Admiral Roughead. Yes, sir, and I appreciate the question. 
Clearly the Ohio replacement is, as you said, the most 
survivable. What we're doing is we're building a submarine that 
will be on patrol for this Nation in 2080. So that's where the 
research and development is going, and our focus on stealth and 
mission capability is where we have to go.
    We also know we'll be introducing that submarine at a time 
when there are other significant costs being imposed on the 
shipbuilding budget. While we're early on in the program, I do 
believe that there has to be a discussion about how the 
submarine is resourced in the context of everything else. I 
think we're at the front end of having some of those 
discussions.
    Mr. Mabus. In the research and development that's going on 
now to begin to build the first of the Ohio-class replacements 
in 2019 to go on its first patrol about 10 years later, we've 
already taken a billion dollars a boat out of the cost to build 
this submarine. We're looking to take more money out.
    Right now we're at about $5.4 billion per boat. The number 
needs to start with a four in some way for these boats. But 
even at $4.9 billion per boat, to build 12 of these beginning 
in 2019 and continuing throughout the decade of the 20s will 
require substantial resources that, if they all come from the 
Navy, would put a dent in the rest of our shipbuilding 
programs.
    That's one of the reasons we have put it in and tried to be 
exactly honest and exactly precise about how much this ship 
will cost and what it will do to the rest of the fleet, so that 
these discussions, these debates, and these decisions can be 
made with the facts of what will happen clearly in mind.
    Senator Reed. Thank you.
    Thank you very much, Mr. Secretary, General, Admiral.
    Chairman Levin. Thank you, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral, first let me join everyone in thanking you for 
your extraordinary service. It's very difficult for those of us 
who have worked with you for a number of years to recognize 
that this is most likely your last Navy posture hearing. I want 
to thank you for your decades of service.
    I want to pick up on the issue that Senator Reed just 
raised. Secretary Gates recently testified that a number of our 
surface ships that were built during the Reagan years will 
basically reach the end of their planned life in the 2020s, and 
that coincides with the time that we will be bringing on the 
new ballistic missile submarine. Obviously, we need both, but 
that new submarine is going to swallow up a great deal of the 
shipbuilding budget.
    I understand that there are several precedents for national 
strategic programs that are funded through defense-wide budget 
lines. For example, ships supporting sealift for all of the 
military Services are funded through the National Sealift 
Defense Fund. As has been mentioned, the MDA budget funds for 
activities related to ballistic missile defense irrespective of 
the military Service involved.
    So if we're going to proceed, as we must, with the new 
submarine, but not harm the shipbuilding budget, which is 
already below the optimum number that you have said repeatedly 
is the floor of 313--I believe we're at only 286 or 287 right 
now--would an alternative worth pursuing be looking at a 
defense-wide budget line, rather than trying to fund this 
submarine out of shipbuilding?
    Admiral Roughead. Thank you, Senator, and thank you for 
your very kind comments. It's been my pleasure to work with you 
over these years, not just as CNO, but even before, and thank 
you for your great support of the Navy.
    But I do believe that, in addition to the points that you 
mentioned, in the 20s we're also going to still be refueling 
our aircraft carriers. To make all of us feel a little bit 
older, we will also in that decade be taking out of service 
some of the Nimitz-class aircraft carriers as they reach the 
end of their 50-year life.
    So there are those two costs that have to get put in there 
as well. So there's a significant pressure on shipbuilding. Yet 
the Nation I believe will still need the global Navy that it 
has today. Whether it's a defense-wide fund or whether there is 
consideration for those expenses that are being taken into 
account, I do believe that that has to be addressed, because if 
it's not taken on and if it's not thought through with a 
solution that's different than what we have today, we as a 
Nation are going to find ourselves shorted in a Navy.
    Senator Collins. I agree with you and I look forward to 
working with you and the Secretary and my colleagues trying to 
come up with a solution.
    Secretary Mabus, it was so appropriate that you began your 
testimony today reminding us of the dire impact on the Navy, 
indeed on all of DOD, of continuing to operate under a CR, 
particularly one that is extended 2 weeks at a time. That 
really is an impossible situation.
    Just last week I filed the defense appropriations bill, the 
entire bill, as a modification to an unrelated piece of 
legislation, to try to emphasize to the Senate leaders that 
this should be our priority, completing work which should have 
been done prior to October 1 of last year.
    You mentioned the dire impact on readiness, the effect on 
our sailors and marines, the fact that we are putting in 
jeopardy as many as 10,000 private sector jobs at a time when 
our economy is very, very weak. But isn't there also another 
adverse impact, and that is that these delays cause disruptions 
in the supply chain that are costly? They're not only depriving 
our soldiers, sailors, marines, and airmen of needed technology 
and equipment, but they're increasing the ultimate costs that 
we're going to pay.
    You're going to have to renegotiate contracts. There are 
disruptions in the supply chain that are costly. Isn't this the 
case where the longer that we operate under a CR, the more 
you're likely to have to pay for needed equipment?
    Mr. Mabus. I think that's absolutely correct, Senator. The 
ripple effects of this, we're beginning to feel some now. The 
longer it goes on, the more those effects take place. Senator 
Wicker pointed out that we're delaying ship starts, perhaps not 
cancelling them. But if you delay ship starts this year, we 
have other ship starts due next year and the year after that, 
and, as I said in my testimony, it will take us years to 
recover from this, from the second and third order effects of 
this and the ripples that go out from it. The supply chain is 
certainly one of them. Breaking multi-year procurements is 
another that we are saving money on today. If we are unable to 
fulfill our part of the multi-year, we'll have to go in and 
renegotiate that, for example on shipbuilding.
    Senator Collins. I think that's a very important point. 
Some of my colleagues who are supporting a CR are arguing that 
it saves money. I think it not only is disruptive, but it's 
going to end up costing us more money in the long run.
    Admiral Roughead, just a very quick final question for you. 
As you may know, Senator Webb and I along with some of our 
colleagues commissioned a recent Government Accountability 
Office (GAO) report that found that the Navy's modernization 
program for our public shipyards, which includes the Portsmouth 
Naval Shipyard in Kittery, have been underfunded. Indeed, the 
Navy's own estimate of the backlog at the Portsmouth Naval 
Shipyard alone exceeds $500 million.
    Are you looking at whether you could use some reprogramming 
or shifting of funds to try to meet some of the more urgent 
needs, which also would translate directly into increased 
efficiency and productivity? So again, it's an investment that 
saves you money in the long run.
    Admiral Roughead. Yes, Senator. We're always looking at our 
MILCON and where do we get the most bang for the buck, and it 
goes beyond the shipyards. But we do look at the shipyards and 
in fact, even though there is what is considered a backlog of 
maintenance, we are investing above the percentage that's 
required by Congress to a certain degree.
    But I'm always looking at projects, individual ones, to 
your point, that if we pay a little bit today maybe we can gain 
in productivity later on, and we're always looking at that.
    Mr. Mabus. Senator, if I might add that one of the 
exemptions to the civilian hiring freeze that DOD announced was 
for shipyards, to meet exactly what you were talking about.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Admiral, let me add my own congratulations and appreciation 
to you for all the service that you have given our country. 
It's been my pleasure to have known you and worked with you in 
a number of different capacities for a good 15 years or more. I 
appreciate the stewardship that you've shown, even in your 
testimony today, for the people who come after us and what we 
leave behind.
    There's been a number of comments today about the situation 
in Libya. I think it's important for me to at least express my 
support for the position that Secretary Gates has taken on this 
issue, and others in DOD. We all know that military 
commitments, however small, are easily begun and in this region 
particularly very difficult to end. History shows that. This is 
a region full of surprises.
    I, for one, am of the opinion it's not a good idea to give 
weapons and military support to people who you don't know. When 
it comes to the opposition in Libya, we don't know them. 
Secretary Clinton was very clear on that last week in her 
testimony before the Senate Foreign Relations Committee. So 
it's very important, I think, to proceed responsibly and very 
carefully as we approach that particular issue.
    Admiral, I, as you would expect, strongly agree with your 
position about the number of ships that we should be providing 
in the Navy, that 313 should be a floor. I've been very 
concerned and vocal about my worry that we've taken our eye off 
of our strategic forces in general as we have spent so much of 
our money, energy, and people in Afghanistan and Iraq over the 
past 8 or 9 years.
    This is particularly true in East Asia, which I view to be 
the central focus of our long-term strategic goals. We can't 
ignore what the Chinese military has been doing, not only in 
this area but in other areas. They've been very active over the 
last year particularly. But we have an obligation to position 
ourselves properly in terms of our military forces and our 
basing systems.
    In that regard, I'd like to mention my hope that we can do 
a better job on this situation with Okinawa and Guam. As you 
may know, Secretary Mabus, I worked as a military planner on 
this issue many years ago. The attempt at a solution of the 
Okinawan situation as it moves into the Guamanian situation has 
now been on the table for 15 years.
    I was recently last month the keynote speaker at Shimoda 
conference in Tokyo, which was a gathering of the minds in 
terms of how we are going to reshape and strengthen the United 
States' relations with Japan. I can tell you that this issue is 
one of the most serious problems in our relationships with the 
Japanese, but also in Japanese domestic priorities. You can see 
the turbulence that it has put at the very top of the Japanese 
Government because we have not yet resolved this issue.
    It also is one of our principal challenges in terms of the 
structuring of our presence in East Asia. I was out there last 
year on Okinawa and Guam. I think I'm going with the chairman 
next month also on a visit there.
    I just really strongly believe we have to put this on the 
front burner. It's one of these types of issues that, since 
it's not hitting us in the face every day, we tend to push it 
away. But it's now been 15 years. We need answers. Whatever the 
answers are, we need answers for the stability of our 
relationships with Japan and for our future in the Pacific.
    I'm not sure actually who's carrying the ball on this in 
DOD. I think the Marine Corps--at least they're heavily present 
when we go out there and talk to people. But, Secretary Mabus, 
I'm not sure. Who's the executive agent here, and how do we get 
this thing resolved?
    Mr. Mabus. Senator, we're the executive agent for Guam. 
You're right that the Marine Corps is heavily involved. But it 
is not simply a Navy issue. It rises to the top leadership of 
DOD.
    I can assure you from the Marine Corps, from the Navy, and 
from DOD, it's on the front burner. It takes up a large part of 
our focus, for exactly the reasons you talked about. It affects 
our laydown in the entire Pacific. It affects our presence in 
the western Pacific for the next decades. We had an agreement 
with the Government of Japan on a way forward. That agreement 
is several years old now. One of the key components before we 
begin to move is Government of Japan and the Government of 
Okinawa movement on replacing our airfield at Futenma. The 
Marines have to have that air capability on Okinawa regardless 
of what happens going forward.
    So we are focused on it. I will quote Secretary Gates in 
his hearing when he said that he was ``hopeful that progress 
would be made soon on this issue,'' as we all are.
    Senator Webb. This is an enormously complex issue in terms 
of all the moving parts, and I know that there's been some good 
adjustments already in terms of the Marine Corps footprint on 
Okinawa, moving it further away from the industrial areas, and 
also the environmental aspects, particularly on Guam.
    But I can't say strongly enough how important it is we put 
good minds and good leaders on this, for all the reasons that I 
said: the future of our relationships with Japan. I hear it all 
the time when I'm with the foreign ministry, the defense 
ministry in Japan, and with their political leaders, and for 
our future. So I hope we can have some good discussions before 
the chairman and I go to Japan and Guam next month, and maybe 
we can come up with a better way to approach this.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. Sorry I was 
bouncing back and forth. I had a Senate Small Business and 
Entrepreneurship Committee hearing as well.
    Mr. Secretary, first of all, and Admiral, thank you also, 
just to reiterate. I appreciate your service and family 
sacrifice.
    Mr. Secretary, just to touch on what Senator Collins was 
saying, the CR, the 2 weeks, do you think that jeopardizes the 
safety and security of our country in any way, that continuing 
on in sporadic means and measures?
    Mr. Mabus. I think that it, as I tried to lay out in my 
opening statement, it has some profound implications for the 
Navy and the Marine Corps. If the CR continues for the whole 
year, as we said, flying hours will go down, ship steaming days 
will go down, the availabilities that we have for maintenance 
for naval ships. The procurement account for the Marine Corps 
could go down by as much as a third.
    We will not be able to meet payroll by the end of the 
fiscal year without moving monies from other accounts, and 
procurement is one of the few places we can get that. In terms 
of shipbuilding, we will not be able to start the second 
Virginia-class submarine, which will break the multi-year on 
that, which will make those submarines more expensive. We will 
not be able to start the two Aegis-class destroyers.
    Senator Brown. In plain English, do you think our safety 
and security is in jeopardy as a result of the delay?
    Mr. Mabus. I think that today the Navy and Marine Corps 
will meet whatever safety and security needs America has. The 
danger is what happens in the future, what happens to us 
because of these shortfalls now.
    Senator Brown. To take it a little step further, do you 
think the lives of our soldiers are in jeopardy as a result of 
the delay. If it continues?
    Mr. Mabus. No, I don't think it risks lives of our marines 
and our soldiers, because the OCOs are being funded. But I do 
think--and I know I'm beginning to sound like a broken record, 
but it's the effects on the future.
    Senator Brown. I understand. I appreciate your honesty.
    One of the best ways, I've always felt, and I've heard 
through testimony from many of you and others, is the open and 
honest competition. With regard to the LCS, the dual 
procurement strategy is a perfect example of that type of 
savings if we strictly enforce competition. Mr. Secretary, can 
you comment on the importance of implementing competition in 
our Nation's acquisition strategy, where appropriate, 
especially when we're deciding to buy massive amounts of 
equipment costing taxpayers billions of dollars over the course 
of several years?
    Mr. Mabus. Competition certainly worked in terms of the 
LCS. When we competed two manufacturers against each other with 
two different variants, the price came down pretty 
dramatically. Now, I will say that the LCS program was unique 
in the sense that we had always planned on having two 
suppliers. We had never looked at this program, regardless of 
how many variants we had, as coming from one shipyard, because 
we wanted to keep competition in the program.
    Senator Brown. You're ultimately going to award a contract 
to one of them, though, based on the specifications, the 
capabilities, and the like, correct?
    Mr. Mabus. Yes, sir. But whoever--if we had down-selected 
to one variant, whichever shipyard won had to give us the 
technical data package, all the drawings, all the engineering, 
so that we would then the next year bid it out to a second 
shipyard. We were always going to have two shipyards competing 
on the LCS.
    Senator Brown. So competition saved $2.9 billion and a 27 
percent reduction on the original cost of that savings 
estimate. The third and fourth ships are scheduled to be 
delivered in 2012 on cost and on schedule. I guess I'm trying 
to wrestle the fact that we have that fair and open competition 
with a relatively small quantity purchase like the LCS and yet 
we're dealing with a $100 billion purchase of over 4,000 JSF 
engines for the U.S. and international partners spanning a 
period of 20 years, which the GAO has twice concluded will save 
the taxpayers $20 billion.
    So I'm wondering if you could explain. Am I missing 
something in terms of having a sole producer of the engine? For 
example, what happens if they decide to raise the price? Why is 
it good for one and not the other? I really haven't gotten a 
good answer.
    Mr. Mabus. Two things set those two programs apart. One is 
what I talked about, about the fact that we always anticipated 
having two different suppliers for the LCS, regardless of how 
many variants we had.
    Second, we have paid for most of the engineering, the 
research and development, the up-front cost of both variants of 
this ship, unlike the alternate engine, which has only paid for 
the research and development upfront costs for one of them. So 
I think there are two major differences between those.
    The last thing I would say is, from the Navy vantage point 
we have rarely had two engines for any of our aircraft, simply 
because of space concerns. We can't carry two engines on our 
carriers. We can't carry two engines on our big-deck amphibs. 
We simply don't have the space for it. We will only be able to 
buy one engine for these aircraft, as we do today for our F-
18s.
    Senator Brown. One of the things I'm always concerned is 
about cost overruns and delivering weaponry on time. My concern 
is, obviously, about doing that with that particular program.
    I'd like to just shift gears for a minute. I'm thankful, I 
think it's about time, that Harvard and the Navy once again are 
having Reserve Officers' Training Corps (ROTC) on their campus. 
I think it's long overdue. I'm wondering if you could just 
comment on what your feelings are about the importance of ROTC 
on our Nation's campuses?
    Mr. Mabus. I was very happy to sign the agreement with 
Harvard last Friday to bring ROTC back there. As I pointed out 
there, Harvard trails only West Point and Annapolis in Medal of 
Honor recipients. I agree with you, it had been gone for too 
long.
    I believe that ROTC and the ability to have different 
viewpoints coming into our military officer corps, different 
geography, different viewpoints, different backgrounds, is 
absolutely crucial. We're continuing to reach out to schools 
that have, for whatever reason, ended ROTC, to bring it back. 
The military that protects the Nation ought to be reflective of 
the entire Nation.
    Senator Brown. So noted. I'm anxious to see whether and how 
the military science classes will be taking place on or off 
campus, and hoping that they will be fully implemented in the 
ordinary course like every other organization has that 
opportunity.
    But I want to thank you for wrapping that up. I saw you 
smiling a lot in the pictures.
    Admiral and General, I'm okay with you. I know we've spoken 
off-line many times about issues, so thank you for your 
continued service and the good information.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Brown.
    Just on two of the statements that you made in response to 
Senator Brown, if you for the record would confirm or not 
confirm the following: First, that more than half the 
development costs on the second engine have already been sunk; 
second, that the original acquisition strategy did assume two 
engines for the F-35. Can you confirm or not, for the record, 
not now?
    Mr. Mabus. Yes, sir.
    [The information referred to follows:]

    Yes, more than one-half of the F136 development costs are 
sunk-costs ($2.9 billion through fiscal year 2010 of an 
estimated $4.2 billion development program). The estimate 
includes only those costs required to complete development of 
the F136 engine and does not include all TBD costs necessary to 
get the F136 to a competitive procurement posture. With regard 
to the acquisition strategy, yes, the Department of Defense 
assumed two engines as part of the original acquisition 
strategy if funding was available for the F136 program.

    Chairman Levin. It's not my turn yet.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I wanted to state how pleased I am to see all three of you 
gentlemen here today and once again thank you for your service. 
My late father-in-law, who passed away a little over a year ago 
at the wonderful age of 96, was a major general in the Marine 
Corps Reserve, and he was always very interested in everything 
that you had to say and your actions, especially during these 
committee hearings.
    But, speaking about the ROTC, my husband participated in 
the ROTC at Chapel Hill, and I think too that it's a wonderful 
movement forward that Harvard has reinitiated their program. So 
I think that's great.
    I did want to ask about the amphibious assault ships. I'm a 
big supporter of the Marine Corps amphibious capabilities. It's 
the bread and butter of the Marine Corps to have the ability to 
conduct forcible entry operations from the sea. I think it's 
important that the Navy not decommission amphibious assault 
ships earlier than their expected service lifespans without 
replacements.
    I'm concerned that the Marine Corps will not have the 
sufficient amphibious capabilities to fully support the 
combatant commanders' requirements within an acceptable level 
of risk. I'm concerned that the Marine Corps will not have the 
sufficient amphibious capabilities to meet the demands for all 
the operational deployments that we're seeing.
    General Amos, can you discuss how the amphibious forces 
have been employed during this past year and talk about how 
this has helped to inform the recently completed force 
structure review?
    General Amos. Senator, I'll be happy to. I'm pretty proud 
of the Navy-Marine Corps team. Just in the last 12 months, you 
remember, just about a month or 2 from now we had 7 amphibious 
ships full of 5,000 marines and sailors off the coast of Haiti. 
When you could only put one airplane or two airplanes on the 
ground in the airport, everything else was clogged, it was the 
naval amphibious force that was providing the relief--water, 
food, medical supplies, evacuation--for 45 days.
    So that's where the last year began. The 15th MEU sailed 
off the coast of Pakistan and supported the Pakistan relief 
operation, flying their CH-53 Echo heavy lift helicopters 400 
miles deep into Pakistan, up to the very northern part of 
Pakistan, to move folks around, provide relief efforts.
    While that was going on, the Harriers off the amphibious 
ships were flying combat sorties into Afghanistan in support of 
the joint force. Interestingly, one of the ships departed, went 
1,000 miles due west, captured the Somalia pirates off the 
Magellan Star.
    About the same time, the 26th MEU, from your great State, 
sailed 30 days early. They hadn't even finished their 
certification yet, and they were able to certify en route. They 
joined the 15th MEU with their three ships to help support the 
Pakistani operations.
    1,400 marines off of the 26th MEU are now ashore in the 
Helmand Province, reinforcing success for our forces on the 
ground there.
    As you've just seen, the 26th MEU sailed two ships up 
through the Suez and into the Mediterranean, now joined by 
marines from your great State as well, the First Battalion, 
Second Marines, poised off of the Mediterranean.
    I haven't counted the 31st MEU in the western Pacific, that 
came on the back side of that super typhoon in the Philippines.
    So lots--there is no shortage of work for the marine 
expeditionary amphibious units. They are very successful.
    Senator Hagan. Certainly.
    Secretary Mabus, in light of those comments, is the Navy 
reviewing and reconciling the amphibious requirements, ship 
retirement schedules, and the 30-year shipbuilding plans?
    Mr. Mabus. Senator, we keep a close eye on that. We have 
extended the USS Peleliu for a year, its retirement date. But 
the amount of effort, the amount of money, and the amount of 
people it would take to continue some of these very old 
amphibious ships now--the people are needed for other ships 
coming on line. The amount of money would take away from the 
newer ships we're building.
    We're building toward, and we're in sight of getting there, 
to having the 33 amphibious ship capacity, 11 big deck amphibs, 
LHAs, LHA(R)s, 11 LPDs, 11 LSDs. If Congress approves our 
shipbuilding plan, we will have 11, 11, 11 by 2017.
    Senator Hagan. Thank you, Secretary Mabus.
    I also understand that the Department's restructuring of 
the JSF program, including the recent 2-year probation of the 
Marine Corps' STOVL, the F-35B. The F-35B is fundamental to the 
expeditionary nature of the Marine Corps and this aircraft is 
also essential to how the Marine Corps deploys and utilizes its 
aviation assets in theater.
    This aircraft also provides the Marine Corps with the 
capability to land on the improvised airstrips and launch from 
the large-deck amphibious assault ships. It also provides the 
Marine Corps with the ability to rearm and refuel in the 
forward operating bases (FOB).
    Currently the AV-8B Harriers are approaching the end of 
their service life and the aircraft and its parts are no longer 
being produced. I know that the Fleet Readiness Center in 
Cherry Point in North Carolina, the engineers there, they 
actually engineer the replacement parts.
    Secretary Mabus and General Amos, what would be the impact 
of terminating the F-35B on the Marine Corps' ability to 
actually project the power that is necessary in some of these 
remote expeditionary environments? What effect will that have 
on the joint force capabilities in theater, as well as the 
Marine Corps' force structure? What would be some of the near-
term milestones that you would expect for the Marine Corps to 
achieve to get the F-35B back on track?
    Mr. Mabus. Senator, I will give a very brief overview and 
then turn it over to the Commandant, who is far more eloquent 
than I am about the F-35B.
    The Commandant earlier today pointed out that the F-35B is 
a critical capability for the Marine Corps, the vertical 
takeoff and landing, for all the reasons that you have laid 
out. The 2-year intense look at it, or the probationary period, 
I think is going to give us an opportunity to focus on it and 
to make sure that the issues associated with it can be fixed 
within weight limits and cost limits.
    The Commandant has stated that he is now a program officer 
on this, and he gets updates on a very frequent and very 
routine basis. Some of the milestones that we're looking at: 
the number of test flights this year, this calendar year, is at 
about 140 percent of where we expected to be, so we're ahead of 
schedule there. The number of test points on those test 
flights, we're almost 200 percent there.
    They have achieved vertical takeoff and landings, more 
vertical takeoffs and landings so far in the first a little 
over 2 months of this year than they did all of last year. It's 
at least my understanding, and then I'm going to turn it over 
to the Commandant, that the issues associated with the B 
version are engineering in nature, and the question is whether 
those engineering issues can be solved inside weight limits and 
inside financial boundaries, and that that is what we're 
concentrating on.
    General Amos. Thank you, Secretary.
    Secretary, as I said in my opening statement, the way we 
employ our airplanes in the Marine Corps, we're the blue collar 
aviation for the United States of America. We get out, we get 
dirty. We fly in places where there are unimproved strips. We 
did it all the way to Tikrit when we crossed the border in 
March 2003. We had Harriers landing on highways. We flew off of 
narrow roads. We flew off of bombed-out runways and taxiways, 
all the way past Baghdad into Tikrit.
    So that's the way we operate. There are roughly 10 times 
the number of small airports around the world than there are 
larger ones. That fits us. We build our own runways when we 
have to. We have two of them in southern Afghanistan right now. 
One of them was Poys. We built it in about 30 days out of 
aluminum matting, so we could fight the fight for Marja a year 
ago at this time.
    So that's the way we employ it. We also fly them off the 
large-deck amphibious ships. So today, with 11 carriers and 11 
large-deck amphibious ships, our Nation--this is a national 
capability--has 22 capital ships flying TACAIR aviation off of 
them. Now, imagine a couple of years from now being able to 
have F-35Cs on board those 11 aircraft carriers and F-35Bs 
flying off of those 11 large-deck amphibs. So our Nation would 
have for the very first time 22 capital ships with fifth 
generation capability flying off of them.
    So this is more than just the Marine Corps. If we lose the 
F-35B, there is no plan B for fixed wing airplanes on the 
large-deck amphibs. Our Nation's capability to project power 
and influence situations will be cut immeasurably, not in half. 
Certainly there are more airplanes on an aircraft carrier than 
there are--or fixed wings, than there are on an amphib. But it 
would be significant, and there is no plan B for that, ma'am.
    So the F-35B is a requirement. I'm optimistic. What I'm 
seeing now is very encouraging.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I'd like to begin by again thanking all of the three 
witnesses for your very distinguished service to our Nation. 
Admiral, I'm new to the committee, but I'm sorry that I'm here 
for the last of your testimony on this issue, and simply say 
thank you and congratulate you on your extraordinary service to 
our Nation.
    I'd like to pick up, General Amos, if I may, on the last 
answer that you gave. I assume from your testimony that you 
would prefer to see the resources that might be devoted to an 
alternative engine for the JSF devoted instead to the F-35B 
alternative?
    General Amos. Sir, we made a decision, the Marine Corps 
made a decision, in the late 1990s to skip a generation of 
airplanes, to skip a fourth generation of airplanes, going from 
our F-18s, which is what we would call a third generation 
capability, and go on a procurement kind of diet for about 10 
or 12 years to buy the F-35B. So that position has not changed, 
Senator, and that's where we are today.
    We need the airplane. We're confident in it and it fits the 
way we operate our airplanes.
    Senator Blumenthal. You would forego that alternative 
engine, the second engine, as it's been called, and instead 
devote those resources to that plane that you need so much?
    General Amos. Senator, I would, because we are a Navy-
Marine Corps team and we operate off of naval vessels, and for 
the very same reason that the CNO and the Secretary of the Navy 
articulated earlier, there's just simply not enough room to 
have different types of engines, different types of test 
equipment, tool sets, procedures, and that kind of thing on 
naval vessels.
    Senator Blumenthal. Thank you.
    I apologize if I may seem to be repeating one or more of 
the questions that have already been asked, but I want to 
return to the Virginia-class submarine procurement program, if 
I may, Secretary Mabus and Admiral Roughead. Could you outline 
for us what the impact would be on the procurement program for 
the Virginia-class submarine if there is no budget for the 
fiscal years 2011 and 2012 and we continue with a CR? I have in 
mind particularly the Admiral's testimony that so far the 
submarines have been delivered under budget and ahead of 
schedule. So I'm wondering if there could be continuing 
negotiations, as you've outlined, to continue the two-sub 
procurement program even with a CR.
    Mr. Mabus. Senator, under the rules of a CR as they are in 
place today we could only begin to build one Virginia-class 
submarine this year. We are scheduled to build two, two each 
year for the next 5 years. We have entered into a multi-year 
procurement on the Virginia-class submarine, which has driven 
the price down even further, giving the contractor some 
stability in terms of their base, their training, their 
infrastructure.
    So if we are unable to begin the second Virginia-class 
submarine, which would be the case under the current CR, not 
only would we jeopardize the total number of ships that we 
have; we would also break the multi-year agreement, which would 
cause the cost of those ships to rise. We would have to re-
enter negotiations because we would not have ordered the number 
of ships we committed to under the multi-year.
    Senator Blumenthal. So even with the best of intentions, 
very likely the cost of that Virginia-class submarine program 
would rise as a result of continuing with the CR, as opposed to 
having a budget in place?
    Mr. Mabus. Yes, sir. If we are not given relief on new 
starts, we will not be able to build the second one and the 
cost would almost certainly rise.
    Senator Blumenthal. General Amos, in the time that I have 
left I'd like to focus on an area that hasn't been covered so 
far, and that is the very impressive part of the report that 
you've given us today on some of the work that's ongoing with 
respect to the diagnosis and treatment of traumatic brain 
injury and post-traumatic stress. I am tremendously impressed 
by the general description that you've given in this report on 
the focus, the increased priority given to this very troubling 
area, and in particular the in-theater restoration center that 
provides comprehensive diagnosis and the proactive outreach 
that the Marine Corps has undertaken whenever any member of the 
Marine Corps is involved in a concussive event.
    I would appreciate further details, perhaps in a later 
session or in written form, whichever you find best to do, and 
invite you now just to provide some additional details if you 
wish. But I would very much appreciate a more detailed 
briefing, because I think that for all the Services this is a 
major challenge going forward in this conflict and setting an 
example for future conflicts.
    [The information referred to follows:]

    The Marine Corps is undertaking a proactive, comprehensive approach 
to address the challenge of Traumatic Brain Injury (TBI)/Post-Traumatic 
Stress (PTS) including prevention, education, early identification, 
treatment, rehabilitation, and reintegration. We are working closely 
with the Defense Center of Excellence, which is the Department of 
Defense lead agency on efforts to improve the prevention, 
identification, and treatment of TBI/PTS. We are actively implementing 
the requirements of Directive Type Memorandum 09-033 regarding mild 
TBI/concussion and have launched a mandatory screening protocol for 
marines exposed to blast events in theater.
    Our Navy medical personnel and leaders are receiving training on 
new event-based protocols and Marine personnel receive TBI/concussion 
training prior to deployment. Marines exposed to a potentially 
concussive event receive a mandatory medical evaluation and 
requirements are in place for Marine leaders to report on personnel who 
are exposed to potentially concussive events. Medical evaluation 
results are documented in medical records, and extra precautions and 
evaluations are in place for marines with repeat/multiple concussions.
    The Marine Corps, with Navy support, has established a Concussion 
and Musculoskeletal Restoration Care Center (CRCC) in theater. This 
center provides front-line care to patients with mild TBI/concussion 
and has dramatically improved identification, diagnosis, treatment, 
outcomes, and return to duty rates. CRCC provides comprehensive 
interdisciplinary care for concussion, psychological health, and 
musculoskeletal injuries. Interdisciplinary services include Family 
Medicine, Sports Medicine, Mental Health, Physical Therapy, 
Occupational Therapy, Acupuncture, and Spiritual therapy.
    Since its inception in August 2010, the CRCC has logged over 8,000 
patient encounters, including evaluation and treatment of over 560 
patients with concussion. Over 96 percent of patients treated for 
concussion at the CRCC have had favorable outcomes with return to full 
duty. In the past, these patients would have required evacuation to 
Kandahar or Bagram hospitals and/or evacuation out of theater.
    Processes are in place to screen all marines for TBI/PTS upon 
returning from deployment. Every marine evacuated from theater for 
injuries receives a TBI screen. This is primarily done via the Post-
Deployment Health Assessment/Post-Deployment Health Reassessment.
    We are exploring new measures to measure blast exposure and improve 
detection of TBI, including biomarkers, imaging tools, and neuro-
cognitive testing. The Marine Corps continues to pursue advances in 
personal protective equipment, including next-generation helmet 
technology to mitigate blast effects. Education about TBI has been 
shown to reduce morbidity following injury, and we are making efforts 
to ensure education is provided during predeployment briefs and at all 
levels of leadership training, from small unit leaders up to senior 
leaders.

    General Amos. Senator, I'll be happy to provide you the 
details, in fact, all the members of the committee, because I 
think it's encouraging. It hasn't solved it. The whole 
recognition of what happens to the brain is certainly not a 
mystery, but it is not clear because it doesn't happen in the 
same way to every single person.
    But there was recognition over 2 years ago, and it was 
really a collaborative effort by myself, or by the U.S. Army 
and the U.S. Marine Corps--so I want to give credit to General 
Chiarelli and the Army--to try to figure out what happens to 
the brain when it's rattled as a result of an IED or some type 
of concussive event, and then what are the net effects.
    The net effects are not necessarily long-range PTS, but it 
could be. But clearly there was a correlation between getting 
your brain hit hard with a concussive event and the requirement 
to let the brain rest. In some cases it's 48 hours, in some 
cases it's a week, maybe 2 weeks. But the very best thing you 
can do to prevent further damage is to put that brain in some 
semblance of rest.
    So that's what we did. We built a concussive protocol, the 
one you're referring to in Afghanistan. Marines, soldiers, 
sailors, when that event happens, they come right back into 
what we call the wire. They're looked at by a corpsman if 
that's all we have there. We have cyber technology that allows 
the doctor at Camp Leatherneck to look in the eye of the 
wounded marine or soldier or sailor. Then we eventually will 
move them to that restoration care center at Camp Leatherneck, 
if required.
    The whole idea now is to just provide them the ability to 
step back, let their brain heal, to prevent further damage. 
Marines are tough. We lie. When a young lance corporal is asked 
by his company gunnie, how do you feel, he says: I'm good to 
go; when in fact, the very best thing the leadership can do is 
say: We're going to stop right here, young devil dog, and we're 
going to let you sit inside the wire for a day or so.
    We believe--it's too soon to tell; we don't have the 
empirical data. But we know in our hearts that this is the 
right thing to do. We'll be happy to provide you more 
information.
    Senator Blumenthal. Thank you very much.
    My time is up, but I would like to thank you for returning 
ROTC to Harvard as you've done and simply offer to be helpful 
anywhere on any campus, certainly in Connecticut, where I can 
be helpful if there's any way that we can restore ROTC anyplace 
where it's lacking now.
    Thank you. Thank you all.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    First, I want to say to you that I am excited about Marine 
Week in St. Louis in June, and I want to thank, commander, your 
decision to come to St. Louis. We will welcome the marines with 
open arms and, since our State has proudly contributed so many 
brave marines over the history of our military, we are thrilled 
to host you for that important event.
    Secretary Mabus, I know that our military is the best in 
the world at combat readiness, but we are really bad at audit 
readiness. I am continuing to be very frustrated with the 
business systems within DOD and the ability for us to get a 
handle on tracking our money and the various services being 
able to be transparent and viewable across systems.
    It is a continuing level of frustration. I do want to 
applaud the Navy and Marine Corps for making some important 
progress on service-level auditability. I know you have been 
working on it, and I know you've identified some net savings by 
improving your financial management processes.
    The program I want to focus in on today is the enterprise 
resource planning. You are slated to spend about a billion 
dollars on that in a supply system called the Global Command 
Support System. The Army is currently fielding a similar system 
called Global Combat Support System-Army. Theirs will cost 
nearly $4 billion.
    Now, I know you share equipment in theater. That is a 
reality of the fight, is the sharing of equipment. But these 
two systems have the same goal, that is tracking supply and 
equipment, but they're not even going to run on the same 
software. The Marines are using Oracle and the Army is running 
on SAP. There's a $3 billion cost differential.
    My understanding is that the two systems as designed are 
not even naturally compatible and that DOD will have to 
continue to pay just to develop interfaces between these two 
systems.
    I get a headache when I think about all the money that we 
have thrown away in the Federal Government on data systems and 
information technology. Now, part of this is unavoidable 
because the technology has developed so quickly that when we've 
tried to develop great big systems, by the time it gets ready 
to be deployed it's already out of date and antiquated.
    Some of it is the nature of the rapid transition we've had 
in this country with technology. But I think particularly 
within the military there is a problem in acknowledging when 
we're throwing bad money after good or when we're setting up 
systems that frankly make no sense in terms of what the 
ultimate goals are.
    Tell me your position on what could be done to make the 
effort at tracking our equipment, at least the ability to track 
it between the two branches of our Services that are sharing 
the same equipment? This is just hard for me to imagine, that 
we're going to continue down this multi-billion dollar road.
    Mr. Mabus. Senator, you and I share a lot of things. One of 
them is I know my first elected jobs and one of yours was as 
State auditor of our respective States. I understand the 
importance not only of auditability, but of these enterprise 
resource systems to track the things we do.
    If you'll also allow me one more moment of personal thing, 
a friend of mine once described my father as someone who threw 
nickels around like they were manhole covers, and I am my 
father's son. I think that we have to be good stewards of the 
taxpayers' money.
    In terms of auditability, what you said, we are making some 
progress on that and we are focused on that. In terms of the 
overall resource, the enterprise resource, that system began 
several years ago to try to get real-time information on things 
like inventory on things like equipment, on things, as it moved 
through the system.
    I'll be very frank. I don't know what the interface issues 
are with the Army. But I will find out, as a result of this. We 
are spending a lot of money to ensure that we can track on a 
real-time basis, not a week later or a month later, what's 
happening to all the assets that the Navy and the Marine Corps 
have.
    We should always look for opportunities, though, to be 
joint, to do things defense-wide.
    Senator McCaskill. As we are making really difficult 
decisions in this government over the next decade and we think 
the hard ones are today and tomorrow and next week, we're going 
to have hard decisions to make for a long time. What would be 
an amazing moment would be for the Army and the Marine Corps to 
sit down, decide whose system is further along, whose system is 
the easiest to be trained on, whose system is going to have the 
least amount of support costs ongoing, and to make a decision 
to use one for both.
    I don't know that it matters whether it's the Marine Corps 
system or the Army system. But it just seems unbelievable to me 
that we are paying for the development of two separate systems 
that don't speak to each other. This would be a moment that we 
could save. Since the Army's is more expensive, I'm hoping that 
yours is the one that could be utilized. This could be a $3 
billion moment, and we're looking for $3 billion moments right 
now.
    This is the kind of thing that I think, until we can 
demonstrate to the American people that we can at least do 
these kinds of savings, I don't think they're going to take us 
seriously on our ability to deal with our long-term debt. So I 
would love to see--and I will be following up with Secretary 
Gates and with Admiral Mullen in terms of seeing how many 
places are there that we could do something like this.
    Now, I know this is hard to do, because you've been working 
on this for a long time, and so has the Army, and there's some 
separateness been going on for several years, and sometimes 
it's not wanting to step in and say, okay, all the money we've 
spent, we're going to abandon that and go forward in a 
different way. But sometimes that's the smartest thing to do.
    General Amos?
    General Amos. Senator, I'm familiar with the GCCS Marine 
Corps software by Oracle. That effort began--let me back up, 
just maybe give you a ray of hope. There is a what we call an 
Army-Marine Corps Board. It's chaired by the three-stars, the 
head of requirements and the comptroller. So it's the budget 
and requirements folks. They meet as required, typically about 
twice a month, and they resolve an awful lot of these issues 
where both Services come up. It can be a helmet, it can be 
something like a service weapon, it can be a piece of 
equipment.
    Now, we all have different--not all our equipment is the 
same, and you know that. But a lot of that compatibility and 
who's going to buy what, what's going to jump on whose program, 
is solved right there at the three-star level. So there is an 
effort that is under way.
    The Joint Requirements Oversight Council (JROC), chaired by 
all the Service Vices and the Vice Chairman, also looks at 
compatibility across the joint force.
    But back to this GCCS, we got halfway through Iraq. We're 
talking about 2006, and the truth of the matter is we had a lot 
of equipment on the ground to satisfy those 35,000 marines and 
sailors. We thought we knew how much we had and we had a 
variety of systems, about 15, that were tracking. We said we 
have to come up with something different. Ergo the birth of the 
requirement from Oracle.
    The system right now, I can't speak to the Army's system, 
but our system is fielding right now in Okinawa and it is 
probably, of all the software efforts we've ever done in the 
Marine Corps and spent a lot of money and been disappointed 
often, this one probably has the greatest hope of all the ones 
we have.
    So let us check with the Army. Let us come back to you with 
a ``here's where we are as two Services.'' We owe you that, 
ma'am.
    [The information referred to follows:]

    The Army and the Marines Corps both used the competitive 
contracting process to select their respective software applications 
based on their specific Service requirements. Although the Army and the 
Marines Corps may share similar logistics requirements, at the highest 
level they differ in terms of: people; process/mission execution; 
technology-interfaces; and data.
    Although at first glance it seems logical and compelling to have 
different Services use the same solution, as the Defense Integrated 
Military Human Resources System taught the Department of Defense, it is 
enormously difficult, expensive, and very high risk. In 2005, the IT 
consulting firm Gartner analyzed this question and concluded it was 
appropriate, cost effective, and logical for the Services to have 
chosen two different solutions. Also, there was never a requirement for 
Global Combat Support System-Marine Corps and Global Combat Support 
System-Army to be interoperable and pass information, so consequently, 
at the present time they don't. However, if such a requirement arose, 
the two systems could be made interoperable through the use of an 
interface.

    Senator McCaskill. I understand that JROC was designed to 
do this, but in other hearings we have had some admissions that 
the culture of JROC had unfortunately too often been, we'll 
give you what you want if you'll give us what I want; that 
there had been some of that, as opposed to, okay, we're going 
to give up what we want and you're going to give up what you 
want and see if we can't do it together.
    I know, because I worked on this in a previous National 
Defense Authorization bill trying to provide maybe some input 
from somewhere other than the branches, because it did appear 
too often that everybody was going along to get along.
    General Amos. Ma'am, having been the Assistant Commandant 
for 27 months and been a member of the JROC, I found it almost 
painful sometimes, how we worked our way through situations. 
But I will also tell you it's more than culture; it's also the 
way we deploy, in other words, the kind of systems we need. The 
software has to support the ability to go aboard ship, to 
deploy expeditionary in places in North Africa, if required. So 
there are some differences. But we owe you an answer, ma'am. I 
understand.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I apologize, Secretary Mabus, Admiral Roughead, and General 
Amos----
    Chairman Levin. Your mike.
    Senator Shaheen. It's on. Is that better?
    Chairman Levin. No. Maybe you better change your seat.
    Senator McCaskill. Change that name tag from Senator 
Manchin.
    Chairman Levin. For your sake, not for his.
    Senator Shaheen. I was assuming it was for my sake, Mr. 
Chairman. [Laughter.]
    --I apologize for missing your testimony. I had to preside 
over the Senate. But I am pleased that you're still here and 
hopefully I won't take too much time.
    I know that Senator Collins earlier today raised the 
question about the backlog of restoration and modernization 
projects at the four public shipyards. It's a major concern to 
Senator Collins, being from Maine, and to me, being from New 
Hampshire, because of the Portsmouth Naval Shipyard. I know 
that a recent GAO report that was requested by Senators Collins 
and Webb made four recommendations to improve the visibility of 
the Navy shipyards restoration and modernization needs and 
quality of life issues.
    I would just hope, Secretary Mabus and all of you, that you 
will take those recommendations very seriously, and look 
forward to working with you to implement those. Specifically, 
as I said, I'm concerned about the Portsmouth Naval Shipyard, 
the fact that no MILCON funds have been allocated to the 
Portsmouth Naval Shipyard by the executive branch in the last 5 
years. So that that means in previous years the shipyard has 
had to rely on congressionally-directed spending, which 
included $39.2 million in fiscal year 2008 and $17.2 million in 
previous proposed fiscal year 2011 spending.
    So given the current spending environment and the 
moratorium that currently exists on congressionally-directed 
spending, or earmarks, how does the Navy intend to support 
critical MILCON investments at Portsmouth and at the other 
public shipyards? Perhaps as part of your answer you could talk 
a little about how you might prioritize those investments and 
support modernization.
    Mr. Mabus. Senator, if it's acceptable to you, I'll let the 
CNO answer this, since he answered Senator Collins, so that we 
can have an absolute continuity of answers.
    Senator Shaheen. Shoot, I was going to see if you could 
answer it the same way. [Laughter.]
    Admiral Roughead. I'm sure he could, Senator.
    The shipyards, particularly our four public shipyards, are 
going to be very critical for us in the future, simply because 
of the amount of nuclear work that we have coming into the 
window. Accordingly, we are looking at what must be done, 
primarily for the safety and security issues, particularly as 
it applies to our nuclear enterprise, and then productivity and 
quality of life.
    Even though we do have the backlog, in point of fact we are 
investing above what has been the congressional level of 
sustainment for the shipyards. But we're always looking at what 
needs to be done for those four areas that I mentioned.
    I would also, being perfectly honest, that as we have 
looked at the level of funding going into the shipyards and as 
circumstances have changed, we're going to have to take a look 
at what the future looks like and how we apportion the MILCON 
money, not just across shipyards, but really across all of the 
facilities that we have.
    But I think the public shipyards are going to be in a very 
good position in the coming years from a workforce standpoint, 
as the Secretary mentioned, being exempt from the hiring 
limitations, but also they're going to be very busy and very 
critical to our future.
    Senator Shaheen. I certainly agree with that and am pleased 
to hear that you're thinking about that. Can I just press you a 
little more on, as you point out, you're going to have to 
prioritize those investments. So have you thought about the 
factors that you'll take into consideration in doing that?
    Admiral Roughead. Yes, ma'am. Clearly, nuclear safety and 
nuclear security are foremost, and that applies to the four 
public yards that we have, and then also the safety of our 
workforce is paramount. So those are the opening arguments for 
me.
    Mr. Mabus. Senator, in terms of setting priorities, the CNO 
mentioned this, there is a civilian hiring freeze at DOD right 
now. Because of the importance of shipyards, we asked for and 
received an exemption for shipyard hiring, so that we can 
continue to maintain our industrial base and the work that the 
shipyards are doing.
    Senator Shaheen. Thank you. I do appreciate that and think 
that was very important. I know that at Portsmouth we've had a 
very competent, productive workforce and we're going to be 
losing many of those folks because many of them are close to 
retirement age. So being able to bring on younger people who 
can start training for those jobs is going to be very important 
to productivity.
    On another issue, Secretary Mabus, I certainly applaud your 
focus on trying to be more energy independent within the 
jurisdiction that you control. I wonder if you could talk a 
little bit more about the kinds of steps that you're taking in 
the Navy to be more energy efficient. It is a critical security 
issue, as you've pointed out, and I think it's important for us 
in Congress and for the public to know that we're moving in a 
direction to make us more energy independent, especially these 
days as we're watching what's happening in the Middle East.
    Mr. Mabus. Thank you, Senator. As you pointed out, you 
don't have to look any further than the headlines to know why 
we need to do this. We've made a lot of progress toward our 
goal, which we're going to reach, of by no later than 2020 at 
least half our energy usage will come from non-fossil fuel 
sources. We've flown the F-18 on biofuels. We've certified our 
helicopters also on biofuels, as well as our Swift boats. We 
are currently working on our large surface combatants in that 
regard.
    We are doing a lot of work on efficiencies. We've launched 
the first hybrid ship. We're looking at putting the electric 
drive that is on that ship on our new builds as well as 
retrofitting some of our DDG-51s.
    On shore, we have vastly expanded our solar capacity. We've 
done stuff like smart meters so that we know where our energy's 
going.
    Finally, I want to particularly brag on the Marine Corps, 
because, like they normally do, they're leaders in this. They 
have established two expeditionary FOBs, experimental FOBs, one 
at Quantico, one at Twentynine Palms, to develop the 
alternative energy that our warfighters need.
    What we import the most into Afghanistan is gasoline. The 
Army did a study that showed that for every 24 convoys of 
gasoline, we lose a soldier or a marine killed or wounded 
guarding that convoy. It also takes marines away from doing 
what they were sent there to do, which is to fight, to engage, 
to rebuild.
    The first unit that took some of these things that 
experimental FOBs designed was 3rd Battalion, 5th Marines, 
which I got to visit right before Christmas in Sangin. Now, 
they're in some of the toughest fighting in Afghanistan right 
now, but even in that fight they have taken solar panels and 
are using them for their command headquarters. They've taken 
these rollable solar panels and stuck them in their packs.
    I was talking to a lieutenant there. A foot patrol now 
saves 700 pounds of batteries that they don't have to take 
because of this. They are reducing dramatically their usage of 
fossil fuels.
    The Commandant has just signed out a requirement, an order, 
that is going to integrate the training on alternative energy 
as part of the routine training that marines get before they 
deploy, so that they'll better be able to use these. But we are 
seeing real advances. We're saving lives, we're using less 
fuel, and we're making marines better fighters just because 
they don't have to lug around so much stuff.
    Senator Shaheen. That's very impressive. Thank you. Perhaps 
you can share some of those technologies with the rest of us in 
government, so that we can be more efficient and more energy 
independent.
    My time is up. Thank you.
    Chairman Levin. Thank you very much, Senator Shaheen.
    I think the figure you used on that point was that that 
unit was saving 90 percent? Is that the right number, of its 
fossil fuel? The fuel used decreased 90 percent with that 
company, I believe.
    Mr. Mabus. That company is saving a lot. It's probably not 
90 percent.
    Chairman Levin. All right.
    Mr. Mabus. But I can get you a very specific number, but 
its energy usage, in some of its combat outposts, it's 100 
percent; they're using nothing but alternative fuels. Overall 
for the unit, it's significant, but I don't think it reaches 90 
percent.
    Chairman Levin. What we will do, following Senator 
Shaheen's suggestion, is to get that experience, if it's not 
already there, to the other, to the Army as well, because we 
have the same issue, goal, with the Army, as Senator Shaheen 
mentioned.
    [The information referred to follows:]

    While deployed to the Sangin Province Afghanistan, India Company 
Third Battalion, Fifth Marines (3/5) operated two patrol bases 
completely on renewable energy, offsetting 100 percent of their 
potential fuel use. Based on reports from Marines in the field it is 
estimated that each patrol base saved 12 gallons per day per location. 
This means that each month these two patrol bases would have offset 
approximately 744 gallons per month (31 days <greek-e> 24 gals) or 
8,928 gallons per year. It is evident that a small savings at a remote 
patrol base has significant impacts over the long term, not to mention 
immediate reduction in risk to our marines moving fuel in a very 
dangerous area.
    In addition to the patrol bases operated by India 3/5, they also 
employed renewable and energy efficient technologies at a company 
location too. At the company location, fuel use was reduced from 25 
gallons per day to 2.5 gallons per day or an initial savings of 90 
percent. Targeting renewable and energy efficient technologies at 
remote outpost immediately reduces the risks to our forces and 
increases our combat effectiveness.

    Chairman Levin. Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses here today, Admiral Roughead, 
Secretary Mabus, and General Amos, for your distinguished 
service to our country. We're deeply grateful for what you're 
doing. I also want to thank you for all of those that serve 
underneath you, for the sacrifices that they and their families 
are making for our country at a time of conflict.
    I wanted to follow up on, Admiral, on the questions that 
were asked by Senator Shaheen. I wanted to join in her comments 
about the Portsmouth Naval Shipyard and the importance of that 
shipyard. I wanted to ask you specifically about the project to 
consolidate structural workshops at Portsmouth Naval Shipyard. 
This project is a very important one because it would 
ultimately save taxpayers' dollars through efficiency measures 
at the shipyard and it would certainly improve efficiency of 
shipyard operations, reduce cost, and duration of submarine 
maintenance.
    Currently, this project is scheduled to be completed in 
fiscal year 2015. But, given the importance of the project to 
naval readiness and taxpayers' savings that I believe that we 
could accomplish with this, given added efficiencies, I think 
this project should be moved up to fiscal year 2012. Admiral, 
does the Navy's fiscal year 2012 budget proposal include this 
project to consolidate structural workshops at the Portsmouth 
Naval Shipyard?
    Admiral Roughead. Senator, right now it is in the program 
for 2015. But it has several segments to it. To your point, if 
we do it by segment it will actually cost us more money. So we 
can consolidate two of the phases and actually save money, and 
we're looking at the ability to do that because we see some 
potential changes taking place in some other MILCON, and my 
staff knows to look at that, to see if there is the potential 
to pull it up into 2012.
    Senator Ayotte. So if we were to consolidate and pull it up 
into 2012, it actually would result in cost savings, rather 
than segmenting the project, as it is right now?
    Admiral Roughead. The way that I see the project, it would 
cost us about another $8 million if we don't do the 
consolidation.
    Senator Ayotte. So I appreciate that you and your staff are 
looking at this. It also seems to me not only important in 
terms of the shipyard, but a way to save taxpayers' dollars to 
achieve efficiencies at the shipyard with the important work 
that they're doing there.
    Admiral Roughead. Yes, ma'am. I'm always looking for 
efficiencies.
    Senator Ayotte. We deeply appreciate that. Obviously, the 
shipyard is very important in the Navy's mission and we 
appreciate your bringing that forward. I'd be happy to work 
with you on that if you need any assistance.
    Admiral Roughead. Thank you, ma'am.
    Senator Ayotte. Secretary Mabus, in your written statement 
you had noted that rising health care costs within the military 
health system continue to present a fiscal challenge to DOD, 
and you've written that DOD's resources devoted to health care 
costs cannot be sustained. According to a recent March GAO 
report, there are tremendous opportunities to reduce potential 
duplication in government programs among the Services in terms 
of looking at military health care costs. I want you to tell me 
what steps you thought were appropriate to take in addressing 
the findings of the GAO report on duplication.
    Mr. Mabus. I think it's important to separate a couple of 
things here. One is Active Duty health care. There have been no 
changes in terms of amounts of money spent or things like that 
recommended for Active Duty servicemembers. There have been 
recommendations in terms of more service-wide efficiencies that 
the GAO report did on that.
    In terms of my comments that the health care costs were 
going up, were aimed mainly at health care costs for retirees 
under the Medicare age, that the Secretary of Defense has made 
some recommendations on. We fully concur in that. That's where 
our costs are going up. That, I think, will become 
unsustainable in the future.
    The Secretary of Defense on a defense-wide basis has 
recommended that the costs for a single person go up $2.50 per 
month, for a family, $5 per month. We're talking about going 
for a family, from $460 a year to $520 a year in terms of 
premiums--a very modest increase. It's still far, far below 
what a Federal employee who is not a military retiree would 
have to pay.
    There are also overhead reductions in this. We do think 
that there can be some savings in overhead in terms of the way 
we deliver our health care costs. But those two major things, 
we think, are necessary to keep us sustainable just in terms of 
how much money we're spending on health care.
    Senator Ayotte. Mr. Secretary, I just wanted to follow up, 
because obviously with respect to our retirees and our veterans 
we also have a solemn duty to make sure that we follow through 
on the promises that we've made to them with respect to health 
care and other promises, given their service to our country. So 
this committee certainly will be looking at those proposals.
    I also wanted to just follow up on the idea of greater 
coordination to eliminate duplication within the system, to try 
to save administrative costs, and what your thoughts are, and 
what some of the issues that were identified in the GAO report 
were, and what measure you thought that we could take among the 
branches and even within the Navy to try to save some 
administrative costs in that area?
    Mr. Mabus. There are clearly some areas that you can save 
some administrative costs. We're looking not only between 
Services, but also between the Services and the Department of 
Veterans Affairs (VA) system, for example. We're going to an 
integrated disability evaluation system so that a servicemember 
who is disabled doesn't have to go through that twice, once for 
the Service, once for the VA. That saves one step. That 
obviously saves some overhead costs.
    Because of the previous Base Realignment and Closure 
Commission, Walter Reed, and Bethesda are being merged into one 
health care center, and we are actively promoting some savings 
in overhead there. We think that, very frankly, there's too 
much overhead in the joining of those two very critical 
military facilities.
    So you and the GAO are correct that there are efficiencies 
that we can find just in terms of administrative overhead. We 
have found some of them based on the efficiencies that 
Secretary Gates asked us to find. But we are continuing that 
look, not only in health care, but across DOD, but specifically 
in health care.
    Senator Ayotte. Thank you very much for your answer.
    My time is up. I wanted to thank all of you for the work 
that you're doing on behalf of our country. I just offer that I 
certainly am willing to work with you on making sure that we 
achieve these efficiencies so that we continue to support our 
soldiers and those who have sacrificed so much for us.
    Chairman Levin. Thank you, Senator Ayotte.
    In your answer to Senator Ayotte, Mr. Secretary, you made 
reference to the budget's proposed increase in the enrollment 
fees for retirees under 65. When was the last time those fees 
were increased, do you know offhand?
    Mr. Mabus. I believe it was 1995, Senator.
    Chairman Levin. I'm wondering if I could ask you, Admiral, 
and you, General, do you support the budget proposal that those 
fees be increased?
    Admiral Roughead. I do, sir. I think it's appropriate. I do 
not believe it is an onerous cost and I'm fully supportive of 
those changes.
    Chairman Levin. General?
    General Amos. Chairman, I absolutely support them.
    Chairman Levin. Let me ask you about the no-fly zone issue. 
Our NATO allies, including U.K., France, and Italy, are looking 
at U.N. resolutions and what the role of NATO might be in any 
no-fly zone. So that my question is the following: Even without 
direct U.S. involvement, do our NATO allies have the capability 
of implementing a no-fly zone over Libya, presumably with the 
support of members of the international community? Do they have 
the capability of dealing with any threat by the Libyan air 
force, such as it is, and by Libyan air defenses, such as they 
are?
    Admiral Roughead. Senator, I think that whatever group 
comes together if, in fact, this were to proceed would have to 
look at the individual capabilities of that country or those 
countries and see what it was. But the NATO air capability is 
significant, sophisticated. I think you have to see what the 
final outcome is.
    Chairman Levin. So that in terms of the specific 
capabilities of those air forces even without our involvement, 
you're not able to say now whether or not they could 
successfully carry out that mission?
    Admiral Roughead. Senator, I think the capabilities reside 
within the NATO air forces. It's who comes together and 
contributes what that would determine the effectiveness of that 
package.
    Chairman Levin. On the question of Guam and Okinawa, you 
mentioned, Mr. Secretary, that there need to be some Japanese 
Government decisions. Do you know whether there are any 
discussions or negotiations scheduled with the Japanese 
Government relative to that issue?
    Mr. Mabus. I know that Secretary Gates in his previous 
discussions earlier this year was very frank with the Japanese 
Government on what those decisions need to be, and I think that 
the Japanese Government understands exactly what actions need 
to be taken before we can begin to take some substantive steps.
    Chairman Levin. Do you know whether there are any scheduled 
negotiations or discussions?
    Mr. Mabus. No, sir, I don't.
    Chairman Levin. That's fair. If there are, would you let us 
know?
    Mr. Mabus. Yes, sir.
    Chairman Levin. Senator Webb mentioned that the two of us 
will be heading out that way in about a month and that we 
should know the status. We'll be briefed, obviously, by you and 
your folks before we go, but on that issue particularly, if 
there's anything scheduled, if you'll let us know.
    [The information referred to follows:]

    In response to the request for notification of negotiations 
scheduled between the United States and Government of Japan, although a 
2+2 (Secretary of Defense, Secretary of State, Minister of Defense, 
Minister of Foreign Affairs) had been tentatively scheduled for April 
29 in Washington, due to the senior level focus of the Government of 
Japan and especially the Ministry of Defense, on managing the response 
to the natural disaster and nuclear crisis, this meeting has been 
postponed. We are seeking acceptable dates for all parties in the near 
future. We do not yet have a firm timetable from the Japanese for the 
landfill permit process, but in our judgment they remain committed to 
the Roadmap, both for the Guam move as well as the Futenma Replacement 
Facility and Okinawa.

    Chairman Levin. Admiral Roughead, you've testified on a 
number of occasions about your support of the United States 
signing onto the U.N. Convention on the Law of the Sea 
(UNCLOS). You reiterate that support in your written statement 
this morning. I think, Mr. Secretary, you've also testified 
before this committee in support of our supporting that treaty 
and acceding to it.
    Is there anything that's happened in the last year that has 
either changed or strengthened either of your positions on 
that? Mr. Secretary, let me start with you.
    Mr. Mabus. It has strengthened my idea that we should 
accede to this treaty, for a couple of reasons. One is, as 
other nations who are signatories try to restrict our freedom 
of navigation, we are less able to push back with as much force 
as we should be able to were we a signatory to this. I think 
that you're only going to see that increase, as it has over the 
past year.
    Second, I've seen firsthand some of the implications of the 
Arctic and the perhaps ice-free Arctic in the next couple of 
decades. The only way we can have a claim to an outer 
continental shelf area that we can explore for minerals, that 
we can use as part of our exclusive economic zone, is if we are 
signatories to the UNCLOS.
    Those two things have strengthened my stand that we very 
much need to be signatories.
    Chairman Levin. Admiral?
    Admiral Roughead. I would echo those statements, Senator. I 
think we are letting an opportunity and time pass us by. On top 
of those two, where the claims in the Pacific in particular 
have the potential to become more contentious. The opening of 
the Arctic, where resolution of claims and disagreements will 
be done through UNCLOS, we will not be there.
    On top of that, I would submit that our international 
leadership to those countries that view the seas the same way 
that we do, that as they come together to address these issues 
we are not there, and they look to us for that leadership and 
we are abrogating that leadership.
    Chairman Levin. Thank you.
    Mr. Secretary, I indicated to you that there was a couple 
of questions on that second engine that I asked you to respond 
to for the record. In addition to those two questions, let me 
add a third and a fourth just for the record, if you would. One 
would be how much development money has gone into the first 
engine and what is the $400 million, I believe, additional 
request for the Pratt engine development due to the business 
case, and how much total has gone into that engine in terms of 
development costs.
    Finally, I have a long question which I'll get to you both, 
both you, Mr. Secretary, and you, Admiral, about this issue of 
special support requirements if there is a second engine. It's 
a lengthy question raising issues with your responses. I think 
also you, General, responded on that as well. So I would ask 
all three of you to take a look at that question that I will 
get to you, and then you can submit your answer for the record.
    [The information referred to follows:]

    Mr. Mabus, Admiral Roughead, and General Amos. The F135 and F136 
engines constitute two different designs by two different 
manufacturers. The large size of the F135 and F136 (approximately 18.7 
feet and weighs 9,300 lbs in its container) necessitates greater 
sparing aboard ships as neither the assembled engine nor the power 
section module can currently be replenished underway. Similarly, due to 
the weight and height of critical engine spares, it is not feasible to 
store all Joint Strike Fighter (JSF) engine spares in legacy store 
rooms or stack them aboard ships as is done for the legacy system. This 
would necessitate work-around in hangar deck spaces normally reserved 
to store and maintain tactical aircraft. Adding an alternate engine 
makes the shipboard logistics even more challenging as it is not a one-
for-one exchange.
    While the F136 engine would be interchangeable, there are several 
engine components that are not interchangeable. The fan, gear box, and 
power section modules are unique by F135 and F136 propulsion systems. 
Only the augmenter and exhaust nozzle modules are common by F-35 
variant. Supporting two engines would require unique spares, unique 
support equipment, and unique training. The JSF specification only 
requires engines to perform to specified criteria and physically fit 
into the F-35. Maintenance/repair technical requirements are different, 
requiring different instructions and training with differences in 
assembly hardware and special tools for off-aircraft repair.
    [Deleted.]

    Chairman Levin. I must leave. Senator Ayotte, you're more 
than welcome to take the gavel and conclude if you have 
additional questions, if that's all right. I'll hand it to you 
on the way out.
    Thank you all. All three of you have performed 
extraordinary service for this country. Admiral, since this is 
probably your last appearance here, I just want to reinforce 
what my colleagues have said about you and that service. We 
just wish you well if we don't see you again.
    Admiral Roughead. Thank you, Senator. It's been my honor.
    Chairman Levin. Mr. Secretary, thank you, and General, 
thank you both.
    Senator Ayotte [presiding]. I just have a couple of brief 
questions and then I will wrap this up for sure. I appreciate 
your patience.
    Admiral Roughead, I wanted to ask you about the maintenance 
portion of the budget. Secretary Gates said on March 4 that a 
lot of our surface ships that were built in the Reagan era will 
be aging out in coming years pretty quickly. In your written 
testimony you've echoed this concern, saying: ``Many of our 
existing cruisers, destroyers, and submarines will reach the 
end of their service life.''
    I notice in the budget proposal for fiscal year 2012 you've 
funded ship depot maintenance at 94 percent, and wanted to hear 
from you if you could provide some examples of what type of 
maintenance would not be accomplished at that level versus 100 
percent maintenance level, understanding that in order for us 
to preserve our fleet we are probably going to have to be doing 
additional maintenance, given the aging of the fleet.
    Admiral Roughead. Yes, ma'am. Thank you. We are spending 
much more on maintenance now than we did just a couple of years 
ago. So with the support of Congress, we've been able to boost 
that up.
    As we got into putting the final touches on the budget, 
because we have done that little bit of a boost-up and we 
looked at ship availabilities, maintenance periods, and the 
ones that are not included in there are not the complex types 
of work. They tend to be smaller availabilities. Clearly they 
don't include any nuclear work, nor do they include any of the 
work that's done in the public shipyards. These are all 
availabilities in the private sector, relatively small, and I 
believe that where we have been--some of the changes that we're 
putting into place with regard to putting more sailors on ships 
and in maintenance centers, that I consider this a reasonable 
approach to take.
    Senator Ayotte. Thank you very much, Admiral.
    General Amos, I had a question about our detention policy. 
I had the privilege of going over to visit some of your 
soldiers in January. I also want to say the work being done by 
the Marines is just tremendous and so wanted to commend you for 
your leadership and also just thank the soldiers that serve 
underneath you.
    If tomorrow we were able to capture the number two in al 
Qaeda in the Arabian Peninsula, that was actually formerly a 
detainee at Guantanamo--I believe his name is Saeed al-Shehri--
where would we put him?
    General Amos. Senator, that's way above my pay grade. I 
wouldn't know where we would put him. Truly, the truth of the 
matter is that that would be resolved at a level with much 
discussion. In fact, I doubt if the Commandant of the Marine 
Corps would even be part of that discussion. It would be at the 
very highest levels of our government.
    Senator Ayotte. One of the concerns that I have is that 
I've heard testimony now from Secretary Gates as well as 
Secretary Vickers that because we're in a position where the 
President wants to close Guantanamo, there is no detention 
facility to put that type of high-value target that we have 
under our control. Are you aware of a facility we would have 
under our control that would be appropriate and not located in 
the United States, to be able to not only interrogate that 
individual, but make sure that he doesn't again rejoin the 
battlefield?
    General Amos. Ma'am, I am not aware of another facility.
    Senator Ayotte. Thank you very much. I appreciate all of 
you being here and I'm sure you're all anxious for lunch, so I 
will conclude this hearing. I thank you all for your service to 
our country. This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

       IMPLEMENTATION OF THE REPEAL OF ``DON'T ASK, DON'T TELL''

    1. Senator Levin. Secretary Mabus, last December, Admiral Roughead 
testified that, ``with the exception of the moderate risk associated 
with projected retention in some Navy irregular warfare specialties, I 
assess the risk to readiness, effectiveness, and cohesion of the Navy 
to be low. Based on my professional judgment and informed by the inputs 
from our Navy, I recommend repeal of 10 U.S.C. section 654.'' General 
Amos testified: ``based on what I know about the very tough fight in 
Afghanistan, the almost singular focus of our combat forces as they 
train up and deploy to theater, the necessary tightly woven culture of 
those combat forces that we are asking so much of at this time, and 
finally the direct feedback from the survey, my recommendation is that 
we should not implement repeal at this time.'' Since that hearing, the 
Department of Defense (DOD) and the Navy have been working on policy 
changes and developing training plans needed to implement the repeal. 
What are your observations of how Navy personnel are dealing with 
possible repeal of Don't Ask, Don't Tell (DADT)?
    Mr. Mabus. Our Master Mobile Training Teams and command leadership 
teams continue to provide regular reports capturing the ``tone of the 
force'' during this training period. Feedback from our sailors 
indicates the training they are receiving is comprehensive, well-
delivered, and effective. Additionally, we have not observed any 
impacts to readiness, effectiveness, cohesion, recruiting, or 
retention.

    2. Senator Levin. Admiral Roughead and General Amos, what are your 
current assessments of the risk to readiness, effectiveness, and 
cohesion in the Navy and Marine Corps if DADT is repealed?
    Admiral Roughead. I assess the risk to readiness, effectiveness, 
and cohesion in the Navy to be low and acceptable. According to the 
results of the Comprehensive Review Working Group servicemember survey, 
approximately 76 percent of sailors believe the impacts on 
effectiveness, readiness, unit cohesion, and morale will be neutral or 
positive. There is approximately 24 percent who believe the impact of 
repeal will be negative. I am mindful of the concerns expressed by 
these individuals. However, I believe their concerns can be effectively 
mitigated through engaged leadership, effective communications, 
training and education, and clear and concise standards of conduct. 
Since we have begun training, our commanders have reported no impacts 
to readiness, effectiveness, or cohesion. I have the utmost confidence 
in the ability of the men and women of the U.S. Navy to implement this 
change in the law while setting a positive tone, creating an inclusive 
and respectful work environment, and maintaining high standards of 
conduct, mutual respect, and military decorum.
    General Amos. I currently believe the risk is low to moderate. 
However, we will not know the actual impact of repeal until it is 
effected. During the current training phase, we have not observed 
significant anxiety or push-back from our marines. I am confident that 
Marine leaders at all levels will ensure our Corps understands the 
impending change and will ensure that marines treat each other with 
dignity and respect, thereby mitigating any impact on readiness, 
effectiveness, and unit cohesion.

    3. Senator Levin. Admiral Roughead and General Amos, please 
describe the status of training and education of sailors and marines 
regarding the repeal of DADT.
    Admiral Roughead. Navy is on track to meet our training completion 
goal of 1 July 2011 for all naval personnel. Commander, U.S. Fleet 
Forces has been appointed the Executive Agent for delivery and tracking 
of DADT training. Master Mobile Training Teams have been deployed to 
our Fleet worldwide to deliver training to our command leadership teams 
(commanding officer, executive officer, command master chief). These 
individuals will be responsible in turn to conduct the training for all 
personnel within their command. To date, more than 90 percent of our 
command leadership personnel (Tier 2) have been trained and are 
conducting training Navy-wide for all remaining personnel (Tier 3). 
Specific training for recruiters, military law enforcement, chaplains, 
legal, Fleet and Family Support Centers, personnel support 
professionals, housing, senior human resource personnel, equal 
opportunity, and Naval Criminal Investigative Service (NCIS) personnel 
(Tier 1) has been commenced and will be completed by the 1 July 2011 
deadline.
    General Amos. The Marine Corps is complete with Tier 1 (special 
staff) and Tier 2 (leadership) training. As of 30 June 2011, Tier 3 
(Marines) training is 95 percent complete. Our primary method of 
instruction is face-to-face where leaders are able to interact with 
their marines, provide information and then have a frank and open 
discussion about any questions or concerns they may have.

    4. Senator Levin. Admiral Roughead and General Amos, have you 
discovered any unanticipated issues as you initiated the training? If 
so, how are you addressing these issues?
    Admiral Roughead. Navy has not experienced any unanticipated issues 
during the training process. Feedback from our sailors indicates the 
training they are receiving is comprehensive, well-delivered, and 
effective. Additionally, we have not observed any impacts to readiness, 
effectiveness, cohesion, recruiting, or retention during the training 
period.
    General Amos. We have not observed any significant unanticipated 
issues during training. The framework for the training is very 
comprehensive and anticipates many common questions and concerns.

              SEXUAL ASSAULTS IN THE NAVY AND MARINE CORPS

    5. Senator Levin. Secretary Mabus, 17 current and former service 
men and women recently filed a lawsuit in Federal Court alleging that 
DOD ``failed to prevent plaintiffs and others from being raped and 
sexually assaulted.'' Four of the plaintiffs were from the Navy and two 
from the Marine Corps. Among other things, the plaintiffs allege that 
DOD failed to investigate rapes and sexual assaults and failed to 
prosecute the perpetrators. Some reports suggest that up to one-third 
of the women serving in the military are victims of sexual assault. 
What is your assessment of the Navy's Sexual Assault Prevention and 
Response (SAPR) program?
    Mr. Mabus. Nothing has a more corrosive effect on readiness, good 
order, and discipline than sexual assault. We seek nothing less than a 
culture of gender respect where sexual assault is completely eliminated 
and never tolerated. The ``Navy Sexual Assault Prevention Summit'' 
brought together senior military and civilian Navy leaders to interact 
with recognized experts in the field. I established a new Navy Sexual 
Assault Prevention and Response Office (DON-SAPRO), led by a Senior 
Executive Service civilian who reports directly to me. DON-SAPRO is my 
primary agent for developing Secretariat-level policy and for 
monitoring, coordinating, and assessing the Navy-wide efforts to 
prevent sexual assaults.
    The Department of the Navy and its two military Services--the U.S. 
Navy and the U.S. Marine Corps continue our commitment to reduce the 
incidence of sexual assault, provide compassionate support to sexual 
assault survivors, and focus on prevention. Senior department 
leadership provide a consistent top-down leadership message, 
underscored by their actions that sexual assault is incompatible with 
our core values. Examples of the many initiatives taken by the Navy in 
fiscal year 2010 include:

        <bullet> ``Bystander Intervention'' pilot programs at four 
        locations--educated sailors and marines on recognizing and 
        interrupting risky situations. Further implementation is 
        planned for fiscal year 2011.
        <bullet> Engaged a nationally-recognized civilian expert to 
        advise departmental efforts on sexual assault prevention and to 
        help update sexual assault training curricula.
        <bullet> Expanded training for military investigators and 
        prosecutors and sponsored ``Sexual Assault Investigation and 
        Prosecution'' mobile training teams.
        <bullet> The Marine Corps has revised its training curriculum 
        for Noncommissioned Officers (NCOs), Sexual Assault Response 
        Coordinators (SARCs), and Victim Advocates (UVAs/VAs).

    6. Senator Levin. Secretary Mabus, have you made any changes in the 
Navy to improve accountability for Navy personnel who commit sexual 
assaults?
    Mr. Mabus. Sexual assaults are crimes that devastate victims, 
undermine teamwork, threaten unit cohesiveness, and ultimately reduce 
fleet readiness. Navy has a ``zero tolerance'' sexual assault policy. 
Expectations of senior leadership for SAPR are outlined in policy and 
in Naval and Marine administrative messages sent worldwide.
    Navy Judge Advocate General (JAG), Marine Corps Judge Advocate 
Division, and NCIS partnered to review cases, analyze characteristics 
of typical cases, and develop best practices for investigation, 
evaluation, and prosecution of sexual assault cases. Trends were 
evaluated to determine the type of training necessary to improve the 
quality of investigation and prosecution of sexual assault cases. This 
training was then delivered using mobile training teams throughout the 
Navy and Marine Corps.
    Specific Department and Service-level initiatives:

        <bullet> Hired two Sexual Assault Litigation Specialists 
        (nationally recognized experts)
        <bullet> Developed new courses: Prosecuting Alcohol-Facilitated 
        Sexual Assault; Sexual Assault Litigation and Mentoring Skills; 
        and Trial Advocacy taught by AEquitas
        <bullet> Navy JAG Corps implemented the Military Justice 
        Litigation Career Track
        <bullet> Marine Corps Trial Counsel Assistance Program 
        implemented
        <bullet> Judge Advocate Division conducted Marine Corps-wide 
        Victim Witness Assistance Program (VWAP) training
        <bullet> Ensured sexual assault and VWAP were addressed in all 
        leadership training venues
        <bullet> Developed joint-service DVD on sexual assault 
        prosecution
        <bullet> Expanded NCIS training for Family and Sexual Violence 
        Special Agents
        <bullet> DON Sexual Assault Advisory Council established in 
        policy requiring senior leadership participation from all key 
        SAPR stakeholders
        <bullet> Ongoing SAPRO team site visits and fleet-wide SAPR 
        Workshops (CONUS and OCONUS) focus on leadership and command 
        responsibility for SAPR
        <bullet> SAPR definitions and reporting requirements were added 
        on Navy advancement exams
        <bullet> DON Sexual Assault Prevention Summit scheduled for May 
        2011 with DON senior leadership, Regional and Installation 
        Commanders, and senior enlisted leadership will focus on 
        prevention and management of sexual assault cases

    7. Senator Levin. Admiral Roughead and General Amos, what measures 
have you taken as service chiefs to provide a safe environment for 
sailors and marines so that they do not have to fear being sexually 
assaulted by fellow servicemembers?
    Admiral Roughead. Navy continues to maintain a zero tolerance 
policy toward sexual assault. My goal is to eliminate sexual assault by 
fostering a culture of prevention which includes effective education 
and training, a 24/7 response capability to ensure victim support, 
reporting procedures available worldwide, and accountability that 
enhances the safety and well being of all. As CNO, I have implemented 
the following measures:

        <bullet> Increased oversight. In September 2009, I appointed 
        Deputy Chief of Naval Operations, Manpower Personnel Training 
        and Education (N1) as the Executive Agent (EA) for the Navy 
        SAPR program to provide high level oversight and assessment 
        through regularly scheduled program reviews in which key 
        stakeholders provide inputs on critical SAPR measures of 
        performance and are briefed on the program's effectiveness. To 
        ensure accountability down to the local level, Navy implemented 
        Sexual Assault Coordinating Committees in fiscal year 2010. 
        These organizations provide local oversight of the SAPR program 
        at each installation.
        <bullet> Policy update. Navy's SAPR policy has been revised and 
        will be released in the near future. The revision has been 
        issued to improve servicemember confidence in the Navy's SAPR 
        program and to improve the rate and level of victim 
        participation in the legal process. The revision has two 
        significant changes that enhance guidance and factors for 
        commanders to consider about the collateral misconduct of 
        victims of sexual assault and increases the required 
        information dissemination throughout the chain of command 
        following a sexual assault and through the legal resolution.
        <bullet> Raising Awareness and Enhanced Training. Navy has 
        engaged with other governmental agencies and internal agencies 
        to raise sexual assault awareness, increase victim and 
        servicemember confidence, promote Bystander Intervention (BI), 
        and ultimately reduce the occurrence of sexual assaults. Navy 
        has also incorporated SAPR into training curricula at all 
        levels, beginning at the accession points for officers and 
        enlisted. It then is reinforced through our specialty school 
        curriculum and our leadership school curriculums. The Navy 
        hired a highly-qualified expert who adds critical expertise to 
        the development of the overall Navy Prevention strategy with 
        the intent of identifying gaps across the continuum of 
        training, prevention, and response initiatives.
        <bullet> Synchronized messages. Navy develops and delivers 
        consistent and concise messages through social marketing media 
        channels, Navy Administrative Messages and Sexual Assault 
        Awareness Month events. Messaging is also coordinated with the 
        Navy Safety Center to focus on the link between alcohol misuse 
        and sexual assault.
        <bullet> Bystander Intervention. Navy is completing analysis of 
        a 9-month bystander intervention pilot program which was 
        focused on the elimination of sexual assault incidents. This 
        program leveraged peer-to-peer training using real life 
        scenarios. Evaluation of a fleet-wide roll out will be included 
        in the analysis.
        <bullet> Victim Support. Navy provides 24/7 response for sexual 
        assault victims through trained Victim Advocates (VA) and 
        Sexual Assault Response Coordinators. Navy is also fully 
        engaged in the roll out of the Office of the Secretary of 
        Defense (OSD) sponsored Safe Helpline, a resource which 
        provides expert support to military victims of sexual assault 
        via telephone, text, or chat.

    General Amos. The Marine Corps has taken aggressive actions to 
heighten awareness about sexual assault and make prevention a 
leadership issue. Commanders are responsible for creating a safe 
environment and a climate of respect for all marines. We have also 
taken measures to highlight the Sexual Assault Prevention Response 
Program by partnering with industry experts, promoting a strong 
prevention campaign, implementing a 24/7 Helpline to support victims of 
sexual assault, and increasing visibility of this issue in the field. 
We are also utilizing Bystander Intervention as a training tool to 
create an understanding that every marine has an inherent duty to be 
actively engaged in preventing sexual assaults.

                      SUPPORT FOR WOUNDED WARRIORS

    8. Senator Levin. Secretary Mabus, wounded sailors and marines 
deserve the highest priority for support services, healing and 
recuperation, rehabilitation, evaluation for return to duty, successful 
transition from Active Duty, if required, and continuing support beyond 
retirement or discharge. In your view, what are the most critical 
shortcomings in our providing care for our wounded warriors?
    Mr. Mabus. Recognizing and appreciating the sacrifices of wounded, 
ill, and injured (WII) servicemembers and their families remain a 
priority of the Navy. Through the Bureau of Medicine and Surgery's WII 
Warrior Support, the Navy Safe Harbor Program, and the Marine Corps 
Wounded Warrior Regiment, we take care of our own by serving WII 
sailors and marines who are in Active Duty, Reserve, and veteran 
status.
    The past 2 years, I have designated November as our Warrior Care 
Month. Last year, our theme was ``Focusing on Abilities--Supporting 
Wounded Warriors throughout Recovery, Rehabilitation, and 
Reintegration.''
    Since 2001, we have had over 12,000 marines and sailors wounded in 
action in Operation Iraqi Freedom (OIF), Operation Enduring Freedom 
(OEF), and Operation New Dawn (OND). Historic advances in military 
medicine have resulted in personnel surviving injuries that would have 
been fatal in any previous conflict. That is good news. Our leading 
military treatment facilities (MTF) are helping them recover and 
rehabilitate.
    It is said that critical to reintegration is finding a fulfilling 
career. But for some of our returning brothers and sisters in arms, 
reintegration to the workforce in the face of the current economic 
downturn poses a significant challenge. In addition to weeks, months, 
or years of recovery, our wounded sailors and marines face the 
potential travesty of unemployment. Over 140,000 veterans of OIF and 
OEF are unemployed, or underemployed, with approximately 5,000 WII 
servicemembers joining the unemployment rolls every year--that is 4 new 
WII servicemembers every day.
    Building resumes, getting the training and education required, and 
finding a civilian career remain a challenge for our wounded warriors, 
despite many initiatives across government and the service branches to 
support returning personnel. We need to better coordinate the 
employment effort. At the Navy, we are making progress in this area. We 
are streamlining the Navy's wounded warrior hiring process and 
expanding our Wounded Warrior Training and Education programs. We have 
established a Wounded Warrior Hiring and Support Initiative tasked to 
develop solutions to improve wounded warrior hiring and support within 
the Navy. The initiative aims to increase the number of wounded 
warriors hired into the Navy, the Federal Civil Service, and the 
private sector. But there is more to be done. We need to ensure that we 
are continually working with our sister Services, the OSD, the 
Department of Veteran Affairs (VA), Department of Labor, Office of 
Personnel Management, other Federal Government agencies, and non-
federal entities in this effort.
    Our Wounded Warrior Training Programs have become a best practice 
across DOD. Our Veterans Individual Training Assistant Link is a 
special program to help wounded, severely ill, and injured marines and 
sailors, and other servicemembers while recovering in the MTFs to 
transition from a military career into the Federal Civil Service or 
other opportunities. While still receiving treatment in our MTFs, 
wounded, severely ill, and injured marines and sailors, and other 
servicemembers receive educational and employment counseling, are 
encouraged to enroll in schooling and, where practical, provided pre-
employment job experience in a field that interests them. Our Career 
Learning and Employment Centers provide education and on-the-job 
training for disabled veterans. They also provide career assistance and 
other veteran support to assist the veteran to achieve their career 
goals. Through these effective training programs, Naval Sea Systems 
Command hired 282 wounded warriors and disabled veterans in fiscal year 
2010 with a goal of 365 in fiscal year 2011. the Navy hired 1,905 
wounded warriors and disabled veterans (30 percent and above disability 
rating) in fiscal year 2010.
    While it is the WII marine or sailor who physically endures 
recovery, rehabilitation, and reintegration, it is the family unit that 
serves as a critical support system for healing. To this end, families 
make many sacrifices. Oftentimes, it is the spouse of a recovering 
sailor or marine who is the breadwinner of the family. We have made 
progress in this area too. We are working with the Office of Personnel 
Management to remove the 2-year eligibility limitation for non-
competitive appointment for spouses of certain deceased or 100 percent 
disabled veterans. This will help the wounded warrior families whose 
wounded family member is not able to return to full-time employment. 
Last year, President Obama signed the Caregivers and Veterans Omnibus 
Health Services Act that ensures that families of veterans severely 
wounded in Iraq and Afghanistan receive comprehensive, coordinated 
financial and other support that will enable them to provide these 
warriors with needed home-care. The Navy supports this and is standing 
by to ensure appropriate support for caregivers, to include special 
compensation for those caregivers who face financial hardships as a 
result of caring for their catastrophically injured sailor or marine, 
is received.
    By definition, post-traumatic stress disorder (PTSD) does not start 
until 30 days after the occurrence of the trauma and the onset may be 
delayed from weeks to years after the trauma. Many servicemembers may 
not experience the onset of PTSD symptoms until they have separated 
from the Service and are under the care of the VA. Because of this wide 
variability, calculation of an average time to onset is impractical. 
The Navy and the Marine Corps solution to this issue is a robust 
program for prevention, early detection, and treatment which makes 
every effort to remove the stigma and other barriers to servicemembers 
receiving care at the earliest possible time. The Navy and Marine Corps 
continue to search for ways to eliminate the stigma and help sailors 
and marines understand that asking for help is ``OK.'' We also need to 
ensure that employers of wounded warriors and their staff are educated 
on PTSD and Traumatic Brain Injury so they can better support our 
wounded warriors and succeed in the workplace.

    9. Senator Levin. Secretary Mabus, numerous studies document the 
need to reform DOD's disability evaluation system. The recently adopted 
Integrated Disability Evaluation System (IDES) has improved the system 
by integrating DOD and VA systems, but it still takes nearly a year to 
process through the system. What is your assessment of IDES?
    Mr. Mabus. The IDES process is achieving the primary goals that 
were intended when this process was designed in 2007. Most notable of 
these goals is that our sailors and marines receive both their post-
service military and VA benefits on the first day authorized by law. 
This eliminates the ``benefits gap'' experienced under the previous DES 
system. To achieve this significant benefit, the IDES process has the 
secondary impact of keeping our servicemembers in uniform for a longer 
period of time. This is a concern because the length of time needed to 
process cases has direct proportional adverse impact on the Services' 
readiness for their military mission. Those in the IDES remain in 
uniform longer which, for any given end-strength, reduces the number of 
Active Duty available for unrestricted assignment. Therefore, the 
principle focus must be on reducing the amount of time consumed by the 
process itself without debasing what we do for our WII servicemembers.
    The simplest and most direct means of monitoring the IDES process 
is through the observation of case flow--the time servicemembers' cases 
spend transiting the IDES' waypoints. Tracking and evaluating process 
time brings clarity for resourcing decisions and process improvements. 
To this end, based on a review of data from IDES operations over the 
past 6 months (period ending March 31, 2011), we would like to reduce 
the average time taken by the Medical Evaluation Board (MEB) Phase of 
the IDES by approximately 100 days. However, since some of the 
processing events occurring within this phase are controlled by the 
MTFs and some are controlled by the VA, reducing the average MEB Phase 
time requires both departments to ensure resources and internal 
processes are aligned to support timeliness goal.

    10. Senator Levin. Secretary Mabus, how can we make this system 
better to support the needs of our wounded warriors?
    Mr. Mabus. As previously discussed in the response to question #9, 
the principle focus must be on reducing the amount of time consumed by 
the process itself without debasing what we do for our WII 
servicemembers. To significantly reduce the overall processing time, 
the Navy has recommended specific changes to ``remodel'' the IDES. This 
IDES remodel allows us to keep what is good about the current IDES 
process while making needed improvements and renovations. The 
recommended IDES remodel can be implemented under current laws, avoids 
any post-service benefit gap, maintains the servicemembers' due process 
rights, and can be completed in less than half the time required by the 
current IDES process. This remodel is currently under review by both 
DOD and the VA for possible near-term implementation. By seizing 
process design change opportunities, properly resourcing the processes 
we decide to deploy, and better leveraging existing capabilities, both 
the WII servicemember and readiness for our military mission will 
benefit.

                       FORCE SHAPING AUTHORITIES

    11. Senator Levin. Admiral Roughead, in your prepared statement, 
you said that: ``We will be challenged to meet our Active and Reserve 
end strength targets in fiscal year 2012 using existing force shaping 
measures. As a result of continued high retention and low attrition 
across the force, we are facing increasing pressure to use involuntary 
force shaping measures to remain within our authorized end strength.'' 
What additional force shaping authorities will you need to shape a Navy 
with the right sailors with the skills and experience the Navy needs?
    Admiral Roughead. While the Navy will be challenged in meeting 
Active and Reserve congressional end strength limits for fiscal year 
2012, existing voluntary and involuntary force-shaping authorities are 
sufficient for this fiscal year. Navy will continue to monitor those 
levers against end strength. Should additional authorities be required, 
we will consult with Congress and utilize the legislative process as we 
develop any necessary authority changes.

    12. Senator Levin. Admiral Roughead, do you plan to ask Congress 
for this authority?
    Admiral Roughead. While the Navy will be challenged in meeting 
Active and Reserve congressional end strength limits for fiscal year 
2012, existing voluntary and involuntary force-shaping authorities are 
sufficient for this fiscal year. Navy will continue to monitor those 
levers against end strength. Should additional authorities be required, 
we will consult with Congress and utilize the legislative process as we 
develop any necessary authority changes.

    13. Senator Levin. General Amos, you state that you are 
``determined to `keep faith' with [your] marines and their families by 
designing and executing a responsible drawdown from [your] current 
202,100 end strength such that [you] avoid reduction-in-force actions 
and early retirement boards.'' How do you plan to reduce the Active 
Duty Marine Corps end strength from 202,100 to 186,800, a reduction of 
15,300 marines, without using involuntary measures?
    General Amos. If the Marine Corps receives the authorities to draw-
down over a 4-year period, normal manpower force shaping levers of 
reduced accession and reduced first term retention will provide the 
primary reduction methods. Additional shaping measures, such as 
adjusting high tenure policies, may be required to achieve proper grade 
and occupational specialty distribution as well as end strength 
targets. If used, these slight modifications to manpower policies will 
still provide every marine a competitive opportunity to continue 
serving.

    14. Senator Levin. General Amos, will you need additional 
legislative authority from Congress to do this?
    General Amos. We believe that given the proper time (i.e. 4 years), 
the Marine Corps will not need any additional authorities. However, we 
may require an extension of current and expired authorities relative to 
end strength to cover the period of the planned draw-down (i.e. fiscal 
year 2015-fiscal year 2018).

                         SERVICEMEMBER SUICIDE

    15. Senator Levin. General Amos, Congress remains extremely 
concerned, as I know you do, about the rates of servicemember suicide. 
While the numbers of suicides in 2010 among Navy and Marine Corps 
members appear to have decreased compared to 2009, February saw a spike 
in Navy suicides, so we must continue to focus on suicide prevention 
and resiliency programs. To what do you attribute the decrease in 
marine suicides?
    General Amos. Marine Corps leaders at all levels are fostering 
individual and unit resilience, and creating an environment that 
encourages marines to engage supporting resources before stress mounts 
to the risk of suicide. As they traditionally do, our NCOs have led the 
way by first undergoing our prevention and awareness training and then 
administering it to their junior marines. To assist them we included 
marines of every rank in the development and testing of our prevention 
courses. As a result, marines are better receiving the message that 
asking for help is a sign of strength and that getting help early can 
improve their careers and the readiness of the Corps overall. This 
effort also aims to reduce the traditional stigma to seeking mental 
health care.
    We continue to enhance our Operational Stress Control and Readiness 
Program, which embeds behavioral health providers in deployment and 
garrison unit settings, optimizing their proximity to and trust with 
marines. We train these providers and their support teams. 
Additionally, we recently began training 40-50 marines per deploying 
unit to recognize signs of stress and assist fellow marines in getting 
help when needed. The relationship between individual marines is a 
powerful tool in the effort to prevent suicide.
    Amidst these positive trends and developments, we are mindful that 
we have not ultimately solved the suicide problem. As such we will 
continue to learn, adapt and do whatever is necessary to combat this 
tragic and preventable loss of life.

    16. Senator Levin. Secretary Mabus and Admiral Roughead, how is the 
Navy addressing the recent rise in suicides that you saw last month?
    Mr. Mabus and Admiral Roughead. Current Navy suicide prevention 
initiatives include training aimed at front line supervisors to boost 
understanding of sailors under their command, recognize changes in 
their behavior and signs of concern, and engaging early with 
appropriate support when necessary. Leadership seminars focus leader 
attention during times of transition and stress due to loss, including 
loss of status or career standing, and address the concept of 
continuously building and reinforcing connections with families to 
facilitate communication in times of need. Recognizing that people 
exposed to suicide are an at-risk group, expanded postvention training 
and guidance has recently been added to assist leaders, in the 
aftermath of a tragedy, in preventing future suicides. Other specific 
actions include:

        <bullet> Expanded surveillance and analysis of Navy Active Duty 
        and selected Reserve suicide deaths and attempts.
        <bullet> Support of command prevention and stress management 
        programs with printed resource and innovative interactive 
        training materials.
        <bullet> Suicide prevention coordinator and first responder 
        training worldwide and at Navy Reserve locations via Navy 
        Reserve psychological health outreach teams.
        <bullet> Navy representation in support of DOD, VA, and other 
        cooperative efforts.
        <bullet> Assistance with development of DOD response to 
        recommendations from the DOD task force report on prevention of 
        suicide among members of the Armed Forces.

    Additionally, due to the recent rise in suicides, we are 
intensifying suicide prevention communication efforts and assessing our 
current program to ensure we are executing it to the fullest, while 
incorporating recommendations and feedback from the DOD suicide 
prevention task force report, the RAND report and the recent DOD/VA 
suicide prevention conference.

             IMPACT OF DEPLOYMENT OF MISSILE DEFENSE SHIPS

    17. Senator Levin. Secretary Mabus and Admiral Roughead, in the 
last few days, the United States deployed the USS Monterey, an Aegis 
ballistic missile defense (BMD) cruiser to the Mediterranean Sea as 
part of Phase 1 of the Phased Adaptive Approach (PAA) to missile 
defense in Europe. There will be additional deployments of improved 
Aegis BMD capability with each successive phase of the European PAA. 
How does the Navy plan to manage these deployments so it is able to 
accomplish all its assigned missions, including--but not limited to--
missile defense?
    Mr. Mabus. DOD employs a comprehensive Global Force Management 
(GFM) process to allocate available assets, including BMD-capable Aegis 
ships, to meet Geographic Combatant Commanders (GCC) requirements, such 
as the European PAA. This process considers the GCC surface combatant 
requirements for all mission areas not just BMD.
    A key attribute of all Aegis ships is their multi-mission 
capabilities within the maritime domain, which allows the Navy to 
employ Aegis ships in multi-mission roles rather than for exclusive 
missions. These ships can perform a variety of other non-BMD missions 
such as strike warfare, air warfare, submarine warfare, surface 
warfare, information warfare, high value asset protection, or maritime 
interdiction either concurrently or sequentially as the GCC requires.
    The Navy is not large enough to deploy ships for single mission 
purposes, and thus, with the exception of deterrent patrols by SSBNs, 
does not advocate deploying warships for single mission tasking. Single 
mission use of our Aegis ships for BMD will result in shortages in 
other mission areas and a loss of operational flexibility for the GCCs.
    The Navy's operating concept for maritime BMD features a graduated 
readiness posture that allows BMD-capable Aegis ships to be on an 
operational tether and available for other tasking when not directly 
involved in active BMD operations. Aegis ships operating in support of 
a BMD mission do not lose the capability to conduct other missions; 
however, specific mission effectiveness may be affected by ships' 
position and/or application of ship resources to those missions.
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for multi-mission surface combatants; 
however, Navy does not have the capacity to meet all GCC demands, such 
as the European PAA, for BMD-capable ships without breaking currently 
established Chief of Naval Operations Personnel Tempo program limits. 
Based on threat analysis and current indications from GCCs, and 
assuming standard 6-month deployment lengths, Navy and MDA concluded 
that GCC demand for surface combatants with Aegis BMD capability will 
outpace capacity through approximately 2018.
    A key attribute of all Aegis ships is their multi-mission 
capabilities within the maritime domain, which allows the Navy to 
employ Aegis ships in multi-mission roles rather than for exclusive 
missions. These ships can perform a variety of other non-BMD missions 
such as strike warfare, air warfare, submarine warfare, surface 
warfare, information warfare, high value asset protection, or maritime 
interdiction either concurrently or sequentially as the GCC requires. 
The Navy is not large enough to deploy ships for single mission 
purposes, and thus, with the exception of deterrent patrols by SSBNs, 
does not advocate deploying warships for single mission tasking. The 
Navy's operating concept for maritime BMD features a graduated 
readiness posture that allows BMD-capable Aegis ships to be on an 
operational tether and available for other tasking when not directly 
involved in active BMD operations. Aegis ships operating in support of 
a BMD mission do not lose the capability to conduct other missions; 
however, specific mission effectiveness may be affected by ships' 
position and/or application of ship resources to those missions.

                 CONTINUED PRODUCTION OF SM-3 BLOCK IA

    18. Senator Levin. Admiral Roughead, the Missile Defense Agency 
(MDA) is not planning for additional production of the SM-3 Block IA 
interceptor for the Aegis BMD system, preferring instead to move to 
production of the next SM-3 variant that has increased capability, the 
Block IB. However, there have been technical delays with the Block IB 
which has resulted in production delays. Given that the regional 
combatant commanders are seeking increased inventories of SM-3 
interceptors, do you believe that we should consider additional 
production of the SM-3 Block IA if there continues to be delays with 
the Block IB interceptor?
    Admiral Roughead. Navy has a sufficient inventory of SM-3 missiles 
to satisfy the present global missile defense requirement. An 
additional delay in the production of SM-3 Block IB missiles would be a 
cause for concern. However, Navy and MDA are committed to delivering 
and fielding the significantly more capable SM-3 Block IB on schedule. 
We will keep Congress fully informed as these important programs 
progress.

                  ANTI-SHIP BALLISTIC MISSILE DEFENSE

    19. Senator Levin. Secretary Mabus and Admiral Roughead, there has 
been recent discussion of China's development of an anti-ship ballistic 
missile (ASBM) capability that could pose a risk to our aircraft 
carriers in the western Pacific. I know the Navy takes a strong 
interest in this issue. Without going into any sensitive information, 
what steps are we taking to protect our aircraft carriers from such a 
system?
    Mr. Mabus and Admiral Roughead. Our Navy has made a significant 
investment in new ships, sensors, weapons, and systems to counter a 
wide array of evolving threats. Additionally, we have invested heavily 
in Aegis modernization, to upgrade existing Aegis technology already in 
the Fleet. These initiatives involving the current and future Fleet 
will continuously improve our Integrated Air and Missile Defense 
capability, allowing our forces to continue to operate forward around 
the world.

                        STRIKE FIGHTER SHORTFALL

    20. Senator Levin. Admiral Roughead, we have had continuing 
discussions over the past several years about a potential strike 
fighter shortfall, with the estimates of that shortfall ranging as high 
at times as 250 aircraft. This year, we have seen yet another 
restructuring of the Joint Strike Fighter (JSF) program, with a 
reduction of 65 F-35 aircraft over the Future Years Defense Plan (FYDP) 
for the Navy and Marine Corps, with an increase in the number of 41 F-
18s, an increase that does not match the loss of F-35 aircraft. 
Considered alone, that would be going in the wrong direction to try to 
reduce the gap. However, in addition this year, you have established a 
service life extension program (SLEP) for existing F-18 aircraft that 
may help ameliorate the gap. What is the Navy's current assessment of 
the maximum size of the strike fighter shortfall?
    Admiral Roughead. Based on the 2012 President's budget, the Navy 
projects it will experience a peak inventory shortfall of 65 aircraft 
in 2018, should the following conditions exist: accelerated transition 
of 10 F/A-18 legacy Hornet squadrons into Super Hornets; the service 
life extension of approximately 150 legacy Hornets; and procurement of 
a total of 556 F/A-18E/F Super Hornets. As I testified, this aircraft 
shortfall is manageable.

    21. Senator Levin. Admiral Roughead, in the face of such potential 
shortfalls, why did the Navy not increase F/A-18E/F procurement to 
compensate for the reduction in JSF procurement so that you would at 
least remain even in your numbers of strike fighter production?
    Admiral Roughead. The Navy's procurement objectives presented in 
the fiscal year 2012 President's budget include the procurement of 41 
additional F/A-18E/F for a total of 556. With the addition of 41 Super 
Hornets, Service Life Extension of 150 F/A-18 A-D aircraft to 10,000 
flight hours, and the accelerated transition of three additional legacy 
squadrons, the Navy was able to reduce the estimated strike fighter 
shortfall to the current value of 65 aircraft, occurring in 2018, 
without a one-for-one compensation for JSF reduction and F/A-18E/F 
procurement. This shortfall risk is manageable.

                      NUNN-MCCURDY RECERTIFICATION

    22. Senator Levin. General Amos, in February 2007, the Secretary of 
the Navy notified Congress that the Expeditionary Fighting Vehicle 
(EFV) program experienced what is known as a ``critical Nunn-McCurdy 
breach,'' meaning that unit costs grew at least 25 percent above the 
acquisition program baseline that was current at that time. When such a 
breach occurs, DOD is required to either cancel the program or to 
continue the program, to certify to Congress that: the program is 
essential to national security, there are no alternatives which will 
provide equal capability at less cost, the new cost estimates are 
reasonable, and the management structure is adequate to control costs. 
In June 2007, the Under Secretary of Defense for Acquisition provided 
that certification to Congress. In testimony to the House of 
Representatives at the end of June 2007, DOD witnesses explained that 
the Joint Requirements Oversight Council (JROC), chaired by the Vice 
Chairman of the Joint Chiefs of Staff, formally examined the 
requirements for the EFV as part of the Nunn-McCurdy process. The JROC 
concluded that the EFV requirements ``are essential to national 
security.'' A second DOD panel examined alternatives to the EFV and 
concluded that none existed that could meet the EFV requirements at 
equal or less cost. What has changed since the EFV went through the 
Nunn-McCurdy certification?
    General Amos. The requirement to field an amphibious vehicle has 
not changed. Based on the assessment conducted in support of Nunn-
McCurdy certification requirements, the Vice Chairman of the Joint 
Chiefs of Staff validated that ``The Amphibious Joint Forcible Entry 
Operations capabilities defined by the EFV Capabilities Production 
Document remain essential to national security.'' However, since then, 
the operating environment and the increased cost of developing a modern 
combat vehicle have changed. Throughout the period when the EFV was 
being developed, threats in the littorals and U.S. capabilities to 
counter and overcome these threats have evolved. We now believe that 
our naval capabilities will allow us to launch an amphibious vehicle at 
a minimum required distance of 12 nautical miles from the coastline--a 
distance less than that forecasted when the EFV was developed. This 
launch distance mitigates the need for a high-speed component to a 
future amphibious tractor, greatly reducing vehicle complexity and 
cost.
    Improvised explosive device (IED) threats and the changing 
operating environment drove increased investments in vehicles to 
increase protection and network capability. Moreover, lessons learned 
from the dispersed nature of current operations have led to increased 
requirements for protective armor kits and network connectivity for all 
tactical and combat vehicles, adding cost to our entire Ground Combat 
and Tactical Vehicle (GCTV) portfolio. Today's fiscal environment and 
declining total obligation authority have pressurized all procurement 
investments, thus making affordability a driving requirement to balance 
programs and consider risk within the GCTV strategy.
    The Marine Corps is committed to the capability represented by the 
cancelled EFV program. As stated by the Secretary of Defense, we are 
firm in our requirement for an amphibious combat vehicle (ACV), which 
is essential to facilitating ship-to-shore operations in permissive, 
uncertain, and hostile environments; assuring access where 
infrastructure is destroyed or nonexistent; and creating joint access 
in defended areas.

          BUDGETING FOR AMPHIBIOUS ASSAULT VEHICLE PROCUREMENT

    23. Senator Levin. Secretary Mabus, the last time the Marine Corps 
bought a new amphibious assault vehicle (AAV) was almost 40 years ago. 
Buying a new armored assault vehicle is a rare event and a major 
undertaking, since it is a unique and critical element in the Nation's 
ability to project power ashore. Nonetheless, the Marine Corps and the 
Navy take the view that expenditures on a new vehicle, combined with 
expenditures on other needed ground vehicles, cannot exceed the 
historical average of what the Marine Corps spends year-to-year on 
ground vehicles. This seems strange and illogical. An important but 
rare investment would seem to demand an increase in average 
expenditures in a given budget account. This temporary increase in one 
area would be compensated for by temporary decreases in other areas 
where similar periodic investments have concluded. Why should the 
Marine Corps be forced--or be forcing itself--to make a major 
investment like the EFV fit within a set budget for a specific type of 
end article?
    Mr. Mabus. Marine Corps leadership made the recommendation to 
cancel EFV based upon recent program performance which included a Nunn-
McCurdy breach and multiple schedule slips due to engineering issues 
with the pump-jet propulsion train. This termination was not 
necessitated by a need for the Marine Corps to fit programs within any 
pre-existing or historical level of funding.
    Since system development for EFV began in 2000, it has had severe 
cost growth and technological problems. The program experienced 
substantial cost overruns in 2007 and was then restructured, and EFV 
costs were growing at a rate we simply could not afford. Its primary 
technical challenges at this stage pertain to propulsion train and 
armor reliability. As a result, it was decided that no further 
investment should be committed to EFV due to current program 
performance.

    24. Senator Levin. Secretary Mabus, do other budget accounts, such 
as Shipbuilding and Conversion, Navy (SCN), vary from historical 
averages when the Navy makes large purchases, such as is the case with 
an aircraft carrier?
    Mr. Mabus. As described in the Report to Congress on the Annual 
Long-Range Plan for Construction of Naval Vessels for fiscal year 2011 
submitted in February 2010, DOD will average no more than $15.9 billion 
of annual funding (in fiscal year 2010 dollars) across the 30 years 
reflected in the report, including those years in which aircraft 
carrier funding is included. DOD utilizes incremental funding, as 
approved by Congress, as a mechanism to mitigate the impact of the 
carrier on the overall SCN appropriation. However, in those years where 
the carrier funding accounts for a larger percentage of the total SCN 
budget, the procurement of other shipbuilding platforms is adjusted in 
order to stay within available SCN funding.

    25. Senator Levin. Secretary Mabus, does the Navy increase the 
Aircraft Procurement, Navy (APN) account in terms of its share of the 
investment budget during the period when it is investing heavily in new 
aircraft such as the F-35?
    Mr. Mabus. The Navy's overall investment in the APN appropriation 
as a percentage of the total investment request varies year to year 
from fiscal year 2012 to fiscal year 2016, but it is consistently 
between 28 percent and 30 percent. The changes in the percentage and 
overall APN funding level is not solely attributable to JSF but is a 
combination of a number of factors and programs. For example, the P-8A 
investment steadily increases from fiscal year 2012 to fiscal year 2016 
as the program ramps up production. Others programs overall investment 
decline, such as the EA-18G program which will achieve its inventory 
objective in fiscal year 2014. The JSF APN request does steadily 
increase as a percentage of the APN request from 4.6 percent in fiscal 
year 2012 to 7.6 percent in fiscal year 2016 as the JSF program ramps 
up production. The table below shows the year-to-year percentages from 
fiscal year 2012 to fiscal year 2016 for the APN request as a 
percentage of the total Navy investment request and the JSF APN request 
as a percentage of the total APN request.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                  SYSTEM DEVELOPMENT AND DEMONSTRATION

    26. Senator Levin. Secretary Mabus, we do not yet know whether the 
Marine Corps can build a new AAV that would meet reduced EFV 
requirements for an amount that is significantly less than what the EFV 
would cost to finish. Before we irrevocably terminate work on the EFV, 
why not finish the System Development and Demonstration (SDD) phase 
over the next year while DOD conducts its studies of alternative 
solutions?
    Mr. Mabus. The cost of completing the SDD phase would require $242 
million in fiscal year 2011, $179 million in fiscal year 2012, and $37 
million in fiscal year 2013 for a total of $458 million. The program is 
not supportable within the context of likely Marine Corps procurement 
budgets. Even in the wake of the changes since 2007, the simple fact is 
that the procurement and operations and maintenance costs of this 
vehicle are onerous. We have examined multiple options to preserve the 
program, either by reducing the number of EFVs, cutting capabilities, 
or stretching out the production run. Unfortunately, none of these 
options meets what we consider reasonable affordability criteria. The 
program office continues to refine a cancelation plan for USD AT&L 
approval. This plan identifies which efforts on the EFV contract will 
be completed in order to better inform the requirements development 
team in support of the follow-on ACV. The remaining elements of the 
contract will be shut down using an orderly approach. In essence, we 
will simply complete those remaining tasks which provide best value to 
the government. The selected activities are designed to capture 
performance characterization and may include such things as water 
speed/power performance and tradeoffs; human factors considerations and 
performance; and subsystem designs (technologies) that address the AAV 
capability gaps (i.e., thermal imaging, inertial navigation, laser 
range finder, crew vision system). These technologies and performance 
characteristics will better inform requirements and allow us to 
identify tradeoffs as we develop a more affordable ACV solution.

    27. Senator Levin. Secretary Mabus, we understand that finishing 
the essential elements of the SDD phase will cost about the same as 
paying the termination liability. If that is true, we might get 
something more for the taxpayers' investment and we could preserve the 
option of going forward with the EFV or a variant of it if nothing 
better turns up. Are you evaluating that strategy?
    Mr. Mabus. We have evaluated that strategy. However, finishing the 
essential elements of the SDD phase does not cost the same as paying 
the termination liability. The cost to complete the SDD phase requires 
$242 million in fiscal year 2011, $179 million in fiscal year 2012, and 
$37 million in fiscal year 2013 for a total of $458 million. The cost 
to cancel the EFV program is $216 million--all of which is in fiscal 
year 2011. Furthermore, we designed ongoing work to optimally inform 
the future ACV program. By selectively testing and developing only 
relevant capabilities for the future we provide best value to the 
government and maximize the return on our EFV investment. Our aim is to 
drive termination costs to effectively zero by leveraging those aspects 
of the EFV program of continuing value.

    28. Senator Levin. Secretary Mabus, can you identify the relative 
costs of termination and finishing the essential elements of the SDD 
program?
    Mr. Mabus. The cost of EFV termination is $216 million in fiscal 
year 2011. The total cost to complete SDD is $458 million. Within the 
SDD completion figure, the cost of finishing essential elements and 
shutdown of EFV is $242 million in fiscal year 2011; $179 million in 
fiscal year 2012; $37 million in fiscal year 2013.

                   F136 SPECIAL SUPPORT REQUIREMENTS

    29. Senator Levin. Admiral Roughead, it has been stated by Navy and 
DOD officials over the past few budget cycles that by having two 
competing engines for the F-35, it would require having two sets of 
everything . . . things like two different sets of spare parts, two 
different sets of shipping containers, different tools, dual trained 
maintainers, et cetera. You have been quoted as saying that keeping two 
different engines for the F-35 on the decks of aircraft carriers would 
not be advisable as ``space is at a premium . . . therefore you can put 
me solidly in the one-engine camp.''
    As recently as 2001, the Navy was responsible for maintaining nine 
different type/model/series engines that could be utilized on a 
carrier. Each of these engines required its own set of unique support 
equipment, hand tools, intermediate level maintenance, training, et 
cetera. This situation was all very cumbersome and your argument would 
make sense from a legacy aircraft point of view. But the situation for 
the F-35 engine does not appear to present the same situation as that 
for the legacy aircraft systems to which you compare it. By 2020, and 
assuming the F136 competitive engine is fielded, the Navy would have to 
maintain five different type/model/series engines in a carrier strike 
group. The F/A-18 and the EA-18 will utilize the same engine. The F-35 
would have the choice of two interchangeable engines that enjoy 100 
percent commonality in hand tools, support equipment, and shipping 
containers.
    Of the four major modules that make up the F-35 propulsion system, 
two of them are 100 percent common between the F135 and F136. DOD had 
also planned that the same training courses would prepare maintenance 
personnel to support either or both engines in the fleet. By using this 
commonality approach, DOD had designed the program to require fewer 
uniquely qualified people and fewer unique tools, which would translate 
to fewer dollars necessary to support the engines. DOD also structured 
the program that way precisely to minimize the logistics footprint and 
the associated cost of maintaining a variety of engines on the carrier. 
Would you clarify why you conclude that you don't have room on the 
carriers to operate an alternate engine for the JSF?
    Admiral Roughead. The F135 and F136 engines constitute two 
different designs by two different manufacturers. The large size of the 
F135 and F136 (approximately 18.7 feet and weighs 9,300 lbs. in its 
container) necessitates greater sparing aboard ships as neither the 
assembled engine nor the power section module can currently be 
replenished underway. Similarly, due to the weight and height of 
critical engine spares, it is not feasible to store all JSF engine 
spares in legacy store rooms or stack them aboard ships as is done for 
legacy system. This would necessitate work-around in hangar deck spaces 
normally reserved to store and maintain tactical aircraft. Adding an 
alternate engine makes the shipboard logistics even more challenging as 
it is not a one-for-one exchange.
    While the F136 engine would be interchangeable, there are several 
engine components that are not interchangeable. The fan, gear box, and 
power section modules are unique by F135 and F136 propulsion systems. 
Only the augmenter and exhaust nozzle modules are common by F-35 
variant. Supporting two engines would require unique spares, unique 
support equipment, and unique training. The JSF specification only 
requires engines to perform to specified criteria and physically fit 
into the F-35. Maintenance/repair technical requirements are different, 
requiring different instructions and training with differences in 
assembly hardware and special tools for off-aircraft repair.

                      LPD-17 SHIPBUILDING PROBLEMS

    30. Senator Levin. Secretary Mabus, we have been experiencing 
significant problems with production of the LPD-17 amphibious transport 
dock program. There have been problems with manufacturing, design, and 
quality control, to the extent that upon delivery of one ship to the 
Navy, the Navy had to immediately place the ship in a separate shipyard 
availability period before the Navy could operate the vessel. What has 
gone so wrong with the construction management and oversight of the 
LPD-17 program that we have had such continuing problems with this 
acquisition?
    Mr. Mabus. Thorough reviews of LPD-17 class ships revealed issues 
in the areas of construction oversight, manning, and training, but 
corrective actions are now being implemented. Assessments of LPD-17 
ship class are now complete and necessary corrections are being 
implemented. The lessons learned with earlier ships in the class have 
been incorporated in later new-construction ships.
    Quality assurance (QA) and production oversight during ship 
construction were not sufficient by both the Supervisor of 
Shipbuilding, Conversion and Repair (SUPSHIP) and the shipbuilder 
impacting main propulsion diesel engines, lube oil systems, piping 
welds, and foundation bolts and power train alignment. However, the 
shipbuilder has now developed new procedures and training for its 
personnel and additional process QA checkpoints have been added to the 
shipbuilding inspection process. Additional staffing has been added to 
the SUPSHIP Gulf Coast staff with a focus on compliance and the Navy 
has instituted Comprehensive Quality audits of both SUPSHIP and the 
shipbuilder.
    The Navy is also strengthening LPD-17 class crew training by 
establishing more traditional shore-based schoolhouses that will result 
in a blended philosophy of classroom, on-ship and computer based 
training, rather than relying on the previous emphasis on computer-
based shipboard training.
    Initial system reliability issues with the engine controls, ship 
controls, and interior communications systems have been addressed 
through major software upgrades to each system as well as the 
replacement of critical obsolete parts with more rugged current 
technology hardware. The ships' 1990s technology asynchronous transfer 
mode (ATM) shipboard wide area network (SWAN) is being replaced with a 
current Gigabit Ethernet technology network hardware and software.
    A LPD-17 Class Wholeness Task Force was formed by the Fleet to 
undertake a comprehensive assessment of the overall state of readiness 
for the entire LPD-17 class of ships. The task force is addressing 
shipboard manning, adequacy of shore-based infrastructure support, 
performance of critical mission and propulsion systems, spare parts 
support, and adequacy of maintenance resources.
    The combination of the above improvements are resulting in better 
reliability and operational availability of the currently commissioned 
ships of the class, while improving the projected operational 
availability of the ships currently under construction. Recent examples 
are LPD 21 (USS New York) completing in February a highly successful 
Bureau of Inspection and Survey final contract trials and LPD 19 (USS 
Mesa Verde) in March departing early for an overseas deployment in 
response to real world events.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                       LANDING CRAFT AIR CUSHION

    31. Senator Reed. Secretary Mabus and Admiral Roughead, the Landing 
Craft Air Cushion (LCAC) has been a workhorse of the amphibious force 
for moving vehicles and cargo from our amphibious ships to shore. They 
have been and continue to be heavily employed in missions from combat 
to humanitarian relief worldwide. Despite a Navy SLEP to extend their 
lives, the LCAC force is wearing out. The Navy budget request for 
fiscal year 2011 included buying the lead vessel of a new ship-to-shore 
connector (SSC) class in the Navy's research and development budget. 
Last year, the Navy planned to purchase the second SSC vessel of this 
class in 2013. This year, the budget request indicates that the Navy 
plans to delay building the second SSC vessel until 2014. This 
development is troubling, given the wearing out of the exiting LCAC 
fleet and the cancellation of the EFV, both of which would appear to 
increase the importance of fielding the new SSC program and argue to 
maintain the previous schedule, not delay it. Why has the Navy delayed 
the second SSC vessel a year?
    Mr. Mabus. The second SSC (LCAC 101) was delayed by 1 year to 
ensure that lessons learned during the construction of LCAC 100 were 
able to be applied to the follow-on vessels. Although a delay in the 
start of the second craft shifts IOC by 1 year, a SLEP is underway to 
extend the service life of a total of 72 LCAC from the original 20-year 
service life to 30 years.
    Additionally, a sustaining maintenance program is under development 
for implementation in the 2014-2015 timeframe to ensure that previously 
SLEPed LCACs remain serviceable until the SSC reaches full operational 
capability (FOC) in the 2027-2032 timeframe.
    Admiral Roughead. The Navy remains committed to our the ability to 
embark, transport, control, insert, sustain, and extract combat marines 
and sailors on missions that range from forcible entry to forward 
deployed crisis response. The second SSC (LCAC 101) was delayed by 1 
year to ensure that lessons learned during the construction of LCAC 100 
were able to be applied to the follow-on vessels.
    Although a delay in the start of the second craft shifts IOC by 1 
year, a SLEP is underway to extend the service life of a total of 72 
LCAC from the original 20 year service life to 30 years.
    After 30 years of service a craft is considered to be beyond 
designed service life and additional maintenance actions will be 
required to continue these craft in operation. Beginning in 2014 and 
each year thereafter, the active LCAC fleet will be populated with a 
growing percentage of craft that are expected to serve beyond the 30-
year service life. A sustaining maintenance program is under 
development for implementation in the 2014-2015 timeframe to ensure the 
LCAC fleet remains serviceable until the SSC reaches FOC in the 2027-
2032 timeframe.

    32. Senator Reed. Secretary Mabus and Admiral Roughead, will this 
delay lead to any gap in capability?
    Mr. Mabus. There will be no capability gap in the Navy's ship-to-
shore portfolio and the 1 year delay in the SSC/LCAC 100 acquisition 
will have only a minor impact in the transition from LCAC to SSC/LCAC 
100. The Navy's transition plan combines SLEP for the current LCAC 
fleet, a post-SLEP LCAC maintenance and sustainment program, and a 
procurement profile for new connectors which replaces all legacy LCACs 
with new SSC/LCAC 100s by 2027. The SLEP and post-SLEP maintenance and 
sustainment program, currently under development, will ensure that 
legacy LCACs will remain operational until replaced by SSC/LCAC 100s 
sometime between now and 2027.
    Admiral Roughead. The Navy remains committed to our the ability to 
embark, transport, control, insert, sustain, and extract combat marines 
and sailors on missions that range from forcible entry to forward 
deployed crisis response. The 1 year of delay in the SSC acquisition 
will have an affect on the established mitigation plan to address the 
LCAC capability gap. However, this LCAC capability gap reflects 
continuation of the current capability with a number of older and 
potentially more maintenance intensive craft remaining in service while 
developing and fielding the successor platform.
    In 2014, the 72 LCAC fleet will begin to exceed its designed 
service life of 30 years. A number of LCAC will be required to remain 
in service in excess of the SLEP 30-year designed service life until 
the SSC reaches FOC in the 2027-2032 timeframe. A maintenance and 
sustainment program is being developed to retain these craft in service 
beginning in 2014-2015 timeframe until SSC attains FOC. Craft that 
operate beyond the design service life will require the additional 
maintenance prescribed and the overall availability of the LCAC fleet 
will be impacted.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall

                    RAND REPORT ON ALTERNATIVE FUELS

    33. Senator Udall. Secretary Mabus, recently, RAND published a 
study on alternative fuels that was intended to fulfill the requirement 
of section 334 of the National Defense Authorization Act (NDAA) for 
Fiscal Year 2009 for such a report. I am under the impression that 
there are aspects of the methodology, findings, and conclusions of the 
RAND report with which you disagree. Is my impression correct? If so, 
with what specifically do you disagree, and why do you disagree?
    Mr. Mabus. In the RAND report, some of the conclusions suggested 
that the alternative fuel industry is immature, could not scale up to 
make an appreciable difference as a domestic alternative, and 
recommended that DOD not invest in this market. We have found that the 
biofuel industry appears to be well-poised to be of commercial size and 
ready to meet Navy demands by 2016 for the Secretary of the Navy Great 
Green Fleet goal. According to Biofuels Digest, there are 110 companies 
that are currently working on various biofuel products including mixed 
alcohols, bio-crude oils, and drop-in fuels.
    The RAND study accurately states that the Navy's switch to 
biofuels, in and of itself, will not reduce the Nation's total energy 
consumption by a significant margin. However, the RAND report was not 
well researched and did not take into account the recent research and 
development advances in the biofuels technologies. RAND stated in their 
report that the Fischer-Tropsch coal-to-liquid/biomass-to-liquid fuels 
are the most promising near-term options for meeting DOD's needs 
cleanly and affordably. Currently, there are no Fischer-Tropsch plants 
here in the United States. Additionally, under the guidelines of the 
Energy Independence and Security Act (EISA) of 2007, Section 526, any 
replacement fuel has to have a greenhouse gas emission profile less 
than petroleum. In order to meet this guideline, any Fischer-Tropsch 
coal-to-liquid plant would have to have carbon capture and 
sequestration incorporated into this overall process. While there is 
important carbon capture and sequestration research and development 
ongoing at DOE, there has not been any carbon capture and sequestration 
process built to commercial scale in the United States. In summary, due 
to the EISA 2007, Section 526 guidelines and the cost prohibitive 
carbon capture and storage process, we feel that the Fischer-Tropsch 
coal-to-liquid/biomass-to-liquid fuels are not the most promising near-
term option for meeting DOD's needs cleanly and affordably.
    While the use of alternative fuels can contribute toward 
guaranteeing our energy supplies, reducing our operational risks, and 
during volatile upward price swings in petroleum, could represent 
additional cost savings, the Navy's energy strategy has not been 
limited to alternative fuels. We have aggressively adopted proven 
energy efficient applications and practices commonly found in the 
commercial sector. We have funded both science and technology/research 
and development projects in pursuit of increased energy efficiency 
since these project can potentially and directly contribute to the 
combat capability of our operating forces by reducing our energy 
consumption both afloat and ashore, and by achieving significant cost 
savings.
    The Navy prefers to see itself as an ``early adopter'' of available 
biofuels. The military has often led in the development of new 
technologies where there was a compelling military use, even if the 
civilian use was ultimately greater (ex. GPS, the Internet). The 
operational use of alternative fuels by the Navy will be hastened by 
collaborating with Federal agencies and private industry at every step 
of the research, development, and certification process. The 
alternative fuel program establishes the Navy as an early adopter for 
investors in a nascent industry that could significantly enhance energy 
security, and thereby national security, in the mid- to long-term. By 
positioning itself as an early adopter by testing available biofuels 
and certifying them ``fit for use across our major platforms and 
leveraging test and certifications accomplished by the other services 
that meets our specifications,'' the Navy is better poised to reap the 
following benefits:

        <bullet> Cost Savings. Increasing our use of alternative energy 
        sources helps us achieve a level of protection from energy 
        price volatility. For every $10 increase in the cost of a 
        barrel of oil, the Navy spends an additional $300 million a 
        year. Operating more efficiently saves money by reducing the 
        amount we spend for fuel. Savings can be reinvested to 
        strengthen combat capability. The cheapest barrel of fuel 
        afloat or kilowatt-hour ashore is the one we will never use.
        <bullet> Guaranteed Supply. Our reliance on energy can be 
        exploited by potential adversaries. Efficiency and alternatives 
        may be our best countermeasure. Energy efficiency increases our 
        mission effectiveness by expanding our range and endurance, and 
        reducing our need for logistics support. Efficiency 
        improvements minimize operational risks of that logistics 
        tether, saving time, money, and lives. Alternative fuels 
        provide the Navy an `off-ramp from petroleum,' mitigating the 
        risk to a volatile and ever more expensive petroleum market.
        <bullet> Fossil Fuel Independence. The Navy recognizes that our 
        dependence on fossil fuels and foreign sources of oil makes us 
        more susceptible to price shocks, supply shocks, natural and 
        man-made disasters, and political unrest in countries far from 
        our shores.
        <bullet> Combat Capability. Making our ships and aircraft more 
        efficient improves their fuel economy. We can increase the days 
        between refueling for our ships, improving their security and 
        combat capability. We can also extend the range of our aircraft 
        strike missions, allowing us to launch our aircraft farther 
        away from combat areas. Increasing our efficiency and the 
        diversity in our sources of fuel improves our combat capability 
        strategically and tactically.

    34. Senator Udall. Secretary Mabus, section 334 of the NDAA for 
Fiscal Year 2010 required a related report. Are you aware of the status 
of that report?
    Mr. Mabus. The Navy is aware of this report being prepared by LMI. 
Our understanding is that this report is still undergoing review with 
all pertinent energy offices, and is expected to be out by the end of 
May.

                       ALTERNATIVE ENERGY SOURCES

    35. Senator Udall. Secretary Mabus, you have set as an ambitious 
goal: committing the Navy and Marine Corps to generate at least 50 
percent of all the energy you use to come from alternative sources no 
later than 2020. Can you speak to what qualifies as alternative 
sources, where you have had the most success and where you believe you 
will attain the remaining percentage under this goal?
    Mr. Mabus. The Navy has set two priorities that illustrate the 
Navy's role in investing in alternative sources of energy which are 
energy security and energy independence. The Navy will achieve energy 
security by utilizing sustainable sources that meet tactical, 
expeditionary, and shore operational requirements and force sustainment 
functions. This allows the ability to protect and deliver sufficient 
energy to meet operational needs. Second, energy independence is 
achieved when naval forces rely only on energy resources that are not 
subject to intentional or accidental supply disruptions. As a priority, 
energy independence increases operational effectiveness by making naval 
forces more energy self-sufficient and less dependent on vulnerable 
energy production and supply lines.
    The Navy uses many different types of alternative energy on our 
naval installations such as solar, wind, and waste to energy. We have 
over 100 MW of solar planned to be installed in the next few years, and 
we have 22 anemometer (wind) studies ongoing. On the operational energy 
front, we have flown an F/A-18 Hornet on blended fuel, operated a 50/50 
blend of biofuels on the Riverine Command Boat (RCB-X), and test flown 
a Seahawk helicopter on a 50/50 blend of biofuels. The Navy has also 
commissioned the USS Makin Island, which is designed with a gas turbine 
engine and electric auxiliary propulsion system. We also consider our 
nuclear fleet of aircraft carriers and submarines as part of our 
alternative energy program. In our expeditionary forward operating 
bases, we are using flexible solar panels to recharge batteries and 
light the inside of the tents with LED lighting. These are just a few 
examples of the different types of alternative energy sources that the 
Navy is currently using.
    Much of our success is in the technologies that are tried and 
true--solar, wind, and geothermal. We are continuing to explore 
geothermal resources on our installations in the southwest. We are 
making great strides in helping stand up a biofuels industry that will 
supply biofuels to the fleet. This effort will be a key factor in our 
overall success of the 50 percent goal. We have to continue to 
institute energy efficiency into our processes and programs. We are 
designing and constructing all of our new buildings to LEED Silver 
criteria. The bottom line is that the most efficient BTU or KW-hr is 
the one that is not used.

    36. Senator Udall. Secretary Mabus, in your testimony you said that 
you are actively exploring for new geothermal resources to augment our 
existing 270 MW geothermal power plant at China Lake. What technologies 
are you seeking to employ to expand geothermal energy use?
    Mr. Mabus. Currently our geothermal development program is seeking 
areas on our installations with medium to high temperature hydrothermal 
resources where there is adequate faulting or permeability of the rock 
to allow movement of the steam and available ground water. This `hot' 
geothermal is a large scale power source but the effectiveness of the 
use of geothermal heat depends on site specific characteristics. These 
locations are primarily in the western United States, although we have 
received requests to study geothermal potential in Guam and Japan. 
These requirements are necessary for conventional geothermal power 
plants, like the Navy's NAWS China Lake facility. Additionally, in 
locations with permeability with lower temperature hot water, we would 
use a binary system, but these systems have reduced power output.
    We are also concurrently monitoring the maturity of the Enhanced 
Geothermal System (EGS) which could have a much broader applicability 
throughout the United States. EGS would be used where we have heat but 
no faults or water, but this is a relatively new technology and issues 
pertaining to earthquakes and possible contamination of water supplies 
need to be resolved.
    Additionally, Navy is actively constructing numerous ``shallow-
drill,'' lower temperature gradient geothermal systems to use renewable 
resources to partially replace fossil fuel consumption in our 
individual building heating and cooling systems. We are also installing 
innovative ``no-drill'' solutions wherever viable. Navy's Dam Neck 
``no-drill'' system won a 2009 Presidential Award for Leadership in 
Federal Energy Management. Dozens of these active systems are employed 
by the Navy today utilizing simple ground-loop or shallow-vertical 
indirect (closed loop) heat exchange systems. These systems save over 
500 billion BTU annually, are a considerably lower risk to install, 
have minimal environmental impact, and have favorable ROI in most 
locations.

    37. Senator Udall. Secretary Mabus, are you considering shallow-
drilling geothermal heat pump systems to power small-scale residential 
facilities and the like at domestic installations or are you exploring 
areas where you could tap hyper-deep geothermal energy resources and 
supply power to an entire installation?
    Mr. Mabus. The Navy has been installing geothermal systems of all 
types at our installations since the early 1980s. We have installed 
them for family housing and small office buildings, as well as whole-
base solutions. Both hyper-deep and shallow-drill systems are a major 
part of the Navy's plans for future Renewable Energy development.
    The Navy is the lead service for hyper-deep geothermal energy 
production. Additional resource exploration is underway at NAS Fallon's 
Dixie Valley Bombing Ranges, NAF El Centro, and NAWS China Lake South 
Range. Our 270MW geothermal plant at NAWS China Lake is the third 
largest plant of its type in the United States.
    Additionally, Navy is utilizing ``shallow-drill'' geothermal 
systems, both large and small scale, to replace fossil fuel consumption 
with renewable energy. We are also installing innovative ``no-drill'' 
solutions wherever viable. Some examples:

        <bullet> Oceana shallow-drill geothermal systems save over 
        210,000 MBTU and nearly 20 million gallons of water annually, 
        by placing 470,000 square feet of Navy Facilities onto Ground 
        Source Heat Pump (GSHP) systems. The second phase of this 
        project recently became operational in January 2011, 6 months 
        early. These systems enabled closure of the large, aging, and 
        inefficient central steam system.
        <bullet> Dam Neck Annex's ``no-drill'' system utilizes seasonal 
        heating and cooling from the Hampton Roads Sanitation Division 
        (HRSD) Atlantic Treatment Plant effluent to save 244,000 MBTU 
        annually, as well as enabling demolition of the central heating 
        system.

    Our most recent Annual Energy Management Report specifically 
identified approximately 12 other small-scale GSHP systems saving 
approximately 14,000 MBTU annually. Additional systems exist, but are 
often difficult to identify since they are often considered part of the 
building heating and cooling systems and not identified separately.

    38. Senator Udall. Secretary Mabus, are you aware of work within 
DARPA and/or collaborations with the Department of Energy's (DOE) ARPA-
E program to advance the deployment of such technology?
    Mr. Mabus. The Navy does not use the term ``hyper-deep geothermal 
energy resources.'' The Navy was funded by Congress in 2001 to drill 
two 15,000-20,000 foot wells. The drilling failed due to instability 
and fractures in the holes. The Navy geothermal project at China Lake 
does have a 13,500 ft. deep well which is deeper than most commercial 
wells.
    Navy geothermal staff attended a DARPA geothermal meeting last 
year. The DARPA agenda was focused on EGSs, geothermal systems for 
forward operating bases, and geothermal systems for Guam. There was no 
discussion of hyper-deep wells.
    Our Navy geothermal office does share technical information with 
DOE and has offered to partner with them in proving new technical 
concepts for geothermal. We are not aware of any on-going work at DARPA 
or DOE on hyper-deep resources.

            EXPERIMENTAL FORWARD OPERATING BASE TECHNOLOGIES

    39. Senator Udall. Secretary Mabus and General Amos, the 
Experimental Forward Operating Base (exFOB) was cited by Secretary 
Mabus as a model for energy security in the theater. It is remarkable 
that such technologies allowed a foot patrol to operate for 3 weeks 
without battery resupply, reducing their burden by 700 pounds and 
saving more than $40,000. Is such a project scaleable to other FOBs as 
well?
    Mr. Mabus. Yes, the capability referenced--the backpack-portable 
solar powered battery recharger called Solar Portable Alternative 
Communications Energy System (SPACES)--is scalable and it makes sense 
to deploy it broadly to our FOBs and Marine units. We introduced SPACES 
to the Fleet via ExFOB in summer 2010, and India Company, 3rd 
Battalion, 5th Marines successfully used it in Afghanistan beginning in 
December 2010. As a result, and in response to the clear value 
demonstrated to the mission, we now have 1442 units in the operating 
forces, with 446 units in Afghanistan. We are accelerating deployment 
of this capability to our forces.
    General Amos. The capability referenced--the backpack-portable 
solar powered battery recharger called SPACES--is scalable, and it 
makes sense to deploy it broadly to our forward operating bases and 
units. We introduced SPACES to the Operating Forces via our ExFOB in 
the summer 2010, and an infantry company from 3rd Battalion 5th Marines 
successfully used it in Afghanistan in late 2010. As a result, and in 
response to the clear value demonstrated to the mission, we now have 
over 1,500 units in our Operating Forces for use in our Afghanistan 
force rotation and our training allowances.

    40. Senator Udall. Secretary Mabus and General Amos, what 
challenges do you foresee in expanding exFOB technologies?
    Mr. Mabus and General Amos. One challenge we face is how to rapidly 
transition new capabilities to our Operating Forces, and ultimately 
into fully supported programs of record. Our ExFOB is an effective 
process that brings together the key players from our combat 
development, acquisition, and science and technology communities to 
identify and evaluate new capabilities. It informs our requirements, 
mitigates investment risks, and builds marines' confidence with 
innovative capabilities. Consequently, ExFOB helps to bridge the so-
called `valley of death' as it relates to technology transition. 
However, this process takes time, and these long lead times make it 
difficult for small companies seeking to do business with the Marine 
Corps, to engage in the process.

    41. Senator Udall. Secretary Mabus and General Amos, what are the 
benefits?
    Mr. Mabus and General Amos. The ExFOB capabilities we have 
evaluated in Afghanistan have helped our marines operate lighter, with 
less reliance on resupply. Our forces today are widely dispersed across 
the battle space: a company today may cover an area of 50 square miles 
or more, manning multiple outposts, and executing extensive dismounted 
operations. Our marines depend on communications gear and equipment, 
and rely on frequent resupply to support fuel, battery, water, and food 
needs. By providing a new source of power-solar and hybrid solar 
energy--and reducing the power demand of equipment, we have reduced 
mission risk, and increased our commanders' options. Ultimately, our 
goal is fewer marines at risk on the road hauling fuel and protecting 
fuel convoys.
    In less than a year, through our ExFOB process, we evaluated 
capabilities at Twentynine Palms and on the battlefield in Afghanistan 
with India Co. 3rd Battalion, 5th Marine Regiment. While engaged in 
nearly constant combat, these marines used small scale solar solutions, 
man portable solar battery rechargers, hybrid-solar generators, plus 
energy efficient lighting and shelters, with positive results:

        <bullet> Two patrol bases operated completely on expeditionary 
        solar power generators. They have done this even while engaged 
        in near constant combat.
        <bullet> Another patrol base reduced its fossil fuel need by 
        approximately 90 percent--from 20 gallons of fuel a day to 2.5 
        gallons a day.
        <bullet> Using the SPACES back portable solar power system to 
        recharge their radio batteries they were able to patrol for 3 
        weeks with no battery resupply. Typical battery resupply is 
        every 2-3 days.

    Because of the mission benefits we have seen, the Marine Corps is 
now looking at deploying these solutions broadly to our forward 
operating units in the coming months.

    42. Senator Udall. Secretary Mabus and General Amos, are you aware 
of any compromises to warfighting capability or strategic flexibility 
that were incurred as a result of utilizing the unique technologies at 
exFOB?
    Mr. Mabus. Prior to battlefield evaluation of new capabilities, we 
conduct detailed evaluations in the lab with actual users who employ 
the equipment in similar operating environments and under similar 
stresses. Mission effectiveness is a top priority; solutions that 
cannot perform required mission tasks do not progress beyond the lab. 
The exFOB capabilities meet our requirements and have benefited our 
warfighting capability.
    General Amos. ExFOB capabilities have benefited our warfighting 
capability. Prior to battlefield evaluation of new capabilities, we 
place them through detailed evaluations in our laboratory, with actual 
users who would employ the equipment in operating environments similar 
to that in Afghanistan, under similar stresses. Mission effectiveness 
is a top priority; solutions that fall short do not progress to the 
next level of our process.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin

                       ALTERNATIVE ENERGY SOURCES

    43. Senator Manchin. Admiral Roughead, we've seen price 
fluctuations right now in foreign oil based on political instability in 
the Middle East and North Africa--I'd like to talk about using 
alternative energy sources from home. Will you speak about the costs of 
aviation fuel and alternative jet fuels--are you considering coal-to-
liquid fuels?
    Admiral Roughead. The Navy fully supports the use of using 
alternative source aviation fuels that meet all military performance 
requirements and technical specifications and would prefer, wherever 
possible, that the United States be the source of these fuels. Testing 
and certification of coal-to-liquid fuels are not in the Navy Program 
of Record because of congressional restrictions prohibiting procurement 
of alternative source fuels that may have greenhouse gas emissions or a 
carbon footprint greater than the petroleum based fuels which they 
would replace. Capital costs associated with commercial coal-to-liquid 
plants are expected to be in the billions of dollars and the 
technological hurdles associated with carbon sequestration present 
enough unknowns that there is little commercial transportation industry 
interest in this approach. As the commercial transportation industry 
and the Navy have focused on the use of next generation biofuels 
engineered to mix seamlessly with existing fuel supplies. As with any 
commodity, the costs of any alternative fuels will be a function of 
supply and demand. Industry and academia forecast the future costs of 
these fuels will be competitive with petroleum based fuels.

    44. Senator Manchin. Admiral Roughead, what are the challenges 
using such fuels in the war zone?
    Admiral Roughead. Once the alternative fuels are certified in 2012, 
there will be no restrictions on using these fuels in combat. We will 
deliver the quantity and quality of fuels required to our forces when 
and where they are needed, and the source of these fuels will be 
transparent to the end users, the fuels will mix seamlessly with our 
existing fuel supplies, and the technical parameters of the fuels will 
deliver similar combat capability.
    The purpose of the Navy alternative fuels test and certification 
program is to certify that these alternative source fuels meet the 
specifications that our petroleum-based fuels must meet. The test and 
certification process of the fuels necessary for the Great Green Fleet 
is currently underway. Current funding puts the Navy on track to 
complete the fuel certification required for ship and aircraft systems 
to conduct the demonstration of the Green Strike Group in 2012. They 
will be functionally identical and `drop in' replacements to the 
current fuels that we use and will have no impact to the engines that 
use them.

    45. Senator Manchin. Secretary Mabus, you have pledged your 
commitment to have the Navy and Marine Corps accelerate the exploration 
and exploitation of new ways to ``procure, produce, and use energy.'' 
You have also stated that your goals for energy security include a 
commitment to generate at least 50 percent of all the energy the Navy 
and Marine Corps use from alternative sources no later than 2020. What 
progress have you made in achieving this goal and what is the makeup of 
alternative energy sources?
    Mr. Mabus. The Navy has set two priorities that illustrate the 
Navy's role in investing in alternative sources of energy which are 
energy security and energy independence. The Navy will achieve energy 
security by utilizing sustainable sources that meet tactical, 
expeditionary, and shore operational requirements and force sustainment 
functions. This allows the ability to protect and deliver sufficient 
energy to meet operational needs. Second energy independence is 
achieved when naval forces rely only on energy resources that are not 
subject to intentional or accidental supply disruptions. As a priority, 
energy independence increases operational effectiveness by making naval 
forces more energy self-sufficient and less dependent on vulnerable 
energy production and supply lines.
    The Navy uses many different types of alternative energy on our 
naval installations such as solar, wind, and waste to energy. We have 
over 100 MW of solar PV projects planned to be installed in the next 
few years, and we have 22 anemometer (wind) studies ongoing. On the 
operational energy front, we have flown an F/A-18 Hornet on blended 
fuel, operated a 50/50 blend of biofuels on the Riverine Command Boat 
(RCB-X), and test flown a Seahawk helicopter on a 50/50 blend of 
biofuels. The Navy has also commissioned the USS Makin Island, which is 
designed with a gas turbine engine and electric auxiliary propulsion 
system. We also consider our nuclear fleet of aircraft carriers and 
submarines as part of our alternative energy program. In our 
expeditionary forward operating bases, we are using flexible solar 
panels to recharge batteries and light the inside of the tents with LED 
lighting. These are just a few examples of the different types of 
alternative energy sources that the Navy is currently using.
    Much of our success is in the technologies that are tried and 
true--solar, wind, and geothermal. We are continuing to explore 
geothermal resources on our installations in the southwest. We are 
making great strides in helping stand up a biofuels industry that will 
supply biofuels to the fleet. This effort will be a key factor in our 
overall success of the 50 percent goal. We have to continue to 
institute energy efficiency into our processes and programs. We are 
designing and constructing all of our new buildings to LEED Silver 
criteria. The bottom line is that the most efficient BTU or KW-hr is 
the one that is not used.

    46. Senator Manchin. Secretary Mabus, are each of these 
sustainable, especially in the war theater, and if not, why not?
    Mr. Mabus. Yes, they are all very sustainable in a war theater as 
well as elsewhere. A good example is that while deployed to the Sangin 
Province Afghanistan, India Company, Third Battalion, Fifth Marines (3/
5) operated two patrol bases completely on renewable energy, offsetting 
100 percent of their potential fuel use. Based on reports from marines 
in the field it is estimated that each patrol base saved 12 gallons per 
day per location. This means that each month these two patrol bases 
would have offset approximately 744 gallons per month (31 days 
<greek-e> 24 gals) or 8,928 gallons per year. It is evident that a 
small savings at a remote patrol base has significant impacts over the 
long term, not to mention immediate reduction in risk to our marines 
moving fuel in a very dangerous area.
    An example of the technology that they used is the SPACES, which is 
is an innovative family of mobile solar power and power distribution 
products. SPACES delivers portable power to charge batteries, operate 
communications equipment, and run small electronic accessories in 
tactical and remote environments.
    In addition to the patrol bases operated by India 3/5, they also 
employed renewable and energy efficient technologies at a company 
location, too. At the company location report fuel use was reduced from 
25 gallons per day to 2.5 gallons per day or an initial savings of 90 
percent. Targeting renewable and energy efficient technologies at 
remote outpost immediately reduce the risks to our forces and increases 
our combat effectiveness.
    Outside of those pursuits, we are making our Navy and Marine Corps 
more energy efficient. Making our ships and aircraft more efficient 
improves their fuel economy. We can increase the days between refueling 
for our ships, improving their security and combat capability. We can 
also extend the range of our aircraft strike missions, allowing us to 
launch our aircraft farther away from combat areas. Increasing our 
efficiency and the diversity in our sources of fuel improves our combat 
capability strategically and tactically.

                                 CHINA

    47. Senator Manchin. Secretary Mabus and Admiral Roughead, China 
has continued its military modernization effort, including its naval 
modernization. How should the U.S. military planners respond to China's 
improved military forces and how would this affect the Navy's budget?
    Mr. Mabus and Admiral Roughead. Our Navy has made significant 
investment in new technology to defeat the most likely evolving 
threats, including those of China. Also, the Navy has invested heavily 
into Aegis modernization which will upgrade existing Aegis technology 
to continually improve our integrated air and missile defense 
capability.

    48. Senator Manchin. Secretary Mabus and Admiral Roughead, how 
could the U.S.-Chinese military balance in the Pacific influence day-
to-day choices made by other Pacific countries, especially our allies?
    Mr. Mabus. Sovereign nations throughout the Asia-Pacific region 
indicate they are reevaluating their political, economic, and military 
alignments as globalization continues, a multi-polar geo-political 
landscape emerges, and the world encounters an increasing number of 
diverse, concurrent crises. Considering this dynamic environment, the 
Navy is confident that its current force structure and forward posture 
serve to reinforce our longstanding commitment to the security and 
stability of the Asia-Pacific region as a whole, and our allies in 
particular.
    The Navy is mindful, however, of the need to respond to emerging 
challenges in this rapidly evolving security environment by 
strengthening our alliances and partnerships, modernizing our forces, 
fielding new capabilities and technologies, and developing new 
operational concepts.
    One specific initiative that will help preserve a favorable 
military balance in the Pacific, and assure our allies, is 
implementation of the Air-Sea Battle Concept--a limited operational 
concept that focuses the development of integrated air and naval forces 
on addressing the evolving anti-access/area denial (A2/AD) environment. 
The Air-Sea Battle Concept encompasses three key elements:

        <bullet> Institutional cooperation will be enhanced by 
        establishing an enduring organizational construct that will 
        continue formal collaboration to address the A2/AD environment 
        as it evolves over time.
        <bullet> Conceptual alignment will be perpetuated through the 
        operational design which describes how capabilities and forces 
        are integrated to accomplish operational objectives in an A2/AD 
        environment.
        <bullet> Materiel solutions and innovations will be 
        collaboratively vetted to ensure they are complementary where 
        appropriate; redundant when mandated by capacity requirements; 
        fully interoperable; and fielded with integrated acquisition 
        strategies seeking efficiencies where they can be achieved.

    Air-Sea Battle implementation will ensure continued U.S. advantage 
against emerging threats that include long-range, precise, anti-ship 
and land attack ballistic and cruise missile systems; advanced combat 
aircraft and electronic warfare technologies; advanced Integrated Air 
Defense systems; submarines and subsurface warfare capabilities; 
surface warfare capabilities; C4ISR capabilities; and cyber warfare 
technologies. This advantage, coupled with enduring forward presence 
that supports robust training, exercises and military-to-military 
engagement, will promote choices among our allies and like-minded 
partners that advance our national interests in the Pacific.
    Admiral Roughead. Sovereign nations throughout the Asia-Pacific 
region indicate they are reevaluating their political, economic, and 
military alignments as globalization continues, a multi-polar geo-
political landscape emerges, and the world encounters an increasing 
number of diverse, concurrent crises. Considering this dynamic 
environment, the Navy is confident that its current force structure and 
forward posture serve to reinforce our longstanding commitment to the 
security and stability of the Asia-Pacific region as a whole, and our 
allies in particular.
    The Navy is mindful, however, of the need to respond to emerging 
challenges in this rapidly evolving security environment by 
strengthening our alliances and partnerships, modernizing our forces, 
fielding new capabilities and technologies, and developing new 
operational concepts.
    One specific initiative that will help preserve a favorable 
military balance in the Pacific, and assure our allies, is 
implementation of the Air-Sea Battle Concept--a limited operational 
concept that focuses the development of integrated air and naval forces 
on addressing the evolving A2/AD environment. Air-Sea Battle 
implementation will ensure continued U.S. advantage against emerging 
threats that include long-range, precise, anti-ship and land attack 
ballistic and cruise missile systems; advanced combat aircraft and 
electronic warfare technologies; advanced Integrated Air Defense 
systems; submarines and subsurface warfare capabilities; surface 
warfare capabilities; C\4\ISR capabilities; and cyber warfare 
technologies. This advantage, coupled with enduring forward presence 
that supports robust training, exercises and military-to-military 
engagement, will promote choices among our allies and like-minded 
partners that advance our national interests in the Pacific.

                  TRANSPORTATION OF FUEL AND SUPPLIES

    49. Senator Manchin. General Amos, there are regular reports of 
fuel and supply chain interruptions over land routes in Pakistan and 
Afghanistan. In some cases, U.S. taxpayers' dollars are being siphoned 
off to insurgents to secure the safety of the fuel and food supplies. 
Please give me a detailed assessment of the risks marines are facing by 
hauling fuel and water to forward bases.
    General Amos. Day-to-day marines courageously operate in a high-
risk environment to ensure the timely delivery of logistics support to 
the many combat outposts, patrol bases, and forward operating bases 
throughout Regional Command-Southwest (RC-SW). Fuel, food, water, and 
ammunition continue to be the most critical items required for 
delivery. Harsh terrain and enemy activity, highlighted most by IEDs, 
take a significant toll on both marines and their equipment. However, 
we mitigate these risks by providing marines with the best possible 
equipment. Our Mine Resistant Ambush Protected (MRAP) vehicles, 
augmented with Counter Radio-Controlled Electronic Warfare systems, 
help to defeat radio-controlled IED threats. We also outfit our 
vehicles with Vehicle Optics Sensor Systems to scan for IED threats 
during day and night operations. We also maintain dedicated Route 
Clearance Teams comprised of engineers, explosive ordnance disposal 
personnel, mechanical devices, and specialized robotics to help thwart 
ambushes, clear natural or manmade obstacles, and detect IEDs.
    We reduce the exposure of our marines by using a wide range of 
delivery options. Air delivery using Air Force and Marine Corps fixed-
wing aircraft are used to drop supplies to remote locations. We also 
employ contracted rotary wing assets to deliver cargo. Where the enemy 
threat is less severe, contracted trucks provide direct delivery of 
fuel and water to many of our bases allowing us to make the most 
effective use of our tactical distribution assets. Finally, we are 
continuously examining ways to reduce the amount of fuel and water 
delivered to our marines by providing capabilities such as the Tactical 
Water Purification System and Lightweight Water Purification System to 
produce water onsite. We are also fielding systems such as the Ground 
Renewable Expeditionary Energy System and the SPACES to reduce the 
demand for fuel at our remote patrol bases.
    The siphoning of U.S. tax dollars to insurgents is a significant 
threat in a number of functional areas including logistics; however, 
this activity is not significant in RC-SW. There are isolated reports 
of extortion along heavily traveled routes, but this activity is 
assessed as low when compared to other regional commands. Pilferage is 
only a minor concern as vendors in RC-SW are paid for delivery vice 
transport. This policy creates an incentive for the shipping companies 
to ensure that loads arrive intact. Overall, we do not assess RC-SW to 
be experiencing significant supply chain interruptions due to enemy 
activity, corruption, or criminality.

    50. Senator Manchin. General Amos, can you tell me about the Marine 
Corps' Bases to Battlefield Expeditionary Energy Strategy and how this 
strategy will affect the logistic concerns surrounding the transport of 
fuel and supplies?
    General Amos. On March 21, I announced the Marine Corps 
Expeditionary Energy Strategy and Implementation Plan that specifically 
directs the Corps to increase energy efficiency on the battlefield by 
50 percent, and to reduce the fuel used by each marine per day by 2025 
by the same amount as well. My intent for this strategy is to increase 
combat effectiveness and reduce our need for logistics support ashore. 
The priority is to save lives by reducing the number of marines at risk 
on the road hauling fuel and water. Our objective is to allow marines 
to travel lighter--with less--and move faster through the reduction in 
size and amount of equipment and the dependence on bulk supplies.
    Based on a 2010 study that we conducted, we determined that marines 
in Afghanistan use about 200,000 gallons of fuel a day to power 
warfighting capabilities and sustain our forces. About 70 percent of 
our logistics requirements are fuel and water. This demand for 
resources increases risk and constrains our operations. It also costs 
lives: 6 marines were wounded over a 3-month period in 2010 while 
supporting 299 fuel/water convoys. This roughly equates to 1 marine 
wounded per every 50 fuel and water convoys.
    Demand for battlefield energy has increased exponentially in the 
last 10 years and is rising, driven by enhancements to communications, 
computers, command and control, and information capabilities (C\4\I), 
vehicles, and weapons systems. We recognize that these warfighting 
assets have made our combat forces more lethal, but they also have come 
with a grave unintended consequence--our logistics trains are at 
greater risk.
    Our strategy, therefore, concentrates on three major areas:

    (1)  We will increase the energy efficiency of our equipment, 
platforms, and systems;
    (2)  We will increase our use of renewable energy, and thereby 
increase self sufficiency in our battlefield sustainment; and
    (3)  We will change the way we think about energy-equating 
efficient use of resources with increased combat effectiveness.

    The Marine Corps Expeditionary Energy Strategy calls on the Marine 
Corps to build Marine Expeditionary Forces capable of maneuvering from 
the sea and sustaining C\4\I and life support systems in place. The 
target date for this goal is 2025.
    In addition to the ``Bases to Battlefield'' strategy, we are now 
taking the critical step to institutionalize change in our energy usage 
by establishing formal requirements via the Expeditionary Energy, 
Water, and Waste Initial Capabilities Document to drive our investments 
in equipment, training, and manning. These requirements aim to reduce 
energy demand in our platforms and systems, increase the use of 
renewable energy, and build an ethos around energy efficiency in the 
Corps.

                                BAHRAIN

    51. Senator Manchin. Admiral Roughead, news sources continue to 
report on political problems in Bahrain, where the 5th Fleet is 
currently operating. I recently met with political leaders in the 
region who expressed their genuine concern for the political stability 
of the monarchy in Bahrain. What can you tell me about your security 
concerns for U.S. forces in Bahrain?
    Admiral Roughead. To date, there are no known credible threats to 
U.S./coalition forces or bases. There has been no change in the status 
of the relationship between Commander, U.S. Naval Central Command 
(CENTCOM)/C5F and the Government of Bahrain. The Government of Bahrain 
continues to fully support hosting Naval Support Activity-Bahrain (NSA-
Bahrain) and its tenant commands. We do not expect a change in the 
Bahraini Government's attitude toward hosting NSA-Bahrain. The King and 
Crown Prince have stated their continuing support to the U.S. Navy 
presence in the Kingdom of Bahrain.

                                 LIBYA

    52. Senator Manchin. Secretary Mabus, taking into account the 
extent of the U.S. military commitment in Afghanistan, Pakistan, and 
Iraq, do you believe it would be more difficult for the United States 
to operate a no-fly zone (NFZ) in Libya, and if so, why?
    Mr. Mabus. As was demonstrated by U.S. and coalition forces 
operating from European bases, establishing a NFZ in Libya was not 
difficult. The Navy/Marine Corps team readily executed the NFZ with the 
air combat element aboard our amphibious ships in conjunction with 
shore-based intelligence, surveillance, and reconnaissance, missile 
attacks from surface combatants and submarines and electronic attack 
aircraft. Our sea-based forces again exploited their inherent 
flexibility to respond to crises and conduct operations largely 
independently from third-country basing requirements.
                                 ______
                                 
              Question Submitted by Senator Jeanne Shaheen

                GAO RECOMMENDATIONS FOR PUBLIC SHIPYARDS

    53. Senator Shaheen. Secretary Mabus, the Navy's four public 
shipyards--Portsmouth Naval Shipyard, Puget Sound Naval Shipyard, Pearl 
Harbor Naval Shipyard, and Norfolk Naval Shipyard--are critical to the 
readiness, sustainability, and continued endurance of America's 
unparalleled naval power. I am very concerned about the backlog of 
restoration and modernization projects at the four public shipyards. 
According to the Navy, as of October 2009, the backlog consisted of 
nearly $3.1 billion. In addition, according to the Government 
Accountability Office (GAO), the Navy's estimate of $3.1 billion 
actually underestimates the total shipyard backlog. The GAO report made 
a series of four recommendations ``to improve the overall visibility of 
the Navy shipyards' restoration and modernization needs and quality of 
life issues.'' In written comments on this report, DOD concurred with 
all four recommendations. Please comment on each recommendation listed 
below and address how the Navy intends to implement each accepted 
recommendation:

    A.  Develop guidance that lays out the requirement for the shipyard 
to develop strategic plans that address their future restoration and 
modernization needs and that reflect the seven essential elements of a 
comprehensive strategic planning framework;
    B.  Develop and document a method for systematically collecting and 
updating the Navy's configuration and condition information, including 
establishing measurable goals and timeframes for updating its processes 
so that the data are complete and accurate;
    C.  Submit documentation to the Office of the Deputy Under 
Secretary of Defense for Installations and Environment to update the 
replacement unit cost factor for dry docks so that plant replacement 
value calculations for dry docks, and subsequent restoration and 
modernization cost calculations, more accurately reflect the shipyards' 
unique infrastructure needs; and
    D.  Develop guidance for the shipyards to systematically collect 
information on and document corrective actions to prioritize and 
address identified quality of life issues.

    Mr. Mabus.

    A.  The Navy's Ship and Submarine Global Shore Infrastructure Plan 
(GSIP), which serves as a higher order strategic document that provides 
the context for the individual shipyard plans, is being finalized. Once 
the GSIP is finalized, Naval Sea Systems Command (NAVSEA) will develop 
guidance to align the individual shipyard plans and the Depot 
Maintenance Infrastructure Plan (DMIP) with the GSIP and the 2011 Naval 
Shipyard Business Plan. The guidance will reflect the seven essential 
elements of a comprehensive strategic planning framework.
    B.  The Infrastructure Condition Assessment Program (ICAP) is in 
place to ensure assessment of the condition of all shipyard buildings 
and waterfront structures (piers, wharfs, et cetera). Additionally, 
waterfront structures receive a structural inspection on a 6-year 
cycle. The Navy will add conduct a pilot program assessment of dry 
docks to evaluate the associated costs for inclusion into the ICAP 
process. Finally, the shipyard utility infrastructure is being 
evaluated for potential assessment in the next few years. Updated 
condition ratings from these inspections will be uploaded into the 
internet Navy Facilities Asset Data Store (iNFADS) annually. The Navy 
currently plans to have all waterfront infrastructure (to include dry 
docks) evaluated and relevant data systems updated by fiscal year 2013. 
Additionally, a majority of configuration (functionality) ratings are 
currently available in iNFADS, which will be updated as necessary via 
the ongoing asset evaluation program.
    C.  The Navy is committed to accurately reflecting the magnitude of 
the dry-dock backlog. Navy is pursuing a reassessment of the 
Replacement Unit Cost factors and plans to provide this information to 
DUSD(I&E) no later than 9 months after receiving funds.
    D.  With workforce safety, health, and quality of life as top 
priorities, the Navy develops comprehensive restoration and 
modernization (RM) projects, based primarily upon the ICAP and Asset 
Evaluation (AE) program data. These assessments and subsequent projects 
specifically address improvements for people and processes in support 
of the shipyard mission.

    The Navy cannot address every shortfall in the desired timeframe 
due to fiscal constraints, so shipyard projects are evaluated and 
prioritized with all Navy RM projects, in accordance with the Navy's 
shore investment strategy. Our shore investment strategy provides shore 
infrastructure that is properly sized and aligned to enable warfighting 
and joint capabilities, minimizes the decline of critical mission-
essential and quality of life infrastructure, and optimizes warfare 
enterprise outputs and quality of service.
    The Navy is exploring methods to collect additional information on 
shipyard quality-of-life and quality-of-service issues.
                                 ______
                                 
           Questions Submitted by Senator Kirsten Gillibrand

                            ENERGY SECURITY

    54. Senator Gillibrand. Secretary Mabus, as you stated, you have 
set a goal of having at least half the Navy and Marine Corps total 
energy coming from non-fossil fuel sources by 2020. As the price of oil 
continues to rise due to conflicts in the Middle East, replacing costly 
fossil fuels with proven and effective renewable energy technologies is 
a necessary move, for the taxpayers' pocketbook and our Nation's energy 
security. I want to commend you on the extensive number of renewable 
energy projects you have implemented both on Navy and Marine Corps 
installations at home and at forward deployed locations. As the Navy 
and Marine Corps continue to procure renewable energy technology, what 
efforts, if any, is DOD taking to provide the proper guidance to the 
energy managers to emphasize American renewable technology in their 
procurement portfolios?
    Mr. Mabus. The Navy is emphasizing American renewable technology in 
all its actions related to energy. We do not want to trade dependence 
on foreign oil for dependence on foreign technology. The Federal 
Acquisition Regulation clause requiring compliance with the Buy 
American Act (BAA) is placed in all applicable Navy contracts. 
Additionally, DOD and the Navy have issued separate internal guidance 
documents on their energy programs emphasizing both renewable energy 
technologies and energy efficiency. These vision and guidance documents 
provide direction and meet or exceed all of the energy mandates and 
legislation.
    The Navy has set two priorities that illustrate the Navy's role in 
investing in alternative and renewable sources of energy which are 
energy security and energy independence. The Navy will achieve energy 
security by utilizing sustainable sources that meet tactical, 
expeditionary, and shore operational requirements and force sustainment 
functions. This allows the ability to protect and deliver sufficient 
energy to meet operational needs. Second energy independence is 
achieved when naval forces rely only on energy resources that are not 
subject to intentional or accidental supply disruptions. As a priority, 
energy independence increases operational effectiveness by making naval 
forces more energy self-sufficient and less dependent on vulnerable 
energy production and supply lines.
    The Navy uses many different types of alternative energy on our 
naval installations such as solar, wind, and waste to energy. We have 
over 100 MW of solar PV projects planned to be installed in the next 
few years, and we have 22 anemometer (wind) studies ongoing. We are 
working with American companies to develop ocean power systems (wave, 
tidal ocean thermal) that can be used in the future to power our island 
and coastal installations from ocean resources. On the operational 
energy front, we have flown an F/A-18 Hornet on blended fuel, operated 
a 50/50 blend of biofuels on the Riverine Command Boat (RCB-X), and 
test flown a Seahawk helicopter on a 50/50 blend of biofuels. The Navy 
has also commissioned the USS Makin Island which is designed with a gas 
turbine engine and electric auxiliary propulsion system. We also 
consider our nuclear fleet of aircraft carriers and submarines as part 
of our alternative energy program. In our expeditionary forward 
operating bases, we are using flexible solar panels to recharge 
batteries and light the inside of the tents with LED lighting. These 
are just a few examples of the different types of alternative energy 
sources that the Navy is currently using.
    Much of our success is in the technologies that are tried and 
true--solar, wind, and geothermal. We are continuing to explore 
geothermal resources on our installations in the southwest. We are 
making great strides in helping stand up a biofuels industry that will 
supply biofuels to the fleet. This effort will be a key factor in our 
overall success of the 50 percent goal. We have to continue to 
institute energy efficiency into our processes and programs. We are 
designing and constructing all of our new buildings to LEED Silver 
criteria. The bottom line is that the most efficient BTU or KW-hr is 
the one that is not used.

    55. Senator Gillibrand. Secretary Mabus, what is DOD's process to 
track the country of origin of technologies procured? Specifically, I'm 
not referring to where a renewable energy technology may have been 
substantially transformed but the origination--for instance, in the 
solar industry, what is the country of origin of the solar cells in 
solar panels that are eventually installed on Navy installation 
facilities?
    Mr. Mabus. The Federal Acquisition Regulation clause requiring 
compliance with the BAA is placed in all applicable Navy contacts. 
Contract awardees provide product submittals during the design and 
construction phase to certify compliance with the provisions of the 
act. The Navy does not apply any additional criteria such as country of 
origin, as long as BAA requirements are met. Neither does the Navy 
centrally track the country of origin of any installed technologies, 
but manages these requirements at the contract level.

    56. Senator Gillibrand. Secretary Mabus, as the world's largest 
consumer of energy, spending over $20 billion a year, DOD has a special 
responsibility to lead by example when greening the government. Its 
enormous purchasing power helps create new markets for renewable energy 
technology products, making them more affordable for everyone. However, 
when DOD makes its renewable energy procurement decisions, are the 
implications of those purchases on our Nation's energy security 
considered? Specifically, some of the largest solar PV projects within 
the military rely heavily on foreign-manufactured renewable energy. I 
am interested to know if the Navy is purchasing foreign-manufactured 
solar panels. If yes, were American-manufactured options considered in 
such instances? If yes, why were they rejected? If such options were 
rejected on price or efficiency alone, could you please explain if that 
determination was made on a cost-per-panel basis or on a total-system-
of-cost-per-watt basis?
    Mr. Mabus. When a procurement requires that the Navy own PV panels, 
the Navy includes the BAA requirement in its contract and requires that 
all contractors comply. When procuring services, which will include PV 
panels that the Navy will not own, the Navy will apply the test 
criteria and follow the requirements of the 2011 NDAA, as amended to 
include Section 846. BAA requirements do allow the Navy to purchase 
foreign manufactured solar panels if the cost of a particular domestic 
construction material exceeds the cost of foreign material by more than 
6 percent.

                            BUY AMERICAN ACT

    57. Senator Gillibrand. Secretary Mabus, DOD, along with all 
Federal agencies, must abide by the BAA when purchasing products for 
the agency. I am advised that DOD, instead of direct procurement, has 
increasingly begun to rely on financing vehicles such as Power Purchase 
Agreements (PPA) to fund renewable energy investments because of their 
attractive financing features. However, the BAA did not apply to this 
financing agreement until it was extended to do so by the NDAA for 
Fiscal Year 2011 for solar PV panels on DOD facilities. As DOD moves 
forward to implement the new contracting rule, what efforts and 
guidance will you be providing installation commanders, energy 
managers, and contracting officers within the Navy and Marine Corps to 
ensure they fully implement the BAA provisions?
    Mr. Mabus. As DOD moves forward to implement the new contracting 
rule, all contracting officers will continue to require BAA compliance 
when applicable in procuring PV panels. As with all NDAA sections 
impacting DOD procurement procedures, we are waiting for uniform DOD 
guidance prior to instructing the Navy procurement officials on any 
specific implementation requirements. Until then, we will advise 
contracting officers to apply the 2011 NDAA test criteria when 
contemplating the acquisition of PV panels.

                      MILITARY BASE ENERGY SAVINGS

    58. Senator Gillibrand. Secretary Mabus, the Defense Science Board 
Task Force has recognized the Navy's Incentivized Energy Conservation 
(i-ENCON) program, a program that allows ship commanders to keep a 
portion of the money saved through operational efficiency measures and 
use it for morale, welfare, and recreation or investments in further 
efficiency measures, as one of the few successes in helping DOD meet 
its energy efficiency goals. Would you please comment on how the i-
ENCON program came to fruition, how it has led the Navy to be the lead 
military department in energy efficiency, and make suggestions on how 
DOD can adopt this program agency-wide?
    Mr. Mabus. In 1975, the Navy developed the Steam System computer 
model to determine energy savings available by procedural and equipment 
modifications. In the 1980s, the Navy initiated the Ship Energy 
Conservation Assist Team (SECAT) program to demonstrate and introduce 
individual ship commands to known energy conserving techniques without 
adding equipment complexity or additional maintenance burden. The 
biggest lesson learned from SECAT was that ships were significantly 
more likely to emphasize energy savings, when it was incentivized 
(i.e., some portion of the savings went to ships' Operating Target 
(OPTAR) accounts).
    In the early 1990s, as a result of the Gulf War's impact on oil 
prices, NAVSEA piloted the i-ENCON program which was implemented Fleet-
wide in 1999. Today, the i-ENCON program is a major initiative of the 
Navy's Energy Conservation Program. During fiscal year 2010, Navy ships 
achieved a net fuel cost avoidance of $68 million compared to the 
average burn rate from fiscal year 2007-fiscal year 2009. I-ENCON has 
helped the Fleet accomplish increased steaming hours at no extra cost 
by managing fuel consumption and transit speeds and eliminating 
unproductive energy expenditures.
    NAVAIR is currently working with the Fleet to develop a similar 
type ENCON program for naval aviation. The Air Force has also been 
briefed by NAVSEA's i-ENCON Program Manager to assist them with 
establishing a program as well. Other DOD components will likely find 
that incentivized programs will yield similar results with getting 
their commands to adopt best practices in procedural and technical 
specifications that measurably result in energy cost avoidance.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                SSBN(X) OHIO-CLASS SUBMARINE REPLACEMENT

    59. Senator McCain. Secretary Mabus and Admiral Roughead, one area 
of the Navy's budget that I am very concerned about is the amount of 
funding needed for ship construction going forward. With about half of 
the Navy's construction and development dollars being needed to build 
extraordinarily expensive nuclear submarines, I am concerned that our 
commitment to building new submarines may be crowding out funding 
needed to modernize the surface fleet. Do you share that concern? If 
so, how do you intend to address it?
    Mr. Mabus. Yes, there is concern. The fiscal year 2011 Shipbuilding 
Plan included, and Navy planning will continue to include, the 
provision for funding SSBN recapitalization from the Navy's expected 
shipbuilding funds. The need to fund SSBN recapitalization will result 
in some risk to the Navy's shipbuilding plan in the years outside the 
FYDP. The Navy's Shipbuilding Plan has balanced the anticipated risk in 
the period with the uncertainties of the future to achieve the best 
balance of missions, resources, and requirements possible.
    The strategic necessity of recapitalizing the SSBN force will 
impact the Navy's ability to procure other ship classes as significant 
resources are allocated to the Ohio Replacement program. The lower 
build rates while the Ohio Replacement is being procured will result in 
reduced force structure in the far-term. While the threats, demands, 
and mission requirements for this far-term planning period are not well 
understood, the Navy will continue to consider mitigation strategies 
for these anticipated shortfalls in future plans. Additionally, the 
Navy must strike a balance between investing in new ships more capable 
for meeting current and future requirements and maintaining ships to 
their expected service life. The Navy has made a conscious decision to 
deactivate older, less capable ships that have become increasingly 
expensive to maintain and operate in order to support those investments 
in our future Fleet.
    The Navy is planning to manage the service lives and modernization 
of legacy ships during this period to prevent block obsolescence 
causing unacceptable gaps in capability and capacity. During the far-
term period, we have assumed a procurement strategy based on sustaining 
procurement rates. As requirements, resources and the industrial 
landscape come into better focus for the post-2020 timeframe, the Navy 
will address these issues working with combatant commanders, Congress, 
and industry to fulfill the mission requirements on this distant 
horizon for these ships. Annual procurement and funding levels have 
been leveled to the greatest extent possible, and annual production 
rates are often at minimum sustaining rates. While this plan is 
fiscally prudent, it will likely cause some increases in ship unit 
costs due to production inefficiencies.
    Affordability is the key challenge. During the past year, the Ohio 
Replacement Program has been thoroughly reviewed. All aspects of the 
program (warfighting requirements, program execution, design and 
construction efforts) were aggressively challenged to drive down non-
recurring engineering and construction costs while meeting the core 
military requirements for a survivable nuclear deterrent. The Navy 
continually strives to reduce the costs of all of its shipbuilding 
programs, specifically through design and development to reduce total 
ownership cost and acquisition cost, analysis of operational and 
maintenance requirements, and planning for future disposal 
requirements.
    If additional funding was provided to fund SSBN(X) procurement 
during this time period, the Navy would be able to apply its 
shipbuilding funds to raise other ship procurement rates to reduce the 
impact on the shipbuilding industry and to increase the overall 
battleforce inventory. Additional ships would include guided missile 
destroyers and attack submarines. Additional funding would help reduce 
future ship inventory shortfalls and provide more stable production 
base.
    Admiral Roughead. I remain committed to ensuring we maintain 
undersea dominance. This is best done with our unequalled submarine 
fleet. However, starting in the 2020s, many of our existing cruisers, 
destroyers, and submarines will reach the end of their service lives. 
During this period, it will be particularly critical to procure 
sufficient numbers of new ships to offset these decommissionings to 
avoid a rapid decline in force structure. At the same time, we will 
begin to replace our Ohio-class ballistic missile submarine, the most 
survivable leg of our Nation's nuclear deterrent triad. While we have 
reduced the cost of that submarine substantially, our total 
shipbuilding budget will be pressurized in that decade as we seek to 
recapitalize our surface and submarine forces while sustaining 
warfighting readiness and supporting our people. I am confident our 
near-term force structure plans provide the capability and capacity we 
need to meet demands today, but in this decade we must address how to 
best resource the shipbuilding programs required in the 2020s.
    The Navy will continue to consider mitigation strategies for these 
anticipated changes. Additionally, the Navy must strike a balance 
between investing in more capable new ships for meeting future 
requirements and maintaining ships to their expected service life. The 
Navy has made a conscious decision to deactivate older, less capable 
ships that have become increasingly expensive to maintain and operate 
in order to support those investments in our future Fleet. The Navy 
will manage the service lives and modernization of legacy surface ships 
during this period to prevent block obsolescence causing unacceptable 
gaps in capability and capacity. In the far-term, we have assumed a 
procurement strategy based on sustaining procurement rates.
    If additional funding were to be provided to fund SSBN(X) 
procurement during the 15-year construction phase of this national 
security asset, the Navy would be able to apply its shipbuilding funds 
to raise other ship procurement rates to reduce potential capacity gaps 
and minimize the impact on the shipbuilding industry and the overall 
battleforce.

    60. Senator McCain. Admiral Roughead, a couple of weeks ago in New 
York you said that the ballistic missile submarine replacement 
program--a 12-submarine $60 billion acquisition program--``is a 
strategic national asset that should not necessarily be funded in the 
shipbuilding account.''
    I too am troubled by the fact that Ohio-class replacement nuclear 
ballistic submarines are estimated to cost at least $7 billion each and 
the cost to operate them will cost $347 billion over the life of the 
submarines. Should the Ohio-class submarine replacement program be 
funded in the shipbuilding account or in a separate account where it 
does not compete with other critical shipbuilding modernization needs?
    Admiral Roughead. During the development of the future budget 
submissions, Navy will continue to engage with OSD leadership to 
develop a well-informed and executable strategy for the procurement of 
Ohio Replacement SSBNs that includes some form of above top line relief 
for Navy shipbuilding.
    The Ohio Replacement Program has been thoroughly reviewed. All 
aspects of the program (warfighting requirements, program execution, 
design and construction efforts) were aggressively challenged to drive 
down nonrecurring engineering and construction costs. The Navy 
estimates that the average Ohio Replacement cost for hulls 2-12 will be 
$5.6 billion with a goal of reducing this to $4.9 billion. The Navy 
continually strives to reduce the costs of all of its shipbuilding 
programs, specifically through design and development to reduce total 
ownership cost and acquisition cost, analysis of operational and 
maintenance requirements, and planning for future disposal 
requirements.

    61. Senator McCain. Admiral Roughead, were Secretary Gates' or 
Deputy Secretary Lynn's views on funding the ballistic missile 
submarine replacement program outside the shipbuilding budget?
    Admiral Roughead. I believe that the Secretary and Deputy Secretary 
understands the Navy's challenges to recapitalizing the Nation's sea-
based strategic deterrent force while maintaining investments in our 
future battle force. During the development of the future budget 
submissions, Navy will continue to engage with DOD leadership to 
develop a well-informed and executable strategy for the procurement of 
Ohio Replacement SSBNs that includes some form of above top line relief 
for Navy shipbuilding.

    62. Senator McCain. Admiral Roughead, you've made some comments 
lately about the option of funding the procurement of the Navy's new 
ballistic missile submarines outside the Navy's budget--so as to 
preserve Navy shipbuilding funding for other shipbuilding programs. 
Please expound on those comments.
    Admiral Roughead. Recapitalization of the Nation's sea-based 
strategic deterrent within the Navy shipbuilding account over a 15-year 
period (fiscal year 2019-fiscal year 2033) creates significant 
challenges to conventional Navy shipbuilding goals. The fiscal year 
2011 Shipbuilding Plan included funding for Ohio Replacement from 
within its anticipated Total Obligation Authority. During the years in 
which the new submarine is being procured, the procurement of other 
ship types will be reduced resulting in force level and industrial base 
impacts. This plan will achieve a peak battle force of 320 ships in 
fiscal year 2024, after which the force level drops as legacy cruisers, 
destroyers, submarines, and amphibious ships retire, falling to a low 
of 288 ships in fiscal year 2032 and then ramping back up to 301 ships 
by fiscal year 2040.
    If additional funding were to be provided for Ohio Replacement 
procurement during this time period, the Navy would be able to apply 
its shipbuilding funds to raise other ship procurement rates to include 
DDGs and submarines. This would also reduce the impact of this time 
period on our shipbuilding industry and raise our overall battle force 
inventory.
    During the development of the future budget submissions, Navy will 
continue to engage with OSD leadership to develop a well-informed and 
executable strategy for the procurement of Ohio Replacement SSBNs that 
includes some form of above top line relief for Navy shipbuilding.

    63. Senator McCain. Admiral Roughead, how likely do you think it is 
that the Navy will be able to win support from OSD for funding these 
submarines outside the Navy's budget?
    Admiral Roughead. Because of the national strategic mission of the 
sea-based deterrence force, the Navy will work with OSD leadership to 
develop a well-informed and executable strategy for the procurement of 
Ohio Replacement SSBNs that includes some form of above top line relief 
for Navy shipbuilding.

    64. Senator McCain. Secretary Mabus, according to recent press 
reports, the Navy recently rejected the recommendation of U.S. 
Strategic Command (STRATCOM) to design the next generation ballistic 
missile submarines with 20 missile tubes, instead opting for only 16 
per boat. What is the basis for the Navy's decision of 16 tubes?
    Mr. Mabus. The Navy conducted an in-depth, extensive review of the 
capability requirements for the Ohio Replacement SSBN in parallel with 
development of the Service Cost Position required at Milestone A. This 
analysis concluded that a force of 12 Ohio Replacement SSBNs with 16 
missile tubes can carry all the sea-based warheads and maintain excess 
capacity in the event of a fundamental deterioration of the security 
environment or as a hedge against technical challenges within one or 
more of the other legs of the triad. A force of 12 SSBNs with 20 
missile tubes could carry the Nation's entire operationally-deployed 
warheads with excess capacity remaining. These conclusions are based on 
the current requirements of the New START treaty.
    It is the Navy's judgment that the Nation's sea-based strategic 
requirements can be met with a force of 12 Ohio Replacement SSBNs with 
16 tubes. Given the substantial budgetary pressures facing DOD and Navy 
Shipbuilding a 20 tube Ohio Replacement SSBN would inappropriately 
sacrifice other conventional shipbuilding requirements for unneeded 
excess capacity. OSD, Joint Staff, and STRATCOM have since concurred 
with the Navy's position on this military requirement.

    65. Senator McCain. Secretary Mabus, aside from cost, which is 
reduced significantly at 16 tubes per submarine, in what ways will such 
a decision impact the overall nuclear force structure and the 
associated flexibility of the commander of STRATCOM?
    Mr. Mabus. The decision to develop the Ohio Replacement SSBN with 
16 missile tubes is consistent with the guidance in the 2010 Nuclear 
Posture Review and current requirements of the New START treaty. A 
force of 12 Ohio Replacement SSBNs with 16 missile tubes can carry all 
the sea-based warheads and maintain excess capacity in the event of a 
fundamental deterioration of the security environment or as a hedge 
against technical challenges within one or more of the other legs of 
the triad. OSD, Joint Staff, and STRATCOM have concurred with the 
Navy's position on this military requirement.

                    AEGIS BALLISTIC MISSILE DEFENSE

    66. Senator McCain. Admiral Roughead, the 2012 budget request 
provides for an additional Aegis class destroyer, increasing the total 
number of ballistic missile capable ships to 41 by the end of the 5-
year budget plan. However, significant concerns remain about the 
overall stresses on the Aegis fleet as the missile defense mission 
continues to grow. What is the current status of the Aegis destroyer 
and cruiser fleet?
    Admiral Roughead. The 2012 budget request represents the combined 
efforts of the Navy and the MDA to build the afloat BMD capacity needed 
to meet combatant commander demands and meet the President's Phased 
Adaptive Approach (PAA) on schedule.
    Of the 22 cruisers and 58 destroyers in service today, 5 cruisers 
and 16 destroyers have been modified to be BMD capable. This year, Navy 
will conduct three destroyer BMD installations (USS Barry, USS Laboon, 
and USS Cole) and one cruiser upgrade (USS Shiloh). The Aegis 
modernization program, which is planned to add BMD capability to all 62 
original DDGs and 9 Baseline IV CGs, and new construction of Aegis 
ships, will add BMD capacity and capability to the Fleet.
    To improve the operational readiness of BMD ships, Navy is 
providing tailored pack-up kits of critical repair parts to deploying 
BMD ships, to ensure that mission performance remains at the optimal 
level. USS Monterey recently deployed to execute the Phase I of PAA for 
the defense of Europe mission with a pack-up kit onboard.

    67. Senator McCain. Admiral Roughead, how has the missile defense 
mission impacted overall availability?
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for multi-mission surface combatants; 
however, Navy does not have the capacity to meet all GCC demands for 
BMD-capable ships without breaking currently established Chief of Naval 
Operations Personnel Tempo program limits. Based on threat analysis and 
current indications from GCCs, and assuming standard 6-month deployment 
lengths, Navy and MDA concluded that GCC demand for surface combatants 
with Aegis BMD capability will outpace capacity through approximately 
2018.
    A key attribute of all Aegis ships is their multi-mission 
capabilities within the maritime domain, which allows the Navy to 
employ Aegis ships in multi-mission roles rather than for exclusive 
missions. These ships can perform a variety of other non-BMD missions 
such as strike warfare, air warfare, submarine warfare, surface 
warfare, information warfare, high value asset protection, or maritime 
interdiction either concurrently or sequentially as the GCC requires.
    The Navy is not large enough to deploy ships for single mission 
purposes, and thus with the exception of deterrent patrols by SSBNs, 
does not advocate deploying warships for single mission tasking. The 
Navy's operating concept for maritime BMD features a graduated 
readiness posture that allows BMD-capable Aegis ships to be on an 
operational tether and available for other tasking when not directly 
involved in active BMD operations. Aegis ships operating in support of 
a BMD mission do not lose the capability to conduct other missions; 
however, specific mission effectiveness may be affected by ships' 
position and/or application of ship resources to those missions.

              SM-3 MISSILES FOR BALLISTIC MISSILE DEFENSE

    68. Senator McCain. Secretary Mabus and Admiral Roughead, the MDA 
recently identified technical issues that may result in a 12-month 
delay for the initial production decision of the SM-3 Blk IB missile. 
Despite the anticipated delay, I understand that MDA does not intend to 
procure any additional SM-3 Blk IA and instead intends to let elements 
of the production line close as they await certification of IB. Does 
the Navy support a production break in SM-3 missiles?
    Mr. Mabus and Admiral Roughead. Navy supports the MDA decision to 
focus efforts on production of the SM-3 Blk IB. We need to move to the 
next generation of missile to ensure we are pacing growing ballistic 
missile threats. Navy and MDA are working closely together to develop 
and field this vital capability on schedule. We will keep Congress 
fully informed as these important programs progress.

    69. Senator McCain. Admiral Roughead, does the Navy have enough SM-
3 missiles to satisfy global missile defense requirements?
    Admiral Roughead. Navy has a minimum sufficient inventory of SM-3 
missiles to satisfy the present global missile defense requirement. To 
meet these requirements, we are using the GFM system to provide an 
adequate inventory of SM-3s to deploying ships. In concert with the 
MDA, Navy is building additional SM-3 missiles which will permit 
increased loadouts aboard deploying ships.

    70. Senator McCain. Admiral Roughead, would an additional delay in 
SM-3 IBs--without a plan to produce additional IAs--be a cause for 
concern?
    Admiral Roughead. An additional delay in the production of SM-3 Blk 
IB missiles would be a cause for concern. However, Navy and MDA are 
committed to delivering and fielding the significantly more capable SM-
3 Blk IB on schedule. We will keep Congress fully informed as these 
important programs progress.

                    RAND REPORT ON ALTERNATIVE FUELS

    71. Senator McCain. Secretary Mabus, the Navy has put a fair amount 
of effort recently into developing alternative fuels. A recent RAND 
report, however, raises specific questions about the Navy's efforts to 
develop such fuels. The report would have the Navy spend its resources 
on using energy more efficiently in weapon systems and at military 
installations rather than developing new alternatives. According to 
press reports, the Navy has taken issue with some aspects of the RAND 
report. What is your perspective on the RAND report, particularly in 
terms of where you disagree with the report?
    Mr. Mabus. In the RAND report, some of the conclusions suggested 
that the alternative fuel industry is immature, could not scale up to 
make an appreciable difference as a domestic alternative, and 
recommended that DOD not invest in this market. We have found that the 
biofuel industry appears to be well-poised to be of commercial size and 
ready to meet the Navy demands by 2016 for the Secretary of the Navy 
Great Green Fleet goal. According to Biofuels Digest, there are 110 
companies that are currently working on various biofuel products, 
including mixed alcohols, bio-crude oils, and drop-in fuels.
    The RAND study accurately states that the Navy's switch to 
biofuels, in and of itself, will not reduce the Nation's total energy 
consumption by a significant margin. However, the RAND report was not 
well-researched and did not take into account the recent research and 
development advances in the biofuels technologies. RAND stated in their 
report that the Fischer-Tropsch coal-to-liquid/biomass-to-liquid fuels 
are the most promising near-term options for meeting DOD's needs 
cleanly and affordably. Currently, there are no Fischer-Tropsch plants 
here in the United States. Additionally, under the guidelines of the 
EISA of 2007, section 526, any replacement fuel has to have a 
greenhouse gas emission profile less than petroleum. In order to meet 
this guideline, any Fischer-Tropsch coal-to-liquid plant would have to 
have carbon capture and sequestration incorporated into this overall 
process. While there is important carbon capture and sequestration 
research and development ongoing at DOE, there has not been any carbon 
capture and sequestration process built to commercial scale in the 
United States. In summary, due to the EISA 2007, Section 526 guidelines 
and the cost prohibitive carbon capture and storage process, we feel 
that the Fischer-Tropsch coal-to-liquid/biomass-to-liquid fuels are not 
the most promising near-term option for meeting DOD's needs cleanly and 
affordably.
    While the use of alternative fuels can contribute toward 
guaranteeing our energy supplies, reducing our operational risks, and 
during volatile upward price swings in petroleum, could represent 
additional cost savings, the Navy's energy strategy has not been 
limited to alternative fuels. We have aggressively adopted proven 
energy efficient applications and practices commonly found in the 
commercial sector. We have funded both science and technology/research 
and development projects in pursuit of increased energy efficiency 
since these projects can potentially and directly contribute to the 
combat capability of our operating forces by reducing our energy 
consumption both afloat and ashore, and by achieving significant cost 
savings.
    The Navy prefers to see itself as an ``early adopter'' of available 
biofuels. The military has often led in the development of new 
technologies where there was a compelling military use, even if the 
civilian use was ultimately greater (ex. GPS, the Internet). The 
operational use of alternative fuels by the Navy will be hastened by 
collaborating with Federal agencies and private industry at every step 
of the research, development, and certification process. The 
alternative fuel program establishes the Navy as an early adopter for 
investors in a nascent industry that could significantly enhance energy 
security, and thereby national security, in the mid- to long-term. By 
positioning itself as an early adopter by testing available biofuels 
and certifying them ``fit for use across our major platforms and 
leveraging test and certifications accomplished by the other Services 
that meets our specifications,'' the Navy is better poised to reap the 
following benefits:

        <bullet> Cost Savings. Increasing our use of alternative energy 
        sources helps us achieve a level of protection from energy 
        price volatility. For every $10 increase in the cost of a 
        barrel of oil, the Navy spends an additional $300 million a 
        year. Operating more efficiently saves money by reducing the 
        amount we spend for fuel. Savings can be reinvested to 
        strengthen combat capability. The cheapest barrel of fuel 
        afloat or kilowatt-hour ashore is the one we will never use.
        <bullet> Guaranteed Supply. Our reliance on energy can be 
        exploited by potential adversaries. Efficiency and alternatives 
        may be our best countermeasure. Energy efficiency increases our 
        mission effectiveness by expanding our range and endurance, and 
        reducing our need for logistics support. Efficiency 
        improvements minimize operational risks of that logistics 
        tether, saving time, money, and lives. Alternative fuels 
        provide the Navy an `off-ramp from petroleum,' mitigating the 
        risk to a volatile and ever more expensive petroleum market.
        <bullet> Fossil Fuel Independence. The Navy recognizes that our 
        dependence on fossil fuels and foreign sources of oil makes us 
        more susceptible to price shocks, supply shocks, natural and 
        man-made disasters, and political unrest in countries far from 
        our shores.
        <bullet> Combat Capability. Making our ships and aircraft more 
        efficient improves their fuel economy. We can increase the days 
        between refueling for our ships, improving their security and 
        combat capability. We can also extend the range of our aircraft 
        strike missions, allowing us to launch our aircraft farther 
        away from combat areas. Increasing our efficiency and the 
        diversity in our sources of fuel improves our combat capability 
        strategically and tactically.

    72. Senator McCain. General Amos, please describe the alternative 
you are pursuing to reduce our reliance on fuel on the battlefield, and 
which of those initiatives do you think hold the most promise?
    General Amos. We are aggressively pursuing alternative energy 
capabilities, which will reduce the requirement for liquid fuel 
logistics. Our objective is to increase our self sufficiency in 
battlefield sustainment and to reduce our expeditionary footprint.
    Currently we are pursuing innovative renewable energy capabilities 
to support the small unit level operations at the forward edge in 
Afghanistan. Last year, through our ExFOB process, marines of India 
Company, 3rd Battalion 5th Marine Regiment (3/5) trained and deployed 
to Afghanistan with solar and hybrid solar power generation 
capabilities. As of January 2011, two patrol bases were operating 
entirely on renewable energy--while engaged in near constant combat. A 
third base reduced its fuel requirement by approximately 90 percent. 
This unit also used flexible solar/backpack portable battery 
rechargers, enabling a foot patrol to operate for 3 weeks without 
battery resupply whereas typical resupply occurs once every 2 to 3 
days. This unit experienced a reduced burden by an estimated 700 pounds 
and saved an estimated $40,000.
    Our focus on renewable energy aims to increase combat 
effectiveness. India Company's experience--and leadership--show us that 
increasing energy efficiency and using renewable energy sources extends 
a marine unit's sustainability in an expeditionary environment, 
bringing about a leaner, lighter force. Most importantly, it may also 
save lives by getting marines off the road hauling fuel and water.
    In our experience, locally-sourced alternative fuel has the 
potential to offset demand for petroleum at the tactical level. Reduced 
demand for fuel that must be transported to the battlefield means fewer 
marines at risk on the road in convoys.
    In short, solar and hybrid solar capabilities for the small unit 
have proven valuable; we are planning to accelerate them into the 
force. This summer the ExFOB will focus on the activities of a 
battalion-level command operations center. Taking a systems approach, 
we will evaluate renewable and hybrid power solutions together with 
energy efficient shelters and equipment. Solutions that demonstrate 
promise will be carried through for further evaluation. In addition, we 
are focused on leveraging every opportunity to harvest energy from all 
available renewable sources.

            FUTURE NAVAL FORCES AND FUTURE SECURITY THREATS

    73. Senator McCain. Admiral Roughead, you've given some speeches in 
recent months presenting your views on the value of naval forces in 
defending U.S. interests in coming years, particularly in light of 
trends you are seeing in the international security environment. What 
are your views on that matter?
    Admiral Roughead. America's prosperity depends upon the seas: 90 
percent of world trade moves on the world's oceans and underwater 
telecommunications cables facilitate about $3.2 trillion of commerce 
each year. The modern world is a complex, open system comprised of 
interdependent networks of trade, finance, information, law, people, 
and governance. The stability and security of that system depends upon 
U.S. leadership, U.S. cooperation with global partners, and America's 
tireless service as a global security provider.
    Our prosperity and security are inextricably linked, and the 
maritime commons will continue to support the stability of the global 
system. The ocean will remain the primary domain from which naval and 
joint forces project and sustain military power. Seapower allows our 
Nation to maintain U.S. presence and influence globally and, when 
necessary, project power without a costly, sizeable, or permanent 
footprint ashore. Seapower strengthens international and regional 
security, and provides the United States, our allies, and partners the 
means to deter and defeat aggression globally.
    The future security environment will continue to be dynamic and 
characterized by disruption and disorder as state and non-state actors 
compete for resources and influence. Global trends in economics, 
demographics, resources, and climate change portend an increased demand 
for maritime power and influence. We will continue to maintain a 
forward-deployed presence around the world to prevent conflict, 
increase interoperability with our allies, enhance the maritime 
security and capacity of our traditional and emerging partners, 
confront irregular challenges, and respond to crises. As we plan for 
the Navy of the future, we must take a realistic view of that future 
and ensure a dominant Fleet continues to provide the six core 
capabilities we set forth in our Maritime Strategy. If history and our 
current operations are a guide, demand for what we provide the Nation 
will remain undiminished, and may very well increase in the years 
ahead.

                      FISCAL YEAR 2012 NAVY BUDGET

    74. Senator McCain. Admiral Roughead, you've made some comments 
lately about the need for possibly having to reopen the 2012 budget, as 
you put it--by which I take it you mean the Navy later this year might 
have to submit an amended 2012 budget to Congress--depending on what 
happens regarding 2011 Navy funding. Could you expand on that?
    Admiral Roughead. The President's budget for 2012 was built on the 
President's budget for 2011 foundation. The CR drastically affects the 
Navy's accounts and will continue to do so until an appropriation bill 
is enacted. For example, in shipbuilding, the Navy's plan for fiscal 
year 2011 included the procurement of two Arleigh Burke-class guided 
missile destroyers. The second ship of the planned procurement is in 
jeopardy as there was only one ship budgeted in the 2010 cycle. 
Additionally, we planned to start the procurement of two Virginia-class 
submarines, but a CR permits us to procure only one. The lead Mobile 
Landing Platform would be delayed since the lead ship is planned for 
procurement in 2011. Lastly, there is significant increased risk to the 
Gerald R. Ford (CVN-78)-class aircraft carrier program, development for 
the Ohio Replacement Program, and procurement of the amphibious assault 
ship (LHA-7).

    75. Senator McCain. Admiral Roughead, what kinds of changes to the 
2012 budget might we see?
    Admiral Roughead. Until the final budget for 2011 is determined, it 
is difficult to speculate on what the cascading changes might be. 
However, Navy will be able to recover, but there are some programs that 
may not be executable on the same schedule and may require 
modification. There may also be additional costs incurred due to delays 
in meeting contract requirements. Our Navy's budget submitting offices 
are currently working to mitigate these issues. For these reasons, we 
may need to revisit some of our 2012 submissions to ensure that our 
vital programs, and their programmed funding levels, are appropriate 
with the realities of fiscal year 2011's appropriation.

     AIRCRAFT CARRIERS AND OTHER SURFACE SHIPS FACE GROWING THREATS

    76. Senator McCain. Admiral Roughead, there have been some press 
reports lately suggesting that China's new ASBM (called the Dong Feng 
21D) is going to compel our surface Navy to withdraw from certain parts 
of the Western Pacific. Do you agree with this view?
    Admiral Roughead. No. The DF-21D ASBM is but one system in China's 
arsenal that challenges naval operations in contested areas, and our 
Navy has made significant investment in kinetic and non-kinetic 
capabilities to counter ASBMs and advanced cruise missiles. We will 
sustain our forward presence in the Western Pacific and strengthen our 
alliances and partnerships in the region through robust training, 
exercises, and military-to-military engagement. Implementation of the 
Air-Sea Battle Concept, a limited operational concept that focuses the 
development of integrated air and naval forces on addressing the 
evolving anti-access/area denial environment, will help us preserve our 
access and advance our national interests in the Western Pacific while 
ensuring continued U.S. advantage against emerging anti-access threats.

    77. Senator McCain. Admiral Roughead, please tell me--in general 
terms, without getting into classified details--what the Navy is doing 
to counter the ASBM, and whether you are confident about the ability of 
our surface ships to continue operating in these parts of the Western 
Pacific.
    Admiral Roughead. Our Navy has made significant investments in new 
ships, sensors, weapons, and systems to counter a wide array of 
evolving threats. Additionally, Navy has invested heavily in Aegis 
modernization, to upgrade existing Aegis technology already in the 
Fleet. These initiatives involving the current and future Fleet will 
continuously improve our integrated air and missile defense capability, 
allowing our forces to continue to operate forward around the world.

    78. Senator McCain. Admiral Roughead, more broadly, please discuss 
in general terms what the Navy is doing to counter China's various 
maritime anti-access systems, and to preserve a military balance in the 
Western Pacific that is favorable to the United States and its allies.
    Admiral Roughead. The Navy has and will continue to develop 
programs and capabilities to address the anti-access/area denial 
challenges in the Western Pacific and other theaters of operation. 
Accordingly, we are mindful of the need to be prepared to respond to 
all challenges by strengthening our alliances and partnerships, 
modernizing our forces, fielding new capabilities and technologies, and 
developing new operational concepts.
    One specific initiative that will help preserve a favorable 
military balance in the Western Pacific and elsewhere is implementation 
of the Air-Sea Battle Concept--a limited operational concept that 
focuses the development of integrated air and naval forces on 
addressing the evolving anti-access/area denial environment. The Air-
Sea Battle Concept encompasses three key elements:

        <bullet> Institutional cooperation will be enhanced by 
        establishing an enduring organizational construct that will 
        continue formal collaboration to address the A2/AD environment 
        as it evolves over time;
        <bullet> Conceptual alignment will be perpetuated through the 
        operational design which describes how capabilities and forces 
        are integrated to accomplish operational objectives in an A2/AD 
        environment; and
        <bullet> Materiel solutions and innovations will be 
        collaboratively vetted to ensure they are complementary where 
        appropriate; redundant when mandated by capacity requirements; 
        fully interoperable; and fielded with integrated acquisition 
        strategies seeking efficiencies where they can be achieved.

    Air-Sea Battle will ensure continued U.S. advantage against 
emerging threats that include long-range, precise, anti-ship and land 
attack ballistic and cruise missile systems; advanced combat aircraft 
and electronic warfare technologies; advanced Integrated Air Defense 
systems; submarines and subsurface warfare capabilities; surface 
warfare capabilities; C\4\ISR capabilities; and cyber warfare 
technologies.

                      NAVY SURFACE SHIP READINESS

    79. Senator McCain. Admiral Roughead, I understand that the Navy 
recognizes that it needs to improve maintenance on its surface ships to 
repair problems that have developed over the last several years in 
surface ship materiel readiness. However, the Navy's budget request 
shows funding for ship maintenance declining from 100 percent of 
projected requirements in 2010 to 97 percent in the 2011 request and 94 
percent in the 2012 budget request. The total amount of ship 
maintenance funding is going down, from $7.5 billion in 2010, to $7.3 
billion in the 2011 request, and $7.2 billion in the 2012 request. 
Equally troubling is the amount of annual deferred maintenance is 
increasing from zero in 2010 to $172 million in 2011, and $367 million 
in the 2012 budget request. Since funding for maintenance on submarines 
and aircraft carriers is traditionally protected, this downward trend 
in funding looks like it could fall more heavily on the Navy's surface 
combatants. Why does the Navy's budget not reverse the upward trend of 
deferred maintenance?
    Admiral Roughead. Both the fiscal year 2011 and fiscal year 2012 
baseline ship maintenance budget submissions are significantly higher 
than the fiscal year 2010 submission, reflecting our commitment to 
improving the baseline ship maintenance funding posture. Our combined 
fiscal year 2012 OMN baseline and OCO budget submission reflects the 
best balance of risk and available resources across the Navy portfolio. 
It funds 94 percent of the projected depot ship maintenance 
requirements necessary to sustain our Navy's global presence. To 
enhance the materiel readiness of our Fleet, we are improving our 
ability to plan and execute maintenance by increasing manning at our 
Regional Maintenance Centers (RMC), and by institutionalizing our 
engineered approach to surface ship maintenance, converting the 
successes of our Surface Ship Lifecycle Maintenance (SSLCM) initiative 
I began 2 years ago into the Surface Maintenance Engineering Planning 
Program Activity (SURFMEPP). These initiatives combined with our 
enhanced assessments of the materiel condition of our surface ships 
provides us with more insight on how to manage the risk and ensure the 
deferred work is properly documented and completed in future 
availabilities. Navy remains committed to sustaining the force 
structure required to implement the Maritime Strategy and will ensure 
we minimize the impacts and continue the gains we have made in surface 
ship readiness over the last several budget cycles.

    80. Senator McCain. Admiral Roughead, is the Navy's 2012 budget 
request consistent with its goals of improving surface ship readiness?
    Admiral Roughead. Our combined fiscal year 2012 baseline and OCO 
budget submissions fund 94 percent of the projected depot ship 
maintenance requirements necessary to sustain our Navy's global 
presence and continue to improve overall surface ship readiness. This 
represents the best balance of risk and available resources across the 
Navy portfolio. Additionally, the investments we have made in the past 
several budget cycles in SURFMEPP and enhanced assessments of our 
surface ships provide us with more insight on how to manage the risk 
and ensure the work is appropriately apportioned across maintenance 
availabilities. However, Navy remains committed to sustaining the force 
structure required to implement the maritime strategy and will ensure 
we minimize the impacts and continue the gains we have made in surface 
ship readiness over the last several budget cycles.

    81. Senator McCain. Admiral Roughead, how much risk is the Navy 
taking on in terms of surface ship readiness with its current year 
budget submission?
    Admiral Roughead. Our combined fiscal year 2012 baseline and OCO 
budget submissions fund 94 percent of the projected depot ship 
maintenance requirements necessary to sustain our Navy's global 
presence. The resultant shortfall of $367 million equates to deferral 
of 44 surface ship availabilities (34 surface ship non-docking 
availabilities, 3 surface ship docking availabilities, and 7 CVN 
private sector carrier incremental availabilities). This represents the 
best balance of risk and available resources across the Navy portfolio. 
Additionally, the investments we have made in the past several budget 
cycles in SURFMEPP and enhanced assessments of our surface ships 
provides us with more insight on how to manage the risk and ensure the 
deferred work is properly documented and completed in future 
availabilities. Navy remains committed to sustaining the force 
structure required to implement the maritime strategy and will ensure 
we minimize the impacts and continue the gains we have made in surface 
ship readiness over the last several budget cycles.

              COMMANDING OFFICERS' FIRINGS ON THE INCREASE

    82. Senator McCain. Admiral Roughead, there have been a number of 
reported cases in recent months of Navy commanding officers being 
relieved of duty for various reasons relating to their personal 
behavior. The case of the commanding officer on the aircraft carrier 
was well publicized, but there have been a number of additional cases 
as well. Have these removals become more frequent?
    Admiral Roughead. In 2010, we saw an increase in the number of 
commanding officers that have been detached for cause (DFC); however, 
since 2005, less than 1 percent of all our commanding officers have 
been detached for cause, most for issues involving personal misconduct. 
After observing the increase in the number of commanding officers DFC 
cases in 2010, we conducted a review and have taken corrective actions. 
The number of commanding officers detached for cause are:

------------------------------------------------------------------------
                                            Commanding Officers Detached
                   Year                               for Cause
------------------------------------------------------------------------
2007......................................  13
2008......................................  12
2009......................................  14
2010......................................  29
2011......................................   1
                                           -----------------------------
  Total...................................  69
------------------------------------------------------------------------


    83. Senator McCain. Admiral Roughead, how do you explain this 
trend?
    Admiral Roughead. While 99 percent of our commanding officers 
continue to be successful, the increase of commanding officers relieved 
for misconduct in 2010 is a concern. In my review, the increase in DFC 
resulted from personal behavior and misconduct more than professional 
performance. The Navy continues to review and make changes to 
leadership training to improve the success rate of commanding officers. 
There is no simple explanation for this trend, and we have focused our 
efforts on the education, training, and selection of our commanding 
officers. The emphasis is on the personal character, integrity, and 
accountability we expect of our commanders.

    84. Senator McCain. Admiral Roughead, is there an actual increase 
in misconduct by the Navy's commanding officers or is the media just 
paying more attention to them lately?
    Admiral Roughead. The number of commanding officers relieved for 
misconduct in 2010 is an increase. In my review, the increase in DFC 
resulted from personal behavior and misconduct more than professional 
performance. The Navy continues to review and make changes to 
leadership training in order to improve the success rate of commanding 
officers. There is no simple explanation for this trend, and we have 
focused our efforts on the education, training, and selection of our 
commanding officers. The emphasis is on the personal character, 
integrity, and accountability we expect of our commanders.
    There have been 69 commanding officers officially detached for 
cause for the 5-year period from January 2007 to present. Out of the 69 
DFCs since 2007, 36 cases were related to personal misconduct. There 
are currently 5 cases that are pending a final decision, including the 
commanding officer of the aircraft carrier mentioned in your earlier 
question. Reasons for DFC included: (1) Abused position for personal 
gain; (2) Misconduct--fraternization/sexual misconduct; (3) 
Misconduct--otherwise; (4) Inability to provide effective leadership; 
(5) Collision/Grounding; and (6) Requested to be relieved. Personal 
misconduct incidents are reflected in the first three reasons.

------------------------------------------------------------------------
                                   Total Detachments       Personal
              Year                    For Causes          Misconduct
------------------------------------------------------------------------
2007............................                 13                   7
2008............................                 12                   9
2009............................                 14                   4
2010............................                 29                  15
2011............................                  1                   1
                                 ---------------------------------------
  Total.........................                 69                  36
------------------------------------------------------------------------

    The public sensitivity to alleged misconduct by military and 
government officials may generate media attention. In fiscal year 2010, 
media reporting on these issues did increase. With the widespread use 
of electronic devices today, it is far easier to substantiate claims of 
misconduct through the use of email, photographic, and video evidence.

    85. Senator McCain. Admiral Roughead, are you concerned that these 
removals reflect problems in the way the Navy is selecting and training 
its commanding officers?
    Admiral Roughead. I'm confident that the Navy is choosing the best 
officers based on documented performance. The Navy's process of 
selecting and training commanding officers is rigorous and sound. Over 
the last 6 years, 99 percent of commanding officers have successfully 
completed their command tours. The recent DFC trend has largely been a 
result of personal misconduct issues rather than professional 
shortcomings. As a result of this trend, we have incorporated training 
that specifically addresses this matter into the training curriculum 
all prospective commanding officers must complete prior to assuming 
command. The Navy sets high standards of conduct for its commanding 
officers, and will continue to hold them fully accountable.

                    MARINE CORPS ROLES AND MISSIONS

    86. Senator McCain. General Amos, it appears that a number of 
investments associated with the Marine Corps' ability to put troops 
ashore and then properly support them in combat operations have in 
recent years been reduced or put on hold. For example: The Navy's long-
range shipbuilding plan does not include enough amphibious ships to 
maintain a force of 33 amphibious ships. The Navy's planned force of 
155mm Advanced Gun Systems, which were central at one point to DOD's 
plans for providing the Marines Corps with adequate naval surface fire 
support, has been greatly reduced in number due to the truncation of 
the DDG-1000 program. The planned 12-ship MPF(F) squadron has been set 
aside in favor of a less ambitious plan to reinforce the three existing 
maritime prepositioning ship squadrons--and the 2012 budget request now 
plans to reduce that capability by putting one of those three squadrons 
into reduced operating status. The STOVL version of the JSF, for which 
the Marine Corps is to be the primary user--has been put on a 2-year 
probation. The 2012 budget request proposes to cancel the EFV in favor 
of a less-capable replacement system. In light of all these 
developments, do you believe that the Marine Corps' program needs are 
being sufficiently supported by the Navy and the DOD?
    General Amos. There is increasing awareness within the Navy and DOD 
regarding challenges to operational access and power projection. 
Amphibious ships are the cornerstone of our Nation's ability to respond 
to crisis and protect our citizens and interests globally. Today we 
have agreement within the Navy on a requirement of 38 amphibious ships 
and a minimum inventory of 33 ships. While we will not realize the 
floor of 33 immediately, we have committed to reverse this trend to 
increase our amphibious capabilities.
    Additionally, we are working to balance capabilities developed 
since September 11 with the need to expand our engagement efforts, 
respond to crisis, and still be able to project power for the most 
dangerous but less likely threat scenarios. We have greatly improved 
and will continue to improve our maritime prepositioning ship 
squadrons. We have developed an ability to transfer equipment at sea 
and have ensured we can reinforce amphibious forces without a port. We 
continue to look for innovative solutions to meet our naval surface 
fire support requirements, and in that regard the DDG-1000 provides an 
enhancement, and we look to further development of the Long Range Land 
Attack Projectiles. We continue to work with the Navy to enhance our 
connectors and landing craft that form the backbone of our heavy-lift, 
surface, ship-to-shore movement capability from amphibious ships. The 
LHD Capstone Upgrade to Ship Self Defense System Mk 2 provides another 
example of forward momentum to enhance our amphibious capabilities.
    Establishing a period of scrutiny for the F-35B program was a 
prudent decision in light of the progress the JSF program had made to 
date. The identified technical challenges of a Short Take-Off and 
Vertical Landing (STOVL) aircraft are typical of the developmental 
stage of a program of this complexity, yet none of the currently known 
issues are considered to be insurmountable. Corrective actions have 
either already been incorporated into production aircraft, or they are 
being proactively analyzed and will soon be resolved.
    We now have the time to focus resources, ensure solutions are 
effective, and incorporate them in the most efficient means possible 
with the least disruption to schedule, while avoiding the potential of 
costly improvements later in the service life of the aircraft. 
Implications of not having a STOVL tactical aviation capability reach 
far beyond the Marine Corps, and directly affect our ability to support 
national strategy. I am confident the F-35B will surpass expectations 
during this period of focused scrutiny and be a key resource in our 
arsenal of expeditionary capabilities. Once the F-35B platform is fully 
fielded aboard our LHD and LHA ships, the Nation will have 22 capital 
ships--11 amphibious assault and 11 carrier--with 5th generation assets 
aboard.
    I recommended cancellation of the EFV after careful evaluation of 
affordability, fiscal reality, and future operating challenges. 
Although the EFV program has been cancelled, both the Secretary of 
Defense and the Secretary of the Navy have reaffirmed the necessity of 
the Marine Corps amphibious assault capabilities as a component of the 
larger amphibious operations mission set. As the Secretary of Defense 
stated, we are firm in our requirement for an ACV. It is the key to 
conducting ship-to-shore operations in permissive, uncertain, and 
hostile environments; assuring access where infrastructure is destroyed 
or nonexistent; and creating joint access in defended areas. Throughout 
the period when the EFV was being developed, threats in the littorals 
and U.S. capabilities to counter and overcome these threats evolved. We 
now believe that improvements in our capabilities fielded and in 
development mitigate the threat to amphibious forces from anti-access 
and area denial threats to an acceptable level of risk for a naval 
force operating at a 12 nautical mile stand-off range.

    87. Senator McCain. General Amos, and if this trend toward program 
reductions and deferrals continues, what is going to happen over the 
long run to the Marine Corps' ability to put troops ashore and then 
properly support them there in combat operations?
    General Amos. The contributions of amphibious forces to the 
strategic mission of the United States are possible only by the 
maintenance of robust amphibious capabilities--the ships, aircraft, 
connectors, ground vehicles, and forces that conduct sea-based 
operations. In 2010, the Navy-Marine Corps team returned to conducting 
large-scale Marine Expeditionary Brigade/Expeditionary Strike Group 
exercises to hone these critical amphibious skills. While these 
exercises are critical to enhancing our proficiency in large-scale 
amphibious operations, they also serve as a valuable platform to test 
new concepts and potentially lead to the development of updated joint 
doctrine.
    Future amphibious operations will require improvements in mobility, 
command and control, intelligence, fires, sea-based logistics, 
organization, doctrine, training, and education. Amphibious landing 
forces require surface and vertical assault systems with the speed, 
range, precision location and navigational capabilities, protection, 
and firepower to launch from over-the-horizon positions, maneuver 
through tactical points of entry, and achieve the objective regardless 
of the threat. The technologies required to enhance these capabilities 
are under development, and the combat systems implementing these 
technologies are the highest priority in the Marine Corps.
    Our force structure review completed last fall proposed the 
reestablishment of standing Marine Expeditionary Brigade headquarters, 
each under the command of a brigadier general. These command elements 
will increase responsiveness to GCC needs and align with the Navy's 
Expeditionary Strike Group headquarters. The goal of this alignment is 
to provide a more integrated naval approach for amphibious training and 
innovation, while also establishing headquarters capable of commanding 
and controlling larger amphibious operations.

REDESIGNATING THE DEPARTMENT OF THE NAVY TO THE DEPARTMENT OF THE NAVY 
                            AND MARINE CORPS

    88. Senator McCain. Secretary Mabus, what is your view of the 
proposal to redesignate the Navy as the Navy and Marine Corps, and to 
redesignate the person in charge of that department from Secretary of 
the Navy to Secretary of the Navy and Marine Corps?
    Mr. Mabus. I oppose the redesignation of the Navy. Although the 
intent of the proposal is to provide for specific recognition of the 
Marine Corps, it may result in a less effective Navy and Marine Corps 
team. The Navy represents one unified team, with the Marine Corps as a 
fully integrated and equal part of that team. The name of the 
department has not underserved the Marine Corps as a Service, and 
suggestions to the contrary undermine the sense of unity and jointness 
that have been the hallmark of the Navy for over 200 years. Dictating 
such a name change creates the impression that a problem exists and 
could have the deleterious effect of suggesting a step away from the 
heritage and tradition of a strong Navy and Marine Corps team. Thus, I 
oppose the redesignation.

                    REQUIREMENT FOR A 313-SHIP NAVY

    89. Senator McCain. Admiral Roughead, for the past few years Navy 
has justified to Congress a need for 313 ships; does this budget 
support that requirement?
    Admiral Roughead. Yes. This budget supports and will allow the Navy 
to reach a battle force inventory of 313 ships. The President's budget 
for 2012 achieves a balanced and executable shipbuilding program which 
provides additional capability while gaining efficiency in the 
shipbuilding industrial base. The requirement of 313 ships remains the 
floor and the Navy is committed to building to that floor.
    The Navy was able to budget for a total of 55 ships in the 
President's budget 2012 FYDP. These ships include: a continuation of 
the fiscal year 2010 restart of the DDG-51 program; an additional LCS 
in fiscal year 2012 to support an acquisition strategy of dual contract 
awards totaling 10 ships of each design; continuation of the SSN-774 
program at 2 ships per year through fiscal year 2016; acceleration of 
the new MLP program aimed at increasing the capacity and capability of 
the existing Maritime Prepositioning Ship fleet; continuation of the 
CVN-78 program; procurement of the 11th LPD-17 ship, addressing the 
Marine Corps lift requirements for this class of ship; and a 
substantive increase in the Navy's ability to meet theater cooperation 
demands and intra-theater lift requirements through increased 
procurements of the Joint High Speed Vessel (JHSV) program. Overall, 
the fleet additions represented by the additions to the President's 
budget 2012 FYDP will position the Navy to meet its obligations and 
mission requirements through the next decade.

    90. Senator McCain. Admiral Roughead, I'm concerned that cost 
overruns in shipbuilding programs will undermine future plans. What 
specific actions is the Navy taking to mitigate cost overruns in 
shipbuilding programs?
    Admiral Roughead. The Navy recognizes that building the required 
force structure will largely depend on controlling shipbuilding costs 
(including combat systems). The Navy is addressing this in three ways.
    First, the Navy continues to look for further affordability and 
efficiency opportunities as we go forward with the shipbuilding plan, 
such as revising the acquisition strategy for the Littoral Combat Ship 
(LCS) to maximize the advantage of the competitive pricing we received 
and enable us to gain an additional DDG-51 ship within the FYDP.
    Second, the Navy is continuing to emphasize the use of fixed-price 
contracts as a cost control mechanism, when technical risk is low and 
when a ship's design is mature prior to the start of fabrication.
    Third, prior to Milestone A approval for the Ohio Replacement 
submarine, the Navy evaluated numerous capability trades to reduce 
costs. As a result, the Navy made trades in the number of ballistic 
missile tubes, the diameter of those tubes, the number of torpedoes to 
be carried, acoustic sensors, and other defensive features throughout 
the design. These trades made the submarine more affordable while 
maintaining the necessary level of capability, resulting in a reduction 
of the projected cost to a target cost of $4.9 billion (fiscal year 
2010 dollars) for the follow on hulls 2-12.

                        SHIPYARD INDUSTRIAL BASE

    91. Senator McCain. Secretary Mabus, for more than a decade, six 
major shipyards have met most of the shipbuilding needs of the Navy. In 
fact, some experts have said that our industrial base today has been 
established to support a 600-ship Navy, but those needs are declining, 
even as the Navy builds up to a 313-ship fleet. Is the planned number 
of ships enough to keep those six shipyards in business?
    Mr. Mabus. The fiscal year 2012 President's budget request balances 
capability, affordability, and industrial base considerations in 
determining the force structure necessary to meet maritime security 
requirements. Striking that balance requires the Nation to maintain 
adequate capacity and capability by the industrial base to produce the 
ship classes in the plan. It also requires that we preserve 
competition, where practical, and incentivize industry to invest in the 
tools and training required to achieve the affordability, performance, 
and innovation needed to maintain our naval superiority.
    Within this overarching framework, the Navy looks to the 
shipbuilding industry to adopt processes and optimize facilities to 
affordably build the future fleet. The private sector industrial base 
has done so since the Navy build up in the 1980s. Business decisions 
regarding capital investment, consolidation, overhead reductions, et 
cetera--particularly where industry has opportunity to compete for 
naval or commercial ship construction contracts--are largely left to 
industry to determine based on the individual shipbuilder assessment of 
its future business base, and the cost performance it needs to achieve 
to be affordable and competitive for ships in the Navy's budget.
    A recent example of adjustments in the shipbuilding industrial base 
is the Northrop Grumman Corporation (NGC) decision to spinoff its 
shipbuilding sector. Navy evaluated this complex corporate transaction 
and negotiated with NGC to ensure that the reorganized entity, 
Huntington Ingalls Industries (HII), would start as a financially 
viable company capable of performing current and future Navy 
shipbuilding programs. This spin-off is now complete.

    92. Senator McCain. Secretary Mabus, in both the current budget 
request and in terms of a more general policy, what (if anything) is 
the Navy doing to support the shipbuilding industrial base?
    Mr. Mabus. DOD and Navy face the challenge of ensuring that the 
defense industrial base can meet the current and future requirements 
for systems and support while maintaining cost effectiveness, 
competition, and the necessary skills and technology base. To help meet 
this challenge, the Assistant Secretary of the Navy (Research, 
Development, and Acquisition) has engaged an outside entity to develop 
and provide a publicly available, comprehensive, and independent 
assessment of the Navy shipbuilding industrial base.
    The Navy seeks an industrial base analysis that focuses on the 
essential capabilities and capacities needed to support Navy ship 
construction. The objective of the study is to identify the challenges 
facing the Navy and the strategies for mitigating the effects of those 
challenges, across a variety of issue areas such as cost, schedule, 
technical, infrastructure, and workforce capability. This may include 
recommendations to change/improve policies, standards, contract 
elements, performance benchmarks, government and industry practices, 
and oversight that define the effective delivery of quality products, 
platforms, and systems (including combat systems).
    Recent examples of what the Navy has done to support the industrial 
base include:

    1.  In Title II of Public Law 109-234, Section 2203, Congress 
directed that at least $140 million be made available for 
infrastructure improvements at Gulf Coast shipyards that have existing 
Navy shipbuilding contracts and that were damaged by Hurricane Katrina 
in calendar year 2005. In 2010, DOD awarded an additional $39.5 million 
in infrastructure improvement projects to Gulf Coast shipyards that 
support the Navy shipbuilding industrial base. These projects focus on 
expediting recovery of shipbuilding capability, increasing efficiency, 
and preventing further hurricane damage to Gulf Coast shipyards.
    2.  The production of the double-hulled fleet oiler T-AO(X) was 
accelerated from 2017 to 2014 in the fiscal year 2012 budget 
submission. This allows the Navy to acquire this important capability 3 
years earlier while bringing greater stability and promoting 
competition in the shipbuilding industry.
    3.  A recent adjustment in the shipbuilding industrial base is the 
NGC decision to spinoff/sell its shipbuilding sector. Navy evaluated 
this complex corporate transaction and negotiated with NGC to ensure 
that the reorganized entity, HII, would remain a financially viable 
company capable of performing current and future Navy shipbuilding 
programs. This reorganization is now complete, after Navy completed its 
evaluation and announced its position supporting this reorganization 
and finding HII a responsible contractor. The Navy is also prepared to 
provide an agreement, in accordance with the Shipbuilding Capabilities 
Preservation Act (SCPA), that would assist in making HII more 
competitive for commercial shipbuilding work. The purpose/benefits of 
an SCPA is to facilitate a shipbuilder's entry into private sector work 
and reduce that shipbuilder's reliance on the DOD industrial base. U.S. 
commercial shipbuilding accounts for approximately 1 percent of world 
commercial shipbuilding output; 80 percent of this comes from the mid-
tier sector.
    4.  Of the Big Six shipyards, only General Dynamics NASSCO has 
recently competed in the commercial shipbuilding industry. However, 
NASSCO currently has only U.S. Navy shipbuilding and repair work at the 
shipyard. In 2010, the Navy signed an SCPA agreement with NASSCO and 
the company is pursuing commercial contracts.

    93. Senator McCain. Secretary Mabus, are there any plans, for 
example, such as helping to convert existing shipyards into ship repair 
yards?
    Mr. Mabus. There are existing construction shipyards that are 
capable of performing repair work also, and some currently are Navy 
prime contractors for repair, maintenance, and modernization of Navy 
surface ships, aircraft carriers, and submarines.
    Geographic restrictions. For long-term availabilities, 10 U.S.C. 
7299a (section 7299a) prohibits geographic restrictions when assigning 
ship conversion, alteration, or repair projects. For short-term 
availabilities (<6 months), however, section 7299a requires geographic 
restriction of performance to the ship's homeport if there is adequate 
competition to perform the work in the homeport. If homeport 
competition exists, then the Navy shall issue solicitations and award 
contracts only to firms that will perform the work at the vessel 
homeport.
    The Secretary of the Navy Homeport Policy provides additional 
definitions and guidance in applying section 7299a, as follows:

        <bullet> For long-term availabilities, the work will be 
        competed ``coast-wide,'' unless the ASN(RDA) determines ``that 
        competition is infeasible or special conditions exist.''
        <bullet> For short-term availabilities: (i) ``homeport area,'' 
        for solicitation purposes, is defined as a grouping of ports 
        within a 75 mile radius of, and less than 1.5 hours one way 
        travel from, the naval facility where the ship is homeported; 
        (ii) ``adequate competition'' is defined as the presence of two 
        or more qualified bidders that can perform in the homeport; and 
        (iii) requires that, if adequate competition is not available 
        in the homeport, the geographic area for solicitation will be 
        expanded equally in all directions until adequate competition 
        is achieved.
        <bullet> For short-term availabilities for submarines, the 
        Secretary of the Navy waives the requirement for competition 
        and allows performance to be performed sole source in the 
        homeports of New London, CT, and Norfolk, VA. This waiver is 
        necessary because General Dynamics Electric Boat and Huntington 
        Ingalls Industries (Newport News) are the only private sources 
        that can perform short-term, non-refueling availabilities for 
        nuclear submarines.

    Multi-Ship/Multi-Option (MSMO) contracts. The Navy uses MSMO 
contracts to accomplish surface ship maintenance and modernization. 
These contracts are awarded for a specific ship class in a homeport in 
accordance with the Secretary of the Navy Homeport Policy. New 
construction shipyards that are located in a Navy homeport area have 
been awarded MSMO contracts. For example, NASSCO currently holds the 
MSMO contracts for LPD, LSD, LHA, LHD classes of ships in San Diego, 
CA, and Vigor Shipyards (formerly Todd Pacific Shipyards) holds the 
MSMO contracts for docking availabilities for FFG and DDG classes of 
ships in Puget Sound, WA.

    94. Senator McCain. Secretary Mabus, I understand that an outside 
study being done for the Navy on the health of the Navy shipbuilding 
industrial base is just about finished. Can you share any of the 
findings of that report?
    Mr. Mabus. The Assistant Secretary of the Navy (Research, 
Development, and Acquisition) has engaged an outside entity to develop 
and provide a publicly available, comprehensive, and independent 
assessment of the Navy shipbuilding industrial base.
    The Navy seeks an industrial base analysis that focuses on the 
essential capabilities and capacities needed to support Navy ship 
construction. The objective of the study is to identify the challenges 
facing the Navy and the strategies for mitigating the effects of those 
challenges, across a variety of issue areas such as cost, schedule, 
technical, infrastructure, and workforce capability. This may include 
recommendations to change/improve policies, standards, contract 
elements, performance benchmarks, government and industry practices, 
and oversight that define the effective delivery of quality products, 
platforms, and systems (including combat systems). The study is 
expected to be completed shortly.

  HOME-PORTING FOR THE NAVY'S VERSION OF THE F-35 JOINT STRIKE FIGHTER

    95. Senator McCain. Admiral Roughead, I understand that the Navy 
plans to begin replacing 109 F/A-18C Hornets on the West Coast with 100 
F-35C JSF carrier variant aircraft over the next 10 years, beginning in 
2015. Where are you now in determining where those JSF squadrons will 
be home-based and, as a general proposition, what criteria will 
determine the outcome of that decision?
    Admiral Roughead. An Environmental Impact Statement (EIS) is 
underway to assess the impact of homebasing seven F-35C squadrons and 
one Fleet Replacement Squadron (FRS) in a single West Coast location to 
replace the FA-18C. The EIS is evaluating two locations--Naval Air 
Station (NAS) Lemoore, CA, and Naval Air Facility (NAF) El Centro, CA. 
The Navy will make a final homebasing decision after the EIS is 
complete and a Record of Decision (ROD) is signed. Homebasing decisions 
take into account a wide range of possible considerations and factors 
including combatant commander requirements, strategic guidance (QDR, 
Naval Operations Concept, et cetera), threat/risk of natural or manmade 
disaster, proximity to training and operating areas, maintenance 
schedules, existing infrastructure, quality of life for sailors and 
their families, cost, environmental impacts (per the National 
Environmental Policy Act (NEPA)), joint efficiencies and synergies, and 
port/airfield loading.

                     SUSTAINING LEVEL OF COMMITMENT

    96. Senator McCain. Admiral Roughead, the Navy is now required to 
have aircraft carriers in Middle Eastern waters for 9 months out of 
every year, a heavier constant commitment beyond the temporary surging 
of carrier battle groups in the region over the past decade. Will the 
Navy be able to sustain that level of commitment in 5th Fleet with only 
11 aircraft carriers?
    Admiral Roughead. Navy's force generation model, the Fleet Response 
Plan (FRP), structures operational and maintenance cycles to provide 
full spectrum operational capability across all Navy deployable force 
structure. By leveraging the inherent flexibility of the FRP, the Navy 
can sustain current combatant command demand for carrier presence with 
11 operational aircraft carriers for a relatively short and defined 
period of time.

    97. Senator McCain. Admiral Roughead, how difficult will it be to 
sustain that level of commitment when USS Enterprise retires in 2012 
and the Navy has just 10 aircraft carriers?
    Admiral Roughead. Despite being below our required 11 carrier force 
structure, the Navy will be able to meet operational commitments with 
the carriers that remain in service without undue burden on the sailors 
and families of the carrier fleet when the USS Enterprise decommissions 
in 2012. The Navy has put in place measures to minimize the impact of 
the 10-carrier window during the 33 months between the inactivation of 
USS Enterprise (CVN-65) and commissioning of CVN-78 in 2015. We are 
taking advantage of the flexibility of our FRP to ensure that the 
carriers are delivered to combatant commanders in a material condition 
to support all tasks and with a crew that is properly trained. After 
the delivery of CVN-78, we will maintain an 11-carrier force through 
the continued refueling program for Nimitz-class ships and the delivery 
of our Ford-class carriers at 5-year intervals starting in 2020.

                   JOINT STRIKE FIGHTER EXTRA ENGINE

    98. Senator McCain. Admiral Roughead, just a few weeks ago, the 
House of Representatives voted to end funding for the extra engine to 
the JSF. The extra engine has even less support here in the Senate and 
probably would not survive a vote here, if one should occur. What is 
your reaction to having a program that has siphoned hundreds of 
millions of scarce dollars away from other priority requirements 
finally terminated?
    Admiral Roughead. I concur with DOD's belief that the JSF alternate 
engine program is unnecessary, too costly, and risks diverting needed 
resources from other programs. The fiscal year 2012 President's budget 
does not request funding for the development and procurement of the 
F136 extra engine. DOD has concluded that maintaining a single engine 
supplier provides the best balance of cost and risk. Our assessment is 
that the benefits that might theoretically accrue with a second engine 
are more than offset by excess cost, complexity, and associated risks, 
and will divert precious modernization funds from other more pressing 
priorities.

    99. Senator McCain. Admiral Roughead, do you have a sense of when 
Secretary Gates and President Obama will officially announce the 
termination of this program?
    Admiral Roughead. It is the view of DOD that the Alternate Engine 
Program is a waste of taxpayers' money that can be used to fund higher 
departmental priorities, and should be ended now. The administration 
and the DOD strongly oppose the extra engine program, as reflected in 
the President's fiscal year 2012 budget proposal that was recently 
submitted to Congress, which does not include funding for the program. 
DOD issued a stop-work order 24 March 2011 in connection with the JSF 
extra engine program.
    The House of Representatives has recently expressed its own 
opposition to the extra engine in its passage of H.R. 1, including the 
adoption of the Rooney Amendment which removed all fiscal year 2011 
funding for this program. In addition, funding for the extra engine was 
not authorized in the NDAA for Fiscal Year 2011, enacted in January. In 
light of these recent events, congressional prerogatives, and the 
administration's view of the program, we have concluded that a stop-
work order is now the correct course. The stop-work order will remain 
in place pending final resolution of the program's future, for a period 
not to exceed 90 days, unless extended by agreement of the government 
and the contractor.

    100. Senator McCain. Admiral Roughead, to continue funding this 
wasteful program at $28 million per month--or $14 million per each 2-
week CR--when it is now clear this program is effectively dead, makes 
little sense. Has a stop-work order been issued for this program yet? 
If not, do you have a sense of when that may be done?
    Admiral Roughead. DOD issued a stop-work order 24 March 2011 in 
connection with the JSF extra engine program. The administration and 
the DOD strongly oppose the extra engine program, as reflected in the 
President's fiscal year 2012 budget proposal that was recently 
submitted to Congress, which does not include funding for the program. 
It is the view of DOD that the Alternate Engine Program is a waste of 
taxpayers' money that can be used to fund higher departmental 
priorities, and should be ended now.
    The House of Representatives has recently expressed its own 
opposition to the extra engine in its passage of H.R. 1, including the 
adoption of the Rooney Amendment which removed all fiscal year 2011 
funding for this program. In addition, funding for the extra engine was 
not authorized in the NDAA for fiscal year 2011, enacted in January. In 
light of these recent events, congressional prerogatives, and the 
administration's view of the program, we have concluded that a stop-
work order is now the correct course. The stop-work order will remain 
in place pending final resolution of the program's future, for a period 
not to exceed 90 days, unless extended by agreement of the government 
and the contractor.

                         MARINES IN AFGHANISTAN

    101. Senator McCain. General Amos, since this time last year, the 
number of marines in Afghanistan has nearly doubled from about 10,600 
to nearly 20,000. During that period, marines have taken on the Taliban 
in their heartland in Helmand province. It appears we may have turned 
the tide against the Taliban in Helmand this winter, but we know there 
will be heavy fighting ahead in spring and summer. What has to happen 
to keep the momentum we have achieved from being reversed?
    General Amos. U.S. Marines, along with our Afghan, NATO, and 
international partners, will maintain the momentum in the Helmand and 
Nimruz Provinces this spring and summer. We will do so by deepening our 
hold in critical districts, expanding governance and security presence 
into previously uncontested areas, and supporting the Afghan 
Government's plans to transition identified municipalities, districts, 
and provinces to host nation lead throughout the summer and into the 
fall. Each of these three activities, supported in partnership by each 
member of the Regional Command Southwest Combined Team, will enable the 
Afghan Government to maintain its momentum throughout 2011.

    102. Senator McCain. General Amos, what do you think will happen as 
we approach the July 2011 timeframe when many Taliban thought we would 
be pulling out of Afghanistan?
    General Amos. Taliban senior leaders have commented on the planned 
withdrawal of U.S. forces from Afghanistan on several occasions 
referencing late 2014 as stated in both U.S. and international press. 
Most Taliban are aware of the new timeline just as they were aware of 
the initial 2011 target date. With President Karzai's announcement this 
past March of his intent to transition key districts within 
Afghanistan, most Taliban will expect to see the presence of coalition 
forces wane in those areas.
    A precondition for the Taliban to reconcile or negotiate with the 
Afghan Government is the exodus of all foreign entities within 
Afghanistan. As such, we anticipate there will be little reaction from 
low to mid-level Taliban fighters and operational leaders. We also 
expect to see increased rhetoric with regards to coalition partners 
withdrawing troops and subsequent praise of those countries. 
Additionally, once coalition countries have departed, the Taliban 
likely will demonize the remaining U.S. presence for any actions 
perceived as a sleight against Islam.

    103. Senator McCain. General Amos, how much of the load are Afghan 
troops carrying in Helmand and other places in Afghanistan where they 
are partnered with marines?
    General Amos. The Afghan National Security Forces (ANSF) are taking 
steps to develop the capability to lead their own operations. In some 
areas, the ANSF are able to plan and execute their own operations while 
in other places they are heavily involved in planning, coordination, 
and execution. During March 2011, we saw an increase in the overall 
number of ANSF-led operations within Helmand Province.
    As the Afghan National Police (ANP) and Afghan National Army (ANA) 
continue to grow and mature as a force, we must continue to be mindful 
that the ANA 215th Corps, which is the primary ANA element in Helmand 
Province, was stood up just over 1 year ago and that we are still 
building both the ANP and ANA at the same time that they are fighting 
an active insurgency. As we continue to assist in the manning, 
training, and equipping of the ANSF, we anticipate that they will 
further improve their capability to take the lead in executing 
operations. This will lead to a more secure operating area, bringing us 
closer to a transition period where coalition forces can operate from 
an overwatch posture.

    104. Senator McCain. General Amos, are we being successful in 
training the ANA and ANP?
    General Amos. Through the Regional Training Center and the Joint 
Security Academy Southwest (JSAS), Regional Command Southwest has 
established a benchmark in terms of training and building capability 
and proficiency within the ANSFs. We are seeing dividends in our 
investment as we have been able to build upon ANSF basic proficiency 
levels through our leadership and specialty courses to include the 
Afghan Uniform Police Basic Course that we developed.
    The limiting factor to our efforts has been the number of troops 
available to attend these courses. Namely, given the kinetic nature of 
operations in Helmand Province, it is difficult to remove ANSF troops 
from the battlefield for specialized training without simultaneously 
detracting from current operational capabilities or readiness. In this 
regard, our initiatives to hold sustainment and basic training packages 
onsite have enabled improvements and a more combat capable Afghan 
force. As we continue to assist in building ANSF capacity and 
capability, JSAS will continue to provide the key elements for 
continued development. Examples of this include JSAS led training 
programs that will continue to focus on NCO development as well as 
future training targeting junior officers.

    105. Senator McCain. General Amos, how do the local Afghans view 
the marines? Are they willing to throw in their lot with us or are they 
just waiting for us to leave?
    General Amos. In general, reporting indicates increased Afghan 
support for U.S. Marine Corps and coalition forces in areas where we 
have a significant presence. Depending on the quality of local ANSF in 
an area, marines are somewhat more accepted than their ANA or ANP 
counterparts. In other areas, the ANSF are preferred.
    In general, local nationals appreciate the security provided by 
marines and coalition forces, allowing for development projects in the 
areas of education, health care, agriculture, infrastructure, and 
business development. Relations have improved significantly in some 
areas such that patrols are invited into local Afghan homes. Overall, 
the increase in cellular telephone service penetration throughout 
Helmand Province, coupled with a greater confidence in coalition 
forces, has increased the number of tips on insurgent movements and IED 
emplacements.
    In many cases we have seen that as coalition forces initially move 
into an area, the atmospherics are often quite hostile, with Afghan 
nationals often avoiding coalition force patrols. However, our 
experience has been that atmospherics improve as more Afghans interact 
with coalition forces. As security grows and the Afghans become more 
accustomed to coalition forces, they are more likely to greet coalition 
forces personnel, speaking freely with them in the open.

                          WITHDRAWAL FROM IRAQ

    106. Senator McCain. General Amos and Admiral Roughead, in your 
personal opinion, do you think that Iraq will be able to take over the 
logistics, intelligence, and air sovereignty missions that U.S. forces 
have been doing for Iraq by the December 31 deadline for all of our 
combat troops to leave Iraq?
    General Amos. Given that the preponderance of Marine Corps forces 
exited Iraq by January 2010 and that there are only 18 marines left in 
Iraq at this time, U.S. Army units are conducting the preponderance of 
training missions with Iraqi Army at this time. As such, senior 
leadership from the U.S. Army and those from CENTCOM are in the best 
position to provide assessments of the current and future projected 
capabilities of Iraqi Security Forces.
    Admiral Roughead. Iraqi security forces appear to have sufficient 
capabilities to confront Sunni and Shia extremist groups and to provide 
for their internal security, but gaps in their external defense 
capabilities will exist after U.S. combat forces depart. By the end of 
the year the Iraqi Navy will be manned, equipped, and trained to 
effectively patrol their internal waterways and to defend their 
critical infrastructure in the northern Arabian Gulf. Continued 
training to enhance the logistics, sustainment, and intelligence 
capabilities that support such riverine and maritime security 
operations would benefit the Iraqi Navy. Iraq will not be able to fully 
enforce its air sovereignty for some time. Scheduled, rotational 
deployments of our normal forces, to include carriers, to the Arabian 
Gulf in support of our national interests in the region could provide 
the means to help the Iraqi Air Force develop its own air defense 
capabilities.

    107. Senator McCain. General Amos and Admiral Roughead, if it were 
your decision to make, what sort of troops or capabilities do you think 
would continue to be valuable in Iraq?
    General Amos. [Deleted.]
    Admiral Roughead. Navy training teams have been tasked as part of 
OND to train the Iraqi Navy in two general mission areas--riverine 
warfare and maritime security operations. The riverine training mission 
was declared complete in November 2010 by USF-I, but periodic training 
with the Iraqis could be beneficial. In maritime security, the Iraqi 
Navy has assumed force protection responsibilities for one of their two 
major oil platforms. Responsibility for the second platform will be 
transferred to the Iraqis in summer 2011, with U.S. Navy ships 
remaining within range to respond to a threat, if required. By the end 
of 2011, U.S. naval forces will remain on station in the North Arabian 
Gulf in international waters, with the Iraqi Navy fully responsible for 
maritime infrastructure protection within their territorial waters. The 
Navy currently has a robust exercise program with the Iraqi Navy and 
Coast Guard, and will continue these efforts as they stand up their 
capabilities at sea. The most significant challenge facing the Iraqi 
Navy is maintenance of their patrol boats. There will be a continued 
need for U.S. training in this regard and to work with the Iraqis in 
developing the requisite logistical expertise to sustain these craft 
which are used to protect the oil platforms. When Iraqi Navy capability 
and capacity permit, the focus of the Navy's security assistance and 
security cooperation activities could expand to include maritime 
sovereignty enforcement, joint defense of Iraq from external 
aggressors, and advanced interoperability with coalition forces to 
enable the Iraqi Navy to contribute to regional maritime security 
initiatives such as counter-piracy operations.

    108. Senator McCain. General Amos and Admiral Roughead, how do you 
see Iran's influence in Iraq changing after December 31?
    General Amos. [Deleted.]
    Admiral Roughead. From a maritime perspective, Iran is likely to 
continue its assertiveness in the maritime domain. Iran, however, will 
encounter a stronger and more capable Iraqi Navy with the capability to 
defend its critical maritime infrastructure and ultimately the full 
extent of its territorial waters in the Northern Arabian Gulf. By 31 
December 2011, the Iraqi Navy will be capable of effectively patrolling 
the waters surrounding two of Iraq's most important oil terminals, as 
well as the Shatt al-Arab waterway forming the border between Iraq and 
Iran. Complimenting Iraq's recent patrol boat acquisitions, and 
improvements in coordination between the Iraqi Navy and other regional 
coalition forces, is the strategic partnership between Iraq and the 
United States, which is expected to extend well beyond 31 December 
2011, and should counter continuing Iranian assertiveness in the 
maritime domain.

    109. Senator McCain. General Amos and Admiral Roughead, what was 
the toll on Marine Corps equipment from duty in Iraq?
    General Amos. Our equipment returned from Iraq required extensive 
depot level maintenance or replacement in order to meet future demands 
for use by our operational forces. Approximately half the items 
returned from Iraq to the United States required maintenance reset 
actions at the depot or field levels of repair. We replaced a 
significant portion of the remaining equipment due to obsolescence. A 
very small portion required no reset actions and was returned to our 
operating forces.
    Admiral Roughead. I defer to the Commandant for the current 
disposition and location of Marine Corps equipment returning from Iraq 
as the status of Marine Corps equipment falls within his man, train, 
and equip responsibilities.

    110. Senator McCain. General Amos and Admiral Roughead, how much 
was sent to Afghanistan and how much was sent back to the United 
States?
    General Amos. Approximately 40 percent of the current equipment 
density list supporting the Marines in Afghanistan today is comprised 
of equipment shifted directly from Iraq to Afghanistan during the 2009 
surge. The balance of equipment in Iraq was redeployed to the United 
States.
    The equipment redeployed from Iraq to Afghanistan included most of 
our deployed medium tactical vehicle fleet, the majority of our MRAP 
vehicle fleet, light armored reconnaissance vehicles, other hard-to-
move equipment items, and many theater-specific items. This same 
equipment comprises a significant portion of our total service level 
reset liability. Thus, much of our reset requirement will remain 
deferred as long as this equipment continues to be used in Afghanistan. 
Moreover, our future reset costs will grow exponentially as long as the 
war continues.
    Admiral Roughead. I defer to the Commandant for the current 
disposition and location of Marine Corps equipment returning from Iraq 
as the status of Marine Corps equipment falls within his man, train, 
and equip responsibilities.

                                 LIBYA

    111. Senator McCain. General Amos, I understand the USS Kearsarge 
and USS Ponce are now in the Eastern Mediterranean with about 1,400 
marines standing by to assist should events in Egypt, Libya, or Tunisia 
take a turn for the worst. In your professional military opinion, would 
a no-fly zone over Libya be something that could be done from our ships 
and bases in the Mediterranean?
    General Amos. Marine Corps forces, currently embarked aboard 
amphibious shipping, could contribute significantly to the 
establishment of a no-fly zone. However, they likely would require 
augmentation from other U.S. or coalition assets. The limited number of 
fixed-wing aviation assets embarked aboard the USS Kearsarge precludes 
the Marine Corps from providing 24/7 coverage of desired air spaces. In 
that regard, additional Navy or Air Force assets can also provide 
airborne or sea-based command, control, and communication coverage and 
surveillance beyond the organic capability of Marine assets.
    Marine aviation assets, operating from amphibious ships in close 
proximity to coastlines, provide an extremely rapid response to 
fleeting air threats, and can prove invaluable in the recovery of 
personnel that have been isolated as a result of an aircraft crash or 
pilot ejection. This was evidenced most recently in the successful 
recovery of a U.S. airman from Libyan soil after his aircraft 
experienced a mishap. Sea-based aviation assets also help to obviate 
complex basing, over-flight, and staging arrangements with adjacent 
nations.

    112. Senator McCain. General Amos, what do you think a no-fly zone 
would do to the combat effectiveness of Libya's air force?
    General Amos. Coalition air operations under UNSCR 1973 have 
rendered the Libyan Air Force incapable of sustained attacks on 
opposition forces, or disrupting coalition aviation operations. To 
date, coalition air power continues to operate with no aircraft or 
personnel losses resulting from hostile fire, attesting to the 
ineffectiveness of Libya's air force due to the coalition's 
establishment and enforcement of a no-fly zone.

    113. Senator McCain. General Amos, how could the marines now 
standing off shore in the Mediterranean be used to help out should 
events in North Africa deteriorate?
    General Amos. In general, a Marine Expeditionary Unit (MEU) is able 
to provide an array of 12 missions across the range of military 
operations to include limited objective raids or stability operations 
such as humanitarian assistance, non-combatant evacuation, and security 
assistance.
    A MEU also can provide a fixed-wing strike capability, tactical 
recovery of aircraft and personnel support, such as the 26th MEU 
recently conducted in support of a downed U.S. Air Force F-15E in 
Libya.

    114. Senator McCain. General Amos, I understand that the marines on 
Kearsarge and Ponce were actually just recently flown over to meet the 
ships. Where are the marines who deployed on those ships?
    General Amos. The USS Ponce and USS Kearsarge are two of the three 
vessels that comprised the Kearsarge Amphibious Ready Group (ARG). The 
Kearsarge (ARG) contained embarked marines from the 26th MEU, whose 
primary Ground Combat Element (GCE) was Battalion Landing Team 3d 
Battalion, Eighth Marine Regiment (BLT 3/8). Based on a request from 
the Commander, CENTCOM, in January 2011, BLT 3/8 deployed temporarily 
from the Kearsarge ARG to southwestern Afghanistan in order to 
consolidate gains and success.
    When conditions began to deteriorate in the Middle East and North 
Africa in February and it became clear that Marine forces organic to 
the 26th MEU were needed for crisis response, we determined the need to 
backfill BLT 3/8. Within 20 hours of notice, elements of 1st Battalion, 
2d Marine Regiment deployed from Camp Lejeune, NC, to Souda Bay, Crete 
where they linked up with the USS Kearsarge and the USS Ponce, thus 
reconstituting a portion of the MEU's GCE at sea. Since that time, the 
26th MEU redeployed to the United States and was relieved in place by 
the 22nd MEU, whose GCE is 2d Battalion, 2d Marine Regiment, also from 
Camp Lejeune, NC. The 22nd MEU continues the same missions that the 
26th MEU conducted in support of Operation Unified Protector.

                              END STRENGTH

    115. Senator McCain. General Amos, Secretary Gates' efficiency 
plans call for reducing the size of the Marine Corps by about 15,000 
from its current level of about 202,000, beginning as we plan to reduce 
the number of troops in Afghanistan in 2014. What happens if something 
else we haven't planned for comes up before 2014?
    General Amos. Secretary Gates directed the Marine Corps to not 
begin reducing our overall end-strength until after the draw-down of 
the approximately 20,000 marines present today in Afghanistan. 
Therefore, we will remain prepared to respond to crises and maintain 
our commitment to Afghanistan between now and 2014.

    116. Senator McCain. General Amos, can you cut 15,000 troops 
without breaking faith with those who served so well?
    General Amos. Yes. However, until we draw down from Afghanistan, we 
cannot significantly reduce our overall end strength. When we do reduce 
our end strength, we will need to do so in a measured way so as not to 
break faith with the marines who have done so much over the past 10 
years. The number of marines that we can draw down in any given year is 
directly related to the number of marines we enlisted 4 years prior. 
This number is somewhere in the vicinity of 4,000 and represents the 
maximum number of marines that can be drawn down in a given year 
without breaking faith.

                          STRESS ON THE FORCE

    117. Senator McCain. General Amos, I understand your most stressed 
military occupational specialties continue to be intelligence analysts, 
imaging specialists, signals collection operators, UVA operators and 
mechanics, and linguists. What is being done to train more people in 
these fields or expand the number in inventory?
    General Amos. We continue to use Enlistment and Selective 
Reenlistment Bonuses as the primary incentives to attract and retain 
the most qualified marines needed to meet this demand. Due to the time 
required to train these fields, our Operating Forces do not immediately 
see adjustments in the number of personnel in these fields following 
these adjustments.

          STATUS OF REALIGNMENTS OF FORCES ON OKINAWA AND GUAM

    118. Senator McCain. Secretary Mabus, I have a question about the 
decision to relocate 8,000 marines and their families from Okinawa to 
Guam. Your Record of Decision last year related to the environmental 
impact on Guam did not consider two major issues--potential damage to 
coral reefs in the Apra Harbor and the impact to cultural resources 
from the acquisition of private land for Marine Corps training ranges. 
Both issues, as well as the adequacy of Guam's civilian infrastructure, 
are of significant concern to Guam residents and should be of equal 
concern to DOD. Does DOD have a firm plan to ensure the marines have 
the training land they need to meet their needs on Guam? If so, what is 
that plan?
    Mr. Mabus. Over the past year, DOD has engaged the Government of 
Guam to better understand the community's concerns, identify potential 
solutions, and develop a way forward. From these discussions we now 
better understand concerns regarding issues such as access to cultural 
sites and the expansion of DOD's footprint. As training on Guam is 
essential for Marine Corps forces, DOD is working diligently to ensure 
their training requirements will be met.
    Senior DOD officials and Guam's leaders are discussing ways to 
resolve issues related to the site proposed for a live-fire training 
range complex. Our preferred training site is located on the eastern 
shore of Guam near Andersen Air Force Base South and adjacent to Route 
15. DOD has committed to four principles for reaching a negotiated 
settlement for acquiring the Route 15 property:

        <bullet> One Guam: Address infrastructure improvements outside 
        the fence that are directly related to the buildup, and work 
        with other Federal agencies to identify solutions for 
        addressing Guam's needs indirectly or unrelated to the military 
        realignment.
        <bullet> Green Guam: Develop the most energy efficient base 
        possible and support Guam's efforts to develop sustainable and 
        renewable energy projects.
        <bullet> Unfettered Access to Pagat Village and Cave: Conduct 
        training activities in a manner which will allow access to the 
        Pagat Village and Pagat Cave historical sites 24 hours per day, 
        7 days per week, as it is today.
        <bullet> Net Negative: Following the completion of the 
        realignment, DOD will have a smaller footprint than it has 
        today. This commitment will directly address concerns regarding 
        an expanding DOD footprint on Guam. This concept is currently 
        in the early stage of development. Studies will be conducted to 
        determine if missions can be relocated and assess any 
        potentially underutilized properties.

    As a result of these discussions with Guam's leaders, the Governor 
of Guam has stated publicly his willingness to discuss land use issues 
with DOD. We will continue to have discussions with the Governor and 
Guam Legislature with a goal of being ready to commence formal land 
negotiations once appropriate congressional approval for land 
acquisition has been received. DOD will continue to update Congress on 
land use matters and the status of informal discussions with the 
Government of Guam.

    119. Senator McCain. Secretary Mabus, will that plan meet the 
Marine Corps' requirements?
    Mr. Mabus. Yes. Developing an achievable plan for delivering 
required training capabilities on Guam to support the realignment of 
Marine Corps forces from Okinawa is a priority. The Route 15 area 
remains the Navy's preferred alternative for the location of a live-
fire training range complex. As we negotiate with the Government of 
Guam over this site, DOD has committed to conduct training activities 
in a manner which will allow unfettered access to the Pagat Village and 
Pagat Cave historical sites. This commitment, which was made in the 
Programmatic Agreement, can be kept without compromising Individual 
Training Standards (ITS) for marines on Guam. Regarding the timing for 
land acquisition, our focus is on ensuring training ranges are in place 
by the time relocating units will need them.

    120. Senator McCain. Secretary Mabus, why were military 
construction funds originally planned for fiscal year 2012 to acquire 
training lands not included in the budget request for 2012?
    Mr. Mabus. Based on the lack of a Programmatic Agreement under the 
National Historic Preservation Act (NHPA), the lack of a Record of 
Decision (ROD) selecting the final site for the live fire training 
range complex, and other factors, the budget request for fiscal year 
2012 was reevaluated and it was determined that budgeting for land 
acquisition to support a live fire training range complex would be 
premature.

    121. Senator McCain. Secretary Mabus, shouldn't we ensure we have 
the training lands issues resolved before investing hundreds of 
millions of dollars to improve other areas on Guam for the marines?
    Mr. Mabus. The projects appropriated in fiscal year 2010, those 
authorized for appropriation in fiscal year 2011, and those requested 
in fiscal year 2012 are necessary to enable subsequent vertical 
construction and to support Marine Corps operations. Waiting to begin 
military construction projects until after training range land 
acquisition issues are resolved would create a significant bottleneck 
in Guam's limited construction capacity by delaying a large volume of 
site preparation and other preliminary development necessary to support 
follow-on vertical construction of the new Marine Corps base. The force 
flow of Marines to Guam will be based upon the availability of 
requisite facilities and infrastructure. Therefore, a delay in the 
early horizontal construction stage of the program will potentially 
delay the Marines' ability to relocate from Okinawa in fulfillment of 
our international agreement with Japan.

         RELOCATION OF MARINE CORPS AIR STATION FUTENMA, JAPAN

    122. Senator McCain. Secretary Mabus, part of our agreement with 
the Government of Japan to realign forces on the Island of Okinawa was 
to relocate the Marine Corps Air Station (MCAS) at Futenma up north to 
Camp Schwab. What is the status of this initiative?
    Mr. Mabus. Some construction on the ground at Camp Schwab, which 
will enable the airfield construction to move forward more rapidly, has 
been underway for the past few years. We expect agreement on a 
configuration for the runway at the ``2+2'' (Secretary of Defense, 
Secretary of State, Minister of Defense, Minister of Foreign Affairs) 
meeting, which has been postponed due to the earthquake, tsunami, and 
nuclear events. The 2+2 meeting is now expected to be held in May or 
June. We do not yet have a firm timetable for the landfill permit 
process, but in our judgment the Japanese remain committed to the 
roadmap.

    123. Senator McCain. Secretary Mabus, how does the Navy define 
tangible progress by the Government of Japan to carry out this 
relocation?
    Mr. Mabus. We see tangible progress on the Futenma Replacement 
Facility (FRF), not as a single specific event, but rather as a series 
of steps taken roughly in parallel between Japan and the United States, 
as spelled out in our bilateral understandings on the realignment. As 
the Government of Japan makes progress on the FRF, the United States 
will take associated steps to move forward on Guam. There are a number 
of different indicators of this progress, starting with the decision on 
the runway configuration that we expect at the upcoming 2+2 meeting 
with Japan, the issuance of the landfill permit, the construction of 
the sea wall, and progress on the landfill itself.
    An essential point of our realignment understanding with Japan is 
that preparations for facilities on Guam need to begin well in advance 
of the actual construction of the replacement facility at Camp Schwab. 
It is necessary to ensure that when we are satisfied with the progress 
Japan has made on the FRF, suitable facilities will be available on 
Guam to allow the phased relocation of Marines from Okinawa, such that 
any relocation can be sequenced to maintain unit cohesion and 
operational readiness.

              EMINENT DOMAIN SEIZURE OF GOLIAD AIRPORT, TX

    124. Senator McCain. Secretary Mabus, your staff recently notified 
this committee of DOD's intent to use the Federal Government's 
authority to seize a deed to private property through eminent domain in 
order to establish an outlying landing field at Goliad, TX, supporting 
T-6 operations at Naval Station Corpus Christi. The local community had 
rejected previous offers by the Navy to buy the airport, citing 
concerns with significant increase in noise and a loss of potential 
economic development. Statutes require you to certify to Congress that 
you have pursued, to the maximum extent practicable, all other 
available options for the acquisition or use of the land, such as the 
purchase of an easement or the execution of a land exchange. Can you 
describe how you complied with this provision of law the extent of all 
other available options you pursued for the acquisition of the land?
    Mr. Mabus. In September 2006, the Airspace/Air Field Usage Working 
Group (AFUWG) was established in response to selection of the T6-Texan 
as the new aviation training platform. The AFUWG looked at all region 
air space issues associated with this new platform and it was concluded 
in October 2007 that Outlying Landing Field (OLF) Goliad is the only 
option. The Navy reviewed other options, including Aransas County 
Airport, NALFs Waldron and Cabaniss, NAS Kingsville, Victoria Airfield, 
NOLF Orange Grove, and Beeville Airport, for an OLF, but none fully met 
the operational requirements of the T-6.
    Negotiations with Goliad County, the owner of the subject property, 
began in July 2008 when the county made an unsolicited offer to sell 
the subject property to the Navy for $675,000, which was later 
rescinded. Since July 2008, all efforts to acquire fee simple title by 
means of a negotiated sale have been unsuccessful. During negotiations 
with Goliad County, the Navy tendered an offer in an amount equal to 
the appraised fair market value (FMV). The county did not accept the 
initial FMV offer and subsequently rejected a second offer to acquire 
the property by sale for FMV, which also included a commitment by the 
Navy to examine and consider the following additional items of 
importance as expressed by the county: (1) Specific county/private use 
of some land within the airfield footprint; (2) Water rights; (3) 
Future county use of the airfield for an annual revenue producing 
event; (4) Potential development of revenue stream for the county; (5) 
Joint use of the airfield; and (6) Development of WIFI for external 
use.
    On 27 September 2010, in an extraordinary effort to avoid 
condemnation, Mr. Roger Natsuhara, PDASN (EI&E), attended the meeting 
of the Commissioners' Court of Goliad County and provided a statement 
outlining the Navy's requirement and expressing the Navy's willingness 
to work with the local community, but the commissioners took no action 
and the Navy's second offer letter expired on 28 September 2010. 
Condemnation of fee simple title of the 1,136+ acres of land and 
improvements is necessary. Execution of an easement, lease, land 
exchange, or other real estate instrument is not feasible in this 
instance as an exclusive use T-6 OLF with substantial military 
construction (MILCON) investment is required by September 2012.

    125. Senator McCain. Secretary Mabus, the long-term viability and 
safe operation of an outlying landing field requires the cooperation of 
the local community to protect approach zones and accident potential 
zones through compatible local zoning. How does the Navy plan to ensure 
the local development of land around Goliad is compatible with Navy T-6 
operations?
    Mr. Mabus. The Navy has completed a draft Air Installations 
Compatible Use Zone (AICUZ) Study for NOLF Goliad, which is under final 
review prior to release. The Goliad AICUZ study is based on statistical 
predictions of accident potential zones (APZ) and scientifically 
derived day-night average noise contours (using the DOD Noisemap 
Program). The AICUZ program is designed to help State and local 
governments promote compatible land use and development near military 
air installations. The goal of the program is to protect military 
operational capabilities as well as the health, safety, and welfare of 
the public by achieving compatible land use patterns and activities in 
the vicinity of military installations. The AICUZ program recommends 
community land uses that are compatible with noise levels, APZs, and 
flight clearance requirements associated with military airfield 
operations with the goal that the information will be incorporated into 
local community planning programs. With final review and release of the 
AICUZ study, Navy will work with the local community leadership and 
landowners to coordinate acceptable and compatible land use.

    126. Senator McCain. Secretary Mabus, given the current antagonism 
with the local community, how do you plan to work with the local 
community in the future to protect the Navy's investment at Goliad?
    Mr. Mabus. Our policy is always to act as good neighbors with the 
local community, through frequent contact and working together on any 
issues of concern. In addition, the Navy will, to the fullest extent 
possible without interfering with the primary mission of training our 
pilots, look for opportunities to allow traditional community 
activities that occurred on the airfield to continue. Naval Air Station 
Corpus Christi will continue to engage with local leaders to foster 
mutual understanding and trust. Our civilian liaison planning officer 
for that area will develop relationships with Goliad County officials 
and leaders, and, with base leadership, look for ways to build 
relationships and reduce misunderstandings. The Navy and Goliad have a 
long history in the 20th century, and we trust that we will have a win-
win relationship with the county in the 21st century.

                        MOBILIZATION AUTHORITIES

    127. Senator McCain. Admiral Roughead, reliance on the Navy Reserve 
has grown, and it now looks like key capabilities, such as naval 
construction battalions, riverine squadrons, and maritime expeditionary 
security forces will increasingly become part of the Reserve Forces. Do 
you see the need for statutory changes that would enhance the ability 
to mobilize and use Navy Reserve Forces?
    Admiral Roughead. Yes, I do see a need for statutory changes that 
would enhance the ability to deploy Navy Reserve Forces. Demand for 
Navy capabilities will remain the same or increase in the future, and 
Navy Reserve will play a vital role in Navy's Total Force that will 
deliver these capabilities. As stated in the 2010 Quadrennial Defense 
Review (QDR) Report, ``prevailing in today's wars requires a Reserve 
component that can serve in an operational capacity--available, 
trained, and equipped for predictable routine deployment. Preventing 
and deterring conflict will likely necessitate the continued use of 
some elements of the Reserve component, especially those that possess 
high-demand skills, in an operational capacity well into the future.'' 
Current statutes, however, do not allow for the involuntary activation 
of members of the Reserve component for routine deployments in times of 
non-emergency steady-state security environments. Addressing this gap 
would provide the following benefits:

        <bullet> Enhances Total Force capacity by allowing Reserve 
        component units and members to be included in long-range 
        planning processes;
        <bullet> Allows Reserve component units with high-demand skill 
        sets to maintain a higher overall readiness level, preventing 
        those skills from atrophying and ensuring a more robust Total 
        Force response capacity for future contingency operations; and
        <bullet> Provides predictability of future routine military 
        obligations to the individual Reserve members, their families, 
        and their employers.

    128. Senator McCain. General Amos, do you see a changing role for 
the Marine Corps Reserve?
    General Amos. Sustained combat operations and worldwide theater 
security cooperation and training commitments over the last decade 
point towards an essential requirement for the Marine Corps Reserve to 
continue focusing at the operational, rather than strategic, level of 
warfare.
    The transition in use of the Marine Corps Reserve from a strategic 
to an operational perspective, as affirmed by our force structure 
review, expands our ability to perform as America's Expeditionary Force 
in Readiness. Sharing the culture of deployment and expeditionary 
mindset that has dominated Marine Corps culture, ethos and thinking 
since our beginning more than two centuries ago, the Marine Corps 
Reserve is optimally organized, equipped, and trained to perform as an 
operational Reserve.
    A future role of the Marine Corps Reserve should remain consistent 
with the Marine Corps Total Force construct, supported by current force 
planning goals of creating and maintaining capabilities within the 
Reserve component to support the augmentation, reinforcement, or 
reconstitution of the Active component. The Marine Corps aims to 
continue managing the use of the Reserve component through the 
Service's existing force allocation processes, developing the best 
available sourcing solutions in support of validated combatant 
commander requirements.

      WALTER REED NATIONAL MILITARY MEDICAL CENTER AT BETHESDA, MD

    129. Senator McCain. Secretary Mabus, in August 2010, DOD submitted 
to Congress the second part of the Comprehensive Master Plan for the 
National Capital Region Medical which detailed the plan to ensure a 
world-class medical center is available for our wounded military 
personnel at the Walter Reed National Military Medical Center at 
Bethesda, MD. The plan identified construction and renovation projects 
totaling over $829 million to be completed by 2018 at Bethesda, MD, to 
achieve a world-class standard. Do you support the goal to establish 
world-class medical facilities at Bethesda?
    Mr. Mabus. I, along with the Chief of Naval Operation and 
Commandant of the Marine Corps, strongly believe we are currently 
delivering world-class healthcare to our sailors, marines, their 
families, and all our beneficiaries at the National Naval Medical 
Center, Bethesda. I am privileged to witness this exemplary level of 
care firsthand when I visit our wounded warriors and their families. 
This commitment will not waiver with the opening of the Walter Reed 
National Military Medical Center later this year.

    130. Senator McCain. Secretary Mabus, understanding that cost 
estimates are still begin refined, what is the current cost estimate to 
carry out the projects required to achieve world-class facilities?
    Mr. Mabus. As described in the comprehensive Master Plan provided 
to Congress by the Deputy Secretary of Defense in 2010, the current 
estimate to complete the projects required to achieve world-class 
facilities at Walter Reed National Military Medical Center in Bethesda, 
MD, is $816 million from fiscal year 2012 through fiscal year 2017. The 
Joint Task Force National Capital Region Medical reports that this 
amount is over and above anticipated routine restoration and 
modernization projects for the hospital, totaling roughly $300 million 
annually.

    131. Senator McCain. Secretary Mabus, is funding contained in the 
budget request for fiscal year 2012 that would be used to carry out 
projects to achieve that goal? If so how much? If not, why not?
    Mr. Mabus. The President's 2012 budget requested the projects 
listed below to be included in the Defense Health Program for fiscal 
year 2012:

        <bullet> $66 million in MILCON funding to commence/continue the 
        designs for the construction projects identified in the Walter 
        Reed National Military Medical Center Comprehensive Master 
        Plan. These projects include a new clinical building, child 
        development center, traffic/parking improvements and parking 
        expansion, utility upgrades, associated demolition, 
        renovations, temporary facilities, and installation appearance.
        <bullet> $18 million in MILCON funding for the construction of 
        the child development center.
        <bullet> $25 million in operation and maintenance funding to 
        continue planning and execute projects addressing campus 
        wayfinding, Americans with Disabilities Act accessibility, and 
        other pedestrian improvements.

    132. Senator McCain. Secretary Mabus, is the Navy committed to 
meeting the goal of 2018 for completion of the projects?
    Mr. Mabus. The Office of the Assistant Secretary of Defense for 
Health Affairs (ASD(HA)) is budgeting and managing these projects 
rather than Navy. That being said, ASD(HA), the Navy, and Joint Task 
Force National Capital Region Medical are committed to the goal of 2018 
to complete the Comprehensive Master Plan for the National Capital 
Region provided to Congress in 2010.

    133. Senator McCain. Secretary Mabus, can you explain why the Navy 
believes an EIS is required to carry out projects which will not change 
or add to the primary mission of the medical center at Bethesda?
    Mr Mabus. The Navy recommended an EIS be required for the Walter 
Reed National Naval Medical Center (WRNNMC) due to the potential for 
individual and cumulative impacts to historical features, traffic 
concerns, and the surrounding community. Environmental counsel has 
reviewed and concurs with this course.
    The communities surrounding the WRNNMC are very sensitive to the 
constant recent construction and its impact on their quality of life. 
Through an open and ongoing public engagement process, the Navy has 
maintained a positive and understanding relationship with the 
surrounding community. The EIS drafting process will provide 
opportunities for public review and input and facilitate dialogue 
regarding the need for, and impacts of, these projects among the 
WRNNMC, its neighbors, and other stakeholders.

                        CAMP LEMONNIER, DJIBOUTI

    134. Senator McCain. Secretary Mabus, the Ike Skelton NDAA for 
Fiscal Year 2011 contained language expressing concerns with the safety 
and security of U.S. forces stationed at Camp Lemonnier, Djibouti, due 
to cramped conditions and the lack of deliberate planning to address 
vulnerabilities. Congress asked for a master plan that would include 
options for expanding the footprint of the base in order to allow for 
greater separation of functions and a better opportunity to meet anti-
terrorism/force protection standards for almost $500 million worth of 
facilities planned for construction at the base over the next 5 years. 
Will you review the master plan to ensure adequate measures and 
planning have been incorporated to provide for the safety and security 
of U.S. forces deployed to Camp Lemonnier?
    Mr. Mabus. The Camp Lemonnier Master Plan will be reviewed and 
staffed to ensure that it provides the measures and planning details 
for modern, secure facilities that will protect U.S. military personnel 
and support enduring operations throughout the Horn of Africa.

    135. Senator McCain. Secretary Mabus, will the Navy proceed with 
construction activities without your approval of the master plan?
    Mr. Mabus. Previously authorized and appropriated construction 
activities can proceed at Camp Lemonnier without my approval of the 
master plan.

                         TRAINING LANDS ON GUAM

    136. Senator McCain. General Amos, on the issues of the relocation 
of 8,000 marines from Okinawa to Guam, in your opinion, are we on 
course on Guam to provide the Marine Corps with the ranges needed on 
the island for Marine Corps training requirements?
    General Amos. The ranges on Guam are critical to the future 
training and readiness of marines scheduled to relocate there. The 
Marine Corps position is that the relocation cannot commence until the 
ranges are in place. The programmatic agreement signed in March was a 
step forward in meeting this requirement. Our understanding is that the 
Navy will release a Training Record of Decision this summer that will 
identify the location of the ranges. Once that occurs the Navy can 
request the funds to obtain the land needed to build the ranges. 
Assuming that funding occurs during fiscal year 2013, I am satisfied 
the ranges can be constructed in time to support the relocation.

    137. Senator McCain. General Amos, where are you on the proposal to 
update the composition of Marine Corps forces moving from Okinawa to 
Guam in order to provide the Commander of Marine Corps Forces Pacific 
with a force posture meeting Marine Corps doctrine for command and 
control?
    General Amos. The Marine Corps continues to analyze and refine 
alternative lay-down concepts. Much of this effort remains conceptual 
and pre-decisional; however, we are working with U.S. Pacific Command 
(PACOM) and OSD on a lay-down that provides the combatant commander 
with maximum operational viability and command and control capability. 
Upon OSD approval, I expect DOD and the Department of State will then 
reach consensus with the Government of Japan. Once an agreement between 
the two governments is reached, Congress will be formally briefed on a 
decision that will maximize the strategic presence of U.S. forces in 
the region for the foreseeable future.

       RESET AND RECONSTITUTION OF EQUIPMENT FOR THE MARINE CORPS

    138. Senator McCain. General Amos, your written statement describes 
very clearly your priority to ensure adequate funding in this budget 
and future budgets to reset Marine Corps equipment being used overseas 
and to reconstitute home-station equipment. You state that 
approximately 68 percent of non-deployed Marine Corps units report 
degraded levels of readiness. Given the fact that Marine Corps units 
are called upon to serve our country with very little notice, this high 
rate of degraded levels increases the risk that these units may be 
deployed in the future without the equipment they need. You state that 
the budget request for fiscal year 2012 includes $2.5 billion for reset 
and $253 million for reconstitution against total bills of $7.5 billion 
for reset and $5 billion for reconstitution. Do you need more funding 
in fiscal year 2012 to address reconstitution requirements? If not, why 
not?
    General Amos. The Marine Corps' $2.5 billion request in fiscal year 
2012 for reset is directly related to the repair and replacement costs 
of overseas contingency operations in Iraq and Afghanistan. In many 
ways our ability to conduct reset in fiscal year 2012 is constrained by 
the lack of equipment that has returned for reset actions. The 
equipment redeployed from Iraq to Afghanistan in support of the 2009 
surge included most of our deployed medium tactical vehicle fleet, the 
majority of our MRAP vehicle fleet, light armored reconnaissance 
vehicles, other hard-to-move equipment items, and many theater-specific 
items. This same equipment comprises a significant portion of our total 
reset liability. Thus, much of our reset requirement will remain 
deferred as long as this equipment continues to be employed in 
Afghanistan. Moreover, our future costs for reset will grow 
exponentially as long as the war continues.
    The reconstitution requirement of $5 billion is an amount entirely 
separate from our reset costs. This requirement specifically relates to 
table of equipment shortfalls. Therefore, if this amount is funded, 
there will be concurrent increases in our non-deployed readiness 
levels. While we have begun to address our reconstitution shortfall by 
requesting $253 million in fiscal year 2012 for equipment procurement, 
the Marine Corps does have many more equipment deficiencies (as 
evidenced by the degraded state of non-deployed Marine Corps unit 
readiness) that additional funding could be applied against 
immediately.
    As a forward-deployed and expeditionary force, the Marine Corps 
must be able to meet and sustain known operations and respond to new 
requirements. Within the past year, the Marine Corps has successfully 
responded to multiple crises and new operational requirements (e.g. 
Haiti, Pakistan, the Philippines, Japan, Libya, and the introduction of 
a seventh Marine battalion task force into Afghanistan) despite the 
personnel and equipment shortfalls affecting the non-deployed force. 
The primary concern is our ability to respond to a second, major 
contingency (planned or unforecasted). Each new crisis diminishes the 
pool of ready, available forces to respond, which is reflected in the 
current degraded state of readiness of non-deployed units. This 
increases risk in the timely execution of large-scale contingencies.

    139. Senator McCain. General Amos, what rate of funding over the 
next 3 years for reconstitution will raise your nondeployed unit 
readiness levels to acceptable levels?
    General Amos. Our estimate to reconstitute our tables of equipment 
is $5 billion, which is an amount entirely separate from our reset 
costs. This requirement specifically relates to table of equipment 
shortfalls. Therefore, if this amount is funded, there will be 
concurrent increases in our non-deployed readiness levels. While we 
have begun to address our reconstitution shortfall by requesting $253 
million in fiscal year 2012 for equipment procurement, the Marine Corps 
does have many more equipment deficiencies (as evidenced by the 
degraded state of non-deployed Marine Corps unit readiness) that 
additional funding could be applied against over the next 3 years.

    140. Senator McCain. General Amos, are you concerned that your 
future reset and reconstitution requirements may be funded from Marine 
Corps accounts included in the base budget at the sacrifice of other 
Marine Corps priorities?
    General Amos. Once drawdown from Afghanistan commences, the rapid 
reset of equipment and its swift reintegration into the inventory of 
our Operating Forces is the single-most critical factor in our ability 
to successfully reconstitute after the war. Thus, funding for repair or 
replacement of equipment returning from combat is not optional. If 
adequate supplemental funding for reset is not available in the future, 
we will be forced to fund reset within our baseline service budget. 
This will have three primary impacts:

    (1)  It will increase the amount of time required to complete reset 
operations and as a result, prolong the already degraded readiness 
status of our Operating Forces.
    (2)  It will force the Marine Corps to delay or defer critical 
modernization programs as a result of having to divert base budget 
funds for reset.
    (3)  It will create a potential decision point on budgeting for 
these items at the expense of our manpower accounts.

    One final consideration is that the harsh environments and tempo of 
operations in Iraq and Afghanistan through nearly 10 years of constant 
combat have accelerated wear and tear on our equipment. Our equipment 
returning from Iraq has required extensive depot level maintenance or 
replacement. Approximately half the items returned from Iraq to the 
United States required either depot level or field levels of 
maintenance as part of their reset actions. Our planning estimates for 
equipment returning from Afghanistan lead us to predict even greater 
depot level repair requirements and greater wash-out rates than was 
experienced from equipment returning from Iraq.

                         MILITARY CONSTRUCTION

    141. Senator McCain. General Amos, the Marine Corps has requested 
over $440 million in fiscal year 2011 and fiscal year 2012 to construct 
or improve facilities at MCAS, Yuma, AZ, and at the Barry M. Goldwater 
Range in order to support the stationing of multiple F-35 B squadrons. 
Does the delay in the acquisition plan for the Marine Corps variant of 
the F-35 affect the need for the MILCON projects?
    General Amos. Changes in the acquisition plan for the Marine Corps 
variant of the F-35 do not affect the need nor the programming schedule 
of the projects requested in fiscal year 2011 or fiscal year 2012. MCAS 
Yuma will continue to serve as the primary location for aviation pre-
deployment training and large-scale aviation exercises besides having 
dedicated operational squadrons. Dedicated aircraft hangars, apron, and 
training facilities are needed to support permanently based squadrons 
and transient aircraft that are deployed to MCAS Yuma on a regular 
basis.
    Since the JSF is not comparable to existing legacy aircraft and 
cannot operate in a legacy hangar due to different power requirements, 
maintenance and security requirements, and higher level of security, 
MILCON must be completed prior to F-35 aircraft arrival. The estimated 
timeframe to complete an F-35 hangar (construction, outfitting, and 
security certification) is 3 years as follows: (1) 3 months for design 
utilizing a design/build construction contract acquisition strategy; 
(2) 24 months for construction; and (3) 6 to 9 months for outfitting 
and security certification.
    Between fiscal year 2012 and fiscal year 2016, approximately 30 JSF 
aircraft will arrive at MCAS Yuma. These aircraft will fully resource 
two squadrons and partially resource a third squadron. Three hangar 
modules are required by fiscal year 2015 to support these three 
permanently-based Yuma squadrons. One hangar module was requested in 
fiscal year 2011. However, due to the fiscal year 2011 CR, this project 
cannot be awarded for construction, thereby impacting our ability to 
support the initial operational capability (IOC) of the first squadron 
scheduled for fiscal year 2012. Two hangar modules requested in fiscal 
year 2012 are required to support two squadrons, which will reach IOC 
in fiscal year 2015/2016. Appropriate utilities infrastructure and 
training facilities (e.g. simulator buildings, Field Carrier Landing 
Practice training facilities) also are needed to support the F-35.

 INDEPENDENT REVIEW PANEL TO STUDY THE JUDGE ADVOCATE REQUIREMENTS OF 
                       THE DEPARTMENT OF THE NAVY

    142. Senator McCain. Secretary Mabus, on February 22, 2011, the 
members of the Independent Review Panel to Study the Judge Advocate 
Requirements of the Navy submitted to the Secretary of Defense the 
report required by section 506 of the NDAA for Fiscal Year 2010. The 
panel was composed of experts in military law and took extensive 
testimony about the requirements for judge advocates in the Navy and 
Marine Corps. Among other witnesses, General David Petraeus, Commander, 
CENTCOM; VADM Harry Harris, USN, Commander, U.S. Sixth Fleet; VADM John 
Bird, USN, the Director of the Navy Staff; and Lt. Gen. John F. Kelly, 
USMC, Commander, Marine Forces Reserve and Commander, Marine Forces 
North, testified about the current and growing need for judge advocates 
in military operations.
    The panel concluded that there is a requirement in the Navy for 
approximately 950 Active Duty judge advocates and a requirement in the 
Marine Corps for approximately 550 Active Duty judge advocates. The 
panel noted that the Marine Corps is on track to maintain a target 
inventory of 550 judge advocates over the next 5 years. Surprisingly, 
the panel also noted that the Navy, which has 811 judge advocates on 
Active Duty at the end of fiscal year 2010, is planning to reduce the 
inventory of its judge advocates over the next 5 years to 747 in fiscal 
year 2016. How would you evaluate the contribution by Navy and Marine 
Corps judge advocates to the mission of the Navy and Marine Corps in 
OEF, OIF, and OND, to individual sailors, marines, and their families, 
and to the ability the Navy overall in performing its mission?
    Mr. Mabus. Navy and Marine judge advocates are involved in every 
aspect of operations in support of OEF, OIF, OND, and dozens of other 
operations across the globe.
    In an operational environment that has become increasingly complex 
and legally intensive, the ability of judge advocates to identify legal 
and related policy issues in divergent areas (e.g., rules of 
engagement, international law, domestic law, and U.S. policy) and 
synthesize the issues rapidly in order to give timely and coherent 
legal advice to military commanders, staffs, seniors civilians, and 
tactical forces is paramount to mission success. These personnel 
understand, rely on, and demand the counsel they receive from their 
judge advocates.

        <bullet> Across the CENTCOM AOR and other parts of the globe, 
        wherever U.S. forces are engaged in military activities and 
        contingency operations, Navy and Marine Corps judge advocates 
        are involved at every step of an operation--from tactical 
        guidance to strategic level planning.
        <bullet> Through the administration of a fair and balanced 
        military justice system, as well as through the provision of 
        legal assistance to sailors, marines, and their families, judge 
        advocates ensure command and individual readiness, which is 
        essential to accomplishment of the overall Navy mission.
        <bullet> Not only are judge advocates meeting the day-to-day 
        legal demand signal of individual sailors, marines, and their 
        families, they also respond effectively and efficiently to the 
        uptick in legal demand generated by natural disasters (e.g., 
        Hurricane Katrina, flooding in Millington, TN, earthquakes and 
        tsunamis in Indonesia (2006) and Japan (2011)) and global 
        conflict (e.g., pre-deployment, deployment, and post-deployment 
        of individual augmentees), allowing sailors, marines, and their 
        families to receive the legal support they need in order to 
        focus effectively on the Navy's overall mission.

    143. Senator McCain. Secretary Mabus, in view of the conclusions of 
the panel regarding the requirements for Active Duty judge advocates in 
the Navy and Marine Corps, what measures are you taking with respect to 
the growth--or reduction--of judge advocates in the Navy JAG Corps?
    Mr. Mabus. Navy plans to fund, within our base program, 31 JAG 
Corps billets, currently detailed to the Office of Military Commissions 
until the end of fiscal year 2015, and continue increasing the number 
of JAG Corps billets to 821 over the FYDP. This is consistent with the 
number of Active Duty JAG officer billets Vice Admiral Houck testified 
before the 506 Panel are needed to meet baseline mission requirements. 
We have also begun to train enlisted members of the Legalman rating to 
obtain certification through the American Bar Association as 
paralegals, which will gradually ease much of the administrative 
burdens currently levied on JAG Corps officers.

    144. Senator McCain. Secretary Mabus, what other actions are you 
taking in response to the panel's findings and recommendations?
    Mr. Mabus. In direct response to the recommendations made by the 
Independent Review Panel, I have approved revisions to Secretary of the 
Navy Instruction 5430.27C ``Responsibility of the Judge Advocate 
General of the Navy and the Staff Judge Advocate to the Commandant of 
the Marine Corps for Supervision and Provision of Certain Legal 
Services.''
    The revisions will:

        <bullet> institutionalize the Military Justice Oversight 
        Council (MJOC) and the JAG's Annual Report on the State of 
        Military Justice within the Navy;
        <bullet> clarify and strengthen the role of the Staff Judge 
        Advocate (SJA) to Commandant of the Marine Corps (CMC);
        <bullet> establish a direct relationship between the Secretary 
        of the Navy and the SJA to CMC;
        <bullet> provide the SJA to CMC with authority and 
        responsibility to supervise the administration of military 
        justice and legal assistance in the Marine Corps, including the 
        authority to conduct frequent inspections in accordance with 
        title 10, section 806 of the U.S. Code; and
        <bullet> make the SJA to CMC responsible for the professional 
        and technical supervision of Marine judge advocates.

    The panel recommended that implementation of a single court-martial 
case tracking system could improve the Navy's military justice 
practice. I am committed to pursuing an integrated Navy and Marine 
Corps case management system. An ongoing Center for Naval Analyses 
(CNA) study is assisting in identifying potential options for an 
integrated Navy and Marine Corps system. Once CNA provides final 
recommendations, the Navy will make an overall assessment of the IT 
system(s) to pursue.

    145. Senator McCain. Admiral Roughead, what is your view of the 
validity of the panel's conclusion that the Navy should have 
approximately 950 Active Duty judge advocates to meet its requirements 
for legal services?
    Admiral Roughead. We have experienced increased demand for JAG 
Corps officers in areas such as operational law and support for sailors 
and their families. Based on Navy's internal assessment that was 
provided to the Independent Review Panel by Vice Admiral Houck, I 
intend to increase the number of JAG Corps billets to 821 across the 
FYDP.

    146. Senator McCain. Admiral Roughead, do you support current Navy 
personnel planning that will reduce the number of Active Duty judge 
advocates from 811 to 747 over the next 5 years?
    Admiral Roughead. In fiscal year 2011, Navy's program of record was 
to decrease our Judge Advocate General Corps (JAGC) officers from 801 
to 747 by fiscal year 2016. I plan to fund, within Navy's baseline 
budget, an additional 31 JAG Corps billets which are currently detailed 
to the Office of Military Commissions until the end of fiscal year 2015 
to meet the 821 JAGC officers required to meet baseline requirements 
over the FYDP.

    147. Senator McCain. General Amos, what is your view of the 
validity of the panel's conclusion that the Marine Corps should have 
approximately 550 Active Duty judge advocates to meet its requirements 
for legal services?
    General Amos. I am confident in the validity of the Panel's 
conclusion that the Marine Corps requires approximately 550 Active Duty 
judge advocates. My confidence results from the Panel's conclusion 
based on determinations made by the Marine Corps' force structure and 
manpower management systems, with the considered input of the SJA to 
the CMC.
    As noted by the Panel, Marine Corps judge advocate requirements are 
driven by the Marine Corps organizational force structure, the 
requirement to fill a proportionate share of non-legal assignments 
(``B-billets''), and the need to maintain a sufficient inventory to 
sustain the force (e.g. at any given time there are a required number 
of student judge advocates in the accessions pipeline, and a required 
number of career judge advocates attending in-service, resident 
training and education). The force structure requirement is determined 
by the Total Force Structure Division (TFSD), under the Deputy 
Commandant for Combat Development and Integration, in concert with 
subject matter experts and functional advocates. The requirement for B-
billets and sustainment are determined by Manpower Management (MM) 
Division, under the Deputy Commandant for Manpower and Reserve Affairs. 
These requirements are continuously reviewed to ensure structured 
requirements meet mission requirements.
    The SJA to the CMC, as the Occupational Field Manager and 
Functional Advocate for the Marine legal community, is formally 
integrated into this process, working with TFSD and MM to ensure we get 
it right. This process determined that an inventory of approximately 
550 judge advocates would be needed to meet Service, Department, and 
Joint legal billet requirements, as well as requirements for non-legal 
assignments and sustainment overhead for the next 5 years. Recent 
studies and reviews by both the Judge Advocate Division as well as 
successive Uncompensated Review Boards, which the Panel found 
``realistic and useful,'' served to buttress this determination.

    148. Senator McCain. General Amos, how will the recently completed 
Force Structure Review, and projected reductions in end strength, 
affect the Marine Corps ability to increase substantially the number of 
Active Duty judge advocates?
    General Amos. It should be noted that judge advocate structure, 
which largely determines required inventories, has had modest, yet 
steady, increases over the past 5 years (i.e. average 2 percent 
annually), and is projected to have continued, yet modest, increases in 
fiscal year 2012 (2 percent) and fiscal year 2015 (8 percent). This has 
led to corresponding increases in accessions, which in turn have led to 
increases in the inventory of Active Duty judge advocates. As such, 
current, as well as projected, inventories are already meeting these 
requirements.
    That being said, the Panel noted several factors, which if they 
occur, could affect projected requirements for judge advocates 
including: (1) a significant increase in the military justice mission 
once marines redeploy from Afghanistan; (2) structured operational law 
requirements continuing to increase at or near the same rate as has 
been experienced since September 11, 2001; (3) the SJA to CMC being 
provided additional authority to supervise Marine judge advocates and 
the delivery of legal services; or (4) a significant reduction in 
Marine Corps total officer and enlisted end strength. I concur that 
these factors could, if and when they occur, affect the Marine Corps' 
requirements for judge advocates.
    The Report of the 2010 Marine Corps Force Structure Review Group 
(FSRG), published in March 2011, depicts a reduced end strength in the 
Marine Corps Active component from 202,000 to approximately 186,800 
personnel following the completion of operations in Afghanistan.
    This reduced end strength will not necessarily result in a 
reduction of the judge advocate inventory. On this point, I note the 
Panel's observation that ``overall legal requirements do not 
necessarily or directly correlate to force structure or total end-
strength.'' For example, as the Panel observed ``[t]here are certain 
inviolate costs associated with operating a comprehensive military 
justice system worthy of our men and women in uniform, such as 
maintaining independent trial and appellate judiciaries;.maintaining a 
cadre of qualified military counsel capable for trying complex cases; 
and maintaining SJA offices that have the capability to effectively 
discharge military justice responsibilities despite competing wartime 
demands.''
    As the FSRG recommendations are implemented, we will continuously 
manage the number of Active Duty judge advocates to ensure a total 
inventory sufficient to fulfill the manpower requirements for the 
overall legal mission and requirements of the Marine Corps.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                       MARINE CORPS END STRENGTH

    149. Senator Inhofe. General Amos, what effect will a reduction of 
15,300 have on dwell time ratios?
    General Amos. Assuming operational demands do not increase but the 
Marine Corps is allowed to reduce the force at a measured and 
responsible pace, dwell time ratios should not be significantly 
affected. A 4-year timeline would allow for reductions in end strength 
and force structure to be executed in conjunction with reducing 
operational requirements.

    150. Senator Inhofe. General Amos, what was the driver behind the 
decision to increase the Marine Corps 4 years ago?
    General Amos. In January 2007, the Secretary of Defense authorized 
both the Army and Marine Corps to increase their respective Active 
components to sustain combat operations in Iraq. Warfighting units 
within both Services had been on a 1:1 deployment-to-dwell ratio which 
placed serious stress on the force and families. The Marine Corps' 
growth to 202,100 personnel was designed not only to reduce stress on 
the force by achieving a 1:2 deployment-to-dwell ratio, but also to 
allow the Marine Corps to continue training to other missions across 
the Range of Military Operations rather than those solely focused on 
counterinsurgency and irregular warfare. This end strength growth also 
helped to create three balanced Marine Air-Ground Task Forces to better 
support Overseas Contingency Operations.

    151. Senator Inhofe. General Amos, what conditions have changed?
    General Amos. Looking ahead to the end of combat operations in 
Afghanistan, the Marine Corps has determined that a smaller force makes 
more sense from an operational perspective. A future end strength of 
186,800 marines provides the country a ``middleweight'' force that is 
forward deployed and forward engaged, and ready to conduct complex 
expeditionary operations across the range of military operations in 
accordance with National Strategy. A reduction in end strength also 
frees resources for much-needed modernization, reset, and 
reconstitution efforts.

    152. Senator Inhofe. General Amos, what types of challenges will 
the Marine Corps face if required to reduce the strength by 15,300 in a 
2-year time span?
    General Amos. Significant involuntary separations would be required 
to reduce the force in a 2-year timeframe. A rapid draw-down throughout 
the Active component could decrease dwell time among our most heavily 
deployed and stressed occupational fields.

    153. Senator Inhofe. General Amos, will this have an impact on 
future retention?
    General Amos. The actions necessary to achieve a 2-year draw-down 
may have a negative impact on future retention, primarily due to the 
perception that the Marine Corps is willing to break faith with its 
career force. Additionally, excessively small accession cohorts, needed 
to facilitate a rapid drawdown, would result in insufficient retention 
populations at the 4-year reenlistment point.

    154. Senator Inhofe. General Amos, what risks are associated with 
reducing the Corps' size?
    General Amos. The planned reduction of Marine Corps personnel in 
the Active component from 202,000 to 186,800 personnel is based on 
mission requirements beyond OEF. The imperative for the Marine Corps is 
to preserve capabilities developed since September 11, expand our 
engagement efforts, respond to crisis, and still be able to project 
power for the most dangerous threat scenarios. To that end we will 
accept a degree of risk by reducing our Active component capacity for 
conducting multiple, sustained operations ashore, relying on an 
operationalized Reserve component to mitigate that risk. Of necessity, 
our force structure represents many judiciously considered factors and 
makes pragmatic trade-offs in capabilities and capacities to achieve a 
posture that creates opportunity and provides an operational stance 
that enables flexibility and rapid response. The Marine Corps does not 
plan on reducing end strength until it has withdrawn combat units from 
OEF. A 186,800 force will provide the United States a middleweight 
force capable of operating across the range of military operations.

    155. Senator Inhofe. General Amos, how will a reduction in the size 
of the Marine Corps affect the Corps' ability to sustain combat 
operations in the future?
    General Amos. The 2010 Marine Corps Force Structure Review Group 
developed the organization, posture, and capabilities to reshape and 
enhance America's Expeditionary Force in Readiness in a fiscally-
constrained, post-OEF environment.
    Reshaping the Marine Corps from a wartime footing of 202,000 
marines to a force of approximately 186,800 imposes some risk. We 
wargamed all proposed force structure changes against approved DOD 
scenarios and select operation plans. We determined that the resulting 
force would be capable of operating across the range of military 
operations. However, we assumed some risk in our capacity to conduct 
sustained or simultaneous major operations and campaigns.

    156. Senator Inhofe. General Amos, what assurances do we have that 
we will not need a larger Marine Corps in the future?
    General Amos. There is no assurance. However, the 2010 Marine Corps 
Force Structure Review Group developed the organization, posture, and 
capabilities to reshape and enhance America's Expeditionary Force in 
Readiness in a fiscally-constrained, post-OEF environment. We wargamed 
all proposed force structure changes against approved DOD scenarios and 
select operation plans. We determined that the resulting force would be 
capable of operating across the range of military operations. However, 
we assumed some risk in our capacity to conduct sustained or 
simultaneous major operations and campaigns.

                  MARINE CORPS PREPOSITIONING PROGRAM

    157. Senator Inhofe. General Amos, it is my understanding that to 
support recent Marine Corps combat operations, the Marine Corps has 
drawn from its propositioned stock sets, and reset of these stocks is 
underway and will be done in conjunction with the Marine Corps 
procurement programs. Last year, this committee was briefed that in 
Norway, the current percentage of on-hand major end-item equipment was 
47 percent of authorized allowances and the percentage of on-hand 
supplies was 78 percent. What is the current status of the Marine Corps 
prepositioned stocks?
    General Amos. When measured against authorized allowances, the 
percentage of major end item equipment (Class VII) currently present in 
the Maritime Prepositioning Force program is 97 percent, and the 
percentage of all starter stocks currently present is in excess of 95 
percent.\1\ Starter stocks represent the initial supplies (e.g. food 
stores, ammunition, medical supplies) needed in the first 30 days to 
supply a Marine Expeditionary Brigade (MEB).
---------------------------------------------------------------------------
    \1\ Data as of 2 August 2011.
---------------------------------------------------------------------------
    In Norway, the current percentage of on-hand major end-item 
equipment (Class VII) measured against authorized allowances is 51 
percent; the percentage of on-hand sustainment is 85 percent.\2\
---------------------------------------------------------------------------
    \2\ Data as of 2 August 2011.

    158. Senator Inhofe. General Amos, is there adequate funding in the 
near- or far-term to fully restock propositioned equipment and 
supplies?
    General Amos. Yes. The Marine Corps has adequate operations and 
maintenance funding to support the annual maintenance of existing 
equipment and the rotation/replenishment of supplies and materials.
    Our prepositioning programs have been used to source equipment for 
forward-deployed and deploying units. As a result, the Marine Corps has 
assumed risk within its Maritime Prepositioning Force (MPF) program and 
Marine Corps Prepositioning Program in Norway while supporting ongoing 
Overseas Contingency Operations.
    When measured against authorized allowances, the percentage of 
major end-item equipment (i.e. Class VII) currently present in the MPF 
program is 97 percent; the percentage of all starter stocks (e.g. 
initial sustainment) currently present is in excess of 95 percent.\3\ 
Starter stocks represent the initial supplies (e.g. food rations, 
medical supplies, ammunition) needed in the first 30 days to supply a 
Marine Expeditionary Brigade (MEB). In Norway, the current percentage 
of Class VII equipment measured against authorized allowances is 51 
percent while the percentage of on-hand sustainment is 85 percent.\4\
---------------------------------------------------------------------------
    \3\ Data as of 2 August 2011.
    \4\ Ibid.
---------------------------------------------------------------------------
    We anticipate restoring our prepositioned stocks to 100 percent at 
the end of our Afghanistan force drawdown once remaining equipment, 
currently in combat, undergoes reset.

                                 AFRICA

    159. Senator Inhofe. Secretary Mabus and Admiral Roughead, I 
understand the Navy is expanding its survey of ports in Africa in order 
to initiate more contact with African countries through port visits, 
continuing to build relationships with our African partners. How do you 
view the importance of continued Navy operations in and around the 
African continent?
    Mr. Mabus. The Navy's presence and maritime security force 
assistance initiatives within U.S. Africa Command's area of 
responsibility continue to grow in strategic importance. A number of 
African partners have measurably improved their maritime security 
capacity as a result of training provided through Africa Partnership 
Station and other Navy efforts conducted throughout the continent.
    The practical value of such initiatives is exemplified by the 
Africa Maritime Law Enforcement Partnership (AMLEP), a joint Navy and 
Coast Guard initiative that began in 2008. To date, five separate AMLEP 
training events have been conducted. Participating African partners 
have disrupted illegal fishing within their Economic Exclusion Zones 
and seized a total of five vessels that were violating national fishing 
laws. These successes reinforce the rule of law; reduce lost revenue 
and food supplies by states that were incapable of enforcing their 
maritime rights; and generate revenue from fines that can be used to 
sustain and enhance the maritime security capacity of their Navy and 
Coast Guard forces. Importantly, the basic capabilities and proficiency 
that enable offshore fisheries enforcement also underpin counter-
piracy, counter-trafficking, and critical infrastructure protection 
operations, leading to enhanced national and regional maritime security 
that benefits not only the African states, but also the global economy.
    Africa Partnership Station missions, as well as focused, shorter 
duration maritime security force assistance events, are designed to 
incorporate subject matter experts from other U.S. agencies (e.g. Coast 
Guard, National Oceanic and Atmospheric Administration, U.S. Agency for 
International Development, and the Departments of State, Energy, 
Homeland Security, and Transportation), who work alongside the Navy in 
a comprehensive U.S. Government approach to building partner capacity. 
The Navy provides expeditionary capability that efficiently extends the 
reach of U.S. agencies as well as that of numerous nongovernmental 
organizations, international organizations, and other nations' naval 
personnel. In this way, Africa Partnership Station deployments foster 
and sustain cooperative relationships that enhance national and 
international effectiveness during crisis response operations.
    The Navy appreciates the importance of sustained, predictable 
engagement in Africa and will work to increase the maritime security 
capacity of the African littoral states for the foreseeable future.
    Admiral Roughead. The Navy's presence and maritime security force 
assistance initiatives within U.S. Africa Command's area of 
responsibility continue to grow in strategic importance. A number of 
African partners have measurably improved their maritime security 
capacity as a result of training provided through the Africa 
Partnership Station and other Navy efforts conducted throughout the 
continent.
    The practical value of such initiatives is exemplified by the 
AMLEP, a joint Navy and Coast Guard initiative that began in 2008. To 
date, five separate AMLEP training events have been conducted. 
Participating African partners have disrupted illegal fishing within 
their Economic Exclusion Zones and seized a total of five vessels that 
were violating national fishing laws. These successes reinforce the 
rule of law; reduce lost revenue and food supplies by states that were 
incapable of enforcing their maritime rights; and generate revenue from 
fines that can be used to sustain and enhance the maritime security 
capacity of their Navy and Coast Guard forces. Importantly, the basic 
capabilities and proficiency that enable offshore fisheries enforcement 
also underpin counter-piracy, counter-trafficking, and critical 
infrastructure protection operations, leading to enhanced national and 
regional maritime security that benefits not only the African states, 
but also the global economy.
    Africa Partnership Station missions and focused, shorter duration 
maritime security force assistance events, are designed to incorporate 
subject matter experts from other U.S. agencies (e.g. Coast Guard, 
National Oceanic and Atmospheric Administration, U.S. Agency for 
International Development, and the Departments of State, Energy, 
Homeland Security, and Transportation), who work alongside the Navy in 
a comprehensive U.S. Government approach to building partner capacity. 
The Navy provides expeditionary capability that efficiently extends the 
reach of U.S. agencies as well as that of numerous nongovernmental 
organizations, international organizations, and other nations' naval 
personnel. In this way, Africa Partnership Station deployments foster 
and sustain cooperative relationships that enhance national and 
international effectiveness during crisis response operations.

    160. Senator Inhofe. Secretary Mabus and Admiral Roughead, the 
commander of U.S. Naval Forces Africa is also the commander of U.S. 
Naval Forces Europe and has an area of responsibility that covers all 
of Russia, Europe, and nearly the entire continent of Africa--105 
countries, more than one billion people, 20 million square miles of 
ocean, and a landmass of over 14 million square miles. Given current 
and forecasted defense budgets coupled with increase demand for Navy 
assets, is the Navy adequately resourced to increase the activity and 
operations around the continent of Africa?
    Mr. Mabus. The Navy's force structure supports a forward naval 
posture to meet warfighting and peacetime requirements across the 
entire spectrum of current and future conflicts. This force structure 
meets the minimum demands as generated through the Combatant Commander 
and Service capability identification process through the 2020 
timeframe; however, simultaneously sourcing all of the COCOM demands, 
including those of AFRICOM, for warfighting, deterrence, security 
objectives, and prompt response to all possible crises would require a 
larger Navy than is currently resourced. The risk resides primarily in 
meeting portions of the security objectives and prompt response to a 
crisis with forces already in theater. As mitigation, DOD will employ a 
comprehensive GFM process to most effectively allocate naval forces to 
the highest priority COCOM requirements.
    The Navy's President's budget for 2012 continues support for the 
Africa Partnership Station (APS), a collaborative strategy designed to 
help coastal nations in West and Central Africa achieve safety and 
security in the Gulf of Guinea as well as cooperative training for East 
Africa. APS missions include maritime training, collaboration, 
infrastructure-building, and cross-border cooperation to assist African 
nations in securing maritime regions and sovereign waters. These 
efforts address criminal activity, piracy, environmental and fisheries 
violations, resource theft, arms smuggling, and narcotics and human 
trafficking. APS is a direct response to the growing international 
interest in forming cooperative global maritime partnerships to ensure 
global maritime security.
    Admiral Roughead. The Navy's force structure meets the minimum 
demands currently identified by combatant commanders, including 
AFRICOM. DOD utilizes a comprehensive GFM process to most effectively 
allocate naval forces to the highest priority COCOM requirements as the 
security environment evolves.

                            MISSILE DEFENSE

    161. Senator Inhofe. Secretary Mabus and Admiral Roughead, I 
continue to have concerns about our current missile defense plan. While 
the SM-3 Block IB will be tested this year and hopefully fielded in 
2015, the SM-3 Block IIA is in design with a 2018 projected fielding 
date and the SM-3 Block IIB is still only a concept. However, 
intelligence estimates state that Iran may have a long-range ballistic 
capability by 2015. What is current level of confidence in being able 
to deploy the SM-3 Block IIA by 2018 and the SM-3 Block IIB by 2020?
    Mr. Mabus. The MDA, which is responsible for developing and 
procuring BMD missiles, is working closely with Navy to deliver the SM-
3 Block IIA by 2018 and the SM-3 Block IIB by 2020. We will keep 
Congress fully informed as these important programs progress.
    Admiral Roughead. The Navy and MDA are working closely to develop, 
procure, and deliver the SM-3 Block IIA by 2018 and the SM-3 Block IIB 
by 2020. We will keep Congress fully informed as these important 
programs progress.

    162. Senator Inhofe. Secretary Mabus and Admiral Roughead, the 2010 
Ballistic Missile Defense Review notes, ``the demand for missile 
defense assets within each region over the next decade will exceed 
supply.'' Do we have enough Aegis ships and missiles to not only 
protect Europe from an Iranian threat but also have Aegis ships 
deployed around the globe to conduct its missile defense mission as 
well as its maritime security, anti-submarine warfare, and surface 
warfare missions?
    Mr. Mabus. The Navy currently has sufficient capacity to meet the 
most critical demands for its multi-mission Aegis ships; however, Navy 
does not have the capacity to meet all GCC demands for BMD-capable 
ships without breaking established Personnel Tempo program limits.
    The Navy has a sufficient inventory of SM-3 missiles to satisfy 
global missile defense requirements today. However, given the 
relatively small number of missiles in the current inventory (76), we 
are using the Global Force Management system to provide a ``fair 
share'' of SM-3s to deploying ships and then shifting those missiles to 
successive ships as deployment rotations occur. Ultimately, the MDA 
plans to procure a total of 523 SM-3 missiles, which will permit 
increased loadouts aboard deploying ships and obviate the requirement 
to transfer missiles in theater in the future. This increased inventory 
will also provide for contingency surge readiness and an adequate war 
reserve of SM-3 missiles.
    To meet the increasing demand for these ships and reduce the risk 
to our long-term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan to increase the number of BMD-capable 
Aegis ships from 23 in fiscal year 2011 to 41 in fiscal year 2016 (see 
Figure 1 below). This plan balances the need for meeting current 
operational requirements against the need to upgrade existing BMD-
capable Aegis ships to pace the future threat. Included in this plan 
are increases in the Navy's capacity and the capabilities of Aegis 
ships through the installation of an Aegis BMD 3.6.1/4.0.1 suite, the 
Aegis Modernization program, or new construction (commencing with DDG-
113).
    A key attribute of all Aegis ships is their multi-mission 
capabilities within the maritime domain, which allows the Navy to 
employ Aegis ships in multi-mission roles rather than for exclusive 
missions. These ships can perform a variety of other non-BMD missions 
either concurrently or sequentially as the GCC requires.
    The Navy's operating concept for maritime BMD features a graduated 
readiness posture that allows BMD-capable Aegis ships to be on an 
operational tether and available for other tasking when not directly 
involved in active BMD operations. Aegis ships operating in support of 
a BMD mission do not lose the capability to conduct other missions; 
however, specific mission effectiveness may be affected by ships' 
position and/or application of ship resources to those missions.
    The Navy is not large enough to deploy ships for single mission 
purposes, and thus with the exception of deterrent patrols by SSBNs, 
does not advocate deploying warships for single mission tasking. Single 
mission use of our Aegis ships for BMD will result in shortages in 
other mission areas and a loss of operational flexibility for the GCCs.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for its multi-mission Aegis ships; 
however, we do not have the capacity to meet all GCC demands for BMD 
without exceeding established Personnel Tempo program limits for 
deployment lengths, dwell tempo, or homeport tempo. Based on threat 
analysis, and current indications from GCCs, and assuming standard 6-
month deployment lengths, the Navy and the MDA concluded that GCC 
demand for surface combatants with Aegis BMD capability will outpace 
capacity through approximately 2018.
    Single mission use of our Aegis ships for BMD will result in 
shortages in other mission areas and a loss of operational flexibility 
for the GCCs. To ensure GCCs demands are met, the Navy employs Aegis 
ships in multi-mission roles rather than for exclusive missions on an 
enduring basis. These ships can perform a variety of other non-BMD 
missions such as strike warfare, air warfare, submarine warfare, 
surface warfare, information warfare, high value asset protection, or 
maritime interdiction either concurrently or sequentially as the GCC 
requires. The Navy has created a flexible operating concept for 
maritime BMD which features a graduated readiness posture that allows 
BMD-capable Aegis ships to be on an operational tether and available 
for other tasking when not directly involved in active BMD operations. 
Aegis ships operating in support of a BMD mission do not lose the 
capability to conduct other missions; however, specific mission 
effectiveness may be affected by ships' position and/or application of 
ship resources to those missions.
    To meet the increasing demand for these ships and reduce the risk 
to our long-term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan to increase the number of BMD-capable 
Aegis ships from 23 in fiscal year 2011 to 41 in fiscal year 2016 (see 
Figure 1 above). This plan balances the need for meeting current 
operational requirements against the need to upgrade existing BMD-
capable Aegis ships to pace the future threat. Included in this plan 
are increases in the Navy's capacity and the capabilities of Aegis 
ships through the installation of an Aegis BMD 3.6.1/4.0.1 suite, the 
Aegis Modernization program, or new construction (commencing with DDG-
113). The current CR and the President's budget for fiscal year 2012 
may impact this plan.
    The Navy has a sufficient inventory of SM-3 missiles to satisfy 
global missile defense requirements today. However, given the 
relatively small number of missiles in the current inventory (76), we 
are using the Global Force Management system to provide a fair share of 
SM-3s to deploying ships and then shifting those missiles to successive 
ships as deployment rotations occur. Ultimately, the MDA plans to 
procure a total of 523 SM-3 missiles, which will permit increased 
loadouts aboard deploying ships and obviate the requirement to transfer 
missiles in theater in the future. This increased inventory will also 
provide for contingency surge readiness and an adequate war reserve of 
SM-3 missiles.

    163. Senator Inhofe. Secretary Mabus and Admiral Roughead, how is 
the Navy managing the limited number of Aegis BMD ships when demand is 
greater than supply?
    Mr. Mabus. All Aegis ships are allocated to the GCCs through the 
DOD Global Force Management (GFM) process, which takes into 
consideration GCC surface combatant requirements in all mission areas. 
The Navy employs the FRP as the framework to provide a structured 
process to prepare and posture Navy forces to meet GFM requirements, 
including but not limited to BMD. The FRP balances the need to maintain 
and upgrade equipment, train for the full spectrum of operations, and 
deploy in support of GCC requirements.
    Admiral Roughead. The Navy currently has sufficient capacity to 
meet the most critical demands for its multi-mission Aegis ships; 
however, we do not have the capacity to meet all GCC demands for BMD 
without exceeding established Personnel Tempo program limits for 
deployment lengths, dwell tempo, or homeport tempo. Based on threat 
analysis and current indications from GCCs, and assuming standard 6-
month deployment lengths, the Navy and the MDA concluded that GCC 
demand for surface combatants with Aegis BMD capability will outpace 
capacity through approximately 2018.
    The Navy employs the FRP as the framework to provide a structured 
process to prepare and posture Navy forces to meet GFM requirements, 
including but not limited to BMD. The FRP balances the need to maintain 
and upgrade equipment, train for the full spectrum of operations, and 
deploy in support of GCC requirements.
    To meet the increasing demand for these ships and reduce the risk 
to our long-term force structure caused by the increased operational 
tempo from longer deployment lengths, the Navy, working in conjunction 
with MDA, has established a plan to increase the number of BMD-capable 
Aegis ships from 23 in fiscal year 2011 to 41 in fiscal year 2016 (see 
Figure 1 above). This plan balances the need for meeting current 
operational requirements against the need to upgrade existing BMD-
capable Aegis ships to pace the future threat. Included in this plan 
are increases in the Navy's capacity and the capabilities of Aegis 
ships through the installation of an Aegis BMD 3.6.1/4.0.1 suite, the 
Aegis Modernization program, or new construction (commencing with DDG-
113).

    164. Senator Inhofe. Secretary Mabus and Admiral Roughead, why are 
Aegis ships which are configured to carry 20 missiles only carrying 10 
to 11 missiles?
    Mr. Mabus and Admiral Roughead. Currently deployed Aegis ships are 
carrying a limited number of SM-3 missiles due to the still growing 
inventory of BMD weapons in our Navy. Given the combatant commander 
demand for Navy BMD ships on station, we are utilizing the Global Force 
Management process to provide a fair share of existing inventory to 
deploying BMD capable ships. Ship loadouts will be increased as 
additional SM-3 missiles are procured and the overall Navy BMD 
inventory increases.

    165. Senator Inhofe. Secretary Mabus and Admiral Roughead, 
according to a June 2010 Defense News article, the Aegis radar systems 
are ``in their worst shape ever, raising questions about the surface 
fleet's ability to take on its high-profile new mission next year 
defending Europe from ballistic missiles.'' The article describes a 
Fleet Review Panel assessment, started in September 2009 by the head of 
Fleet Forces Command, that Aegis ``SPY manpower, parts, training, and 
performance are in decline,'' and suggests that these deficiencies 
would affect the Navy's ability to meet its missile defense mission 
requirements, including the European PAA. Are there Aegis readiness 
concerns?
    Mr. Mabus. Today's Aegis Fleet is heavily stressed by the pace of 
operations around the globe. This has led to a decline in Aegis 
readiness that we are addressing by increasing our investment in Aegis-
specific equipment, training, and spare parts in a coordinated effort 
to sustain this vital system at optimal readiness.
    Admiral Roughead. Today's Aegis Fleet is heavily stressed by the 
pace of operations around the globe. This has led to a decline in Aegis 
readiness. We are addressing these issues through investment in Aegis-
specific equipment, training, and spare parts in a coordinated effort 
to sustain this vital system at optimal readiness. We are moving 
approximately 1,900 sailors from shore billets onto our ships to meet 
operational demands while maintaining acceptable Fleet readiness levels 
and sailor dwell time. To enhance the material readiness of our Fleet, 
we are improving our ability to plan and execute maintenance by 
increasing manning at our RMCs, and by institutionalizing our 
engineered approach to surface ship maintenance, converting the 
successes of our SSLCM initiative I began 2 years ago into the 
SURFMEPP. I remain focused on ensuring our Navy has a force that is 
maintained and trained to provide the capability and forward presence 
required in the two areas of interest identified in our Maritime 
Strategy, the Western Pacific, and the Arabian Gulf, while preserving 
our ability to immediately swing from those regions and our Fleet 
concentration areas in the United States to respond to contingencies 
globally.

                                  F-35

    166. Senator Inhofe. Secretary Mabus, Admiral Roughead, and General 
Amos, what is your assessment of the F-35 restructure and what impact 
will it have on Navy and Marine Corps strike aircraft capabilities?
    Mr. Mabus. The F-35 restructure was based upon the most in-depth, 
bottoms-up Technical Baseline Review (TBR) of the F-35 program to date. 
The TBR involved more than 120 technical experts investigating all 
aspects of the program which enabled us to assess the overall progress 
and current status of the F-35 program. Based on this review, we 
support the Secretary of Defense assessment that the F-35 Systems 
Development and Demonstration (SDD) phase should be restructured; 
variants of the F-35 aircraft decoupled; and the production ramp 
reduced to mitigate concurrency. Impacts of the F-35 program delays 
have been accounted for in the Navy's Strike Fighter Inventory 
Management (SFIM) plan, which shows that the Navy is required to 
resource a SLEP for legacy Hornet aircraft and procure additional F/A-
18E/F Super-Hornets. Additional SFIM plan details have been provided to 
Senior Professional Staff Members. While F-35 has been challenged this 
past year, and additional developmental challenges may arise, we remain 
strongly committed to the F-35 program as it is essential to our long-
term national security as the future backbone of U.S. combat air-
superiority and the core of Navy and Marine aviation.
    Admiral Roughead. Navy remains strongly committed to the F-35 
program as an essential element to our long-term national security 
serving as the backbone of U.S. combat air-superiority and the core of 
Navy and Marine Corps aviation. The TBR conducted last year involved 
more than 120 technical experts investigating all aspects of the 
program which enabled us to assess the overall progress and current 
status of the F-35 program. Based on the recommendations from the TBR, 
Navy supports the Secretary of Defense assessment that the F-35 SDD 
phase should be restructured; variants of the F-35 aircraft decoupled; 
and the production ramp reduced to mitigate concurrency. Impacts of the 
F-35 program delays due to restructuring have been accounted for in the 
Navy's SFIM plan, which shows that the Navy is required to resource a 
SLEP for legacy Hornet aircraft and procure additional F/A-18E/F Super-
Hornets.
    General Amos. There are three factors impacting the delivery of all 
JSF variants: (1) production delivery delays; (2) flight test progress; 
and (3) the rate of software development. The restructure of the F-35 
program was designed to provide the time necessary to remedy these 
deficiencies while retaining capabilities the aircraft requires to 
perform in support of operational tasking. The slower production rate 
impacts our rate of transition from an aging legacy aircraft inventory. 
Currently, we are successfully managing our strike fighter aircraft 
inventory to meet our operational commitments.

    167. Senator Inhofe. Secretary Mabus, Admiral Roughead, and General 
Amos, what risks do you see that could make the strike fighter 
shortfall rise even higher in the years ahead?
    Mr. Mabus. The Navy's plan to mitigate the strike fighter shortfall 
is to procure a total of 556 F/A-18E/Fs, which is 41 above the previous 
program of record and to extend the service life of 150 F/A-18A-D 
aircraft in the Navy and Marine Corps. This will lower the projected 
peak shortfall from about 100 to 65 in 2018. The key risk to this plan 
is the ability to extend the service life of the F/A-18A-D aircraft 
from 8,000 to 10,000 flight hours. The Naval Air Systems Command 
(NAVAIR) has extensive expertise in the field of extending the service 
life of tactical aircraft and processes for managing the risk of these 
programs.
    The first step is to extend the aircraft service life from 8,000 to 
8,600 flight hours with the High Flying Hour (HFH) inspection program 
and then induct the aircraft in the SLEP to achieve an additional 1,400 
hours to 10,000 flight hours. The HFH Revision A inspection extending 
the aircraft 600 flight hours is now completing the Validation and 
Verification process. Until our technical knowledge increases with the 
completion of more HFH inspections, unknown schedule and cost risks 
will remain. To extend the service life from 8,600 to 10,000 flight 
hours, select aircraft will be inducted into the SLEP for depot 
inspection and modification. The first SLEP candidate aircraft will be 
inducted in fiscal year 2012.
    Admiral Roughead. The Navy's plan to mitigate the strike fighter 
shortfall is to procure a total of 556 F/A-18E/Fs, which is 41 above 
the previous program of record and to extend the service life of 150 F/
A-18A-D aircraft in the Navy and Marine Corps. This will lower the 
projected peak shortfall to 65 in 2018.
    The NAVAIR, my executive agent for the service life extensions, has 
extensive expertise in the field of extending the service life of 
tactical aircraft and the processes for managing risk related to SLEPs.
    General Amos. The two most significant factors affecting the strike 
fighter shortfall are operational demand and the corresponding 
utilization of the remaining service life on our legacy F/A-18 Hornet 
aircraft. Our Hornets are reaching the end of their effective service 
life at the same time as we are procuring F-35B replacement aircraft.
    Delays in the JSF program have created a gap in available aircraft. 
The Marine Corps is addressing this issue by means of an aggressive 
service life management program for legacy F-18C/D aircraft. The 
current shortfall is manageable; however, risk will arise if further F-
35B procurement delays occur, utilization rates on our legacy aircraft 
increase, and/or if there is a reduction of funding for necessary 
SLEPs.

    168. Senator Inhofe. Admiral Roughead, in light of the results of 
the F-35's TBR, does the Navy still believe it can achieve F-35 IOC in 
2016?
    Admiral Roughead. Due to the recent JSF TBR and program 
restructuring efforts, the F-35C IOC has not yet been determined. We 
are reviewing the results of the TBR and restructuring to determine 
when IOC will be achieved. The Navy's IOC requirements will remain 
unchanged and will be based on the level of capability delivered at the 
completion of the initial operational test and evaluation of the F-35C 
equipped with Block 3 software.
    The Navy's intent is to stand up squadrons as aircraft become 
available and declare IOC when sufficient capability is tested and 
delivered. IOC requires the following:

        <bullet> All key performance parameter thresholds must be met
        <bullet> Sufficient aircraft quantity (10 Primary Aircraft 
        Authorized)
        <bullet> Mission planner; and adequate trainers, spares, 
        support equipment, and publications
        <bullet> Fully functional Autonomic Logistics Information 
        System (ALIS) installed and available aboard a nuclear powered 
        aircraft carrier (CVN)
        <bullet> Adequately trained aircrew, maintainers, and support 
        personnel
        <bullet> Desired capability to conduct all Operational 
        Requirements Document missions, to include air interdiction 
        (AI); offensive counter-air (OCA); defensive counter-air (DCA); 
        Close Air Support (CAS); suppression of enemy air defenses/
        destruction of enemy air defenses (SEAD/DEAD); and combat 
        search and rescue (CSAR) in a denied, near-peer environment 
        better than legacy aircraft
        <bullet> Completion of all ship qualifications and 
        certification to deploy aboard CVN
        <bullet> Completion of operational test (all mission 
        capabilities)

    169. Senator Inhofe. General Amos, how has the F-35B 2-year 
probationary period and decrease of F-35B procurement in the FYDP 
affected the Marine Corps' strike fighter shortfall?
    General Amos. Slowing the production rate of the F-35B to allow for 
the responsible design and incorporation of technical adjustments was a 
prudent decision in light of the progress the JSF program had made to 
date. However, this slower production rate concurrently slows down our 
rate of transition from legacy aircraft to ones with fifth generation 
capabilities.
    Currently, we are successfully managing our legacy strike fighter 
aircraft inventory to meet operational commitments through a variety of 
service life management initiatives until the F-35B is fielded. 
Additionally, our procurement of some F-35Cs within the FYDP will 
ensure that we meet our enduring commitment to carrier-based Tactical 
Aircraft Integration, while partially off-setting the delay in F-35B 
procurement.

    170. Senator Inhofe. Secretary Mabus, Admiral Roughead, and General 
Amos, when does the Marine Corps plan to achieve F-35B LOC?
    Mr. Mabus. The Navy's plan for Limited Operational Capability (LOC) 
is to maintain F-35B operational requirements and field F-35B when the 
inherent capabilities of the aircraft are cleared for operational use; 
pilots are trained; and a support infrastructure is in place. An LOC 
date is still to be determined as it will depend upon the outcome of 
Service and Program Office F-35B technical and sustainment reviews, to 
include the results of flight test, aircraft delivery schedules, and 
implementation of the F-35 sustainment strategy.
    Admiral Roughead. The Marine Corps' plan for the F-35B is to 
maintain its operational requirements, field the aircraft, train to the 
capabilities as they are cleared for operational use, and achieve IOC 
when they are delivered the aircraft without limitations. An IOC date 
is still to be determined as it will depend upon the outcome of Service 
and Program Office F-35B technical and sustainment reviews, to include 
the results of flight test, aircraft delivery schedules, and software 
development progress.
    General Amos. An IOC date has not yet been determined and will 
depend upon the outcome of technical and sustainment reviews being 
conducted both at the Service and Program Office level. These reviews 
include the results of flight testing, aircraft delivery schedules, and 
software development progress and the like. Current projections from 
the Joint Program Office and from Lockheed Martin suggest that IOC can 
occur in 2014. As a result, the Marine Corps is targeting June 2014 as 
an objective IOC date with June 2015 as a threshold IOC date. 
Nonetheless, delivery of aircraft to the first training squadron will 
occur later this year with delivery of the first Marine Corps 
operational aircraft beginning in 2012.

           CANCELLATION OF THE EXPEDITIONARY FIGHTING VEHICLE

    171. Senator Inhofe. General Amos, the EFV fulfilled a new 
requirement to enable marines to be delivered from Navy ships that were 
25 nautical miles from the shore. This was based on the threat of new 
enemy anti-ship missiles. The new requirement drops the 25-nautical-
mile requirement in favor of the old 15-nautical-mile requirement. Does 
cancelling the EFV mean that the threat of anti-ship missiles was 
overstated?
    General Amos. Cancelling the EFV does not mean the threat of anti-
ship missiles was overstated. Rather, over the years subsequent to the 
establishing of EFV performance requirements, the threats in the 
littorals and U.S. capabilities to counter and overcome those threats 
have evolved. We now believe that improvements in the capabilities 
fielded or currently in development mitigate the threat to an 
acceptable level of risk for a naval force operating at a 12-nautical-
mile stand-off range.

    172. Senator Inhofe. General Amos, does the Marine Corps still see 
amphibious warfare as its primary mission?
    General Amos. With a naval tradition as the foundation of our 
existence, the Marine Corps remains firmly partnered with the Navy with 
the ability to come from the sea rapidly to project power across the 
global commons. As America's Expeditionary Force in Readiness, the 
Marine Corps is forward deployed and forward engaged: shaping, 
training, deterring, and responding to all manner of crisis and 
contingency operations. We stand ready to conduct complex expeditionary 
operations across the Range of Military Operations regardless of the 
threat envelope.

    173. Senator Inhofe. General Amos, what will replace the Amtrack?
    General Amos. The Marine Corps will pursue an integrated new 
vehicle program, crafted from the beginning for affordability and 
taking advantage of the investment made in the EFV. The Marine Corps 
intends to mitigate risks associated with a new vehicle program and to 
maximize value by the use of an integrated acquisition portfolio 
approach. This approach is comprised of three efforts: (1) an 
acceleration of the planned procurement of Marine Personnel Carriers 
(MPC); (2) investment in a SLEP and upgrades for a portion of the 
existing AAVs; and (3) the development of a new ACV. This new 
amphibious vehicle, known currently as the ACV, and the MPC represent 
the modern, enduring, and complementary capability solution that 
ultimately will replace the AAV.

                    REPEAL OF DON'T ASK, DON'T TELL

    174. Senator Inhofe. Admiral Roughead and General Amos, there is 
legislation being considered that would add the requirement for the 
Service Chiefs to certify along with the Secretary of Defense, the 
Chairman of the Joint Chiefs of Staff, and the President that repeal of 
DADT will not degrade combat readiness or recruiting and retention. 
What are your personal thoughts regarding legislation requiring Service 
Chiefs' certification that repeal of DADT will not degrade combat 
readiness or recruiting and retention?
    Admiral Roughead. I am confident my assessment of Navy's readiness 
for repeal will be carefully considered by the Secretary of Defense and 
the Chairman during the certification process, and I do not believe it 
is necessary to provide additional or separate input outside of this 
process. My recommendation to the Secretary of Defense and the Chairman 
of the Joint Chiefs of Staff will be based on my assessment of 
objective and subjective data, to include the number of individuals and 
units trained, policies ready for issue to the force, reports from 
commanders regarding observed impacts to effectiveness, readiness, 
recruiting, and retention, and repeal-related incidents, as well as a 
review of force-wide personnel readiness data, retention data, and our 
regular surveys of the force. I provide regular updates on Navy's 
progress to the Secretary of Defense and the Chairman, and will remain 
personally engaged with them throughout this process.
    General Amos. I believe requiring my certification is unnecessary. 
I have had sufficient opportunity to openly communicate with the 
Chairman of the Joint Chiefs of Staff and with the Secretary of Defense 
on this issue. OSD and the Services meet regularly to have frank and 
honest discussions on this issue and will continue to do so between now 
and certification.

    175. Senator Inhofe. Admiral Roughead and General Amos, how is the 
Navy and Marine Corps handling the more difficult aspects of the repeal 
of DADT: concerns about individual privacy, fairness in providing 
benefits to heterosexual and gay and lesbian families, the process for 
reentry of servicemembers separated under DADT, and fair treatment for 
individuals with strongly held religious beliefs concerning 
homosexuality, to include military chaplains?
    Admiral Roughead. Sexual orientation remains a personal and private 
matter. Commanders may not establish practices that segregate 
servicemembers according to sexual orientation. Consistent with current 
policy, commanders will continue to maintain the discretion to alter 
berthing or billeting assignments in accordance with Navy policy in the 
interest of maintaining morale, good order and discipline, and 
consistent with performance of the mission.
    There will be no changes at this time to eligibility standards for 
military benefits. The Defense of Marriage Act currently prohibits 
extension of many military benefits to same-sex couples. All 
servicemembers will continue to have various benefits for which they 
may designate beneficiaries in accordance with the rules governing each 
program, to include Servicemembers' Group Life Insurance beneficiary, 
G.I. Bill death beneficiary, Thrift Savings Plan beneficiary, and 
Wounded Warrior Act Designated Caregiver.
    Upon repeal, former servicemembers who were discharged solely under 
10 U.S.C. section 654 may apply to reenter the Armed Forces. They will 
be evaluated according to the same criteria and requirements applicable 
to all prior servicemembers seeking reentry into the military at that 
time. Sexual orientation will not be a factor.
    Sailors with different religious beliefs already work, live, and 
fight together. Existing policies regarding individual expression and 
free exercise of religion are adequate and will not change. The 
Chaplain Corps' First Amendment freedoms and their duty to care for all 
will not change. Military personnel who do not uphold these standards 
are subject to discipline under the Uniform Code of Military Justice.
    General Amos. The Marine Corps is addressing these concerns through 
leadership, training, and a rigorous service policy review and 
reconciliation. The law has not changed in regard to benefits, and we 
continue to follow guidance from OSD as we address such issues. The 
reentry of servicemembers, who have been discharged under the current 
law, has not begun because they are prohibited from reentry until 
repeal occurs. For all persons of faith, we continue to uphold the 
highest standards of fair treatment. We have confidence in our leaders 
at all levels that they will handle these issues with professionalism 
to ensure all marines are treated with dignity and respect.

    176. Senator Inhofe. Admiral Roughead and General Amos, what 
aspects of the implementation of repeal of DADT have been sources of 
concern?
    Admiral Roughead. I am not concerned with any aspect of the 
implementation of the repeal of DADT. Feedback from our sailors 
indicates the training they are receiving is comprehensive, well-
delivered, and effective. Additionally, we have not observed any 
impacts to readiness, effectiveness, cohesion, recruiting, or 
retention. We are on track to complete our training by July 1, 2011.
    General Amos. Our main concern centered on impacts to the readiness 
and cohesion of our combat units. Other concerns centered on matters of 
billeting and benefits. I am confident that the detailed work of DOD's 
Comprehensive Review Working Group, and the guidance issued by the 
Secretary of Defense have addressed these concerns. We also feel that 
the extensive DADT related training we have conducted to date has 
mitigated these concerns. (Note: The Marine Corps is complete with Tier 
1 (special staff) and Tier 2 (leadership) training. As of 30 June 2011, 
Tier 3 (Marines) training is 95 percent complete.)
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                        OHIO REPLACEMENT PROGRAM

    177. Senator Chambliss. Secretary Mabus and Admiral Roughead, the 
Ohio Replacement Program will replace the 14 Ohio-class ballistic 
missile submarines with 12 next generation SSBN(X)s. The Navy is 
estimating that each SSBN(X) will have 16 tubes as opposed to the 24 
currently on Ohio-class submarines. With implementation of New START, 
the Navy will inactivate 4 tubes per submarine so that only 20 missiles 
are aboard each SSBN, bringing the fleet capacity down to 240 
submarine-launched ballistic missiles. These steps will eventually take 
our sea-launched ballistic missile fleet from 336 missiles to 192 
missiles. SSBNs represent the most survivable leg of the triad. The 
Navy has campaigned for 16 tubes per SSBN to lower procurement costs; 
however, I understand STRATCOM wants 20 tubes per SSBN, an additional 
48 missiles total, and STRATCOM campaigned for more tubes because it 
gives them more flexibility and resilience.
    Other than cost concerns, the Navy's desire for fewer tubes is also 
based on the presumption that the world's largest nuclear powers will 
continue the trend toward reducing their arsenals. Regarding 
procurement cost, arguments have surfaced that reducing the number of 
tubes will do relatively little to reduce procurement cost. With a 
growing threat of strategic nuclear advancement in countries such as 
Iran, and with SSBNs accounting for the most survivable leg of the 
triad, does this reduction in SLBMs make sense, and how will it affect 
our ability to provide strategic deterrence for the United States and 
our allies?
    Mr. Mabus. The Navy conducted an in-depth, extensive review of the 
capability requirements for the Ohio Replacement SSBN in parallel with 
development of the service cost position required at Milestone A. This 
analysis concluded that a force of 12 Ohio Replacement SSBNs with 16 
missile tubes can carry all the sea-based warheads and maintain excess 
capacity in the event of a fundamental deterioration of the security 
environment or as a hedge against technical challenges within one or 
more of the other legs of the triad. A force of 12 SSBNs with 20 
missile tubes could carry the Nation's entire operationally deployed 
warheads with excess capacity remaining. These conclusions are based on 
the current requirements of the New START treaty.
    It is the Navy's judgment that the Nation's sea-based strategic 
requirements can be met with a force of 12 Ohio Replacement SSBNs with 
16 tubes. Given the substantial budgetary pressures facing DOD and Navy 
shipbuilding, a 20-tube Ohio Replacement SSBN would inappropriately 
sacrifice other conventional shipbuilding requirements for unneeded 
excess capacity. OSD, Joint Staff, and STRATCOM have since concurred 
with the Navy's position on this military requirement.
    Admiral Roughead. The Navy conducted an in-depth review of the 
capability requirements for the Ohio Replacement SSBN in parallel with 
development of the Service Cost Position required at Milestone A. This 
analysis concluded that a force of 12 Ohio Replacement SSBNs with 16 
missile tubes can carry the sea-based warheads required and maintain 
excess capacity in the event of a fundamental deterioration of the 
security environment or as a hedge against technical challenges within 
one or more of the other legs of the triad. A force of 12 SSBNs with 20 
missile tubes could carry the Nation's entire operationally deployed 
warheads with excess capacity remaining. These conclusions are based on 
the current requirements of the New START treaty. To meet the 
operational requirement to deploy SSBNs to both the Atlantic and 
Pacific oceans, a force of at least 12 operational submarines is 
required.
    It is the Navy's judgment that the Nation's sea-based strategic 
requirements can be met with a force of 12 Ohio Replacement SSBNs with 
16 tubes. Given the substantial budgetary pressures facing DOD and Navy 
shipbuilding, a 20-tube Ohio Replacement SSBN would inappropriately 
sacrifice other conventional shipbuilding requirements for unneeded 
excess capacity. OSD, Joint Staff, and STRATCOM have since concurred 
with the Navy's position on this military requirement.

                                 RESET

    178. Senator Chambliss. General Amos, in your prepared statement 
you discuss the Marine Corps' significant backlog in resetting your 
equipment based on nearly 10 years of war and redeploying equipment 
from Iraq to Afghanistan which resulted in deferring previously-planned 
reset actions. I am extremely impressed with what the Marine Corps has 
been able to accomplish--with both your people and your equipment. It 
is a testimony to your leadership and can-do attitude. However, this 
bill is going to come due and--as you say in your statement--the bill 
for resetting your equipment is $10.6 billion, most of which is not yet 
funded. Looking forward, and assuming you get the money you need to 
perform this reset and regeneration work, do you have the people and 
other resources you need to perform this work? You only have two Marine 
Corps depots--one of which is in Georgia--and I'm curious if you've 
thought about whether you can accomplish all your reset and 
regeneration requirements with the people and resources you have, or 
might more be required?
    General Amos. As long as sufficient funding resources are 
available, Marine Corps depot activities have the ability to expand and 
contract as necessary to meet workload requirements. There are multiple 
options to adjust capacity, including implementation of overtime and/or 
multiple shifts, hiring of contract and/or temporary labor, hiring full 
time additional labor or contracting with commercial vendors.
    We can also utilize capacity at other service depots. As an 
example, Marine Corps Logistics Command, Maintenance Centers in Albany, 
GA, and Barstow, CA, increased production in 2008 and executed 4.4 
million direct labor hours. In 2009, the Marine Corps estimated a 
requirement for 5.45 million direct labor hours in preparation for the 
influx of equipment returning from Iraq. Both depots hired additional 
personnel for those years in accordance with section 2472 of title 10, 
U.S.C., with the expectation that the workload, and therefore the 
workforce, would remain throughout reset. However, the calendar year 
2009 workload did not materialize due to harvesting of significant 
amounts of equipment in Iraq to support Afghanistan surge requirements.
    Once the timelines and rate of drawdown from Afghanistan are known, 
Marine Corps Logistics Command will conduct reset workload forecasts 
and develop plans to expand depot capacity using the options described 
above.
                                 ______
                                 
               Question Submitted by Senator Scott Brown

                       OPEN ARCHITECTURE SOLUTION

    179. Senator Brown. Secretary Mabus, the Navy has been providing 
quarterly reports to Congress regarding its progress in implementing an 
open architecture solution across the surface ship Navy. What are your 
views on the successes and status of this effort to date and the 
implementation plan for the next 3 years for large surface combatants, 
including DDG-51 Flight 3, amphibious ships, and any future new 
construction ships?
    Mr. Mabus. Naval programs have made progress in implementing OA 
practices and principles in recent years in the areas of policy and 
guidance creation and adoption, competitive contracting, component 
reuse, and open system development, testing, and fielding. Within the 
surface ship Navy, Advanced Capability Builds (ACB) deliver an 
integrated combat system capability to the Surface Navy in an 
effective, safe, reliable, and readily producible manner.
    The Ship Self Defense System (SSDS) Combat System was designed from 
the beginning with its software decoupled from hardware, based on non-
standard open architecture software and COTS hardware components. 
However, from its inception, SSDS has incorporated a common source 
library (CSL) approach where the software for all ship classes 
employing SSDS comes from a single source library (SSL). This permits 
new capability development investments to be applicable across all 
SSDS-based combat system baselines. When a new SSDS software component 
is developed, it is placed in the SSDS SSL and is then available to 
other SSDS-based combat system configurations. Beginning in fiscal year 
2008, SSDS was modified to become compliant with Open Architecture 
Computing Environment standards. SSDS combat systems software in the 
SSL has evolved to align to middleware standards and toward future 
commonality with Aegis combat system software.
    Eight different SSDS configurations are supported by the SSL:

        <bullet> SSDS MK 2 Mods 1, 1A, and 1B for CVN-68 Nimitz-Class 
        Aircraft Carriers
        <bullet> SSDS MK 2 Mods 2, 2A, and 2B for LPD-17 San Antonio-
        Class Amphibious Transport Docks
        <bullet> SSDS MK 2 Mod 3A for LHD-1 Wasp-Class Amphibious 
        Assault Ships
        <bullet> SSDS MK 2 Mod 4B for LHA-1 Tarawa-Class Amphibious 
        Assault Ships

    The following configurations are under development as part of SSDS 
ACB 12 and will be added to the SSL upon completion:

        <bullet> SSDS MK 2 Mod 6C for CVN-78 Gerald R. Ford-Class 
        Aircraft Carriers
        <bullet> SSDS MK 2 Mod 2C for LPD-17 San Antonio-Class 
        Amphibious Transport Docks
        <bullet> SSDS MK 2 Mod 3C for LHD-1 Wasp-Class Amphibious 
        Assault Ships
        <bullet> SSDS MK 2 Mod 5C for LSD-41 Whidby Island- and LSD 49 
        Harpers Ferry-Class Landing Ship Docks

    Over the next 3 years SSDS systems will be fielded on the following 
ships:

        <bullet> Fiscal year 2012--USS Harry S. Truman (CVN-75) and PCU 
        Arlington (LPD-24)
        <bullet> Fiscal year 2013--USS Theodore Roosevelt (CVN-71), USS 
        Tortuga (LSD-46), USS New Orleans (LPD-18), USS Iwo Jima (LHD-
        7), PCU Arlington (LPD-24), PCU Somerset (LPD-25), and PCU 
        America (LHA-6)
        <bullet> Fiscal year 2014--USS Wasp (LHD-1) and PCU John P. 
        Murtha (LPD-26)

    The Aegis combat system was initially designed as an integrated and 
tightly coupled hardware and software combat system. As the Aegis 
combat system is modernized and transitions to a network-based 
commercial off-the-shelf (COTS) computing environment it will use a CSL 
to support an affordable and sustainable ACB process. The actual rate 
of modernization will be driven by fleet availability and future 
budgets. Over the next 3 years, ACB12 in conjunction with the CSL is 
being used across multiple programs (Aegis Modernization, DDG-113, and 
Aegis Ashore) and is planned for installation on the following Aegis 
ships:

        <bullet> Fiscal year 2012--USS Normandy (CG-60), USS 
        Chancellorsville (CG-62), and USS John Paul Jones (DDG-53)
        <bullet> Fiscal year 2013--USS Princeton (CG-59), USS Cowpens 
        (CG-63), USS Gettysburg (CG-64), USS Barry (DDG-52), and USS 
        Benfold (DDG-65)
        <bullet> Fiscal year 2014--USS Chosin (CG-65), USS Hue City 
        (CG-66), USS Cape Saint George (CG-71), and USS Arleigh Burke 
        (DDG-51)

    Commencing in fiscal year 2012, five different Aegis combat system 
configurations will be supported from a CSL:

        <bullet> Baseline 9A--CG without the Multi-Mission Signal 
        Processor (MMSP) and without BMD capability (CG-59-64)
        <bullet> Baseline 9B--CG with MMSP and integrated BMD 
        capability (CG-65-73)
        <bullet> Baseline 9C--DDG with MMSP and integrated BMD 
        capability (DDG-51-112)
        <bullet> Baseline 9D--DDG-113 + New Construction with MMSP and 
        integrated BMD capability (DDG-113 and follow)
        <bullet> Baseline 9E--Aegis Ashore with MMSP and integrated BMD 
        capability
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                      CHINA'S NAVAL MODERNIZATION

    180. Senator Cornyn. Admiral Roughead, reports indicate that over 
the past 2 decades, the People's Liberation Army's Navy (PLAN) has 
added more submarines to its fleet than any other country in the world, 
in addition to 15 guided missile destroyers; a similar number of 
frigates; more than four dozen high-speed cruise-missile armed patrol 
craft; and scores of new amphibious ships. The PLAN is also reportedly 
moving forward with an aircraft carrier program. According to DOD's 
2010 Report on the Military Power of the People's Republic of China, 
the PLAN's investments ``suggest that China is seeking to support 
additional missions beyond a Taiwan contingency.'' Given China's naval 
build-up, how much emphasis should be placed on U.S. Navy programs and 
spending for countering improved Chinese naval forces in the coming 
years?
    Admiral Roughead. China's naval procurements and military 
modernization are noteworthy and rapid. Absent greater transparency 
from China, China's efforts have significant implications for regional 
stability and they challenge conducting naval operations in contested 
areas. Our Navy has made significant investments in kinetic and non-
kinetic capabilities to address anti-access challenges (specific 
investments are best provided in a classified setting). Our President's 
budget for 2012 submission achieves the optimal balance among building 
sufficient capability and capacity to meet the most likely threats, 
ensuring effective operations and maintenance of our forces, and taking 
care of our people.

    181. Senator Cornyn. Admiral Roughead and General Amos, according 
to the DOD's 2010 Report on the Military Power of the People's Republic 
of China, the PLAN's ``primary focus will remain on preparing for 
operations within the `first and second island chains,' with emphasis 
on a potential conflict with U.S. forces over Taiwan.'' In 1996, China 
conducted a series of provocative missile tests for the purpose of 
influencing Taiwan's first direct presidential election. In response, 
in March 1996, President Clinton ordered two U.S. aircraft carriers 
into the Taiwan Strait to send the Chinese a message. Shortly 
thereafter, Taiwan conducted its first presidential election 
peacefully. Considering China's dramatic enhancement of its naval and 
anti-access capabilities, coupled with its aggressive rhetoric on 
Taiwan, if a scenario similar to the one that occurred in 1996 arose 
again in the immediate future, would today's U.S. Navy be able to react 
as it did in 1996, without exposing our forces to undue levels of risk?
    Admiral Roughead. Today's Navy is a more formidable and capable 
force than it was in 1996. Inherent in today's force structure is the 
ability to respond quickly with flexible and adaptive force packages 
that are tailored to deliver effects across the full range of military 
operations--from demonstrations as was done in 1996 to major combat 
operations in today's evolving, sophisticated anti-access/area denial 
environments.
    There are an increasing number of foreign capabilities that have 
the potential to cause our forces to operate from distances further 
from a crisis than desired, or to slow or disrupt the deployment of 
friendly forces into the theater. Capabilities that impact our forces 
in this manner are termed anti-access capabilities and include long-
range, precise, anti-ship and land attack ballistic and cruise missile 
systems; advanced combat aircraft and electronic warfare technologies; 
advanced Integrated Air Defense systems; submarines and subsurface 
warfare capabilities; surface warfare capabilities; C\4\ISR 
capabilities and cyber warfare technologies.
    The Navy has and will continue to develop programs and capabilities 
to address the anti-access environment emerging in the Western Pacific 
and other theaters of operation. Accordingly, we are strengthening our 
alliances and partnerships, modernizing our forces, fielding new 
capabilities and technologies, and developing new operational concepts.
    One specific initiative that will help preserve access in the 
Pacific is implementation of the Air-Sea Battle Concept. Air-Sea Battle 
implementation will ensure continued U.S. advantage against emerging 
anti-access threats. This does not mean the risks associated with 
conducting naval operations in an anti-access/area denial environment 
will be eliminated. Rather, comprehensive implementation of the joint 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel, and Facilities (DOTMLPF) actions that comprise the Air-Sea 
Battle Concept initiatives will enable enduring forward presence; 
robust training, exercises and military-to-military engagement with our 
allies and like-minded partners; and crisis response operations 
necessary to protect our national interests in the Pacific within 
tolerable risk levels.
    General Amos. The Marine Corps maintains rotational MEU Amphibious 
Ready Group forces in the PACOM Area of Responsibility (AOR) consisting 
of marines embarked aboard naval amphibious shipping. There are Marine 
Corps forces also arrayed in Japan, Okinawa, and Hawaii. Collectively, 
these marines are able to respond to crises or operational missions 
throughout the AOR when directed.

                         AIR-SEA BATTLE CONCEPT

    182. Senator Cornyn. Admiral Roughead and General Amos, the 2010 
QDR directs the development of a joint Air-Sea Battle (ASB) concept 
between the Navy and the Air Force. In his speech last week at the U.S. 
Air Force Academy, Secretary Gates said this new doctrine recognizes 
``the enormous potential in developing new joint warfighting 
capabilities--think of naval forces in airfield defense, or stealth 
bombers augmented by Navy submarines--and the clear benefits from this 
more efficient use of taxpayer dollars.'' What is the current status of 
the development and implementation of the ASB concept?
    Admiral Roughead. ASB is a limited operational concept that focuses 
the development of integrated air and naval forces on addressing the 
evolving anti-access/area denial (A2/AD) environment. The Navy, Marine 
Corps, and Air Force Service Chiefs recently signed the ASB Concept, 
and the Services are now refining and synchronizing the DOTMLPF, 
initiatives necessary to implement the concept. This effort will 
continue in a deliberate manner for a number of years.
    General Amos. The Marine Corps has participated in the development 
of the ASB concept and is a full partner in the ASB office that will 
continue concept and capability development. We will integrate ASB 
tenets into our force development process after appropriate validation 
through experimentation and wargaming with our Navy and Air Force 
counterparts. Innovative, new, joint capabilities have been 
incorporated into the ASB concept. Some of these new capabilities are 
already showing potential, and recent operations in Libya have relied 
upon forward-leaning capabilities that are part of the Marine Corps 
Program of Record. The recent tactical rescue of an Air Force F-15E 
conducted from Navy amphibious ships by Marine Corps V-22 tilt-rotor 
and fixed wing platforms to affect the rescue of Air Force personnel 
deep in Libyan territory is an example of such innovative joint 
capability sets.
    With the introduction of the F-35B STOVL JSF, marines will be 
optimized for the type of engagements envisioned in ASB. The enhanced 
Anti-Access and Area Denial systems, platforms, and forces of potential 
adversaries, such as precision ballistic missiles, will make fixed 
bases and airfields problematic. The ability of STOVL aircraft to 
readily disperse, operate from short and degraded runways, and double 
the number of capital ships--11 aircraft carrier and 11 amphibious--
capable of fixed wing provide a significant contribution to the force 
by preserving its ability to generate tactical air integration sorties 
in Anti-Access and Area Denial environments. Marine capabilities to 
rapidly build and operate expeditionary airfields in austere locations 
will provide the combatant commander with a force that can shape and 
improve his posture as he prosecutes the ASB, as will the traditional 
capability of marines to seize and hold critical terrain that enables 
sea-control. I have recently joined with the Chief of Naval Operations 
and Chief of Staff of the Air Force in signing the ASB concept, and we 
are now engaged together in the establishment of the ASB office which 
will oversee the continued development of the concept and related 
initiatives.

    183. Senator Cornyn. Admiral Roughead and General Amos, to what 
extent has the ASB concept already influenced the investment decisions 
reflected in the Navy's fiscal year 2012 budget request and the latest 
FYDP, and to what extent will it guide investment decisions in the 
future?
    Admiral Roughead. The ASB concept was still under joint development 
by the Navy and Air Force throughout the POM12 cycle. However, the 
discussions and preliminaries decisions indirectly informed the fiscal 
year 2012 budget. POM12 was primarily focused on implementing the 2010 
QDR and the DOD-wide efficiency initiatives. Many of the ASB themes are 
consistent with established CNO/Fleet warfighting priorities for POM12; 
investments made across these areas in PB12 have given the Navy a head-
start on programmatic requirements that aid in implementing the ASB 
concept.
    The Navy continues to assess POM13 and make investment decisions to 
help support the ASB concept within the constraints of our current 
fiscal environment.
    General Amos. The Marine Corps force development process is concept 
based. Ideally, we begin with a concept, such as ASB and then conduct a 
robust wargaming and experimentation effort to validate the concept and 
gain insights on the functional capabilities that are required to 
implement it. The concept experimentation phase affords a more refined 
understanding of operational and systems requirements and the necessary 
changes necessary to support them (i.e. DOTMLPF process). With the 
knowledge gleaned from experimentation and wargaming, we are better 
prepared to propose programs and acquisition initiatives. We believe 
this deliberate process affords the best use of the resources entrusted 
to Marine Corps. We are still early in the concept experimentation and 
validation phase regarding ASB. Once we have validated the triservice 
requirements for ASB, those shared requirements will influence our 
future investment decisions, the extent of which cannot be determined 
until that time.

                      INDEPENDENT PANEL ASSESSMENT

    184. Senator Cornyn. Admiral Roughead, the Independent Panel 
Assessment of the 2010 QDR recommended a Navy fleet of 346 ships, yet 
the Navy's current plans are for only a 313-ship fleet. In fact, in 
your testimony, you referred to 313 ships as the ``minimum'' our Navy 
needs. If Congress were to appropriate the funding necessary for the 
Navy to buy an additional 33 ships, beyond the planned 313 ships, what 
type and mix of ships would you recommend?
    Admiral Roughead. To propose a force structure for a 346-ship Navy, 
further study and analysis must be conducted to determine: (1) the 
additional missions expected of a 346-ship battle force; (2) the actual 
break-down of ship types, quantities, and capabilities to be procured 
and; (3) the associated cost and effects on the shipbuilding industrial 
base in procuring a proposed 346-ship fleet.
    I have stated that the Navy requires a minimum of 313 ships to meet 
operational requirements globally. This minimum remains valid; however, 
we are continually evaluating this requirement to address increased 
operational demands and expanding requirements for BMD, intra-theater 
lift, and forces capable of confronting irregular challenges. 313 ships 
remain the floor. The Navy remains committed to building a 313-ship 
fleet by 2020, as detailed in our Long-Range Plan for Construction of 
Naval Vessels for fiscal year 2011.
    Beyond the FYDP, the need to fund SSBN recapitalization will result 
in some risk to the Navy's fiscal year 2011 Shipbuilding Plan to 
maintain the 313-ship floor. While the SSBN(X) is being procured, the 
Navy will be limited in its ability to procure other ship classes. The 
lower build rates in the fiscal year 2022 to fiscal year 2031 timeframe 
will result in reduced force structure in the fiscal year 2032 to 
fiscal year 2040 timeframe. If additional funding were to be provided 
to fund SSBN(X) procurement during this time period, the Navy would be 
able to apply its shipbuilding funds to raise other ship procurement 
rates to reduce the impact on the shipbuilding industry and to increase 
the overall battleforce inventory. Additional ships would include 
guided missile destroyers and attack submarines. Additional funding 
would help reduce future ship inventory shortfalls and provide a more 
stable production base.

                 WIND FARM IMPACT ON FLIGHT OPERATIONS

    185. Senator Cornyn. Admiral Roughead, in a response to a recent 
request for information from my office, the Navy stated that ``wind 
turbine operations may create harmful interference to National Airspace 
System Sensors, hindering safe airspace operation and aircraft 
separation and control.'' It is apparent that the systems most 
adversely affected are air traffic control radars and approach systems 
(e.g., Precision Approach Radar). Due to the rotating windmill blades, 
these systems can be degraded by false targets, shadowing, and target 
loss. What steps is the Navy taking to ensure that wind farm 
encroachment around naval and MCASs does not hinder or completely 
degrade the ability of bases to complete their mission?
    Admiral Roughead. There are several means by which Navy attempts to 
ensure that wind farm encroachment around Navy and MCASs does not 
hinder or completely degrade the ability of bases to complete their 
mission:

        <bullet> Navy implements an Encroachment Management Program 
        focused on systematic identification, quantification, and 
        mitigation of encroachment concerns. Navy partners with 
        communities, State, and local governments, and conservation 
        organizations to preserve training and operations by 
        implementing land use controls. To this end, Navy has already 
        acquired over 9,000 acres of restrictive easements to reduce 
        incompatible development near installations.
        <bullet> The Joint Land Use Study (JLUS) Program enables 
        cooperative agreements between Navy and local governments. When 
        the potential for incompatible development, such as wind farms, 
        is identified, Navy may partner with the Office of Economic 
        Adjustment to initiate a JLUS. JLUS implementation measures may 
        involve land exchanges; transfer of development rights; and 
        revisions to a community comprehensive plan and can take the 
        form of traditional land use and development controls, such as 
        zoning and structural height restrictions.
        <bullet> When appropriate, the Navy and the Marine Corps 
        participate in the Federal Aviation Administration's (FAA) 
        Obstruction Evaluation/Airport Airspace Analysis (OE/AAA) 
        process to review proposed construction projects for 
        navigational safety hazards. This process has provided DOD 
        awareness and influence on potential wind farm encroachment. 
        However, it does not include all potential wind turbine 
        hazards, nor does it provide FAA or DOD authority to prohibit 
        construction.
        <bullet> Navy is participating in the processes of the recently 
        established DOD Energy Siting Clearinghouse, which will monitor 
        energy project compatibility and gather compatibility 
        evaluations from the Navy and the other Services. Compatibility 
        reviews will include consideration of all potential conflicts 
        with military missions and activities from wind farm 
        development.
        <bullet> Through the Bureau of Ocean Energy Management 
        Regulation and Enforcement's (BOEMRE) Renewable Energy State 
        Task Force process, the Navy and OSD evaluate areas of the 
        outer continental shelf for renewable energy opportunities, 
        while minimizing potential conflict with training and 
        operational missions. For example, Navy and OSD successfully 
        liaised with BOEMRE to prevent leasing operational range space 
        in the VACAPES operating area, Atlantic Test Range, and 
        Atlantic Coast Warning Areas, to preserve critical offshore 
        training and testing operational areas.

    186. Senator Cornyn. Admiral Roughead, Section 358 of the NDAA for 
Fiscal Year 2011 gives DOD 30 days to assess renewable energy proposals 
that have unacceptable impacts on military operations. In response to a 
recent request for information from my office, the Air Force stated 
that, ``proposals that are found to present significant operational 
impacts will be hard-pressed to meet the new requirements within 30 
days.'' Do the NDAA for Fiscal Year 2011 provisions provide the Navy 
with adequate time to conduct a thorough analysis and make informed 
objections to proposed wind farm developments, when necessary, because 
of impacts on military operations?
    Admiral Roughead. The NDAA for Fiscal Year 2011 provisions provide 
Navy with enough time to do a preliminary assessment of the impact. 
Thirty days is not enough time to conduct a thorough analysis of 
whether the proposal creates an ``unacceptable risk to national 
security.'' The NDAA does not require this latter finding within 30 
days.
    Section 358(e)(1) of the 2011 NDAA gives DOD 30 days to conduct a 
``Preliminary Assessment.'' This document would assess the level of 
risk of adverse impact on military operations and readiness that would 
arise from the project and discuss the extent of mitigation that may be 
needed to address such risk. I believe this can be done in the 30 days.
    Section 358(e)(2) sets forth procedures under which DOD could make 
a ``Determination of Unacceptable Risk'' regarding a proposed energy 
project. Such a determination can only be made upon a finding of 
``unacceptable risk to the national security of the United States.'' In 
contrast to a Preliminary Assessment, this section has no time limit. 
However, I recognize the national interests in developing renewable 
power and will strive to conduct a thorough and timely analysis when a 
complete assessment is required.
    In 2006, the ``Report to the Congressional Defense Committees, The 
Effect of Windmill Farms on Military Readiness,'' informed Congress 
that among other things, site and project specific studies are required 
for complete analysis of impacts and of potential mitigations. This is 
not possible in 30 days. The 2006 study is available online at 
www.defense.gov/pubs/pdfs/windfarmreport.pdf.

    187. Senator Cornyn. Admiral Roughead, do the NDAA for Fiscal Year 
2011 provisions take into account the electromagnetic effects of wind 
turbines on radar systems and provide adequate protection for Navy-
owned radars and other sensors?
    Admiral Roughead. The 2011 NDAA provisions account for the 
electromagnetic effects of wind turbines on radar systems by asking for 
an assessment of the risk associated with electromagnetic interference 
on military readiness, including the effects on testing and evaluation 
ranges. However, the provisions also establish a very high standard for 
DOD objection to a proposed renewable energy project, requiring a 
finding of ``adverse effect on national security.'' Once DOD makes such 
a determination, the provisions do not empower either the DOD or the 
FAA to prevent construction of wind turbines based on that finding. The 
current FAA process only provides for notice of hazard.

    188. Senator Cornyn. Admiral Roughead, when a wind farm is 
proposed, an application must be submitted to the FAA. In response, the 
FAA determines whether or not a hazard to aviation exists. However, in 
its review process, the FAA fails to take into account the 
electromagnetic effects of wind turbines on radar systems when the 
proposed wind farm would be within line of sight of a military radar 
tower. In your opinion, does the FAA's ``OE/AAA'' process need to be 
revised to account for the impact of electromagnetic (or any other) 
interference on airport surveillance and long-range radars?
    Admiral Roughead. I am interested in coordinating with the FAA to 
revise the OE/AAA process to improve electromagnetic effect screening 
tools for military airport surveillance radars and update military 
airport obstruction criteria to ensure Special Use Airspace and 
Military Training Routes are properly identified. The FAA OE/AAA 
process provides for a review of proposed construction projects and 
makes a hazard determination for projects evaluated as a navigational 
safety hazard. Although impacts of interference on airport surveillance 
and long-range radars are considered during the evaluation process, it 
is limited to navigational safety, rather than preserving military 
airspace needed for unique training requirements such as low-level 
training routes or student jet pilot training. This includes military 
and special use airspace, not associated with airports or runways, but 
is critical to Navy training and readiness.

    189. Senator Cornyn. Admiral Roughead, there is clear evidence that 
the electromagnetic effect of wind turbines can have a negative impact 
on the military's ability to conduct air operations. Does the Navy 
believe that some form of Military Impact Statements (MIS) should be 
required for renewable energy projects? If so, what would be the most 
appropriate time in the certification process to require the MIS?
    Admiral Roughead. Several studies indicate that electromagnetic 
effects from wind turbines could adversely affect Navy's ability to 
conduct air missions. Some form of MIS should be included as part of 
the siting process for renewable energy projects. Our experience with 
the BOEMRE process in assessing offshore mineral and wind energy 
development leasing blocks shows that many areas can be compatible for 
development if certain conditions can be met. In some instances, it can 
be as little as moving one or two wind turbines in a project, or as 
substantial as blocking off large areas. While there is not a single 
process for approving renewable energy projects, early notification is 
critical. Navy must be able to provide an initial assessment, and then 
be allowed additional time and resources to conduct compatibility 
analyses if the process is to maximize available wind resources without 
impacting military readiness. The Navy would like to work with DOD to 
develop a screening tool that would show which areas within which wind 
turbine development could be excluded.

    190. Senator Cornyn. Admiral Roughead, what type of mandatory 
information would be most appropriate for inclusion in the MIS?
    Admiral Roughead. A MIS would be an entirely new process and set of 
requirements. A proper recommendation of what should be included 
requires significant coordination throughout Navy and the other 
Services. Fundamentally, the MIS should contain an assessment by all 
branches of the military of a proposed project's impact on training, 
testing, and operations. The exact elements of a MIS must consider the 
level of effort and resourcing that will be required, and should 
provide a proportionate legal mechanism capable of preventing 
incompatible construction. I appreciate any opportunity to assist in 
developing or reviewing such a concept.

                          JOINT STRIKE FIGHTER

    191. Senator Cornyn. Admiral Roughead, compared to the F-35A and F-
35B, the aircraft carrier variant F-35C has received relatively little 
attention in the media as of late. It is my understanding that we will 
see the first F-35C operational squadron in 2015. This critical 
platform will replace aging F-18s and soon become the backbone of the 
Navy's Tactical Aviation Enterprise. Please provide an update on this 
critical variant of the JSF and its importance to the future of our 
Navy.
    Admiral Roughead. The first F-35C SDD aircraft (CF-1) delivered to 
NAS, Patuxent River in November and has been actively clearing the 
flight envelope, demonstrating flight to just above supersonic and an 
altitude of 30,000 feet. As of early March, CF-1 has flown a total of 
40 sorties for 59 hours. The next two F-35C aircraft are also expected 
to be delivered to NAS Patuxent River by the summer of 2011.
    Testing and analysis model verification also continues with F-35C 
variant specific ground testing. Drop testing of the ground test 
article, CG-1, has demonstrated carrier landings up to 26.4 feet per 
second and has been reconfigured to conduct static testing of the F-35C 
aircraft. Static testing of the aircraft catapult and arrestment has 
been completed. These tests support our early efforts toward ship 
integration and lay the foundation for jet blast deflector and other 
ship suitability testing this summer at Naval Air Engineering Station 
(NAES) Lakehurst. This series of tests fully transitions our focus on 
F-35 air/ship integration as we strive to refine analysis and validate 
with formal test results. To date, there are no known air/ship 
integration issues which we cannot overcome.
    The Navy remains committed to the JSF program. The F-35C will 
provide the Carrier Strike Group commanders a survivable, ``day-one'' 
strike capability in a denied access environment with the tactical 
agility and strategic flexibility to counter a broad spectrum of 
threats and win in operational scenarios that cannot be addressed by 
current legacy aircraft. While the overall F-35 program has been 
challenged this past year, the Navy strongly supports the F-35 program 
as an essential element to our long-term national security and the 
future backbone of combat air-superiority and the core of Navy and 
Marine Corps Aviation.

    192. Senator Cornyn. Admiral Roughead, when do you expect to 
conduct carrier testing of the F-35C, and what obstacles might it 
encounter during this testing?
    Admiral Roughead. The F-35C carrier suitability testing will be 
conducted using multiple F-35C test assets aboard a CVN. Test planning 
continues to be refined based on the overall program restructure, but 
shipboard testing will be conducted in three phases. The first is 
expected to occur in May 2013 with test aircraft CF-3 and CF-5. 
Subsequent test periods will investigate ever increasing carrier-based 
operations and are scheduled approximately 1 year apart in order to 
more completely expand the F-35C operational envelope.
    One focus area will be to collect environmental data surrounding 
the jet blast deflectors (JBD). The thermal impacts of the JSF on the 
CVN are currently being studied by modeling exhaust impacts on the JBD 
and flight deck systems. Preliminary data is positive and indicates 
additional ship-based cooling infrastructure may not be necessary. The 
land-based testing at NAES Lakehurst is necessary to validate modeling 
and determine the scope of shipboard modifications.

    193. Senator Cornyn. Admiral Roughead and General Amos, due to the 
limited space aboard Navy ships, it is vital to consider the size and 
weight of equipment that is brought on board. The fate of the F136, the 
extra engine for the JSF is still in question. However, if its 
development continues, it is possible that the Navy might eventually be 
forced to carry two different engines and the accompanying support 
equipment aboard its aircraft carriers, instead of just the one. What 
issues, if any, might an extra engine cause on an aircraft carrier, 
where space is limited?
    Admiral Roughead. The F135 and F136 engines constitute two 
different designs by two different manufacturers. While the F136 engine 
would be interchangeable, there are several engine components that are 
not interchangeable. The Fan, Gear Box, and Power Section modules are 
unique by F135 and F136 propulsion systems. Only the Augmenter and 
Exhaust Nozzle modules are common by F-35 variant. Supporting two 
engines would require unique spares, unique support equipment, and 
unique training. The JSF specification only requires engines to perform 
to specified criteria and physically fit into the F-35. Maintenance/
repair technical requirements are different, requiring different 
instructions and training with differences in assembly hardware and 
special tools for off-aircraft repair.
    The large size of the F135 and F136 (approximately 18.7 feet and 
weighs 9,300 lbs in its container) necessitates greater sparing aboard 
ships as neither the assembled engine nor the power section module can 
currently be replenished underway. Similarly, due to the weight and 
height of critical engine spares, it is not feasible to store all JSF 
engine spares in legacy store-rooms or stack them aboard ships as is 
done for legacy system. This would necessitate work-around in hangar 
deck spaces normally reserved to store and maintain tactical aircraft. 
Adding an alternate engine makes the shipboard logistics even more 
challenging as it is not a one-for-one exchange.
    General Amos. The JSF engine is the largest tactical fighter engine 
in size and overall logistics footprint (LFP) in the history of DOD. In 
comparison to the Model F414 engine of the F/A-18E/F, the F135 engine 
of an F-35 is approximately twice its size. While the performance of 
the F135 engine brings significant performance gains and warfighting 
advantage for the JSF, it also presents a logistical challenge for all 
the Services, which perhaps is most pronounced in the Navy and Marine 
Corps, whose aircraft for expeditionary operations are housed in 
already constrained spaces aboard L-class amphibious shipping and CVN 
aircraft carriers.
    The Navy has indicated that the implementation of two JSF engines 
onboard aircraft carriers is suboptimal due to increased operational 
LFPs. Both JSF engines are currently too large to fit within the 
aviation bulk storage or jet shop, and so there is a resulting LFP 
challenge posed to existing hangar deck space. The LFP problem 
compounds in cases where both the F135 and F136 engines would be afloat 
on the same ship given that each engine has unique support equipment 
and tools, increasing the required LFP. Storing and supporting two 
engines would negatively affect hangar bay aircraft spotting and 
maintenance operations.

                     EXPEDITIONARY FIGHTING VEHICLE

    194. Senator Cornyn. General Amos, the fiscal year 2012 DOD budget 
request seeks to halt the EFV program. It is my understanding that, in 
its place, the Marine Corps would pursue three separate acquisition 
efforts: (1) the creation of a New Amphibious Vehicle; (2) the service 
life extension and improvement of the AAV; and (3) the acceleration of 
the MPC. Please list the order of priority on these three efforts? What 
is your general vision for these efforts and how they will complement 
each other?
    General Amos. As we move forward, we intend to mitigate risks 
associated with a new vehicle program and to maximize value by using an 
integrated acquisition portfolio approach. This approach will have 
three efforts: (1) an acceleration of the planned procurement of MPC; 
(2) investment in a SLEP and upgrades for a portion of the existing 
AAVs; and (3) the development of a new ACV.
    From an investment perspective and understanding the imperative for 
a modern amphibious vehicle capability, the ACV emerges as our priority 
effort. From the perspective of current operations and near-term 
relevance, the AAV SLEP is a near-term operational priority. We must 
upgrade a portion of the current inventory of AAVs now in order to 
provide a more survivable capability until the ACV is fielded. The 
complementary capability to achieve greater protection for our forces 
is the MPC.
    The ACV and the MPC represent the modern and enduring capability 
solution. The ACV will provide the surface amphibious assault 
capability and will be the heavy armored combat vehicle during 
sustained operations ashore. The MPC will provide armored mobility for 
the reinforcing element of the amphibious assault and also will provide 
armor protected mobility during sustained operations ashore. As the MPC 
is a wheeled vehicle, we envision it as a versatile platform capable of 
employment across the range of military operations and in urban 
settings. It will incorporate the high levels of underbody protection 
needed in an irregular warfare environment. Together, the ACV and MPC 
will satisfy our lift requirement to support 12 Infantry Battalions--8 
Battalions supported by ACV and 4 by MPC.

                             SHIP RECYCLING

    195. Senator Cornyn. Secretary Mabus and Admiral Roughead, Navy 
ship recycling creates local jobs in places like South Texas, provides 
materials for construction, stimulates local economies, and provides 
the government with economic incentive and a best value solution. In 
the last year, the Navy has released seven ships for recycling. 
However, in the fiscal year 2012 budget request, only one Navy ship is 
slated for recycling. At a time when Congress is looking to maximize 
each and every taxpayers' dollar, how much funding would go to maintain 
the Navy's so-called ghost Fleet under the fiscal year 2012 budget 
request?
    Mr. Mabus. The fiscal year 2012 budget request for conventionally 
powered ship disposal focuses on the dismantling of the aircraft 
carrier ex-Forrestal (AVT-59). The Navy also plans to dismantle other 
ships under sales contracts solicited through the General Services 
Administration (GSA) for combatant ships and the Maritime 
Administration (MARAD) for merchant-type vessels. Using the budget for 
ship disposal, the Navy will continue to provide full-time, on-site 
surveillance of ship dismantling awarded under sales contracts.
    The fiscal year 2012 budget request for conventionally powered ship 
disposal focuses on the dismantling of the aircraft carrier ex-
Forrestal (AVT-59). However, the Navy also plans to dismantle non-
carriers under sales contracts solicited through GSA for combatant 
ships and the MARAD for merchant-type vessels. Using the budget for 
ship disposal, the Navy will continue to provide full-time, onsite 
surveillance of ship dismantling awarded under sales contracts.
    As of March 30, 2011, the Navy's inventory of conventionally-
powered inactive ships consists of 49 ships. Of this number, 14 are 
designated for dismantling, consisting of 4 aircraft carriers, 6 
combatant ships, and 4 merchant-type ships. Of the remaining inventory, 
10 are retention assets for possible future reactivation, 11 are 
designated for foreign military transfer, 3 are logistic support assets 
to support the Active Fleet, 7 are available for donation as a museum/
memorial, and 4 are designated as targets for Fleet training exercises.
    The fiscal year 2012 budget is $10.6 million for operation of the 
government-owned, contractor-operated inactive ship maintenance 
facilities at Philadelphia, PA, Bremerton, WA, and Pearl Harbor, HI; 
the maintenance of those inactive ships in conformance with 
environmental laws and CNO policies; and the maintenance of eight Navy-
owned vessels at MARAD's Beaumont, TX, Reserve Fleet and two Navy-owned 
vessels at MARAD's Suisun Bay, CA, Reserve Fleet.
    Admiral Roughead. The fiscal year 2012 budget is $10.6 million for 
operation of the government-owned, contractor-operated inactive ship 
maintenance facilities at Philadelphia, PA, Bremerton, WA, and Pearl 
Harbor, HI, and the maintenance of eight Navy-owned ships at MARAD's 
Beaumont, TX, Reserve Fleet and two Navy-owned ships at MARAD's Suisun 
Bay, CA, Reserve Fleet. The maintenance of those inactive ships is in 
conformance with environmental laws and CNO policies.
    As of March 30, 2011, the Navy's inventory of conventionally-
powered inactive ships consists of 49 ships. Of this number, 14 are 
designated for dismantling, consisting of 4 aircraft carriers, 6 
combatant ships, and 4 merchant-type ships. Of the remaining inventory, 
10 are retention assets for possible future reactivation, 11 are 
designated for foreign military transfer, 3 are logistic support assets 
to support the Active Fleet, 7 are available for donation as a museum/
memorial, and 4 are designated as targets for Fleet training exercises.

    196. Senator Cornyn. Secretary Mabus and Admiral Roughead, would it 
not be more cost-effective for the Navy to release more ships for 
recycling in the near future?
    Mr. Mabus and Admiral Roughead. The Navy must reduce the inactive 
ships inventory in a cost-effective manner while maintaining strict 
compliance with environmental and occupational safety regulations. 
Maintaining ships in the inactive inventory drains fiscal resources 
while not contributing to operational readiness. Of the 14 
conventionally-powered ships designated for dismantling 4 carriers and 
2 non-carriers are ready for solicitation. The Navy is actively 
pursuing getting these six ships under contract for dismantlement.
    The Navy is currently soliciting the dismantling of ex-Saratoga 
(CV-60), the first Forrestal-class aircraft carrier to be dismantled. 
Forrestal-class aircraft carriers have classified side protection 
systems in the structure of the hulls, requiring a dismantling 
contractor to obtain a confidential facility security clearance, its 
employees must be U.S. citizens, and its employees having access to 
classified areas of the ship must obtain confidential security 
clearances. The Navy will incorporate lessons learned from the results 
of this solicitation into plans for the dismantling of three additional 
aircraft carriers currently designated for dismantling. The request for 
proposal for dismantling ex-Saratoga (CV-60) is anticipated to be a 
fiscal year 2011 award utilizing fiscal year 2011 O&MN budgeted 
funding.
    Among the 10 non-carriers in the inventory that are designated for 
dismantling, 2 ships recently completed disposal preparations 
(including equipment stripping) and are ready for solicitation. The 
remainder are not yet ready for solicitation; two were recently removed 
from active service and are completing inactivation work; four are 
undergoing equipment stripping to support Active Fleet requirements; 
one was recently redesignated from a logistic support asset and is 
undergoing disposal preparations; and one is subject to a recently 
executed Memorandum of Agreement with the Advisory Council on Historic 
Preservation addressing stipulations to mitigate the adverse effects of 
the Navy's plan to dismantle the ship.
    A 5-year Indefinite-Delivery, Indefinite Quantity (IDIQ) contract 
(non-carrier) expired in July 2010. The Navy is developing contracting 
strategies for dismantling of additional non-carrier inactive ships, 
utilizing GSA sales contracting officers for combatant ships and MARAD 
sales contracting for non-combatant ships. Agreements with GSA and 
MARAD are not yet finalized.
    As of March 30, 2011, the Navy's inventory of conventionally-
powered inactive ships consists of 49 ships. The inactive ships 
inventory at the end of fiscal year 2012 is projected to be 42. This is 
a significant reduction from the peak of nearly 200 inactive ships in 
1997 and considering the additions to the inventory resulting from ship 
decommissionings since 1997.
    Of the current inventory of 49 ships, 14 are designated for 
dismantling, 10 are retention assets for possible future reactivation, 
11 are designated for foreign military transfer, 3 are logistic support 
assets to support the Active Fleet, 7 are available for donation as a 
museum/memorial, and 4 are designated as targets for Fleet training 
exercises.

    [Whereupon, at 12:44 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                      DEPARTMENT OF THE AIR FORCE

    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, Nelson, Udall, Hagan, Begich, Manchin, Shaheen, 
Blumenthal, McCain, Inhofe, Sessions, Chambliss, Brown, 
Portman, Ayotte, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Creighton Greene, professional 
staff member; Jessica L. Kingston, research assistant; and 
Jason W. Maroney, counsel.
    Minority staff members present: David M. Morriss, minority 
staff director; Christian D. Brose, professional staff member; 
Pablo E. Carrillo, minority investigative counsel; Daniel A. 
Lerner, professional staff member; and Christopher J. Paul, 
professional staff member.
    Staff assistants present: Christine G. Lang, Brian F. 
Sebold, and Breon N. Wells.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Nick Ikeda, assistant to 
Senator Akaka; Ann Premer, assistant to Senator Nelson; Patrick 
Day, assistant to Senator Webb; Casey Howard, assistant to 
Senator Udall; Michael Harney, assistant to Senator Hagan; 
Joanne McLaughlin, assistant to Senator Manchin; Anthony 
Lazarski, assistant to Senator Inhofe; Lenwood Landrum, 
assistant to Senator Sessions; Clyde Taylor IV, assistant to 
Senator Chambliss; Joseph Lai, assistant to Senator Wicker; 
Charles Prosch, assistant to Senator Brown; and Brad Bowman, 
assistant to Senator Ayotte.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    I want to welcome our witnesses here today, Secretary 
Donley and General Schwartz. They are coming back to the 
committee this morning to testify on the plans and programs of 
the Air Force and our review of the fiscal year 2012 annual 
budget and Overseas Contingency Operations (OCO) requests.
    Gentlemen, please extend, on behalf of the committee, our 
gratitude to the men and women of the Air Force and their 
families for the many sacrifices that they have made on behalf 
of our Nation. Thanks to both of you for your long careers of 
leadership and service.
    We are truly mindful this morning, as we meet here, of the 
terrible devastation that the Japanese people have experienced 
with the earthquake and the tsunami that struck that nation. 
Our thoughts and our prayers go out to them. Such incidents 
remind us just how indiscriminate natural disasters can be, and 
they provide us the opportunity to once again demonstrate 
America's commitment to support our valued ally in the Pacific.
    The Department of Defense (DOD) has already been providing 
support to the Japanese people, and that effort will increase 
over the coming weeks. We know that the Air Force has played a 
critical role in supporting previous relief efforts around the 
world, and that is the case again in Japan.
    We applaud those efforts. This committee stands ready to 
work with DOD to ensure that the Department, and the Air Force 
as part of that Department, is able to continue to provide 
support to this critical humanitarian disaster response effort 
in the weeks and the months ahead.
    We are also very mindful that DOD maintains a number of 
facilities in Japan, including Air Force bases in Yokota, 
Misawa, and Kadena. These bases provide opportunities for U.S. 
Forces to support the government and the people of Japan. But 
we are also concerned about the safety of our own service 
personnel and their families that are stationed there, and we 
hope that you will tell us more about the situation this 
morning from your perspective and based on what you know.
    There is a number of ongoing critical issues that confront 
the Air Force. We know that the Air Force is providing forces 
to the U.S. Central Command's (CENTCOM) war efforts in a number 
of traditional roles but is also providing airmen in support of 
land component tasks. So, we expect this morning to hear about 
how the Air Force is supporting these current operations while 
preparing its forces to deal with other demands and with future 
demands.
    This committee has sought to ensure that our combatant 
commanders have what they need to succeed in those conflicts, 
including technologies to counter improvised explosive devices 
and intelligence, surveillance, and reconnaissance (ISR) 
assets. This committee will continue to support the needs of 
our warfighters in those conflicts.
    I would note that, in particular, the new budget will 
continue the expansion of ISR orbits within the theater, with 
the goal of achieving 65 orbits in fiscal year 2013. Each orbit 
consists of two to three air vehicles and the appropriate 
ground support equipment necessary to operate them.
    The committee has been pressing DOD in general and the Air 
Force in particular to field more unmanned aerial vehicles 
(UAV) for at least the last 15 years and has regularly provided 
additional funds for that purpose. I should note the fact that 
General Schwartz has been taking extra steps to accelerate that 
fielding by altering Air Force approaches to pilot training and 
accelerating production of Predator and Reaper UAVs.
    The Air Force has included funding in its fiscal year 2012 
budget request to begin a new bomber program that will be both 
conventional and nuclear capable. The goal is to utilize mature 
technologies to increase the likelihood that the new bomber is 
fielded on time and on budget.
    In addition, the Air Force has proposed to reduce a small 
number of B-1 bombers, while modernizing and sustaining all 
three bomber aircraft, the B-1, B-2, and B-52. The committee 
needs a detailed explanation of this new proposal to develop a 
new long-range strike system.
    After a significant number of failures a few years ago, the 
Air Force has refocused on managing nuclear forces. The Global 
Strike Command is now in place to do that. There has been a lot 
of hard work on the part of dedicated professionals, but recent 
incidents have shown that the force structure itself needs 
attention. We are interested in the plans to improve the 
critical nuclear infrastructure.
    The Air Force has made some recent changes to deal with the 
management of space programs, including bringing acquisition of 
space programs under the regular Air Force acquisition process. 
In reviewing the cost of buying space programs, however, it has 
become clear that a different approach needs to be developed to 
prevent these programs from becoming unaffordable.
    The committee has encouraged the Air Force to look at ways 
to buy space systems that reduce cost and technical risks in 
these very complicated systems. To that end, the Air Force is 
evaluating a variety of approaches that might achieve the cost 
savings and program stability goals, and we look forward to 
receiving a proposal and any legislation needed to implement 
it. I expect that we will be hearing more about the Air Force's 
current thinking on that issue as well this morning.
    Another acquisition challenge, which is facing the Air 
Force, is the stretching out of production lines which delay 
modernization programs. Foremost among these is the Joint 
Strike Fighter (JSF) program.
    Given recent identification of additional troubles and 
delays with the system design and demonstration phase of the 
JSF program by the new program manager, the Air Force is 
apparently responding by extending the service lives for 
existing fighters, including the F-16 and the F-15 fighter 
fleets, and we need to hear more about that.
    One acquisition program that appears to be moving forward 
as planned is the Strategic Tanker Modernization Program. The 
Air Force determined a winner of the tanker competition in late 
February, and apparently, the other bidder is not protesting 
the contract award.
    We look forward to receiving more details from the Air 
Force this morning on its plans for executing that program.
    Underlying all of these major acquisition concerns is an 
acquisition management issue. Secretary Donley, we hope that 
you will tell us this morning about your efforts to bolster the 
numbers within and the quality of the Air Force Acquisition 
Corps.
    Part of improving the acquisition process is an extensive 
effort to hire additional acquisition personnel, including 
additional technically qualified personnel, so that the Air 
Force will be a smart buyer of weapon systems and provide 
better oversight of the contractors. We would also like to hear 
how that effort is progressing and whether or not it has been 
impacted by recent hiring and salary freezes.
    The Weapon System Acquisition Reform Act (WSARA) of 2009 
has required DOD to make significant changes in its regulations 
and procedures governing the acquisition system. But this 
legislation will fully address past problems only if there are 
concerted efforts within the executive branch to implement that 
legislation and improve past behavior within DOD.
    We look forward to hearing how the Air Force is proceeding 
to implement the provisions of the WSARA.
    On the subject of current operations, a significant 
readiness concern continues to be the inadequate levels at 
which the Air Force funds their weapon system sustainment 
accounts. For several years now, the Air Force has funded these 
accounts at less than 100 percent of the stated requirement. It 
is my understanding that the fiscal year 2012 budget request 
only provides for meeting 84 percent of the sustainment 
requirement, even if we include the OCO funding in the base 
budget request.
    During last year's budget review cycle, this committee 
authorized additional resources for sustainment that were 
identified as an unfunded requirement by General Schwartz. So 
we will be interested in hearing from our witnesses what 
maintenance and readiness shortfalls exist, if any, for the Air 
Force and what amount of funding would be needed to address any 
potential backlogs, along with any plans and cost to address 
readiness shortfalls during the budget year and the rest of the 
Future Years Defense Program (FYDP).
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here this morning 
and thank you for their outstanding service.
    I had planned this morning to ask questions concerning the 
tanker program and the recent decision there, our continued 
frustration concerning the F-35 JSF--I understand there is 
another setback because of an oil leak--the Advanced Extremely 
High Frequency Satellite program, and the Global Hawk program 
and others.
    But I am going to seize this opportunity this morning to 
try to find out what the capability of the U.S. Air Force is in 
order to impose a no-fly, no-drive program, course of action 
over Libya.
    We are seeing the momentum and the success of Muammar 
Gaddafi and his killers massacring people while we sit idly by. 
One of the arguments used is that we somehow can't do it, 
despite the fact that General Odierno just a few days ago said 
that it would take a very short period of time in order to 
impose a no-fly zone.
    I want to know about the assets we have in the region, our 
bases at Aviano and in Sicily, and our capabilities there. Let 
us have no illusion about what is happening in Libya.
    This morning's L.A. Times carries a story concerning the 
government troops' attack on Ajdabiya, one of the towns closer 
to Benghazi. A woman said, ``The shelling went on until 3 a.m. 
When it stopped, we saw people dead in the streets and cars 
destroyed. There were snipers on rooftops with red lasers on 
their guns, and they shot teenage boys who raised their arms.''
    A massacre is about to take place if the Libyan forces take 
Benghazi. I think the American people deserve to know what 
course of action we are going to take. I understand the United 
States finally, following the leadership of France and Britain, 
is going to the United Nations (U.N.) Security Council today.
    I think the American people need to know what our 
capabilities are. Obviously, the imposition of such a 
restriction or attempt to stem the tide of Gaddafi and his 
murderers is dependent upon our air assets, as well as our 
naval assets.
    So when it comes time for my questioning, Mr. Chairman, I 
will want to know from the Chief of Staff and the Secretary 
what we can do and how quickly in order to try to prevent at 
the 11th hour the fall of Benghazi, which would effectively 
allow Gaddafi to obtain an overwhelming victory when the 
President of the United States' stated policy is that Gaddafi 
must go.
    So I thank the witnesses. General, I hope you are prepared 
to give us a little straight talk on what we can do, if 
necessary, to prevent the massacre that is taking place as we 
speak.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    I understand we have a briefing also for all Senators this 
afternoon, which will involve DOD personnel, as well as State 
Department personnel. I don't know that the location has been 
set, but I believe the time is 2 p.m.
    Secretary Donley?

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Secretary Donley. Thank you, Chairman Levin, Senator 
McCain, members of the committee.
    It is a pleasure to be with you today, representing more 
than 690,000 Active Duty, Guard, Reserve, and civilian airmen. 
I am also honored to be here with my teammate and a tireless 
public servant, General Norty Schwartz.
    We are pleased to report that America's Air Force continues 
to provide the Nation's unmatched global vigilance, reach, and 
power as part of the joint team, with an uncompromising 
commitment to our core values of integrity, service before 
self, and excellence in all we do.
    We are requesting $150 billion in our baseline budget for 
fiscal year 2012 and $16 billion in the OCO supplemental 
appropriation to support this work. This budget represents a 
careful balance of resources among Air Force core functions 
necessary to implement the President's national security 
strategy and between today's operations and investment for the 
future.
    Before discussing our fiscal year 2012 budget request, I 
would like to address some unfinished business from fiscal year 
2011 and also set in context the changes in your Air Force over 
the last several years.
    First, operating without a defense appropriation bill in 
fiscal year 2011 is having a significant impact on our Air 
Force. The decision to extend the continuing resolution at 
fiscal year 2010 levels through the remainder of this year will 
delay our ability to reach and sustain the Secretary of 
Defense's directed goal of 65 MQ-1/9 combat air patrols by 2013 
in support of operations in Afghanistan.
    It will cause a production break and a likely increase in 
the unit cost of the Wideband Global Satellite Communications 
Satellite, the F-15 radar modernization, and other programs. 
Deeper reductions to our modernization programs would be 
required to fund over $4 billion in must-pay bills for urgent 
operational needs in Afghanistan and Iraq, for military 
healthcare, and the military pay raise of 1.4 percent, which 
Congress authorized but has not funded.
    Without fiscal year 2011 appropriations, we face delay or 
cancellation of some depot maintenance, weapon system 
sustainment, and other day-to-day activities in order to 
prioritize our most critical needs under the lower funding 
levels in a full-year continuing resolution.
    Finally, fiscal year 2011 appropriations are also required 
for 75 military construction projects now on hold, which 
support ongoing operational needs and improve the quality of 
life for airmen and their families. Passing a fiscal year 2011 
defense appropriations bill is essential to avoid these severe 
disruptions, and we appreciate the efforts currently underway 
by members of this committee and others to resolve this 
situation.
    Over the past decade, the Air Force has substantially 
reshaped itself to meet the immediate needs of today's 
conflicts and position itself for the future. While we have 
grown in some critical areas, it has been at the expense of 
others.
    We have added ISR capacity with 328 remotely piloted 
aircraft (RPA) and over 6,000 airmen to collect, process, 
exploit, and disseminate intelligence. We have added over 17 
aircraft and over 2,400 airmen to bolster special operations 
capacity necessary in the counterinsurgency operations we now 
face.
    We have added over 160 F-22s now and 120 C-17s to our 
inventory. We have funded over 30 satellites and added 2,200 
airmen for critical nuclear and cyber operations and 
acquisition support.
    In this same period, however, we have retired over 1,500 
legacy aircraft. We have canceled or truncated procurement of 
major acquisition programs. We have shed manpower in career 
fields less critical for the fight and deferred much-needed 
military construction in order to balance these capabilities 
within the resources available.
    In all, during the last 7 years, the size of the Active 
Duty Air Force has been reduced from 359,000 in 2004 to about 
333,000 today. The Air Force's baseline budget, when adjusted 
for inflation and setting aside the annual wartime supplemental 
appropriations, has remained flat.
    Looking ahead, we face a multiyear effort to recapitalize 
our aging tanker, fighter, bomber, and missile forces; to 
continue modernizing critical satellite constellations and meet 
dynamic requirements in the cyber domain; and replace aging 
airframes for pilot training and presidential support.
    We continue to recognize the requirement for fiscal 
constraint and are committed to remaining good stewards of 
every taxpayer dollar, improving management and oversight at 
every opportunity. The fiscal year 2012 budget request 
incorporates over $33 billion in efficiencies across the FYDP, 
which will be shifted to higher priority combat capability by 
reducing overhead costs, improving business practices, and 
eliminating excess troubled or lower priority programs.
    By consolidating selected organizational structures, 
improving our processes in acquisition, procurement, and 
logistics support, and streamlining operations, we have been 
able to increase investment in core functions, such as global 
precision attack, integrated ISR, and space and air 
superiority, reducing risk by adding tooth through savings in 
tail.
    We are fully committed to implementing these planned 
efficiencies, and I have already assigned responsibilities to 
senior officials and put in place the management structure to 
oversee this work and track progress on a regular basis. Having 
faced the need to reshape our force structure and capabilities 
within constrained manpower and resources over the past several 
years, we do not view the current need for efficiencies as a 
singular event, but as an essential and continuing element of 
prudent management in the Air Force.
    Our investment priorities remain consistent with minimizing 
risk and maximizing effectiveness and efficiency across the 
full spectrum of potential conflict. Proceeding with 
development and production of the KC-46 tanker aircraft, 
implementing the JSF restructuring, meeting the combatant 
commanders' need for more ISR, investing in the long-range 
strike family of systems, including a new penetrating bomber, 
and enhancing space control and situational awareness all 
remain critical capabilities for both today's and tomorrow's 
Air Force.
    In addition to these investments, we will continue to 
address challenges in readiness--in particular the slow, but 
persistent decline in materiel readiness most notable in our 
nondeployed forces--and the personnel challenges across 28 
stressed officer and enlisted career fields, both of which are 
the result of today's high operational tempo.
    Of course, we will continue to support our Active, Guard, 
Reserve, and civilian airmen and their families with quality 
housing, healthcare, schools, and community support.
    With respect to healthcare, I would like to convey the Air 
Force's support for DOD's TRICARE reforms that will modestly 
increase premiums for working-age retirees, premiums that have 
not changed since they were initially set in 1995. Going 
forward, we must continue to seek and develop reforms in the 
benefits that our men and women in uniform earn to make them 
economically sustainable over the long term.
    Mr. Chairman, good stewardship of the Air Force is a 
responsibility that General Schwartz and I take very seriously. 
We remain grateful for the continued support and service of 
each member of this committee, and we look forward to answering 
any questions you may have.
    Thank you.
    [The joint prepared statement of Secretary Donley and 
General Schwartz follows:]

 Joint Prepared Statement by Hon. Michael B. Donley and Gen. Norton A. 
                             Schwartz, USAF

                              INTRODUCTION

    The United States faces diverse and complex security challenges 
that require a range of agile and flexible capabilities. From the 
ongoing conflicts in Afghanistan and Iraq, to potential confrontation 
with aggressive state and non-state actors, to providing humanitarian 
assistance, the U.S. Air Force continues to provide capabilities across 
the full spectrum of potential military operations. The Air Force's 
fiscal year 2012 budget request aims for balance and versatility to 
meet the demands of this environment. We believe the request enables 
our efforts to prevail in today's wars, prevent and deter conflict, and 
prepare to defeat adversaries across the range of military operations--
all the while preserving and enhancing the All-Volunteer Force.
    We remain mindful of our Nation's budgetary challenges and fiscal 
constraints, because fiscal responsibility is a national security 
imperative. This environment requires that we balance our capabilities 
between current combat operations and the need to address emerging 
threats and challenges. We continue to pursue cost-effective systems 
that leverage existing capabilities and maximize interoperability and 
integration of legacy and future systems. The commitment of the Air 
Force to collectively discern, access and provide tailored and scalable 
effects with Global Vigilance, Reach, and Power virtually anywhere in 
the world is reflected in our acquisition priorities. These priorities 
are:

        <bullet> Tanker Recapitalization (KC-X);
        <bullet> Joint Strike Fighter (F-35) Restructure and F-16 
        Service Life Extension Program (SLEP);
        <bullet> Intelligence, Surveillance, and Reconnaissance (ISR) 
        Systems;
        <bullet> Long-Range Strike Family of Systems; and
        <bullet> Space Systems and Launch Capability Acquisition 
        Strategy.

    Global Vigilance is the ability to provide surveillance around the 
world. As the demand for ISR continues to grow, the Air Force is 
aggressively fielding enhanced ISR capability and capacity across the 
widest range of military operations to counter threats and defeat our 
adversaries. The Air Force will continue to enhance space control and 
situational awareness capabilities, as well as space management, to 
ensure we operate effectively in the increasingly competitive, 
congested and contested space domain. This includes implementing the 
Evolutionary Acquisition for Space Efficiency (EASE) concept to drive 
down costs, improve stability in the fragile space industrial base, 
invest in technology that will lower risk for future programs, and 
achieve efficiencies through block buys of satellites. There is also an 
ongoing collaboration between the Air Force, the National 
Reconnaissance Office (NRO) and the National Aeronautics and Space 
Administration (NASA) to maintain a healthy industrial base to meet 
government launch and range requirements in an efficient manner.
    Global Reach is the ability to project capability responsively and 
advantageously without regard to distance. Air Force mobility assets 
are essential to Joint, Interagency and Coalition operations in peace 
and war as we provide critical supplies and personnel through strategic 
and tactical delivery--airlift and airdrop. Air refueling aircraft play 
an integral role by providing reach and persistence for aircraft to 
operate inter-theater and intra-theater, alike. As such, the 
procurement of the KC-X remains the top acquisition and 
recapitalization priority for the Air Force.
    Global Power is the ability to hold at risk any target in the 
world. The Air Force must continue to modernize and recapitalize our 
aircraft inventory to remain effective against global and regional 
competitors as they continue to modernize and improve their own air 
defense capabilities and harden valued targets. We will continue to 
work with Congress to enhance capabilities in our existing fighter and 
bomber fleets to mitigate delays in the F-35 development and 
procurement programs. One key to that mitigation effort is a focused F-
16 SLEP. We must sustain our ability to consistently hold any target on 
the planet at risk with the development of a Long-Range Strike Family 
of Systems capability--including a new penetrating bomber--to create 
desired effects across the full range of military operations in both 
permissive and contested environments. Lastly, a multi-faceted effort 
is underway to enhance our air superiority legacy fighters, maximize 
the capabilities of the F-22 fleet, invest in preferred air-to-air 
munitions, and optimize our electronic warfare systems.
    The Air Force must take the necessary steps today that will allow 
future generations to continue to provide consistent, credible, and 
effective air, space, and cyber capabilities on which our Nation 
depends. Our ability to do so is constrained by the increasing costs to 
design and build platforms and by the accelerating costs of personnel 
benefits and other must-pay operational bills in a particularly 
challenging budget environment. We will ensure we maximize combat 
capability out of each taxpayer dollar by identifying waste, 
implementing efficiencies, pursuing continuous process improvement 
initiatives and making smart investments. We will provide the necessary 
capability, capacity and versatility required to prevail today and in 
the future.
    Lastly, our fiscal year 2012 budget request recognizes the need to 
properly manage our force structure. We recognize that our most 
valuable assets--our people--are critical to achieving our broadest 
strategic goals, and our near- and far-term mission success is 
inextricably linked to the overall well-being of our airmen and their 
families.

                         CONTINUING RESOLUTION

    Operating without a defense appropriations bill in fiscal year 2011 
is having a significant impact on the Air Force. Under a Continuing 
Resolution (CR), we are unable to raise procurement to requested levels 
in several critical areas. Constraining MQ-9 procurement to 24 aircraft 
versus the 48 requested will delay our ability to reach the Secretary 
of Defense's directed goal of 65 MQ-1/9 Combat Air Patrols (CAPs) by 
2013 in support of ongoing operations in Afghanistan. The inability to 
initiate a contract for the Wideband Global SATCOM (WGS)-7 satellite 
will cause a production break and a likely increase in unit cost. 
Production breaks and delayed procurements will also negatively affect 
the Joint Air-to-Surface Standoff Missile (JASSM), F-15 active 
electronically scanned array (AESA) radar, F-15 APG 63 radar, and other 
programs. In addition to these impacts, deeper reductions to our 
modernization programs would be required to fund over $3 billion in 
must-pay bills for urgent operational needs in Afghanistan and Iraq, 
military healthcare, and the military pay raise of 1.4 percent, which 
was authorized by Congress and is being implemented, but was not 
funded. Fiscal year 2011 appropriations are also required for 75 
military construction (MILCON) projects, now on hold, which support 
ongoing operational needs and improve the quality of life for Air Force 
personnel and their families. Lastly, the Air Force would have to delay 
or cancel some depot maintenance, weapon system sustainment and other 
day-to-day activities in order to prioritize our most critical needs 
under the lower funding levels in a full year CR.
    In summary, continuing the CR far beyond March 4 would severely 
impact program and budget execution in the Air Force, delaying 
modernization and causing significant restructuring and potential cost 
increases to many acquisition programs, and creating larger backlogs 
for maintenance and other operations. Passing a fiscal year 2011 
defense appropriations bill is essential to avoid these severe 
disruptions.

                     EFFICIENCIES AND ENHANCEMENTS

    In June 2010, the Secretary of Defense challenged the Services to 
increase funding for mission activities by identifying efficiencies in 
overhead, support and other less mission-essential areas. The 
efficiency target for the Air Force was $28.3 billion across this 
Future Years Defense Program (FYDP). The Air Force is committed to 
enhancing capabilities by reducing expenses allocated to overhead and 
support functions, while shifting resources to modernization and 
readiness programs.
    As part of the fiscal year 2012 budget, the Air Force exceeded our 
efficiency target by $5 billion and identified $33.3 billion in 
efficiencies in an effort to make resources available to better support 
warfighter and readiness programs across the FYDP. Examples of these 
efficiencies include:

        <bullet> Consolidating 3 Numbered Air Forces with colocated 
        Major Command staff and consolidating the activities of 4 Air 
        and Space Operations Centers into 2, thereby achieving a 
        redistribution of 347 military authorizations (228 in fiscal 
        year 2012 and 119 in fiscal year 2013) across the FYDP and 
        eliminating 212 civilian authorizations beginning in fiscal 
        year 2013 which will save $100.1 million across the FYDP;
        <bullet> Consolidating installation support management to 
        improve Air Force-wide standardization and prioritization;
        <bullet> Reallocating 5,600 active duty billets over the FYDP 
        from lower priority support functions to higher priority, 
        growth areas;
        <bullet> Saving more than $3 billion from anticipated growth in 
        Weapon System Sustainment (WSS) portfolio efficiencies across 
        the FYDP by reviewing operational requirements, depot processes 
        and the sustainment of the supply chain without degrading 
        operational capabilities or support to the warfighter;
        <bullet> Reducing fuel consumption within the Mobility Air 
        Forces by leveraging proven commercial aviation practices for 
        flight planning and weight reduction, and implementing other 
        initiatives to save $715 million (net) across the FYDP;
        <bullet> Reducing acquisition costs by consolidating services, 
        scrutinizing contracts, reducing contract support, and more 
        efficiently using resources to deliver capabilities and support 
        to the warfighter;
        <bullet> Reducing information technology costs by more than 
        $1.2 billion over the FYDP by adopting DOD-level Enterprise 
        Information Services including enterprise core services, 
        consolidating and standardizing the network information 
        technology infrastructure from nine Air Force and Air National 
        Guard Regional Processing Centers to five centrally controlled 
        centers, and migrating current and developmental applications, 
        services and data to DOD-provided enterprise computing centers; 
        and
        <bullet> Improving our procurement of satellites with a new 
        acquisition strategy which, subject to congressional approval, 
        will lower procurement costs and stabilize the defense 
        industrial base.

    The realization of these efficiencies allowed the Air Force to 
reallocate funding to modernize and recapitalize weapons systems, 
improve capabilities and enhance warfighter operations. Examples of 
these enhancements include:

        <bullet> Investing in the Long-Range Strike Family of Systems, 
        including a new penetrating bomber as a key component of the 
        joint portfolio;
        <bullet> Investing an additional $3.5 billion to fund the 
        Evolved Expendable Launch Vehicles (EELV) program to the Office 
        of the Secretary of Defense (OSD) Independent Cost Assessment, 
        with the Department of Defense (DOD) committed to buying five 
        boosters per year to meet national space launch requirements 
        and stabilize the industrial base;
        <bullet> Repurposing 5,600 active duty billets over the FYDP to 
        support ISR capability, U.S. Pacific Command force structure 
        requirements, Total Force Integration, the U-2 continuation, 
        building partnership capacity, increasing support to the Air 
        Force District of Washington UH-1N mission, among other 
        increases;
        <bullet> Procuring an additional 16 simulators for F-35 aircrew 
        training bringing the total procurement to 30 simulators to 
        ensure an effective training pipeline throughput and 
        operational unit pilot proficiency and cost control;
        <bullet> Recapitalizing the aging Special Operations Forces MC-
        130H/W aircraft;
        <bullet> Improving the aircraft computer infrastructure of the 
        B-52 to enable more rapid machine-to-machine retargeting;
        <bullet> Enhancing combat capability of the F-15C and F-15E 
        with additional AESA radars and electronic protection software 
        upgrades;
        <bullet> Continuing to fund the development of next-generation 
        Global Positioning System (GPS) III Operational Control 
        Segment;
        <bullet> Researching and developing electronic protection and 
        suppression of enemy air defense (SEAD) capabilities for the F-
        22;
        <bullet> Transitioning MC-12W Liberty Project from Overseas 
        Contingency Operations (OCO) funding into the Air Force 
        baseline budget beginning in fiscal year 2013;
        <bullet> Continuing maximized production of the MQ-9 Reaper to 
        ensure delivery of 65 CAPs by the end of fiscal year 2013;
        <bullet> Extending U-2 operations through fiscal year 2015 to 
        ensure a smooth high-altitude transition; and
        <bullet> Baselining the Air Sovereignty Alert program across 
        the FYDP to solidify support to homeland security operations.

    The Air Force leadership recognizes the importance of achieving 
planned efficiencies to avoid future bills and a negative impact to our 
mission and our airmen. We are taking a long-term view of this 
initiative and will address our efficiency targets annually to further 
refine and identify follow-on opportunities. We assigned responsibility 
for initiatives to individual senior leaders who are developing their 
detailed implementation plans to oversee our efforts. Quarterly 
executive-level reviews will monitor plans and progress, and ensure 
that efficiency initiatives do not inadvertently impact readiness, 
mission performance, or quality of life for our airmen. Our continuous 
process improvement program, Air Force Smart Operations for the 21st 
Century (AFSO21), is well-established and provides our airmen with the 
tactics, techniques, and procedures to improve performance while 
achieving efficiencies.
    In order to ensure Air Force leadership has reliable and relevant 
financial information to monitor our efficiency goals, we are further 
emphasizing our work in Financial Improvement and Audit Readiness. In 
fiscal year 2012, the Air Force is dedicating $29 million to audit 
readiness and validation and $327 million to modernize our business 
systems.

                        PERSONNEL AND READINESS

    Mission effectiveness of the Air Force is linked to the overall 
well-being of our airmen and their families. The Air Force will 
continue to find innovative and efficient ways to provide and sustain 
programs that support our airmen and their families, including our 
critical civilian personnel. We must ensure programs and services 
foster a greater sense of community, strengthen a sense of belonging 
and value to the Air Force, and improve airman and family resiliency.
    As mission demands continue to evolve and budgets flatten, the Air 
Force is making key strategic choices to leverage the collective talent 
and experience of our Total Force. Through improved integration across 
the Total Force Enterprise of Active, Guard, and Reserve Forces, we are 
seeking greater Service-wide efficiencies and effectiveness to maximize 
combat capability for the joint warfighter. We are developing business 
case analyses to inform decisions on how best to structure Active and 
Reserve component relationships, especially in new areas. As missions 
such as cyber and dynamic battlefield ISR mature, so too will the Total 
Force investment in these areas.

End Strength, Retention, and Recruiting
    The overall programmed Air Force end strength for fiscal year 2012 
is more than 690,000 personnel. This includes 332,800 active duty, 
71,400 Reserve, 106,700 Air National Guard, and more than 182,000 
civilian personnel. To support the efforts of our airmen and to recruit 
and retain the highest quality Air Force members, the fiscal year 2012 
budget request includes $30.2 billion in military personnel funding and 
a military pay raise in fiscal year 2012 of 1.6 percent.
    The retention rates in the Air Force are the highest they have been 
in 16 years and recruiting has also been successful. Therefore, the 
$626.6 million requested in the fiscal year 2012 budget for recruiting 
and retention bonuses is highly targeted. Bonuses are proposed for 
specific career fields with critical wartime skills including pilots, 
control and recovery, intelligence, contracting, security forces, 
health professionals, civil engineering, special operations, and 
explosive ordnance disposal.
    In addition, the current economy has slowed attrition from the Air 
Force and had the effect of increasing active duty manning above 
planned levels. As a result, the Air Force is making difficult, but 
fiscally responsible decisions to implement force management programs 
that allow us to remain within authorized end strength ceilings. 
Specifically, we continue to progress toward an active duty end 
strength goal of 332,800 by the end of fiscal year 2012. To address 
excess end strength, particularly in the officer force, we will reduce 
accessions, continue to waive Active Duty Service Commitment and Time 
in Grade requirements for voluntary separations and retirements, 
continue to conduct enlisted Date of Separation rollbacks, and 
institute involuntary separation and retirement programs for officers 
through Selective Early Retirement, Reduction in Force and Force 
Shaping boards. We will also work with OSD to seek additional 
legislative authority to help the Air Force meet end strength ceilings 
by the end of fiscal year 2012 and maintain the appropriate level in 
fiscal year 2013 and beyond.

Civilian Workforce
    The Secretary of Defense has limited our civilian workforce to 
fiscal year 2010 levels, with limited growth allowed for specific 
priorities like the acquisition workforce. This policy will require 
significant changes to previously planned civilian growth. The Air 
Force will also conduct an enterprise-wide review of civilian personnel 
end strength to facilitate DOD's efforts for efficiencies and 
reinvestment possibilities.
Contractor Reductions
    The Air Force is looking at the way we utilize the contract 
workforce as we answer the Secretary of Defense's challenge to find 
efficiencies and to reduce duplication, overhead, and excess, and 
reinforce our culture of efficiency and restraint across the Air Force. 
This will impact the service support contract workforce in the 
following areas:

        <bullet> Reduce our staff support contractor workforce by 10 
        percent per year, over the next 3 years in accordance with 
        DOD's guidance with an estimated fiscal year 2012 savings of 
        $127 million; and
        <bullet> Reduce the funding for advisory studies by 25 percent 
        from the fiscal year 2010 levels over the FYDP with an 
        estimated fiscal year 2012 savings of $41 million.

    The Air Force identified two other areas that will result in 
reductions to its headquarters contract workforce and release resources 
for warfighter use. These include:

        <bullet> Knowledge-based services estimated at $252 million in 
        fiscal year 2012; and
        <bullet> Program Management Administration estimated at $191 
        million in fiscal year 2012.

Man-Days
    Active Duty Operational Support days play a critical role in 
resourcing extended military operations. They allow for the active duty 
appropriation to pay for temporary use of National Guard and Reserve 
personnel to support military missions beyond the regular component's 
capability. In support of the Secretary of Defense's efficiency 
initiative, the Air Force reduces, by 1,250 work years, the Reserve 
component fiscal year 2012 man-day program that supports noncritical 
administrative and overhead activities.
    The demand for global mobility and related airlift support remains 
high in fiscal year 2012 as the Air Force will continue to support a 
large footprint in Afghanistan. The Air Force identified $1.4 billion 
to support fiscal year 2012 OCO requirements. Our reliance on the Total 
Force is by design, and we recognize and value the contributions of the 
members of the Reserve components who have performed tirelessly in 
support of our Nation. The Air Force will continue to prioritize 
Reserve component requirements prudently and in accordance with mission 
needs as we transition to a lower steady state tempo.

Diversity
    The Air Force widened the aperture beyond traditional views of 
diversity, and defined it to include personal life experiences, 
geographic background, socioeconomic background, cultural knowledge, 
educational background, work background, language abilities, physical 
abilities, philosophical/spiritual perspectives, age, and more. We 
declared diversity a military necessity, as both a source of greater 
combat effectiveness and as means toward a force that more closely 
mirrors American society. Deliberate plans are being developed to 
attract, recruit, develop, and retain a more diverse force.
Repeal of ``Don't Ask, Don't Tell''
    The Air Force will execute the plan established by OSD for the 
effective implementation of the repeal of section 654 of title 10 of 
the U.S.C., known as ``Don't Ask, Don't Tell.'' We are also developing 
strategic communications, and we will provide initial and sustainment 
education and training at all levels.

Readiness
    With Air Force personnel deployed to more than 135 locations 
worldwide on an average day, we rely heavily on the Total Force. 
Currently, more than 37,000 airmen are deployed and more than 57,000 
are forward-stationed. In addition, approximately 134,000 airmen are 
directly supporting combatant commander requirements from their home 
stations daily. These airmen contribute in a variety of ways, to 
include operating the Nation's space and missile forces, processing and 
exploiting remotely collected ISR data, providing national intelligence 
support, operating and defending our networks, and executing air 
sovereignty alert missions.
    The Air Force has flown more than 419,000 sorties in support of 
Operations Iraqi Freedom and New Dawn and more than 244,000 sorties in 
support of Operation Enduring Freedom since September 11, 2001. During 
this time, we delivered over 6.3 million passengers and 3.3 million 
tons of cargo, employed almost 23,800 tons of munitions, flew more than 
15,750 personnel recovery sorties recording over 2,900 saves and 6,200 
assists, and transported more than 85,000 patients and more than 15,400 
casualties from the U.S. Central Command alone. In 2010, our airmen 
averaged approximately 400 sorties every day.
    This level of activity reflects our commitment to provide Global 
Vigilance, Reach, and Power in today's joint fight. However, our high 
operations tempo (OPTEMPO) has also had some detrimental effects on our 
overall readiness. Readiness for full spectrum military operations is a 
challenge for our combat air forces and some other limited-supply/high-
demand aviation units. Since 2003, we have seen a slow but steady 
decline in reported readiness indicators. Our OPTEMPO since 2001 has 
produced lower deploy-to-dwell ratios for high-demand skills. At 
present, 19 enlisted and 9 officer career fields are ``stressed.'' We 
have improved funding to WSS; however, sustainment challenges continue 
as we field new weapon systems and balance contract versus organic 
sources of repair. To address these readiness issues, we must keep 
aircraft recapitalization and procurement programs on track and 
continue managing our force to ensure the right numbers and mix of 
skills in our highly tasked and highest priority mission areas.

                        AIR FORCE CORE FUNCTIONS

    The Air Force Core Functions, assigned by the Secretary of Defense 
and recognized by the joint community, provide a framework for 
balancing investments across Air Force capabilities. While this 
document describes the Core Functions individually, we recognize the 
inherent interdependence of these capabilities within the Air Force, 
the Joint Force, and throughout the U.S. Government. When considered 
together, the Core Functions encompass the full range of Air Force 
capabilities. The budget request in this posture statement provides an 
appropriate balance of investment across our Core Functions. The table 
below depicts the fiscal year 2012 budget request and the projected 
allocation of resources across the FYDP, by Air Force Core Function.

                        [In billions of dollars]
------------------------------------------------------------------------
                                               Fiscal Year
          Air Force Core Function                2012 PB         FYDP
                                                 Request
------------------------------------------------------------------------
Nuclear Deterrence Ops.....................           $ 5.2       $ 28.0
Global Precision Attack....................           $16.0       $ 93.7
Air Superiority............................           $ 9.2       $ 46.1
Rapid Global Mobility......................           $15.9       $ 89.5
Global Integrated ISR......................           $ 8.2       $ 41.4
Space Superiority..........................           $11.6       $ 56.2
Cyberspace Superiority.....................           $ 4.6       $ 21.9
Command and Control........................           $ 6.3       $ 33.5
Special Operations.........................           $ 1.4       $  6.5
Personnel Recovery.........................           $ 1.6       $  9.0
Building Partnerships......................           $ 0.5       $  1.9
Agile Combat Support.......................           $33.8      $175.0
------------------------------------------------------------------------
Note 1: This table does not include OCO, Non-Blue or classified
  programs.
Note 2: The funding for Nuclear Deterrence Operations includes weapon
  systems, support systems, as well as nuclear command, control, and
  communications requirements.

Nuclear Deterrence Operations
    Continuing to strengthen our nuclear enterprise remains the number 
one Air Force priority, and we have taken positive steps within the 
fiscal year 2012 budget request to continue to strengthen and improve 
this Core Function.
    Air Force Global Strike Command achieved full operational 
capability (FOC) on September 30, 2010, moving all Air Force nuclear-
capable bombers and Intercontinental Ballistic Missiles (ICBMs) under 
one command. The Air Force Nuclear Weapons Center continues to pursue 
vital and deliberate sustainment of the nuclear enterprise through 
efforts such as the Air Force Comprehensive Assessment of Nuclear 
Sustainment process. Bomber force modernization continued in an effort 
to maintain a viable force beyond 2030. We have completed the 
transition to four B-52 operational squadrons with the addition of the 
69th Bomb Squadron at Minot Air Force Base, ND. ICBM modernization and 
sustainment also continued with investments in new test equipment and 
launch facility environmental control systems. Although an initial 
study for the Ground Based Strategic Deterrent to replace the Minuteman 
III will begin in fiscal year 2011, we must continue sustainment 
efforts to ensure Minuteman III viability through 2030.
    An important event for the ICBM force in 2010 was a temporary loss 
of the ability to monitor the status of 50 missiles at F.E. Warren Air 
Force Base, WY. At no time was there any danger to the public or to the 
safety and security of the weapon system. The missiles are protected by 
multiple and redundant safety, security, and command and control 
features. The root cause of this communication interruption was 
identified, and the necessary technical and procedural changes to 
prevent future occurrences have ensued. In addition, the Air Force has 
completed a number of assessments including initiatives to address 
systemic issues with ICBM infrastructure and operating procedures as 
well as a report on the age and pedigree of the infrastructure and 
equipment associated with the ICBM system. Based on these assessments, 
it is clear that a significant portion of the existing infrastructure 
will eventually require modernization or complete replacement in the 
years ahead.
    The fiscal year 2012 budget request of $5.2 billion continues to 
invest in the future of nuclear deterrence. The Air Force is committed 
to sustaining the ICBM force through 2030 with investment including 
command and control, cryptographic improvements and ballistic missile 
fuze sustainment. Bomber modernization and sustainment efforts include 
the B-52 Combat Network Communications Technology program, the B-2 
Extremely High Frequency communications program and the Defensive 
Management Systems program. The Air Force removed early-to-need 
procurement funding in bomber extremely high frequency communications 
and the ground element of the Minimum Essential Emergency 
Communications Network program due to program delays. The Air Force is 
committed to continuing to strengthen the nuclear enterprise through 
other programs such as the tail kit portion of the B61 nuclear weapon 
life extension program, the future long-range standoff weapon, and the 
Common Vertical Lift Support Platform. Beyond weapon system sustainment 
and modernization, the Air Force is focusing on human capital as we 
carefully balance requirements for our limited, intensively 
scrutinized, high-demand airmen in the nuclear enterprise.
    The Air Force is prepared for a new verification regime and is 
planning for the elimination and conversion of launchers under the New 
Strategic Arms Reduction Treaty. We will work with the OSD and U.S. 
Strategic Command to identify and assess options for future force 
structure adjustments consistent with the Treaty provisions.

Global Precision Attack
    Many of our global precision attack forces are meeting the current 
requirements of ongoing contingency operations by performing precision 
strike and ISR support roles. However, the proliferation of anti-access 
and area-denial capabilities will challenge the ability of current 
fourth-generation fighters and legacy bombers to penetrate contested 
airspace in the longer term.
    The Air Force used a balanced approach across the global precision 
attack portfolio in fiscal year 2011, prioritizing investment in fifth-
generation aircraft while sustaining legacy platforms as a bridge to 
the F-35, Joint Strike Fighter. We continue to modernize our bomber 
fleet to sustain our capability and capacity as we invest in a Long-
Range Strike Family of Systems.
    The fiscal year 2012 budget request for this Core Function is $16 
billion. Investments in global precision attack will fund modernization 
of legacy fighters and the B-1B, development and procurement of the F-
35A, preferred munitions, and simulators for Tactical Air Control 
System training. The fiscal year 2012 budget request adds $15 million 
to begin design and development of structural and capability 
modifications for the F-16 Block 40/42/50/52 fleet. The SLEP 
initiatives for the F-16 airframe are scalable and responsive to the 
Air Force's total fighter requirements. The Air Force is also studying 
F-16 modernization efforts, to include a new AESA radar, center 
displays, electronic warfare defensive suite, and an improved data-link 
in anticipation of F-35A delivery delays.
    The multi-role F-35A is the centerpiece of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35A is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across Services and 
partner nations. It will also serve to fulfill our commitment to NATO's 
dual-capable aircraft mission. The fiscal year 2012 budget includes 
$5.3 billion for continued development and procurement of 19 F-35A, 
Conventional Take-Off and Landing (CTOL), production aircraft.
    The F-35A program team achieved a number of accomplishments over 
the past year, including the first flight of the first mission systems 
aircraft, arrival of the first four F-35A test aircraft at Edwards Air 
Force Base, CA, completion of F-35A static structural testing 5 months 
ahead of schedule with no failures, roll out of the first Low Rate 
Initial Production (LRIP) F-35A, completion of 410 total F-35 test 
flights in 2010 of which 171 were F-35A flights, negotiation of the 
first fixed price type production contract (LRIP Lot 4 - 10 CTOL 
aircraft), and the signing of a Letter of Acceptance to procure the F-
35A by Israel.
    Also in 2010, the Air Force announced the preferred alternatives 
for F-35A operational and training bases. Those bases are Hill Air 
Force Base, UT, and Burlington Air Guard Station, VT, for operational 
squadrons and Luke Air Force Base, AZ, for training.
    The program continues to experience challenges as it transitions 
from development to production despite the significant accomplishments. 
The Secretary of Defense announced a program restructure in February 
2010. The restructure resulted in increased funding for development and 
production in accordance with Joint Estimate Team II estimates, reduced 
procurement by 122 aircraft over the FYDP in the fiscal year 2011 PB, 
upgraded the Program Executive Office position from a 2-star to 3-star 
flag rank, extended development by 13 months, added an additional LRIP 
lot prior to entering full rate production, and reduced the ramp rate 
to less than 150 percent of the previous year's production. Program 
cost growth, including growth from the restructure, resulted in a 
critical Nunn-McCurdy breach in March 2010. The Under Secretary of 
Defense for Acquisition, Technology, and Logistics subsequently 
certified the program in accordance with the Nunn-McCurdy statute, 
allowing the F-35 program to continue.
    The DOD tasked the program office to perform a bottom-up review of 
the remaining development effort after the program Nunn-McCurdy 
certification. This Technical Baseline Review (TBR), completed in 
November 2010, became the basis for additional program restructuring 
within the fiscal year 2012 PB. The TBR informed the need for an 
additional $4.6 billion to complete the joint development effort. To 
fund this new development effort, and recognizing a continued lagging 
performance in production, the DOD reduced procurement by 124 aircraft 
over the FYDP in the fiscal year 2012 PB, 57 of which were F-35As.
    The Air Force intends to accelerate the procurement of the F-15E 
AESA radar modernization program, funding 88 radars and electronic 
protect software upgrades across the FYDP to keep our legacy platforms 
viable well into the future. Other legacy fighter improvements in the 
fiscal year 2012 budget include the continuation of the A-10C wing 
replacement program.
    The fiscal year 2012 budget request includes funds to modernize the 
B-1B fleet, including the central integrated test system, fully 
integrated data link, and vertical situation display unit. To provide 
the funds to modernize the B-1B fleet, the fiscal year 2012 budget 
request also reduces B-1B force structure by 6 primary aircraft 
authorizations leaving 60 B-1Bs in our inventory. Investing in a new 
penetrating bomber is critical to maintaining our long-range strike 
capability in the face of increasing risk associated with anti-access 
and area-denied environments.
    To this end, the Secretary of Defense announced on January 6, 2011, 
that the Air Force will invest in a new long-range, penetrating, and 
nuclear-capable bomber capable of both manned and unmanned operations. 
A major focus of this program is to develop an affordable, long-range 
penetrating strike capability that delivers on schedule and in 
quantity. This aircraft will be designed and built using proven 
technologies, will leverage existing systems to provide sufficient 
capability, and allow growth to improve the system as technology 
matures and threats evolve. This program should start now to ensure 
that the new bomber can be ready before the current aging B-52 and B-1 
bomber fleets go out of service. The follow-on bomber represents a key 
component of a Joint portfolio of conventional deep-strike 
capabilities, an area that must be a high priority for future defense 
investment given the anti-access challenges our military faces. It is a 
central element in a Family of Systems that includes enabling 
electronic warfare, ISR, and communications capabilities, as well as 
new weapons.
    Anti-access and area-denial challenges have also caused us to 
pursue the Air-Sea Battle concept in partnership with the U.S. Navy and 
Marine Corps, so that together we can preserve and bolster our Nation's 
freedom of action in the air, maritime, space, and cyberspace domains. 
Once implemented, Air-Sea Battle will guide us to develop a more 
permanent and better-institutionalized relationship between Departments 
that will ultimately shape our Service organizations, inform our 
operational concepts, and guide our materiel acquisitions.
    This budget request also includes Developmental Test (DT)/
Operational Test (OT) and procurement of the Joint Air-to-Surface 
Stand-off Missile baseline and Extended Range programs. As Small 
Diameter Bomb (SDB)-1 production concludes in fiscal year 2011, the Air 
Force plans to transition to development and production of the SDB-II 
in fiscal year 2012. Additionally, the fiscal year 2012 budget request 
continues funding for integration of the Hard Target Void-Sensing Fuze 
onto the BLU-113 and BLU-109 weapons, and funds weapon DT/OT for the 
Massive Ordnance Penetrator.
    Fiscal year 2012 budget investments in global precision attack 
reflect the requirement to win today's fight while recognizing that 
proliferation of anti-access and area-denial capabilities will 
increasingly challenge America's ability to penetrate contested 
airspace. The Air Force continues to modernize the legacy fighter and 
bomber fleet to maintain sufficient capability and capacity as we 
transition to a fully operational F-35A fleet and field a modern Long-
Range Strike Family of Systems.

Air Superiority
    Air superiority is crucial in modern warfare. It enables air, land, 
and maritime operations in support of our joint, interagency, and 
coalition partners. For over 5 decades, Air Force investments, 
expertise and sacrifice in achieving air superiority have ensured that 
friendly ground forces operate without threat of attack from enemy 
aircraft. Airspace control remains vitally important in all operating 
environments to ensure the advantages of rapid mobility, ISR and 
precision strike are broadly available to the combatant commander. 
Ongoing air defense modernization efforts by global and regional 
competitors will challenge the Air Force's ability to attain the same 
degree of control in the future. The fiscal year 2012 budget request 
for air superiority is $9.2 billion.
    We plan to continue upgrading to a fifth-generation fleet with F-22 
modifications to provide fleet commonality and ensure the viability of 
our legacy weapons systems. We will also continue the development of 
preferred air-to-air munitions and defenses such as the AIM-9X, AIM-
120D and electronic warfare capabilities.
    We are currently modernizing our legacy fleet of F-15 fighter 
aircraft with AESA radars to ensure their viability well into the 
future. Other F-15C/D modernization programs underway include an 
advanced display core processor upgrade with vertical situation 
display, beyond line of sight radios, and Link-16 cryptographic 
upgrades. The fiscal year 2012 budget request continues funding for the 
F-15C/D AESA radar modernization program. The Air Force has recently 
restructured this program, procuring 90 radars across the FYDP and an 
additional 8 radars in fiscal year 2017.
    The Air Force is also incrementally modernizing the F-22 Block 30/
35 aircraft and requests funding in the fiscal year 2012 budget for the 
F-22 Block 20/30/35 Common Configuration, Reliability and 
Maintainability Maturation Program and enhancement of the air-to-air 
and SEAD capabilities on F-22 Block 30/35 aircraft.
    Select electronic warfare enhancements continue in fiscal year 
2011, including EC-130H Compass Call fleet upgrades, and a flight deck 
and mission crew simulator to increase training capacity. The fiscal 
year 2012 budget request begins funding 13 electronic attack pod sets 
for MQ-9s and the conversion of a C-130 to EC-130H Compass Call 
aircraft, adding two mission aircraft authorizations across the FYDP. 
The fiscal year 2012 budget also funds concurrent production of 
Miniature Air-Launched Decoy (MALD)/MALD-Jammer (MALD-J) and 
development of MALD-J Increment II to improve the system's electronic 
warfare capabilities.
    The Air Force continues to enhance development, production, and 
integration of critical munitions for air superiority. The fiscal year 
2012 budget requests funds for the development and full-rate production 
of the AIM-9X Block 2; development, integration, and production of the 
AIM-120D; and development and integration of the AGM-88 HARM control 
section modification. The fiscal year 2012 budget also requests 
research and development funding for the ``Next Generation Missile,'' 
an air launched missile to replace both the AIM-120D and the AGM-88. 
This funding will provide for a competitive prototype demonstration and 
technical development preceding entrance into the Engineering and 
Manufacturing Development phase of the program.
    Other key enhancements in the fiscal year 2012 budget request 
include the development and fielding of new training range equipment 
and updates to threat systems to provide realistic combat training. 
Among these are the P5 Combat Training System and Joint Threat 
Emitters. Also, the fiscal year 2012 budget request provides 
procurement of F-16 Block 40/50 Full-Mission Simulators, affording 
high-fidelity simulation for use in Distributed Mission Operations. 
Enhanced opportunities to migrate aircrew training into high fidelity 
simulators will help realize efficiencies in the peacetime flying hour 
program, as well as support energy efficiency.
    The proposed fiscal year 2012 investments will sustain America's 
air superiority advantage and expand the multi-role capability of the 
Air Force's most advanced aircraft. Additionally, these investments 
continue the development and procurement of electronic warfare 
capabilities and preferred air-to-air munitions.

Rapid Global Mobility
    The Air Force continues to provide unparalleled airlift and air 
refueling capability to support our national defense. Mobility forces 
provide a vital deployment and sustainment capability for joint and 
coalition forces, globally delivering equipment, personnel, and 
materiel essential for missions ranging from major combat to 
humanitarian relief operations worldwide.
    The Air Force is accelerating the retirement of our oldest legacy 
airlifters, the C-5A and C-130E, in fiscal year 2011. Airlift capacity 
and capability will be maintained through continued recapitalization 
and modernization. The Air Force will take delivery of seven C-130Js, 
and continue to ensure worldwide airspace access through avionics 
modernization of C-130H2/3, KC-10, and the C-5. In 2010, the C-27J 
completed transition from a joint to an Air Force-led program, and we 
continued C-27J procurement as an investment in overall fleet 
viability.
    The fiscal year 2012 budget request balances tanker and airlift 
requirements to ensure that we sustain the critical needs of the 
warfighter. This is accomplished by prioritizing recapitalization of 
the tanker aircraft while ensuring the continued viability of the 
legacy fleet. Tanker capability investments of $877 million are heavily 
weighted toward our top acquisition priority, the KC-X program. The Air 
Force submitted a Request for Proposal for a KC-X replacement tanker in 
February 2010, and is anticipating contract award in early 2011. While 
moving aggressively to recapitalize the tanker fleet, we also continue 
maintaining the health of legacy aircraft. The budget includes $147.4 
million in fiscal year 2012 for the airspace access requirement and 
sustainment of the KC-10 and KC-135 fleets.
    In conjunction with the continued procurement of C-130Js, the 
fiscal year 2012 budget continues to modernize C-130Hs through the 
Avionics Modernization Program, ensuring continued global airspace 
access. Similar efforts to modernize C-5 avionics remain on track and 
the C-5B/C Reliability Enhancement and Re-engine Program (RERP) has 
completed operational testing. In October 2010, OSD approved RERP for 
full rate production with the final C-5M ``Super Galaxy'' scheduled for 
delivery in the third quarter of fiscal year 2016. Additionally, in 
accordance with the results of the Mobility Capabilities and 
Requirements Study 2016, and subject to authorization by Congress, we 
intend to retire some of the oldest, least capable C-5As and C-130H1s. 
The C-17 Globemaster III remains the backbone of our Nation's strategic 
airlift fleet, and the Air Force takes delivery of 11 new C-17s in 
fiscal year 2011 and 8 in fiscal year 2012. These additions bring the 
total C-17 fleet to 221 aircraft. The Air Force will continue to 
modernize its mature C-17s to the production line standard by 
accelerating the Block 13-17 upgrade program, and retrofitting the 
aircraft with extended range fuel tanks and an improved on-board inert 
gas generating system.
    Efforts to increase direct support airlift continue, with plans to 
beddown 38 C-27Js in the Air National Guard. The Air Force continues 
Operational Support Aircraft/Very Important Person Special Airlift 
Mission modernization with the upgrade of VC-25 avionics, with 
completion in fiscal year 2018 enabling unrestricted global access for 
the Presidential aircraft.

Global Integrated Intelligence, Surveillance, and Reconnaissance
    The Air Force continues to rapidly increase its ISR capability and 
capacity to support all military operations. Air Force ISR provides 
timely, fused, and actionable intelligence to the Joint force from 
forward-deployed locations and distributed processing centers around 
the globe.
    The exceptional operational value of Air Force ISR assets has led 
Joint Force Commanders in Iraq, Afghanistan, and the Horn of Africa to 
continually increase their requests for support. To help meet this 
demand, the Air Force currently has more than 90 percent of all 
available ISR assets deployed. Over the last 2 years, the Air Force 
increased the number of remotely piloted aircraft (RPA) and completed 
deployment of 30 MC-12W Project Liberty aircraft to theater to 
complement remotely piloted capabilities. This is being accomplished as 
we transitioning MC-12W Liberty Project from OCO funding into the Air 
Force baseline budget beginning in fiscal year 2013. Additionally, the 
Air National Guard, already full partners in the RPA enterprise, has 
also deployed the RC-26B in support of operations in Iraq. Finally, 
both the Air Force and Air National Guard operate the RC-135 Rivet 
Joint and Senior Scout, respectively, in support of global signals 
intelligence taskings.
    In fiscal year 2011, we will increase the number of CAPs in theater 
to 50, maximize the MQ-9 production rate to 48 per year, complete the 
procurement of 11 RQ-4 Block 40, and will deliver 5 additional MC-12W 
aircraft. We also will maintain our current Joint Surveillance Target 
Attack and Radar System-based Ground Moving Target Indicator (GMTI) 
capability as we complete an Analysis of Alternatives to determine the 
future of GMTI.
    Our fiscal year 2012 ISR budget request of $8.2 billion fully 
supports the Joint force emphasis on ISR capacity and allows the Air 
Force to sustain maximum MQ-9 production and achieve 65 RPA CAPs in 
theater by the end of fiscal year 2013. In intelligence production, we 
corrected an internal Operation and Maintenance shortfall within the 
Air Force Distributed Common Ground System to sustain intelligence 
analysis and dissemination. The budget request also continues support 
for the U-2 Dragon Lady manned aircraft through the end of fiscal year 
2015 to ensure a smooth high-altitude transition to the unmanned RQ-4 
Global Hawk. This extension enables a measured reduction of the U-2 
program as RQ-4 Block 30 aircraft become operational and ensures 
continued support to national leadership, combatant commanders, and 
joint warfighters.
    The fiscal year 2012 ISR budget also realigns resources within the 
RQ-4 program to correct a $979 million diminishing manufacturing 
sources disconnect across the FYDP. To optimize our support of the 
overall RQ-4 program, the Air Force decided to curtail production of 
the RQ-4 Block 40 at eleven aircraft. This decision allows the Air 
Force to fully support and sustain the required RQ-4 Block 40 
capability already procured and concentrate on fielding effective Block 
30 multiple intelligence platforms on time.

Space Superiority
    The DOD, civilian agencies, and our Nation rely on space 
capabilities developed and operated by the Air Force. The fiscal year 
2012 space superiority budget request of $11.6 billion will enable the 
Air Force to field, upgrade, and sustain vital space systems for the 
joint warfighter. As part of the Joint Force, we integrate and operate 
these capabilities to execute the space support, force enhancement, 
space control, and force application missions; and, as launch agent for 
both the defense and intelligence sectors, provide reliable and timely 
space access for national security purposes.
    Space capabilities provide the United States and our allies' 
unprecedented national security advantages in national decisionmaking, 
military operations, and homeland security. The Air Force's budget 
priorities align closely with the goals and principles outlined in the 
National Space Policy (NSP) and support the DOD's National Security 
Space Strategy (NSSS) and the National Military Strategy with specific 
emphasis on building international partnerships to establish mutually 
beneficial space capabilities and developing a better understanding of 
the space domain. International agreements are being pursued to expand 
space-based communication capability through the procurement of a ninth 
Wideband Global SATCOM satellite (WGS-9), and to meet National Search 
and Rescue requirements by working to integrate the Canadian-provided 
Distress Alerting Satellite Systems as a secondary payload on GPS Block 
III Increment B&C satellites. Additionally, realizing the space domain 
is becoming increasingly congested, contested and competitive, we will 
continue efforts to establish a Space Situational Awareness (SSA) 
partnership with Australia by jointly employing and operating a space 
object detect and track radar in Australia. This system will provide 
better understanding of the current and future strategic space 
environment and establish a foundation for continuing nation-to-nation 
cooperation.
    In close cooperation with OSD and the Office of Management and 
Budget, the fiscal year 2012 Air Force budget request proposes a new 
acquisition strategy for buying military spacecraft, Evolutionary 
Acquisition for Space Efficiency (EASE). The current practice of 
procuring satellites one-at-a-time or on a just-in-time basis has 
inadvertently increased costs due to production line breaks, parts 
obsolescence, and inefficient use of labor. Numerous space experts and 
congressional committees have expressed concern with the inefficiency 
and disruption caused by the status quo approach to procuring 
satellites. EASE is an acquisition strategy that encompasses the 
following tenets: block buys of satellites, fixed price contracting, 
stable research and development investment, and a modified annual 
funding approach. We believe this approach will result in savings that 
can be reinvested in research and development that will further improve 
the performance and lower the cost of follow-on systems. Commitment to 
satellite production and reinvestment in technology development 
provides stability and predictability for a fragile space industrial 
base.
    The Air Force budget request reflects the use of EASE for 
acquisition of the next blocks of Advanced Extremely High Frequency 
(AEHF) protected communications satellites in fiscal year 2012 and 
Space Based Infrared System (SBIRS)-Geosynchronous missile warning 
satellites in fiscal year 2013. Once the EASE approach is proven, we 
will examine the application of this acquisition strategy to a wider 
portfolio of space programs. Relying on a combination of regular 
appropriations, advance appropriations, and multi-year procurement 
authority, the EASE proposal is consistent with the full funding 
principle and is a critical part of the Air Force's efficiency agenda. 
The Air Force recognizes the need to work with Congress to define and 
obtain the necessary legislative authorities to achieve our vision.
    Spacelift is a critical component of the national security space 
enterprise. Despite our having achieved a record 76 consecutive 
successful launches since 1999, spacelift is still a complex and costly 
undertaking. Three recent launch studies reached the same conclusion 
that immediate commitment to a fixed annual production rate for launch 
vehicles is imperative to sustain the industrial base and control 
costs. To ensure this commitment, the fiscal year 2012 budget 
submission requests an additional $3.5 billion across the FYDP to 
procure five DOD launches each year. In addition, the Air Force is 
working aggressively to reduce the cost of providing this critical 
launch capability. Additionally, the Air Force is collaborating with 
the NRO and NASA to explore synergistic solutions to maintain a healthy 
industrial base and meet government launch requirements.
    Our combatant commanders and national leadership rely on satellite 
communications for continuous secure communications around the world. 
In fiscal year 2010, we successfully launched the third Wideband Global 
SATCOM (WGS) satellite and first AEHF satellite. AEHF will provide ten 
times the throughput and greater than five times the data rate of the 
current MILSTAR II Satellite Communication System. To increase the 
effectiveness of our Joint warfighting operations, we are expanding 
communications capability with the launch of another WGS satellite in 
fiscal year 2012. Each WGS satellite delivers the equivalent capacity 
of the entire existing Defense Satellite Communications System 
constellation. WGS has become the keystone for international 
cooperation measures in space, with our Australian allies funding the 
sixth WGS satellite in return for a portion of the overall bandwidth. 
We requested $469 million in the fiscal year 2012 budget request to 
fully fund WGS to meet combatant commander's bandwidth requirements. 
These essential systems provide our forces the vital communications 
needed to remain effectively coordinated, synchronized, and responsive 
in global operations.
    For over 20 years, GPS has been the global standard for 
positioning, navigation and timing (PNT) and is used in everything from 
consumer automobiles, precision farming and smart phones, to enabling 
the Nation's most sophisticated weaponry and financial systems. In 
fiscal year 2011, we will continue to launch GPS Block IIF satellites 
to maintain the constellation as a global utility. The fiscal year 2012 
budget request includes $1.7 billion for PNT capability and 
incorporates initial funding of the next generation GPS III satellite 
production, development of the next-generation operational control 
segment and upgraded military user equipment.
    Our fiscal year 2012 budget request also includes $87 million for 
the Operationally Responsive Space program to pursue innovative 
capabilities that can be rapidly developed and fielded in months rather 
than years to respond to combatant commanders' immediate space 
requirements. In the critical areas of missile warning and SSA, we 
requested $1.2 billion for the SBIRS program, which will launch the 
first geosynchronous satellite in fiscal year 2011 to begin our 
transition to a highly effective space-based missile warning system, 
and $122.1 million for the Joint Space Operation Center Mission System. 
We will continue to improve SSA ground-based systems and space-based 
capabilities to ensure continued freedom to operate in the space 
domain. The Air Force also recognizes that space capabilities are 
essential to the nuclear enterprise for its operational readiness, 
providing key decisionmaking information through missile warning and 
nuclear event detection, along with essential communications. Weather 
and forecasting data is another important source of information for our 
forces in peacetime and in conflict. We requested $444.9 million for 
the Defense Weather Satellite System in fiscal year 2012. This system 
will replace the Defense Meteorological Satellite Program in the early 
morning orbit slot, ensuring continuity of detailed overhead weather 
imagery and sensing information. All elements of space capability must 
operate through the full spectrum of potential contingencies.
    While participating, last year, in the DOD's development of the 
national long-term space strategy as part of the Space Posture Review 
and Quadrennial Defense Review, the Air Force recognized a need to 
review our own internal space governance structure to better position 
us to properly execute the direction resulting from these reviews. 
During our review, the position of the Under Secretary of the Air Force 
was identified as the focal point for oversight of all Air Force space 
activities. In addition, space acquisition responsibilities were 
consolidated in the office of the Assistant Secretary of the Air Force 
for Acquisition. At the DOD level, the Secretary of the Air Force was 
revalidated as the DOD Executive Agent (EA) for Space. The EA is 
charged with the integration and assessment of the DOD overall space 
program, the conduct and oversight of long-term space planning and 
architecture development, and the facilitation of increased cooperation 
with the intelligence community. The EA also chairs the newly 
established Defense Space Council with representatives from across the 
DOD, and was directed to establish a jointly manned space office to 
restructure and replace the current National Security Space Office. 
This organization will not only better position the DOD to coordinate 
implementation of space policy and strategy, it will also provide the 
framework for the DOD's support for development of new national 
security space capabilities. Furthermore, the Secretary of the Air 
Force, in his role as the EA for Space is fully engaged with the DOD in 
the implementation of the recent NSP and NSSS.

Cyberspace Superiority
    The Air Force fiscal year 2012 budget request includes $4.6 billion 
to sustain and maintain our critical cyberspace capabilities and to 
enable Air Force expeditionary and CONUS-based operations in support of 
Joint Force Commanders. The Air Force contributes to the Joint force by 
developing, integrating, and operating cyberspace capabilities in three 
mission areas: support, defense, and offense.
    Cyberspace superiority enables precise force application in all 
domains, generates effects across the full spectrum of operations, and 
preserves an agile and resilient cyberspace infrastructure for assured 
mission execution.
    Access to cyberspace is increasingly critical to meet joint and 
allied requirements for freedom of maneuver in all domains. Air Force 
networks face a continuous barrage of assaults from state-sponsored 
actors, terror networks, international criminal organizations, 
individual hackers, and all level of threats in between. We are 
expanding collaboration with Service, Joint, Interagency, academic, and 
international partners on several cyber initiatives to safeguard our 
access to the cyberspace domain. To this end, we are operationalizing 
our approach to cyberspace with emphasis in this budget request on 
protecting the Air Force infrastructure, developing expertise to meet 
mission needs, and accelerating our acquisition processes.
    The 24th Air Force, the Air Force component of U.S. Cyber Command, 
achieved FOC on October 1, 2010, and the Air Force will expand the 
cyber rapid acquisition process to cope with constantly evolving 
technologies. The Air Force is also aligning education and training 
programs with our operational approach to cyberspace to properly 
develop our cyberspace professionals. In December 2010, we graduated 
our first cadre of cyberspace operators. Additionally, efforts to 
enhance the cyber-related investigative and forensic capabilities 
resident in the Air Force are forging a solid foundation for Service 
and joint cooperation. For example, Air Force Space Command 
transitioned the Defense Cyber Crime Center back to the Air Force 
Office of Special Investigations to help strengthen the ties.
    The Air Force has strengthened its efforts in the support mission 
area by continuing work on the Single Air Force Network migration, 
which increases situational awareness of Air Force networks while 
securely improving information sharing and transport capabilities. 
Examples of this support are reflected in several investments in this 
budget. The Air Force continues to support its capability for live, 
virtual, and constructive simulation and training. Based on the Fort 
Hood follow-on review, enhancements were made to the Installation 
Emergency Management system to ensure a standardized, robust emergency 
notification system.
    For the defense mission area, the Air Force invested in additional 
network defenders to increase protection of information vital to Joint 
Force operations. The Air Force continues to invest in network defense 
tools and other advanced technologies to monitor and secure classified 
and unclassified networks.
    In the offensive mission area, the Air Force seeks to field 
appropriate and sanctioned capabilities supporting assigned missions. 
The Air Force established formal training programs for both initial and 
mission qualification to provide trained forces to U.S. Cyber Command 
when tasked. Additionally, as the lead support agency to U.S. Cyber 
Command, the Air Force is responsible for the construction and 
installed infrastructure for the new U.S. Cyber Command Integrated 
Cyber Center at Fort Meade, MD.

Command and Control
    Command and Control (C2) of our forces has never been more vital or 
more difficult than in the 21st century. Supporting the National 
Security Strategy requires commanders to integrate operations in 
multiple theaters, at multiple levels, and across the full range of 
military activity. Secure strategic and nuclear C2 remains an Air Force 
priority. The Air Force must sustain, modify, and enhance current 
command and control systems, and develop deployable, scalable, and 
modular systems that are interoperable with joint, interagency, and 
coalition partners.
    In fiscal year 2011, we will improve assured communication links 
for U.S. Strategic Command's Distributed Command and Control Node and 
U.S. Northern Command's National Capital Region-Integrated Air Defense 
System. The Air Force has also done the following: expanded the 
training pipelines for Joint Terminal Attack Controllers (JTACs); began 
fielding advanced video downlinks, and airborne radio and datalink 
gateways to improve the connectivity of air support operations centers 
and JTACs; and modernized the 1970s-era technology of the E-3 airborne 
C2 node with the Block 40/45 program. In addition, the Air Force 
created pipeline training in support of the warfighting elements of the 
Commander, Air Force Forces theater staff.
    In fiscal year 2012, the Air Force requests $6.3 billion for full 
spectrum C2 sustainment, replacement, and development efforts. Of note, 
$19.1 million is requested to bolster the Air and Space Operations 
Center's (AOC) C2 capability and interoperability with programmed Joint 
systems to execute the Integrated Air and Missile Defense mission. 
Secure and reliable strategic level communications are improved with a 
$53.2 million request for modernization to Senior Leader Command and 
Control Communication Systems for senior leader support aircraft and 
the E-4 National Airborne Operations Center. Support to combatant 
commanders is also enhanced with almost $60 million in fiscal year 2012 
for improved airborne and mobile C2 systems. The Air Force maintained 
our commitment to the Joint development of the Three-Dimensional 
Expeditionary Long-Range Radar. Three-Dimensional Expeditionary Long-
Range Radar will be the future long-range, mobile ground-based sensor 
for detecting, identifying, tracking, and reporting aircraft and 
missiles in defended airspace. Additionally, the United States secured 
a cooperative development position in the NATO Airborne Warning and 
Control System avionics and navigation modernization program.

Special Operations
    Geographic Combatant Commanders and U.S. Special Operations Command 
rely heavily on Air Force Special Operations (AFSOC) capabilities to 
support missions worldwide. As the DOD continues to develop 
capabilities effective against irregular and hybrid threats, increased 
Air Force Special Operations close air support, foreign internal 
defense, and ISR capabilities will be required.
    In fiscal year 2011, the Air Force will continue procurement of 
five CV-22s and MC-130Js for the recapitalization of AFSOC's MC-130E/P 
and AC-130H aircraft. The fiscal year 2012 budget request includes an 
investment of $503.7 million toward recapitalization of AFSOC's MC-
130H/W fleet, with an additional investment of $26 million across the 
FYDP to align MC-130J program funding with OSD cost estimates. 
Additional investments were made to enhance CV-22 mission capability 
with upgraded cockpit data recording and Communication Navigation 
System/Air Traffic Management modifications. Finally, a low-cost engine 
wiring modification allowed the Air Force to realize a $9.6 million 
efficiency and reduce MC-130J spare engine inventories.

Personnel Recovery
    Personnel recovery (PR) remains a vital core function in support of 
every contingency operation. The increased utilization of military and 
civilian personnel in support of OCO has significantly increased the 
demand for Air Force rescue forces beyond the conventional combat 
search and rescue mission. Air Force PR forces are fully engaged in 
Afghanistan, Iraq and the Horn of Africa, accomplishing lifesaving 
medical and casualty evacuation missions, while also supporting 
domestic civil land and maritime search and rescue, humanitarian 
assistance/disaster relief (HA/DR) and mass casualty evacuation 
missions.
    In fiscal year 2011, the Air Force will continue to recapitalize 
HC-130N/P aircraft and procure H-60 Blackhawk helicopters under the 
operations loss replacement (OLR) program to restore the fleet to 112 
HH-60G aircraft. The fiscal year 2012 request funds four HH-60G OLR 
aircraft, and provides a $2 billion investment for procurement of 54 
HH-60 replacement aircraft across the FYDP. We will also accelerate the 
procurement of our HC-130J rescue/tanker aircraft by procuring 3 
aircraft in fiscal year 2012 to replace the 1960s-era HC-130P fleet on 
a one-for-one basis, up to 37 aircraft. Finally, the fiscal year 2012 
budget funds $73 million for the Guardian Angel program which will 
standardize and modernize mission essential equipment for an additional 
five pararescue teams.

Building Partnerships
    Developing mutually beneficial partnerships with militaries around 
the world is vital for the Air Force. Successful partnerships ensure 
interoperability, integration and interdependence between coalition 
forces while providing our partner nations the capability and capacity 
to resolve their own national security challenges. Today's engagements 
require airmen to perform their duties effectively and achieve 
influence in culturally-complex environments around the globe.
    The Air Force continues to emphasize extensive language skills and 
regional knowledge in its growing cadre of Regional Affairs 
Strategists. These personnel possess a regionally-focused advanced 
academic degree and language proficiency. They work with partner 
nations as attaches and Security Cooperation Officers. Political-
Military Affairs Strategists and best-fit officers also fill positions 
requiring in-depth understanding of the interagency processes key to 
building partnerships. The Air Force has also increased the culture and 
language content of selected pre-deployment training courses and 
recently inaugurated a new language learning program--the Language 
Enabled Airman Program. This program provides an opportunity to create 
a cadre of language-capable airmen who are deliberately developed for 
requirements, leverages the capability attained in foreign language 
accession programs, and provides a systemic opportunity for these 
airmen to maintain these skills throughout their careers. Our fiscal 
year 2012 budget request includes funding to expand foreign language 
instruction for officer commissioning programs as well.
    The Air Force continues to engage our international partners across 
the spectrum of operations. The fielding of the F-35, Joint Strike 
Fighter, will further our partnerships with more established allies, 
while the 3 C-17s procured for the 12-nation Strategic Airlift 
Capability are fully operational and currently meeting the airlift 
requirements of our European allies. We are funding new initiatives 
which support longer term Building Partnerships Capacity (BPC) efforts. 
For instance, $65.7 million was budgeted toward the procurement of 15 
Light Mobility Aircraft (LiMA) to assist partner nations in building 
their airlift capability in fiscal year 2011. These aircraft are 
scheduled to be fielded and achieve initial operating capability (IOC) 
in the second quarter of fiscal year 2012. We are also requesting $159 
million in fiscal year 2012 to procure the first 9 of 15 Light Attack/
Armed Reconnaissance (LAAR) aircraft. These LAAR aircraft will be used 
to train a cadre of pilots who will subsequently export their BPC 
aviation skills to international partners who may operate the same or 
similar platforms. To ensure the proper capability is provided to build 
partner capacity by Contingency Response Forces, LiMA and LAAR 
personnel, we funded the formal establishment of an Air Advisor Academy 
in fiscal year 2011 to expand our current efforts that include training 
air advisors heading to Iraq and Afghanistan and training air advisors 
for engagements globally. English language proficiency is a 
prerequisite to nearly all of the education and training that the 
Services provide to our partner nations. To meet increasing partner 
demand for English language training, the fiscal year 2012 Air Force 
program expands the capacity at the Defense Language Institute English 
Language Center.

Agile Combat Support
    Underpinning the work of all Air Force Core Functions are the 
capabilities included in agile combat support (ACS). ACS is the ability 
to create, protect, and sustain air and space forces across the full 
spectrum of military operations and spans a diverse set of Air Force 
functional capabilities. The fiscal year 2012 budget request of $33.8 
billion for ACS accounts for efforts affecting our entire Air Force--
from the development and training of our airmen to regaining 
acquisition excellence.
    Airmen and Families
    The Air Force is proud of its commitment to supporting its airmen 
and families. The nearly 2 decades of sustained combat operations has 
imposed extraordinary demands on them and underscores the need to 
remain focused on sustaining quality of life and supporting programs as 
a top priority. To help address the demands, in 2010 the Air Force 
executed the Year of the Air Force Family and highlighted support 
programs focused on three outcomes:

        <bullet> Fostering a Strong Air Force Community;
        <bullet> Strengthening an Airman's Sense of Belonging; and
        <bullet> Improving Airman and Family Resiliency.

    The Year of the Air Force family deepened leadership's 
understanding of current support services and capabilities and what 
needs to be done in the future to maintain and improve outcomes in the 
three primary focus areas.
    First, the Air Force will maintain an enduring emphasis on airmen 
and families by actively engaging the entire Air Force Community: Total 
Force airmen, Department of the Air Force civilians, single and married 
personnel, primary and extended family members, retirees, and on- and 
off-base community partners. The Air Force will maintain an atmosphere 
that is supportive, team-oriented, and inclusive, but diverse enough to 
meet the current and emerging needs of the entire Air Force Community. 
Policy and process priorities have been translated into actions and 
tasks that will be accomplished over the next few years, perpetuating 
the Air Force's commitment to strengthening our ties to one another, 
improving our operational abilities and ensuring our Air Force 
Community is best positioned to meet future commitments and 
requirements.
    Second, we continue to strengthen our Air Force Community by 
expanding child care through different programs such as the Extended 
Duty Program, Home Community Care, Missile Care, and the new 
Supplemental Child Care initiative to provide flexibility in meeting 
child care needs. In fiscal year 2011, the Air Force will continue to 
demonstrate our commitment to military child education, funding full 
time School Liaison Officers (SLO) Air Force-wide. SLOs and our new Air 
Force Exceptional Family Member Program Coordinators will work in close 
collaboration to address educational and other assistance for families 
with special needs. The Air Force fiscal year 2012 budget request 
includes $4 million to assist with respite child care for military 
family members with special needs children.
    Third, the budget reflects a $4.4 million increase to our Air Force 
Mortuary Affairs program, supporting travel for family members from 
home of record to Dover Port Mortuary to receive and honor fallen loved 
ones. Increases also reflect our commitment to maintaining the Port 
Mortuary's Center for the Families of the Fallen, used as the reception 
facility and host site for visiting family members at Dover Air Force 
Base, DE.
    Airman dining facilities remain an important commitment of the Air 
Force as we plan to increase funding for dining facilities at basic 
military training and technical training bases by $14.9 million in 
fiscal year 2012. In fiscal year 2011, we launched the Food 
Transformation Initiative (FTI) to address airmen's concerns with 
dining facility closings, lack of healthy food options, and 
insufficient hours of operation. FTI is designed to enhance food 
quality, variety and availability while maintaining home base and 
warfighting capabilities.
    The Air Force continues to expand our efforts to improve resiliency 
of airmen and their families before, during, and after deployments and 
has significantly expanded capabilities to ensure support and 
reintegration of our Total Force. In continuing its efforts to improve 
the resiliency of airmen and their families, the Air Force moved 
forward with several initiatives in 2010.
    We established a new Resiliency Division at the Air Force level to 
take the lead and develop an overarching Air Force Resiliency Roadmap. 
The Deployment Transition Center (DTC) was established at Ramstein Air 
Base, Germany on July 1, 2010. The DTC and Chaplain Corps Care for the 
Caregiver programs provide valuable decompression, reintegration and 
resiliency training for those exposed to significant danger and stress 
in combat zones. To support these efforts, the Air Force fiscal year 
2012 budget request includes $8 million for the Air Force Resiliency 
Program for research, curriculum development, materials and 
intervention training for the DTC. We will continue to develop our 
Airman Resiliency Program by identifying needs, researching best 
practices, partnering with internal and external organizations, and 
developing targeted and tiered training that is integrated into an 
airman's career to allow a building block approach that leads to life-
long resiliency that benefits both airmen and their families. We are 
also requesting an increase in the Chaplain Recruitment program by $1.5 
million in fiscal year 2012 to better provide for religious 
accommodation and support of airmen. This includes chaplain-led 
MarriageCare Retreats, that help heal and save marriages, and 
deployment reintegration programs expanded to meet the needs of 
redeploying airmen.
    The Air Force is highly committed to the Wounded Warrior Program 
that ensures access to medical and rehabilitation treatments for the 
ill and wounded. The Air Force Warrior and Survivor Care Division is 
dedicated to building a culture of understanding and concern for 
wounded, ill, and injured airmen. The Air Force has hired 33 Recovery 
Care Coordinators and a Program Manager to support 31 locations across 
the Air Force. Recovery Care Coordinators serve as the focal point for 
non-clinical case management, development of comprehensive recovery 
plans and creation of timelines for personal and career 
accomplishments. Additionally, the Air Force has implemented new 
personnel policies regarding retention, retraining, promotions, 
assignments and evaluation of Wounded Warriors. In fiscal year 2012, 
the Air Force is requesting $2.8 million for additional case workers 
and program managers to provide non-clinical case management services 
to meet the growing demands of the Wounded Warrior population.
    Healthcare Initiatives and Costs
    As key team members of the Federal and Military Health System 
(MHS), the Air Force Medical Service (AFMS) is seeking innovative 
solutions to deliver world class care while slowing the rising costs of 
healthcare. For example, the AFMS is taking the lead in building the 
largest patient centered medical home capability in the DOD over the 
next 12 months. This includes the Family Health Initiative, designed to 
improve continuity of care and healthier outcomes. Additional emphasis 
is being placed on delivering better care by streamlining our hospital 
surgical operations and improving the experience of care. Current 
efforts have demonstrated recapture of services in key market areas 
with the overall results of reduced cost, increased currency of our 
surgeons, and improved patient satisfaction. In addition, the AFMS is 
transitioning from healthcare delivery to delivering health. Through 
patient-centered care, improved teamwork with our patients, and 
leveraging partnerships with DOD, VA and civilian institutions, Air 
Force medicine is shaping the future of healthcare.
    Our strategy to control DOD healthcare costs is the right approach 
to manage the benefit while improving quality and satisfaction. 
Adjustments to the benefit such as raising TRICARE enrollment fees for 
working retirees, phasing out enrollment for some high-cost health 
plans, paying community hospital Medicare rates, and incentivizing the 
use of the most effective outlets for prescriptions is prudent. There 
will be limited impact (prescription only) on active duty family 
members. By implementing these important measures, we will be able to 
positively address the rising costs of healthcare and improve the 
health of our population.
    Suicides
    Air Force suicide rates have been on the rise since 2007, although 
primary risk factors for suicide among airmen remain the same. The most 
commonly identified stressors and risk factors have remained the same 
over the last 10 years: relationships, financial problems and legal 
problems. Although deployments can stress airmen and their families, 
deployment does not seem to be an individual risk factor for airmen--
many airmen who have committed suicide have never deployed. The Air 
Force is providing additional support to our most at-risk airmen by 
providing additional frontline supervisor suicide prevention training 
to all supervisors in career fields with elevated suicide rates. In 
addition, mental health providers are based in primary care clinics 
across the Air Force to counsel patients who may not otherwise seek 
care in a mental health clinic because of the perceived stigma. The Air 
Force has significantly expanded counseling services in addition to 
those available through the chaplains or the mental health clinic.
    Other helpful programs that provide non-medical counseling include 
Military Family Life Consultants, which can see individuals or couples, 
and Military OneSource, which provides sessions for active duty for up 
to 12 off-base sessions.
    Fort Hood
    In the wake of the Fort Hood shooting, the Secretary of Defense 
directed the Air Force to conduct a follow-on review to identify ways 
to better protect airmen and families. Our review yielded 118 findings 
and 151 recommendations. The key revelation of the study is that we 
must do a better job of preventing and responding to violence. 
Specifically, we must improve our ability to identify indicators of 
potential violence and share that information with those who are best 
positioned to prevent a violent outcome. This will require improved 
understanding, education, processes and training, as well as more 
integrated processes at both the installation and interagency levels. 
To undertake these efforts, the fiscal year 2012 budget request 
includes $37 million across the FYDP. We anticipate that our resource 
requirements will increase as we refine the implementation of our 
recommendations. We are confident that the resources Congress provides, 
coupled with our sustained effort, will help the Air Force reduce the 
likelihood of tragedies like Fort Hood and position us to respond more 
effectively should prevention fail.
    Information Protection
    The Air Force will enhance its capabilities to assess and mitigate 
risks to national security information across the enterprise. It will 
advance efforts to identify risks that reduce the surety of research, 
development, and acquisition and operations or enable potential 
opponents to illicitly increase their technological capabilities. These 
efforts will enable commanders to effectively execute intelligence-led, 
risk based protection across the Air Force.
    Science and Technology
    Air Force warfighting capabilities have a proud heritage of being 
born from the very best science and technology (S&T) our Nation can 
produce. The creation of the Air Force is closely intertwined with the 
development of advances in S&T. In 2010, the Air Force presented the 
.Technology Horizons Study. to serve as a roadmap for guiding Air Force 
science and technology investments during the next 20 years. Despite 
current fiscal constraints, the Air Force is increasing its investment 
in basic research by $18 million and in Advanced Technology Development 
by $76 million, while continuing fiscal year 2011-level investment in 
Applied Research.
    Acquisition Excellence
    The Air Force continues to strive for acquisition excellence by 
increasing the rigor and transparency of its processes and by 
stabilizing requirements and funding. As one of our top five Air Force 
priorities, we have taken a multi-faceted approach to recapturing 
acquisition excellence to include:

        <bullet> Rebuilding the acquisition workforce;
        <bullet> Delivering a fully implemented Acquisition Improvement 
        Plan (AIP) to guide and shape current and future efforts;
        <bullet> Creating a foundation for a robust Continuous Process 
        Improvement (CPI) function within acquisition; and
        <bullet> Implementing approximately 75 efficiency initiatives 
        that range in scope and impact throughout the acquisition 
        enterprise.

    Continued improvements support moving resources from ``tail to 
tooth'' to fully support the Air Force's direct mission activities. 
Efficiency savings in overhead, support and other less mission-
essential areas will increase funding available for our critical 
mission functions. The Air Force, as a good steward of taxpayer 
resources, is committed to delivering products and services that 
perform as promised--on time, within budget, and in compliance with all 
laws, policies, and regulations.
    An example of the successful implementation of recapturing 
acquisition excellence is the consolidation of fiscal year 2008 OCO, 
fiscal year 2009 OCO and base-year funding, fiscal year 2010 base-year 
funding, and Foreign Military Sales C-130J contracts into one 
negotiation. By taking advantage of economies of scale, the Air Force 
realized a savings and was able to procure two additional C-130Js. This 
effort reduced the number of aircraft the Air Force needs to buy in the 
out years to meet its requirement.
    Installations and Operational Energy
    The Air Force views energy efficiency as a mission enabler that can 
increase combat effectiveness, expand reach and minimize operational 
risks. The Air Force is integrating energy considerations across the 
Air Force enterprise with a three-pronged approach: reduce demand, 
increase supply, and culture change. We can identify efficiencies that 
increase our capabilities and reduce our costs, while also increasing 
and diversifying our energy supply to improve our energy security and 
our ability to meet our critical operational requirements. Finally, by 
creating a culture that makes energy a consideration in everything we 
do, and that values energy as a limited mission-critical resource, we 
ensure enduring and far-reaching utilization improvements and savings.
    As part of our institutional effort to utilize energy to maximize 
mission effectiveness, the Air Force is requesting over $550 million 
for energy initiatives in fiscal year 2012. Initiatives include 
investments in reliable alternative energy resources, enhancing energy 
efficiency, and reducing environmental impacts and life cycle costs. In 
addition, the Air Force is continuing to take steps to reduce mission 
risk by increasing critical infrastructure resiliency to ensure 
reliable energy availability at Air Force installations.
    We have reduced energy use at facilities by nearly 15 percent since 
2003, and expect to achieve nearly a 30 percent reduction by 2015. In 
addition, we have instituted a number of fuel saving initiatives and 
reduced the amount of fuel our aircraft have consumed by over 46 
million gallons since 2006, despite increased operational requirements 
associated with ongoing operations. The Air Force is continuing to 
explore opportunities to reduce demand for aviation fuel. For example, 
the 618th Tanker Airlift Control Center is optimizing flying routes by 
working clearances to allow flights to transit through previously 
denied airspace. We can save the Air Force an estimated 2.6 million 
gallons of fuel per year by optimizing our flight routes and 
clearances. Some of the initiatives we will pursue to achieve fuel 
efficiencies are:

        <bullet> Providing aircrews in-flight guidance on the optimum 
        airspeed and altitude based on current flight conditions;
        <bullet> Expanding the use of simulators to conduct training;
        <bullet> Implementing a program, already an industry standard, 
        that cleans components allowing the engine to run cooler saving 
        fuel and prolonging engine life; and
        <bullet> Refining fuel and cargo policies to reduce carrying 
        costs and potentially the number of missions required to 
        support the combatant commanders.

    We are also increasing the energy supplies we can use to meet our 
mission. We have certified over 99 percent of our aircraft fleet for 
unrestricted operational use of a synthetic aviation fuel blend. This 
fuel can be produced domestically, and we are looking to industry to 
help us meet our needs. We are in the process of certifying our fleet 
to use biofuel blends as well. These alternatives provide our fleet 
with additional flexibility and enable our freedom of action. The Air 
Force is also looking at alternative sources for energy at our 
facilities. In the upcoming years, we will quadruple on-base solar 
energy production and dramatically increase the amount of wind energy 
consumed. These clean sources of energy will serve to enhance our 
energy security.
    The Air Force is working cooperatively with the Army and the 
Marines to reduce fuel requirements at forward operating bases by 
decreasing energy demand, utilizing efficient power distribution and 
increasing alternative supplies. These bases require generators, 
typically running on diesel, that require fuel to be brought in by 
convoy. We are working to improve the energy efficiency of our Basic 
Expeditionary Airfield Resources assets, commonly called BEAR, in the 
expeditionary environment. One of the Air Force's efforts is focused on 
reducing the energy demand for expeditionary shelters by 50 percent, 
while using photovoltaic tent flys to generate a minimum of three 
kilowatts per shelter. We are also working with industry to design a 
portable, expandable microgrid for our remote airfields. The system 
will integrate solar, wind and other renewable sources of energy into 
the existing BEAR power grid, reducing the system's reliance on 
traditional, carbon-based fuel by as much as 25 percent. It will be 
able to withstand the harsh conditions in which our military operates. 
More importantly, it will help reduce the inherent wartime dangers that 
come with delivering the fuel by convoy.
    We have made significant and positive progress in reducing our 
consumption, increasing the energy available to the operational Air 
Force and changing the culture within the Air Force to ensure energy is 
a consideration in everything we do. Energy availability and security 
impact all Air Force missions, operations and organizations. The Air 
Force will increase warfighting capabilities, and efficiency, and help 
the Nation reduce its dependence on imported oil by continuing to 
ensure energy availability and re-engineering our business processes to 
become more efficient.
    Reducing Excess Physical Plant and Infrastructure
    The fiscal year 2012 budget request includes a $300 million 
demolition and $100 million consolidation investment to reduce long-
term fixed costs through the consolidation and demolition of unneeded 
facilities and infrastructure. In line with the June 10, 2010 
presidential memorandum, the Air Force intends to reduce energy use and 
curtail unnecessary sustainment activities by eliminating physical 
plant that is no longer needed.
    MILCON
    The Air Force's fiscal year 2012 $1.4 billion MILCON request 
provides funding for our most critical requirements including new 
construction aligned with weapon system deliveries and the Combatant 
Command priorities. This includes projects supporting beddowns and 
upgrades for F-22, F-35, HC-130J, EC-130H, RPA and B-52, as well as 
projects supporting our mission support facilities most in need of 
recapitalization. The Air Force MILCON program supports the U.S. 
Strategic Command Headquarters replacement facility in three increments 
beginning in fiscal year 2012, the new U.S. Cyber Command Headquarters 
in fiscal year 2013, an additional phase of the Blatchford Preston 
Dormitory Complex at Al Udeid, Qatar, and an air freight terminal on 
Guam.
    Additionally, the budget request sustains our effort to provide 
quality housing for airmen and funds $254 million in improvements to 
meet DOD performance standards to provide 90 percent of our permanent 
party dorm rooms in good or fair (Q-1 or Q-2) condition. The Air Force 
investment strategy is to fund improvements in all Q-3 and Q-4 dorms, 
referred to as Tier 1 dorms in the 2008 Dorm Master Plan, by 2017.
    The Air Force recognizes the critical role MILCON holds in 
successful mission execution and is taking action to increase MILCON 
funding in the near years of the FYDP--the Air Force proposes to 
increase MILCON in fiscal year 2012, fiscal year 2013, and fiscal year 
2014 by a combined $1.8 billion over the fiscal year 2011 PB 
submission.
    Finally, in an effort to ensure the most critical mission and 
infrastructure projects are funded first, the Air Force used asset 
management and efficient facility operations processes to evaluate 
MILCON requirements. In essence, the Air Force is considering how these 
projects and programs help reduce our out-year investment needs as part 
of our overall cost control strategy.
    Logistics
    WSS is a vital element in sustaining Air Force readiness. The Air 
Force faced a $7 billion increase in WSS requirements across the FYDP 
at the beginning of the fiscal year 2012 budget cycle, largely due to 
increasing numbers of weapon systems, such as C-17, F-22, and MQ-1/9 
aircraft that use contractor logistics support. We recognized that we 
cannot sustain that kind of growth in requirements, so we implemented a 
WSS end-to-end assessment to identify efficiencies with respect to 
supply chain management, centralized asset management, and depot 
performance.
    We were able to reduce WSS investment from $7 billion to $4 billion 
through efficiencies in depot and supply chain processes identified in 
the assessment. While we will still experience growth, this $3 billion 
FYDP offset represents important savings that the Air Force applied 
elsewhere. Prior to the WSS end-to-end assessment, the sustainment 
funds requested in fiscal year 2012 would have supported 80 percent of 
the WSS requirement. Following the assessment, and the resulting 
reduction in growth, the same amount of funds requested will actually 
support 84 percent of the fiscal year 2012 WSS requirement.
    While the peacetime flying hour program is fully funded, 
reprogramming may be necessary to cover increased fuel costs due to the 
volatility of fuel prices. Over the longer term, enactment of the DOD's 
legislative proposal for the Refined Petroleum Products Marginal 
Expense Transfer Account would reduce disruptions to operations and 
investment programs by providing the flexibility to meet fuel price 
fluctuations.
    The Air Force is successfully fielding a pilot of the first 
increment of the Expeditionary Combat Support System (ECSS). We will 
conduct an independent cost estimate as part of, and in conjunction 
with, the ongoing Critical Change Review to assess the cost 
effectiveness of proceeding with additional ECSS releases that support 
retail and wholesale supply and depot maintenance activities. The Air 
Force will continue to maintain legacy logistics support systems while 
determining the best course of action for developing information 
technology tools to enhance the visibility and management of supplies 
and equipment.
    Financial Improvements
    The Chief Financial Officers' Act provides direction for achieving 
a clean audit through leadership commitment, modernized government 
financial management systems, and strengthened financial reporting. 
Sound financial management helps to ensure the maximum combat 
capability for each taxpayer dollar. The Air Force is committed to 
achieving the legislative requirement for a clean audit by 2017. While 
2017 is a challenging deadline for a military organization as large and 
diverse as the Air Force, the strong engagement of Air Force 
leadership, additional financial resources provided in recent years, 
and focus on fielding effective financial systems will help achieve it. 
We are focusing our efforts on the information most relevant to 
decisionmakers, and the Air Force Financial Improvement Plan is closely 
aligned with the DOD strategy to achieve a clean audit.
    Strategic Basing
    In 2009, the Air Force established a standardized, repeatable, and 
transparent Strategic Basing Process. Guided by the Strategic Basing 
Executive Steering Group and coordinated through the lead major 
commands, over 115 basing actions have been accomplished ensuring that 
mission and combatant commander requirements are linked to installation 
attributes that identify those locations that are best suited to 
support any given mission. This process supports IOC, aircraft 
delivery, personnel movement, and other mission requirements. Recent 
improvements in the process have formalized actions to expedite simple, 
specialized or particularly time-sensitive basing initiatives, to 
support more timely decisions.
    During 2011, the Air Force will utilize the Strategic Basing 
Process to support basing decisions for the MQ-1/9, LiMA, LAAR, and KC-
X.

                               CONCLUSION

    In developing our fiscal year 2012 budget request, we looked at 
ways to maximize combat capability out of each taxpayer dollar by 
identifying waste, implementing efficiencies, pursuing continuous 
process improvement initiatives and making smart investments. 
Recognizing the need to shift resources from ``tail to tooth,'' the Air 
Force identified efficiencies across the enterprise that will enable 
investments in enhancements to increase our warfighting capabilities. 
This includes the continued pursuit of cost-effective systems that 
leverage existing capabilities and maximize interoperability and 
integration of legacy and future systems.
    Our ability to project Global Vigilance, Reach, and Power is 
constrained by the increasing costs to design and build platforms in a 
particularly challenging budget environment. Our fiscal year 2012 
budget request reflects the difficult choices that will allow the Air 
Force to provide the necessary capability, capacity, and versatility 
required to prevail in today's wars, prevent and deter conflict, 
prepare to defeat adversaries and succeed across the range of potential 
military operations--all the while preserving and enhancing the All-
Volunteer Force.
    We are confident in our airmen. They are the best in the world, and 
we rely on them to meet any challenge, overcome any obstacle and defeat 
any enemy as long as they are given adequate resources. We are 
committed to excellence and we will deliver with your help. We ask that 
you support the Air Force budget request of $119 billion for fiscal 
year 2012.

    Chairman Levin. Thank you, Mr. Secretary.
    General Schwartz?

 STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF OF 
                         THE AIR FORCE

    General Schwartz. Mr. Chairman, Senator McCain, members of 
the committee, I am privileged to be here today with Secretary 
Donley representing the men and women of the U.S. Air Force.
    Our airmen continue to inspire us with their dedication and 
their service and define us with their many accomplishments. 
Quietly and proudly serving alongside their Army, Marine, Navy, 
and Coast Guard teammates, airmen every day act on behalf of 
the American people as stewards of the Nation's trust and 
defenders of her security.
    This budget request, fully appreciating the Nation's 
extraordinary fiscal condition, supports our airmen in their 
continuing efforts to structure the force for maximum 
versatility across the spectrum of operations for today's 
requirements and for future challenges.
    Because of intense budgetary pressures, I echo Secretary 
Donley's concern about operating under a continuing resolution. 
Without a 2011 appropriations bill, we will have to further 
reduce flying hours, cancel training and exercise 
opportunities, delay or cancel weapon system sustainment and 
depot maintenance activities, and disrupt a multitude of other 
day-to-day operations.
    Current reductions to the President's budget request not 
only create inefficiencies that basically reverse the 
efficiency measures that the Secretary of Defense has directed, 
they adversely affect readiness as well. We appreciate your 
efforts to pass an appropriations bill to provide for these 
critical needs of our uniformed men and women.
    Consistent with the National Security Strategy and the 
Quadrennial Defense Review, our national military objectives 
are to counter violent extremism, deter and defeat aggression, 
strengthen international and regional security, and shape the 
future force.
    Airmen now are committed to the task of leveraging air and 
space power with all of its inherent versatility and presenting 
to the President and the national leadership a range of 
strategic options to meet these objectives, calibrated as our 
Nation continues to grapple with substantial deficits and 
related national debt.
    To counter violent extremism, airmen continue to make vital 
contributions to our Nation's strategic objective of 
disrupting, dismantling, and defeating al Qaeda and its 
affiliates in Afghanistan and elsewhere, thereby inhibiting 
their return to former sanctuaries.
    More than 37,000 airmen, about 6 percent of the force, are 
forward deployed worldwide. Of this group, nearly 30,000 are 
continually rotating to directly contribute to operations in 
the CENTCOM area of responsibility (AOR), including 10,000 
airmen in Afghanistan, providing close air support to U.S. and 
coalition ground forces, airlifting or refueling, personnel 
rescue, aero-medical evacuation from hostile battle space, 
leadership of provincial reconstruction teams, and training and 
exercise opportunities to develop partner air forces.
    An additional 57,000 total force airmen, or about 11 
percent of the force, are forward stationed overseas, providing 
capabilities in direct support of combatant commander 
requirements.
    From their home stations in the United States, over 200,000 
airmen, 43 percent of the force, provide daily support to 
worldwide operations, from standing nuclear alert to commanding 
and controlling our satellites, to analyzing ISR data, and 
much, much more.
    To deter and defeat aggression, we maintain vigilance 
across the entire spectrum of conflict and will employ multi-
role systems with capabilities that can flex to fulfill 
different warfighting requirements. At the upper end of the 
spectrum, we continue to provide two of our Nation's three arms 
of nuclear deterrence, with steadfast excellence, precision, 
and reliability.
    Across the remainder of the operational spectrum, we will 
continue to leverage air and space power that are vital to our 
Nation's ability to sustain a robust conventional deterrent. 
This requires the ability to rapidly project power through the 
global commons and in the globally interconnected domains of 
air, space, and cyber space.
    Therefore, in addition to leveraging air power, we will 
also magnify our efforts to reinforce our cadre of space and 
cyber professionals. We will continue to ensure precision 
navigation and timing, secure satellite communications, 
timeliness of warning, and global environmental sensing for our 
joint teammates, while we enhance our space situational 
awareness that is vital to attributing space-borne threats and 
protecting our systems and capabilities.
    We will also continue to support the whole-of-Nation effort 
to team with international partners in strengthening space 
architecture resiliency, establishing and reinforcing norms for 
space and cyber activity, and ultimately developing a broader 
range of options to ensure our Nation's access to and freedom 
of action in both domains.
    To strengthen international and regional security, the Air 
Force will translate air power's inherent ability to traverse 
vast distances with unmatched speed, ensuring the U.S. Forces 
are globally available, yet through that inherent versatility 
can be tailored in scale to be regionally focused.
    Through a whole-of-Nation approach and with mutually 
supporting strategies toward this objective, the Air Force and 
the joint team will underwrite defense, diplomatic, and 
developmental efforts to help address the root causes of 
radicalism and aggression and not just the violent 
manifestations thereof. For instance, nearly 300 airmen are 
deployed as members of the Iraq Training and Advisory Mission-
Air Force, supporting the development of counterpart 
capabilities in more than 425 specialties.
    Similarly, the airmen supporting the Combined Air Power 
Transition Force not only advise and train Afghanistan airmen, 
they help to set the conditions for a viable and self-
sustaining Afghan army air force to meet a range of security 
requirements. Ultimately, these and coordinated efforts to 
build international partner capabilities can help to prevent 
lower-intensity problems from escalating into full-scale 
crises.
    Finally, to shape the future force, we will work to ensure 
readiness, training, and equipage while contending with serious 
budgetary pressures. Our systems and capabilities must be ever 
more adaptable to be employed across the full range of 
operations, while agile command and control capabilities ensure 
interoperability with our joint and coalition partners.
    Flexible air, space, and cyber capabilities require 
resilient airmen. They are the lifeblood of our Air Force, to 
whom we owe our fullest commitment, and particularly our 
wounded warriors and their families.
    During this time of sustained and frequent deployments, we 
will bolster our capacity to provide assistance to our airmen 
in both managing the obvious and the less obvious challenges of 
returning home from war. Since July 1, 2010, we have made 
progress in this regard with the establishment of the 
Deployment Transition Center at Ramstein Air Base in Germany, 
where nearly 1,200 personnel attended programs to decompress 
and begin a healthy reintegration into family and unit of 
assignment.
    We intend to continue this progress. As deployment tempos 
remain high, we will further strengthen our efforts to develop 
the core components of the Air Force resiliency program and its 
ongoing assessment of the fitness of the force. This will 
inform our efforts as we continue to improve the quality of our 
airmen and family services and support from child education to 
base fitness centers to transition assistance programs.
    In closing, sir, I would like to reaffirm my personal 
support for the efforts to better control the cost of DOD 
healthcare. I respect and I celebrate the service and sacrifice 
of our retirees. They are and always will be honored members of 
the Air Force family, but I do believe the current DOD 
proposals are both modest and responsible.
    The Secretary and I are watching the crisis in Japan very 
closely. The Department of State has authorized the voluntary 
departure of family members and dependents of U.S. officials 
who wish to leave northeast Japan.
    To date, airmen and their families are not at risk on our 
bases. We are working closely with the U.S. Pacific Command to 
ensure that they have the resources they need when they need 
them and will support the voluntary departure of U.S. family 
members to the fullest extent.
    Mr. Chairman, committee members, the Air Force remains 
steadfastly committed to global vigilance, reach, and power for 
America. Thank you for your continued support of the Air Force, 
for our airmen, and certainly for their families.
    I look forward to your questions, sir.
    Chairman Levin. Thank you very much, General.
    Let us try a 7-minute round for the first round of 
questioning. Secretary or General, what is the support which we 
are providing to the Japanese now, and what are the plans for 
the next few weeks?
    Secretary Donley. Mr. Chairman, there are about 30,000 Air 
Force personnel and dependents in Japan. About half of those 
are on the main island between the two locations you mentioned, 
Yokota and Misawa, in the far north.
    We are bringing to bear all the capabilities that we have 
in Japan. We have moved capability from Kadena up to Yokota and 
elsewhere to support ongoing humanitarian relief and disaster 
assistance.
    We are using C-17s and other assets to help move search and 
rescue capabilities from the United States to Japan. We have 
used both helicopter and fixed-wing airlift capabilities to 
move food and water, equipment, and key personnel around the 
main island, all in support of the local requirements as 
defined by the Japanese officials.
    We have also provided ISR coverage through Global Hawk 
missions, which have helped to define the scope of the problem 
for our Japanese allies. Of course, we are also taking the 
preparatory and prudent steps to make sure that we have in 
place all the capabilities and accoutrements that go with 
radiation-related defensive measures.
    The decontamination teams and capabilities are in place, if 
needed. The dosimeters are being distributed to forces when 
that is appropriate. Medical backup is being lifted into the 
island. So I think we are prepared for future contingencies as 
they might develop.
    There is a continuous reading of the health situation on an 
ongoing basis at both Misawa and Yokota. As General Schwartz 
indicated, there is no threat to our personnel there, although 
radiation readings across Japan are spiking temporarily, based 
on the local conditions at the nuclear reactors involved and 
also the prevailing weather. There are little spikes up and 
down, depending on where you are, but no immediate threats.
    Chairman Levin. Have any of those spikes been noticed at 
our three facilities?
    General Schwartz. Mr. Chairman, no, sir, they have not.
    Chairman Levin. Okay. On the JSF delays, the testing 
program for the Air Force variant, the F-35A, has been 
proceeding ahead of schedule, and yet the 5-year defense plan 
cuts out 47 production aircraft compared to last year.
    The Marine Corps version has had problems. They were cut as 
well. The Navy version was reduced by only two aircraft. So why 
is the Air Force making such a large reduction in the plans to 
buy F-35As, given the fact that the testing program is 
proceeding even better than expected?
    General Schwartz. Sir, there are a couple aspects to this. 
One is the way the program was sequenced. It happened that the 
C models, the Navy version of the aircraft, were toward the 
back end of the procurement cycle within the 5-year defense 
plan. So, there were fewer reductions simply because of the 
sequencing.
    As you suggested, the airplane is testing well, despite the 
fact that we did have a generator anomaly recently that caused 
a temporary grounding of the fleet. This is the kind of 
discovery that occurs in test. But the major cause for the 
reduction simply was a factor of producibility and the ability 
of the factory to put out aircraft and not to take too much 
risk on fulfilling the delivery requirements.
    Chairman Levin. On the engine issue, press reports indicate 
that the development costs for the F-135 engine have increased 
by about $1 billion since last year. That is the so-called 
first engine.
    The Pratt & Whitney program manager has been quoted as 
saying that one-third of those costs are related to shortfalls 
in meeting specifications, two-thirds related to improvements 
beyond specification. So we have about a $300 million to $400 
million cost overrun on that engine that is not related to 
improvements beyond the specifications.
    What is going on? Why are we accepting those kind of cost 
overruns in this engine?
    General Schwartz. Sir, there are development issues that 
arise that one must deal with. I have to say that I wouldn't 
expect the situation with the proposed second engine to be a 
lot different.
    The bottom line is that the F-135 engine is based on the F-
119, which is currently in the F-22 aircraft. I have confidence 
that these developmental issues will be overcome. As I have 
indicated in the past, my personal conviction is that one 
engine is sufficient for the F-35 program.
    Chairman Levin. I understand that. But I am talking about 
the cost overrun in that one engine, and why is that 
acceptable? Why do we not have a fixed cost at this time on an 
engine where these problems, at least the $300 million to $400 
million of this additional billion, are not a result of any new 
specifications but meeting the existing specification? Is that 
acceptable to you?
    General Schwartz. It is not. I don't offer an excuse for 
it, Mr. Chairman.
    We are moving into an era of more and more fixed-price 
contracts. The KC-46 is a case in point, and we understand your 
intent.
    Chairman Levin. Okay. Thank you. My time is up.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Schwartz, last week General Clapper and General 
Burgess testified before this committee, and when asked, they 
said that if events in Libya continued as the way they were, 
that Gaddafi would prevail.
    Given their view and the assessment of the situation on the 
ground today, do you agree with that?
    General Schwartz. Sir, my own view is that he has certain 
advantages; interior lines and the capacity to bring forces to 
bear. That is a clear advantage of those resources in Libya, 
which are better supplied and better equipped.
    Senator McCain. In recent days, they have achieved 
significant successes. I think that is fairly obvious, wouldn't 
you say?
    General Schwartz. They have reestablished control over 
larger areas in Libya. Yes, that is correct.
    Senator McCain. One of the ways of achieving this is 
through coordination of both air assets, land assets, and sea 
assets. Is that a correct assessment?
    General Schwartz. I don't have particular insight into the 
level of synchronization amongst their assets.
    Senator McCain. But factors have been control of the sea 
and the air?
    General Schwartz. Senator McCain, they have been operating 
in the air. That is certainly the case.
    Senator McCain. What is your assessment of the capability 
of their air assets? In other words, how many combat aircraft 
do they have, and how many combat helicopters do they have?
    General Schwartz. They have multiple tens of combat 
aircraft and certainly I would say in the low hundreds of 
helicopter rotary-wing aircraft.
    Senator McCain. Of those that we have seen operational, 
there is a relatively small number.
    General Schwartz. They have been flying in the neighborhood 
of tens of sorties a day.
    Senator McCain. Do you agree with General Odierno's 
assessment and others that we could install a no-fly zone over 
Libya in a matter of a few days?
    General Schwartz. I think that is overly optimistic, 
Senator McCain. But it is clear that we could establish a no-
fly zone if that was the mission that was assigned.
    Senator McCain. How long would that take, in your view?
    General Schwartz. I think it would take upwards of a week 
to do that.
    Senator McCain. We would be using assets that are now in 
the region? I am talking about Air Force assets.
    General Schwartz. Sir, it would undoubtedly require 
resources in Europe, as well as those that are based in the 
United States. I would like to say, however, that, for me, the 
question is not can we do it, but should we? If so, how?
    Senator McCain. If there was a declaration of a no-fly 
zone, it would be a motivating factor to the Libyan pilots not 
to fly. Would you agree with that?
    General Schwartz. If the President assigns the mission to 
maintain a no-fly zone, clearly that would have an influence on 
the thinking of Libyan pilots.
    Senator McCain. Is it your assessment that the situation 
has deteriorated to the point where it probably would require 
more than just a no-fly zone to reverse the momentum that the 
Gaddafi forces have obtained?
    General Schwartz. Sir, that is exactly my point. The 
question is, is a no-fly zone the last step, or is it the first 
step?
    Senator McCain. What is your assessment of the battlefield 
situation at this point to reverse the momentum?
    General Schwartz. A no-fly zone, sir, would not be 
sufficient.
    Senator McCain. Thank you. As opposed to a couple of weeks 
ago, when probably it would have been.
    Also, isn't it true that we do have significant 
capabilities to jam the communications that the Gaddafi forces 
have?
    General Schwartz. We have some capability in that regard 
for military communications.
    Senator McCain. I thank you.
    In order to impose a no-fly zone and perhaps other 
impositions on the enemy, it would require assets from the 
United States as well?
    General Schwartz. It would, sir.
    Senator McCain. It would not require assets taken from 
Afghanistan or Iraq?
    General Schwartz. I would not agree with that necessarily. 
Again, it depends on the mission that is assigned. But there 
are limited ISR assets, for example. As you are well aware, we 
have devoted virtually everything we have to the CENTCOM AOR. 
There might well be some implications there.
    With regard to lift, there is a limited amount of lift. 
There is some being allocated to the Japanese mission, some 
being allocated to CENTCOM, and in Libya, there would be some 
trade-offs involved, sir.
    Senator McCain. With regards to Iraq, the Iraqi Government 
has made it clear that they would like to develop an air force 
that would at least have the capability to defend the skies 
over Iraq. Isn't that true?
    General Schwartz. They have indicated as much, sir. 
However, they have made choices not to put the resources behind 
that aspiration.
    Senator McCain. I see. If they put the resources behind it, 
could they do it by themselves?
    General Schwartz. We believe that with appropriate training 
and so on, they could provide for their own air sovereignty. 
Yes, sir.
    Senator McCain. Their own air sovereignty. But training, 
could they do that by themselves?
    General Schwartz. Sir, we have a training mission in Iraq, 
and part of the effort would be to qualify the Iraqi pilots.
    Senator McCain. I guess my point is if all of the U.S. 
Forces are withdrawn from Iraq, I think it would, at least in 
the words of General Austin before this committee, be very 
difficult for them to stand up an air capability. Do you agree 
with that?
    General Schwartz. Presumably, there will be a training 
mission after combat forces exit Iraq, sir.
    Senator McCain. That would be necessary?
    General Schwartz. I believe it would.
    Senator McCain. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, Mr. Secretary and General. Good to see you again.
    I want to pick up at the outset of my time on some of the 
questions Senator McCain asked about Libya because it is a 
matter of such urgency.
    It was just a week ago that General Clapper, the Director 
of National Intelligence, responded to a question I asked him, 
essentially saying that over time, assuming there were no new 
factors on the ground and no outside assistance, that Gaddafi's 
forces would prevail over the opposition forces simply because 
they were so much better equipped, and have better logistics, 
command and control, and the like.
    I know he took some abuse for that statement, but it is 
clear now that in merely the passage of a week, which was 
quicker than I assumed General Clapper meant, and maybe quicker 
than he meant, the Gaddafi forces now have moved very rapidly 
and are approaching Benghazi, which was the stronghold of the 
opposition.
    The New York Times reports today what it calls, ``a 
striking shift in tone from the administration,'' produced by 
the prospect of a deadly siege of the rebel stronghold of 
Benghazi.''
    This is a newspaper report, but also a suggestion that the 
administration may now be negotiating around a resolution 
introduced by Lebanon, France, and the United Kingdom in the 
Security Council to not just give authority to impose a no-fly 
zone, but to authorize aerial bombing of Libyan tanks and heavy 
artillery to try to halt the advance of Gaddafi's forces.
    This is also from the newspaper this morning. It says that 
administration officials, after heated internal debate, have 
now decided that a no-fly zone would be, ``too little, too 
late.''
    I wanted to ask you, from the Air Force point of view, if 
asked to participate--and I will get to whether we do it with 
some allies in a moment--in the aerial bombing of Libyan tanks 
and heavy artillery to try to halt the advance of Gaddafi's 
forces on Benghazi, how soon that could be carried out if 
authorized, and how it would compare as a mission to imposing a 
no-fly zone both in terms of its feasibility, the risk, et 
cetera.
    General Schwartz. First of all, a mission as you describe 
it, were it to be assigned, would require preparation of the 
battle space. That is, sanitizing ground-to-air threats to the 
various aircraft. That clearly would require both electronic 
and kinetic action against air defense systems.
    With respect to interdicting ground targets, that is 
certainly within our capability to do so with precision. In 
non-urban areas, that certainly is a capability that we have. 
We can do it in urban areas, but clearly with the concerns 
about collateral damage and so on.
    Senator Lieberman. Right.
    General Schwartz. I think the key thing here is, we, as the 
uniformed military, are planning. We are working to provide the 
civilian leadership with options, and ultimately, the President 
will decide what he wants us to do.
    Senator Lieberman. Understood.
    General, Secretary Clinton said yesterday that a turning 
point of the administration's consideration of what its options 
were and what it might do with regard to Gaddafi's advancing 
forces was the Arab League resolution over the weekend calling 
for a no-fly zone.
    I know, and you know better than I, that some of our allies 
in the Arab world have impressive air assets and capabilities. 
Have we begun at all to discuss with our Arab allies the 
possibility of them working with us in either of these 
options--the no-fly zone or some other use of air power--
against Gaddafi in Libya?
    General Schwartz. Senator, I have not done that. That would 
be within the realm of CENTCOM and U.S. Africa Command. So I 
cannot give you a definitive indication whether that has 
occurred. But I agree with you that there are nations within 
the Arab League with capable air forces that, under the right 
circumstances, might be brought to bear.
    Senator Lieberman. I appreciate those answers very much.
    I am going to go to a very different kind of question, 
which may be relevant to what we are talking about, and that is 
one that I have been interested in, which is the Joint 
Surveillance Target Attack Radar System (JSTARS) program.
    General, in earlier testimony before this committee, you 
stated that your Ground Moving Target Indicator analysis of 
alternatives (AOA) would be used beginning for fiscal year 2013 
to guide Air Force investment in ISR weapon systems like 
JSTARS, which have this remarkable capability to chart what is 
happening on the ground and then advise our troops.
    You also stated that the report would be ready at least in 
interim form by this spring, and I wanted to get a progress 
report from you on how that is doing.
    General Schwartz. Sir, the AOA is on track. Preliminary 
information is coming up from Air Combat Command, where the 
people are working on it. It will be in final form in the fall.
    Senator Lieberman. So you would say it is pretty much on 
schedule? Okay. I appreciate it.
    I just would add by way of advocacy, from what we have 
heard, JSTARS continues to be doing well in supporting our 
troops in Southwest Asia and has been called into action in 
recent months in other trouble spots around the world. Does 
that sound right?
    General Schwartz. Ground Target Moving Indicator capability 
is an important part of our surveillance repertoire.
    Senator Lieberman. Right.
    General Schwartz. The real question is how do we go 
forward? You can depend on us to maintain the current JSTARS 
capability until and if we decide to migrate to another 
capability.
    Senator Lieberman. Thank you. My time is up. Thank you both 
very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. I appreciate it.
    General Schwartz, you indicated that when the chairman was 
questioning the overruns, that there is no excuse for the 
overruns, the $300 million. But what are you doing about it?
    I mean it is great not to have an excuse, but what actually 
is happening? Is there any type of recourse? What is the 
conversation? Where do we go?
    Either one.
    Secretary Donley. I think Admiral Venlet has outlined this 
in his testimony a little bit. I would defer to that, if we can 
get you a more specific answer for the record?
    Senator Brown. Okay. Yes.
    [The information referred to follows:]

    $893 million was added to the F135 program to complete System 
Development and Demonstration (SDD) as a result of the Technical 
Baseline Review (TBR). The TBR recommended adding $131 million for cost 
growth of previously planned content, $342 million for risk reduction 
measures, $341 million for the manpower and engines necessary to extend 
the flight test schedule by 2 years, and $79 million for management 
reserve. The TBR did not recommend changing the propulsion 
specification; therefore there is no funding for improvements beyond 
the specification.
    Cost growth refers to increases in the cost of work previously 
agreed to by the contractor, generally due to suboptimal performance. 
Risk reduction measures refer to items that were previously removed 
from the program but are now being put back in to ensure the 
development program will complete on time with minimal risk.

    Secretary Donley. The Joint Program Office is managing this 
program.
    Senator Brown. I am just reflecting on the comments that 
General Schwartz made that there has been no excuse. You were 
just talking about it and saying you didn't ask the chairman to 
refer to another report. So I would like to kind of know what 
is being done about it.
    General Schwartz. Clearly, the folks that are managing this 
program are focused on that to make sure that the contractor 
delivers what the contract requires. It is my understanding 
this is not a fixed-price contract. So there is some room there 
for developmental issues and a cost share between the 
Government and the contractor.
    The key point here is that we, as customers, need to be 
demanding. We need to write the right kind of contracts. We 
need to make sure that the terms are enforceable, and that 
certainly is our conviction as an Air Force.
    Senator Brown. In light of the recent delays in the JSF 
program, not to mention the cost overruns in the F-135 engine 
program, we have seen positive results from competition in the 
Navy with some of the projects that they are working on, and it 
does work. I hear it regularly. I was just at the Army 
breakfast this morning, and they were talking about 
competition, and et cetera, et cetera.
    Do you have any comments on the competition when you have 
one engine that is being overrun with costs and delay, and you 
have another one that is ahead of schedule and under budget? Do 
you have any comments on that at all?
    General Schwartz. I am not sure that I would agree that the 
other engine is under cost and so on.
    Senator Brown. But what about the concept of competition?
    General Schwartz. The concept of competition certainly is 
valid, as the KC-46 outcome demonstrates. But I think I would 
make the one case, sir, that the issue is current or near-term 
cost versus future soft savings. In the situation we find 
ourselves, while competition may, in fact, have benefits down 
the road, the question is what can we afford to do now?
    Senator Brown. Okay. The Air National Guard (ANG) and Air 
Force Reserve have played an integral part of the war effort. 
The Air Force Reserve mans 14 percent of the total Air Force, 
but only constitutes 6 percent of the total Air Force personnel 
budget. Obviously, these figures represent significant cost 
savings and really a good bang for your buck.
    With the Reserve components being such an effective and 
cost-efficient component, can you comment on the types of roles 
and responsibilities that will be expected among the ANG and 
Reserve over the next 3 years?
    General Schwartz. There is virtually no mission or very few 
missions where the Reserve component does not contribute in our 
Air Force. From kinetic missions, fighter, airlift, space, and 
cyber, there isn't a mission where our Reserve components don't 
contribute. We certainly value that contribution.
    Senator Brown. On the C-5Ms, I am just curious as to your 
thoughts on the performance thus far, in light of the ongoing 
Reliability Enhancement and Re-engine Program (RERP). Since the 
Air Force is likely to have a number of C-5As in service for 
the next 30-plus years, does it make sense that that inventory 
in the ANG and Air Force Reserves should also be included in 
the modernization effort?
    Secretary Donley. Sir, I think the Guard and Reserve are 
included in the modernization of the C-5M. It has performed 
very well, and it is going to be part of our inventory going 
forward. It has provided a lot more operational flexibility and 
reliability to what is inherently an older airframe. So the C-
5M has been a successful program for us.
    Senator Brown. I am not sure if you are aware, I am going 
to be the ranking member of Airland Subcommittee with Senator 
Lieberman, and I am looking forward to working on a lot of 
these issues. I appreciate your time.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Brown.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Secretary and General Schwartz, thank you so much for 
your service to our country. Under your leadership, the Air 
Force has secured the Nation's nuclear arsenal and restored 
public confidence.
    I know the Air Force's operational tempo has been high, and 
I want to thank the men and women of the Air Force, and their 
families as well, for their sacrifice.
    General Schwartz, deployed airmen performing the search and 
rescue mission play a critical role in saving lives. They 
completed over 9,700 personnel recovery sorties in 2010 alone, 
and their expertise makes the goal of the golden hour medical 
evacuation a reality.
    Can you talk about the casualty evacuation mission and how 
the rescue assets are holding up to the harsh environment we 
face?
    General Schwartz. Senator, our combat rescue community is 
one of those communities in greatest demand that has 
essentially a 1-to-1 tempo, time at home to time deployed. They 
are, in fact, contributing to the Secretary of Defense's 
mandate for recovery of our wounded within that golden hour.
    They are a very capable force, and clearly, this is a core 
mission for the Air Force. That is personnel recovery 
operations in denied areas. That is our special expertise. To 
have the right kind of medical capability onboard to stabilize 
patients and to get them back to higher-level care.
    We are in the midst of replacing combat losses. Of note, we 
had 19 HH-60 aircraft in 2010 that sustained battle damage. We 
are replacing, through the operational loss replacement 
program, some aircraft which had been total losses. We are 
looking forward to the HH-60 recapitalization program to move 
to a successor platform for the rescue mission.
    Senator Akaka. We thank you so much. Certainly, the program 
has saved many lives.
    General Schwartz, the Navy recently completed a critical 
design review for a maritime surveillance RPA and a realized 
cost and schedule savings in research and development (R&D) by 
leveraging the thousands of hours flown by the Global Hawk. Do 
you foresee future opportunities for joint acquisitions, 
operations, maintenance, or training in the RPA arena to find 
efficiencies?
    General Schwartz. We certainly do, sir. Global Hawk and the 
Navy equivalent program, Broad Area Maritime Surveillance 
(BAMS), is just a case in point, and not the only one, where 
the fundamental question is why should we have two different 
depots? Why should we have two different training pipelines or 
even, for that matter, based at different locations?
    In fact, we will probably base both BAMS and Global Hawk at 
Sigonella in the European theater, as an example of our putting 
these things together. Certainly, we shouldn't have two 
different ground stations.
    Gary Roughead and I are committed in that area and others, 
in part as a result of our effort on air-sea battle, to make 
sure that where we have these synergies, we maximize them. BAMS 
and Global Hawk is just a very good example.
    Senator Akaka. Thank you.
    Secretary Donley, DOD spends about $16 billion a year for 
fuel, with the Air Force as the largest military consumer. The 
C-17 was recently certified to use biofuels. Can you discuss 
any preliminary results and any plans for biofuel usage in 
other aircraft?
    Secretary Donley. The Air Force has had a comprehensive 
program for the last several years to make sure that we certify 
engines on all our Air Force platforms for alternative fuel 
blends, whether it be from Fischer-Tropsch processes or from 
biofuel processes. So, we have been stepping through that 
certification program.
    The issues in front of us, I think, now more relate to the 
national marketplace and who will be the producers and what 
will be the supply chain that feeds alternative fuels as a 
cost-effective alternative, which we can pursue in the mid-
teens. So I think that is the primary challenge in front of us.
    We are, as you suggested, the largest consumer of fuel in 
DOD. From exceptional efforts in fuel management and in changes 
in operations, we have been able to reduce our demand over the 
last several years by about 2 percent.
    So the number of gallons used has gone down, but the cost 
has continued to go up. This is a continuing challenge. We also 
have a number of efforts underway at the installation level as 
well, in addition to aviation fuels, to get more renewable 
energy into our bases.
    Senator Akaka. Secretary Donley, 35 percent of the fiscal 
year 2012 budget request will be dedicated to quality of life 
projects, including dorms, training facilities, and child 
development centers. My question is what are the top three 
family issues that you are trying to resolve with the budget 
request?
    Secretary Donley. Sir, as you suggest, we have a number of 
programs underway. We have used the Year of the Air Force 
Family, which really is over the last 15 months or so, to help 
refine our programmatic focus going forward.
    We have started to not just support sustaining programs, 
such as you have mentioned--the dormitory modernization 
program, the child development centers, manning the child 
development centers, and getting the hours of operations 
right--but we have started to fine-tune where we put the 
limited, marginal dollar to help with family issues.
    One example is our Exceptional Family Member Program, where 
we have airmen and families with exceptional needs and also 
focusing on school liaison support, which is so vital to airmen 
and their families, providing for education for their kids. 
Those are a couple of areas that we are focusing additional 
attention on.
    Senator Akaka. Thank you very much for your responses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Secretary Donley, General Schwartz, it is an honor to be 
here with you. I have a particular affinity for the Air Force, 
given that I am married to an A-10 pilot. So it is really an 
honor. Thank you both for your distinguished service to our 
country.
    I wanted to mention up front that I also had the privilege 
of attending the Army breakfast this morning and then hearing 
both of your comments about where we stand right now with the 
continuing resolution, that I would like to say that I hope 
that leadership within the Senate and also in the House brings 
forward funding for the rest of the year for a defense 
appropriations.
    We are at a time of war. I heard loud and clear what you 
had to say today. I know that members of this committee are 
very concerned about this as well. But please know that we want 
a full-year defense appropriation for the rest of fiscal year 
2011 to come forward.
    Thank you for bringing those comments forward to let people 
know what the consequences are of having these short-term 
resolutions when we are at war.
    Understanding that it was a long and arduous process with 
lessons learned along the way, I would like to congratulate the 
Air Force on recently completing the tanker competition. The 
fact that the European Aeronautic Defence and Space (EADS) 
company has decided not to contest your decision I think is a 
testament to the quality of the process that you followed 
during this bidding round. So thank you, and that was a very 
good thing that they decided not to contest what had happened.
    In your posture statement, General, you rightly state that 
the new air refueling tanker remains the top acquisition and 
recapitalization priority for the Air Force. The current fleet 
of Eisenhower-era KC-135s are averaged over 48 years old, and 
they are long overdue for replacement.
    Without refuelers, you can't run your fighters. You can't 
run the rest of them. So it is so integral to the Air Force.
    General Schwartz. Or a no-fly zone.
    Senator Ayotte. Exactly. Some of the key missions that we 
need to accomplish.
    I am aware that you are now in the process of the early 
stages of the strategic basing process that will determine 
where the KC-46A will be stationed. I wanted to ask you about 
that. I am sure you are aware we have the Pease ANG that is a 
very vital part of the KC-135 mission and has a very close 
proximity to air fueling tracks and also has run those missions 
very cost effectively.
    I wanted to ask you, I know that you haven't announced the 
criteria yet, but will that criteria be merit based and on 
proximity to refueling air tracks? How do you anticipate that 
process coming forward and what will the timing be for 
announcing those criteria?
    Secretary Donley. We will start to look at those criteria 
later this year. I will say this is a multi-year process, and I 
think General Schwartz and I have been very clear from the 
beginning that we don't want to get too far out in front.
    This is a 179-aircraft program. It will take over a decade 
to play out. We do not want to commit too far in advance to 
future basing and tie the hands of our successors or the 
operational commanders who will benefit from this capability 
later.
    Our plan is to look at the first bed-down issues later this 
year, and we will do those on a couple of year increments at a 
time, slowly building up the basing decisions. Obviously, we 
will want to take advantage of the capability of the aircraft 
and understand how it differs and will perform differently than 
the KC-135s. We will also look to Air Force operational needs 
and also the needs of the regional combatant commanders and how 
they define those requirements.
    So there are a number of tanker bases that are interested 
in being the first on the block, if I may put it that way. We 
understand that. We will work through this process very 
deliberately, as we have in previous bed-down decisions.
    Senator Ayotte. I appreciate that, and you know we are very 
proud of the work that Pease is doing. I hope that you will 
consider, of course, that what we want is a transparent, merit-
based process. I think that is what everyone would hope in how 
you make your decisions.
    I hope that you will consider, and I assume you would just 
based on cost effectiveness, the proximity to air refueling 
tracks.
    Thank you.
    Secretary Donley. Just to respond again, this is a multi-
year process. There are 179 aircraft for this KC-46 program, 
plus we will probably have roughly 200 more tankers to be 
modernized in the mid- to late '20s and beyond. So this is a 
long-term proposition.
    The point I would like to leave with you is that even as we 
make the first decisions about where the first airplanes will 
go, it is not a reflection on the value that we put on the 
refueling mission at the locations in which they are now 
serving. It is a little bit like the F-35 decisions we made 
last year, where we announced just the first few bases. But our 
intent is to buy over 1,700 JSFs. Eventually, we will get those 
fighters bedded down at fighter bases around the country. The 
same with the refueling capability, I think.
    So if you are not the very first, please don't take that as 
some context of some negative ranking of some sort. This is 
going to take a while to field this capability across our Air 
Force.
    Senator Ayotte. Thank you. I do appreciate it. I know that 
the process will be open, and it will be merit based. I think 
that is all that we can hope for in how you make your decision. 
I appreciate that.
    Senator Brown and I are sponsoring a bill. It involves 
giving the authorities in Afghanistan an opportunity to 
terminate contracting funds as soon as possible whenever we 
learn that the contractor is collaborating with the enemy or, 
in other words, working to undermine our mission there.
    One of the issues that came up is that CENTCOM has asked at 
least twice for additional contracting officers for Afghanistan 
to be able to perform oversight over those contracts, which is 
going to be key, with our legislation, to give you the tools 
you need to make sure the money gets in the right hands. I 
wondered what the status was of the Air Force officers because, 
as I understand it, those contracting officers are a very 
important piece of that oversight.
    General Schwartz. Ma'am, we are providing roughly 70 
percent of the joint contracting capability. So we have a major 
piece of this.
    One of the two flag officers in CENTCOM is an Air Force 
brigadier. So we have a stake in this. Our people understand 
the mission, and we are truly all in at 70 percent of the 
workload.
    Senator Ayotte. Thank you, General. I appreciate that.
    If there is feedback that you have and tools that we could 
provide you to make sure that you have the ability to terminate 
funds to contractors where the money shouldn't go, so it 
doesn't get in the hands of our enemy, I know that I am very 
interested and Senator Brown is, as I am sure others are, in 
working with you to make sure that you have the tools that you 
need.
    Secretary Donley. We would be happy to provide comments on 
that legislation.
    [The information referred to follows:]

    We have reviewed the proposed legislation S.341.IS, titled ``No 
Contracting with the Enemy Act of 2011.'' The proposed legislation 
prohibits the awarding of Federal contracts to enemies of the United 
States and provides that any Federal contract with an enemy of the 
United States shall be null and void and may be immediately terminated 
or rescinded. The Air Force agrees that we should not award contracts 
to enemies of the United States.
    The Federal Acquisition Regulation (FAR) provides uniform policies 
and procedures for acquisitions by executive agencies of the Federal 
Government. FAR Part 49 covers termination of contracts and provides 
the contracting officer policies and procedures relating to termination 
of contracts.
    Another safeguard was incorporated in the Department of Defense FAR 
Supplement in January 2009. DFARS 252.209-7001 states ``In accordance 
with 10 U.S.C. 2327, no contract may be awarded to a firm or a 
subsidiary of a firm if the government of a terrorist country has a 
significant interest in the firm or subsidiary or, in the case of a 
subsidiary, the firm that owns the subsidiary, unless a waiver is 
granted by the Secretary of Defense.'' The Air Force will continue to 
award contracts in accordance with the FAR and its' supplements.

    Senator Ayotte. Thank you. My time is up. I just wanted to 
thank you both for your distinguished service to our country.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation for your service, and all the 
men and women wearing the Air Force blue, supporting all the 
efforts around the world.
    This is to both of you, Secretary Donley and General 
Schwartz. For a number of years now, the need for a U.S. 
Strategic Command (STRATCOM) new headquarters has been 
understood and has become more apparent as time has gone by 
with the deterioration of the building, I think, but also with 
the inadequacy of the building for the current mission of 
STRATCOM.
    The deterioration is well known, but what I would like to 
do today is focus on how a new headquarters will facilitate the 
changing nature of the mission of STRATCOM in today's complex 
world, consisting not only of traditional military operations, 
but also with cyber, and with space.
    Secretary Donley, I know you were just there recently, as 
we got together, please consider this area and explain why you 
think it is necessary. Then, General Schwartz, maybe you could 
give us more of the detail on what the new command operation 
will be and why a new facility is necessary for that?
    Secretary Donley?
    Secretary Donley. Sir, the new STRATCOM headquarters is one 
of our largest and most important military construction 
(MILCON) projects. The committee has seen that material before, 
and we continue to stand behind the need to get on with that 
work. The recent flooding that we had at the STRATCOM 
headquarters has only reinforced that need.
    We have had the discussions, as you suggest, with both 
General Chilton and now General Kehler, about the changing 
nature of the requirements at that headquarters. One of the 
things that had evolved at Offutt Air Force Base (AFB) was that 
the headquarters was designed for a very different period, 
decades ago.
    We are focused on the nuclear mission, of course. But in 
the intervening years the capability to support the space 
mission and now to support the cyber mission assigned to 
STRATCOM has evolved ad hoc in various buildings and locations 
on site, and the new headquarters will give us the opportunity 
to build and integrate some new capabilities that we have not 
had there before.
    I know STRATCOM is looking forward to this opportunity. 
There are additional resources that will be required for the 
fitting out of the facility later. It is not inconsequential. 
It will require lots of information technology (IT), as you 
understand.
    Senator Nelson. General Schwartz?
    General Schwartz. I would just reinforce that STRATCOM has 
become increasingly an IT, cyber-intensive mission, and the 
building simply was not designed for that. It was designed in 
an analog age. We, as an Air Force, certainly are committed 
over several years with substantial MILCON in the hundreds of 
millions of dollars in order to see that through.
    Senator Nelson. Thank you.
    A major argument for the new tanker that has been described 
is the 1960s vintage KC-135 airframes are wearing out. A lot of 
our ISR capability is on that same airframe, including RC-135s, 
which are operated by the 55th Wing at Offutt AFB.
    Are the RC-135 airframes showing the same kinds of issues 
as the KC-135s?
    General Schwartz. Senator, in general, no. They tend to 
operate in a somewhat more benign environment and with weight 
distribution that produces less fatigue on the airframe 
compared to the air refueling mission.
    But they are still older assets, and ultimately, we will 
have to recapitalize those machines. Although that is not in 
the near-term horizon for us, we will have to look at that 
seriously. Perhaps the KC-46 airframe will be a candidate for 
that, as the 707 was. But that is a choice to be made somewhat 
down the road.
    Senator Nelson. While it is not a current issue that has to 
be decided at the moment, it is something that the Air Force is 
considering in the longer term, recognizing that we don't want 
to get to that date without a plan in place. Is that accurate?
    General Schwartz. That is certainly the case, sir.
    Senator Nelson. The next generation tanker contract has 
been awarded, and I congratulate you on that, do you have any 
estimated timeline, a strategic vision for how the ANG units 
that have KC-135s might be rolled into the fielding plan?
    I heard what you said to Senator Ayotte. But I am 
wondering, as it relates to National Guard units, is there a 
plan for fielding that you are considering?
    Secretary Donley. Sir, as we go through this process very 
deliberately, we will work the Guard and Reserve capabilities 
into this and the overseas capabilities required as well. As we 
have done and we will continue to do on the JSF, for example. 
Our initial decisions on the JSF included the Guard, and I 
would expect we would take a similar approach as we field the 
tanker.
    Senator Nelson. Changing direction just a bit here, I think 
everybody is familiar with the Government Accountability Office 
(GAO) report that was just issued earlier this month on March 
1. It details the opportunities to reduce potential duplication 
in Government programs, and of course, GAO continues to look 
for those areas of duplication.
    It reported the findings it made to Congress ever since 
2005, that there is negative duplication of efforts among the 
Services in the efficient use of ISR capabilities. In the 
fiscal year 2012 budget request, the Army has requested $1 
billion to buy 36 MQ-1 RPAs, and they plan to operate 133 of 
these aircraft by 2015. The Air Force has requested $1.4 
billion to purchase 48 MQ-9 RPAs as part of its program, that 
will spend $7.4 billion on 396 MQ-9s over that same period.
    They are very similar aircraft; they are medium altitude, 
long duration, and remotely piloted. Is the Air Force working 
jointly with the Army, trying to avoid unnecessary duplication 
and costs that come from unnecessary duplication, research, 
development, and in the planning stages?
    General Schwartz. Senator, absolutely. I think the key 
point here is that this has been a growth industry. The Army 
and the Air Force apply these assets in somewhat different 
ways. Their Predator equivalents tend to be organic brigade 
combat teams. Ours, on the other hand, are more theater-level 
assets and are applied through the process in terms of tethered 
operations, that are line of sight. We clearly operate our 
birds from positions here in the continental United States.
    It is a different application and a different approach to 
processing the data stream and so on. The bottom line is there 
is plenty of work to do here, as is reflected by the demand on 
these assets, that we went from 32 to 48 and now to 65 Combat 
Air Patrols (CAP). I think DOD clearly has a focus on not 
allowing pockets of capability to develop that are not 
accessible for combatant commander use.
    But, like with the Navy, we have a commitment with the Army 
to try to minimize the expense, standardize the ground 
stations, and so on and so forth.
    Senator Nelson. The standardization where standardization 
can work should be an economic efficiency as well. But, 
obviously, we want to have the diverse capabilities that are 
required by the aircraft, and we need to accomplish that as 
well.
    So I hope as these programs continue and the use of this 
airframe develops even greater that we will continue to work 
together to make sure that we don't have unnecessary 
duplication and have coordination wherever it works.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    We thank both of you for your service to your country. I 
have gotten to know both of you, respect you, and know how hard 
you work to try to do the right thing for our country.
    I would like to ask a few questions about the tanker 
competition, since the loser would have built that aircraft in 
my hometown of Mobile, AL. I don't think that disqualifies us 
in this body to ask questions. In fact, I think other Senators 
expect those of us who have an interest in it to raise those 
questions and make sure that everything is handled in an up-
and-up way.
    I would congratulate you on the fact that the bids came in 
low, that the Air Force got a lower cost. I won't go into 
detail, but I remain convinced that the criteria that were 
changed when this administration took office too much reduced 
the advantage the more capable aircraft would have.
    In other words, you made it a price shootout, but if you 
buy an automobile, just because they have seats, tires, 
windshield wipers, and an accelerator doesn't mean they are the 
same. It is the same with aircraft. I am confident the Alabama 
aircraft would have been more capable. Besides that, now that 
the bid has been awarded, some people are anxious as to how it 
may be supervised in the future, and they want to see integrity 
in it.
    Secretary Donley, isn't it a fact, when you have 
essentially a commercial aircraft and people give a firm fixed-
price bid, that the Air Force expects them to produce on that 
bid? Unlike in a development situation where maybe extra money 
has to be paid because difficulties occur in development, this 
bid put the burden on both bidders to honor their bid, and if 
they have difficulties, it is their own problem, and they have 
to pay for it out of their money. If that principle is 
violated, it actually violates the integrity of the bid 
process.
    Secretary Donley. Yes, we have a much stronger contract 
structure for this program, and that was one of the changes we 
made in the request for proposal (RFP), to move from cost-plus 
to fixed-price incentives across the program.
    Senator Sessions. My question, though, was, isn't it now 
incumbent on the Air Force that you require this winner to 
fulfill the competition, and if they are given change orders or 
other kinds of advantages in the months and years to come, it 
would violate the integrity of the contract that has been 
awarded?
    Secretary Donley. We have had that discussion internally. 
The discussions with Boeing on the development program just 
started this week, but we have already discussed within the Air 
Force the need to not only execute the program as planned on a 
timely schedule and within the costs that have been allotted, 
but that we hold the contractor to the terms of the contract 
and the plan and the RFP as we have outlined it.
    Make sure that we have a very tight control over any 
changes that are made in the Air Force, that we elevate that 
absolutely to the highest level and make that very, very, very 
difficult to change our plan for the way forward on this 
program.
    Senator Sessions. General Schwartz, would you comment on 
that as to how you want to ensure that the winner complies with 
the terms of the bid?
    General Schwartz. This is by watching microscopically what 
occurs to make sure that at every level there is interaction to 
make sure that the offerer delivers what he promised.
    As the Secretary suggested, the level of approval for 
engineering change orders is not going to be at the program 
office level. We haven't decided where it will be yet. It might 
be at our level. But the bottom line is we intend to maintain 
discipline on this like you expect.
    Senator Sessions. Thank you very much. I appreciate that.
    General Schwartz as the representative of the warfighter, 
the airmen who fly these planes, isn't there some tension 
between purely the lowest bid price and the quality and 
capability of the aircraft that the Air Force is looking for?
    Don't we have to be sure in the future that when we bid 
these contracts that we also provide some mechanism that 
enhanced capabilities are given some credit so that you get the 
best buy, not just the lowest price?
    General Schwartz. Senator Sessions, I would argue that this 
was a best value approach.
    Senator Sessions. Well, just talk about that general 
principle.
    General Schwartz. Sure. I think what we want is value, 
absolutely. I think we got that, sir. What we ended up with, we 
looked at the capacity of the machines to carry fuel, to 
offload and so on. We looked at their cost effectiveness over a 
period of years. We obviously looked at price as well.
    But the bottom line was there was a synthesis of that, and 
in the end, there was a substantial difference, as you are 
aware. So, yes, value matters. But I think it is important that 
the Air Force have that opportunity to define how value is 
measured and to make sure that the offerers understand that 
explicitly so that we can avoid protests and so on.
    Senator Sessions. I appreciate that.
    I would just note, Mr. Chairman, that you and Senator 
McCain deserve credit after the ill-fated lease deal. I don't 
know how many billion dollars the Air Force will save as a 
result of this competition, but it is billions, and it was a 
fierce competition. Both people went as low as they could go.
    Does anybody have an estimate of how much the United States 
benefited by having this competition?
    Secretary Donley. No, sir, I don't think we have an exact 
number here. But if you provide a specific question here, we 
would be happy to try to answer it.
    Senator Sessions. General Schwartz, you have any idea?
    General Schwartz. It is in the billions.
    Senator Sessions. Well, I remember the first GAO report 
showed $7 billion. I remember saying that you refer to the $6 
million man, but I could describe Senator McCain as a $7 
billion man. But actually, it has gone beyond that, and I think 
the leadership of the committee in a bipartisan way moved this 
forward. I just do believe that an Alabama EADS aircraft on 
every objective criteria was at least somewhat better, in some 
areas significantly more capable than the other.
    Can you tell us what the bid price was? We have heard 
general numbers, but I would like to know what you can tell us 
about that.
    Secretary Donley. I am not in a position to do that. I can 
tell you the value of the engineering, manufacturing, and 
development contract, which was the contract that was signed, 
was $4.4 billion.
    Senator Sessions. For how many aircraft?
    Secretary Donley. Those are for the first four airplanes.
    Senator Sessions. What do you expect per copy the aircraft 
will be, say, when the first tranche is completed?
    Secretary Donley. I think it still depends on some options 
that are to be exercised. Let me get you a number for the 
record on that. The requirement is the first 18 aircraft by 
2017.
    [The information referred to follows:]

    The Office of the Secretary of Defense and Air Force 
representatives have met with congressional defense committee staff on 
several occasions to provide source selection and proprietary 
information since the contract award, and are willing to brief you on 
the bids at your convenience.

    Senator Sessions. Thank you for sharing these comments with 
us. I still want to know more about it and will be looking at 
it.
    We just feel like when I was a U.S. attorney and had to be 
involved with some city and government bid contracts, and 
favored people would bid low. They would get the contract, and 
they would get change orders and make a lot of money. A lot of 
good and decent contractors quit even bidding, they told me 
they were not going to fool with them. They would be 
mistreated.
    So, you have to maintain the integrity. You can't just let 
the person get a low bid and then run up the price in the years 
to come. Otherwise, you will undermine any ability to get the 
kind of competition that you need.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions. Thank you for 
pointing out the value here of competition, which has clearly 
produced some real gains, and also the importance that this not 
be a buy-in.
    Senator Sessions. Mr. Chairman, let us just say one thing 
that is put on the table. EADS is a European ally of ours. 
Europe is an ally in so many ways. They buy more military 
equipment from us than we buy from them. They were the only 
possible competitor to the Boeing aircraft. So to have 
competition, we had to have that.
    Then for people to come in and say, ``Well, they can't 
bid,'' when they were going to build the aircraft in the United 
States using American workers, to me, didn't reflect an 
understanding of the nature of this competition. So, I would 
just share that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. Thank you for your service.
    I did want to point out that in Colorado, we are very 
fortunate to have so many outstanding Air Force units and 
personnel, including the Air Force Academy.
    General Schwartz, I know you are aware of some controversy 
about plans for a low-altitude navigation training corridor in 
southern Colorado. I just want to, for the record, say that I 
know we are going to be able to work through these issues 
together. To you, Mr. Secretary, as well.
    Let me turn to computer and cyber networks. I am concerned 
about vulnerabilities there. I would want to acknowledge that 
the 24th Air Force was activated last October, and we have just 
graduated the first class of cyber space operators. I think in 
a few years, we will look back and say, ``Boy, that was a 
historic event.''
    Like you, I want to make sure we have the right kind of 
recruiting pipeline that will bring young Americans into the 
military, and I understand some of those students aren't 
traditional Air Force recruits. Could you talk about cyber 
recruiting programs and how you are bringing bright young 
computer scientists into the cyber security world?
    General Schwartz. Sir, there are a couple of aspects to 
this. Certainly, as you indicated, we have 24th Air Force, 
which is our component of the U.S. Cyber Command, and they 
provide the expertise and the wherewithal to monitor our 
networks, to secure them, to maintain them as hard as we need 
to, and to respond to developments within the network, either 
manmade or otherwise.
    We have transformed the training for the folks that do this 
work. It is more technical. It certainly is more digital, and 
it is bringing folks on that certainly understand these things 
better than my generation did. The first class out of Keesler 
is a case in point, and certainly that will continue.
    I think the other aspect that is important here is that we 
need to provide venues how the most capable Americans can help 
us with this work. DOD does not lead in cyber. This is largely 
something where the commercial world is pushing the envelope.
    So, the Secretary has made it possible for our National 
Guard and Reserve to recruit folks who are current in the 
discipline, who do this work on a daily basis, but that are 
willing to serve and share their expertise with the Service. So 
that is the other aspect of this, which is to bring 
professionals who are current in the industry onboard through 
the Reserve and the National Guard to also support our mission.
    Senator Udall. Mr. Secretary, do you have anything to add?
    Secretary Donley. Specifically, we have been building 
Reserve component units in the Silicon Valley area and in the 
Northwest.
    I would like to go back just to foot-stomp the very 
important point you made not only about the standup of 24th Air 
Force last year, but the creation of new career fields for 
these disciplines, which collapsed several functional 
specialties in a way that provides for the long-term continuity 
of this workforce into the future.
    I would say we are also working with outside groups like 
the Air Force Association, which has sponsored cyber patriot 
programs focused on youngsters in high schools. Certainly, it 
is that generation that is, in a sense, also leading the way in 
terms of cultural and technological changes, the abilities to 
multi-task, et cetera. But, we are seeding the pipeline with 
some very important capability for the country going forward.
    Senator Udall. Somebody said recently, ``digital, baby, 
digital,'' and that is what I hear both of you saying.
    Let me turn to space situational awareness. We have 
vulnerabilities. We have significant new capacities, and these 
capacities have taken on real importance for our warfighters 
and our security.
    We are home in Colorado to Air Force Space Command, and I 
want to make sure we defend those assets. I understand that the 
funding for improved space situational awareness, space 
control, and counter-space is approximately 27 percent lower 
than last year. If I could, I would direct three succinct 
questions to you.
    Does that reduction reflect a decrease in focus on space 
situational awareness? How will the activities that you are 
funding in fiscal year 2012 affect the vulnerability of our 
space assets? Perhaps most importantly, I know, to you both and 
many of the rest of us, should we expect service disruptions to 
troops on the ground?
    Secretary Donley. A couple of points, sir. The funding 
change that you notice in the fiscal year 2012 budget is the 
result of one programmatic adjustment, a large programmatic 
change that we made.
    The Space-Based Surveillance System, which was launched 
just last year, had a second bird coming behind it. We decided 
to terminate that. We did not think the cost was worth the 
benefit in that case. But we have a requirement to come back 
and develop alternatives for a way forward with respect to that 
specific program.
    At the policy level, I would like to take this opportunity 
to reinforce the importance of the space domain, both as 
reflected in the National Security Space Strategy, which has 
just come out recently, and in the Air Force's response to that 
work. Space situational awareness and space protection work, 
which has been done by both Air Force Space Command and the 
National Reconnaissance Office, are really new missions for the 
space domain, areas of our work here that we did not have to 
worry about 10, 20, or 30 years ago.
    We have always had communications, weather, ISR assets, and 
missile warning. These kinds of missions have always been part 
of the space domain. But space situational awareness and space 
protection are of growing importance and represent new work for 
us.
    So there is a lot of emphasis. There are resources going to 
this, and it is getting a lot of attention in the Air Force.
    Senator Udall. The Air Force is clearly undergoing some 
significant changes. I want to salute you both for your 
leadership in meeting those head on. Change can be both 
rewarding and challenging, and count on me to be there with you 
as we meet what I see are many, many opportunities to enhance 
our security and protect the warfighter.
    Thanks again for your service. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Gentlemen, let me echo the sentiments of my colleagues in 
thanking you for your leadership of the U.S. Air Force.
    General Schwartz, I think you pretty well responded in 
sufficient detail to Senator Lieberman on the JSTARS issue. But 
I take it from your comment, when you say that irrespective of 
what the AOA study comes out, that you are going to maintain 
the current JSTARS platform going forward. Which I am taking 
your comment to assume that on the reengining issue, which I 
have dialogued with both of you about over the last several 
years, is going to continue to be maintained as it is currently 
funded and will be funded in the future.
    General Schwartz. Sir, as we made the commitment, we 
certainly will fulfill the guidance we have from DOD on the 
four ship sets. As you are well aware, there is an 
appropriations issue in this respect in 2011, and hopefully, 
that is addressed in the coming weeks.
    Senator Chambliss. Right. To both of you, Senator Levin 
mentioned this issue of weapon sustainment in his opening 
remarks, and I want to echo his concerns here. We are flying 
airplanes more than we ever anticipated. We fly them, whether 
it is a tactical aircraft, transport, or whatever, and we are 
fast wearing those airplanes out.
    We have three excellent depots in the Air Force that are 
providing the kind of maintenance we need to have done on those 
airplanes. But frankly, because of the workload demands coming 
from the customer, we have a backlog at every depot right now.
    I notice that you are only funded currently at 84 percent 
of your requirement. At first glance, this doesn't seem to be a 
step in the direction of getting ourselves healthy in this 
arena. Because we have these backlogs, why are we not funded at 
100 percent of the requirement?
    Secretary Donley. Sir, we cannot afford to put the 
resources against what would be 100 percent of the requirement. 
Just in the last budget cycle, for example, just to stay even 
with growing demand, the initial estimate was that it would 
cost us an extra $7 billion across the FYDP to fund a 
continuation of capability at 80 or 82 percent, roughly.
    It is not just the older aircraft that are challenging us 
in this respect. We are also taking ownership of new aircraft 
for which we are relying on lots of contractor support. So 
these will be new deliveries of C-17s, new deliveries of F-22s, 
the MQ-1s and 9s that are coming on board, and the MC-12, for 
example. But all of these are heavily reliant on contractor 
support, and the cost of supporting those incoming aircraft has 
gone north very quickly.
    We are very interested in restoring materiel readiness to 
the fleet. There is no question that we have challenges there, 
and we are concerned about them. But we also need to push the 
logistics and support community to make sure we are getting the 
best value that we can.
    We need to work through the issues of overtime. We need to 
work through the issues of supply chain in the depots so that 
we get more efficient in this work and we drive harder bargains 
with our contractors as well. But there is no question that we 
need to get materiel sustainment north of where it is today.
    Senator Chambliss. You mentioned that supply chain issue. 
Of course, we made a change in that chain and incorporated the 
Defense Logistics Agency (DLA) to provide the parts, which 
sounds like a good idea. But very honestly, we know we have had 
some significant problems there.
    If folks can't have the part in hand when they are ready to 
put that part on the airplane, then our folks wind up sitting 
around, waiting on delivery of the parts. Where are we with 
respect to improving that transition to DLA?
    General Schwartz. Admiral Thompson and I have had that 
conversation eyeball-to-eyeball.
    Senator Chambliss. Good.
    General Schwartz. We are relying on him to allow us to do 
the organic work that needs to be done. Just as you suggest, 
Senator, if the part is not in the bin when it is needed, it 
results in change work, which is more expensive. So I have 
expressed my expectation to him on exactly what is required.
    Senator Chambliss. I hope you will stay in touch with us on 
that. From a policy standpoint, however we need to be engaged, 
we stand ready to do so.
    Secretary Donley, in a recent hearing, Lieutenant General 
Shackelford indicated that the Air Force is leaning toward a 
competition for the Common Vertical Lift Support Platform 
helicopter acquisition program. Can you confirm that there will 
be a competition and that any competition will be fair and 
allow commercial, off-the-shelf, nondevelopmental products to 
be considered? Will overall acquisition and life-cycle cost 
also factor prominently in the Air Force's decision?
    Secretary Donley. Sir, the Chief and I are going to get the 
acquisition strategy on vertical lift later this month. I am 
absolutely sure that competition will be involved in that.
    As you are probably aware, we are working the 
recapitalization of the rescue fleet, the recapitalization of 
the helicopter fleet that supports the missile fields, and also 
handfuls of other vertical lift requirements in the Air Force 
that are now fulfilled by the very old and venerable UH-1 Huey. 
So we are trying to work those requirements in combination to 
get the most capability, the most value out of the mix, and the 
most efficiency that we can in this competition.
    Senator Chambliss. We just talked about the competition in 
the tanker and the results that were achieved there. So I hope 
we will make sure that competition is exactly comparable to 
that.
    General Schwartz, you talked a little bit in response to 
Senator McCain about the no-fly zone issue in Libya. We know 
that they have a very capable surface-to-air missile (SAM) 
capability, probably about as good as anybody in that part of 
the region, maybe with the exception of Egypt.
    If we did have to, if the President makes a decision, 
Secretary Gates says, ``Guys, we are going to enforce a no-fly 
zone over Libya,'' what kind of assets and what platforms would 
you put in there to enforce that no-fly zone?
    General Schwartz. It would entail numerous assets, 
certainly fighter aircraft, F-16, and F-15, and both air-to-
ground and anti-radiation capabilities.
    Senator Chambliss. How are you going to send an F-15 and an 
F-16 in there with the SAM capability they have and expect them 
to fly in a safe and secure manner?
    General Schwartz. Sir, I understand. Let me roll this out. 
Certainly, that is the fighter portion of the fleet. You are 
going to have RC-135s. You are going to have surveillance kinds 
of capabilities that would be used to surveil both the 
integrated air defense system and other areas as tasked.
    You will have tankers to support the short-legged 
platforms. You would have Compass Call and other capabilities 
that can jam communications and affect the effectiveness of the 
integrated air defense and so on. You would have, undoubtedly, 
some bomber aircraft that would give you long dwell over 
specified target areas.
    So this would be a total force application of our air and 
space capabilities.
    Senator Chambliss. General, isn't this exactly what the F-
22 was designed to do and has the capability of doing?
    General Schwartz. No doubt that it would be useful, and I 
would have the expectation that at least in the early days, it 
certainly would be used.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Thanks to both of you for being here today and the great 
work that you are doing for our country.
    In your prepared statement, Secretary Donley and General 
Schwartz, you indicated that the Air Force's high operations 
tempo has significantly impacted the overall readiness for the 
full spectrum of military operations, due to, among other 
things, the limited supply of combat air forces and the high-
demand aviation units. This has caused lower deploy-to-dwell 
ratios for the high-demand skills.
    Can you provide some thoughts on how to rectify the steady 
decline in reported readiness indicators, particularly among 
career fields that are so stressed?
    General Schwartz. Ma'am, we have transitioned people from 
within our Air Force, from lower-stressed career fields to 
higher-stressed career fields. ISR is the best example.
    Four thousand faces and spaces have migrated into that 
high-demand area from other parts of our Air Force. So, we have 
retooled and adjusted ourselves internally to try to size the 
talent pools for the demand signals that we face. That is the 
major strategy.
    The truth is that we cannot afford to grow as an Air Force. 
Our personnel ceiling is at about 332,000 Active Duty. It is 
106,000 Guard. It is about 70,000 Air Force Reserve. Within 
that pool, we have to apply our manpower to the missions that 
we have undertaken, and we are doing that.
    Senator Hagan. Secretary Donley, any comments?
    Secretary Donley. As the Chief suggested, we have reapplied 
manpower in some areas. We are still stressed in explosive 
ordinance disposal. We are stressed in contracting. We are 
stressed in joint tactical air controllers and other 
specialized fields.
    We have increased authorizations, but these are actually 
some of the most skilled airmen that we have, for which the 
pipeline is very long. We continue to work those issues, and we 
have also applied reenlistment bonuses where we can to help 
induce airmen to stay in with that mission.
    Senator Hagan. General Schwartz, you mentioned the ISR. In 
the prepared statements, you indicated that the Air Force 
continued to rapidly increase its ISR capability and the 
capacity to support the military operations.
    Combat air patrols play a critical role in the current 
warfight, as you mentioned, and I understand that for fiscal 
year 2012, the budget request fully supports the ISR capacity 
needs, sustains the maximum production, and achieves 65 RPA 
combat air patrols in the CENTCOM theater by the end of 2013.
    What additional efforts are being done in the interim to 
mitigate this shortfall? How is the Air Force and the Joint 
Chiefs of Staff working with CENTCOM to ensure the timely and 
effective distribution of the resources?
    General Schwartz. Ma'am, the 65 CAPs, for the time being, 
are concentrated on the CENTCOM AOR. But clearly, when the 
missions subside there, they will be used more broadly by the 
other combatant commanders who have legitimate requirements, 
but have been out-prioritized, obviously, by the missions in 
CENTCOM.
    I think a key aspect here is, and it was suggested in an 
earlier question, the Air Force isn't the only provider of ISR 
capability. There are capabilities in the other Services. The 
joint team needs to have access to them as well. In the case of 
Afghanistan, that is seven shadow platoons from the Army, for 
example. So there is an effort across the team to provide all 
the ISR capability that we possibly can.
    As you can imagine, we have needs for Japan surveillance. 
We have requirements for surveillance in the Mediterranean. 
Obviously, the missions in Iraq and Afghanistan. So our 
youngsters are putting out at the moment.
    Senator Hagan. As you mentioned the situation in Japan, how 
can you ensure the safety of the pilots?
    General Schwartz. We have a surveillance process underway, 
and of the 34 aircraft that have operated in and around the 
areas of concern, we have confirmed that they were not 
contaminated. We have equipped our people with the detection 
capability to warn of contamination.
    We are monitoring the installations carefully, certainly 
Misawa, Yokota, and Kadena, but elsewhere in the Pacific, 
because the plume has the potential of moving elsewhere, 
depending on weather and so on. So the bottom line is there are 
protocols. We know what they are, and we are implementing them 
properly.
    Senator Hagan. Thank you.
    The well-being of our airmen and their families is 
fundamental to the mission effectiveness of our Air Force. It 
is important that these programs strengthen the Air Force 
community and enhance resiliency.
    I think some of the questions might have addressed this, 
but can you provide some insights regarding some of the 
innovative and efficient ways that the Air Force is looking to 
provide and sustain programs that will support the airmen and 
their families? We are all, obviously, always concerned about 
the families and the sacrifices that they also are making.
    General Schwartz. The Secretary mentioned a couple of the 
major themes. Clearly, military family housing is one area that 
we have had considerable success with respect to privatized 
housing and so on.
    A second one is education. Perhaps the most important 
family issue is the quality of education for our youngsters. If 
we want to have thriving installations, we need to make sure 
that the schools that serve those installations are places 
where our families want to send their youngsters. We have 
worked hard to establish school liaison capability to make sure 
that our needs are understood by boards of education, by 
superintendents, and so on.
    Another area the Secretary mentioned is the exceptional 
family member. We were not doing as well as we should have. For 
an exceptional family that relocates from Virginia to Texas, it 
is a stressful time because they have certain support structure 
here. The issue is what is available in Wichita Falls, in 
Texas?
    We weren't providing the backstop for that. We are now. We 
are helping our exceptional families with connecting with the 
support services that are at their future destination by 
coordinators at each base.
    Finally, child care. That is the fourth major theme. In the 
next 2 years, we will meet the demand for child care at our 
installations.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Secretary Donley and General Schwartz, thank you for being 
here before us.
    I would just pick up on the comment you made about child 
care. In my former life as Governor in New Hampshire, I worked 
a lot on early childhood education and the importance of 
quality child care. We looked at the military as the model for 
the private sector because you all have been real leaders in 
recognizing how important the early years in a child's life 
are. So thank you very much for that commitment.
    I am sorry to have missed much of the discussion. I had 
another hearing. So I will try not to repeat what has been said 
by my colleagues, except for one issue. I do want to reiterate 
what my colleagues Senator Ayotte and Senator Nelson raised 
with respect to the basing of the KC-46A.
    I know that I echo what you have heard from others about 
how pleased we all are that the decision on procurement has 
finally been made and the importance of the deliberation and 
transparency of that process and the thoroughness. I very much 
appreciate that and look forward to working with you on a 
similar transparent and thorough process as you make the 
decision on where to base these planes.
    You won't be surprised to hear that, as a Senator 
representing New Hampshire, I think Pease National Guard Base 
is one of the places that you should look at very carefully, 
and we look forward to working with you on that. I know that 
they will score very well on any objective criteria. So we look 
forward to that.
    There is a lot of work in R&D and innovation that goes into 
new systems for the military, new planes, and any of the 
initiatives that you have. New Hampshire has a very important 
defense industry that has done a lot of that innovation.
    I wonder if you could speak to how comfortable you are that 
in the current budget situation that we are facing in this 
country, that the R&D that needs to happen in order to provide 
the innovation that the Air Force is going to be relying on is 
going to continue to happen despite this tight budget 
situation?
    Secretary Donley. This is a very important issue for us, 
Senator. The Secretary of Defense has reinforced it by ensuring 
that we spend about 3 percent of our top line on R&D going 
forward. He has put focus on fencing resources to make sure we 
do not, in the vernacular, eat our seed corn going forward.
    Just last year, we completed a broad review in the Air 
Force of our future R&D requirements, titled ``Technology 
Horizons.'' It is something that the Air Force has done on a 
decade-by-decade timeline. We have just been through this 
process to help identify promising technologies that we think 
will bridge various aspects of our work going forward so, 
therefore, they represent good investments.
    Certainly, the IT pieces of what we have been working on 
and the development of the cyber community over the last 5 to 
10 years are critical to much of that work. The materials, 
engines, and propulsion systems that are more efficient and 
capable also are coming along well. Also, directed energy work, 
which has long been of interest in the Air Force, continues to 
progress as well.
    There are a variety of areas here. We recognize the 
importance of making sure that we continue to develop the 
technological edge that sets our Air Force apart.
    Senator Shaheen. Can you talk a little bit more about what 
have been the most helpful tools in leveraging some of those 
new technologies? For example, one of the things we are 
considering right now in the Senate is the Small Business 
Innovation Research Program, of which DOD spends probably the 
biggest piece in encouraging small businesses to develop new 
technologies in areas that you have an interest in.
    So are there initiatives like that you feel are 
particularly important? Or have you developed other mechanisms 
internally that help drive this technological development?
    Secretary Donley. We do watch carefully to make sure small 
businesses, especially with unique and new capabilities, have a 
way of entering our market, if you will, our R&D process. So 
this is something that does get attention.
    Senator Shaheen. Thank you.
    Finally, as we talk about R&D and new technologies, one 
area, obviously, that we are all very concerned about right now 
is energy. When the Secretary of the Navy was here last week, 
he talked about some of the new energy advances they are doing 
to reduce their energy consumption.
    I wonder if you could speak to what you are doing in the 
Air Force and also how you are cooperating with other branches 
of the military so that you are taking advantage of the 
progress that each of you are making?
    Secretary Donley. There is a Deputy Under Secretary at the 
DOD level that helps to coordinate work across the Services in 
this respect. She is doing some excellent work in getting us 
focused, especially on operational energy and support of the 
warfight, and how we can be more efficient down range in moving 
critical energy assets around the theater.
    But more broadly, as one of your colleagues had mentioned 
earlier, we are the largest user of energy in DOD, and aviation 
fuel dominates that. We have been able to internally reduce 
demand for energy for aviation fuel by 2 percent over the last 
couple of years. It has leveled off. But our challenges with 
the prices have continued to outpace our reductions.
    Nonetheless, going forward, fuel efficiencies is a 
significant part of our planned efficiencies over the next 5 
years. Air Mobility Command is leading that work. We think 
there are further adjustments that we can make in flight 
planning and bringing on commercial best practices. So we think 
there is more work that can and should be done.
    A couple of other things. We have been working methodically 
to certify all the engines in the Air Force inventory to 
operate on fuel blends, if you will, from alternative sources 
of energy, including biofuels. But I would note that as far as 
we have come in getting those engines certified, I think the 
challenge in front of us really is, who will be the producers 
and suppliers in bulk quantities of those new innovative fuels?
    Which ones will we choose generally as the best practice or 
the best of many alternatives for aviation fuel going forward? 
Who will produce that, and when will that production capability 
come up to a level where we can start tapping it at an 
economical rate?
    We are very anxious to get about that work, but it is a 
DOD-wide issue, and it is also an issue with the Department of 
Energy and others, including the U.S. aviation industry.
    Senator Shaheen. It is really a national challenge. Thank 
you very much.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Begich.
    Senator Begich. Thank you very much.
    I will actually follow up on that. I know, Mr. Chairman, 
you have been generous with requests that I made. I know, as 
time progresses here, we might come to the conclusion that it 
seems every meeting we have had there are some elements of 
energy that we are talking about.
    It seems like we should probably have a more robust 
discussion about energy needs because you hit it on the head. 
It is supply that is critical. Of course, from Alaska, we would 
argue that gas-to-liquid is a great opportunity in the future 
of clean-burning fuel and for aviation fuel there is a huge 
opportunity.
    As I just read, yesterday or the day before, just in DOD, 
the fuel budget is now $1 billion over because of the high cost 
or, in some cases, the inability to get the volumes you need. 
Therefore, you pay a higher price for it.
    So I look forward to that because we have to be serious 
about a long-term energy plan that has a diversified energy 
resource from a national security perspective as its first 
priority. Second is economic security.
    But I am sure you don't want to see fuel in our lines 
coming from Iran, which we do have, or fuel coming from 
countries that may not have the most stable governments, as we 
are now experiencing $100 per barrel. Or waiting for the Saudis 
to tell us what price they will give us based on the volume 
they will produce, which is dangerous for us security-wise and 
economically.
    I look forward to an opportunity to bring in the person 
that is coordinating the new position, which is a great new 
position, to coordinate and discuss those issues. So I will 
hold that, but I just want to follow up on what was asked 
there.
    The no-fly zone discussion that occurred; this is a budget 
hearing. Obviously, there is public policy there. I understand 
that. But there is cost. There is cost in real dollars that 
have to come from somewhere, right?
    The aviation issue alone, the fuel cost to fund such a 
thing or the allocation of resources from scarce resources or 
limited resources that we are utilizing now have a push-and-
pull effect in Afghanistan, Iraq, and elsewhere. Is that a fair 
statement?
    General Schwartz. Depending on the mission assigned and its 
scope and scale, it could have an effect on either assets 
currently in theater or those that are bound for the theater.
    Senator Begich. But even if it is minimal, there is a cost 
that will be required out of your budget that we don't have 
budgeted today.
    General Schwartz. No question.
    Senator Begich. So somewhere, someone has to write a check?
    General Schwartz. Right.
    Senator Begich. Okay. Sometimes we get a little excited 
about ideas, but we forget that there is a check that has to be 
written by somebody. We are experiencing that now with the 
Afghanistan war, and the Iraq war. They require lots of money, 
lots of lives, and a lot of issues here that in the front end, 
we are now realizing there is a cost.
    As we consider these issues, we have to also consider that 
piece of it. Because if we tell you here is a new policy, you 
are going to have to move some assets around. I just want to 
make sure I am not misstating that, that there is cost, no 
matter what level of an idea might or might not materialize.
    General Schwartz. What we do is not free.
    Senator Begich. Okay. You summarized it very well.
    Let me go to a couple just quick questions. One is about 
total force integration. In Alaska, Elmendorf-Richardson is 
working phenomenally and I consider it the model of joint base 
operations. That is not necessarily the case everywhere, but I 
think we really have a great model. You know it well, being up 
there.
    The Active Duty and the Reserve, they work hand-in-hand. 
But I have to say there are some issues. There is a disconnect. 
I want to give you just a quick analysis or comment and then 
maybe ask some questions.
    There is kind of a disconnect between the policies and the 
resourcing of the initiative. Reserve components have to 
request military personnel appropriations (MPAs) for mandates 
to meet anything above and beyond regular requirements. Under 
the total force integration, these initiatives, on many 
occasions, are above normal requirements. But yet getting the 
MPA allocation is extremely difficult.
    I am going to give you an example. The 477th Fighter Group 
in Alaska was scheduled to deploy in support of theater 
security cooperation agreement. Reservists plan months ahead, 
and get everything geared up. It is not something they can just 
flip tomorrow and do. They get things all lined up. Then, 10 
days before, they were told, ``Sorry, we don't have the MPA.''
    So then, as you can imagine, they start ratcheting down. 
Then, a few days before, they are told, ``Nope, now we have 
it.''
    I think that is unacceptable, especially with reservists 
who have a different scenario in what they have to get prepared 
for to get ready to be on the front lines. Are you aware of 
this? What steps, if you are aware of it, are you taking to 
help resolve this issue, especially with the reservists that I 
think are coming under incredible pressure? This is just one 
example.
    General Schwartz. Sir, this is a manifestation of the fact 
that the supplementals are contracting. In this case, it was a 
theater security cooperation mission, it was not related to 
CENTCOM operations, and so it had a lower priority. Ultimately, 
we found MPA resources to make it go.
    But you are right. There was this uncertainty about whether 
that was going to be the case. I think it is important to 
understand that as the supplementals subside or the OCO 
accounts subside, there is going to be less MPA available, and 
we are going to do less with less. We are going to have to 
recognize that for this decade, people have gotten used to 
being on long-term Active Duty. We are going to have less of 
that.
    We are going to have to be very surgical about where we use 
MPA. For example, the surge that we now have underway in Japan, 
and if we do something for Libya, we will naturally allocate 
what MPA we have to those missions. So, others who might have 
planned to have a training mission or something along those 
lines will be displaced.
    Senator, I think the key thing here is that we understand 
completely, particularly on these associated missions, that MPA 
is how the Reserves function. At the same time, I think we need 
to reset our thinking a little bit about how readily available 
MPA will be.
    Senator Begich. If I can hold you there, and my time is up, 
but I just have one comment after this. What I am hearing is 
you recognize this kind of back and forth or ricochet is 
something that has to be addressed around the Reserves, 
recognizing the new economics or budgeting that we are in, as 
well as other missions that are pressuring against it. You 
recognize that is something we have to deal with?
    General Schwartz. It is a management obligation.
    Senator Begich. Okay. Last thing, I would not want to let 
Senator Shaheen walk away with the tanker concept alone.
    I know in the RFP there was like nine locations identified. 
We would hope that you would do your due diligence, and there 
is no better place that can touch so many places in this world 
than Alaska.
    As many in the Air Force know, it touches everywhere. We 
have members now in Japan serving the needs that are there, 
which we are very grateful of our troops to be doing that, but 
also around the world. We would not want to be excluded from 
any due diligence process that the Air Force and DOD would do.
    Senator Shaheen. We have a longer runway.
    Senator Begich. They have a long runway. We keep our 
airports open no matter when it snows. I will leave it at that. 
[Laughter.]
    Thank you, Mr. Chairman.
    Chairman Levin. It is the advantages of competition we 
talked about before. [Laughter.]
    General Schwartz. It is wonderful to be popular.
    Senator Begich. Thank you.
    Chairman Levin. I just have a few more questions for a 
second round. We have had a recent lawsuit filed in Federal 
court alleging that DOD failed to protect its personnel from 
being raped and sexually assaulted.
    Two of the plaintiffs were from the Air Force, and I am 
wondering if you can give us an assessment of the Air Force's 
Sexual Assault Prevention and Response Program. Is it having 
any impact that you can see? Secretary Donley, let me start 
with you.
    Secretary Donley. Sir, as you are probably aware, we have a 
slight increase in our sexual assaults reported for fiscal year 
2010. This is of concern to us.
    We have known for a long period of time that sexual 
assaults are among the least reported crimes in the United 
States and in the military as well. This is of management 
concern in our Air Force because for the most part, it reflects 
airman-on-airman violence, which is absolutely anathema to our 
core values and completely inconsistent with the respect that 
we expect airmen to reflect in their daily business with 
others. So we recognize this is an issue.
    We did commission last year an independent review by the 
Gallup organization, and you will be getting the results of 
this fairly soon, in which we asked them to survey across our 
Air Force what the prevalence and the incidence of sexual 
assaults probably is, based on a scientific survey. It is, as 
the criminologists and psychologists have told us for years, 
higher than is reported.
    You will see data there indicating that in the last year, 
as much as 3 percent of the female population and 0.5 percent 
of the male population believes that they have been victims of 
sexual assaults of one sort or another. This is a serious issue 
for us.
    We are reinvigorating our oversight, our management of 
this, and it is a very important issue for us going forward. We 
are increasing frontline training on this subject, and we are 
seized with the need to get a better handle on this.
    Chairman Levin. General Schwartz, do you want to add 
anything to that?
    General Schwartz. Sir, I would only say that it is a crime. 
We don't beat up on our spouses. We don't beat up on our kids, 
and we don't assault each other. That is the message that we 
have sent out.
    Chairman Levin. On the acquisition personnel issue that I 
made reference to before, the Air Force has made reforming its 
acquisition process a high priority. One of the elements is the 
hiring of more acquisition professionals, including personnel 
that are technically qualified to oversee programs.
    What is the current status of the efforts to meet the goal, 
which was identified in 2009?
    Secretary Donley. Sir, my recollection off the top of my 
head--we will correct this for the record if I am off base 
here--but I believe we have hired about 8,000 people into the 
acquisition workforce over the last couple of years.
    We have focused in our acquisition improvement plan that 
General Schwartz and I put in place at the end of 2008, early 
2009. The focus of that was strengthening the workforce. So we 
think this is a very important priority, to get the right 
people in, get the right skills in, in both the financial 
management side and the systems engineering side that support a 
strong acquisition management.
    We have been very focused on that.
    Chairman Levin. Would you get us for the record the details 
on that? What was the goal in 2009, and where are you in 
meeting that goal?
    Secretary Donley. We will.
    [The information referred to follows:]

    The Air Force is committed to maintaining our efforts to recapture 
acquisition excellence that we started October 2008, carried forward in 
the Air Force Acquisition Improvement Plan (AIP) dated 4 May 2009, and 
programmed in the fiscal year 2010 PB and fiscal year 2011 PB. One of 
the cornerstones of Acquisition Excellence and the AIP was to 
revitalize our acquisition workforce to ensure that it is appropriately 
sized to perform essential, inherently governmental functions and is 
flexible enough to meet continuously evolving demands. The AIP 
established a goal to increase and fund military and civilian personnel 
authorizations as required, and to increase the manning priority for 
civilian and military acquisition authorizations, supporting our 
Acquisition Human Capital Strategic Plan goal to increase the size of 
the acquisition workforce to levels commensurate with workload.
    Consistent with Department of Defense terminology, our acquisition 
workforce is defined as those personnel who encumber an acquisition 
coded position (in accordance with the Defense Acquisition Workforce 
Improvement Act). Bottom-line, we have increased our acquisition 
workforce by 8,478 personnel as described below:

         Starting Position: Personnel on board 30 Sep 08--Military 
        8,762/Civilian 16,080/Total 24,842
         Ending Position: Personnel on board 31 Mar 11--Military 9,065/
        Civilian 24,255/Total 33,320

    As a result of the fiscal environment shifting in the Federal 
Government and within the Department of Defense, we are assessing the 
impact of a straight-lined civilian workforce at the fiscal year 2010 
levels with exceptions for modest growth in strategically important 
areas--including Air Force planned Defense Acquisition Workforce 
Development Fund (DAWDF) hiring of just under 1,500 positions. The Air 
Force is performing a zero-based review of our entire workforce to 
strategically implement these new civilian constraints. While the 
planned DAWDF hiring is assured, we are looking at the broader impact 
to our acquisition workforce in the context of this review.

    Chairman Levin. Thank you.
    Finally, General Schwartz, let me ask you about the Don't 
Ask, Don't Tell (DADT) issue. Where are you in terms of the 
implementation of the policy? Have you seen any problems in the 
repeal of DADT?
    General Schwartz. Sir, we have begun the internal training 
process. There were three tiers: the first are so-called 
experts, the attorneys, the clergy, medics, and so on; the 
second tier being the leadership; and the third tier being the 
broader airmen population. We have trained about 2,100 
individuals so far, and that process will accelerate.
    We will complete the first two tiers here in a matter of a 
couple of months. We will certainly strive to move through the 
larger body of airmen as quickly as we can.
    We have made it clear that what this is about is treating 
each other with dignity and respect, that some of us in the 
Super Bowl were Pittsburgh fans and some of us were Green Bay 
fans, and that is the way it is amongst airmen, but it doesn't 
affect how we do our jobs. Likewise, we are not about changing 
what people believe, but we are about maintaining Air Force 
standards, and that is what we are communicating.
    Chairman Levin. Do you think you are going to be able to 
successfully implement that policy change?
    General Schwartz. We will advise the chairman and the 
Secretary when that training is complete. They will certify, as 
you are aware, and we will move on, yes, sir.
    Chairman Levin. Are you confident that is going to be able 
to be done without any major problem?
    General Schwartz. We have some one-offs, Senator. We can 
talk about that, if you would like, off-line.
    Chairman Levin. Sure.
    General Schwartz. But generally speaking, we will deliver 
on this.
    Chairman Levin. Thank you both.
    It has been a very good hearing, and we appreciate 
everything you do for the Nation and for the men and women that 
you serve with, and your families, we thank them especially.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Mark Begich

               MILITARY PERSONNEL APPROPRIATION MAN-DAYS

    1. Senator Begich. Secretary Donley and General Schwartz, the 
classic associate between the 477th Fighter Group (FG) and 3rd Wing at 
Joint Base Elmendorf-Richardson is phenomenal. They work hand-in-hand 
to meet contingency and steady state mission requirements. However, 
there is no formal process for allocating man-days to the 477th FG so 
they can fulfill their requirements under the Total Force Integration 
initiative. A process is needed to appropriately manage the money, 
contingency, and steady state requirements, and most importantly the 
people in associate units. For instance, the 477th FG was scheduled to 
deploy in support of a theater security package (TSP) in January. The 
reservists planned for months to prepare by taking leave from their 
jobs, finding babysitters, and making other necessary preparations. Ten 
days before their scheduled deployment date they were told there were 
no resources to support the deployment. A few days before the 
deployment they were told they would, in fact, deploy in support of the 
mission. It is unacceptable to manage people and missions this way. 
TSPs are a known U.S. Pacific Command (PACOM) biannual requirement. 
This is just one example of how the lack of process creates unnecessary 
challenges for Active Duty and Reserve component personnel in 
fulfilling taskings. A functionally integrated unit, the 3rd Wing 
relies on their Reserve component counterpart to meet demands. In fact, 
because of the contribution by the 477th FG, the 3rd Wing plans to 
decrease Active Duty billets by 75 positions. Therefore, it is 
imperative to implement a process for allocation of man-days based on 
requirements. For steady state requirements this should be done well in 
advance of the year of execution. Are you aware of the challenges 
associate units face due to the lack of a formal requirements-based 
process for allocating military personnel appropriation (MPA) man-days?
    Secretary Donley and General Schwartz. We share your concerns about 
ensuring resources are available to access Air Reserve Forces in 
support of our most critical missions, and that requirements-based 
decisions are made in a timely manner. The Air Force transitioned to a 
requirement-based process for budgeting MPA man-days during the fiscal 
year 2012 Program Objective Memorandum (POM) exercise in 2010. During 
the budget exercise, Major Commands identified their MPA man-day 
requirements including any Total Force Enterprise units within their 
commands. Requirements were then evaluated based on Air Force Planning 
and Programming Guidance priorities, and vetted through the Air Force 
Corporate Structure for funding. This process identifies requirements 
and establishes funding levels for MPA man-days 2 years prior to 
execution of the man-days as part of the overall budget request.
    The recent 477th FG shortfall was a result of the fact that 
supplemental funding is shrinking, and the theater security mission 
they were supporting was not related to Central Command (CENTCOM) 
operations and therefore could not be funded with overseas contingency 
operations (OCO) funds. Given the importance of this mission, the Air 
Force reprioritized steady state man-day requirements funded through 
the baseline MPA to support this deployment.

    2. Senator Begich. Secretary Donley and General Schwartz, what are 
you doing to address this issue?
    Secretary Donley and General Schwartz. As supplemental funding 
subsides, there will be fewer MPA funds available. We need to reset our 
thinking about how readily available MPA will be in the future. We are 
working with the Major Commands, Air National Guard, and Reserve 
commanders to communicate to the Force the decreased level of MPA 
funding and its impact on our citizen airmen. We are going to have to 
be very surgical about where and when we use MPA man-days.
    Even with our recently established requirements-based process for 
programming and allocating MPA man-days, we have to maintain the 
flexibility to respond to real-world events. We continuously monitor 
execution and changing demands to ensure MPA resources are applied to 
the most critical missions. For example, with the surge that we now 
have underway in Japan and Libya, we are allocating what MPA man-days 
we have to support these missions. This will likely require a 
reprioritization of MPA resources.

    3. Senator Begich. Secretary Donley and General Schwartz, how are 
you ensuring major commands, like Air Combat Command and in the case of 
Alaska-Pacific Air Force, understand and support associate unit need 
for MPA man-days to meet both steady state and contingency 
requirements?
    Secretary Donley and General Schwartz. The fiscal year 2013 Air 
Force Planning and Programming Guidance issued to the Major Commands 
identifies Total Force Enterprise requirements as the second highest 
priority for the allocation and use of steady state MPA man-days after 
non-OCO Aerospace Expeditionary Force deployments. In our recently 
established requirements-based process, the Air Force evaluates the 
Major Commands' requests for steady-state MPA man-days based primarily 
on Air Force Planning and Programming Guidance priorities.

    4. Senator Begich. Secretary Donley and General Schwartz, if the 
plan is to proceed with a requirements-based process, when will it be 
implemented?
    Secretary Donley and General Schwartz. The Air Force implemented 
the requirements-based process for the MPA man-days during the fiscal 
year 2012 POM build which began in fiscal year 2010. Commands will have 
the final allocation by the end of June 2011. We intend to continue 
this process as we build future budgets.

    5. Senator Begich. Secretary Donley and General Schwartz, what 
specific actions need to be taken to implement the process and what is 
the timeline for completion?
    Secretary Donley and General Schwartz. The Air Force has fully 
implemented our requirements-based process to prioritize and allocate 
the MPA man-day funding during the building of our fiscal year 2012 POM 
in 2010. The resulting MPA disbursements will be distributed to the 
Major Commands by the end of June 2011.
    We are applying the same process for identifying and prioritizing 
MPA man-days during the fiscal year 2013 POM build.

                             SPACE PROGRAMS

    6. Senator Begich. Secretary Donley and General Schwartz, how has 
the new National Space Policy, released in June 2010, and the National 
Security Space Strategy, released in January 2011, influenced Air Force 
space posture or investment plans; specifically utilization of 
commercial space ports like Kodiak Launch Complex (KLC) in Alaska?
    Secretary Donley and General Schwartz. In accordance with the 2010 
National Space Policy, the Air Force supports the purchase and use of 
commercial space capabilities and services to the maximum practical 
extent when such capabilities and services are available in the 
marketplace and meet U.S. Government requirements. The Air Force is 
cooperating with National Aeronautics and Space Administration (NASA) 
and the National Reconnaissance Office (NRO) to jointly develop a 
national launch infrastructure modernization plan in support of the 
National Space Policy. As currently envisioned, this plan will address 
state spaceports and make particular note of the KLC with its 
demonstrated capability to support national security launch and test 
requirements.
    The next Air Force launch from the KLC is the Operationally 
Responsive Space TacSat-4 mission. For all future launches, the Air 
Force will determine which spaceport to utilize based on required 
orbital profile, mission, and cost effectiveness. The KLC is part of 
the National Space Access capability and one of the spaceports 
considered for launch. While the Air Force recognizes the value of the 
KLC, we do not currently have launches planned from the KLC after 
TacSat-4 because upcoming missions do not require highly-inclined 
orbits.

    7. Senator Begich. Secretary Donley and General Schwartz, the 
Department of Defense (DOD) and the National Oceanic and Atmospheric 
Administration (NOAA) parted ways in last year's decision to 
restructure the joint National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) program. The Air Force is now responsible for 
acquiring its satellites for a morning orbit, and NOAA is responsible 
for acquiring their own separate system for an afternoon orbit. These 
satellites are extremely important in Alaska. NOAA is facing an anomaly 
this year that most likely will hurt their ability to move forward with 
a new satellite. Do you have any concerns with their ability to meet 
weather and environmental requirements?
    Secretary Donley and General Schwartz. The Air Force has no reason 
to assert that the NOAA/NASA cannot meet their weather and 
environmental requirements. The Air Force supports the President's 
budget request for the NOAA/NASA program.

    8. Senator Begich. Secretary Donley and General Schwartz, do you 
have any concerns with the military's ability to meet those 
requirements?
    Secretary Donley and General Schwartz. The DOD component of the 
NPOESS restructure is called the Defense Weather Satellite System 
(DWSS). The program has made significant progress to date and all 
trends indicate that it will meet future milestones. The Air Force does 
not have any concerns with the military's ability to meet weather and 
environmental requirements for the Executive Office of the President 
(EOP)-directed early morning orbit.

    9. Senator Begich. Secretary Donley and General Schwartz, has the 
relationship between DOD and NOAA/NASA improved since this 
restructuring?
    Secretary Donley and General Schwartz. The Air Force is building an 
excellent relationship with the NOAA and NASA between our staff and 
product teams. DOD, NOAA, and NASA continue to cooperate on finalizing 
the transition of non-DOD content from the NPOESS contract to NASA 
contracts and defining the technical baseline for the satellite ground 
system.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin

                       FUEL COST AND CONSUMPTION

    10. Senator Manchin. Secretary Donley, you have testified that the 
Air Force is committed to reduce its fuel consumption and the cost of 
the fuel it buys. Please tell me about the Air Force experience with 
coal-to-liquid (CTL) fuel and about how those experiences may 
ultimately affect the availability of this fuel in the U.S. market.
    Secretary Donley. The Air Force is currently certifying its 
aircraft and associated vehicles, equipment and infrastructure for 
unrestricted operational use of two 50/50 alternative fuel blends: JP-8 
and synthetic fuel produced via the Fischer-Tropsch (FT) process; and 
JP-8 and biofuel produced via ``hydroprocessed renewable jet'' (HRJ) 
process. FT fuel can be produced from coal, natural gas or biomass.
    Since certifying the B-52 to use the synthetic fuel blend in August 
2007, the Air Force has certified over 99 percent of its fleet for 
unrestricted operational use of a 50/50 synthetic fuel blend. 
Certification activities are expected to be completed for the synthetic 
fuel blend by the end of 2011 completion. To date, no performance or 
safety-of-flight anomalies have been determined.
    The Air Force fuel demand, by itself, is most likely too small to 
create a market; however, as the Air Force will be a consumer, and not 
a producer, of synthetic fuel blends, the Air Force will ultimately be 
dependent on commercial suppliers for fuel production and availability. 
The Air Force will be prepared to use CTL fuel blends if industry can 
produce sufficient quantities of CTL fuel at a cost competitive price, 
while being compliant with all applicable Federal laws and mandates.

    11. Senator Manchin. Secretary Donley, if the United States could 
produce CTL fuel, would you buy it?
    Secretary Donley. For DOD, the Defense Logistics Agency is the 
mandated agency chartered with the purchase of bulk liquid fuels. The 
Air Force does not determine the source of its fuel supply and is only 
concerned that the fuel has the desired performance, environmental and 
safety specifications. By going through the test and certification 
process, the Air Force is positioning itself to integrate cost 
competitive, environmentally friendly, domestically produced 
alternative fuel blends by 2016. The Air Force will not be a producer 
of fuel, but will use what the market competitively offers and provides 
the best stewardship of taxpayer dollars.
    Currently, over 99 percent of the Air Force fleet is certified for 
unrestricted operational use of a 50/50 synthetic fuel blend, where the 
synthetic component is produced via the Fischer-Tropsch (FT) process. 
FT synthetic fuel can be produced from coal, natural gas or biomass.
    The alternative aviation fuel certification process increases the 
types of fuel Air Force aircraft can use. Once the commercial market is 
ready, the Air Force will be positioned to use those fuels, as long as 
they meet the technical, environmental and economic requirements. 
Having the ability to use nontraditional aviation fuels provides the 
Air Force with an improved energy security posture and increased 
protection from the fiscal uncertainties that result from market 
fluctuations.

                               C-5 FLEET

    12. Senator Manchin. General Schwartz, what is the current status 
of our modernization program for C-5s?
    General Schwartz. C-5 modernization consists of two programs, the 
Avionics Modernization Program (AMP) and the Reliability Enhancement 
and Re-engining Program (RERP). We will install the AMP modification on 
all C-5s retained in the Air Force inventory. To date, 75 of 80 C-5s 
have received the AMP modification. The last C-5 AMP modification is 
planned for completion in March 2012. Additionally, AMP is a 
prerequisite for RERP. A total of 52 C-5s will receive the RERP 
modification. Once modified, they will be redesignated as the ``C 5M.'' 
As of April 19, 2011, five C-5Ms have been delivered to the Air Force. 
The last of the remaining 47 modified aircraft will be delivered by the 
third quarter of fiscal year 2016.

    13. Senator Manchin. General Schwartz, how does the Air Force 
envision the C-5 mission in future years?
    General Schwartz. We do not anticipate a significant change in the 
operational execution of the C-5 mission. The C-5 provides a unique 
capability to move large amounts of outsized and oversized cargo very 
quickly over strategic distances. The only significant change we see 
for the C-5 is in the actual fleet size. Mobility Capabilities 
Requirement Study 2016 (MCRS-16) established the strategic airlift 
requirement at 32.7 Million Ton Miles per Day (MTM/D) to meet National 
Military Strategy goals. The current strategic fleet of C-17s and C-5s 
provides our Nation with excess airlift capability. As a result of this 
excess capacity and our desire to effectively manage taxpayer 
resources, the Air Force would like to retire up to 32 C-5A aircraft by 
fiscal year 2014. However, we are prohibited by National Defense 
Authorization Act (NDAA) language to decrease our strategic airlift 
fleet below 316 without relief from Congress. We urge the Congress' 
favorable consideration of our fiscal year 2012 legislative request. 
Without this relief, the Air Force will be forced to maintain a 
strategic airlift fleet in excess of our stated requirement resulting 
in the diversion of scarce resources. The Air Force would like the 
authority to manage the strategic fleet to meet our National Military 
Strategy in the most cost effective manner.

    14. Senator Manchin. General Schwartz, will the C-5 fleet be used 
for supply or reset missions in Afghanistan, or will we need to 
contract with the Russians for additional capability?
    General Schwartz. The Air Force will continue to use the C-5 fleet 
for both supply and reset missions in Afghanistan. However, civil 
carriers provide additional flexibility to the strategic airlift fleet. 
The Air Force continually monitors operations to ensure both efficiency 
and effectiveness. At times, utilizing commercial carriers can be more 
advantageous and /or economical when used to augment the strategic 
airlift fleet.
                                 ______
                                 
               Questions Submitted by Senator John McCain

      FUNDING FOR THE MODERNIZATION OF THE NUCLEAR WEAPONS COMPLEX

    15. Senator McCain. Secretary Donley and General Schwartz, I 
appreciate the comments in your prepared remarks emphasizing the 
continued strengthening of the nuclear enterprise as the #1 Air Force 
priority. However, I am significantly concerned by the fact that both 
the House and Senate Appropriations Committees did not meet the 
President's full fiscal year 2011 request for the National Nuclear 
Security Administration (NNSA) in either version of the full year 
continuing resolution (CR). Despite the commitment made during debate 
of the New Strategic Arms Reduction Treaty (START) for the long-term 
modernization of the nuclear weapons complex, this failure to recognize 
the National security importance of NNSA funding is very troubling. Do 
you share similar concerns?
    Secretary Donley and General Schwartz. Our efforts to strengthen 
the Air Force nuclear enterprise are important for national security 
and require a partnership with the National Nuclear Security 
Administration (NNSA). Funding delays or shortfalls for either 
organization could lead to program delays and added costs. In fiscal 
year 2011, we are relying on NNSA to complete the ongoing life 
extension study for the B61 and to initiate a life extension concept 
study for the W78 intercontinental ballistic missile warhead. These 
efforts will be at risk if NNSA's funding in fiscal year 2011 is less 
than requested.

    16. Senator McCain. Secretary Donley and General Schwartz, do you 
agree that sustained support for the modernization of the nuclear 
weapons complex is a national security priority?
    Secretary Donley and General Schwartz. Yes. DOD recognizes 
maintaining an adequate stockpile of safe, secure, reliable nuclear 
warheads requires a strong partnership with the Department of Energy. 
The DOD has demonstrated its commitment to the nuclear weapons complex 
by transferring $5.7 billion to the National Nuclear Security 
Administration in the fiscal year 2011 budget process and a further 
$2.5 billion in the fiscal year 2012 budget process. This transfer 
supports critical nuclear weapons programs and infrastructure 
modernization in fiscal year 2011 through fiscal year 2016.

                  AERIAL REFUELING TANKER COMPETITION

    17. Senator McCain. Secretary Donley, what lessons-learned from 
previous efforts to award a tanker contract did the Air Force leverage 
to structure and conduct a competition here to withstand a high-profile 
bid protest?
    Secretary Donley. The Air Force process for this tanker competition 
was driven by clearly stated requirements defined by the warfighter, 
more objective evaluation criteria and a fixed-price contract structure 
that would deliver the Air Force a capable aircraft at the most 
competitive price for our taxpayer's dollars. The Air Force is now in 
the process of officially documenting the lessons learned from the 
previous efforts and how those lessons were successfully applied to 
this competition. We anticipate this to be complete in Fall 2011 and 
would be happy to share these results with the committee at that time.

    18. Senator McCain. Secretary Donley, what lessons-learned does the 
Air Force intend to apply to similar future procurements?
    Secretary Donley. The Air Force is drafting a final lessons learned 
paper from the KC-X procurement. Once completed and released, the Air 
Force will share these insights with the defense committees and will 
implement those lessons-learned on all applicable future procurements.

    19. Senator McCain. Secretary Donley, do you have a sense of how 
much the taxpayer might save by buying these tankers under full-and-
open competition and a fixed-price development contract (as is the case 
now with the program) compared to a sole-source lease, using a cost-
reimbursable development contract (as was originally proposed in 2002)?
    Secretary Donley. There are many factors that make comparing costs 
from the varied structures of the proposed tanker lease in 2002, the 
KC-45 competition in 2008 and the current KC-46 competition in 2010-
2011 very difficult. However, it is safe to say that the Department has 
reaped a substantial savings for the taxpayer by buying these tankers 
under the current full-and-open competition and fixed-price development 
contract.
    The Office of the Secretary of Defense (OSD) and Air Force 
representatives have met with congressional defense committee staff on 
several occasions to provide source selection and proprietary 
information since the contract award, and are willing to brief you on 
the bids and resulting cost savings from past competitions, at your 
convenience.

    20. Senator McCain. Secretary Donley, now that we have a winner, 
with a reportedly aggressive bid price, how will the Air Force ensure 
that the tankers come in at that price?
    Secretary Donley. While the tanker source selection resulted in an 
aggressive competition, the Department's Independent Cost Estimate 
(ICE) and Air Force's Service Cost Position were both in line with 
Boeing's proposed prices.
    The 372 mandatory requirements were clearly defined and approved by 
the Air Mobility Command Commander. These warfighter requirements were 
closely coordinated upfront with the acquisition program office--this 
was done to eliminate the need for post-award Engineering Change 
Proposals (ECPs). The development contract and options for production 
are fixed-price, which encourages requirements stability and is 
reflective of our belief that the requirements for the KC-46A are well 
defined and stable.
    KC-46 program execution will be carefully watched by the Air Force 
and the DOD leadership to make certain The Boeing Company delivers what 
it promised during the source selection. The Air Force program office 
has established a new Program Control unit to specifically manage a 
stable program baseline and a Joint Configuration Change Board with 
Boeing to rigorously review and control baseline changes. As an added 
measure to ensure the tankers come in at the negotiated price, the 
Secretary of the Air Force directed a policy that requires the Service 
Acquisition Executive to approve level 1 changes impacting the KC-46 
program cost, schedule or performance baseline.

    21. Senator McCain. Secretary Donley, you're on a tight timeline. 
How concerned are you about the overlap between production and 
development, that is, the concurrency, that's built into this program?
    Secretary Donley. Last year, DOD announced a well-conceived source 
selection strategy to determine whether or not the proposals 
demonstrated the ability of an offeror to deliver all 372 mandatory 
requirements, with the first 18 aircraft delivered within 78 months 
after contract award. Both offerors' proposals were thoroughly 
evaluated by a team of acquisition, maintenance and operational 
experts. Boeing's schedule, as proposed, was considered awardable with 
a low-to-moderate risk schedule and development approach.
    Furthermore, because Boeing is contractually bound to deliver 18 
operational aircraft within 78 months after contract award, and because 
the Air Force has negotiated fixed prices for all production aircraft, 
Boeing has a significant financial incentive to execute the baseline 
schedule. Should Boeing need to make changes to the aircraft 
configuration to be compliant with the system specification after 
production begins, the KC-46 Engineering and Manufacturing Development 
contract requires Boeing to modify the production aircraft to be 
compliant with the final aircraft configuration, at no additional cost 
to the Air Force.
    The Air Force is now focused on ensuring The Boeing Company 
executes to the KC-46 program cost, schedule, and performance baseline 
negotiated in the fixed-price contract. The Air Force program office 
has established a new Program Control team to specifically manage a 
stable program baseline, and a Joint Configuration Change Board, with 
Boeing, to rigorously review and control baseline changes. As an added 
measure, to ensure the tankers come in at the negotiated price, the 
Secretary of the Air Force directed a policy that requires the Service 
Acquisition Executive to approve all level 1 changes impacting the KC-
46 program cost, schedule, or performance baseline.

    22. Senator McCain. Secretary Donley, the Pentagon's recent 
experience with concurrent development in, for example, the F-35 Joint 
Strike Fighter (JSF) and the Future Combat System (FCS) programs, has 
been awful. Why did the Air Force choose that approach here and why 
should we not be concerned about the risk of delays and possible 
retrofits with the development of Boeing's tanker?
    Secretary Donley. Boeing's schedule, as proposed, was deemed to 
have met the 372 mandatory requirements and was considered awardable 
with a low-to-moderate risk schedule and development approach.
    Because Boeing is contractually bound to deliver 18 operational 
aircraft within 78 months after contract award, and because the Air 
Force has negotiated fixed prices for all production aircraft, Boeing 
has a significant financial incentive to execute the baseline schedule. 
Should Boeing need to make changes to the aircraft configuration to be 
compliant with the system specification after production begins, the 
KC-46 Engineering and Manufacturing Development contract requires 
Boeing to modify the production aircraft to be compliant with the final 
aircraft configuration, at no additional cost to the Air Force.
    The Air Force is now focused on ensuring The Boeing Company 
executes to the KC-46 program cost, schedule and performance baseline 
negotiated in the fixed-price contract. The Air Force program office 
has established a new Program Control team to specifically manage a 
stable program baseline, and a Joint Configuration Change Board, with 
Boeing, to rigorously review and control baseline changes. As an added 
measure, to ensure the tankers come in at the negotiated price, the 
Secretary of the Air Force directed a policy that requires the Service 
Acquisition Executive to approve level 1 changes impacting the KC-46 
program cost, schedule or performance baseline.

    23. Senator McCain. Secretary Donley, given how long it took to get 
us to this point, and the age of the KC-135 and KC-10 fleets, when do 
you expect to start the KC-Y and KC-Z procurements?
    Secretary Donley. As noted in the Aircraft Procurement Plan--fiscal 
years 2012-2041, ``The Air Force has begun recapitalizing the tanker 
fleet with plans to develop and procure 124 KC-46A tankers by 2021. The 
KC-46A fleet will reach 179 aircraft in 2027.'' Given the age of the 
KC-135 aircraft at that time (2027) and the anticipated demand, the Air 
Force would address plans to replace the remaining KC-135 inventory 
with follow-on air refueling platforms. The current plan is to align 
the KC-Y with the final procurement of the KC-46A. Further study will 
need to occur to refine the total number and composition of the tanker 
fleet.

    24. Senator McCain. Secretary Donley, I understand that, as a 
result of the contract award, Boeing will sign a fixed-price contract 
valued at over $3.5 billion to develop and deliver 18 aircraft by 2017. 
To be clear, exactly what does ``over $3.5 billion'' mean for the 
tanker development contract?
    Secretary Donley. The publically released target price of the 
Engineering and Manufacturing Development (EMD) contract is $4.4 
billion. The EMD contract requires design, development, test, 
verification, certification, and delivery of four tanker aircraft. The 
EMD contract also requires pre-operational support; development, 
management and conduct of type 1 training; and provision of operations, 
maintenance, installation, and training data, as required. Eighteen 
operational aircraft will be available to the warfighter 78 months 
after contract award.

    25. Senator McCain. Secretary Donley, I understand that the 
configuration of Boeing's tanker will involve putting a digital 787 
cockpit into an analog 767 aircraft and a modified KC-10 boom to meet 
the gallon-per-minute offload requirement. What else can you tell us 
about the configuration of Boeing's aircraft at this point and what 
does the design entail in terms of risk reduction on the platform or on 
the mission systems?
    Secretary Donley. All configuration differences between the U.S. 
Air Force KC-46 and the baseline Boeing 767-200/KC-767 were evaluated 
as being in the category of low to moderate risk. All are considered 
well within the design capability of the commercial/military large 
aircraft industries. Some of the more significant changes, in addition 
to the ones mentioned in the question, include:

         Increased wing strength and landing gear (both from existing 
        designs)
         Digital flight deck with large displays (both from existing 
        designs)
         Auxiliary fuselage fuel tanks (from existing similar designs)
         Cargo floor and door (from existing designs)
         Aeromedical and passenger features (leveraged from existing 
        military systems)
         Infrared defensive system (leveraged from existing military 
        systems)
         Radio Frequency situational awareness system
         Electro-Magnetic Pulse hardening
         Night Vision Imaging System and covert operations 
        compatibility
         Flight deck armor protection
         Chemical/biological weapons compatibility
         Flash blindness compatibility
         Laser eye protection compatibility
         Alert operation features
         Military voice and data communications
         Tanker unique flight management functionality

    26. Senator McCain. Secretary Donley, has any work begun under the 
contract?
    Secretary Donley. Yes. The KC-46 Engineering and Manufacturing 
Development contract was awarded on February 24, 2011. As of March 17, 
2011, the Air Force has obligated approximately $392 million of fiscal 
year 2010 and fiscal year 2011 funding to incrementally fund Boeing's 
execution of the contract for design, development, test, verification, 
certification, and delivery of the first four tanker aircraft.

              BUYING SATELLITES UNDER MULTIYEAR CONTRACTS

    27. Senator McCain. Secretary Donley and General Schwartz, I am 
gratified by the OSD's decision not to approve the Air Force's proposal 
to execute a multiyear contract in connection with the Advanced 
Extremely High-Frequency (AEHF) satellite program. As you know, to help 
ensure that DOD realizes the substantial savings it expects from using 
a multiyear contract in a given case, multiyear contracting 
opportunities should be Reserved for only the most stable and best 
performing programs. That is a requirement reflected in law. The AEHF 
program, which has chronically overrun in cost and schedule and has, to 
this day, failed to deliver promised capability, is not such a program. 
I understand that OSD will, nonetheless, help you think about a more 
appropriate, conservative block-buy approach that would make more sense 
for this program and for military satellite programs in general that, 
while continuing to only promise the delivery of much needed 
capability, are impinging on those resources that have been 
appropriated for the Air Force to buy satellites. We will help OSD 
think that through. What principles do you feel should guide a 
responsible block buy strategy for highly risky, very expensive, and as 
yet unproven military satellite programs?
    Secretary Donley and General Schwartz. The principles that should 
govern a decision for satellite block buys are stable requirements, a 
stable design, completed development, and readiness for steady state 
production. This is what is currently envisioned in the fiscal year 
2012 President's budget request for the Advanced Extremely High 
Frequency (AEHF) satellite program.

                  AIR FORCE SPACE ACQUISITION PROPOSAL

    28. Senator McCain. Secretary Donley, I appreciate the stated goals 
of the Air Force's newly announced Evolutionary Acquisition for Space 
Efficiency (EASE) initiative for procuring satellite systems. However, 
I continue to be concerned with the overall track record of cost 
overruns and schedule delays for space systems. One of the selling 
points of EASE, which calls for, among other things, the use of block 
buys for military satellites, is the potential for savings. How does 
the Air Force intend to conclusively determine that expected savings 
have been realized?
    Secretary Donley. The Air Force is confident that the AEHF program 
has established stable requirements and a stable design, has completed 
development, and is ready for steady state production. Given this 
confidence, the Air Force is prepared to negotiate a fixed-price 
incentive fee contract for the AEHF-5 and -6 block buy included in the 
fiscal year 2012 President's budget. The estimated savings for the AEHF 
block buy in fiscal year 2012 is greater than ten percent but is 
contingent on contract negotiations. These savings are measured against 
the traditional approach to acquiring satellites; therefore, the Air 
Force will achieve these savings at AEHF contract award in fiscal year 
2012. At that time, cost of the awarded contract can be contrasted with 
the Cost Assessment and Program Evaluation estimate of the purchase 
under the prior status quo approach, yielding a measure of savings. 
Savings realized through block buys are intended to be reinvested in 
research and development for technology enhancement to advance mission 
area capabilities.

            JOINT STRIKE FIGHTER OPERATING AND SUPPORT COSTS

    29. Senator McCain. General Schwartz, as you know, last year U.S. 
Naval Air Systems Command (NAVAIR) effectively determined that the 
Marine Corps and the Navy's versions of the JSF may end up being too 
expensive to operate. Specifically, it found that, with each flight-
hour possibly costing about $31,000 in 2029, compared with about 
$19,000 per flight hour for current F/A-18 Hornets and AV-8B Harriers, 
the operating cost associated with the Navy's versions of the JSF may 
be considerably higher than the costs to operate the legacy aircraft 
they are intended to replace. Has the Air Force reviewed and 
independently validated NAVAIR's analysis; and, if so, do you agree 
with its finding on the expected operating costs of the JSF?
    General Schwartz. The Air Force has reviewed NAVAIR analysis and 
determined that the operating costs for all three of the JSF variants 
are higher than originally estimated. The OSD Cost Assessment and 
Program Evaluation (CAPE) also conducted an Operations and Sustainment 
cost estimate for JSF and their estimate is consistent with the 
previous Air Force and Navy cost estimates.

    30. Senator McCain. General Schwartz, what does that mean for the 
viability of the Air Force's JSF program and what kind of mix we can 
expect in terms of the Air Force's future strike fighter force?
    General Schwartz. The Air Force, along with our F-35 sister 
Services and international partners, recognizes that life cycle 
sustainment costs for the F-35 program must remain affordable to the 
warfighter. The Air Force is continuously engaged with the Program 
Office and the prime contractor, Lockheed Martin, to investigate 
opportunities to reduce overall operations and sustainment costs, in 
order to capture the most affordable solution with the greatest 
capability. Additionally, the F-35 Program Office has several efforts 
underway to review methods to reduce sustainment costs, including:

        <bullet> A Sustainment Cost Benefit Analysis (CBA) that will 
        compare service organic logistics capability against the 
        Program of Record (POR) contractor-provided supply chain 
        management construct.
        <bullet> A Carrier Strike Group focused sustainment wargame.
        <bullet> A ``deep dive'' of the Autonomic Logistics Information 
        System (ALIS) capabilities and challenges.

    The Air Force will gradually replace our F-16 and A-10 fleet with 
F-35As as we transition to a fifth generation fleet of tactical 
fighters. We will be required to maintain a mix of legacy and fifth 
generation tactical assets as we procure a more capable fighter force 
structure.

    31. Senator McCain. General Schwartz, to what extent is NAVAIR's 
assessment (and the Air Force's validation of that assessment) 
reflected in the Air Force's current budget proposal?
    General Schwartz. The Air Force's fiscal year 2012 budget proposal 
is in line with the NAVAIR assessment and is consistent with the OSD 
guidance to fund the program to the OSD Cost Assessment and Program 
Evaluation estimate.

                F-35 LIGHTENING II JOINT STRIKE FIGHTER

    32. Senator McCain. General Schwartz, over the last few weeks, the 
media has been reporting that the Air Force may extend by more than 2 
years the date by which it intends to deploy a squadron with initial 
operating capability (IOC). With the Air Force having stated as 
recently as last month that the F-35 will reach its IOC by mid-2013, we 
may now be looking at no earlier than 2015. I understand that to 
mitigate most cost effectively any potential gap in tactical fighter 
capability, a fleet viability board is performing structural evaluation 
tests on its F-16s to see if they can fly longer than planned. By when 
will that board conclude its work?
    General Schwartz. First, for clarification, the Fleet Viability 
Board does not perform structural tests, but rather is an independent 
assessment body evaluating fleet technical health, availability, and 
cost of continued ownership. The Board recently concluded its 
assessment on the older pre-Block fleet (Blocks 25/30/32), and while 
the final results are still pending, initial results indicate that the 
aircraft will reach their certified service life of 8,000 equivalent 
flight hours.
    The Board is in the process of performing an assessment of the 
newer post-Block fleet (Blocks 40/42/50/52), which should be final this 
fall. Additionally, the Program Office contracted with Lockheed Martin 
to perform a full scale durability test (FSDT) on a Block 50 aircraft 
with results anticipated in 2016. The fiscal year 2012 President's 
budget adds $15 million to begin Research, Development, Test and 
Evaluation for structural modification and avionics modernization as 
part of the Block 40/50 service life extension. The FSDT, along with 
strong engineering data, will inform future decisions regarding the 
service life of these aircraft.

    33. Senator McCain. General Schwartz, what are the preliminary 
findings of the board?
    General Schwartz. The older F-16 pre-Block fleet (Blocks 25/30/32), 
used primarily for test, training, or operationally within the Guard 
and Reserve, has sufficient structural service life remaining to meet 
the current retirement plans. However, the Board assessment concluded 
that, if needed, the F 16 pre-Block fleet can extend its service life 
and be made more capable, but will require significant, associated 
investment cost and reduced aircraft availability.
    The Board assessment of the newer F-16 post-Block fleet (Blocks 40/
42/50/52) is ongoing. Additionally, we are proceeding with a full scale 
durability test, and its resultant service life extension plan, in an 
effort to operate these aircraft longer than originally scheduled. Due 
to substantial design differences from older pre-Block aircraft, this 
durability test will be specific to the newer post-Block fleet.

                            RQ-4 GLOBAL HAWK

    34. Senator McCain. Secretary Donley and General Schwartz, I 
understand that you are planning to reduce the number of Global Hawk 
unmanned aerial vehicles (UAV) from 22 to 11. By how much will that 
reduction in the number of Global Hawk aircraft the Air Force intends 
to buy increase the cost of each Global Hawk vehicle?
    Secretary Donley and General Schwartz. The December 2010 Selected 
Acquisition Report (SAR) reflected Average Procurement Unit Cost (APUC) 
growth from $90.8 million to $111.6 million (+22.9 percent) and Program 
Acquisition Unit Cost (PAUC) growth from $150.1 million to $171 million 
(+14 percent). The subsequent draft program office cost estimate 
revealed a critical APUC breach from $90.8 million to $113.9 million 
(+25.4 percent) and significant PAUC breach from $150.1 million to 
$173.3 million (+15.5 percent).
    Cost growth was driven by program quantity/schedule changes, 
engineering and requirements changes, support changes, and general cost 
growth.

    35. Senator McCain. Secretary Donley and General Schwartz, will 
that increase in cost trigger any of the cost-growth thresholds under 
the Nunn-McCurdy law? If so, please explain.
    Secretary Donley and General Schwartz. Yes. The Secretary of the 
Air Force notified Congress of a critical unit cost breach of over 25 
percent in APUC and over 15 percent in PAUC on 6 April 2011. The 
December 2010 Selected Acquisition Report (SAR) reflected APUC growth 
from $90.8 million to $111.6 million (+22.9 percent) and PAUC growth 
from $150.1 million to $171 million (+14 percent). The subsequent draft 
program office cost estimate revealed a critical APUC breach from $90.8 
million to $113.9 million (+25.4 percent) and significant PAUC breach 
from $150.1 million to $173.3 million (+15.5 percent).
    Cost growth was driven by program quantity/schedule changes, 
engineering and requirements changes, support changes, and general cost 
growth.

               SECRETARY GATES' AIR FORCE ACADEMY SPEECH

    36. Senator McCain. Secretary Donley and General Schwartz, in his 
speech at the Air Force Academy on March 4th, Secretary Gates expressed 
the fear that once he departs and once U.S. forces drawdown in Iraq and 
Afghanistan, there are those who look forward to getting back to what 
he called ``real Air Force normal.'' Do you agree with Secretary Gates' 
views about the future of conflict and likely implications for the Air 
Force in the competition for limited defense dollars?
    Secretary Donley and General Schwartz. We are committed to 
providing the most capable Air Force in the world, while continuing to 
be good stewards of our National resources. This involves not only the 
analysis of current and future threats, but balancing requirements, 
risks, and limited resources to meet those threats. We must also 
maintain the ability to provide first class support to our personnel 
and the infrastructure required to operate in today's global 
environment. As always, we are committed to working with our sister 
Services and the Secretary of Defense to build budgets that reflect the 
delicate balance between current operations and future requirements 
within assigned obligation authority.

    37. Senator McCain. Secretary Donley and General Schwartz, what do 
you see as the Air Force's primary missions after Operation Enduring 
Freedom (OEF) is completed and the most important contingencies Air 
Force leaders should be preparing for in the future?
    Secretary Donley and General Schwartz. In a post-OEF world, the 
United States faces a complex and uncertain strategic landscape with a 
vast array of diverse and complex security challenges. Threats created 
by aggressive state and non-state actors, as well as continuing 
counter-insurgency challenges and the proliferation of weapons of mass 
destruction, will continue to undermine global security and complicate 
efforts to sustain peace.
    Other powerful trends will add complexity to the security 
landscape. A rising China with potential aims of creating its own 
Pacific region sphere of influence, increasing demand for resources, 
rapid urbanization of littoral regions, the emergence of new strains of 
disease, and cultural and demographic tensions are just some of the 
trends whose complex interplay may spark or exacerbate future 
contingencies that require Air Force, Joint Service, allied and partner 
nation involvement.
    Air Force preparation for the future will seek to sustain 
advantages and provide combatant commanders with capabilities to defeat 
increasingly capable adversaries across the full spectrum of military 
conflict, while at the same time, maximizing combat effectiveness and 
efficiency from every taxpayer dollar entrusted to us. Pursuing a range 
of adaptable and efficient mission capabilities embedded within our 12 
Air Force Core Functions will further the enduring advantages of Global 
Vigilance, Reach and Power, and adequately prepare the Air Force for an 
uncertain future.

    38. Senator McCain. Secretary Donley and General Schwartz, what 
changes, if any, in training, equipment, and force structure should the 
Air Force be making now to prepare for these likely contingencies?
    Secretary Donley and General Schwartz. The Air Force is committed 
to preparing for future contingencies through improvements to training, 
equipment and force structure while remaining ever mindful of our 
Nation's fiscal challenges. Air Force training initiatives must prepare 
airmen for future contingencies across the range of military 
operations, and continue to foster mutually beneficial partnerships 
around the world. Successful partnerships will ensure interoperability, 
integration, and interdependence between coalition forces and provide 
our partner nations the capability and capacity to solve their own 
national security issues. The Air Force will continue to promote cross-
cultural competence as a critically important skill for all airmen, and 
further emphasize language skills and regional knowledge. The Air Force 
will also increase the culture and language content of pre-deployment 
training and promote new language learning programs. The most valuable 
Air Force asset is our people and we will make every effort to further 
prepare our professional, all-volunteer force.
    The Air Force is committed to enhancing our capabilities to support 
the Joint force. We will ensure that we're providing the right 
capabilities with our long-range strike, fighter force, strategic 
airlift and Intelligence, Surveillance and Reconnaissance (ISR) 
platforms and ensure our space-based assets continue to deliver needed 
capabilities in the future. We will modernize where we can, but where 
modernization no longer is cost-effective, we will pursue 
recapitalization. As you know, one of our primary efforts includes 
retiring and recapitalizing legacy fighters and tankers and replacing 
them with F-35s and KC-46s. We will mitigate near-term fighter risk 
through aggressive management of F-35 production, legacy fleet review 
and sustainment, along with selected service life extension and 
modernization programs. We will continue to develop and invest in 
cyberspace capabilities and expertise to meet emerging mission needs, 
as well as expand collaboration with Joint, Inter-agency, academic, and 
international partners. We will continue to enhance ISR capabilities 
and increase Processing, Exploitation and Dissemination capacity to 
support combatant commander needs, as well as revise education and 
training programs to develop cyberspace professionals.
    While the current environment requires the Air Force to accept 
reasonable levels of risk as we balance our capabilities to address 
emergent threats and challenges, we will continue to pursue cost-
effective training, weapon systems and equipment that leverage existing 
capabilities, incorporate innovative solutions, and maximize Joint 
interoperability and integration of legacy and future systems. The Air 
Force will continue to support assessments of the future joint 
operating environment, which will enable the Air Force to provide a 
balanced force with a relevant spectrum of capabilities, seamlessly 
integrated with our Joint and coalition partners, to meet national 
strategic objectives and the requirements of future contingency 
operations.

                AIR FORCE END STRENGTH AND FORCE SHAPING

    39. Senator McCain. General Schwartz, in 2007, the Air Force was 
implementing a goal of reducing the number of Active-Duty airmen to 
316,000, a goal that Secretary Gates rescinded. Despite stability in 
end strength and even a 600-airman increase planned for in the fiscal 
year 2012 budget, the Air Force plans to reduce its numbers in certain 
officer military occupational specialties (MOS), conduct a reduction in 
force, and use other means to involuntarily separate hundreds of 
currently serving Air Force officers. Please explain why the Air Force 
is taking these personnel measures and what the scope and duration of 
the force shaping measures will be and what the ultimate result will be 
for the Air Force, particularly the officer corps.
    General Schwartz. The previous reduction of Active Duty airmen was 
associated with a reduction to authorized Air Force end strength to the 
316,000 level. Since then, Air Force mission requirements have resulted 
in an increase in our authorization end strength to 332,800, as of 
fiscal year 2012. We appreciate your support of this higher end 
strength level and are committed to operating within authorized levels. 
It is for this reason the Secretary and I approved a Force Management 
Plan that will size and shape the force to our authorized end strength 
ceiling by the end of fiscal year 2012.
    While our Air Force is fortunate to have so many dedicated airmen 
wanting to serve, a 16-year record high retention has caused our 
Active-Duty Force to exceed our authorized end strength level. As a 
result, starting in fiscal year 2010, we have implemented several 
measures to reduce officer and enlisted airmen. We have been successful 
in reaching our enlisted end strength, but remain approximately 2,300 
officers over strength, as of the end of fiscal year 2010. 
Consequently, we made the difficult decision earlier this year to 
continue Force Management measures necessary to reach authorized levels 
by the end of fiscal year 2012.
    In order to minimize the impact on our current force, we have 
reduced active duty accessions and extended those voluntary separation 
programs implemented in fiscal year 2010. Even with these actions, our 
over-strength situation has required use of involuntary programs to 
include rollback of enlisted dates of separation to help balance 
enlisted end strength. To balance officer end strength, we had to 
utilize officer retention boards, reduced officer promotion 
opportunities along with force shaping, reduction-in-force and 
selective early retirement boards in 2010 with separations and 
retirements in fiscal year 2011. We must conduct the same in 2011 
through early 2012 to meet our authorized end strength by the end of 
fiscal year 2012.
    At the same time, we are focused on shaping our force to ensure we 
have the critical skills and capabilities required now and over the 
next few years. To this end, we are cross-training officers and 
enlisted airmen from over-manned career fields into those with greater 
needs. We are also prudently using bonuses to target critical skill 
areas where we are undermanned and retention is low.

    40. Senator McCain. General Schwartz, what legislative tools, if 
any, do you need to accomplish the force shaping goals you have in 
mind?
    General Schwartz. Congressional authorities are key to successfully 
sizing and shaping our force. We are using existing authorities to the 
maximum extent; however, renewed and expanded measures would enable us 
to be even more effective in shaping our force. Thank you for the NDAA 
for Fiscal Year 2011 renewed authority to allow prior enlisted 
officers, with 20 or more years of total service, to retire with eight 
versus ten years of commissioned service. We implemented this authority 
in our current Force Management strategy to help manage our end 
strength for fiscal year 2011 and may continue it, if our request for 
another extension is granted beyond September 2013.
    In coordination with our sister Services, we worked closely with 
the OSD to request additional legislative authorities. As you may be 
aware, our authorities to shape our mid-grade officers by offering 
voluntary separation pay and conducting an involuntary reduction in 
force board expire in December 2012. We have successfully implemented 
these authorities over the past year, and have requested they be 
extended. For officers with more than 15, but less than 20 years of 
service, we are requesting a Temporary Early Retirement Authority. 
Additionally, to incentivize officers to retire in skills excess to Air 
Force requirements, we request the authority to offer a voluntary 
retirement incentive pay. While we currently have the authority to 
selectively retire lieutenant colonels and colonels early, the existing 
authority is limited. Renewing the enhanced selective early retirement 
authority will allow the Air Force to manage our lieutenant colonels 
and colonels more precisely. We also request the flexibility to adjust 
the maximum years of active commissioned service for lieutenant 
colonels and colonels. For officers in the regular grade of lieutenant 
colonel, we request the authority to adjust the maximum years of 
service from 28 years to no less than 25 years. For officers in the 
regular grade of colonel, we request the authority to adjust the 
maximum years of service from 30 years to no less than 27 years.
    Lastly, we are requesting an extension to the Career Flexibility to 
Enhance Retention beyond December 2012. This would allow us to continue 
to authorize servicemembers' inactive status while serving on active 
duty in order to meet personal or professional needs and then return to 
active duty at the end of the period of inactivation.
    We requested all these legislative authorities through the OSD. 
Each of these authorities will provide all of the Services with 
additional tools to size and shape the Armed Forces to best meet 
current and future mission requirements.

    EFFICIENCIES EFFORT AND REDUCTION IN NUMBER OF GENERAL OFFICERS

    41. Senator McCain. General Schwartz, the Secretary of Defense 
initiated an efficiency review several months ago that included the 
goal of reducing the grades and number of general and flag officers 
throughout the Services. What was your recommendation to the Secretary 
of Defense regarding Air Force general officers in this regard?
    General Schwartz. In accordance with the initial guidance received 
from the Secretary of Defense in August 2010, the Air Force did a 
thorough scrub of all of our internal general officer positions. The 
Air Force completed this review and initially identified 18 positions 
that could be eliminated from the general officer ranks based on 
changing operational requirements and internal restructuring. There is 
risk associated with each of these eliminations, but on a case by case 
basis, the Air Force can assume that risk and still accomplish our 
mission.
    Subsequent to our input, the Secretary of Defense's Efficiencies 
Task Force identified four additional positions for reduction. These 
positions are the Secretary of the Air Force Legislative Liaison Deputy 
and the Judge Advocates General for Air Combat Command, Air Force 
Materiel Command and Air Mobility Command. The latter reductions take 
the number of Brigadier General positions in Judge Advocate General 
Corps from four to one. We have since provided justification for 
maintaining each of these positions including the need for a pathway to 
grow flag officers with experience in the legislative process, as well 
as, senior military attorneys who are experts in application of lethal 
force, transportation, and aviation and acquisition law specialties, 
respectively.

    42. Senator McCain. General Schwartz, would you prefer to see more 
reductions in joint billets that would be filled by Air Force general 
officers, or, rather, in institutional billets throughout the Air 
Force?
    General Schwartz. In addition to the 22 internal Air Force general 
officer billets, another 17 Joint positions were identified, for a 
total of 39 positions eliminated from our headspace. While we 
understand that many of these joint positions are tied to operations in 
Iraq and Afghanistan, a reduction of this size concerns us greatly. The 
Air Force values Joint participation and it is our desire to be strong 
contributors to the joint fight.

    43. Senator McCain. General Schwartz, what is your opinion about 
the appropriate number of Air Force general officers by grade?
    General Schwartz. See response to question #42.

    air force implementation of don't ask, don't tell policy repeal
    44. Senator McCain. General Schwartz, DOD has finalized its plans 
for training military personnel under the new policy that will allow 
individuals who are gay or lesbian to serve openly. Training of senior 
leaders has already begun. What is your assessment of the validity of 
the plan for the Air Force?
    General Schwartz. The DOD-developed training plan delivers a solid 
foundation of knowledge and guidance to our airmen. Policies were 
examined for required changes and these updated policies were 
incorporated into a training program that informs, while emphasizing 
leadership, professionalism, discipline, and respect. Leadership from 
Air Force commanders and senior leaders is the key to successful 
implementation. Our Air Force leaders are clearly articulating upcoming 
policy changes and preparing the force for repeal--consistent with 
standards of military readiness, effectiveness, unit cohesion, 
recruiting and retention. Within this context, and guided by our core 
values, I am confident the Air Force will successfully implement this 
policy change with the same professionalism we demonstrate in all of 
our daily endeavors.

    45. Senator McCain. General Schwartz, what criteria will you use 
when the Secretary of Defense solicits your view, as Chief of Staff, 
about the readiness of the Air Force for openly gay and lesbian airmen 
to serve?
    General Schwartz. Notably, the plan laid out by the OSD, does not 
require 100 percent of airmen to be educated and trained prior to 
certification. Instead, it ensures the execution of actions leading to 
certification is underpinned with a solid foundation consistent with 
standards of military readiness, effectiveness, unit cohesion, 
recruiting and retention. Within this context, I have tasked my senior 
leaders, commanders, chiefs, first sergeants, and supervisors, in 
addition to my experts, to be fully educated and trained prior to 
certification. Further, to assist us with recording training and 
tracking issues that could affect readiness and esprit-de-corps, I 
receive biweekly progress updates on policy development, training 
execution, and percent of the force trained. I also receive Major 
Command-level subjective feedback on training effectiveness, readiness, 
unit cohesion, recruiting and retention.
    I plan to utilize the Major Command commander assessments, along 
with a minimum of 75 percent of the force trained, as my criteria for 
recommending certification to the Secretary of Defense and the Chairman 
of the Joint Chiefs of Staff.

    46. Senator McCain. General Schwartz, what steps are you taking to 
ensure that Air Force units and personnel who are currently deploying, 
or will be deployed when repeal takes place, and who are or will be 
experiencing the most austere, most demanding combat conditions are 
ready for this change?
    General Schwartz. For all airmen preparing to deploy, commanders 
will ensure they receive the appropriate training. For all airmen 
currently deployed to locations where training may have an adverse 
mission impact, commanders have the discretion to schedule training 
within 60 days of redeployment. Computer-based training is available 
for all those airmen that do not fall within the previous category, or 
they may elect to attend a sister Service training program.

                  SAVINGS AND EFFICIENCIES INITIATIVE

    47. Senator McCain. Secretary Donley, at Secretary Gates' direction 
to the Military Services to find $100 billion in efficiency savings 
between fiscal years 2012 and 2016, the Air Force has found $3.4 
billion in efficiencies in 2012 and a total of $33.4 billion over the 
next 5 years. I understand that Secretary Gates is allowing the Air 
Force to reinvest that efficiency money to, for example, fund a next-
generation bomber, upgrade the radar system for F-15 aircraft, develop 
simulators for the JSF, and improve the B-52s' computer infrastructure. 
Which elements of savings or efficiency that the Air Force has 
identified is the riskiest, in terms of not being achievable?
    Secretary Donley. First, we have mitigated risk in our efficiency 
plans through a variety of strategies including ramping up expected 
efficiencies further out in the Future Years Defense Plan (FYDP) 
allowing additional time for planning and execution of the plans; 
selecting by-name owners of our initiatives to ensure responsibility 
remains at a personal level of accountability; and, by weaving 
efficiency planning and execution process into existing Air Force 
Corporate Structure to ensure efficiency plans are aligned with Air 
Force strategy and get reviewed on a regular basis. However, we are 
unable to eliminate risk completely due to a variety of factors.
    The majority of risk we currently assess in our efficiencies comes 
from external sources and is generally a product of assumptions made in 
the planning process. Commodity prices, for example, represent great 
risk to energy efficiencies in both the aviation and facility areas. 
Rising fuel prices could completely eliminate all dollar savings from 
efficiencies. Our business process efficiencies are based on a 
projected level of demand for service. Real-world contingencies could 
significantly challenge those projections and drive additional manpower 
requirements to meet those needs in spite of the process efficiencies 
we were able to garner. The same contingencies would also use our 
equipment at greater rates than currently projected which would require 
adjustments to acquisition strategies and replacement profiles. We 
monitor risk on a monthly basis, and therefore the type of risk and 
amount associated with that risk varies as we actually execute the 
efficiency plans. Currently, the Air Force assesses risk in the 
following areas that translate to $1.2 billion across the FYDP in 
efficiency plan shortfalls, and an additional amount of approximately 
$1 billion based on actual cost of fuel:

        <bullet> Installation Support/Communication Issues: Current 
        restructure plans for installation support result in efficiency 
        estimates that are less than originally anticipated. The Air 
        Force is developing alternative approaches to mission support 
        that will allow us to make up the difference.
        <bullet> Logistics and Installation Efficiencies and MAF Fuel 
        Efficiencies: We can take actions through smart investments and 
        standard operating policies to reduce energy consumption, but 
        we cannot control the price of energy. Recent increases in oil 
        prices highlight the inherent risk in achieving financial 
        savings based on fuel and energy efficiencies. We expect to 
        reduce energy consumption and reduce gallons/energy consumed. 
        However, as price of fuel varies, it will impact our ability to 
        achieve financial savings.
        <bullet> Weapon System Sustainment: Our aging platforms and 
        equipment create upward pressure on costs--obsolescence is a 
        continuing management challenge
        <bullet> The DWSS: Decisions were made to enhance funding to 
        this program in finalizing the fiscal year 2012 President's 
        budget submission which impacts projected savings associated 
        with this program across the FYDP. We are doing assessments 
        within this program, our space portfolio, and broader 
        acquisition efficiencies as a means to fill this efficiency 
        target gap

    The process for managing efficiencies has considered that fact of 
life issues are inevitable. The ability to fill gaps quickly when they 
arise is essential and is part of the ongoing management process. The 
Air Force will be proposing additional efficiencies to fill any 
shortfalls in executing fiscal year 2012 and in building the fiscal 
year 2013 budget.

    48. Senator McCain. Secretary Donley, the Air Force's chief deputy 
management officer was recently quoted as saying that if the Service 
does not meet those efficiency goals, it could be pressed to remove 
money from areas it had not planned to cut, making the Air Force both 
less efficient and less capable. Do you agree with that assessment?
    Secretary Donley. Yes, I agree. The Air Force gave careful 
consideration to the development of efficiency initiatives and the 
application of savings to support mission and force structure 
requirements. Continuing our longstanding commitment to fiscal 
responsibility and operational efficiency, the Air Force is committed 
to a deliberate process to enhance capabilities by reducing expenses 
allocated to overhead and support functions while shifting resources to 
the modernization and readiness programs. If we find any portion of the 
efficiencies cannot be achieved in execution, we will find and execute 
another form of efficiency to ensure we preserve the critical 
warfighting enhancements included in the fiscal year 2012 President's 
budget request.

    49. Senator McCain. Secretary Donley, exactly how will you ensure 
that the Air Force actually holds those lines, so that money doesn't 
migrate back into those accounts where it intended to spend less?
    Secretary Donley. The Air Force comptroller is assisting with the 
means to track actual expenditures and ensure resources are not 
migrated back into efficiency areas. Efficiency initiatives that cannot 
be readily reported through Air Force financial systems or other 
sources will be reported to the comptroller through senior leadership 
assigned to those respective priority areas. The Air Force Audit Agency 
will be assessing the adequacy of financial controls to assure accurate 
financial data on the results of efficiency initiatives beginning in 
fiscal year 2012.
    The Air Force will use its existing corporate governance structure, 
the Air Force Board and Council, to regularly review status towards 
achieving identified efficiencies by measuring specific progress 
against the implementation plans. The Air Force Deputy Chief Management 
Officer is leading the Air Force Board, attended by flag officers/
senior executives from across Headquarters Air Force and Major 
Commands, in monthly reviews of the execution status of efficiency 
efforts.
    On a quarterly basis, the Air Force Council, co-chaired by the 
Under Secretary of the Air Force and the Vice Chief of Staff, will 
monitor plans and progress to ensure efficiency outcomes are being 
delivered and will also review readiness and performance data to ensure 
Air Force Efficiencies are not inadvertently impacting mission 
performance or the quality of life of airmen.

    50. Senator McCain. Secretary Donley, did the Air Force put 
together a ``Plan of Action and Milestones'' document, which would help 
ensure that the Air Force has identified and will eliminate and capture 
cost-savings for reinvestment? If so, please provide a copy.
    Secretary Donley. The Air Force has established detailed 
implementation plans, which are the responsibility of senior 
leadership, to ensure results against programmed efficiencies. We are 
compiling and will track updates to plans through an Integrated Master 
Schedule. The Air Force can share the IMS which should be initially 
completed in May 2011, as well as individual plans (if desired). Please 
realize that some plans are more developed than others with ongoing 
updates as efficiency initiatives are implemented.

    COMMON VERTICAL LIFT SUPPORT PLATFORM/COMBAT SEARCH AND RESCUE 
                         HELICOPTER REPLACEMENT

    51. Senator McCain. Secretary Donley, in this budget, the Air Force 
begins acquisition of a new support helicopter, the Common Vertical 
Lift Support Platform (CVLSP) to replace its UH-1 Hueys, principally at 
the missile fields. The Air Force has not announced an acquisition 
strategy, yet the budget includes money to acquire the first two 
helicopters. Please elaborate on what the Air Force intends to do here.
    Secretary Donley. The Air Force plans to conduct a full and open 
competition for the CVLSP program and award a contract to initiate 
procurement in fiscal year 2012. We intend to purchase a Non-
Developmental Item/Off-The-Shelf (NDI/OTS) aircraft that will allow us 
to meet the warfighter requirement for an initial operational 
capability in fiscal year 2015.

    52. Senator McCain. Secretary Donley, since there is no money for 
development or testing, but money for procurement, is it safe to say 
you intend to buy a helicopter the military already operates?
    Secretary Donley. The Air Force intends to purchase a NDI/OTS 
aircraft to accelerate fielding to the warfighter. Minimal Research, 
Development, Test and Evaluation (RDT&E) funding is required for 
operational test and evaluation to validate aircraft performance 
against key performance parameters. To clarify, there is RDT&E funding 
for CVLSP in the fiscal year 2012 President's budget FYDP, specifically 
$4.0 million in fiscal year 2011, $5.365 million in fiscal year 2012, 
$7.44 million in fiscal year 2013, and $8.934 million in fiscal year 
2014.

    53. Senator McCain. Secretary Donley, since we just took 10 years 
to buy a tanker, do you believe you can develop a requirement, run a 
competition, select a winner, and buy the first helicopters all in 1 
year?
    Secretary Donley. Yes. The Air Force intends to purchase a NDI/OTS 
aircraft, and we are confident we can conduct a source selection and 
award a contract on schedule.

    54. Senator McCain. Secretary Donley, won't buying off-the-shelf 
(as reflected by the absence of development or testing money sought for 
this program), limit the possible competitors?
    Secretary Donley. Yes. The need to field a platform that meets the 
warfighter's requirements and target Initial Operational Capability of 
fiscal year 2015 will limit the potential common vertical lift support 
platform competitors to those that have already developed a helicopter 
that can meet the user's needs with little or no modifications, i.e. a 
non-developmental, off-the-shelf solution. However, market research and 
industry responses to requests for information indicate there are 
several potential competitors.

    55. Senator McCain. Secretary Donley, how will you know you're 
getting the right aircraft?
    Secretary Donley. We will conduct a full and open competition that 
will evaluate the capabilities of each offeror's platform based on the 
warfighter's requirements.

    56. Senator McCain. Secretary Donley, you said in testimony before 
the House that the Air Force is looking to address the CVLSP 
requirement and the longstanding need to replace our combat search-and-
rescue helicopters with a common aircraft. But the requirements for 
range, speed, and payload would seem to be rather different between 
moving a squad around a domestic missile field and penetrating enemy 
territory. How do you reconcile those missions into a single airframe, 
especially given the timeline this budget establishes for procurement?
    Secretary Donley. The Air Force reviewed many options in the 
process of deciding on the acquisition strategy for the HH-60 
Recapitalization and CVLSP programs, including the potential merits of 
combining the program requirements and/or source selections. After 
reviewing these options, we have decided to keep the acquisition 
programs separate.

               PRESIDENTIAL AIRPLANE REPLACEMENT PROGRAM

    57. Senator McCain. Secretary Donley, we hear rumors or trial 
balloons about a replacement for the VC-25s that will serve as Air 
Force One. Where is that effort?
    Secretary Donley. The two VC-25 (Boeing 747-200) Presidential 
support aircraft will be 30 years old in 2017, the planned service life 
stated in the original operational requirement. We have established a 
Presidential Aircraft Replacement (PAR) program team to conduct 
preliminary acquisition planning and develop life cycle cost estimates, 
alternative acquisition strategies, and risk reduction analyses in 
anticipation of direction to proceed with an acquisition program. In 
addition to the items mentioned above, live fire test and evaluation, 
noise abatement, and facilities planning studies are also underway.

    58. Senator McCain. Secretary Donley, when do you anticipate asking 
for funding for a replacement?
    Secretary Donley. The Presidential Aircraft Recapitalization (PAR) 
Program (VC-25 replacement) is currently funded at $7-7.5 million 
annually to facilitate capability definition, acquisition strategy 
development, risk reduction, and facilities studies. The Air Force 
plans to request a funding increase in fiscal year 2016 and fiscal year 
2017 to facilitate contract award and initial aircraft procurement in 
order to meet a fiscal year 2023 initial operating capability (IOC).

               F-22 RAPTOR TOOLING PRESERVATION STRATEGY

    59. Senator McCain. General Schwartz, with Secretary Gates' having 
decided last year to have the Air Force stop buying more F-22 Raptor 
fighter aircraft, what is the Air Force's strategy for preserving 
unique tooling for that aircraft?
    General Schwartz. All government-owned F-22 tooling is being 
preserved by dismantling and storage in CONEX containers at Sierra Army 
Depot (SIAD). The first of these CONEX containers was shipped to SIAD 
on February 25, 2011. The last shipment will occur in December 2012. As 
part of the effort to dismantle and store F-22 tooling, production 
processes are being documented using video and written documents to 
support sustainment. The program office has an active program to 
review, manage, and dispose of production tooling it determines is 
unnecessary for sustainment.

    60. Senator McCain. General Schwartz, is it intended to accommodate 
possible restart of the program or is it sustainment-only?
    General Schwartz. The current F-22 shutdown strategy is 
sustainment-only. There is no provision for restart.

                    F-22 RAPTOR SUSTAINMENT STRATEGY

    61. Senator McCain. General Schwartz, what is the sustainment 
strategy for the F-22 program going forward and, in particular, to what 
extent will that strategy use competition (or the option of 
competition) to drive down costs?
    General Schwartz. The sustainment strategy going forward is to 
transition to a joint contractor/government support integration team. 
This transition will occur as the program implements the plan based on 
the findings of the 2009 F-22 Sustainment Business Case Analysis. The 
plan was approved by the Secretary of the Air Force in 2010 and is 
currently being implemented. The projected net savings are more than $1 
billion over the life of the F-22. Additionally, the F-22 program 
office has ongoing efforts to assess opportunities to compete elements 
of F-22 sustainment work. Follow-On Agile Sustainment for the Raptor 
(FASTeR) is a 10-year (2008 through 2017) Performance Based Logistics 
(PBL) business arrangement with Lockheed Martin Aeronautics. Annual 
FASTeR contract awards will implement the transition to a joint 
contractor/government support integration team.

                        AVIATION INDUSTRIAL BASE

    62. Senator McCain. Secretary Donley and General Schwartz, with the 
major design of the F-35 and for the new tanker (at least 
theoretically) done, today we have no new fighters under development in 
this country. We have no cargo aircraft under development. Aside from 
the KC-46, we have no tankers under development. I don't know the last 
time that was true. The F-22 and C-17 lines are getting ready to close, 
and the F-15 line is at very minimal rates. Maybe this is the natural 
consequence of the defense industry consolidations of the last decade. 
And maybe it's just cyclical. To what extent does this development 
concern you?
    Secretary Donley and General Schwartz. The Air Force is very 
concerned about the current and projected state of the domestic 
industrial base, particularly with respect to its capabilities to 
support emerging Air Force requirements across all three Air Force 
domains--air, space, and cyber. Our pursuit of the new long-range 
strike bomber program will alleviate some of those concerns. This 
program will help keep engineers and other professionals engaged in the 
design and production of stealth and other sophisticated technologies 
critical to America's military superiority. We recognize the current 
and projected fiscal environment will drive some very difficult budget 
choices. In that regard, it becomes even more critical for the Air 
Force to make data-driven investment decisions whether on research, 
engineering design and development, sustainment, or weapon systems 
upgrades. An example is the new long-range strike bomber program where 
the Air Force is going to make informed, tough capability tradeoffs to 
hold costs down so the Air Force can procure a sufficient and 
sustainable inventory over the long term.
    The Air Force is working with the OSD as it leads a sector-by-
sector, tier-by-tier review of the current network of the Department's 
suppliers. We expect this initial review, and subsequent updates, to 
provide all of DOD with a shared view of how the industrial base 
segments interface to support each of our capabilities. With this 
knowledge of the industrial base, the Air Force will be better informed 
so that our investment decisions can preserve the critical domestic 
industrial base capabilities needed for the range of Air Force 
missions.

    63. Senator McCain. Secretary Donley and General Schwartz, does the 
Air Force have a notion of what minimum capabilities or surge capacity 
it would like maintained in industry?
    Secretary Donley and General Schwartz. In terms of minimum 
capabilities, some sectors of the industrial base quickly come to mind, 
such as aerospace engineering and design capabilities, while the impact 
of other areas on Air Force capabilities may be more subtle. As 
reported in the Quadrennial Defense Review (QDR), DOD recognizes that a 
hands-off approach to the industrial base is no longer viable. However, 
we do not yet have the knowledge base needed to inform a more active 
approach to shaping the industrial base. Following the QDR, the Air 
Force initiated several industrial base studies, specifically to 
evaluate the aircraft and munitions industrial bases. We expect the 
results of those studies to be complete later this year. The Air Force 
is also working with the OSD to develop this knowledge through a sector 
by sector, tier by tier review of the industrial base. To fly, fight, 
and win in air, space, and cyberspace, the Air Force draws on the 
industrial base for a broad array of products and services that enable 
the Air Force to perform its Core Functions. The Air Force looks to 
maintain our technological edge, particularly in stealth and other 
capabilities that ensure military superiority. Looking ahead to future 
investments, such as the Common Vertical Lift Support Program, the KC-
46A, and the new long-range strike bomber, the Air Force expects some 
of these to be provided solely through domestic industrial sources, 
some to be provided with the support of our allies, while the global 
commercial market will provide the balance. The Air Force expects the 
OSD-led review to help inform Air Force choices in this regard.

    64. Senator McCain. Secretary Donley and General Schwartz, do you 
have a plan for how to maintain that capacity?
    Secretary Donley and General Schwartz. The Air Force does not yet 
have the knowledge base needed to inform a more active approach to 
shaping or maintaining the industrial base. Each of the three Air Force 
domains--air, space, and cyber--has a discrete set of requirements 
which can be expressed in terms of industrial capacity. However, there 
are some common needs that cut across all three domains, such as the 
need for assured integrated circuits. As the Air Force works with the 
OSD to develop a knowledge-based approach to our industrial base 
network of suppliers and better understand how that network matches up 
to current and planned capabilities, we will improve our ability to 
make definitive plans for shaping industrial capacity. The Air Force 
intent is to take that developing knowledge of industrial base 
suppliers, view it through the lens of Air Force requirements, and 
develop focused efforts to maintain, in sufficient capacity, those 
domestic industrial capabilities essential for the range of Air Force 
missions and future investments, such as the Common Vertical Lift 
Support Program, the KC-46A, and the new long-range strike bomber.

                      AIR FORCE NEW BOMBER PROGRAM

    65. Senator McCain. Secretary Donley, at an April 6, 2009, news 
conference on recommendations he was making for the proposed 2010 
defense budget, Secretary Gates announced, among other things, that he 
would recommend deferring the start of a new bomber program, since much 
of today's inventory will remain relevant through 2040. As DOD 
modernizes the existing bomber fleet to provide long-range strike 
capability, simultaneous investments in development for a follow-on 
bomber will be required. In your view, does Secretary Gates' decision 
last year on the new bomber require upgrading the current B-52, B-l, 
and B-2 fleets? If so, how is that reflected in your budget request?
    Secretary Donley. Yes, we must continue to upgrade and sustain the 
B-52, B-1, and B-2 fleets as we simultaneously invest in the 
development of the new long-range strike bomber. Modernization of the 
current fleet is critical to keeping those platforms flyable, relevant, 
and fully integrated into Air Force and Joint operations. These upgrade 
programs ensure our legacy bomber fleet remains relevant through 2040 
and, together with the new long-range strike bomber, continues to 
provide an integrated long-range strike capability.
    The budget request in the fiscal year 2012 President's budget 
reflects over $4.14 billion in investment funds for these bomber 
upgrade programs. The Air Force is currently executing multiple 
sustainment and modernization upgrades to the bomber forces, to include 
upgrades or replacement of cockpit displays, tactical and strategic 
communications and data links, navigation and positioning systems, 
radar and advanced targeting pods, weapons integration, and defensive 
systems.

    66. Senator McCain. Secretary Donley, are there sufficient 
resources in the fiscal year 2011 budget to sustain the long-range 
strike aircraft fleet?
    Secretary Donley. Yes, the B-52, B-1, and B-2 fleets are adequately 
funded in the fiscal year 2012 budget.
    The Air Force will invest over $1.1 billion for B-52 bomber 
modernization over the current Fiscal Year Defense Plan and over $3.0 
billion for operation and maintenance.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year                      Fiscal
                                                   --------------------------------------------------    Year
     B-52 Fiscal Year 2012 President's Budget                                                           Defense
                                                      2012      2013      2014      2015      2016    Plan Total
----------------------------------------------------------------------------------------------------------------
RDT&E.............................................     133.3      78.4      74.0      69.6      45.6       400.9
Procurement.......................................     108.4     156.2     198.6     135.4     115.2       713.8
O&M...............................................     562.1     513.7     621.8     655.0     670.4     3,023.0
----------------------------------------------------------------------------------------------------------------

    The Air Force will invest over $719 million for B-1 bomber 
modernization over the current FYDP and over $3.0 billion for operation 
and maintenance.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year                      Fiscal
                                                   --------------------------------------------------    Year
      B-1 Fiscal Year 2012 President's Budget                                                           Defense
                                                      2012      2013      2014      2015      2016    Plan Total
----------------------------------------------------------------------------------------------------------------
RDT&E.............................................      33.0       3.8       0.1       0.1       0.1        37.1
Procurement.......................................     198.0     173.1     120.6      81.1     108.7       681.5
O&M...............................................     495.9     458.5     479.1     676.6     932.2     3,042.3
----------------------------------------------------------------------------------------------------------------

    The Air Force will invest over $2.3 billion for B-2 bomber 
modernization over the current FYDP and almost $2.6 billion for 
operation and maintenance.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year                      Fiscal
                                                   --------------------------------------------------    Year
      B-2 Fiscal Year 2012 President's Budget                                                           Defense
                                                      2012      2013      2014      2015      2016    Plan Total
----------------------------------------------------------------------------------------------------------------
RDT&E.............................................     340.8     432.2     423.0     361.6     271.4     1,829.0
Procurement.......................................     113.7     110.1     101.3      79.5      75.3       479.8
O&M...............................................     448.3     498.1     546.7     538.3     544.8     2,576.1
----------------------------------------------------------------------------------------------------------------

    In addition, the Air Force will invest over $3.7 billion for 
development of the new long-range strike bomber over the current FYDP.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal Year                      Fiscal
                                                   --------------------------------------------------    Year
     LRS-B Fiscal Year 2012 President's Budget                                                          Defense
                                                      2012      2013      2014      2015      2016    Plan Total
----------------------------------------------------------------------------------------------------------------
RDT&E.............................................     197.0     294.0     550.3     999.5   1,699.8     3,740.7
----------------------------------------------------------------------------------------------------------------


    67. Senator McCain. Secretary Donley, where is the Air Force going 
to make these investments?
    Secretary Donley. The Air Force will invest roughly $4.14 billion 
across the FYDP to sustain and modernize the long-range strike aircraft 
fleet.
    The Air Force will invest over $1.11 billion in the B-52 bomber 
over the fiscal year 2012 President's budget (PB) FYDP. B-52 
sustainment and modernization efforts include:

        <bullet> Combat Network Communications Technology (CONECT) 
        program provides integrated communication and mission 
        management system with machine-to-machine, beyond-line-of-sight 
        datalink interfaces for weapons retargeting; also adds new 
        color displays with moving map and digital interphone
        <bullet> B-52 Extremely High Frequency (EHF) integrates the 
        Family of Advanced Beyond-Line-of-Sight Terminals (FAB-T) 
        providing secure, survivable two-way strategic command and 
        control communications and upgrades the B-52 environment 
        control system
        <bullet> Strategic Radar Replacement (SR2) integrates modern 
        non-developmental radar, replacing the legacy APQ-166 radar to 
        address systemic sustainment issues
        <bullet> MIL-STD-1760 Internal Weapons Bay Upgrade provides 
        internal J-series weapons capability (i.e., JDAM, JASSM, and 
        MALD) through modification of Common Strategic Rotary Launchers 
        and upgrade of stores management and offensive avionics 
        software
        <bullet> Replacement of the legacy B-52 Anti-skid system with 
        modernized system improving safety and cockpit display

    The Air Force will invest over $719 million in the B-1 bomber over 
the fiscal year 2012 PB FYDP. B-1 sustainment and modernization efforts 
include:

        <bullet> Vertical Situation Displays Upgrade addresses 
        sustainment issues with the current monochromatic pilot 
        displays replacing them with color displays that provide 
        primary flight information
        <bullet> Central Integrated Test System addresses sustainment 
        issues by replacing the onboard fault diagnostics computer used 
        by aircrew and maintenance personnel
        <bullet> Fully Integrated Data Link integrates line of sight 
        and beyond line of sight Link-16 datalink communication, 
        upgrades rear crew stations with color displays, automates 
        retargeting capability, and provides Ethernet backbone for 
        other aircraft modernizations
        <bullet> Radar Maintainability and Improvement Program 
        addresses sustainment issues by replacing two line replaceable 
        units in the legacy B-1 radar
        <bullet> Inertial Navigation System addresses sustainment 
        issues by replacing the primary attitude control system 
        consisting of three line replacement units
        <bullet> Gyro Stabilization System addresses sustainment issues 
        by replacing the secondary attitude control system consisting 
        of four line replacement units

    The Air Force will invest over $2.31 billion in the B-2 bomber over 
the fiscal year 2012 PB FYDP. B-2 sustainment and modernization efforts 
include:

        <bullet> B-2 Extremely High Frequency Satellite Communication 
        and Computer (EHF SATCOM) Increment 1 replaces the current 
        flight management processors and data buses and adds increased 
        digital storage capacity laying the foundation for all 
        subsequent B-2 avionics upgrades
        <bullet> B-2 EHF Increment 2 installs B-2 ``low-observable'' 
        antennas and integrates the Family of Beyond-line-of-sight 
        Terminal (FAB-T) to provide, secure, survivable strategic 
        communication via AEHF SATCOM
        <bullet> B-2 Defensive Management System Modernization (DMS-M) 
        effort replaces the original DMS hardware to allow the B-2 to 
        address modern, proliferating electronic threats
        <bullet> B-2 Radar Modernization Program (RMP) moves the radar 
        operating frequency to a band where DOD is primary user, by 
        replacing the radar antenna with an active electronically 
        scanned array (AESA)
        <bullet> B-2 integration of the GBU-57 Massive Ordnance 
        Penetrator (MOP)
        <bullet> B-2 Alternate High Frequency Material (AHFM) program 
        robotically applies magnetic radar absorbing material (MAGRAM) 
        during B-2 aircraft planned depot maintenance. AHFM eliminates 
        3,000 feet of tape and caulk and is credited with reducing low 
        observable maintenance man-hours per flight hours by 39 percent
        <bullet> Continuing efforts to improve B-2 maintainability, 
        including depot activation for selected avionics components, 
        low cost aircraft and engine efforts, and low observable 
        signature and supportability efforts

    68. Senator McCain. General Schwartz, what sort of characteristics 
and requirements are the Air Force and the combatant commanders 
considering in a replacement aircraft for long-range strike?
    General Schwartz. The characteristics and requirements for the new 
long-range strike bomber will be refined over the next several years to 
balance capability requirements with costs. At this point, we envision 
the new bomber will be highly survivable, capable of manned or unmanned 
operations, and nuclear capable. It will be a central component in an 
overall family of systems of deep-strike and enabling capabilities. 
Secretary Donley and I have been directed to keep the new bomber 
program characteristics and requirements stable, manageable, and 
tradable to ensure overall program affordability.

    69. Senator McCain. General Schwartz, in the face of the decision 
on the next-generation bomber, what concerns, if any, do you have about 
increasingly relying on the old B-52 platform to satisfy our long-range 
strike capability beyond the 2018 threshold?
    General Schwartz. Our primary concerns are with sustaining the B-52 
and advancing its capabilities to fulfill the long-range strike role. 
Currently we are funding seven programs (communications, controls and 
displays, navigation, weapon delivery, target acquisition, airframe 
repair, etc.) with approximately $1.115 billion over the FYDP to 
achieve these goals. These investments will help ensure the continued 
relevance of the legacy fleet as we bring the new long-range strike 
bomber program along.

             JOINT SURVEILLANCE TARGET ATTACK RADAR SYSTEM

    70. Senator McCain. General Schwartz, the E-8 Joint Surveillance 
Target Attack Radar System (JSTARS) aircraft has flown over 63,000 
combat hours and 6,000 combat missions over Iraq and Afghanistan. Have 
the JSTARS aircraft proven effective in these missions? Please explain.
    General Schwartz. The E-8 Joint Surveillance Target Attack Radar 
System (JSTARS) aircraft has consistently proven itself highly 
effective in direct support of ground combat operations in Iraq and 
Afghanistan. It is the primary theater provider of Ground Moving Target 
Indicator (GMTI) data. JSTARS supports both forensic and real time 
intelligence for joint and coalition activities. During 66,000 combat 
hours over Iraq and Afghanistan, JSTARS has collected more critical 
information on counter border activities, improvised explosive device 
networks, and troop over watch than any other GMTI system in theater. 
Additionally, JSTARS provides direct support, daily, to real time 
operations, on call requests, and troops in contact.

    71. Senator McCain. General Schwartz, I understand new engines will 
enable JSTARS platforms to last at least another 30 years and that 
development flight testing will be completed in 2011. Given that the 
Air Force has already invested over $500 million to refurbish the 
JSTARS fleet, including development and non-recurring engineering for 
the reengining program, wouldn't continuing the reengining program be 
cost-effective to the Air Force?
    General Schwartz. The Air Force will complete the Joint 
Surveillance Target Attack Radar System (JSTARS) re-engining System 
Development and Demonstration (SDD) phase. However, based on the fiscal 
year 2011 Defense Appropriation Act that eliminated funding for re-
engining shipsets (#3 and #4) and rescinded funding for spare engines, 
the Air Force is ceasing actions to re-engine the operational fleet at 
this time. Regarding the cost-effectiveness, the Air Force will be 
unable to recoup the costs associated with the JT8D-219 program within 
the projected 30 years of life extension. The timeline for a payback is 
not economically prudent. This was captured in the May 2010 report to 
Congress, titled ``Replacing Engines On the E-8C JSTARS Aircraft.'' The 
Air Force will leverage the re-engining investments based on the 
results of the May 2010 report to Congress and Air Combat Command's 
GMTI Analysis of Alternatives.

    72. Senator McCain. Secretary Donley, since some prior year funding 
for JSTARS reengining was reprogrammed by the Air Force or allowed to 
expire at the end of fiscal year 2009 and 2011 funds may not be 
approved by the appropriators, what do you intend to do to address the 
shortfall in funds in meeting the JSTARS requirement?
    Secretary Donley. The requirement the Air Force is working to meet 
was laid out in the Sep 09 OSD for Acquisition, Technology, and 
Logistics (OSD/AT&L) Acquisition Decision Memorandum (ADM). This ADM 
directed the Air Force to ``continue the Joint Surveillance Target 
Attack Radar system (JSTARS) re-engining System Design and Development 
phase, including the development, flight testing, and production of the 
initial increment of re-engining shipsets.''
    We believe this requirement can be met with the two shipsets we 
have already procured and the funds programmed into the JSTARS 
Research, Development, Test, and Evaluation and Procurement lines. We 
do not see a shortfall in funds to meet the intent of the OSD/AT&L ADM.

    73. Senator McCain. Secretary Donley, do you anticipate that some 
funds may need to be reprogrammed for JSTARS reengining this year? If 
yes, how much? If no, why not?
    Secretary Donley. The Air Force does not anticipate reprogramming 
funds for Joint Surveillance Target Attack Radar System (JSTARS) re-
engining this year because the program is fully funded to complete the 
activities mandated by the Sep 2009 OSD/AT&L Acquisition Decision 
Memorandum (ADM).

    unmanned intelligence, surveillance, and reconnaissance aircraft
    74. Senator McCain. Secretary Donley, in your prepared statement 
you indicate that the Air Force continues to rapidly increase its ISR 
capability and capacity to support combat operations in Afghanistan and 
Iraq regions. What is DOD's total level of investment in ISR in the 
fiscal year 2011 budget?
    Secretary Donley. I cannot speak to the entire DOD's level of 
investment, however, the Air Force's level of investment in ISR in the 
fiscal year 2011 budget is $14.351 billion. This total is inclusive of 
Air Force baseline funding ($12.912 billion) and Air Force OCO funding 
($1.439 billion). This funding was requested in the Air Force National 
Intelligence Program, Air Force Military Intelligence Program, and Air 
Force ``blue'' total obligation authority (TOA) budget requests. 
Further breakout can be provided at the classified level.

    75. Senator McCain. General Schwartz, according to the fiscal years 
2011-2040 Aircraft Investment Plan, the Air Force plans to increase the 
number of unmanned Predator and Reaper platforms from a capacity of 50 
orbits in fiscal year 2011 to 65 orbits by fiscal year 2013. Does DOD's 
fiscal year 2011 budget request and the associated fiscal years 2011-
2015 FYDP provide the requisite funding to implement the projected 
growth in unmanned aerial systems (UAS) and UAVs?
    General Schwartz. Yes, DOD's fiscal year 2011 budget request for 
fiscal years 2011 through 2015 includes the requisite funding and 
manpower to achieve 65 Combat Air Patrols (CAPs) of Unmanned Aerial 
Systems. The Air Force strategy continues MQ-9 Reaper aircraft 
procurement in addition to increased investments in the MQ-1 Predator 
as a part of a mixed fleet to achieve 65 CAPs by the end of fiscal year 
2013.

    76. Senator McCain. General Schwartz, do you anticipate a greater 
need for additional UASs?
    General Schwartz. The simple answer is yes, we do anticipate a 
greater need for more Unmanned Aerial Systems (UAS). Let me explain;
    The demand for ISR and strike from UAS is insatiable, but the need 
goes beyond the ISR or strike mission set. The Air Force is on-track to 
evolve to an Air Force where remotely piloted aircraft (RPA) are viable 
alternatives to a range of traditionally manned systems, and an Air 
Force that harnesses increasingly automated, modular and sustainable 
systems. This will result in a leaner, more adaptable, tailorable, and 
efficient force that offers unique combat capabilities for the Joint 
Force. These platforms can and will conduct a variety of missions, to 
include ISR, mobility, electronic attack/protection, and strike. 
However, broadening the mission set will pose numerous technical 
challenges.
    To reach this end state, the Air Force would have to develop 
follow-on RPA systems for our existing MQ-1/Predator, MQ-9/Reaper and 
RQ-4/Global Hawk systems. These current systems are performing 
brilliantly in permissive environments, fulfilling the combatant 
commanders demands for coverage. We must develop new capabilities in 
order to expand the mission sets of our current platforms and provide 
the ability to operate in contested or denied airspace. This leap to 
new missions and improved survivability poses the greatest technical 
challenges. However, balancing expanded mission sets for remotely 
piloted platforms, with the continued need for manned platforms with 
similar mission sets within today's fiscal environment, is an even 
greater challenge.
    We are considering how to pursue linear development of follow-on 
systems to replace the Reaper and Global Hawk. These MQ-M (medium) and 
MQ-L (large) programs seek to add increased loiter, refueling, and 
sensor capabilities and, for the MQ-M, improved strike capabilities. In 
order to achieve greater efficiencies and capabilities, and continue to 
operate in contested and denied airspace, we will need more capable 
systems. We are developing and testing the RQ-170--an RPA that will 
provide reconnaissance and surveillance in support of the Joint Forces 
Commander in less permissive environments. We are also working closely 
with our labs, Defense Advanced Research Projects Agency, and industry, 
to develop the technologies for enhanced stand-off capabilities such as 
high altitude, long endurance RPAs and to explore the potential for 
expendable systems linked to stand-off, loitering platforms.
    To employ RPAs across the full spectrum of conflict and in all 
environments, the Air Force requires a greater range of options for 
unmanned aircraft systems. To that end, we anticipate, and are planning 
for RPAs that will replace the existing systems and add new systems 
that will meet operational requirements that we are currently unable to 
fulfill.

    77. Senator McCain. General Schwartz, what strategic role do you 
believe UAVs will have in meeting near-term ISR, strike, cargo, and 
other capabilities supporting the current wars and other potential 
irregular campaigns?
    General Schwartz. The most widely-tasked mission for RPA continues 
to be ISR. We expect this trend to continue across the range of 
military operations (ROMO) in the short term. The Air Force's plan 
calls for growth in Predator and Reaper CAPs from 50 in fiscal year 
2011 to 65 by the end of fiscal year 2013. The Air Force will continue 
to work with DOD in assessing requirements and the need for more 
capacity in future plans.
    Beyond ISR, RPAs have most visibly been employed in strike 
operations in support of ongoing conflicts, and we see this role 
continuing to expand in the near term. RPA strike capabilities have 
been well documented, and these aircraft have been used successfully on 
targets within permissive environments. The Air Force continues to 
investigate the use of RPAs in global precision strike missions across 
the ROMO.
    While the Air Force has no plans to use RPAs in a cargo carrying 
role in the near term, we continue to investigate unmanned applications 
for air mobility. The Air Force's vision includes the development of a 
large-sized vehicle, the MQ-L, capable of assuming some of the airlift 
and air refueling workload after 2020. An additional RPA capability 
with strategic implications is the Airborne Infrared (ABIR) initiative. 
The Air Force is partnering with the Missile Defense Agency (MDA) in 
development and experimentation efforts leading to a demonstration of 
advanced sensors and targeting systems on MQ-9 Reaper RPA to meet 
ballistic missile defense early intercept and raid handling 
requirements.
    Another role where RPAs are currently supporting ongoing operations 
is as an airborne communications node. Two Global Hawk RPAs have been 
modified as a Battlefield Airborne Communications Node (BACN) in 
support of a CENTCOM Joint Urgent Operational Need (JUON). BACN 
provides a high-speed, IP-based airborne network infrastructure that 
extends communications ranges, bridges between radio frequencies, and 
``translates'' among incompatible communications systems--including 
both tactical and civil cellular systems.
    Potential capabilities must also be balanced to achieve desired 
effects. For example, increased persistence is one of the greatest 
advantages of RPA employment. However, any additional pods, payloads, 
or weapons placed aboard an aircraft will result in diminished range 
and endurance. Additionally, our communications infrastructure is 
increasingly stressed. The data transfer requirements inherent in RPA 
operations translate to extreme amounts of communications bandwidth.

                   AIR FORCE STRIKE FIGHTER SHORTFALL

    78. Senator McCain. General Schwartz, is there a projected strike 
fighter shortfall for the Air Force? If there is, then what is that 
number?
    General Schwartz. In 2010, the Air Force provided Congress a 
comprehensive review of the current and projected force structure that 
revealed a shortfall of approximately 3-5 percent of the total strike 
fighter aircraft through the FYDP. This shortfall is based on the 
number of fighter aircraft required to execute the National Defense 
Strategy at moderate risk utilizing guidance provided by the 
Quadrennial Defense Review as well as data from in-depth campaign 
modeling. The Air Force has an ongoing process to assess and 
aggressively manage force structure. Recent review provides insights 
for potential improvements with respect to this shortfall; however this 
analysis is ongoing and is a continually evolving product based upon 
the health of our fleet, strategic guidance, and status of major 
factors, such as the F-35 program.

    79. Senator McCain. General Schwartz, in your opinion, what are the 
options to help mitigate the strike fighter shortfall?
    General Schwartz. In 2010, the Air Force provided Congress a 
comprehensive review of the current and projected force structure that 
revealed a shortfall of approximately 3-5 percent of the total aircraft 
through the FYDP. The F-35 program status remains the key variable in 
the fighter force structure forecast as the Air Force transitions to a 
predominantly fifth generation capability. F-35 delays are manageable 
across the FYDP, but have long term impacts that require mitigation. 
These impacts will be mitigated through aggressive management of F-35 
production, legacy fleet review and sustainment, along with selected 
service life extension and modernization programs.
    In the near-term, to maintain ``moderate'' risk, the Air Force will 
sustain the F-16 Block 25-32 to a planned 8,000 hrs via pre-block 
structural sustainment funded via the fleet management program. In the 
mid-term, we will continue to assess the legacy fighter fleet and 
invest in selected service life extension and modernization programs. 
Finally, in the far-term, we will continue to monitor F-35 progress and 
continue to assess force capacity/capability.

    80. Senator McCain. General Schwartz, in a limited defense budget, 
would buying more quantities of legacy aircraft such as F-15s or F-16s 
help mitigate a strike fighter shortfall in our tactical aviation 
wings?
    General Schwartz. A robust F-16 Service Life Extension Program 
(SLEP) and capability modernization programs will help mitigate the 
fighter force shortfall. F-16 Block 40/50 SLEP and modernization 
provides the same capability as new legacy aircraft procurement at 
substantially less cost. These cost savings generated from SLEP versus 
new procurement help ensure funding is not diverted from F-22 
modernization or F-35 acquisition.

  LIGHT-SQUARED AND POSSIBLE DISRUPTION TO GLOBAL POSITIONING SYSTEM 
                                SIGNALS

    81. Senator McCain. Secretary Donley, Deputy Secretary of Defense 
Lynn recently voiced significant concerns to the Chairman of the 
Federal Communications Commission (FCC) regarding the FCC's provisional 
authorization of LightSquared's new wireless broadband proposal and the 
potential for interference of Global Positioning System (GPS) signals. 
According to Secretary Lynn, there is a ``strong potential for 
interference to these critical national security systems.'' On that 
basis, Secretary Lynn strongly recommended that the FCC defer final 
action until proper interference analysis and mitigation studies can be 
conducted. Do you agree and share the concerns raised by Secretary 
Lynn? If so, why?
    Secretary Donley. Yes, I share the same concerns raised by Deputy 
Secretary Lynn. The FCC's Order and Authorization issued to 
LightSquared, LLC on 26 January 2011 established an aggressive schedule 
to evaluate interference potential to Global Positioning System (GPS) 
users, with a final report deadline of 15 June 2011. This was a ``fast-
track approach'' to evaluating potential impacts to a system as 
critical as GPS, particularly when compared to similar, past requests. 
Given LightSquared's proposal and the potential effect it may have to a 
broad range of national security, civil and commercial GPS users, it is 
important for us to complete a careful review. The Air Force, in 
concert with other agencies, worked vigorously to produce reliable test 
results and to analyze the potential impacts to GPS as quickly and 
effectively as possible. In late March 2011, Air Force engineers 
organized a test team under the National Positioning, Navigation and 
Timing Engineering Forum (NPEF) with representatives from across DOD, 
Federal Departments and Agencies, academia and industry, along with 
support from LightSquared. On 14 June 2011, the DOD and Department of 
Transportation (DOT) submitted the NPEF test report to the National 
Telecommunications and Information Administration. Report results 
demonstrated there are significant detrimental impacts to GPS 
operations, including degradation or loss of GPS function at standoff 
distances of a few kilometers extending to space. Possible mitigations 
were identified and evaluated but were deemed impractical as they would 
require costly significant modification or complete redesign and 
replacement of currently fielded GPS equipment, which could take 10-15 
years or longer.

    82. Senator McCain. Secretary Donley, have you independently 
conveyed your concerns? If so, what did you say, and when did you 
convey them?
    Secretary Donley. The Air Force has conveyed these concerns through 
the National Telecommunications and Information Administration (NTIA), 
which serves as our liaison to the Federal Communications Commission. 
The Air Force Representative to NTIA's Interdepartment Radio Advisory 
Committee (IRAC) signed a joint letter with eight other Federal Agency 
IRAC representatives expressing concerns.
    When the Air Force became aware of potential interference to global 
positioning system (GPS) signals, which are recognized as the world's 
``gold standard'' for space-based positioning, navigation and timing 
(PNT), Air Force engineers at our Space and Missile Systems Center 
organized a test team under the National Positioning, Navigation and 
Timing Engineering Forum (NPEF). In addition to the NPEF members, first 
responders, as well as several commercial companies, participated with 
support from LightSquared. On 14 June 2011, the DOD and DOT submitted 
the NPEF test report to the NTIA. Report results demonstrated there are 
significant detrimental impacts to GPS operations, including 
degradation or loss of GPS function at standoff distances of a few 
kilometers extending to space.

    83. Senator McCain. Secretary Donley, in your view, what are the 
National security implications of Light-Squared's proposal?
    Secretary Donley. Global Positioning System (GPS) technology is 
vital to our National security and is relied upon by our military for a 
wide array of capabilities. GPS is integrated into almost every aspect 
of U.S. military operations. For example, GPS is used to guide troop 
movement, ensure the accuracy of precision-guided munitions, and 
synchronize communications networks. While military applications of GPS 
technology continue to grow, we must also look at national security 
implications in broader terms. Although we are all familiar with the 
position and navigation aspects of GPS capability, much of our National 
infrastructure and commercial applications rely on the GPS' unique 
timing component. For example, Federal, civil and commercial 
enterprises worldwide use GPS to time-stamp business transactions, 
providing consistent, accurate record maintenance. Major investment 
banks use GPS to synchronize their network computers located around the 
world.
    It is for these and many more reasons that we are actively 
reviewing LightSquared's proposal to assess its affects, if any, on GPS 
receivers. The Air Force appreciates LightSquared's transparency and 
assistance in our efforts to evaluate military, civil and commercial 
GPS receivers.

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    84. Senator McCain. Secretary Donley, the fiscal year 2012 budget 
proposes to buy three less launch vehicles over the next 5 years yet 
will cost $3.4 billion more than what was planned in the fiscal year 
2011 budget. That is three less rockets but the cost will increase by 
$3.4 billion. The Chief Executive Officer of the launch vehicle 
provider reportedly said that the #1 cause of cost increases for the 
Evolved Expendable Launch Vehicle (EELV) is the uncertainty associated 
with NASA. And, according to United Launch Alliance (ULA), no major 
supplier of launch vehicles has right-sized their industrial base--
leaving the Air Force to support it--when NASA used to support by more 
than 70 percent. In your view, is the uncertainty of NASA's future 
driving cost increases in the EELV program? If so, what, if anything, 
can be done to mitigate that negative impact?
    Secretary Donley. Yes, the uncertainty of NASA's future launch 
vehicle programs is contributing to cost increases to the Evolved 
Expendable Launch Vehicle (EELV) program. This uncertainty and the fly 
out of the Space Shuttle program have stressed the launch industrial 
base--particularly the liquid and solid rocket propulsion industry. For 
example, the percentage of overhead the DOD covers at Pratt and Whitney 
Rocketdyne has increased from approximately 30 to 75 percent as a 
result of the retirement of the Space Shuttle and uncertainty of future 
NASA business.
    The newly appointed Air Force Program Executive Office for Space 
Launch program is currently developing a new acquisition strategy for 
the EELV program, targeted to begin in fiscal year 2013. Key elements 
of the strategy are an initial Atlas V and Delta IV lot buy of 
sufficient size to ensure economic ordering and a steady launch vehicle 
production rate. An Air Force/NRO study team and the Broad Area Review 
2010 (BAR X) recommended an annual minimum production rate of eight 
launch vehicle cores plus associated upper stage engines, payload 
fairings, and solid rockets to sustain our spacelift industrial base. A 
recently conducted should cost review of the EELV program revealed 84 
cost reduction initiatives that are currently being implemented on the 
program. With lot buys and a steady production rate, and implementation 
of the should cost review initiatives, we believe the supplier base 
will be right sized and costs can be controlled.
    Additionally, the Air Force and NRO intend to team with NASA to 
certify new providers as part of this acquisition strategy. A joint 
effort will ensure a consistent position is communicated to all 
potential new entrants on opportunities, certification, and 
requirements. We envision the EELV strategy will allow new entrants to 
compete for near-term missions above our block-buy commitment.

            INTERCONTINENTAL BALLISTIC MISSILE MODERNIZATION

    85. Senator McCain. Secretary Donley, a key review board reportedly 
concluded that an equipment failure was responsible for an hour-long 
communication outage at F.E. Warren Air Force Base (AFB) that affected 
50 nuclear missiles last fall. Given the age of the current 
intercontinental ballistic missile (ICBM) infrastructure, some have 
speculated that the incident may be indicative of problems with an 
aging ICBM infrastructure. Do you believe the incident is indicative of 
such a broader problem or that it is isolated?
    Secretary Donley. Our newest Major Command, Air Force Global Strike 
Command, conducted an extensive review of last fall's event and 
determined this was an isolated incident and is not indicative of age 
related systemic problems within the Intercontinental Ballistic Missile 
(ICBM) force. Although this was an isolated event and the likelihood of 
a reoccurrence is remote, the Air Force is redesigning certain 
components to eliminate any possibility of a future like event. The 
Minuteman III (MMIII) ICBM weapon system alert rate exceeds 99 percent. 
The MMIII Weapon System continues to perform as a safe, secure and 
effective deterrent.
    Consistent with the NDAA section 1251 report, the Air Force, 
through the leadership of Air Force Global Strike Command, has 
developed sustainment and modernization plans, specified in the ICBM 
Master Plan, to ensure the infrastructure necessary to support and 
operate our ICBM fleet. We feel these plans will meet the challenges 
required to sustain the MMIII to 2030.

    86. Senator McCain. Secretary Donley, how confident are you that 
the Air Force will be able to sustain the current ICBM force through 
2030?
    Secretary Donley. We are confident the Air Force will be able to 
sustain the current Intercontinental Ballistic Missile (ICBM) force 
through 2030. The Air Force has developed a low-risk ICBM roadmap 
outlining robust sustainment and modernization plans. There are certain 
components we will need to modernize in order to get us to the 2030 
date, to include the fuze, the guidance system and the propulsion 
system. Infrastructure sustainment has been ongoing and will continue 
through 2030. Additionally, Congress has recently approved a study for 
a life extension program for the W78 warhead needed in the early 2020s.

    87. Senator McCain. Secretary Donley, when should a decision be 
made for pursuing the development of a follow-on ICBM?
    Secretary Donley. In accordance with direction from the Nuclear 
Posture Review, the Air Force has begun an initial study associated 
with a Follow-on Intercontinental Ballistic Missile (ICBM) capability. 
Pre-Materiel Solution Analysis efforts for the potential ICBM Follow-on 
are already underway, to include a Ground Based Strategic Deterrence 
Capabilities Based Assessment (GBSD CBA). These efforts will lead to a 
formal Analysis of Alternatives (AoA) beginning in fiscal year 2013. 
Based on the results of the AoA, a program decision will be made as to 
the direction the Air Force should take to maintain a ground-based 
strategic nuclear deterrent capability for the United States. Research 
and development is expected to take approximately 15 years to develop, 
acquire, and field an initial operational capability.

                     JOINT MILITARY MEDICAL COMMAND

    88. Senator McCain. Secretary Donley and General Schwartz, in its 
recent report titled, ``Opportunities to Reduce Potential Duplication 
in Government Programs, Save Tax Dollars and Enhance Revenue,'' the 
Government Accountability Office (GAO) cited realignment of military 
medical command structures as an opportunity to significantly reduce 
costs in military health care. Historically, the Air Force has opposed 
consolidation of Service medical programs, citing the unique 
relationship of Air Force medical assets to line commanders. Do you 
favor establishment of a unified military medical command among the 
military departments?
    Secretary Donley and General Schwartz. We do not favor the 
establishment of a unified military medical command.
    The vast majority of beneficiaries and related costs in the DOD 
healthcare system support military dependents and retirees. In this 
context, the administration of healthcare delivery is properly the 
responsibility of the military departments and a civilian defense 
agency. A military command is neither required nor appropriate for 
healthcare delivery, and we should not be expanding the Unified Command 
system in functional support areas not servicing the operational needs 
of combatant commanders. The Air Force Medical Service is fully 
integrated with the Line of the Air Force and medical personnel are 
considered key members of the wing commander's team in accomplishing 
the wing mission. When Air Force units deploy, their medics deploy with 
them. The unified medical command would sever this close relationship 
at the expense of our existing effective organizational structure.
    The Air Force fully supports joint operations. Unity of effort 
through synergy, interoperable, and interdependent, integrated parts 
ensures success in joint operations. Just as the Air Force provides 
lift, close air support, and battlefield situational awareness for 
joint ground forces, the Air Force Medical Service deploys over 1,707 
medics worldwide to jointly support ground troops and air evacuation.
    Service oversight of medical assets led to the most effective 
treatment of casualties in the history of warfare. Savings outlined in 
the GAO report are not likely to be realized by establishing an 
independent unified medical command. Joint commands tend to add expense 
with new headquarters and systems for oversight of their components. 
Costs for medical services can be reduced by reducing contract costs in 
both the direct care system and managed care support contracts. 
Simplifying oversight of Defense Health Program dollars with a single 
Service accounting system would save more dollars, through greater 
accountability and standardization, than a unified medical command.
    Former Chief of Staff of the Army, General Casey, and General 
Schwartz worked with our Surgeons General to set up the Joint 
healthcare system in San Antonio. In September 2010, we signed a 
Memorandum of Agreement that established the San Antonio Military 
Health System. The governance structure is rotationally shared with a 
mission to optimize deployment readiness, clinical currency, graduate 
medical education, and quality health care for the 220,000 
beneficiaries in the greater San Antonio area. There is no new or 
additional cost associated with this arrangement.
    Our successful Joint effort at Landstuhl Regional Medical Center in 
Germany integrated over 300 Air Force medical professionals, alongside 
Army and Navy medics to provide en route care for over 86,000 patients 
since the initiation of OEF and Operation Iraqi Freedom.
    Air Force medics are central players in the most effective Joint 
casualty care system in military history. Deployed to joint theater 
hospitals and supporting our air evacuation system, Air Force medics 
are saving lives of soldiers, sailors, marines, airmen, civilians, 
coalition forces, friend and foe alike.
    We can drive unity of effort and achieve a more efficient Joint 
medical system without the expense of establishing a unified medical 
command.

    89. Senator McCain. Secretary Donley and General Schwartz, if you 
support such a command, how would you recommend that it be structured 
to optimize governance, efficiency, and warfighter support? If you do 
not support establishment of a unified medical command, please state 
the reasons why such action would not be in the best interests of the 
United States.
    Secretary Donley and General Schwartz. The Air Force does not 
support a unified medical command and do not agree there would be cost 
savings by the creation of such a command.
    We believe a more effective and efficient Joint medical solution 
can be attained without the expense of establishing a unified medical 
command. Changes to doctrine can be made within current authorities and 
do not require the establishment of a new unified medical command. In 
order to achieve efficiencies, Service specific and Joint medical 
doctrine must be improved to assure Service capabilities are fully 
interoperable and interdependent to bolster unity of effort. The 
Services should continue integrating common medical platforms to reduce 
redundancy and lower costs.
    A unified medical command may not achieve the intended synergy or 
unity of effort that others suggest. All models of the unified medical 
command to date do not include medical forces intrinsic to Service line 
units. Medical forces will need to continue to serve in these line 
units--Air Force line supported medics represent five percent of Air 
Force medical personnel; Navy shipboard assets represent 25 percent of 
medical personnel; and Army line Tables of Organization and Equipment 
(TOE) supported medics represent 48 percent of Army Active Duty medics.
    Any new unified medical command will require new systems and 
structure to oversee component headquarters and assigned forces. This 
will drive even higher costs. If a unified medical command follows the 
example of the current Joint Task Force, national Capital Region 
Medical (JTF CAPMED), it is highly unlikely there will be any cost 
savings. There is no need for another military Service and establishing 
such, in the form of a unified medical command, without the discipline 
and historical rule sets that govern existing Services, will likely 
drive costs much higher. Even more critical, a unified medical command 
may not be as responsive to the needs of Service warfighters as is the 
current oversight by the Services.
    Base Realignment and Closure 2005 created many opportunities for 
Joint oversight of medics. Given time to mature, these initiatives, 
along with the Service Surgeon Generals efforts to consolidate 
oversight of common support functions (information management, 
contracting, military health facility construction and financial 
management) in the new co-located medical headquarters will reduce 
redundancies. Adoption of a single Service accounting system to 
allocate Defense Health Program dollars and improve accountability 
would do more to reduce costs than a unified medical command.

                    AIR FORCE EFFICIENCY INITIATIVES

    90. Senator McCain. Secretary Donley, the Air Force recently 
proposed an efficiencies initiative to consolidate two Air Operations 
Centers (AOC), the 601st at Tyndall AFB, FL, and the 612th AOC at Davis 
Monthan AFB, AZ. The Air Force is currently assessing the two AOC 
locations using their Strategic Basing process. I want to ensure that 
the process is fair and based on the most urgent long-term needs of the 
Air Force, the combatant commands, and national security. What is the 
projected savings from this AOC consolidation and how will the savings 
be achieved?
    Secretary Donley. The Air Force portion of the fiscal year 2012 
President's budget directed consolidation of four Air and Space 
Operations Centers (AOC) to two and the inactivation of three Numbered 
Air Forces as part of the DOD's efficiency initiative. The proposed 
consolidation of the 601st and 612th AOCs represents one of these 
planned efficiencies and is currently on hold pending further analysis. 
As the 601st/612th AOC consolidation effort moved forward, an 
enterprise-wide option emerged that is potentially more efficient and 
effective for operational command and control. The Air Force is 
currently studying this new option which, if chosen, may obviate the 
need to consolidate the 601st and 612th AOCs and still achieve the 
necessary efficiency savings.

    91. Senator McCain. Secretary Donley, since both AOCs have been 
operating with less manning than was planned and authorized, what 
manpower assumed savings were used to develop the initiative?
    Secretary Donley. The Air Force portion of the fiscal year 2012 
President's budget directed consolidation of four AOCs to two and the 
inactivation of three Numbered Air Forces as part of the DOD's 
efficiency initiative. The proposed consolidation of the 601/612 AOCs 
represents one of these intended efficiencies and is currently on hold 
pending further analysis. As the 601/612 AOC consolidation effort moved 
forward, an enterprise-wide option emerged as both more efficient and 
effective for operational command and control. The Air Force is 
currently studying this new option which, if chosen, may obviate the 
need to consolidate the 601/612 AOCs and still achieve the necessary 
efficiencies.

    92. Senator McCain. Secretary Donley, is the projected savings 
based on a final concept of operations for a consolidated AOC? If not, 
why not?
    Secretary Donley. The Air Force portion of the fiscal year 2012 
President's budget directed consolidation of four AOCs to two and the 
inactivation of three Numbered Air Forces as part of the DOD's 
efficiency initiative. The proposed consolidation of the 601/612 AOCs 
represents one of these intended efficiencies and the projected savings 
were based on manpower only. This concept is currently on hold pending 
further analysis. As the 601/612 AOC consolidation effort moved 
forward, an enterprise-wide option emerged as both more efficient and 
effective for operational command and control. The Air Force is 
currently studying this new option which, if chosen, may obviate the 
need to consolidate the 601/612 AOCs and still achieve the necessary 
efficiencies.

    93. Senator McCain. Secretary Donley, will the basing process be 
fair and transparent with the criteria made public, and subsequently 
the results of the assessment made available to Congress?
    Secretary Donley. In accordance with the Air Force Strategic Basing 
process, the process will be fair and transparent, the basing criteria 
will be made public through an announcement to Congress, and the 
results of the assessment made available to Congress at the end of the 
process.

    94. Senator McCain. Secretary Donley, as you know, the 601st AOC is 
collocated with 1st Air Force Headquarters, which also serves as the 
home of the Air Component Commander for U.S. Northern Command. 
Likewise, the 612th AOC is collocated with the 12th Air Force Commander 
and serves as the home for the Air Component Commander of U.S. Southern 
Command (SOUTHCOM). The consolidation will result in one Air Component 
Commander with no AOC on the same base to command and control air 
operations in their theater of operations. Why is this dislocation 
acceptable to the Air Force?
    Secretary Donley. The Air Force portion of the fiscal year 2012 
President's budget directed consolidation of four AOCs to two and the 
inactivation of three Numbered Air Forces as part of the DOD's 
efficiency initiative. The proposed consolidation of the 601/612 AOCs 
represents one of these intended efficiencies and is currently on hold 
pending further analysis. As the 601/612 AOC consolidation effort moved 
forward, an enterprise-wide option emerged as both more efficient and 
effective for operational command and control. The Air Force is 
currently studying this new option which, if chosen, may obviate the 
need to consolidate the 601/612 AOCs and still achieve the necessary 
efficiencies.

    95. Senator McCain. Secretary Donley, what will be the operational 
impact to the Air Component Commander supporting the two combatant 
commanders of not having an AOC at their location?
    Secretary Donley. The Air Force portion of the fiscal year 2012 
President's budget directed consolidation of four AOCs to two and the 
inactivation of three Numbered Air Forces as part of the DOD's 
efficiency initiative. The proposed consolidation of the 601/612 AOCs 
represents one of these intended efficiencies and is currently on hold 
pending further analysis. As the 601/612 AOC consolidation effort moved 
forward, an enterprise-wide option emerged as both more efficient and 
effective for operational command and control. The Air Force is 
currently studying this new option which, if chosen, may obviate the 
need to consolidate the 601/612 AOCs and still achieve the necessary 
efficiencies.

    96. Senator McCain. Secretary Donley, if this is a new concept of 
operations, should the Air Force be conducting other AOC 
consolidations?
    Secretary Donley. Yes. In addition to the Continental United 
States, the Air Force is consolidating two Air and Space Operation 
Centers (AOCs) in Europe. The Air Force currently has no plans to 
further consolidate AOCs. However, when and where operationally 
feasible and within an acceptable level of risk, the Air Force will 
consider additional consolidations.

    97. Senator McCain. Secretary Donley, DOD has proposed an 
efficiency initiative to reduce the number of Joint Task Forces (JTF). 
One of those being considered for consolidation is Joint Interagency 
Task Force (JIATF) South, which conducts counterdrug missions in 
primarily the SOUTHCOM area of responsibility. Has the Air Force been 
asked to consider the consolidation of JIATF South to either of the 
AOCs proposed for consolidation?
    Secretary Donley. No. At this time, the Air Force has not been 
asked to consider the consolidation of the JIATF South to the Air Force 
Air and Space Operation Centers proposed for consolidation.

                          F-16 PILOT TRAINING

    98. Senator McCain. Secretary Donley, at a time when the Air Force 
is being asked to find efficiencies in every activity, accepting risk 
in some cases by underfunding facility maintenance and flying hours, I 
am trying to understand the decision announced last year to move two F-
16 training squadrons from Luke AFB, AZ, to Holloman AFB, NM. I realize 
that Luke AFB will receive up to five squadrons of F-35s, with the 
final number of training aircraft to be determined by the number of F-
35s eventually in the Air Force inventory. I'm concerned that, like the 
F-22 Raptor, that number will shrink dramatically over time as the cost 
of the F-35 continues to rise. As it stands today, Luke AFB can 
accommodate up to eight squadrons of aircraft in existing facilities on 
the ramp. So, without knowing for sure how many F-35 squadrons will be 
stationed at Luke AFB, why spend funds and effort now to move two F-16 
squadrons to Holloman AFB?
    Secretary Donley. Relocating two F-16 squadrons from Luke Air Force 
Base to Holloman Air Force Base ensures the viability of a long-term 
strategic training location and the White Sands Missile Range (WSMR) as 
a national asset. Holloman also has the capacity to accept two training 
squadrons. This move capitalizes on existing airspace and range complex 
availability, including WSMR, and takes advantage of readily available 
Joint training opportunities at Fort Bliss.

    99. Senator McCain. Secretary Donley, is this split-base training 
of F-16 pilots efficient?
    Secretary Donley. The Air Force is moving active duty F-16 pilot 
training to Holloman Air Force Base, New Mexico in order to beddown 
pilot training for the F-35 Lightning II at Luke Air Force Base, 
Arizona. During the F-16 training transition, there will be a period 
where F-16 training squadrons operate at both Luke Air Force Base and 
Holloman Air Force Base. The staggered move will minimize the impact 
and loss of F-16 training. The disruption will be temporary, with all 
active duty Air Force F-16 pilot training consolidated at Holloman Air 
Force Base by approximately 2020.

    100. Senator McCain. Secretary Donley, as currently planned, does 
the timing of the move of F-16s protect operations at Luke AFB from 
being subjected to a bathtub effect, where the F-16s will leave well 
before the first F-35s arrive?
    Secretary Donley. The Air Force is diligently working to implement 
all fighter aircraft decisions made in July 2010, including minimizing 
manpower fluctuations across all installations. We are currently 
planning for the first of two F-16 FTU squadrons to transition from 
Luke AFB to Holloman AFB in the third quarter of fiscal year 2013. F-
35As are programmed to arrive in the fourth quarter of fiscal year 
2013. This plan minimizes manpower and aircraft fluctuations at Luke 
AFB.

    101. Senator McCain. Secretary Donley, I see the Air Force has 
already requested three military construction (MILCON) projects 
totaling $18 million in the fiscal year 2012 budget request to prepare 
facilities at Holloman AFB for the arrival of the F-16s. Have the total 
costs for this move been determined? If so, please provide a 
comprehensive description of all one-time and recurring costs 
associated with the move.
    Secretary Donley. Our current validated estimate to relocate two F-
16 squadrons from Luke Air Force Base to Holloman Air Force Base (a 
multi-year move) is $42.2 million. Of that total, $18 million is for 
three fiscal year 2012 military construction (MILCON) projects, $3.5 
million is for two fiscal year 2011 unspecified minor MILCON projects, 
$13.1 million is for 18 operation and maintenance (O&M) projects, and 
$7.6 million is for support requirements. Additionally, Air Education 
and Training Command has identified a potential requirement for 
additional MILCON, however those requirements have not yet been 
validated.
    To further refine requirements, a Housing Requirements Market 
Analysis study is underway at Holloman and should be complete by the 
end of June 2011. If additional requirements are identified, we will 
include them in future housing privatization negotiations, and through 
cooperation with the community. In addition, the dormitory master plan 
will be updated to account for potential changes in the base 
population. If requirements dictate, MILCON projects may be programmed, 
as appropriate. The most cost-effective means to fund all these 
requirements is still being determined, including capitalizing on 
existing equipment and facilities where possible.

    102. Senator McCain. Secretary Donley, can the Air Force adequately 
conduct its pilot training mission at Holloman AFB, given the fact that 
the range to be used for training is owned, managed, and controlled by 
the Army, and their test activities have primacy in the Triad 
prioritization process?
    Secretary Donley. The Air Force is able to adequately conduct its 
pilot training mission at Holloman Air Force Base using the TRIAD 
Military Operating Area (MOA), which consists of the White-Sands 
Missile Range (WSMR)/Holloman Air Force Base/Fort Bliss operating 
areas. There is adequate capacity at TRIAD MOA to meet all training 
requirements. The Air Force and Army have developed a new construct to 
provide a more effective and efficient use of the TRIAD.

    103. Senator McCain. Secretary Donley, why would the Air Force want 
to deliberately subject a tight F-16 pilot training syllabus to the 
impact of having to train on a range they do not own?
    Secretary Donley. The Air Force and Army are using a joint 
scheduling enterprise to effectively schedule White Sands Missile Range 
(WSMR) and do not anticipate difficulties in supporting F-16 training. 
The Air Force and the Army have developed a new construct to provide a 
more effective and efficient use of the WSMR/Holloman Air Force Base/
Fort Bliss operating area named the TRIAD Military Operating Area 
(MOA).

                          F-35 PILOT TRAINING

    104. Senator McCain. Secretary Donley, what is the current status 
and timeline for the arrival of the F-35 to Luke AFB?
    Secretary Donley. As briefed to the SASC professional staff members 
and the State of Arizona staffers on 20 Jun 11, continued fluctuation 
in the F-35 program has resulted in changes to the aircraft delivery 
schedule. Luke AFB is currently scheduled to receive its first aircraft 
in the fourth quarter of fiscal year 2013.

    105. Senator McCain. Secretary Donley, what are the major 
milestones and estimated dates of completion for the environmental 
impact statement (EIS)?
    Secretary Donley. The Air Force has determined that the use of a 
more accurate noise model, recently made available, would be used in 
the F-35 Training EIS for Pilot Training Center (PTC)-1. The draft EIS 
will be released in the fall of 2011 and a Record of Decision (ROD) 
will be signed no earlier than March 2012. We will continue to keep you 
informed on these efforts.

    106. Senator McCain. Secretary Donley, when are the first jets 
scheduled to arrive?
    Secretary Donley. Based on adjustments to F-35 procurement included 
in the fiscal year 2012 budget, the Air Force is in the process of re-
evaluating the F-35 aircraft delivery schedules. Luke AFB is currently 
scheduled to receive its first aircraft in the fourth quarter of fiscal 
year 2013.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                           TANKER COMPETITION

    107. Senator Sessions. Secretary Donley, what was the final bid 
price submitted by Boeing that ultimately won the most recent Air Force 
tanker competition?
    Secretary Donley. The publically released value of the Engineering 
and Manufacturing Development contract is $4.4 billion. The overall 
contract is valued at over $30 billion, with a final amount depending 
on the options exercised.

    108. Senator Sessions. Secretary Donley, what is the total 
estimated cost avoidance to the government that resulted from the 
cancellation of the 2001 congressionally-authorized Boeing lease 
proposal to the current fixed-price contract?
    Secretary Donley. There are many factors that make comparing costs 
from the varied structures of the proposed tanker lease in 2002, the 
KC-45 competition in 2008 and the current KC-46 competition in 2010-
2011 very difficult. However, it is safe to say that the Department has 
reaped a substantial savings for the taxpayer by buying these tankers 
under the current full-and-open competition and fixed-price development 
contract.
    OSD and Air Force representatives have met with congressional 
defense committee staff on several occasions to provide source 
selection and proprietary information since the contract award, and are 
willing to brief you on the bids and resulting cost savings from past 
competitions, at your convenience.

    109. Senator Sessions. Secretary Donley, what is the projected unit 
price for the first 18 KC-46 aircraft?
    Secretary Donley. OSD and Air Force representatives have met with 
congressional defense committee staff on several occasions to provide 
source selection and proprietary information since the contract award, 
and are willing to brief you on the bids at your convenience.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                           TACTICAL AIR FLEET

    110. Senator Chambliss. General Schwartz, in the past you have 
stated that the Air Force is accepting risk in its tactical air 
(TACAIR) fleet by forgoing the purchase of additional F-22s and, 
instead, extending the life of legacy 4th Generation Fighters. In light 
of continued delays in the F-35 program, can you give your current 
assessment of risk in this area?
    General Schwartz. OSD's decision to stop the purchase of F-22s at 
187 was based on the planned F-35 initial operational capability (IOC) 
at the time. As you are aware, the F-35 IOC has slipped. There is no 
doubt that the slip will force us to be smart about how we marshal our 
resources to operate and overcome an adversary in an Anti-Access/Area 
Denial environment. In the short term, our ability to perform our 
mission is healthy. Service life extension (SLEP) and modernization of 
select 4th generation aircraft provides a cost effective solution to 
the forecasted shortfalls in the fighter force structure due to the F-
35 program delays. This solution can mitigate some risk until the F-35 
is fully capable and in sufficient numbers to perform its air 
superiority and global precision attack roles. Examples include 
upgrading the F-15 and F-16 fleets with advanced radars and self 
protection capabilities, and extending the F-16 service life. We are 
also making sure that the F-22's advanced capabilities are fully 
implemented.

    111. Senator Chambliss. General Schwartz, are there specific gaps 
that are of particular concern?
    General Schwartz. We are observing increasing deployment of 
adversary electronic attack capabilities that will place significant 
stress on the Air Force's ability to achieve and maintain air 
superiority. This problem will increase as these systems mature and 
proliferate globally. The Air Force ability to operate within some 
regions of the world is also challenged due to a growing ballistic 
missile threat. Ballistic missiles are not a new threat, but the latest 
versions are more accurate and, when combined with access to exquisite 
ISR, can significantly upset our ability to deploy into and conduct 
unfettered regional operations.
    New adversary electronic warfare capabilities, combined with 
integrated air defense systems create another challenge for the Air 
Force. Our ability to use the space and cyber domains to command and 
control our platforms and systems will be increasingly contested across 
the range of military operations. These problems will only get worse as 
time goes on unless we move forward and modernize our air, space and 
cyber capabilities. We must also continue to develop tactics and 
procedures to operate in these challenging and degraded environments. 
The F-35 combined with the F-22 and the Long-Range Strike Family of 
Systems along with new radar, electronic warfare capabilities and 
weapons will all serve to ensure that the Air Force remains capable of 
delivering air superiority and precision effects globally.

    112. Senator Chambliss. General Schwartz, would you ever recommend 
procurement of additional legacy 4th Generation Fighters to mitigate 
this risk? Why or why not?
    General Schwartz. Not at this time. Starting with the fiscal year 
2010 President's budget (PB), the Air Force committed to retire 250 
legacy fighters to fund a smaller and more capable force. As a bridge 
to the F-35, JSF, we will continue to sustain and modernize our legacy 
fighters and bombers in order to maintain our current capability and 
capacity.
    When the F-35 initial operational capability slipped, our mid-term 
risk increased. The Air Force will mitigate this risk through 
aggressive management of F-35 production and legacy fighter 
sustainment, along with selected service life extension programs (SLEP) 
and modernization outside the FYDP. The fiscal year 2012 PB plans for 
capability modifications and SLEP for the F-16 Block 40/42/50/52 fleet. 
Selected legacy SLEP of the most suitable F-16 Block 40s and 50s would 
add approximately 6-8 years to their anticipated service life and 
provides the most cost effective alternative to transition to a fifth 
generation capability. The Air Force also intends to accelerate the F-
15E Active Electronically Scanned Array (AESA) radar modernization 
program and continue the A-10C wing replacement program. The Air Force 
will continue to monitor and assess the fighter force structure and 
will remain flexible to pursue all appropriate courses of action 
necessary to mitigate risk should the situation change.

    113. Senator Chambliss. General Schwartz, it is my belief that the 
original F-35 concept--recapitalizing U.S. and allied fleets with a 
single family of highly capable, interoperable, and affordable 
fighters--makes even more sense today than it did when this program 
began. While it was not unexpected that other countries would develop a 
fifth generation capability, as both China and Russia recently 
demonstrated, it does underscore the need for our own F-35 fifth 
generation aircraft to be fielded as quickly as is feasible. Please 
comment.
    General Schwartz. It is true that potential adversaries around the 
world are fielding capabilities that are increasing the threat to our 
legacy 4th generation fighters and bombers. These include fifth 
generation fighters, integrated air defense systems, better munitions 
and effective electronic warfare capabilities. An operationally 
effective F-35, in coordination with the F-22, B-2 and ultimately, the 
Long-Range Strike Family of Systems will be necessary to effectively 
counter these increasingly effective weapons systems. While the Air 
Force would prefer the F-35 to be fielded sooner rather than later in 
order to meet these looming global challenges, it is vital that we 
field an F-35 that has the proven avionics and weapons integration 
capabilities needed to be operationally effective. Getting the F-35 to 
full-rate production has been a greater challenge than anticipated. 
Given the recent Technical Baseline Review, the program is moving 
forward as fast as pragmatically possible.

                             AIR DOMINANCE

    114. Senator Chambliss. General Schwartz, looking forward 10 to 15 
years, how confident are you in the Air Force's ability to maintain air 
dominance in the Pacific in the event of a major conflict?
    General Schwartz. Our ability to provide air superiority for 
operations in the Pacific will be significantly challenged in the next 
10 to 15 years. The Air Force will require robust tanker support and 
modernized fighter capability to ensure air superiority against rapidly 
evolving threats. Much of our ability will be dependent on the U.S. 
Navy's ability to dominate the sea in the Pacific. Working together, 
the Air Force and Navy complement each other and can create effects 
that neither service can do alone. That is why the Air Force and the 
Navy have been jointly pursuing the Air Sea Battle Initiative to ensure 
that a joint, integrated approach to the problem occurs.

    115. Senator Chambliss. General Schwartz, as other nations improve 
their air forces, air defenses, and are able to more effectively target 
our staging areas in that region, how much concern do these factors 
raise and are you concerned that certain courses of action or options 
the Air Force can offer the President today may not be available down 
the road?
    General Schwartz. Our primary concern is not that certain courses 
of action or options may be unavailable-rather, we must ensure the 
right courses of action are not delayed in the short-term. Potential 
adversaries are acquiring anti-access/area denial (A2/AD) capabilities, 
such as long range cruise and ballistic missiles, advanced surface-to-
air missile systems, aircraft, surface ships, submarines, mines, 
counter-space systems and cyber warfare systems. Adversaries seek to 
use these capabilities to deny freedom of action to United States and 
partner nation militaries. Your inquiry directly addresses the issue of 
the A2/AD threat. The Air Force is acutely aware of the A2/AD threat 
and, partnering with the Department of the Navy, has developed the Air-
Sea Battle (ASB) concept to address this future challenge.
What is the A2/AD?
    Anti-access: Action intended to slow deployment of friendly forces 
into a theater or cause forces to operate from distances farther from 
the locus of conflict than they would otherwise prefer. A2 affects 
movement to a theater.
    Area-denial: Action intended to impede friendly operations within 
areas where an adversary cannot or will not prevent access. AD affects 
maneuver within a theater.
    Failure to effectively address such capabilities will result in a 
greater than desired risk for United States and partner nation forces 
operations both within the A2/AD environment and at extended distances 
from the area of conflict. Either circumstance puts at risk the ability 
of the Joint Force to accomplish its assigned operational objectives. 
Furthermore, the A2/AD environment, by its very nature, requires an Air 
Force that is strategic in character, built on a backbone of a Long-
Range Strike Family of Systems designed to rapidly break down an A2/AD 
environment in order to allow other forces to push forward into the 
region to restore stability.
Air Sea Battle (ASB)
    ASB is a unified Air Force and Navy approach to address the 
evolving A2/AD environment. ASB focuses on enhancing three levels of 
cooperation:

         Institutional Cooperation will be enhanced by establishing an 
        enduring organizational construct that will continue formal 
        collaboration to address the A2/AD environment as it evolves 
        over time.
         Conceptual Alignment will be perpetuated through the 
        operational design which describes how capabilities and forces 
        are integrated to accomplish operational objectives in an A2/AD 
        environment.
         Materiel solutions and innovations will be collaboratively 
        vetted to ensure they are complementary where appropriate; 
        redundant when mandated by capacity requirements; fully 
        interoperable and fielded with integrated acquisition 
        strategies seeking efficiencies where they can be achieved.
Addressing the A2/AD Problem
    ASB utilizes the central operational design of ``networked, 
integrated, attack-in-depth to disrupt, destroy, and defeat A2/AD 
threats.

         Networked: A2/AD strategies require multiple networked systems 
        to be effective. The best way to defeat an adversary's networks 
        is with superior U.S. interconnected networks. Networked 
        implies command, control, and communications capabilities to 
        enable cross-domain advantage.
         Integrated: A2/AD strategies seek to exploit vulnerabilities 
        in U.S. force integration. Integration of Air Force and Navy 
        forces counters these vulnerabilities by combining the 
        strengths of air and naval forces through shared innovation. 
        This integration provides the offensive and defensive 
        capabilities necessary to counter the spectrum of A2/AD 
        threats.
         Attack-in-Depth is the method by which the United States 
        defeats the adversary's A2/AD capabilities and restores air and 
        sea control, enabling subsequent action. A multi-domain 
        offensive or counter-offensive operation is necessary to attack 
        adversary vulnerabilities across the depth of his battlespace.
         Disrupt, Destroy, Defeat: A2/AD environments will be shaped by 
        conducting sequential or concurrent tasks:
         Disrupt: conduct offensive operations to disrupt the A2/AD 
        adversary's command, control, communications, computer network, 
        and ISR processes.
         Destroy: conduct offensive operations to seek out and destroy 
        or neutralize any threatening A2/AD weapons systems within 
        effective range of operating U.S. forces.
         Defeat: defeat the adversary's employed weapons to preserve 
        essential Joint forces and their enablers in order to sustain 
        offensive and defensive operations.

    Combatant commanders can apply these tasks-disrupt, destroy, 
defeat-to achieve campaign crisis management escalation, de-escalation 
aims. The ASB concept will apply a tailorable portfolio of cross-domain 
capabilities to deter, and if necessary, defeat an A2/AD adversary in 
combat.

                          EFFICIENCY MEASURES

    116. Senator Chambliss. Secretary Donley and General Schwartz, 
regarding the efficiencies you are finding in your fiscal year 2012 
budget and beyond, first I want you to know that I support your efforts 
and appreciate the fact that you are working to ensure every dollar you 
spend is a wise use of taxpayers' resources. To what extent are your 
efficiencies simply deferring expenditures to future years, versus real 
savings?
    Secretary Donley and General Schwartz. The Air Force identified 
corporate efficiency goals in ten overarching areas. Our efficiency 
goals represent real savings/reductions versus deferring expenditures 
to future years. Only 1 percent of our $33.3 billion in Air Force-
identified efficiency initiatives are related to re-phasing of programs 
due to fact-of-life slips or program execution status. They include re-
phasing war Reserve material stockpile and training munitions 
procurement; re-phasing Wide Area Airborne Surveillance (WAAS) 
procurement; re-phasing AFNet support; and Link 16 Crypto Modernization 
for B-1, B-2, F-15. and F-16 systems. Real savings generated by these 
and other efficiencies permitted funds to be realigned to increase 
mission core capabilities and will reduce programmed or budgeted costs 
across the FYDP.

    117. Senator Chambliss. Secretary Donley and General Schwartz, 
rather than just finding ways to conduct missions more efficiently, 
thus saving money, have you worked to identify missions that you can 
stop doing; areas of focus and investment for the Air Force that may be 
outdated and unnecessary?
    Secretary Donley and General Schwartz. The Air Force is prepared to 
react to changes in strategic direction and national strategy that 
would reshape our force to realign with current global threats and 
realities. However, any potential changes to Air Force roles and 
missions, as defined by the National Military Strategy, would need to 
be led by the President, the Secretary of Defense, and Chairman of the 
Joint Chiefs of Staff.
    In accordance with 10 U.S.C. 118b, DOD conducts a Quadrennial Roles 
and Missions Review (QRMR). The Secretary of Defense has always 
included Service participation in these reviews. One of the tasks of 
this review is to identify ``any unnecessary duplication of core 
competencies and capabilities between defense components.'' Using the 
guidance provided in the most current QRMR and Quadrennial Defense 
Review, the Air Force continues to focus its investment of limited 
resources on the most critical capabilities required to conduct our 
current roles and missions.
    Additionally, during development of the Air Force annual budget, 
every program and mission area is assessed to ensure that we are not 
wasting precious resources on outdated or unnecessary systems or 
processes. The next review is scheduled to take place in 2012 with the 
final report delivered to Congress in early 2013. Working in concert 
with the Secretary of Defense, the Chairman of the Joint Chiefs, and 
the other Services the Air Force will determine which, if any, missions 
it can stop doing.

    118. Senator Chambliss. Secretary Donley and General Schwartz, I 
believe we can be more efficient but at some point doing more with less 
becomes a self-defeating exercise. In areas that you are making cuts, 
particularly when it comes to cutting contractors, if the mission 
itself is not going away, how will you ensure that the mission gets 
done if the people doing it are gone?
    Secretary Donley and General Schwartz. The overall focus of our 
efficiency effort is to concentrate on reducing redundancy and 
management overhead without impacting the Air Force mission and 
services. The Air Force efficiency initiatives ensure that we could 
make changes in those areas without adversely affecting mission. The 
Air Force also considered external organization experiences and a 
review of our own internal practices. In the areas where we are 
reducing staff (either government or contractors), the Air Force plan 
is to either modify the work itself to eliminate unnecessary and 
redundant tasks or to stop doing a job altogether that is no longer 
deemed essential. This approach is a means to keep from getting into 
the trap of ``doing more with less.''
    The Air Force corporate structure will closely monitor progress on 
efficiency goals and, as importantly, mission performance. Mission 
performance should either improve or be maintained at current levels.

                                  C-5

    119. Senator Chambliss. General Schwartz, I understand there are 
now five operational C-5M Super Galaxies in service and the Air Force 
is using these assets to support combat unit moves to locations in 
Afghanistan. I have heard good things regarding the performance of the 
C-5M; in fact I've heard it described as a game changer. I would be 
interested in your thoughts on this new aircraft. In your words, how 
well are the C-5Ms performing?
    General Schwartz. The C-5M is indeed performing very well. The 
modified aircraft is able to operate from shorter runways and carry 
more cargo over farther distances and with greater reliability. The AMP 
upgrades the aircraft avionics and has increased safety, eased crew 
workloads, and enhanced situational awareness. The RERP provides 
higher-thrust and more reliable and environmentally friendly turbofan 
engines. The C-5M's most recent accomplishments were in direct support 
of operations in Libya, where they delivered 38 percent more cargo for 
every hour flown when compared to the other C-5 models. The 
modification plan calls for delivery of 52 C-5Ms by 2016. The C-5M 
upgrade is absolutely vital to our strategic airlift capability for 
years to come.

    120. Senator Chambliss. General Schwartz, are they meeting the Air 
Force's expectation set for the C-5 RERP?
    General Schwartz. The program is on track to meet our expectations. 
We expect to have an initial operational capability by 2013, at which 
time our first unit will be completely equipped with C-5Ms. At this 
time we see no obstacles that will keep us from meeting that target.

    121. Senator Chambliss. Secretary Donley, assuming that Congress 
grants the Air Force's request to retire some number of C-5As while the 
Air Force continues to comply with the NDAA for Fiscal Year 2010 
minimum number of strategic airlifters, can you provide the systematic 
approach and analysis that was used to comply with section 137 of the 
NDAA for Fiscal Year 2010 to consider making these excess C-5s 
available to Civil Reserve Air Fleet (CRAF) operators or international 
coalition partners?
    Secretary Donley. To comply with section 137 of the NDAA for Fiscal 
Year 2010, the Air Force compiled a ``Report on Retirement of C-5A 
Aircraft'' in October 2010. This report concludes that the benefits of 
transferring C-5A aircraft to CRAF are limited. The analysis behind 
this is based on the fact that the C-5 is a Category C aircraft, 
meaning it is a combat configured platform, and would have to be 
demilitarized prior to being transferring to the CRAF. Demilitarization 
would render the aircraft suitable for scrap recycling only. 
Additionally, Category C aircraft are determined to not have commercial 
application based upon their military design characteristics. 
Furthermore, according to DOD 4160.21-M, transferring possession of 
Category C aircraft outside of the Federal Government is only 
authorized for museums or static displays.
    The report also determines that no excess C-5 aircraft will be 
transferred to eligible international coalition partners due to the Air 
Force's requirements for spare parts and equipment. Currently, the 
demand for C-5 spare parts is significant, and in some cases supply 
chain backorders exceed 2 to 3 years. These retiring aircraft provide 
usable spare parts that will enable sustainment of the remaining active 
fleet.

    122. Senator Chambliss. Secretary Donley, you seemed to indicate in 
your March 17, 2011, testimony that Air National Guard and Air Force 
Reserve C-5As are already included in the C-5 RERP modernization, yet 
to date we have not received notification or documents to this effect. 
I understand that the Air Force already modified a C-5A to the C-5M 
Super Galaxy configuration and that its performance is comparable to 
any of the modernized C-5Bs (now C-5Ms). Since the Air Force is likely 
to have a number of C-5As in service for the next 30-plus years, it 
makes sense to me that the C-5 aircraft flown by our Air National Guard 
and Air Force Reserve should be modernized. For only $107 million 
investment for each RERP kit and installation, RERP pays for itself. 
Can you advise what the Air Force plans are for modernizing C-5As?
    Secretary Donley. All C-5As not programmed for retirement will 
receive the AMP configuration. Additionally, 16 Air Force Reserve 
Command C-5Bs will be upgraded with the RERP modification and 
redesignated as C-5Ms.

                    MULTIFUNCTION ADVANCED DATA LINK

    123. Senator Chambliss. General Schwartz, during our hearing 
several weeks ago with Secretary Gates, when I asked if DOD might be 
considering buying more F-22s, he indicated that there were ``hundreds 
of millions of dollars'' for F-22 upgrades in the budget request. While 
there are funds requested for F-22 squadrons, I do not find any funds 
for the Multifunction Advanced Data Link (MADL). In 2008, OSD published 
an Acquisition Decision Memorandum directing the MADL as the data link 
to provide the connectivity between our low observable (LO) aircraft 
beginning with the F-22. I understand that MADL is now deferred from 
the F-22 and I note that the most recent President's budget request 
includes no funding for MADL. It now appears that we are without a 
program to provide connectivity between our LO fighters and other 
platforms. I believe we must have a means by which our newest LO 
fighters can be identified and are able to collaborate with each other 
directly or through some sort of gateway connection to share position 
and sensor data appropriately among our own forces. This connectivity 
is needed to connect our latest generations of LO aircraft to conduct 
operations, provide necessary command and control, and prevent 
fratricide. What programs are included and what resources are provided 
in your budget request this year to ensure timely development of these 
capabilities?
    General Schwartz. The F-22 currently is able to use the IntraFlight 
Data Link (IFDL) that allows it to communicate with other F-22s. The 
MADL is still under development as part of the F-35 JSF program, as it 
was originally planned.
    As the result of a cost and risk analysis, the Air Force decided in 
the fiscal year 2012 budget to defer integration of MADL onto the F-22 
until MADL matures within the F-35. While this maturation occurs, the 
USAF will continue to assist the F-35 program office and the F-22 
program office to ensure smooth integration of MADL on the F-22. In 
fiscal year 2011, $24 million was requested for the MADL Enterprise for 
this effort.
    In addition to these efforts, the capability to share data between 
the F-22 and our current fleet of fighters has been demonstrated 
successfully in multiple exercises with the BACN IFDL Subsystem (BACN 
BIS), hosted on a business jet test aircraft. This capability was not 
tested on the BACN Global Hawk Block 20 and is not fielded. The 
business jets and the Global Hawks equipped with the BACN payload and 
flying today in Afghanistan do not, at this time, have this specific F-
22 gateway capability installed, since there is no need in the current 
theater for this capability. We are currently studying the costs and 
risks of implementing a F-22 gateway capability. If the cost-risk 
analysis is favorable, the USAF can proceed to introduce this F-22 
gateway capability as an interim solution.

    124. Senator Chambliss. General Schwartz, in your view, are we 
doing enough, and proceeding rapidly enough, to acquire this 
capability?
    General Schwartz. Yes. We are proceeding in an effective manner to 
enable this capability. We are continuing to assess and balance the 
technical and cost risks and hope to deliver an interim capability as 
soon as possible.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker

                              GLOBAL HAWK

    125. Senator Wicker. Secretary Donley and General Schwartz, please 
provide an update on Global Hawk Operations in Libya and in Japan.
    Secretary Donley and General Schwartz. Our newest Global Hawk, the 
Block 30, a larger aircraft with improved sensors, flies almost daily 
in support of Operation Odyssey Dawn and Operation Unified Protector. 
At the same time, Global Hawk continues to support Japan with Operation 
Tomodachi relief efforts.
    In Libya, the Global Hawk served a key role in the battle to 
dismantle the regime's Integrated Air Defense System by providing both 
pre- and post-strike imagery of surface-to-air missile sites and 
airfields. Flying from Sicily, the aircraft was able to remain on 
station for over 24 hours at a time. This endurance, when combined with 
the Global Hawk's enhanced sensor capabilities, enabled it to obtain 
over 400 frames of still imagery per mission, thereby satisfying the 
need for near-real-time status updates of regime and opposition forces. 
The RQ-4 also supported the search and rescue operation that recovered 
our downed airmen following the F-15 mishap.
    In Japan, not only did the Global Hawk provide high-resolution 
imagery of earthquake and tsunami affected areas, but its infra-red 
imaging of damaged nuclear facilities enabled analysts to determine the 
temperature of various hot spots throughout the facility. In addition, 
the Global Hawk brought persistence and flexibility to the Pacific 
theater through its ability to fly to and from northern Japan from Guam 
(1,500 miles each way), while retaining the endurance to remain on 
station for 17 hours.

    126. Senator Wicker. Secretary Donley and General Schwartz, how 
well is the Global Hawk performing in theater from the warfighter 
perspective?
    Secretary Donley and General Schwartz. Global Hawk aircraft are 
flying continuously in CENTCOM providing critical ISR and 
communications relay support to warfighters in Afghanistan and Iraq. 
The ISR configured Global Hawks carry a combination of electro-optical, 
infra-red, and synthetic aperture radar (SAR) sensors on one platform 
to give the warfighter maximum flexibility to adapt to changing 
operational and environmental conditions during a single mission. The 
Block 10s currently in CENTCOM are on schedule to be replaced in May 
2011 by the larger Block 30 aircraft, which will carry a robust signals 
intelligence payload in addition to its imagery sensors.
    The Global Hawk Block 20 aircraft, equipped with the BACN payload 
are truly game changers and have been credited with saving lives in 
Afghanistan. Global Hawk BACN functionality reduces Command and Control 
issues associated with incompatible communications systems, adverse 
terrain, and distance. This payload extends communications ``reach'' 
for systems like Link 16 and Situation Awareness Data Link (SADL) and 
has special utility as an Army ground force voice and data relay. This 
system reduces the kill chain timeline by 20 percent which enables a 40 
percent increase in kinetic effects against insurgents.
    The Block 30 Global Hawk is exceeding the performance of the Block 
10. We pressed the Block 30 into service sooner than anticipated due to 
urgent needs in Japan and Libya. Consequently, we are working through 
reliability issues discovered during Global Hawk test and development 
and are seeing the system prove itself in real world operations. During 
March 2011 alone, Block 10/20/30 Global Hawks flew 119 missions, 
logging 2,134.5 flight hours.

    127. Senator Wicker. Secretary Donley and General Schwartz, what is 
your assessment of how we can further enhance the capabilities of the 
Global Hawk in support of our warfighters at sea or on the ground?
    Secretary Donley and General Schwartz. Over the FYDP, we will field 
six CAPs of multi-Intelligence (INT) Block 30 aircraft, three of which 
are just beginning operations in CENTCOM, European Command/Africa 
Command, and PACOM. These six CAPs represent our objective force 
structure to fulfill the Nation's requirement for high-altitude ISR.
    Beginning in 2013, we will field the newest version of the Global 
Hawk, the Block 40. It will carry the Multi-Platform Radar Technical 
Insertion Program radar and provide a multi-mission capability to the 
Battle Management Command and Control infrastructure as well as the ISR 
community. The radar will provide GMTI and high-resolution SAR imagery 
simultaneously as part of our baseline capability. As funding becomes 
available, the radar will be upgraded to detect maritime and airborne 
targets and provide some classified capability similar to that provided 
by other state-of-the-art airborne radars.
    Our current budget plans include key enhancements necessary to 
achieve the optimum performance from both the Block 30 and Block 40 
assets. The first is our Ground Station Rearchitecture where we will 
replace the 13-year-old ground station technology and, at the same 
time, modernize the architecture to make it adaptable to emerging needs 
and, very important, make it compatible with the Navy's MQ-4C Broad 
Area Maritime Surveillance (BAMS) System. The second is our 
Communications System Rearchitecture project. This will enable the full 
use of all our Block 30 sensors simultaneously and make us compatible 
with the Wideband Global Satellite system for worldwide connectivity.
    Perhaps the greatest enhancement for the warfighter is the work we 
are doing with our Navy partner in achieving as much technical and 
operational synergy as possible between the RQ-4 and MQ-4C programs. We 
are working towards a common command and control ``core'' for our 
ground systems, enabling us to control each others' aircraft. We also 
plan to achieve commonality and cost savings in our communications 
systems. Finally, we have plans for Joint Global Hawk/BAMS basing, 
joint aircraft and maintenance training, and, if possible, a joint 
aircraft maintenance facility. Our success will pave the way for 
greater cooperation in mission operations for the benefit of the 
warfighter.

                         VERTICAL LIFT SUPPORT

    128. Senator Wicker. Secretary Donley and General Schwartz, I 
ardently believe that competition always provides best-value to the 
warfighter and the American taxpayers. What do you believe are key 
criteria in determining whether a program should be sole-sourced or 
competitively-bid?
    Secretary Donley and General Schwartz. The Federal Acquisition 
Regulation (FAR) Subpart 6 prescribes policies and procedures to be 
used to promote full and open competition. 10 U.S.C. 2304 and 41 U.S.C. 
253 require, with certain limited exceptions, that contracting officers 
shall promote and provide for full and open competition in soliciting 
offers and awarding Government contracts. Listed at FAR 6.302 are 
exceptions permitting other than full and open competitions:

     i.  Only one responsible source and no other supplies or services 
will satisfy agency requirements.
     ii.  Unusual and compelling urgency.
    iii.  Industrial mobilization; engineering, developmental or 
research capability; or expert services.
     iv.  International agreements.
     v.  Authorized or required by statute.
     vi.  National Security.
    vii.  Public Interest.

    Policies and procedures for contracting without full and open 
competition are prescribed in FAR Subpart 6 and Defense Federal 
Acquisition Regulation Supplement (DFARS) Subpart 206. In accordance 
with FAR Subpart 6, if any of the above listed exceptions to 
competition apply, the contracting officer shall not commence 
negotiations or award a sole source contract unless the contracting 
officer----
    Justifies the use of such actions in writing;

     i.  Certifies the accuracy and completeness of the justification;
     ii.  Obtains the appropriate level of approval for the proposed 
action--(levels are tied to dollar amounts and type exception).

    129. Senator Wicker. Secretary Donley and General Schwartz, please 
provide an update on the Air Force's acquisition plans for the Vertical 
Lift Support Platform helicopter.
    Secretary Donley and General Schwartz. The Air Force plans to 
conduct a full and open competition for the Common Vertical Lift 
Support Platform program and award a contract to initiate procurement 
in fiscal year 2012. We intend to purchase a Non-Developmental Item/
Off-The-Shelf aircraft that will allow us to meet the warfighter 
requirement for an initial operational capability in fiscal year 2015.

    130. Senator Wicker. Secretary Donley and General Schwartz, will 
the program be competitively bid?
    Secretary Donley and General Schwartz. Yes. The Air Force will 
conduct a source selection for the Common Vertical Lift Support 
Platform program based on a full and open competition.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                    PROPOSED REDUCTION TO B-1 FLEET

    131. Senator Cornyn. General Schwartz, in a recent speech, 
Secretary Gates stated, ``The fact that we are a nation at war . . . 
calls for sustaining the current military force structure.'' The Air 
Force currently has a fleet of 66 B-1s, many of which are based in 
Texas at Dyess AFB. The fiscal year 2012 budget proposes to cut 6 B-1s 
from the fleet's 37 primary mission assigned aircraft--a 16 percent 
reduction in a fleet of combat aircraft that are heavily used in 
Afghanistan. In your view, how are the proposed cuts to the B-1 bomber 
fleet in the fiscal year 2012 budget consistent with Secretary Gates' 
message on the need to sustain the current military force structure 
during a time of war?
    General Schwartz. Secretary Gates' message to sustain force 
structure was accompanied by a similar call for ``maintaining modest 
but real growth in the defense top-line over the long term.'' \1\ In 
the same speech, Secretary Gates also acknowledged the Nation's current 
fiscal situation makes answering this call untenable as the Defense 
budget cannot be exempted from the scrutiny and pressure faced by the 
rest of our government. Furthermore, in line with the 2010 Quadrennial 
Defense Review, we must rebalance current capabilities to prevail in 
today's wars while building the capabilities needed to deal with future 
threats.\2\
---------------------------------------------------------------------------
    \1\ Secretary of Defense Statement on Department Budget and 
Efficiencies, 6 Jan. 2011.
    \2\ 2010 QDR, p. iii.
---------------------------------------------------------------------------
    The Air Force conducted a comprehensive review of current bomber 
force structure, existing capabilities, and future power projection 
requirements in determining the risk associated with a B-1 fleet 
reduction.
    The results of high-fidelity modeling and simulation analysis 
conducted by Air Force Studies and Analysis indicated a reduction of 
six B-1 primary aircraft authorizations involves an acceptable level of 
risk against OSD-approved warfighting scenarios designed to assess 
capacity and force sufficiency to achieve campaign objectives within 
the specified time period.
    The Air Force conducted comparative analysis between B-1, B-2, and 
B-52 current and historical fleet mission capable rates, as well as 
model driven variable cost per flying hour data using the Air Force 
Cost Analysis Agency's 2010 Air Force Cost and Performance tables, in 
order to support measured force structure adjustments. The B-1 in 
particular faces several grounding concerns due to a thin industrial 
base and avionics sustainment issues. In light of these facts, the Air 
Force determined a reduction of six B-1s is a prudent course of action 
to address these critical issues, thereby increasing the pool of 
equipment spares and freeing funds to source critical sustainment and 
capability modifications. The Air Force expects to achieve an increase 
in aircraft availability in the near-term as a result of these 
retirements, while bridging the gap to the future long-range strike 
bomber.

    132. Senator Cornyn. General Schwartz, what are your plans to 
replace the operational capability that would be lost through the 
proposed retirement of these six primary mission aircraft?
    General Schwartz. The results of tactical and campaign level 
analysis conducted by Air Force Studies and Analysis indicated a 
reduction of six B-1 primary aircraft authorizations can be taken with 
limited risk against currently approved OSD Analytic Agenda scenarios. 
Analysis focused on both mid-term (2016) and long-range (2024) 
scenarios that resulted in the optimum force structure composition 
based on the prevailing strategy and the force planning construct. Cost 
per flying hour and mission capable rate analyses further supported a 
modest B-1 reduction as a wise reinvestment strategy geared toward 
increasing the pool of equipment spares and freeing up funds to source 
critical sustainment and capability modifications. The Air Force 
expects to achieve an increase in aircraft availability in the near-
term as a result of these retirements, and money saved will be used, in 
part, to continue to fund fleet modernization programs including fully 
integrated data link, vertical situation display, and central 
integrated test system upgrades, providing a capabilities-based bridge 
to the long-range strike bomber (LRS-B).

    133. Senator Cornyn. General Schwartz, exactly how much of the 
savings obtained from this cut will be reinvested in sustaining and 
improving the current B-1 fleet, to include enhancements to a new radar 
system?
    General Schwartz. The retirement of six B-1s will provide a total 
fiscal year 2012 savings of $61.9 million in procurement and 
sustainment funding. Of these savings, the Air Force will reinvest 
$32.9 million in fiscal year 2012 into critical B-1 sustainment and 
modernization programs to ensure the health of the remaining fleet.
    These programs include procurement and installation of Vertical 
Situation Display Upgrade and Central Integrated Test System 
sustainment efforts, Fully Integrated Data Link capability upgrade, and 
procurement of critical initial spares for these modifications. The 
ongoing Radar Maintainability and Improvement Program replaces two 
unsupportable Line Replaceable Units within the current radar system.
    The Air Force is assessing the remaining components of the B-1 
radar, with consideration to both supportability and performance. The 
Department applied the remainder of the savings from the B-1 reduction 
to other Air Force and DOD priorities to include continuing to 
strengthen the nuclear enterprise and investing in building 
partnerships.

    134. Senator Cornyn. General Schwartz, the B-1 has proven to be a 
critical component of our long-range strike operations overseas, and as 
I understand it, has been called upon to maintain a constant presence 
in the skies over Afghanistan. Air Force officials have testified that 
the B-1 has employed nearly 40 percent of all munitions in OEF, and 
senior U.S. military leaders have consistently acknowledged that the B-
1 fleet is doing an outstanding job. General Petraeus has called the B-
1 a great platform and a very capable bomber. How did you determine, 
and what analysis supports, the decision that six B-1 aircraft are 
extraneous to the current warfighting requirement?
    General Schwartz. While it is true that the B-1 is doing an 
outstanding job in the current fight, the fleet in general faces 
several grounding concerns due to a thin industrial base and avionics 
sustainment issues. In light of these facts, the Air Force determined a 
reduction of six B-1s is a prudent course of action to address these 
critical issues, thereby increasing the pool of equipment spares and 
freeing up funds to source critical sustainment and capability 
modifications. The Air Force expects to achieve an increase in aircraft 
availability in the near-term as a result of these retirements, while 
bridging the gap to the future long-range strike bomber.
    The Air Force conducted a comprehensive review of current bomber 
force structure, existing capabilities, and future power projection 
requirements in determining the risk associated with a B-1 fleet 
reduction.
    The results of high-fidelity modeling and simulation analysis 
conducted by Air Force Studies and Analysis indicated a reduction of 
six B-1 primary aircraft authorizations involves an acceptable level of 
risk against OSD-approved warfighting scenarios designed to assess 
capacity and force sufficiency to achieve campaign objectives within 
the specified time period.
    Additionally, the Air Force conducted comparative analysis between 
B-1, B-2, and B-52 current and historical fleet mission capable rates, 
as well as model driven variable cost per flying hour data using the 
Air Force Cost Analysis Agency's 2010 Air Force Cost and Performance 
tables, in order to support measured force structure adjustments.

    135. Senator Cornyn. General Schwartz, how will the proposed cuts 
to the B-1 fleet impact B-1 operations in Afghanistan in the years to 
come?
    General Schwartz. The proposed retirement of six B-1s will not 
impact ongoing theater operations. The Air Force expects to achieve an 
increase in aircraft availability in the near-term as a result of these 
retirements due to increased equipment spares availability, while 
freeing funds for critical sustainment and modernization efforts to 
bridge the gap to the future long-range strike bomber.

    136. Senator Cornyn. General Schwartz, in your testimony you were 
asked by Senator Chambliss about the type of aircraft that would be 
used to enforce a no-fly zone over Libya. You stated, ``and you would 
have, undoubtedly, some bomber aircraft that would give you long dwell 
over specified target areas.'' Considering the extensive role of the B-
1 in Afghanistan and the potential that it could be used in future 
operations in Libya, is it prudent to consider any cuts to the B-1 
fleet at this time?
    General Schwartz. Recent aircraft availability statistics, near-
term estimates indicating a declining trend in aircraft availability, a 
thin industrial base, and avionics sustainment issues support the Air 
Force's decision to commence a modest reduction in bomber force 
structure.
    The Air Force conducted a comprehensive review of current bomber 
force structure, existing capabilities, and future power projection 
requirements in determining the risk associated with a B-1 fleet 
reduction.
    The results of high-fidelity modeling and simulation analysis 
conducted by Air Force Studies and Analysis indicated a reduction of 
six B-1 primary aircraft authorizations involves an acceptable level of 
risk against OSD-approved warfighting scenarios designed to assess 
capacity and force sufficiency to achieve campaign objectives within 
the specified time period.
    The Air Force conducted comparative analysis between B-1, B-2, and 
B-52 current and historical fleet mission capable rates, as well as 
model driven variable cost per flying hour data using the Air Force 
Cost Analysis Agency's 2010 Air Force Cost and Performance tables, in 
order to support measured force structure adjustments. The B-1 in 
particular faces several grounding concerns due to a thin industrial 
base and avionics sustainment issues. In light of these facts, the Air 
Force determined a reduction of six B-1s is a prudent course of action 
to address these critical issues, thereby increasing the pool of 
equipment spares and freeing funds to source critical sustainment and 
capability modifications. The Air Force expects to achieve an increase 
in aircraft availability in the near-term as a result of these 
retirements, while bridging the gap to the future long-range strike 
bomber.

                           LONG-RANGE STRIKE

    137. Senator Cornyn. Secretary Donley, the fiscal year 2012 DOD 
budget request includes $197 million in Air Force research, 
development, test, and evaluation (RDT&E) funding to begin development 
of a new long-range bomber that we are told would be penetrating, carry 
precision-guided conventional weapons, and be nuclear-capable. In your 
testimony, you state that, ``investing in a new penetrating bomber is 
critical to maintaining our long-range strike capability in the face of 
increasing risk associated with anti-access and area-denied 
environments.'' In your opinion, given that the Air Force only has 96 
combat-coded bombers, would it be premature to retire any bomber 
aircraft before it is reasonably certain that a new long-range strike 
bomber will be fielded in the near future?
    Secretary Donley. The Air Force remains committed to the Core 
Functions of nuclear deterrence operations and global precision attack 
and will continue to evaluate the legacy bomber fleet in concert with 
the entire Combat Air Forces fleets. This will ensure the proper mix of 
assets are available to provide the capacity and capability required to 
support our National interests as we bridge the gap to the future long-
range strike bomber.
    The Air Force conducted a comprehensive review of current bomber 
force structure, existing capabilities, and future power projection 
requirements in determining the risk associated with a B-1 fleet 
reduction.
    The results of high-fidelity modeling and simulation analysis 
conducted by Air Force Studies and Analysis indicated a reduction of 
six B-1 primary aircraft authorizations involves an acceptable level of 
risk against OSD-approved warfighting scenarios designed to assess 
capacity and force sufficiency to achieve campaign objectives within 
the specified time period.
    The Air Force conducted comparative analysis between B-1, B-2, and 
B-52 current and historical fleet mission capable rates, as well as 
model driven variable cost per flying hour data using the Air Force 
Cost Analysis Agency's 2010 Air Force Cost and Performance tables, in 
order to support measured force structure adjustments. The B-1 in 
particular faces several grounding concerns due to a thin industrial 
base and avionics sustainment issues. In light of these facts, the Air 
Force determined a reduction of six B-1s is a prudent course of action 
to address these critical issues, thereby increasing the pool of 
equipment spares and freeing funds to source critical sustainment and 
capability modifications. The Air Force expects to achieve an increase 
in aircraft availability in the near-term as a result of these 
retirements, while bridging the gap to the future long-range strike 
bomber.

    138. Senator Cornyn. Secretary Donley, according to a Defense News 
article on February 16, 2011, Major General David Scott, Director of 
Operational Capability Requirements for the Air Force, told the defense 
industry that if the long-range strike family of systems is, ``not 
affordable, we're not going to buy it, and it's going to just fall by 
the wayside like it has at a different time 2 years ago.'' What steps 
are you taking to ensure that the new long-range bomber does not fall 
by the wayside like the Air Force's next-generation bomber program that 
was deferred in fiscal year 2010?
    Secretary Donley. The new long-range strike bomber program is very 
much focused on affordability, constraining requirements, and lowering 
technological risk. The program will use a streamlined management and 
acquisition approach to balance capability with affordability. The new 
bomber will use existing, mature technologies and leverage systems and 
subsystems from other programs to the maximum extent possible. 
Additionally, the Air Force will limit requirements based on 
affordability using realistic cost targets to inform capability and 
cost trade-offs.

    139. Senator Cornyn. Secretary Donley, in January, you told 
reporters that while the new bomber would be able to carry nuclear 
weapons, it would not be immediately certified for nuclear weapons. Why 
will the new bomber not be certified at the outset to carry nuclear 
weapons?
    Secretary Donley. The Secretary of Defense directed that the new 
bomber be nuclear capable. The new long-range strike bomber will be 
designed from the outset to be survivable in a nuclear environment and 
capable of employing nuclear weapons. This includes compliance with 
Nuclear Weapons System Safety Rules, Nuclear Surety Directives, and 
applicable Military Standards during the engineering, manufacture, and 
design stages. Additionally, we will continue to sustain and maintain 
the existing bomber fleet. Given the timeline we envision for fielding 
the new long-range strike bomber, we have sufficient legacy capacity 
and capability to meet the Nation's nuclear requirements. Nuclear 
certification is a stringent process with strict requirements, 
requiring additional rigorous testing beyond what is normally necessary 
for conventional strike aircraft. To preserve our focus on 
affordability and fielding capabilities when they are necessary, we 
will work with the combatant commanders to ensure that the new long-
range strike bomber will be ready for the nuclear mission when they 
require such a capacity.
    This approach allows future leaders to tailor the bomber force to 
meet both conventional and nuclear requirements within the constructs 
of national policy, emerging threats, and treaty compliance.

    140. Senator Cornyn. Secretary Donley, what plans, if any, are 
being made to enable the B-2 to be certified to deliver a nuclear air-
launched cruise missile?
    Secretary Donley. Strengthening the nuclear enterprise remains the 
top priority of the U.S. Air Force. The Air Launched Cruise Missile is 
a critical part of that enterprise. We are committed to retaining this 
capability through the Long-Range Standoff Weapon (LRSO). The LRSO 
Analysis of Alternatives, scheduled to begin in August 2011, will look 
at alternatives that are suitable for internal carriage on the B-2, B-
52, and the new long-range strike bomber.

                         AIR-SEA BATTLE CONCEPT

    141. Senator Cornyn. General Schwartz, the 2010 Quadrennial Defense 
Review (QDR) directs the development of a joint ASB concept between the 
Navy and the Air Force. Secretary Gates, in his recent speech at the 
U.S. Air Force Academy, said this new doctrine recognizes ``the 
enormous potential in developing new joint warfighting capabilities--
think of naval forces in airfield defense, or stealth bombers augmented 
by Navy submarines--and the clear benefits from this more efficient use 
of taxpayer dollars.'' What is the current status of the development 
and implementation of the ASB concept?
    General Schwartz. The ASB Concept was approved and signed by the 
Chief of Naval Operations (CNO), Chief of Staff of the Air Force 
(CSAF), and the Commandant of the Marine Corps. Further, on June 2, 
2011, the Secretaries of the Air Force and Navy approved the concept 
and annexes and forwarded them to the Secretary of Defense. The 
approved annexes are: the Concept Initiative Categories annex; the 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel and Facilities Initiative Actions/Near-Term annex; the 
Initiative Actions/Mid- and Far-Term annex; and the Initiative Actions/
Spreadsheet. These annexes describe in detail the initiatives which 
allow air and naval forces to achieve ASB objectives, including the 
timing and relationships between all the actions identified. These 
documents will allow the ASB office, when activated, to lead the 
implementation of ASB throughout the Air Force, Navy, and Marine Corps.
    The ASB office, to be established by a multi-service Memorandum of 
Understanding and manned by elements of each Service, will advocate, 
facilitate, monitor, and assess the integrated implementation of the 
ASB concept and initiatives, while further developing the concept. In 
the ``facilitate, monitor, and assess'' roles, the ASB office will 
coordinate and synchronize force development activities throughout the 
Services and report progress back to the Headquarters. To ``further 
develop'' the concept, the ASB office will ensure Services provide 
combatant commanders with forces capable of addressing current and 
emerging A2/AD challenges.

    142. Senator Cornyn. General Schwartz, to what extent has the ASB 
concept already influenced the investment decisions reflected in the 
Air Force's fiscal year 2012 budget request and the latest FYDP, and to 
what extent will it guide investment decisions in the future?
    General Schwartz. The Air Force and the Navy are in the final 
stages of solidifying the ASB concept document that outlines the 
actions and capabilities that further integrate our air and naval 
forces to preserve and bolster our Nation's freedom of action in the 
air, maritime, space, and cyberspace domains. While the concept was 
still being fully developed during the fiscal year 2012 budget build, 
the Air Force budget request includes funding for a broad range of 
programs that support the concept and provide significant capabilities 
in the ASB arena.
    For example, this budget request includes $197 million in fiscal 
year 2012 for developing the Air Force's Long-Range Penetrating Bomber 
to provide enhanced capabilities to counter long-range integrated air 
defense systems. The Air Force budget request also includes an 
enhancement to the active Electronically Scanned Array radar 
improvement program that accelerates the procurement of these advanced 
radars on F-15C and F-15E aircraft by adding $240.9 million/FYDP. In an 
effort to move toward a shared organization and investment vision for a 
Distributed Common Ground System with the Navy, the Air Force requests 
$15 million in fiscal year 2012 for new critical ISR Tasking, 
Processing, Exploitation, and Dissemination capabilities. In supporting 
these and a multitude of other ASB initiatives, the Air Force seeks to 
enhance key mission areas while maintaining a broad range of agile and 
flexible capabilities to address emergent challenges posed by anti-air 
capabilities.
    ASB is informed by the fiscal constraints facing both the Federal 
Government in general and the DOD. ASB uses a portfolio of U.S. forces 
and enablers, organized across domains by mission. In fiscal year 2012, 
the Air Force invested significant resources within critical ASB 
mission areas to address evolving threats to access. Efficiency is a 
goal of the concept in that it will improve warfighter effectiveness 
and put in place the institutional foundations necessary to sustain the 
development of integrated air and naval forces. The concept will be one 
of many factors guiding the Air Force's investment decisions in fiscal 
year 2013 and beyond.

                            F-35 ACQUISITION

    143. Senator Cornyn. Secretary Donley, you note in your testimony 
that the multi-role F-35A is the centerpiece of the Air Force's future 
precision attack capability and will complement the F-22's world-class 
air superiority capabilities. The fiscal year 2012 budget request 
includes a major restructuring of the F-35 program that cuts 
procurement of the F-35 by 124 aircraft over the FYDP. Fifty-seven of 
the 124 aircraft to be cut are the Air Force variant, even though DOD 
has said that the F-35A is performing satisfactorily. Please provide an 
update on this critical program and its importance to the future of the 
Air Force.
    Secretary Donley. The F-35 remains the cornerstone of our future 
tactical aircraft (TACAIR) fleet and continues to perform 
satisfactorily. In the first quarter of 2011, the F-35A test fleet 
completed 82 test flights compared to the plan of 62 flights (the total 
program (F-35A/B/C) numbers for the quarter were 199 test flights 
compared to a plan of 142 test flights). The first two production 
aircraft (AF-6/7) flew seven acceptance flights in preparation for 
delivery to the Air Force at Edwards Air Force Base in April 2011.
    The Air Force has been and will continue to provide detailed 
program metrics to committee staff members on a monthly basis.

    144. Senator Cornyn. Secretary Donley, please comment on the 
immediate and near-term per unit cost impact for the Air Force as a 
result of this decision.
    Secretary Donley. The OSD CAPE is analyzing the detailed per unit 
cost impacts of the reduction of 124 aircraft throughout the FYDP in 
order to support the Milestone B Defense Acquisition Board, currently 
scheduled for no earlier than October 2011. We will have better 
definition of the immediate and near-term per unit cost impact 
associated with the reduction when OSD CAPE completes its analysis.

    145. Senator Cornyn. General Schwartz, on January 11, the new 
Chinese fifth-generation fighter, the Chengdu J-20, conducted a test 
flight. Analysts say the J-20, like our F-22, would be able to cruise 
at supersonic speeds at very high altitudes. Other reports indicate it 
would be able to carry more weapons, including air-to-air missiles with 
longer ranges than their U.S. counterparts; anti-ship and anti-surface 
weapons; and potentially weapons to destroy U.S. satellites. It is 
expected that the Chinese fighter will enter service in 5 to 7 years, 
when our F-22 Raptor is more than 15 years old. In light of these 
recent revelations and the potential threat environment, it seems to me 
we should be buying fifth-generation fighters such as the F-35 in 
greater, not fewer, numbers. Do you believe cutting the purchase of 57 
F-35As, and a total 124 F-35s, from the FYDP can be justified, given 
this potential threat?
    General Schwartz. Yes, cutting the purchase of 57 F-35As, and a 
total of 124 F-35s, from the FYDP is justified. DOD and the Air Force 
continually assess potential threats and the reduction in the number of 
fifth generation fighters across the FYDP does not significantly add 
risk to the Air Force's ability to meet national security objectives. 
Procurement of F-35 aircraft was reduced in order to place the program 
on more secure footing and cut concurrency risks. Reducing the 
procurement ramp provides appropriate time to develop and test the full 
warfighting capability of the F-35.

    146. Senator Cornyn. General Schwartz, in a recent speech at the 
U.S. Air Force Academy, Secretary Gates said, ``I believe that air 
supremacy--in all its components--will be indispensable to maintaining 
American military strength, deterrence, and global reach for decades to 
come.'' He went on to say, ``the F-22 is far and away the best air-to-
air fighter ever produced, and it will ensure U.S. command of the skies 
for the next generation.'' In your opinion, do the recent revelations 
regarding the Chinese J-20 indicate that the decision to cancel the F-
22 program may have been premature and based on flawed or incomplete 
intelligence?
    General Schwartz. The timeline for design and flight testing of the 
J-20 was ahead of intelligence estimates. However, analysis of future 
scenarios nonetheless incorporated possession of fifth generation 
capabilities by other nations. The size of the F-22 fleet is currently 
estimated as capable of supporting expected conflicts. As aircraft such 
as the J-20 come online, continued support of F-22 modernization to 
provide required capabilities versus the demonstrated rapidly evolving 
threat is key to gaining Air Superiority through the complementary 
capabilities of the F-22 and F-35.

                   BUDGET REQUEST FOR MUSEUM FUNDING

    147. Senator Cornyn. Secretary Donley, the Air Force's fiscal year 
2012 DOD budget request includes $14 million to fund preparation and 
delivery of a retired space shuttle at the National Museum of the U.S. 
Air Force (NMUSAF). At a time when Secretary Gates has promised to 
eliminate excess programs and reduce unnecessary expenditures, I am 
disappointed that the Air Force considers this project a priority, 
especially when NASA Administrator Bolden has not yet made a decision 
on the geographic allocation of retired NASA shuttles. Did you consult 
with NASA prior to making this request?
    Secretary Donley. No, the Air Force did not consult with NASA prior 
to making the request for funds; however, the Air Force was acting 
pursuant to NASA guidance. NASA issued a Request for Information to the 
public in January 2010 in which it required potential recipient 
organizations to demonstrate the capability to bear a $28.8 million 
cost to complete display preparation for an orbiter and ferry the 
orbiter to its ultimate display location. NASA plans to retire the 
orbiters beginning in fiscal year 2011 and deliver them and other 
equipment to recipients by the end of fiscal year 2012.
    Per the DOD budget process, any substantial known requirement must 
be included in the President's budget to prevent an unplanned execution 
year bill. Therefore, the Air Force incorporated the retired shuttle 
project in its fiscal year 2012 budget request.
    Ultimately, NASA did not select the NMUSAF as a site for one of the 
retired orbiters and, thus, the $14 million is no longer required. 
However, NASA did select NMUSAF to receive a crew training module and 
other smaller artifacts. The NMUSAF is developing, designing and 
implementing exhibits and Science, Technology, Education, and Math 
(STEM)-related activities as part of an Air Force/NASA partnership. 
Display of these artifacts will further educate the American and 
international public of our achievements in space. The Air Force will 
need as much as $2 million to transport NASA artifacts to the NMUSAF, 
and to purchase exhibit materials and interactive educational 
(especially STEM) displays.
    Space-associated artifacts provide learning opportunities for the 
history of the Air Force's involvement in space programs. NMUSAF 
artifacts and collections inform Air Force personnel and encourage and 
maintain the American public's support for its Air Force. NMUSAF 
provides unique STEM-related educational opportunities and important 
lessons for our servicemen and servicewomen, their families, and the 
general public. The museum is one of the most accessible parts of our 
military establishment and is a popular link between the public and 
military history.

    148. Senator Cornyn. Secretary Donley, how can you justify 
subsidizing this unnecessary museum project at a time when the Federal 
Government is racking up record deficits and when private funding is 
available?
    Secretary Donley. The Air Force is responsible to resource the 
interagency transfer of excess property it obtains from other Federal 
agencies. Per the DOD budget process, any substantial known requirement 
must be included in the President's budget to prevent an unplanned 
execution year bill. Therefore, the Air Force incorporated the retired 
orbiter project in its fiscal year 2012 budget request.
    Private funds were not available for obtaining a retired orbiter. 
The Air Force Museum Foundation, a private organization with IRS 
501(c)(3) status, is primarily chartered to provide for major 
construction needs for NMUSAF; however, its mission does not include 
funding for operations and maintenance functions.

                       T-38 REPLACEMENT AIRCRAFT

    149. Senator Cornyn. Secretary Donley, the average T-38 aircraft is 
over 40 years old. It is my understanding that the Chief of Air 
Education and Training is currently conducting an analysis to determine 
the way ahead for a T-38 replacement aircraft. One solution would be to 
embark on a joint effort to develop a T-38 replacement with a partner 
nation such as India, where a partnership already exists for the U.S. 
military to train Indian aviators. Benefits of a joint development 
effort would include a second stream of investment in the T-38 
replacement, reduction of costs for the Air Force, and strengthening of 
ties with a very important partner nation. Has the Air Force considered 
an effort with a partner nation to develop and deliver a replacement 
for the T-38?
    Secretary Donley. OSD is reviewing the sufficiency of the Analysis 
of Alternatives for the Advanced Pilot Trainer aircraft, which will 
replace the T-38. Once the analysis is complete and a Request for 
Information is sent out to the aviation industry, the Air Force can 
pursue an acquisition strategy that best fits the requirement for the 
replacement trainer.
    The Air Force has not pursued an effort to partner with another 
nation to develop a replacement for the T-38. Formalizing an 
arrangement with a partner nation, determining common requirements, and 
developing a suitable aircraft would take far longer than acquiring a 
currently available platform. A nondevelopmental aircraft offers the 
best opportunity to meet the Air Force's desired schedule.

    150. Senator Cornyn. Secretary Donley, what are the advantages and 
disadvantages of partnering with a nation such as India on the 
development and fielding of a non-combat aircraft such as the T-38?
    Secretary Donley. In general, non-combat aircraft procurement 
involves a commercially available platform that is tailored to meet 
military requirements, and as a result there is not an opportunity for 
joint development. If we were going to develop a new platform, 
potential benefits of a joint development effort include additional 
investment funds, reduction of costs for the Air Force, and 
strengthened ties with allied nations. The potential disadvantages 
include lengthened schedule time, challenge of achieving consensus on 
requirements, potential for one partner's requirements to drive costs, 
and time to develop necessary agreements.
    With respect to India, per its January 2011 Defense Production 
Policy, India prefers indigenous design, development, and manufacture 
of defense equipment, unless Indian industry is unable to make or 
procure the items from indigenous sources. India is developing the 
Indigenous Jet Trainer, HJT-36, which is expected to be operational 
later this year. The BAE Hawk Mk 132 currently serves as the Indian Air 
Force's advanced jet trainer. It entered service in 2010.

    [Whereupon, at 12:04 p.m., the committee adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
